<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-631]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-631

                                                   Senate Hearings

                             Before the Committee on Appropriations
______________________________________________________________________


                          Department of the Interior,

                                    Environment, and

                                    Related Agencies

                                    Appropriations
                                    

                                          Fiscal Year 2015


                              113th CONGRESS, SECOND SESSION


                                                             
                                                    H.R. 5171



DEPARTMENT OF AGRICULTURE

DEPARTMENT OF THE INTERIOR

ENVIRONMENTAL PROTECTION AGENCY

NONDEPARTMENTAL WITNESSES


     Department of the Interior, Environment, and Related Agencies 
                    Appropriations, 2015 (H.R. 5171)
                    


                                                        S. Hrg. 113-631

     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2015

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   on

                               H.R. 5171

   AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF THE INTERIOR, 
ENVIRONMENT, AND RELATED AGENCIES FOR THE FISCAL YEAR ENDING SEPTEMBER 
                    30, 2015, AND FOR OTHER PURPOSES

                               __________

                       Department of Agriculture
                       Department of the Interior
                    Environmental Protection Agency
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations


   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations
        
        
 
                     U.S. GOVERNMENT PUBLISHING OFFICE 

87-250 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       

                               __________

  
                      COMMITTEE ON APPROPRIATIONS

                BARBARA A. MIKULSKI, Maryland, Chairwoman
PATRICK J. LEAHY, Vermont            RICHARD C. SHELBY, Alabama, Vice 
TOM HARKIN, Iowa                         Chairman
PATTY MURRAY, Washington             THAD COCHRAN, Mississippi
DIANNE FEINSTEIN, California         MITCH McCONNELL, Kentucky
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          LISA MURKOWSKI, Alaska
JACK REED, Rhode Island              LINDSEY GRAHAM, South Carolina
MARK PRYOR, Arkansas                 MARK KIRK, Illinois
JON TESTER, Montana                  DANIEL COATS, Indiana
TOM UDALL, New Mexico                ROY BLUNT, Missouri
JEANNE SHAHEEN, New Hampshire        JERRY MORAN, Kansas
JEFF MERKLEY, Oregon                 JOHN HOEVEN, North Dakota
MARK BEGICH, Alaska                  MIKE JOHANNS, Nebraska
CHRISTOPHER A. COONS, Delaware       JOHN BOOZMAN, Arkansas
                   Charles E. Kieffer, Staff Director
             William D. Duhnke III, Minority Staff Director
                                 ------                                

 Subcommittee on Department of the Interior, Environment, and Related 
                                Agencies

                   JACK REED, Rhode Island, Chairman
DIANNE FEINSTEIN, California         LISA MURKOWSKI, Alaska, Ranking
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
TIM JOHNSON, South Dakota            LAMAR ALEXANDER, Tennessee
JON TESTER, Montana                  ROY BLUNT, Missouri
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
JEFF MERKLEY, Oregon                 MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska                  RICHARD C. SHELBY, Alabama (ex 
BARBARA A. MIKULSKI, Maryland            officio)
  (ex officio)
                           Professional Staff

                             Rachael Taylor
                              Ginny James
                               Ryan Hunt
                       Leif Fonnesbeck (Minority)
                         Brent Wiles (Minority)
                        Emy Lesofski (Minority)

                         Administrative Support

                              Teri Curtin
                              
                              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                       Wednesday, March 26, 2014

Department of the Interior: Office of the Secretary..............     1

                        Wednesday, April 9, 2014

Environmental Protection Agency..................................    83

                       Wednesday, April 30, 2014

Department of Agriculture: United States Forest Service..........   127

          Statements and Letters of Nondepartmental Witnesses

Nondepartmental Witnesses........................................   189

                              Back Matter

List of Witnesses, Communications, and Prepared Statements.......  (i) 
Subject Index....................................................  (v)

 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                       WEDNESDAY, MARCH 26, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:19 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Jack Reed (chairman) presiding.
    Present: Senators Reed, Feinstein, Leahy, Johnson, Tester, 
Udall, Merkley, Begich, Murkowski, Cochran, Alexander, Blunt, 
Hoeven, and Johanns.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. SALLY JEWELL, SECRETARY
ACCOMPANIED BY:
        HON. MIKE CONNOR, DEPUTY SECRETARY
        HON. RHEA SUH, ASSISTANT SECRETARY, POLICY, MANAGEMENT AND 
            BUDGET
        PAMELA K. HAZE, DEPUTY ASSISTANT SECRETARY, BUDGET, FINANCE, 
            PERFORMANCE AND ACQUISITION


                 opening statement of senator jack reed


    Senator Reed. Let me call the hearing to order. We will 
follow the early bird rule in recognizing my colleagues who are 
here, and we will have 6-minute rounds. And I want to welcome 
the Secretary and her colleagues.
    This is our first budget hearing of the year. It is a 
hearing to discuss the fiscal year 2015 budget of the 
Department of the Interior. I am very pleased to welcome 
Secretary Sally Jewell before the subcommittee this morning.
    Madam Secretary, we have a lot of ground to cover with your 
budget request, and we are looking forward to hearing you 
articulate your priorities for the Department.
    I would also like to recognize the Department's new Deputy 
Secretary, Mike Connor, who was unanimously confirmed by the 
Senate on February 27. Mr. Connor is a former commissioner of 
the Bureau of Reclamation. He is also an alumnus of the Senate 
Committee on Energy and Natural Resources. This is his first 
time testifying before the Interior subcommittee of the United 
States Senate in his new role.
    And welcome, Mr. Connor.
    Finally, I would like to recognize Ms. Rhea Suh, Assistant 
Secretary for Policy, Management and Budget; and Ms. Pam Haze, 
her deputy.
    We are happy to have you here before us, and we value the 
day-to-day work that we do with you and your terrific budget 
staff very much.
    Turning to the Department's budget request, the 
discretionary total funded by the subcommittee increases by 
about 1 percent over fiscal year 2014, for a total of $10.6 
billion. It is a relatively flat budget.
    Including the administration's new disaster cap proposal 
for firefighting, however, the total budget increases by almost 
4 percent for a total of $10.8 billion.
    I am hopeful that providing a new framework for 
firefighting funding will prevent the Department from running 
out of funds before the end of the fiscal year and having to 
borrow from other programs. I am also hopeful that it will 
prevent the subcommittee from being forced to make difficult 
cuts to other priorities to pay for emergency firefighting.
    It is worth noting that in fiscal year 2014, we provided 
$3.9 billion for firefighting, including $600 million to pay 
for fire expenses from the prior year. We acted similarly in 
the fiscal year 2013 continuing resolution, where we provided 
more than $400 million for the fire expenses from the previous 
year.
    Congress was forced to pay for these additional costs with 
our regular discretionary appropriations because we did not 
have access to disaster funding. This means that, in the last 2 
years, we have had to reallocate resources from other 
discretionary programs to pay for emergency firefighting 
activities.
    Paying for firefighting has meant less for water and sewer 
projects, Land and Water Conservation Fund programs, resource 
conservation, improvements to energy permitting, and all the 
other activities we fund through this bill.
    I am very pleased to see that the President has focused on 
this issue and has included a new budget framework to alleviate 
some of the difficulties we face.
    I understand that this proposal would designate a portion 
of the fire funding to be disaster-related and, therefore, fall 
under the budgetary spending cap for disaster.
    I am looking forward to hearing your testimony on how we 
can expect this new funding stream to work, Madam Secretary.
    I am looking forward to discussion on the legislative 
strategy necessary to make disaster funding available to this 
subcommittee.
    The budget also contains modest increases to fund fixed 
costs that Interior bureaus invest in science and research 
programs and fund tribal priorities. I am pleased that it 
provides $40 million in discretionary funding to fund 
improvements in programs for national parks, as we gear up for 
the Park Service's centennial in 2016.
    This amount includes a $10 million request to reinvigorate 
the Centennial Challenge grant program and leverage non-Federal 
investments to improve park facilities and visitor services.
    Finally, I am particularly pleased that your budget request 
contains a $51 million request to fund youth education and 
employment programs to fund efforts to, in your words, Madam 
Secretary, play, learn, serve, and work. I know this initiative 
is personally important to you, Madam Secretary, and I look 
forward to hearing more from you about it this morning.
    And before we get started, let me turn to my ranking 
member, Senator Murkowski, for her remarks.
    Senator Murkowski.


                  statement of senator lisa murkowski


    Senator Murkowski. Thank you, Mr. Chairman.
    Good morning, Madam Secretary.
    Good morning, and I, too, echo the chairman's comments in 
welcoming you to your new position, Mr. Connor. I know you have 
a lot of work to do there, and we appreciate that.
    Ms. Suh, Ms. Haze, also welcome to the committee.
    Fellow colleagues, I have asked the chairman for a bit of 
indulgence this morning in perhaps going a little bit longer in 
my opening statement than I otherwise would.
    I have had an opportunity to speak with the Secretary about 
an issue that is very close and very personal to me; to the 
people of King Cove, many of whom I know you have had a chance 
to visit with yesterday and who are here today; but truly, to 
the people of Alaska.
    And while I will direct most of my questions to the 
specifics within the budget, I wanted to take this opportunity 
as part of my opening statement to speak to an issue that has 
galvanized Alaskans, not just during this year with the recent 
decision made by the Secretary, but truly for the past several 
decades as the people of King Cove have sought an answer to 
their quest for a simple road to safety.
    Secretary, I will never forget the telephone conversation 
that you and I had on December 23 when I was sitting in the 
parking lot of the Fred Meyer store, waiting to go in and get 
gift wrap and other sundry things for the Christmas holidays. 
And you told me at that time that you were rejecting the 
lifesaving gravel access road to King Cove.
    I told you at that time and I have repeated, I cannot 
convey in words adequate to describe the frustration, the 
anger, the sadness with which I received that decision, how 
disheartened I knew the people of King Cove would be.
    And adding insult to injury, the fact that it was delivered 
the day before Christmas Eve, what should have been a joyous 
holiday time for the people of this small community, a break 
from the political rhetoric that goes on, it ruined the 
holidays for, certainly, the people of King Cove, certainly put 
a damper on all that I was doing, knowing how the people were 
going to bear the weight of this decision.
    I will never ever understand the timing of the decision, 
and I am still trying to reconcile the reasons behind your 
decision.
    I know, as I mentioned, the folks that are here from King 
Cove that have traveled over 4,000 miles to be here, to try to 
speak with you after many attempts and opportunities to discuss 
this issue. I am not certain that they feel any more convinced 
today than they have been about the prospects that they have as 
a people fighting for a small road up against an administration 
and a decision that seemingly makes no sense whatsoever.
    For my colleagues here, and those in the audience that may 
be unfamiliar with the history of this issue, with the Omnibus 
Public Land bill of 2009, we authorized the Interior Department 
to transfer over 60,000 acres of State and private land to the 
Izembek Refuge.
    And we did this in exchange for just over 200 acres. It was 
206 acres of Federal land. This is a 300 to 1 exchange. A 300 
to 1 exchange that had been negotiated with the folks from Fish 
and Wildlife, that had been negotiated with the native people 
of King Cove, with individuals from the State, with the 
delegation.
    It was a pretty remarkable exchange. And this was all done 
to provide the 965 residents of the King Cove community a safe 
and reliable access to the all-weather airport in Cold Bay, the 
second longest runway in the State of Alaska, built after World 
War II. And the exchange was not only extraordinarily lopsided, 
but what the people of King Cove agreed to was that they would 
not use this road for commercial purposes, because there were 
some who suggested that the processing facility there might 
want this road to make money. They agreed that it would be used 
for noncommercial use.
    So imagine, if you will, a 10-mile, one-lane, gravel, 
noncommercial-use road with barricades or cordons on either 
side, so that you cannot move off the road. Pretty specific 
road. That is it. It is not a major highway. We are not even 
going to pave it.
    King Cove is a community with a clinic, no hospital, no 
doctor. Residents have to fly from Cold Bay more than 600 miles 
to get to Anchorage where a hospital that can handle critical 
medical procedures exists.
    But the problem that we have in King Cove is that weather 
and very difficult geography doesn't allow for reliable access 
from the community of King Cove to Cold Bay, so that these 
flights are often canceled, weathered out, just don't happen.
    Since the decision was made December 23, there have been 
seven emergency medevacs out of King Cove, including four that 
have been performed by the Coast Guard.
    Just about a week and a half ago, there were two medevacs 
conducted in one day, a fisherman who had been crushed by a 
crab pot, crushed his pelvis and both legs. He was taken to the 
clinic there in King Cove, and while he was in the clinic, 
discovers that a 1-month-old infant who was there in 
respiratory distress and also needs to be medevaced out, that 
it is his son.
    So we have a father and a son in the clinic, waiting for 
evacuation. Through the grace of God and the bravery, the 
bravery, of the Coast Guard and the other responders, that dad 
and his baby are doing fine.
    The 63-year-old woman who was medevaced out by the Coast 
Guard on Valentine's Day, who was suffering heart conditions, 
is also doing fine.
    But as the Coast Guard will describe, and as the video 
describes, the conditions that the Coast Guard responded to 
were truly, truly life-threatening.
    Every Coast Guard flight risks the lives of at least four 
Coast Guard men and women, not to mention the patient that they 
are trying to evacuate.
    In the situation of the father and his young son, they had 
to wait hours. Sometimes folks have to wait days to receive 
these emergency medical evacuations.
    It is not without cost. It is not without risk. Each one of 
these Coast Guard evacuations costs a minimum of $210,000 to go 
from Cold Bay to King Cove.
    Those are taxpayer dollars. Those are Coast Guard men and 
women's lives at risk. And they take on the humanitarian issue 
and mission because that is who they are. But it is not the 
mission of the Coast Guard to provide for evacuation services 
to an airport for the residents of King Cove.
    There is a safe and easy way to help our fellow citizens. 
And the only thing that is standing in the way is our own 
Federal Government's decision to place a higher value on the 
birds than it does on the health and safety of my State's 
citizens. And that is simply wrong.
    Madam Secretary, your Department claims to honor the trust 
responsibility, and to improve the lives of our Alaskan 
natives, including the majority Aleut residents in King Cove. 
But the decision that you made in December flies in the face of 
this responsibility.
    The notion from your Department that you must protect 
Alaska from Alaska natives, our first people, is insulting. And 
that is the way that Alaskans feel. We feel insulted that we 
cannot care for the land and the animals and the birds, and 
still provide for a safe, reliable access.
    The people of King Cove have been living in this area for 
thousands of years. They rely on the birds. They rely on the 
wildlife. They have been stewards long before there was ever a 
refuge, long before there was ever a wilderness.
    When you announced your decision in December, you 
recognized the need for reliable methods of emergency transport 
from King Cove. You reaffirmed the Department's commitment to 
``assist in identifying and evaluating options that would 
improve access to affordable transportation and health care.''
    But, Madam Secretary, we have seen none of this. I did not 
hear any clear direction from you yesterday when we met. I 
asked Assistant Secretary Suh during your confirmation hearing 
last month whether you could name an action, any one single 
action, that you or anyone at Interior has taken to protect the 
health and safety of King Cove residents since the road was 
rejected in December. I have seen nothing.
    The passage of time on this issue has not lessened my 
passion to see justice for the people of King Cove.
    I will not get over this issue. I am also unwilling to 
allow your Department to do nothing to help the Alaskans that 
it has promised to assist who, at this point, I believe we are 
seeing only further imperiled. Seven medevacs since the first 
of January.
    I think my colleagues need to know, I think the 
administration needs to know, I think, Secretary Jewell, you 
know very clearly, I will do everything, everything in my power 
for as long as I am here, to enable the people of King Cove to 
receive proper emergency access that the rest of us take for 
granted.
    If you are not going to reverse the decision that you 
announced on December 23, I believe that the least you can do 
is reopen the record of decision in order to reconsider the 
issue, because you need to know that I will not stand by and 
watch as more Alaskan lives are put at risk, put at risk, 
potentially, to die. I will not let this issue die.
    When I spoke before the Alaska Legislature in February, I 
spoke with great passion about this issue. Alaskans are very 
passionate about this issue. And I said maybe I need to channel 
my inner Ted Stevens, and everybody laughed, because they knew 
what that meant.
    When Ted was really agitated, and really going to let 
nothing stand in his way, he would wear his Hulk tie. Today, I 
have a Hulk scarf on, and I don't typically engage in much 
drama. I am not a message person. I am a person who wants to 
get something done.
    But I need you to carry the message to this administration 
that this road is nonnegotiable, that the health and safety of 
the people of King Cove is nonnegotiable. And that I will do 
everything, everything within my power, to make sure that the 
needs of these people are taken care of and put first, put 
first, because that is my charge, to take care of the people of 
the State of Alaska, for whom I work.
    Madam Secretary, as we discussed yesterday, it is 
important. It is important for you, it is important for me, and 
is important for my State, that we are able to work on issues 
together.
    I am not an unreasonable woman, and I believe you want to 
do right as well, and you have an opportunity to demonstrate 
that. And I would hope, again, that you would look at the 
facts, you would listen to the people of King Cove, you would 
listen to Alaskans, and you would listen to your heart in doing 
the right thing.
    I look forward to discussing some of the issues within your 
budget during our questions. But it was too important for the 
people that I represent that I take this time this morning to 
make very clear for the record, for my colleagues, for you, and 
for the administration, that we are not done with this issue.
    With that, Mr. Chairman, I appreciate the time.
    Senator Reed. Thank you very much, Senator.
    Do any of my colleagues have very brief opening comments? 
Your statements will be made part of the record, by unanimous 
consent.
    If there are no opening statements, let me recognize 
Secretary Jewell.
    Madam Secretary.


                 summary statement of hon. sally jewell


    Secretary Jewell. Thank you very much, Mr. Chairman, 
Ranking Member Murkowski, and members of the subcommittee. I 
really appreciate you being here, and willingness to talk 
through the budget of the Department of the Interior, and for 
the effective way in which you represent your constituents from 
your various States.
    It has been a pleasure getting to know all of you in this 
almost 1 year that I have been in this position.
    For Senator Murkowski and Senator Begich, I do appreciate 
the commitment that you have to the citizens of the State of 
Alaska, and I understand your advocacy.
    I appreciated our meeting yesterday morning, Senator 
Murkowski, and Senator Begich, our meeting yesterday afternoon 
with the residents of King Cove. I, certainly, through the 300 
or so meetings and consultations that my Department has had on 
the King Cove issue continue to be a listener and look at the 
facts throughout this whole process.
    I appreciate the passion you have expressed, and I also 
appreciate the people who have traveled so many miles to be at 
this hearing today.
    I have with me, as you recognized, my newly minted Deputy 
Secretary. We appreciate your support for Mike in this 
position.
    One of the biggest issues that we face throughout the West 
is drought, severe drought. Mike is not only an expert in that, 
having been Commissioner of the Bureau of Reclamation, but many 
other topics as well.
    Rhea Suh, Assistant Secretary for Policy, Management and 
Budget, the Department's Chief Financial Officer, has done a 
terrific job these last 5 years in very complicated times for 
budgets, ably assisted by Deputy Assistant Secretary Pam Haze 
and the crew.
    I also want to recognize Rachael Taylor and Leif Fonnesbeck 
for your support of this committee and my team as we work 
together.
    It has been about a year since I met with you. It was an 
interesting year, 2013, with the sequestration and the 
shutdown. I want to express my sincere appreciation for a 
budget for 2014 that brings clarity and certainty to my 
teammates, even if the numbers are tight.
    Today, as we present our 2015 budget, I am going to share a 
few highlights and focus on areas of interest, I believe, to 
the subcommittee.
    First, from a big picture standpoint, it is a solid budget. 
It is responsible. It makes smart decisions in Interior's 
missions. It is within the budget caps agreed to by the 
Bipartisan Budget Act.


                             wildland fire


    In total, including this subcommittee's oversight and some 
others, the budget is $11.9 billion. As Senator Reed mentioned, 
it is an increase of $275 million, or 2.4 percent, from 2014, 
but of that, $240 million is for emergency fire suppression.
    It is a new and prudent budget framework to ensure adequate 
funding to suppress severe catastrophic fires. I was just at 
the National Interagency Fire Center with Senator Merkley, 
Senator Wyden, Senators Crapo and Risch, to talk about this 
program.
    What we are doing is proposing to change how fire 
suppression costs are budgeted to treat extreme fire seasons in 
the same way as other natural disasters. We believe it is 
prudent and logical to do that.
    What is in the President's budget is very similar to what 
has been proposed by Senators Wyden and Crapo and in companion 
legislation in the House to balance post-fire remediation, 
fuels removal, like hazardous fuels, and suppression on a year-
in, year-out basis, so we are not raiding these funds. It is 
modeled on the Federal Emergency Management Disaster Relief 
Program.
    There are no additions to the Federal Emergency Management 
Agency (FEMA) Disaster Relief program. It is all done within 
the disaster cap. We believe very strongly that it needs to go 
forward, and we will be working alongside you on the 
legislation to enable that.


                             indian affairs


    Next I want to say that presentation of a robust program 
for American Indians and Alaskan natives has been a key goal 
for me. This budget includes full funding for estimated 
contract support costs, something the tribes have said is 
critical to them, and enables them to operate their federally 
funded programs.
    It also includes $11.6 million for a new Tiwahe, or family-
based initiative, to address the interrelated problems of 
poverty, housing, violence, and substance abuse faced by Indian 
communities, as we have seen in a number of places across the 
country.
    This request is complemented by a proposal for education 
and economic development in Indian country as part of President 
Obama's Opportunity, Growth and Security Initiative.


                    land and water conservation fund


    Next I want to turn to the Land and Water Conservation 
Fund, as the President seeks to fulfill a historic commitment 
to America's natural and cultural heritage through full and 
permanent funding for the Land and Water Conservation Fund, as 
originally envisioned when this legislation was enacted 49 
years ago. It was generated to take revenues from offshore oil 
and gas production and mitigate those impacts through 
supporting things in every county across the country, like 
access for hunting and fishing, creating ball fields and other 
places for kids to play and learn, to acquire land to reduce 
fragmentation and facilitate efficient land management, to 
protect Civil War battlefields, and to put conservation 
easements in place to take care of important habitat for 
species, while keeping farms and ranches working.


                       national parks centennial


    As Chairman Reed mentioned, in 2016, we celebrate the 
centennial of the National Park Service--obviously, a once in a 
lifetime event. This budget proposes a robust increase in 
multiple sources for the National Park system, $40 million in 
current appropriations in 2015. $10 million will be used to 
match private philanthropy, and there is a lot of private 
philanthropy interest in the parks. $30 million to support the 
visitor experience and critical needs to repair assets in the 
parks.
    We are also proposing a $1.2 billion permanent investment 
over 3 years at $400 million a year to support high-priority 
projects and further enhance the visitor experience, because we 
know a lot more traffic will be driven to the parks, both 
internationally and domestically, through the centennial.


              opportunity, growth, and security initiative


    The President's Opportunity, Growth, and Security 
Initiative also adds additional money for the national parks to 
begin to address the issue of deferred maintenance on national 
parklands and other public lands.


                                 youth


    As Chairman Reed mentioned, for the health of our economy 
and our public lands, it is also critical we work now to 
establish meaningful and deep connections between young people 
from every background to nature and the great outdoors. The 
President's budget proposes $51 million across our bureaus to 
support partnership programs, hiring, and educational 
opportunities aimed at youth and veterans between the ages of 
18 and 30.
    It will also leverage private donations. I have been trying 
to raise private money to support this and support work with 
youth and veterans conservation corps, so we get young people 
connected to our public lands for the future.


                                 energy


    On the topic of energy, the budget proposes the President's 
national energy initiatives continue to be an area of focus to 
generate jobs and help the Nation achieve greater energy self-
reliance. We have made good progress.
    In total, including all sources, the 2015 budget for energy 
programs is $753.2 million, just under a $41 million increase 
from 2014. It includes funding for both conventional and 
renewable energy development, basic science and applied 
research to understand the impacts of development on water, on 
habitat, on wildlife, and other natural resources.


                        landscape level approach


    Across the Department, we are taking a landscape level 
approach to development. We are modernizing programs and 
practices. We are streamlining permitting, strengthening 
inspection and enforcement, and ensuring a fair return for the 
American public.


                                science


    Next, in the field of science, research and development, 
particularly conducted by the U.S. Geological Survey and other 
bureaus, is vital to help us understand and address important 
scientific questions. There is a $60 million increase in the 
budget from 2014 to improve our knowledge about issues such as 
climate change, hydraulic fracturing, Asian carp, white nose 
syndrome in bats, and other issues.
    As an example, Interior's climate science centers are 
developing regional drought impact scenarios. We are evaluating 
coastal flooding. We are studying the impacts on the Nation's 
wildlife and habitats, which will inform our land management 
decisions.


                                 water


    Last but certainly not least, and something that I am 
comforted having Mike Connor at my side over, is around water. 
We recognize the challenges of water supplies, especially 
during this time of extended drought in the West. I am very 
happy Mike was confirmed by you very recently as Deputy 
Secretary, because he has a very deep background on these 
issues.
    The 2015 budget will increase our WaterSMART programs 
around conservation, helping people conserve by $9.5 million. 
The Bureau of Reclamation, along with many partners, States, 
and stakeholders, is working on long-term solutions to address 
future water supply needs.


                             climate change


    The President also announced a $1 billion Climate 
Resilience Fund. The Fund would support research on the 
projected impacts of climate change, help communities become 
more resilient, and fund breakthrough technologies.
    These efforts are specifically designed to address the 
challenges of changing climate on water resources.


                           prepared statement


    So in closing, I look forward to working with you this 
budget season on these issues. I would be delighted to answer 
your questions. Thank you very much.
    [The statement follows:]
                Prepared Statement of Hon. Sally Jewell
    Mr. Chairman and members of the subcommittee, I am pleased to 
present the 2015 President's budget for the Department of the Interior.
    This subcommittee remains an important partner in the 
accomplishment of Interior's mission and I appreciate our excellent 
working relationship, which allows us to resolve challenges and take 
advantage of opportunities. I appreciate the efforts of the 
subcommittee in the development of 2014 appropriations that alleviated 
the need for indiscriminate sequester of discretionary funds and 
minimized legislative riders.
    This budget is balanced and responsible and supports Interior's 
pivotal role as a driver of jobs and economic activity in communities 
across the country. It enables us to carry out core mission 
responsibilities and commitments. This budget allows Interior to uphold 
trust responsibilities to American Indians and Alaska Natives, provides 
a new approach for responsibly budgeting for wildland fire suppression 
needs, invests in climate resilience, continues smart and balanced all-
of-the-above energy development on and offshore, and bolsters our 
national parks and public lands in advance of the National Park 
Service's 100th anniversary in 2016.
    Interior's programs and activities serve as economic engines in 
communities across the Nation, contributing an estimated $371 billion 
to the economy in 2012 and supporting an estimated 2.3 million American 
jobs. Of this total, energy and mineral development on Interior-managed 
lands and offshore areas generated more than $255 billion of this 
economic activity and supported 1.3 million jobs. Recreation and 
tourism on Interior lands contributed $45 billion to the economies of 
local communities and supported nearly 372,000 jobs. Water supply, 
forage and timber activities, primarily on public lands in the West, 
contributed more than $50 billion and supported 365,000 jobs.
    The President's 2015 budget for the Department of the Interior 
totals $11.9 billion, an increase of 2.4 percent from 2014, which 
includes a cap exemption for fire emergencies. Without this exemption, 
Interior's budget totals $11.7 billion, a 0.3 percent increase, or 
nearly level with this year's funding.
    This budget features three key legislative proposals: a new 
framework to fund wildland fire suppression requirements; additional 
investment in the infrastructure and visitor experience at our National 
Parks and public lands; and full and permanent funding for the Land and 
Wildlife Conservation Fund (LWCF). Each of these proposals will 
significantly enhance our ability to conserve and manage the Nation's 
public lands.
    The budget proposes to amend the Balanced Budget and Emergency 
Deficit Control Act of 1985, to provide stable funding for fire 
suppression, while minimizing the adverse impacts of fire transfers on 
other Interior programs, and allowing Interior to reduce fire risk, 
manage landscapes more comprehensively, and increase the resiliency of 
public lands and the communities that border them. In this proposed new 
framework, $268.6 million, or 70 percent of the 10-year average for 
suppression response is funded within the discretionary spending limits 
and $240.4 million is available as an adjustment above those limits, if 
needed based on a challenging fire season. In addition, it does not 
increase overall discretionary spending, as it would reduce the ceiling 
for the existing disaster relief cap adjustment by an equivalent amount 
as is provided for wildfire suppression operations.
    In advance of the 100th anniversary of the National Park Service in 
2016, the 2015 budget proposes a comprehensive Centennial Initiative 
investment in the parks and public lands. The funding would provide 
targeted increases for a multi-year effort to recommit to the 
preservation of these special places, to invest wisely in the park 
system's most important assets, to use parks to enhance informal 
learning, engage volunteers, provide training opportunities to youth, 
and enhance the National Park Service's ability to leverage 
partnerships to accomplish its mission.
    Finally, the President's budget continues to support full, 
permanent funding for the Land and Water Conservation Fund, one of the 
Nation's most effective tools for expanding access for hunting and 
fishing, creating ballfields and other places for children to play and 
learn, protecting traditional uses such as working ranches and farms, 
acquiring inholdings to manage contiguous landscapes, and protecting 
Civil War battlefields. The 2015 budget proposes total funding of $900 
million for LWCF in Interior and the U.S. Forest Service. Within this 
total, $350 million is requested as current funding and $550 million as 
part of a permanent funding proposal. Starting in 2016, the proposal 
would provide $900 million annually in permanent funding.
    Complementing the 2015 budget request is $346 million identified 
for Interior programs as part of the President's Opportunity, Growth, 
and Security Initiative to spur economic progress and promote 
opportunity. If approved, these investments will enable significant 
progress to address long-term needs in the areas of national parks and 
other public lands, research and development, infrastructure and 
permitting support, climate resiliency, and education and economic 
development in Indian Country.
    The drought in California and other Western States underscores the 
importance of improving the resilience of communities to the effects of 
climate change. The President's Opportunity, Growth, and Security 
Initiative includes a $1 billion government-wide Climate Resilience 
Fund to invest in developing more resilient communities, and finding 
solutions to climate challenges through technology development and 
applied research. This Fund includes about $240 million for Interior 
programs that invest in research and development, assist Tribes and 
local communities in planning and preparing for extreme weather 
conditions and events, and support public land managers in landscape 
and watershed planning to increase resiliency and reduce risks.
                              2015 budget
    The 2015 budget request includes $10.6 billion in current funding 
for programs under the jurisdiction of the Interior, Environment and 
Related Agencies subcommittee. This is a $104.9 million, or 1 percent, 
increase compared to 2014. Total funding for the Department includes $1 
billion requested for the Bureau of Reclamation and the Central Utah 
Completion Act, which are under the jurisdiction of the Energy and 
Water Development subcommittee.
    In addition to the proposals already discussed, the 2015 request 
sustains support for essential requirements and allows for targeted 
increases above the 2014 enacted level. Within the overall increase for 
2015, $54.4 million covers fixed cost increases for such things as 
Federal pay and rent. Reflecting the need to prioritize budget 
resources, this request includes $413.3 million in proposed program 
reductions to offset other programmatic requirements.
    Interior programs continue to generate more revenue for the 
American people than the Department's annual current appropriation. In 
2015, Interior will generate estimated receipts of nearly $14.9 
billion, a portion of which is shared with State and local governments 
to meet a variety of needs, including school funding, infrastructure 
improvements, and water-conservation projects. Also included with this 
request are revenue and savings legislative proposals estimated to 
generate more than $2.6 billion over the next decade.
    Putting this budget in context, Interior's complex mission affects 
the lives of all Americans. Nearly every American lives within an 
hour's drive of lands or waters managed by the Interior Department. In 
2012, there were 417 million visits to Interior-managed lands. The 
Department oversees the responsible development of over 20 percent of 
U.S. energy supplies, is the largest supplier and manager of water in 
the 17 western States, maintains relationships with 566 federally 
recognized Tribes, and provides services to more than 2 million 
American Indian and Alaska Native peoples.
           celebrating and enhancing america's great outdoors
    Throughout American history, the great outdoors have shaped the 
Nation's character and strengthened its economy. The 2015 budget 
requests the resources and authorities to care for our public lands and 
prepare for the future. The budget invests in efforts to upgrade and 
restore national parks and other public lands areas, while engaging 
thousands of Americans, including youth, and veterans. The budget 
strengthens the President's commitment to the America's Great Outdoors 
initiative with a request of $5.1 billion in current funding for 
programs, including the operation of public land management units in 
the Bureau of Land Management (BLM), National Park Service (NPS) and 
Fish and Wildlife Service (FWS); the Land and Water Conservation Fund; 
and grants and technical assistance to States and others. This is an 
increase of $127.1 million compared to the 2014 enacted level.
    Coupled with these efforts is a historic commitment to America's 
natural and cultural heritage through Land and Water Conservation Fund 
programs. The budget includes a 2015 combined request of $672.3 million 
($246 million discretionary and $426.3 million mandatory) for 
Interior's LWCF programs that conserve lands and support outdoor 
recreation. In current funding, the request for land acquisition is 
$147.9 million, with $39.5 million identified for Collaborative 
Landscape Planning projects. A total of $98.1 million is requested in 
current funding for LWCF conservation grants, including $48.1 million 
for LWCF stateside grants.
    I could not highlight our stewardship efforts without discussing 
the upcoming centennial of the National Park Service in 2016. Overall, 
the Centennial Initiative--including mandatory, discretionary, and 
Opportunity, Growth, and Security Initiative resources--will allow NPS 
to ensure that 1,700 (or 20 percent) of the highest priority park 
assets are restored to good condition. The effort creates thousands of 
jobs over 3 years, provides over 10,000 work and training opportunities 
to young people, and engages more than 265,000 volunteers in support of 
public lands.
    The request for the Centennial Initiative proposes a $40 million 
increase in current appropriations in 2015, plus an additional $400 
million in permanent funding each year for 3 years. That funding 
includes $100 million for a Centennial Challenge to match private 
philanthropy, $200 million for National Park Service facilities 
improvements, and $100 million for a Centennial Land Management 
Investment Fund to competitively allocate funds to meet land 
conservation and deferred maintenance needs among Interior's land-
management agencies and the U.S. Department of Agriculture's U.S. 
Forest Service. The President's Opportunity, Growth, and Security 
Initiative identifies investments of $100 million for National Park 
Service deferred maintenance and an additional $100 million for the 
Centennial Land Management Investment Fund.
                      strengthening tribal nations
    Sustaining the President's commitment to tribal sovereignty and 
self-determination and honoring Interior's trust responsibilities to 
the 566 federally recognized American Indian and Alaska Native Tribes 
and more than 2 million people served by these programs, the 2015 
budget for Indian Affairs is $2.6 billion, an increase of $33.6 million 
above the 2014 enacted level. The budget invests in: advancing nation-
to-nation relationships and tribal self-determination, supporting and 
protecting Indian families and communities, sustainable stewardship of 
energy and natural resources, and improving education in Indian 
Country.
    Recognizing this commitment to tribal self-governance and self-
determination, the budget fully funds contract support costs Tribes 
incur as managers of the programs serving Native Americans. The budget 
requests $251 million, a $4 million increase over the 2014 enacted 
level, to fully fund estimated contract support needs in 2015.
    Supporting families and communities, the 2015 budget launches the 
Tiwahe Initiative, with an increase of $11.6 million in social services 
and job training programs to address the interrelated problems of child 
and family welfare, poverty, violence and substance abuse in tribal 
communities. Tiwahe is the Lakota word for ``family.'' Through this 
initiative, social services and job training programs will be 
integrated and expanded to provide culturally appropriate programs to 
assist and empower families and individuals through economic 
opportunity, health promotion, family stability, and strengthened 
communities.
    Promoting public safety and tribal community resilience, the 2015 
budget request includes resources to build on Bureau of Indian Affairs 
(BIA) Law Enforcement's recent successes in reducing violent crime. A 
pilot program will be implemented to lower repeat incarceration rates 
in tribally operated jails on three reservations--Red Lake in 
Minnesota, Ute Mountain in Colorado, and Duck Valley in Nevada--with a 
goal to materially lower repeat incarcerations. Through an Alternatives 
to Incarceration Strategy, this pilot will seek to address underlying 
causes of repeat offenses, such as substance abuse and lack of adequate 
access to social service support, through intergovernmental and inter-
agency partnerships.
    The 2015 budget request is complemented by a proposal in the 
President's Opportunity, Growth, and Security Initiative to further 
invest in economic development and education to promote strong, 
resilient tribal economies and improve educational opportunities in 
Indian Country.
                          powering our future
    As part of the President's all-of-the-above energy strategy to 
expand safe and responsible domestic energy production, the 2015 budget 
provides $753.2 million for conventional and renewable energy programs, 
an increase of $40.7 million above the 2014 enacted level. The budget 
includes measures to encourage responsible, diligent development and a 
fair return for American taxpayers.
    Funding for conventional energy and compliance activities totals 
$658.4 million, an increase of $37.5 million over the 2014 level. 
Spending from fees and permanent funding related to onshore oil and gas 
activities increase $49.1 million from the 2014 level, primarily 
reflecting a proposal to expand onshore oil and gas inspection 
activities and to offset the Bureau of Land Management's inspection 
program costs to the taxpayer with fees from industry, similar to what 
the offshore industry now pays.
    The budget includes $169.8 million for the Bureau of Ocean Energy 
Management and $204.6 million for the Bureau of Safety and 
Environmental Enforcement to support domestic energy production, 
including new leasing, strong safety oversight of offshore operations, 
enhanced environmental enforcement functions, and expanded training and 
electronic inspection capabilities.
    The 2015 budget includes $94.8 million for renewable energy 
activities, a $3.2 million increase over the 2014 level. This funding 
maintains the Department's emphasis on strategic investments to advance 
clean energy and meet the President's goal to approve 20,000 megawatts 
of renewable energy on public lands by 2020 (relative to 2009 levels).
                      engaging the next generation
    The 2015 budget supports a vision to inspire millions of young 
people to play, learn, serve and work outdoors by expanding volunteer 
and work opportunities for youth and veterans. The budget proposes 
$50.6 million for Interior youth programs, a $13.6 million or 37 
percent increase from 2014.
    A key component of the Department's efforts will be partnering with 
youth organizations through the 21st Century Conservation Service 
Corps. The proposed funding includes an increase of $8 million to 
expand opportunities for youth education and employment across the 
National Park Service; an additional $2.5 million for the Fish and 
Wildlife Service's Urban Wildlife Refuges Partnership; and a total of 
$4.2 million in Indian Affairs for youth programs including $2.5 
million to engage youth in natural sciences. Support for the National 
Park Service Centennial will create thousands of jobs, and engage more 
than 10,000 youth in service and training opportunities and more than 
265,000 volunteers.
   ensuring healthy watersheds and sustainable, secure water supplies
    The 2015 budget addresses the Nation's water challenges through 
investments in water conservation, sustainability, and infrastructure 
critical to the arid western United States and its fragile ecosystems.
    The budget includes $66.5 million for WaterSMART programs in 
Reclamation and the U.S. Geological Survey, nearly a 17 percent 
increase from 2014, to assist communities in stretching water supplies 
and improving water management. In addition to $1 billion requested for 
the Bureau of Reclamation within the jurisdiction of the Energy and 
Water Subcommittee, the budget also requests $210.4 million for the 
U.S. Geological Survey's water programs to provide scientific 
monitoring, research, and tools to support water management across the 
Nation. This funding supports the Department's goal to increase by 
840,000 acre-feet the available water supply for agricultural, 
municipal, industrial, and environmental uses in the western United 
States through water conservation programs by the end of 2015.
    Interior extends this commitment to Indian Country, honoring Indian 
water settlements with investments totaling $171.9 million in 
Reclamation and Indian Affairs, for technical and legal support for 
water settlements. This includes $147.6 million for implementation of 
authorized settlements to bring reliable and potable water to Indian 
communities, more than a 9 percent increase from 2014. Among the 
investments is $81 million for the ongoing Navajo-Gallup Water Supply 
Project, which, when completed, will have the capacity to deliver clean 
running water to a potential future population of approximately 250,000 
people.
       building a landscape level understanding of our resources
    The 2015 budget fosters the sustainable stewardship of the Nation's 
lands and resources on a landscape level. Funding includes increases 
for scientific monitoring, research and tools to advance our 
understanding and ability to manage natural resources more effectively, 
while balancing important conservation goals and development 
objectives. Reflecting the President's ongoing commitment to scientific 
discovery and innovation to support decision making for critical 
societal needs and a robust economy, the budget proposes $888.7 million 
for research and development activities across the Department, an 
increase of $60.4 million over 2014. This funding will increase 
understanding of natural resources and the factors impacting water 
availability, ecosystem and species resiliency, sustainable energy and 
mineral development, climate resilience, and natural hazard mitigation, 
among others.
    Complementing this budget request are two components of the 
President's Opportunity, Growth, and Security Initiative: an investment 
of $140 million for Interior research and development as part of a 
Government-wide effort to jumpstart growth spurred by scientific 
discovery; and investments to address climate resilience to better 
prepare communities and infrastructure, and enable them to build 
greater resilience in the face of a changing climate.
    In ecosystems across the Nation, Interior will continue to work 
with local communities to leverage its efforts to improve resiliency 
and achieve improved environmental and economic outcomes.
                   major changes in the 2015 request
    Bureau of Land Management.--The 2015 request is $1.1 billion, a 
decrease of $5.6 million from the 2014 enacted level. The 2015 request 
assumes the use of $54.5 million in proposed offsetting fees, which 
when included provides an effective increase of $48.9 million above 
2014. The 2015 request includes $954.1 million for the Management of 
Lands and Resources account, and $25 million in current appropriations 
for Land Acquisition, including $2 million to improve access to public 
lands for hunting, fishing, and other recreation. The budget proposes 
$104 million for Oregon and California Grant Lands, which includes a 
$4.2 million decrease in Western Oregon Resource Management Planning, 
reflecting expected completion of six revised plans in June 2015.
    To advance America's Great Outdoors, the request includes $3.5 
million in program increases for recreation, cultural resources, and 
the National Landscape Conservation System to address the needs of 
recently designated units, implement travel management plans, improve 
visitor services, and address a backlog in cultural resources inventory 
and stabilization needs. The budget request also includes $4.8 million 
for Youth programs, an increase of $1.3 million from 2014, to put more 
young Americans to work protecting and restoring public lands and 
cultural and historical treasures.
    The BLM continues to support the President's all-of-the-above 
energy strategy on the public lands including an initiative to 
encourage smart renewable energy development. The 2015 budget includes 
$29.2 million, essentially level with 2014, for renewable energy to 
continue to aggressively support wind, solar, and geothermal energy 
development on BLM lands. Complementing this is a $5 million increase 
in the Cadastral, Lands and Realty Management program for 
identification and designation of energy corridors in low conflict 
areas to site high voltage transmission lines, substations, and related 
infrastructure in an environmentally sensitive manner.
    The 2015 request for Oil and Gas Management, including both direct 
and fee-funded appropriations, totals $133.7 million, an increase of 
$20.3 million in available program funding from 2014. In 2015, the 
budget proposes to shift the cost of oil and gas inspection and 
enforcement activity from current appropriations to inspection fees 
charged to industry. The proposed inspection fees will generate an 
estimated $48 million, providing for a $10 million increase in BLM's 
inspection and enforcement capability and allowing for a net reduction 
of $38 million in requested BLM appropriations. The request for Oil and 
Gas programs includes increases of $5.2 million for ongoing rulemaking 
efforts and to strengthen operations at BLM units and $4.6 million for 
oversight and permitting to better keep pace with industry demand and 
fully implement leasing reforms.
    In 2015, BLM will release six rapid eco-regional assessments, in 
addition to four planned for 2014. The BLM will conduct training on the 
use of the data from these assessments and will work with a number of 
Landscape Conservation Cooperatives to begin development of regional 
conservation strategies. The budget includes an increase of $5 million 
for Resource Management Planning to implement BLM's enterprise 
geographic information system and address high priority planning. The 
2015 budget maintains a $15 million increase to implement sage grouse 
conservation and restoration measures to help avoid the need for a 
future listing of the species for protection under the Endangered 
Species Act.
    Other program increases include $2.8 million in the Wild Horse and 
Burro program to implement recommendations of the National Academy of 
Sciences regarding population control; and $2.8 million in Abandoned 
Mine Lands to implement remediation plan efforts at Red Devil Mine in 
Alaska. The request includes $19 million for the Alaska Conveyance 
program. Although a decrease of $3.1 million from 2014, this funding 
coupled with efficiencies from an improved cadastral method, plots a 
course to complete all surveys and land transfers in 10 years.
    A proposed grazing administration fee will enhance BLM's capacity 
for processing grazing permits. A fee of $1 per animal unit month, 
estimated to provide $6.5 million in 2015, is proposed on a pilot 
basis. This additional revenue more than offsets a decrease of $4.8 
million in appropriated funds in Rangeland Management, equating to a 
$1.7 million program increase to help address the grazing permit 
backlog.
    Bureau of Ocean Energy Management.--The 2015 operating request is 
$169.8 million, including $72.4 million in current appropriations and 
$97.3 million in offsetting collections. This is a net increase of $3.4 
million in current appropriations above the 2014 enacted level.
    The 2015 budget maintains a strong offshore renewable energy 
program at essentially the 2014 level of $23.1 million for the total 
program. In 2013, the Bureau of Ocean Energy Management (BOEM) held the 
first competitive Outer Continental Shelf (OCS) renewable energy lease 
sales, issued five other non-competitive commercial offshore wind 
energy leases, and approved the construction and operations plan for 
the Cape Wind project offshore Massachusetts.
    Offshore conventional energy programs also remain essentially level 
with 2014, with a total of $49.6 million in 2015. In 2013, BOEM held 
three sales generating over $1.4 billion in high bids, and three 
additional lease sales are scheduled during calendar year 2014. The 
request of $65.7 million for Environmental Programs includes an 
increase of $2.5 million for work on a Programmatic Environmental 
Impact Statement for the next Five-Year Program (2017-2022) for oil and 
gas leasing on the OCS.
    Bureau of Safety and Environmental Enforcement.--The 2015 budget 
request is $204.6 million, including $81 million in current 
appropriations and $123.6 million in offsetting collections, an 
increase of $2 million from 2014. The request for offsetting 
collections assumes $65 million from offshore oil and gas inspection 
fees. The 2015 request allows Bureau of Safety and Environmental 
Enforcement (BSEE) to continue to strengthen regulatory and oversight 
capability on the OCS and maintain capacity in regulatory, safety 
management, structural and technical support, and oil spill response 
prevention.
    The budget includes $189.7 million for Offshore Safety and 
Environmental Enforcement, an increase of $2.4 million. The request 
includes a program increase of $0.9 million to evaluate and test new 
technologies and update regulations to reflect improved safety and 
oversight protocols. Funding for Oil Spill Research is maintained at 
the 2014 level of $14.9 million.
    Office of Surface Mining.--The 2015 budget request for the Office 
of Surface Mining is $144.8 million, a decrease of $5.3 million from 
the 2014 enacted level. This includes a decrease of $13.4 million in 
grants to States and Tribes to encourage these regulatory programs to 
recover a larger portion of their costs from fees charged to the coal 
industry, and an increase of $4 million to provide additional technical 
support to State and tribal regulatory programs. The budget also 
includes an increase of $1.9 million for applied science to advance 
reclamation technologies. This request proposes $116.1 million for 
Regulation and Technology funding, $28.7 million for Abandoned Mine 
Reclamation Fund activities, and an additional $1.9 million in 
offsetting collections from recovered costs for services.
    U.S. Geological Survey.--The U.S. Geological Survey (USGS) budget 
request is $1.1 billion, $41.3 million above the 2014 enacted level. 
The President's budget reflects the administration's commitment to 
investing in research and development to support sound decision making 
and sustainable stewardship of natural resources. This includes 
science, monitoring, and assessment activities critical to 
understanding and managing the ecological, mineral, energy, and water 
resources which underlie the prosperity and well-being of the Nation. 
The budget includes increases for priorities in ecosystem restoration, 
climate adaptation, invasive species, environmental health, and earth 
observations. Funding provides increased support to enhance sustainable 
energy development, address water resource challenges, increase 
landscape level understanding of the Nation's natural resources, and 
the Scientists for Tomorrow youth initiative.
    To support sustainable management of water resources, the USGS 
budget includes increases totaling $6.4 million for WaterSMART 
programs. This includes increases for State water grants, regional 
water availability models, and the integration and dissemination of 
data through online science platforms. The budget includes increases of 
$2.4 million to support implementation of the National Groundwater 
Monitoring Network and $1.2 million for the National Streamflow 
Information Program for streamgages to strengthen the Federal backbone 
at high priority sites sensitive to drought, flooding, and potential 
climate change effects.
    To better understand and adapt to the potential impacts of a 
changing climate, the USGS budget invests in research, monitoring, and 
tools to support improved resilience of natural systems. The National 
Climate Change and Wildlife Science Center and Department of the 
Interior (DOI) Climate Science Centers (CSC) are funded at $35.3 
million, an increase of $11.6 million from 2014. This includes an 
increase of $3 million for grants focused on applied science and 
information needed by resource managers for decision making at regional 
levels. An increase of $2.3 million will enhance the leveraging of 
these investments with other Federal climate science activities and 
make the scientific information and products developed through these 
programs available to the public in a centralized, Web-accessed format. 
Program increases of $2.5 million will support applied science and 
capacity-building for tribal climate adaptation needs in the CSC 
regions, and $3 million will support additional research in drought 
impacts and adaptive management.
    The USGS budget invests in providing critical data and tools to 
promote understanding and managing resources on a landscape scale. 
Program increases in the National Geospatial Program include $5 million 
for the 3-Dimensional Elevation Program to collect Lidar data to 
enhance science and emergency response activities, resource and 
vulnerability assessments, ecosystem based management, and tools to 
inform policy and management. An increase of $1.9 million is requested 
for modernization of The National Map, which provides critical data 
about the Earth, its complex processes, and natural resources. The 2015 
budget includes a $2 million increase for the Big Earth Data initiative 
to improve access to and use of data from satellite, airborne, 
terrestrial, and ocean-based Earth observing systems. These investments 
will provide benefits in natural resource management and hazard 
mitigation, by improving access to critical information.
    To support the sustainable development of energy resources, the 
USGS budget includes $40.7 million for conventional and renewable 
energy programs, $8.1 million above the 2014 enacted level. A program 
increase of $1.3 million will be used to study geothermal resources and 
build on ongoing work on wind energy impacts. The request includes 
$18.6 million, $8.3 million over 2014, to support research and 
development to better understand potential impacts of energy 
development involving hydraulic fracturing. Conducted through an 
interagency collaboration with the Department of Energy and 
Environmental Protection Agency, this work addresses issues such as 
water quality and quantity, ecosystem, community, and human health 
impacts, and induced seismicity. Funding for other conventional energy 
programs, including oil, gas, and coal assessments, totals $15.6 
million.
    Supporting the sustainable management and restoration of 
ecosystems, the 2015 budget includes $162 million for ecosystems 
science activities, $9.2 million above the 2014 enacted level. Program 
increases include $2 million for research on new methods to eradicate, 
control, and manage Asian carp in the Upper Mississippi River Basin and 
prevent entry into the Great Lakes. Increases of $2.5 million are 
provided for ecosystem restoration work in the Chesapeake Bay, 
California Bay-Delta, Columbia River, Everglades, and Puget Sound. 
Another $2 million will support the science and integration of 
ecosystems services frameworks into decision making and efforts to 
assess and sustain the Nation's environmental capital. Program 
increases totaling $1.8 million will address native pollinators, brown 
treesnakes, and new and emerging invasive species of national concern.
    Supporting understanding, preparedness, and mitigation of the 
impacts of natural hazards, the budget provides $128.3 million for 
Natural Hazards activities, which is essentially level with 2014. This 
activity provides scientific information and tools to reduce potential 
fatalities, injuries, and economic loss from volcanoes, earthquakes, 
tsunamis and landslides, among others. The 2015 budget includes an 
increase of $700,000 in Earthquake Hazards for induced seismicity 
studies related to hydraulic fracturing.
    Fish and Wildlife Service.--The 2015 Fish and Wildlife Service 
budget includes $1.5 billion in current appropriations, an increase of 
$48.8 million above the 2014 level. This includes America's Great 
Outdoors related increases of $71.7 million in the Resource Management 
account. Among the increases proposed are: $6.6 million to address 
increased workload in planning and consultation for energy transmission 
and other projects, $7.7 million for cooperative efforts to recover 
imperiled species, $4 million to support conservation of the greater 
sage grouse across 11 western States, $2 million to investigate crimes 
and enforce laws that govern the Nation's wildlife trade, and $2.5 
million to establish an Urban Wildlife Refuge Partnership program. This 
effort will encourage city dwellers to enjoy the outdoors by creating 
stepping stones of engagement to connect them to the outdoors on 
refuges and partner lands, through experiences which build on one 
another.
    Funding for FWS grant programs, with the exception of State and 
Tribal Wildlife Grants, remain level with 2014. In 2015, funding for 
State and Tribal Wildlife Grants totals $50 million. The request also 
includes $55 million for Land Acquisition and $15.7 million for 
Construction. In addition to direct appropriations, an estimated $1.3 
billion will be available under permanent appropriations, most of which 
will be provided directly to States for fish and wildlife restoration 
and conservation.
    The budget proposes $16.7 million, an increase of $2.5 million, for 
activities associated with energy development. Of this increase, $1.4 
million supports scientific research into the impacts of energy 
transmission and development infrastructure on wildlife and habitat. 
The research will identify potential impacts associated with the 
development of energy infrastructure and strategies to minimize the 
impacts on habitat and species. An increase of $1.1 million for the 
Ecological Services Planning and Consultation program supports 
assessments of renewable energy projects proposed for development.
    The budget request for the Resource Management account continues 
support for key programs with program increases of $65.8 million above 
2014. The request provides $252.2 million in Ecological Services to 
conserve, protect, and enhance listed and at-risk species and their 
habitat, an increase of $30.3 million. Within this request are 
increases of $4 million to support conservation of the greater sage 
grouse across 11 western States and $10.5 million to implement other 
species recovery actions.
    The request includes funding within Law Enforcement and 
International Affairs to combat wildlife trafficking. The budget 
provides $66.7 million for the law enforcement program to investigate 
wildlife crimes, enforce the laws governing the Nation's wildlife 
trade, and expand technical forensic expertise, with program increases 
of $2 million over 2014.
    The budget includes $138.9 million for Fisheries and Aquatic 
Resource Conservation, a program increase of $8.2 million. Within this 
request is $48.6 million for operation of the National Fish Hatchery 
system to address top priorities, an increase of $1.9 million for fish 
hatchery maintenance, and $4.4 million to prevent the spread of Asian 
carp in the Missouri, Ohio, upper Mississippi Rivers, and other high 
priority watersheds.
    Funding for Cooperative Landscape Conservation activity is $17.7 
million, an increase of $3.2 million, and funding for Science Support 
is $31.6 million, an increase of $14.4 million. The budget supports 
applied science directed at high impact questions to mitigate threats 
to fish and wildlife resources, including $2.5 million to address white 
nose syndrome in bats, and an increase of $1 million to study 
biological carbon sequestration.
    The 2015 budget proposes to eliminate the current funding 
contribution to the National Wildlife Refuge fund, a reduction of $13.2 
million below 2014. An estimated $8 million in permanent receipts 
collected and allocated under the program would remain available to 
counties. The budget also proposes cancellation of $1.4 million in 
prior year balances from the Landowner Incentive and Private 
Stewardship Grant programs, which have not received new budget 
authority in several years.
    National Park Service.--The 2015 budget request for NPS of $2.6 
billion is $55.1 million above the 2014 enacted level.
    In 2015, a total of $2.5 billion is requested for NPS as part of 
America's Great Outdoors. This includes $2.3 billion for park 
operations, an increase of $47.1 million over 2014. Within this 
increase is $30 million to support the NPS Centennial Initiative. The 
Centennial increase includes $16 million for repair and rehabilitation 
projects to improve high priority projects throughout the parks, $8 
million in competitively managed funds to support enhanced visitor 
services in the areas of interpretation and education, law enforcement 
and protection, and facility operations, $4 million for 21 CSC youth 
work opportunities to engage youth in service and conservation 
projects, and $2 million to support expanded volunteer opportunities at 
the parks. Across these Centennial increases, the budget provides an $8 
million increase for youth engagement and employment opportunities, and 
continues the NPS' efforts to attract qualified veteran candidates to 
fill Federal positions. The request for Park Operations also includes 
increases of $15.7 million for increased fixed costs and $2 million to 
support new park units.
    Also in preparation for the Centennial anniversary of the parks, 
the 2015 request includes $10 million in a separate account for 
Centennial Challenge projects. This funding will provide a Federal 
match to leverage partner donations for signature projects and programs 
at the parks. This program will be instrumental in garnering partner 
support to prepare park sites across the country for the centennial and 
through the second century of the NPS.
    The 2015 request for the Historic Preservation Fund is $56.4 
million, level with 2014. Of this total, $46.9 million is requested for 
grants-in-aid to States and Territories, $9 million for grants-in-aid 
to Tribes, and $500,000 to be awarded competitively to address 
communities currently underrepresented on the National Register of 
Historic Places.
    The budget includes $52 million within the National Recreation and 
Preservation account, which includes $10 million for the Rivers, 
Trails, and Conservation Assistance program, essentially level with 
2014, and $1.2 million for American Battlefield Protection Program 
assistance grants, also level with 2014. The request includes a program 
reduction of $9.1 million from Heritage Partnership programs to 
encourage self-sufficiency for these non-Federal organizations.
    Programs funded out of the Land and Water Conservation Fund are a 
key component of America's Great Outdoors. The budget requests $104 
million for the Land Acquisition and State Assistance account, an 
increase of $5.9 million. This includes $48.1 million for the State 
Conservation Grants program, level with 2014, and $55.9 million for NPS 
Federal land acquisition, a programmatic increase of $5.8 million. Of 
this amount, $13.2 million supports Collaborative Landscape projects in 
the California Southwest Desert and areas within the National Trails 
System.
    Funding for Construction totals $138.3 million, essentially level 
with 2014. Of this amount, the budget includes $61.7 million for line-
item construction projects, a $1.1 million program increase compared to 
2014. The request includes $6.7 million to reconstruct the historic 
cave tour trails in Mammoth Cave National Park and $3.9 million to 
stabilize and repair exterior walls of the historic Alcatraz prison 
cell house at Golden Gate National Recreation Area.
    Indian Affairs.--The 2015 budget includes $2.6 billion for Indian 
Affairs programs, an increase of $33.6 million from the 2014 enacted 
level. This includes an increase of $33.8 million for Operation of 
Indian Programs; and level funding of $35.7 million for Indian Land and 
Water Claim Settlements, $109.9 million for Construction, and $6.7 
million for the Indian Guaranteed Loan program.
    Within the Operation of Indian Programs, the budget includes full 
funding of $251 million for Contract Support Costs and the Indian Self-
Determination Fund, an increase of $4 million from 2014. Consistent 
with the 2014 Operating Plan, the 2015 request provides full funding 
based on the most current estimated need. The availability of contract 
support cost funding is a key factor in tribal decisions to assume 
responsibility for operating Federal programs important to the 
furtherance of self-governance and self-determination. To further 
facilitate Tribal 638 Contracting, the budget includes an additional 
$1.2 million to increase services from the Department's Office of 
Indirect Cost Negotiations which negotiates indirect cost rates with 
non-Federal entities, including tribal governments. Consistent with 
subcommittee direction and in collaboration with the Indian Health 
Service (IHS), the Department held its first formal consultation on 
March 11, 2014 with tribes to discuss long-term solutions to Contract 
Support Cost issues. The Department remains committed to working with 
IHS, tribes, and Congress to develop a long-term strategy for 
addressing this important issue.
    The 2015 budget for Indian Affairs includes an increase of $11.6 
million for the Tiwahe or ``family'' Initiative. The initiative takes a 
comprehensive and integrated approach to address the interrelated 
problems of poverty, violence, and substance abuse in Indian 
communities. The initiative builds on and expands social service, 
Indian child and family welfare, and job training programs. In 
recognition that adequate housing is essential to building stronger 
families, the budget maintains the 2014 level for the Housing 
Improvement Program. The goal of the Tiwahe Initiative is to empower 
American Indian individuals and families in health promotion and family 
stability, and to strengthen tribal communities as a whole. To better 
target funding and evaluate outcomes in meeting social service needs in 
Indian Country, the budget includes $1 million as part of the 
initiative.
    The budget provides strong support for the sustainable stewardship 
of land and resources in Indian Country, sustaining funding for trust 
land management and real estate services at 2014 levels and proposing 
program increases of $3.6 million for the stewardship of natural 
resources. Funding supports the development of natural resource 
science, information, and tools for application in the development and 
management of energy and minerals, water, forestry, oceans, climate 
resilience, and endangered and invasive species. Demonstrating the 
administration's commitment to resolving tribal water rights and 
ensuring that tribes have access to meet their water needs, $171.9 
million is provided across the Department for implementation of, and 
technical and legal support for, Indian water rights settlements, an 
increase of $13.8 million over 2014. A program increase of $1 million 
is also provided in Indian Affairs for deferred maintenance on Indian 
irrigation projects to help address drought issues in Indian Country.
    The budget supports improving educational outcomes in Indian 
Country, providing $794.4 million for the Bureau of Indian Education 
(BIE), an increase of $5.6 million from 2014. The request includes an 
increase of $500,000 for Johnson O'Malley Education Assistance Grants 
to support a new student count in 2015 and funding to address the 
projected increase in the number of eligible students. The budget 
includes $1 million to support ongoing evaluation of the BIE school 
system to improve educational outcomes. Within education construction, 
an increase of $2.3 million supports site development at the Beatrice 
Rafferty School for which design funding was provided in 2014. The 
budget also includes $2.3 million in increases for BIE funded post-
secondary programs including $1.7 million for post-graduate 
opportunities in science fields, and $250,000 for summer pre-law 
preparatory scholarships.
    Departmental Offices and Department-Wide Programs.--The 2015 
request for the Office of the Secretary is $265.3 million, an increase 
of $1.3 million from the 2014 enacted level. Of this, $122.9 million is 
for the Office of Natural Resources Revenue programs, an increase of 
$3.5 million, reflecting increases to strengthen production 
verification and meter inspections activities, including implementing 
an onshore production verification pilot and funding related data 
integration. Other changes include the proposed transfer of the Indian 
Arts and Crafts Board from the Office of the Secretary to the Bureau of 
Indian Affairs of $1.3 million, a decrease of $865,000 reflecting a 
shift from direct appropriations to fee for service for Indirect Cost 
Negotiations, and a program decrease of $266,000 in Valuation Services.
    The budget request for the Office of Insular Affairs is $92.2 
million, a decrease of $10.2 million from the 2014 enacted level. The 
budget includes an increase of $3 million to address urgent, immediate 
needs in the insular areas, and $1.8 million to improve safety 
conditions in insular school facilities. A decrease of $500,000 
reflects completion of an aerial bait system for brown treesnake 
control. Compact Impact is funded at $1.3 million, a decrease of $1.7 
million from 2014, and is supplemented by $30 million annually in 
permanent Compact Impact funding. Funding of $13.1 million for the 
Palau Compact Extension is not requested for 2015 as it is expected the 
Compact will be authorized and funded from permanent appropriations in 
2014.
    The Office of Inspector General (OIG) request is $50 million, a 
decrease of $784,000 from 2014. The budget includes a decrease of $2 
million reflecting completion of an effort to reduce OIG's physical 
footprint. Increases of $423,000 and $355,000 are included to support 
the council of the Inspectors General on Integrity and Efficiency and 
provide additional full-time equivalents (FTEs) for information 
security audits, respectively. The Office of the Solicitor request is 
$65.8 million, equal to the 2014 enacted level.
    The Office of the Special Trustee request is $139 million, $648,000 
below the 2014 enacted level. The 2015 budget decreases Business 
Management funding by $1.6 million reflecting $922,000 in efficiencies 
from the transfer of some mailing and printing services to the U.S. 
Department of the Treasury, a reduction of $500,000 in litigation 
support, and a decrease of $200,000 in funding for the Office of 
Hearings and Appeals.
    The 2015 request for the Department-Wide Wildland Fire Management 
program is $794 million without the proposed fire cap adjustment, and 
$1 billion including the adjustment. The request includes $268.6 
million for Suppression within the current budget cap, which is 70 
percent of the 10-year suppression average spending. This base level 
funding ensures the cap adjustment of $240.4 million would only be used 
for the most severe fires, since it is 1 percent of the fires that 
cause 30 percent of the costs. The new budget framework for Wildland 
Fire Management eliminates the need for additional funds through the 
FLAME Act. The 2015 budget includes a program increase of $34.1 million 
for Preparedness activities to enhance readiness capabilities. The 
budget includes $146.3 million for Fuels Management activities, 
formerly known as Hazardous Fuels Management. This is equal to the 2014 
enacted level with an increase of $1.3 million for fixed costs. 
Complementing this request is $30 million for Resilient Landscapes, a 
new component of the Wildland Fire Management program, to support 
treatments that improve the integrity and resilience of forests and 
rangelands. Resilient landscape projects will be leveraged with bureau 
efforts to reduce fire risk and improve overall resiliency. The budget 
request also includes a $2 million increase for the Burned Area 
Rehabilitation program to address greater post-fire rehabilitation 
needs caused by the 2012 and 2013 fire seasons.
    The 2015 request for the Natural Resource Damage Assessment and 
Restoration Fund is $7.8 million, a program increase of $1.5 million. 
The increase includes $1 million for a Department-wide onshore Oil 
Spill Preparedness Program, and additional resources for Restoration 
support. The budget includes $10 million for the Central Hazardous 
Materials Fund, an increase of $412,000 from 2014 to support additional 
cleanup work.
    The Department's 2015 request for the Working Capital Fund 
appropriation is $64.3 million, an increase of $7.3 million from the 
2014 enacted level. Within this request is $53.9 million for the 
operation and maintenance of the Financial and Business Management 
System, an increase of $1 million to continue support of the 
Department's Cultural and Scientific Collections Management initiative, 
a decrease of $1 million from the Department's Service First 
initiative, and an increase of $8.4 million to support Interior's 
Office Consolidation strategy in the DC metropolitan area.
                          mandatory proposals
    The 2015 budget includes 15 legislative proposals affecting 
spending, revenue and available budget authority, which require action 
by the congressional authorizing committees. Revenue and savings 
proposals will generate more than $2.6 billion over the next decade. 
The 2015 budget includes four spending proposals with an estimated $9.9 
billion in outlays over the next decade.
    Land and Water Conservation Fund.--The 2015 budget proposes $900 
million in current and permanent funding in 2015, and proposes 
permanent authorization of $900 million in mandatory funding for LWCF 
programs in the Departments of the Interior and Agriculture beginning 
in 2016. During a transition to permanent funding in 2015, the budget 
proposes $900 million in total LWCF programs funding, comprised of $550 
million permanent and $350 million current funding, shared by Interior 
and Agriculture.
    Centennial Initiative.--The Centennial Initiative includes a 
legislative proposal to authorize $1.2 billion in permanent funding 
over 3 years beginning in 2015 in the following areas: $300 million 
($100 million a year for 3 years) for a National Park Service 
Centennial Challenge fund to leverage private donations; $600 million 
($200 million a year for 3 years) for NPS deferred maintenance; and 
$300 million ($100 million a year for 3 years) for a multiagency 
Centennial Land Management Investment Fund to competitively award 
grants to Interior land management agencies and the U.S. Forest Service 
for deferred maintenance and conservation projects.
    Payments in Lieu of Taxes.--The Agricultural Act of 2014 included a 
1-year extension of permanent Payments in Lieu of Taxes (PILT) funding 
through 2014. The 2015 budget proposes to extend authorization of the 
program an additional year through 2015, while a sustainable long-term 
funding solution is developed for the PILT Program. The PILT payments 
help local governments carry out vital services, such as firefighting 
and police protection, construction of public schools and roads, and 
search and rescue operations. The cost of a 1-year extension is 
estimated to be $442 million in 2015. The 2015 budget for the U.S. 
Department of Agriculture (USDA) Forest Service includes a proposal to 
reauthorize the Secure Rural Schools Program for a 5-year period, 
covering lands managed by the BLM.
    Palau Compact.--On September 3, 2010, the United States and the 
Republic of Palau successfully concluded the review of the Compact of 
Free Association and signed a 15-year agreement that includes a package 
of assistance through 2024. The 2015 budget assumes authorization of 
permanent funding for the Compact occurs in 2014. The cost for this 
proposal is estimated at $178.3 million for 2015 through 2024.
    Federal Oil and Gas Reforms.--The budget includes a package of 
legislative reforms to bolster and backstop administrative actions 
being taken to reform the management of Interior's onshore and offshore 
oil and gas programs, with a key focus on improving the return to 
taxpayers from the sale of these Federal resources. Proposed statutory 
and administrative changes fall into three general categories: 
advancing royalty reforms, encouraging diligent development of oil and 
gas leases, and improving revenue collection processes. Collectively, 
these reforms will generate roughly $2.5 billion in net revenue to the 
Treasury over 10 years, of which about $1.7 billion would result from 
statutory changes. Many States will also benefit from higher Federal 
revenue sharing payments.
    Return Coal Abandoned Mine Land Reclamation Fees to Historic 
Levels.--The budget proposes legislation to modify the 2006 amendments 
to the Surface Mining Control and Reclamation Act, which lowered the 
per-ton coal fee companies pay into the Abandoned Mine Land (AML) Fund. 
The proposal would return the fee to 35 cents a ton, the same level 
companies paid prior to the 2006 fee reduction. The additional revenue, 
estimated at $362 million over 10 years, will be used to reclaim high 
priority abandoned coal mines and reduce a portion of the estimated 
$3.9 billion needed to address remaining dangerous coal AML sites 
nationwide.
    Discontinue AML Payments to Certified States.--The budget proposes 
to discontinue unrestricted payments to States and Tribes certified for 
completing their coal reclamation work. This proposal terminates all 
such payments, with estimated savings of approximately $295 million 
over the next 10 years.
    Reclamation of Abandoned Hardrock Mines.--To address the legacy of 
abandoned hardrock mines across the United States and hold the hardrock 
mining industry accountable for past mining practices, the Department 
will propose legislation to create a parallel Abandoned Mine Lands 
Program for abandoned hardrock sites. A new AML fee on hardrock 
production on both public and private lands would generate an estimated 
$1.8 billion to reclaim the highest priority hardrock abandoned sites 
on Federal, State, tribal, and private lands.
    Reform Hardrock Mining on Federal Lands.--Interior will submit a 
legislative proposal to provide a fair return to the taxpayer from 
hardrock production on Federal lands. The legislative proposal will 
institute a leasing program under the Mineral Leasing Act of 1920 for 
certain hardrock minerals including gold, silver, lead, zinc, copper, 
uranium, and molybdenum, currently covered by the General Mining Law of 
1872. The proposal is projected to generate net revenues to the U.S. 
Treasury of $80 million over 10 years, with larger revenues estimated 
in following years.
    Geothermal Energy Receipts.--The Department proposes to repeal 
section 224(b) of the Energy Policy Act of 2005. The repeal of section 
224(b) will permanently discontinue payments to counties and restore 
the disposition of Federal geothermal leasing revenues to the 
historical formula of 50 percent to the States and 50 percent to the 
Treasury. This results in estimated savings of $4 million in 2015 and 
$42 million over 10 years.
    Federal Land Transaction Facilitation Act.--The Department proposes 
to reauthorize this act to allow Federal lands identified as suitable 
for disposal in recent land use plans to be sold using this authority. 
The sales revenues would continue to fund the acquisition of 
environmentally sensitive lands and administrative costs associated 
with conducting the sales.
    Federal Migratory Bird Hunting and Conservation Stamps.--Federal 
Migratory Bird Hunting and Conservation Stamps, or Duck Stamps, are the 
annual Federal license required for hunting migratory waterfowl. The 
receipts generated from the sale of these $15 stamps are used to 
acquire important migratory bird areas for migration, breeding, and 
wintering. The Department proposes legislation to increase these fees 
which have not increased since 1991, to $25 per stamp per year 
beginning in 2015. This increase will add an estimated $14 million for 
migratory bird conservation annually.
    Bureau of Land Management Foundation.--The budget proposes 
legislation to establish a congressionally-chartered National BLM 
Foundation. This Foundation will provide an opportunity to leverage 
private funding to support public lands, achieve shared outcomes, and 
focus public support on the BLM mission.
    Recreation Fee Program.--The Department of the Interior proposes to 
permanently authorize the Federal Lands Recreation Enhancement Act, 
which will expire in December 2015. The Department currently collects 
over $200 million in recreation fees annually under this authority and 
uses them to enhance the visitor experience at Interior facilities.
           fire suppression and the discretionary budget cap
    The 2015 budget proposes to amend the Balanced Budget and Emergency 
Deficit Control Act of 1985, as amended, to establish a new framework 
for funding Fire Suppression Operations to provide stable funding for 
fire suppression while minimizing the adverse impacts of fire transfers 
on the budgets of other programs, as well as reduce fire risk, manage 
landscapes more comprehensively, and increase the resiliency of public 
lands and the communities that border them. Under this new framework, 
the 2015 budget request covers 70 percent of the 10-year suppression 
average within the domestic discretionary caps and a portion is funded 
in a budget cap adjustment. Extreme fires requiring emergency response, 
fires threatening urban areas, or requirements of an abnormally high 
fire season, would be permitted to be funded through the adjustment to 
discretionary spending limits. The cap adjustment does not increase 
overall current spending, as it reduces the ceiling for the existing 
disaster relief cap adjustment.
                    offsetting collections and fees
    The budget includes the following proposals to collect or increase 
various fees, so industry shares some of the cost of Federal permitting 
and regulatory oversight.
    New Fee for Onshore Oil and Gas Inspections.--Through 
appropriations language, the Department proposes to implement an 
inspection fee in 2015 for onshore oil and gas activities subject to 
inspection by BLM. The proposed fee is expected to generate $48 million 
in 2015, $10 million more than the corresponding $38 million reduction 
in requested appropriations, thereby expanding the capacity of BLM's 
oil and gas inspection program. The fee is similar to one already in 
place for offshore operations and will support Federal efforts to 
increase production accountability, human safety, and environmental 
protection.
    Grazing Administrative Fee.--The 2015 budget proposes a new grazing 
administrative fee of $1 per animal unit month. The BLM proposes to 
implement this fee through appropriations language on a 3-year pilot 
basis. The provision will generate an estimated $6.5 million in 2015 to 
assist BLM in processing grazing permits.
    National Wildlife Refuge Damage Cost Recovery.--The budget proposes 
appropriations language to authorize the Fish and Wildlife Service to 
pursue and retain recoveries from responsible parties, to be used to 
restore or replace damaged National Wildlife Refuge resources.
    Cost Recovery for Nontoxic Shot Approvals.--The budget proposes 
appropriations language to allow the Fish and Wildlife Service to 
retain and use fees collected for the review of nontoxic shot products. 
Nontoxic shot is a substitute for lead shot, banned for waterfowl 
hunting since 1991.
                               conclusion
    Thank you for the opportunity to testify on the President's 2015 
budget request for the Department of the Interior. This budget is 
responsible, and proposes to maintain core capabilities with targeted 
investments to advance the stewardship of lands and resources, 
renewable energy, oil and gas development and reforms, water 
conservation, youth employment and engagement, and improvements in the 
quality of life in Indian communities. I thank you again for your 
continued support of the Department's mission. I look forward to 
answering questions about this budget. This concludes my written 
statement.

    Senator Reed. Thank you very much, Madam Secretary.
    We will do 6-minute rounds. We have votes at 11 o'clock. I 
assume we can get through one round, and if necessary, we will 
have a second round. I think we do have that time.

                      WILDLAND FIRE CAP ADJUSTMENT

    Madam Secretary, can you walk us through the fire disaster 
proposal, how it will work? The reality is, that is a huge 
issue we confront every year in this bill. We have to pay for 
the emergency fires. Can you walk us through that? How much 
will you provide for fire suppression? How did you arrive at 
the funding level? And are you confident that it will be 
enough?
    Secretary Jewell. I will give a high-level overview, and I 
am going to turn to my colleague, Rhea Suh, who really worked 
very, very closely with the Office of Management and Budget 
(OMB) to craft this proposal in the President's budget 
alongside the companion legislation.
    In a nutshell, 1 percent of the most catastrophic fires 
consume 30 percent of our fire suppression budget. The proposal 
for fire suppression in the budget is 70 percent, which are the 
year-in, year-out regular fires. That is in the budget. The 
worst 1 percent of fires beyond that 70 percent number is what 
we are proposing to take off-budget into the emergency disaster 
relief. The 70 percent number is based on a 10-year suppression 
average of fires.
    What that enables us to do is consistently put money into 
hazardous fuels reduction and post-fire remediation so we don't 
end up in this negative spiral of robbing our accounts for 
hazardous fuel removal and post-fire remediation causing 
invasive species to come in, that causes worse fires in the 
future, so we have a downward spiral.
    I am going to turn it to Rhea to provide any additional 
details.
    Ms. Suh. Thank you very much, Madam Secretary. I will just 
add a few more comments here.
    As you know, in the President's request, 70 percent of the 
10-year average for fire is included in the discretionary part 
of the budget. The remaining 30 percent is included in the cap 
adjustment, which we are requesting.
    The cap adjustment was based on the same type of analytical 
forecast that the Federal Land Assistance Management and 
Enhancement Act (FLAME) scientists prepare for this committee 
on an annual basis. That includes data about weather, climate, 
drought, and historical expenditures.
    All combined, that is the amount of money we have put into 
the cap.
    Again, just to echo the Secretary's comments, this is 
really only to treat those fires that are truly disasters as 
disasters, and to allow both Interior and the Forest Service to 
be able to access those emergency funds.
    Senator Reed. Thank you.
    Madam Secretary, in order to implement this program, you 
have to get changes in the Balanced Budget and Emergency 
Deficit Control Act from the Budget Committee, I have been 
told, and also the FLAME Act from the Energy and Natural 
Resources Committee. And I just want your acknowledgment that 
you are aware of that and you are working on it; is that 
correct?
    Secretary Jewell. That is correct, Mr. Chairman. We very 
much modeled the President's request off of the bipartisan 
legislation that has been introduced in both houses. In the 
Senate, it is sponsored by Senator Wyden and Senator Crapo. 
That particular legislation specifically does amend the Budget 
Control Act.
    We are having conversations with staff around amendments to 
FLAME that would potentially be able to more clearly articulate 
the triggers involved in accessing those emergency funds.
    On both of those streams of work, we are very much aware 
and actively engaged with members in this house.
    Senator Reed. Thank you.

                        NATIONAL PARK CENTENNIAL

    As we have all noted, this is the hundredth year centennial 
just almost upon us, 2016, for the national parks. But we also 
have the National Heritage areas, and I note with some chagrin 
that the budget in this area has been decreased.
    In order to make this a truly national celebration, I think 
every State should have a sort of vested interest in this.

                             HERITAGE AREAS

    Can you comment on the role of these heritage areas as they 
connect to the parks and allow people to be outdoors? I think 
we shared the Blackstone Valley National Heritage together in 
kayaking, although I apologize the equipment did not come from 
REI, but forgive me.
    Secretary Jewell. Well, Senator, I did enjoy the kayaking, 
and the Blackstone River corridor as such a historic place is a 
great illustration of the potential of National Heritage areas. 
It is one that I have been working on personally for over 20 
years.
    The great thing about heritage areas is they engage the 
community in identifying areas of cultural, historic, and 
natural significance. In many cases, the local communities are 
who provide support for those initiatives.
    Yes, the budget was cut. Part of that is in recognition of 
the need for us to work closely with the communities on getting 
local support for National Heritage areas. The budget is 
tighter than we would like it to be as it relates to national 
parks overall, and we had to make some tough choices.
    We continue to work with you on heritage areas, and a path 
forward that engages private philanthropy and local community 
involvement to support these places, to earn the arrowhead logo 
but also the heritage status we believe is important to them.
    Senator Reed. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                             KING COVE ROAD

    Secretary Jewell, just a question, one question on the King 
Cove road issue, when you issued your release in December, you 
stated that the Department's commitment to assist in 
identifying and evaluating options would improve access to 
affordable transportation and health care for the citizens of 
this remote Alaska community.
    As I mentioned in my opening comments, I have not seen 
anything specific from you or from the Department in terms of 
what progress has been made in either identifying or evaluating 
options that would improve access.
    Can you outline for me the specific areas that you would 
propose in terms of alternatives, alternatives that would be as 
reliable and safe as a road, and affordable? And if you can 
identify any specific funding proposals that are included in 
the President's budget that would allow for improvement of the 
situation in King Cove?
    Secretary Jewell. Thank you, Senator.
    As we discussed yesterday, I very much appreciated the 
opportunity to meet with you, and to also meet with the 
residents of King Cove.
    We need suggestions from the people who live in the area on 
what alternatives would be potentially viable to them, if a 
road does not go through. It is very clear from my conversation 
in King Cove, as you and I made our visit there, and to Cold 
Bay, that the community feels very strongly that they want a 
road, as do you.
    I continue to be open to all conversations about 
alternatives.
    My team has had conversations with the Coast Guard about 
the 10 months of the year where they typically have a 
helicopter stationed in Cold Bay. I know they are very brave 
men and women that do this work, whether it is rescuing people 
on the high seas or facilitating humanitarian missions that you 
described earlier on land.
    I also know there are many villages in Alaska that are a 
long way away from medical care, and this clearly is an example 
of that, being 600 miles from Anchorage.
    We have had conversations with the Coast Guard. We will 
continue to do that. We have a conversation scheduled with the 
Corps of Engineers later on this week to better understand the 
alternatives they believe may be possible in that area, and I 
remain open to suggestions from the community, as we discussed 
yesterday afternoon, on areas they would like us to pursue that 
they believe would be viable for us to consider beyond the 
road, which clearly is your preferred alternative and that of 
the residents.
    Senator Murkowski. Well, as I mentioned yesterday, your 
search for viable alternatives is one that has been reviewed 
for decades now. And we are at this point where you have such 
unanimity in the community about the preferred alternative 
being the road because all other solutions have been tried and 
failed, or have been analyzed and determined too costly or not 
feasible given the situation.
    And I appreciate that you are new to the issue of King 
Cove, but I hope you would also appreciate that to them, this 
has been almost a lifetime of struggling to get this short 
connector road, a reliable, safe and secure, and affordable 
alternative in order to gain access.
    I would ask that you do more digging into the Coast Guard 
as a solution. I have talked not only to the admiral in the 
17th District, Admiral Ostebo, but also to Admiral Zukunft, who 
will be taking over as commandant. And I think it is very, very 
clear that the Coast Guard not only does not view this as a 
mission, it is not a mission that they wish to take on.
    In order to accommodate the people of King Cove on a 
somewhat reliable basis, they would require two additional 
helicopters at $26.1 million apiece. You would have to have an 
additional 20 personnel in order to allow for a level of safety 
for the pilots and the maintenance crew. Just the per diem 
alone to house them in Cold Bay would be a half million dollars 
on annual basis. That is just for the per diem.
    So, Madam Secretary, I encourage you to do your due 
diligence. But I will note that there has been nothing included 
in the President's budget for even the slightest alternative.

                            ARCTIC STRATEGY

    Let me turn very quickly here, this is a question that I am 
asking all Cabinet members. The national strategy for the 
Arctic region came out. We have the implementation plan for the 
national strategy, and within the implementation plan, the 
Department of the Interior has been designated as the lead 
agency in five different areas.
    Can you tell me what funding is included in the President's 
budget for the five areas that the Department of the Interior 
is tapped to be the lead agency for? You are also the 
supporting agency for numerous other projects. So I am trying 
to divine how much attention the administration is actually 
placing on the Arctic implementation plan.
    Secretary Jewell. Senator, and I know we are out of time, 
so I will make the answer very brief. I do not have a crosscut 
on all of the Arctic programs. I will be happy to get that to 
you very quickly. It wasn't one of the numbers that I prepared 
in advance for this gathering.
    But I will say the Arctic is very important to the United 
States of America, clearly very important to Alaska. We are 
very pleased to be involved with you and others in our Arctic 
strategy.
    From a scientific research standpoint, from a defense 
standpoint, from an oil and gas development standpoint, and the 
geopolitical standpoint, we think it is very important that we 
be at the table. I know that the Arctic Council will be meeting 
in Canada this year, that the United States will be hosting the 
following year, and we intend to fully engage in Arctic 
strategy issues, and we will get back to you with specifics.
    [The information follows:]
                            Arctic Programs
    The Department of the Interior is committed to full participation 
in the implementation of the National Strategy for the Arctic. This 
commitment involves the breadth of Interior's bureaus and offices with 
equities in the Arctic region with support from a myriad of programs 
and activities. The Department does not have a dedicated budget for 
Arctic activities but instead is supporting implementation of the 
Strategy by leveraging a diverse set of programs with multiple 
authorities and funding sources. Thus, there is not crosscut that 
identifies discrete funding for the Arctic Strategy, instead the 
Department is tracking actions and outcomes that are supported by 
Interior in total.

    Senator Murkowski. If you can get me those, I would 
appreciate it.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you.
    Senator Merkley.
    Senator Merkley. Thank you very much, Mr. Chairman.
    And thank you all for your presence and helping us 
understand this budget.

                   OREGON AND CALIFORNIA GRANT LANDS

    One of the things that I wanted to address was the budget 
for the O&C lands that are in Oregon. We have millions of acres 
of second growth forest that needs to be thinned, needs to have 
hazardous fuel reduction work, restoration work, needs to be 
prepared for the work done for the various sales that would 
come out of it.
    But the budget has been cut by $10.5 million. So if we are 
going to go forward on resource management plans, which require 
significant additional resources, and if the budget is cut, and 
if the current projects in the forest are greatly underfunded 
as it is, doesn't this mean just further lack of management and 
more problems for the O&C lands?
    Secretary Jewell. Thank you, Senator.
    There are a number of things that are mixed in with the 
Oregon and California Railroad Revested Lands (O&C) budget. One 
of the things is that the Bureau of Land Management (BLM) 
completed a resource management plan in prior years, so that 
will not be repeated, and part of the budget cut has to do with 
that.
    I know we are working with your team in Oregon on a 
sustained yield level, and we have a plan in place to cut about 
200 million board feet a year. Is that the right number? I 
think it is, 200 million board feet a year.
    In this year it is going to be a little bit higher, because 
of some salvage logging that is going to be supported.
    We know it is a very important program to Oregon. We know 
it is an important source of funding for schools in Oregon, as 
is the Secure Rural Schools. We will continue to support what 
we believe in the BLM to be a sustainable forest yield level of 
200 million board feet.
    With the resource management plan completion, we don't 
think we will need as much money as we had last year to do an 
equivalent job, and that is the basis of the budget.
    Senator Merkley. OK, I will just leave that as a concern I 
have for that particular area and the challenges that are faced 
in managing it appropriately, because it is suffering from many 
decades of underinvestment as it is currently.

                    LAND AND WATER CONSERVATION FUND

    I want to turn to the Land and Water Conservation Fund and 
specifically, there have been projects from all over the 
country that involve particularly sensitive pieces of land for 
acquisition. And now largely the funds go to what are referred 
to as collaborative landscape projects. There seems to be a lot 
of mystery as to how these are created and designated, kind of 
a black box.
    Oregon doesn't have one. We keep inquiring how it could 
come to have one.
    But what it means, essentially, is only a couple States 
really benefit from the mass majority of these funds. And yet, 
these funds were meant to enable sensitive projects to be 
acquired all over the Nation.
    So could you just give us a little background on this 
collaborative landscape strategy, and why it makes sense to 
ignore most of the U.S. for just a couple projects?
    Secretary Jewell. Senator, for specifics, I will turn to 
Rhea, in terms of how the money is spent. Let me give you a 
high-level overview, because there are two places these 
landscape cooperative areas that you reference, that I have 
personally been to, one very recently is in Montana, the Crown 
of the Continent region around Glacier National Park.
    This is one of the largest intact landscapes in the United 
States. Much of the land is managed by ranchers and they would 
like to keep those lands in working ranches. But they are 
highly developable otherwise, which would very much impact the 
ability of many migratory species, such as elk, grizzly bears, 
and others.
    We work cooperatively with Canada, which has set a lot of 
land aside and taken some out of mining development, for 
example, and our private landowners in that region to really 
work collaboratively on putting those landscapes in 
conservation while maintaining them in ranching.
    Similarly, in the headwaters in Everglades, it is another 
major area where we have done that. We have prioritized part of 
the Land and Water Conservation Fund (LWCF) money, but by no 
means all of the LWCF money in those projects, because we know 
they are critical. If we don't focus, it is sort of a peanut 
butter spread, but we are not able to take care of some very, 
very threatened ecosystems throughout the country.
    Longleaf pine in the Southeast is another area, but by no 
means does this limit our willingness or ability to invest in 
individual projects, which does continue.
    Rhea, do you have any quick things, because I know time is 
short?
    Ms. Suh. Sure. Thank you, Senator, for that question.
    The collaborative projects, and the process we created 
several years ago now, are really designed to enable the 
Federal land management agencies to look across their 
jurisdictional boundaries and to identify national priorities 
that deserve the opportunity to work across those 
jurisdictions.
    Every year we have a competitive process that is vetted at 
a very technical level by each of the real estate functions of 
the land management agencies, elevated to the bureau director 
level of the four land management agencies, and collectively 
adjudicated in a process that outlines priorities.
    The priorities that show up in the budget are not 
necessarily all of the priorities we had, and the priority 
lists are much longer than the budgets we can actually afford.
    I would like to say I think part of what the administration 
is asking for in the Land and Water Conservation Fund full 
funding proposal is an ability to get more landscapes, both 
collaborative and core, onto the list in any given year.
    Senator Merkley. Thank you very much. I will be following 
up about that process. I do feel like there are a lot of very 
sensitive landscapes that have fallen off the list in recent 
years.

                      WILDLAND FIRE CAP ADJUSTMENT

    I am out of time, but just compliments on the fire 
suppression strategy of putting the big fires, essentially, 
into the emergency side. The Forest Service has been decimated 
by this continuous raiding of often fire prevention funds in 
order to fight fires, and thank you very much.
    Senator Reed. Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman, Senator Murkowski, 
for the hearing.
    Welcome, Madam Secretary, to you and your team.
    I listened carefully to Senator Murkowski's passionate 
comments. I have known her a long time. I don't think I have 
ever heard her quite so strong in her comments. And I saw the 
Senator from California come in. It reminded me of an episode 
we had in our subcommittee, of which she is the chairman, where 
the general of the Army Corps of Engineers was trying to do the 
right thing, he thought, which was to close fishing below the 
dams on the Cumberland River. I thought that made no sense at 
all, because the dams aren't dangerous when the water is not 
coming through them, and the tracks aren't dangerous when the 
train is not coming. And he stuck to his guns, and we literally 
changed the law.
    But what Senator Feinstein said to him at that time was: 
Senator Alexander is a reasonable member; I would suggest you 
work something out.
    My thought is this, I have said in Tennessee, and I have 
said here, that I think you are one of the President's most 
able appointees. I think you will do a tremendous job as 
Interior Secretary. I know that Senator Murkowski is one of the 
most able and respected members of the United States Senate. 
And, except for this issue, the two of you would likely be 
close allies on a great many issues, so I hope you can work 
something out.

    JOINT CURATORIAL FACILITY AT GREAT SMOKY MOUNTAINS NATIONAL PARK

    I want to ask you in my time three or four pretty quick 
questions. One, I want to thank you for your visit to the Great 
Smoky Mountains National Park, and to you and your team for 
improving the joint curatorial collections that is half Federal 
dollars and half private funding. And I heard many good things 
about your visit. I thank you for that.

                            LAKE CUMBERLAND

    Also, I know that Senator McConnell, Senator Paul, Chairman 
Rogers, and Senator Corker, and I, appreciate the work that Dan 
Ashe of Fish and Wildlife and you did in putting a priority on 
getting Lake Cumberland back up to its proper level of water in 
time for the houseboat season. That may not seem like an 
important issue to many people, but it is to Chairman Rogers 
and the people in that part of Kentucky, because the water has 
been down for a long time. And you got done in what looks like 
35 or 45 days what could have taken 135, I think, something 
like that. And that is appreciated.

                            FISH HATCHERIES

    Now a couple of other issues, we are working together, the 
States of Tennessee and Georgia, the Tennessee Valley Authority 
(TVA), and Fish and Wildlife, again, Mr. Ashe, to try to come 
up with a plan for saving the fish hatcheries in Tennessee, the 
two of them. And TVA stepped in to do what it could, and that 
kept the fish hatcheries open. And that same group is now 
meeting to find a way for a permanent solution.
    This is important to the fishermen of Tennessee. It is 
important to the outdoors recreation of Tennessee, and to our 
tourism and jobs.
    So my question for you is, will you agree not to close down 
the two fish hatcheries in Tennessee during fiscal year 2015 
until you give this working group, including the two States, 
the TVA, and the Fish and Wildlife Service, a chance to come up 
with a solution that would have Congress pay for through the 
appropriate agencies the fish that were for sports fishing. In 
other words, we would separate the mitigation fish and the 
sports fishing.
    I would like to get a commitment not to close that down 
while we are trying to get a result.
    Secretary Jewell. Senator, thanks. I appreciate the 
importance of fish hatcheries on the sport fishery and on 
recreational fishing. And you know the challenges we have 
overall in the budget and the difficult decisions we have to 
make.
    We will not be closing any fish hatcheries in 2014. I do 
appreciate the TVA and the Army Corps stepping up to support 
their obligations, in terms of mitigation from their activities 
in terms of support for some of these hatcheries, which are for 
the downstream cold water sport fishing, as opposed to 
hatcheries that are necessary to maintain the integrity of 
species.
    Where we have people working together, cooperating on a 
long-term solution, is the kind of program we are very 
committed to supporting.
    I don't want to commit on any specific hatchery. It is my 
team that is working on that list, and they are working very 
cooperatively in Tennessee with other players. I think that is 
going to bode well for the hatcheries where there is 
cooperation. We are encouraging people in other States that 
have high-priority hatcheries for them to work with local and 
State partners to find long-term funding solutions.
    It feels a little like the base closure act when we talk 
about fish hatcheries.
    Senator Alexander. I am about out of time.
    Secretary Jewell. Oh, OK. Sorry. Go ahead.
    Senator Alexander. No, that is all right. But we understand 
what the Department's parameters are, and Mr. Ashe is working 
toward that, and we just want time to complete that. And the 
working group is pretty good because it has already had one 
success.

                   REIMBURSING STATES DURING SHUTDOWN

    The other one, Senator Flake has a bill to reimburse the 
States, which in our case were the counties, for the money lost 
that they spent reimbursing during the Government shutdown.
    My question is, will you support that legislation as it 
moves through Congress, to reimburse the State of Tennessee and 
the counties of Blount and Sevier for what they spent as a 
result of the Federal Government shutdown?
    Secretary Jewell. It is very clear the economic value of 
the national parks to local communities was evident during the 
shutdown. I will say I worked pretty much around the clock with 
very limited staff to facilitate the States' requests. We did 
some economic analysis, and it looks like close to a 10 to 1 
return that the States got for that investment.
    All unobligated funds were returned to the States. I did 
say at the time of these agreements that I couldn't obligate 
the Federal Treasury, and that it had to be congressional 
action, so I am supportive of the congressional action going 
forward. The decision will rest in your hands in terms of 
whether or not that happens.
    Senator Alexander. Thank you, Madam Secretary.
    I will submit in writing, if I may, Mr. Chairman, a 
question about white nose syndrome in bats, which you referred 
to in your statement.
    Thank you.
    Senator Reed. Thank you, Senator Alexander.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    And, Madam Secretary, thank you very much.

                           CALIFORNIA DROUGHT

    My statement and questions are going to be on drought and 
water in California.
    As you know, the Governor has called a state of emergency 
with respect to the drought. The snowpack is at 24 percent as 
of March 23. Shasta, Lake Oroville, San Luis Reservoir are all 
below 50 percent capacity.
    The California Farm Bureau estimates that a half-million 
acres are in the process of being fallowed, and that we will 
lose more than 100,000 head of cattle.
    It looks like 10 or more communities are going to run out 
of drinking water in the next few months.
    Now, a storm is approaching California right now, and this 
is the surge storm of the season. It is very important.
    I have asked my staff to bring down a copy of a letter that 
you have received from water contractors, so that you might 
look at it, as of yesterday. And they would like you and 
Secretary Pritzker to be on a conference call at 4 p.m. this 
afternoon.
    What is being asked, essentially--well, let me just give 
you a few data points. Salvage data from your agencies as of 
March 19 show no Delta smelt taken, 276 out of an allowed 
24,237 winter run salmon taken, and 148 out of an allowed 3,000 
steelhead taken.

                             WATER PUMPING

    So I think this data supports the notion that more water 
pumping can occur without jeopardizing fish species.
    And what I am essentially asking you to do is immediately 
consider emergency measures, which can increase pumping 
sufficiently to take advantage of this storm right now 
approaching our coast.
    It is really very important. This may be the one chance we 
have to pick up some additional acre-feet of water. So I would 
like to ask that now, of both you and your distinguished 
Commissioner of Reclamation.
    Secretary Jewell. Who has become my distinguished Deputy 
Secretary.
    Senator Feinstein. Excuse me, distinguished Deputy 
Secretary.
    Secretary Jewell. I will take a very high level. I was 
shown the letter by Mike in the car on the way here, so I 
haven't had time to fully digest it.
    [The letter follows:]
           Letter From the San Joaquin River Water Authority
                                        San Joaquin
                                     River Water Authority,
                                     Los Banos, CA, March 25, 2014.
    Re Request for Emergency Relief Due to Impending Storm Events.

Hon. Sally Jewell, Secretary,
Department of the Interior,
C Street NW, Washington, DC.
Hon. Penny Pritzker, Secretary,
Department of Commerce,
Constitution Ave. NW, Washington, DC.
    Dear Secretary Jewell and Secretary Pritzker: We are writing to you 
under the most urgent circumstances. As you are well aware, California 
is plagued by one of the worst droughts in its history. Water year 
2013-14 thus far has proven to be the second worst water year since 
recordkeeping began in 1850. While not quite as bad as 1977 standing 
alone, it comes on the heels of 2 prior years of extremely dry 
conditions. Yet, while the opportunities existed over the past 6 weeks 
to get more water to people and into storage south of the Delta, 
inaction has resulted in the loss of 225,000-450,000 acre-feet (af) of 
water supplies. Meanwhile, over 700,000 af flowed to the ocean. The 
situation for many in California is desperate.
    Now is the time that action is needed. The State cannot afford to 
lose another round of water supplies due to less than full 
implementation of proactive measures that are available to the State 
and Federal agencies.
    The Departments of Commerce and the Interior are in the unique 
position of having many of your stakeholders being those directly and 
profoundly impacted by this drought while at the same time having the 
ability to implement emergency measures that will provide a modicum of 
relief. The situation is as follows.
    Regulations imposed on the State Water Project (SWP) and Central 
Valley Project (CVP) (together ``Projects'') through biological 
opinions issued by your Departments are having a real-time adverse 
impact on California's water supply. With storms about to hit 
California, the Projects are collectively in the position of being able 
to capture significant amounts of water without adversely impacting 
listed fisheries.
    The National Marine Fisheries Service (NMFS) has been working with 
the U.S. Fish and Wildlife Service (USFWS) and their State counterparts 
to examine opportunities to provide flexibility to meet crucial water 
supply needs in the urban and agricultural sectors. Despite efforts to 
date, the Silicon Valley, which Secretary Pritzker recently visited and 
pledged to partner with to promote greater benefits for our economy and 
our citizens, is only receiving 75,000 acre-feet of the over 200,000 
acre-feet which it would be entitled under from State and Federal water 
sources. As a result, the local water district has requested its retail 
customers to reduce usage by 25 percent. Economic impacts of water 
rationing are severe. Similarly, in the agricultural sector, much of 
which is served by the Bureau of Reclamation, the Sacramento and San 
Joaquin Valleys are being devastated. Over 3 million acres of the 
Nation's most productive farm lands are receiving a zero surface water 
allocation this year. Permanent crops such as trees and vines are 
literally being ripped out due to lack of water. Hundreds of thousands 
of acres of permanent and annual crops will go fallow. The loss of 
permanent crops takes 5-10 years to restore. Annual crops fill 
irreplaceable supply chains that provide about 50 percent of the 
Nation's fruits and vegetables. Unemployment in the valleys will soar. 
Banks loans and insurance will become more expensive if the integrity 
of the water system is not maintained.
    The Endangered Species Act provides NMFS and USFWS with the tools 
necessary to support the emergency response actions necessary to 
provide much-needed relief that California needs and avoid the imminent 
loss of hundreds of thousands of acre-feet of irreplaceable water.
    Weather predictions indicate that another storm is heading to 
California today or Wednesday. We request that you allow for the 
maximum pumping of the flow that is going to develop from this storm 
based on the following conditions.
    Currently, protected fisheries in the Delta have experienced 
historically low take at the State and Federal water pumps. The nominal 
take is consistent with the monitoring data that has consistently and 
clearly demonstrated a lack of presence of protected fish in the 
central and south Delta in 2014. Because of this, we believe that 
maximizing pumping for the limited time that uncontrolled Sacramento 
River flows are elevated due to the storm is unlikely to jeopardize 
listed species. However, to ensure adequate levels of protection, we 
propose that if take reaches the levels of concern identified in the 
species specific incidental take statement, implementation of this 
emergency action be reassessed.
    As we explain on the attached pages, a temporary adjustment to the 
Delta smelt and Chinook salmon biological opinions (BiOps) would allow 
pumping--subject to take of fisheries--up to the full 11,280 cubic feet 
per second (cfs).
    Time is short. The storm is approaching and, practically speaking, 
we need a decision by close of business on Thursday, before Sacramento 
River flows arrive at the Delta. We therefore request that conference 
calls be set up for Wednesday and Thursday so that the situation may be 
addressed in real time with the most senior resource managers from both 
the State and Federal sectors as well as the water user and 
environmental communities.
    Once this storm series passes, and thinking ahead to the rest of 
this water season, the State is installing salinity barriers in the 
Delta. Further, State and Federal water managers are confident that 
they can control salinity in the Delta with fairly minimal flow amounts 
this summer, generally around 2,500 cfs. Water managers are proposing a 
longer term action plan that is being finalized. Continued real-time 
management will allow for improvements of water supply and protection 
of the upstream and Delta ecosystems.
    This letter is also being delivered to a number of other State and 
Federal officials that have a key role in California water decisions. 
We request that each of them become engaged in this rapid 
decisionmaking process and participate directly or through their 
delegates in these conference calls. However, we believe your direct 
leadership is necessary at this time and hope that you will participate 
personally. We have taken the liberty of setting up a conference line 
for the first call on Wednesday at 1 pm PDT (4 pm EDT). For 
convenience, we propose the same time be used for Thursday.
    The opportunity presented by this storm is upon us. We cannot 
afford inaction by either State or Federal regulators or water 
managers. We need your authority to impress upon your Departments and 
others that this is truly an emergency situation that requires 
immediate action. Failure to take action becomes a decision in and of 
itself and we are not likely to have another opportunity this year to 
help relieve this dire situation.
            Urgently and gratefully yours,
                                   Steve Chedester, Executive Director,
                                           San Joaquin River Exchange 
                                               Contractors Water 
                                               Authority.
                                   Daniel G. Nelson, Executive 
                                       Director,
                                           San Luis & Delta-Mendota 
                                               Water Authority.
                                   Ronald Jacobsma, General Manager,
                                           Friant Water Authority.
                                   Chase Hurley, General Manager,
                                           San Luis Canal Company.
                                   Randy Houk, General Manager,
                                           Columbia Canal Company.
                                   Christopher L. White, General 
                                       Manager,
                                           Central California 
                                               Irrigation District.
                                   Jeff Bryant, General Manager,
                                           Firebaugh Canal Water 
                                               District.
    Enclosures.
                            foregone pumping
Upcoming storms commencing March 23, 2014
    Currently the Projects are operating to a combined 2,000 cubic feet 
per second (cfs) export level resulting in about 5,500 cfs Delta 
Outflow and an Old and Middle River reverse flow limitation (OMR) of 
about -1,600 cfs. The export/inflow (E/I) ratio is about 25 percent, 
and San Joaquin River stream flow is about 700 cfs. Storms to Northern 
California are forecast to begin Tuesday evening and will bring 
precipitation throughout the week and into the weekend. It is 
anticipated that these storms will result in unregulated runoff within 
the Sacramento Valley similar in response to the storms experienced 
earlier in the month, resulting in excess flow in the Delta which 
potentially is available for delivery and storage south of the Delta. 
Although there are uncertainties in the timing and magnitude of the 
storm events, the following provides an explanation of the constraints 
upon exports that will result in foregone pumping in the near future.
    Without immediate relaxation of several pumping and outflow 
constraints the capture of a significant amount of the excess flow will 
be foregone, up to 125,000 acre-feet, similar to what has occurred 
during each of the storms of the last 2 months. The graphic below 
illustrates projected operations beginning today, through April 9. Of 
immediate issue are the OMR and E/I constraints. As inflow to the Delta 
increases due to the storms, pumping will increase. However, almost 
immediately pumping will be constrained by a maximum OMR flow of -5,000 
cfs and a maximum E/I ratio of 35 percent. While available pumping 
capacity is about 11,280 cfs, the pumps will be running at only about 
6,600 cfs, foregoing over 9,000 acre-feet of excess flow per day for 
several days. This effect is compounded by an outflow requirement of 
7,100 cfs for X2 which limits the amount of excess outflow that can be 
pumped, but which however, under the dire drought circumstances has 
been reduced by the State Water Resources Control Board (SWRCB) this 
year with the concurrence of State and Federal fishery agencies. 
Notwithstanding the SWRCB order, separate, but of significant impact on 
water supplies, will be the effect of the Reasonable and Prudent 
Alternative (RPA) condition in the Biological Opinions regarding the 
San Joaquin River Inflow to Export Ratio that would be exercised 
beginning April 1 and continuing through May. This action requires 
exports to be no greater than the inflow entering the Delta from the 
San Joaquin River (1:1), currently about 700 cfs. This action would 
constrain exports even lower than the actions already constraining the 
exports to 6,600 cfs, resulting in an additional 11,000 acre-feet per 
day of foregone pumping.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Secretary Jewell. I will say that the National Marine 
Fisheries Service and the Fish and Wildlife Service have 
exercised great flexibility so far this year in interpretation 
of their biological opinions to pump additional water, 
significantly more than last year.
    I also know the balance with the State needs and the 
salinity needs of the Delta, it is not just Delta smelt and the 
salmonids that are impacted.
    I am going to turn it to Mike to get into the specifics of 
this request and where we are with this incoming storm.
    Mr. Connor. Thank you, Secretary Jewell.
    Senator Feinstein, I can confirm that David Murillo, our 
regional director, will be participating in the call. We are 
still confirming availability of the key folks with Fish and 
Wildlife Service and National Oceanic and Atmospheric 
Administration (NOAA) fisheries in the discussion today.
    I would just note the discussion is really an ongoing 
discussion that has been going on over the last couple months. 
The precipitation event we have now happening in California is 
the third, as you referenced.
    We have taken significant measures and improved measures, 
quite frankly, improved our interpretation in our application 
of those biological opinions. As you remember in 2013 when we 
had similar events, and we can pump in the range of 5,000 to 
6,000 cubic feet per second (CFS). In 2013, we were down around 
2,000 to 2,500 CFS. That was the reference that a lot of people 
had to lost water.
    This year, in both of the events, we have maximized our 
pumping under the biological opinions. When Secretary Jewell 
was up there about 10 days ago, we were at 5,800 CFS. We 
actually got up to about 7,000 CFS of pumping at the high 
points during that runoff period. We intend to do the same with 
this runoff period.
    We are looking at some other additional measures we can 
take, and that is an ongoing discussion amongst the five 
agencies, the three Federal and two State agencies.
    We will engage the water users in that as part of the 
discussion today and continue to try to maximize how to make 
use of the runoff that comes during these precipitation events.
    Senator Feinstein. Mike, this may be the last opportunity 
we have to get enough additional water to make the five points 
in the drought bill that Senator Boxer and I have introduced 
that we are now trying to put together 60 votes on, to produce 
an additional 300,000 to 600,000 acre feet.
    So this storm is really important that we maximize the 
ability to save that water.
    Mr. Connor. Yes, absolutely. I would note several of those 
measures that are in your legislation are measures that we have 
taken this year that have significantly helped us increase the 
pumping.
    I think we can probably do more within the parameters of 
the biological opinions and the State permit we operate under. 
Those are the two constraints that we operate under, and we 
will do as much as we can.
    Can we get up to the 11,500 CFS maximum capacity of the 
pumps? I don't know that we can get there, but we are, 
certainly, going to try to keep moving up.
    Senator Feinstein. Well, what I have to say, you know, I am 
a lifelong Californian, I have never seen the level of 
desperation that exists all down the center of our State.
    And the unemployment rate is going up. The food lines are 
building. It is really a problem.
    We flew over with the President for 100 miles and just saw 
the devastation of the absence of water in that valley.
    So I know you are sincere. I know you want to do it. Please 
make that push now.
    Thank you, Madam--Mr. President--Mr. Chairman.
    Senator Reed. You honor me.
    Thank you, Madam Chairman, yourself.
    Senator Udall.
    Senator Udall. Thank you very much, Chairman Reed.

            OREGON MOUNTAINS-DESERT PEAKS NATIONAL MONUMENT

    And, Secretary Jewell, let me thank you very much for your 
visit to southern New Mexico. I know that you spent a couple 
days there. You had the opportunity to get around and see the 
Oregon peaks and Oregon Mountains-Desert Peaks National 
Monument and get the opportunity to get out and hike a little 
bit. And I hope that was fruitful for you.
    And I think it really prepares us to move forward with 
legislation on the monument, so I appreciate that visit.
    And it is always good to see Mike. Mike is a New Mexican, 
and we are very proud of you.

                                DROUGHT

    And as you are well-aware, Mike, New Mexico is suffering 
the same kind of drought that has been talked about here. In 
some areas, 13 years that we have been in drought, and it is 
severely impacting farmers and ranchers and people that live 
off the land, our tribes. And I know that the Bureau of 
Reclamation (BOR) has been working very diligently on that with 
all the groups have been involved.
    It really hit me in a way when I was out near Tucumcari, 
and there is a project out there that has been organized in a 
way where the community is involved and the Bureau of 
Reclamation is involved. And since the Great Depression, when 
the project was built, they always had water for farmers and 
ranchers.
    The last 2 years, not a single drop of water. And these are 
families with livestock and crops. They have to have water. If 
they can afford to haul water, they can do that, but it is 
obviously much more expensive.
    So we are in that difficult situation, too. And I 
appreciate all your work on that.

                             SEQUESTRATION

    Secretary Jewell, last year your Office of Natural Resource 
Revenue (ONRR) had determined that revenue paid to the States 
under the Mineral Leasing Act were subject to sequestration. 
You and I talked about that, and I asked you to reevaluate your 
position. And I really want to thank you for directing the ONRR 
to reverse its position and not sequester the funds.
    This revenue is vital to States such as New Mexico. It 
funds necessary items such as public schools, community 
colleges, emergency response activities, and basic 
infrastructure projects. So it was critical that these funds 
not be impacted by sequestration. We appreciate your attention 
to that.

                       PAYMENTS IN LIEU OF TAXES

    And I also would like to share my concerns regarding 
another form of critical support for local governments. That is 
the program Payment in Lieu of Taxes, or PILT. As you know, the 
PILT program provides critical funding to communities in New 
Mexico, like Cibola County, San Juan, Otero, Eddy counties, 
just to name a few of our 33 that get these funds.
    And I am very concerned there might be a lapse. We have 
been able to work in the appropriations process to get a 1-year 
extension. But I am wondering if you could share with me your 
thoughts on how we can make sure we have the funds there and 
how we can get congressional-executive cooperation to see that 
we have PILT funding in 2014 and beyond.
    Secretary Jewell. Thank you, Senator. It was a pleasure to 
visit your State. It was the first time I have seen a tarantula 
on the trail, so that was interesting.
    We are strong supporters of PILT as well as Secure Rural 
Schools. We recognize when Federal lands are in local 
communities, it takes them off the tax rolls, and that is the 
purpose of PILT.
    There is, in the President's budget, a 1-year 
reauthorization. As you know, for 2014, it passed on the farm 
bill.
    We would love to see a permanent fix. I think as we look at 
the authorization of the Land and Water Conservation Fund, 
potentially putting that together with PILT is an appropriate 
way of looking at a longer-term, permanent source of funding 
for both programs, which are so important for the reasons that 
I talked about in my opening statement, and in answers.
    I am happy to work with you. I think that makes sense for a 
rational path forward.
    Senator Udall. And I was going to ask also about the Land 
and Water Conservation Fund, but you hit on both of those. And 
they are absolutely key programs to the West and very much 
appreciate your help there.

                             PILOT OFFICES

    I wanted to also ask about the BLM pilot offices. As you 
know, the 2005 energy bill designated several pilot offices to 
receive extra resources to expedite permitting processing and 
conduct much-needed environmental oversight.
    These offices, which include the Carlsbad and Farmington 
offices in New Mexico, are already understaffed and overworked. 
But the looming expiration of this program at the end of 2015 
would further burden these offices.
    Can you provide some insight into the importance of this 
pilot program as it relates to the responsible energy 
development in States like New Mexico? And how does the 
investment in energy development translate into revenue for the 
American taxpayer?
    Secretary Jewell. In a quick nutshell, because I know we 
are running out of time. The pilot offices were a great 
experiment, but they went along political lines, along State 
lines, and oil and gas exploration resources don't know 
political boundaries.
    There is support in the 2015 budget for extension of the 
pilot office authority, but it also includes flexibility to be 
able to relocate the offices, to meet the demands of 
permitting.
    We have had dramatic reductions in the amount of time taken 
to process authorizations for permits to drill. We have 
improved the inspections, because of the investment in these 
pilot offices.
    We do find that there is sometimes a mismatch between where 
the pilot process is and where the demand has moved to because 
of the development. The offices have had a good return on 
investment, and we believe that is important to our strategy 
going forward, in addition to asking companies to pay for a 
portion of what it costs us, particularly in inspections and 
safety.
    There are some revenue proposals in this budget that enable 
us to charge fees to industry to inspect, and that will also 
help us fund these offices in terms of supporting future 
development.
    Senator Udall. Thank you, Madam Secretary.
    Senator Reed. Senator Johnson.
    Senator Johnson. Thank you, Chairman Reed. I share the 
concerns about the PILT program.

                                LANDSAT

    Secretary Jewell, I applaud you, the U.S. Geological Survey 
(USGS), and, in particular, the Eros Data Center in South 
Dakota for the extraordinary success of the Landsat program. 
With last year's launch of Landsat 8 and the inevitable 
expiration of Landsat 7 in a few years, the continuity of this 
imagery into the future will become a critical question.
    As such, Congress included language in the committee report 
to the fiscal year 2014 funding bill directing USGS and the 
National Aeronautics and Space Administration (NASA) to 
collaborate and develop a new path forward for the Landsat 
program.
    Can you give me an update about the status of those 
discussions, and how the short timeline for needing to launch 
the Landsat 7 replacement is factoring into these plans?
    Secretary Jewell. Thank you very much, Senator, for the 
questions.
    I did have an opportunity about 2 months ago to meet with 
NASA to talk about this program. It is very critical that we 
replace Landsat 7 before its batteries run out. It gives us, I 
think, an 8-day gap in data, which is very, very important.
    Landsat 8 provides a lot of new information that helps us 
deal with things like evapotranspiration, which are very 
important to understanding the impacts of drought and water 
across a lot of the country, and many other things.
    We are working closely with NASA on the potential of a 
clone to Landsat 8, and also an interim solution that gives us 
the data we need that NASA presented to us at our meeting.
    We are very committed to a path forward. We appreciate the 
support in the legislation and will continue to work with 
Congress on making sure we don't have a data gap on this 
support program.
    Senator Johnson. I appreciate your attendance at the Eros 
Data Center recently.

                    LAND AND WATER CONSERVATION FUND

    The Land and Water Conservation Fund has supported several 
recent projects in South Dakota, including an expansion of Wind 
Cave National Park, protection of grasslands in the Prairie 
Pothole Region, and the acquisition of key portions of the new 
Good Earth State Park.
    These projects have boosted tourism, protected our ranching 
heritage, and provided additional opportunities for hunting, 
fishing and other outdoor recreation.
    The administration budget has identified four priority 
projects for land or easement acquisition in South Dakota in 
fiscal year 2015 as a part of the Grasslands/Prairie Potholes 
Cooperative Landscape Partnership.
    However, much of the funding for these projects, and many 
others around the country, is proposed to come from a permanent 
funding mechanism that I support but does not yet exist. Should 
this funding mechanism not be enacted, what is your perspective 
on funding the projects on the list designated for permanent 
funding?
    Secretary Jewell. Thank you, Senator.
    The proposal for 2015 has $350 million in the current 
appropriations, and the balance, to the $900 million would 
require a legislative approval. The legislative proposal also 
includes full and permanent funding at $900 million in 2016 and 
beyond.
    There is $350 million in this proposal, in the budget 
proposal that you have before you.
    There are many projects that exceed what we have in LWCF 
funding, and we prioritize them according to their ability to 
address the biggest challenges we have and the biggest 
opportunities we have. The number of willing sellers who want 
to sell us land relative to our ability to buy them, and there 
are a lot more people that want to sell us land than we have 
money for.
    I know we have $7 million for the Dakota Grasslands 
Conservation Area, $3 million in the Tallgrass Prairie Wildlife 
Area, and $574,000 for Wind Cave.
    Rhea or Pam, do you know where those are within the $350 
million as opposed to the $900 million. And where they stack 
up?
    And if we don't know right away, Senator, we will get back 
to you with details on that.
    [The information follows:]
                     LWCF Projects in South Dakota
The following projects are included in the $350 million discretionary 
request:

    FWS.--Dakota Tallgrass Prairie Wildlife Management Area, 
$3,000,000; Dakota Grassland Conservation Area, $7,000,000.

The following projects are included in the $550 million mandatory 
request:

    FWS.--Dakota Tallgrass Prairie Wildlife Management Area, 
$3,887,000; Dakota Grassland Conservation Area, $7,000,000.
    NPS.--Wind Cave National Park, $574,000.

    Senator Johnson. Please do.
    Secretary Jewell. But the Prairie Pothole, the Nation's 
duck factory, it is really, really critical habitat and, as you 
know, disappearing very quickly from agricultural development, 
as well as other forms of development. It is very important to 
us.
    Senator Johnson. In South Dakota, visitor spending in and 
around our six national park units totaled $160 million in 
2011, and it supported more than 2,500 jobs.
    With the importance of the national park system to our 
national, State and local economies, we cannot continue to push 
deferred needs to the future without substantial risk.

                          MAINTENANCE BACKLOG

    The administration has proposed a substantial investment in 
our parks in the fiscal year 2015 budget, but it is clearly 
only a down payment, given the nearly $11 billion maintenance 
backlog nationwide. With flat or declining budgets and the 
upcoming centennial of the park system, what approaches do you 
see to redeem our stewardship responsibilities and address this 
backlog in an efficient and effective way over the next decade?
    Secretary Jewell. Senator, thank you very much for the 
question. This is a topic I am passionate about, and something 
where we only have one shot at the centennial.
    We know there will be increased visitation, and the 
National Park Foundation is working to raise awareness about 
the importance of national parks to all Americans and drive 
tourism, both domestically and abroad.
    The parks have prioritized the assets they have that need 
the most maintenance that are likely going to see the most 
visitors. We have a $40 million increase proposed in the 
budget. $10 million of that is for a matching fund, because 
there is a lot of private philanthropic interest, and that will 
be one way forward, to raise private money because people do 
love their national parks and are willing to support them. The 
match will help leverage those dollars even further.
    But it is just a down payment, as you point out. Even with 
the $1.2 billion recommendation we have in the President's 
budget for mandatory funding for the national parks over 3 
years, we are still not going to make a material difference in 
the maintenance backlog.
    The National Park Centennial will give people an 
opportunity to recognize these special places, and we believe, 
as the public speaks in a democracy, we will have the 
opportunity for additional support.
    I also just want to reference that in the Helium bill, 
Senator Murkowski was able to add additional $50 million for 
maintenance of the national parks, and we appreciate those 
efforts. They all add up.
    Senator Johnson. Thank you.
    Senator Reed. Thank you very much, Senator.
    We will begin a second round.

                                 YOUTH

    Madam Secretary, we have a common goal, which is to get 
young people involved in the outdoors through education. I have 
introduced, on several occasions, the No Child Left Inside Act. 
Your budget identifies almost $51 million in funding for youth 
engagement programs. Actually, it is a 37 percent increase 
since fiscal year 2014.
    Could you please walk us through the specifics on how you 
intend to use these funds, and how you measure success in this 
investment?
    Secretary Jewell. Thanks for the question.
    We have a four-tiered plan, if you will. We have a 
generational transformation going on in the country right now. 
The millennial generation is already larger than the baby boom 
generation. They came of age during a tough economy. Many of 
them have been more disconnected to nature and the outdoors 
than before, and yet we really need them to be in the kinds of 
positions that are necessary for the overall stewardship and 
development of our public lands.
    Part of this program is to engage that generation, but it 
is also a continuum, recognizing that the best introduction to 
nature and the outdoors comes in the form of play for children. 
Part of this budget supports programs in our regions to partner 
with 50 cities on increasing opportunities for children to play 
on public lands.
    Examples might be urban wildlife refuges, which are already 
incredible assets in urban areas. Some of the money will go to 
support connecting children to those places, and the next tier, 
which is learn.
    We have a goal of getting 10 million children engaged in 
playing on public lands and 10 million children learning on 
public lands. This recognizes and supports the ongoing programs 
and emphasizes them further.
    Then there are two more components, serve and work. Public 
service on public lands, volunteering on public lands, enables 
young people to never look at those lands in the same way. I 
make it a point of doing service projects regularly, to get out 
on the land, to work with my hands and to work with young 
people.
    Those efforts oftentimes are led by young people working in 
Youth Conservation Corps, and there is nothing I like better 
than being told what to do by a twentysomething who is working 
on a Youth Conservation Corps, who can teach me the difference 
between poison ivy and English ivy as I remove it in Rock Creek 
Park, or things like that across the country.
    We have a goal to engage by the end of this term a million 
hours of volunteer service on public lands--that is triple 
where we are right now--and a goal to create 100,000 jobs over 
4 years on public lands through working collaboratively with 
Youth Conservation Corps.
    We are very committed to this effort, and we will be 
building a new generation of young people that care and 
understand these resources and can learn from those who are 
already in these kinds of jobs.
    Senator Reed. Thank you, Madam Secretary.

                        HURRICANE SANDY FUNDING

    Before I recognize Senator Begich for his first round, let 
me ask one more question, and that is, Hurricane Sandy was 
devastating to my region, and there is about $100 million, 
which the National Fish and Wildlife Foundation is helping to 
administer through your office, in terms of grants.
    If you could get us up-to-date in terms of when do you 
anticipate these awards being made, and talk about the demands 
for these grants? And, indeed, what long-term goals are you 
trying to achieve through the grants?
    Secretary Jewell. Starting with the last question, we think 
that competitive grants that provide people with an opportunity 
to think how we can leverage these funds most effectively to 
achieve the objectives have just been very successful in other 
areas. The National Fish and Wildlife Foundation is 
administering them for us, and I appreciate the four letters 
you sent me on projects--I think it is four, maybe more--in 
your region.
    We had 378 proposals submitted, totaling $568 million for 
the $100 million in grants. It includes 10 proposals 
exclusively for the State of Rhode Island for $11.3 million. We 
have a panel of experts who are working through these proposals 
who really know these issues, and they expect to make a final 
decision by June of this year.
    Senator Reed. Thank you, Madam Secretary.
    Senator Begich.
    Senator Begich. Mr. Chairman, thank you very much. I am 
sorry, I had to step out there for a few minutes. But let me, 
if I can, I want to recap.

                             KING COVE ROAD

    I know we had a meeting yesterday, and I want to thank you 
for that, Madam Secretary, joining myself and the King Cove 
community in having the discussion, which I think was scheduled 
for a half-hour and ended up a little over an hour. And I 
appreciate the time that you took there.
    And I know the community laid out additional concerns, as 
well as some concerns with alternatives, and I want to walk 
through just a couple things, just to make sure to put it on 
the record for all of us.
    In the meeting, we talked about the King Cove community 
coming back by April 15 with information or additional 
information that they would like to present to you in regards 
to potential options that may be out there and the problems 
with those options. And I want to make sure I put that on the 
record and confirm that is your understanding, that by April 
15, they will be coming forward to you and to the delegation, 
but directly to your office, I think it was through Pat 
Pourchot, if I recall right, to give you kind of a list of 
concerns they would have with many of these alternatives that 
are being talked about or considered as an alternative to the 
road. Is that your understanding?
    Secretary Jewell. Yes.
    Senator Begich. On top of that, there is a letter that they 
sent to you, I think it was early January, and they had not 
received a response yet in regards to their concerns with the 
Environmental Impact Statement (EIS) and the actual elements of 
it. The commitment was, after that information was additionally 
given to your office after April 15, simultaneously, I should 
say, during that period of time, you will review with legal 
what your ability is to respond to that letter, how in depth or 
how minimal it will be, but you would not respond until this 
additional information comes in, so you might incorporate 
responses also to that. Is that your understanding?
    Secretary Jewell. It is my understanding they will be 
getting me additional information, and I need to consult with 
legal counsel. There are really complicated laws involved here 
that I am not familiar with. The timing of my response relative 
to the information I get is something I need to talk over with 
legal counsel. Because we met until late yesterday, I haven't 
had a chance to talk with them yet today on a path forward.
    Senator Begich. No problem. But I want to make sure that, 
one way or another, it may be a very short letter, it may be a 
very long letter, but there will be a response to the 
correspondence they sent in to you the beginning of January 
regarding the EIS.
    You may not be able to go into detail on it, because legal 
may tell you not, but they may tell you, sure, go ahead and 
respond. But either way, after April 15, once additional 
information is provided, you will have some sort of response to 
the original letter and the additional information. It may be 
limited or it may expanded, depending on what legal tells you; 
is that correct?
    Secretary Jewell. Yes, I will provide a response in both 
cases.
    Senator Begich. OK.
    And can I say that your conversation yesterday, that you 
were not closed to hear these issues with these alternatives 
that may be kicked around, but you wanted factual--for example, 
we talked about the weather conditions that would not allow 
some port activity because of the icing, and so forth. One of 
the concerns, I don't want to put words in your mouth, but you 
wanted to make sure that the data that comes from the King Cove 
community shows exactly why this would not work, which I agree 
with that. I mean, I would argue the King Cove community will 
give you plenty of information, why it ices up, why these 
conditions will just never allow this alternative.
    But your understanding is that you want to see that in data 
form on some site. Is that fair? I am trying to summarize here 
in a public forum what we talked about.
    Secretary Jewell. There are lots of facts that were 
incorporated into the record of decision. I haven't read the 
detailed EIS. I read an awful lot of material.
    There are legal parameters around records of decision that 
I don't fully understand. If there are additional facts and 
information, I am, certainly, willing to review those facts and 
information, particularly with regard to alternatives in 
supporting the residents of King Cove, and their needs for 
medical evacuation.
    Senator Begich. OK. And I think it is fair to say that the 
delegation's view, the King Cove community view, is there is 
one alternate. It is the road. Is that a fair, from your 
viewpoint at this----
    Secretary Jewell. Yes, in all of my communications with the 
community, and I think it is probably fair to say in the 300 or 
so consultations that have happened over the years, the 
community has been consistent in only wanting to assess one 
alternative, which is a road.
    Senator Begich. Let me, if I can because I will have more 
on that as we move down the process here, but I will have some 
additional stuff for you later, but let me ask you a couple 
quick things in regards to the budget.

                SITE CONTAMINATION AT TRANSFERRED LANDS

    I know I sent a letter in regard to contaminated lands that 
were transferred to the Alaska Native Corporation through the 
Alaska Native Lands Claims Settlement Act. This was an issue. I 
think there are 600 of these sites, or plus.
    There were six recommendations made in 1998. We sent you a 
letter to ask your Department to review these recommendations 
and what action you would take or not take in regard to these 
contaminated lands. It is almost, as you know, over 15 years 
since these recommendations.
    If you can give me a quick update on the status of 
responding to that letter in regard to those recommendations, 
for the record?
    Secretary Jewell. Are these regarding the legacy wells and 
the National Petroleum Reserve-Alaska?
    Senator Begich. No. These are lands that were transferred 
to native corporations. Some were polluted lands. They were BLM 
lands. And they were other type of contaminations.
    Secretary Jewell. OK, I am sorry, I don't have information 
on that, so let me get back to you for the record on that.
    [The information follows:]
                Site Contamination at Transferred Lands
    Secretary Jewell responded to Senator Begich's letter (co-signed by 
Senator Murkowski and Representative Young) on January 10, 2014. 
Secretary Jewell's letter explained that, among other things, the 
Bureau of Land Management (BLM) is reviewing the sites listed in the 
1998 BLM Report to Congress (``Hazardous Substance Contamination of 
Alaska Native Claims Settlement Act Lands in Alaska'') to better 
determine if the lands were Alaska Native Claims Settlement Act (ANCSA) 
conveyances. Since January, BLM-Alaska has organized a team to 
specifically focus on the contaminated lands conveyance issue in 
Alaska. This group is currently working to gather data and understand 
the scope of the issue. They are going through BLM's data to determine 
what contaminated lands may have been conveyed to whom, and whether 
potentially contaminated lands were contaminated prior to being 
conveyed or after, and by whom. A database of this information is being 
developed. BLM-Alaska is working cooperatively with the Alaska Native 
Village CEO Association on this issue and meeting regularly with them 
as it gathers information and compiles the inventory. The BLM's goal is 
to complete the inventory by August of this year.

    Senator Begich. I would appreciate that. That would be very 
important.
    Again, it is a direct letter that I wrote, but that would 
be very helpful.

                         CONTRACT SUPPORT COSTS

    Also, I do want to say your comments in regard to the BIA 
and the Indian Health Service funding and full funding, one, 
BIA, I will say, has done a good job on this in the sense of, 
one, getting this cap resolved, but also moving forward on 
settling the past due.
    Indian Health Services, they are not here today, because 
they are not part of this, has not done a very good job on 
this. But the Bureau of Indian Affairs (BIA) has done a good 
job, and I just want to give you credit on that, because these 
are monies owed. It is not a question of if they are owed, and 
the money is there, and Treasury has it in the legal fund in 
order to pay these. So I thank you for kind of aggressively 
moving.
    We are not done with this issue, as you know, because we 
need to make sure it is not just a 1-year, 2-year off issue 
that we are fully funding. We need to make sure that this is 
100 percent into the future, because these are contracted 
services that are being provided throughout the country for 
Indian Health Services or health care for first people in this 
country. So I want to just note that.

                         INDIAN AFFAIRS FUNDING

    And last, Mr. Chairman, and if I can, one note I want to 
put on the record, and maybe a response of why this is, but out 
of all the different major areas over the last decade, the BIA 
has had the smallest increase compared to any other unit within 
the Department of the Interior. I think it has only been, of 
the six largest units, it is the smallest increase.
    And we get this concern from our tribes on a very regular 
basis. Why are they--and I say ``they'' collectively--always on 
the backend in the increases that happened in the six largest 
areas in the Interior Department.
    And again, if you can answer now, that is great. I know I 
am out of time, but if you want to respond in writing, that 
would be fantastic.
    Secretary Jewell. Do I have time for a quick response, Mr. 
Chairman?
    Senator Reed. Yes, ma'am.
    Secretary Jewell. OK, thanks.

                         CONTRACT SUPPORT COSTS

    First on contract support costs, we fully support that. I 
have been asked by the White House to chair the White House 
Council on Native American Affairs. I can tell you from talking 
to my colleague, Kathleen Sebelius, and many other Cabinet 
secretaries, there is strong support for Indian country across 
the board. I think that forum gives us a chance to remind all 
of the bureaus and agencies about the role they play in 
upholding trust and treaty obligations to tribes.
    In terms of the budget, there is an increase in budget for 
Indian Affairs and Indian Education. It is higher than some and 
lower than others in this budget. I also want to say there is 
another I think $612 million across all of the bureaus to 
support programs in Indian country, whether it is the mineral 
development, because part of the BLM's responsibility is the 
mineral estate under tribal lands, or invasive species or fire. 
It is an important component of the fire budget as well.
    It needs to be taken holistically, but I am very 
appreciative of the President's budget and its support for 
Indian country. It is never enough, just as we have a backlog 
on our facilities and national parks, and it feels like you 
don't catch up, but it is, certainly, a strong statement about 
the administration's support. I am behind that and will 
continue to push.
    Senator Begich. Thank you, Mr. Chairman.
    I will send you a document from our tribes in southeast 
that I want to share with you and BIA. And I think it would be 
very important to see the comparisons, and I will share that 
with you in a follow-up letter.
    Thank you, Mr. Chairman.
    Senator Reed. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                             KING COVE ROAD

    And, Secretary, as you are evaluating the information that 
the community of King Cove will provide to you prior to the 
15th of April, I want to make sure that you have a copy of the 
report that was conducted, I guess just completed the 24th of 
March, regarding the suitability of the landing craft as well 
as a letter from PeterPan Seafoods, in terms of a complete 
denial of any interest, recognizing that they would have no 
interest nor opportunity in a road, as well as information from 
Coast Guard that we are compiling. I think that that would be 
helpful for you.
    And I just also wanted to note that you made a comment 
about the fact that there are many communities in Alaska that 
experience difficulties in gaining access to medical care. That 
is absolutely true. But the difference between so many of them 
and the situation in King Cove, is King Cove is the only 
community that has a viable alternative right in front of them, 
or maybe 10 miles away from them.
    So I would hesitate to suggest that because other rural 
communities don't have good access, that that is somehow a 
reason to deny King Cove, because two wrongs don't make a 
right. I just wanted to add that.

                     ARCTIC OUTER CONTINENTAL SHELF

    I just wanted to ask very quickly, with my remaining time 
here, as we wrap up this hearing, about Arctic Outer 
Continental Shelf (OCS). As you know, Shell canceled its 
exploratory drilling program up in the Chukchi for this summer, 
based in part on the Ninth Circuit decision that came out that 
determined the EIS for the lease sale was deficient, and also 
failure to provide regulatory certainty from the Department, as 
far as how to move forward in the Arctic.
    So as I have talked with Shell, what they are hoping for, 
and what I am hoping to understand from you this morning, is 
how the Department intends to proceed with this. Will it be 
kind of a dual-track process where the Department will work to 
remediate the EIS that the Ninth Circuit struck down while at 
the same time committing to evaluate the exploration programs 
so that Shell can proceed with work in 2015, because the 
concern, of course, is that we just work on the legal track, 
but we are not working the regulatory track at the same time.
    Can you tell me how that is going forward and when you 
might expect that the regulations for offshore exploration 
might be released?
    Secretary Jewell. Thank you. Just to be clear, Senator, the 
decision that Shell made to not go forward was not based, from 
their conversations with us, on regulatory uncertainty.
    My colleague Brian Salerno, a former Coast Guard admiral 
who is running the Bureau of Safety and Environmental 
Enforcement, has been working hand-in-glove with Shell, 
including looking at its subsea containment system and working 
closely with them on a plan to pursue their activities in the 
Arctic that we consider to be a good illustration of where the 
regulations will come out. We are not slowing down the process 
of their ability to drill based on waiting for the regulations 
to come out.
    Senator Murkowski. No, and I wasn't suggesting that you 
were slowing down.
    Secretary Jewell. OK.
    Senator Murkowski. What I know is not complete, is that 
these regulations have not been released, so as Shell is trying 
to determine how they do proceed, they need some certainty. So 
I am just curious as to how we are coming with the timing of 
that, and how that is tracking with dealing with the deficient 
lease sale.
    Secretary Jewell. They are in the process of writing up the 
regulations consistent with what Shell was already checking 
for, and we expect to have them published in the Federal 
Register this year, so there should not be difficulty, if there 
is a green light through the Ninth Circuit Court, and the 
supplemental EIS, for them to proceed, as long as the court is 
satisfied.
    We understand the very limited drilling season. We 
understand the challenges of logistics and staging. We are 
working closely with the courts on what they expect of us, in 
terms of an update to the EIS. We are continuing to stay in 
close contact with Shell and Conoco Phillips on their interest 
in pursuing this.
    I do not anticipate the regulations that are being 
formulated to have any impact at all on their ability to 
operate once the courts have agreed on a path forward.
    Senator Murkowski. Well, just know that we are monitoring 
very carefully in terms of when these regulations will come 
out. Initially, it was anticipated that they would be out well 
by this point in time. You have now indicated that they will be 
done sometime this year. Just for planning purposes, knowing 
what the rules of the road are is critically important.

                      BEAUFORT AND CHUKCHI LEASES

    You mentioned the short drilling season that we have up 
North, another thing that we are facing is that many, if not 
all, as I understand, of the leases in the Beaufort and the 
Chukchi will expire before we can reasonably expect oil 
production to be brought online. And so while it may be a 
little premature at this point in time to talk about extension 
of those leases, I think it is something that the 
administration is going to have to look at in terms of its 
commitment to working with those who have leases in the Arctic, 
recognizing the challenges that we face with any kind of 
expiration opportunity up there, both on the environmental 
side, both on the regulatory side.
    But if there is a true commitment from this administration 
to advance Arctic expiration offshore, I think that is going to 
be a situation that we will have to look at, because the timing 
is not coming together as one might hope in terms of the 
lifetime of the leases and the ability to advance with 
exploration and the production. So I just put that in front of 
you.
    Secretary Jewell. Senator, I know my colleagues at the 
Bureau of Ocean Energy Management and Bureau of Safety and 
Environmental Enforcement are working closely with the 
operators there. The suspensions of leases are in active 
discussions. We understand that there are time delays. If an 
EIS isn't done right the first time, it throws you back and 
impacts the regulatory certainty for operators. It is 
unfortunate that occurred, but we are working actively with the 
companies up there in what they desire and what we think is 
appropriate for the American people as well.
    Senator Murkowski. I appreciate that.
    Mr. Chairman, I have a whole host of additional questions. 
As you well know, the Interior Department, the Secretary of 
Interior, have a great deal of influence in play in my State. I 
refer to the Department of the Interior and the Secretary's 
role as being effectively one as landlords, so we have 
pertinent issues as they relate to oil and gas development; 
legacy wells, as the Secretary mentioned; contaminated lands; 
national parks; Brooks Camp, what we are doing up there. So I 
will submit those in writing and look forward to responses.
    But I thank the Secretary and the other members of the 
panel this morning.
    Senator Reed. Thank you very much, Senator Murkowski.

                     ADDITIONAL COMMITTEE QUESTIONS

    The record will remain open until April 2 for additional 
statements or questions by any of my colleagues.
    And I would ask you, Madam Secretary, to respond as quickly 
as possible. We thank you, Madam Secretary, for your testimony, 
and your colleagues. Thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Jack Reed
                       youth and veteran programs
    Question. Secretary Jewell, you recently committed to raise up to 
$20 million in private funding for youth engagement programs to 
leverage the Department's contributions. How do you plan on 
accomplishing this? Does the Department have the authority to solicit 
and hold private funding for these programs? How do you plan on 
administering the private funds you raise?
    Answer. The Take Pride in America Act authorizes the Secretary to 
carry out a number of activities, including: partnering with public and 
private organizations to promote participation in volunteer efforts 
through a public awareness campaign, soliciting and accepting donations 
in furtherance of the Take Pride in America Act, and accepting 
volunteer services from individuals and organizations. Interior's 
bureaus also have authority to accept volunteer services. Interior has 
partnered with the National Fish and Wildlife Foundation (Foundation) 
for the $20 million fundraising goal. Secretary Jewell and the 
Department will work to increase awareness of the opportunity to 
support youth and veteran engagement opportunities and inform 
prospective donors of the opportunity to make donations to the 
Foundation. The Foundation has established a separate fund (the 
Interior 21st Century Conservation Service Corps Account) to receive 
the funds, distribute those funds to nonprofit corps partners and be 
responsible for annual reporting on the associated projects and 
results.
    Question. Your budget also emphasizes making connections between 
veterans and land management agencies but doesn't provide many details 
on how you will accomplish that goal. How is the Department moving 
forward with veterans' programs? Are you partnering with the Veterans 
Administration or non-profit organizations?
    Answer. Since 2010, the Department has been active in establishing 
long-term relationships with Federal agencies, schools, veterans' 
organizations and military organizations. The Department and our 
bureaus have entered into formal agreements with the Department of 
Veterans Affairs and the Office of the Chief, Army Reserve. The 
Department was the first Federal agency to sign an agreement with the 
Office of the Chief, Army Reserve that focused on connecting reserve 
service members to employment opportunities; connecting military youth 
and families to America's great outdoors, history and culture; and 
expanding recreational opportunities for community-based wounded 
warrior programs. The Department also has partnerships with non-profit 
organizations such as Veterans Green Jobs and Mt. Adams Institute, to 
connect America's veterans to conservation and land management. These 
partnerships expand opportunities for veterans (and military families) 
to learn the importance of natural resource management and explore 
potential careers within land management agencies. Interior's work with 
these organizations is a critical aspect of our success in hiring 
veterans over the past 3 years, which reached 40 percent of our 
permanent hires in fiscal year 2013. Our goal is to continue building a 
talent pipeline of our Nation's veterans, by continuing and enhancing 
partnerships with the Department of Veterans Affairs, veteran service 
organizations and other non-profit organizations.
    The President's fiscal year 2015 budget for the Department of 
Veterans Affairs also includes $1 billion in mandatory funding to 
create the Veterans Job Corps program that would put thousands of 
veterans back to work over the next 5 years protecting and rebuilding 
America. The Department of Veterans Affairs proposal would authorize 
and provide funding to coordinate an interagency process and transfer 
up to $1 billion in mandatory funding over 5 years to establish the 
Veterans Job Corps. Funding will enable veterans to leverage skills 
developed in the military in jobs on the country's public lands and in 
its communities, ranging from conservation and infrastructure projects 
to law enforcement and first responder jobs, such as park rangers, 
police officers, and firefighters.
                    national park service centennial
    Question. The centennial of the National Park Service (NPS) in 2016 
is deservedly a major focus of your budget request. Specifically, you 
have requested $40 million for this proposal, including $30 million in 
visitor service and facilities projects and $10 million for Centennial 
Challenge grants to match Federal funding for infrastructure needs with 
contributions from non-Federal partners. How will these funds be 
allocated among park units? Where are your focus areas?
    Answer. The President's request includes a discretionary increase 
of $40 million to prepare for and celebrate the Centennial. This 
requested increase includes $30 million for operations to support 
visitors during the 2016 Centennial celebrations and to provide a 
stronger foundation for visitor services and infrastructure investments 
in its second century of preserving the parks for ongoing usage and the 
future enjoyment of visitors. Of the $30 million increase for 
operations, $4 million would support 21st Century Conservation Service 
Corps youth work opportunities to educate and engage the next 
generation; $2 million would support volunteer opportunities for young 
people to expand the capacity of the NPS to manage volunteers in parks; 
$8 million in competitively managed funds would support enhanced 
visitor services in the areas of interpretation and education, law 
enforcement and protection, and facility operations; and $16 million 
would support improvement in the condition of high priority park 
assets, such as visitor use facilities, historic structures, and 
trails. Across these centennial increases, the budget provides an $8 
million increase for youth engagement and employment opportunities, and 
continues the NPS' efforts to attract qualified veteran candidates to 
fill Federal positions.
    The remaining $10 million of the $40 million discretionary request 
is for the Centennial Challenge program, which would leverage Federal 
funds with partner donations for signature projects and programs at 
national parks. Preference would be given to projects that have a clear 
and immediate visitor benefit as well as a higher partner match. The 
Challenge will require at least a one for one match from non-Federal 
entities, with some projects leveraging more. While many parks and 
partners have expressed interest, projects would not be selected until 
funds are appropriated.
    In addition to this discretionary request, the President's budget 
also proposes $400 million a year for 3 years for Centennial activities 
to be provided as mandatory funding through authorization legislation. 
This includes $100 million a year for 3 years for Centennial Challenge 
projects and programs, $200 million a year for 3 years for deferred 
maintenance projects, and $100 million a year for 3 years for the 
multi-agency Centennial Land Management Investment Fund, which will 
provide an opportunity for all of Interior's public lands bureaus and 
the U.S. Forest Service to address conservation and infrastructure 
project needs.
    Question. How will the Centennial Challenge grant proposal actually 
work? Do you already have partners who are looking to match their funds 
for specific projects?
    Answer. Similar to the 2008 appropriation, once funding was known, 
an announcement would be made soliciting project ideas and partner 
matches. Preference would be given to projects that have a higher 
partner match, and clear visitor benefit. In order for a project to be 
chosen, a commitment letter from the partner is required as well as 
demonstrated park support. There is strong evidence of support for 
partner matching projects; several partners have already indicated 
willingness to match Federal funds for projects. The NPS is aware of 
potential partners from both large and small parks as well as local and 
national organizations.
                    land and water conservation fund
    Question. It is clear that the Department has taken notice of 
Committee direction about the Land and Water Conservation Fund (LWCF) 
and has assembled a more geographically diverse list of projects 
proposed for discretionary funding. Do you believe this budget balances 
the need to conserve smaller tracts in urban areas and larger 
landscapes?
    Answer. The 2015 budget requests funding for a diverse portfolio of 
projects through the Land and Water Conservation Fund's many programs, 
and were thoughtfully designed to ensure we balance the conservation 
and recreational access needs of diverse communities and landscapes 
across the country. For example, the budget requests a total of $100.1 
million ($48.1 million discretionary and $52 million mandatory) for the 
NPS-administered State and Local Assistance Grant program, which will 
provide grants to States and localities to plan for, acquire, and 
develop facilities for close-to-home recreation in communities in every 
State and territory. The budget requests a total of $100 million ($50 
million discretionary and $50 million mandatory) for Fish and Wildlife 
Service (FWS)-administered Cooperative Endangered Species Conservation 
grants, which will support State efforts to develop and implement plans 
for endangered species recovery and habitat conservation. These grants 
support small scale efforts in a wide variety of settings, including 
near developed communities and in rural areas.
    Across the discretionary and mandatory requests, the budget 
includes funding for 125 unique bureau land acquisition projects in 36 
States. This portfolio of projects reflects the reality that 
conservation and recreation needs vary widely across the Nation, and 
proposes funding strategies that are responsive to the unique needs of 
local communities and landscapes. The budget includes support for land 
acquisition projects that range from fee simple acquisition of a 5-acre 
inholding at Maine's Acadia National Park to the FWS easement 
acquisition of 30,000 acres--through conservation easement partnerships 
with multiple landowners--in the Dakota Grasslands of North Dakota and 
South Dakota.
    Question. Diversity in the project lists is key to engendering 
support nationally for LWCF, particularly as it needs to be 
reauthorized next year. What is the Department's plan for 
reauthorization? When should we expect to see a full legislative 
proposal and a concerted effort to engage the authorizing committees?
    Answer. The 2015 budget includes four mandatory spending proposals, 
of which one is mandatory funding for the Land and Water Conservation 
Fund. We are currently working within the administration, including 
with the Department of Agriculture, to ensure the reauthorization 
proposal is comprehensive and relevant to 21st century conservation 
needs.
    The administration anticipates working in collaboration with 
legislators and staff to develop a plan to authorize $550 million in 
mandatory funding for 2015, and to reauthorize the program permanently 
with full mandatory funding beginning in 2016. The administration looks 
forward to working with Congress on the details of legislation that 
would advance our LWCF proposal.
    Question. I am concerned about how Congress, and more specifically, 
the Appropriations Committee, will remain involved in this process if 
LWCF is switched to a mandatory program. The Committee has a 
longstanding role in determining how land acquisition funds are 
allocated and how priorities are set, and we value that role. How is 
the administration planning to continue to involve Congress in land 
acquisition decisions through your mandatory proposal? And 
specifically, what role do you foresee the Appropriations Committee 
playing if funds are made mandatory?
    Answer. The administration anticipates close collaboration with 
Congress as we develop a plan for reauthorizing LWCF with mandatory 
funding. The administration recognizes and values the role the 
Committee has historically played providing oversight to ensure the 
wise expenditure of LWCF funds, and looks forward to working with 
Committee staff to develop procedures for implementation of a mandatory 
funding regime which provides appropriate avenues for continued 
congressional input and oversight.
    Question. As you have traveled the country over the past year as 
Secretary of the Interior, including our trip to Rhode Island in May, I 
know you have seen the great diversity in our Federal lands and the 
great need to protect threatened lands for conservation. Those of us in 
the East are just as worried about protecting small inholdings in our 
urban centers as those in the West are in protecting our Nation's most 
dramatic landscapes. What do you see as your mark on the Land and Water 
program?
    Answer. One of my highest conservation priorities is securing 
reauthorization of the LWCF and ensuring the program is fully funded 
with mandatory funding. Authorizing permanent mandatory funding for the 
LWCF would realize the original intent of this law: to set aside a 
meaningful portion of the royalties that companies pay for developing 
America's offshore oil and gas reserves, and reinvest those funds in 
land and water conservation for the benefit of all Americans and future 
generations. Without mandatory funding, it appears likely we will 
continue to underinvest in land and water conservation programs as 
funding for these programs must compete directly with a wide range of 
other programs with varying objectives as part of the annual 
appropriations process. Mandatory funding will provide greater 
certainty this portion of our offshore royalties are used for their 
original intended purpose: to support the national endowment of lands 
and waters which provide our cities with clean drinking water, provide 
our children with safe places to play, and protect the way of life of 
our farmers, foresters and ranchers.
    Each community's vision for conservation of their lands and waters 
will be unique to its community, but our cities, towns and rural areas 
across the country all share a common need for resources to invest in 
public open space and conservation. A fully funded LWCF will provide 
the resources we need to fund the full spectrum of conservation and 
recreational access projects that communities want to invest in. We can 
fund city parks so kids can get outside and play in their own 
neighborhoods, and we can fund landscape scale conservation, 
collaborating with private landowners on conservation easements that 
keep working lands in production while protecting habitat, wildlife 
migration corridors and clean drinking water.
    Question. I am concerned that we continue to hear the unsupported, 
shopworn argument that securing more conservation land adds unduly to 
Federal land management and maintenance costs. Can you please provide 
the subcommittee with a fuller understanding of the ways that land 
conservation through LWCF improves management and reduces operating 
expenses for the Department? Can you highlight a few specific examples 
where LWCF spending has reduced operating and maintenance costs? What 
are the broader positive impacts of LWCF on agency budgets?
    Answer. The Department of the Interior LWCF programs work in 
cooperation with local communities, rely on willing sellers, and 
maximize opportunities to partner with private landowners on 
conservation easements where conservation and management objectives can 
be achieved without fee simple acquisition. Proposed Federal land 
acquisition projects are developed with the support of local 
landowners, elected officials, and community groups.
    Because there is a recognized need for funding to address 
maintenance needs on existing federally managed lands, the President's 
fiscal year 2015 budget proposes discretionary funding (a portion of 
the Opportunity, Growth, and Security Initiative) to address 
maintenance backlog needs for all natural resource agencies, and an 
additional $200 million in mandatory funding for the National Park 
Service to help prepare for the National Park Service Centennial in 
2016.
    Acquisition of inholdings does not generally require additional 
operating costs as no new staff or equipment is required to manage new 
lands within existing boundaries. Occasionally, agencies may incur up 
front costs to remove existing improvements (fences, buildings, etc.) 
from an acquired property. By removing unwanted structures on newly 
acquired land, agencies avoid adding to ongoing operations and 
maintenance (O&M) requirements.
    In fact, acquisition of inholdings can greatly simplify land 
management for Federal managers and neighboring landowners. Eliminating 
checkerboard ownership within Federal units simplifies nearly every 
aspect of land management:
  --Wildland fire managers can apply appropriate fuels reduction, 
        planned burns, and fire suppression treatments more easily 
        across an unfragmented landscape; fire management is more 
        challenging and costly when private inholdings and developed 
        properties are intermixed with federally managed forests and 
        public lands.
  --Law enforcement and public safety personnel can more easily patrol 
        and respond to emergencies when public ownership is 
        consolidated. An unfragmented unit allows unified signage, road 
        networks, and other infrastructure that will best enable safe 
        public access and allow for the efficient movement of emergency 
        personnel and vehicles to locations frequented by visitors.
  --Recreation managers can more easily provide access for the public 
        to enjoy their public lands. In some cases checkerboard 
        ownership can cause confusion among the public about acceptable 
        land uses, and can restrict the public's ability to access some 
        areas of public land.
  --Natural resource management is simplified in an unfragmented 
        landscape. When checkerboard ownership is eliminated, 
        biologists, geologists and other natural resource professionals 
        can move freely across the land that they are responsible for 
        surveying, and natural resource management actions can be 
        applied more efficiently across a landscape in single 
        ownership.
    Examples of enhanced management resulting from land acquisition 
include:
    St. Vincent National Wildlife Refuge.--St. Vincent National 
Wildlife Refuge (NWR) is an island off the panhandle coast of Florida 
in Apalachicola Bay, off the Gulf of Mexico. Acquisition of the 5-acre 
tract on the mainland of Apalachicola Bay provides permanent deep water 
mooring with launch site, secure parking and equipment storage. An 
important point is that dredging and channel maintenance are allowed in 
Apalachicola Bay. The lease at Indian Pass, the current deep water 
mooring and launch site, was ending and would not be renewed as the 
owners were looking to develop the mainland at the launch site. In 
addition, the upland portion of the leased Indian Pass site had been 
significantly reduced due to severe, continuing, and progressive 
erosion that the land owner failed to address.
    As the refuge is only accessible by water, the new deep water 
mooring and launch site reduces staff travel time from the refuge 
office to transfer supplies and heavy equipment. Daily boat access for 
St. Vincent NWR staff is required 24/7 for all island management 
activities, such as sea turtle nest monitoring and protection, habitat 
management, prescribed burning, hunting and fishing management and 
protection, and response to visitor emergencies.
    With the acquisition of the mainland deep water boat mooring and 
launch site, the Fish and Wildlife Service eliminates the annual 
$12,000 lease and has significant savings in fuel for vehicles. Staff 
traveling to and from the work site and hauling equipment to 
Apalachicola Bay from the refuge office, had to travel 20 miles to 
Indian Pass, then travel by watercraft to St. Vincent Island. At the 
end of each day, traveling was reversed back to the refuge office. 
Adequate parking for heavy equipment and vehicles is available at the 
new site.
    Prior to the acquisition of the deep water mooring and launch site, 
the Service conducted a critical review and analysis of deep water 
mooring and access options in the general vicinity of the refuge. Only 
two or three options were possible, with the acquisition of the 
acquired site being the most cost effective and safest for staff. The 
other sites involved longer nautical travel distances at nine miles, 
were more costly as public boat launch sites, and did not offer the 
security needed for refuge equipment.
    Yukon Flats National Wildlife Refuge.--The Service acquired five 
tracts totaling 480 acres within the Yukon Flats National Wildlife 
Refuge in Alaska. One tract contains prime river frontage along the 
Porcupine River with cliffs containing important nesting habitat for 
peregrine falcon. The other tracts contain frontage along Beaver Creek, 
Rock Slough, and the Black River. Most of these properties contain high 
quality wetland complexes and were isolated inholdings surrounded by 
Refuge land. Acquisition of these parcels greatly benefits Refuge 
wildlife management and provides a cost savings to the Government due 
to decreased fire management expenses.
    Canyons of the Ancients National Monument.--The Bureau of Land 
Management purchased the 800-acre Alexander (a/k/a Yellow Jacket 
Canyon) parcel within Canyons of the Ancients National Monument (NM) 
with funding from the Land and Water Conservation Fund on April 16, 
2014. This purchase is completely surrounded by Bureau of Land 
Management (BLM)-owned land within the boundary of the Monument. Just 
northwest of Cortez, Colorado, the 173,000-acre Monument was 
established to protect cultural and natural resources on a landscape 
scale. These remarkable cultural resources have been a focal point of 
explorers and researchers for 130 years.
    Approximately 45,000 visitors annually explore these ancient sites 
and camp, hike, horseback ride, mountain bike, use all-terrain vehicles 
(ATVs), hunt and view wildlife within the Monument. The Monument is 
important to Native Americans who maintain close ties to the sites 
occupied by their ancestors. The BLM estimates the Alexander/Yellow 
Jacket Canyon parcel may contain as many as 170 cultural sites 
associated with Yellow Jacket Pueblo, one of the largest and best 
studied Ancestral Puebloan sites in the Southwest. Purchase of this 
parcel also simplifies maintenance of the Monument as well as fire 
activities.
    Kennesaw Mountain National Battlefield Park.--The National Park 
Service acquired 41.55 acres at the Kennesaw Mountain National 
Battlefield Park in October 2013. It was the last privately owned 
parcel in the park and was slated for development through subdivision. 
Acquisition of this parcel allows the park to manage these lands in a 
way that preserves the battlefield resource of earthworks that marked 
both the Union and Confederate lines during the battle. The park 
contains the best set of earthworks of any Civil War site, and these 
would have been bulldozed to make way for development of a suburban 
housing tract. Acquisition of this land directly contributes to the 
reason this unit was created. Additionally, this land has served as an 
unofficial access point for equestrian trails, and with the acquisition 
this access can be managed to conserve the resources (landscape, flora, 
water quality in the nearby stream). Making this access official has 
already saved law enforcement costs in both time and fuel as rangers 
can now easily access the formal park trails that are adjacent to this 
land and more effectively monitor looting and poaching activities which 
have been known to take place in this area.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
    Question. California is in one of the worst droughts in its 
history. With most of the rain season behind us, the State reported 
that much of California has received only about 50 percent of normal 
precipitation. The snowpack is at 24 percent of normal as of March 23. 
Shasta, Lake Oroville, and San Luis Reservoir are all below 50 percent 
of capacity. The California Farm Bureau estimates that 500,000 acres of 
farm land are being fallowed, and more than 100,000 heads of cattle 
could be lost. Ten or more communities could run out of drinking water 
within the next few months.
    The Interior Department, specifically the Bureau of Reclamation and 
the United States Fish and Wildlife Service, play crucial roles in 
managing and regulating water operations in California.
    You have stated many times that you are looking to operate and 
manage the water system with flexibility. What specific steps have you 
taken to maximize operational flexibility?
    Answer. Reclamation has been coordinating with the California 
Department of Water Resources (DWR), California Department of Fish and 
Wildlife (DFW), National Marine Fisheries Service (NMFS), Fish and 
Wildlife Service (FWS), and the State Water Resources Control Board 
(SWRCB) to make the best use of water available in the system for water 
supply while protecting the fishery. Much of this coordination has been 
in the Real Time Drought Operations Team (RTDOT). Actions have included 
modifying both Endangered Species Act (ESA) and water rights permit 
objectives to improve our operational flexibility and increase Delta 
exports. The Central Valley Project (CVP) and State Water Project (SWP) 
have also shifted operations between the two projects to minimize 
impacts to the fish while exporting more water from the Delta and the 
CVP has delayed construction activities to accommodate operational 
flexibility.
    Question. Do I have your personal commitment that you will be 
deeply involved in finding ways to maximize operational flexibility so 
that more water can be provided to California water users?
    Answer. Yes, the drought will continue to be a high priority 
activity in the Department.
    California is experiencing another storm this week. This is only 
the third sizable storm to arrive in California in over a year. A group 
of water contractors wrote Secretary Jewell and Secretary Pritzker 
yesterday, urging emergency action to allow for more water to be 
captured during this storm.
    [The letter follows:]
           Letter From the San Joaquin River Water Authority
                                        San Joaquin
                                     River Water Authority,
                                     Los Banos, CA, March 25, 2014.
    Re Request for Emergency Relief Due to Impending Storm Events.

Hon. Sally Jewell, Secretary,
Department of the Interior,
C Street NW, Washington, DC.
Hon. Penny Pritzker, Secretary,
Department of Commerce,
Constitution Ave. NW, Washington, DC.
    Dear Secretary Jewell and Secretary Pritzker: We are writing to you 
under the most urgent circumstances. As you are well aware, California 
is plagued by one of the worst droughts in its history. Water year 
2013-14 thus far has proven to be the second worst water year since 
recordkeeping began in 1850. While not quite as bad as 1977 standing 
alone, it comes on the heels of 2 prior years of extremely dry 
conditions. Yet, while the opportunities existed over the past 6 weeks 
to get more water to people and into storage south of the Delta, 
inaction has resulted in the loss of 225,000-450,000 acre-feet (af) of 
water supplies. Meanwhile, over 700,000 af flowed to the ocean. The 
situation for many in California is desperate.
    Now is the time that action is needed. The State cannot afford to 
lose another round of water supplies due to less than full 
implementation of proactive measures that are available to the State 
and Federal agencies.
    The Departments of Commerce and the Interior are in the unique 
position of having many of your stakeholders being those directly and 
profoundly impacted by this drought while at the same time having the 
ability to implement emergency measures that will provide a modicum of 
relief. The situation is as follows.
    Regulations imposed on the State Water Project (SWP) and Central 
Valley Project (CVP) (together ``Projects'') through biological 
opinions issued by your Departments are having a real-time adverse 
impact on California's water supply. With storms about to hit 
California, the Projects are collectively in the position of being able 
to capture significant amounts of water without adversely impacting 
listed fisheries.
    The National Marine Fisheries Service (NMFS) has been working with 
the U.S. Fish and Wildlife Service (USFWS) and their State counterparts 
to examine opportunities to provide flexibility to meet crucial water 
supply needs in the urban and agricultural sectors. Despite efforts to 
date, the Silicon Valley, which Secretary Pritzker recently visited and 
pledged to partner with to promote greater benefits for our economy and 
our citizens, is only receiving 75,000 acre-feet of the over 200,000 
acre-feet which it would be entitled under from State and Federal water 
sources. As a result, the local water district has requested its retail 
customers to reduce usage by 25 percent. Economic impacts of water 
rationing are severe. Similarly, in the agricultural sector, much of 
which is served by the Bureau of Reclamation, the Sacramento and San 
Joaquin Valleys are being devastated. Over 3 million acres of the 
Nation's most productive farm lands are receiving a zero surface water 
allocation this year. Permanent crops such as trees and vines are 
literally being ripped out due to lack of water. Hundreds of thousands 
of acres of permanent and annual crops will go fallow. The loss of 
permanent crops takes 5-10 years to restore. Annual crops fill 
irreplaceable supply chains that provide about 50 percent of the 
Nation's fruits and vegetables. Unemployment in the valleys will soar. 
Banks loans and insurance will become more expensive if the integrity 
of the water system is not maintained.
    The Endangered Species Act provides NMFS and USFWS with the tools 
necessary to support the emergency response actions necessary to 
provide much-needed relief that California needs and avoid the imminent 
loss of hundreds of thousands of acre-feet of irreplaceable water.
    Weather predictions indicate that another storm is heading to 
California today or Wednesday. We request that you allow for the 
maximum pumping of the flow that is going to develop from this storm 
based on the following conditions.
    Currently, protected fisheries in the Delta have experienced 
historically low take at the State and Federal water pumps. The nominal 
take is consistent with the monitoring data that has consistently and 
clearly demonstrated a lack of presence of protected fish in the 
central and south Delta in 2014. Because of this, we believe that 
maximizing pumping for the limited time that uncontrolled Sacramento 
River flows are elevated due to the storm is unlikely to jeopardize 
listed species. However, to ensure adequate levels of protection, we 
propose that if take reaches the levels of concern identified in the 
species specific incidental take statement, implementation of this 
emergency action be reassessed.
    As we explain on the attached pages, a temporary adjustment to the 
Delta smelt and Chinook salmon biological opinions (BiOps) would allow 
pumping--subject to take of fisheries--up to the full 11,280 cubic feet 
per second (cfs).
    Time is short. The storm is approaching and, practically speaking, 
we need a decision by close of business on Thursday, before Sacramento 
River flows arrive at the Delta. We therefore request that conference 
calls be set up for Wednesday and Thursday so that the situation may be 
addressed in real time with the most senior resource managers from both 
the State and Federal sectors as well as the water user and 
environmental communities.
    Once this storm series passes, and thinking ahead to the rest of 
this water season, the State is installing salinity barriers in the 
Delta. Further, State and Federal water managers are confident that 
they can control salinity in the Delta with fairly minimal flow amounts 
this summer, generally around 2,500 cfs. Water managers are proposing a 
longer term action plan that is being finalized. Continued real-time 
management will allow for improvements of water supply and protection 
of the upstream and Delta ecosystems.
    This letter is also being delivered to a number of other State and 
Federal officials that have a key role in California water decisions. 
We request that each of them become engaged in this rapid 
decisionmaking process and participate directly or through their 
delegates in these conference calls. However, we believe your direct 
leadership is necessary at this time and hope that you will participate 
personally. We have taken the liberty of setting up a conference line 
for the first call on Wednesday at 1 pm PDT (4 pm EDT). For 
convenience, we propose the same time be used for Thursday.
    The opportunity presented by this storm is upon us. We cannot 
afford inaction by either State or Federal regulators or water 
managers. We need your authority to impress upon your Departments and 
others that this is truly an emergency situation that requires 
immediate action. Failure to take action becomes a decision in and of 
itself and we are not likely to have another opportunity this year to 
help relieve this dire situation.
            Urgently and gratefully yours,
                                   Steve Chedester, Executive Director,
                                           San Joaquin River Exchange 
                                               Contractors Water 
                                               Authority.
                                   Daniel G. Nelson, Executive 
                                       Director,
                                           San Luis & Delta-Mendota 
                                               Water Authority.
                                   Ronald Jacobsma, General Manager,
                                           Friant Water Authority.
                                   Chase Hurley, General Manager,
                                           San Luis Canal Company.
                                   Randy Houk, General Manager,
                                           Columbia Canal Company.
                                   Christopher L. White, General 
                                       Manager,
                                           Central California 
                                               Irrigation District.
                                   Jeff Bryant, General Manager,
                                           Firebaugh Canal Water 
                                               District.
    Enclosures.
                            foregone pumping
Upcoming storms commencing March 23, 2014
    Currently the Projects are operating to a combined 2,000 cubic feet 
per second (cfs) export level resulting in about 5,500 cfs Delta 
Outflow and an Old and Middle River reverse flow limitation (OMR) of 
about -1,600 cfs. The export/inflow (E/I) ratio is about 25 percent, 
and San Joaquin River stream flow is about 700 cfs. Storms to Northern 
California are forecast to begin Tuesday evening and will bring 
precipitation throughout the week and into the weekend. It is 
anticipated that these storms will result in unregulated runoff within 
the Sacramento Valley similar in response to the storms experienced 
earlier in the month, resulting in excess flow in the Delta which 
potentially is available for delivery and storage south of the Delta. 
Although there are uncertainties in the timing and magnitude of the 
storm events, the following provides an explanation of the constraints 
upon exports that will result in foregone pumping in the near future.
    Without immediate relaxation of several pumping and outflow 
constraints the capture of a significant amount of the excess flow will 
be foregone, up to 125,000 acre-feet, similar to what has occurred 
during each of the storms of the last 2 months. The graphic below 
illustrates projected operations beginning today, through April 9. Of 
immediate issue are the OMR and E/I constraints. As inflow to the Delta 
increases due to the storms, pumping will increase. However, almost 
immediately pumping will be constrained by a maximum OMR flow of -5,000 
cfs and a maximum E/I ratio of 35 percent. While available pumping 
capacity is about 11,280 cfs, the pumps will be running at only about 
6,600 cfs, foregoing over 9,000 acre-feet of excess flow per day for 
several days. This effect is compounded by an outflow requirement of 
7,100 cfs for X2 which limits the amount of excess outflow that can be 
pumped, but which however, under the dire drought circumstances has 
been reduced by the State Water Resources Control Board (SWRCB) this 
year with the concurrence of State and Federal fishery agencies. 
Notwithstanding the SWRCB order, separate, but of significant impact on 
water supplies, will be the effect of the Reasonable and Prudent 
Alternative (RPA) condition in the Biological Opinions regarding the 
San Joaquin River Inflow to Export Ratio that would be exercised 
beginning April 1 and continuing through May. This action requires 
exports to be no greater than the inflow entering the Delta from the 
San Joaquin River (1:1), currently about 700 cfs. This action would 
constrain exports even lower than the actions already constraining the 
exports to 6,600 cfs, resulting in an additional 11,000 acre-feet per 
day of foregone pumping.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Question. What is Reclamation doing in response to this storm so 
that the maximum amount of water can be captured before it flows out to 
the ocean?
    Answer. Our response has been primarily through the RTDOT. The 
agencies evaluate both the water supply that can be captured as well as 
the biological effects of the actions.
    Question. What are the pros and cons of invoking emergency 
consultation with the fish agencies to allow for even higher levels of 
water pumping?
    Answer. Emergency consultation allows for immediate action if there 
is an imminent threat of loss of life or property. However, a 
traditional consultation must ultimately be completed and mitigation 
actions implemented. Potential benefits are quick action, as in the 
case of a flood when an emergency flood wall must be constructed. If 
however the impacts of the action are extensive, extensive mitigation 
could be required.
    Salvage data from the agencies as of March 19, 2014 show that no 
Delta smelt has been taken; 276 out of an allowed 24,237 winter run 
salmon have been taken; and 148 out of an allowed 3,000 steelhead have 
been taken.
    Question. Does the data support the notion that more water pumping 
can occur without jeopardizing fish species?
    Answer. Take limits associated with the Incidental Take Statement 
in a biological opinion (BiOp) identify the amount of take that can 
occur while operating consistent with the BiOp and implementing the 
reasonable and prudent actions in a jeopardy BiOp. Jeopardy 
considerations include not only take at the pumps but also access to 
quality spawning and rearing habitat including in-stream temperatures 
and flows to improve out-migration of smolts. Through the RTDOT 
process, the project operators and regulatory agencies are doing all 
that is possible to improve exports while protecting the species.
    Question. What other emergency measures can be implemented within 
your discretion to maximize water supplies without jeopardizing 
endangered species? And are you prepared to implement those measures 
immediately?
    Answer. Reclamation and DWR continue to work in collaboration with 
the regulatory agencies (NMFS, FWS, DFW, SWRCB) through the RTDOT 
process to ensure that exports are maximized while protecting species 
of concern. The RTDOT participants are willing to implement measures 
that improve exports while protecting species.
    Question. How will the need for carryover storage affect the water 
projects' ability to export more water as opposed to storing it?
    Answer. There will be some tradeoff between releasing water from 
storage for water supply and retaining some in storage to maintain 
operations in a continuing drought.
    Question. How much carryover storage is needed going into the 2015 
water year?
    Answer. We are planning the operations to satisfy the regulatory 
objectives in 2014 and maintain a carryover storage that should carry 
us through a dry 2015 in the event that the drought might continue. We 
are assuming that if the drought continues there will be extraordinary 
operations similar to what we are experiencing in 2014.
    Question. California must expand water storage to capture water 
from the wet years for the dry years, so that we have a better chance 
of getting through conditions such as the ones we are experiencing now.
    However, Reclamation's feasibility studies for new storage projects 
have been going on for over a decade and have cost over $91 million 
with no results yet.
    Meanwhile, California is likely to vote on a water bond this year 
that could make up to $3 billion available starting mid-2015 for 
storage projects that have completed feasibility studies and favorable 
benefit-to-cost ratios.
    What will it take to get all storage studies completed by the end 
of 2015?
    Answer. Reclamation has completed public review and comment on 
draft Feasibility Reports for expanding Shasta Lake and increasing 
storage in the Upper San Joaquin River basin. The draft Environmental 
Impact Statement (EIS) for Shasta was released for public review and 
comment last summer, and the draft for Upper San Joaquin is due out 
this summer. Both studies to support Federal decisionmaking are on 
track to be completed by the end of 2015, with Shasta completed by the 
end of 2014.
    All four storage studies have been affected by a significant 
reduction of non-Federal funding and ability to participate. As a 
result, while the Draft EIS for both Shasta and Upper San Joaquin meet 
the requirements for an Environmental Impact Report (EIR), the State is 
unable to release a Draft EIR for these two projects at this time. In 
addition, the North-of-the-Delta Offstream Storage Investigation 
(NODOS) and continued study of Los Vaqueros Expansion (LVE275) are 
delayed due to a lack of non-Federal cost share. In the past, the State 
has provided an estimated 90 percent and 50 percent of the funding for 
these studies respectively. These two projects would require 
significant non-Federal funding and resources.
    Question. Do you see any obstacle that would delay the completion 
timeframe beyond 2015?
    Answer. Endangered Species Act consultations may continue beyond 
2015 for Upper San Joaquin. The lack of non-Federal cost sharing 
presents significant obstacles to completing NODOS and LVE275.
    Question. What are those obstacles, and what can be done to 
mitigate or remove them?
    Answer. Non-Federal cost sharing partnerships could mitigate the 
obstacles, particularly when cost shares are provided via in-kind 
services. Many potential cost share partners are contributing 
significant funding to other projects, have been impacted by the State 
economy, and are fully engaged in drought activities. Reclamation will 
continue to seek non-Federal cost sharing opportunities.
    We clearly need some leadership and accountability at the top level 
of the Department to get these feasibility studies done.
    The initial and partial construction cost estimate for expanding 
San Luis Reservoir is $360 million; about two-thirds are for seismic 
repairs that must be done regardless of whether storage is expanded. 
Therefore for an incremental cost of approximately $120 million, the 
project could yield additional average annual Delta exports of 43,000 
acre feet.
    We clearly need some leadership and accountability at the top level 
of the Department to get these feasibility studies done.
    Question. Can you commit to completing all the studies by the end 
of 2015 so the projects could potentially be eligible for State funding 
if worthy?
    Answer. As described above, Reclamation can commit to completing 
the studies for Shasta and Upper San Joaquin by the end of 2015. Also 
noted in previous responses is the lack of non-Federal cost share for 
NODOS and LVE275.
    Question. Can you please share with me your overall schedule for 
completing the San Luis feasibility study?
    Answer. A detailed schedule is still being completed and a non-
Federal cost-share agreement is still being negotiated, but it is 
reasonable to assume the studies could be completed as early as 
December 2017. Data and analysis to support the Safety of Dams risk 
reduction will be analyzed this summer, including an evaluation of the 
strength of the dam and potential response to seismic activity. This 
information is also required for reservoir expansion alternatives.
    Question. As you may know, the proposed Cadiz water project in the 
Eastern Mojave Desert has been a longtime concern for me because of its 
potential impact on the Mojave National Preserve, pristine public lands 
that surround it and the plant and wildlife that depend on rare desert 
water supplies. The project proposes to extract between 50,000-75,000 
acre feet of water from the desert aquifer for sale to municipal water 
users in Southern California. However, independent studies estimate a 
recharge rate between 2,000 and 10,000 acre feet per year.
    The Cadiz project had hoped to use the Arizona & California 
Railroad's Right-of-Way to construct a 43-mile-long pipeline connecting 
their project site with the Colorado River Aqueduct. However, based on 
a November 4, 2011 opinion from the Interior Department's Solicitors 
office (known as the M Opinion) which stipulates that railroad 
companies lack authority to permit activities along their right-of-way 
unless the projects directly benefit railroad operations, it is my 
understanding that the Bureau of Land Management thus far denied Cadiz 
permission to use the right-of-way.
    Can you provide me with an update of the status of this project?
    Answer. The BLM's evaluation of the project is on hold and is 
awaiting publication of additional guidance by BLM on the 
implementation of the M Opinion.
    Question. It is my understanding that the BLM is currently 
developing guidelines for implementing the M Opinion. What is the 
status of those guidelines?
    Answer. The guidelines for implementing the M Opinion have been 
drafted and the BLM is coordinating within the Department to finalize 
the guidelines.
    Question. Once those guidelines are completed, does the BLM intend 
to issue a decision on whether the Cadiz project's proposed pipeline is 
within the scope of the Arizona & California Railroad's Right-of-Way?
    Answer. Once the guidance is issued the BLM California will 
complete its evaluation of the proposed Cadiz project and determine if 
the activity derives from or furthers a railroad purpose. Once the 
evaluation has been completed, the BLM will notify the party 
undertaking the activity of its determination of whether additional 
approvals are required from the BLM prior to undertaking the project.
    Question. There are an estimated 500,000 abandoned mine lands 
throughout the United States, many on public lands managed by the 
Bureau of Land Management, the Forest Service and the National Park 
Service. According to the Mine Safety and Health Administration, every 
year about 20 to 30 people die in accidents that occur in abandoned 
mines across the United States.
    This has been an enduring concern for me, given that California is 
home to roughly 50,000 abandoned mines. That is why I pushed for 
language that was included in the fiscal year 2014 Omnibus 
Appropriations bill to prioritize the closure of abandoned mines which 
present the greatest threat to public safety, in particular those mines 
with dangerous vertical shafts that pose risks to unsuspecting 
visitors.
    I understand that the President's budget proposes creating a 
Hardrock Mining and Abandoned Mine Cleanup program, which would fund 
abandoned mine clean-up by rescinding a 2006 reduction in fees paid by 
coal mines. While this is estimated to generate an additional $53 
million in 2014, this proposal has been made in previous budgets but 
has failed to gain traction in Congress.
    Can you tell me how many abandoned mines were closed by the 
Department of Interior last year? How many of these were in California?
    Answer. The BLM closed 4,947 abandoned mine land features in fiscal 
year 2013; 99 of those sites were in California. There were no known 
abandoned mine land closures completed on National Park Service (NPS) 
lands in 2013. It should be noted that a single mine may have numerous 
features.
    Question. How is Interior prioritizing closure of abandon mines?
    Answer. The BLM uses a comprehensive approach to determine which 
sites are addressed first based on the readiness of Federal and State 
partnerships and risks to public health, safety, and the environment. 
High priority sites include physical safety sites such as mine shafts 
and adits that are in close proximity to populated places such as 
residences, schools, and recreational areas. Sites impacting water 
quality are a similarly high priority because mine waste or tailings 
may threaten human health and the environment.
    Priorities are established annually with project funding 
distributed to State offices on a competitive basis. The Abandoned Mine 
Lands (AML) Program priorities are documented in the AML Program 
strategic plan, including State office Annual Work Plans. Typically, 
the AML Program strives to complete ongoing projects before undertaking 
new projects. Where appropriate, temporary mitigation measures, such as 
posting appropriate signage and using fencing, may be used until 
permanent or long-term remediation actions can be completed. In some 
cases, an imminent risk to public safety may require the BLM to take 
urgent action in order to address conditions at a site not previously 
identified or prioritized as a high risk site.
    The NPS completed an on-site AML inventory in 2013 where inspectors 
rated each AML feature for degree of hazard, accessibility (likelihood 
of visitation), resource significance (both natural and cultural), and 
resource impacts. Features with a likelihood of serious injury or death 
were ranked high.
    Question. Can Interior please provide me an inventory of the 
abandoned mines on Federal lands in California, and estimated cost and 
schedule to close them?
    Answer. The BLM Abandoned Mine Site and Cleanup Module database 
identified 1,672 AML sites containing 5,643 physical safety features in 
California. The average cost to mitigate each physical safety hazard 
feature is $19,400. It would cost approximately $110 million to close 
all identified physical safety features in the State. The 2015 budget 
request continues the legislative proposal to create an Abandoned Mine 
Lands Program for abandoned hardrock sites that will be financed 
through the imposition of a new AML fee on hardrock production on both 
public and private lands. These fees would provide resources to allow 
the BLM to more aggressively address the highest priority abandoned 
sites on Federal, State, tribal, and private lands nationwide.
    The NPS has 27,900 features at 1,211 sites in 13 NPS units in 
California. Of those, 793 features have been mitigated and 2,298 
features at 632 sites remain at an estimated cost of $32 million for 
mitigation. Shovel-ready projects in California (those where National 
Environmental Policy Act (NEPA) planning and compliance are complete) 
are estimated at $9.9 million. There is no schedule for this work at 
this time.
    Question. The National Park Service recently released its final 
environmental impact statement (FEIS) relating to the Merced Wild and 
Scenic River Plan. The plan is the third in the last decade and was 
necessary to comply with the Ninth Circuit's 2008 opinion requiring the 
Park Service to protect the river's ``outstanding remarkable values.''
    Responding to over 30,000 public comments, the Final EIS attempts 
to balance resource protection and visitor access in Yosemite Valley. I 
appreciate the National Park Service's efforts to develop a plan that 
complies with the requirements of the Wild and Scenic River Act but 
also protects much loved recreation activities, historic structures and 
visitor service facilities in Yosemite Valley.
    I am glad to see that the new plan will allow continued bike, river 
rafts and horse rentals and winter ice skating and retain the historic 
Sugar Pine stone bridge and the Ahwahnee and Yosemite Lodge swimming 
pools. I applaud the Park Service's efforts to resolve this dispute, 
but would like to know more about the budget assumptions and schedule 
to implement the plan while meeting other obligations at Yosemite 
National Park.
    Given the estimated $210 million cost to implement the FEIS, can 
you explain the National Park Service's funding expectations and 
schedule to implement the changes proposed in the Merced River FEIS?
    Answer. Potential funding to implement the plan will be derived 
from three primary sources: (1) Recreation fee program (entrance and 
camping fees); (2) concessions franchise fees; and (3) other Federal 
sources such as Federal lands transportation programs.
    Both recreation fee revenue and concession franchise fees are 
annual revenue sources collected by the park. Over the course of the 
next 20 years, assuming reauthorization of recreation fee authority, 
the park anticipates that both of these fund sources (currently the 
park collects approximately $18 million in fees annually) will be 
available to implement the changes proposed. Based on projected 
revenues, the park is confident there will be financial resources to 
implement a myriad of projects within the next 15-20 years for all 
three plans mentioned.
    During the first 5 to 10 years of implementation, the focus will be 
to improve the transportation system to alleviate traffic congestion 
and to conduct ecological restoration of high use areas to better 
accommodate visitor use. Projects include adding and modifying parking, 
realigning failing intersections and restoring eroded riverbanks. 
Concurrent to the improvements to transportation/parking, the park will 
work towards creating additional camping opportunities and replacing 
tent cabins with hard sided lodging.
    Question. The new location of some facilities was not identified in 
the FEIS, such as the new bike racks, river rafting facilities and 
maintenance buildings. When and how will the location of the facilities 
be chosen and how will the public have an opportunity to engage in that 
process?
    Answer. The locations of minor facilities, such as bicycle rental 
stands and raft rental operations, will be located outside of the 
quarter-mile river corridor boundary, yet remain within the primary 
visitor services nodes. The park does not anticipate further 
environmental review and public involvement for these actions. The 
minor shift of the location of these facilities outside the corridor is 
an operational decision that will be determined after the 2016 
concessions contract is awarded. The cost is expected to be minimal.
    Question. How will other Yosemite obligations be affected (deferred 
maintenance--$500 million, implementation of the Mariposa Grove Plan--
$36 million and the draft Tuolumne River Plan--$64.5 million) while 
implementing the Merced River plan?
    Answer. Implementation of both river plans will be completed 
simultaneously over a 15-20 year period. The Mariposa Grove project 
will be completed in the next few years, and relies heavily on 
financial support from the nonprofit Yosemite Conservancy, supplemented 
with other revenues from recreation fees and transportation funds. As 
noted above, project revenue will allow the park to make a substantial 
investment in major actions called for in the plans, as well as 
continue to address a significant number of deferred maintenance needs. 
For example, by implementing some of the major transportation 
improvement components such as road realignments and expanded day use 
parking lots, much of the deferred maintenance for these areas will be 
addressed. In addition, the park will continue to prioritize cyclic 
maintenance, operational funding, and repair and rehabilitation funding 
to strategically reduce deferred maintenance priorities.
    Question. How do you intend to prioritize the needs identified in 
these plans?
    Answer. As noted above, the first priority for plan implementation 
will be to alleviate traffic congestion and to restore riverbanks and 
meadows. Once these steps are accomplished, current levels of 
visitation can be managed more successfully. Concurrently, other 
priorities will be implemented to enhance the visitor experience by 
providing additional campsites and increasing the availability of year-
round visitor accommodations.
    Priority projects seek to accomplish four major goals:
  --Correct identified impacts to river resources to ensure continued 
        protection;
  --Alleviate crowding and congestion and provide for easy access to 
        key park facilities and shuttles;
  --Enhance camping opportunities and winter lodging; and
  --Replace temporary non-code compliant employee housing.
    Question. Can you explain what the cumulative impact of all these 
plans is expected to be on the current visitor experience?
    Answer. All of the plans address long standing issues with visitor 
use and user capacity management in the most heavily visited 
destinations within the park, most notably by calling for actions that 
will improve the efficiency of the transportation system. Key actions 
such as relocating and retrofitting day use parking areas, adding 
campsites, and increasing the amount of year-round lodging in Yosemite 
Valley, will improve access and the overall quality of the visitor 
experience. In addition, the wide array of recreational opportunities 
available throughout the park will be maintained and boating 
opportunities will be expanded. Once implemented, the plans will 
provide for a higher quality visitor experience by improving access to 
the most popular areas in Yosemite and by providing lasting protection 
for the natural features within those areas. Overall, the park expects 
implementation to improve the visitor experience.
    Question. I applaud the National Wildlife Trafficking Strategy that 
your Department put forward as part of the President's Taskforce on 
Wildlife Trafficking.
    Wildlife crimes are a global threat to conservation and put iconic 
species like African elephants and rhinoceroses at risk of extinction. 
What is equally disturbing is that wildlife crimes are also driving and 
funding transnational criminal networks and global terrorism.
    It is clear to me that the current criminal penalties for these 
crimes are too weak and that congressional action is needed to address 
the wildlife poaching crisis.
    This is why I am drafting legislation to make wildlife trafficking 
crimes a predicate offense under Federal racketeering and money 
laundering statutes, as well as under the Travel Act. Law enforcement 
already uses these laws to crack down on other major crimes like drug 
trafficking.
    Secretary Jewell, how important will these strengthened tools be in 
helping your Department end the practice of wildlife trafficking?
    Answer. Strengthening enforcement tools for those that enforce our 
wildlife trafficking laws is extremely important. Doing so would 
rightly elevate the stature of wildlife crimes within the U.S.'s 
judicial system to be on par with other serious crimes. Some judicial 
districts and U.S. Attorneys' Offices are reluctant to act upon 
wildlife crimes, such as cited in the Lacey Act, Endangered Species 
Act, Marine Mammal Protection Act, and the Migratory Bird Treaty Act 
because they view them as less serious, especially when they are 
legislatively structured as weaker and sometimes even ``petty'' 
offences that have weak penalties and cannot serve as predicates for 
laws that thwart organized crime. This ill informed view has often 
frustrated us at Interior because our agents have long known that 
wildlife trafficking violations are not isolated infractions worthy of 
a misdemeanor.
    Wildlife crimes are serious crimes that have insidious effects upon 
society. In addition to destabilizing the ecology that human 
communities depend upon, wildlife that is poached from iconic national 
parks and world heritage sites robs the surrounding communities of 
steady income, encourages corruption, and facilitates other crimes. 
More recently, we are even told of links to terrorism. Additionally, 
many lives are being lost in the war that is being waged to extract 
rare wildlife for consumption. Scores of park rangers have been 
murdered in recent years across Africa and Asia in their noble and 
nearly futile attempts to protect their wildlife from international 
crime syndicates. What used to be viewed as mere subsistence poaching 
has morphed into activity by highly motivated and ruthless criminal 
organizations that willfully murder park rangers on the lands they 
protect in order to slaughter and extract wildlife. Wildlife 
trafficking crimes are intrinsically organized trans-border crimes that 
undermine the general rule of law and the integrity of communities and 
rob them of their ability to manage and benefit from their natural 
resources. Our judicial system responds to the priorities set by the 
legislative system. Strengthening our wildlife trafficking laws would 
send a clear signal throughout the justice system from officers in the 
field to judges on the bench that these laws matter.
    Question. What other resources would be useful to the Department in 
addressing this issue?
    Answer. The United States is among the world's largest consumers of 
wildlife, both legal and illegal. As with any black market trade, it is 
difficult to determine the exact market value or rank the U.S. role in 
comparison to other nations. However, we remain a significant market 
for wildlife and wildlife products, including elephant ivory.
    On February 25, 2014, the Service issued a Director's Order to help 
protect populations of elephants and other endangered or threatened 
species that are subject to illegal trade. Poaching and illegal trade 
have been decimating African elephant and rhinoceros populations in 
recent years. The changes in the Director's Order are among a set of 
administrative actions specifically called for under the National 
Strategy on Combating Wildlife Trafficking, which was issued by 
President Obama on February 11, 2014.
    The most significant gaps in the regulatory regime in place before 
the National Strategy was announced was the continued allowance of some 
commercial imports and the largely unregulated domestic trade of 
African elephant ivory. The administrative actions we are taking or 
have taken include listing the Southern White Rhino under the 
Endangered Species Act based on similarity of appearance to other 
listed endangered rhino species, implementing a prohibition on all 
commercial imports of African elephant ivory regardless of age, 
implementing a prohibition on the sale of African elephant ivory across 
State lines, and implementing stricter controls over sale of elephant 
ivory within the United States, including within States.
    The fiscal year 2015 President's budget requests the subcommittee's 
support of a $3 million increase for its Law Enforcement and 
International Affairs programs as part of the administration's new 
National Strategy for Combating Wildlife Trafficking. The funding will 
be used to combat expanding illegal wildlife trafficking and support 
conservation efforts on the ground in Africa and across the globe. The 
budget includes important funding to expand wildlife forensic research 
to produce key advancements needed to pinpoint the origin of illegal 
wildlife products which is critical information necessary to prosecute 
criminal activity.
    We believe that these actions will dramatically reduce the U.S. 
role in the illegal ivory trade and position the Nation to encourage 
other major ivory consuming countries to take similar actions. In 
addition, we continue to evaluate whether there are additional tools 
that could be used to combat wildlife trafficking.
    Question. Secretary Jewell, you are no doubt familiar with the 
March 17 earthquake that struck the Los Angeles area. It is my 
understanding that this 4.4 magnitude earthquake is one of the 
strongest earthquakes to hit Southern California in recent years.
    I firmly believe that it is a matter of when, and not if, our next 
significant earthquake event will occur.
    In fact, the Southern California Earthquake Center estimates that 
California has a 99.7 percent chance of having a magnitude 6.7 or 
larger earthquake within the next 30 years. The chance of having a 
catastrophic earthquake with a magnitude greater than 7.5 during this 
period is nearly 50 percent.
    Given the millions of lives and billions of dollars at risk of the 
next major earthquake, can you give me an update on the status of 
developing an earthquake early warning system for the West Coast?
    Answer. Since 2003, the U.S. Geological Survey (USGS) has funded 
university research on earthquake early warning (EEW), and has invested 
approximately $10 million in research, system development and seismic 
network modernization in California and elsewhere so that the networks 
are capable of generating earthquake early warnings. In addition, in 
January 2012, the Gordon and Betty Moore Foundation awarded $6 million 
over 3 years to the University of California-Berkeley, Caltech, and the 
University of Washington to perform further research leading to a 
prototype EEW capability for the U.S. West Coast. As a result of these 
efforts, in January 2012, the ShakeAlert earthquake early warning 
system began sending test notifications to a small number of test 
users, which include California emergency response organizations, 
utilities, rail operators and a number of private companies.
    Before public warnings can be issued routinely, the current 
ShakeAlert test system must meet quality, speed and reliability 
standards. Those standards include having enough sensors to ensure 
coverage near earthquake sources. Currently there are not enough 
sensors in the Advanced National Seismic System (ANSS) network to 
provide fast and reliable alerts uniformly across the U.S. West Coast. 
Although the Los Angeles and San Francisco Bay areas have better sensor 
coverage than other parts of the State, it is estimated that several 
hundred additional stations will be needed to cover all of the 
earthquake source regions.
    Question. What funding and assistance will your Department provide 
towards completing this critical project?
    Answer. In 2014, Congress appropriated an additional $850,000 for 
earthquake early warning development, which was added to a base funding 
amount of $600,000. As part of the 2015 President's budget 
justification, the Department's request for fiscal year 2015 maintains 
these amounts.
    Question. Secretary Jewell, I continue to be concerned about the 
management and well being of the wild horse populations on public lands 
managed by the Bureau of Land Management.
    It is my understanding that there are now nearly 50,000 horses in 
long- and short-term holding facilities, and that the population of 
horses that remain in the wild is expected to surpass 60,000 during the 
next fiscal year.
    It is my understanding that last year, the holding costs for horses 
was $46 million, more than half of the Wild Horse and Burro programs' 
annual budget.
    This practice of placing horses into costly holding facilities is 
not sustainable. Long-term solutions for managing the wild horse 
population in a humane and efficient manner are desperately needed.
    Secretary Jewell, how do you plan to ensure that BLM is on the 
right fiscal path in reducing the number of animals in holding 
facilities and meeting its goals with on-the-range management 
techniques?
    Answer. For the BLM to sustainably manage wild horses and burros, 
two things are absolutely essential: forging a path forward to slow 
population growth and finding homes for families that are already off 
the range. To immediately address these issues, the BLM is implementing 
key recommendations from the June 2013 National Academy of Sciences 
(NAS) report:
  --Population Growth Suppression.--Population growth suppression 
        methods that are effective on western herds are needed to curb 
        herd growth and reduce the need for removals. In April 2014, 
        the BLM and the U.S. Geological Survey (USGS) initiated a 
        second pasture research trial to evaluate the effectiveness of 
        new formulations of the SpayVac vaccine, which is currently the 
        most promising contraceptive vaccine available. The BLM has 
        also issued a Request for Applications (RFA) for grant funding 
        to support research projects developing techniques and 
        protocols for contraception or the spaying/neutering of on-
        range male and female wild horses and burros. The RFA closes in 
        May 2014.
  --Population Estimation.--The BLM has entered into a new Interagency 
        Agreement with the USGS to acquire the technical expertise and 
        assistance necessary to implement NAS-endorsed population 
        survey (census) methods. In 2014, the BLM will survey one-third 
        of its Herd Management Areas using the NAS-endorsed methods to 
        help account for undetected animals. Accurate population data 
        is critical for effective land use planning and herd 
        management.
    The BLM is also collaborating with the White House Office of 
Science and Technology Policy to explore the feasibility of launching a 
prize challenge to inspire a scientific solution to wild horse and 
burro population management challenges. Through continued collaboration 
with stakeholders and an emphasis in developing effective population 
growth suppression methods built on the best available science, the BLM 
remains committed to reforming the Wild Horse and Burro Program and 
maintaining rangeland health on public lands.
    A key component to ensuring long-term program sustainability by 
reducing the number of animals in holding facilities. Toward that goal, 
the BLM is implementing the following actions to curb off-range holding 
costs and reduce holding facility levels.
  --Adoption Reforms.--The BLM is entering into new partnership 
        agreements to increase the number of trained animals available 
        for adoption. The BLM has finalized a new agreement with the 
        Humane Society of the United States, and also launched the Wild 
        Horse and Burro Inmate Training Initiative to increase the 
        number of inmate training programs. The BLM is also in 
        discussions with the Defense Services Cooperation Agency and 
        Heifer International to explore the possibility of providing 
        animals for humanitarian purposes in developing nations.
  --Lower Cost Holding Facilities.--The BLM continues to seek lower 
        cost holding facilities and is currently reviewing three new 
        ecosanctuary proposals. The BLM will also be issuing a new 
        Request for Proposals for lower cost long-term holding 
        contracts.
                                 ______
                                 
               Question Submitted by Senator Tim Johnson
    Question. According to the President's June 26, 2013, Executive 
Order, the White House Council on Native American Affairs was 
established to ensure that the Federal Government engages in a true and 
lasting government-to-government relationship with federally recognized 
tribes in a more coordinated and effective manner, including by better 
carrying out its trust responsibility. It states that this policy is 
established as a means of promoting and sustaining prosperous and 
resilient tribal communities, which includes promoting infrastructure 
to drive economic growth and security and to support special efforts to 
confront historic health disparities and chronic diseases.
    The Executive Order also states that the Council shall work across 
executive departments to improve the quality of life for Native 
Americans, and make recommendations to the President concerning policy 
priorities, including improving the effectiveness of Federal 
investments in Native American communities.
    The Mni Wiconi Project Act of 1988 was enacted to ensure a safe and 
adequate water supply for the residents of the Pine Ridge, Rosebud and 
Lower Brule Indian Reservations. The Project delivers clean drinking 
water to the Reservations and the neighboring non-Indian communities. 
It is a significant Federal investment intended to improve the quality 
of life on the Reservations. The act clearly states that the United 
States has a trust responsibility to ensure that adequate and safe 
water supplies are available to meet the economic, environmental, water 
supply and public health needs of the Reservations. As you know, the 
health disparities between Native Americans and non-Indians are vast, 
with the Native Americans suffering from high rates of illness and low 
life expectancy especially on reservations such as those named above 
where poverty is rampant and access to healthcare is difficult.
    The Mni Wiconi Project is nearly complete, but remaining pieces 
still must be built on the Pine Ridge and Rosebud Reservations to 
ensure the intended beneficiaries are served. Further, the existing 
community systems that are intended to become a part of the Project 
need to be upgraded and transferred into the Project. Also, the Project 
needs sufficient operation, maintenance and replacement funds to ensure 
the Project can function as intended especially given the United 
States' substantial investment in the Project to date.
    The Cheyenne River Sioux Indian Reservation also has vast water 
infrastructure needs. The Federal Government, through the U.S. 
Department of Agriculture (USDA) Rural Development, has invested more 
than $65 million in the Mni Waste water system in recent years. This 
funding will replace and upgrade the core components of the water 
system, addressing an acute water shortage that threatens public health 
and safety and inhibits economic growth. The Cheyenne River Sioux Tribe 
and surrounding communities also face longer term concerns about the 
state of water distribution infrastructure, however. The cost of major 
upgrades and an expansion of the distribution system to serve the 
approximately 7,000-acre service area in Dewey, Ziebach, Perkins and 
Meade counties could reach several hundred million dollars.
    It is clear to me that addressing infrastructure needs of this 
magnitude on Indian reservations will require substantial engagement 
and investment from a number of different Federal agencies.
    What will you do as Chairwoman of the White House Native American 
Affairs Council to ensure that these critical water infrastructure 
projects, which are intended to meet basic human needs on Indian 
reservations, are adequately considered and furthered by the Council?
    Answer. The United States has a unique legal relationship with 
Indian tribal governments as set forth in the Constitution of the 
United States, treaties, statutes, Executive Orders, and court 
decisions. The Federal Government has enacted numerous statutes and 
promulgated numerous regulations that establish and define a trust 
relationship with Indian tribes. Moreover, the administration 
recognizes that federally recognized Indian tribes are sovereign, self-
governing political entities that enjoy a government-to-government 
relationship with the United States Government, as expressly recognized 
in the U.S. Constitution. The President is a strong supporter of the 
principle of tribal self-determination and he is committed to working 
toward fully enabling tribal self-governance.
    In my capacity as Chairwoman of the White House Native American 
Affairs Council, I will advise the President about the full range of 
issues affecting our Native American communities throughout the 
country, especially those issues addressing their health and safety. 
Critical water infrastructure leading to access to adequate potable 
water is an area on which I and my staff within the Department of the 
Interior have spent considerable time, especially given their 
importance. I am fully engaged in improving the circumstances of Native 
Americans and their access to clean water, though developing or 
improving water infrastructure projects, such as rural water projects 
with tribal components, and by coordinating the use of limited Federal 
resources by multiple Federal, State and local agencies.
    The Department of the Interior supports the goal of interagency 
cooperation and efforts to engage other agencies to participate in the 
Mni Wiconi Project utilizing their existing authorities. An interagency 
agreement, as proposed by the Bureau of Reclamation during the August 
8, 2012 Joint Consultation Meeting With Federal Agencies, has the 
potential to achieve this objective. The draft agreement discussed at 
that meeting provides that the agencies will meet quarterly during the 
first year to evaluate and prioritize potential system improvements. 
The agencies then would develop a schedule to fund and implement these 
improvements. By coordinating this effort, the agencies, utilizing 
existing authorities, could leverage multiple funding sources, and make 
more effective use of available Federal funds to accomplish the system 
improvements.
    This proposed interagency agreement and effort also meets the 
intent of the Memorandum of Understanding Among the Department of 
Agriculture, Department of Health and Human Services, Department of 
Housing and Urban Development, Department of the Interior, and the 
Environmental Protection Agency To Better Coordinate the Federal 
Government Efforts in Providing Infrastructure and Promoting 
Sustainable Practices To Support the Provision of Safe Drinking Water 
and Basic Sanitation in American Indian and Alaska Native Communities 
signed in March 2013.
    Also within my Department, and in cooperation with the Office of 
Management and Budget, I have charged senior staff with coordinating 
and improving the planning for future and current operations of Indian 
water settlements. Staffs from the Bureau of Indian Affairs, Bureau of 
Reclamation, the Office of Special Trustee, the Secretary's Indian 
Water Rights Settlement Office, and my immediate office are meeting to 
develop strategies to ensure the continuation of positive collaboration 
with tribal nations in successful resolving complex, contentious and 
longstanding litigation over water rights.
    The administration will continue to commit significant Federal 
resources to improving the lives of Native Americans, and the 
availability of potable water is at the top of my agenda.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
               wildfire cap adjustment emergency proposal
    Question. For more than a decade, this subcommittee has provided 
the Forest Service and Department of the Interior with 100 percent of 
the funds requested to fight fires. That amount has been equal to the 
10-year average. This has been an agreement between the Office of 
Management and Budget (OMB), the Congressional Budget Office (CBO) and 
the subcommittee. As the cost and severity of fires have increased, the 
agencies have run out of money mid-year and had to borrow money from 
other programs to pay for fire suppression. Fire borrowing has caused 
this subcommittee to appropriate additional funding the following year 
to back pay the borrowed accounts from the previous year. This has 
taken over $1 billion out of programs across the bill over the last 2 
years. We can all agree that this is an inefficient and problematic way 
to budget. I appreciate the proposal to create a wildfire cap 
adjustment to end fire borrowing, but there are many questions that 
remain unanswered.
    Under the new proposal, the Department of the Interior (DOI) and 
Forest Service would only need to request 70 percent of the 10-year 
average and any amounts above that would be eligible for disaster cap 
funding. Can you tell me why the administration chose the 70 percent 
level?
    Answer. In the proposed new budget framework, the administration 
wanted to limit the use of the cap adjustment to just extraordinary 
fire costs. The 70 percent level is representative of the amount of 
funding historically needed for wildfires which occur in the expected 
seasonal activity level. The other 30 percent, which would be covered 
in the cap adjustment, represents the level of funding historically 
necessary to cover the wildfires that are above expected seasonal 
activity. More to the point, roughly 99 percent of fires comprise 70 
percent of the costs in an average year, and thus requesting funding 
for 70 percent of the 10-year average within the discretionary budget 
caps is essentially funding all but extraordinary fires that carry 
outsized costs.
    The Department of the Interior and Forest Service derived the 70 
percent figure by analyzing their total number of fires for the years 
2008 through 2011 and categorizing them according to each fire's total 
cost. Specifically, Interior's universe of fires was grouped into total 
fire cost categories of $500,000 or less; $500,000 to $1 million; 
greater than $1 million; greater than $5 million; and greater than $10 
million. The Forest Service's (FS's) universe of fires was grouped into 
total fire cost categories of less than $2 million; $2 million to $3 
million; $3 million to $5 million; $5 million to $10 million; $10 
million to $15 million; $15 million to $20 million; $20 million to $30 
million; $30 million to $50 million; and over $50 million. The total 
number of Interior fires for the years 2008 thru 2011 was 42,719 fires. 
The number of fires less than $1 million in cost was 42,449 or 99 
percent of the fires. The total number of Forest Service fires for the 
years 2008 through 2011 was 28,642. The number of fires less than $10 
million was 28,596 or 99 percent of those fires.
    The total cost of Interior fires for the years 2008 to 2011 was 
$1,247,755,482 (in fiscal year 2013 dollars). The total cost of fires 
which were $1 million or less per fire was $784,791,923 (in fiscal year 
2013 dollars) in those same years, or 63 percent of the costs. The 
total cost of Forest Service fires for the years 2008 to 2011 was 
$5,127,000,000 (in fiscal year 2013 dollars). The total cost of fires 
which were $10 million or less per fire was $3,836,000 (in fiscal year 
2013 dollars) in those same years, or 75 percent.
    The averages when both Interior's and Forest Service's data were 
combined resulted in a percentage split of approximately 70/30. In 
other words, for the two agencies combined, 99 percent of fires 
consumed 70 percent of total suppression costs, while 1 percent of 
fires consumed 30 percent of total suppression costs.
    Question. For fiscal year 2014, the amount appropriated for fire 
suppression at DOI which was equal to the 10-year average was close to 
$400 million. Isn't it the case that under your new proposal you would 
have only had to request 70 percent of $400 million thereby freeing up 
funds (roughly $100 million) to be used elsewhere in your budget? In 
fact, you have touted that these funds can now be used for fire 
prevention activity.
    Answer. The new budget framework for suppression costs aims to stop 
the crippling fire transfers and create a more responsible way to 
budget for suppression operations that allows for improved agency 
planning and management. The budget includes increases of $34.1 million 
in Preparedness, $2 million in Burned Area Rehabilitation, $4.2 million 
for fixed costs increases, and $30 million to establish a new Resilient 
Landscapes program. It also funds the hazardous fuels reduction program 
at approximately the 2014 enacted level.
    Question. Have you considered continuing to use the 10-year average 
as the benchmark and only amounts above that level would be eligible 
for disaster funds?
    Answer. As reflected in its proposed new budget framework, the 
administration believes it is prudent to budget for wildfire 
suppression costs similarly to how the Federal Government budgets for 
other natural disasters. This means funding the more predictable 
suppression costs within the domestic budget caps and funding the 
unpredictable and extraordinary suppression costs through the cap 
adjustment. As explained in the response to the question above, the 10-
year average includes the costs of all wildfires. This includes those 
wildfires that are above an expected seasonal activity level. The 
administration determined that funding 70 percent of the 10-year 
average within the discretionary budget caps is essentially funding all 
but extraordinary fires that carry outsized costs.
    The underlying premise of the new budget framework for suppression 
costs is to stop the crippling fire transfers and create a more 
responsible way to budget for suppression operations that allows for 
improved agency planning and management. The proposed 2015 framework 
also allows for significant investments in other components of the 
Wildland Fire Management program which, over the long term, will help 
control suppression costs. Limiting the budget cap adjustment to only 
costs exceeding the 10-year average would undermine both of these 
attributes of the 2015 President's budget proposal.
    Currently, the administration has not sent up any specific language 
on this issue but has instead been working with Senators Wyden and 
Crapo and Congressman Simpson on their companion bills.
    Question. Does the administration plan to send up a specific 
proposal of its own?
    Answer. The Department of the Interior and U.S. Department of 
Agriculture (USDA)/Forest Service, in conjunction with the Office of 
Management and Budget (OMB), are meeting with appropriations and 
authorizing committees about the proposal. The administration has also 
offered technical assistance in drafting authorizing language.
    S. 1875, the Wildfire Disaster Fund Act of 2013, which would enact 
the proposed wildfire cap adjustment, has been referred to the Budget 
Committee, but last year the administration asked that we carry it in 
the Omnibus Appropriations bill for fiscal year 2014.
    Question. If the Budget Committee does not take action on this 
bill--which appears unlikely with Chairman Ryan's objection--would the 
administration request we do it as part of the Interior appropriations 
bill?
    Answer. The administration has been working closely with the 
committees of jurisdiction including the House and Senate Budget 
Committees. An amendment to the Balanced Budget and Emergency Deficit 
Control Act of 1985 (BBEDCA) is needed to authorize the cap adjustment 
and this authorization must be enacted prior to enactment of any bill 
containing the appropriation of wildfire suppression cap adjustment 
funding. Thus, the amendment could be included in authorizing 
legislation or in an appropriations bill that advances ahead of the 
bill containing that appropriation.
    Question. If we were to do it on the fiscal year 2015 Interior 
bill, what would be the scoring impact?
    Answer. Although the language to amend BBEDCA to authorize the cap 
adjustment does not itself score, it must be enacted in advance of an 
Interior bill that contains an appropriation for wildfire suppression 
cap adjustment funding. This is because the language establishing the 
cap adjustment must already be in law prior to the consideration of the 
funding for the cap adjustment in order to permit the Budget Committees 
to increase the 302(b) allocation by the amount of such funding. If the 
amendment is included in the same bill that contains that 
appropriation, the Budget Committees will instead count the cap 
adjustment funding against the Interior subcommittee's 302(b) 
allocation for purposes of congressional enforcement.
    Question. Can you explain whether we could utilize the funding cap 
adjustment in 2015?
    Answer. Yes, as long as the amendment to BBEDCA authorizing the cap 
adjustment is enacted prior to the consideration of any bill containing 
the appropriation of wildfire suppression cap adjustment funding, the 
cap adjustment can be utilized in fiscal year 2015.
    Currently, CBO scores the Interior bill with the full outlays 
associated with the 10-year average. With your proposal, you would only 
be requesting 70 percent of the 10-year average.
    Question. Would CBO continue to score the bill with 100 percent of 
the outlays for the 10-year average, or how would this change under 
your proposal?
    Answer. Once the cap adjustment for wildland fire is enacted, we 
expect that CBO would continue to score budget authority and outlays to 
the Interior bill based on the total amount for that purpose provided 
in the legislation. However, only 70 percent of the 10-year average 
would be counted for purposes of enforcing the 302(b) allocation. The 
Budget Committee would permit an increase in the 302(b) allocation for 
the remaining funding provided for wildfire suppression as part of the 
cap adjustment, subject to the terms of the cap adjustment.
                         contract support costs
    Question. In fiscal year 2014, the administration proposed capping 
the amounts available to tribes for contract support costs, in what I 
believe was an effort to circumvent the tribes' victory in the Ramah 
case decided by the Supreme Court. Thankfully, my colleagues on both 
sides of the aisle and in the House and Senate determined this was not 
the right approach. Since then, the administration has announced it 
will pay full contract support costs for the current fiscal year and 
has also requested the full amount in the Bureau of Indian Affairs 
(BIA) and Indian Health Service budgets for fiscal year 2015. For BIA, 
this is $251 million. I have a few questions about this that go to how 
your budget is formulated so I'll ask Ms. Suh.
    How are these estimates for contract support costs estimated for 
your budget submission?
    Answer. Indian Affairs used a number of factors to estimate the 
Contract Support Cost (CSC) amount that is requested in the President's 
budget request. The factors included prior year CSC Shortfall reports, 
estimating the CSC need based on the amount of funding requested in the 
Operation of Indian Programs account, and estimating the potential 
change in the cost associated with administering new and expanded self-
determination or self-governance compacts for tribes or tribal 
organizations. After this analysis, Indian Affairs estimates the total 
CSC need for fiscal year 2015 at $251 million ($246 million for 
Contract Support Cost and $5 million for the Indian Self-Determination 
Fund). This is similar to the methodology used to develop the CSC 
amount included in the Indian Affairs 2014 Operating Plan which was 
$247 million ($242 million for Contract Support Cost and $5 million for 
the Indian Self-Determination Fund).
    Question. For years, we've had shortfall reports which have come in 
after the fact and indicated that a sufficient amount was not 
appropriated in a particular year for contract support costs. How, if 
at all, has the process been improved to more accurately estimate the 
need in the upcoming year for contract support costs?
    Answer. The methodology for estimating the CSC shortfall amount and 
total CSC funding need has been refined over the years. With each 
subsequent year, with an additional year of data and greater 
experience, Indian Affairs has aspired to become more accurate in 
estimating these costs. In recent years, one refinement has been 
greater emphasis on basing the CSC estimate on the amount of funding in 
the Operation of Indian Programs account, which is a major driver of 
CSC.
    Question. Isn't it also the case that the need for contract support 
costs may change based on how Congress treats your budget? For example, 
if you get an increase in several program lines, that will also 
increase the need for the contract support costs that go to the tribes 
to deliver the programs.
    Answer. Yes, the total CSC funding need can vary based on the final 
appropriated amounts that Congress enacts. If Congress increases 
funding for program lines that call for CSC, the CSC need will rise. If 
Congress reduces program lines that call for CSC, the CSC need will 
also decrease.
        greater moose's tooth--national petroleum reserve-alaska
    Question. The Bureau of Land Management (BLM) is working to 
finalize the Supplemental Environmental Impact Statement (EIS) for the 
Greater Moose's Tooth development project. This EIS tiers off the 
National Petroleum Reserve-Alaska (NPRA) Final Integrated Activity Plan 
and EIS, and the Alpine Satellite Development Plan Final EIS. GMT-1, as 
it's referred to, will allow for the first oil production from the 
NPRA, which the administration has specifically stated is part of its 
all-of-the-above energy strategy. As with all development projects in 
Alaska, construction timelines are tight, and several permits must be 
in place before the project may move forward. Simply put, GMT-1 cannot 
move forward until the EIS is finalized, as subsequent permits will be 
based on this document.
    The public comment period on the Supplemental EIS is 60 days and 
does not close until April 22.
    Given that this is a Supplemental EIS and tiers off two other Final 
EISs, do you agree that 60 days is sufficient for public comment?
    Answer. The public comment period was not extended and the BLM 
expects to have ongoing public engagement.
    Question. After the public comment period closes, how much time 
(weeks, months?) does the Department expect to need to finalize the 
document?
    Answer. Public comments received will be reviewed and considered as 
the BLM prepares the Final Supplemental EIS.
    Question. When do you expect the Final EIS to be released?
    Answer. The BLM is working diligently to complete the Final 
Supplemental EIS; however, it is important to note this is a complex 
undertaking. The project continues to move forward as planned and will 
be released upon consideration of public comments and preparation of 
the Record of Decision.
    Question. Does the Department have adequate resources to make sure 
this project moves forward this year?
    Answer. The BLM has an interdisciplinary team focused on completing 
the requirements to move this project forward.
                oil and gas development on public lands
    Question. Domestic oil and gas development plays a critical role in 
our Nation's economic and national security. We see daily evidence of 
this as we continue to watch events unfold in Ukraine. Unfortunately, 
rather than encouraging onshore development, Federal policies make 
public lands less attractive to investment when compared to State and 
private lands. This results in important resources, revenues, and jobs 
left in the ground. I think it is unfortunate that resource rich States 
and our Nation are not able to take advantage of the myriad benefits 
responsible domestic development provides.
    For perspective, for every dollar invested in onshore oil and gas 
development on public lands, $88 in revenue is generated. In 2012 this 
resulted in $3.5 billion in onshore lease and royalty revenues to 
American taxpayers.
    I was dismayed to see the Department's proposals for oil and gas 
development, which focus on increased fees, higher royalty rates, and 
shorter lease terms. Especially since activities designed to improve 
permitting, such as continued funding for pilot offices, were not 
prioritized and the leasing reforms put in place have primarily served 
to give anti-development interests another bite at the apple when it 
comes to litigation. Contrast this with the budget's request for 
renewable energy which is designed to ``continue to aggressively 
facilitate and support solar, wind, and geothermal energy 
development.'' I support responsible renewable energy development on 
public lands, but I do not support favoring it over traditional energy 
development.
    Do you know how much revenue is generated by the renewable energy 
industry on public lands compared to the onshore program on public 
lands?
    Answer. Total revenues from solar, wind, and geothermal 
authorizations and leases on public land were approximately $25 million 
in fiscal year 2012 and $25.5 million in fiscal year 2013. Revenues 
will increase substantially as construction is completed on many 
projects and these facilities enter operation and begin to deliver 
energy to the electric grid. Until recently, there were no commercial 
scale solar energy facilities operating on public lands managed by the 
Department.
    The total revenues from the onshore oil and gas program were 
approximately $2.9 billion in fiscal year 2012 and $3 billion in fiscal 
year 2013 from oil and gas royalties, rents, and bonus bids.
    Question. Do you believe we should also aggressively facilitate oil 
and gas development on public lands? Why or why not?
    Answer. Promoting the efficient, safe, and responsible development 
of public land energy resources is a critical part of the 
administration's broad all-of-the-above energy strategy. The BLM 
actively facilitates oil and gas development on public lands as a 
critical contributor to both the national economy and energy portfolio, 
while also continuing to meet various Federal environmental 
requirements, such as the National Environmental Policy Act (NEPA) and 
Endangered Species Act (ESA). Following these mandates, the BLM 
supports vital oil and gas development activities which help our Nation 
achieve a more secure energy future.
    Question. Do you believe the budget proposal increases or decreases 
competitiveness of public lands?
    Answer. Federal oil and gas production is an important component in 
fulfilling our Nation's energy needs and the Department has an 
obligation to the public to ensure a fair return on that production. 
The Department deems the proposed changes necessary to ensure this fair 
return, and we do not believe they will make Federal lands less 
competitive compared to the States. Onshore Federal oil and gas royalty 
rates, which are currently 12.5 percent, are lower than most States' 
royalty rates.
    The administration believes that American taxpayers should get a 
fair return on the development of energy resources on their public 
lands. We feel industry should pay the cost of inspecting and 
monitoring oil and gas activities, as is the case for other industries, 
including offshore oil and gas. This is consistent with the principle 
that the users of the public lands should pay for the cost of both 
authorizing and oversight activities.
    The Department's intent behind the proposed fee on non-producing 
leases is to encourage more timely development of Federal lands. The 
fee will provide an incentive for oil and gas companies to either put 
their leases into production or relinquish them so the Department can 
re-lease those tracts to companies who want to develop them. Many 
States also have similar fees (e.g., escalating rental rates) to 
encourage development. Therefore, the Department does not believe the 
proposed changes will make Federal lands less competitive compared to 
the States.
    The President's 2015 budget request also includes a more than 20 
percent funding increase to strengthen the BLM's Onshore Oil and Gas 
Program and supports continued implementation of leasing reforms, 
enhanced oversight, and a strengthened inspections process. Leasing 
reforms launched in 2010 have cut the rate of protests from nearly 50 
percent in fiscal year 2009 to approximately 18 percent in fiscal year 
2013, leading to reduced costs and greater certainty for lessees. It is 
also important to note the BLM issued 1,468 leases in fiscal year 2013.
    Question. Given the constraints of our current budget, does the 
Department consider the impact to investment that increased fees and 
duplicative regulations have on generating revenue for taxpayers when 
making funding request decisions?
    Answer. The Department has not proposed duplicative or unnecessary 
regulations. Moreover, we believe that the modest fees proposed on oil 
and gas operations in the 2015 budget request will have a negligible 
impact on other revenue generation while providing important resources 
to fund the programs that support responsible oil and gas development 
on Federal lands.
    The BLM's 2015 budget request for authority to collect inspection 
and enforcement fees aligns onshore oil and gas inspections and 
enforcement with the authority the Congress has enacted annually since 
2010 for oil and gas inspection and enforcement on the outer 
continental shelf. The Department estimates the fees will generate $48 
million which will allow for a $38 million decrease in net BLM 
appropriations while still providing for an increase of $10 million for 
BLM to expand and strengthen onshore oil and gas inspection and 
oversight.
    The additional funding provided by the fee authority is necessary 
to improve the BLM's capacity for production accountability, safety, 
and environmental protection. The BLM will use the funds to expand 
capacity to correct deficiencies identified by the Government 
Accountability Office (GAO) in a February 2011 report, designating 
Federal management of oil and gas resources as high risk. Funds from 
the fees will be used to increase inspections of Federal and tribal 
high risk oil and gas cases and complete more environmental inspections 
to ensure environmental requirements are being met in all phases of 
development. Expanding BLM's capacity to conduct production 
accountability inspections will better ensure American taxpayers are 
properly compensated for the value of oil and gas resources developed 
on the public lands.
    The proposed inspection fees would also enable the BLM to be more 
responsive to market demand. This funding will be used to hire new 
inspectors and improve the tools and systems necessary to implement the 
risk-based inspection program.
                npra land planning/other land plan costs
    Question. The U.S. Fish and Wildlife Service more than 3 years ago 
began work on a new land management plan for the Arctic National 
Wildlife Refuge. The preliminary plan seemed to propose that most of 
the 19 million-plus-acre refuge, including all of the 1.5 million acres 
of the Arctic coastal plain that the U.S. Geological Survey (USGS) 
predicts contains between 6.7 billion and 16 billion barrels of oil--
America's largest on shore petroleum resource--would be proposed for 
wilderness, rather than just the 8 million acres already placed in 
wilderness by the Alaska lands act in 1980. In 2013, however, efforts 
to finish the land management plan seemed to have gone into suspended 
animation, which means the area is being managed as if the new land 
plan is already in effect.
    Where is the planning process at present and when is a final NPRA 
revised land plan likely to be unveiled?
    Answer. The BLM released the National Petroleum Reserve in Alaska 
(NPR-A) Final Integrated Activity Plan (IAP)/EIS on December 19, 2012. 
On February 20, 2013, the Record of Decision for the Final IAP/EIS was 
released and superseded previous land use plans in the management of 
the 23-million-acre reserve.
    As for the Arctic National Wildlife Refuge (ANWR), the U.S. Fish 
and Wildlife Service published a draft revised Arctic National Wildlife 
Refuge Comprehensive Conservation Plan/Draft Environmental Impact 
Statement (CCP/EIS) for public comment on August 15, 2011. The CCP/EIS 
proposed six alternatives ranging from recommending Wilderness 
designation for the Brooks Range, the Coastal Plain, and the Porcupine 
Plateau and Wild River designation for the Atigun, Hulahula, Kongakut, 
and Marsh Fork Canning rivers to recommending current management 
practices remain unchanged. A preferred alternative was not identified. 
Over 612,000 public comments were received on the draft. These included 
communications by mail, e-mails, faxes, Web site submissions, and 
statements at public meetings. The Department is considering the 
comments received and continues to prepare a final CCP/EIS.
    Question. Also, can you supply for the record what both the Fish 
and Wildlife Service and the BLM are planning to spend in fiscal year 
2015 on updating land management plans in Alaska overall?
    Answer. The BLM funding allocation for updating land management 
plans in Alaska in fiscal year 2015 is $2.1 million and the Fish and 
Wildlife Service (FWS) estimates that it will spend $300,000 in fiscal 
year 2015 for updating Comprehensive Conservation Plans on National 
Wildlife Refuges in Alaska. The FWS will also provide section 7 
consultations to Federal agencies in Alaska in 2015, though the cost of 
these consultations is not tracked by agency.
    Question. There are at least three other plans throughout western 
and central Alaska in varying stages of updating/completion, some 
before their normal planning windows. I'm curious about what they are 
costing the Department.
    Answer. Following is a funding schedule for the Eastern Interior 
RMP, the Bering Sea/Western Interior Resource Management Plan (RMP), 
the Central Yukon RMP, and the NPR-A.

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                  Fiscal year--
               Plan name                ----------------------------------------------------------------  Total
                                           2009     2010     2011     2012     2013     2014   2015 \1\
----------------------------------------------------------------------------------------------------------------
Eastern Interior RMP...................     $763     $608      $44     $150     $300      $70       $50   $1,985
Bering Sea/Western Interior RMP........  .......  .......  .......  .......      659      825       948    2,432
Central Yukon RMP......................  .......  .......  .......  .......      561      675     1,020    2,256
NPR-A..................................  .......      195      940      977      500  .......  ........    2,612
----------------------------------------------------------------------------------------------------------------
\1\ Anticipated. Actual allocation may vary based on needs, scheduling, and competing priorities.

                          legacy well cleanup
    Question. Madam Secretary, we have spoken often about the need for 
the Department to speed up the cleanup of 136 abandoned oil and gas 
exploration wells in northern Alaska, wells drilled by the Government 
in both the 1940s and late 1980s and early 1990s. You had about $1 
million in your budget last year for such cleanups. Fortunately, in the 
Helium bill last fall we were able to increase your cleanup funding by 
$50 million so that the Department will be able to tackle the worst of 
the wells in coming years and gain efficiencies by being able to reduce 
mobilization costs and improve coordination of the cleanup efforts. But 
that $50 million will not solve all of the problems.
    Will the Department change its priorities and increase its regular 
budgetary funding to tackle environmental cleanups of abandoned Federal 
wells on an annual basis, since their cleanup truly is a Federal 
responsibility, so that we aren't back in the same position in 6 years 
of having insufficient funding to clean up environmental problems on 
Federal lands?
    Answer. The Department appreciates your role in the passage of the 
Helium Stewardship Act of 2013, which allows BLM to continue to provide 
stability to the helium market and support 21st century jobs and 
industry. The bill also provides a major funding source to address the 
worst abandoned oil and gas exploration wells. This funding will 
significantly increase the speed of remediation efforts at those high 
priority wells.
    When Congress transferred administration of the Naval Petroleum 
Reserve No. 4 in 1976 (legislatively renamed the National Petroleum 
Reserve-Alaska or NPR-A), the Department inherited a massive legacy of 
federally drilled oil and gas exploration wells. Some of these wells 
have never been properly plugged and closed and the workload was well 
beyond the scope of the DOI environmental cleanup budget. To date, 
nearly $90 million has been spent cataloging, monitoring and 
remediating these legacy wells.
    The BLM will continue to coordinate efforts with the State of 
Alaska and the North Slope Borough in addressing well plugging and 
cleanup activities so these wells can be closed in a manner consistent 
with State and Federal law. Although it is premature to discuss budget 
priorities for the years 2020 and beyond, the BLM will keep the 
subcommittee fully informed of its progress over time with the 
objective of ensuring no surprises as we work through this legacy 
workload.
              national park service centennial initiative
    Question. The Department's budget contains a proposal in support of 
the Park Service Centennial in 2016. We all support the National Parks 
and recognize the importance of this event. The most significant 
feature of this proposal is the request for $300 million in each of the 
next 3 years in mandatory funding, $100 million to be matched by 
private partners, for what your budget describes as signature projects 
and $200 million for deferred maintenance projects. The budget also 
indicates that you plan to send up a legislative proposal for this 
initiative later this year.
    Can you explain to me what you mean by signature projects? In other 
words, what are the criteria for qualifying for a project with these 
funds?
    Answer. The minimum eligibility requirement for a project is that 
they have a one to one partner match to Federal funds. Preference will 
be given to projects with a higher partner match, a clear and immediate 
visitor benefit, and an ability to be obligated in a timely manner. The 
visitor benefit may include projects such as educational programing, 
providing increased visitor access, or rehabilitating a visitor use 
asset. All parks and partners are eligible.
    Question. Will these projects also address the backlog or will they 
be for new construction? My concern is that many folks who may give 
private donations may be interested in new facilities rather than 
fixing up many existing sites.
    Answer. These projects would support both infrastructure and non-
infrastructure needs. There is evidence of strong partner support for 
projects other than new construction. For example, the Yosemite 
Conservancy is interested in repairing water lines to save the habitat 
of the giant sequoias, and the Gettysburg Foundation is interested in 
rehabilitating the Little Round Top visitor use area. These projects 
would be in addition to the deferred maintenance projects funded 
through the $200 million proposal, which will have specific performance 
measures to track the restoration of the highest priority park assets 
to good condition.
    Question. Will more rural States with less philanthropic resources 
be at a disadvantage in competing for funds against wealthier areas?
    Answer. Our partners are very diverse, and their ability to raise 
funds varies widely, but we feel we will be able to match our myriad 
Centennial efforts to an appropriate partner--or partners--as 2016 
approaches and the Centennial Initiative gains momentum. Our experience 
with managing the Centennial Challenge program from fiscal year 2008 to 
fiscal year 2010 does not indicate that rural States would be at a 
disadvantage. For example, successful projects were at rural parks such 
as Tallgrass Prairie National Preserve, Mesa Verde National Park, 
Redwood National Park, and Andersonville National Historic Site. Many 
parks in rural States have well established friends groups.
    Question. While I support efforts to address the backlog which $200 
million of this proposal does, what offsets will be used to pay for 
this new mandatory funding?
    Answer. The administration looks forward to working with Congress 
on the details of legislation that would advance the Centennial 
proposal, including the necessary offsets for this new spending. That 
includes revenue generating proposals in DOI's 2015 budget that are 
estimated to result in savings to the Treasury of more than $2.6 
billion over 10 years. While the fiscal climate requires prudence, 
national parks have a proven track record as economic engines. For 
example, the recently released, peer reviewed National Park Visitor 
Spending Effects report found that national parks across the country 
continued to be important economic engines, generating $26.75 billion 
in economic activity and supporting 243,000 jobs. In terms of 
leveraging Federal funds, for every dollar invested by taxpayers, $10 
is returned to the American economy.
    Question. As an appropriator, it always gives me pause when we move 
portions of an agency's budget offline. What role will this Committee 
have in overseeing how these funds are expended?
    Answer. The administration recognizes the help the Appropriations 
Committee has provided in addressing deferred maintenance in national 
parks, so we would want a legislative proposal to provide for 
appropriate oversight by this Committee. There are a number of options, 
such as consultations on criteria to be used and notifications now 
included in annual congressional justifications on the planned 
allocation of Recreation Fee permanent appropriations.
                       katmai/brooks camp bridge
    Question. Madam Secretary, your budget request includes $4.4 
million for the first phase of a $7.5 million project to replace the 
existing floating bridge at Brooks Camp in Katmai National Park with an 
elevated bridge and walkway. This new bridge will be a minimum of 10 
feet above the ground. The purpose is to minimize human-bear 
interactions which frequently cause lengthy delays for workers and 
visitors getting back and forth across the Brooks River.
    While these objectives may be worthwhile, I'm troubled by the fact 
that this bridge is part of what I view as an outdated Development 
Concept Plan (DCP) completed in 1996 that also calls for moving the 
entire existing Brooks lodge to the other side of the river. I 
completely disagree with that not only because it would be totally cost 
prohibitive, but also because of the historic significance of this 
facility. It was created by one of Alaska's aviation pioneers who built 
this camp before Katmai National Park was established. I don't want to 
see the construction of this bridge if it is part of an effort by the 
Park Service to move Brooks lodge.
    Is it still the DOI's position that the Brooks lodge facility must 
be moved to the other side of the Brooks River?
    Answer. The National Park Service (NPS) does not plan to move the 
historic Brooks lodge facility. Once the bridge is finished, the NPS 
will complete the supporting infrastructure at the Valley Road 
Administrative Area and move the majority of NPS housing to the south 
side. This combined effort will significantly reduce development on the 
north side, mitigating impact to cultural resources and bear use areas. 
It will greatly improve the visitor experience. The lodge, campground, 
cultural exhibits, and limited concessioner housing will remain on the 
north side.
    Question. Would the Department agree to go back and re-do the 
existing DCP so that it reflects the latest science and budget 
realities that we are operating under?
    Answer. The 2013 Brooks River Visitor Access EIS amended the 1996 
Development Concept Plan (DCP) by retaining existing floatplane access 
on Naknek Lake and Lake Brooks, and approving an elevated bridge and 
boardwalk system across Brooks River. It improves visitor safety by 
reducing the risk of bear interactions and provides for permanent, 
reliable access across the river.
    The NPS utilized scientific expertise in formulating the 2013 plan 
(Amended EIS). For instance, NPS convened a panel of State, Federal, 
and university brown bear experts to advise the planning team during 
project scoping. Other special studies of cultural resources, river 
hydrology, geotechnology, and bear movements informed the plan. The 
plan was vetted through full public involvement, including project 
scoping and meetings conducted in Anchorage, King Salmon, and Brooks 
Camp.
                red devil mine/native land contamination
    Question. First, I want to thank the Secretary for proposing to 
include $2.7 million to speed remediation of mine waste at the old Red 
Devil Mine site in Southwest Alaska--a situation that has been under 
consideration between Interior and the State of Alaska for more than a 
decade. However, Red Devil also brings up the broader issue of 
environmental pollution and contamination on lands already conveyed to 
Alaska Natives under the Alaska Native Claims Settlement Act. 
Currently, there are more than 650 such sites on Native lands--lands 
contaminated prior to conveyance--where the Federal Government is 
statutorily responsible for the cleanup. In 1988, the Department 
studied the subject and proposed a six-point effort to speed up cleanup 
of such contamination but nothing happened. Last fall, I wrote and 
asked you about the Department's plans for cleanup. In January, you 
promised the Department would update its contaminated lands survey--and 
I understand you have assigned staff to update that survey.
    My question is how quickly might the updated survey be finished and 
more importantly, how quickly will the Department devote actual funding 
and resources to clean up contamination caused by Federal agencies?
    Answer. The Department shares your concern that contaminated lands 
may have been conveyed to the Alaska Native Claims Settlement Act 
(ANCSA) corporations. As I stated in my January 2014 letter, the 
Department is committed to determining what sites identified were 
conveyed under ANCSA in order to continue follow up on the six 
recommendations. The BLM is working cooperatively with the Alaska 
Native Village CEO Association on this issue and meeting regularly with 
them to gather information and complete the inventory. The BLM's goal 
is to complete the inventory by late summer this year.
    Since January 2014, the BLM-Alaska has designated a full-time 
project manager to focus specifically on the contaminated lands. The 
project manager's group is reviewing the BLM's data to determine what 
contaminated lands may have been conveyed. A database of this 
information is being developed, which will allow us to prioritize 
future actions. Once the inventory is completed, the Department will be 
better able to assess the resources appropriate to remediate the 
contaminated lands.
                   alaska volcano observatory funding
    Question. The United States Geological Survey operates the Alaska 
Volcano Observatory, a joint entity with the University of Alaska. USGS 
operates five such observatories in the western United States. The 
observatory maintains a series of seismic monitors on volcanoes in 
Alaska, largely on the Alaska Peninsula and the Aleutian Chain, near 
the air corridor for flights to America from Asia. Ash from eruptions 
is particularly dangerous to such flights as shown by the near crash of 
a jumbo jet years ago.
    According to USGS's own count, many of the seismic monitors need to 
upgrade to digital technology, as well as the replacement of antennas 
and batteries since the stations are rapidly going off line. Not only 
is this causing a real health and safety issue not just for Alaskans, 
but international passengers on trans-Pacific flights. Your budget 
contains several increases, such as a $17.1 million increase just for 
climate change research, while it appears to contain roughly flat 
funding for the Natural Hazards Program, even though tracking and 
predicting earthquake and volcanic eruptions would seem to be one of 
the Department's most important health and safety responsibilities. 
Your budget seems to call for increases of just $314,000 for the 
Earthquakes Program--a sore subject in this the 50th anniversary year 
of the strongest earthquake in North American history--the Good Friday 
quake in Alaska in 1964--and just $187,000 for the Volcano Program, 
even though the estimate just to maintain just the Alaska seismic 
monitoring network will cost millions additionally a year for 
maintenance to keep the network from collapsing.
    I'm afraid we're going to reach a point in the very near future 
where we simply don't have enough information available to predict and 
monitor the volcanic activity in Alaska, which could have catastrophic 
consequences. The fiscal year 2014 Conference Report contained language 
noting these challenges and concerns.
    What is USGS doing to make sure that these monitoring systems don't 
collapse in the near future, as is predicted?
    Answer. The fiscal year 2014 Omnibus Appropriations report provides 
$400,000 toward rapid response to ash forming eruptions and network 
restoration activities. As proposed in the 2015 President's budget 
request, these funds will be applied toward installation of monitoring 
instrumentation at other U.S. volcanoes prone to ash-forming eruptions 
in Washington and Oregon. Restoration of existing Alaskan volcano 
networks is a long-term project with anticipated duration of 3 to 4 
years at the current funding level.
    The Alaska Volcano Observatory (AVO) received an additional 
$119,000 in 2014 to support maintenance work on geophysical monitoring 
networks on Alaska volcanoes. Of this amount, the USGS will spend 
$73,000 on equipment and maintenance costs for ailing monitoring 
networks and $46,000 for helicopter support will be routed to the 
Alaska Division of Geological and Geophysical Surveys through a 
cooperative agreement to support maintenance of monitoring networks. 
The high priority targets for AVO maintenance work in the summer of 
2014 will be the repair of instruments on Shishaldin, Westdahl, and 
Fisher volcanoes on Unimak Island, where all seismic instruments are 
operating at an impaired level. Shishaldin is experiencing an ongoing 
low level effusive eruption and seismic instruments are critically 
needed. Additionally, AVO plans network maintenance on the Katmai 
volcanoes of Spurr, Redoubt, Augustine, Akutan, Makushin, and Okmok in 
2014, where seismic instruments are also operating at an impaired 
level. No maintenance is planned in 2014 for Aniakchak or Four Peaked 
volcanoes where networks have recently failed. AVO hopes to re-engineer 
these networks so they will be more robust and cost effective to 
operate and plans to make repairs/upgrades in 2015 pending availability 
of funds.
    AVO is also partnering with a National Science Foundation (NSF) 
funded archeology project through the University of Kansas and Whitman 
College to place two new monitoring stations on Cleveland volcano. 
Cleveland volcano has been the most consistently active volcano in 
Alaska over the past 5 to 10 years and is currently not monitored with 
ground based instrumentation. This maintenance will lower the hazard 
risk posed to NSF-funded researchers and accompanying USGS scientists 
and provide the means to detect and warn of future eruptions of 
Cleveland much more rapidly than is currently possible. This 
partnership significantly lowers the logistical costs on placing 
monitoring instrumentation on this very active and very remote Aleutian 
volcano. Future commitments by the NSF GeoPrisms initiative suggest 
that cost effective ship and helicopter access for maintenance work 
will continue for at least several more years.
    Question. Could you provide this subcommittee with the current gaps 
in the monitoring infrastructure at the Alaska Volcano Observatory and 
the estimated costs to maintain a sufficient monitoring system?
    Answer. Currently AVO seismic networks on Aniakchak, Little Sitkin, 
Four Peaked, Wrangell, and Semisopochnoi volcanoes are not operational 
and seismic networks on Gareloi, Westdahl, Fisher, Shishaldin, Dutton, 
Peulik, Katmai, and Pavlof volcanoes are operating at an impaired 
level. To repair and consistently maintain these networks AVO would 
need an additional $2.5 million a year for an annual budget of $6.5 
million to $7 million. AVO currently has no ground-based monitoring at 
several moderate to high threat volcanoes including Kiska, Kasatochi, 
Seguam, Amukta, Yunaska, Carlisle, Cleveland, Herbert, Kagamil, 
Vsevidof, and Chiginagak and these volcanoes represent significant gaps 
in our ability to address volcanic hazards in Alaska and on North 
Pacific air routes.
    The Volcano Hazards Program (VHP) has to balance the high threat 
volcanoes in Alaska needing instrumentation with the Very High Threat 
volcanoes in the conterminous United States whose monitoring networks 
are inadequate for the threat they pose--most notably Glacier Peak, 
Washington (virtually no instrumentation); Baker, Washington; Mt. Hood, 
Oregon; Lassen Peak, California; and Mt. Shasta, California.
                    land and water conservation fund
    Question. Your fiscal year 2015 proposal asks for $550 million in 
mandatory spending for the Land and Water Conservation Fund (LWCF) 
program. The administration has been making similar requests to use 
mandatory funds for LWCF over the last several years and Congress has 
not enacted any of them. Your budget documents indicate that in fiscal 
year 2016, the administration will propose the fully authorized level 
of $900 million for LWCF, paid for entirely through mandatory 
appropriations. I wholly disagree with this. In a time of tight budgets 
and overwhelming debt, why should Congress, and especially this 
subcommittee support putting this program on auto pilot? LWCF has 
received roughly $300 million over the last few budget cycles in 
discretionary funds.
    Why should this program be placed above other critical priorities 
in the Interior bill like Indian schools and healthcare and receive 
guaranteed full funding?
    Answer. The Department of the Interior is entrusted with overseeing 
Federal lands for the benefit of current and future generations. The 
Land and Water Conservation Fund is an innovative program that has, for 
nearly 50 years, used revenues from offshore oil and gas development to 
enhance parks and open spaces in every county across the country. The 
LWCF Act has been one of our Nation's most effective tools for 
protecting our Nation's cultural resources, protecting important 
habitat, expanding access for hunting and fishing, creating ballfields 
and other places for kids to play and learn, and protecting Civil War 
battlefields.
    Congress passed the LWCF Act and established $900 million as its 
authorized funding level to ensure balance between the depletion of one 
national resource--our offshore oil and gas reserves--and the permanent 
conservation of our lands and waters. Authorizing mandatory funding for 
the LWCF would realize the original intent of this law: to set aside a 
meaningful portion of the royalties that companies pay for developing 
America's offshore oil and gas reserves, and reinvest those funds in 
land and water conservation for the benefit of all Americans and future 
generations. Mandatory funding will not remove all congressional 
discretion over the use of the funds, but will provide greater 
certainty that this portion of our offshore royalties are used for 
their intended purpose: to support the national endowment of lands and 
waters which provide our cities with clean drinking water, provide our 
children with safe places to play, and protect the way of life of our 
farmers, foresters and ranchers.
    Wisely utilizing the revenues that are deposited into the LWCF 
account has been a high priority for the Department across many 
administrations, regardless of political affiliation. However, it is 
one of many priorities that must be balanced. The administration is 
also committed to ensuring that Native American youth who attend Bureau 
of Indian Education-funded schools benefit from academically rigorous, 
culturally appropriate education that will prepare Indian students to 
be successful citizens and future leaders in their communities and help 
build safer, stronger, healthier, and more prosperous Indian 
communities and economies. Improving education and literacy in tribal 
nations is essential to vitalizing community life, stimulating economic 
development, increasing employment opportunities, and improving 
standards of living for future generations of Native Americans. A 
thriving educational system for American Indian students is a critical 
component of the broader initiative to strengthen tribal communities.
    Indian Affairs owns or provides funding for a significant inventory 
of buildings and other facilities across the Nation, including 
education facilities in Indian country. Currently, Indian Affairs 
provides funds for facility programs for 183 academic and resident-only 
campuses. From 2002 through 2014, over $2 billion, including $300 
million of funding made available in the American Recovery and 
Reinvestment Act, has been provided for construction, improvement, and 
repair projects that have reduced the number of schools in poor 
condition from more than 120 of the 183 schools to 63 today. 
Appropriations for education construction over the last 15 years has 
funded 42 complete school replacements and 62 major renovations, which 
are either completed, funded or under construction. The budget supports 
progress in completing the 2004 Replacement School Construction 
priority list, providing funding for the Beatrice Rafferty School.
                         alaska land conveyance
    Question. I was disappointed to see that the Department is once 
again proposing to cut funding for completion of Alaska land 
conveyances. The State of Alaska and the Alaska Native corporations are 
still awaiting conveyance and patenting of the 149 million acres 
promised them in 1959 and 1971 in the Statehood Act and the Alaska 
Native Claims Settlement Act. The last official numbers I saw showed 
that combined, the Government still owes the State and Natives interim 
conveyance of approximately 7 million acres and patents to about 46 
million acres.
    Only 4 years ago, the funding for these conveyances was roughly $34 
million, but the administration proposed to cut that by over 50 percent 
to just $16.6 million in fiscal year 2013. In fiscal year 2014, 
Congress provided $22 million, which should help to speed up the 
required land surveys. I was disappointed, then, when your fiscal year 
2015 budget request of only $19 million again proposes to cut funding 
for this important program. While $3 million may not seem significant, 
the extra funding could help complete conveyances within 5 to 10 years, 
instead of the 20 or 30 years that likely would be result if funding 
fell back to fiscal year 2013 levels.
    Why is the Department again seeking to cut conveyance funding when 
completing the conveyances is clearly a legal obligation under three 
different Federal laws?
    Answer. The BLM has innovated and modernized its survey and 
business practices in Alaska and is already achieving faster and 
improved outcomes with a smaller investment. Under previous processes, 
the remaining conveyances would have taken decades to complete (until 
approximately 2045). To accelerate the timeframe for completing the 
remaining survey and conveyance requirements, the BLM transformed its 
survey technique to expedite land transfers. The new approach reduces 
physical monuments in the ground and provides precise geospatial data 
for land boundaries, reducing the cost of surveys by up to 50 percent 
and accelerating timeframes for the final patenting of lands to the 
State. With this new initiative, the BLM will meet its obligation to 
the State and Alaskan Natives substantially sooner and more 
economically. The 2015 request level plots a course for completing all 
surveys and land transfers in 10 years.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran
    Question. In February 2013 a study was released that estimated 
National Heritage Areas contribute $12.9 billion annually to our 
Nation's economy. The study also reported that the 49 National Heritage 
Areas across the country support 148,000 jobs and contribute $1.2 
billion in Federal taxes annually. Would the President's budget 
proposed 54 percent reduction in funding for the Heritage Partnership 
Program have an effect on the economic impact and jobs supported by 
National Heritage Areas?
    Answer. The reduction proposed in the President's budget supports 
the directive for the more established National Heritage Areas (NHAs) 
to work toward becoming more self-sufficient. This directive was 
provided in the House Report 111-180 for the fiscal year 2010 Interior 
appropriations bill. As NHAs develop other sources of non-appropriated 
funding to attain operational self-sufficiency, appropriated funds 
would still leverage significant economic benefits, including job 
creation, through tourism and visitor spending.
    The budget provides support to sustain critical functions of the 
National Park Service's (NPS') valued NHA partners, especially those 
areas that are in the process of developing and implementing their 
sustainability plans and forming networks of operational and financial 
partnerships. The performance-based funding formula currently in the 
process of being implemented for NHAs will, once fully implemented, 
reward NHA entities that bring in additional non-Federal investment and 
which have also developed a sustainability plan.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander
                          white-nose syndrome
    Question. In February 2010, white-nose syndrome was confirmed in 
the State of Tennessee and continues to spread. I am very concerned 
about this because of the potential long-term impact it could have on 
Tennessee.
    Bats are consumers of enormous numbers of insects that threaten 
crops and forests. Because of the insects and the amount of insects 
that bats consume, economic analysis estimates that the value of pest 
suppression bats have per acre ranges from $12 to $173, with an average 
benefit of $74 per acre. The same study estimates the total annual 
agriculture benefit of bats ranging from $3 billion per year to $53 
billion per year, with the most likely annual benefit of $22 billion 
per year.
    As of 2011, agriculture and forestry industries in Tennessee impact 
the State's economy with $66.4 billion in total economic activity and 
more than 337,880 in employment according to the Tennessee Department 
of Agriculture. So the loss of these bats could severely damage the 
Tennessee economy.
    Would you provide an update on the research the Department has 
conducted on the spread of white-nose syndrome and what the 
Department's goals for white-nose syndrome are and how do you plan to 
achieve them?
    Answer. Since discovered in 2007, white-nose syndrome (WNS), caused 
by the fungus Pseudogymnoascus destructans (Pd), has killed over 5 
million bats, and the disease has spread to 25 U.S. States and five 
Canadian provinces. The National Park Service has detected the fungus 
in 10 park units. Formally accepted in 2011, the National Plan for 
Assisting States, Federal Agencies, and Tribes in Managing White-nose 
Syndrome in Bats (National Plan) provides a framework for coordinating 
the WNS investigation and identifies research and management goals for 
the collective response to the disease. Numerous discoveries stemming 
from collaborative research conducted over the last several years at 
the U.S. Geological Survey (USGS) and other centers, universities, and 
State and Federal laboratories have contributed to current 
understanding of WNS and the ability to closely monitor disease spread. 
The result of this research has enabled the USGS to develop an enhanced 
molecular method (real-time Polymerase Chain Reaction) to detect Pd, 
demonstrate that bat hibernacula serve as long-term reservoirs for Pd, 
characterize the influence of temperature on growth of Pd, determine 
that infection by Pd disrupts the physiology of hibernating bats, and 
demonstrate that Pd was likely introduced to North America from Europe.
    This fundamental understanding of WNS and the fungus that causes it 
has facilitated the USGS' ability to shift the focus of research from 
disease and pathogen characterization to disease management, in 
accordance with the goals identified in the National Plan. Some of the 
objectives defined below (e.g., enhanced disease surveillance) are 
sufficiently developed for immediate implementation, while others 
(e.g., vaccination of bats or implementation of a bio-control-based 
disease management) will require further development and longer-term 
investment. Ongoing and proposed management-based WNS research efforts 
at the USGS will:
  --Enhance disease surveillance to more precisely define where the 
        fungus Pd occurs and monitor the efficacy of proposed 
        management actions.
  --Investigate the role that environmental conditions play in the 
        outbreaks of WNS to provide information to managers to 
        manipulate the environment as a strategy to manage the disease.
  --Define the host (bat) response to infection by Pd and what causes 
        the manifestation of the disease to support the development of 
        a vaccine.
  --Develop and disseminate an edible vaccine to protect bats against 
        infection by Pd.
  --Define a host (bat) response to fungal infection to support bio-
        control-based suppression of WNS by manipulation of microbial 
        populations naturally found on bat skin (micro-biomes).
  --Characterize soil microbial communities that suppress Pd in 
        underground bat hibernation sites to support a bio-control-
        based strategy to reduce pathogenic environmental reservoirs of 
        the fungus.
  --Develop a coordinated bat population monitoring database (NABat) to 
        support regional and range-wide inferences about trends in 
        distributions and abundances of bat populations in North 
        America facing mortality from stressors such as white-nose 
        syndrome and wind energy.
  --Develop an online national wildlife mortality event reporting 
        system that will facilitate the sharing of disease event 
        information, such as outbreak onset and ending date, location, 
        species involved, numbers involved, diagnoses, laboratory, and 
        contact names.
    Question. Does the research partnership between multiple Federal 
agencies and State agencies provide the best platform to solving this 
issue of white-nose syndrome? Are we seeing signs of improvement or 
should there be a more aggressive approach to solving this issue?
    Answer. White-nose syndrome is still a significant problem and the 
continued spread of the disease is anticipated to threaten hibernating 
bat species throughout North America. The National Plan for assisting 
States, Federal agencies and tribes in managing WNS in bats was 
formally accepted in May 2011 and serves as the framework for the 
coordination of agency and partner efforts to respond to WNS. The 
multi-agency response to WNS has been greatly enhanced by operating 
collectively under the National Plan by providing a governance 
structure and mechanism for collaboration to ensure agency actions are 
coordinated, meeting the priority needs, and are not duplicative. A 
sister Canadian plan, adapted from the U.S. National Plan, has also 
facilitated research and response activities with many agency and 
academic partners in Canada. The National Plan identifies seven 
elements that are critical to the investigation and management of the 
disease and describes the goals, objectives, and action items of the 
working groups established to handle each element. Collectively, the 
objectives and actions identified in the base plan address the greatest 
needs and knowledge gaps that must be covered in order to manage the 
disease. The objectives also reflect a scientific approach that is 
solidly based in research, which is necessary when facing the many 
questions inherent in the response to the outbreak of an emerging 
disease.
    The response to WNS has been significantly enhanced by the 
partnerships and collaborations that have developed to combat this 
novel disease, and the participation of State and Federal agencies has 
been integral to the efforts. The progress that has been made since the 
discovery of the disease in 2007 is considerable, and is virtually 
unprecedented in a wildlife disease response of this nature. WNS has 
brought Federal and State agency researchers and managers together with 
academics and non-government researchers across multiple disciplines 
and multiple countries. State agencies are largely responsible for 
monitoring populations of susceptible bat species, most of which are 
State trust species, and for managing the disease at the local level. 
State agencies also provide critical support for research projects 
conducted by Federal and non-government researchers. Federal agencies 
fund and conduct research, facilitate cross-border collaboration, and 
promote consistent approaches among States and on Federal lands. 
Additionally, the ability of the Fish and Wildlife Service to make 
funds available to State and Federal agencies, as well as academic and 
other private researchers, has also helped to promote collaboration, 
maintain critical State activities, and further the research 
achievements.
    WNS has continued to spread, and observations this past winter 
suggest that impacts to bats may be just as severe in the Southeast and 
Midwest as they have been in the Northeast and eastern Canada. There is 
cause for hope, however, in that there is evidence of small numbers of 
little brown bats persisting in the affected area and the USGS is 
studying these populations to learn how and why they are surviving. The 
advancements to our understanding of disease mechanics and 
transmission, along with promising research into possible treatment 
options, are also cause for hope that the USGS will be able to develop 
new tools to manage the disease. These advancements have allowed 
researchers to shift their focus from basic science to management and 
conservation efforts. These efforts will continue to require attention 
and resources from all agencies and partners engaged in the 
international response, and will continue to be guided by the National 
Plan.
    The progress and successful collaborations fostered by the national 
response to WNS support the use of the WNS National Plan as a model for 
future wildlife disease response by formalizing this collaborative 
arrangement into a robust infrastructure to address emerging wildlife 
diseases. The USGS is working with partners to create a National Fish 
and Wildlife Health Network designed to build a collaborative, 
operational framework by which Government agencies, tribes, 
universities and professional conservation organizations will cooperate 
to assist tribal, State and Federal agencies in their responsibilities 
to manage wildlife diseases, and wildlife-associated pathogens. The 
mission of the Network will be achieved through collaborative 
partnerships and the collective, voluntary adoption of protocols and 
actions to address fish and wildlife health issues, such as has been 
seen with the response to WNS. As currently planned, a Coordinating 
Committee will oversee and coordinate implementation of the Network. 
The Network will consist of agencies and organizations with the 
technical expertise to implement the guidelines and plans. The primary 
stakeholders are the tribal, State, and Federal government agencies 
responsible for managing the health of free ranging fish, wildlife, and 
marine animal populations. Specific areas of focus for the Network will 
include: (1) wildlife diagnostic laboratory protocols; (2) disease 
information management and dissemination; (3) coordinated disease 
surveillance; (4) interagency communication and response plans; and (5) 
species specific health issues. The Network will endeavor to address 
deficiencies in fish and wildlife disease monitoring and prevention 
programs where they exist, and facilitate the work of existing systems. 
The creation of this Network will be an important step in addressing 
this critical need.
    In addition to interagency collaboration, the USGS has been working 
with non-governmental organizations in support of the Network, 
including the Marine Mammal Commission, the Wildlife Society, the 
American Fisheries Society, and the Association of Fish and Wildlife 
Agencies. Activities include hosting a successful subject matter expert 
workshop, developing a concept paper, and drafting a coordinating 
committee charter.
    The National Park Service (NPS) has detected the fungus in 10 park 
units. The NPS restricts access to caves serving as bat hibernacula or 
maternity roosts and restricts cave access to visitors which have been 
screened and hold permits or tour tickets. Show caves such as Mammoth 
Cave National Park remain open with screening and decontamination 
procedures in place. The NPS only approves requests for scientific or 
educational permits when benefits outweigh the risk.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt
    Question. Secretary Jewell, when you came before this Committee on 
May 7, 2013, we discussed at length the CityArchRiver project in St. 
Louis. As you and Director Jarvis have both stated, public-private 
partnerships will be a part of the new vision for Park Service 
operations. I wanted to review the topics you addressed in the hearing 
last year. If you can please provide the subcommittee with a written 
response to these items I would appreciate it.
    You stated that:
  --You would visit the Arch soon. I appreciate that you and Secretary 
        Foxx visited on August 2, 2013 for the highway groundbreaking 
        allowing time to meet with local elected officials, Civic 
        Progress, and Regional Business Council leaders and to tour the 
        ground.
  --You would look into the pending agreement between the National Park 
        Service and Bi State Development Agency, the long-term 
        agreement having expired in December 2012. I am appreciative of 
        your personal attention. The new agreement was signed finally 9 
        months after in January 2014. However I have concerns the delay 
        has cost the project time and money.
  --You would appoint one point person with whom the local partners can 
        talk and help get decisions made. You stated that Peggy O'Dell, 
        the Deputy Director was such a point person. Peggy O'Dell has 
        been helpful and I know she is in charge of operations at the 
        Park Service headquarters. However it is my understanding Ms. 
        O'Dell is not the person who regularly interacts with the 
        project partners, such as the Missouri Department of 
        Transportation (MoDOT), Great Rivers Greenway or CityArchRiver. 
        The partners need a facilitator who can provide consistent and 
        transparent communication. The facilitator should meet in 
        person with key partners to work through open issues, ensuring 
        that decisions are timely. Project partners have brought an 
        enormous amount of resources to the table. When the Park 
        Service is inconsistent or not transparent in communicating and 
        resolving schedule and policy issues, there are consequences, 
        including financial impacts.
  --You were willing to look at public private partnerships ``in a 
        different way'' and to understand partnerships only work in a 
        collaborative way. I again want to stress that while I 
        appreciate that the Park Service is in agreement with this 
        goal, words must be put into action. Schedule delays because of 
        slow legal reviews or document processing cost the project 
        considerably. Current proposed schedule changes will already 
        impact the schedule with a delay of 2 months to 1 year. I have 
        been informed that extra costs resulting from these schedule 
        delays could total approximately $8.7 million. In the joint 
        report language accompanying the 2014 Omnibus Appropriations 
        bill, the Committee included language encouraging the use of 
        public-private partnerships. I will repeat it and ask that you 
        include in your responses to these questions the Park Service's 
        plans to meet this charge:

          The Committees encourage the use of public-private 
        partnerships as an important tool in the successful operation 
        of land management agencies. These partnerships, which leverage 
        Federal dollars with State, local, nonprofit and philanthropy 
        entities, have proven effective at achieving partner and 
        Service goals and objectives. The Committees urge the 
        Department and Service to reassess recent policy 
        interpretations and review procedures to facilitate 
        partnerships that have historically proven beneficial to 
        national parks and partners.

    Answer. The National Park Service is extremely pleased to have 
successfully executed a new agreement with the Bi-State Development 
Agency. This 50-year partnership serves as one of the best partnership 
models in the Service and we look forward to a continued relationship. 
The delay in construction start, along with the associated financial 
impact, is not a result of the delay in the execution of the Bi-State 
Development Agency agreement. The project team, including 
representatives of all key partners and the National Park Service (NPS) 
project management and technical team, meet daily to work through 
design, schedule, and funding issues. The NPS team strives to 
communicate the legal and policy requirements of the project, and to 
explore all opportunities to expedite and benefit the project. We 
continue to work closely with the Foundation to help them develop an 
approach to fulfill their commitment to fund increased operation and 
maintenance (O&M) costs resulting from implementation of the proposed 
project. The Foundation-managed design process is also approaching 
completion. Once the Supplemental O&M Agreement with the Foundation is 
executed, completed designs are delivered, and construction funding is 
in place, we will be able to move forward into long anticipated 
construction phase. The Great Rivers Greenway-funded landscape 
construction is anticipated to begin soon, with the Foundation-funded 
Arch Visitor Center/Museum project following.
    Question. I understand that the Department of the Interior, through 
the U.S. Fish and Wildlife Service, along with other Federal agencies 
and the State of Missouri, is engaged in discussions with The Doe Run 
Company concerning their legacy liabilities in Southeast Missouri. I 
had a meeting with your Deputy, Michael Connor, on this topic before he 
was confirmed. Mr. Connor also assured me he would inform you of the 
issue, which I have been told he has. As I hope you will appreciate, 
Doe Run is vital to the regional economy of Southeast Missouri, and the 
continued viability of the company is a matter of keen interest and 
importance to me.
    Are you aware of the ongoing discussions involving your Department?
    Answer. Yes, I am aware of the discussions.
    Question. I would also like to ask for your personal assurance that 
you will pay close attention to this matter, and that you will make 
sure that Doe Run receives fair treatment, consistent with the 
importance of this company to the long-term economic interests of 
Southeast Missouri.
    Answer. The importance of Doe Run to Southeast Missouri is well 
understood by the Department, as it has been in operation for over 150 
years. Close attention is being paid to the Doe Run situation. Senator 
Blunt's concerns have been heard and Doe Run will receive fair 
treatment.
                                 ______
                                 
               Questions Submitted by Senator John Hoeven
    Question. You were recently quoted as saying that you anticipate 
releasing your new regulations for fracking on public land ``sometime 
in 2014.'' As you know, I have had serious concerns about new Federal 
regulations of hydraulic fracturing on Bureau of Land Management (BLM) 
lands, which is why I introduced the Empower States Act, allowing 
States and tribes the ability to regulate hydraulic fracturing on 
Federal lands, like BLM land.
    Our tribes still have concerns about the proposed regulation. On 
March 18, 2014, the Three Affiliated Tribes on the Fort Berthold 
Reservation participated in a consultation with the BLM and the Bureau 
of Indian Affairs (BIA) on the proposed rule for Hydraulic Fracturing 
on Federal and Indian Lands. Following the consultation, the Three 
Affiliated Tribes sent you a letter expressing their concern that your 
Department is not seriously considering the tribal impacts of the 
proposed rule.
    How does your Department plan to work with the tribes to develop a 
rule that affirms tribal self-determination and authority and to comply 
with the Department's tribal consultation policy?
    Answer. The goal of the hydraulic fracture (HF) rule is to ensure a 
consistent, minimum baseline standard for operations across all public 
and tribal lands that are available for oil and gas development, and 
aims to streamline and minimize the efforts required to comply with any 
new requirements, while also protecting Federal and tribal interests 
and resources. The BLM has revised the proposed rule to reduce some of 
the information requirements and avoid duplication with the 
requirements of States (on Federal land) and tribes (on tribal land). 
The BLM has included various options in the revised proposed HF rule to 
encourage streamlining, flexibility, and more efficient operation on 
both public and tribal lands. The BLM is committed to working closely 
with tribes to address any concerns on the impacts of the revised 
proposed rule for hydraulic fracturing. The BLM has been actively 
engaged in tribal consultations from the onset of this rulemaking 
effort.
    Question. North Dakota and other States regulate hydraulic 
fracturing on State, Federal, and private lands. Why do you believe we 
need the Federal Government to add additional regulations when the 
States regulate this area and FracFocus discloses the chemicals?
    Answer. The BLM has an important role to play in ensuring the safe 
and effective use of hydraulic fracturing techniques on Federal and 
tribal lands. The current rules covering these operations are 30 years 
old. The goal of the rulemaking is to ensure a minimum baseline 
standard for operations across Federal lands and for Indian trust 
minerals, including in States and on Indian reservations that are not 
regulating hydraulic fracturing. The BLM intends to continue to work 
with the State and tribal regulatory agencies to avoid duplication of 
requirements from certain States (on Federal land) and tribes (on 
tribal land), while also protecting Federal and tribal interests and 
resources. The revised proposed rule also adds a provision allowing the 
BLM to approve a variance that would apply to all lands within the 
boundaries of a State, a tribe, or described as field-wide or basin-
wide, that is commensurate with the State or tribal regulatory scheme. 
The BLM must determine that the variance would meet or exceed the 
effectiveness of the revised proposed rule. States and tribes would be 
invited to work with the BLM to craft variances that would allow 
technologies, processes, or standards required or allowed by the State 
or tribe to be accepted as compliance with the rule. Such variances 
would allow the BLM and tribes to improve efficiency and reduce costs 
for operators and for the agencies.
    Question. The President's budget provides for $310 million for 
Public Safety and Justice, which funds law enforcement activities on 
approximately 56 million acres of Indian country in 35 States. Programs 
under this activity include investigative, police, and detention 
services; tribal courts; fire protection; and facilities maintenance.
    In North Dakota, we've had significant population growth in the 
Bakken, which includes the Fort Berthold Reservation, and the BIA 
recently assumed the child social services on the Spirit Lake 
Reservation.
    I need to know if you believe this money will help reduce crime on 
the reservations and help ensure children on the Reservation are safe.
    Answer. The 2015 budget includes a comprehensive and integrated 
approach to address the interrelated problems of poverty, violence, and 
substance abuse faced by Indian communities. In addition to continuing 
the robust funding support for public safety programs, the 2015 budget 
incorporates an increase of $11.6 million for social services and job 
training programs as part of the Tiwahe Initiative. As a longer term 
effort to address conditions that contribute to crime in Indian 
communities, the Tiwahe Initiative will support culturally appropriate 
services with the goal of empowering individuals and families through 
health promotion, family stability, and strengthening tribal 
communities as a whole.
    Beyond funding, the BIA Office of Justice Services constantly looks 
for ways to improve program effectiveness with other tools and 
resources. For example, the lessons learned from a successful pilot 
program to reduce violent crime at four reservations were published in 
a handbook in June 2012. This compendium of best practices serves as a 
valuable resource to guide law enforcement entities operating 
throughout Indian country. It includes strategies that proved effective 
and those that didn't. The information it offers ranges from general 
approaches to communities policing to detailed instruction on specific 
crime reduction plans.
    The BIA fully utilizes all resources at its disposal to help reduce 
crime and ensure children are safe in Indian communities across North 
Dakota, as well as throughout the Nation.
    Question. As you are aware, North Dakota's BLM Field Office in 
Dickinson has been facing a backlog of permit applications for drilling 
on Federal lands. I am pleased that my bill to create the Montana/
Dakotas State Office became law last December. The BLM has also used 
innovative approaches to help tackle the workload--bringing in strike 
teams to the Miles City district headquarters, using teleworkers, and 
securing land for employee housing.
    In one notable example, the BLM has worked with the North Dakota 
(ND) Petroleum Council to facilitate extra funds from the oil industry 
to help pay salaries and benefits for five additional employees to 
process permits in the Bakken region. The agreement has important 
protections against favoritism, so no company receives expedited 
treatment. I commend BLM for finding creative solutions and fostering 
collaboration.
    In this time when additional Federal funding is limited, do you 
think that this model can be replicated to other areas and States 
across the country? Are there any other steps that can be taken to 
increase partnerships with other agencies--like the U.S. Forest Service 
and BIA--as well as industry stakeholders?
    Answer. The BLM remains committed to expediting the processing of 
applications for drilling permits nationwide and advancing the 
responsible development of oil and gas resources on public land. As 
part of this commitment, the BLM is expanding remote processing so 
additional staff are able to assist in reviewing permits, and 
establishing one-stop shops where resources are consolidated to further 
accelerate permit review. The BLM is conducting outreach to industry to 
reduce instances of incomplete permitting packages, thereby reducing 
labor costs and processing times. BLM has signed agreements with oil 
and gas associations that allow industry to provide supplemental 
financial support for agency permitting activities under certain 
circumstances; however, BLM would prefer to fund these activities 
through more traditional means (e.g., standardized user fees and/or 
discretionary appropriations) to avoid the potential for conflicts of 
interest. It should be noted that the President's 2015 budget request 
includes a more than 20 percent funding increase to strengthen the 
BLM's Oil and Gas Management program and supports continued 
implementation of leasing reforms, enhanced oversight, and a 
strengthened inspections process.
    Question. Another issue I am concerned about is the impacts of the 
proposed grazing administrative fee of $1 per animal unit month will 
have on our ranchers. How has the administration taken into account the 
impacts this new fee would have on ranchers?
    Answer. After analyzing several different fee proposals, including 
(1) a flat fee of $500/permit, (2) a graduated fee schedule based on 
labor spent by category, (3) a graduated fee schedule based on animal 
unit months (AUMs) billed by category, and (4) a fee based on AUMs 
billed, the BLM determined that No. 4, an administrative fee charged on 
the basis of actual grazing use, or animal unit months (AUMs), is the 
most equitable and fair for permittees. The impacts to ranchers would 
vary depending on their size, i.e. a rancher with 500 AUMs billed would 
have a $500 bill. This may not reflect the actual cost of doing the 
work; i.e. the cost to process a permit for a 100 AUM permit may be the 
same as a 5,000 AUM permit. The BLM will analyze potential impacts from 
the permit administration fee proposed in the President's fiscal year 
2015 budget request during the 3-year pilot period.
    Question. Grazing provides numerous environmental benefits such as 
managing vegetation. How have you taken into consideration the effects 
that could take place if fewer ranchers pay to graze in BLM lands due 
to increased cost?
    Answer. As a tool for improving the BLM's administration of grazing 
permits and use, the proposed fee would help the agency manage 
livestock grazing in a manner which achieves and maintains the health 
of public lands. The BLM will analyze potential effects from the permit 
administration fee proposed in the President's fiscal year 2015 budget 
request during the 3-year pilot period.
                                 ______
                                 
              Questions Submitted by Senator Mike Johanns
    Question. Last year I wrote to the Department of the Interior (DOI) 
about a draft environmental impact statement (EIS) for the Proposed 
Niobrara Confluence and Ponca Bluffs Conservation Areas, first asking 
that the comment period be extended, and later asking follow-up 
questions and expressing strong concerns I was hearing from Nebraskans. 
My office continues to hear of strong concern from constituents in that 
region.
    What are the next steps on this project, and when will they occur?
    We have been told that the U.S. Fish and Wildlife Service (FWS) and 
the National Park Service (NPS) will complete a final EIS for the 
project sometime this summer--perhaps early this summer. Is that a 
correct understanding?
    After the submission of that final EIS, can we expect an open 
comment period and public meetings in Nebraska?
    Answer. The FWS and the NPS core planning team involved in 
developing the Draft Environmental Impact Statement (EIS) and Land 
Protection Plan--Niobrara Confluence and Ponca Bluffs Conservation 
Areas--met in Yankton, South Dakota in February 2014 to review the 
extensive public comments received, develop responses, and discuss a 
proposed course of action. Due to overwhelming interest, the original 
comment period had been extended to a full 6 months.
    The planning team is continuing to look at the best way to complete 
the final EIS, taking into consideration the desire for additional 
public input. In early summer, a full briefing package will be sent to 
each member of the Nebraska and South Dakota congressional delegations 
to answer remaining questions on the overall status of the project and 
when the planning process is expected to be finalized. The current goal 
is to finalize the Land Protection Plan and complete a Record of 
Decision in summer of 2014.
    Question. For the current fiscal year or in the fiscal year covered 
by the fiscal year 2015 budget request, do you have any plans to make 
any designations under the Antiquities Act, or to consult or otherwise 
cooperate with the Executive Office of the President to identify 
properties for designation under the Antiquities Act?
    Answer. As I stated at the hearing, the Antiquities Act, as 
provided by Congress, has been used by Presidents of both parties for 
more than 100 years as an instrument to preserve and protect critical 
natural, historical, and scientific resources on Federal lands for 
future generations. As Secretary of the Interior, I do not have the 
authority to designate monuments under the Antiquities Act; that 
authority is vested in the President. I support the administration's 
interest in conducting an open, public process that considers input 
from local, State, and national stakeholders before any sites are 
considered for designation as national monuments through the 
Antiquities Act.
    Question. For fiscal year 2015, please explain the extent to which 
DOI budget resources will be used to help make or manage any 
forthcoming designations under the Antiquities Act and where these 
designations will be located.
    Answer. There are no specific funds set aside in the fiscal year 
2015 budget for unplanned yet possible new designations under the 
Antiquities Act. If necessary, the Department could rearrange 2015 
funding priorities to accommodate the costs associated with making or 
managing an unforeseen designation, as such costs would be very modest 
in the first year.
    Question. Are any Antiquities Act designations planned for either 
the State of Nebraska or in lands or waters contiguous to the State in 
the current fiscal year or in fiscal year 2015?
    Answer. I am not aware of any such planned Antiquities Act 
designations.
    Question. Is there any legal bar to DOI preparing statements of 
environmental impacts consistent with principles found in the National 
Environmental Policy Act for designations made by the President under 
authority granted to him in the Antiquities Act?
    Answer. As stated above, the administration supports conducting an 
open, public process that considers input from local, State, and 
national stakeholders before any sites are considered for designation 
as national monuments through the Antiquities Act. While land 
management agencies typically use the National Environmental Policy Act 
(NEPA) process in their development of management plans for new 
national monuments, I understand that NEPA does not apply to these 
discretionary decisions by the President because the President is not 
an agency.

                          SUBCOMMITTEE RECESS

    Senator Reed. And with that, the hearing is adjourned.
    [Whereupon, at 10:59 a.m., Wednesday, March 26, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                        WEDNESDAY, APRIL 9, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:25 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Jack Reed (chairman) presiding.
    Present: Senators Reed, Leahy, Udall, Murkowski, Cochran, 
Hoeven, and Johanns.

                    ENVIRONMENTAL PROTECTION AGENCY

STATEMENT OF HON. GINA McCARTHY, ADMINISTRATOR
ACCOMPANIED BY MARYANN FROEHLICH, ACTING CHIEF FINANCIAL OFFICER

                 OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. I would like to call the hearing to order and 
welcome everyone here, particularly Administrator Gina 
McCarthy. Thank you. Gina and I understand each other because 
she has an accent similar to mine, and she is a devout Red Sox 
fan, so the rest is sort of nice, but not important.
    So thank you for being here. And she is joined by the 
Acting Chief Financial Officer, Maryann Froehlich. Thank you, 
Maryann.
    The President's fiscal year 2015 budget request includes 
$7.9 billion for EPA, and that amount is $310 million, or 4 
percent, below the fiscal year 2014 enacted level of $8.2 
billion. Regrettably, this is the fourth year in a row that the 
administration has set up a declining budget request for the 
Environmental Protection Agency (EPA), and I want to express my 
disappointment frankly. We worked awfully hard, Senator 
Murkowski and I, to ensure that there were adequate resources 
for EPA facing significant challenges. And again, the 
administration sent up a budget that rolls that progress back.
    In addition to cutting the Agency's budget this year, the 
Agency is proposing a workforce reduction that will bring EPA 
down to its lowest staffing since 1989, and we will talk about 
that. But despite the overall cut, the budget makes some 
important investments: dedicating $200 million to addressing 
the threat from climate change, and providing an additional $23 
million for chemical safety work that will reduce the risk with 
the exposure to chemicals. The budget request also includes $70 
million for an issue called
E-Enterprise, which will improve electronic data collection and 
availability for States and the regulated community.
    There are other encouraging fund increases. The request 
proposes $5 million for the geographic program to restore 
southern New England watersheds, and I thank the proposal for 
that. These funds will support the effort to protect, enhance, 
and restore the coastal watershed of southern New England, 
including Narragansett Bay and Rhode Island. The National 
Estuaries Program is funded at $26 million, an increase of $1.6 
million. And also an additional $76 million is provided for 
categorical grants to help States and tribes with their 
environmental problems and programs for a total of $1.13 
billion.
    Unfortunately, these very positive signs are undercut by 
the proposal with respect to clean water and drinking State 
revolving funds. Once again, I voice my strong disagreement 
with the proposed decreases to the State revolving funds. The 
largest reduction in EPA's budget request is to these funds, 
cutting them by $581 million, or 25 percent below the fiscal 
year 2014 enacted level. And if realized, this cut would 
translate into 32,000 fewer jobs and 270 fewer infrastructure 
projects nationally.
    This program is not only necessary to replace aging 
infrastructure and to create new environmentally sensitive 
infrastructure, but also directly cuts job creation. And I find 
that ironic because the President in February said one of the 
fastest and best ways to create new jobs is rebuilding 
America's infrastructure. And if we take this money, you impede 
the reconstruction of our infrastructure, and I am troubled to 
see this proposal, very troubled.
    And I believe the cuts to the State revolving funds will be 
a setback for the economy as well as the environment. This is 
one of those programs that is not just about environmental 
quality. That is central. But it is also about economic 
progress, and that is critical at this moment.
    So there is lots to discuss this morning, and again, I 
thank the Administrator. I commend the Administrator. She has 
brought extraordinary experience and dedication to her task, 
and she is someone that I respect immensely.
    With that, let me turn to the ranking member, Senator 
Murkowski, and ask her for any comments she might make.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman, and welcome, 
Administrator. Mr. Chairman, I want to follow on your comments 
about the State revolving funds for water. You and I have had 
an opportunity to discuss the significance of these programs. I 
was reminded just yesterday in a video teleconference with 
residents in the Yukon-Kuskokwim region, and a woman came to 
the microphone. She was from a small village called Kalskag, 
and she spoke specifically to the importance of Federal funding 
to help with water and sewer infrastructure.
    She said in her community of Kalskag, they still lack basic 
infrastructure. It is not like we are trying to build out 
existing; there is none. And it is a situation where in her 
village they are still using honey buckets, which basically 
means that they have got to haul their human waste and dump it, 
oftentimes very--clearly very unsanitary conditions. But she 
reminded me that in many parts of Alaska, we continue to live 
in third world conditions. And so, I share your concern about 
the significance of funding for our water projects.
    Ms. McCarthy, I thank you for your willingness to come to 
Alaska last August to learn about our State. I got good 
feedback from some of your meetings. I think Alaskans were 
impressed with your candor. You clearly demonstrated a 
willingness to listen, to really try to get a feel for the 
nature of our land and our people. I think that you saw that we 
have got some pretty unique needs and resources, which present 
us with some very diverse challenges. And, of course, the hope 
is that when you have an opportunity to come and see, there is 
a greater understanding, a greater appreciation of who we are 
in the places that we call home.
    And I think it is unfortunate that you made some comments a 
couple of months ago, some unfortunate comments that showed 
some insensitivity not only Alaskans generally, but more 
particularly towards Alaska native culture, and I do appreciate 
that you have apologized for your remarks. But I think it is 
important that you recognize that the way this was then 
interpreted by Alaskans was that this was just yet one more 
example of how folks in Washington, DC, do not get us, do not 
understand our way of life, do not understand the issues that 
are so critical between Federal agencies and a State like mine.
    And then we have hearings like this where the agencies say 
we understand it. We get it. But when given an opportunity to 
make good on the word, oftentimes we do not see evidence of 
that. There are rules after rules of that that come out, and 
sometimes we feel like we are either ignored or disrespected.
    So I want to make clear to you how some of the statements 
and actions are being interpreted back home because I think 
that that is important for you to include into your calculus. 
Alaskans are looking for collaboration from the agencies that 
have such a significant impact on our State. We are clearly 
ready to partner with the EPA to continue what we believe is a 
proud record of resource production and environmental 
protection. But unfortunately, rather than collaboration, we 
have been on the receiving end of what we believe to be a 
regulatory onslaught that threatens our economy and, in certain 
cases, our way of life. And I think that this budget proposal 
is no exception to that.
    Last year when Deputy Administrator Perciasepe appeared 
before the subcommittee, we discussed the fact that for several 
years running I have heard more complaints from Alaskans about 
the EPA than any other agency out there. And that trend is 
still continuing. I am sure that this is the case for other 
colleagues as well. The sheer number of proposed rulemakings 
coupled with the cost of compliance with the vast array of 
regulations already on the books and what at times are the 
unreasonable consequences of their enforcement is very, very 
frustrating to Alaskans and around the country.
    I could spend my entire time here talking about the many 
existing and proposed EPA regs that profoundly affect the 
livelihood of our families and our businesses, but one of the 
most troubling is the recent development with the EPA's 
proposal to change its application of the definition of 
``Waters of the United States'' under the Clean Water Act. EPA 
claims that this would clarify the law, but in reality it 
promises to drastically increase EPA's reach.
    I have described this as a potential showstopper for new 
development in Alaska. Roughly two-thirds of our State is 
already considered wetlands, and this rule could dramatically 
expand the lands subject to regulation. So it is not hard to 
see it as a continuation of this administration's unofficial 
policy of what I have described as protecting Alaska from 
Alaskans. But in this case when it comes to this particular 
rule, I would suggest that it also has very serious impacts 
across the rest of the country as well.
    I would also note my concerns with rules that are proposed 
or expected for new and existing power plants--methane 
emissions and hydraulic fracking, among others. I am concerned 
that EPA continues to regulate without appropriate coordination 
with other agencies and impacted industry. I think that this 
agency, above others, could jeopardize the affordability and 
reliability of our energy supply. If we are not careful, I 
think its rules could cost jobs and force us to forego 
opportunities to create new ones.
    It is not an overstatement to say that recent actions taken 
by EPA would fundamentally change our economy and the lives of 
the people we are here to represent. And so, for this reason it 
is all the more critical that we here in Congress diligently 
exercise our oversight role.
    I do look forward to our discussion during the hearing. And 
again, thank you for your willingness to serve.

                           PREPARED STATEMENT

    Senator Reed. Before recognizing the Administrator, does 
anyone have a brief statement? All written statements will be 
made part of the record.
    [No response.]
    If there are no opening statements by colleagues, without 
objection, all statements will be accepted into the record.
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    Administrator McCarthy, thank you for taking on one of the most 
important and challenging jobs in the United States. Your agency 
invokes a lot of strong reactions from the public, and certainly from 
Congress, but in its 43 year history the EPA has cleaned the country's 
drinking water, reduced our exposure to dangerous chemicals, and 
penalized polluters.
    Vermonters truly value the environment and the work of the EPA. 
From cleaner air, to conserving open spaces and wildlife, protections 
from exposure to toxic chemicals, to improving water quality and 
addressing climate change, I hear regularly from Vermonters about 
issues affecting all aspects of our environment.
    Right now, Vermonters are concerned about our ``great lake,'' Lake 
Champlain. They want and need a lake for swimming and fishing, and for 
drinking water. The Lake Champlain Chamber of Commerce can tell you 
that a clean Lake Champlain attracts businesses and tourists to the 
region. It serves as a major driver of the State's economy.
    Lake Champlain is, overall, very clean, but some sections of the 
Lake at some times of the year can become seriously impaired with 
nutrient pollution. For this reason, your agency is requiring a new 
restoration plan, and is working closely with the State to review a 
phase one draft at this time. As we discussed in person late last 
month, success of the new plan will hinge on having a full suite of 
tools available to address the major sources of phosphorus pollution in 
the Lake including farms, rural town roads, culverts, river channels, 
as well as small town stormwater and transportation infrastructure.
    I hope that the EPA, and this Committee, understands that we face a 
unique challenge for Lake Champlain, compared with other, more 
urbanized, areas of the country. We have a small rural population 
spread across a largely undeveloped landscape, something I know our 
ranking member can easily relate to. Pollutants reach the lake from 
thousands of small, non-point sources rather than from easily 
identified discharge pipes. This is not a problem that can simply be 
solved by investments to improve wastewater treatment plants. Those 
plants contribute only 3 percent of the total phosphorus in Lake 
Champlain.
    Instead, we must have a broad mix of common-sense policy tools and 
coordinated education, outreach, and funding assistance to a dispersed 
rural population. Vermont cannot afford to handle these tasks on its 
own. We will need to partner with every Federal agency from the Army 
Corps of Engineers, to Transportation, Housing and Urban Development, 
the Fish and Wildlife Service, the Department of Agriculture, and of 
course the EPA in order to succeed in this cleanup, and I thank you for 
your support of those efforts.

    Senator Reed. Thank you, Senator. Administrator McCarthy.

                SUMMARY STATEMENT OF HON. GINA MCCARTHY

    Ms. McCarthy. Thank you, Chairman Reed, Ranking Member 
Murkowski, and members of the committee. I appreciate the 
opportunity to discuss the Environmental Protection Agency's 
proposed fiscal year 2015 budget. As the chairman indicated, I 
am joined at the table by the Agency's Acting Chief Financial 
Officer, Maryann Froehlich.
    EPA's budget request is $7.89 billion for fiscal year 2015 
which starts on October 1, 2014. This budget meets the 
challenges of domestic spending constraints while still 
fulfilling our mission to protect public health and the 
environment. The fiscal year 2015 budget reflects EPA's plans 
to take advantage of new technologies and new regulatory and 
non-regulatory approaches. It recognizes that EPA is part of a 
larger network of environmental partners, and State, and 
tribes, and communities.
    This budget will provide the support for a smaller 
workforce by focusing on real progress and priority areas in 
communities, climate change and air quality, toxics and 
chemical safety, and clean water. We are asking for $7.5 
million and 64 staff in fiscal year 2015 to help provide green 
infrastructure, technical assistance for up to 100 communities 
to promote cost-effective approaches for water management.
    In addition, this budget request continues our 
environmental justice efforts. We will do more to partner with 
States, tribes, and local governments, and other Federal 
agencies. Funding for State and Tribal Assistance Grants, or 
STAG, is once again the largest percentage of EPA's budget.
    Addressing the threat from climate change is one of the 
greatest challenges of this and future generations. The request 
designates $199.5 million specifically for this work. The 
Agency has added $10 million and 24 full-time equivalents 
(FTEs) in fiscal year 2015 to support the President's climate 
action plan with $2 million designated for adaptation planning.
    The Agency will focus resources in the development of 
common sense and achievable greenhouse gas standards for power 
plants, the single largest source of carbon pollution. When it 
comes to cutting greenhouse gas emissions, the President's 
budget provides support for the States to help them implement 
the Clean Air Act.
    The EPA budget requests almost $663 million to support the 
work to improve chemical safety for all Americans and 
especially for our children. We are requesting $23 million and 
24 FTEs in fiscal year 2015 to support activities under the 
President's Executive order on chemical safety, as well as 
Agency efforts on chemical prioritization, air toxics, radon, 
and volatile, again, compounds in drinking water.
    The Nation's water resources are the lifeblood of our 
communities. We are requesting $1.775 billion for clean water 
and drinking water State revolving funds. The Agency is also 
directing $8 million and 10 FTEs to advance clean water 
infrastructure and sustainable designs like the Municipal 
Separate Storm Water Sewer System Programs for technical 
support to communities.
    E-Enterprise is a major initiative between EPA and our 
States to modernize our business practices, to get into the 
21st century, and to look towards the future. The benefits of 
implementing the e-Manifest system include annual savings 
estimated at $75 million for over $160,000 waste handlers.
    In fiscal year 2015, the Agency is requesting over $1.33 
billion to continue to apply effective approaches for clean up 
under the Resource Conservation and Recovery Act (RCRA) 
Superfund leaking underground storage tanks and other 
authorities. This strategy will ensure land is returned to 
beneficial use. $1.16 billion is requested for the Superfund, 
and you will see that it includes a $43.4 million increase from 
remedial work and an increase of $9.2 million for emergency 
response and removal.
    The fiscal year 2015 budget includes a total of $1.13 
billion for categorical grants. Within this total is over $96 
million for tribal general assistance grant programs, an $18 
million increase for pollution control, a $16 million increase 
for environmental information grants, and a $15 million 
increase for State and local air quality management.
    Lastly, science is the foundation of our work at EPA, and 
EPA is supported by the President's request of $537.3 million. 
Recognizing the importance of the two-year budget agreement 
Congress reached in December, the levels are appropriate for us 
to be requesting, but they are not sufficient to expand 
opportunities for all Americans and to really drive the kind of 
growth that we all would like to see. For that reason across 
the Federal Government, the budget also includes a separate 
fully-paid $56 billion initiative. Within this initiative is a 
Climate Resilience Fund, which includes $10 million for 
protecting and enhancing coastal wetlands, and $5 million to 
support urban forest enhancement and protection.

                           PREPARED STATEMENT

    Mr. Chairman, Chairman Reed, I thank you for the 
opportunity to testify, and I would welcome an opportunity to 
answer your questions.
    [The statement follows:]
                Prepared Statement of Hon. Gina McCarthy
    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee, thank you for the opportunity to appear before you to 
discuss the Environmental Protection Agency's (EPA) proposed fiscal 
year 2015 budget. I'm joined by the Agency's Acting Chief Financial 
Officer, Maryann Froehlich.
    EPA's budget request of $7.890 billion for the 2015 fiscal year 
starting October 1, 2014 reflects our ongoing efforts to meet the 
challenges facing the agency today and into the future. Despite these 
challenges, we remain dedicated to protecting public health and the 
environment, and we know we must target staff and resources and find 
new ways to fulfill our mission. We will focus those resources in a way 
that will allow EPA to be more effective and efficient.
    The fiscal year 2015 budget reflects a strategic approach to our 
budget planning process, looking toward the future rather than 
continuing to simply react to tough budget choices with cuts across the 
Agency. The fiscal year 2015 budget request does this in the following 
ways:
  --It reflects EPA's incorporation of new technologies and new 
        regulatory and non-regulatory approaches that can help us 
        maintain our efficiency and effectiveness.
  --It strengthens EPA's partnership with public health and 
        environmental protection partners in States, tribes and local 
        communities with a focus on aligning our resources, avoiding 
        duplication, and identifying and closing any gaps in the 
        broader environmental enterprise system.
  --It invests our funds and leverages funds of our partners where it 
        makes the most sense and gets the biggest bang for the buck.
    Following the framework of priorities laid out in the fiscal year 
2014-2018 Strategic Plan and working within our budget, we are 
committed to ensuring the staff we have in program areas and regions 
make the most sense and will have the most impact.
    EPA has already taken steps toward proactive management of our 
operating budget. Through the VERA/VSIP process, we have begun to 
accelerate attrition within EPA both at headquarters and the regions 
toward a ceiling of 15,000 nonrefundable full-time equivalents (FTE's).
    Our fiscal year 2015 budget relies on a reduced workforce focused 
on programs, policies, and regulations that matter most to public 
health and the environment. This is not simply about cutting the 
workforce to save costs. We are reshaping the workforce and our work to 
meet current and future challenges. Doing this includes making key 
investments.
    It makes long-term fiscal sense to invest the cost savings 
achieved--through a smaller workforce and improved use of technology--
to work smarter and more effectively. This approach will keep EPA 
strong, focused on science and the law, and transparent in addressing 
environmental challenges and the results we have achieved.
    This budget will provide the support we need to move forward by 
targeting real progress in priority areas: communities, climate change 
and air quality, toxics and chemical safety, and clean water.
    Building on current work on the ground in our communities, we are 
asking for $7.5 million and 64 staff in fiscal year 2015 to work toward 
efforts that will make a difference in people's everyday lives and in 
their communities. Those efforts include providing green infrastructure 
technical assistance for up to 100 communities that will promote cost-
effective approaches to water management.
    This budget request furthers our environmental justice efforts. The 
protections provided by our national environmental laws must be 
accessible to everyone. We will do more to partner with States, tribes, 
and local governments and other Federal agencies to better coordinate 
and leverage resources supporting community efforts.
    Addressing the threat from a changing climate is one of the 
greatest challenges of this and future generations. The request for 
climate change and air quality is $1.03 billion--over $41 million more 
than fiscal year 2014. And it designates $199.5 million specifically 
for climate change work.
    Building on existing efforts and base budget resources, the Agency 
has added $10 million and dedicates 24 FTE's in fiscal year 2015 to 
support the President's climate action plan. $2 million is designated 
for technical assistance for adaptation planning for water utilities at 
greatest risk from storm surges. Research and development efforts will 
focus on support tools for at-risk communities and tribes in preparing 
for the impacts of climate change.
    The Agency will focus resources on the development of common sense 
and achievable greenhouse gas standards for power plants--the single 
largest source of carbon pollution. The President's budget provides 
support for the States to help them meet their obligations under 
section 111 of the Clean Air Act with regard to cutting carbon 
emissions.
    This request also supports the President's interagency methane 
strategy and the President's recently announced directive to EPA to 
develop phase 2 fuel efficiency and greenhouse gas standards for heavy-
duty vehicles. EPA also will be implementing a range of activities in 
support of the President's call to cut energy waste in homes, 
businesses, and factories.
    Chemicals and toxic substances are prevalent in our everyday lives. 
The EPA budget requests almost $673 million to support work to reduce 
the risk and increase the safety of chemicals and prevent pollution for 
all Americans and especially children.
    We are requesting $23 million and 24 FTE in fiscal year 2015 to 
support activities under the President's Executive order on chemical 
safety, as well as Agency efforts on chemical prioritization, air 
toxics, radon, and volatile organic compounds in drinking water. $5 
million in resources for air toxics work will enhance our capabilities 
to design effective regulations and continue developing the national 
air toxics assessment.
    The Nation's water resources are the lifeblood of our communities. 
The fiscal year 2015 budget recognizes the long-term benefits of 
healthy aquatic systems for all aspects of our daily lives.
    The Agency is directing $8 million and 10 FTE to advance clean 
water. Resources are also proposed for the municipal separate storm 
sewer systems program for technical support to communities that must 
develop effective stormwater permits for the first time.
    We are requesting $1.775 billion for the clean water and drinking 
water State revolving funds (SRFs). Although this is more than a $580 
million decrease over fiscal year 2014 levels, Federal capitalization 
of the SRFs totals over $22 billion since fiscal year 2009, if you 
include the fiscal year 2015 request. The fiscal year 2015 budget seeks 
to ensure that Federal dollars provided through the fund lead to the 
design, construction, and support of sustainable water infrastructure.
    The EPA is looking toward future ways to better serve the American 
people by employing technology where it can be used more effectively. 
E-Enterprise is a major joint initiative between EPA and States to 
modernize our business practices and to increase responsiveness. This 
effort holds the promise of increased effectiveness and savings for 
businesses as well as government. The agency is expanding efforts in 
the second year of the multi-year E-Enterprise business model including 
focusing people and resources to accelerate development of the E-
Manifest system and associated rule-making work. For example, the 
benefits of implementing the E-Manifest system include annual savings 
estimated at $75 million for over 160,000 waste handlers. Transitioning 
from a paper-based system saves time and effort for every person who 
used to handle that paper.
    In addition, EPA is making changes to long-standing business 
practices such as contracts, grants management, and the regulation 
development process. One important area of emphasis is improving 
freedom of information act (FOIA) and records management.
    In fiscal year 2015, the Agency is requesting over $1.33 billion to 
continue to apply the most effective response approaches for cleanups 
under the Resource Conservation and Recovery Act (RCRA), Superfund, 
Leaking Underground Storage Tank, and other authorities. This strategy 
will help ensure land is returned to beneficial use in the most 
effective way. $1.16 billion is requested for Superfund which includes 
a $43.4 million increase for remedial work and an increase of $9.2 
million for emergency response and removal.
    In this budget, we hold firm our priority support for State and 
tribal partners, the primary implementers and front line of 
environmental programs. Funding for State and tribal assistance 
grants--or STAG--is once again the largest percentage of the EPA's 
budget request and prioritizes funding for State categorical grants.
    The fiscal year 2015 budget includes a total of $1.13 billion in 
categorical grants--a net $76 million increase over fiscal year 2014.
  --Within that total is over $96 million for tribal general assistance 
        program grants--a $31 million increase over fiscal year 2014.
  --We also included an $18 million increase for pollution control 
        (section 106).
  --There is a $16 million increase for environmental information 
        grants.
  --There is a $15 million increase for State and local air quality 
        management in our request.
    Science is the foundation of our work at the EPA. And science is 
supported by the President's request of $537.3 million. In fiscal year 
2015, the EPA is focusing research on the most critical issues facing 
the Agency.
    These include efforts to: advance chemical prioritization and 
predictive toxicology, help communities make sustainable decisions 
regarding environmental protection and resilience, and inform regional 
and community level strategies for the use of green infrastructure and 
other innovative alternative practices.
    The EPA continues to focus on reducing its physical footprint and 
achieving greater energy efficiency. Since 2006, the EPA has released 
approximately 428 thousand square feet of space nationwide, resulting 
in a cumulative annual rent avoidance of over $14.6 million.
    The EPA continues to eliminate programs that have served their 
purpose, accomplished their mission, or are duplicative. The fiscal 
year 2015 budget eliminates a number of such programs totaling nearly 
$56 million. These include beaches protection categorical grants, State 
indoor radon grants, and diesel emissions reductions assistance grants.
    Recognizing the importance of the 2-year budget agreement Congress 
reached in December, which the President's budget adheres to, levels 
are not sufficient to expand opportunity to all Americans or to drive 
the growth our economy needs.
    For that reason, across the Federal Government, the budget also 
includes a separate, fully paid for $56 billion opportunity, growth, 
and security initiative. This initiative--split evenly between defense 
and non-defense funding--shows how additional discretionary investments 
in fiscal year 2015 can spur economic progress, promote opportunity, 
and strengthen national security.
  --Within the initiative is $1 billion for a climate resilience fund, 
        through which the budget will invest in research and unlock 
        data to better understand and prepare for impacts of a changing 
        climate. These investments will also fund breakthrough 
        technologies and resilient infrastructure.
  --Within the climate resilience fund, EPA will support a nation 
        better prepared for the impacts of climate change--with $10 
        million for protecting and enhancing coastal wetlands, and $5 
        million to support urban forest enhancement and protection.
    We have made some very difficult choices in this budget. But we 
need to look realistically at challenges we face in the future and make 
sure we have the best tools and people in the right places to make the 
most difference. Our final fiscal year 2015 budget reflects a balanced 
approach to accomplishing this.
    Thank you for the opportunity to touch upon some of the highlights 
of EPA's fiscal year 2015 budget request in my testimony today. I look 
forward to answering your questions.

    Senator Reed. Thank you very much, Madam Administrator. I 
will yield my time to Senator Leahy because he has to chair the 
Judiciary Committee at 10:00 this morning. Senator Leahy.

                   LAKE CHAMPLAIN GEOGRAPHIC PROGRAM

    Senator Leahy. Mr. Chairman, I appreciate the courtesy very 
much. And, Administrator McCarthy, we recently met in my 
office, but we have also, even more importantly, met at the 
celebration with the Red Sox at the White House.
    I have put a full statement in the record. It speaks about 
the EPA's geographic programs, and it speaks about Lake 
Champlain and what we have been doing to try to clear that up. 
This is the largest body of fresh water in the United States 
outside of the Great Lakes and borders New York State, Vermont, 
and Canada.
    The Federal funding for Lake Champlain that has been cut by 
more than 60 percent over the past 4 years just as we are 
undertaking a comprehensive lake restoration plan. So my 
question is, how can EPA better support and be involved with 
the work of the Lake Champlain Basin Program, which for 20 
years has convened all the Federal agencies working to restore 
and protect Lake Champlain. And how can EPA help to make the 
case to support Federal funding for the kind of assistance we 
need to do that restoration? And I know we have talked with the 
Governor and everybody else on that.
    Ms. McCarthy. Well, Senator Leahy, first I want to thank 
you for your leadership on recognizing as you do the value of 
Lake Champlain and how important it is to the region and to 
your State in particular. I know EPA shares your recognition of 
that value.
    We are going to be working pretty hard as a follow-up to 
the meeting. The concern is that we are in the process of 
working together on a Total Maximum Daily Load (TMDL) and 
getting that implemented, but all of these things do carry some 
costs associated with it. So we are working with our own EPA 
offices to look at how we can be more supportive, as well as 
look across at other agencies in the programs and the Federal 
funding that is available.
    But we will be following up with you, and we will do 
everything we can to make sure that we can work with you to 
restore Lake Champlain and maintain its beauty, resilience, and 
the economic vitality it brings to your region.
    Senator Leahy. Well, it has been authorized at $11 million 
per year. The need has never been greater than what it is going 
to be in 2016.
    Ms. McCarthy. Yes.
    Senator Leahy. I would hope the EPA would support a larger 
funding request for the Lake Champlain Geographic Program in 
2016. We absolutely need it. It is one of the things we do not 
ever want to get into the position, for example, that Lake Erie 
did decades ago where they had much of the same headwaters in 
nature in their lake. And it became so polluted that one of its 
tributaries, the Cuyahoga River, caught fire. Here is a river 
on fire for a couple of days before they could put it out.
    We are at a point with a beautiful, pristine lake that we 
can keep it that way, but it is going to take some real 
efforts. So please work with us to request more money for that 
area.
    Ms. McCarthy. We are happy to work with you, Senator.

                     NATIONAL RESILIENCE TASK FORCE

    Senator Leahy. You know, in 2011 we had a catastrophic 
flood in Vermont that dumped nearly as many tons of polluted 
sediment into Lake Champlain in a matter of hours that we 
normally would see in a year or more. So I might ask, how will 
the proposed budget request for climate resilience support with 
our work in protecting Lake Champlain, particularly since EPA 
has mandated the new TMDL will be one of the first in the 
Nation required to account for climate change aspects?
    Ms. McCarthy. Yes. Well, our work on resilience is multi-
faceted, and it is across the administration. Very directly, I 
know that the good folks in Vermont have been very closely 
working with the States that experienced the damage from 
Hurricane Sandy. They have been helping to advise us on how you 
respond to those challenges, as well as prevent them in the 
future.
    We have funds set aside to work with a number of 
communities, not only to look at resilience, but how that 
relates to green infrastructure and our opportunity to look at 
our waste water and water quality changes and our storm water 
challenges differently. We also have a National Resilience Task 
Force that the President has pulled together, and that is an 
opportunity to learn from across the country about the efforts 
that are underway to adapt to a changing climate.
    Each of the agencies, including EPA, has also developed 
their own adaptation plan so that while Vermont may be first, 
you are not going to be the last. We are going to look at 
actually how State Revolving Fund (SRF) funds can be better 
informed by the changing climate that we see.
    So there are a number of efforts underway, Senator, and we 
are very serious about working with communities to see how we 
can help them stay safe in a changing climate.

                       STATE REVOLVING FUND FUNDS

    Senator Leahy. A lot of these efforts cost money. The EPA 
budget seems to be a more and more bare bones request each 
year. For example, the grants to States for the Clean Water 
State Revolving Fund has been cut by $431 million. The Drinking 
Water State Revolving Fund, the Geographic Program, EPA cut 
that by $14.6 million. In a little State like ours, that 
clobbers us.
    Ms. McCarthy. Yes, it is very difficult, Senator. There are 
some decisions that have to be made. I think we can all agree 
that the SRF is one of the most important to maintain health 
protections for our communities. We have done, I think, a good 
job over the past 5 years to really provide significant 
resources for these efforts.
    We again did the best job that we could in the 2015 
proposal to continue with that and to also recognize that the 
States have significant money available to them from the 
already-existing State revolving funds. We are hoping that the 
money that the States have available on this will be sufficient 
to continue to maintain progress moving forward.
    Senator Leahy. We will keep working on this.
    Ms. McCarthy. We will.
    Senator Leahy. And I appreciate your willingness to keep 
talking with us. But we do have a very critical moment in our 
State. And, Mr. Chairman, thank you very, very much for your 
courtesy.
    Senator Reed. You are entirely welcome, Senator. Senator 
Murkowski.
    Senator Murkowski. Mr. Chairman, thank you. I am going to 
yield to my colleague who also has to go chair another 
Appropriations Committee hearing.

                              FOREST ROADS

    Senator Cochran. Mr. Chairman, thank you very much. And 
thank you to the Senator from Alaska.
    Let me ask you about forest roads. The U.S. Forest Service 
lands in our State of Mississippi, there have been some recent 
changes from EPA's decisions regarding forest roads as a point 
source of pollution and thereby requiring the filing of 
compliance with regulations or looking to other agencies 
besides the U.S. Forest Service for regulations in this area. I 
raise this because in my State we have some U.S. Forest Service 
lands, and logging is permitted, and has enjoyed an exemption 
really in many cases from the filing of compliance information 
with EPA.
    I would just ask you to look into that and be sure that it 
has not been abused or over zealously restricted the use of 
forest roads, which has been a tradition in the Forest Service 
by anybody, EPA included, in maintaining healthy forests. So I 
am hopeful that maybe you can work that out among the two 
agencies and come out with a solution that recognizes 
legitimate interest of the logging community.
    Ms. McCarthy. I will, Senator. This issue should have been 
resolved when we revised our storm water permitting program to 
recognize that you do not need National Pollutant Discharge 
Elimination System (NPDES) permits for those roads. If, in 
fact, we are also still continuing our interest in this in 
other ways, I will get on that right away, and we will make 
sure we work something out that is reasonable and appropriate.
    Senator Cochran. Thank you very much for that assurance. 
Thank you, Mr. Chairman. Thank you.
    Senator Reed. Thank you very much, Senator Cochran. I will 
recognize Senator Udall now, and then return to my colleagues 
on that side of the aisle.

                   ABANDONED URANIUM MINES SETTLEMENT

    Senator Udall. Thank you, Chairman Reed. And I was pleased 
to see the announcement that the U.S. Government has entered 
into a settlement to clean up toxic remains of abandoned 
uranium mines on the Navajo Nation and elsewhere in the 
country. This is the largest environmental settlement, Madam 
Administrator, as you know, largest environmental settlement in 
history. And $1 billion of that will go towards clean up of 
abandoned uranium mines and mills on the Navajo Nation.
    Let me first say that I think this is really important 
progress, and it is a vindication of the polluter pays 
principle, which I think is a good, solid free market 
principle. For too long private industry and the Federal 
Government failed to ensure the safety of uranium miners, their 
families, and people affected by the hazards of exposure to 
radioactive materials.
    Uranium mining companies emerged overnight, left a legacy 
of sickness and contamination, and then tried to walk away 
leaving others to foot the bill. The Navajo Nation fought hard 
for fairness and settlement, and this settlement helps to right 
a historic injustice to the Navajo people and the surrounding 
communities, and I think will restore the environment.
    This is a big step forward, but we should remember we still 
do not know the full scope of the contamination. This remains a 
monumental injustice, and I want to work with you closely to 
follow the progress of the cleanup conducted with these funds 
to help the Navajo Nation until we are all satisfied that the 
job is done.
    So let me ask, have plans been developed already on how to 
use this settlement money, and when can we expect to see them, 
and when we will see new cleanup activities on the ground in 
the Nation using these funds?
    Ms. McCarthy. Well, Senator, first let me thank you for 
raising this. I am pretty proud of this settlement and the work 
that our enforcement staff did on this as well as the 
Department of Justice (DOJ). $4.4 billion dedicated to cleaning 
up hundreds of contaminated sites is quite an accomplishment.
    The settlement was just announced. The court has to approve 
the settlement. There is a 30-day public comment period 
associated with that. We are very confident that the court will 
approve it, but it has to go through that step. We already have 
trusts established to transfer these funds so that they should 
become readily available in the shortest time possible.
    Senator Udall. And you are looking at doing that planning 
that needs to be done so after the court approves it, we can 
get the funds in the right hands.
    Ms. McCarthy. Absolutely.
    Senator Udall. Good.
    Ms. McCarthy. We have been working on these issues, and, in 
fact, 50 abandoned uranium mines are on our agenda to be one of 
the first orders of business in the Navajo Nation. So we are 
very excited.

                     WASTE ISOLATION PILOT PROJECT

    Senator Udall. Yes, that is great. Well, thank you. And as 
I said, I think this is historic, and I think it is going to 
make a big difference to the Navajo Nation and to many places 
where you have this uranium contamination.
    I wanted to ask you also about the Waste Isolation Pilot 
Project (WIP), and I would like to thank you, Janet McCabe, and 
Ron Curry for the important EPA presence in Carlsbad to add 
additional independent air monitoring and personnel. I 
appreciate that many in your Agency have made it clear that the 
radioactive releases from WIP have been at levels that are a 
public health danger. And I am hopeful that your monitoring and 
verification will continue to support that.
    Unfortunately, the facts are that two accidents have 
happened at WIP that were not supposed to happen, a fire in a 
mine and a radiological release. The Department of Energy (DOE) 
oversight has already been found to be lacking, and that is why 
it is important to the community that an independent public 
health agency like EPA be on the ground overseeing the recovery 
phase to ensure public health is protected. Can you give me an 
update on the EPA's arrival at WIP and their planned activities 
there? My understanding is that personnel arrived this week to 
coordinate their monitoring with the reentry of WIP.
    Ms. McCarthy. That is right. EPA's main job in this is to 
ensure that we are looking at any level that could have been 
exceeded in terms of protectiveness to the outside so that 
surrounding communities are aware of any concerns. We are 
monitoring that.
    So far, it looks like any release has been far below any 
levels that are necessary for protection, but we are there. We 
are on the ground. As you know, our region is doing a great job 
working with DOE because we know people have concerns. This is 
a big deal. So we have added our own monitors to DOE's. We are 
going to be monitoring independently so that we can verify 
those results. We can assure folks that we are doing the right 
thing and they have the information available to them that they 
need.
    Senator Udall. Thank you very much. And I cannot tell you 
how much it has been welcomed in the community that you are 
there and doing this monitoring. I think it has brought a 
comfort level in terms of health and safety to the community 
that we have the EPA being an independent monitor of these 
radiation releases. So I thank you for that.
    I just wanted to mention one thing before my time runs out 
here. Our State Environment and Health Department has brought 
to my attention a concerning reduction in the EPA budget on 
radon. And so, we want to work very closely with you on that as 
we go through the budgeting process with Chairman Reed.
    And I thank you again for all the things that you are 
working on. Very much appreciate the New Mexico presence. Thank 
you. And thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator. Senator Murkowski.

                              PEBBLE MINE

    Senator Murkowski. Thank you, Mr. Chairman. Ms. McCarthy, I 
want to start my questions with an issue that Alaskans have 
really been buzzing about, and this is the issue of the Pebble 
Mine. When you were up in Alaska, you had an opportunity to go 
out to the region. You spoke with people.
    I have reserved judgment on the potential Pebble Mine 
waiting for the project developers to present an official plan 
and then seek the permits for it. EPA has decided not to wait, 
and has instead initiated this process that could very well 
lead to the first ever preemptive veto under 404(c) of the 
Clean Water Act.
    So my questions to you this morning are in a certain part 
related to timing here. Do the folks at EPA believe that they 
know exactly how the Pebble Mine would be developed?
    Ms. McCarthy. I think that we are well aware of the 
Security and Exchange Commission (SEC) filings that indicate 
how the Pebble Mine intends to develop. However----
    Senator Murkowski. But we have not seen any permits. We 
have not seen any application.
    Ms. McCarthy. That is correct.
    Senator Murkowski. We have not seen the definition of that 
plan. So is it not accurate, though, that EPA would still be 
able to veto the project once details and specifics are 
actually permitted? You do not lose that ability to veto later.
    Ms. McCarthy. That is correct.
    Senator Murkowski. And so, I guess my question has always 
been, why not wait until we know what the specifics and what 
the criteria are before you move to effectively veto? And 
again, a preemptive veto is--this would be first ever.
    Ms. McCarthy. Senator, without getting into the history of 
the use of 404(c), I want to assure you that what we have done 
here is to take a first step in this conversation. We have not 
made any decision.
    Senator Murkowski. I understand.
    Ms. McCarthy. And so, one of the, I think, good things 
about the 404(c) process that we have just taken a first step 
on is a first step is to talk to the company. It is to talk to 
the Army Corps and to the State to understand the scientific 
concerns, we have identified about this unique place. As we all 
know, its beauty as well as its importance in terms of the 
world's largest sock-eyed salmon fishery, and the extent of the 
mine given how deep the ore is and how low grade it is. What 
kind of lodge transition that area would go through is how we 
make sure that we are going to protect it.
    We do have an option to wait, but we were petitioned and we 
felt that given the science, it was really worthy of a unique 
response, which is to try to get at these issues more quickly 
given the uncertainty it has raised for the tribes, for the 
regions, for the economy in that area, and that it was worth at 
least exploring and going through the public process associated 
with it.
    Senator Murkowski. Well, and, again, I appreciate you 
outlining that. But I guess I would ask you to put on a 
different hat rather than as head of the EPA. Look at it from 
the investor's perspective. You are--as an investor, you are 
now asked to consider the fact that EPA may choose to veto a 
project either before, during, or after, maybe even years after 
it seeks and receive permits. Why would anybody choose to put 
the money out? You mentioned the uncertainty to the tribes, but 
you have got a situation where you are effectively stopping any 
potential for development before the idea can really get off 
the ground if you have this notion that you could preemptively 
veto it before permits come in, during such time as you are 
constructing, or even afterwards. So how are we promoting 
certainty here?
    Ms. McCarthy. Well, I think that the Pebble Mine and its 
investors are well aware of the authority EPA has here. I think 
the most important thing we wanted to do was after you complete 
a scientific assessment and it shows the potential impacts from 
a mine of this magnitude in that special area----
    Senator Murkowski. But again, it is a definition that we 
have not seen yet because no permits have been filed. No 
application pending. You can see the concern from the investor 
side, I hope, as well as from the folks on the ground, how we 
balance this.
    Ms. McCarthy. Yes.
    Senator Murkowski. But if we have a process that does not 
allow for certainty along the way, it is pretty difficult to 
entice anybody to come in and put the dollars up front that 
would allow for a project, allow for economic development 
within the region, and allow for jobs and opportunities.
    Ms. McCarthy. Well, Senator, I do not think that our intent 
is to create more uncertainty. Our intent is to actually have 
the conversations we need. If the company is ready for the 
permit application, they are still free to submit, and we would 
encourage that. But right now, you have a science document that 
we think deserves to be looked at and to be discussed with the 
company.
    We also want to make clear that this is a very unique 
circumstance, both what we believe to be such an 
extraordinarily large mine in such a unique area, that this is 
not a change in EPA's operating procedure. It is an 
opportunity, I hope, to have the conversations that will 
provide the certainty that the company is looking for and the 
investors are looking for as well.
    Senator Murkowski. So you are not planning on exercising a 
preemptive veto then.
    Ms. McCarthy. I have no idea what the end point of this 
discussion is because it is a process that begins with a 
conversation. If that conversation indicates that concerns 
remain, it can then go to a public process, and so it is an 
extensive public dialogue. And I think that that is what is 
deserved at this point.
    Senator Murkowski. Well, I think you are aware that just at 
the beginning of this week, one of the investors, one of the 
principals, has chosen to convey their interest in the mine to 
not only Bristol Bay Economic Development Corporation, but to a 
community foundation. And part of the reason for this was a 
recognition that there is so much uncertainty that their 
ability to, whether it is to find additional resources or to 
really continue in the project, have been compromised.
    And so, whether this is intended or unintended, and many in 
Alaska believe that it is intended by the EPA, that this very, 
very strong signal that the Agency could come in at any point 
before, during, or after and pull those permits, it would be a 
pretty speculative investment on anyone's behalf to continue 
on.
    Mr. Chairman, my time has expired. I will have an 
opportunity for others when we resume second round.
    Ms. McCarthy. Thank you, Senator.
    Senator Reed. Thank you very much, Senator Murkowski. Madam 
Administrator, let me go back to the--no surprise--the State 
revolving funds.
    Ms. McCarthy. Yes.

                          STATE REVOLVING FUND

    Senator Reed. Over the last 5 years, the administration has 
sent up a budget each year, that reduces their request. Working 
closely with Senator Murkowski and my colleagues, we have 
restored funding and kept our commitment to States and 
localities. Again, this year, rather than simply meeting what 
we did last year, which would be some progress on the side of 
the administration, they again are suggesting a 25 percent cut. 
EPA's own estimates suggest that over the next 20 years, we are 
going to need in the order of over $600 billion for 
infrastructure needs. And at the rate we are going, we will 
never get there, and every year it will get worse and worse and 
worse.
    And we all recognize, too, that the nature of these funds, 
there is State leverage. It is a revolving fund. Some money 
comes in, some goes out. It is one of the most efficient ways 
to build in this country. And it is just baffling to see the 
administration ignore this at a time when every part of this 
Nation--Senator Murkowski spoke about the need to get plumbing 
out literally to some of her constituents. In my situation in 
Massachusetts and Connecticut, it is trying to repair sewer 
systems that are over a hundred years old in many cases, here 
in Washington, DC, even. So it is just inexplicable that we 
have to again start not from where we were last year, but a 25 
percent reduction. So simply, how are we going to do this?
    And the final point, everyone here is talking about jobs 
because that has to be our number one priority, and either 
creating them or doing things to avoid their inhibition. This 
program, it is very straightforward. The estimate is about 
30,000 people working, and these are good jobs. These are 
technicians and people who are skilled in terms of installing, 
designing. We also have provisions in Buy America in the last 
appropriations bill, which requires that the materials now are 
going to be produced here in the United States.
    Again, I find it baffling that the administration would 
send up this budget and you would come up and sort of say, 
well, everything is fine. So can you explain, please?
    Ms. McCarthy. Sure. Senator, all things being equal, I 
would love to have given a budget that was much larger on SRF, 
but we had choices to make, and the President was respectful of 
the bipartisan agreement that was reached.
    The one sort of emphasis I want to place on this is the 
fact that I do not want you to think that the investment in 
infrastructure is limited to what EPA is putting in in terms of 
new dollars. We do anticipate that somewhere in the order of $6 
billion will be invested between EPA and State dollars as a 
result of the State revolving fund. It is an incredibly 
valuable and important program, but it competes against the 
many other dollars that we are trying to support States in our 
categorical grants and tribes as well in local communities. We 
are doing our best to try to, you know, manage the demands on 
the agencies in a way that will continue to allow EPA to 
function appropriately and operate.
    These are very difficult decisions, and everyone will have 
certainly their say. And you will finally on what you think is 
most appropriate to do, and I respect that.

                             CLIMATE CHANGE

    Senator Reed. Well, thank you. Working with my colleagues 
as we have done in the past, I can tell you, my intent is to 
change this so that we put more resources into the SRF than 
your budget calls for. It will translate into a modest step in 
terms of the overall infrastructure problem we have, and also 
it will put people to work.
    Let me pursue an issue that came up in the context of some 
of your previous responses, and that is how is the climate 
change issue, the monies that you might have there, together 
with the President's Opportunity Growth Security Initiative, 
might be able to leverage additional support for water and 
sewer infrastructure.
    Ms. McCarthy. That is a really good question, Mr. Chairman, 
because I know that we have funding that is dedicated towards 
climate resilience in this budget. We also have funding that is 
dedicated towards green infrastructure. We have worked with 
some of the larger urban areas on our combined sewer work. All 
of those will be coordinated in a way that will provide 
additional resources to communities and allow them to identify 
in the case of green infrastructure opportunities to not only 
recognize that storm water demands are changing with a changing 
climate, but there are less expensive ways that allow them to 
stretch their dollars that are being expended on water and 
waste water infrastructure in a way that increases the 
protectiveness as well as lowers the cost.
    Now, this is not a panacea, but it is a way of trying to 
stretch those dollars effectively. We will be coordinating all 
of those efforts with the States as we move forward.
    Senator Reed. Well, thank you, Madam Administrator. And I 
think it is clear, at least I think you know where I am coming 
from----
    Ms. McCarthy. I do.
    Senator Reed [continuing]. When it comes to this State 
revolving fund issue. Let me recognize Senator Johanns.

                          AERIAL OVER FLIGHTS

    Senator Johanns. Thank you, Mr. Chairman. Administrator 
McCarthy, let me start today on a positive note, if I could. 
Before I came over to this hearing, cattlemen were in my 
office, and they wanted me to express to you that they 
appreciate what they feel is a more open environment to the 
EPA, and I know you are working on that communication. And they 
feel good about the fact that they at least get a chance to be 
at the table. So I thank you for that, and want to express 
their appreciation.
    Let me, if I might, now ask you a question about actually 
the omnibus appropriations bill that funded the Government for 
2014. There was language directing the EPA to file a report 
with this committee within 180 days, and it required the amount 
of funding spent to contract for aerial over flights, the 
contractor doing the work, number of flights performed, 
geographical areas including county and State, fiscal year that 
the number of enforcement actions was utilized, and there were 
some other requirements.
    But let me just ask you, do you anticipate any problems in 
meeting the requirements of that language, number one. And, 
number two, do you anticipate any problems in doing it within 
the 180 days that is specified in that legislation?
    Ms. McCarthy. Senator, first of all, thank you for the 
message from the Cattlemen's Association. I am actually meeting 
with them tomorrow.
    Senator Johanns. Yes, I know that, and that is good.
    Ms. McCarthy. So that will be great. On the aerial over 
flights, I am aware that language was inserted into the budget 
or a report. I am not sure which it was. But we are certainly 
going to be complying with that to the best that we can. I can 
certainly get back to you in advance of that if we see any 
particular problems.
    Senator Johanns. That would be appreciated. This is 
something I have been working on, as you know, for an extended 
period of time. I just want to know what we are doing here.
    Ms. McCarthy. I understand.
    Senator Johanns. And my hope is that there will not be any 
issue, that compliance will be timely, and it will be done as 
required by the legislation. So I would ask you to reach out to 
me and, for that matter, the committee and let us know how you 
are doing on that.
    Ms. McCarthy. That would be fine.
    Senator Johanns. We will be paying attention.
    Ms. McCarthy. I am more than happy to do that, Senator. I 
know this is an issue of great interest to you.

                      WATERS OF THE UNITED STATES

    Senator Johanns. Yes. Let me ask you, if I might, a 
question or two about this issue of Waters of the United 
States. And I must admit how this was done I find to be 
somewhat confusing, and maybe you can fix that. Maybe you can 
clarify what is going on here.
    As I understand, you put the roll out that was intended to 
clarify Waters of the United States, the proposed rule. And 
then at the same time, there was issued a--it is entitled U.S. 
Environmental Protection Agency and U.S. Department of Army 
interpretive rule regarding the applicability of the Clean 
Water Act such and such and such.
    The reason why I find that confusing is that the rule comes 
out--the proposed rule, then you have this interpretive 
document. But my understanding of the interpretive document is 
that you could change it this afternoon if you wanted to. You 
do not have to go through any kind of rulemaking process. Why 
would you not take what is in that interpretive document and 
put it into the proposed rule, and are you considering that in 
terms of the final product?
    Ms. McCarthy. Well, let me explain a little bit for those 
who may not be following it as closely. The Waters of the 
United States was really a rule to try to clarify the 
jurisdiction of the Clean Water Act. It was on the face of some 
decisions by the Supreme Court which really called into 
question earlier decisions by EPA. We wanted to make sure that 
we provided some solid ground.
    One of the things we did in this was to really work closely 
with the U.S. Department of Agriculture to identify the best we 
could not just the fact that we were maintaining all of the 
agricultural exemptions that were currently in place, those not 
in question, was to make sure that we saw over time that the 
farm practices that were exempt under the Clean Water Act were 
constantly evolving, and the U.S. Department of Agriculture 
(USDA) had tremendous expertise in conservation practices, that 
we thought we could give a nice boost in the arm to, and at the 
same time clarify these farm practices in a way that did not 
limit the exemptions, but limited the questions that were 
coming up about what were legitimate farm practices.
    So we not only took the exemptions, but we developed this 
interpretive rule that identified 56 farm practices working 
with USDA so that if these farm practices are what you are 
doing, you did not need to ask a single question about whether 
they were exempt. You knew they were. And so, we tried to do 
that in a way that would allow us to expand on those.
    It is really a collaboration between the USDA and us, and 
hopefully the agriculture community when they see this as an 
ability to allow farmers to do farming, and to not have to ask 
permission, and to farm with more confidence, and to run their 
ranches with more confidence. So, we will work through these 
issues. If people think we did not get it right, I am fine with 
that, but just because it is not on the list, it does not mean 
it narrows the exemptions. The list is an attempt to say if you 
are on here, you do not even to ask whether it is a farm 
practice that is exempted.
    We thought we were doing something really good. If in the 
end people do not think it is the right strategy, we can 
certainly rethink this because it is a proposed rule. I am 
there tomorrow to ask questions and to see how people are 
thinking about it.
    Senator Johanns. Yes. I have already run out of time. So 
many questions.
    Ms. McCarthy. I am sorry. I did not mean to take all your 
time.
    Senator Johanns. No, so many questions, so little time. But 
if I might, as you know, you have farm groups already who are 
weighing in expressing concern about the proposed rules, et 
cetera. I think this is an opportunity. I think you think it is 
an opportunity to say to the farm groups, hey, we are 
listening. We are hearing what you are saying. We want to get 
this right for you. We want to clarify.
    And I think if you just delivered a message for the next 
weeks saying, hey, this not permanent ink on the paper, what we 
are trying to do and what we are willing to do and want to do 
is circle back with you to get your impression as to whether we 
get this right or not. And if you do not think we did, tell us 
what direction you think we should be going. I think that would 
be enormously reassuring.
    Ms. McCarthy. Senator, we have gone--I appreciate that, and 
I totally agree with you. I will be out and about not just in 
DC, but we also had a really good meeting with stakeholders in 
our Office of Water Leadership. What we offered to do was 
instead of just getting together every once in a while, would 
develop some workshops and look at specific areas of concern so 
that all the issues could be on the table. We could figure out 
how to collaborate more effectively. I really want this rule to 
work for the agriculture community.
    Senator Johanns. Okay. Thank you, Mr. Chairman. I 
appreciate your patience.
    Senator Reed. Thank you, Senator. Senator Hoeven, please.
    Senator Hoeven. Thank you, Mr. Chairman, and thank you, 
Administrator, for your recent visit to North Dakota. I want to 
pick up on the Waters of the United States proposed rule that 
Senator Johanns was just asking you about.
    Our farmers are very concerned about this. I want to 
emphasize that. Farm groups and our farmers. I was just back in 
the State, and they are very, very concerned that you are 
extending the reach of EPA beyond navigable waters to anything 
that you determine has significant nexus, which we have no idea 
what that means or how far now you are going to extend EPA 
reach and authority. And when you talk about legitimate farming 
practices, our farmers think they know what those are, and they 
are very concerned that now EPA is going to weigh in and start 
trying to make that decision.
    So this is of immense concern to the ag community. And how 
are you going to assure us that private property rights are 
going to be protected as you work to extend the reach of EPA 
beyond what has traditionally and historically always been 
navigable bodies of water?
    Ms. McCarthy. Actually, Senator, we will do everything we 
can to walk through this rule, and to listen to all the 
comments, and to try to walk through the history of what the 
Clean Water Act is supposed to do.
    The Clean Water Act is supposed to protect navigable 
waters. We did not define the jurisdiction of protecting 
navigable waters to just navigable waters. It is all of the 
streams and tributaries that can actually significantly impact 
the integrity of navigable waters. That has always been part of 
the jurisdiction of the Clean Water Act, and we are not 
changing that.
    But what we are doing is paying very careful attention to 
what the Supreme Court told us about it is not just enough to 
be hydraulically connected to navigable waters. You have to 
really have an ability to significantly impact the integrity of 
those waters in order for a permit to be required. So we are 
really trying to pay attention to that, narrowly crafted to 
what the Clean Water Act said, and to pay attention to the 
science.
    Our intent is to stick with what we have historically 
regulated under the act, do what the Supreme Court said, and 
hopefully do a little bit more to the agricultural community to 
provide them the certainty that they are looking for.
    Senator Hoeven. I think there is going to be significant 
disagreement on whether or not you are, in fact, extending your 
authority here depending on what you do with this significant 
nexus determination.
    Ms. McCarthy. Nexus, right.

                         AGRICULTURAL COMMUNITY

    Senator Hoeven. Going back to what you just talked to 
Senator Johanns about, we need some kind of process for the ag 
community to weigh in here. So you need to build it with USDA 
wherein stakeholders have opportunity.
    Ms. McCarthy. Absolutely.
    Senator Hoeven. If we are going to do what you just 
described, this needs significant involvement and input from 
the agricultural community. How do we accomplish that?
    Ms. McCarthy. Well, I just indicated that we have already 
had many meetings, and we are going to have some workshops 
around this. If there are other suggestions, Senator, I am open 
to them. I know that there is concern about this, but there is 
also an indication to--well, let me just say it clearly. There 
is a distrust between agriculture and EPA, and when we say one 
word and it can be taken well, it might be taken exactly the 
opposite. We need to work on that as a whole, and we need to 
get the language correct so that you are certain that we are 
doing the right thing here. We will work hard to do that.
    Senator Hoeven. When do you anticipate finalizing the rule?
    Ms. McCarthy. I cannot tell you exactly, Senator. We are 
going to take whatever time it takes to get this right. But we 
generally would look for about a year in between a proposal and 
final is a standard process for EPA.
    Senator Hoeven. One more time. So a year?
    Ms. McCarthy. About a year between proposal and final is 
just generally what we look at. But we know there is a lot of 
anxiety about this rule, and we want to get it right.
    Senator Hoeven. And you are willing to engage in a process 
with USDA and with the farm community--farm and ranch community 
to have a dialogue on this?
    Ms. McCarthy. Absolutely.
    Senator Hoeven. Okay. So then we need to work on setting 
that up.
    Ms. McCarthy. Appreciate that.

            CARBON POLLUTION STANDARDS FOR NEW POWER PLANTS

    Senator Hoeven. Let me switch for just a minute to the 
subject that you were in our State to work on, the 
CO<INF>2</INF> rules. Tell me, with these CO<INF>2</INF> rules, 
first in regard to new plants, it is not a rule that is 
achievable in terms of meeting the CO<INF>2</INF> emission 
requirements with a natural gas equivalency as you have 
proposed it, because carbon capture and storage (CCS), carbon, 
capture, and sequestration, is not commercially viable. So how 
are we going to build any new coal plants, even with the latest 
technology and CCS, with your proposed rule?
    Ms. McCarthy. Well, Senator, with all due respect, we 
believe that carbon, capture, and sequestration is actually 
technically feasible, and it is available.
    Senator Hoeven. No, no--I am sorry. I apologize for 
interrupting. I did not say ``technically feasible.'' I said 
``commercially viable.''
    Ms. McCarthy. Well, technically feasible and available is 
the standard under the law, and nobody is indicating that CCS 
is not adding cost. The challenge we have here is that we need 
to provide a path forward for coal in what we know is a future 
that will be carbon constrained.
    There are already facilities that are being constructed 
with CCS. This is where new coal and clean coal investment is 
happening. We are hoping to continue to provide an emphasis for 
that in this regulation, but certainly it is still a proposal 
and we are looking at the comments we receive. But we think 
this is the future, and we think that facilities are investing 
in it now. We see it for new power plants. CCS has been around 
for a very long time in other applications.
    Let me just mention one thing, Senator. We also took a look 
at what we could do to keep the cost of CCS down as much as 
possible while still providing an emphasis for this technology 
to continue to be developed, continue to be enhanced, and be 
more cost effective by lowering the amount of capture that is 
required in this rule from what we had been considering before. 
So it is partial capture. It is lower cost. It is available 
now, and we believe it has been technically demonstrated.
    Senator Hoeven. I know my time is up here, but just let me 
wrap up with the only way that CCS is going to be developed is 
if it becomes commercially viable, so we have got to get it to 
that point. By having a rule that prevents it from ever being 
put in place or from having any company move forward with it, 
we are never going to develop the very technology we need both 
to produce the energy and get the stewardship--environmental 
stewardship we want.
    And that also goes to the proposed rule that you are going 
to be bringing out for existing plants. You have got to show us 
that whatever rule you bring out is commercially viable and 
that it is not going to shut down plants, and what the cost to 
consumers and small business across this country is going to 
be. It is vitally important as you move forward now with the 
existing plant rule as well. We need to see that it--you know, 
that it is something is truly achievable, not technically 
achievable. It has to be commercially viable.
    Ms. McCarthy. Senator, I heard you and I heard the good 
folks in North Dakota when I was there. And we are working hard 
to do exactly that, and we will have this conversation as many 
times as we see one another and when it comes out, and I will 
be looking forward to it. We are working hard on it.
    Senator Hoeven. Thank you.

                        RENEWABLE FUEL STANDARDS

    Senator Reed. Thank you very much. Let me begin the second 
round by focusing on the issue of renewable fuel standards, the 
EPA proposed volume requirements last November for cellulosic 
biofuel, biomass based diesel, advanced biofuel, total 
renewable fuel. These are sort of stagnant at the 2013 levels. 
You are recommending about 1.28 billion gallons for both 2014 
and 2015. In fact, this is not only less than anticipated, it 
is less than the actual production today, which is about 1.7 
billion gallons.
    So, many of my colleagues joined together in a letter, and 
also biodiesel producers in not my State, but across the 
country, see a threat to their operations because of the 
standards you are setting. Can you tell us when you anticipate 
finalizing the volumes of 2014, and will they be increased to 
encourage more biodiesel?
    Ms. McCarthy. Well, the good news is, Senator, that when we 
put the proposal out, we got lots of comments, and there was 
lots of concern. That was not necessarily the good news part is 
the lots of concern, but we got lots of comments. We are 
looking forward to considering those comments in a final. We 
are hoping to get it done quickly.
    You know, personally I think June is likely, and it should 
never go beyond that. I am hoping that we could do better than 
that, but it is pretty complicated, and we need to work it 
through the process.

                     SOUTHERN NEW ENGLAND ESTUARIES

    Senator Reed. Thank you. Let me turn now to another issue, 
and that is the southern New England estuaries. In the omnibus, 
we had $2 million for it. It is very critical to my part of the 
country, your part of the country. And we are pleased that the 
2015 budget request includes a $3 million increase. Can you 
give us an idea of what activities you hope to pursue, how you 
are going to select these projects and measure success, and the 
types of projects that you would anticipate?
    Ms. McCarthy. Well, as you know, these projects are really 
all about habitat restoration and water quality. I am pretty 
excited about the opportunity for increased funds if that comes 
about. Certainly I think it is pretty important as I know you 
do as well, Mr. Chairman.
    The region has been working pretty hard to put a vision 
together for how these funds could be best expended, and we 
certainly have not done it all alone. We actually have a work 
group that has been initiated that is advising the expenditures 
and how we can most effectively meet the expectations of the 
people that will be served with these dollars.
    So we will not be sitting in our own offices making this 
decision. We will be taking a lot of input from the communities 
themselves. We hope to have a lot that actually provide 
information that will be available for how you deal with 
climate resilience and adaptation, green infrastructure. We 
have seen some of it already starting to happen, and it is 
pretty exciting.

                        BEACH ACT GRANT PROGRAM

    Senator Reed. Thank you, Madam Administrator. Let me talk 
about another concern, and that is that in this budget EPA is 
proposing to eliminate the Beach Act Grant Program. And as you 
know, this program helps States--coastal States to monitor the 
quality of the water. It is actually part of your not only 
environmental, but your health responsibilities. Without 
continued funding, there is a real possibility that the States 
will not have the budgets, particularly in our part of the 
country, to replace this money. And the monitoring and water 
quality attention will diminish significantly.
    Prior to making this determination, did you consider the 
ability of the States to sort of fill the gap, one. Two, you 
have now, as you point out, a significant amount of your 
resources going to State programs to support State activities 
all across the country.
    Ms. McCarthy. Yes.
    Senator Reed. Is this something you are going to insist 
that they continue through other sources so that this beach 
grant money will not be detrimental in its absence?
    Ms. McCarthy. Well, as you know, categorical grants were 
proposed to increase by $76 million. And really the intent of 
the program eliminations was to look at whether or not there is 
an ability to continue with that without us independently 
interjecting or creating a fund specifically for that purpose.
    On the Beach Monitoring Program, it is a pretty sort of 
robust program that has been operating for a long time. We 
think that the States have the ability to do this and will 
continue to do this given the importance to them and to us, but 
clearly there are difficult choices that are made. Radon was 
mentioned as well, which is another eliminated program, as well 
as the Diesel Emissions Reduction Act (DERA) Program, which for 
me is a really hard one as well. But we did the best we could, 
and we are hoping to work with the States moving forward on 
beach monitoring.
    Senator Reed. Well, thank you. Again, you put your finger 
on the next issue, which is the radon program. Senator Leahy 
mentioned that.
    Ms. McCarthy. Yes.

                             RADON PROGRAM

    Senator Reed. My home State of Rhode Island, we have, I 
think, three times the national average in terms of the sort of 
presence of radon in homes and other buildings. And it seems we 
are taking away some of these programs, and then we are giving 
a little bit more money to the States in terms of your general 
support, but giving State budgets their ability to cover all 
these sorts of gaps--beach monitoring, radon programs, et 
cetera.
    Indeed 23 States reported that they will probably have to 
eliminate their radon program, and that is another health 
threat, which, you know, you have a lot of issues from the 
Waters of the United States, to the air of the United States, 
to the health of the American people. And we also understand 
that States--many States are in very difficult situations, 
Rhode Island being sort of one of those.
    Ms. McCarthy. Well, thank you for raising the rate on it. 
If nothing else, I can remind people that after smoking, the 
leading cause of lung cancer, and it takes approximately 22,000 
lives every year. It is something that I have been working on 
myself for quite a while.
    We still have a program on radon, Mr. Chairman, so I do not 
want you to think that this is an indication that EPA is not 
going to continue to work with States on radon. But I perfectly 
understand that it does take some funds away from the States 
that they have been directing towards this issue.
    But we have been working on a Federal radon plan that we 
actually think is gaining some significant momentum about 
making sure that people who are buying homes and mortgaging 
homes through the Federal Government are actually checking for 
radon, needing to address it, because these are deaths that do 
not need to happen. Every one of them is preventable with 
really inexpensive tests and, frankly, incredibly inexpensive 
renovations to address those.
    So it is a frustration, I think, for all of us that we 
continue to talk about radon decades after it hit the news as 
one of the leading causes of death. We need to do better, and I 
know that.
    Senator Reed. Thank you, Madam Administrator. Senator 
Murkowski.

                            CLEAN WATER ACT

    Senator Murkowski. Thank you, Mr. Chairman. I want to take 
you back to the Clean Water Act and the connectivity issue. You 
have indicated to both Senators Hoeven and our colleague from 
Nebraska that you are continuing these discussions, and I think 
that that is going to be critically important moving ahead. Are 
you planning to hold any meetings in Alaska on the impact of 
the rule?
    Ms. McCarthy. Is that your interest, Senator?
    Senator Murkowski. That is absolutely my interest.
    Ms. McCarthy. Okay. I will take----
    Senator Murkowski. In fact, I would ask for a commitment 
that we would--that you would be able to hold at least one, 
hopefully more, public events scheduled in the State so that 
resource producers, other stakeholders can express their views 
and concerns.
    Ms. McCarthy. Well, Senator, I certainly realize that it 
was very helpful for me to go to Alaska because you have told 
me that Alaska is different. I got to see it myself. And I 
recognize just how much of the land mass there is wetlands and 
how important this is going to be.
    Senator Murkowski. Well, let me ask on that question. Do 
the folks at EPA have an estimate for the approximate number of 
acres of land in the State or the percentage of our State that 
would be subject then to the Clean Water Act as a result of 
this re-interpretation of the Waters of the United States? Do 
you have that number?
    Ms. McCarthy. Well, let me see if we do have that. I know 
we have a national estimate. I do not know the exact impact on 
Alaska, but we will certainly respond to that after the 
hearing.
    [Note: The information was not provided for the record.]

                      MAPS OF STREAMS AND WETLANDS

    Senator Murkowski. Well, I would appreciate that. And the 
other thing I would like you to look at, when my staff was 
looking at the EPA website, they noticed links to maps that 
purported to show streams and wetlands in all the 50 States. 
But what was more of a surprise was that the map of seasonal 
and rain dependent streams does not actually feature Alaska 
because apparently there is a lack of data. There is a map of 
drinking water that did include Alaska, but again it shows zero 
data available.
    So it is obviously an issue of concern where supposedly 
this rule is attempting to provide for clarity and efficiency, 
but in a State like Alaska where at least your own maps are not 
indicating that we have the appropriate data within which to 
base any decisions. So I would like talk with you about that as 
well. But I think prior to any meetings that you might be 
holding in the State, I think it is going to be important to be 
able to provide data so that we can look at that as well.
    Ms. McCarthy. Well, Senator, I am happy to provide you with 
what information I have. But, you know, clearly the interest 
that EPA has is to clearly define what is within the 
jurisdiction, and then what is the process that you need to go 
to when there is uncertainty. Because what the science has told 
us is that science can define certain parameters, but others 
require a closer look working with States and communities on a 
case by case basis.
    And so, there is the opportunity to be certain in some 
areas, but to hopefully define a streamlined process in areas 
where the data is not available so that judgments can be made, 
and the basis of those judgments can be consistent as the Army 
Corps makes 404 decisions and EPA interjects and comments on 
some of those.
    Senator Murkowski. And I appreciate a desire for 
consistency and certainty, but you have started your comments 
out recognizing that there are unique----
    Ms. McCarthy. There are.
    Senator Murkowski [continuing]. To a State like Alaska----
    Ms. McCarthy. Absolutely.
    Senator Murkowski [continuing]. One-fifth the size of the 
United States of America, a State where--you will get the 
percentage for me, but in terms of wetlands in our State, some 
would say that almost the entire State is subject to a wetland 
determination. So what that might mean for us is incredibly 
significant.
    And as I have mentioned in my comments, an interpretation 
that goes a different way could really be a showstopper for us. 
So we need to--we need to have greater understanding. I think 
it will be critically important that you and your staff make 
sure that Alaska is very much given an opportunity to weigh in 
as these issues move forward.
    And I will ask you, we have had a, I think, a pretty good 
working relationship between the senior staff at EPA, who have 
made themselves available to meet with my senior folks to talk 
about usually a laundry list of issues that we have compiled 
that come up. Some of them we have been able to work through. 
The issue last year was the mom and pop veterinarian clinic----
    Ms. McCarthy. Right.
    Senator Murkowski [continuing]. That subject to the same 
incineration rules as a major factory. We were able to work 
through some of the specifics. We have a lot more on our plate, 
not the least of which we are still continuing to work on the 
small incinerator initiative. Great deal of concern still with 
where we are with the fish grinding requirements for discharge 
from offshore processors.
    So I would like your commitment to continue the practice 
that we have had over the past couple of years to have your 
senior folks with operational authority sitting down with my 
senior advisers in discussing many of these issues. And if we 
can get a meeting scheduled sooner than later I think that that 
would be helpful for both sides.
    Ms. McCarthy. It has been incredibly valuable, and of 
course we will continue that, Senator.

                HYDRAULIC FRACTURING AND DRINKING WATER

    Senator Murkowski. Good. I appreciate that. And, Mr. 
Chairman, I have one more quick question, if I may, and then I 
will conclude. And this relates to the budget request. On the 
Agency's hydraulic fracking study, you have requested an 
increase of $8.1 million over last year's level. This study was 
the result of congressional direction in the 2010 interior 
bill, which requested an analysis of the ``relationship between 
hydraulic fracturing and drinking water.''
    So now, according to your budget, you are expanding that 
study beyond the original congressional mandate to include 
additional issues, such as water quality in general, air 
emissions from oil and gas operations, including volatile 
organic compounds and hazardous air pollutants. So the question 
that I have for you now is why has the Agency gone beyond the 
original scope that was outlined in 2010, and how much are we 
actually paying for an expansion of this study cost? How much 
has the Agency spent to this point in time?
    As you know, many of us are very concerned about this, and 
feel that the effort coming out of EPA is a duplicative effort. 
And if we are just spending more money in an effort to expand a 
project that really does not have the authorization to expand, 
we want to know.
    Ms. McCarthy. Well, let me be a little bit clearer because 
I do understand your question. On the Office of Research and 
Development study, which is really focused on looking at the 
potential water impacts related to the full range of hydro 
fracking operations, we have been expending in 2013, 2014, and 
2015, $6.1 million. My understanding is that this budget 
requests a similar amount of $6.1--I am sorry, did I say 
``billion?''
    Senator Murkowski. You said ``million.''
    Ms. McCarthy. Oh, I was thinking, wow, that would be great, 
would it not? A million for the drinking water study. The 
additional funds are being used for research that is being done 
collaboratively with the Department of Energy (DOE) and the 
Department of the Interior (DOI). $4.3 million of that is 
looking at water quality in ecological studies that is separate 
from the Office of Research and Development (ORD). That is 
research efforts.
    Then the $3.8 million is air emissions. This is an effort 
to look at methane that is being emitted in the hydro fracking 
process where we have effectively, and I think nice and quietly 
and collaboratively, regulated that from natural gas operations 
during hydro fracking. We have other work to do that in area, 
including in tribal regions to actually expand some 
opportunities for controls to be recognized and sources to be 
permitted through our minor source permitting process.
    So there is work to be done, and that is a reflection of 
that overall work on hydro fracking, not an expansion of the 
ORD study.
    Senator Murkowski. I do not know. Based on what you have 
just said, it still sounds to me like there is an expansion of 
that study. You have indicated that you have other agencies 
that are a part of this, but it would appear that it goes 
beyond what was originally asked in our fiscal year 2010 
interior bill.
    Now the budget indicates that you expect to have a draft 
report to your scientific advisory board by the end of this 
year, then you publish a final report in--at the end of 2016 
apparently. I guess the last question would be whether at a 
minimum, would you agree that it does not make sense for the 
EPA to issue a major rulemaking concerning fracking before the 
final report is issued and reviewed by the Scientific Advisory 
Board?
    Ms. McCarthy. I am not aware of any rule that is currently 
being contemplated, Senator. This hopefully will bring to light 
data that we have not seen before and will allow everyone to 
make judgments. Right now, the most important thing that I 
think we are doing is working to provide States some technical 
information that they can use if they want to as the line of 
first defense to protect water in their States. That is how I 
envision we will continue to operate, unless there is a reason 
that national intervention is necessary.
    Senator Murkowski. Well, and do not get me wrong here. I 
think that the States are doing a good job here in terms of 
regulating hydraulic fracking. And so, I just do not see that 
we need to add another layer with EPA onto that regulation.
    Ms. McCarthy. I fully understand that.
    Senator Murkowski. I am just--I am looking at your budget 
and trying to follow the timeline here, and that is why I raise 
that question.
    Ms. McCarthy. All right. I appreciate that, Senator, and we 
are not in disagreement.
    Senator Murkowski. Okay. Mr. Chairman, that concludes my 
questions. I appreciate the comments today.
    Senator Reed. Thank you very much, Senator Murkowski.

                     ADDITIONAL COMMITTEE QUESTIONS

    Thank you, Madam Administrator for your leadership and for 
your testimony here today. And let me indicate that the record 
will remain open for statements and for questions from my 
colleagues until April 16. And I would ask you to respond as 
quickly as you can to any questions that are forwarded to you 
from the subcommittee.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Jack Reed
                         cutting the workforce
    Question. The fiscal year 2015 budget request proposes cutting 
EPA's workforce, which is a significant departure from prior years. 
This year the budget proposes a staffing level of 15,000. This is 
almost 1,600 fewer staff than you asked for last year and would result 
in the lowest agency staffing level since 1989. Please outline EPA's 
plans for reshaping the workforce? What assurance is there that EPA 
will retain sufficient expertise to fulfill its mission?
    Answer. In the fall of 2013, the EPA began researching the use of 
voluntary retirement and separation authorities to streamline 
organizational practices and to realign our workforce to meet changing 
mission requirements in light of technological advances, resource 
constraints and limited hiring capacity. Nineteen of our regional and 
program offices began developing strategic, office-level proposals that 
formed the basis for Voluntary Early Retirement Authority (VERA) and 
Voluntary Separation Incentive Payment (VSIP) requests that were 
submitted to the Office of Personnel Management in late December 2013. 
Proposals emphasized streamlining administrative processes, 
consolidating functions to the greatest extent possible and, in some 
cases, updating the skill sets of our workforce. This agency-wide 
effort was undertaken strategically and with thoughtful consideration 
by all levels of leadership to ensure that critical expertise was 
retained while allowing the agency to increase efficiency, thus 
enhancing EPA's ability to meet its mission.
    Question. There seems to be a discrepancy in the fiscal year 2015 
request between staff numbers that will decline and an operating budget 
that will increase. Why does the Environmental Programs and Management 
(EPM) account increase by $113 million dollars if the overall number of 
employees will be reduced? If EPA isn't investing in its workforce, how 
will additional operating funds be used?
    Answer. The increase in EPM funds in the fiscal year 2015 
President's budget is relative to the fiscal year 2014 enacted level. 
Despite the reductions to the workforce, a portion of this increase is 
for additional payroll costs. Our fiscal year 2015 request also invests 
in our workforce by supporting efforts to build a High Performing 
Organization (HPO). These efforts support our workforce by maximizing 
efficiency and allowing them to focus on the most important aspects of 
their work--interacting with communities; problem solving by applying 
accessible and accurate data; and developing new approaches to emerging 
issues--rather than working through process steps that add little 
value. This requires changing the way we do business through 
modernizing our work and taking advantage of advances in technology 
(e.g. applying software that allows more efficient learning events for 
all employees and reduces the number of redundant learning management 
systems). On the programmatic side, the additional EPM non-payroll 
funds requested will enable the Agency to make progress on priorities 
such as implementing priority water projects in communities, increasing 
outreach for brownfields projects to help ensure the success of these 
well received grants, improving data on watersheds to help enhance 
priority-setting, improving the coordination on chemical plant safety, 
and working with localities at risk for direct impacts from severe 
storms or other climate related events.
    Question. EPA has already started to reduce its workforce through 
an early buyout that offers incentives for voluntary separation from 
the Agency. Are there particular groups of employees targeted for the 
buyout? Which programs are most heavily impacted? When reductions are 
completed, what will the smaller EPA look like?
    Answer. Nineteen of our regional and program offices developed 
strategic, office-level proposals that formed the basis for Voluntary 
Early Retirement Authority (VERA) and Voluntary Separation Incentive 
Payment (VSIP) requests that were submitted to the Office of Personnel 
Management in late December 2013. The proposals emphasized streamlining 
administrative processes, consolidating functions to the greatest 
extent possible and, in some cases, updating the skill sets of our 
workforce. Based on these proposals, the five occupational series most 
often identified to be authorized for VERA/VSIPs across the agency were 
Environmental Protection Specialist (0028), General Physical Science 
(1301), Environmental Engineering (0819), General Attorney (0905), and 
Management and Program Analyst (0343).
    The programs with the highest acceptance rate of VERA/VSIP offers 
were Superfund: Remedial, Superfund: Enforcement, Civil Enforcement, 
Surface Water Protection, and Compliance Monitoring. The impacts of 
these departures were considered in the proposals prepared by the 
regions and programs.
    As a result of the VERA/VSIPs, the EPA will be a more streamlined, 
efficient organization that is well-poised to take on today's 
challenges and those that present themselves in the future. The 
reductions achieved through the VERA/VSIPs are spread across 19 
regional and program offices; no single office lost a significant 
number of employees. Most offices are now or will soon be engaged in 
limited, strategic hiring efforts to obtain employees that possess 
needed skill sets, which will ensure that EPA maintains its scientific 
and technical edge, and enable the EPA to meet its mission 
requirements.
                  epa furloughs--payroll discrepancies
    Question. One of the tough budget choices that EPA made last year 
was the decision to furlough EPA employees. Since that time, it has 
come to the subcommittee's attention that EPA had at least $33 million 
dollars of unspent funds at the end of the fiscal year.
    Please explain why EPA had unspent funds from fiscal year 2013 and 
why these funds weren't used to minimize the impact of the furlough on 
EPA employees?
    Answer. The agency continues to focus on timely use of 
appropriations to ensure that all funds are expended efficiently but 
also effectively to ensure the most environmental benefit. In many 
cases, (competitive grants or large contracts, for example) the nature 
of the work leads to 2-year appropriation funds being committed in the 
second year. Final calculations identifying the amounts and location of 
carryover were completed following the end of year closeout. However, 
the original need for those resources to support the agency mission 
remained.
    In addition, to maintain the commitment to treating all employees 
equally, a One EPA approach, the carryover would have to have been 
distributed in the appropriation and program projects aligned with the 
total payroll need. Lacking transfer authority and certainty on 
congressional approval for reprogramming requests as well as continued 
uncertainty concerning fiscal year 2014 appropriation levels at that 
time, diverting these carryover funds to pay was very problematic and 
would not guarantee equitable furlough reductions.
    Question. While it's not unusual for an agency to have some 
carryover funds, fiscal year 2013 was not a normal year. How did the 
agency make its spending decisions and determine funding priorities?
    Answer. Working within the appropriation, program area, and project 
levels provided following sequestration reductions, highly detailed 
analysis was conducted to balance payroll needs and critical support 
for the agency's mission with extramural resources. Based on this 
analysis, our commitment to treating employees equally with respect to 
furloughs, and the need to continue the work of the agency, the Acting 
Administrator made a decision concerning the maximum number of hours as 
well as a firm commitment to reevaluating that number at the midpoint 
to find any possible reductions made possible by savings in non-pay 
funds. Over the course of the furlough period, the maximum number was 
reduced on two occasions resulting in total agency furlough hours being 
a maximum of 47 per employee.
    Question. How many hours of furlough could have been avoided with 
the unspent funds from fiscal year 2013?
    Answer. Without using congressional reprogrammings and having 
access to transfer authority, the EPA could not have avoided any hours 
of furlough with unspent funds from fiscal year 2013 while still 
maintaining its commitment to treating all employees equally.
                        e-enterprise initiative
    Question. EPA has proposed a major $70 million dollar initiative, 
called E-Enterprise, to transition compliance reporting from paper to 
electronic web-based reporting. What does EPA hope to achieve with the 
$70 million dollar investment and what will its effect be on States and 
the regulated community?
    Answer. E-Enterprise is a broad strategy to modernize how EPA and 
its co-regulator partners do business, going far beyond the move from 
paper to web-based (electronic) reporting. The E-Enterprise business 
strategy will reduce the burden and impact of environmental regulations 
on regulated entities and co-regulators (States, tribes, and 
territories) through applying LEAN management principles to programs, 
improving business processes and modernizing data flows. For fiscal 
year 2015, the E-Enterprise Leadership Council (EELC), a joint 
governing body between the States and the EPA, identified $70 million 
high-potential projects which align with the E-Enterprise business 
strategy and are ripe for near-term investment. The majority of these 
funds are in existing programs/projects, and are contained in EPA's 
base budget which supports critical functions within those programs. 
Examples are the Safe Drinking Water Information System (SDWIS), the 
National Pollutant Discharge Elimination System (NPDES), and e-Manifest 
in the Resource Conservation and Recovery Act (RCRA) waste management.
    Approximately $19 million of the $70 million has been identified by 
the EELC as new work with the immediate potential to significantly 
reduce burden on States and regulated entities. This includes grant 
resources to enable State (and tribal) participation in E-Enterprise; 
development of the Regulatory and Public Portal for data exchange and 
transparency; and support for streamlining and modernization in a 
number of environmental programs through the use of shared services.
    The Agency has established a new fiscal year 2014-2015 Agency 
Priority Goal (APG) to improve environmental outcomes and enhance 
service to the regulated community and the public. The E-Enterprise 
strategy will help the Agency achieve these burden reduction goals 
through modernizing data flow processes (e.g. moving from paper-based 
to electronic reporting) while requiring no additional data to comply 
with existing regulations. For example, with the Hazardous Waste e-
Manifest, burden reduction is estimated between 370,000 and 700,000 
hours (and more than $75 million) for States and the regulated 
community.
    States are supportive of the E-Enterprise business strategy and are 
already engaging in E-Enterprise efforts. For example, Ohio EPA 
launched its electronic Discharge Monitoring Report Submission (eDMR) 
system,\1\ which uses electronic reporting to allow permittees to 
report their discharge measurements quickly and easily online. This 
method of reporting has increased data quality (errors have dropped 
from 50,000 per month to 5,000), while also saving significant time and 
resources for all stakeholders. Ohio EPA reduced the number of 
reporting staff from 5 FTE to zero through the automated compliance 
tools and a positive ROI was achieved within 2 years.
---------------------------------------------------------------------------
    \1\ http://www.epa.ohio.gov/dsw/edmr/eDMR.aspx.
---------------------------------------------------------------------------
    Below are a few of many examples of stakeholder (e.g. States and 
the regulated community) comments expressing support for key pilot 
projects of the E-Enterprise business strategy including streamlining 
existing regulations in the Tier 3 Vehicles Emissions and Fuel 
Standards Program and the NPDES Electronic Reporting rule:

  --Marathon Petroleum Company.--EPA has made regulatory streamlining a 
        priority and we appreciate the Agency's efforts. We agree that 
        regulatory streamlining will result in more efficient and less 
        costly compliance. We support the elimination of unnecessary 
        and outdated provisions. These provisions are independent of 
        Tier 3 and should be promulgated in a final rule earlier than 
        the Tier 3 final rule. We agree with the Agency that these are 
        straightforward and should be implemented quickly. [EPA-420-R-
        14-004 p. 6-1]
  --Phillips 66 Company.--We are appreciative of the effort to 
        streamline various portions of existing regulations. With 
        changes over time, there are several areas that need ``clean-
        up'' and this effort will reduce confusion and burden on the 
        regulatory parties. We offer the following comments on the 
        proposed revisions as well as suggestions for other provisions 
        that we feel would add value and should be considered. [EPA-
        420-R-14-004, p. 6-2]
          Change in reporting dates--Overall, the concept of aligning 
        the various reporting dates and being able to develop a unified 
        and simplified reporting form is a good one. Providing 
        additional time is beneficial. We appreciate the Agency 
        providing this change. [EPA-420-R-14-004, p. 6-13]
  --Massachusetts Water Resources Authority (MWRA).--MWRA appreciates 
        that the proposed rule [NPDES Electronic Reporting Rule] will 
        allow EPA to obtain, and provide to the public, a more complete 
        picture of NPDES discharges--one that includes small as well as 
        large discharges. Electronic data collection has the potential 
        to reduce the errors in ICIS-NPDES and also allow errors to be 
        corrected in a more timely way. In summary, MWRA generally 
        supports the idea of phased-in electronic reporting, provided 
        data can be accompanied by qualifying comments. Document No. 
        EPA-HQ-OECA-2009-0274-0263-A2.
  --Metropolitan Sewer District of St. Louis (MSD).--In general MSD 
        supports the purpose of the rule [NPDES Electronic Reporting 
        Rule] in moving to electronic reporting for many NPDES related 
        activities. We agree that electronic reporting will likely 
        provide for better data recording and management by EPA and 
        authorized States, tribes, or territories. Some portions of the 
        proposed rule will also support communities like MSD in their 
        continued efforts in transparency and to provide the public 
        with uncomplicated access to quality information which is free 
        of errors due to multiple data entry points. Document No.
        EPA-HQ-OECA-2009-0274-0364-A2.
  --North East Biosolids & Residuals Association (NEBRA).--We support 
        the overall concept of the proposed rule [NPDES Electronic 
        Reporting Rule] and agree that, if implemented thoroughly with 
        considerable support, it might achieve the benefits stated in 
        the Federal Register discussion. The increased availability of 
        data would serve to enhance public understanding of wastewater 
        treatment and biosolids management. NEBRA feels that the 
        proposed rule merits further consideration, but that the 
        details of the proposed electronic reporting system are 
        critically important and will determine whether or not the 
        system is a success. Document No. EPA-HQ-OECA-2009-0274-0288-
        A1.
  --United States Steel.--U. S. Steel generally supports the rule 
        [NPDES Electronic Reporting Rule] and its goals, such as 
        publically sharing discharge information, improving the 
        Agency's decisionmaking capabilities, and enhancing Agency 
        resources through minimizing expenditures for monthly 
        reporting. Document No. EPA-HQ-OECA-2009-0274-0268-A2.

    Question. How many years does EPA expect to request funding for the 
initiative? What is the total cost estimate and how does EPA expect to 
spread these costs over future budget cycles?
    Answer. Out-year requests are expected to be similar to current 
request levels. Investments in individual projects are expected to be 
recouped through the deployed business efficiencies.
    Each budget cycle will include investments to transition the Agency 
and its co-regulator partners to an updated customer and information-
centric business strategy. In a phased implementation approach, a set 
of programs and projects are chosen for modernization and E-Enterprise 
supports the planning and development phases.
    Aligning EPA's existing programs to the E-Enterprise business 
strategy will remain a priority for the EPA and States. In the out-
years, individual projects will continue to be jointly selected by 
States and the EPA based on their potential for streamlining, 
modernization, and potential Return on Investment (ROI). Rather than 
EPA and States creating a particular capability several times over, the 
E-Enterprise strategy incorporates a ``build once, use many'' approach. 
As individual projects are completed, resources shift to the next 
priority. Once program systems have been modernized, the program 
offices manage the ongoing operations and maintenance (O&M) of the 
systems at a reduced cost for the participating co-regulators than 
would otherwise have been possible, allowing resources to be used for 
program implementation. The additional benefits from increasing 
transparency and improving customer service to stakeholders provide 
additional value.
    Under the E-Enterprise strategy, investments in individual projects 
have individual value. While priorities will change annually within the 
overarching E-Enterprise strategy as determined by the co-regulator 
partners, individual projects that have been completed will continue to 
operate and provide value.
    Question. The budget request discusses the potential cost savings 
that the regulated community will realize through electronic reporting. 
Please share details about anticipated savings and, if funding is 
provided in fiscal year 2015, when is it anticipated that the 
initiative be fully operational?
    Answer. Savings under the E-Enterprise business strategy to the 
regulated community can be measured in time and resources that will be 
reduced (e.g. burden reduction) through streamlined regulations and 
implementation of individual projects. The streamlining of regulations, 
shared State and EPA information reporting approaches, and moving from 
paper-based to electronic reporting will result in significant burden 
reduction. The agency has a commitment of one million hours of burden 
reduction in one of its fiscal year 2015 Agency Priority Goals. 
Examples of burden reduction and cost savings estimated for key 
projects coordinated under the E-Enterprise strategy include the 
following:

  --Safe Drinking Water System (SDWIS).--910,000 hours of burden 
        reduction for States, 80,000 hours for Public Water Systems and 
        Labs.
  --National Pollutant Discharge Elimination System (NPDES) e-reporting 
        Rule.--914,000 hours of burden reduction, $28.5M savings for 
        States, $1.1M savings for permittees, EPA savings of $0.7M.

    The E-Enterprise strategy will cover a series of programs and 
projects, each of which is designed to be modular with regular 
milestone deployments. Smaller projects can be fully operational within 
1-2 years; projects of larger scope will operational within 3-5 years. 
Some projects are already underway such as SDWIS and NPDES mentioned 
above. The intent is for E-Enterprise to continually improve the full 
.range of EPA's environmental programs and projects. The EPA, States, 
tribes, and territories have a set of legacy information systems to be 
transitioned and integrated without interruption in service. All 
programs/projects will undergo an alternatives analysis and business 
case with a return on investment (ROI) study to determine the cost-
effectiveness of proposed changes to the investment.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
    Question. Administrator McCarthy, both you and President Obama have 
said that we must have the courage to act before it is too late and 
make historic investments in resilience to climate change. The 
President further promised that his fiscal year 2015 budget proposal 
would include a $1 billion Climate Resilience Fund. I applaud this 
priority considering the accelerating impacts of climate change. In 
Vermont, the EPA recognizes that climate change is impacting water 
quality in Lake Champlain and is requiring the State of Vermont to 
address these impacts as part of a new EPA Total Maximum Daily Load 
(TMDL) plan for phosphorus pollution. In light of the administration's 
strong commitment to spending $1 billion in fiscal year 2015 for 
climate resilience, and that the Lake Champlain phosphorus TMDL will be 
among the first in the country where the EPA requires climate change to 
be addressed, please tell me how in fiscal year 2015 and beyond, you 
will direct additional Federal resources to support implementation of 
resilience measures as part of the EPA's Lake Champlain phosphorus TMDL 
efforts?
    Answer. The EPA is responsible for developing a new phosphorus 
Total Maximum Daily Load (TMDL) because, in January 2011, the EPA 
disapproved Vermont's 2002 Lake Champlain TMDL. The EPA disapproved the 
2002 TMDL because it did not provide sufficient assurance that 
phosphorus reductions from polluted runoff would be achieved, and did 
not provide an adequate margin of safety (MOS). The development of the 
new TMDL has given the EPA the opportunity to re-examine and update all 
the elements of the TMDL and consider factors that would affect 
phosphorus loads.
    Regardless of whether or how potential climate change impacts may 
be reflected in this TMDL, the EPA remains committed to improving our 
understanding of how climate change may impact the Lake, such as 
influencing changes in flow, sediment, and phosphorus inputs. The EPA 
has funded two climate-related studies in the Lake Champlain watershed. 
Based on these studies and recent storm events, the EPA and the Vermont 
(VT) Department of Environmental Conservation (DEC) recognize the 
importance of incorporating additional resiliency into Best Management 
Practice designs (e.g., culvert sizing to accommodate larger stream 
flows) that will be important components of VT DEC's TMDL 
implementation planning.
    The EPA remains committed to supporting implementation of the Lake 
Champlain TMDL, and it will work with Federal and State partners to 
leverage the much needed Federal investment in climate resiliency.
    I have heard from a number of Vermont residents, farmers, and 
businesses with concerns about the use of persistent herbicides and the 
presence of such herbicides in compost. Their gardens and farms have 
been seriously damaged by compost or mulch that was contaminated with 
persistent herbicides. These potent chemicals are applied to lawns, 
pastures, hayfields, and roadsides, and continue to be highly toxic to 
plant growth even after residues on grass or hay have been composted. 
These herbicides even remain potent in the composted manure of 
livestock and horses that graze on treated pastures and hay.
    I am worried about the environmental and financial risk to the 
multi-billion dollar compost industry if new standards and testing are 
not developed to identify the presence of these herbicides in compost, 
and if steps are not taken to ensure that persistent herbicides cannot 
persist in compost at dangerous levels. I fear that, without new 
protections, there will continue to be tremendous financial loss and 
environmental damage similar to what we have already experienced in 
Vermont.
    This problem will only escalate as more States and municipalities 
make it illegal to send leaf and yard debris and food scraps to 
landfills, and require greater use of composting. Unless the issue of 
persistent herbicides in compost is addressed, the market for finished 
compost may simply disappear, or composters may find themselves liable 
for sizeable payments to their customers with damaged crops, as 
happened in Vermont.
    Question. As the EPA continues its work to review registration for 
these persistent herbicides, beginning with the ongoing review of 
Picloram, can you assure me that you will take into account the impact 
on the compost industry and will the EPA require these persistent 
herbicides to break down in the composting levels that are not 
phytotoxic to plants?
    Answer. The pyridine class of herbicides (the group of pesticides 
recently associated with compost problems) are currently in, or 
approaching, registration review, the program that requires us to re-
evaluate registered pesticides every 15 years to ensure the product 
continues to meet the statutory standard. During this registration 
review, we are requiring additional data to aid our understanding of 
how persistent these herbicides are in compost and manure. These data 
may inform the development of mitigation measures and advisory 
resources. All members of the pyridine class will be screened for 
potential compost concerns during the problem formulation stage of the 
program. Following this initial analysis, we may impose compost-
specific data requirements as needed. These data include a dissipation 
study in compost and an environmental chemistry method (with 
accompanying independent laboratory validation) on compost. The agency 
is working with interested stakeholders to develop a protocol for 
conducting the compost dissipation study. These data will be used to 
characterize the potential risk from residues in compost and may inform 
the development of guidance resources for composters.
    While the pyridines registration review is underway, we have taken 
a number of interim steps that appear to have had a positive impact on 
this issue, including stronger label warnings and restrictions and 
registrant educational outreach materials. EPA will continue to monitor 
incidents related to contaminated compost to evaluate the effectiveness 
of these steps. If these efforts do not resolve contaminated compost 
issues, the EPA intends to consider additional regulatory action for 
these herbicides.
    Question. What is the EPA doing to develop publically available 
test methodologies to detect the presence of these herbicides in 
finished compost and in compost feedstocks?
    Answer. We have established a workgroup that is evaluating a 
standardized testing procedure for pesticides that could persist in 
composted material. Representatives from the U.S. Compost Council, the 
California Recycling Council, and the State FIFRA Issues Research and 
Evaluation Group, participate in this workgroup. We hope to have a 
standardized testing procedure in place within the next few years.
    The EPA has proposed new fine particulate matter (FPM) emission 
standards for residential wood heaters. I applaud this long overdue 
update of new source performance standards, considering that cordwood 
heater technology has improved in the 25 years since the standard was 
first issued and we now better understand the serious health impacts of 
fine particulate matter air pollution. I am concerned, however, that 
implementation of the new standards will place heavy burdens on 
manufacturers of EPA certified wood heaters as they transition to 
cleaner technology, while not moving fast enough to take the most 
polluting devices, those currently exempted from regulation, off the 
market.
    Question. How will the EPA's implementation of a final standard for 
FPM emissions from wood heaters protect public health while ensuring 
emission limits and compliance schedules that are viable for U.S. 
manufactures of high quality certified appliances?
    Answer. The proposed rule considers both protection of public 
health and viability of U.S. manufacturers by using a phased 
implementation approach. Step 1 of the proposal would level the playing 
field by requiring emission levels that over 85 percent of currently 
certified wood stoves already meet and requiring reasonable emission 
levels for those devices that are not regulated by the 1988 New Source 
Performance Standard (NSPS). Five years later, Step 2 would require 
emission levels for all devices that correspond to what the best 
systems of emission reduction are achieving in the marketplace today.
    Question. What more can and will the EPA do to encourage homeowners 
across the country to make investments in new wood heater technology to 
change out their older inefficient wood stoves or fireplaces with new 
EPA certified wood stoves, while also encouraging homeowners to support 
American manufacturers?
    Answer. The EPA places a high priority on encouraging homeowners 
and manufacturers to invest in cleaner and more efficient technology. 
We will continue to inform homeowners of the benefits via our Burn Wise 
program (www.epa.gov/burnwise), provide tools for State, tribal, and 
local agencies to conduct changeout programs, and provide a means for 
manufacturers to promote cleaner wood-burning fireplaces.
    The EPA is working with the Environmental Defense Fund and others 
to coordinate a national roundtable to help identify potential funding 
and technical resources needed for residential changeout programs and 
promoting other ways to reduce residential wood smoke. The roundtable 
expects to host members from the EPA, other Federal agencies, such as 
the Department of Energy, and Housing and Urban Development, 
manufacturers, and State and local air agencies.
                                 ______
                                 
                Question Submitted by Senator Tom Udall
                                 radon
    Question. Our State Environment and Health Department has brought 
to my attention a concerning reduction in the EPA budget.
    I understand the President's budget zeroed out a categorical grant 
program for radon detection and information. This is disappointing. I 
understand that we need to make hard choices, but this program provides 
a lot of significant impacts for every dollar spent.
    After smoking, radon is the second leading cause of lung cancer in 
the United States and the leading cause in non-smokers. It's a 
significant public health problem throughout the United States.
    States like New Mexico have used these grants to inform citizens 
through outreach, education, and training to lower their risk from 
exposure to this natural radioactive gas that exists in our homes, 
schools, and commercial and government buildings. I'd like to work with 
you to discuss the future of this program.
    Can you explain why this program was zeroed out and what we can do 
to restore funding?
    Answer. The State Indoor Radon Grants (SIRG) program was 
established by Congress to fund the development of States' capacity to 
raise awareness about radon risks and promote public health protection 
by reducing exposure to indoor radon gas. After 26 years in existence, 
the radon grant program has increased States' technical expertise and 
capacity to raise awareness about radon risks and promote public health 
protection by reducing exposure to indoor radon gas. Eliminating the 
SIRG program is an example of the difficult choices the agency has made 
in this budget to help meet the Nation's fiscal challenges. The Radon 
Program will continue to be a priority and the EPA will focus on 
driving action at the national level with other Federal agencies, 
through the Federal Radon Action Plan. Released in June of 2011, the 
Action Plan aims to increase radon risk reduction in homes, schools, 
and daycare facilities, as well as radon-resistant new construction. It 
contains both an array of current Federal Government actions to reduce 
radon risks and a series of new commitments for future action. More 
information about the Action Plan and its progress is available at: 
http://www.epa.gov/radon/action_plan.html.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
   greenhouse gas new source performance standards (nsps)--new units
    Question. Ms. McCarthy, I am concerned about the impact of the 
EPA's proposed rule setting New Source Performance Standards for new 
units and soon to be issued proposed rule for existing units. Alaska's 
electric system is unique compared to the grid in the lower 48. As you 
may know, there are 126 certified electric utilities in Alaska, and 
only 6 of those utilities are connected to each other through the 
``Railbelt Grid'' that serves the most populated areas of the State. 
The other 120 electric utilities provide electric power to 
approximately 30 percent of Alaska's population that is spread out over 
millions of square miles. Usually the ``one size fits all'' approach to 
regulations does not work for my State.
    Alaskans are concerned they will not have reliable, affordable 
electric service as a result of the NSPS rules. The utilities in my 
State face many challenges that utilities in the lower 48 do not face, 
such as the option to rely on an interconnected grid and the 
availability of infrastructure and support services.
    Would EPA consider providing a waiver to the NSPS rules for 
electric generating units/utility power plants not located in the 
contiguous United States?
    Answer. The proposed performance standards to limit carbon 
pollution from newly constructed power plants were published on January 
8, 2014 and the public comment period recently closed on May 9, 2014. 
We are currently reviewing the nearly 2 million comments that we 
received on the proposed rule. Please note that the proposal does not 
cover newly constructed oil-fired turbines, which we were told in 
previous comments are expected to be the most commonly built new 
sources in remote areas of Alaska and some other areas. The proposal 
for emission guidelines to limit carbon pollution from existing power 
plants was signed on June 2, 2014. The Agency heard from many 
stakeholders--including States, municipalities, utilities, and others--
regarding the need for flexibility in developing State plans. The 
Agency looks forward to receiving comments from the public during the 
comment period.
                       small remote incinerators
    Question. I want to thank you for your continued efforts to work 
with the oil and gas and mining industries in Alaska on a new testing 
program for emissions from small remote incinerators (SRIs). The 
expectation is that the EPA will consider the emissions data from this 
program and revise the emissions limits for SRIs, if warranted, based 
on the new data. If the limits are not revised, no incinerator will be 
able to continue operating. For most of these incinerators, there 
simply is no feasible alternative to incineration, or the alternative 
risks increase environmental damage or risks human and wildlife health 
and safety. For example, the only alternative for the Oooguruk oil 
field is to helicopter sling garbage hundreds of miles away to the 
closest landfill; and this would necessitate waste storage in polar 
bear habitat.
    Do you acknowledge that there is no viable alternative to 
incineration for most, if not all, of the oil and gas and mining 
projects where SRIs are located?
    Answer. Because of the remote location, SRI units do not always 
have lower-cost alternative waste disposal options (i.e., landfills) 
nearby. Emissions associated with transporting the solid waste could be 
significant.
    Question. Please explain why the Park Service may operate the same 
type of incinerators in Glacier Bay and Denali National Parks, yet they 
are exempt from emissions limits requirements?
    Answer. Incinerators subject to the Commercial and Industrial Solid 
Waste (CISWI) rule are those located at commercial or industrial 
facilities. The Park Service operates municipal and/or institutional 
incineration units. Institutional units and certain municipal units are 
subject to standards under the Other Solid Waste Incineration (OSWI) 
Rule, which was finalized in December 16, 2005 but does not apply to 
incinerators located in isolated areas of Alaska. The EPA will evaluate 
whether to establish standards for such units when it next reviews the 
OSWI rule pursuant to the periodic review provisions of section 129 of 
the Clean Air Act.
    Question. Is the EPA's intent to continue working with the oil and 
gas and mining industries on a new testing program for emissions from 
small remote incinerators to sufficient data will be provided to 
warrant the EPA taking a second look at the emissions limits for SRIs?
    Answer. The EPA is willing to work with SRI stakeholders to ensure 
that the appropriate data are collected. The EPA staff are engaging 
regularly with the SRI stakeholders regarding the proposed testing 
protocol for collecting additional emissions data. On May 27, 2014, we 
had a meeting to discuss the EPA comments on the most recent revisions 
to the testing protocol. The EPA will continue engaging in discussions 
with the SRI owners and operators to develop the protocol for gathering 
more data.
    Question. Does the EPA still intend to consider emissions data from 
the new testing program and potentially revise the emission limits for 
SRIs?
    Answer. The EPA has a history of considering data submitted by 
industry and we would do so in this case as well. If SRI stakeholders 
collect additional data, the new data could be submitted to the EPA 
with a petition for rulemaking. The EPA is committed to working with 
the SRI stakeholders to further develop and refine the testing 
protocol, review a petition for rulemaking and accompanying data, and 
determine whether further rulemaking is appropriate.
                discharges from offshore fish processors
    Question. EPA currently requires that offshore catcher processors 
operating in Federal waters off the coast of Alaska have a National 
Pollutant Discharge Elimination System (NPDES) Offshore Seafood 
Processors General Permit. This NPDES permit applies national effluent 
limitation guidelines requiring that no ``pollutants'' may be 
discharged which exceed \1/2\ inch in any dimension. This standard 
dates back to 1975 and was developed for shore-based wastewater 
treatment plants, and applying it to fishing vessels at least 3 miles 
from shore never has made much sense. In fact, there is little, if any, 
measurable benefit to the environment. Instead, the offshore catcher 
processors have experienced significant difficulties in achieving the 
\1/2\ inch in any dimension standard due to challenges with grinding 
fish skin, slime, muscle, cartilage, and other internal organ fibers. 
As they have attempted to meet the standard by installing larger and 
larger grinders, their fuel consumption, costs, and emissions have gone 
up, as have the risks for crew operating this dangerous equipment.
    It is my understanding that staff in EPA's Office of Water and 
Region 10 are working with the freezer longline sector to determine 
whether to take this ``fish grinding'' requirement through the annual 
Effluent Limitations Guidelines review process.
    Can you confirm that this review is proceeding expeditiously and 
provide a timeline for the agency's decision on eliminating this permit 
requirement?
    Answer. The Office of Water and Region 10 continue to work with the 
Freezer Longline sector with respect to their NPDES permit 
requirements. The EPA expects to complete its evaluation prior to 
issuance of the next applicable permit.
  npdes gp for geotechnical discharges/arctic oil and gas development
    Question. In November 2013, the EPA released a draft National 
Pollutant Discharge Elimination System (NPDES) General Permit for 
geotechnical discharges associated with oil and gas activities off the 
coast of Alaska. Geotechnical work is a necessary precursor to 
development, and without coverage under the permit, operators cannot 
conduct critical soil surveys along potential pipeline routes and at 
potential production facility locations. Unfortunately, the draft 
permit is completely unworkable, and forced at least one operator to 
cancel a geotechnical program planned for 2014. The comment period 
closed for the draft permit, with extensive comment detailing technical 
and logistical issues with it.
    Is it the agency's intent to put out a revised draft permit for 
public comment that addresses those issues?
    Answer. Based on the comments received during the public review of 
the draft geotechnical general permit, on March 21, 2014, the EPA 
determined that certain permit provisions may warrant further 
consideration. To further that process, the EPA has met with 
representatives from Shell, BP, and ConocoPhillips to clarify several 
technical issues and obtain additional information. The EPA is in the 
process of reviewing this new information, in addition to considering 
all comments received. The EPA will make a determination shortly 
whether to make changes to the draft general permit and whether these 
changes are significant enough to warrant re-noticing the draft general 
permit for public review and comment. The EPA will provide the public 
with an updated project timeline once this decision has been made.
    The draft permit incorporates monitoring and testing requirements 
(i.e., before, during, and after each borehole) that are similar to the 
requirements for drilling exploration oil wells. But this is a permit 
for geotechnical boring discharges.
    Question. Can you explain why the requirements for both activities 
are essentially the same even though the environmental impacts are 
significantly different?
    Answer. The draft geotechnical general permit requirements for 
environmental monitoring are not essentially the same as those for 
exploration wells, and in fact, reflect the different nature of the 
activities.

    The draft geotechnical general permit requires two phases of 
monitoring:

  --Phase I includes a physical (wind/current speed and direction, 
        water temperature, salinity, depth and turbidity) and visual 
        characterization of the seafloor at each borehole location. 
        Obtaining this information is relatively straightforward and 
        can be based on existing data. The baseline information is 
        necessary to ensure the geotechnical activity site is not 
        located in or near a sensitive biological area, habitat, or 
        historic properties.
  --Phase II is only required if drilling fluids are used and is 
        conducted during and after the geotechnical drilling occurs. 
        Phase II includes observations for potential marine mammal 
        deflection during discharge of non-contact cooling water, which 
        is the largest volume discharge and consists of elevated 
        temperatures, and a physical sea bottom survey. This basic 
        level of monitoring is consistent with NPDES permits where 
        drilling fluids are used.

    In contrast, the exploration general permits require four phases of 
monitoring at each drill site location. Because of the increased 
discharge volumes and levels of activity, these requirements are more 
extensive than those in the draft geotechnical general permit:

  --Phase I (baseline).--Initial site survey; collect physical and 
        receiving water chemistry data; analyze drilling fluids for 
        metals; analyze sediment characteristics; evaluate benthic 
        community structure; and conduct dilution, plume, and 
        deposition modeling.
  --Phase II (during drilling).--Effluent toxicity characterization; 
        sample the drilling fluids and drill cuttings discharge plume 
        in the water column; and collect observations for potential 
        marine mammal deflection during periods of discharge.
  --Phase III (post-drilling).--Survey sea bottom; analyze sediment 
        characteristics; and conduct benthic community bioaccumulation 
        monitoring.
  --Phase IV (15 months after drilling ceases).--Survey sea bottom; 
        analyze sediment characteristics; and conduct benthic community 
        bioaccumulation monitoring.

    The draft permit incorporates a whaling blackout throughout the 
Chukchi Sea in the spring and the Beaufort Sea in the fall, which goes 
beyond the recommendations of the Alaska Eskimo Whaling Commission.
    Question. Can you explain to me why the EPA went beyond what even 
the local subsistence users requested in terms of when geotechnical 
activities should not occur?
    Answer. The draft geotechnical permit does not go beyond the 
recommendations of the Alaska Eskimo Whaling Commission. The EPA 
received comments from tribal governments, the North Slope Borough, and 
the Alaska Eskimo Whaling Commission requesting no discharge into the 
Spring Lead System before July 15 in the Chukchi Sea and no discharge 
of any waste stream during fall bowhead hunting in the Beaufort Sea. 
These requests are much more restrictive than the current requirements 
of the draft geotechnical permit.
    The draft permit applies only to geotechnical discharges associated 
with oil and gas activities in Alaska. Yet, this type of geotechnical 
work is routinely performed offshore in the U.S. for work relating to 
the development of offshore infrastructure for shipping, as well as for 
wind farms.
    Question. Does the EPA require the same sort of rigorous data 
collection for boreholes drilled for any other outer continental shelf 
(OCS) purpose--wind farms, port infrastructure outside of State waters, 
etc? If not, what is the scientific basis for distinguishing between a 
borehole drilled for a pipeline or production facility survey versus a 
borehole drilled for any other purpose?
    Answer. The EPA Region 10 is not aware of other activities, such as 
infrastructure development for wind farms or ports, that would require 
geotechnical surveys to be conducted in the outer continental shelf; 
nor have NPDES permit applications been submitted for discharges 
associated with these types of activities.
    Please see the response to the previous question regarding the 
level of monitoring data collection for geotechnical activities. 
Certain industry operators are proposing to discharge drilling fluids, 
generally for deeper boreholes that range from 50 to 499 feet beneath 
the sea floor. Drilling fluids include borehole stabilization 
additives, which include polymer and bentonite, and may be used for 
boreholes drilled at 100 feet depth. Some operators plan to add barite 
to the drilling fluids. Barite is a concern because it is known to 
contain trace heavy metals, such as mercury, cadmium, arsenic, 
chromium, lead, nickel, and zinc.
    The specific geotechnical activities proposed here also involve a 
number of different waste streams and the discharge of potentially 
large volumes of pollutants from geotechnical vessels. Such practices 
and discharges may not be involved as part of other activities such as 
port infrastructure or wind farm projects.
    In addition, because the geotechnical permit is a general permit, 
it is designed to include all potential discharges from similar 
activities, i.e. both shallow and deeper boreholes, drilled with and 
without drilling fluid. As noted above, if drilling fluids are not used 
to drill the boreholes, then the monitoring requirements are reduced 
accordingly. Similarly, the general permit establishes limits specific 
to each pollutant based on applicable effluent discharge limitations 
(allowable pollutant concentrations that are established by regulation 
based on available technology and that apply across a particular 
industry sector) as well as water quality standards. The EPA applies 
the standards and requirements to address the pollutants in the 
discharge regardless of the type of activity.
   clean water act rulemaking on power plant water intake structures
    Question. Ms. McCarthy, it has come to my attention that the EPA 
has initiated an Endangered Species Act (ESA) section 7 consultation 
with the Fish and Wildlife Service and the National Marine Fisheries 
Service on the proposed rule regarding section 316(b) of the Clean 
Water Act governing power plant cooling water intake structures. I have 
been told the nuclear industry has raised concerns about the potential 
for the rule to be applied in an overly broad manner such that it could 
require facilities to install cooling towers or stop operations if a 
threatened or endangered species is located in a water body from which 
the facility draws water from, even if there is no evidence of impact 
to that species.
    Do you believe the section 316(b) proposed rule should require a 
power generator to monitor all species in a water body from which a 
facility draws water from or should the rule only focus on threatened 
and endangered species directly affected by the intake structure?
    Answer. The final rule requires all facilities to identify all 
species affected by the cooling water intake structure, and then 
establishes protections for the aquatic life affected by that intake 
structure. This includes protection of threatened and endangered 
species.
    In the past, section 316(b) monitoring focused on the prevention of 
``adverse environmental impact'' of threatened and endangered aquatic 
life.
    Question. Do you believe the scope of monitoring should be expanded 
to look at species that may be in the water body and might be 
indirectly affected by intake structures?
    Answer. The EPA's final rule requires that all facilities identify 
in their permit applications all federally-listed threatened and 
endangered species and/or designated critical habitat that are or may 
be present in the vicinity of the intake. Identification can be based 
on information readily available to the facility at the time of the 
application. A facility may request to reduce monitoring requirements 
after the first full permit term, if the monitoring data show that the 
intake does not directly or indirectly affect listed species/habitat.
    Question. Do you think it is appropriate to order a facility to 
install a cooling tower or stop operations if a threatened or 
endangered species is located in a water body from which the facility 
draws water from, when there is no evidence of impact to that species? 
If yes, should any consideration be given to the impact on electric 
reliability?
    Answer. The final rule provides the Permitting Director (the State 
or EPA, depending upon the location of the discharge) with much 
discretion to choose the appropriate technology to protect fish and 
shellfish generally, or threatened and endangered species in particular 
at a specific location. Closed cycle cooling is only one of a number of 
different technologies the Director may select to prevent impingement 
or entrainment of fish and shellfish.
     inspector general (ig) report concerning epa credit card abuse
    Question. The EPA IG issued a report last month on March 4, and 
found that over half of the government credit card transactions by EPA 
employees were used for inappropriate personal expenses--such as gym 
memberships for friends and family, hotel rooms, and expensive meals. 
While the number of transactions that the IG looked at was rather 
small--80 transactions totaling $152,000--agency employees as a whole 
spend roughly $29 million on government credit cards. If anywhere close 
to half of these charges are inappropriate that is truly alarming.
    What processes is EPA putting in place to correct this problem?
    Answer. In response to the IG's March 4 report, ``Ineffective 
Oversight of Purchase Card Results in Inappropriate Purchases at EPA'' 
(report no. 14-P-0128), the EPA has implemented or plans to implement 
the following corrective actions to strengthen management controls 
within the EPA National Purchase Card Program:

  --The EPA will reform and integrate existing biennial reviews into 
        the Office of Acquisition Management (OAM) Contract Management 
        Assessment Program (CMAP). The CMAP is OAM's internal controls 
        program. These internal reviews will be part of organizational 
        self-assessments and peer reviews under the Contract Management 
        Assessment Program (CMAP) to facilitate more robust and 
        independent oversight of the program. The first peer review 
        that included a review of purchase card transactions took place 
        in Region 9 in April 2014. EPA anticipates completing another 
        three regional reviews in fiscal year 2014, and will review all 
        headquarter and regional offices by the end of fiscal year 2017 
        as part of the agency's plan to review the purchase card 
        programs of all headquarter and regional offices on a 3-year 
        cycle. Purchase card reviews, which OAM conducts, are now a 
        permanent part of the EPA's peer review process under the 
        contract management assessment program.
  --The EPA implemented a block of over 130 merchant codes to prevent 
        transactions considered high risk. These include codes 
        considered non-applicable for routine agency transactions. 
        Cardholders must submit supporting documentation to the program 
        for review and override, if appropriate.
  --The EPA will deploy an automated system including an electronic 
        purchase card log with a requirement to document all purchase 
        card transactions agency-wide by September 30, 2014. The system 
        will ensure documented evidence of electronic approvals; 
        provide a record of all purchases made with purchase cards and/
        or convenience checks; allow virtual audits of all purchase 
        card transactions and provide the ability to conduct spend 
        analysis on all purchase card transactions. The agency began an 
        automation pilot with several agency cardholders on March 31, 
        2014.
  --Effective March 18, 2014, the EPA placed a moratorium on the 
        issuance of new purchase card and convenience check accounts 
        while we continue to improve management oversight and internal 
        controls.
  --The EPA is drafting improvements to agencywide standard operating 
        procedures, and minimum documentation required, for each 
        purchase card transaction. These draft improvements were 
        completed and sent out for agency review and comment. The EPA's 
        OAM is currently reviewing comments.
  --The EPA is developing training sessions on purchase card policy and 
        procedures for purchase cardholders and approving officials to 
        address the non-compliance issues identified in the report. The 
        EPA's OAM has also changed purchase card refresher training 
        requirements from every 3 years to every 2 years.
  --The EPA is reviewing the subject audit findings to ascertain the 
        specific areas of non-compliance that need to be addressed with 
        cardholders and approving officials. The agency will institute 
        follow-up actions as appropriate to hold individuals 
        accountable and to recover funds used for prohibited, improper 
        or erroneous purchases identified in this audit. Depending on 
        the severity of the violation, cardholder(s) and approving 
        official(s) in violation of agency policy and/or procedures may 
        have their authority revoked, or suspended pending the 
        completion of this review.
  --The EPA is finalizing its Awards Policy to eliminate the use of 
        Gift Cards and Gift Certificates within the agency.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. Earlier this month, the Governor of Mississippi declared 
a state of emergency in 12 counties due to severe rain and flooding in 
the Pearl River Basin. In 1979, similar weather related events caused 
the Pearl River to flood the capitol city of Jackson, Mississippi, 
which resulted in damages equivalent to $1.3 billion in today's terms. 
To date, Jackson doesn't have a comprehensive flood risk management 
solution and remains vulnerable to flood risk, despite many years of 
efforts between local leaders and the Army Corps of Engineers to 
develop an effective solution. Years and even decades may pass from the 
time the Corps is authorized to study a water-resources related problem 
and when the Corps actually constructs a project, and numerous Civil 
Works actions are subject to outside agency review, consultation, or 
coordination. Additionally, it is my understanding that individual 
projects often take longer than anticipated due to disagreements 
between Federal agencies. In your testimony, you suggest the fiscal 
year 2015 budget request strengthens EPA partnerships with a focus on 
aligning resources, avoiding duplication, and closing gaps in the 
broader environmental enterprise system.
    If Congress provides the amount of funding recommended to be 
appropriated by our subcommittee, will the EPA be able to do a better 
job working with the Corps of Engineers to streamline flood control 
projects and reduce inefficiencies and delays with regard to 
environmental regulations and requirements?
    Answer. The EPA appreciates your concerns over the time it can take 
to plan and construct major flood control projects. This administration 
is committed to expeditiously building a 21st century infrastructure, 
including flood control projects, highways and pipelines, in a manner 
that also safeguards our communities and the environment. Over the past 
year, the EPA has worked closely with OMB, the White House Council on 
Environmental Quality (CEQ), and several other Federal agencies, 
including the U.S. Army Corps of Engineers, to develop a plan that will 
modernize the Federal Government's role in permitting and review 
processes for infrastructure projects. This plan was published on May 
14, 2014, and identifies a wide range of strategies and reforms, with 
both near-term and long-term milestones including improving interagency 
coordination. The EPA's budget request includes funding that will 
enable us to work more effectively with other agencies as they propose 
and review these critical infrastructure projects.
    Question. The Corps of Engineers has indicated the Jackson 
metropolitan area will remain vulnerable to flood risks as well as life 
and safety issues. Currently, the Pearl River is several feet above 
flood stage and is expected to rise. Given the current situation, would 
you be willing to work with the Corps of Engineers and the Rankin-Hinds 
Drainage Control District as they move to find a solution?
    Answer. EPA stands ready to work with the Corps and local 
authorities to provide technical assistance and support to the affected 
communities.
    The Pesticide Registration Improvement Renewal Act was passed in 
2012. It sets a minimum funding level required in order to allow EPA to 
collect registration service fees. However, sequestration, combined 
with a continuing resolution, has required Congress to waive the 
minimum level to allow the pesticide registration program to continue 
to operate.
    Question. Was EPA's guidance to the Congressional committees of 
jurisdiction on the decision timelines included in the Pesticide 
Registration Improvement Act (PRIA) reauthorization based on specific 
funding levels?
    Answer. Yes, EPA's ability to meet the PRIA decision review 
timeframes was based on receiving both the minimum appropriation level 
specified in the law--$128.3 million--and the PRIA fees.
    Question. Has EPA been able to adhere to those timelines given the 
funding that has been provided for fiscal year 2013 and fiscal year 
2014?
    Answer. No, in fiscal year 2013 (the first year of PRIA-3), the on-
time completion rate fell to 98.8 percent due to a fiscal year 2013 
budget cut and personnel furloughs. We expect the partial Government 
shutdown of October 2013, as well as a fiscal year 2014 budget cut, to 
have a further, measurable impact on the fiscal year 2014 on-time 
completion rate. We will be able to evaluate and report that impact 
after the fiscal year ends on September 30, 2014.
    Question. How does this compare to actions under PRIA-I or PRIA-II?
    Answer. During the 3.5 years of PRIA-1 (fiscal year 2004-fiscal 
year 2007), the on-time completion rate was 99.9 percent. During the 5 
years of PRIA-2 (fiscal year 2008-fiscal year 2012), the on-time 
completion rate was 99.3 percent. The table below contains the total 
number of actions completed and the number of those actions completed 
late under PRIA-1, PRIA-2, and PRIA-3.


----------------------------------------------------------------------------------------------------------------
                                                                  # of completed   # of actions     Percent on
                                              Fiscal Years            actions     completed late       time
----------------------------------------------------------------------------------------------------------------
PRIA 1................................  2004-2007...............           4,273               3           >99.9
PRIA 2................................  2008-2012...............           7,892              55            99.3
PRIA 3................................  2013....................           2,084              25            98.8
----------------------------------------------------------------------------------------------------------------


    Question. What would be the impact of funding below $128.3 million 
in future years? Please include impacts that address both inclusion and 
exclusion of a waiver of the minimum appropriation.
    Answer. As stated above, EPA's ability to meet the PRIA decision 
review timeframes is based on receiving both the minimum appropriation 
level specified in the law--$128.3 million--and the PRIA fees. Below 
that level, EPA is increasingly challenged to meet the PRIA timeframes 
as the number of actions increased substantially in 2013. The full 
impact of the current budget will be better understood at the end of 
fiscal year 2014. If, in the future, the minimum appropriations 
requirement is not met, and no waiver of that requirement is provided, 
then EPA's authority to collect PRIA fees would be suspended. The loss 
of PRIA fees, which on average generate about $15 million per year, 
would significantly impact EPA's ability to meet the timelines set 
forth in the legislation. The resulting delays in the pesticide 
registration process impact the ability of food producers to fight crop 
pests and effectively maintain food production.
    Question. In 2012, EPA stated that as a result of beach grant 
funds, the number of monitored beaches in the country has more than 
tripled. The President's budget proposes to eliminate categorical 
grants for the beach protection program. Given the current fiscal 
strain on State and local environmental agencies, what impact do you 
estimate the elimination of grant funds would have on the number of 
beaches monitored?
    Answer. We do not have information about the number of beaches that 
would not be monitored, or would be monitored on a reduced schedule.
    Question. There is growing concerns from a variety of stakeholders 
about EPA's willingness to ``Sue and Settle.'' It is my understand that 
Federal agencies including the EPA, the Fish and Wildlife Service 
(FWS), and the Department of Agriculture are opting not to appeal 
environmental lawsuits in an attempt to regulate rather than litigate. 
I am concerned settlements are being conducted without any transparency 
or public input. Often these settlements can yield new regulations 
imposing costly burden on agriculture, construction, manufacturing and 
other businesses. What is the number of lawsuits EPA has settled in the 
past year and how much EPA paid to resolve these lawsuits?
    Answer. Each settlement agreement is the result of a negotiation 
between opposing parties, with the Department Of Justice (DOJ) 
representing the Environmental protection Agency and the interests of 
the United States. In some cases, the agreements also go out for public 
comment, and are entered by a court only upon a finding that the terms 
are fair, reasonable, and in the public interest, and that the overall 
resolution is consistent with the underlying statute and allegations.
    In fiscal year 2013, the EPA did not pay fees in the settlement of 
any defensive environmental cases out of EPA's appropriated funds. In 
the EPA's most recent ``Attorney Fee and Cost Payments Obligated in 
Fiscal Year 2013 Under Equal Access for Justice Act'' report, located 
in the fiscal year 2015 Congressional Justification, the EPA reported 
12 settlements of defensive environmental cases in fiscal year 2013. 
These payments were all made through DOJ from the Judgment Fund 
administered by the Treasury Department. Total fees paid in those cases 
were approximately $423,267.50.
    The EPA does not and will not commit in a settlement agreement to 
any final, substantive outcome in a rulemaking or other decisionmaking 
process. Rather, in EPA rulemaking, there is an extensive and robust 
public process, designed specifically to provide for input and 
participation. The Administrative Procedure Act (APA) requires the 
Agency to provide public notice and an opportunity for comment on all 
proposed rules. This opportunity to comment is open to any interested 
party and comments submitted are carefully considered and often 
significantly shape the final rule. It is after the conclusion of that 
public process that Agency would publish a final rule.
    Question. I have concerns with EPA's mishandling of sensitive 
information belonging to farmers and livestock producers. It is my 
understanding this wide spread problem affected 30 or more States. The 
EPA has a responsibility to protect the American citizens' personal 
information from government mismanagement. What safeguards has EPA 
implemented to make sure that the personal information of farmers and 
livestock producers is not inadvertently released again?
    Answer. The EPA understands the need to protect personal 
information. The EPA has a Privacy Policy which establishes agency 
requirements for safeguarding the collection, access, use, 
dissemination, and storage of personally identifiable information and 
Privacy Act information in accordance with the Privacy Act of 1974, the 
E-Government Act of 2002, the Federal Information Security Management 
Act (FISMA), and policy and guidance issued by the President and the 
Office of Management and Budget. The EPA also has a Privacy Act Manual, 
which establishes policy and procedures for protecting the privacy of 
individuals who are identified in EPA's information systems. The EPA 
will continue to work together with our Federal partners, industry, and 
other stakeholders to ensure the agency continues to address the 
privacy interests of farmers.
    Question. Section 12313 of the Agricultural Act of 2014 amends 
section 402(I) of the Clean Water Act to reaffirm EPA's longstanding 
policy that Best Management Practices for forest-related activities are 
recognized and pollution discharge permits are not needed for 
stormwater runoff.
    Does EPA commit to implementing this provision as Congress 
intended?
    Answer. Prior to the Agricultural Act of 2014, the EPA revised its 
Phase I stormwater regulations to clarify that stormwater discharges 
from forest roads do not constitute stormwater discharges associated 
with industrial activity and that National Pollutant Discharge 
Elimination System (NPDES) permits are not required for these 
discharges. This is consistent with the Agricultural Act of 2014.
    Question. In what, if any, circumstances would EPA disregard 
congressional intent and in fact require this kind of permitting for 
forestry activities?
    Answer. The Agricultural Act of 2014 clearly directed that the EPA 
shall not require or direct any States to require an NPDES permit for 
runoff from forest roads. The EPA continues to review available 
information on the water quality impacts of stormwater discharges from 
forest roads. In addressing water quality impacts from these roads, the 
EPA will work with stakeholders and State and Federal partners to 
explore flexible, non-permitting approaches under the Clean Water Act. 
The EPA recognizes that effective best management practices exist that 
protect receiving waters and minimize impacts from forest roads.
    Question. The EPA recently announced a proposed rule on waters of 
the United States that identifies exempted agricultural conservation 
practices not subject to Clean Water Act permitting.
    Will this rule give EPA the authority to enter into negotiations 
with the Department of Agriculture related to the technical aspects of 
a conservation practice if a desired water quality benefit is not 
achieved?
    Answer. No, under the interpretive rule and associated Memorandum 
of Understanding (MOU), Natural Resources Conservation Service (NRCS) 
authority to develop conservation practices is unchanged. At the same 
time, however, the agencies' MOU contemplates continued collaboration 
among the agencies, including evaluating the implementation of relevant 
practice standards to ensure they are resulting in anticipated water 
quality benefits.
    Question. Would this new rule give EPA new abilities to usurp the 
expertise of the Department of Agriculture with regard to conservation 
standards?
    Answer. No. Nothing in the interpretive rule changes the roles or 
responsibilities of any of the three agencies. NRCS remains solely 
responsible under its authority for developing agricultural 
conservation practice standards.

                          SUBCOMMITTEE RECESS

    Senator Reed. With no further questions, thank you again, 
Madam Administrator. Thank you, Senator Murkowski. The hearing 
is adjourned.
    [Whereupon, at 10:47 a.m., Wednesday, April 9, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                       WEDNESDAY, APRIL 30, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:38 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Jack Reed (chairman) presiding.
    Present: Senators Reed, Tester, Merkley, Begich, Murkowski, 
and Blunt.

                       DEPARTMENT OF AGRICULTURE

                      United States Forest Service

STATEMENT OF TOM TIDWELL, CHIEF
ACCOMPANIED BY TONY DIXON, DIRECTOR, STRATEGIC PLANNING, BUDGET, AND 
            ACCOUNTABILITY

                 OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. Let me call the hearing to order.
    Good morning. This is the third hearing of the Interior 
Appropriations Subcommittee on the President's fiscal year 2015 
budget request, and today, we will discuss the budget for the 
United States Forest Service.
    I am very pleased to welcome Forest Service Chief, Tom 
Tidwell. Chief, thank you for your service, and for your 
support to the important programs of the Forest Service. Thank 
you very much.
    And I also recognize the agency's Budget Director, Tony 
Dixon, who is testifying before the subcommittee for the first 
time. So welcome, Tony. Good to have you here.
    Turning to the budget request for the Forest Service, the 
fiscal year 2015 request is a total of $5.7 billion, including 
$4.77 billion in discretionary spending. In addition, the 
President has proposed a significant budgetary shift to provide 
$954 million in fire suppression funding within the disaster 
cap.
    Since I assumed the chairmanship of this subcommittee, we 
have been forced to make unfortunate tradeoffs to provide the 
appropriate resources for fire suppression, both on the 
frontend--through increases in the 10-year average--and on the 
backend--through repayment of borrowing--because the 10-year 
average proved insufficient.
    In the last 2 years alone, we have been forced to carve out 
more than $1 billion from other accounts in order to pay for 
unanticipated emergency firefighting costs. This has been a 
change from traditional practice under which extraordinary 
firefighting costs were treated as emergencies, just like other 
disasters.
    These additional obligations have come at a cost in the 
investments we can make in public land maintenance and 
construction, water and sewer grants, land acquisition, and 
every other account funded in this bill. And I know you, Chief, 
are as worried as we are about the Forest Service just becoming 
``the fire service.'' That cannot happen.
    This is just as troubling to me as it is to my western 
colleagues. Indeed, I would note that my colleagues, Senators 
Wyden and Crapo, have introduced bipartisan legislation in the 
senate to deal with this problem. An identical bill has been 
introduced in the House by Congressman Mike Simpson, former 
chairman of the House Interior Appropriations Subcommittee, and 
it has been cosponsored by Representative Ken Calvert, the 
current chairman of the subcommittee.
    While Rhode Island does not have any national forest lands, 
we do rely on the Forest Service's expertise and grant programs 
for our State and private forested lands. We all agree that it 
is a Federal responsibility to fight fires on Federal lands to 
protect the life and property of Americans. But if we continue 
down the path that we have been forced under the current budget 
caps, we put in jeopardy the rest of the Forest Service's 
mission.
    For Rhode Island, that would mean losing the Forest 
Service's expertise in research and science that has led to 
breakthroughs to defend against the invasive species and 
disease that attack our trees in the country and in the city, 
Forest Legacy funds to protect threatened areas, and urban and 
community forest funds to get people outdoors.
    That is why I think what you have done, Chief, to work on 
the budget proposal to move a portion of the spending into the 
disaster cap is such a great step forward. It takes care of 
three problems that we have been struggling with.
    First, it removes the agency's need to borrow from non-fire 
accounts and provides a steady stream of funding throughout the 
fire season, so that you can do both your firefighting and your 
other work without setting aside funds within construction, 
land acquisition, and your mandatory programs in case there is 
a need for it.
    Second, it allows us to put emphasis on the programs that 
will help you prevent catastrophic fire in the future, such as 
hazardous fuels reduction, watershed and vegetation management, 
and inholdings acquisitions.
    Third, it protects the programs that would otherwise get 
cut within future budget proposals to pay for fire needs like 
research and State grant programs.
    So with this budget proposal and your recent acquisition of 
air tankers from the Coast Guard and next generation air 
tankercontractors, it is quite possible that fiscal year 2015 
could be the turning point in adopting a more rational approach 
to fire management. And you deserve much credit for this 
progress, Chief. Thank you very much.
    While I am pleased that we are able to move the 
administration to address the fire problem, I am disappointed 
to see the cuts to other programs like research, State and 
private forestry, and international forestry, even with the 
shift to firefighting resources, that are being proposed.
    I am looking forward to discussing with you how we can work 
together to restore and strengthen these programs as well.
    Now, before turning to Senator Murkowski, the bottom line 
here is, and I do not mean to sound too cute, but these 
firefighting funds are just burning up your entire budget. Our 
budget too, because what we have to provide for firefighting, 
we cannot provide for State water funds, infrastructure, 
national parks, a host of programs. So we have to get this 
right.
    With that, Senator Murkowski, please.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman, and welcome 
Chief.
    It is good to be examining the budget request for the 
Forest Service for fiscal year 2015. Mr. Chairman, I do not 
think we are going to need any assistance with firefighting 
here in Washington, DC this morning. It is a mess out there, it 
is so wet.
    Chief, I think I mentioned at the hearing last year, when 
we had the 2014 budget in front of us that, I said that it felt 
a little bit like Groundhog's Day. Well, I am back at Groundhog 
Day all over again. Every year, you and I have this 
conversation. You commit to working with me to improve the 
timber sale program and permitting for other multiple use 
activities on the Tongass, and then we move to the next year 
and, we are having the same conversation about really why 
things have not improved. And again, we are just facing the 
same thing today.
    Despite repeated pledges from the Forest Service to 
increase timber harvest levels, we continue to steadily march 
towards losing what remains of that timber industry in 
southeast Alaska.
    Our 2013 timber harvest numbers did improve a little bit to 
36 million board feet compared to 21 the year before, but you 
and I both know, Chief, that that is well, well below the 
allowable sales quantity of 267 million board feet. It is far 
short of what your own economists say that the market demand is 
in southeast, or what it takes to sustain any kind of a viable 
forest products industry within the region.
    I am trying to look on the positive side. I am trying to 
find some hopeful signs here that we might be turning the 
corner, but it seems like every time there is something out 
there, we run up against a roadblock. A great example, of 
course, is the Big Thorne sale. We have been talking about the 
Big Thorne sale. It was supposed to be bringing in 150 million 
board feet. This was the sale that everybody was counting on, 
the sale that your agency said was going to be absolutely 
necessary. It was going to be critical to making the transition 
to second growth that you keep talking about in the Tongass. 
Everybody knew that the Big Thorne was what was going to be 
able to help us piece it together.
    But what has happened to it? It has been on hold since 
September of last year. I hope you will have a little bit of an 
update for me this morning on when we might see this critical 
sale offered. Every year, I bring up the situation with the 
roadless rule exemption. On the 26th of March, the Ninth 
Circuit upheld the roadless rule exemption for the Tongass.
    I know that this administration did not defend the 
exemption. Alaska, my State, had to take it on itself. I am 
glad we did. I also know that this is not the end in the 
courts.
    So again, I think you are going to hear in my questions 
this morning a great of concern about what is going on within 
the Tongass, the impact of the roadless rule, how the ruling 
will affect management actions. In my view, I hope we are going 
to see balance restored with respect to the conservation and 
economic development there.
    Now, with regards to the budget and the chairman's comments 
here this morning, once again, you are proposing to consolidate 
several line items into one big pot called ``Integrated 
Resource Restoration.'' We talk about this, again, also every 
year. And I am sympathetic to the Forest Service's desire to 
improve efficiencies, but until we can really see some concrete 
results from these three pilot programs, I just cannot support 
making this program permanent across the agencies.
    You have a multiple use mandate there at the Forest 
Service, and one of the most important ways that we have here 
in Congress to ensure that you are following this mandate is 
having a budget that shows where and how much the agency is 
spending on activities that we, here in Congress, believe are 
important.
    So whether it is for timber, whether it is for recreation, 
habitat improvement, whatever it is, we cannot sacrifice our 
oversight role solely for the sake of efficiency. And again, I 
say this every year.
    The chairman speaks to the issue of fire borrowing. When we 
look to ways that we can improve financial management at the 
Forest Service, really, one of those ways is how we deal with 
the fire borrowing situation, which disrupts important programs 
by effectively robbing Peter to pay Paul until an undetermined 
date in the future. I think it is a bad way to budget, a bad 
way to manage important programs.
    I do share the goal of the propose fire cap adjustment, but 
I am concerned whether in its current form, it is the most 
fiscally responsible way to proceed.
    I do think that the administration's proposal is a good 
starting point for discussing how we deal with fire borrowing, 
but I think the committee, OMB, and the firefighting agencies 
need to work together to reach a resolution that not only fixes 
the problem, but is also politically tenable in the current 
fiscally constrained environment. So we need to be working 
together on this to find a workable solution.
    There are many other important issues we need to work on 
like how to effectively modernize our air tanker fleet, promote 
fire-adapted communities, and meet our obligations to 
communities that are dependent upon our national forests for 
economic survival.
    So I look forward to hearing your comments this morning, 
some updates, and then the questions and answers.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you. Do any of my colleagues want to 
make a brief opening statement?
    Senator Tester. Thank you, Mr. Chairman, and Ranking Member 
Murkowski. And I will be very brief.
    I want to thank you both, Mr. Dixon and Chief Tidwell for 
being here. I want to thank you for your work. Your agency, you 
know the area intimately, has a profound impact on Montana, 
whether it is from recreation, wildfires, sawmills, whatever it 
may be.
    My focus and my questions are going to be around the 
firefighting ability that you are going to have for aircraft, 
and it is going to be around some of the same things Senator 
Murkowski talked about, and that is timber cut.
    I can tell you, and you correct me if I am wrong, but I 
believe every timber sale in Montana was blocked. I will be the 
first one to fight not having public input on timber sales, 
because I think it is critically important. By the same token, 
I am really getting sick of the obstructionists, and I look 
forward to any ideas you might have to help streamline that 
process.
    With that, thank you, Mr. Chairman. I look forward to 
working with both these gentlemen and the Forest Service to 
make things better in our public lands.
    Senator Reed. Thank you very much.
    Chief Tidwell, please.

                 SUMMARY STATEMENT OF CHIEF TOM TIDWELL

                            KEY AUTHORITIES

    Mr. Tidwell. Mr. Chairman, members of the subcommittee, 
once again, it is a privilege to be here. Mr. Chairman, thank 
you for your opening remarks, Senator Murkowski for yours. You 
did an excellent job to make all the key points that I had 
planned to make in my opening remarks.
    I did want to reflect on last year when I was up here to 
testify. I was asking for your support for several key 
authorities that were about to expire: stewardship contracting, 
the Good Neighbor Authority. So I want to thank you for your 
good work to provide these key authorities through the 2014 
Appropriations bill, and also for your support for the Forestry 
Title in the Farm bill.

                    FIRE SUPPRESSION CAP ADJUSTMENT

    Those authorities, plus this budget request, really reflect 
the opportunity, the responsibility we have to restore and 
maintain our national forest and grasslands. Through this 
proposed budget fire suppression cap adjustment, we will 
finally be able to stop the disruptive practice of having to 
shutdown our projects every August and September, to stop the 
work that reduces the effects of fire, to stop the work that 
produces jobs just to be able to shift money to pay for fire 
suppression. I want to thank you, for the job you have done to 
repay those funds every 3 to 6 months later.

                     WILDFIRE DISASTER FUNDING ACT

    I, too, need to recognize the work from Senators Wyden and 
Crapo for introducing the Wildfire Disaster Funding Act and the 
members of the subcommittee that are cosponsors of this bill.
    Senator Murkowski, we do want to work with the committee on 
finding a solution for this. The legislation that is here in 
the Senate and the House, plus the work that we have been doing 
in the administration, I think is a very good starting place, 
and we do want to work with the subcommittee to be able to find 
a resolution to this issue once and for all.
    Over the last 10 years, fire funding has gone from 13 
percent of our budget to over 40 percent. The 10-year average 
has increased by $500 million, and just since 2012, the 10-year 
average has gone up $156 million. Now, under a constrained 
budget, these increases, they have to come from all the other 
programs. The other programs that are essential to provide all 
the benefits that people want, the public demands from their 
national forests.
    It also has had a critical impact to our staffing. Over 
this period of time, our staffing in our national forest 
system, the folks that manage the national forests, has gone 
down 35 percent; staffing and forest management, down 49 
percent. Now, at the same time, we are actually putting out 
about the same level of outputs that we worked 12 years ago 
with a much reduced staff, and I give a lot of credit to our 
work, our employees. They are doing an outstanding job to work 
with the communities and partners to be able to do as much work 
as they possibly can. But it is time to recognize that 
something needs to change here.
    Now, I cannot change that the fire seasons are now 70 to 80 
days longer. The fires are burning hotter. We are dealing with 
these extensive droughts that we will, no doubt, talk about 
today, and more and more homes are in the Wildland Urban 
Interface. But what we can do, by increasing the pace and scale 
of restoration, we can reduce the effects of wildfires to our 
community, making it easier for us to suppress these fires. And 
we can do that by what this budget is proposing with the 
increased funding that we are asking for in some very key 
programs.

                        FISCAL YEAR 2015 BUDGET

    This request is $125 million less than in 2014 enacted, 
which reflects the difficult choices that we have had to make 
to address the deficit reduction. But it does provide for some 
key increases in programs that will help us to restore our 
national forests, reduce the threat of wildfire, reduce the 
threat to wildlife, to threatened and endangered species, and 
also reduce the impact to recreational settings that are the 
reason 170 million people visit the national forest and 
grasslands every year.

                    FIRE SUPPRESSION CAP ADJUSTMENT

    Now, this level of preparedness, it will still provide for 
a level of funding that will suppress 98 percent of all the 
fires that we take initial attack on. It also requests a 
funding level to cover the costs for 99 percent of our 
wildfires. Then it requests a fire suppression cap adjustment 
that basically will cover about 1 percent of our fires, which 
equals about 30 percent of the cost. It is these fires that, we 
feel, should be considered a natural disaster, and that is the 
purpose of the budget fire suppression cap adjustment.
    Now is the time, for us to make the shift. Chairman as you 
mentioned, in 2015, it could be the time when we recognize that 
we have actually made a change to address the fire suppression 
issue, and at the same time to be able to increase our 
investment in the national forests and grasslands.

                           PREPARED STATEMENT

    The science is clear. It is supported by the results on the 
ground. We can reduce the effects. We can reduce the effects of 
the severity of insect and disease outbreaks. We can reduce the 
impacts to water quality, but we must increase the pace and 
scale of our restoration.
    So again, I want to thank you for the opportunity to be 
here to address the committee, and I look forward to your 
questions.
    [The statement follows:]
                Prepared Statement of Chief Tom Tidwell
    Mr. Chairman and members of the subcommittee, thank you for 
inviting me here today to testify on the President's budget request for 
the Forest Service for fiscal year 2015. I appreciate the support this 
subcommittee has shown for the Forest Service in the past, and in 
particular, thank you for your hard work on the fiscal year 2014 
appropriations act. When I testified before you last year, there were a 
number of important authorities, like stewardship contracting and good 
neighbor authority, which were set to soon expire. Thanks to the hard 
work of Congress on the 2014 appropriations act and the 2014 farm bill, 
we are in a much better position this year. I look forward to 
continuing to work together with members of the subcommittee to ensure 
that stewardship of our Nation's forests and grasslands continues to 
meet the desires and expectations of the American people. I am 
confident that this budget will allow the Forest Service to meet this 
goal while demonstrating fiscal restraint, efficiency, and cost-
effective spending.
    The fiscal year 2015 President's budget for the Forest Service 
focuses on three key areas: restoring resilient landscapes, building 
thriving communities, and managing wildland fires. It calls for a 
fundamental change in how wildfire suppression is funded. It proposes a 
new and fiscally responsible funding strategy for wildland fire, 
contributes to long-term economic growth, and continues our efforts to 
achieve the greatest benefits for the taxpayer at the least cost. This 
budget will enable us to more effectively reduce fire risk, manage 
landscapes more holistically, and increase resiliency of the Nation's 
forests and rangelands as well as the communities that border them.
    The President's 2015 budget also includes a separate, fully paid 
for $56 billion Opportunity, Growth, and Security Initiative (OGS 
Initiative). The Initiative identifies additional discretionary 
investments that can spur economic progress, promote opportunity, and 
strengthen national security. The OGS Initiative includes funding for 
Forest Service programs. The OGS Initiative includes $18 million for 
Research and Development and would focus on energy security and 
national economic stability while simultaneously addressing our 
conservation and restoration goals. In addition, the OGS Initiative 
includes $61 million for Facilities and Trails to provide essential 
infrastructure maintenance and repair to sustain the benefits of 
existing infrastructure as domestic investments to grow our economy.
    As part of the President's Opportunity, Growth, and Security 
Initiative and a permanent legislative proposal, the Forest Service 
would also have the opportunity to compete for conservation and 
infrastructure project funding included within the Centennial 
initiative. The Centennial initiative supporting the 100th anniversary 
of the National Park Service features a competitive opportunity for the 
public land management bureaus within the Department of the Interior 
and the Forest Service to address conservation and infrastructure 
project needs. The program would be managed within Interior's Office of 
the Secretary in conjunction with the Department of Agriculture with 
clearly defined project criteria. The administration proposes $100 
million for the National Park Service anniversary's Centennial Land 
Management Investment Fund, as part of the Opportunity, Growth and 
Security Initiative and $100 million for conservation and 
infrastructure projects annually for 3 years as part of a separate 
legislative proposal.
    The Opportunity, Growth, and Security Initiative also includes a $1 
billion Climate Resilience Fund. A portion of this funding source 
allows us to continue to invest in research to better understand the 
projected impacts of climate change and how we can better prepare our 
communities and infrastructure. The Fund would also serve to fund 
breakthroughs in technologies and resilient infrastructure development 
that will make us more resilient in the face of changing climate. The 
Fund proposal includes three Forest Service programs: an increase of 
$50 million for State Fire Assistance Grants to increase the number of 
communities that are ``Firewise'' and the number of communities 
implementing building codes and building protection requirements, 
resulting in increased protection of communities, their residents and 
private property; an increase of $50 million for Integrated Resource 
Restoration (IRR) and Hazardous Fuels to enhance support for public 
lands managers to manage landscape and watershed planning for increased 
resilience and risk reduction; and an increased $25 million for Urban 
and Community Forestry to maintain, restore and improve urban forests 
mitigating heat islands and other climate change impact.
                      value of the forest service
    Our mission at the Forest Service is to sustain the health, 
diversity, and productivity of the Nation's forests and grasslands to 
meet the needs of present and future generations. The Forest Service 
manages a system of national forests and grasslands totaling 193 
million acres in 44 States and Puerto Rico, an area almost twice the 
size of California. These lands entrusted to our care provide some of 
the richest resources and most breathtaking scenery in the Nation, are 
the source of drinking water for millions of Americans, and support 
hundreds of thousands of jobs. Thousands of communities across the 
Nation depend on the national forests for their social well-being and 
economic prosperity.
    Since our founding in 1905, as the Nation's leading forestry 
organization, we continue to serve Americans by supporting the 
sustainable stewardship of more than 600 million acres of non-Federal 
forest land across the Nation, including 423 million acres of private 
forest land, 69 million acres of State forest land, 18 million acres of 
Tribal forests, and over 100 million acres of urban and community 
forests. This commitment to sustainable forest management helps 
Americans use their lands while caring for them in ways that benefit 
them, their families, their communities, and the entire Nation.
    We also maintain the largest forestry research organization in the 
world, with more than a century of discoveries in wood and forest 
products, fire behavior and management, and sustainable forest 
management. We are pursuing cutting-edge research in nanotechnology and 
green building materials, expanding markets for woody biomass. Land 
managers across the Nation use the results of our research to conserve 
forests, ensuring continuation of a full range of benefits for future 
generations.
    America's forests, grasslands, and other open spaces are integral 
to the social, ecological, and economic well-being of the Nation. They 
play a vital role in providing public benefits such as clean air, clean 
water, mineral and energy production, and fertile soils for supporting 
timber, forage, carbon storage, food and fiber, fish and wildlife 
habitat, along with myriad opportunities for outdoor recreation. The 
Forest Service provides a valuable service to the public by restoring 
and improving forest, grassland, and watershed health; by producing new 
knowledge through our research; and by providing financial and 
technical assistance to partners, including private forest landowners.
    The benefits from Forest Service programs and activities include 
jobs and economic activity. Jobs and economic benefits stem not only 
from public use of the national forests and grasslands, but also from 
Forest Service management activities and infrastructure investments. We 
completed an economic analysis that calculated activities on the 
National Forest System contributed over $36 billion to America's gross 
domestic product, and supported nearly 450,000 jobs during fiscal year 
2011.
    Through our Job Corps and other programs including the 21st Century 
Conservation Service Corps, we provide training and employment for 
America's youth, and we help veterans transition to civilian life. Our 
Urban and Community Forestry Program has provided jobs and career-
training opportunities for underemployed adults and at-risk youth.
    The Forest Service routinely leverages taxpayer funds by engaging 
partners who contribute to investments in land management projects and 
activities. In fiscal year 2013, for example, we entered into more than 
8,200 grants and agreements with partners who made a total of about 
$540 million in cash and noncash contributions. Combined with our own 
contribution of nearly $730 million, the total value of these 
partnerships was over $1.27 billion.
    Other noncommercial uses provide crucial benefits and services to 
the American people. Many Tribal members use the national forests and 
grasslands for hunting, fishing, and gathering wild foods and other 
materials for personal use. They also use sacred sites on National 
Forest Service (NFS) lands for ritual and spiritual purposes.
    National forests and grasslands attract about 160 million visits 
annually, and 55 percent of those visitors engage in strenuous physical 
activities. Based on studies showing that outdoor activities contribute 
to improved health and increased fitness, the availability of the 
Nation's forests and grasslands to all Americans provides other 
tangible benefits. In addition, since more than 83 percent of Americans 
live in metropolitan areas where opportunities to experience nature are 
often reduced, the Forest Service has developed an array of programs 
designed to get people into the woods, especially children. Each year, 
we reach an average of more than 5 million people with conservation 
education programs.
                       challenges to conservation
    Our Nation's forest and grassland resources continue to be at risk 
due to drought, uncharacteristically severe wildfire behavior, invasive 
species, and outbreaks of insects and disease. Although biodiversity 
remains high on national forests and grasslands, habitat degradation 
and invasive species pose serious threats to 27 percent of all forest-
associated plants and animals, a total of 4,005 species.
    The spread of homes and communities into wildfire-prone areas is an 
increasing management challenge. From 2000 to 2030, the United States 
could see substantial increases in housing density on 44 million acres 
of private forest lands nationwide, an area larger than North and South 
Carolina combined. More than 70,000 communities are now at risk from 
wildfire, and less than 15,000 have community wildfire protection 
plans.
    This same growth and development are also reducing America's forest 
habitat and fragmenting what remains. From 2010 to 2060, the United 
States is predicted to lose up to 31 million acres of forested lands, 
an area larger than Pennsylvania.
    Forest Service scientists predict that fire seasons could return to 
levels not seen since the 1940s, exceeding 12 million to 15 million 
acres annually. Highlighting these concerns, for the first time since 
the 1950s, more than 7 million acres burned nationwide in 2000 and more 
than 9 million acres burned in 2012. In 2013, the largest fire ever 
recorded in the Sierra Nevada occurred, and a devastating blaze in 
Arizona killed 19 highly experienced firefighters.
                     budget request and focus areas
    To meet the challenges ahead, the Forest Service is focusing in 
three key areas: restoring resilient landscapes, building thriving 
communities, and managing wildland fires. We continue to implement 
cultural initiatives and cost savings measures focused on achieving a 
safer, more inclusive, and more efficient organization. To help us 
achieve these goals, the President's proposed overall budget for 
discretionary funding for the Forest Service in fiscal year 2015 is 
$4.77 billion. The budget also proposes a new and fiscally responsible 
funding strategy for wildland fire that recognizes that catastrophic 
wildland fires should be considered disasters, funded in part by 
additional budget authority provided through a budget cap adjustment 
for wildland fire suppression. Combined with the funding for fire 
suppression in the discretionary request, this strategy will fully fund 
estimated wildfire suppression funding needs.
Restoring Resilient Landscapes
    Our approach to addressing ecological degradation is to embark on 
efforts that support ecological restoration allowing for healthier more 
resilient ecosystems. In cooperation with our partners across shared 
landscapes, we continue to ensure that the Nation's forests and 
grasslands retain their ability to deliver the social, economic, and 
ecological values and benefits that Americans want and need now and for 
generations to come.
    In February 2011, President Obama launched the America's Great 
Outdoors Initiative, setting forth a comprehensive agenda for 
conservation and outdoor recreation in the 21st century. In tandem with 
the President's initiative, Secretary of Agriculture Vilsack outlined 
an All Lands vision for conservation calling for partnerships and 
collaboration to reach shared goals for restoring healthy, resilient 
forested landscapes across all landownerships nationwide.
    In response, the Forest Service has launched an initiative to 
accelerate restoration across shared landscapes. The Accelerated 
Restoration Initiative builds on Integrated Resource Restoration (IRR), 
the Collaborative Forest Landscape Restoration Program (CFLRP), the 
2012 planning rule, and other restoration-related programs and 
initiatives to pick up the pace of ecological restoration while 
creating more jobs in rural communities. Our collaborative, holistic 
approach to restoring forest and grassland health relies on the State 
Forest Action Plans and the Forest Service's own Watershed Condition 
Framework to identify high-priority areas for restoration treatments.
    In fiscal year 2012, Congress authorized the Forest Service to 
pilot test the combination of multiple budget line items into a single 
line item for IRR. By combining funds from five budget line items we 
can better integrate and align watershed protection and restoration 
into all aspects of our management. In fiscal year 2013, our integrated 
approach restored almost over 2,533,000 acres of forest and grassland, 
decommissioned 1,490 miles of roads, and restored 4,168 miles of stream 
habitat substantially improving conditions across 12 entire watersheds 
across the NFS. Given the success demonstrated in the three pilot 
regions, we propose fully implementing IRR across the entire Forest 
Service in fiscal year 2015. We propose a national IRR budget of $820 
million. Investing in IRR in fiscal year 2015 is expected to result in 
2,700,000 watershed acres treated, 3.1 billion board feet of timber 
volume sold, approximately 2,000 miles of road decommissioned, and 
3,262 miles of stream habitat restored or enhanced. An estimated 26 
watersheds will be restored to a higher condition class in fiscal year 
2015.
    CFLRP was created in 2009 to help restore high-priority forested 
landscapes, improve forest health, promote job stability, create a 
reliable wood supply, and to reduce firefighting risks across the 
United States. The Secretary of Agriculture selected 23 large-scale 
projects for 10-year funding. Although the projects are mostly on NFS 
land, the collaborative nature of the program ties communities to local 
forest landscapes, engaging them in the work needed to restore the 
surrounding landscapes and watersheds. We propose to increase 
authorization for this successful collaborative program in the fiscal 
year 2015 President's budget. We propose to increase the program 
authorization to $80 million and are requesting $60 million in fiscal 
year 2015 to continue implementation of the current 23 projects and for 
inclusion of additional projects. All of the existing projects are on 
track to meet their 10-year goals, and to date, more than 588,461 acres 
of wildlife habitat have been improved, while generating 814 million 
board feet of timber and 1.9 million green tons of biomass for energy 
production and other uses.
    To gain efficiencies in our planning efforts, the Forest Service is 
moving forward with implementing a new land management planning rule. 
The new rule requires an integrated approach to forest plan preparation 
and multilevel monitoring of outcomes that allows for adaptive 
management, improved project implementation, and facilitated landscape 
scale restoration. We are also working to be more efficient in our 
environmental analyses under the National Environmental Policy Act 
(NEPA) through development of three restoration-related categorical 
exclusions promoting hydrologic, aquatic, and landscape restoration 
approved in 2013. Other investments in ``Electronic Management of 
NEPA'' (eMNEPA) have significantly reduced administrative costs; we 
estimate that we save approximately $17 million each year because of 
these investments. Collectively, these efforts will help land managers 
to focus on collaborative watershed restoration efforts that also 
promote jobs and economic opportunities in rural communities.
Building Thriving Communities
    The Forest Service works to build thriving communities across the 
Nation by helping urban communities reconnect with the outdoors, by 
expanding the benefits that both rural and urban residents get from 
outdoor recreation, and by providing communities with the many economic 
benefits that result from sustainable multiple-use management of the 
national forests and grasslands.
    Through our Recreation, Wilderness and Heritage program, we are 
dedicated to serving tens of millions of recreation visitors each year. 
Rural communities rely on the landscapes around them for hunting, 
fishing, and various amenities; the places they live are vital to their 
identity and social well-being. We maintain these landscapes for the 
character, settings, and sense of place that people have come to 
expect, such as popular trail corridors and viewsheds.
    In support of the President's America's Great Outdoors Initiative 
and the First Lady's ``Let's Move'' initiative, we are implementing a 
Framework for Sustainable Recreation. The framework is designed to 
ensure that people of all ages and from every socioeconomic background 
have opportunities to visit their national forests and grasslands--and, 
if they wish, to contribute through volunteer service. We focus on 
sustaining recreational and heritage-related activities on the National 
Forest System for generations to come. That includes maintaining and 
rehabilitating historic buildings and other heritage assets for public 
use, such as campgrounds and other historic facilities built by the 
Civilian Conservation Corps.
    A significant portion of our budget to sustain operations for 
outdoor recreation--roughly 20 percent--comes from fees collected under 
the Federal Lands Recreation Enhancement Act (FLREA). Of the fees 
collected, 95 percent are locally reinvested to maintain and restore 
the facilities and services for outdoor recreation that people want and 
need. We propose permanent authority for the FLREA while clarifying its 
provisions and providing more consistency among agencies. This is an 
interagency proposal with the Department of the Interior.
    For decades, the Forest Service has focused on protecting and 
restoring critical forested landscapes, not only on the national 
forests, but also on non-Federal lands. All 50 States and Puerto Rico 
prepared comprehensive State Forest Action Plans identifying the 
forested landscapes most in need of protection and restoration. Based 
on the State plans, the Forest Service has been working with State and 
other partners to tailor our programs accordingly, applying our limited 
resources to the most critical landscapes.
    In fiscal year 2014, we began building on our successful State and 
Private Forestry Redesign initiative through a new program called 
Landscape Scale Restoration. The program allows States to continue 
pursuing innovative, landscape-scale projects across the Forest Health 
Management, State Fire Assistance, Forest Stewardship, and Urban and 
Community Forestry programs without the limitation of a specific mix of 
program funding. The program is designed to capitalize on the State 
Forest Action Plans to target the forested areas most in need of 
restoration treatments while leveraging partner funds. We propose 
funding the new program at almost $24 million.
    We are also using the State Forest Action Plans to identify and 
conserve forests critical for wildlife habitat and rural jobs through 
our Forest Legacy Program. Working through the States, we provide 
working forests with permanent protection by purchasing conservation 
easements from willing private landowners. As of February 2014, the 
Forest Legacy Program had protected more than 2.36 million acres of 
critical working forests, benefiting rural Americans in 42 States and 
Puerto Rico.
    We propose $53 million in discretionary funding for Forest Legacy 
and $47 million in mandatory funds, from the Land and Water 
Conservation Fund (LWCF), for a total of $100 million. The increase is 
a key component of the President's America's Great Outdoors Initiative 
to conserve critical landscapes and reconnect Americans to the outdoors 
through reauthorizing the LWCF as fully mandatory funds in fiscal year 
2016.
    In a similar vein, our Land Acquisition Program is designed to 
protect critical ecosystems and prevent habitat fragmentation. In 
accordance with the President's America's Great Outdoors Initiative, we 
worked with the Department of the Interior to establish a Federal 
interagency Collaborative Landscape Planning Program, designed to 
leverage our joint investments and coordinate our efforts to protect 
intact, functioning ecosystems across entire landscapes. Land 
acquisitions are a proven value for the taxpayer, making it easier and 
less expensive for people to access their public lands--and easier and 
less expensive for the Forest Service to manage and restore the lands 
entrusted to our care. An analysis by The Trust for Public Land showed 
that every $1 invested in Federal land acquisition returns $4 to the 
taxpayer; taking returns beyond 10 years into account, the benefits are 
even greater.
    The President's fiscal year 2015 budget proposes $51 million in 
discretionary funding for our Federal Land Acquisition program and 
almost $76.7 million in mandatory funding from the LWCF, for a combined 
total of $127.7 million. These mandatory funds are part of the 
President's proposed LWCF reauthorization with fully mandatory funds 
starting in fiscal year 2016.
    Working with the Department of the Interior, we propose to 
permanently authorize annual mandatory funding, without further 
appropriation or fiscal year limitation for the Departments of the 
Interior and Agriculture LWCF programs beginning in fiscal year 2015. 
Starting in 2016, $900 million annually in permanent funds would be 
available. During the transition to full permanent funding in 2015, the 
budget proposes $900 million in total LWCF funding, comprised of $550 
million in permanent and $350 million discretionary funds.
    Another legislative proposal listed in our fiscal year 2015 budget 
is an amendment to the Small Tracts Act to provide land conveyance 
authority for small parcels, less than 40 acres, to help resolve 
encroachments or trespasses. Proceeds from the sale of National Forest 
System lands under this proposed authority would be collected under the 
Sisk Act and used for future acquisitions and/or enhancement of 
existing public lands.
    We are also helping communities use their wood resources for 
renewable energy. Through the Forest Service's Woody Biomass 
Utilization Grants Program, we are funding grants to develop community 
wood-to-energy plans and to acquire or upgrade wood-based energy 
systems and in fiscal year 2013, State and Private Forestry awarded 10 
biomass grant awards totaling almost $2.5 million to small businesses 
and community groups. In an interagency effort with the Rural Utilities 
Service, Rural Housing Service, and Rural Business-Cooperative Service 
within Department of Agriculture (USDA) Rural Development and the Farm 
Service Agency, the USDA Wood to Energy Initiative synergistically 
facilitates achievement of the cooperating agencies' goals. The Forest 
Service leverages its small amount of grant funds with the Rural 
Development's grant and loan programs by providing subject matter 
expertise and technical assistance in the early stages of project 
development, so the proponents can successfully compete for Rural 
Development's loans and grants. Our goal is lower energy bills, greater 
rural prosperity, and better environmental outcomes overall.
    Better environmental outcomes result, in part, from removing woody 
materials to restore healthy, resilient forested landscapes. Many of 
the materials we remove have little or no market value, and by finding 
new uses for them through our Research and Development Programs, we can 
get more work done, producing more jobs and community benefits. Our 
Bioenergy and Biobased Products Research Program is leading the way in 
researching wood-based energy and products. Through discoveries made at 
our Forest Products Lab, woody biomass can now be used to develop 
cross-laminated timber for building components such as floors, walls, 
ceilings, and more. Completed projects have included the use of cross-
laminated panels for 10-story high-rise buildings.
    Over 83 percent of America's citizens now live in urban areas. For 
most Americans, their main experience of the outdoors comes from their 
local tree-lined streets, greenways, and parks, not to mention their 
own backyards. Fortunately, America has over 100 million acres of urban 
forests, an area the size of California. Through our Urban and 
Community Forestry Program, the Forest Service has benefited more than 
7,000 communities, home to 196 million Americans, helping people reap 
the benefits they get from trees, including energy conservation, flood 
and pollution control, climate change mitigation, and open spaces for 
improved quality of life.
    We are expanding our work with cities such as New York, 
Philadelphia, and Los Angeles, working with an array of partners in the 
Urban Waters Federal Partnership to restore watersheds in urban areas. 
We are also helping communities acquire local landscapes for public 
recreation and watershed benefits through our Community Forest and Open 
Space Conservation Program, which is funded at $1.7 million in the 
fiscal year 2015 President's budget. Our goal is to help create a 
Nation of citizen-stewards committed to conserving their local forests 
and restoring them to health for all the benefits they get from them.
    Our community focus supports the President's America's Great 
Outdoors Initiative to achieve landscape-scale restoration objectives, 
connect more people to the outdoors, and support opportunities for 
outdoor recreation while providing jobs and income for rural 
communities. Building on existing partnerships, we have established a 
21st Century Conservation Service Corps to help us increase the number 
of work and training opportunities for young people and veterans while 
accomplishing high-priority conservation and restoration work on public 
lands.
Managing Wildland Fires
    The administration has worked this year to analyze and develop a 
strategy to address catastrophic fire risk. The budget calls for a 
change in how wildfire suppression is funded in order to reduce fire 
risk, to more holistically manage landscapes, and to increase the 
resiliency of the Nation's forests and rangelands and the communities 
that surround them. The cost of suppression has grown from 13 percent 
of the agency's budget just 10 years ago to over 40 percent in 2014. 
This increase in the cost of wildland fire suppression is subsuming the 
agency's budget and jeopardizing its ability to implement its full 
mission. The growth in the frequency, size, and severity of fires in 
recent years; along with the continual expansion of the wildland urban 
interface (WUI) have all increased the risks of catastrophic fires to 
life and property. Collectively these factors have resulted in 
suppression costs that exceeded amounts provided in annual 
appropriations requiring us to transfer funds from other programs to 
cover costs. This shift in funding is creating a loss in momentum for 
critical restoration and other resource programs as fire transfers 
deplete the budget by up to $500 million annually.
    The fiscal year 2015 budget proposes a new funding strategy that 
recognizes the negative effects of funding fire suppression as we have 
historically. The budget proposes funding catastrophic wildland fires 
similar to other disasters. Funded in part by additional budget 
authority provided through a budget cap adjustment for wildfire 
suppression, the budget proposes discretionary funding for wildland 
fire suppression at a level equal to 70 percent of the estimated 10-
year average suppression costs, which reflects the level of spending 
associated with suppression of 99 percent of wildfires. In addition, 
the budget includes up to $954 million to be available under a disaster 
funding cap adjustment to meet suppression needs above the base 
appropriation. This proposed funding level includes 30 percent of the 
10-year average of fire suppression costs and the difference to the 
upper limit of the 90th percentile range forecast for suppression costs 
for fiscal year 2015. This additional funding would be accessed with 
Secretarial declaration of need or imminent depletion of appropriated 
discretionary funds. This strategy provides increased certainty in 
addressing growing fire suppression needs, better safeguards non-
suppression programs from transfers that diminish their effectiveness, 
and allows us to stabilize and invest in programs that more effectively 
restore forested landscapes, treat forests for the increasing effects 
of climate change, and prepare communities in the WUI for future 
wildfires.
    Our evolving approach to managing wildland fire is integral to 
meeting our goals of safety, landscape-scale restoration, cross-
boundary landscape conservation, and risk management. We continue to 
learn more about wildland fire, and we continue to apply what we learn 
through fire and risk management science in partnership with States, 
communities, and other Federal agencies. We strive to maximize our 
response capabilities and to support community efforts to reduce the 
threat of wildfire and increase ecosystem resilience. The agency has 
made great progress in its continued focus on risk-based decisionmaking 
when responding to wildfires, and in 2015 will continue this important 
work to better inform decisionmakers on the risks and trade-offs 
associated with wildfire management decisions. The budget also furthers 
efforts to focus hazardous fuels treatments on 1.4 million WUI acres 
focused on high priority areas identified in Community Wildfire 
Protection Plans.
    Through our Hazardous Fuels Program, the Forest Service controls 
fuels by removing buildups of dead vegetation and by thinning overly 
dense forests that can be hazardous to lives, homes, communities, and 
wildland resources. From fiscal year 2001 to fiscal year 2013, the 
Forest Service treated about 33 million acres, an area larger than 
Mississippi. For fiscal year 2015, we propose $358.6 million for our 
Hazardous Fuels program. We also propose performing non-WUI Hazardous 
Fuels work within the IRR line item in order to accomplish work more 
efficiently. With more than 70,000 communities in the WUI at risk from 
wildfire, the Forest Service is working through cross-jurisdictional 
partnerships to help communities become safer from wildfires. Through 
the Firewise program, the number of designated Firewise communities 
rose from 400 in fiscal year 2008 to nearly 1,000 in fiscal year 2013.
    Our Hazardous Fuels program is also designed to help firefighters 
manage wildfires safely and effectively, and where appropriate, to use 
fire for resource benefits. Our Preparedness program is designed to 
help us protect lives, property, and wildland resources through an 
appropriate, risk-based response to wildfires. Preparedness has proven 
its worth; Fire Program Analysis, a strategic management tool, shows 
that every $1 subtracted from preparedness funding adds $1.70 to 
suppression costs because more fires escape to become large and large 
fires are more expensive to suppress. Unless we maintain an adequate 
level of preparedness, we risk substantial increases in overall fire 
management costs.
    Airtankers are a critical part of our response to wildfire. Their 
use plays a crucial role in keeping some fires small and greatly 
assists in controlling the large fires. Accordingly, we are 
implementing a Large Airtanker Modernization Strategy to replace our 
aging fleet with next-generation airtankers. Our strategy, reflected in 
our budget request, would fund both the older aircraft still in 
operation and the next-generation airtankers currently under contract. 
It would also cover required cancellation fees and the C-130 Hercules 
aircraft transferred by the U.S. Coast Guard.
                          safety and inclusion
    In addition to our focus on restoring resilient landscapes, 
building thriving communities, and managing wildland fire, we continue 
our agency efforts to become a safer, more diverse, and more inclusive 
organization.
    Accomplishing our work often takes us into high-risk environments. 
For that reason, for several years now, we have undertaken a learning 
journey to become a safer organization. Every one of our employees has 
taken training to become more attuned to safety issues and the need to 
manage personal risk. As part of this effort, safety means recognizing 
the risk and managing it appropriately. Our goal is to become a zero-
fatality organization through a constant, relentless focus on safety.
    Recognizing that more than 83 percent of Americans live in 
metropolitan areas, the Forest Service is outreaching to urban and 
underserved communities to introduce more people to opportunities to 
get outdoors, to participate in NFS land management, and to engage in 
conservation work in their own communities. Part of this inclusiveness 
is creating new opportunities to come into contact with and to hiring 
individuals from various backgrounds that might not otherwise be 
exposed to other Forest Service programs.
                              cost savings
    The Forest Service is committed to achieving the greatest benefits 
for the taxpayer at the least cost. Mindful of the need for savings, we 
have taken steps to cut operating costs. Taking advantage of new 
technologies, we have streamlined and centralized our financial, 
information technology, and human resources operations to gain 
efficiencies and save costs. We continue to work with other USDA 
agencies under the Blueprint for Stronger Service to develop strategies 
for greater efficiencies in key business areas. In fiscal year 2013, we 
saved millions of dollars through additional measures to promote 
efficiencies, ranging from an $800,000 annual savings through 
consolidation of local telephone service accounts to right-sizing our 
existing Microsoft software licenses, which yielded over $4 million in 
savings in fiscal year 2013. In fiscal year 2013, we also instituted 
measures that will yield $100 million in cost pool savings by fiscal 
year 2015.
    Another cost saving highlight is the Forest Service completion of 
the design and construction for the renovation of the Yates Building on 
schedule, and within budget. On January 13, 2014, following completion 
of the renovation, all 762 Washington Office located employees apart 
from International Programs were finally located in the same building. 
Beside these benefits, this move is expected to save $5 million 
annually in leasing costs.
                             future outlook
    For more than a century, the Forest Service has served the American 
people by making sure that their forests and grasslands deliver a full 
range of values and benefits. America receives enormous value from our 
programs and activities, including hundreds of thousands of jobs and 
annual contributions to the economy worth many times more than our 
entire annual discretionary budget. Especially in these tough economic 
times, Americans benefit tremendously from investing in Forest Service 
programs and activities.
    Now we are facing some of the greatest challenges in our history. 
Invasive species, climate change effects, regional drought and 
watershed degradation, fuel buildups and severe wildfires, habitat 
fragmentation and loss of open space, and devastating outbreaks of 
insects and disease all threaten the ability of America's forests and 
grasslands to continue delivering the ecosystem services that Americans 
want and need. In response, the Forest Service is increasing the pace 
and scale of ecological restoration. We are working to create healthy, 
resilient forest and grassland ecosystems capable of sustaining and 
delivering clean air and water, habitat for wildlife, opportunities for 
outdoor recreation, and many other benefits.
    Our budget request focuses on the public's highest priorities for 
restoring resilient landscapes, building thriving communities, and 
safely managing wildland fire while providing an effective emergency 
response. Our requested budget will enable us to address the growing 
extent and magnitude of our management challenges and the mix of values 
and benefits that the public expects from the national forests and 
grasslands. We will continue to lead the way in improving our 
administrative operations for greater efficiency and effectiveness in 
mission delivery. Our research will continue to solve complex problems 
by creating innovative science and technology for the protection, 
sustainable management, and use of all forests, both public and 
private, for the benefit of the American people. Moreover, we are 
working ever more effectively to optimize our response to cross-cutting 
issues by integrating our programs and activities.
    We can achieve these priorities through partnerships and 
collaboration. Our budget priorities highlight the need to strengthen 
service through cooperation, collaboration, and public-private 
partnerships that leverage our investments to reach shared goals. 
Through strategic partnerships, we can accomplish more work while also 
yielding more benefits for all Americans, for the sake of all 
generations to come.
    This concludes my testimony, Mr. Chairman. I would be happy to 
answer any questions that you or the subcommittee members have for me.

                             WILDLAND FIRE

    Senator Reed. Thank you very much, Chief.
    Mr. Dixon, do you have any comment? Thank you very much.
    Every year, Chief, we sit down at this moment, which is, 
coincidentally, before the fire season and we anticipate what 
it will be like, and it would help us if you could give us your 
sense of what you expect going forward, particularly as we are 
all aware of, droughts in many parts of the West.
    Can you give us a sense of what you expect? And even with 
the significant resources you are asking for, do you think they 
will be adequate?
    Mr. Tidwell. We are anticipating a very active fire season 
this year, especially in the southwest.
    In California, if you are watching the news, it has a 
record drought, some of the driest conditions, and this follows 
the driest year on record in California and last year, but it 
is just one of the areas. We have had to bring on additional 
resources earlier this year to be prepositioned to be able to 
deal with that in California. So we do have the resources that 
we need to be able to deal with the suppression issue.

                           BUDGET CHALLENGES

    However, we do expect that the cost of this fire season is 
going to exceed the funding that we have available this year. 
You can anticipate that I will be informing the subcommittee of 
the need to be able to transfer money. That is based on the 
information that we have this year at this point in time. So it 
is going to be very similar to what we had last year, and some 
indications, it is going to be even more active than the fire 
season we had last year.

                    FIRE SUPPRESSION CAP ADJUSTMENT

    Senator Reed. Thank you.
    In terms of the approach that you are taking which, in a 
very simplified way, would put some of the funding into the 
emergency category and the bulk of it remaining under our 
purview, and has to be offset by other programs. That requires 
coordination with several committees, including the budget 
committee since it is a budget issue here, the authorizing 
committees, and obviously our committee.
    Can you tell us what you have been doing to reach out to 
these other committees and try to make the case?
    Mr. Tidwell. Mr. Chairman, we have been meeting with the 
staffs and members of all three of these committees that you 
have mentioned over the last 3 or 4 months now, to be able to 
help them understand the problem, and then in addition, how 
this solution would work.
    I need to stress that this would not increase spending for 
fire suppression by shifting a portion of our fires into the 
natural disaster category. It would allow us to access the 
disaster fund that has already been appropriated. All it does 
is stop the transfer. It does not increase costs. It does not 
score.
    This is one of the reasons that we feel very strongly that 
this is a good approach. We definitely want to work with this 
subcommittee, the authorizing committees and, of course, the 
Budget Committee on ways to even improve what is being proposed 
at this time in the introduced legislation.
    But we feel it is a very good starting place.
    Senator Reed. Thank you.
    And Chief, I understand that the $954 million requested 
within the disaster cap is made up of two parts. It is 30 
percent of the regular 10-year average and the second part is 
to project an amount above the 10-year average that would be 
necessary based on a new 2-year forecast.
    Can you tell us how you arrived at the 30 percent level? 
And also, how you developed the new 2-year forecasting model?
    Mr. Tidwell. Well, we have always had the 2-year 
forecasting model since we have been responding to Congress on 
the FLAME Report, where we send up our forecast every quarter. 
What it is based on is just looking at data from the last 30-
some years, and it is a regression model that our scientists 
use to do the best job to actually predict what we can expect 
this coming year.
    The problem with it is when it is 2 years out, for fiscal 
year 2015, that model shows that we are 90 percent confident 
that the suppression costs will be somewhere between $770 
million and $1.9 billion. Now, as we move closer into 2015, we 
will definitely be able to have a much better forecast. But 
that is the challenge that we have had.
    The 10-year average was something we all agreed to. It has 
proven not to work out because 11 of the last 14 years, we have 
exceeded the 10-year average in our funding. Even with the 
forecasts 2 years out, it is just so difficult because there 
are so many weather patterns that can shift for next year. That 
is what makes this so difficult.
    That is why we feel that if this is a better approach, to 
set up so that there is a certain type of fire, we are talking 
about the large, complex fires, the fires that threaten 
communities, we would be able to access this disaster funding. 
When we exhaust all the appropriated funds, then anything after 
that would still be able to access the disaster fund.
    But those are the challenges that we have.
    Senator Reed. Thank you, Chief.
    Senator Murkowski.

                             ROADLESS RULE

    Senator Murkowski. Thanks, Mr. Chairman.
    Chief, as you know, due to your visit with me to the State 
last summer, and I appreciate you taking the time. I know 
Alaskans appreciated the opportunity to show you on the ground 
what we are dealing with there in the southeast, in the 
Tongass.
    But as you know, most of the mills there in the southeast 
have closed due to lack of timber supply. Energy projects 
whether it is hydroelectric or potential geothermal projects, 
could really make a difference in a region that struggles with 
high energy costs. In some of our smaller village communities, 
you are paying 40 cents to 50 cents a kilowatt hour and yet, we 
are surrounded with amazing hydropower potential, and in 
certain areas, geothermal potential. But opportunities are tied 
up because of red tape, whether it is policies coming out of 
the Federal Government or the impact of the roadless rule.
    You have indicated to me that you think that there is some 
flexibility that you have to act and you have got to avoid some 
of those areas that are so impacted by the roadless. But I am 
passing a map out to my colleagues here that details the 
roadless area inventory within the Tongass. 91 percent of the 
Tongass is considered roadless; 9.6 million acres is roadless. 
So we are bound.
    We cannot access an area to put in a hydro facility, 
whether it is small hydro, lake tap, whatever it is we are 
trying to do, geothermal opportunities. We are all talking 
about the great policies that this Administration is trying to 
advance when it comes to renewables. But if you cannot build 
the project because the roadless rule does not allow you to put 
a road there, the only way you can do it is by helicopter. 
Well, colleagues, figure that one out. Pretty danged expensive 
to build a hydro facility or do anything if you are operating 
completely by helicopter. So we are trying to figure this out.

                            BIG THORNE SALE

    You know, Chief, that last year was not a good year for 
Region 10. It was the worst performing region, just 16.8 
percent of the target was accomplished. Region 10 has only sold 
about 30 million board feet per year since 2008.
    So, again, in my opening statement, I mentioned Big Thorne. 
We are all hoping and praying that Big Thorne comes through and 
Big Thorne has been sitting since September. You have indicated 
to me that that is how we are going to get to this transition 
is second growth.
    So can you give me some update on when we may see the Big 
Thorne Sale offered? How much volume of the original 150 
million board feet will be offered? And really, from a broader 
perspective, how are you going to overcome this decline? Is it 
just done? Is it just over in the Tongass, that we will not be 
able to see any aspect of a timber industry anymore? Is it 
done? Because if you say that it is, we are going to have a 
timber war here all over again.
    We cannot give up on this region. We cannot give up on a 
region that has opportunity and has potential, but is being 
denied because of policies from our own Federal Government.
    So first, Big Thorne and then, second, how are we going to 
arrest this decline?
    Mr. Tidwell. Well, Senator, we are committed to completing 
the Big Thorne project. We are in the process, with the region 
finishing up their draft Supplemental Information Report. They 
are going to be sitting down with the appellants to share that 
additional information around their concerns. I am optimistic 
that they will be able to address that.
    They may have to, as part of addressing the appeals, drop a 
unit or two. That is always something we can look at. But I am 
confident that the majority of that project will go through.
    Senator Murkowski. Do you know when? Give me an estimate 
because I am not sure we can hold on. I am not sure we can hold 
on much longer.
    Mr. Tidwell. Well, they are completing the Supplemental 
Information Report and they are working with the State to 
provide some information about the wolf species, that is of a 
concern up there. I think they are close to completing that.
    They will be sitting down with the appellants, and then, 
hopefully we will be able to resolve it, and then be able to go 
forward.
    Senator Murkowski. What if we cannot?
    Mr. Tidwell. We are planning on doing it this year along 
with the other timber sales that we have planned. So the target 
this year is 70 million plus the Big Thorne project.
    Senator Murkowski. 70 million plus Big Thorne. You 
anticipate that Big Thorne is going to be 150 million board 
feet. But realistically, I mean, we have not seen, we sold 30 
million board feet per year since 2008.
    How are we going to get to the numbers that you are talking 
about? I mean, are they just numbers on paper?
    Mr. Tidwell. No, they are not on paper. Senator, with Big 
Thorne, the staff have worked so hard on that project.
    Senator Murkowski. I know.
    Mr. Tidwell. It will not be 150, but it should be in the 
range of 100 million, plus what we plan to go forward with. As 
you have pointed out, this is essential that we provide this 
bridge timber for our plan to transition to second growth.
    I think that is still the right plan, but we need to be 
able to do projects like Big Thorne. We need to be able to do 
the projects like Wrangell this year. To be able to have that 
amount of timber and to be able to bridge during the times 
until we are ready to move into the second growth as being the 
predominant harvest up there; to be able to sustain the wood 
products industry for all the reasons that you have mentioned; 
and to be able to provide jobs. It needs to be part of the 
economic activity in that State.
    The other part of it is hydro. We are working on the hydro 
projects. They are a great benefit, especially in the 
Southeast. But as you also know, we are having to ship wood 
pellets, either out of Seattle to bring them up to Ketchikan to 
convert using the biomass for electricity. When we see all that 
and the trees there, the idea that we cannot have a pellet 
plant right there, to be able to provide renewable energy for 
those facilities and not ship it out. But that is another 
reason it is just essential for us to be able to maintain the 
industry.
    So you have my commitment that we are going to get Big 
Thorne done. We are going to move forward on the sales this 
year. And at the same time, still continue to move forward with 
the transition.
    Senator Murkowski. Well, Chief, my time has expired. I will 
have more questions in the second round.
    But you keep talking about these sales that will be the 
bridge, but in order for a bridge to work, it has to be 
anchored to something on either side. Right now, there is not 
much to anchor within the southeastern timber economy because 
we cannot get any sales moving. We cannot get any product at 
all.
    And so, when we talk about transition, when we talk about 
bridges, we still have to have an anchor, and you are not 
giving us that anchor yet.
    Thank you, Mr. Chairman.
    Senator Reed. Senator Tester.

                               AIRTANKERS

    Senator Tester. Thank you, Mr. Chairman. Thanks, again, for 
being here, fellows.
    Chief Tidwell, you and I have talked about the recent 
struggles the Forest Service has faced in putting together a 
next generation air tanker fleet, and I do appreciate the 
attention the Forest Service has given to the matter.
    I am concerned about reports that some of the contractors 
that were not ready to go last year may not be ready to go this 
year. We are 3 years into this gig and I do not know that we 
have gotten a lot out of it.
    That being said, can you give me an update of where folks 
stand in terms of getting the planes in the air to combat 
wildfires?
    Mr. Tidwell. Senator, we will have an adequate number of 
air tankers again this year to be able to deal with the 
projected fire season. It will be a combination of the legacy 
aircraft that are under contract, and then we are expecting to 
have seven of the next generation aircraft also flying this 
year.
    We are also working closely with the Air Force and the Air 
Force Reserve to have the Modular Airborne FireFighting System 
(MAFFs) units. They have already started their training to be 
ready, and then we also have our agreement with Canada to bring 
down their planes if we need to, to get through this year, and 
then hopefully, we will be in a better position in 2015 to have 
more of the next generation aircraft online.
    Senator Tester. So what I heard you just say, and correct 
me if I am wrong, you are going to have seven next generation 
planes ready to be up in the air this year?
    Mr. Tidwell. That is what we are hearing from the 
contractors.
    Senator Tester. Okay.
    Mr. Tidwell. That is what they said they will deliver.
    Senator Tester. And so, come July 1, there will be seven 
next generation ready to go.
    Mr. Tidwell. That is what they have told us.
    Senator Tester. Okay. Last year, they were not, and I think 
they might have told you the same thing. Were there any 
ramifications/repercussions for those folks who failed to meet 
those deadlines?
    Mr. Tidwell. We followed our contract procedures to send 
them cure notices. They respond to that. We are working with 
these contractors because we need the planes, and as you saw 
last year, it became more difficult for them to be able to make 
the modifications to the aircraft that they bought to be able 
to meet our tests and, at the same time, be safe aircraft that 
the FAA will certify after they have made the modifications to 
the aircraft. It is a year later, and they are making progress.
    Senator Tester. I would just say this, Chief, I mean, I 
would hold their feet to the fire. This is not nuclear physics; 
this kind of stuff is not that complicated and, quite frankly, 
I think they knew exactly what they were getting into when they 
were awarded the contracts. And I personally do not think they 
had any--I think they fully knew that they were not going to be 
able to get those planes up in the air; let us just put it that 
way. And they knew we would be very forgiving too.
    And so, I do not point the finger at you. I just think that 
this is a common practice across Government. People contract 
with us and then they say, ``Well, it costs much more money,'' 
and we cut them a check, and I think that kind of stuff needs 
to stop. If they do not provide the service, they ought not 
have the contract. That is my soapbox for you.
    Last year, we kind of heard the same thing, and I just want 
to point out that the Forest Service, I think, their dates for 
next generation are not certain. They are to be determined, 
TBD. Is that correct?
    Senator Tester. For the next generation.
    Mr. Tidwell. For this year?
    Senator Tester. Yes.
    Mr. Tidwell. We have asked the contractors that the planes 
need to be flying, passed all the tests by July 1st, and we 
have a schedule of the dates that they will be bringing those 
on.
    Senator Tester. Okay. So thank you for that. So you are 
telling me that you have dates certain from these contractors 
when these planes are going to be up.
    Mr. Tidwell. They have provided us dates, yes.
    Senator Tester. And what happens if they do not meet those 
dates?
    Mr. Tidwell. We will send them a cure notice and they have 
to explain then what steps they are going to take to be able to 
bring the planes on.
    Senator Tester. Okay. Is there anything you can do if they 
do not meet those dates? I know we need planes, but they also 
need our business too.
    Mr. Tidwell. Yes. We are working with these contractors 
because if we cancel these contracts, then we do not have any 
planes for sure. Even though it is taking them longer, late 
last year, we got another one of the planes flying. There is 
one of the companies that indicated they will have two of their 
planes ready. We know that there are two more planes that will 
pass the tests, and we can be flying those.
    So it has been frustrating, and I share your frustration. I 
have to deal with it.
    Senator Tester. And I would just say, I get it, but if they 
know that they do not have to play by the rules, and yet, they 
are still going to get the contract, that is crazy. I mean, 
that is just flat crazy. I still believe that competition will 
fill that void and so, I think they need to be held 
accountable. I think the taxpayers expect that, quite frankly 
and I think everybody on this panel does too.
    I am going to stick around for the next round of questions, 
so I will let my 30 seconds go. But once again, thank you for 
your work, Chief. And thank you, Mr. Chairman.
    Senator Reed. Senator Blunt.

           COLLABORATIVE FOREST LANDSCAPE RESTORATION PROGRAM

    Senator Blunt. Thank you, Chairman.
    Chief Tidwell, our State, Missouri, is ranked No. 3 by the 
Forest Service in terms of economic impact of forestry on the 
economy. I want to talk a little bit about the Collaborative 
Forest Landscape Restoration Project.
    I met with the regional forester, Kathleen Atkinson, in 
December, a year ago, and I had been to the site where you were 
doing a large burn, I think it was a 10,000 acre burn. Looked 
like, to the farm boy in me, that there was lots of damage to 
the tall trees you were trying to save and lots of potential 
erosion on the ground.
    I asked for a couple of things then, one of which I have 
not gotten yet. One was any proof that we felt that this would 
really work. I believe the goal was to restore the forest to 
some moment that the Service has decided was exactly the right 
balance of trees in the forest which, I think, we could 
probably argue about. And whether or not the forest industry 
could go in and mark trees and harvest those trees before you 
burnt them. I did not receive much in specifics on that. On 
marking the trees, I think the answer was, no. You did not 
think that was possible.
    But there was a meeting recently with the local Forest 
Service with Congressman Smith and Congressman Luetkemeyer and 
my staff in the State. And my understanding now is that those 
funds will not be used for burns, but will be used to hire new 
personnel to help with harvesting in the coming fiscal year. Is 
that right?
    Mr. Tidwell. Senator, with the Collaborative Forest 
Landscape Restoration Program there is always a mix of 
activities. Yes, this coming year, there is going to be more 
mechanical treatment, more timber harvest that will be coming 
off of there.
    The purpose of the prescribed fire is to create a much more 
resilient forest that can deal with concerns with insect and 
disease, et cetera. When there are merchantable trees, we 
always want to get in there and harvest those trees that need 
to be removed. A prescribed fire is to just provide more of the 
ecological system that we have, so that it is more resilient. 
So it is usually a combination, and often, we do a timber 
harvest and then follow that with a prescribed burn to reduce 
some of the residual material and reduce the concern for 
potential fire. It takes both. But this coming year, I do know 
that on that project, they are going to be focused on doing 
timber harvest and not the prescribed burning.
    Senator Blunt. Okay. Well, that is helpful. And then there 
is a University of Missouri study on the impact of that program 
and forestry generally. Are you aware of that and are you all 
cooperating in that?
    Mr. Tidwell. I am not aware of that specific study.
    Senator Blunt. Would you follow up on that? I think your 
people on the ground said that they were beginning to work with 
the University of Missouri to talk about the impact there.
    And I think the estimate is we lose 50 million board feet 
of timber in the Mark Twain Forest every year, and we harvest 
about 38 million. Doing a better job of harvesting the trees 
that are going to be lost would be something that, I know, you 
care about and I do too, and I hope we do that.
    Do you have some information there, Mr. Dixon, on the study 
I asked about?
    Mr. Dixon. Our northern research station is working with 
the University of Missouri to detail the socioeconomic modeling 
related to the impacts of our Collaborative Forest Landscape 
Restoration Program. So we are working in conjunction with the 
University.
    Senator Blunt. Well, since both of those things have been 
verified, I feel better about the year we are going into.
    I do think on the greater issue of the burning program, 
what I would like to see, and maybe we have a year now to see 
if you could produce that for me, any evidence that that really 
is going to work in restoring the forest area you are burning 
to where you think it is.
    It seems to me having visited there, that the trees coming 
back up are the same trees you burned down, as opposed to some 
different look that tries to capture a moment in time which, I 
think, is pretty arguable too; that that was the perfect moment 
for the forest, and we go to all this effort to make that 
happen. And you do have, when you remove all of the 
groundcover, obviously, erosion and other things are a problem 
that would not be otherwise. I may have had my two biggest 
questions answered here.
    Personnel-wise are you using the new personnel that you are 
hiring to try to identify the timber that can be harvested? Is 
that what I understood you to say?
    Mr. Tidwell. Well Senator, each year, staff put together 
the program of work, and we get a lot of our work done with our 
seasonal workforce. So as we move into a year, we are going to 
be doing more timber harvest, we are going to be hiring more 
seasonals to do the marking, et cetera, versus maybe a 
prescribed burn.
    But the thing I need to stress is that with the reduction 
of our staffing over the last decade, it has just really 
limited our ability to be able to manage these forests. To be 
able to do the work where there is now strong support across 
the country, especially in these Collaborative Forest Landscape 
Restoration projects where people understand what needs to be 
done on the landscape.
    But I will tell you, we are just so limited in what we are 
able to do. Our staff are doing a great job to be able to 
produce as much as they are. But with this budget request, 
where we are asking for additional money to do more forest 
restoration, do more hazardous fuels funding, and this is the 
first time that I have been up here in quite a few years in a 
position to be able to ask for that increase. That is what will 
really make a difference.
    So we have the collaboratives in place, folks understand 
what work needs to be done. Now is the time for us to add some 
additional capacity into the system so that we can get more 
work done.
    And Senator, we will share with you the monitoring 
information from that project, and also the research that we 
have that guides the type of projects that we are putting on 
the ground. We have been doing this work for many years, and we 
will provide that information.
    Not every project accomplishes every objective we set out. 
That is why we monitor these. But just like in our hazardous 
fuels projects, 90 percent of those meet their objectives to 
reduce the threat of fire and reduce the severity of fire.
    So we will provide you with that additional information.
    Senator Blunt. I may have some other questions later, 
Chairman.
    Senator Reed. Thank you, Senator Blunt.
    Senator Merkley, please.

                    FIRE SUPPRESSION CAP ADJUSTMENT

    Senator Merkley. Thank you very much, Mr. Chairman and 
thank you, Chief Tidwell and Mr. Dixon. Appreciate your 
testimony.
    First I just want to thank you very much for your support 
and advocacy of changing the way that we address funding of 
fighting forest fires in a regular budget, the 70 percent 
rolling average over a 10-year period, and then doing the rest 
under emergency. It makes a great deal of sense. We have just 
been putting all our resources in the firefighting end and 
failing to treat emergencies as emergencies, and draining the 
Forest Service, and then trying to refund the Forest Service to 
do your regular work, which is so critical, whether it is 
planning for timber sales or maintaining the forest parks.
    So anything I can do to work in partnership with you all, 
and with this committee, and with the Energy and Natural 
Resources committee, we are certainly happy to do.

                        WILDLAND-URBAN INTERFACE

    I wanted to mention that one community in Oregon, the 
community of Ashland, would be a great candidate for further 
hazardous fuels funding in their Wildland Urban Interface, and 
I will certainly follow up. They have partially completed their 
forest resiliency project, and just have a ways to go, and very 
important to their watershed for their area.

                              TIMBER SALES

    I wanted to turn to timber sales that are done by dealing 
with the National Environmental Policy Act (NEPA) planning 
backlog and just the challenge of having the interdisciplinary 
teams necessary to complete the planning. The backlog in NEPA 
planning work in Oregon has presented itself as a concern to 
me. Perhaps you are aware of it, and the addition of more 
technical experts to those teams would be helpful.
    But are you aware of this challenge, and any particular 
thoughts about it?
    Mr. Tidwell. Yes, Senator, we are, and it is one of the 
challenges we face, not only in your State, but across the 
country, to be able to have the necessary capacity to be able 
to increase the pace and scale of restoring our forests.
    We do have a great example, in the eastern part of your 
State, on the Malheur National Forest where we have been able 
to put that 10-year project together, and we are doing more and 
more work now where we are looking at large landscapes.
    Instead of looking at 1,000 acres at a time, we are now 
looking at tens of thousands to hundreds of thousands of acres 
at a time and doing one Environmental Impact Statement (EIS), 
and we are finding this to be much more efficient and more 
effective. It lays out a program of work for the next 10 years 
and provides a certainty to the industry, and it actually is 
saving us a lot of money and a lot of time in our NEPA process.
    We are to the point where for us to really go to where we 
need to be, and I use the project in eastern Oregon, for us to 
change the fire regime, we need to double the number of acres 
we have been treating in the last couple of years, and we need 
to do that for over a decade to really make a difference.
    That is just an example of the challenge that we have, and 
we do not need to double our budget to be able to do that work, 
but we do need to be able to increase our capacity so that we 
can expand. And that is one of the reasons that I feel so 
strongly about our budget request this year because we are 
asking for some modest increases to be able to do forest 
management work using Integrated Resource Restoration funds and 
then, of course, a significant increase with hazardous fuels 
which often accomplishes two objectives: reduces fuels and at 
the same time produces saw timber for mills.

               COLLABORATIVE FOREST LANDSCAPE RESTORATION

    Senator Merkley. I must say, there is an ecstatic community 
in John Day, Oregon and the Forest Service was instrumental in 
developing the innovation of using a service contract rather 
than a harvest contract to have that 10-year plan. That mill 
has hired, I believe, it is about 50 additional full time 
workers, living wage jobs, huge, huge for a small mill 
community and certainly a model to be replicated.
    And in that regard, I did want to praise the Collaborative 
Forest Landscape Restoration Program, the major part of that, 
the issues, the frame up with NEPA, all involved in that. We 
are seeking additional funding. You are seeking additional 
funding for it. I certainly am very supportive of that.
    But if we are able to maintain at least the 40 million; I 
do not know if we will make it to the 60 million. I would love 
it if we can. But will we be able to continue those projects 
that are already underway, like those three projects?
    Mr. Tidwell. Yes, Senator. We will be able to continue the 
projects that are underway, but what we found at the CFLR 
programs to be so effective, and it has so much support behind 
it. That is why we are asking for that increase to be able to 
expand that work.

                     WILDFIRE DISASTER FUNDING ACT

    And Senator, I do want to thank you for being a cosponsor 
on the Wildfire Disaster Fund because that is key to a lot of 
things that we are talking about, so I really appreciate your 
support and work on that.

                        FISCAL YEAR 2015 BUDGET

    Senator Merkley. Two more things I would like to mention in 
my 1 minute left. One is the Columbia River Gorge Economic 
Development Fund.
    At a time that that scenic area was established, there was 
a commitment from the Federal Government to fund $10 million of 
economic development in the Gorge. Some of that has been 
funded, but there is a balance left on it of approximately $2 
million. I want to encourage the Forest Service to find a way 
to complete that commitment to the community. We are 28 years 
later and they could benefit from that.
    And second, just to put in a note that in terms of the Land 
and Water Conservation Fund (LWCF), there are a lot of projects 
in Oregon that would merit from their attention and look 
forward to following up on that conversation.
    Mr. Tidwell. We will work on both of those efforts, and we 
will get back to you on the LWCF projects.
    Senator Merkley. Thank you.
    Senator Reed. Senator Begich.

                            BIG THORNE SALE

    Senator Begich. Thank you very much. Thanks for being here. 
Thank you, Mr. Chairman.
    I know my colleague, Senator Murkowski, asked you several 
questions on the Big Thorne Timber Sale. So can I just ask, 
these might be very quick, just so I get the understanding.
    I know it is delayed. I know you are under an 
administrative appeal process. So I have two questions, maybe 
three. Is there any information, I know there was, at one 
point, the State of Alaska had to get some information for your 
administrative appeal.
    Has everyone supplied the information you need that is 
external to your operation to deal with that appeal?
    Mr. Tidwell. Yes, Senator. It is my understanding the State 
has provided that information. It is going to be put into that 
Supplemental Information Report and then shared with the 
appellates.
    Senator Begich. Okay. So you have everything external that 
you need?
    Mr. Tidwell. That is my understanding.
    Senator Begich. Okay.
    Second, do you have the necessary staffing levels to ensure 
that you can move forward with resolving the appeal issue, but 
also, let us assume that it moves the right direction, to then 
make the sale happen?
    Mr. Tidwell. Yes, we do. We have the staffing to be able to 
finish and implement Big Thorne, and at the same time, move 
forward with this year's program of work.
    Senator Begich. Okay. And this led me, I thought I just had 
two, or three, on this one.
    And that is, can you put in more specific terms--not right 
now, but in a memo back to myself and my colleague and the rest 
of the committee if they have any interest in that--is just a 
range of timetable that you think, based on the appeal and 
where we you might end up at the final here? Because obviously, 
this is a pretty big issue, as you know. It is important for 
the mill to have this contract resolved sooner than later.
    But can you give us something more definitive in dates or 
ranges of dates that you think you can get down this ladder?
    Mr. Tidwell. We can provide that to you and the rest of the 
committee, if they are interested in that.
    [The information follows:]

    The Big Thorne Record of Decision received a number of 
administrative appeals. Upon review of those appeals, the Regional 
Forester upheld the Forest Supervisor's decision, with direction to 
address whether the information and conclusions contained in the August 
2013 statement of retired State of Alaska wildlife biologist Dr. David 
Person, is consistent with the analysis in the Big Thorne Final 
Environmental Statement and Record of Decision.
    The work necessary to address Dr. Person's Statement has been 
ongoing since the Regional Forester issued her appeal decision on 
September 30, 2014. The Wolf Task Force, comprised of State and Federal 
wildlife biologists, is reviewing the information and conclusions 
contained in Dr. Person's Statement. Additionally, the Forest 
Supervisor is also reviewing the Tongass Forest Plan's legacy and old 
growth reserves standards and guidelines to ensure the Big Thorne 
Record of Decision is consistent with Forest Plan direction.
    Once these reviews are completed, the findings will be summarized 
in a draft Supplemental Information Report (SIR), which will be 
provided to appellants and appropriate State and Federal agencies for a 
30-day review and comment period. Any comments received will be 
considered prior to issuance of a final SIR by the Forest Supervisor. 
It is unknown what additional issues may be raised by the appellants or 
agencies in comments submitted on the draft SIR; any new information 
that is submitted could require additional analysis to be completed by 
the Tongass National Forest prior to issuing the final SIR.
    With this in mind, the following is the current schedule for the 
remaining administrative processes for the Big Thorne timber sale 
project:

------------------------------------------------------------------------
 
------------------------------------------------------------------------
May 31............................  Draft Supplemental Information
                                     Statement (SIR) released to the
                                     Appellants and appropriate State
                                     and Federal agencies for 30-day
                                     review period.
June 30...........................  End of Review period for Draft SIR,
                                     start of review and response to
                                     comments.
August 20.........................  Final Decision and SIR completed and
                                     released.
August 30.........................  If no units dropped, final appraisal
                                     completed and Sale advertised.
September 30......................  If units dropped, prepare final
                                     cruise, final appraisal completed
                                     and Sale advertised.
------------------------------------------------------------------------


    Senator Begich. Okay. Fantastic. If you would do that, that 
would be great.

                         RECREATION AND TOURISM

    Second, I want to move to the tourism recreation budgets, 
and this is of grave concern to me. I know there is a leader's 
document on the regional level that indicates that they will be 
substantially reducing its support or dropping its support for 
recreational tourism within your operations.
    And as you know, the Alaska travel industry, or maybe you 
do not know, but the Alaska travel industry has brought forward 
a resolution concerned about this too. As you know, it is big 
business for us, especially in the southeast where there is an 
enormous amount of travelers. We get about 800,000 cruise ship 
industry travelers, 1.9 million overall travelers to the State. 
And, of course, our forests are incredible. It supports our 
tourism business in southeast alone, about 10,000 jobs and 
about $1 billion in annual spending. So pretty, as you know, 
pretty significant and I am concerned about this leader's 
document indicating this.
    So the question I have is, one, is that moving forward in 
full force, what your leadership document has? Or is there a 
number that you are still trying to struggle with to put into 
the budget to keep it level, at least for the funding regarding 
tourism and recreation, in regards to your budget? Is there a 
number that you need to put back in to make it whole, or is 
just now the policy that this is no longer a priority, and 
money or not, we are not interested?
    Can you give me a--obviously from my perspective, you are a 
huge landowner along with many other Federal agencies, and when 
you decide not to use it for something like this that is an 
economic driver, that is a diversifier of economy, especially 
in southeast, it is very problematic.

                           BUDGET CHALLENGES

    Mr. Tidwell. Senator, we are not shifting our priority 
about how important recreation is. It provides more economic 
activity, supports more jobs than all the other activities on 
the national forest put together.
    What you are seeing in Alaska is just the result of what 
has been happening to our budget over the years of having to 
put more and more of our budget into dealing with fire 
suppression. Under a constrained budget, we keep having to 
reduce all these other programs. Recreation is another key one.
    So the regions have to make some really tough choices based 
on the realities of the budgets that we see right now, to be 
able to prioritize what work they can do, where is the best 
place to put their limited recreation money to be able to 
provide for the most economic benefit. Those are just an 
example of how difficult these choices are.

                         RECREATION AND TOURISM

    Senator Begich. But let me, I appreciate that. I understand 
that, but as you indicated, you had some incremental movements 
in the budget this year, and I understand why. Fire suppression 
is a critical piece and what you have done is a smart move, 
actually planning for what really is going to happen, which I 
give you a lot of credit for that, and commend the agency.
    But what is the amount, or can you get to me, what the 
amount of resource you would need to put it back into being 
held harmless or, at least, flat compared to last year? Can you 
get me that information so I understand what this increment is 
that is lacking for this promotion, this activity around 
tourism and recreation?
    Mr. Tidwell. I will tell you that the region is dealing 
with about a 30 percent reduction in the recreation funding 
from what they received a few years ago. It is not quite at 
that level nationally. It is more about 15 percent down.
    But I can tell you--there is not any fewer people wanting 
to come to see the national forests. And especially in your 
State, it is such a big economic driver.
    Senator Begich. Yes, I mean, you are making my argument. So 
give me those numbers and especially if nationally it is 15 
percent and in our region it is 30 percent, then we are not 
being treated fairly. That is a whole other debate, which, you 
kind of opened that door, but I will just leave that over here 
for a second.
    If you can get me that information, I want to know what it 
will take to get that, at least a reasonable approach because 
as you just said, the biggest use of the Forest Service is 
recreation and tourism. And for Alaska, it is, again, your 
lands, the Bureau of Land Management lands, and other lands are 
huge to the promotion of our business. So if you could get me 
that, I would greatly appreciate that.

                             ROADLESS RULE

    Then last, I will not take any more time. I will not be 
able to be here for a second round, but I know you are working 
on some issues around roadless rules, and we can have a 
different conversation at a later time.
    Mr. Tidwell. Thank you.
    Senator Begich. Thank you very much for everything you guys 
are doing.

                               AIRTANKERS

    Senator Reed. Thank you very much, Senator Begich.
    Chief, last year through the Defense bill, you received C-
130 aircraft and the Air Force is in the process of modifying 
them at this moment.
    Do you have any money in this year's budget for costs 
associated with that modification? Will you be able to take 
these aircraft and incorporate them quickly without additional 
resources?
    Mr. Tidwell. The funding that is necessary to basically 
replace the wing boxes on those planes, plus to retrofit them 
for retardant delivery is actually part of the Defense 
Authorization Act. The Air Force has the adequate funding to be 
able to do the work on those planes.
    So it is not in our budget, but it is in theirs and those 
planes have to be put into the line up with everything else the 
Air Force is working on. They also have some of their own C-
130s that they need to do the same modifications on.
    They have told us that we should receive the first plane 
next year, and then the other planes will be coming in the 
years after that.
    Senator Reed. Very good.
    In 2012, you were talking about your Modernization 
Strategy, and you were calling for between 18 and 28 large 
airtankers, and you are getting new aircraft and leasing 
aircraft. You have the C-130s coming online.
    Are you on your trajectory to have your capacity, your 
adequate capacity?
    Mr. Tidwell. We are. I would say we are probably a year 
behind where we wanted to be at this time. But with these C-130 
planes that we will have in the next few years that will add to 
that. So if you add those planes to where we plan to be with 
the next generation aircraft that we are on the right 
trajectory.
    The other thing is we also have to factor in the P-2s that 
are being flown under our legacy contract. We are expecting to 
have those planes for 4 years and they will probably be done. 
That is why it is essential that we move forward with the next 
generation, and at the same time, the C-130 planes. That will 
provide seven aircraft. We will contract for the operation and 
maintenance of those aircraft, but it will be a key part of our 
future fleet.
    Senator Reed. Just finally, you have a $145 million item 
within the fire preparedness budget and it is designated ``Air 
Modernization.''
    If it is not for aircraft physical modification, what is it 
for?
    Mr. Tidwell. It reflects the cost of the next generation 
airtankers. They will cost us, based on what we saw last year 
with the ones that we flew last year, about 2.8 times as much 
as the legacy aircraft. However, they are faster. They are 
safer. They can deliver more retardant. But that is just a 
reflection of, as we move into these more modern aircraft, that 
it is going to be a significant increase in the cost.
    Senator Reed. Essentially, it is a contracting cost.
    Mr. Tidwell. Yes.
    Senator Reed. Thank you very much, Chief.
    Senator Murkowski.

                             ROADLESS RULE

    Senator Murkowski. Thank you, Mr. Chairman.
    Chief, talking about the situation with the roadless rule 
right now following the Ninth Circuit decision, as I mentioned, 
I think we know that there is still more legal wrangling and 
procedure before the exemption will definitively apply on the 
Tongass.
    Once that is complete, and I would hope that the Forest 
Service would defend the exemption in any subsequent 
proceedings, I think it will give you that flexibility that you 
and I have talked about.
    But can you explain to me this morning how the Ninth 
Circuit ruling will impact--whether it is future timber sales; 
I mentioned the renewable projects, whether it is our hydro 
projects; possible transmission lines; mining roads such as 
those that we looked at when we were flying over Prince of 
Wales, the Bokan Road, the Niblack projects--can you speak to 
how this roadless exemption will impact effectively what you 
are doing within the Tongass right now?
    Mr. Tidwell. Well, what we have planned for this year in 
the Tongass, with or without the exemption, it will have no 
effect. All the projects that we have planned to go forward 
with, the mining projects that you just mentioned, the timber 
sale, the Big Thorne, the Wrangell sales, those will all go 
forward with or without any exemption.
    We will have to wait and see. As you mentioned, I think 
there is still some lengthy court time in front of us before we 
actually see where we end up, if the exemption will be 
reinstated or not.
    Senator Murkowski. Is the Forest Service going to defend 
the exemption?
    Mr. Tidwell. I am not going to comment on litigation until 
I actually see what comes out of this process.
    I will make the commitment that I want to resolve the issue 
with roadless. I spent 37 years, my entire career, dealing with 
this and I can at least, in most places now, see we have 
resolved the issue. Alaska is the last place.
    Senator Murkowski. Well, we thought we had resolved it. You 
and I both know, we thought we had resolved that back in 2003. 
I, too, want to finally and fully get this done. I, too, want 
to see us be able to access an area whether it is for energy 
resources, for access to road projects, transmissions, but we 
have got to get this roadless issue resolved, and we need that 
flexibility that you have been talking about.

                             TIMBER HARVEST

    Let me ask a couple of other questions here in this same 
vein. This past winter, you announced that you are appointing 
this public advisory council under the Federal Advisory Council 
Act (FACA), to consider these changes within the Tongass 
policy, particularly implementation of how you move towards 
second growth.
    Can you give me a quick status here on when this 15-member 
group will be announced, when it is going to start meeting, and 
then the composition? Because what I want to make sure is that 
you are going to have members that would be part of this, that 
reflect a diversity of views and not just necessarily one part 
of the community there.
    Mr. Tidwell. We are in the process. Shortly, we will be 
starting to review the applicants that have submitted their 
request to be considered. I am hoping by the end of May, we can 
actually announce the 15 people that will be on this.
    I can guarantee it will have a diverse set of interests. It 
is essential for us to do that. And based on our past success, 
when we have taken the time with these formal--these FACA 
committees, to me, are formalized collaborative effort--to get 
that diverse set of interests. It has been remarkable what they 
have been able to reach agreement on and to be able to deal 
with some of the more difficult issues.
    We saw it with the Idaho roadless of Senator Risch, who was 
with the other committee, if he was here, he would be talking 
about that. The work that we are seeing with the FACA committee 
we have on our planning rule to put the directives together. 
They have taken on the most difficult issues and actually, I 
have been so impressed. They have been able to resolve those 
and be able to make recommendations that we can move forward to 
implement.
    So based on my personal experience, this FACA group that we 
are putting together, it is absolutely essential that it 
provides that diverse set of interests so that we can be able 
to use that group's recommendations and be able to move forward 
with making the adjustments to the Tongass plan.

                       RENEWABLE ENERGY RESOURCES

    Senator Murkowski. Let me ask about the adjustments, then, 
if you will. I have mentioned several times here this morning 
my concern for the limitations that we place on our ability to 
move out our renewable energy resources. This has been a key 
priority of this administration, has moved towards renewables, 
and yet it is our own Federal policies here that are limiting 
any ability in southeast to access, whether it is hydro, 
whether it is geothermal, or other renewable energy.
    So the question this morning is whether or not there is a 
renewable energy plan for the Tongass. And if so, whether it 
would be included in the Forest Plan Amendment as we move 
forward with this process?
    And also, I have queried different members of the Cabinet 
as they have come before other committees to just make sure 
that we are in agreement here, that hydropower is considered a 
renewable resource.
    So question to you about the broader renewable energy plan 
and whether within Forest Service you consider hydropower to be 
a renewable energy resource that would meet with the definition 
and the goals of this administration.
    Mr. Tidwell. I consider hydro to be renewable energy and it 
is essential there in southeast, especially, for us to be able 
to take advantage of that energy source and to replace the 
barging of diesel to those communities; which, I feel, is just 
a matter of time before we have an accident where we will then 
be doing a major clean up. And not only will it reduce the 
cost, but it also reduces the impact, the potential impact, to 
the environment. And that is why I think you are seeing the 
levels of support from some of the conservation communities and 
environmental groups about moving forward with the hydro 
projects.
    I know that as we have talked before, there is a long list 
of proposals, and we are working very closely with the State to 
be able to take those on. Last year, we dealt with like 29 
different projects, 22 of them were Federal Energy Regulatory 
Commission projects; three of them are now under construction. 
This year, there are 30 proposals, 24 of them are FERC 
projects, and we expect to have five of those start 
construction this year. So we are making headway.
    As we have talked, when it comes to the FERC projects, the 
access that is needed to be able to develop that proposal is 
provided with, or without, roadless. So it is one of the things 
that we have to really understand is the flexibility that is 
within the 2001 roadless rule; that is what we are focused on 
this year. We will see how everything plays out in the courts 
for the future. So we are going to be focused on that.

                             PLAN REVISION

    Your other question about what we will consider with this 
amendment to the forest plan. We want to take a focused effort 
to be able to, at a minimum, deal with making some, potential 
changes to facilitate the transition to second growth, provide 
the bridge. And we will look at other opportunities. We will 
want to be very strategic in being able to see what we really 
need to consider.
    When it comes to the hydro potential, we have the projects, 
so we have a good idea of where they are located. It is 
something we can take a look at before we even make the 
decision of what we are going to be needing to address. So it 
is going to be part of the initial assessment that will be done 
before we get started.
    But it is just essential that we move forward and amend the 
Tongass plan. It is also, Senator, essential that your Sealaska 
bill gets through. I mean, not only is that important for the 
communities, but it is essential for some key changes for our 
transition plan. It is another key part of this that needs to 
be in conjunction as we move forward with our plan revision.
    Senator Murkowski. Well, I would appreciate your support of 
Sealaska. It was kind of a long and tortured process. I would 
like to see that through.
    I do want to make sure though that, again, as we are 
talking about renewable energy projects, we remember that it is 
more than just the list that is in play today where a blessing 
has been given to those specific projects.
    Because if we are limited to just that, how will a 
community--whether it is Ketchikan or Kake--be able to grow and 
evolve in the future if they do not have the ability to expand 
out their energy needs? And as you have pointed out, their 
energy needs can best be met through the addition of hydropower 
resources. We do not want to go back to the bad old days of 
diesel; that is not the future for this region.
    So as we are looking to the forest plan amendments, I think 
it is key, I think it is absolutely critical that there be a 
renewable energy plan that not only incorporates our 
opportunity and potential for hydropower, but also the 
geothermal resources that we have there.
    And you had mentioned, you know, biomass. There is 
abundance there, but I think it needs to be incorporated as 
part of the amended plan going forward. And quite honestly if 
it is not--if a renewable energy plan is not incorporated--I 
think that that is very, very inconsistent with, again, this 
administration's push toward, movement towards renewables. And 
so, how we balance that, I think, is going to be critical going 
forward.
    But to just suggest that it is just these particular 
projects that have been identified that meet that criteria, 
does not allow for a future for the Tongass. So we need to be 
working with you on really building out that renewable energy 
plan.
    I have gone well over my time, Mr. Chairman. Thank you.
    Senator Reed. Senator Tester.
    Senator Tester. Yes, thank you, Mr. Chairman.

                     FOREST JOBS AND RECREATION ACT

    I appreciate the administration's increased target on 
timber cuts. I think it is critical that we get that number up, 
and I am sure you do too.
    Over the past three decades, Montana is not like any other 
State. I think we have lost over two dozen mills. These mills 
are partners of the Forest Service. They are partners of the 
taxpayers. They do a very, very good job in allowing us to be 
able to manage forests in a way that will ensure forest health.
    Without an increase in timber coming out of the Forest 
Service lands, I think it is an obvious conclusion: we are 
going to lose more mills. So, and once they are gone, they are 
gone. They are not coming back. It is one of the reasons that I 
have tried to push the Forest Jobs and Recreation Act, which is 
a ground up approach, a Montana-made bill, supporting mills, 
creating jobs, supporting our Forest Service and our forests, 
and the breathtaking landscapes that are in those. And I want 
to thank you for the Forest Service support of that bill.
    I know that you face challenges in carrying out the 
projects. I am proud that Congress came together with the 
reauthorization of the Stewardship Contracting Authority and 
gave the Forest Service some more tools through the Farm bill.
    So the question is, what is the process that you are going 
to use to evaluate the recommendations put forth by the 
governors?

                               FARM BILL

    Mr. Tidwell. For the recommendations that we received from 
the new authority in the Farm Bill, we have 36 Governors who 
have submitted their recommendations. We have a team in my 
office that is actually going through those, all those 
different areas and I expect that in the middle of May or no 
later than late May, but probably closer to middle of May, we 
will be able to respond to each Governor about which projects, 
which areas that they recommended that we will be able to apply 
the authority.
    So all we are doing is checking about areas they 
recommended versus what the criteria is in the law. And I can 
tell you that we have worked very closely with all the State 
foresters. It is my expectation that the majority of the 
recommendations are going to be approved and will allow us to 
be able to move forward and design projects in those areas and 
use the new Farm Bill authorities.
    Senator Tester. Okay. So when would we expect the first 
batch of projects to move forward?
    Mr. Tidwell. Well, the projects themselves will probably be 
next year.
    Senator Tester. Okay.
    Mr. Tidwell. We have identified these areas, and we have 
the program to work for 2014 in place today. We will be looking 
at these areas and factor that into our planning for 2015.

                               AIRTANKERS

    Senator Tester. Good. I want to go back to a question the 
chairman asked you on the $145 million for additional 
contracting costs for next generation. Is that what I heard you 
say for the next generation air tankers? That is what the $145 
million was for.
    Mr. Tidwell. Part of our request is to have an adequate 
number, an adequate funding to deal with the additional costs; 
2.8 times as expensive as what we used to have with the legacy 
aircraft.
    Senator Tester. Okay. And I am not going to argue with 
that. And Mr. Dixon, if you want to join in on this, you can, 
because you are fidgeting there a little, so you can jump in.
    What kind of metrics did you use to determine the cost 
effectiveness in that additional 2.8 times? Now, I know you 
talked about safety, and I know you talked about timeliness of 
delivery, and those can save money.
    So it would seem to me, and I appreciate the $145 million 
and I am not going to argue that figure with you. But I just 
want to make sure that there was some consideration of the 
effectiveness of these next generation planes and the cost 
savings that could be associated with their effectiveness.
    Mr. Tidwell. When we put out the contract, we wanted to 
have aircraft that were safer, faster, and a larger capacity 
because based on the fire activity that we are seeing today, we 
needed to be able to provide a larger load of retardant to deal 
with this.
    So we put out those specs and received the bids, and then 
we awarded the contracts.
    Senator Tester. I got you.
    Mr. Tidwell. The costs just reflect the market.
    Senator Tester. I got you. But was there any account for 
the fact that the tankers, that they are going to be delivering 
a bigger payload? That, in fact, they are going to be more 
cost-effective in that way per hour of flight time?
    Mr. Tidwell. We do expect they will be more cost effective 
because they are faster.
    Senator Tester. Right.
    Mr. Tidwell. We can get you the information about the cost 
of a gallon delivered. But the reality is that when we have 
these exclusive use contracts, there is a set amount that is 
the cost of the plane for the year----
    Senator Tester. I got you.
    Mr. Tidwell. Plus the flight hours.
    Senator Tester. Maybe this is the wrong correlation, but I 
will make it anyway. I can haul grain to market in a single 
axle truck that costs me $20,000 or I can haul grain in a semi 
that costs me $100,000. Over time, the cost per bushel actually 
is cheaper for the more expensive rig.
    And I just want to make sure you have taken those metrics 
into account because it would seem to me that the effectiveness 
of these planes are going to be better. Like you said, they are 
going to be safer. They are going to be more timely and they 
are going to be able to deliver the payload to where it needs 
to be delivered in a much more time-effective way. It is going 
to save money.
    Mr. Tidwell. We will provide you with the analysis that we 
have done.--Note: This information was provided directly to 
Senator Tester.

                    LAND AND WATER CONSERVATION FUND

    Senator Tester. Good, good. I just want to comment. I 
really support the administration's Land and Water Conservation 
request, and I am going to work with my colleagues to provide 
adequate funding because we have some great projects in Montana 
that will be done, and I appreciate your support of that fund.
    And the last thing, on a personal note, how is your ticker?
    Mr. Tidwell. I woke up this morning, so it is a great day.
    Senator Tester. All right. Well, thank you very much for 
your work, Chief. Thank you.
    Senator Reed. Thank you, Senator Tester. Thank you, Senator 
Murkowski. Gentleman, thank you for your testimony and for your 
service.

                     ADDITIONAL COMMITTEE QUESTIONS

    The record will remain open until May 7 for any of my 
colleagues who may wish to submit statements or questions. And 
Chief, we would ask you to respond as quickly as possible on 
any written questions that we deliver to you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Jack Reed
    Question. How does the proposed disaster cap amendment benefit the 
Forest Service and get the agency ahead of the curve on fire spending?
    Answer. The fiscal year 2015 President's budget proposes a new and 
fiscally responsible funding strategy for wildland fire. To solve the 
fire problem, we need a comprehensive approach that will restore fire-
adapted ecosystems; build fire-adapted human communities; and respond 
appropriately to wildfire. Wildfire funding has grown from 21 percent 
of the Forest Service budget in 2000 to over half of the agency budget 
in 2014. Fire transfers deplete the budget by up to $500 million 
annually, which disrupts the momentum of critical restoration work. The 
impact is felt across critical programs nationwide and exacerbates the 
frequency and intensity of fires in future years. The suppression cap 
adjustment would provide a stable source of fire funding and enable 
greater investment in restoration and fire risk reduction programs.
    Question. Please elaborate on the modifications that the Air Force 
is making to ensure that the C-130Hs are mission-ready for the Forest 
Service.
    What physical work needs to be done by the Forest Service once an 
aircraft is transferred in order to make it ready to fly?
    Answer. The Air Force will complete the Programmed Depot 
Maintenance (PDM) as well as the Center Wing Box (CWB) and Outer Wing 
Box (OWB) replacement. The Air Force will also contract for and oversee 
the installation of the gravity retardant delivery system. After the 
aircraft is transferred, the Forest Service will need to install 
avionics and other equipment specific to the airtanker mission.
    Question. Is there any funding in the fiscal year 2015 budget 
associated with delivery of the C-130s?
    What will be required of the Forest Service above the $130 million 
provided by the Air Force to get these planes in the air, not including 
the contracting for operation and maintenance
    Answer. The Forest Service estimates that approximately $4.3 
million will be required for one C-130H in fiscal year 2015. That cost 
includes operating costs, pilot and maintenance contracts, required 
payments into the Working Capital Fund, and minor modifications 
specified in the question above.
    Question. Is it correct that the Forest Service will hit within the 
target of 18-28 large air tankers in fiscal year 2015?
    What level of confidence does the Forest Service have that all of 
these planes will actually be flying?
    Answer. Yes, the Forest Service expects up to 25 airtankers in 
fiscal year 2015. More specifically, the Forest Service is planning 
for: 8 legacy airtankers, 16 next generation airtankers, and 1 Forest 
Service owned/contractor operated excess U.S. Coast Guard C-130H 
converted into an airtanker. Our confidence is high that all of these 
planes will be flying in fiscal year 2015.
    Question. What accounts for the continued decrease in Urban & 
Community Forestry?
    Are these activities not a priority, or are they being delivered 
through some other mechanism?
    Answer. The Urban and Community Forestry activities remain a high 
priority for the Forest Service. In the past, a percentage of Urban and 
Community Forestry (U&CF) Program funds were used to fund competitive, 
landscape-scale ``Redesign'' projects, which was essentially formalized 
in fiscal year 2014 as the Landscape Scale Restoration (LSR) budget 
line item. With the proposed $9 million increase in LSR funds in fiscal 
year 2015, it is anticipated that Urban and Community Forestry work and 
communities served as part of the LSR Program will be on a similar 
scale to previous year's U&CF representation or equivalent to the $4.4 
million reduction in the fiscal year 2015 budget. In addition, the 
Urban and Community Forestry program is part of the President's 
proposed new $1 billion Climate Resilience Fund presented as part of 
the fiscal year 2015 budget. Through this Fund, the President proposes 
that we:
  --Invest in research and unlock data and information to better 
        understand the projected impacts of climate change and how we 
        can better prepare our communities and infrastructure.
  --Help communities plan and prepare for the impacts of climate change 
        and encourage local measures to reduce future risk.
  --Fund breakthrough technologies and resilient infrastructure that 
        will make us more resilient in the face of changing climate. 
        The Urban and Community Forestry program is part of this, as 
        improving community trees and forests helps remove carbon from 
        the air, reduce the need for stormwater treatment, mitigate 
        flooding and provide other ecosystem services.
    Question. Please describe what will be accomplished in the 
Landscape Scale Restoration program with the funding provided in fiscal 
year 2014, and why it is proposed for a more than 50 percent increase 
in fiscal year 2015.
    Answer. In fiscal year 2014, the Landscape Scale Restoration (LSR) 
program will fund over 50 projects in the South, Northeast and West 
focused on addressing priorities and needs identified in State Forest 
Action Plans. These projects cover an expansive range of issues--from 
expanding forest markets, to invasive species management, to 
agroforestry, to watershed enhancements to urban forestry outreach--all 
focusing on restoring healthy and resilient landscapes and communities 
in priority areas within and across States. The LSR budget line item 
makes it even easier for States and their partners to propose 
innovative, cross-boundary work that spans multiple State and Private 
Forestry program areas. In fiscal year 2015, the program will continue 
to focus on funding innovative projects across boundaries and across 
jurisdictions to address States' priorities--and best target and 
leverage the Federal dollar. This level of funding will also allow the 
agency to leverage approximately $6 to $8 million more in partner 
contributions and provide the ability to fund approximately 15 to 20 
additional projects. The proposed funding level in fiscal year 2015, 
while 68 percent higher than the fiscal year 2014 enacted, is only 18 
percent higher than the President's fiscal year 2014 request of $20 
million.
    Question. Does the evidence in the Integrated Resource Restoration 
pilot regions show that the flexibility Congress has provided is 
resulting in more work being accomplished?
    What objective measures will demonstrate success?
    Answer. The evidence suggests that IRR is allowing the pilots to 
focus on and accomplish more priority work related to our goal of 
restoring National Forest System lands. The pilot authority has 
provided preliminary validation of the benefits that would be derived 
from nationwide Integrated Resource Restoration authority including:
  --increased ability to achieve integrated outcomes at the landscape 
        scale;
  --reduced administrative burden;
  --previously separate program employees working together to achieve 
        shared restoration goals;
  --clear direction and focus for integrated resource restoration 
        within priority landscapes;
  --streamlined prioritization processes;
  --realization of mutual benefits through integrated planning across 
        multiple resource areas; and
  --improved operational efficiencies.
    Occasionally, the highest priority work does not produce more 
outputs, e.g., miles, acres; but addresses areas that are deemed to 
make the most significant contributions to restoration. Therefore, we 
are using a combination of objective outcome and output measures to 
evaluate our progress with restoration. The key outcome associated with 
the Forest Service's restoration effort is:
  --Moving watersheds to an improved condition class as per the 
        agency's Watershed Condition Framework.
    The pilot program was able to move six watersheds to an improved 
condition class in fiscal year 2013 (double the number that was 
accomplished in fiscal year 12).
    We are also tracking the following longstanding output measures 
under IRR:
  --Acres treated annually to sustain or restore watershed function and 
        resilience;
  --Miles of stream habitat restored or enhanced;
  --Volume of timber sold; and
  --Miles of roads decommissioned.
    In fiscal year 2013 the IRR pilot exceeded planned targets for 
acres treated (133 percent) and miles of stream habitat restored (135 
percent). The program nearly met the volume of timber sold target at 96 
percent, and did not meet the road decommissioning target at 85 
percent. Three of the four output measures (acres treated, miles of 
stream habitat restored, and timber sold) increased over the fiscal 
year 2012 accomplishment levels (by 11.0 percent, 5.9 percent. and 12.9 
percent respectively).
    Planned targets were not met primarily due to litigation, market 
conditions (no bid on a sale), staffing vacancies, fire season, and 
NEPA appeals and litigation. Many of these conditions would exist 
regardless of IRR.
    We will continue to both monitor the performance results from the 
three regions under the IRR pilot authority and submit the IRR Pilot 
Annual Report to Congress.
    Question. After years of flat or declining budget proposals for 
Forest and Rangeland Research, the fiscal year 2014 request included a 
$15 million dollar increase. The fiscal year 2015 request asks for an 
almost equivalent decrease of $17.5 million. Why such a significant 
decrease proposed, especially during a time when the Forest Service is 
trying to implement the new planning rule, which will rely on the 
science performed within the research division?
    Answer. The fiscal year 2015 President's budget requests funding 
for the highest priority research needs. Recognizing that research is a 
critical component of the agency, the administration also proposes to 
provide funding through the combination of the Budget Line Item for 
Forest and Rangeland Research and the fiscal year 2015 Opportunity, 
Growth, and Security Initiative.
    Question. How is the Forest Service fulfilling the instructions 
included with the $5 million increase for biomass utilization grants 
provided in fiscal year 2014, to use these funds to develop new high 
value markets for low value wood?
    Where is the increased funding in fiscal year 2014 being focused?
    Answer. The increased funding is focused on two critical needs: (1) 
expanding renewable wood energy use near National Forest System lands 
in need of hazardous fuels treatments, and (2) promoting wood as a 
construction material in the commercial building sector. This work 
helps to create high value markets by expanding the use of woody 
biomass for energy as well as expanding the demand for engineered wood 
and other wood products in the institutional/commercial building 
sector.
    Question. What areas would be expanded if Congress provides the 
budget request's increase of another $5 million in fiscal year 2015?
    Answer. The expanded areas would be to:
  --increase grant opportunities to assist with the final phases of 
        wood energy projects;
  --stimulate woody biomass utilization in geographic areas with high 
        wildfire risks; and
  --promote more widespread use of wood in commercial building 
        construction.
    Question. How are the $2 million in funds provided for Restoration 
Partnerships being used in fiscal year 2014?
    Answer. In March 2014, we issued a field unit request within select 
program networks, including watershed restoration and utility corridor 
maintenance networks, to determine project and program needs. We 
received a total of 33 proposals, representing each region within the 
Forest Service, with a total request of $8.8 million. We are currently 
determining if there are options for additional private-sector leverage 
of Restoration Partnership funds, and we anticipate the final decisions 
on the allocation of Restoration Partnership funds to occur in June 
2014.
    Question. Will this program be continued in fiscal year 2015 
without a specific line-item?
    Answer. We did not request a separate line-item to fund this 
program in the fiscal year 2015 President's Budget. We feel the program 
can be carried out through partnerships under the proposed Integrated 
Resource Restoration budget line item and existing authorities.
    Question. Will the partnerships developed in fiscal year 2014 be 
continued without new funds?
    Answer. Yes, we hope that any partnerships we develop in fiscal 
year 2014, through the Partnership Restoration funding opportunities, 
will continue in fiscal year 2015. Our ability to continue those 
partnerships will be based on need, priority, and funding availability.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
    Question. As you know, California is facing a historic drought. For 
the first time in 15 years, 100 percent of California is in moderate to 
exceptional drought according to the U.S. Drought Monitor. This year, 
the State received only about 50 percent of normal precipitation, and 
snowpack levels are down to just 16 percent of normal.
    California's Department of Forestry & Fire Protection (CALFIRE) 
reports that since January 1, California has had 1,108 fires on State 
lands. During the same period last year, the State saw only 697 fires 
on State lands. This is an almost 60 percent increase.
    Clearly, we are facing the likelihood of a particularly severe 
wildfire season this year that will significantly threaten public 
safety and infrastructure throughout California and other Western 
States.
    Chief Tidwell, what specifically is the Forest Service doing to 
prepare for this year's drought-enhanced fire season?
    Answer. Due to the drought throughout California and other States, 
we continue to maintain heightened staffing levels, including 
organizing trained firefighters from other geographic areas who can 
pre-position or quickly respond when needed. We've developed short and 
long-term strategies that include hiring additional agency personnel, 
utilizing contract resources under existing contracts, creating new 
contracts, extending options on aviation assets and utilizing assets 
from other regions on a long-term basis. We escalate and decrease 
staffing levels commensurate with weather conditions and resource 
drawdown. In addition to crews, engines, dozers and prevention assets, 
we maintain aerial firefighting capability with helicopters, air 
tankers and smokejumpers. Many of the forests have 7 day staffing, as 
well as 24 hour coverage in some cases. We are also establishing 
mobilization centers in areas where increased fire activity is 
predicted, to efficiently manage an influx of fire suppression 
resources and we are working with our partners and reaching out to the 
public with focused fire prevention messaging using Fire Prevention 
Teams and Public Information Officers located in our Geographic Area 
Coordination Centers. We have also increased patrols and signage, and 
are providing one united message to the public with regard to the 
uncharacteristic fire danger levels that exist, especially in 
California. We are also coordinating with our partners, including 
Federal, State and local, to ensure information is being shared and 
that local and geographical area agreements are up to date.
    Question. What actions are you taking to have firefighting aircraft 
(including tankers and helicopters) and fire crews staged in drought 
stricken states like California?
    Answer. As fire danger and risk increase in California, 
firefighting aircraft will be pre-positioned to respond to fires. 
Currently, there are four Type I heavy helicopters and nine Type II 
helicopters, five airtankers and several aerial supervision aircraft in 
Southern California, ready to respond. Additional aircraft will be 
moved, if needed. The Forest Service is in the second year of night air 
operations in Southern California. A night air operation includes a 
type-2 helicopter and an infrared equipped twin engine fixed wing. Both 
aircraft started on June 1.
    Question. Do you expect the 2015 budget request to adequately cover 
the costs for this year's fire season?
    Answer. The fiscal year 2015 President's Budget request covers our 
forecasted funding needs for the fiscal year 2015 fire season. Together 
the request for Suppression and the proposed cap adjustment would fund 
the 10-year average and anything above the 10-year average equal to the 
high end of the 90 percent confidence interval predicted by the outyear 
forecast. For fiscal year 2014, however, any costs above the 10-year 
average will be covered by fire transfer. The May (median) forecast for 
suppression spending predicts that the Forest Service will spend $1.55 
billion this fire season, and we were appropriated $995 million. 
Therefore, we expect to have to enter into fire transfers again this 
fire season.
    Question. Last summer, the Rim Fire burned over 270,000 acres, 
including 154,000 acres in the Stanislaus National Forest. While 
ecological recovery will take many years, there may be only 18 to 24 
months from the time of the fire before the downed timber rots and is 
no longer salvageable.
    It is my understanding that the Forest Service has been able to 
expedite timber salvage along roads and utility corridors on an 
emergency basis and is currently working on completing an Environmental 
Impact Statement (EIS) that may allow for an estimated 30,000 acres of 
timber salvage in the Stanislaus.
    Chief Tidwell, can you please provide an update regarding the 
status of both the emergency timber salvage work as well as the status 
of the EIS for the larger salvage project?
    Answer. An Environmental Assessment (EA) for hazard tree removal 
along 194 miles of high-use Forest Service roads, administrative and 
recreation facilities, and areas adjacent to private infrastructure was 
completed and the Decision Notice signed on April 25, 2014. The hazard 
trees will be removed through the use of four competitive salvage 
timber sales, in addition to two settlement sales that were awarded to 
affected utility companies. All four competitive sales have been sold.
    The Draft Environmental Impact Statement (EIS) to reduce the 
potential for future catastrophic fire by reducing the fuel loading and 
to capture the perishable economic value of the fire-killed trees has 
been completed. The Draft EIS analyzed over 44,000 acres of National 
Forest System lands for potential treatment, including an estimated 
30,000 acres of timber salvage. The 30-day public comment period on the 
Draft EIS is scheduled to start on May 16, 2014. A Final EIS is 
scheduled for completion in August 2014.
    Question. When do you expect the Forest Service will be able to 
award salvage contracts, and when will that allow timber harvesters to 
get on the ground to begin that work?
    Answer. As mentioned above, two settlement sales have been awarded 
and all four competitive sales have been sold. Now that the projects 
are awarded, operations can begin immediately.
    Projects approved under the larger EIS are scheduled to be 
advertised for sale shortly after the Record of Decision (ROD) is 
signed, with a minimum seven-day advertisement period. Operations are 
expected to begin in early September.
    Question. Does the Forest Service have any additional 
administrative options or legislative recommendations that would help 
expedite the process?
    Answer. An Emergency Situation Determination (ESD) has been granted 
by the Chief for the hazard tree EA and the larger EIS project. Both 
projects are under the Section 218 Objection Process. With an approved 
ESD, there is no objection period (60 days) or objection resolution 
period (30 plus days). The decision is signed immediately after the 
public is notified that the decision will be signed, saving 90 days in 
the process. Since there is no objection process, the public has the 
option to pursue remedy in the Courts.
    We have been successful in requesting and receiving alternative 
arrangements from the Council on Environmental Quality on the Rim Fire 
EIS. The approved alternative arrangements allow for the comment period 
on the Draft EIS to be reduced by 15 days and eliminating the 45-day 
period between release of the Final EIS and the issuance of the ROD.
    Timber salvage volume from the Rim Fire is expected to 
significantly exceed the capacity of the local manufacturing 
infrastructure. Hauling costs to manufacturing facilities outside the 
local working circle is prohibitively expensive. The Forest Service is 
exploring all options within our authorities to enable the woods 
products industry in California to economically utilize the salvage 
material available from the Rim Fire.
    Question. The 2013 National Defense Authorization Act included a 
provision that I worked on with my colleague Senator McCain to transfer 
7 C-130 air tankers from the Coast Guard to the Forest Service. These 
planes would also receive maintenance and new wing boxes from the Air 
Force.
    I believe these seven planes are only the first step necessary to 
provide the Forest Service with the fleet it needs to protect our 
nation. It is my understanding that at least one or two planes will be 
transferred from the Coast Guard during this calendar year.
    Can you give me a precise update on when the Forest Service expects 
to begin receiving these planes?
    Answer. A transfer strategy and timeline for the planes has been 
developed and is being implemented. We expect the first aircraft to be 
transferred in late 2014 or early 2015 and be available for limited 
operations in 2015, after the Air Force completes their retrofitting 
work. The C-130H aircraft will be Forest Service owned and contractor 
operated and maintained. We expect three additional aircraft to be 
transferred in fiscal year 2017 and the remaining three to be 
transferred in fiscal year 2018.
    Question. California's Department of Forestry & Fire Protection 
(CALFIRE) has long had a cooperative agreement with the Forest Service 
to efficiently provide fire protection to all of California. 
Specifically, this agreement allows California to protect Federal lands 
and for the Forest Service to protect state lands when it is clearly 
economically efficient.
    In recent years, the Forest Service has faced challenges in 
fulfilling this agreement. If the Forest Service does not uphold its 
end of the bargain, it will result in increased costs for both 
California and the Federal Government.
    In this year of heightened fire risk, do I have your commitment to 
provide California with adequate firefighting resources as required by 
this agreement?
    Answer. Yes, I am committed to provide California with adequate 
firefighting resources as required in the agreement.
    Question. The 2014 Farm Bill contained a provision that directed 
States to identify forest areas that need treatment for pests and 
diseases, and the Bill further allowed for expedited environmental 
reviews.
    California has identified and requested three areas that need 
critical pest and disease treatment to safeguard forest health. These 
are the McCloud Watershed, the Southfork American Watershed, and the 
Santa Ana Watershed. All of these watersheds are experiencing a 
troubling decline in forest health based on annual surveys and are at 
risk of substantial tree death in the next 15 years according to the 
California Department of Forestry & Fire (CALFIRE).
    Can you provide a status update on California's request for three 
priority treatment areas?
    Answer. On May 20, 2014 USDA Secretary Vilsack announced the 
designation of over 45 million acres of National Forest System lands 
across 94 national forests in 35 States to address insect and disease 
threats. Approximately 1.5 million acres were designated in California 
within the McCloud/Pit River Watershed, the South Fork American River 
Watershed, and the Santa Ana Watersheds.
                                 ______
                                 
               Questions Submitted by Senator Tim Johnson
    Question. As you know, the current approach to funding wildfire 
suppression is unsustainable and hurts many important programs that 
address fire prevention and support critical resources that we expect 
from National Forest System lands, including timber, water, recreation, 
wildlife, and range. I applaud the Forest Service and the 
administration for including in the proposed fiscal year 2015 budget a 
solution to this problem based upon the Wyden-Crapo Wildfire Disaster 
Funding Act that I have cosponsored. This new approach to funding large 
fires as natural disasters under the existing disaster cap should free 
up substantial resources that would have otherwise been slated to go to 
wildfire suppression under the current funding formula. This provides 
an opportunity both to sustain key programs that would have been cut 
and to provide substantial additional investment in fire prevention 
activities, including hazardous fuels and pest and disease treatment 
and mitigation. In the proposed budget, what programs were sustained 
and what programs received additional investment with the funding not 
allocated to fire suppression due to the proposed change in suppression 
funding?
    Answer. The President's budget invests in programs that help us get 
ahead of the fire problem by restoring landscapes and protecting 
communities. Compared to fiscal year 2013 and fiscal year 2014 the 
budget proposes significant increases for Hazardous Fuels ($52 million 
above fiscal year 2014 enacted), Integrated Resource Restoration (IRR) 
($63 million above the fiscal year 2014 President's budget), 
Collaborative Forest Landscape Restoration Program (CFLRP) ($20 million 
above fiscal year 2014 enacted) and Landscape Scale Restoration ($10 
million above fiscal year 2014 enacted). Over $50 million of the money 
freed up by the fire cap funds Preparedness and Suppression to cover 
the reality of our fire operations costs.
    Question. I would like to congratulate the efforts of the Forest 
Service in the Black Hills to work with a broad coalition of partners 
to respond to the mountain pine beetle infestation. Through the work of 
these partners, including the forest products industry, the State, 
counties, conservation districts, and others, tens of thousands of 
acres have been treated, slowing the spread of the beetles and 
improving the resiliency and long-term sustainability of the forest. 
With the interspersed FS and private lands throughout much of western 
South Dakota, I was intrigued to hear about the effort to coordinate 
actions between the FS and NRCS to address watershed-scale treatment 
and restoration across Federal and non-Federal lands. It seems to me 
that the approach described in the Chief's Joint Partnership would 
benefit the ongoing effort in the Black Hills. How do you see the 
Partnership working at this juncture? What do you see as the 
opportunities and timing for adding additional projects that could 
increase the pace and scale of critical treatment on non-Federal lands 
in the Black Hills?
    Answer. Through the Chiefs' Joint Landscape Restoration 
Partnership, the Forest Service is investing $13 million in 13 projects 
in 12 States across the country to help reduce wildfire threats to 
communities and landowners, protect water quality and supply, and 
improve wildlife habitat for at-risk species. Those projects are still 
in the early stages of implementation and accomplishments will be 
summarized at the end of fiscal year 2014. In fiscal year 2015 (pending 
available funding), the Chief expects to continue to support those 13 
projects as well as to consider additional projects that meet the goals 
of the Partnership. Additional projects would be considered via 
recommendations from Regional Foresters in partnership with their 
Natural Resources Conservation Service (NRCS) counterparts. As both the 
Forest Service and NRCS work with private landowners, there could be 
opportunity in the Black Hills to consider a recommendation for 
funding.
    Question. The Black Hills National Forest Advisory Board was 
established in 2003 to improve cooperation and understanding among 
Forest stakeholders. The Board was chartered under the Federal Advisory 
Committee Act to consist of 16 members and 16 alternates appointed by 
the Secretary of Agriculture with the recommendation of the Forest 
Service. Regular meetings of the Board have proven to provide an 
important avenue of communication between stakeholders and the agency. 
Unfortunately, it continues to be challenging to keep the Board 
chartered and to fill all vacancies so that the Board is able to 
maintain a quorum for each meeting. What is the Forest Service doing to 
work with USDA to help ensure that the Board's charter does not expire 
and that new members are formally appointed as efficiently as possible?
    Answer. The Forest Service and USDA want robust Boards, 
representing the American people, assembled to carry out the mission in 
a timely fashion. The Forest Service recognizes the evolving workload 
and time requirements to evaluate and approve members and charters. We 
are committed to meeting the timelines to avoid unnecessary delays.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                                tongass
    Question. As I mentioned in the hearing, it was another subpar year 
in Region 10. The most recent 5-year schedule projects only about 82 
million board feet per year in the future, well below the ASQ for the 
forest.
    How are you going to overcome the ongoing decline in timber sales 
and ensure that the various timber targets are achieved?
    Answer. The Region was on track to meet or exceed all assigned 
targets in fiscal year 2013; however, the Big Thorne Project received 
seven appeals. The decision was affirmed, but the Tongass prepared a 
draft Supplemental Information Report (SIR) that was released May 23, 
2014 for a 30-day review by appellants, with the goal of issuing a 
final SIR later in the summer and offering in late September, 2014. 
Saddle Lakes Draft Environmental Impact Statement (DEIS) is expected in 
2014 with the Final Environmental Impact Statement (FEIS) and draft 
Record of Decision (ROD) in June 2015, and final ROD in October 2015. 
The Wrangell Island DEIS is expected late in 2014, with the FEIS and 
ROD in 2015, and a sale offer in fiscal year 2016. The Kosciusko (first 
large young growth sale) project is underway. The environmental 
documentation for this project is expected to be completed by February 
2015. Field work will continue in the operating season of 2015 with a 
sale offer in early 2016.
    Question. Have you requested adequate funding to restore the timber 
sale program to what was projected in your 2008 Land Management Plan? 
If not, why not?
    Answer. Funding for the Region 10 timber sale program on the 
Tongass has been adequate to prepare and offer the assigned program of 
work. The assigned volume sold targets for the Region have been lower 
than the allowable sale quantity (ASQ) envisioned in the 2008 Plan. The 
ASQ represents a maximum annual average harvest from a given National 
Forest over a ten-year period as determined in the forest planning 
process.
    Question. Why is the current 5-year plan targeting such a low 
volume of timber? What is needed to increase the volume in the current 
5-year plan?
    Answer. The current 5-year plan targets an average of 101 million 
board feet (mmbf) per year for the next 5 years. This level of volume 
is consistent with the funding provided for the program and the 
available land base to work with for old growth ``bridge timber'' 
sales. The 5-year plan includes the reallocation of staff and finances 
to planning efforts that incorporate viable and available young growth 
stands into the targeted program of work.
    Question. For years we have heard the Forest Service blame 
litigation for failure to achieve timber targets on the Tongass. It 
seems after dealing with these legal challenges for such a long time 
that there would be some strategy to better address these claims. Do 
you have a plan to address this issue?
    Answer. The Tongass continues to address legal challenges to timber 
sale projects by improving collaboration with all stakeholders and 
presenting well-planned projects utilizing planning documents that are 
clear, concise and based upon the latest science. Implementing our 
transition strategy to second growth is a key element to reduce 
litigation and provide a sustainable flow of timber to support the wood 
products industry in Southeast Alaska. In addition, USDA efforts to 
assist in converting mills to handle smaller logs and developing 
additional markets, including biomass, will increase the economic 
viability of processing wood products in Alaska and reduce the need to 
export logs. Where export is often required to make projects 
economically viable, the more jobs that can be supported in Southeast 
will increase the support for the benefits of an integrated wood 
products industry needed for community sustainability.
    Question. At the hearing, we briefly discussed the status of the 
Federal Advisory (FACA) Committee that you are assembling to provide 
advice on the Amendment you are proposing to the 2008 Amended Tongass 
Forest Plan.
    Will you commit to me to balance the FACA Committee with Alaska 
Native Corporation and pro-development Southeast Alaskans?
    To what extent will you commit to me to include Southeast Alaskan 
representatives from the renewable energy and hydropower sectors on the 
FACA Committee?
    Answer. The Federal Advisory Committee Act has been announced and 
membership represents a diverse mix of viewpoints, with members from 
the Alaska Native community, national or regional environmental and/or 
conservation organizations, the timber industry, Federal, State and 
local government representatives, and other commercial users.
    Question. Will the Forest Service consider adding a Mineral and 
Strategic Mineral Land Use Designation (LUD) in the Amendment to the 
2008 Forest Plan to promote and support mineral and strategic mineral 
development and related access roads consistent with National Security 
and National Strategic Mineral Policies?
    Answer. The Tongass Forest Plan, in its current form, contains a 
``Minerals Overlay'' Land Use Designation (LUD) which states: ``To 
encourage the prospecting, exploration, development, mining, and 
processing of locatable minerals in areas with the highest potential 
for minerals development; and, To ensure minerals are developed in an 
environmentally sensitive manner and other high-valued resources are 
considered when mineral developments occur.'' We will evaluate whether 
changes to the Plan are necessary during the amendment process.
    Question. The Energy Independence and Security Act of 2007 found 
that ``accelerated development and use of renewable energy technologies 
provide numerous benefits to the United States, including improved 
national security, improved balance of payments, healthier rural 
economies, improved environmental quality, and abundant, reliable and 
affordable energy for all citizens of the United States,'' and set a 
goal that by 2025 25 percent of the total energy consumed in the United 
States come from renewable resources. Additionally, this administration 
has placed a high priority on development of renewable energy on public 
lands.
    How is the failure of the Tongass National Forest to have a 
renewable energy plan consistent with these goals?
    Answer. Hydropower projects are permitted through the Federal 
Energy Regulatory Commission's (FERC) authority granted by the Federal 
Power Act. When projects are located on National Forest System (NFS) 
lands, FERC determines if the project is consistent with purposes of 
the NFS lands. The Forest Service submits license conditions to FERC 
necessary for the protection and utilization of NFS lands and 
resources. The Forest Service does not propose or plan renewable energy 
projects, but responds to proposed projects. Under the Federal Power 
Act, project proponents apply for a preliminary permit and FERC 
withdraws the land to allow the proponent to study the feasibility of a 
project. The Forest Service does not pre-determine where the best 
locations are as that is up to project proponents through FERC's 
procedures. Section 24 of the Federal Water Power Act of June 10, 1920, 
as amended (16 U.S.C. 818), provides that any lands of the United 
States included in an application for power development under that Act 
shall, from the date of filing of an application therefore, subject to 
valid existing rights, be reserved from entry, location, or other 
disposal under the laws of the United States until otherwise directed 
by the FERC or by Congress. Therefore, the Forest Service responds to 
project proposals rather than identify potential areas for development.
    Question. Alaska is home to a vast amount of energy resources. What 
is the Forest Service doing to help make this energy available and 
accessible for the greater public benefit of citizens of Alaska and 
America, so that we can ``home source'' our energy supply, recapturing 
a greater portion of U.S. energy expenditures and job creation benefits 
that would otherwise occur overseas?
    Answer. The national forests in the Alaska Region are committed to 
responding to interests in developing energy sources in a timely 
fashion, consistent with forest plan direction. Currently neither 
national forest is in receipt of any proposals to develop any leasable 
(oil and gas, coal, geothermal) resources. Both national forests in the 
Alaska Region address leasable minerals, such as the energy-focused oil 
and gas, coal, and geothermal, in their forest plans. The Tongass 
Forest Plan states, as a Forest-Wide goal to, ``Provide for 
environmentally sound mineral exploration, development, and 
reclamation.'' Minerals Standards and Guides in the Tongass Forest Plan 
direct that ``leasing may occur on a case-by-case basis following site-
specific analysis.'' The Chugach Forest Plan states as a Forest-Wide 
goal, to ``Provide opportunities to develop minerals for personal and 
commercial uses.''
    Question. In 1947, the United States Forest Service (USFS) 
published a report titled ``Water Powers Southeast Alaska,'' which 
identified over 200 hydropower resources in watersheds across Alaska. 
The study summary states:
        The report indicates that it is possible to create dependable 
        blocks of power by coordinating many of the power sites into an 
        integrated utility system. There appear to be sites for 
        communities not too far from the general concentration of power 
        and natural transmission patterns.
    With the hydropower resources of Southeast Alaska so well 
understood as evidenced by a body of work assembled by Federal agencies 
which dates back nearly a century, why is it that the availability of 
these resources within the Tongass are being ignored and excluded from 
the Tongass Land Management Plan at a time in our Nation's history when 
new, clean, renewable energy resources are most needed?
    Answer. Hydropower projects are permitted through the Federal 
Energy Regulatory Commission's (FERC) authority granted by the Federal 
Power Act. When projects are located on National Forest System (NFS) 
lands, FERC determines if the project is consistent with the purposes 
of the NFS land. The Forest Service responds to project proposals in 
accordance with FERC-administered regulations and timelines. After 
extensive review and coordination with project proponents, the Forest 
Service submits license conditions to FERC necessary for the protection 
and utilization of NFS lands and resources. The Forest Service does not 
propose or plan renewable energy projects, but responds to proposed 
projects.
    Question. Does the Forest Service intend to include a renewable 
energy plan in the Forest Plan Amendment to the 2008 Amended Tongass 
Forest Plan?
    Answer. The Tongass responds to renewable energy proposals in 
accordance with applicable Federal law. The Forest Service does not, 
per se, propose or plan renewable energy projects, but responds to 
proposed projects. The current Tongass Forest Plan states, as a Forest-
Wide goal to, ``Provide for environmentally sound mineral exploration, 
development, and reclamation.'' Minerals Standards and Guides in the 
Tongass Forest Plan direct that ``leasing may occur on a case-by-case 
basis following site-specific analysis.'' We will evaluate whether 
changes to the Plan are necessary during the amendment process.
    Question. Do you agree with the Executive Summary of a 2011, Region 
10, Forest Service document entitled ``Roadmap to Rural Wealth in 
Southeast Alaska: Restoration and Timber in Context'' in which Region 
10 of the Forest Service asserted:
        Low-cost energy is critical. The high cost of electric power 
        impedes economic development in the region, yet the region is 
        rich in hydropower potential. The most promising opportunities 
        lie in developing hydroelectric power and building transmission 
        lines to connect Southeast Alaska's communities to each other 
        and to Canada's grid, generating electric power for potential 
        export. Such projects would create new jobs through 
        constructing, operating and maintaining hydroelectric and 
        transmission facilities. Previous work by the Forest Service 
        has estimated job creation by this type of work at 10 jobs for 
        every million dollars invested.
    Answer. The Alaska Region continues to support the policy of 
encouraging hydropower production to reduce the high cost of energy 
while ensuring such development is compatible with national forest 
purposes and ensuring that the planning, construction, and operation of 
hydropower projects protect and effectively utilize National Forest 
System lands and resources.
    Question. What has the Forest Service done to resolve the ``minimum 
development'' and ``no roads'' requirements within the 9.6 million 
acres of Roadless Areas of the Tongass with Congress's and the Obama 
administration's renewable energy policies?
    Answer. The Roadless Rule prohibits road construction and the 
removal of timber in inventoried roadless areas, except under limited 
circumstances. For example, the Rule permits road construction where a 
road is needed pursuant to reserved or outstanding rights, or as 
provided for by statute or treaty. Renewable energy hydropower projects 
are permitted through the Federal Energy Regulatory Commission's 
authority granted by the Federal Power Act. The Federal Power Act 
directs the Secretary of Agriculture to include conditions that ensure 
that projects are constructed and operated as ``deem[ed] necessary for 
the adequate protection and utilization of such [national forest 
lands.]'' The Alaska Region works with the proponents of hydropower 
projects to identify needed infrastructure for the proposed project and 
how those requirements can be met under the requirements of the 
Roadless Rule and the Federal Power Act.
    Question. The Forest Service acknowledged in a July 20, 2009 letter 
to Alaska Power & Telephone that a renewable energy project, 
specifically a hydropower project, sited in a Remote Recreation 
Transportation and Utility System (TUS) Avoidance Area could not meet 
the management direction for that LUD consistent with the National 
Environmental Policy Act, thereby requiring the Forest Plan to be 
amended. Notwithstanding that the commitment was made to do so nearly 5 
years ago, the Forest Service has not amended the Forest Plan, thereby 
precluding hydropower and other renewable energy projects in TUS 
Avoidance LUDs. Will the Forest Service correct this problem as part of 
the amendment process?
    Answer. As part of the proposed action in the amendment process, 
the Forest will consider whether changes are needed to the Tongass 
Forest Plan to provide for renewable energy project development.
    Question. The Draft Southeast Integrated Resources Plan (SEIRP) 
requires access to hydropower sites to promote hydropower development. 
The Draft SEIRP identified some, potential hydropower sites in 
Southeast Alaska. Further, the 1947 Water Powers of Southeast Alaska 
Report, conducted in part with the Forest Service, identified over 200 
such potential sites, many of which lay in the 2008 Forest Plan TUS 
avoidance LUDs. Such access is severely restricted by Remote Recreation 
LUDs. What actions do you plan to take in the upcoming amendment to the 
2008 Tongass Forest Plan to resolve this problem?
    Answer. This will be considered as the Tongass determines what 
issues may need to be included for updating in the amendment process.
    Question. Will the Forest Service consider a Renewable Energy LUD 
as part of the 2008 Amended Forest Plan amendment process, the purpose 
of which would be to promote and support all forms of renewable energy 
development (including geothermal) and related transmission lines 
within the Tongass consistent with Public Laws and national security 
and national energy policies?
    Answer. This will be considered as the Tongass determines what 
issues may need to be included for updating in the amendment process.
    Question. Would you agree that a Renewable Energy Development LUD 
would take precedence over any underlying LUD (subject to applicable 
laws) regardless of whether the underlying LUD is an ``Avoidance LUD'' 
or not. And as such, it would represent a ``window'' through the 
underlying LUD through which renewable resources could be accessed and 
developed?
    Answer. These types of resource development priority decisions will 
be considered as the Tongass determines what may be included in the 
amendment process.
    Question. Will the Forest Service consider allowing geothermal 
leasing in the Tongass as part of the amendment process?
    Answer. The national forests in the Alaska Region are committed to 
responding to interests in developing energy sources in a timely 
fashion, consistent with forest plan direction. Three geothermal leases 
at Bell Island have been issued by the Bureau of Land Management, but 
no development is currently taking place at the site. The Tongass is 
not currently in receipt of any proposals to develop any leasable (oil 
and gas, coal, geothermal) resources. Minerals Standards and Guides in 
the current Tongass Forest Plan already directs that ``leasing may 
occur on a case-by-case basis following site-specific analysis.''
    Question. While ``reasonable access'' is technically permitted in 
Inventoried Roadless Areas, cutting trees associated with mining 
exploration and development does not appear to be allowed. 36 C.F.R. 
Sec. 294.13(b)(2) authorizes the cutting of timber ``incidental to 
implementation of a management activity not otherwise prohibited by 
this subpart.'' However, there is no mention of mining in the examples 
provided in the 2001 Rule and Record of Decision (ROD) of what this 
section authorizes. Moreover, in describing this section the 2001 Rule 
and ROD states: ``Such management activities are expected to be rare 
and to focus on small diameter trees.'' Will you commit to me to allow 
a less restrictive form of ``reasonable access'' for mining exploration 
and development as part of the 2008 Amended Forest Plan process?
    Answer. If an inventoried roadless area on the Tongass is open to 
mineral entry, locatable mineral mining, including certain activities 
ancillary to the mining, such as the incidental cutting of timber, may 
be approved. The 1872 Mining Law gives a statutory right of reasonable 
and necessary access related to the exploration and development of 
mineral properties. The statutory right is subject to reasonable 
regulation for the protection of surface resources.
    Question. Will the 2010 Economic Analysis of Southeast Alaska 
Report be updated as part of the 2008 Forest Plan amendment process?
    Are you familiar with what the 2010 report prepared said about the 
volume of timber that could be produced from second growth stands in 
the next 10-15 years?
    Is there a sufficient volume of second-growth for harvest (subject 
to the National Forest Management Act's (NFMA) non-declining, even flow 
requirement, the Tongass Timber Reform Act's (TTRA) stream buffer strip 
requirement's and Tongass Land Management Plan's (TLMP) 1000-foot beach 
buffer zone requirement) to warrant the risk (by bank or operator) to 
justify putting in a mill, even if there were a market?
    If your answer is ``yes,'' how do you explain the point made, at 
page 23 the 2010 Economic Analysis of Southeast Alaska that states 
``young growth management is not currently economically viable without 
substantial public investments to pay for thinning?''
    Answer. The referenced report was prepared by the Alaska Region to 
explore ways to accelerate the transition of the timber management 
program on the Tongass National Forest--and the timber industry in 
Southeast Alaska that is dependent on that program--away from its 
historical reliance on harvesting old growth forest stands, and towards 
a program and industry based on the harvest of young growth stands. The 
forest plan amendment process will analyze the economics of the 
transition to young growth management.
    The report stated that about 8 percent of the forest land on the 
Tongass National Forest--400,000 acres--is in young growth, half of 
which is available for harvest under the existing forest plan. As part 
of the plan amendment process, the Tongass will evaluate which lands 
should be available for timber harvest to provide economically 
sustainable young growth, and any proposed changes to standards and 
guidelines and other management direction to promote and speed the 
transition to young growth management while maintaining a viable timber 
industry in Southeast Alaska. Investments in commercial thinning may 
allow young growth volume to be available more rapidly.
    Question. At the hearing, we discussed my concerns about the steady 
march towards losing what remains of the timber industry in Southeast 
Alaska and what we can do to reverse this trend.
    Please state the current objectives of the Transition Plan.
    Answer. As described in Secretary Vilsack's July 2, 2013 
Memorandum, the objective is to transition over the next 10 to 15 years 
to a more ecologically, socially, and economically sustainable forest 
management program on the Tongass National Forest, so that by the end 
of those 15 years, the vast majority of timber sold by the Tongass will 
be young growth.
    Question. Is the Forest Service required to adopt Secretary 
Vilsack's July 2nd Transition Plan as the Purpose and Need of the 
Amendment to the 2008 Amended Forest Plan? Is its selection as the 
preferred alternative pre-ordained?
    Answer. The proposed action will be to amend the Tongass Forest 
Plan as needed to accomplish the transition to young growth management 
over the next 10 to 15 years while retaining the expertise and 
infrastructure of a viable timber industry in Southeast Alaska, as 
outlined by the Secretary in his Memorandum. The purpose and need and 
any preferred alternative will be identified during the amendment 
process.
    Question. Is one of the Transition Plan's objectives to prevent the 
harvest of old growth in Roadless Areas? If so, explain how the Plan 
would be consistent with the 2003 Tongass Exemption.
    Answer. Secretary Vilsack's July 2, 2013 Memorandum describes the 
objective of the transition; the Memorandum does not address roadless 
areas. There is no immediate change in the application of the 2001 
Roadless Rule to the Tongass. As may be appropriate as a result of 
litigation, the Tongass Forest Plan amendment process may address the 
Tongass Exemption.
    Question. Will the Amendment to the 2008 Amended Forest Plan allow 
harvest in beach buffer zones and change stream buffer standards and 
guidelines to increase the inventory of second-growth on the Tongass 
suitable for harvest?
    Answer. The amendment process will identify areas suitable and not 
suitable for timber harvest to achieve the transition to young growth 
management. As part of the Plan amendment process, the Tongass will 
evaluate which lands should be available for timber harvest to provide 
economically sustainable young growth, and any proposed changes to 
standards and guidelines and other management direction to promote and 
speed the transition to young growth management while maintaining a 
viable timber industry in Southeast Alaska.
    Question. Does the recent 9th Circuit's decision upholding the 2003 
Tongass Roadless Rule Exemption impact the Forest Service's continuing 
its transition plan to second-growth timber on the Tongass as set out 
by Secretary Vilsack's Transition Plan?
    Answer. There is no immediate change in the application of the 2001 
Roadless Rule to the Tongass National Forest resulting from the 9th 
Circuit's decision, and there is no current impact to the transition 
from old growth to young growth timber harvest, as described in 
Secretary Vilsack's Memorandum.
    Question. Is the Transition to second-growth within 10-15 years, as 
proposed by the Secretary, dependent upon a Congressional amendment to 
the culmination of mean annual increment (CMAI) requirement set out in 
the NFMA?
    Answer. Commercial thinning in young growth stands can occur 
without Congressional action, so long as procedural requirements set 
forth in the National Forest Management Act (NFMA) are met. Those 
procedural requirements will be addressed in the Tongass Forest Plan 
amendment process.
    Question. If so, what happens to the Transition Plan if Congress 
fails to act?
    Answer. If the procedural requirements of NFMA are not addressed in 
the Tongass Forest Plan amendment process, the transition to a young 
growth based industry will proceed, but at a slower, more measured 
pace.
    Question. How do you assess the Forest Service's political chances 
of getting a Congressional waiver from CMAI, which the Secretary's 
Memorandum acknowledges is needed, given that CMAI was a key demand of 
environmental groups for agreeing to clear-cutting in the NFMA after 
they won the Monongahela suit in 1973 and Zieske case in 1974?
    Answer. Culmination of mean annual increment (CMAI) requirements 
are part of every land management plan. The National Forest Management 
Act specifically allows exceptions to CMAI requirements ``. . . after 
consideration has been given to the multiple uses of the forest 
including, but not limited to, recreation, wildlife habitat, and range, 
and after completion of public participation processes . . .'' (16 
U.S.C. 1604(m))
    Question. Does the Forest Service plan to wait for Congress to act 
on CMAI before implementing the Transition to second-growth? What will 
be the status of the Amendment to the 2008 Amended Forest Plan while 
the Forest Service waits?
    Answer. The transition to young growth would be accelerated with an 
exemption to the CMAI provisions of NFMA, but the Forest Service does 
not plan to wait for Congressional action and will address the NFMA 
requirements in the Tongass Forest Plan amendment process.
    Question. If a waiver from CMAI is not achieved with the USFS seek 
to pursue a transition to 2nd Growth through commercial thinning? 
Forest Service experience with commercial thinning has cost 
approximately $6,000 per acre. What level of investment would be 
required to implement the Secretary's Transition Plan?
    Answer. A waiver from CMAI is not necessary for the transition to 
young growth management. The $6,000 per acre commercial thinning costs 
were the result of test contracts to determine the validity of 
commercial thinning in young growth and included additional costs 
associated with getting appropriate mechanized equipment mobilized into 
Southeast Alaska. With those contracts, the Region has successfully 
offered and sold a 7.4 million board feet (mmbf) young growth 
stewardship contract (Heceta) without supplemental appropriated funds 
necessary to complete the project. Heceta was appraised for 100 percent 
export and appraising for export in the future will be a key component 
of the transition in order to obtain the value necessary to be able to 
offer the projects for bid.
    Question. To what extent will the Forest Service allow export of 
2nd Growth logs to achieve the goals laid out in the Secretary's 
Transition Plan?
    Answer. The Forest Service will allow export of second growth logs, 
to the extent necessary to achieve a positive appraisal value to offer 
the project for sale. As domestic processing facilities convert or come 
on-line to deal with the smaller diameter trees in a young growth sale, 
the actual export of logs is expected to decrease.
    Question. The Forest Service faces a large backlog of pre-
commercial thinning and other treatments calculated to benefit timber 
quality and wildlife habitat. What level of finding will the Forest 
Service request for these activities?
    Answer. Based on the fiscal year 2015 President's budget, Alaska 
could expect to see a 6 percent (approx. $1 million) overall increase 
in appropriated dollars that could be used to help address the backlog 
of young stands needing for pre-commercial thinning.
    Question. The Secretary's July 2, 2013 Transition Memorandum does 
not propose a departure from the NFMA requirement that national forest 
timber be harvested on a sustained yield basis. Nor does the 
Secretary's Memorandum propose to modify the TLMP's 1000 foot beach set 
back rule or the stream buffer rules set out in TTRA. It thus appears 
that there is no profitable domestic or export market for second-growth 
timber from the Tongass National Forest that is subject to the 
management constraints of the NFMA and TLMP. How does the Forest 
Service propose to provide an assured supply of second-growth timber 
sufficient to justify mills and banks providing the financing needed to 
purchase the equipment and make the mill modifications required to 
handle second growth timber?
    Answer. All of these factors will be considered as part of the 
Tongass Plan amendment process to achieve the transition as described 
in the Secretary's Memorandum.
    Question. According to the Secretary's Memorandum, the Transition 
Plan is dependent on Congressional appropriations for ``increasing 
investments in young growth.'' The Secretary's Memorandum does not 
explain the level of investment that is needed or how in the face of 
decreasing Forest Service budgets such additional funds will be 
obtained and retained. What level of funding is the Forest Service 
requesting for this specifically and how much volume is it projected to 
produce?
    Answer. The Alaska Region would refocus the existing workforce into 
planning and executing young growth projects at an increasing pace and 
scale as old growth ``bridge timber'' sales are prepared and offered. 
Annual appropriations at or near the fiscal year 2014 budget level of 
$339 million for Forest Products will be adequate for the immediate 
future.
    It is currently uncertain what volume of young growth will be 
attainable as a result of the forest plan amendment. The proposed plan 
amendment will be designed to evaluate which lands will be available 
for timber harvest, especially young growth timber, which lands should 
be excluded, and additional opportunities to promote and speed the 
transition to young growth management.'' There are about 450,000 acres 
of harvested acres on the Tongass to be evaluated to provide new 
economic opportunities in future decades, when the trees will be large 
enough to yield marketable products. Outputs will be dependent upon the 
characteristics of the stands selected for harvest, the prescriptions 
applied and the economic viability of the selected treatments.
    Question. The Secretary's Memorandum, which results in a timber 
harvest level of 30-50 MMBF, does not explain what has changed since 
the 2008 Amended Forest Plan that would allow it to meet the Market 
Demand requirement of the TTRA which the 2008 Amended Forest Plan ROD 
said was 200 MMBF. Why does the Forest Service believe it has 
discretion to nullify the TTRA by so encumbering the suitable land base 
to surrender its ability to meet market demand?
    Answer. The Secretary of Agriculture monitors and reports on timber 
supply and demand in Southeast Alaska, consistent with ANILCA. As part 
of the Alaska Region's current program of work, an updated timber 
demand study will be completed, which will be considered in the Tongass 
Forest Plan amendment process.
    Question. The 2001 Roadless Rule prohibits communities such as 
Craig and Klawock from accessing mines with a road on Prince of Wales 
Island, thereby denying access to jobs to the residents of those 
communities and a local workforce to Prince of Wales' mines, such as 
Niblack and Bokan Mountain.
    What actions does the Forest Service plan to take to resolve this 
problem?
    Answer. The 2001 Roadless Rule explicitly allows road construction 
if ``A road is needed pursuant to reserved or outstanding rights, or as 
provided for by statute or treaty.'' This includes roads needed under 
valid existing rights established under the 1872 Mining Law. A 
determination whether a road is needed for these mines will be made 
upon submission by the mining companies involved of a proposed Plan of 
Operations that includes construction of such a road.
                        stewardship contracting
    Question. I have received reports that some of the Regions have 
been told to shift as much of their commercial timber sale program to 
stewardship contracting as possible.
    If so, why the focus on generating excess receipts by converting 
what would have been commercial timber sale projects to stewardship 
contracts?
    Answer. The Forest Service Washington Office has not directed the 
Regional Offices to shift timber sales into stewardship contracts. 
While we view stewardship contracting as an important tool, it is not 
our only tool in the toolbox. Both timber sale contracts and 
stewardship contracts are important tools to accomplish our work.
    Question. I have also been told that Forest Supervisors have been 
telling members of the public that the reason for shifting away from 
commercial timber sales to stewardship contracting is to allow the 
Forest Service to keep the excess receipts to use for salaries and road 
maintenance and under the discretion of the individual forest 
supervisor.
    The original concept of stewardship contracting was that the value 
of the timber volume would be equal to value of the service contract 
work to be accomplished. Is that not correct?
    Answer. The initial concept of stewardship contracting was and 
remains including timber volume and service work in roughly equal 
amounts within a stewardship contract. However, due to restoration 
needs and contractor capability, there are stewardship contracts where 
the value of the timber exceeds the value of the service work 
(producing retained receipts deposited into the Stewardship Contracting 
Fund) and there are stewardship contracts where the value of service 
work exceeds the value of the timber (requiring the addition of 
appropriated funds to the contract).
    Question. As I recall, the original premise of the stewardship 
contracting pilot projects was that the excess receipts were to be used 
to develop new stewardship contracts. Is that correct?
    Answer. Stewardship contracting retained receipts may be spent on 
new stewardship projects or on accomplishing additional restoration 
work within an existing stewardship project.
    Question. Please provide a table that shows by National Forest the 
percent of all saw timber sold through stewardship contracting versus 
commercial timber sale contracts.
    Answer. See the table below. Only National Forests with Sawtimber 
volume sold in fiscal year 2013 are included.

                  PERCENT OF ALL SAWTIMBER SOLD UNDER STEWARDSHIP AUTHORITY IN FISCAL YEAR 2013
----------------------------------------------------------------------------------------------------------------
                                                                                   Sawtimber
                                                               Total Sawtimber    Volume Sold       Percent of
                                                                Volume Sold in       under       Total Sawtimber
               Region                          Forest           thousand board   Stewardship in    Volume Sold
                                                                  feet (MBF)     thousand board       under
                                                                                   feet (MBF)    Stewardship (%)
----------------------------------------------------------------------------------------------------------------
01 Northern Rockies.................  02 Beaverhead-Deerlodge              127                0              0.0
                                      03 Bitterroot..........            4,692            4,557             97.1
                                      04 Idaho Panhandle.....           27,601              675              2.4
                                      05 Clearwater..........           24,329           21,879             89.9
                                      08 Custer..............              131                0              0.0
                                      10 Flathead............            6,295              578              9.2
                                      11 Gallatin............              191                0              0.0
                                      12 Helena..............                4                0              0.0
                                      14 Kootenai............           20,990            3,819             18.2
                                      16 Lolo................            1,896              130              6.9
                                      17 Nez Perce...........            6,427               10              0.2
02 Rocky Mountain...................  02 Bighorn.............           13,349                0              0.0
                                      03 Black Hills.........          116,610            2,490              2.1
                                      04 GMUG................           15,813              513              3.2
                                      06 MedBow-Routt........           26,186            2,957             11.3
                                      09 Rio Grande..........            8,491                0              0.0
                                      10 Arapahoe-Roosevelt..            8,908            4,122             46.3
                                      12 Pike-San Isabel.....            4,243            1,544             36.4
                                      13 San Juan............            7,737            3,865             50.0
                                      14 Shoshone............            2,799                0              0.0
                                      15 White River.........           17,413            5,512             31.7
03 Southwestern.....................  01 Apache-Sitgreaves...           39,206           36,020             91.9
                                      03 Cibola..............            6,081            5,787             95.2
                                      04 Coconino............           45,931           36,094             78.6
                                      06 Gila................              692                0              0.0
                                      07 Kaibab..............           19,562           18,351             93.8
                                      08 Lincoln.............              680                0              0.0
                                      09 Prescott............            1,554            1,554            100.0
                                      10 Santa Fe............            1,049              507             48.3
                                      12 Tonto...............            3,865            2,353             60.9
04 Intermountain....................  01 Ashley..............              465                0              0.0
                                      02 Boise...............           27,526           24,638             89.5
                                      03 Bridger-Teton.......            3,289                0              0.0
                                      07 Dixie...............            7,549            4,755             63.0
                                      08 Fishlake............            3,904                0              0.0
                                      12 Payette.............           10,591           10,572             99.8
                                      13 Salmon-Challis......            3,921            3,447             87.9
                                      14 Sawtooth............            1,528                0              0.0
                                      15 Caribou-Targhee.....               53               16             30.2
                                      19 Uinta-Wasatch-Cache.            4,971              307              6.2
05 Pacific Southwest................  03 Eldorado............           26,054           25,415             97.5
                                      05 Klamath.............           21,369            5,808             27.2
                                      06 Lassen..............           43,609                0              0.0
                                      08 Mendocino...........           11,868            8,036             67.7
                                      09 Modoc...............           15,986                0              0.0
                                      10 Six Rivers..........           16,393           16,201             98.8
                                      11 Plumas..............           44,114            2,888              6.5
                                      13 Sequoia.............            4,265            4,016             94.2
                                      14 Shasta-Trinity......            7,826              954             12.2
                                      15 Sierra..............           17,784            3,152             17.7
                                      16 Stanislaus..........            3,194               44              1.4
                                      17 Tahoe...............           16,257            9,952             61.2
                                      19 Lake Tahoe Basin....              336                0              0.0
06 Pacific Northwest................  01 Deschutes...........           41,066           14,628             35.6
                                      02 Fremont-Winema......           25,004           23,493             94.0
                                      03 Gifford Pinchot.....           28,565           21,750             76.1
                                      04 Malhuer.............           38,785           28,619             73.8
                                      05 Mt. Baker-Snoqualmie           11,731                0              0.0
                                      06 Mt. Hood............           32,727           32,120             98.1
                                      07 Ochoco..............           11,440            1,873             16.4
                                      09 Olympic.............           24,000                0              0.0
                                      10 Rogue River-Siskiyou           29,271            1,761              6.0
                                      12 Siuslaw.............           38,990           22,105             56.7
                                      14 Umatilla............           16,615                0              0.0
                                      15 Umpqua..............           29,751            1,661              5.6
                                      16 Wallowa-Whitman.....           27,733            2,875             10.4
                                      17 Okanogan-Wenatchee..           22,566               34              0.2
                                      18 Willamette..........           82,692                0              0.0
                                      21 Colville............           33,444           29,020             86.8
08 Southern.........................  0NFs in AL.............           22,686            5,698             25.1
                                      02 Daniel Boone........            3,310                0              0.0
                                      03 Chattahoochee-Oconee            2,263            1,162             51.3
                                      04 Cherokee............            6,241               13              0.2
                                      05 NFs in FL...........            5,889            5,486             93.2
                                      06 Kisatchie...........           22,807                0              0.0
                                      07 NFs in MS...........           30,060            4,070             13.5
                                      08 George Washington-              6,214                0              0.0
                                       Jefferson.
                                      09 Oachita.............           40,166                0              0.0
                                      10 Ozark-St. Francis...           34,233           11,632             34.0
                                      11 NFs in NC...........           11,816            1,469             12.4
                                      12 Francis Marion......           22,713                0              0.0
                                      13 NFs in TX...........           18,370           13,294             72.4
                                      60 Land Between the                1,059                0              0.0
                                       Lakes.
09 Northern.........................  03 Chippewa............            7,404            2,095             28.3
                                      04 Huron-Manistee......           14,268            2,770             19.4
                                      05 Mark Twain..........           31,264            5,634             18.0
                                      07 Ottawa..............            7,024              518              7.4
                                      08 Shawnee.............            2,023                0              0.0
                                      09 Superior............            7,908              358              4.5
                                      10 Hiawatha............           13,631            3,273             24.0
                                      12 Hoosier.............            2,426                0              0.0
                                      13 Chiquamegon-Nicolet.           14,075            1,233              8.8
                                      14 Wayne...............            1,515                0              0.0
                                      19 Allegheny...........           14,647            4,513             30.8
                                      20 Green Mountain......            2,451            2,451            100.0
                                      21 Monongahela.........            3,760              116              3.1
                                      22 White Mountain......            4,924            1,559             31.7
10 Alaska...........................  05 Tongass.............           13,572                1              0.0
                                     ---------------------------------------------------------------------------
      Total.........................  .......................        1,588,803          520,802             32.8
----------------------------------------------------------------------------------------------------------------

    Question. Please also provide by National Forest a table that show 
how much excess receipts were generated through the stewardship 
contracts for each of the last 5 years, as well as a detailed 
accounting of how those excess receipts were expended and whether any 
of those excess receipts went to pay for salaries or other employee 
expenses.
    Answer. The table in Attachment A lists stewardship contracting 
collections and spending for fiscal year 2009 to 2013. Collections 
equal the sale value of the forest products in excess of the cost of 
the service work obtained under an integrated resource contract. 
Stewardship contracting funds are available until expended for other 
authorized stewardship projects and may be used for:
  --road and trail maintenance or decommissioning to restore or 
        maintain water quality;
  --work to improve soil productivity, or other resource values;
  --prescribed fires to improve the composition, structure, condition, 
        and health of forest stands or to improve wildlife habitat;
  --removal of vegetation or other activities to promote healthy 
        forests, reduce fire hazards, or achieve other land management 
        objectives;
  --restoration and maintenance of watersheds;
  --restoration and maintenance of wildlife and fish habitat; and
  --control of noxious and invasive weeds, and re-establishment of 
        native plant species.
    The initial concept of stewardship contracting was and remains 
including timber volume and service work in roughly equal amounts 
within a stewardship contract. However, due to restoration needs and 
contractor capability, there are stewardship contracts where the value 
of the timber exceeds the value of the service work (producing retained 
receipts deposited into the Stewardship Contracting Fund (SSCC)). 
Unused balances in SSCC carry-over into the next fiscal year. This can 
create a situation where we may plan to spend more SSCC funds than we 
collect in the current fiscal year.

                              ATTACHMENT A

                     FISCAL YEAR 2009-2013 STEWARDSHIP CONTRACTING COLLECTIONS AND SPENDING
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                                Total Spending
                 Fiscal Year                              Forest Name               Total    -------------------
                                                                                 Collections   Other *  Salary *
----------------------------------------------------------------------------------------------------------------
2009.........................................  APACHE-SITGREAVES...............           0
2009.........................................  ARAPAHO-ROOSEVELT...............           0
2009.........................................  BITTERROOT......................  ...........       -12
2009.........................................  BOISE...........................  ...........       103
2009.........................................  CHEQUAMEGON-NICOLET.............         213         94
2009.........................................  CHEROKEE........................  ...........        10
2009.........................................  CLEARWATER......................         243        237
2009.........................................  COLVILLE........................         293         84        58
2009.........................................  DIXIE...........................           0
2009.........................................  ELDORADO........................       1,300        200
2009.........................................  FLATHEAD........................         257         20         0
2009.........................................  FRANCIS MARION & SUMTER.........           4         92
2009.........................................  GIFFORD PINCHOT.................          81
2009.........................................  HUMBOLDT-TOIYABE................           1
2009.........................................  HURON MANISTEE..................          45         44
2009.........................................  IDAHO PANHANDLE.................         417         38
2009.........................................  KISATCHIE.......................         256        194
2009.........................................  KLAMATH.........................           6
2009.........................................  KOOTENAI........................         229
2009.........................................  LOLO............................           0
2009.........................................  MANTI-LASAL.....................           0
2009.........................................  MENDOCINO.......................           2          2
2009.........................................  MONONGAHELA.....................  ...........        82
2009.........................................  MT HOOD.........................  ...........        -1
2009.........................................  NEZPERCE........................          94          7
2009.........................................  NFS IN ALABAMA..................  ...........        62
2009.........................................  NFS IN FLORIDA..................           1        -57
2009.........................................  NFS IN MISSISSIPPI..............         200
2009.........................................  NFS IN NORTH CAROLINA...........  ...........         3
2009.........................................  NFS IN TEXAS....................          18
2009.........................................  OKANOGAN-WENATCHEE..............           3
2009.........................................  OLYMPIC.........................          45         44
2009.........................................  PAYETTE.........................          16
2009.........................................  PIKE-SAN ISABEL.................           0
2009.........................................  RIO GRANDE......................           0
2009.........................................  SIUSLAW.........................         340        364
2009.........................................  UMATILLA........................       1,323      1,153
2009.........................................  UMPQUA..........................          92         23        80
2009.........................................  WALLOWA WHITMAN.................         203        266         1
2009.........................................  WHITE MOUNTAIN..................          22
2009.........................................  WHITE RIVER.....................           3
                                              ------------------------------------------------------------------
      2009 Totals **.........................  ................................       5,707      3,052       139
                                              ==================================================================
2010.........................................  ALLEGHENY.......................         247         56
2010.........................................  ARAPAHO-ROOSEVELT...............          80         25
2010.........................................  ASHLEY..........................           8
2010.........................................  BIGHORN.........................          59
2010.........................................  BITTERROOT......................          40         55
2010.........................................  BLACK HILLS.....................  ...........        51
2010.........................................  BOISE...........................           0          5
2010.........................................  CHEQUAMEGON-NICOLET.............          84          4
2010.........................................  CHEROKEE........................           4          0
2010.........................................  CHIPPEWA........................           1
2010.........................................  CLEARWATER......................  ...........         0
2010.........................................  COCONINO........................  ...........         0
2010.........................................  COLVILLE........................           0         47        64
2010.........................................  DANIEL BOONE....................           3
2010.........................................  ELDORADO........................         243        540
2010.........................................  FLATHEAD........................         735         41         0
2010.........................................  FRANCIS MARION & SUMTER.........         145        131
2010.........................................  GREEN MOUNTAIN/FINGER LAKES.....          16          5
2010.........................................  HIAWATHA........................          96         19
2010.........................................  HURON MANISTEE..................          24          0
2010.........................................  IDAHO PANHANDLE.................  ...........        32
2010.........................................  KISATCHIE.......................  ...........         0
2010.........................................  KOOTENAI........................           2        140
2010.........................................  LOLO............................          38
2010.........................................  MALHEUR.........................         350         20
2010.........................................  MARK TWAIN......................          47         28
2010.........................................  MENDOCINO.......................  ...........         0
2010.........................................  MT HOOD.........................         480        285
2010.........................................  NEZPERCE........................  ...........        47
2010.........................................  NFS IN ALABAMA..................          48          4
2010.........................................  NFS IN FLORIDA..................  ...........        58
2010.........................................  NFS IN MISSISSIPPI..............         631        350
2010.........................................  NFS IN TEXAS....................         585        378         0
2010.........................................  OLYMPIC.........................           3          0
2010.........................................  OTTAWA..........................           0
2010.........................................  OZARK-ST FRANCIS................  ...........         7
2010.........................................  PIKE-SAN ISABEL.................           1
2010.........................................  SHASTA TRINITY..................           1
2010.........................................  SIUSLAW.........................  ...........       314
2010.........................................  STANISLAUS......................           4
2010.........................................  SUPERIOR........................  ...........         0
2010.........................................  TAHOE...........................          44
2010.........................................  UMATILLA........................       3,445      1,416
2010.........................................  UMPQUA..........................         173          0        23
2010.........................................  WALLOWA WHITMAN.................          57          0        -1
2010.........................................  WHITE MOUNTAIN..................           4
                                              ------------------------------------------------------------------
      2010 Totals **.........................  ................................       7,698      4,058        86
                                              ==================================================================
2011.........................................  ALLEGHENY.......................  ...........        73
2011.........................................  APACHE-SITGREAVES...............           0          0
2011.........................................  ARAPAHO-ROOSEVELT...............           2          0
2011.........................................  BITTERROOT......................           8         -5
2011.........................................  BLACK HILLS.....................  ...........         1
2011.........................................  BOISE...........................  ...........        40
2011.........................................  CHATT-OCONEE....................           0
2011.........................................  CHEQUAMEGON-NICOLET.............         112         52
2011.........................................  CHIPPEWA........................           0
2011.........................................  CLEARWATER......................         593        244
2011.........................................  COLVILLE........................         150        129        81
2011.........................................  ELDORADO........................          69        851
2011.........................................  FLATHEAD........................          20        490         0
2011.........................................  FRANCIS MARION & SUMTER.........         978        461
2011.........................................  FREMONT-WINEMA..................           9
2011.........................................  GEORGE WASHINGTON/JEFFERSON.....         187
2011.........................................  GIFFORD PINCHOT.................          43
2011.........................................  GREEN MOUNTAIN/FINGER LAKES.....          67         29
2011.........................................  HIAWATHA........................  ...........        52
2011.........................................  HOOSIER.........................          10
2011.........................................  HUMBOLDT-TOIYABE................          31
2011.........................................  HURON MANISTEE..................         241         -8
2011.........................................  IDAHO PANHANDLE.................  ...........         0
2011.........................................  KISATCHIE.......................  ...........         0
2011.........................................  KLAMATH.........................  ...........         6
2011.........................................  LAND BETWEEN THE LAKES NRA......           7
2011.........................................  MALHEUR.........................       1,840      2,062
2011.........................................  MEDICINE BOW/ROUTT..............          27
2011.........................................  MENDOCINO.......................          15
2011.........................................  MT HOOD.........................         623        498
2011.........................................  NFS IN ALABAMA..................  ...........        11
2011.........................................  NFS IN FLORIDA..................          13         -7
2011.........................................  NFS IN MISSISSIPPI..............         207        175
2011.........................................  NFS IN NORTH CAROLINA...........  ...........         5
2011.........................................  NFS IN TEXAS....................         165        303         1
2011.........................................  OUACHITA........................          70
2011.........................................  OZARK-ST FRANCIS................         292          0
2011.........................................  PAYETTE.........................  ...........         0
2011.........................................  PIKE-SAN ISABEL.................           1
2011.........................................  SAN JUAN........................           0
2011.........................................  SHASTA TRINITY..................          20
2011.........................................  SIUSLAW.........................         526        325
2011.........................................  TAHOE...........................  ...........        44
2011.........................................  UMATILLA........................         868      3,225
2011.........................................  UMPQUA..........................  ...........         1        20
2011.........................................  WALLOWA WHITMAN.................         719        269
2011.........................................  WAYNE...........................          81         73
2011.........................................  WHITE RIVER.....................           0
                                              ------------------------------------------------------------------
      2011 Totals **.........................  ................................       7,994      9,399       102
                                              ==================================================================
2012.........................................  ALLEGHENY.......................  ...........        78
2012.........................................  ARAPAHO-ROOSEVELT...............           2         25
2012.........................................  ASHLEY..........................  ...........         5
2012.........................................  BEAVERHEAD-DEERLODGE............  ...........        14
2012.........................................  BIGHORN.........................  ...........        18
2012.........................................  BITTERROOT......................          40         10
2012.........................................  BLACK HILLS.....................          21          0
2012.........................................  BOISE...........................          49         87
2012.........................................  BRIDGER-TETON...................           9
2012.........................................  CHATT-OCONEE....................  ...........        18
2012.........................................  CHEQUAMEGON-NICOLET.............         524         51
2012.........................................  CLEARWATER......................         190        429
2012.........................................  COLVILLE........................         276         14        36
2012.........................................  DESCHUTES.......................           1
2012.........................................  DIXIE...........................           0
2012.........................................  ELDORADO........................         150        178
2012.........................................  FLATHEAD........................          79        549         0
2012.........................................  FRANCIS MARION & SUMTER.........         943        462
2012.........................................  GEORGE WASHINGTON/JEFFERSON.....  ...........        64
2012.........................................  GIFFORD PINCHOT.................          10         41
2012.........................................  GREEN MOUNTAIN/FINGER LAKES.....          10         21
2012.........................................  HIAWATHA........................  ...........         6
2012.........................................  HURON MANISTEE..................           6         20
2012.........................................  IDAHO PANHANDLE.................  ...........       189
2012.........................................  KISATCHIE.......................           3        -76
2012.........................................  KLAMATH.........................           1
2012.........................................  KOOTENAI........................  ...........         0
2012.........................................  LINCOLN.........................           1
2012.........................................  MALHEUR.........................       2,313      1,406
2012.........................................  MEDICINE BOW/ROUTT..............           3
2012.........................................  MENDOCINO.......................           2
2012.........................................  MONONGAHELA.....................  ...........        11
2012.........................................  MT HOOD.........................         207        470
2012.........................................  NFS IN ALABAMA..................           3         11
2012.........................................  NFS IN FLORIDA..................          37
2012.........................................  NFS IN MISSISSIPPI..............         369        165
2012.........................................  NFS IN NORTH CAROLINA...........  ...........        67
2012.........................................  NFS IN TEXAS....................         325        441
2012.........................................  OLYMPIC.........................           1
2012.........................................  OTTAWA..........................          83         40
2012.........................................  OUACHITA........................         163         27
2012.........................................  OZARK-ST FRANCIS................  ...........        50
2012.........................................  PAYETTE.........................          89         50
2012.........................................  PIKE-SAN ISABEL.................           2          1
2012.........................................  PLUMAS..........................          13
2012.........................................  SIUSLAW.........................         688        427
2012.........................................  TAHOE...........................  ...........         0
2012.........................................  TONGASS.........................          13
2012.........................................  UMATILLA........................       2,223          0
2012.........................................  UMPQUA..........................  ...........        51        17
2012.........................................  WALLOWA WHITMAN.................         277        236
2012.........................................  WAYNE...........................  ...........         0
2012.........................................  WILLAMETTE......................         305
                                              ------------------------------------------------------------------
      2012 Totals **.........................  ................................       9,431      5,656        53
                                              ==================================================================
2013.........................................  AGENCY FINANCIAL STATEMENTS.....           0
2013.........................................  ALLEGHENY.......................         232         79
2013.........................................  APACHE-SITGREAVES...............           0
2013.........................................  ARAPAHO-ROOSEVELT...............           4          0
2013.........................................  BIGHORN.........................           0         18
2013.........................................  BITTERROOT......................           0          0
2013.........................................  BLACK HILLS.....................           0         16
2013.........................................  BOISE...........................           0         48
2013.........................................  CHATT-OCONEE....................           0          1
2013.........................................  CHEQUAMEGON-NICOLET.............          68        132
2013.........................................  CHEROKEE........................          12
2013.........................................  CHIPPEWA........................           0          0
2013.........................................  CIBOLA..........................           0
2013.........................................  CLEARWATER......................         380        437
2013.........................................  COCONINO........................           0
2013.........................................  COLUMBIA RIVER GORGE NAT AREA...          68
2013.........................................  COLVILLE........................         755         -9        41
2013.........................................  DESCHUTES.......................         500        416
2013.........................................  DIXIE...........................           0
2013.........................................  ELDORADO........................         695        136
2013.........................................  FLATHEAD........................         525        346
2013.........................................  FRANCIS MARION & SUMTER.........       1,028      1,064
2013.........................................  FREMONT-WINEMA..................          41
2013.........................................  GALLATIN........................           0
2013.........................................  GIFFORD PINCHOT.................          38        -17
2013.........................................  GRAND MESA-UNC-GUNN.............           0
2013.........................................  GREEN MOUNTAIN/FINGER LAKES.....         111         70
2013.........................................  HIAWATHA........................           1          7
2013.........................................  HOOSIER.........................          13
2013.........................................  HURON MANISTEE..................         136         31
2013.........................................  IDAHO PANHANDLE.................           0          9
2013.........................................  INYO............................           2
2013.........................................  KAIBAB..........................           1
2013.........................................  KISATCHIE.......................           0          7
2013.........................................  KLAMATH.........................           0          0
2013.........................................  KOOTENAI........................         171          0
2013.........................................  LAND BETWEEN THE LAKES NRA......           0
2013.........................................  LASSEN..........................           0
2013.........................................  LEWIS AND CLARK.................          11
2013.........................................  LINCOLN.........................           0
2013.........................................  LOLO............................          70         45
2013.........................................  LOS PADRES......................           1
2013.........................................  MALHEUR.........................       1,589      2,785
2013.........................................  MANTI-LASAL.....................           0
2013.........................................  MARK TWAIN......................           3          0
2013.........................................  MEDICINE BOW/ROUTT..............          13
2013.........................................  MONONGAHELA.....................           3        342
2013.........................................  MT BAKER-SNOQUALMIE.............          30
2013.........................................  MT HOOD.........................       1,377        253
2013.........................................  NFS IN ALABAMA..................           0          7
2013.........................................  NFS IN FLORIDA..................          20         28
2013.........................................  NFS IN MISSISSIPPI..............           0        655
2013.........................................  NFS IN NORTH CAROLINA...........           1         11
2013.........................................  NFS IN TEXAS....................         655        568         1
2013.........................................  OKANOGAN-WENATCHEE..............           0
2013.........................................  OTTAWA..........................         301        270
2013.........................................  OUACHITA........................          80         20
2013.........................................  OZARK-ST FRANCIS................           0         46
2013.........................................  PAYETTE.........................           0          0
2013.........................................  PIKE-SAN ISABEL.................           0
2013.........................................  PLUMAS..........................           0
2013.........................................  ROGUE RIVER/SISKIYOU............           0
2013.........................................  SALMON-CHALLIS..................           0
2013.........................................  SAN JUAN........................           0
2013.........................................  SIERRA..........................           0
2013.........................................  SIUSLAW.........................       1,225      1,028
2013.........................................  SIX RIVERS......................           0
2013.........................................  STANISLAUS......................           0
2013.........................................  SUPERIOR........................           0
2013.........................................  TAHOE...........................         361
2013.........................................  TONGASS.........................           0
2013.........................................  UMATILLA........................         770        597
2013.........................................  UMPQUA..........................         564         16        79
2013.........................................  WALLOWA WHITMAN.................         507        394
2013.........................................  WAYNE...........................           0
2013.........................................  WHITE MOUNTAIN..................           0          2
2013.........................................  WHITE RIVER.....................           3
                                              ------------------------------------------------------------------
      2013 Total **..........................  ................................      12,365      9,858       121
                                              ==================================================================
        Total **.............................  ................................      43,200     32,016       501
----------------------------------------------------------------------------------------------------------------
* Salary is defined as all spending in Budget Object Classification (BOC) codes starting with 11 and 12, and
  Other is all remaining BOCs.
** The total Costs and Spending may not exactly match the numbers in MAX because data was run at different
  points in year, which may result in some prior year adjustments.

    Question. Alaska's timber industry predominantly consists of small 
businesses. In fact, small business purchasers have bought the majority 
of the timber sale volume offered by the Federal Government for the 
last 60 years. I have asked about the agency's plans for applying the 
small business set aside requirement to stewardship contracting sales 
and you indicated that there were ``issues'' that were being 
considered.
    What are those ``issues'' being considered?
    Answer. The Small Business Administration (SBA) has requested 
inclusion of the Stewardship Integrated Resource Timber Contracts 
(IRTCs) in the Small Business Timber Sale Set-Aside Program. The use of 
IRTCs has increased to the extent that, on some market areas (outside 
of Alaska), only stewardship sales are being offered; thus, no sales 
are available to be set-aside for preferential bidding by small 
businesses when the Set-Aside Program is initiated (``triggered'') on a 
market area.
    Question. Does the administration plan to move forward with a small 
business set-aside program for stewardship contracting?
    If so, when do you expect this to occur?
    Answer. Based upon direction from Congress, any changes in Small 
Business Timber Sale Set-Aside Program policy or manual direction are 
required to go through a public review and comment process. The Forest 
Service plans to publish a Proposed Directive in the Federal Register 
for public review and comment which includes adding sawtimber volumes 
sold via IRTCs in the volumes used to calculate market shares under the 
Set-Aside Program and evaluating sawtimber volumes sold via IRSCs and 
their effect upon the Set-Aside Program at the end of the current 5-
year recomputation period (10/1/2010-9/30/2015). The Proposed Directive 
is currently being prepared for Agency and Departmental clearance.
                          secure rural schools
    Question. Your agency's proposal includes a 5-year reauthorization 
of Secure Rural Schools (SRS). It is the same proposal that has 
appeared in the last couple of budgets. What we really need is a long-
term solution that gets the cut up across our forests so that we have 
both revenue and jobs.
    Approximately how much revenue does the Forest Service expect to 
collect and use to offset the SRS program cost of $251 million for 
fiscal year 2015?
    Answer. The proposal for the fiscal year 2015 Secure Rural Schools 
program includes $115 million in collections to offset the total cost 
of $251 million.
    Question. Does the agency have any suggested ``pay for's'' 
(Offsets) to cover the mandatory spending proposed for this program?
    Answer. The proposal is offset within the President's budget.
                           aviation questions
    Question. Please provide a table with the description of each of 
the Next Generation tankers that you expect to be on the line fighting 
fire this year. In the table please include the name of the contractor, 
a description of the asset, and status of each contract.

    Answer. Next Generation Airtankers Fiscal Year 2014:

----------------------------------------------------------------------------------------------------------------
                                                                                    # of       Estimated Start
                    Vendor                                   Type                 Aircraft           Date
----------------------------------------------------------------------------------------------------------------
10-Tanker....................................  DC-10..........................            1             05/05/14
10-Tanker (additional equipment clause)......  DC-10..........................            1             05/19/14
10-Tanker (additional equipment clause)......  DC-10..........................            1             07/01/14
Aero Air.....................................  MD-87..........................            2   06/05 and 06/10/14
Aero Air (additional equipment clause).......  MD-87..........................            1             07/01/14
Aero Flite...................................  RJ-85..........................            2   06/20 and 06/30/14
Aero Flite (additional equipment clause).....  RJ-85..........................            1             07/01/14
Coulson......................................  C-130Q.........................            1             05/13/14
Minden.......................................  BAe-146........................            1   Missed 04/25 Start
Neptune (additional equipment clause)........  BAe-146........................            1             05/16/14
Neptune (additional equipment clause)........  BAe-146........................            1             05/16/14
Neptune (additional equipment clause)........  BAe-146........................            1             06/01/14
----------------------------------------------------------------------------------------------------------------

    Question. As a result of last year's military appropriations bill 
you were to receive seven older C-130 H models from the Coast Guard. 
When will those seven C-130's be tanked, certified, and on the line 
fighting fire?
    Please provide a list of each aircraft, what work remains to be 
accomplished and the earliest and latest date that those individual 
aircraft will be available for firefighting.
    Answer. We expect the first aircraft to be transferred in late 2014 
or early 2015 and be available for limited operations in 2015 with a 
Modular Airborne FireFighting System (MAFFS) II system. This aircraft 
would be fitted with the gravity tank sometime in fiscal year 2016. The 
C-130H aircraft will be Forest Service owned and contractor operated 
and maintained. We expect three additional aircraft to be transferred 
in fiscal year 2017 and the remaining three to be transferred in fiscal 
year 2018.

------------------------------------------------------------------------
                                Fiscal   Fiscal   Fiscal  Fiscal  Fiscal
           Aircraft              Year     Year     Year    Year    Year
                                 2014     2015     2016    2017    2018
------------------------------------------------------------------------
1708.........................  CWR,     Deliver  RDS      ......  ......
                                PDM,     ed to
                                OWR      USFS,
                                         2nd
                                         Quarte
                                         r
 
1719.........................  .......   CWR, PDM, OWR,   Delive
                                               RDS         red
                                                           to
                                                           USFS,
                                                           1st
                                                           Quart
                                                           er
 
1706.........................  .......  .......  PDM,     Delive
                                                  OWR,     red
                                                  RDS      to
                                                           USFS,
                                                           3rd
                                                           Quart
                                                           er
 
1721.........................  .......  .......  PDM,     Delive
                                                  RDS      red
                                                           to
                                                           USFS,
                                                           4th
                                                           Quart
                                                           er
 
1713.........................  .......  .......  .......  CWR,    Delive
                                                           PDM,    red
                                                           OWR,    to
                                                           RDS     USFS,
                                                                   1st
                                                                   Quart
                                                                   er
 
1709.........................  .......  .......  .......  CWR,    Delive
                                                           PDM,    red
                                                           OWR,    to
                                                           RDS     USFS,
                                                                   2nd
                                                                   Quart
                                                                   er
 
1714.........................  .......  .......  .......  PDM,    Delive
                                                           OWR,    red
                                                           RDS     to
                                                                   USFS,
                                                                   4th
                                                                   Quart
                                                                   er
------------------------------------------------------------------------
CWR--Center Wing Box Replacement
OWR--Outer Wing Box Replacement
PDM--Programmed Depot Maintenance
RDS--Retardant Delivery System Install

    Question. As part of the Farm Bill you receive authorization to 
contract for up to five new C-130 J models through a leasing scheme.
    What steps have to be undertaken before you will have those 
aircraft available to fight fires?
    Answer. The Forest Service is planning on posting a Request for 
Information (RFI) in Fed Biz Opps to allow vendors to explore 
innovative options for meeting the intent of the Farm Bill 
authorization.
    Once the Forest Service receives results from the RFI we will 
evaluate how to move forward in exploring use of this authority. 
Depending on vendor options provided, fleet needs, and other contracted 
and owned aircraft already obtained, we may pursue an RFP.
    Question. What is the estimated cost of leasing, converting, and 
finding private contractors to fly and maintain those aircraft?
    Answer. Until the proposals are evaluated from the Request for 
Information, the costs and availability of contractors cannot be 
determined.
    Question. When will each of those aircraft be on the line to fight 
fires?
    Answer. Until the proposals from a solicitation are evaluated, 
options and timelines are speculative.
    Question. During a late March Aerial Fire Fighting Conference in 
Sacramento, California the commander of the Channel Island Air National 
Guard base that operates several of the C-130's they provide the Forest 
Service for firefighting indicated that the Air National Guard and the 
Forest Service and other would be undertaking a redesign of the MAFF II 
units because the current units were considered substandard. He went on 
to explain that the current units only lay-down a slurry line that is 
about 60 yards wide, far less than the 220 yard wide slurry line that 
is called for.
    Why is it that this information has not been provided to Congress 
by the Forest Service?
    Answer. The MAFFS II systems meet the minimum standards for 
retardant delivery systems established by the Interagency Airtanker 
Board. The MAFFS II line is narrower than the line produced by 
commercial large airtankers, but produces a more contiguous pattern. 
This refinement of MAFFS II will improve performance of the system. The 
MAFFS II design is over a decade old and new technology and refinement 
of the existing system may improve coverage levels, effectiveness and 
reduce overall weight of the system. MAFFS 2.5 will also take advantage 
of the additional capabilities of the C-130J aircraft based at Channel 
Island.
    Question. What will the expected cost of the redesign be?
    Answer. The National Defense Authorization Act 2013 identified $16 
million in MAFFS funding. The Forest Service has already contributed 
over $1 million toward the MAFFS 2.5 refinement.
    Question. When will the new slurry MAFF III units be ready for use?
    Answer. The estimated delivery is 3 years. Once the first system is 
produced it will have to undergo extensive testing, field evaluation 
and Air Force review.
    Question. Are you concerned about greater risks to ground fire 
fighters because of this defect?
    Answer. No. The MAFFS II systems have performed well since being 
implemented and continue to be an important surge capacity.
                 collaborative forest landscape program
    Question. The Budget request includes a proposal to expand the 
Collaborative Forest Landscape Program by increasing the funding from 
the currently authorized level of $40 million per year to $60 million 
per year. Currently that $40 million supports 23 projects with each 
approved project eligible for up to $4 million per year for up to 10 
years. This program is heavily geared to restoration in fire adapted 
ecosystems and is supposed to have as its focus bringing down fire 
suppression costs by working collaboratively and strategically to bring 
fire suppression costs down. I am becoming concerned that this program 
is becoming simply another budget line item to fund collaborative 
forest restoration work that could otherwise be accomplished through 
other budget line items outside of the program. There are many 
opportunities outside of CFLR to expand management nationwide.
    What assurances can you give me that the current and future 
projects selected will be projects suited for this program specifically 
that meet all its criteria and are not simply work that could be 
accomplished outside the program umbrella?
    Answer. Proposals will be prepared in response to a Request for 
Proposals that specifically calls for collaborative teams to address 
how their project meets the purposes of the Act. In addition, proposals 
will be reviewed by an interdisciplinary Federal Advisory Committee 
that will recommend projects for funding to the Secretary. This 
Advisory Committee will specifically be looking for projects that meet 
the criteria of the Act.
    Question. The CFLR program requires matching funds for projects 
approved under the program. I am receiving reports from regions with 
CFLR projects that CFLR funds are not supplementing but are actually 
supplanting or displacing regular funds for national forest system 
units that have projects. To your knowledge, is this occurring?
    Answer. Regions and Forests have prioritized the funding of CLFR 
projects against other initiatives or priorities. In many cases, CFLR 
is the primary program of work or a major part of their program of 
work. The matching funds for the program utilize appropriated Agency 
funds, in-kind and partner contribution as well as funds provided 
through the legislation.
    Question. What assurances can you give me that the CFLR funds are 
truly supplemental to regular unit funds and that concrete financial 
matching is occurring at the regions?
    Answer. We keep detailed records on the funding spent for each 
project. In fiscal year 2012, projects spent $26.2 million in CFLR 
funds and over $59 million in other funds, including $12.4 million in 
partner contributions.
    Question. What significant results can you report on today from the 
projects funded through the program that would justify a 50 percent 
increase in funding at this time?
    Answer. In fiscal year 2014, we have 23 projects funded through 
CFLR. Between fiscal year 2010 and fiscal year 2013, these 23 projects 
have generated more than 838 million board feet (mmbf) of timber, 
established or improved forest vegetation on 191,000 acres, restored or 
enhance 936,000 acres of terrestrial habitat, and enhanced community 
safety through the treatment of hazardous fuels on more than 661,200 
acres. Additionally, in fiscal year 2013 alone these projects created 
or maintained more than 5,307 jobs and generated more than $195 million 
in labor income, supporting rural economies in 14 States.
    Note that these accomplishments are larger than what was reported 
in the fiscal year 2015 Budget Justification because they include the 
three additional projects added in fiscal year 2013, whereas the Budget 
Justification only reported on the accomplishments of the 20 projects 
that existed as of 2012.
    Question. If the program authorization were increased and funded at 
$60 million, outline specifically what/how the Forest Service would 
spend that additional funding?
    Answer. The fiscal year 2015 President's budget would expand the 
authority of the 23 existing projects and also permit the investment in 
up to 10 new CFLRP projects. New CFLRP projects will be submitted by 
Forest Service Regions and reviewed by the Advisory Committee. The 
Advisory Committee will then submit recommendations for funding 
projects to the Secretary of Agriculture, who will make a final 
decision regarding which projects will receive CFLRP funds. The 
Secretary may select up to 10 new projects for funding in fiscal year 
2015. As the new projects are selected and begin to implement 
treatments on the ground, we expect outputs to increase. The increases 
are primarily expected in fiscal year 2016 and beyond.
    Question. Please provide the list of current projects and how much 
each project has received to date, and would be expected to receive in 
fiscal year 2015 if funded at the $40 million level? If funded at the 
$60 million level?
    Answer. The table below displays the funding to date by project and 
planned project funding for fiscal year 2015 at the $40 and $60 million 
levels. We plan to allocate approximately $13.4 million of the 
additional $20 million requested in fiscal year 2015 to existing 
projects and use the remaining to begin work on new projects that would 
be identified and selected in fiscal year 2015.

----------------------------------------------------------------------------------------------------------------
                                                                           Total Funds  Fiscal Year  Fiscal Year
                                                                             (Fiscal     2015 CFLRP   2015 CFLRP
              Project Name                Reg.          Forest(s)           Year 2010    funded at    funded at
                                                                            to Fiscal   $40 million  $60 million
                                                                            Year 2014)     level        level
----------------------------------------------------------------------------------------------------------------
Southwestern Crown of the Continent....      1  Lolo, Flathead, Helena...  $16,366,292   $2,996,206   $4,000,000
Selway-Middle Fork Clearwater Project..      1  Nez Perce, Clearwater....   16,209,079    2,996,206    4,000,000
Kootenai Valley Resource Initiative....      1  Idaho Panhandle..........    2,004,265    1,002,125    1,337,859
Uncompahgre Plateau....................      2  Uncompahgre..............    4,279,120      849,724    1,134,400
Colorado Front Range...................      2  Arapaho, Roosevelt, Pike,   16,339,017    2,996,206    4,000,000
                                                 San Isabel.
4 Forest Restoration Initiative........      3  Apache-Sitgreaves,          17,337,007    2,996,206    4,000,000
                                                 Kaibab, Coconino, Tonto.
Southwest Jemez Mountains..............      3  Santa Fe/Valles Caldera     14,118,012    2,996,206    4,000,000
                                                 Trust & National
                                                 Preserve.
Zuni Mountain CFLRP....................      3  Cibola...................    1,965,501      599,241      800,000
Weiser-Little Salmon Headwaters CFLRP..      4  Payette..................    9,694,537    2,883,848    3,850,000
Dinkey Landscape Restoration Project...      5  Sierra...................    5,105,832      940,074    1,255,019
Burney-Hat Creek Basins Project........      5  Lassen...................    2,746,110    1,057,144    1,411,310
Amador-Calaveras Consensus Group             5  Eldorado and Stanislaus..    3,794,317    1,208,515    1,613,394
 Cornerstone Project.
Tapash.................................      6  Okanagan-Wenatchee.......   10,364,010      310,247      414,187
Deschutes Skyline......................      6  Deschutes................    4,783,687    1,007,100    1,344,500
Lakeview Stewardship CFLR Proposal.....      6  Fremont-Winema...........   10,229,507    2,172,249    2,900,000
Southern Blues Restoration Coalition...      6  Malheur..................    7,393,067    1,872,629    2,500,000
Northeast Washington Forest Vision 2020      6  Colville.................    5,767,003    2,713,952    3,623,185
Accelerating Longleaf Pine Restoration       8  Florida/Osceola..........    7,090,863    1,336,439    1,784,175
 in Northeast Florida.
Shortleaf-Bluestem Community...........      8  Ouachita.................    5,097,110    1,789,858    2,389,500
Grandfather Restoration Project........      8  Pisgah...................    1,588,596      359,345      479,733
Ozark Highlands Ecosystem Restoration..      8  Ozark-St. Francis........    5,079,472    1,613,629    2,154,230
Longleaf Pine Ecosystem Restoration and      8  De Soto..................    8,161,331    2,247,154    3,000,000
 Hazardous Fuels Reduction.
Missouri Pine-Oak Woodlands Restoration      9  Mark Twain...............    2,525,831    1,055,697    1,409,379
                                        ------------------------------------------------------------------------
      Total............................  .....  .........................  178,039,566   40,000,000   53,400,871
----------------------------------------------------------------------------------------------------------------

    Question. The Forest Service is scheduled to report to Congress on 
the program at the five year mark to determine whether it is meeting 
the program goals. Are you on schedule to complete this report? When 
can Congress expect to receive it?
    Answer. We are on track to meet this request. In 2011, we began a 
collaborative process with project groups and interested partners to 
develop indicators to feed this required report. Project teams are 
poised to report out on these indicators at the close of the fiscal 
year. This information will be supplemented with data gathered through 
our annual reporting cycle. We are working with internal experts, 
partner groups, and collaborative projects to develop a template to 
best report project progress with the goal of completing the report in 
March 2015.
                        wildfire cap adjustment
    Question. If budgeting and requesting 100 percent of the 10-year 
average isn't working, and your suppression costs are exceeding those 
levels, has the Forest Service considered using any different method to 
determine your budget request that might be more accurate?
    Answer. Using the 10-year average is a viable method for 
determining funding need, as is the case with wildfire suppression. The 
fiscal year 2015 President's budget recognizes that catastrophic fires 
should be considered disasters, and includes a proposed cap adjustment 
that is designed to budget for the likely worst case scenario.
    Question. Instead of requesting 100 percent of the 10-year rolling 
average, your budget proposal requests just 70 percent of it. This 
departs from the longstanding practice of the agency requesting the 10-
year average and this committee providing that amount. How did you 
arrive at the 70 percent number?
    Answer. We are requesting 70 percent of the 10-year average because 
Forest Service and the Department of the Interior analysis has shown 
that 1 percent of fires represent 30 percent of Suppression costs. 
These are the most difficult, most costly fires--truly outside the norm 
and akin to ``disasters.'' The other 70 percent represent costs of 99 
percent of fires--those ``normal'' fires that should be paid for within 
the agencies' budgets. The remaining 30 percent and anything above the 
10-year average would be paid for like Congress pays for other 
disasters--through a cap adjustment.
    Question. Is it the position of the Forest Service that simply 
exceeding 70 percent of the 10-year rolling average of suppression 
costs equals an emergency or as you are calling it a ``disaster?'' 
Please explain.
    Answer. No. The administration recommends that funds within the 
budget cap adjustment be accessible only for wildland fire suppression 
operations if one or more of the following criteria are met and a 
declaration has been issued by the Secretary of Agriculture (or the 
Department of the Interior):
  --a fire has required an emergency Federal response based on 
        significant complexity, severity, or threat posed by the fire 
        to human life, property, or resources; or
  --the fire covers 1,000 acres or more; or
  --the fire is within 10 miles of a major urban area (defined as 
        50,000 inhabitants or more); and
  --the cumulative costs of wildfire suppression operations will exceed 
        all of the amounts previously appropriated within 30 days.
    Question. One of the arguments being made in support of this 
proposal is that it will allow the agencies to fund in its program 
budget more fire prevention activities including hazardous fuel 
reduction and forest restoration, because now you must only ask for 70 
percent of the 10-year average instead of 100 percent? Can you outline 
for me specifically how much of these newly freed up funds have been 
made available to the Forest Service through the cap adjustment and how 
you intend to spend it?
    Answer. Compared to the fiscal year 2014 enacted budget, over $160 
million would be ``freed up'' in the Forest Service to invest in 
prevention and preparedness programs with this proposal. Those funds 
would go towards Landscape Scale Restoration (LSR), Collaborative 
Forest Landscape Restoration (CFLRP), Integrated Resource Restoration 
(IRR), Hazardous Fuels, Suppression and Preparedness in fiscal year 
2015 (the fiscal year 2015 Forest Service proposed budget is $125 
million less than the fiscal year 2014 enacted budget, due to continued 
efforts to reduce the deficit). When the fiscal year 2015 budget 
request was being prepared, the fiscal year 2014 budget was not 
enacted. As such, comparisons were made to the fiscal year 2014 
President's budget. When doing so, over $300 million in additional 
funding was allocated to LSR, CFLRP, IRR, Hazardous Fuels, Suppression, 
Preparedness, and State and Volunteer Fire Assistance.
    Question. What is your legislative strategy to enact the cap 
adjustment?
    Answer. The Administration is working with Congress and 
stakeholders to support and explain this proposal, especially the 
effects the fire funding problem is having on the Forest Service and 
the Department of the Interior programs. Given that a similar approach 
was proposed in bi-partisan bills in both the Senate and House, the 
administration is looking forward to working with congressional leaders 
in both Chambers to educate fellow members and encourage support, 
especially in the Budget Committees.
                             roadless rule
    Question. Last month's Ninth Circuit Court Decision upheld the 
rulemaking by which the USDA promulgated the 2003 Tongass Exemption. In 
promulgating the 2003 Exemption rule the USDA relied upon the 2000 
Roadless Rule Environmental Impact Statement (EIS). The case was 
remanded to the United States District Court for the District of Alaska 
to decide whether or not a Supplemental Environmental Impact Statement 
(SEIS) should have been prepared to support the 2003 Exemption rule. If 
the District Court determines that a Supplemental Environmental Impact 
Statement (SEIS) should have been prepared will the Forest Service 
prepare an SEIS in support of the 2003 rulemaking?
    Answer. The Forest Service will comply with the terms of the 
District Court's judgment at the time that it is issued.
    Question. If the District Court determines that a SEIS was not 
required will the Forest Service appeal that decision to the 9th 
Circuit.
    Answer. The Forest Service will comply with the terms of the 
District Court's judgment at the time that it is issued.
    Question. If the District Court determines that a SEIS was not 
required and an appeal, if any, agrees that a SEIS is not required will 
the USDA engage in new rulemaking to extinguish the 2003 Exemption?
    Answer. The Forest Service will comply with the terms of the 
District Court's judgment at the time that it is issued.
                                 ______
                                 
               Questions Submitted by Senator John Hoeven
    Question. As you mention in your testimony, one of the three key 
areas the President's fiscal year 2015 budget focuses on is managing 
wildland fires. As you know, wildfires have always been common and 
widespread in North Dakota. On a broader scale, there are more than 
70,000 communities that we know are at risk from wildfire.
    Specifically, the State Fire Assistance and Volunteer Fire 
Assistance Programs are primary Federal programs that assist 
communities to prepare for, and States and local fire departments to 
respond to, wildfires. We know that State and local resources are often 
the first to arrive at wildland fires, regardless of where they start--
national forests, the Bureau of Land Management (BLM), private or State 
lands. How is your department focusing on helping communities prepare 
for wildfires in advance and bolstering state and local initial attack 
resources to help keep unwanted fires, and their costs, as low as 
possible?
    Answer. Our Cooperative Fire programs--State and Volunteer Fire 
Assistance--provide funding for training and equipping State and local 
firefighters, to build capacity to provide effective initial attack 
response to wildfire. These State and local firefighters are often the 
Nation's first line of defense against wildland fires--almost 75 
percent of wildland fires are first responded to by State and local 
fire departments. We will continue to provide funding that is level 
with fiscal year 2014 amounts in the fiscal year 2015 budget for these 
important programs. We are also focusing our hazardous fuels treatments 
in and around communities to help reduce the risk of wildfires. In 
particular the fiscal year 2015 President's budget contains a proposal 
to provide $38 million in competitive funding for projects that reduce 
the risk to communities, targeted to areas of high risk near 
communities actively working on becoming fire adapted.
    Question. As you know, I was a member of the Senate and House 
conference committee which worked to pass a long-term Farm Bill. 
Included in the bill are several important authorities for the Forest 
Service which I hope will help reduce the cost of managing forests. 
Specifically, we included authority for stewardship contracting, the 
Good Neighbor Authority, and the Insect & Disease Infestation 
provision.
    Can you speak to the role of each of these authorities in helping 
the Forest Service get more work done on the ground, work that is 
urgently needed to ensure long-term ecological, economic and social 
health of our forests, communities, and economies?
    Answer. The Forest Service expects that the authorities included in 
the Farm Bill--permanent reauthorization for stewardship contracting, 
the Good Neighbor Authority, and the Insect & Disease Infestation 
provision will help us to more effectively restore our national forests 
while also benefiting local communities.
    Stewardship contracting helps the Forest Service achieve land and 
natural resource management goals while promoting closer public-private 
working relationships by using the value of forest products to offset 
the cost of services. Improved economic conditions and expanded markets 
for products have contributed to the expanded use of this tool. 
Overall, during the past 6 fiscal years, stewardship contracting 
acreage has nearly tripled. In addition to improved economic 
conditions, a better understanding of how to best use the tool has led 
to the increased size of projects. In fiscal year 2013 the Forest 
Service: established over 3,300 acres of forest vegetation, improved 
over 72,000 acres of wildlife habitat, treated over 130,000 acres of 
hazardous fuels, and treated over 2,700 acres of noxious weeds and 
invasive plants through stewardship contracting.
    The Forest Service is very interested in the recently expanded Good 
Neighbor Authority. We believe it will provide an important new tool to 
allow us to work more effectively with States implementing needed 
watershed restoration activities.
    The Farm Bill provided the opportunity for Governors to request 
areas to be designated in their State that are experiencing, or at risk 
of an insect or disease epidemic. Based on the Governor's 
recommendations, the Forest Service has designated over 45 million 
acres of National Forest System lands across 94 national forests in 35 
States to address insect and disease threats. The Forest Service will 
collaboratively work with States, tribes, partners, stakeholders and 
the public to implement landscape scale restoration projects within 
these designated areas that reduce the risk of insect and disease 
infestations. The ability to use the expedited National Environmental 
Policy Act procedures found in section 104 of the Healthy Forest 
Restoration Act for environmental analyses along with the new 
categorical exclusion to implement collaborative restoration projects 
within these designated areas will help to provide for more efficient 
decisionmaking and project implementation.
    Question. Could you please provide me with an update on the science 
you are using for the determination of management practices for the 
grasslands? Specifically, what science was used to develop the Draft 
Record of Decision (ROD) for the North Billings County Allotment 
Management Plan Revisions?
    Answer. After signing the Dakota Prairie Grasslands Plan in 2002, 
the Regional Forester empanelled an independent group of scientists to 
review the parts of the plan related to livestock grazing. The 
resulting Scientific Review Team (SRT) consisted of eight members. Team 
members were selected based on recommendations of the North Dakota 
Governor's office, conservation and industry groups, state and Federal 
natural resource agencies, and county representatives. Recommendations 
from the SRT were incorporated into the Draft Record of Decision. The 
Natural Resources Conservation Service (NRCS) and North Dakota State 
University (NDSU) also contributed numerous data.
    Question. When will the Forest Service formalize the final 
document?
    Answer. The North Billings County Allotment Management Plan 
Revisions are subject to the new pre-decisional objection process for 
NEPA decisions. Review of the eight objections received from seven 
Objectors began in May 2014. Objection resolution meetings were held on 
June 2, 2015 and objection letters were signed on June 10, 2014. A 
final decision is expected after June 12, 2014.

                         CONCLUSION OF HEARINGS

    Senator Reed. And with that, and with no further business, 
I will adjourn the hearing.
    [Whereupon, at 10:56 a.m., Wednesday, April 30, the 
hearings were concluded, and the subcommittee was recessed, to 
reconvene subject to the call of the Chair.]

 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
    Prepared Statement of the Aleutian Pribilof Islands Association
    The requests of the Aleutian Pribilof Islands Association (APIA) 
for the fiscal year 2015 Indian Health Service (IHS) budget are as 
follows:
  --Amend the Aleutian and Pribilof Islands Restitution Act to 
        appropriate $100.4 million for reconstruction of the Unalaska 
        Hospital and the Atka Island clinic, both of which were 
        destroyed during World War II.
  --Allocate an additional $8.5 million to the IHS to fully fund 
        Village Built Clinic (VBC) Leases, and direct the IHS to use 
        its fiscal year 2015 appropriations to fully fund the VBC 
        leases in accordance with section 804 of the Indian Health Care 
        Improvement Act (IHCIA).
  --Ensure that Contract Support Costs continue to be fully funded by 
        moving the program to mandatory spending.
  --Place IHS funding on an advance appropriations basis.
    The Aleutian Pribilof Islands Association is a regional non-profit 
tribal organization with members consisting of the 13 federally 
recognized tribes of the Aleutian Chain and Pribilof Islands Region of 
Alaska. APIA provides healthcare services to the Alaska Natives in six 
of the tribal communities of this region through funding received from 
the IHS under title V of the Indian Self-Determination & Education 
Assistance Act (ISDEAA). We also provide health-related services to all 
13 tribes through various non-IHS grants and agreements.
    Funding for Reconstruction of Two Health Care Facilities Destroyed 
During World War II.--During World War II, communities within the APIA 
region suffered historic losses, not only to their populations due to 
deaths arising from inadequate healthcare and poor living conditions 
during removal by the U.S. Government to camps in southeast Alaska, but 
also to two healthcare facilities that were destroyed and never rebuilt 
or accounted for in prior restitution made to the Aleutian and Pribilof 
tribal communities.
    On June 4, 1942, the Japanese bombed the 24-bed hospital operated 
at that time by the Bureau of Indian Affairs in Unalaska, Alaska. Since 
that time, the closest hospital is located in Anchorage, Alaska--800 
air miles away, and not accessible by roads. Ten days later and 350 
miles to the east, on June 14, 1942, the residents of Atka Island were 
forcibly evacuated from the island by the United States for their 
``safety,'' and the U.S. Navy burned all of the structures on the 
island to the ground, including the island's health clinic, to prevent 
their use by the Japanese.
    Congress passed the Aleutian and Pribilof Islands Restitution Act 
in 1988 (Public Law 100-383), which led to creation of the Aleutian and 
Pribilof Islands Restitution Trust to administer funds appropriated 
under the Restitution Act on behalf of the St. Paul, St. George, 
Unalaska, Atka, Akutan, Nikolski, Biorka, Kashega and Makushin 
communities. The Restitution Act provided very limited appropriations 
to partially address losses suffered by these communities during 
evacuations from 1942 to 1945. During that time, the treatment of the 
Aleut people in the evacuation camps lacked even the most basic 
attention to health and human safety matters, in extremely crowded, 
unheated, abandoned buildings with very poor sanitation conditions. Ten 
percent of the Aleuts who were evacuated died in the camps. For those 
who returned to their communities, many found their homes and community 
facilities destroyed, possessions taken, and churches stripped of 
religious icons by the U.S. military.
    The time is now to replace the Unalaska hospital and the Atka 
Island Clinic. The Aleutian and Pribilof tribal communities are the 
most remote within Alaska. The next level of referred specialty and 
inpatient care is in Anchorage. To say that our patients suffer from a 
lack of access to basic healthcare services is an understatement. 
Patients have died en route to Anchorage for emergency care; patients 
have died due to inability to receive timely screening of cancer; 
patients must leave their families for months at a time when receiving 
care 800 miles away in Anchorage. Mothers must leave their families for 
4 months to deliver their babies in Anchorage. This is unacceptable 
care, by any standard. The replacement hospital facility would directly 
serve the 5,000 year-round residents of Atka, Dutch Harbor, Nikolski 
and Unalaska, in addition to the typically hundreds of seasonal fishery 
workers requiring immediate emergency or primary care. Having a 
hospital would eliminate the need to send referrals to Anchorage at an 
average airfare cost of $1,400, not to mention the cost of lodging, 
meals and the personal hardship of having to leave the community for 
days at a time. Atka lies 350 miles away from Unalaska, so until its 
clinic has sufficient capacity to meet local need, that population is 
at severe risk due to its isolated, weather challenged location.
    Based upon APIA budget estimates derived from the IHS Facility 
Budget Estimating System (FBES), the Unalaska hospital facility project 
cost for design, construction and equipping the total facility is 
$96,900,000. Based upon a 2003 Health Clinic Design Report funded by 
the Denali Commission, construction of a health clinic sufficient to 
meet the needs in Atka, and adjusting from 2003 for current inflation, 
will cost $3,500,000. APIA thus requests $100.4 million in funding for 
reconstruction of these facilities.
    APIA is ranked near the top in the IHS's joint venture program, 
however we are unable to move forward without identified construction 
resources. For facilities subject to the IHS joint venture program, 
construction must be accomplished with non-IHS money. The Restitution 
Act offers the best legislative framework for an appropriation from 
Congress. We recommend that the Restitution Act be amended to add a new 
section 1989C-4(b)(1)(D) to 50 U.S.C., to state as follows: ``(D) One 
account for the construction, operation, and maintenance of an 
inpatient hospital facility in Unalaska and health clinic in Atka with 
a direct appropriation of $100,400,000 for those purposes.'' We ask for 
the subcommittee's support of such an amendment and the related 
appropriation of funds.
    If we are to successfully receive this non-IHS construction project 
funding, the joint venture program would allow APIA to enter into a no-
cost lease with the IHS for a period of 20 years; the IHS would in turn 
provide staff, equipment and supplies for the operations and 
maintenance of the facilities. The joint venture program is a 
competitive program and funding is limited. According to the IHS's 
budget justification for fiscal year 2014, the IHS signed 17 agreements 
for joint ventures between 2001 and 2012, but received 55 ``positive 
responses'' to a solicitation for joint ventures during the fiscal 
years 2010-2012 cycle. Yet, the IHS has indicated it does not have 
adequate resources to fund even those programs ranked highest on its 
list of joint venture projects, such as APIA's Unalaska Hospital. 
Tribes in Alaska support the IHS joint venture program as one of the 
best solutions to immediately address critical healthcare needs in our 
communities. The National Congress of American Indians has also 
supported APIA's request for assistance with both Unalaska and Atka 
facility construction, via resolution. We ask that the subcommittee 
appropriate additional funds for staffing and operations of new 
facilities; doing so will allow IHS to partner with tribes like APIA 
who are anxious to move their projects forward under this successful 
joint venture model in fiscal year 2015.
    Funding for Village Built Clinics in Alaska.--For the last several 
years, APIA has submitted testimony to this subcommittee on the need to 
address chronic underfunding of Village Built Clinics (VBCs) in Alaska. 
VBCs, which are clinic facilities leased by the IHS from other 
entities, are a vital component of the provision of basic healthcare 
services in rural Alaska, as they serve as the clinic space for the 
Community Health Aide Program (CHAP) under the IHCIA. The CHAP utilizes 
a network of community health aides and practitioners to provide 
primary healthcare services in rural and isolated areas where access to 
those services might not otherwise exist.
    In 1989, Congress specifically authorized the operation of 170 VBCs 
in Alaska and provided approximately $3 million in funding for the 
program for that year. Since then, Congress has not provided amounts 
specifically for VBCs in the IHS appropriation, and IHS has had 
discretion to fund VBCs from its lump sum appropriation. IHS has 
needlessly treated the $3 million level as a cap, and has refused to 
increase funding for VBC leases. Funding therefore has not kept pace 
with inflation or the rising costs of healthcare in rural and isolated 
areas. In fact, the chronic underfunding over decades has resulted in 
deterioration and in some cases closure of VBC facilities, threatening 
the CHAP itself and access to basic healthcare services for rural 
Alaskans that hinges on the continued availability of properly 
maintained VBC space. Our facilities in Atka and Nikolski have been 
cited for numerous patient Health Insurance Portability and 
Accountability Act of 1996 (HIPAA) and safety issues including no 
patient privacy and holes in the floor. In any other community, these 
clinics would be condemned, yet the IHS expects us to continue to 
provide care with no remedy at hand. It is no wonder that we have a 
difficult time recruiting and retaining providers to serve our 
communities. Unfortunately, we are not alone in our predicament.
    According to an estimate calculated several years ago by the Alaska 
Native Health Board and adjusted for inflation, at least $8.3 million 
is needed to fully fund the VBC leasing program. However, that estimate 
is outdated and likely falls significantly short of the actual need. 
APIA therefore urges that Congress appropriate at least an additional 
$8.5 million to fully fund VBC leases and that IHS be directed to use 
its existing appropriations to fully fund such leases. It would be 
helpful if Congress would also direct the IHS to use its fiscal year 
2015 appropriations to fully fund VBC leases in accordance with 
Sec. 804 of the IHCIA. It is a matter of patient safety that this be 
addressed immediately.
    Ensure Contract Support Costs Are a Mandatory Appropriation.--We 
are pleased that Congress chose to fully fund contract support costs 
(CSC) under the ISDEAA in fiscal year 2014, and we are glad the 
administration has supported that effort in fiscal year 2015. CSC fund 
vital administrative functions that allow us to operate programs that 
provide critical services to our members. If contract support costs are 
not fully funded, however, our programs and services are adversely 
affected because we are forced to divert limited program funding to 
cover fixed overhead expenses instead. We therefore appreciate 
Congress' support in fiscal year 2014 and hope that it carries through 
to fiscal year 2015 and beyond. However, full funding for CSC must not 
come with a penalty--tribes should not have to see a reduction in 
program funding or effective permanent sequestration of Indian program 
funds. Without any permanent measure to ensure full funding, payment of 
CSC remains subject to agency discretion from year to year, even though 
tribes are legally entitled to payment under the ISDEAA. Noting these 
ongoing conflicts of law, Congress directed the agencies to consult 
with tribes on a permanent solution.
    There is a logical permanent solution Congress can implement: CSC 
should be appropriated as a mandatory entitlement. Under the ISDEAA, 
the full payment of CSC is not discretionary; it is a legal obligation, 
affirmed by the U.S. Supreme Court. Yet the budget for CSC is currently 
funded and controlled through appropriation acts--as if it were a 
discretionary program. Congress, in the Joint Explanatory Statement for 
the fiscal year 2014 Consolidated Appropriations, recognized that the 
current fundamental mismatch between the mandatory nature of CSC and 
the current approach leaves the House and Senate Committees on 
Appropriations in the ``untenable position of appropriating 
discretionary funds for the payment of any legally obligated contract 
support costs.'' Congress also noted that ``[t]ypically obligations of 
this nature are addressed through mandatory spending.'' The obvious 
solution then is to bring the appropriations process in line with the 
statutory requirements and to recognize CSC for what it is: a mandatory 
entitlement, not a discretionary program. We therefore strongly urge 
the Congress to appropriate funding for CSC on a mandatory basis.
    IHS on an Advance Appropriations Basis.--We support legislation 
that would place the IHS budget on an advance appropriations basis. The 
goal is for the IHS and tribal healthcare providers to have adequate 
advance notice of the amount of Federal appropriations to expect and 
thus not be subjected to the uncertainties of late funding and short-
term continuing resolutions. Congress provides advance appropriations 
for the Veterans Administration medical accounts, and the request is 
for parity in the appropriations schedule for the IHS. Legislation to 
authorize IHS advance appropriations has been introduced--H.R. 3229 by 
Representative Young and S. 1570 by Senators Murkowski and Begich.
    Thank you for your consideration of our request to support funding 
for the reconstruction of the Unalaska Hospital and Atka Island Clinic 
with associated staffing and operating costs. Reconstruction of these 
facilities will right a huge wrong in our history and will 
significantly improve healthcare for the Aleutian and Pribilof tribal 
communities. We also appreciate your consideration of other requests 
outlined in this testimony. On behalf of APIA and the people we serve, 
I am happy to help provide any additional information desired by the 
subcommittee.
                                 ______
                                 
         Prepared Statement of the Alliance for Community Trees
                          summary of requests
United States Department of Agriculture (USDA) Forest Service:
  --Urban and Community Forestry (U&CF) Program at $31.3 million.
  --Forest and Rangeland Research at $298 million, including $72 
        million for Forest Inventory and Analysis.

U.S. Environmental Protection Agency (EPA):
  --Recognize the Urban Waters Federal Partnership in funding for EPA 
        clean water initiatives

    Dear Mr. Chairman and members of the subcommittee: My name is Dave 
Forsell and I am the president of Keep Indianapolis Beautiful, a non-
profit organization whose mission is to engage diverse communities and 
create vibrant public places, helping people and nature thrive in our 
community, often helping people plant and care for trees.
    I am here today to testify on behalf of the Alliance for Community 
Trees (ACTrees), for whom I serve as president of the board of 
directors. ACTrees is a 501(c)(3) non-profit organization founded in 
1993 by leaders of local tree organizations to establish a national 
voice for urban and community forestry. ACTrees' founders shared a 
vision of urban trees and ecosystems nurtured by a broad base of 
community stewards. Through the efforts of 200 member and program 
partner organizations in 44 States, over 5 million volunteers have been 
inspired to plant and care for 15 million trees across our Nation, in 
cities and towns where 83 percent of Americans live.
    My testimony will focus on the critical role of the USDA Forest 
Service in providing Federal leadership for and assistance to public 
and private partners at the national, State and local levels through 
its Urban & Community Forestry (U&CF) program and urban forestry 
research.
 why the forest service's u&cf program and urban forestry research are 
                          important to actrees
    The Forest Service's U&CF program and urban forestry research 
projects have been models of working with each other through an 
integrated approach and partnering with public and private 
organizations at the national, State and local levels to provide 
information and tools that partners need to effectively plan and 
implement urban forestry management programs. The integration between 
Forest Service program staff and researchers has been essential to 
address the many issues affecting urban trees and forests and the rapid 
pace of change in urban environments. In addition, the collaborative 
approaches of Forest Service program staff and researchers have been 
critical to open and sharing relationships with partners and adaptive 
learning and management.
    ACTrees members have benefited from both the technical and 
financial assistance provided by the U&CF program and the information 
and tools developed by urban forestry researchers. Many of our members 
have worked directly with Forest Service program staff and researchers 
on projects in their communities. Others have benefited from Forest 
Service resources provided through State forestry agencies--the U&CF 
program's primary partner. While some ACTrees members may not receive 
assistance from the Forest Service or through State forestry agencies, 
all members benefit from the urban forestry partnerships the Forest 
Service has helped create.
    ACTrees members recognize the importance of broad partnerships to 
advance common goals around urban trees and forests. Partnerships among 
public and private organizations enable sharing of expertise, skills, 
and resources. Such partnerships result in substantial leveraging of 
Federal funding provided to local urban and community forestry 
projects. ACTrees members partner with a diverse range of agencies and 
organizations at the local level. At the national level, ACTrees works 
with public and private partners to advance urban and community 
forestry through collaborative initiatives such as the Sustainable 
Urban Forests Coalition and the Partners in Community Forestry 
conferences organized by the Arbor Day Foundation.
    An open and collaborative U&CF program has enabled Federal, State 
and local partners to develop a great diversity of projects around the 
country, recognizing the wide range of ecosystem types and unique 
social, cultural and economic contexts in communities across the 
Nation. Here are a few examples of projects on which ACTrees member 
organizations have worked to add value to their communities--
neighborhood value, environmental value, cost savings, employment and 
training. Such stories are happening in cities and towns across America 
thanks to broad public-private partnerships in urban and community 
forestry:
  --Tree Pittsburgh received a grant from the USDA Forest Service in 
        2011, through the State's Bureau of Forestry, to create the 
        city's first Urban Forest Master Plan. It has leveraged the 
        Federal grant and is developing the Plan, which includes 
        detailed information, resources needed, and recommendations to 
        proactively manage and grow a city's tree canopy.
  --The Tennessee Urban Forestry Council established a Greenprint 
        initiative in 1991 to promote Federal, State and local 
        partnerships toward a strategic goal of doubling the State's 
        urban forest canopy. The initiative continues to build on its 
        vision and collaborative strategies.
  --The Sacramento Tree Foundation is engaged in cooperative research 
        efforts with the U.S. Forest Service and California's forestry 
        agency to explore the relationships between human health and 
        tree canopy cover.
  --The Morton Arboretum near Chicago is cooperating with the USDA 
        Forest Service's National Institute of Applied Science on an 
        Urban Forest Climate Adaptation project.
  --The California Urban Forest Council and California ReLeaf are 
        working to advance urban forestry projects through the State's 
        climate change legislation and policies, recently seeking $18 
        million in cap-and-trade funding for urban forestry projects in 
        underserved communities.
  --Tree People in Los Angeles is advancing innovative projects to 
        address drought impacts on trees, such as using recycled water 
        from treatment plants to water trees in urban parks.
    In Indianapolis, the power of community and urban forestry is very 
real! Due to an EPA consent decree, our local water utility, Citizens 
Energy Group, is spending more than $1 billion to eliminate all but 5 
percent of raw sewage overflows into our river and streams. My 
organization, Keep Indianapolis Beautiful (KIB), is partnering with 
Citizens in a pilot program in a west side neighborhood. KIB will be 
installing 34 beautiful stormwater planters up and down neighborhood 
streets as part of a stormwater sewer separation project. They'll be 
planted with 10,000 native perennials and grasses, adding value to 
front yards; and 200 trees will be added to the landscape for their 
power to mitigate stormwater runoff. This 100 percent green solution 
will save Citizens considerable dollars compared to a standard gray 
solution. The best part? This work is supporting jobs and training for 
high school and college students who'll plant and tend trees; they'll 
also have an opportunity to work alongside engineers and ecological 
services professionals in the process.
 why the u&cf program and urban forestry research are critical to the 
                           federal government
    In recent years, policymakers and natural resource managers have 
been calling attention to the increasing importance of urban areas as 
we look to the future. Our Nation's cities, towns, and metropolitan 
centers present critical challenges and opportunities as our population 
centers grow. The Forest Service's U&CF program and urban forestry 
research are uniquely positioned in the Federal Government to help 
address urban challenges and opportunities as they relate to 
environmental and natural resource issues--particularly those related 
to the roles of urban trees and forests as assets for: building and 
restoring green space and parks for recreation, supporting 
opportunities for green businesses and jobs in underserved 
neighborhoods, and providing environmental services essential to 
community well-being and quality of life, such as clean water, clean 
air, energy conservation, stormwater management, and atmospheric carbon 
exchange. No other Federal agency has the expertise and can provide the 
leadership necessary to help our Nation address urban challenges and 
opportunities with trees and forests.
    The Forest Service has recognized the U&CF program as the key 
program to help achieve one of seven priority goals in its current 
strategic plan. Goal 6 is ``Engaging Urban America with Forest Service 
Programs.'' Similarly, the Forest Service Research branch has 
identified Urban Natural Resources Research as one of seven Priority 
Research Areas. Looking to the future--as reflected in the agency's 
``2010 Resources Planning Act Assessment and 2010 National Report on 
Sustainable Forests''--urban forests will become increasingly important 
for providing environmental services to our Nation's growing urban 
populations. In addition, as part of the USDA, the Forest Service's 
U&CF program is particularly well-positioned to help address 
increasingly important urban-rural challenges, including the expansion 
of urban populations into rural landscapes and the lack of 
opportunities for urban youth to connect to nature.
                        actrees' recommendations
    Urban and Community Forestry (U&CF).--There are more than 100 
million acres of urban forest lands across the Nation, providing 
essential environmental, social, and economic services such as energy 
conservation, improved air and water quality, recreation and improved 
public health to the more than 83 percent of our Nation's population 
who live in cities and communities. The Forest Service's U&CF program 
is the primary Federal program that reaches out and provides technical 
and financial assistance to local communities and non-profit groups for 
planting, maintaining, protecting, and restoring these urban forests. 
In fiscal year 2013, the U&CF program delivered technical, financial, 
educational, and research assistance to 7,292 communities and nearly 
198 million people, over 60 percent of the U.S. population.
    ACTrees urges the subcommittee to provide $31.3 million for the 
U&CF program in fiscal year 2015, consistent with the level enacted in 
fiscal year 2012. The President's fiscal year 2015 proposal for U&CF is 
$23.7 million, a further reduction from the fiscal year 2014 enacted 
level of $28 million. While the President's fiscal year 2015 proposal 
holds promise for additional funding for urban and community forestry 
projects through the Forest Service's new Landscape Scale Restoration 
(LSR) program, ACTrees has much to learn about these opportunities. In 
addition, ACTrees is excited about the President's proposal for a $1 
billion Climate Resilience Fund, which includes $25 million for the 
U&CF program to advance urban forestry projects as measures to help 
communities adapt to and mitigate climate change impacts.
    Urban Forestry Research.--The Forest Service Research branch has 
provided essential information and tools to urban forestry groups and 
practitioners. It is critical for communities to obtain baseline 
information about their urban forests before they can plan and 
implement actions. There have been huge strides made in recent years in 
developing new technologies and tools, such as the ``i-Tree'' program, 
for mapping the urban forest and examining conditions and trends. 
Similarly, urban forestry research has been helping policymakers and 
practitioners to understand the environmental, economic, and social 
services that trees and forests provide.
    ACTrees urges the subcommittee to provide funding for Forest and 
Rangeland Research at $298 million for fiscal year 2015. This reflects 
a funding level for basic forest research at $226 million, consistent 
with fiscal year 2014, and funding for Forest Inventory and Analysis 
(FIA) at $72 million. While there is no budget line item for urban 
forestry research, the Forest Service has recognized ``Urban Natural 
Resources Stewardship'' as one of its seven Priority Research Areas. We 
urge the subcommittee to recognize the importance of urban forestry 
research and direct the agency to provide strong funding in this area, 
as it did in its fiscal year 2014 report language. With our request for 
$72 million for FIA, ACTrees has joined many partners in the 
conservation community recognizing the importance of inventory and 
assessment information in supporting forest policy and management 
decisions in all contexts, including urban and community forests.
    U.S. Environmental Protection Agency (EPA), Urban Waters Federal 
Partnership.--Launched in 2011, this Federal Partnership has expanded 
to 18 pilot cities and includes 14 Federal agencies. EPA coordinates 
this important and innovative Partnership through its Office of Water 
and the Forest Service participates on behalf of USDA, providing 
essential tree and forest expertise. The Partnership aims to stimulate 
regional and local economies, create local jobs, improve quality of 
life, and protect Americans' health by revitalizing urban waterways in 
underserved communities across the Nation. ACTrees urges the 
subcommittee to recognize this important Federal Partnership through 
its fiscal year 2015 funding of EPA clean water initiatives.
    I appreciate your consideration, and the opportunity to testify 
today on behalf of ACTrees.
                                 ______
                                 
         Prepared Statement of the American Alliance of Museums

    Chairman Reed, Ranking Member Murkowski and members of the 
subcommittee, thank you for allowing me to submit this testimony in my 
capacity as president of the American Alliance of Museums (AAM). We 
urge your support for at least $154.5 million each in fiscal year 2015 
(fiscal year 2015) for the National Endowment for the Arts (NEA) and 
the National Endowment for the Humanities (NEH). Within the context of 
the NEA, we also urge the committee to include language revising the 
Arts and Artifacts Indemnity Act to increase the total allowable 
outstanding indemnity and the limit for any single exhibition. Lastly, 
we support $858 million for the Smithsonian Institution, at least $50 
million for State Historic Preservation Offices, $15 million for Tribal 
Historic Preservation Offices and restored funding for the Save 
America's Treasures and Preserve America programs.
    AAM is proud to represent the full range of our Nation's museums--
including aquariums, art museums, botanic gardens, children's museums, 
culturally specific museums, historic sites, history museums, maritime 
museums, military museums, national parks, natural history museums, 
planetariums, presidential libraries, science and technology centers 
and zoos--along with the professional staff and volunteers who work for 
and with museums. AAM works on behalf of the 17,500 museums that employ 
400,000 people, spend more than $2 billion annually on educational 
programming, receive more than 55 million visits each year from primary 
and secondary school students and directly contribute $21 billion to 
local economies.
    Museums are essential in our communities for many reasons:
  --Museums are key education providers.--Museums already offer 
        educational programs in math, science, art, literacy, language 
        arts, history, civics and government, economics and financial 
        literacy, geography and social studies, in coordination with 
        State and local curriculum standards. Museums also provide 
        experiential learning opportunities, STEM education, youth 
        training and job preparedness. They reach beyond the scope of 
        instructional programming for schoolchildren by also providing 
        critical teacher training. There is a growing consensus that 
        whatever the new educational era looks like, it will focus on 
        the development of a core set of skills: critical thinking, the 
        ability to synthesize information, the ability to innovate, 
        creativity and collaboration. Museums are uniquely situated to 
        help learners develop these core skills.
  --Museums create jobs and support local economies.--Museums serve as 
        economic engines, bolster local infrastructure and spur 
        tourism. Both the U.S. Conference of Mayors and the National 
        Governors Association agree that cultural assets such as 
        museums are essential to attracting businesses, a skilled 
        workforce and local and international tourism.
  --Museums address community challenges.--Many museums offer programs 
        tailored to seniors, veterans, children with special needs, 
        persons with disabilities and more, greatly expanding their 
        reach and impact. For example, some have programs designed 
        specifically for children on the autism spectrum while others 
        are teaching English as a Second Language or providing youth 
        job training opportunities.
  --Digitization and traveling exhibitions bring museum collections to 
        underserved populations.--Teachers, students and researchers 
        benefit when cultural institutions are able to increase access 
        to trustworthy information through online collections and 
        traveling exhibits. Most museums, however, need help in 
        digitizing collections.
    The National Endowment for the Humanities is an independent Federal 
agency created by Congress in 1965. Grants are awarded to nonprofit 
educational institutions--including museums, colleges, universities, 
archives and libraries--for educational programming and the care of 
collections. NEH supports museums as institutions of learning and 
exploration and keepers of our cultural, historical and scientific 
heritages.
    In 2013, through Preservation & Access, one of NEH's national 
program divisions, 55 peer-reviewed, competitive grants totaling over 
$3.7 million dollars were awarded to museums, historical societies and 
historic sites for a variety of projects to preserve and provide access 
to our Nation's rich cultural heritage. Across all NEH divisions 
(including Preservation and Access, Research, Education, Public 
Programs, Challenge Grants and Digital Humanities), these institutions 
received 123 awards totaling over $11.5 million. Demand for humanities 
project support, as demonstrated by NEH grant application rates, far 
exceeds available funding. In fiscal year 2013, NEH received 4,701 
competitive grant applications representing more than $441 million in 
requested funds, but was only able to fund 13.4 percent of these peer-
reviewed project proposals.
    NEH also provides annual grants to State humanities councils 
located in every State and U.S. territory. In 2012, 53 State councils 
supported 3,046 events in museums, reaching a total audience of more 
than 13 million people.
    Here are two examples of how NEH funding is used to support 
museums:
  --The Rhode Island Historical Society received $300,000 beginning in 
        2011 to make environmental control upgrades, building 
        improvements, and security enhancements to preserve collections 
        documenting the history of Rhode Island from pre-European 
        contact to the present.
  --The Birmingham Museum of Art in Alabama received a $75,000 grant 
        for professional development, bringing K-12 teachers together 
        to study America's transition from an agricultural to an 
        industrial society as reflected in American art.
    The National Endowment for the Arts provides direct Federal funding 
to State arts agencies and to non-profit arts institutions including 
museums. Its mission is to make art accessible to all and to provide 
leadership in arts education. Established in 1965, NEA brings great art 
to every congressional district. Its grants to museums help them 
exhibit, preserve and interpret visual material through exhibitions, 
residencies, publications, commissions, public art works, conservation, 
documentation, services to the field and public programs.
    In 2013, more than 2,100 museums participated in the Blue Star 
Museums initiative, offering free admission to all active duty and 
reserve personnel and their families from Memorial Day through Labor 
Day. This particular effort served over 700,000 people, while many 
other museums offered military discounts or free admission throughout 
the year.
    In 2013, NEA made more than 130 awards to museums, totaling over 
$4.6 million. Many museums--including art museums--continue to report 
economic stress and stretched budgets. Despite the uncertain economy, 
museum attendance continues to climb, increasing pressure to serve more 
people with limited financial and human resources.
    Receiving a grant from the NEA confers prestige on supported 
projects, strengthening museums' ability to attract matching funds from 
other public and private funders. On average, each dollar awarded by 
the NEA leverages nine dollars from other sources. Forty percent of 
NEA's grant funds are distributed to State arts agencies for re-
granting.
    Here are two examples of how NEA funding is used to support 
museums:
  --Alaska's Seward Association for the Advancement of Marine Science, 
        in consortium with the Anchorage Museums Association received 
        $39,000 in 2012 to support the research and development of an 
        exhibition teaming artists and scientists to bring greater 
        public attention to the global problem of marine debris.
  --The Walters Art Gallery in Baltimore, Maryland received $34,000 in 
        2012 to support an exhibition showing the unexpected and 
        multifaceted roles played by Africans in Renaissance Europe, as 
        well as the challenges of stereotyping and racism that faced 
        them.
    The Arts and Artifacts Indemnity Act allows museums to apply for 
Federal indemnity on major exhibitions, saving them roughly $30 million 
in insurance costs every year. The program, administered by the 
National Endowment for the Arts, operates at virtually no cost to the 
taxpayer; since 1975 it has paid out a total of just over $100,000. 
Strict protocols for care, restrictions on the types of work 
indemnified and high deductibles all contribute to these 
extraordinarily low costs.
    The program has separate limits per exhibition and an overall limit 
for both international and domestic exhibitions, and Congress has 
periodically raised these limits, most recently in 2007. Museums report 
that the current caps are making it difficult to obtain indemnity on 
objects that would have been covered in the past, exposing them to 
increased insurance costs. We believe that rising prices in the art 
market will exacerbate this problem, causing exhibitions to limit their 
scope or to fail to go forward entirely. In agreement with the 
Association of Art Museum Directors', we urge the committee to consider 
language increasing both the total allowable outstanding indemnity and 
the limit for any single exhibition under this important program.
    The Smithsonian Institution comprises some of the most visited 
museums in the world, including the National Museum of American 
History, the National Air and Space Museum and the National Museum of 
Natural History. The Smithsonian reaches out to visitors and learners 
of all ages, in the Nation's capital and across the country, with 
innovative exhibits and programs. Smithsonian museums attract 30 
million visits every year, and their content and curricula are used by 
teachers all over the country. Smithsonian exhibits and research cover 
vital topics in art, science, history and culture, including global 
pandemics, endangered species and the history of our Nation. The use of 
digital technology including 3-D scanning and printing of iconic 
objects such as Lincoln's life casts, the Wright Flyer and fossil 
whales, expands access for America and America's teachers to experts 
and collections and creates new knowledge. The President's fiscal year 
2015 budget request of $858 million includes critical funding for the 
National Museum of African American History and Culture, which will 
tell this essential part of American history. Funding for collections 
care and facilities maintenance and revitalization allows the 
Smithsonian to care for the Nation's treasures and allows greater 
access for all.
    We enthusiastically support this robust funding proposal, an 
increase, for the Smithsonian Institution. However, we have serious 
concerns about the President's proposed STEM consolidation plan, which 
would eliminate or cut important programs that support museums at the 
National Science Foundation, the National Institutes of Health, the 
National Oceanic Atmospheric Administration and the National 
Aeronautics and Space Administration.
    State and Tribal Historic Preservation Offices (SHPOs and THPOs) 
carry out the historic preservation work of the Federal Government on 
State and tribal lands. These duties include finding America's historic 
places, making nominations to the National Register of Historic Places, 
reviewing impacts of Federal projects, providing assistance to 
developers seeking a rehabilitation tax credit, creating alliances with 
local government preservation commissions and conducting preservation 
education and planning. This Federal-State-local foundation of 
America's historic preservation program was established by the National 
Historic Preservation Act. We urge you to provide $50 million for SHPOs 
and $15 million for THPOs through the Historic Preservation Fund. We 
also urge you to restore funding of $25 million for Save America's 
Treasures and $4.6 million for Preserve America--which have been 
instrumental in preserving some of our Nation's most important 
artifacts and structures--but have not been funded in recent years.
    The 2005 Heritage Health Index of archives, libraries, historical 
societies and museums concluded that immediate action is needed to 
prevent the loss of 190 million artifacts that are in need of 
conservation treatment: 59 percent have collections damaged by light; 
56 percent have insufficient security to protect their collections; 80 
percent do not have an emergency plan that includes collections; 71 
percent need additional training and expertise for staff caring for 
collections; and only 13 percent have access to endowment funds for 
preservation.
    Historic preservation programs matter now more than ever--not only 
because they are essential to protecting our national heritage, but 
because they serve as economic engines and job creators in the 
thousands of communities they serve. Funds invested in building 
rehabilitation have been shown to create more jobs and more retail 
activity than those spent on new construction.
    Thank you once again for considering this testimony.

                                         Ford W. Bell, DVM,
                                                         President.
                                 ______
                                 
   Prepared Statement of the American Cultural Resources Association 
                                 (ACRA)
Request:
  --$46.925 million for State Historic Preservation Offices (SHPOs)
  --$8.985 million for the Tribal Historic Preservation Offices (THPOs)
  --$500,000 for grants for survey and National Register/National 
        Landmark nominations for underrepresented populations
    These programs are funded through withdrawals from the U.S. 
Department of the Interior's National Park Service Historic 
Preservation Fund (HPF) (16 U.S.C. Sec. 470h).
            acra members create jobs and support the economy
    ACRA is the trade association representing the interests of 
cultural resource management (CRM) firms of all sizes, types and 
specialties. ACRA's member firms undertake much of the legally mandated 
cultural resource management studies and investigations in the United 
States.
    There are approximately 1,300 CRM firms nationwide that employ over 
10,000 cultural resource management professionals, including 
archaeologists, preservation architects, architectural historians, 
historians, and an increasingly diverse group of other specialists. 
These firms generated over $1 billion in revenue in 2012. ACRA firms 
create and support jobs, providing employment for American-educated and 
trained professionals.
              funding shpos and thpos supports development
    In 1966, Congress, recognizing the importance of our heritage, 
enacted the National Historic Preservation Act (16 U.S.C. Sec. 470) 
(NHPA), which established historic preservation as a Federal Government 
priority. Historic preservation recognizes that what was common and 
ordinary in the past is often rare and precious today, and what is 
common and ordinary today may be extraordinary in the future.
    Instead of using Federal employees to carry out the Act, the 
Department of Interior and the Advisory Council on Historic 
Preservation opted to partner with the States and use SHPOs and THPOs 
to, among other tasks, review all Federal projects for their impact on 
historic properties. CRM firms work closely with Federal, State and 
local government agencies, private industry and non-profit groups to 
conduct the reviews required by the NHPA.
    In order for the review process to work smoothly, SHPOs and THPOs 
must have adequate funding. Proper financial support for their work 
allows SHPOs and THPOs to review and approve projects in a timely 
basis, facilitating development, moving projects forward in a timely 
and efficient manner, and ensuring that CRM firms can get the job done.
                               conclusion
    On behalf of its 150 member firms, ACRA would like to thank you 
Chairman Reed, and all the members of the Senate Appropriations 
Subcommittee on Interior, Environment and Related Agencies for the 
opportunity to submit testimony.
    ACRA also thanks the subcommittee for its commitment to historic 
preservation. ACRA members stand committed to identify, protect, and 
maintain our Nation's historic heritage.
                                 ______
                                 
     Prepared Statement of the American Forest & Paper Association
Hon. Jack Reed,
U.S. Senate,
Washington, DC.

Hon. Lisa Murkowski,
U.S. Senate,
Washington, DC.

    Dear Chairman Reed and Ranking Member Murkowski: The American 
Forest & Paper Association (AF&PA) serves to advance a sustainable U.S. 
pulp, paper, packaging, and wood products manufacturing industry 
through fact-based public policy and marketplace advocacy. AF&PA member 
companies make products essential for everyday life from renewable and 
recyclable resources and are committed to continuous improvement 
through the industry's sustainability initiative--``Better Practices, 
Better Planet 2020''. The forest products industry accounts for 
approximately 4 percent of the total U.S. manufacturing GDP, 
manufactures approximately $210 billion in products annually, and 
employs nearly 900,000 men and women. The industry meets a payroll of 
approximately $50 billion annually and is among the top 10 
manufacturing sector employers in 47 States.
    Actions are needed to increase funding for programs that provide 
basic data about our Nation's forests to inform industry, policymakers, 
and academics; and for restoring Federal timber harvests to help ensure 
adequate fiber supply and to address forest health priorities on both 
Federal and private lands. Within the jurisdiction of this 
subcommittee, we urge you to direct the United States Forest Service 
(USFS) to focus on the needs of the forest products industry and the 
vital jobs it supports. Specific recommendations follow.
                     forest and rangeland research
    Forest Inventory and Analysis.--Targeted research and data 
collection is needed to monitor forest productivity, forest health, and 
economic utilization of fiber. The Forest Inventory and Analysis (FIA) 
program within USFS Research and Development (R&D) is the backbone of 
our knowledge about the Nation's forests, and it is a vital technical 
resource that allows assessment of the sustainability, health, and 
availability of the forest resource. FIA data is utilized by a large 
swath of stakeholders interested in the state of America's forests: 
forest resource managers at mills, land managers, conservation groups, 
and State and Federal agencies look to the program for data about our 
Nation's forests.
    We are concerned about the cuts to this program over recent years. 
With an increased focus on utilizing woody biomass for renewable energy 
in addition to traditional forest products, the program, which allows 
managers to determine the sustainability and availability of the forest 
resource, should not be reduced but rather increased.
    AF&PA opposes cuts to this valuable program, and applauds the 
subcommittee's increase last year to $72 million. As a good starting 
point, AF&PA requests funding levels of at least $72 million for the 
FIA program this year, which will allow the USFS to cover the majority 
of U.S. forest lands and expedite data availability and analysis. This 
level of funding will enable the USFS to better meet the current 
demands of the program.
    We also recommend increased funding within the USFS R&D program in 
support of the Agenda 2020 Technology Alliance. Working in partnership 
with universities and the private sector, the Agenda 2020 program works 
with USFS on research to develop and deploy wood production systems 
that are ecologically sustainable, socially acceptable, and 
economically viable to enhance forest conservation and the global 
competitiveness of forest product manufacturing and biorefinery 
operations in the United States. In particular, we encourage greater 
funding for research on forest productivity and utilization at the 
Forest Products Lab and Research Stations. Innovative wood and fiber 
utilization research, including nanotechnology research, contributes to 
conservation and productivity of the forest resource. The development 
of new forest products and important research on the efficient use of 
wood fiber directly address forest health problems through exploration 
of small diameter wood use and bioenergy production.
                national forest system, forest products
    We applaud the administration for calling for an increase in timber 
outputs by 15 percent. To create forest industry jobs, more Federal 
timber should be made available for sale. AF&PA requests increasing 
funding for the Forest Products program to put people back to work in 
our rural communities while improving the health and reducing the risk 
of forest fires.
    For the 6th year in a row, the administration has proposed creating 
the consolidated Integrated Resource Restoration (IRR) line item, with 
proposed funding of $820 million. AF&PA does not believe IRR will have 
the benefits the administration claims, and in those regions where IRR 
has been implemented as a pilot project, instead of benefits, we have 
seen continued high costs and less accountability for the use of those 
funds by the USFS.
           national forest system, hazardous fuels reduction
    AF&PA supports the budget cap exception recommended in the 
President's budget that mirrors H.R. 3992, the Wildfire Disaster 
Funding Act. In the past 2 years, the USFS was forced to redirect over 
$1 billion from non-fire programs to pay fire suppression costs. The 
continued cycle of borrowing has a hugely detrimental effect on other 
programs, including forest management and research, damaging the 
ability to effectively implement these programs. This new approach to 
funding fire suppression costs is promising and we urge the 
subcommittee to include the Wildfire Disaster Funding Act this year.
    Hazardous fuels reduction is essential to the Federal forest health 
restoration effort and AF&PA supports maintaining this vital program at 
the fiscal year 2011 level ($339 million). We also urge the 
subcommittee to instruct the USFS to implement these projects in 
forested stands using mechanical treatments that produce merchantable 
wood fiber for utilization by local mills. Prescribed burns and debris 
removal will not solve the hazardous fuel overload by themselves. The 
forest products industry can and does play a key role in reducing 
hazardous fuels from Federal lands as evidenced by the fact that 
mechanical hazardous fuel reduction costs frequently are significantly 
lower in regions with a substantial forest products industry presence. 
The agency must take advantage of these synergies.
                       state and private forestry
    AF&PA applauds the subcommittee's sustained support for USFS State 
and Private Forestry programs. With ongoing droughts, invasive species 
infestations, and significant forest health problems, private forest 
resources remain vulnerable to damage from threats that do not respect 
public/private boundary lines.
    As you know, private forests provide the bulk of the Nation's wood 
fiber supply, while providing millions of acres of wildlife habitat, 
and supplying clean drinking water for millions of Americans. USFS 
State and Private Forestry programs protect these resources from 
threats beyond the capability of small landowners to combat 
effectively. Therefore, we urge funding at no less than their fiscal 
year 2012 enacted levels of $86 million for State Fire Assistance and 
$29 million for Forest Stewardship.
                         international forestry
    AF&PA's believes that full and effective implementation and 
enforcement of the 2008 Lacey Act amendments will reduce the 
destructive effects of illegal logging on tropical forests, enable 
American forest product companies to compete on a level playing field, 
and contribute to cutting of global greenhouse gas emissions through 
reduced deforestation and sustainable forest management practices. A 
2004 AF&PA report on illegal logging found that up to 10 percent of 
global timber production could be of suspicious origin and that illegal 
logging depresses world prices for legally harvested wood by 7 to 16 
percent on average. The report also calculated that the economic cost 
of global illegal logging to the U.S. industry is approximately $1 
billion per year in lost exports and depressed domestic prices.
    The USFS International Forestry program lends critical technical 
assistance for Lacey Act implementation and to improve sustainable 
forest management practices in developing countries, which helps reduce 
illegal logging overseas. AF&PA believes cuts to the International 
Forestry accounts could be detrimental to full Lacey Act compliance and 
enforcement efforts, and advocates funding the International Forestry 
program at fiscal year 2012 levels ($8 million).
                                 ______
                                 
          Prepared Statement of the American Forest Foundation
    Investments in the U.S. Forest Service Forest Stewardship Program 
and the U.S. Forest Service Forest Health Protection Program will help 
family forest owners get ahead of increasing threats from invasive 
pests and pathogens, wildfire, and development pressures. Complementing 
these efforts, the Landscape Scale Restoration Program provides an 
innovative approach to target resources for maximum impact, meaning 
support for this program will ensure measurable outcomes on the ground. 
It is also critical that funding for U.S. Forest Service Forest 
Inventory and Analysis and overall Forest Service Research and 
Development programs are improved and maintained, so these programs 
continue to provide the information and technical resources for 
landowners to make informed decisions about America's forests. The 
American Forest Foundation (AFF) urges the subcommittee to:
  --Support the U.S. Forest Service Forest Stewardship Program at the 
        fiscal year 12 funding level of $29 million;
  --Support the U.S. Forest Service Forest Health Protection (Federal 
        and Cooperative) at the fiscal year 12 funding level of $111 
        million;
  --Support the President's funding request of $23.513 million for the 
        Landscape Scale Restoration Program;
  --Support the Forest Inventory and Analysis Program at $72 million, 
        toward providing an updated inventory of America's forests; and
  --Support the U.S. Forest Service Research and Development Program at 
        the fiscal year 12 funding level of $231 million.
    We also ask the subcommittee to support a solution to the wildfire 
funding problem. The mounting cost of wildfire suppression activities 
over the past few years have far suppressed budgeted appropriations, 
forcing the U.S. Forest Service to transfer hundreds of millions of 
dollars from non-fire accounts to pay for suppression. This halts other 
mission-critical forest health and stewardship activities from taking 
place, all of which work toward preventing the future threat of 
catastrophic fire.
    Investments in forestry programs will help strengthen rural 
communities, support rural jobs, and ensure that communities that rely 
on the clean water and air, wildlife habitat, and forest products from 
family-owned forests, don't face additional costs for these goods and 
services.
    Unfortunately, new data suggests that by 2020, more than 18 million 
acres of family forests are threatened by housing development. 
Furthermore, almost 14 million acres are at risk of mortality due to 
insects and disease, while 29 million are at high or very high risk of 
destruction from wildfire.\1\ At the same time, less than 15 percent of 
family forest owners have sought professional advice for the 
stewardship of their forests. Many are under the impression that 
leaving their woods alone is the best option. It is therefore essential 
we ensure these families have tools, technical information, and policy 
support to keep their forests as forests, for current and future 
generations.
---------------------------------------------------------------------------
    \1\ Family Forest Research Center, 2014 Preliminary Data.
---------------------------------------------------------------------------
    The American Forest Foundation is a nonprofit conservation 
organization that works on the ground with more than 22 million family 
woodland owners through a variety of programs, including the American 
Tree Farm System, to protect the values and benefits of America's 
family forests, with clear ecological and economic impact.
    Families and individuals steward more of America's forests than the 
Federal Government or corporations. Families and individuals own 35 
percent of our Nation's forests.\2\ These private forests provide 
myriad public benefits--clean air, clean water, recreation, renewable 
resources that build our homes and communities, and good-paying rural 
jobs.
---------------------------------------------------------------------------
    \2\ USDA, May 2008, Who Owns America's Forests?
---------------------------------------------------------------------------
                    forest health investments needed
    The threats are daunting. Close to 500 species of tree-damaging 
pests from other countries have become established in the country, and 
a new one is introduced, on average, every 2 to 3 years. The USFS 
Forest Health Protection (FHP) Program is a critical resource 
supporting efforts to prevent, contain, and eradicate dangerous pests 
and pathogens affecting trees and forests. The program provides 
critical assistance to other Federal agencies, State agencies, local 
agencies and private landowners.
    In fiscal year 2013, the FHP Program combated pests on over 285,000 
acres of Federal lands and over 444,000 acres of Cooperative lands. 
Funding cuts meant 321,000 fewer acres were treated on Cooperative 
lands in fiscal year 2013 than in fiscal year 2011. Any further cuts to 
this program will necessitate deeper reductions in support for 
communities already facing outbreaks and expose more of the Nation's 
family-owned forests to the devastating and costly effects of the Asian 
Longhorned Beetle, Emerald Ash Borer, Hemlock Wooly Adelgid, Thousand 
Cankers Disease, Western Bark Beetle and other pests.
     invest in a more focused, impactful forest stewardship program
    Over the last few years, there have been significant cut backs in 
outreach and technical assistance provided to woodland owners, as 
agency budgets have shrunk, and industry has cut back or eliminated 
their outreach foresters. This greatly concerns woodland owners across 
the country, who rely on programs like the Forest Stewardship Program 
and State forest agency service foresters. The Forest Stewardship 
Program has been the backbone of the American Tree Farm System, 
providing the support to woodland owners to ensure they have management 
plans for certification and can subsequently access certified wood 
product markets.
    These cuts are also of great concern because of the growing number 
of ``unengaged'' woodland owners--those 95 percent of woodland owners 
who are not actively managing their land, and therefore have forests 
that are more susceptible to the threats mentioned above.
    To address some of this loss, AFF is currently piloting, together 
with several State forest agencies, conservation groups, and industry 
partners, a number of innovative landowner outreach tools, using micro-
targeting and social marketing strategies, to more efficiently and 
effectively engage ``unengaged'' woodland owners. To date, we've seen a 
12 percent response rate, compared with a 3-4 percent response rate 
that forest agencies, extension agents, and organizations typically 
see.
    Tools like these, combined with a more focused Forest Stewardship 
Program that concentrates on landowner outreach and assistance in 
priority areas like those identified in each State's Forest Action 
Plan, have significant potential to leverage the Forest Stewardship 
Program further and lead to even greater impact on the ground.
support the landscape scale restoration program, targeting outcomes in 
                             critical areas
    To complement the ongoing work of the Forest Stewardship Program 
and further target measurable outcomes in high-priority areas, AFF 
strongly urges the subcommittee to provide support for the relatively 
new Landscape Scale Restoration program.
    Partners, such as the American Forest Foundation, can leverage the 
work of this State and Private Forestry Program to maximize on-the-
ground impact and engage landowners in targeted forest conservation 
activities. With this program, the USFS is well-positioned to address 
the most pressing threats, protect the many public benefits we all 
enjoy from forests, and leverage Federal efforts for meaningful, 
measurable impact.
maintaining essential information for forest management of family-owned 
                               woodlands
    All of these programs must be grounded in the sound science and 
sound forest information provided by the U.S. Forest Service's Forest 
Inventory and Analysis (FIA) Program and the Research and Development 
Programs (R&D). These programs provide irreplaceable data about our 
forests and give landowners the tools to know how to manage the growing 
threats they face.
    As our Nation's forest census, the FIA program provides critical 
updates on forest health and market trends--better equipping forest 
owners nationwide to mitigate the impact of impending threats and 
concerns. FIA also provides a census of the trends in family forest 
ownership, demographics, and trends, so we can better understand how to 
work with this significant ownership group, most of whom, as mentioned 
above are ``unengaged'' in active forest management.
    In particular, the USFS Research and Development Program provides 
the science to help manage invasive species in urban and rural forests. 
AFF believes it is vitally important to conduct research aimed at 
improving detection and control methods for the Emerald Ash Borer, 
Hemlock Woolly Adelgid, Sudden Oak Death, Thousand Cankers Disease, 
Gold-spotted Oak Borer and other non-native forests pests and diseases.
    The R&D function is not only essential for providing forest 
management research, it is also on the leading edge of providing new 
information about the use of wood products, which can help create new 
markets for products from family-owned woodlands. This information 
helps position wood in growing markets, like green building markets, 
where understanding the environmental impacts of building materials is 
key. We urge the subcommittee to call on R&D to invest an additional $3 
million in green building research through the Forest Products 
Laboratory to continue this important work.
           support a solution to the wildfire funding problem
    Over the last decade, wildfire expenses have significantly 
increased, and the Federal wildfire budgets often are not sufficient to 
cover the costs, leading the Federal agencies to transfer funds from 
non-fire accounts to cover fire fighting expenses. In fiscal year 12, 
the USFS transferred $440 million and in fiscal year 13 the transfer 
cost was upped to $600 million. Understandably, this has caused 
significant disruptions in forest programs, including programs like the 
Forest Stewardship and Forest Health Protection Programs that aide 
family woodland owners in their stewardship.
    These disruptions clearly demonstrate the urgent need to change the 
Federal suppression funding model. This pattern of funding is neither 
efficient nor sustainable. The Wildfire Disaster Funding bill (S. 1875 
and H.R. 3992) would provide the USFS and Department of the Interior 
with a funding structure similar to that used by other agencies that 
respond to natural disaster emergencies, which have budget cap 
exemptions for a portion of disaster funding. This important change 
would enable agencies to reinvest in core activities which have been 
reduced in recent years due to a continued shift of limited resources 
to fund wildfire suppression, including the very programs that would 
help to decrease wildfire costs over time. We urge the subcommittee to 
support the Wildfire Disaster Funding bill solution.
    To conclude, AFF recognizes the subcommittee must find areas to 
reduce spending. We ask the subcommittee to consider the impact these 
reductions will have on the country's nearly 22 million family forest 
owners and every American who benefits daily from the positive 
externalities of well-managed, working forests.
    I thank the subcommittee for the opportunity to provide some 
insight on these programs and appreciate consideration of my testimony.
                                 ______
                                 
                 Prepared Statement of American Forests
    Dear Chairman Reed, Ranking Member Murkowski, and honorable members 
of the subcommittee: American Forests appreciates the opportunity to 
submit public testimony regarding our fiscal year 2015 appropriation 
recommendations. We understand the continuing economic realities facing 
the Nation, and we thank this subcommittee for its support of key 
Federal conservation programs in the Consolidated Appropriations Act of 
2014. The return on investing in our Nation's forests is great, whether 
those forests are public or private, urban or rural. The economic, 
social, and environmental benefits healthy forests provide are clear 
incentives for Federal investment. American Forests' funding 
recommendations are generally consistent with the President's budget 
requests for the USDA Forest Service (USFS), Department of Interior 
(DOI), and the Environmental Protection Agency (EPA), with the 
exception of programs that merit a return to the fiscal year 2012 
enacted levels.
    Founded in 1875, American Forests is the oldest national nonprofit 
conservation organization in the country with the mission to protect 
and restore forests. It has served as a catalyst for many of the most 
important milestones in the conservation movement, including the 
founding of the USDA Forest Service, the Conservation Corps, the 
National Park System, and thousands of forest ecosystem restoration 
projects and public education efforts. Since 1990, American Forests has 
planted more than 46 million trees in all 50 States of U.S. and 44 
countries, resulting in cleaner air and drinking water, restored 
habitat for wildlife and fish, and the removal of millions of tons of 
carbon dioxide from the atmosphere.
    The economic benefits of outdoor recreation and natural resource 
conservation highlight the importance of American Forests' efforts. A 
recently published report found that the combined value of outdoor 
recreation and natural resource conservation annually generates at 
least $1.7 trillion in economic activity, supports 12.8 million jobs, 
and brings in $211 billion in tax revenue.\1\ As the report notes, 
``this sector of the U.S. economy is larger than the U.S. auto and 
pharmaceutical industries combined.'' Protecting and restoring our 
forests will ensure on-going economic and environmental viability for 
our communities.
---------------------------------------------------------------------------
    \1\ Southwick Associates, ``The Combined Value of Outdoor 
Recreation, Natural Resource Conservation, and Historical Preservation, 
2013,'' April 8, 2013.
---------------------------------------------------------------------------
                          usda forest service
National Forest System
    Integrated Resource Restoration.--The administration's proposal for 
an Integrated Resource Restoration (IRR) budget consolidation 
represents the USFS's approach to accelerated restoration. American 
Forests believes that the administration's proposals for fiscal year 
2015 will help move the agency in the right direction by encouraging 
collaborative efforts with communities and partners to identify and 
address priorities at a landscape or watershed scale. American Forests 
supports the President's request of $820 million to aid in the 
restoration of our Nation's forests.
    Restoration Partnerships.--For more than two decades, American 
Forests has worked with the Forest Service restoring our national 
forests after a wildfire or other natural events. We have planted 
millions of trees in our national forests and appreciate the working 
relationship we have with USFS, which helps us provide these services. 
Currently, this line item is absorbed into the IRR budget 
reorganization. However, if this committee does not support that budget 
consolidation, we want to emphasize the importance of these efforts. 
American Forests supports the fiscal year 2015 level of $2 million in 
support of partnerships that restore our National Forests.
    Collaborative Forest Landscape Restoration Program (CFLRP).--This 
program was created to promote job stability, reliable wood supply, 
forest health, and reduce emergency wildfire costs and risks. In the 
first 4 years of the program, projects funded through CFLRP have: 
reduced hazardous fuels on 588,000 acres to protect communities, 
generated 814 million board feet of timber, made nearly 2 million green 
tons of biomass available for bioenergy production, and enhanced 
habitat on 474 miles of streams. American Forests supports the 
President's fiscal year 2015 request of $60 million; predicated on the 
expansion of the program through the necessary legislative action.
Forest and Rangeland Research
    The Forest and Rangeland Research appropriations provides funds to 
develop and deliver knowledge and innovative technology to improve the 
health and use of the Nation's forests in both public and private 
lands. In the last 20 years, the number of USFS research scientists has 
declined from more than 2,000 to under 500 scientists today. This 
significantly reduces the Forest Service's ability to provide the 
answers it needs to sustainably manage the National Forests, as well as 
deliver technical assistance to private forest owners and urban forest 
managers. American Forests requests the fiscal year 2012-enacted level 
of $295.3 million for the entirety of Forest and Rangeland Research.
State and Private Forestry
    Urban and Community Forestry (U&CF).--Urban forests make a 
significant contribution to the quality of life in communities across 
the country. In 2013, the U&CF program delivered technical, financial, 
educational, and research assistance to 7,292 communities and nearly 
198 million people, more than 60 percent of the U.S. population. Urban 
forests are integral to any community striving to reinvest in itself, 
encourage active, healthy citizens, and create a healthier and more 
sustainable environment with smart green infrastructure. American 
Forests requests the fiscal year 2012-enacted levels for the Urban and 
Community Forestry program at $31.37 million.
    Forest Health Management.--Exotic pests and invasive species are 
among the greatest threats to urban and rural forests. Non-native pests 
already cost city governments $2 billion each year to remove and 
replace trees killed by pests. The substantial loss of trees in our 
communities impacts quality of life and property values. Funding for 
the Forest Health Program supports activities related to prevention, 
suppression, and eradication of insects, diseases, and plants, as well 
as conducting forest health monitoring. American Forests supports the 
President's combined fiscal year 2015 request for the Forest Health 
Management Program on Federal and cooperative lands at $104.57 million.
                         department of interior
Bureau of Land Management (BLM)
    Public Domain Forest Management.--The BLM is entrusted with the 
management and ecosystem health and recovery of 58 million acres of 
forests and woodlands across 12 western States, including Alaska. 
According to the Department of the Interior's 2012 Economic Impact 
Report, timber harvested from Public Domain forests supported $659 
million in economic activity, and biomass from BLM forests has become 
part of the feedstock that meets various State and Federal renewable 
energy portfolio standards. However, 14 million acres--or 24 percent--
of BLM forests are overstocked at increased risk of insect and disease 
attacks and catastrophic wildfire. Increased funding to address these 
serious risks is necessary across all land management agencies. 
American Forests supports the President's fiscal year 2015 request at 
$9.93 million.
Fish and Wildlife Service
    Endangered Species Program.--For 40 years, the Endangered Species 
Act has helped prevent the extinction of our Nation's treasured 
wildlife and plant species, many of which thrive in forested habitat. 
While the Act has made significant strides in protecting our most 
imperiled species, there are still major shortfalls. Numerous species 
in need of protection, including the whitebark pine, are precluded from 
the list because of the lack of adequate resources. American Forests 
supports the President's fiscal year 2015 request of $170.51 million.
    National Wildlife Refuge System.--The Refuge System, with 561 
refuges of more than 150 million acres across the country, is vital to 
protecting America's wildlife and ensuring that these habitats are a 
priority. Because refuges are visited by approximately 45 million 
people each year and generate more than $4.2 billion in economic output 
and more than 34,000 jobs in recreation spending,\2\ investment in the 
Refuge system is an investment in our communities. While it is well 
documented that an annual operations and maintenance budget should 
total at least $900 million,\3\ American Forests supports the 
President's fiscal year 2015 request for $476.40 million.
---------------------------------------------------------------------------
    \2\ The Department of the Interior's Economic Contributions fiscal 
year 2011 report, p.21; 2006 Banking on Nature report.
    \3\ ``Restoring America's Wildlife Refuges 2011: Assets for All 
Americans,'' Cooperative Alliance for Refuge Enhancement.
---------------------------------------------------------------------------
National Park Service (NPS)
    National Park System.--American Forests was instrumental nearly 100 
years ago in the creation of our national parks and continues to this 
day supporting the service that stewards these iconic landscapes. 
However, many of these forested parks are threatened by a series of 
stresses. Invasive species and uncontrolled outbreaks of pests have 
left these forested treasures vulnerable. American Forests is dedicated 
to aiding in the restoration of these parks, especially those in the 
intermountain west affected by the mountain pine bark beetle. As such, 
American Forests supports the President's fiscal year 2015 total budget 
request of $2.28 billion.
    Urban Parks Recreation and Recovery.--The reestablishment of this 
program, proposed to be funded through the Land and Water Conservation 
Fund, is essential to bring nature to urban communities. These 
competitive grants focus on engaging and connecting communities, 
especially young people, to their neighborhood parks through projects 
that would revitalize and rehabilitate park and recreation 
opportunities. As a leader in the urban forestry field, American 
Forests applauds the renewed efforts of the NPS and the Department of 
Interior to improve park units that will impact urban economies and the 
quality of life for urban residents by creating open green space. 
American Forests supports the President's fiscal year 2015 request of 
$25 million.
                    environmental protection agency
    Urban and rural forests offer fiscally-sound green solutions to the 
management of stormwater, water storage, groundwater recharge, and 
pollutant reduction.
    Green Infrastructure and Clean Water.--American Forests supports 
the EPA's goal of strengthening green infrastructure activities to 
further sustainability goals, particularly in urban, underserved and 
economically distressed communities by incorporating green 
infrastructure and enhancing stormwater management. American Forests 
also strongly supports efforts to expand the use of green 
infrastructure to meet Clean Water Act goals, however we would like to 
see the targeting of 20 percent of the Clean Water State Revolving 
Funds (CWSRF) increased to include a variety of green infrastructure 
projects. American Forests supports the President's fiscal year 2015 
request of $5 million to strengthen green infrastructure activities, 
and the fiscal year 2014 enacted level of $1.449 billion for CWSRF.
    Urban Waters Federal Partnership.--This 13 interagency effort, 
coordinated by the EPA, helps stimulate local economies, create jobs, 
improve quality of life, and protect health by revitalizing urban 
waterways, the urban forests that protect them and the communities 
around them, focusing on underserved urban communities of all sizes. 
American Forests supports the President's fiscal year 2015 request of 
$3.49 billion for supporting EPA's goal of protecting America's Waters, 
where this program sits within the EPA.
                      legislative language request
Wildfire Suppression Funding
    Funding wildfire suppression has been an ongoing struggle for the 
Forest Service and the Department of Interior. As the wildfires become 
more frequent and more severe, which they are projected to become, a 
new solution to how the Agencies fund suppression needs to occur. 
American Forests respectfully requests the subcommittee address the 
wildfire suppression funding issue by including language from the 
bipartisan Wildfire Disaster Funding Act (WDFA--H.R. 3992; S. 1875) in 
the fiscal year 2015 Interior, Environment, and Related Agencies 
appropriations bill. This language provides the structure to fund a 
portion of the USFS and DOI wildfire suppression costs through a budget 
cap adjustment under the Balanced Budget and Emergency Deficit Control 
Act of 1985, as amended. This would provide the USFS and DOI with a 
funding structure similar to that used by other agencies who respond to 
natural disaster emergencies.
Land and Water Conservation Fund
    American Forests supports the permanent authorization of full and 
dedicated funding, without further appropriation or fiscal year 
limitation for the Land and Water Conservation Fund (LWCF). LWCF 
programs protect natural resource lands, outdoor recreation 
opportunities and working forests at the local, State and Federal 
levels, ensuring these important lands are protected for current and 
future generations. American Forests supports the fiscal year 15 budget 
request which calls for permanent authorization of $900 million in 
mandatory funding for LWCF programs in the Departments of Interior and 
Agriculture beginning in 2016. During the transition to permanent 
funding in 2015, the budget proposes $350 million in discretionary and 
$550 million in permanent funding, shared by the Departments of 
Interior and Agriculture. This includes level discretionary funding for 
State Assistance grants at $48.1 million, which includes $3 million for 
``Competitive Grants.''
                                 ______
                                 
        Prepared Statement of the American Geosciences Institute
    Thank you for this opportunity to provide the American Geosciences 
Institute's (AGI) perspective on fiscal year 2015 appropriations for 
geoscience programs within the subcommittee's jurisdiction. We ask the 
subcommittee to support and sustain the critical geoscience work of the 
United States Geological Survey (USGS), the National Park Service, and 
the Smithsonian Institution. Specifically, we ask support for the 
President's request for $1.074 billion for USGS but we request a more 
balanced distribution for these funds within USGS, $225 million for the 
National Park Service's Natural Resource Stewardship and Everglades 
Restoration activities, and $850 million for the Smithsonian 
Institution.
    The Earth provides the energy, mineral, water, and soil resources 
that are essential for a thriving economy, national security, and a 
healthy population and environment. We emphasize the importance of 
understanding the Earth system, and particularly Earth's subsurface, in 
order to sustain human health and safety, energy and water supplies, 
and the quality of the environment, while reducing risks from natural 
hazards. The USGS is the Nation's only natural resource science agency 
that can provide the objective data, observations, analyses, 
assessments, and scientific solutions to intersecting Earth-focused 
issues.
    AGI is a nonprofit federation of about 50 geoscientific and 
professional associations that represent approximately 250,000 
geologists, geophysicists, and other Earth scientists who work in 
industry, academia, and government. Founded in 1948, AGI provides 
information services to geoscientists, serves as a voice of shared 
interests in our profession, plays a major role in strengthening 
geoscience education, and strives to increase public awareness of the 
vital role the geosciences play in society's use of resources, 
resilience to natural hazards, and the health of the environment.
                         u.s. geological survey
    AGI supports the President's request for $1.704 billion for USGS. 
We respectfully suggest that Congress should consider a balanced 
distribution of funds within USGS to allocate more resources to 
geoscience functions, for which USGS has unique national expertise and 
responsibilities.
    Need for balanced investment.--Planet Earth strongly influences 
human safety, the economy, and people's quality of life. Earthquake, 
volcanic, and landslide hazards; the Earth's groundwater, mineral, 
geothermal energy, and fossil fuel resource potential; and the Earth's 
potential for waste disposal all relate to the subsurface. The USGS 
Organic Act recognizes the importance of understanding the geological 
structure of the country and unequivocally vests responsibility and 
authority for this in USGS.
    Table 1 highlights those Mission Areas and Accounts that are being 
cut relative to the overall USGS budget, and we note that they contain 
the majority of USGS's geoscience functions. We respectfully ask 
Congress to recognize the importance of geoscience to the Nation's 
safety, economy, defense, and quality of life, and to support USGS's 
mandated role by funding balanced investment in USGS programs.

                                 TABLE 1. USGS BUDGET REQUEST, FISCAL YEAR 2015
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                    Percent                 Percent     Percent
                                                        Fiscal      change,     Fiscal      change,     change
         Mission Area or Account            Fiscal     year 2014    fiscal     year 2015    fiscal      fiscal
                                           year 2013    enacted   year 2013-    request   year 2014-  year 2013-
                                                                     2014                    2015        2015
----------------------------------------------------------------------------------------------------------------
Ecosystems..............................     149,086     152,811         2.5     162,025         6.0         8.7
Climate & Land Use......................     133,195     131,975        -0.9     149,081        13.0        11.9
Energy, Minerals........................      71,901      71,901         0.0      73,247         1.9         1.9
Environmental Health....................      18,614      19,614         5.4      25,826        31.7        38.8
Natural Hazards.........................     123,536     128,486         4.0     128,339        -0.1         3.9
Water Resources.........................     197,449     207,281         5.0     210,386         1.5         6.5
Core Science Systems....................     107,643     108,807         1.1     109,400         0.6         1.6
Science Support.........................     110,704     110,704         0.0     108,267        -2.2        -2.2
Facilities..............................     100,040     100,421         0.4     106,697         6.3         6.7
                                         -----------------------------------------------------------------------
      Total USGS........................   1,012,168   1,032,000         2.0   1,073,268         4.0         6.0
----------------------------------------------------------------------------------------------------------------

    USGS provides impartial scientific information that underpins well-
informed decisionmaking by the Department of the Interior, all levels 
of government, industry, and the public. It provides vital 
infrastructure through mapping, baseline studies, monitoring, and 
observations, in addition to cutting-edge research and analysis. 
Balanced investment in USGS should support both long-term data 
collection and project-specific research.
    Mineral Resources Program.--Funding for the Mineral Resources 
Program (MRP) has been cut by more than one-third in constant dollar 
terms since 2003 (see figure below) and the President's request 
continues this trend. AGI urges Congress to increase funding for MRP 
and to allocate new money to USGS to add forecasting capabilities to 
its Minerals Information functions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Minerals Information.--USGS is the sole provider of statistics and 
analysis on the supply of, demand for, and global flow of about 100 
minerals and mineral materials for approximately 180 countries. The 
Departments of the Interior, Defense, and State, the CIA, the Federal 
Reserve, as well as manufacturing companies and the financial sector 
all rely on MRP for reliable, timely, accurate data to guide economic 
and strategic decisionmaking. Production of critical products is at 
risk because industry depends on a constant flow of raw materials, many 
of which are imported and some of which may be subject to disruptions 
in supply. AGI notes the lack of any capacity to forecast future trends 
in minerals and mineral commodities, making the country vulnerable to 
avoidable disruptions in critical material supplies. AGI urges Congress 
to add new money to enable USGS to develop this strategically important 
expertise.
    Energy Resources Program.--AGI supports the increase in funding for 
geothermal resources studies but we do not support the proposed cut of 
$1.5 million to energy research and assessment activities. These cuts 
are being made when the country is increasing its reliance on natural 
gas and when it is ever more important to understand the nature and 
distribution of our energy resources.
    Hydraulic Fracturing.--AGI supports USGS efforts to better 
understand the scientific aspects of hydraulic fracturing, to reduce 
potential impacts, and to provide decision-support information. We 
support the allocation of $8.3 million for scientific research on this 
economically important technology.
    Water Resources Program.--The extreme drought situation in 
California, northern Texas, and surrounding areas highlights the 
importance of understanding the quality and quantity of our water 
resources. AGI is pleased to see increased investment in the National 
Groundwater Monitoring Network, streamgages, and other elements of the 
USGS Water Resources Program (WRP). We note the redistribution of funds 
within WRP to focus on selected areas and projects and we urge Congress 
to ensure that USGS continues to maintain and expand the nationwide, 
long-term data collection and research programs that support water 
planning and decisionmaking across all States.
    Natural Hazards Program.--USGS is world-renowned for its 
information and research on earthquakes, the natural hazard that poses 
the greatest threat to life and the economy. USGS work on induced 
seismicity is contributing crucial information to the decisionmaking 
process about regulating hydraulic fracturing and injection wells. AGI 
views the elimination of $700,000 from geodetic monitoring and active-
source seismic profiling in order to fund work on induced seismicity as 
unwise. Both of these functions are important and one should not be 
sacrificed to fund the other.
    Hurricane Sandy, sinkhole incidents in Florida, and the recent 
landslide in Washington State remind us of the tragic impacts of 
natural hazards. But we can use science to guide mitigation strategies 
and minimize damages. AGI supports robust funding of the Natural 
Hazards Program and urges Congress to consider funding at more than the 
President's request of $128.4 million.
    National Cooperative Geologic Mapping Program (NCGMP).--AGI is 
grateful to Congress for passing the reauthorization of the National 
Cooperative Geologic Mapping Program in the 2009 public lands omnibus 
(Public Law 111-11, Sec. 11001). This important 20-year-old partnership 
between the USGS, State geological surveys, and universities provides 
the Nation with fundamental data for addressing natural hazard 
mitigation, water resource management, environmental remediation, land-
use planning, and raw material resource development. AGI thanks the 
committee for its previous support for the National Cooperative 
Geologic Mapping Program and supports the President's request for $24.5 
million in fiscal year 2015.
    Libraries and Data Preservation.--Geological and geophysical data 
include rock and ice cores, fossil, oil, and rock specimens, paper 
records, and computer files that are worth far more than the cost of 
preserving them. The National Geological and Geophysical Data 
Preservation Program (NGGDP) generates more value in terms of economic 
development, environmental stewardship, hazard mitigation and 
fulfilling regulatory requirements than it costs to run. Books, maps, 
and specimens, many of which record observations of sites that no 
longer exist, are used extensively by geologists even in this digital 
age. The consolidation of USGS library space must not be at the expense 
of access to information. AGI supports the President's request for $2.1 
million for the NGGDP but notes with concern the reductions being 
implemented to USGS libraries.
                        smithsonian institution
    The Smithsonian's National Museum of Natural History plays a dual 
role in communicating the excitement of the geosciences and enhancing 
knowledge through research and preservation of geoscience collections. 
AGI asks the subcommittee to provide steady funding to cutting-edge 
earth science research at the Smithsonian Institution. We support the 
President's request of $851 million for the Smithsonian Institution in 
fiscal year 2015.
                         national park service
    National parks are very important to the geoscience community and 
the public as unique national treasures that showcase the geologic 
splendor of our country and offer unparalleled opportunities for 
research, education, and outdoor activities. The National Park 
Services' Geologic Resources Division was established in 1995 to 
provide park managers with geologic expertise. Working in conjunction 
with USGS and other partners, the division helps ensure that 
geoscientists are becoming part of an integrated approach to science-
based resource management in parks. AGI supports the President's 
request for $215 million for Natural Resource Stewardship activities 
and $10 million for Everglades Restoration so the NPS can adequately 
address the treasured geologic and hydrologic resources in the National 
Parks.
    Thank you for the opportunity to present this testimony to the 
subcommittee.
                                 ______
                                 
           Prepared Statement of the American Hiking Society
Hon. Jack Reed, Chairman,
Subcommittee on Interior, Environment, and Related Agencies, Committee 
        on Appropriations, Dirksen Senate Office Building, Washington, 
        DC.

Hon. Lisa Murkowski, Ranking Member,
Subcommittee on Interior, Environment, and Related Agencies, Committee 
        on Appropriations, Hart Senate Office Building, Washington, DC.

    Dear Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee, I am writing regarding funding for the Land and Water 
Conservation Fund in fiscal year 2015. While current enacted funding is 
$306 million and the administration's budget requests $900 million, 
American Hiking Society believes $350 million to be an amount that is 
within budgetary parameters yet can still accomplish at least some of 
the basic goals of this Fund.
    Among the many worthwhile projects which could be funded at this 
level are ones which would impact America's National Scenic and 
Historic Trails. These trails are enjoyed by Americans coast-to-coast, 
providing a wonderful outdoor recreation experience to families and 
individuals. Additionally, these trails are a significant economic 
engine in their communities, many of which are rural in nature and rely 
on visitors to these iconic outdoor adventures to sustain them. 
Certainly tourism is one product that can't be outsourced and deserves 
a solid investment.
    Among the National Scenic and Historic Trails which stand to 
benefit from funding the LWCF at the $350 million level are:
  --The Appalachian Trail
  --The Ice Age Trail
  --The Lewis & Clark Trail
  --The New England Trail
  --The Pacific Crest Trail
  --And others.
    Providing this LWCF funding to the National Trails System is 
critical to closing gaps in some of the trails and to preserving unique 
natural and cultural environs in others. Thank you for allowing 
American Hiking Society to provide our comments on funding the Land and 
Water Conservation Fund.
            Sincerely,
                                  Gregory A. Miller, Ph.D.,
                                                         President.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
                           i. request summary
    On behalf of the Nation's Tribal Colleges and Universities (TCUs), 
which collectively are the American Indian Higher Education Consortium 
(AIHEC), thank you for this opportunity to present our fiscal year 2015 
appropriations recommendations for the 30 colleges funded under various 
titles of the Tribally Controlled Colleges and Universities Assistance 
Act (Tribal College Act); the Bureau of Indian Education postsecondary 
institutions; and the Institute of American Indian Arts. The Bureau of 
Indian Education administers these programs, save for the Institute of 
American Indian Arts, which is congressionally chartered and funded 
directly through the Department of the Interior.
    In fiscal year 2015, TCUs seek $78.8 million for institutional 
operations, an endowment building program, and technical assistance 
under the Tribally Controlled Colleges and Universities Assistance Act 
of 1978 or Tribal College Act; of which, $78.1 million for titles I & 
II grants (28 TCUs); $109,000 for title III (endowment grants), and 
$600,000 for increasingly needed technical assistance. TCUs are founded 
and chartered by our respective American Indian tribes, which hold a 
special legal relationship with the Federal Government, actualized by 
more than 400 treaties, several Supreme Court decisions, prior 
congressional action, and the ceding of more than one billion acres of 
land to the Federal Government. Despite the trust responsibility and 
treaty obligations, the TCUs' primary source of basic operating funds 
has never been adequately funded. Further, our member institutions--
already operating on shoestring budgets--now are suffering the awful 
impact of sequestration. Should sequestration resume in fiscal year 
2016, along with across the across the board cuts that have become part 
of the regular order, the tribal colleges will suffer even greater 
annual reductions to this already underfunded program. Regrettably, the 
more than 30-year Federal investment in this program, which has proven 
to be a cost-effective, efficient, and transformative, may be lost as 
some of tribal colleges could be forced to close their doors. They 
simply cannot continue to operate on the austere budgets they receive. 
After 34 years, our fiscal year 2015 request seeks to achieve 85 
percent of the authorized funding level for institutional operating 
grants, which is based on a per Indian student allocation; and to 
retain $600,000 to provide critically needed ever changing technical 
assistance.
    AIHEC's membership also includes tribally controlled postsecondary 
career and technical institutions, a portion of whose institutional 
operations funding is authorized under title V of the Tribal College 
Act. AIHEC requests $9,372,000 for this program. For the Institute of 
American Indian Arts, AIHEC supports the President's budget request of 
$11,469,000, of which $2,000,000 is to begin to forward fund the 
college. Haskell Indian Nations University and Southwestern Indian 
Polytechnic Institute are the two Bureau of Indian Education's two 
postsecondary institutions. AIHEC supports the highest possible funding 
level for these valuable institutions.
    Lastly, AIHEC seeks a one-time appropriation of $22 million needed 
to forward fund the operations grants of the remaining TCUs that are 
not so funded. Five TCUs are the ONLY schools whose operations funding 
come from the Department of the Interior that are NOT forwarded funded. 
All other BIE/Interior schools are forward funded and are able to plan 
multi-year budgets and to start (and end) the school year with 
dependable funding. Forward funding does NOT increase the Federal 
budget over the long-run. It simply allows vital education programs to 
receive basic operating funds before each school year begins, which is 
critically important when the Federal Government is funded under 
continuing resolutions.
      ii. tcu shoestring budgets: ``doing so much with so little''
    Tribal Colleges and Universities are an essential component of 
American Indian/Alaska Native (AI/AN) education. Currently, 37 TCUs 
operate more than 75 campuses and sites in 16 States, within whose 
geographic boundaries 80 percent of all American Indian reservations 
and Federal Indian trust land lie. They serve students from well over 
250 federally recognized tribes, 80 percent of whom receive Federal 
financial aid. In total, the TCUs annually serve about 88,000 AIs/ANs 
through a wide variety of academic and community-based programs. TCUs 
are public institutions accredited by independent, regional 
accreditation agencies and like all U.S. institutions of higher 
education must periodically undergo stringent performance reviews to 
retain their accreditation status. Each TCU is committed to improving 
the lives of its students through higher education and to moving 
American Indians toward self-sufficiency. To do this, TCUs must fulfill 
additional roles within their respective reservation communities 
functioning as community centers, libraries, tribal archives, career 
and business centers, economic development centers, public meeting 
places, and child and elder care centers.
    The Federal Government, despite its direct trust responsibility and 
treaty obligations, has never fully funded the TCUs' institutional 
operating budgets, authorized under the Tribally Controlled Colleges 
and Universities Assistance Act of 1978. In fact, TCU operating funding 
is far below the level received by other institutions of higher 
education. The administration requests and Congress appropriates 
approximately $200 million annually towards the institutional 
operations of Howard University (exclusive of its medical school), the 
only other Minority Serving Institution (MSI) that receives 
institutional operations funding from the Federal Government. Howard 
University's current Federal operating support exceeds $22,000/student, 
because this is the level of need as determined by the U.S. Government. 
In contrast, most TCUs receive $5,850/Indian Student (ISC) under the 
Tribal College Act, only about 73 percent of the authorized level. TCUs 
have proven that they need and have earned an investment equal to--at 
the very least--the congressionally authorized level of $8,000/Indian 
student. Please understand that we are by no means suggesting that our 
sister MSI, Howard University does not need or deserve the funding it 
receives, only that the TCUs also need and deserve adequate 
institutional operations funding; however, TCU operating budgets remain 
grossly underfunded.
    TCU budgets are at a further disadvantage because the colleges 
receive funding for only about 80 percent of their students. Almost 
every other U.S. institution of higher education receives institutional 
operations funding based on its entire student body. However, it is 
important to note that although approximately 20 percent of the TCUs' 
collective enrollments are non-Indian students living in the local 
community, TCUs only receive Federal funding based on Indian students, 
defined as a member of a federally recognized tribe or a biological 
child of an enrolled tribal member. While many TCUs do seek funding 
from their respective State legislatures for their non-Indian State-
residents students (sometimes referred to as ``non-beneficiary'' 
students) successes have been at best inconsistent. Yet, if a TCU's 
non-beneficiary students attended any other public institution in the 
State, the State would provide the college with ongoing funding toward 
its day-to-day operations. Given their locations, often hundreds of 
miles from another postsecondary institution, TCUs remain open to all 
students, Indian and non-Indian, believing that education in general, 
and postsecondary education in particular is the catalyst for a better 
economic future for their regions.
                  iii. further justifications & facts
    (a) TCUs provide access to valuable postsecondary education 
opportunities. Tribal Colleges and Universities provide access to 
higher education for American Indians and others living in some of the 
Nation's most rural and economically depressed areas. In fact, seven of 
the Nation's 10 poorest counties are home to a TCU. The American 
Community Survey/U.S. Census Bureau reported the annual per capita 
income of the U.S. population as $27,100. However, the annual per 
capita income of AI/ANs is reported to be $13,300, or less than half 
that of the general population. TCUs offer their students a high level 
of support and guidance to bolster their chances of achieving academic 
success. In addition to serving their student populations, these tribal 
institutions offer a variety of much needed community outreach 
programs.
    (b) TCUs are producing an American Indian workforce that includes 
highly trained American Indian teachers, tribal government leaders, 
nurses, engineers, computer programmers, and other much-needed 
professionals. By teaching the job skills most in demand on their 
reservations, TCUs are laying a solid foundation for tribal economic 
growth, with benefits for surrounding communities and the Nation as a 
whole. In contrast to the high rates of unemployment on many 
reservations, graduates of TCUs are employed in ``high demand'' 
occupational areas such as Head Start teachers, elementary and 
secondary school teachers, agriculture and land management specialists, 
and nurses/healthcare providers. Just as important, the vast majority 
of tribal college graduates remains in their tribal communities, 
applying their newly acquired skills and knowledge where they are most 
needed.
    (c) Growing number of TCUs.--Compounding existing funding 
disparities is the fact that although the numbers of TCUs and students 
enrolled in them have dramatically increased since they were first 
funded in 1981, appropriations have increased at a disproportionately 
low rate. Since 1981, the number of tribal colleges has more than 
quadrupled and continues to grow; the number of Indian students 
enrolled has risen over 355 percent. In the past 10 years, six 
additional TCUs have become accredited and eligible for funding under 
title I of the Tribal College Act, and there are several more colleges 
currently in the pipeline. TCUs are in many ways victims of their own 
successes. The growing number of tribally chartered colleges and 
universities and increasing enrollments have forced TCUs to slice an 
already inadequate annual funding pie into even smaller pieces.
    (d) Local Tax and Revenue Bases.--TCUs cannot rely on a local tax 
base for revenue. Although tribes have the sovereign authority to tax, 
high reservation poverty rates, the trust status of reservation lands, 
and the lack of strong reservation economies hinder the creation of a 
reservation tax base. As noted earlier, on Indian reservations that are 
home to TCUs, the unemployment rate can well exceed 70 percent. By 
contrast, the national unemployment rate is currently 6.7 percent.
    (e) Gaming and the TCUs.--Although several of the reservations 
served by TCUs do have gaming operations, these are not the mega-
casinos located in proximity to urban outlets and featured in the 
broad-based media. Only a handful of TCUs receive regular income from 
the chartering tribe's gaming revenue, and the amounts received can 
vary greatly from year to year. Most reservation casinos are small 
businesses that use their gaming revenue to improve the local standard 
of living and potentially diversify into other, more sustainable areas 
of economic development. In the interim, where relevant, local TCUs 
offer courses in casino management and hospitality services to formally 
train tribal members to work in their local tribally run casinos.
    Some form of gaming is legalized in 48 States, but the Federal 
Government has not used the revenues generated from State gaming as a 
justification to decrease Federal funding to other public colleges or 
universities. Some have suggested that those tribes that operate the 
few enormously successful and widely publicized casinos should be 
financing higher education for all American Indians. And yet, no State 
is expected to share its gaming revenue with a non-gaming State.
             v. appropriations request for fiscal year 2015
    As noted earlier, it has been over three decades since the Tribal 
College Act was first funded, and the TCUs have yet to receive the 
congressionally authorized per Indian student funding level. Full 
funding for the TCUs' institutional operating grants ($8,000 per Indian 
student) for fiscal year 2015 would require an increase of 
approximately $24 million over the fiscal year 2014 appropriated level. 
However, we recognize the budget constraints the Nation is currently 
facing and consequently, we are not requesting that level of increase 
in fiscal year 2015. Rather, our goal is to achieve 85 percent of the 
authorized funding level, determined by the per Indian student 
allocation. This requires a modest increase of $9 million over fiscal 
year 2014. Details of the request are outlined in the Request Summary 
above.
                             vi. conclusion
    AIHEC Member institutions/Tribal Colleges and Universities provide 
quality higher education to many thousands of American Indians and 
other reservation residents who might otherwise not have access to such 
opportunities. The modest Federal investment that has been made in TCUs 
has paid great dividends in terms of employment, education, and 
economic development. Continuation of this investment makes sound moral 
and fiscal sense.
    We greatly appreciate your past and continued support of the 
Nation's Tribal Colleges and Universities and your serious 
consideration of our fiscal year 2015 appropriations requests.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences
    The American Institute of Biological Sciences (AIBS) appreciates 
the opportunity to provide testimony in support of appropriations for 
the United States Geological Survey (USGS), United States Forest 
Service (USFS), and Environmental Protection Agency (EPA) for fiscal 
year 2015. AIBS encourages Congress to provide the USGS with $1.2 
billion in fiscal year 2015, with at least $180 million for the 
Ecosystems activity. We further request that Congress provide the USFS 
Forest and Rangeland Research program with at least $310 million, and 
EPA's Office of Research and Development with at least $597 million.
    The AIBS is a nonprofit scientific association dedicated to 
advancing biological research and education for the welfare of society. 
AIBS works to ensure that the public, legislators, funders, and the 
community of biologists have access to and use information that will 
guide them in making informed decisions about matters that require 
biological knowledge. Founded in 1947 as a part of the National Academy 
of Sciences, AIBS became an independent, member-governed organization 
in the 1950s. Today, AIBS has more than 140 member organizations and is 
headquartered in Reston, Virginia, with a Public Policy Office in 
Washington, DC.
                         u.s. geological survey
    The USGS provides unbiased, independent research, data, and 
assessments that are needed by public and private sector decision-
makers. Data generated by the USGS save taxpayers money by reducing 
economic losses from natural disasters, allowing more effective 
management of water and natural resources, and providing essential 
geospatial information that is needed for commercial activity and 
natural resource management. The data collected by the USGS are not 
available from other sources and our Nation cannot afford to sacrifice 
this information.
    The Ecosystems activity within USGS underpins the agency's other 
science mission areas by providing information needed for understanding 
the impacts of water use, energy exploration and production, and 
natural hazards on natural systems. The USGS conducts research on and 
monitoring of fish, wildlife, and vegetation--data that informs 
management decisions by other Interior bureaus regarding protected 
species and land use. Biological science programs within the USGS 
gather long-term data not available from other sources. The knowledge 
generated by USGS programs is used by Federal and State natural 
resource managers to maintain healthy and diverse ecosystems while 
balancing the needs of public use.
    Examples of successful USGS Ecosystem initiatives include:
  --Development of comprehensive geospatial data products that 
        characterize the risk of wildfires on all lands in the United 
        States. These products are used to allocate firefighting 
        resources and to plan fuel reduction projects.
  --Identification of white-nose syndrome, a fungus that is devastating 
        U.S. bat populations and is jeopardizing the multi-billion 
        dollar pest control services provided by bats.
  --Identification and evaluation of control measures for Asian carp, 
        sea lamprey, Burmese pythons, and other invasive species that 
        cause billions of dollars in economic losses.
  --Study of the impacts of solar energy and other next generation 
        energy sources on wildlife and endangered species.
    The requested fiscal year 2015 budget would support several 
important ecosystem science priorities at USGS. The budget would expand 
detection and control of invasive species and improve predictive tools. 
USGS would also support efforts to further the science and integration 
of ecosystems services frameworks into decisionmaking and implement 
efforts to assess and sustain the Nation's environmental capital. 
Additionally, USGS would be able to address disconcerting declines in 
native pollinators.
    The request includes additional funding for research to inform 
adaptive management of severe and prolonged drought. The budget would 
also provide an increase for the National Streamflow Information 
Program, which supports USGS' national network of streamgages.
    New funding is proposed for the Cooperative Research Units to 
increase undergraduate and graduate student involvement in Interior 
research. Roughly 500 graduate students each year receive training at 
Cooperative Research Units. Through the units, the USGS and their 
partners address pressing issues facing natural resource managers at 
the local, State, and Federal levels. Examples of recent research 
initiatives include studying the effects of the Gulf of Mexico oil 
spill on wildlife and fisheries, and studying the impacts of wildfires 
on forest ecology. The program is an efficient use of resources: each 
Federal dollar invested in the program is leveraged more than five-
fold.
    Although the proposed budget supports many USGS priorities, the 
requested funding level would result in $41.3 million in cuts to 
programs that support agency core missions. Indeed, the budget request 
for Ecosystems is less than the agency received in fiscal year 2002 in 
nominal dollars.
    In summary, the USGS is uniquely positioned to provide a scientific 
context for many of the Nation's biological and environmental 
challenges, including water quality and use, energy independence, and 
conservation of biological diversity. This array of research expertise 
not only serves the core missions of the Department of the Interior, 
but also contributes to management decisions made by other agencies and 
private sector organizations. An investment of $1.2 billion in the USGS 
and at least $180 million in the Ecosystems activity will yield 
dividends.
                          u.s. forest service
    United States Forest Service research provides scientific 
information and new technologies to support sustainable management of 
the Nation's forests and rangelands. These products and services 
increase the basic biological and physical knowledge of the 
composition, structure, and function of forest, rangeland, and aquatic 
ecosystems.
    The fiscal year 2015 budget request would cut funding for Forest 
Service research by 6 percent--well in excess of the 2.6 percent cut 
proposed for the entire agency. The Forest and Rangeland Research 
division would lose 114 employees as a result.
    The proposed budget cuts would impact research on wildland fires, 
invasive species, wildlife and fish, and resource management. USFS' 
research on wildland fire and fuels evaluates the effectiveness of 
hazardous fuels treatments and helps managers as they protect life and 
property and restore fire-adapted ecosystems. Other programs support 
key areas of scientific research, the outcomes of which inform 
sustainable management of the Nation's forests and rangelands.
    We ask Congress to restore the proposed cuts and to fund the Forest 
and Rangeland Research program at $310 million, the same amount as in 
fiscal year 2010.
                    environmental protection agency
    The Office of Research and Development (ORD) supports valuable 
extramural and intramural research that is used to identify and 
mitigate environmental problems facing our Nation. ORD research informs 
decisions made by public health and safety managers, natural resource 
managers, businesses, and other stakeholders concerned about air and 
water pollution, human health, and land management and restoration. In 
short, ORD provides the scientific basis upon which EPA monitoring and 
enforcement programs are built.
    Despite the important role played by ORD, its funding has declined 
by 17 percent in nominal dollars since fiscal year 2004, when it peaked 
at $646.5 million. ``This long-term decline has limited and will 
continue to limit the research that can be conducted to support the 
agency's effort to protect human health and the environment,'' 
according to the EPA's Science Advisory Board. ``These limitations pose 
a vulnerability for EPA at a time when the agency faces significant 
science questions with long-term implications for protecting the 
environment and public health.''
    At $537.3 million, the budget request for fiscal year 2015 falls 
far short of addressing past and current shortfalls. We ask that 
Congress restore funding for ORD to at least the fiscal year 2010 
enacted level of $596.7 million.
    The Ecosystem Services Research program within ORD is responsible 
for enhancing, protecting, and restoring ecosystem services, such as 
clean air and water, rich soil for crop production, pollination, and 
flood control. The program has been long underfunded, according to the 
EPA Science Advisory Board, with a 58 percent budget decline over the 
last decade. We ask that Congress address the chronic underfunding of 
the program.
    The Science to Achieve Results (STAR) program supports valuable 
research on human health and the environment through competitively 
awarded research grants. The program enables EPA to fill information 
gaps that are not addressed by intramural EPA research programs or by 
other Federal agencies.
    Two valuable training opportunities for the next generation of 
scientists will be eliminated as part of a proposed governmentwide 
reorganization of science, technology, engineering, and mathematics 
education programs. Funding would be zeroed out for EPA STAR graduate 
fellowships and Greater Research Opportunities undergraduate 
fellowships. The Science Advisory Board ``considers it a priority to 
increase STAR fellowships, if possible, because support for 
environmental scientists at an early stage in their careers is a cost-
effective way to advance ORD's strategic goals.'' The National Academy 
of Sciences called the fellowship ``a valuable mechanism for enabling a 
continuing supply of graduate students in environmental sciences and 
engineering.'' We are concerned that the elimination of these programs 
will be detrimental to preparation of the next generation of 
environmental scientists and engineers. We ask for the program to 
remain at EPA and to be supported at an adequate funding level.
    ORD's Safe and Sustainable Water Resources program supports 
research that underpins safe drinking water for society. The program's 
research also focuses on better understanding resiliency of watersheds 
to stressors and factors that affect watershed restoration. The budget 
request would allow the program to pursue research that will inform 
decisions about water safety and to ensure the sustainability of our 
wetlands.
    In conclusion, we request that Congress restore funding for the ORD 
to the fiscal year 2010 enacted level. These appropriation levels would 
allow ORD to address a backlog of research needs.
    Thank you for your thoughtful consideration of this request.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
    On behalf of the Animal Welfare Institute, I want to thank Chairman 
Reed, Ranking Member Murkowski, and the distinguished members of the 
subcommittee for this opportunity to submit testimony regarding funding 
for the agencies involved in white-nose syndrome research and 
management, as well as for other programs of the U.S. Fish and Wildlife 
Service, National Park Service (NPS), U.S. Geological Survey, U.S. 
Forest Service, and the Bureau of Land Management.
                       white-nose syndrome (wns)

 
 
 
$2.5 million (President's budget).........  U.S. Fish and Wildlife
                                             Service/Science Support
 

Purpose: To fund research on ways to stop the development and spread of 
WNS, and the fungus that causes it, among bat populations.

 
 
 
$500,000..................................  U.S. Geological Survey/
                                             Ecosystems
 

Purpose: To conduct research into WNS management to aid in the recovery 
of affected species and reduce the spread of the WNS fungus.

 
 
 
$3 million................................  National Park Service/Park
                                             Management
 

Purpose: To inventory and protect NPS bat and cave resources; expand 
research into WNS management; monitor NPS resources for WNS; conduct 
public education about WNS; and standardize WNS screening procedures 
for visitors across park units.

 
 
 
$750,000..................................  U.S. Forest Service/Research
                                             and Development
 

Purpose: To conduct research on managing WNS per the Service's WNS 
science strategy.

 
 
 
$250,000..................................  U.S. Forest Service/Forest
                                             Systems
 

Purpose: To inventory and monitor bat resources and manage WNS on 
Forest Service lands.

 
 
 
$500,000..................................  Bureau of Land Management
 

Purpose: To fund field research related to WNS in bats and the 
inventorying and monitoring of bat resources on Bureau-administered 
lands.

    Capitalizing on the investments and progress already made, the 
funds we request would support Federal programs to fight WNS, a disease 
the U.S. Fish and Wildlife Service estimates has killed at least 5.7 
million bats since its 2006 outbreak. Caused by the invasive 
Pseudogymn-oascus destructans (Pd) fungus, WNS is present in 25 States 
and 5 Canadian provinces, and Pd in another 3 States. The disease or 
its fungus has affected 11 hibernating bat species so far, including 
the endangered Indiana, gray, and Virginia big-eared bats; 25 of our 
Nation's 47 bat species may ultimately be at risk. Losses are so severe 
that FWS published a proposed rule to list the northern long-eared bat 
as endangered throughout its range, which is most of the eastern U.S., 
and is reviewing another two species for possible listing under the 
Endangered Species Act.
    The loss of bats from WNS will likely have serious implications for 
our economy and environment. Bats are primary predators of night-flying 
insects, including agricultural pests that attack corn, soybeans, 
cotton, and other crops. By eating these pests, bats save farmers an 
average of $22.9 billion per year by reducing the need for pesticides 
and lowering food production costs. Bats also perform ecological 
services for 66 plant species that produce timber. Healthy forests need 
healthy bats.
    The Federal Government and its State, local, tribal, and nonprofit 
partners continue to make progress in fighting WNS. Thanks to Federal 
funding from previous years, these institutions are conducting research 
in line with the priorities identified at the 2014 WNS symposium: 
understanding the nature and dynamics of remnant bat populations in 
WNS-affected areas; understanding the nature and dynamics of Pd 
infectivity and virulence factors; and other questions such as 
biological control for WNS. These research directions hold promise for 
solutions to slow or stop the spread of the disease, and to alleviate 
its impacts on affected bats. In one of the past year's notable 
findings, Forest Service scientists taxonomically reclassified the WNS 
fungus from Geomyces destructans to Pseudogymnoascus destructans. A 
goal of the WNS community is to pinpoint the WNS fungus' harmful genes 
and silence them as a means of controlling the fungus; this research 
furthers that effort by shedding light on the genetic similarities and 
differences between the white-nose fungus and its closest, benign fungi 
relatives. Another positive development is the creation of the North 
American Bat Monitoring Program, which will be pilot-tested this 
summer. Until now, no coordinated or standard system for monitoring bat 
populations has existed within North America. As a result, wildlife 
managers and researchers have lacked accurate data on which to base 
appropriate bat management actions. The program will benefit not only 
the WNS fight but also other bat conservation efforts.
    These developments would not have been possible without funding. We 
thank Congress for recognizing the gravity of the WNS crisis and 
supporting agencies' response to the disease in past years. We have 
come so far in understanding WNS and determining directions for the 
fight against this devastating disease. Failing to adequately fund WNS 
response in fiscal year 2015 will undermine our hard-won progress, 
jeopardize the application of science to management, and thwart the 
impact of private funds leveraged to combat WNS. We recognize today's 
difficult budget situation but urge you to provide funding at the 
levels noted above.
    Money spent on WNS is a wise investment. Preventing the spread of 
WNS will spare businesses the regulatory and other impacts of massive 
bat die-offs. The experience gained will aid in responding to future 
fungal outbreaks that may affect human health. Finally, fighting WNS 
now will reduce future harm to the economy from insect-related losses 
to agriculture and forestry and the cost of listed-species recovery. An 
ounce of prevention truly is worth a pound of cure.
  fish and wildlife service office of law enforcement--$66.737 million
    The administration's fiscal year 2015 budget proposes a moderate 
funding increase for the FWS Office of Law Enforcement (OLE), one of 
the most important lines of defense for America's wildlife. OLE is 
tasked with enforcing over a dozen Federal wildlife and conservation 
laws that frequently impact both domestic and global security. Year 
after year, OLE protects the public against the illegal trade in 
wildlife and wildlife products--which is third only to the illicit 
trade in narcotics and weapons in terms of revenue generated globally--
and the U.S. remains a source of, or destination for, much of this 
contraband. Even those who may not concern themselves with wildlife are 
reaping benefits as OLE protects against smuggling illegal substances 
and helps to thwart potentially devastating human health threats. It is 
critical that OLE receive adequate funding to fulfill its mission.
    Accordingly, we support FWS's proposed appropriation of $66.737 
million for OLE, an increase of $1.994 million over the fiscal year 
2014 enacted budget, and the addition of seven full-time employees. 
This increase in funding and staff will provide for expanded forensics 
capability at the National Fish and Wildlife Forensics Laboratory, 
support the work of Special Agents and Wildlife Inspectors, and enhance 
the Service's ability to combat wildlife trafficking.
National Fish and Wildlife Forensics Laboratory--$1.247 million 
        increase + 5 FTE
    The successful outcomes of enforcement cases would not be possible 
without the essential work of the National Fish and Wildlife Forensics 
Laboratory (NFWFL), used by FWS agents and inspectors to gather hard 
evidence in wildlife crime cases. The lab uses state-of-the-art 
science, along with years of institutional knowledge, to identify 
wildlife products by species, determine the cause of death, and make 
other findings critical to a successful legal case. All 50 States and 
the 175 Convention on International Trade in Endangered Species (CITES) 
member countries depend on this facility to prosecute wildlife crimes.
    It is heartening that $1.247 million of the proposed $1.994 million 
increase to OLE's budget and 5 of the 7 additional full time employees 
will be allocated to the NFWFL's work. This will aid in the advancement 
of research involving genetic markers and isotope analysis, which will 
ultimately improve investigators' ability to determine the geographic 
origin of animals and animal parts. These funds would also serve to 
develop the laboratory's Morphology Section, where these is a great 
need for both hiring and training of forensics experts.
Program Activities/Special Agents and Wildlife Inspectors--$247,000 
        increase
    The Fish and Wildlife Service Special Agents and Wildlife 
Inspectors who enforce U.S. wildlife laws play a critical role in 
protecting our Nation's wildlife. Special Agents aid in the reduction 
of illegal trade in wildlife and wildlife products, which continues to 
imperil species in the U.S. and around the world. Wildlife Inspectors 
play a similarly valuable role, minimizing illegal contraband 
shipments, uncovering smuggled goods and illegal trade rings at the 
border, and thwarting national and global health risks associated with 
importing non-native species.
    In fiscal year 2013, FWS Special Agents pursued 10,422 
investigations involving 180,368 wildlife shipments, including 157,065 
shipments containing foreign species. Agents identified 1,824 
individuals/businesses conducting illegal activities involving 
migratory birds; 2,535 individuals/businesses engaged in crime 
involving threatened and endangered species; and 7,521 individuals/
businesses conducting illegal activities involving foreign species. 
These enforcement activities resulting in $24.6 million in fines and 
penalties, 45.9 years of jail time for the perpetrators, and 452.7 
years of probation.\1\
---------------------------------------------------------------------------
    \1\ U.S. Fish and Wildlife Service Office of Law Enforcement, Law 
Enforcement at a Glance (2014).
---------------------------------------------------------------------------
    In the same year, FWS Wildlife Inspectors processed approximately 
182,000 declared shipments of wildlife products worth over $6.2 
billion.\2\ This impressive record merits proper funding and staffing 
adequate to fulfill OLE's mission.
---------------------------------------------------------------------------
    \2\ Id.
---------------------------------------------------------------------------
Wildlife Trafficking--$500,000 increase + 2 FTE
    FWS's Special Investigations Unit (SIU) works to address complex 
wildlife trafficking cases, including cases involving critically 
endangered species. Poaching is on the rise internationally, and SIU's 
investigation and enforcement work is of critical importance to making 
the United States a part of the solution. Both the Administration's 
National Strategy for Combating Wildlife Trafficking and the 
President's Executive Order on combating wildlife trafficking highlight 
the prevention of wildlife crime as a national priority.
    Increasing its staff from 6 to 8 agents will provide SIU with the 
capacity to undertake a national investigation of the trade in ivory, 
including both importation and smuggling within the United States, 
while continuing its national and international efforts to investigate 
rhino horn trafficking. We support FWS's request for $500,000 (of the 
total $1.994 million requested increase) and 2 additional full time 
employee positions (of the 7 total FTE requested for law enforcement).
                wild free-roaming horses and burros act
    The wild horse is as much a symbol of our American heritage as the 
image of Uncle Sam and baseball. Currently, America's wild horses are 
subjected to gross mismanagement and mistreatment by the Bureau of Land 
Management (BLM), which uses a significant portion of its budget to 
round up and warehouse wild horses and burros without credible evidence 
supporting the need for such removals as recently documented by a 
National Academy of Science study. Furthermore, since 2004, wild horses 
have been at risk of being sold to killer-buyers who make a profit by 
sending horses to slaughter for human consumption--in fact, in recent 
years, hundreds of wild horses were sold to at least one known killer-
buyer.
    In 1971, Congress acted to protect these wild animals and their 
natural habitat. For the last few years, this subcommittee has also 
called on the BLM to find humane solutions, but they ignore options and 
fail to act responsibly. It is now time for Congress to act decisively 
to ensure these animals are neither sent into holding facilities nor 
sentenced to slaughter. BLM's proposed budget includes a program 
increase of $2.8 million for wild horse and burro management. These 
funds are to be used for population control research, including ongoing 
studies that ``focus on developing more effective and longer lasting 
fertility control agents. . . .'' \3\ We support these efforts and 
request that any increase in appropriations under the Wild Free-Roaming 
Horses and Burros Act be used solely for implementation of humane, on-
the-range management methods such as immunocontraception, and not 
unnecessary roundup.
---------------------------------------------------------------------------
    \3\ U.S. Department of the Interior Bureau of Land Management, 
Budget Justifications and Performance Information: fiscal year 2015 
(2014).
---------------------------------------------------------------------------
    Finally, we strongly support the continued inclusion of this ``no-
kill'' language to ensure that BLM does not kill healthy wild horses 
and burros: Provided, that appropriations herein made shall not be 
available for the sale or destruction of healthy, unadopted wild horses 
and burros in the care of the Bureau or its contractors.
       national park service lethal management of native wildlife
    In recent years, the National Park Service (NPS) has significantly 
expanded its lethal control of native ungulates in contravention of its 
own legal mandates. During this time, the NPS has initiated lethal 
control of ungulates in a number of national parks (e.g., Valley Forge, 
Catoctin, Indiana Dunes, and Rock Creek) and is considering similar 
efforts in other parks. In each case, the NPS has misapplied its own 
statutes and policies and has failed to provide any credible site-
specific data to justify its heavy-handed strategies. Though even the 
NPS concedes that ungulates are keystone herbivores, it is unwilling to 
allow ungulates to naturally influence ecosystem structure and 
function, as its own statutes and policies require. Therefore, we 
request that the following language, which would save taxpayer dollars, 
be included in the Senate Interior Appropriations bill: No funds 
appropriated under this legislation shall be expended by the National 
Park Service to lethally control or kill native ungulates nor shall the 
National Park Service permit any entity, public or private, to kill 
said ungulates.
                                 ______
                                 
        Prepared Statement of the Appalachian Trail Conservancy
    Dear Mr. Chairman and members of the subcommittee: On behalf of the 
Appalachian Trail Conservancy (ATC), for reasons described below, I am 
requesting a fiscal year 2015 appropriation from the Land and Water 
Conservation Fund (LWCF) in the amount of $4,461,000 for the Department 
of the Interior, National Park Service and $7,850,000 for the U.S. 
Department of Agriculture (USDA) Forest Service (USFS) for the 
acquisition of lands and interests in lands surrounding or bordering 
the Appalachian National Scenic Trail in the States of New Hampshire, 
Vermont, Massachusetts, Pennsylvania, North Carolina, and Tennessee.
    ATC also requests support for the President's fiscal year 2015 
budget request of $2,283,852,000 for National Park Service operations 
and $10 million for the Centennial Challenge, as well as a budget 
request of $183,000 for the USDA Forest Service for operational costs 
associated with managing the Appalachian National Scenic Trail.
    Background.--The Appalachian National Scenic Trail (ANST) is 
America's premier long-distance footpath. Begun in 1922 and completed 
in 1937 as a continuous footpath extending from western Maine to 
northern Georgia, the trail gained Federal recognition in 1968 with the 
passage of the National Trails System Act. Amendments to that act in 
1978 expanded the authorization for Federal and State land acquisition 
to establish a permanent, publicly owned right-of-way as well as a 
protective corridor or greenway along the trail. Since 1978, with the 
strong support of the subcommittee and the Congress as a whole, the 
Appalachian National Scenic Trail land acquisition program of the 
National Park Service and USDA Forest Service has become one of the 
most successful land conservation efforts in the Nation's history. 
Additional land acquisitions will serve to protect priority landscapes 
along the trail that offer recreational and ecological benefits to the 
public.
    Resource Characteristics.--The Appalachian Trail is a 2,185-mile 
footpath extending along the crests and valleys of the Appalachian 
Mountains through 14 States from Maine to Georgia. Often characterized 
as a string of pearls, the trail, which is administered as a unit of 
the National Park System, connects eight National Forests, six other 
units of the National Park System, and approximately 60 State parks, 
forests, and game management units. With an estimated 2 million 
visitors per year, it ranks among the most heavily visited units of the 
National Park System and also ranks among the top 10 units from the 
standpoint of natural diversity, with more than 2,200 documented 
occurrences of federally and State listed rare, threatened, or 
endangered species at more than 500 discrete sites.
    The Appalachian Trail is equally well known as a remarkable public/
private partnership. Since the initial construction of the trail in the 
1920s and '30s, volunteers affiliated with the Appalachian Trail 
Conservancy have constructed, reconstructed, and maintained the 
footpath, as well as a system of more than 250 shelters and associated 
facilities such as privies, improved campsites, bridges, signs, and 
parking lots. In 2013, for example, 5,941 volunteers contributed 
245,548 hours of labor along the trail.
    Need for Appropriations.--As noted previously, while the 
Appalachian National Scenic Trail protection program represents one of 
the most successful land acquisition programs in the history of the 
conservation movement in the United States, that program is not yet 
complete. A number of critical parcels are now ripe for land 
acquisition from willing sellers, and we are seeking fiscal year 2015 
LWCF appropriations to secure those properties. A brief description of 
each of those critical parcels follows.
    Bald Cap Peak, New Hampshire.--ATC and The Conservation Fund 
request a fiscal year 2015 LWCF appropriation of $200,000 for the 
National Park Service. The funds would be obligated for the National 
Park Service to acquire a 300-acre tract in fee in Coos County, New 
Hampshire. The tract will broaden the Appalachian Trail corridor in 
these highlands, protecting the natural flora and fauna along it, as 
well as the high elevation watershed found along the crest of the 
mountains the trail traverses. These lands are part of the Mahoosuc 
Mountain range, which is the northerly extension of the White Mountains 
in northeastern New Hampshire. Acquisition of this property would 
enhance protection for three major peaks in the area, including Bald 
Cap Peak, Bald Cap, North Bald Cap, and the area around Mount Success. 
This acquisition also will protect a key side trail that provides 
access to one of the more remote sections of the trail.
    Greensboro Farm, New Hampshire.--ATC and the Trust for Public Lands 
request a fiscal year 2015 LWCF appropriation of $2,251,000 for the 
National Park Service to acquire a 173-acre tract of land owned by 
Dartmouth College and located in the town of Hanover, New Hampshire. 
This acquisition will protect the ANST corridor from incompatible 
development and permanently protect side trails maintained by the town 
of Hanover which connect to the Appalachian Trail, but which do not 
have permanent protection status. Acquisition of this property, known 
as Hudson Farm, will also protect wetland and riparian systems, 
grassland bird habitat, rare plant sites, a significant wildlife 
corridor, and forest resources. The Hudson Farm is likely to be 
divested by Dartmouth College within the next 2 to 4 years, as it has 
been deemed a non-strategic real estate holding.
    Pomfret Pines Project, Vermont.--ATC and The Conservation Fund 
request funding in fiscal year 2015 of $533,000 for the National Park 
Service to acquire an easement interest in an 81-acre property, known 
as the Pomfret Pines Farm, situated on a hill adjacent to and above the 
Appalachian Trail in the town of Pomfret, Vermont, to conserve its 
natural and scenic character. The property may be under threat of 
subdivision and residential development.
    Hottle-Fahey Forest, Massachusetts.--ATC requests funding in fiscal 
year 2015 of $777,000 for the National Park Service to acquire a 306-
acre tract of the Hottle-Fahey Forest that lies in the foreground 
viewshed of Warner Hill in Hinsdale, Massachusetts. In 2010, an 
industrial wind developer proposed constructing six large wind turbines 
within 500 feet of the ANST corridor at this point. This would have 
seriously altered the view from Warner Hill and significantly changed 
the character of this section of the trail through the small rural 
village of Hinsdale. In late 2012, the developer withdrew plans to 
develop the site, but the threat for industrial development and/or 
timber extraction remains. The Hottle-Fahey Forest lies in the center 
of the Hinsdale Flats, an area designated by the State of Massachusetts 
as an Area of Critical Environmental Concern (ACEC), a site that 
receives special recognition because of the quality, uniqueness, and 
significance of its resources.
    White Rocks Addition, Pennsylvania.--ATC requests a fiscal year 
2015 LWCF appropriation of $500,000 for the National Park Service to 
acquire a 107-acre property in the viewshed of the Appalachian Trail as 
it crosses the White Rocks formation just southeast of Boiling Springs, 
Pennsylvania. This tract is contiguous to a recently protected 800-acre 
tract. The most pressing threat to this landscape is the potential for 
additional development by the landowner.
    Tennessee Mountains Trails and Waters-Rich Mountain Inholding.--ATC 
requests a fiscal year 2015 LWCF appropriation of $3,700,000, including 
the Rich Mountain inholding ($700,000), for the USDA Forest Service. 
This collaborative project includes funding for acquisitions associated 
with trails in Tennessee, including a 100-acre privately owned 
inholding situated in the northwest corner of the recently acquired 
10,000-acre Rocky Fork property, a significant acquisition for the 
ANST. This tract includes the highest point of land for the overall 
property as well as prominent cliffs. The cliffs are only a short 
distance from the ANST through a high elevation heath bald. The 
property provides sweeping views of the Sampson Mountain Wilderness and 
northeast Tennessee/southwest Virginia.
    North Carolina Threatened Treasures--Grassy Ridge Project.--ATC 
requests a fiscal year 2015 LWCF appropriation of $1,100,000 for the 
USDA Forest Service to acquire 601 acres of high elevation grassy bald 
with several threatened and endangered species. This parcel is the 
largest unprotected parcel in the ANST and Overmountain Victory 
National Historic Trail viewshed. An additional $1,050,000 will be 
contributed to the project from the North Carolina Parks and Recreation 
Trust Fund and the North Carolina Clean Water Trust Fund.
    Sugarloaf Mountain, Tennessee.--ATC requests a fiscal year 2015 
LWCF appropriation of $330,000 for the USDA Forest Service to acquire 
this 80-acre inholding within the Cherokee National Forest to protect 
the viewshed of the Appalachian Trail. The tract hosts a cove hardwood 
forest, a waterfall, and abundant wildflowers, offering an outstanding 
recreational experience. ATC will contribute funding for the appraisal 
of this important tract.
    National Trails Collaborative Landscape.--ATC requests a fiscal 
year 2015 LWCF appropriation of $2,720,000 for the USDA Forest Service. 
This acquisition package includes several important ANST tracts, 
including:
  --Ripshin Wetlands.--This 403-acre property is adjacent to the 
        Moffett Laurel Botanical Area Rare Community and Ripshin Ridge 
        Rare Community. The Ripshin tract contains documented habitat 
        and breeding grounds for the Bog Turtle, a State threatened 
        species and federally listed threatened species within an 
        Appalachian Highlands Bog. Cliff top viewpoints offer 
        exceptional views of this tract for Appalachian Trail hikers. 
        This tract is surrounded on three sides by the Cherokee 
        National Forest.
  --Hump Mountain, Tennessee.--The 27-acre Hump Mountain tract is a 
        high elevation southern Appalachian grassy bald, which is home 
        to a unique ecosystem including several threatened and 
        endangered species and species of concern. The tract is also 
        part of the culturally significant Roan Highlands landscape and 
        a national natural landmark, and it is surrounded on three 
        sides by the Cherokee and Pisgah National Forests.
  --Shook Branch, Tennessee, Cherokee National Forest.--This 20-acre 
        tract provides an important linkage for the Appalachian Trail 
        corridor as it travels from Watauga Lake to the Pond Mountain 
        Wilderness. Rerouting the trail onto this tract will provide a 
        much safer crossing of the very busy U.S. 321, prevent 
        development adjacent to a USFS/Tennessee Valley Authority 
        recreation area, and provide an improved corridor for wildlife.
    National Park Service Funding.--ATC requests a $10 million 
appropriation for the Centennial Challenge and $2,283,852,000 for 
National Park Service (NPS) operations. As NPS prepares for its 100th 
anniversary, Congress has an achievable opportunity to begin reversing 
the damaging pattern of recent cuts and long-term underfunding and 
instead invest in the popular and economically important NPS, including 
the ANST. The troubled budget process of recent years has allowed a 
slow motion shutdown that has meant deferring significant maintenance 
projects and the hiring of key park staff that provide for safe and 
enjoyable visits.
    USDA Forest Service, Appalachian National Scenic Trail 
Operations.--ATC requests $183,000 in operational funds for the USDA 
Forest Service Southern Region 8 to provide a liaison for trail 
management. Operational funds also support volunteer trail maintenance 
crews and visitor outreach.
    Thank you for the opportunity to submit this testimony and for your 
consideration of our request.
                                                Ron Tipton,
                        Executive Director/Chief Executive Officer.
                                 ______
                                 
         Prepared Statement of the APS Four Corners Power Plant
                                                     April 9, 2014.
Hon. Jack Reed, Chairman,
Hon. Lisa Murkowski, Ranking Member,
Subcommittee on Interior, Environment, and Related Agencies, Committee 
        on Appropriations, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.

    Dear Chairman Reed and Senator Murkowski: I am requesting your 
support for fiscal year 2015 appropriations to the Fish and Wildlife 
Service (FWS) for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program 
consistent with the President's recommended budget. I request that the 
subcommittee:

  --Appropriate $706,300 in ``Conservation and Restoration'' funds 
        (Resource Management Appropriation; Ecological Services 
        Activity; Conservation and Restoration Subactivity within the 
        $124,253,000 item entitled ``Conservation and Restoration'') to 
        the U.S. Fish and Wildlife Service (FWS) to allow FWS for 
        fiscal year 2015 to continue its essential participation in the 
        Upper Colorado River Endangered Fish Recovery Program.
  --Appropriate $200,000 in FWS ``Conservation and Restoration'' funds 
        for the San Juan River Basin Recovery Implementation Program to 
        meet expenses incurred by FWS's Region 2 in managing the San 
        Juan Program's diverse recovery activities.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $48,617,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.

    I request the subcommittee's assistance in assuring fiscal year 
2015 funding to allow the FWS to continue its financial and personnel 
participation in these two vitally important recovery programs. I 
recognize and appreciate that the past support and assistance of your 
subcommittee has greatly facilitated the success of these ongoing 
efforts.
            Sincerely,
                                 David C. Bloomfield, P.E.,
                                   Four Corners Site Plant Manager.
                                 ______
                                 
  Prepared Statement of the ASME Environmental Protection Agency Task 
                                 Force
    Mr. Chairman, Ranking Member, and members of the subcommittee: The 
ASME Environmental Protection Agency Task Force is pleased to provide 
this testimony on the fiscal year 2015 budget request for research and 
development programs in the Environmental Protection Agency (EPA).
                              introduction
    ASME is a nonprofit, worldwide educational and technical Society 
with more than 130,000 members. It conducts one of the world's largest 
technical publishing operations, holds more than 30 technical 
conferences and 200 professional development courses each year, and has 
authored over 600 industrial and manufacturing standards.
                               background
    Scientists and engineers have a long-standing professional interest 
in applying Science & Technology (S&T) to improve the environment and 
human health in the U.S. Mechanical engineers increasingly collaborate 
with other professionals to develop innovative and cost-effective 
environmental technologies and systems.
    The EPA plays an essential role in the Nation's efforts to protect 
human health and safeguard the environment, and EPA's S&T research and 
development (R&D) activities are instrumental in improving 
environmental protection in a sound, sustainable, and cost-effective 
manner. R&D efforts are needed to improve environmental health, the 
ecology, environmental monitoring, environmental technology development 
and implementation. Pollution reduction is needed to address the 
emerging concerns of climate change, as well as homeland security and 
infrastructure protection.
               overview of the asme epa task force review
    The fiscal year 2015 budget request for EPA is $7.9 billion, a $310 
million or 3.8 percent decrease from the fiscal year 2014 enacted 
amount of $8.2 billion. The EPA's Science and Technology account would 
increase by 0.6 percent or $4.6 million in fiscal year 2015 to $763.7 
million.
    EPA has seen declining budget figures for the last four budget 
cycles. The EPA Task Force feels that a higher appropriation is 
warranted for the agency in fiscal year 2015. Additional R&D funds are 
needed in order to enhance study responses to hydraulic fracturing and 
oil shale waste issues, climate change, terrestrial carbon 
sequestration and management, biofuels, and nanotechnology development.
    The Task Forces comments on the fiscal year 2015 budget focus on 
the R&D activities of the S&T portfolio within the EPA's Office of 
Research and Development (ORD) and the Superfund program that support 
eight strategic programmatic research areas:
    The change in funding levels supporting these core objectives 
between fiscal year 2013 and fiscal year 2015 is as follows:

                          [Dollars in millions]
------------------------------------------------------------------------
                                   Fiscal year  Fiscal year  Fiscal year
                                       2013         2014         2015
------------------------------------------------------------------------
Indoor Air and Radiation.........        $6.39        $6.45        $6.09
Homeland Security................        38.88        38.36        39.44
Clean Air and Climate............       114.9        120.4        118.5
Safe and Sustainable Water              106.2        111.0        114.1
 Resources
Human Health Protection..........         3.6          3.6          3.6
Air, Climate, and Energy Research        87.1         94.9        101.9
------------------------------------------------------------------------

                 epa office of research and development
    Through research and technical assistance, ORD provides the 
scientific foundation for EPA by performing research and development to 
identify and solve present and future environmental issues and 
providing responsive technical support to its scientific partners. The 
ORD administers programs addressing both foundational research, to 
improve the scientific tools used to understand and evaluate 
environmental health, as well as problem-driven research designed to 
provide scientific solutions to high-priority environmental problems. 
It is an invaluable national resource.
    We note that the ORD workforce has declined by over 10 percent in 
the past several years and is now not sufficient to permit action on 
various topics of national importance. Effort should be made to ``right 
size'' the ORD staff so that it can continue to support R&D on current 
and future environmental problems.
    We support the increases requested for the EPA's S&T directorate, 
which partially reverses several years of funding decreases. An 
evaluation of EPA's resources is needed to ensure that it can balance 
between existing priorities and new challenges. Program specifics 
issues are outlined below:

                        INDOOR AIR AND RADIATION
                          [Dollars in millions]
------------------------------------------------------------------------
                                   Fiscal year  Fiscal year  Fiscal year
                                       2013         2014         2015
------------------------------------------------------------------------
Indoor Air: Radon Program........        $0.56        $0.19        $0.0
Reduce Risks from Indoor Air.....         0.36         0.31         0.41
Radiation Protection.............         1.9          2.1          2.0
Radiation Preparedness Response..         4.0          3.8          3.6
------------------------------------------------------------------------

    The Task Force supports the EPA's replacement of the Radon Program 
with the Federal Radon Action Plan, which will leverage industry and 
nonprofit efforts to amplify existing Federal efforts to reduce radon 
risk.

                            HOMELAND SECURITY
                          [Dollars in millions]
------------------------------------------------------------------------
                                   Fiscal year  Fiscal year  Fiscal year
                                       2013         2014         2015
------------------------------------------------------------------------
Critical Infrastructure                 $10.3        $10.4        $12.0
 Protection......................
Preparedness, Response and               27.9         27.3         26.8
 Recovery........................
Protection of EPA Personnel and           0.54         0.54         0.57
 Infrastructure..................
------------------------------------------------------------------------

    Homeland security activities are a significant component of the 
EPA's S&T activities, focusing on critical infrastructure protection 
and disaster preparedness and response. The Task Force plans to review 
the reduced program operation levels, particularly with respect to EPA 
personnel accounts, to insure that the reductions do not delay the 
completion of the program's objectives. The Task Force supports the 
additional funding allocated to the Critical Infrastructure Protection 
program.

                          CLEAN AIR AND CLIMATE
                          [Dollars in millions]
------------------------------------------------------------------------
                                   Fiscal year  Fiscal year  Fiscal year
                                       2013         2014         2015
------------------------------------------------------------------------
Climate Protection...............       $13.0         $8.31        $8.0
------------------------------------------------------------------------

    The EPA Task Force views Climate Protection Research as a critical 
issue and is troubled by the funding trajectory for this program given 
funding in the previous fiscal years. We urge Congress to appropriate 
additional funds for Climate Protection to exceed the fiscal year 2015 
requested level.

                    RESEARCH: AIR, CLIMATE AND ENERGY
                          [Dollars in millions]
------------------------------------------------------------------------
                                   Fiscal year  Fiscal year  Fiscal year
                                       2013         2014         2015
------------------------------------------------------------------------
S&T Activities...................       $87.1        $94.9       $101.9
------------------------------------------------------------------------

    The EPA Task Force supports the full fiscal year 2015 increased 
request for Air, Climate and Energy Research, particularly the $3.79 
million in additional funding for support for hydraulic fracturing 
research activities within the ACE research program.

                  SAFE AND SUSTAINABLE WATER RESOURCES
                          [Dollars in millions]
------------------------------------------------------------------------
                                   Fiscal year  Fiscal year  Fiscal year
                                       2013         2014         2015
------------------------------------------------------------------------
Research                               $106.2       $111.0       $114.1
------------------------------------------------------------------------

    Safe and Sustainable Water Resources funding supports a variety of 
activities related to the challenges facing U.S. water resources, 
including drinking water and waste water from industrial activities 
like hydraulic fracturing. Funding for Sustainability research is 
slated for an increase of just over $3.1 million for this fiscal year. 
The Task Force is pleased that funding has been increased and supports 
the fiscal year 2015 request.

                         HUMAN HEALTH PROTECTION
                          [Dollars in millions]
------------------------------------------------------------------------
                                   Fiscal year  Fiscal year  Fiscal year
                                       2013         2014         2015
------------------------------------------------------------------------
Drinking Water Programs..........        $3.61        $3.63        $3.68
------------------------------------------------------------------------

    Overall, the fiscal year 2015 budget request calls for a slight 
increase from the fiscal year 2014 appropriated amount. The Task Force 
considers the long term development of infrastructure related to water 
quality issues as a high priority of the EPA and supports this request 
given the constrained budget environment.
               water quality research and support grants
    The EPA Task Force urges Congress to again support funding for the 
Water Quality Research and Support Grant program. Last year, Congress 
provided $4.23 million for this nationally competitive grant program to 
fund water quality and availability research. Given the severe droughts 
and water resource challenges facing many parts of the country, the 
Task Force supports funding at the fiscal year 2014 appropriated level 
for this grant program.
                        environmental education
    The fiscal year 2015 EPA budget does not request any funding to 
support Environmental Education, which was funded at $8.7 million in 
fiscal year 2014. It is essential to encourage students to pursue 
careers in environmental science and engineering. Such investments are 
critical to addressing environmental concerns, bolstering our Nation's 
workforce, and maintaining its competitiveness. If Congress and the 
Administration proceed with the transfer of EPA environmental education 
activities to the National Science Foundation (NSF), close coordination 
and consultation with EPA should be conducted to ensure that the goals 
of EPA's programs are continued under NSF administration.
                               conclusion
    The administration's fiscal year 2015 request is, in part, 
reflective of a difficult fiscal environment where tough choices have 
to be made to support priorities within the EPA. As this Task Force has 
previously stated, however, difficult budget choices should not 
preclude certain priorities from receiving funding. The Task Force 
requests that additional funding be allocated for the Homeland Security 
programs to insure that security enhancements to our water supply are 
not delayed nor disrupted. Further, the Task Force proposes the 
continued funding of EPA's Water Quality Research Support Grant 
program.
    This statement represents the views of the EPA Task Force of the 
Environmental Engineering Division (EED) of ASME's Technical 
Communities and is not necessarily a position of ASME as a whole.
                                 ______
                                 
     Prepared Statement of the Association of Art Museum Directors
    The Association of Art Museum Directors (AAMD) respectfully 
requests funding of no less than $155 million each for the National 
Endowment for the Arts (NEA) and the National Endowment for the 
Humanities (NEH).
    In addition, AAMD requests a revision of the Arts and Artifacts 
Indemnity Act (Public Law 94-158) as amended (Public Law 110-161, Sec. 
426) to increase the amount of indemnity that may be outstanding at any 
given time and for any single exhibition. Congress last amended the Act 
in 2005 and 2007, and both times it did so through the appropriations 
process.
                i. the arts and artifacts indemnity act
    Congress and President Gerald Ford approved the Arts and Artifacts 
Indemnity Act in 1975 to promote the international exchange and 
exhibition of major artworks. Officially a program of the Federal 
Council on the Arts and Humanities, the program is administered by the 
NEA. In 2007, Congress expanded eligibility to include coverage of 
works of art owned by U.S. entities while on exhibition in the United 
States.
    Federal indemnity only covers objects in major exhibitions. It 
usually does not cover every object, as some are excluded because they 
are fragile, or for other reasons. When objects are excluded, the 
museum must either secure private insurance or cover them through its 
own blanket policy. Having indemnity for some objects makes getting 
insurance for the remainder easier and more affordable.
    Absent indemnification, some exhibitions would have to be cut back 
in scale, whether by traveling to fewer venues or including fewer 
objects. In some cases, exhibitions would not go forward at all. For 
this reason, fine arts insurers as well as museums support the 
indemnity program, since they would rather insure some objects in an 
exhibition than not have the exhibition presented in the first place.
    The program has run smoothly and incurred minimal costs to the 
Federal Government, which since 1975 has paid just two claims, totaling 
$104,700. It currently saves art museums approximately $30 million 
annually, while enabling major exhibitions to be presented to audiences 
around the country, with all of their attendant educational and 
economic benefits.
    The program's cost has been so low for several reasons. First, it 
imposes high deductibles: for exhibitions indemnified for over $500 
million, the deductible is $500,000. Second, the program is very strict 
about what it will cover, with entire classes of objects ineligible due 
to fragility. Third, the program demands the highest standards in 
security and environmental controls; for example, all exhibitions must 
have human guards 24 hours a day, and all works must travel with 
couriers.
    The Act allows no more than $10 billion in indemnity for 
international exhibitions to be outstanding at any one time, and no 
single international exhibition may receive indemnity for more than 
$1.2 billion of value. No more than $5 billion may be outstanding at 
any one time for domestic exhibitions, and no single domestic 
exhibition may receive indemnity for more than $750 million of value.
    In 2012, museums requested indemnity for nearly $16 billion in 
value for international exhibitions and over $6 billion for domestic. 
Museums report that the caps are preventing indemnity from being 
extended to objects that would have been covered in past years. Simply 
put, there is not enough coverage to go around. As both inflation and a 
rising art market take their toll, the situation is bound to worsen.
    A list of recently indemnified exhibitions appears on the NEA's Web 
site. While only the museum that organizes the exhibition applies for 
indemnity, all museums that present or lend to the exhibition benefit 
from it. For example, the Art Museum at the Rhode Island School of 
Design recently shared a Manet portrait and a Renoir with audiences far 
beyond Rhode Island, thanks to the indemnity program. The Joslyn Art 
Museum in Omaha sent its Veronese to the Boston Museum of Fine Arts as 
part of a major exhibition of Venetian painting, Titian, Tintoretto, 
Veronese: Rivals in Renaissance Venice.
    Nor is it only large institutions that present qualifying 
exhibitions. For example, the Speed Art Museum in Louisville, Kentucky 
organized ``Rembrandt, Rubens, Gainsborough and the Golden Age of 
Painting,'' which traveled with indemnity to the Philbrook Museum of 
Art in Tulsa, Oklahoma; Dixon Gallery and Gardens in Memphis, 
Tennessee, Flint institute of Arts in Flint, Michigan; and the El Paso 
Museum of Art in El Paso, Texas. In this case, indemnity coverage 
permitted the Speed to control the exhibition's costs and translated 
into a reduced participation fee for these moderate sized art museums.
    Since 1975, Congress has raised the international caps several 
times, the last being in 2005, generally anywhere from 25 percent to 
100 percent. A partial legislative history is included below.
    AAMD requests that Congress once again raise the international caps 
and, for the first time since instituting the domestic program in 2007, 
raise its caps as well. Using previous congressional actions as 
precedent, we suggest that it would be reasonable to institute an 
overall cap of $15 billion for international exhibitions with the limit 
per exhibition rising to $1.8 billion, and an overall cap of $7.5 
billion for domestic exhibitions with the limit per exhibition rising 
to $1 billion.
Partial Legislative History of the Indemnity Act
    1975 S. 1800.--An Act to provide indemnities for exhibitions of 
artistic and humanistic endeavors, establishes aggregate cap of 
$250,000,000, with $50,000,000 maximum per international exhibition.
    1980 S. 1386.--Reauthorization of National Foundation on the Arts 
and Humanities Act and the Museum Services Act, increases aggregate cap 
to $400,000,000.
    1985 S. 1264.--Arts, Humanities and Museums Amendments of 1985, 
increases the aggregate of loss or damage covered at any one time by 
indemnity agreements made under such Act. Increases the maximum level 
of indemnification for each exhibition.
    1990 H.R. 5769.--Interior and Related Agencies Appropriations Act, 
increases aggregate cap and exhibition cap.
    1999 H.R. 4328.--Omnibus Consolidated and Emergency Supplemental 
Appropriations Act, amends the Arts and Artifacts Indemnity Act to 
increase certain coverage limits for loss or damage of items covered by 
indemnity agreements under such Act.
    2003 H.R. 13.--Museum and Library Services Act, increases aggregate 
cap from $5 billion to $8 billion and exhibition cap from $500 million 
to $600 million.
    2005 H.R. 2361.--Department of the Interior, Environment, and 
Related Agencies Appropriations Act, increases aggregate cap to $10 
billion and exhibition cap to $1.2 billion.
    2007 H.R. 2764.--Consolidated Appropriations Act, establishes 
program for domestic exhibitions with aggregate cap of $5 billion and 
exhibition cap of $750 million.
                  ii. national endowment for the arts
    As stated above, AAMD requests that Congress appropriate no less 
than $155 million for the NEA. The agency continues to make modest but 
important grants that leverage significant private support.
    For this statement we would like to focus on the Blue Star Museums 
program, which is an outstanding example of NEA leadership. In 2013, 80 
percent of AAMD's membership participated in the Blue Star program, 
which calls on museums to offer free admission to active-duty military 
families at least from Memorial Day to Labor Day. Many museums offered 
free admission year-round. We have asked our members to enroll for 2014 
and are receiving an enthusiastic response.
    Inspired by the Blue Star program, many AAMD members have tailored 
programs to the military audience:
  --The Frist Center for the Visual Arts in Nashville, Tennessee 
        presented ``Steve Mumford's War Journals, 2003-2013.'' Thanks 
        to a generous donor, the Frist also offers free membership to 
        military families.
  --The Minneapolis Institute of Art has created a specialized tour for 
        veterans attending the Psychiatry Partial Hospital (PPH) 
        program at the Minneapolis VA. The tour, titled ``Honoring the 
        Warrior'' combines art history, art appreciation and art 
        therapy into a unique therapeutic experience where veterans can 
        explore their thoughts and feelings through their reactions to 
        particular works of art.
  --The Honolulu Museum of Art is particularly proud of the Warriors' 
        Eyes on Art program, a partnership with Honolulu's Tripler Army 
        Medical Center. Servicemen and servicewomen in treatment for 
        P.T.S.D. visit the museum before hours to visit the galleries 
        and create art works of their own with professionals from the 
        museum and medical center.
  --At the Bronx Museum of the Arts, a series of paintings, interviews 
        and stories ``convey the pressing need for a civilian awareness 
        of the realities and experiences of veterans from current and 
        past generations,'' according to the museum's website.

    Each of these AAMD members is a Blue Star Museum.
               iii. national endowment for the humanities
    Finally, and as stated above, AAMD requests that Congress 
appropriate no less than $155 million for the NEH.
    This important agency assists art museums in presenting humanities 
scholarship to the general public. It also has historically played an 
invaluable role in assisting with the preservation and conservation of 
important collections. This is exactly the type of unglamorous work for 
which it is chronically difficult to raise private funding, making 
Federal support all the more valuable.
    Both the NEA and NEH rely on the participation of non-governmental 
peer reviewers in making funding decisions, ensuring that political 
interference is non-existent. This system is the envy of many nations, 
and we strongly encourage Congress to maintain its vitality though 
continued and increased funding.
    We would be happy to answer any questions or provide more 
information as needed.
                                 ______
                                 
     Prepared Statement of the Association of State Drinking Water 
                             Administrators
    Who We Are: I am John Calkins, president of the Association of 
State Drinking Water Administrators (ASDWA). ASDWA represents the State 
drinking water programs in the 50 States, territories, District of 
Columbia, and the Navajo Nation in their efforts to provide safe 
drinking water to more than 275 million consumers nationwide.
                           summary of request
    ASDWA respectfully requests that, for fiscal year 2015, the 
subcommittee appropriate funding for three programs at levels 
commensurate with Federal expectations for performance; that ensure 
appropriate public health protection; and that will result in enhancing 
economic stability and prosperity in American cities and towns. ASDWA 
requests $200 million for the Public Water System Supervision (PWSS) 
program; $1.3 billion for the Drinking Water State Revolving Loan Fund 
(DWSRF) program; and $10 million for State drinking water program 
security initiatives. A more complete explanation of the needs 
represented by these requested amounts and their justification follows.
                      how states use federal funds
    Public Health Protection.--States need increased Federal support to 
maintain overall public health protection and to support the needs of 
the water systems they oversee. State drinking water programs strive to 
meet public health protection goals through two principal funding 
programs: the Public Water System Supervision Program (PWSS) and the 
Drinking Water State Revolving Loan Fund (DWSRF) Program. These two 
programs, with their attendant State match requirements, provide the 
means for States to work with drinking water utilities to ensure that 
American citizens can turn on their taps with confidence that the water 
is both safe to drink and the supply is adequate. In recent years, 
State drinking water programs have accepted additional responsibilities 
in the area of water system security that include working with all 
public water systems to ensure that critical drinking water 
infrastructure is protected; that plans are in place to respond to both 
natural and manmade disasters; and that communities are better 
positioned to support both physical and economic resilience in times of 
crisis.
    Vibrant and sustainable communities, their citizens, workforce, and 
businesses all depend on a safe, reliable, and adequate supply of 
drinking water. Economies only grow and sustain themselves when they 
have reliable water supplies. Over 90 percent of the population 
receives water used for bathing, cooking, and drinking from a public 
water system--overseen by State drinking water program personnel. 
Firefighting also relies on water from public water systems to ensure 
public safety. Even people who have their own private wells will visit 
other homes, businesses, and institutions served by a public water 
system. As important as public water systems are to the quality of 
water we drink and our health, the majority of water produced by public 
water systems is used by businesses for a variety of purposes, 
including processing, cooling, and product manufacturing. The 
availability of adequate supplies of water is often a critical factor 
in attracting new industries to communities. Public water systems--and 
the cities, villages, schools, and businesses they support--rely on 
State drinking water programs to ensure they are in compliance with all 
applicable Federal requirements and the water is safe to drink. Several 
incidents in the U.S. over the past several years that have led to 
illnesses or deaths from unsafe drinking water serve as stark reminders 
of the critical nature of the work that State drinking water programs 
do--every day--and the dangers of inadequately funded programs,
    The PWSS Program.--To meet the requirements of the Safe Drinking 
Water Act (SDWA), States have accepted primary enforcement 
responsibility for oversight of regulatory compliance and technical 
assistance efforts for over 155,000 public water systems to ensure 
potential health-based violations do not occur or are remedied in a 
timely manner. Over 90 contaminants are regulated in Federal drinking 
water regulations and the pace of regulatory activity has accelerated 
in recent years. Beyond the contaminants covered by Federal drinking 
water regulations, States are also implementing an array of proactive 
initiatives to protect public health from ``the source to the tap.'' 
These include source water assessments and protections for communities 
and watersheds; technical assistance with water treatment and 
distribution for challenged utilities; and enhancement of overall water 
system performance capabilities. In recent years, States have also 
taken on an increasingly prominent role in working with Federal and 
local partners to help ensure sufficient water quantity. In short, 
State activities go well beyond simply ensuring compliance at the tap--
and, they perform all of these tasks more efficiently and cheaply than 
would be the case if the program were federally implemented. In short, 
well supported State programs are a ``good deal'' for America.
    The DWSRF Program.--Drinking water in the U.S. is among the safest 
and most reliable in the world, but it is threatened by aging 
infrastructure. Through loans provided by the DWSRF, States help water 
utilities overcome this threat. The historical payback to the DWSRF on 
this investment has been exceptional. In the core DWSRF program, $15.7 
billion in cumulative Federal capitalization grants since 1997 have 
been leveraged by States into over $25.8 billion in infrastructure 
loans to small and large communities across the country (through the 
end of 2013). Such investments pay tremendous dividends--both in 
supporting our economy and in protecting our citizens' health. Many 
State drinking water programs have also used ``set-asides'' from the 
DWSRF to support the technical assistance and training needs of 
numerous small drinking water systems and to help these water systems 
obtain the technical, managerial, and financial proficiency needed to 
meet SDWA requirements.
    State Drinking Water Security Responsibilities.--State drinking 
water programs are critical partners in emergency planning, response, 
and resiliency at all levels of government. In fact, States are 
typically the critical nexus between Federal and local levels officials 
in emergency situations. State primacy agencies provide key resources 
and critical support--regardless of whether the emergency is rooted in 
terrorism, natural disasters, or cyber intrusions. States continually 
work toward integrating security considerations throughout all aspects 
of their drinking water programs.
                why increased funding is urgently needed
    State Drinking Water Programs are Hard Pressed and the Funding Gap 
Continues to Grow.--States must accomplish all of the above-described 
activities--and take on new responsibilities--in the context of a 
challenging economic climate. This has meant operating with less State-
provided financial support--which has historically compensated for 
inadequate Federal funding. State drinking water programs have often 
been expected to do more with less and States have always responded 
with commitment and integrity. However, State drinking water programs 
are stretched to the breaking point. Insufficient Federal support for 
this critical program increases the likelihood of a contamination event 
that puts the public's health at risk. Although the 1996 SDWA 
Amendments authorized the PWSS Program at $100 million per year, 
appropriated amounts have only recently reached that authorized level--
a level that now, more than 17 years from the date of those amendments, 
falls far short of the amount needed. $101.9 million was appropriated 
for the PWSS program in fiscal year 2014 and the administration 
requested only $109 million in fiscal year 2015. These amounts are 
woefully inadequate for the enormity of the task faced by State 
drinking water programs. We believe, based on our assessments of every 
State's need (in a report we released in January 2014), that at least 
twice that amount is needed. Inadequate Federal funding for State 
drinking water programs has a number of negative consequences. Many 
States are simply unable to implement major provisions of the newer 
regulations, leaving the work undone or ceding the responsibility back 
to EPA, which is also challenged by the Agency's own resource 
constraints and lack of ``on the ground'' expertise. This situation has 
created a significant implementation crisis in several regions of the 
country and is ultimately delaying implementation of critically needed 
public health protections.
    Drinking Water Infrastructure Investment is Well Below Documented 
Need.--In 2013, the Association of Civil Engineers gave the Nation's 
water infrastructure a D+ grade and EPA's most recent National Drinking 
Water Infrastructure Needs Survey (2011) indicated that drinking water 
system infrastructure needs total $384 billion over the next 20 years. 
The American Water Works Association recently estimated that 20 year 
need at $1 trillion. Investment is needed for aging treatment plants, 
storage tanks, pumps, and distribution lines that carry water to our 
Nation's homes, businesses and schools. States are also providing, in 
many cases, State funding to augment Federal assistance, as the total 
loan figures noted above demonstrate. The DWSRF must continue to be a 
key part of the solution to the Nation's infrastructure crisis. 
Further, as mentioned earlier, States can ``set-aside'' funds from the 
DWSRF (up to 31 percent of the grant) for a variety of critical tasks, 
such as shoring up the technical, managerial, and financial capacity of 
public water systems. Set-asides are thus an essential source of 
funding for States' public health protection programs and these efforts 
work in tandem with infrastructure loans.
    State Drinking Water Security Funds Are Urgently Needed.--After 7 
years of congressional support for State security programs through a 
small grant of approximately $5 million in EPA's appropriations (from 
fiscal year 2002 through fiscal year 2008), no funds have been provided 
for this purpose since fiscal year 2009 and none are requested by the 
administration for fiscal year 2015. It is very difficult to understand 
why this small, but essential grant to States has been zeroed out of 
EPA's proposed budget and why Congress has not supported State drinking 
water security programs. State drinking water programs urgently need 
funds to continue to maintain and expand their security activities, 
particularly in partnership with small and medium public water systems.
       detailed justification for fiscal year 2015 request levels
    For the PWSS Program in fiscal year 2015, ASDWA respectfully 
requests $200 million.--The number of regulations requiring State 
implementation and oversight as well as performance expectations 
continue to grow while at the same time, the Federal funding support 
necessary to maintain compliance levels and meet expectations has been 
essentially ``flat-lined.'' Inflation has further eroded these 
inadequate funding levels. States want to offer the flexibilities 
allowed under existing rules/requirements to local water systems; 
however, fewer State resources mean less opportunity to work one-on-one 
with water systems to meet their individual needs. The figure 
recommended below is based on ASDWA's January 2014 resource needs 
report and begins to fill the above-described resource gap. These funds 
are urgently needed for implementing new drinking water rules, taking 
on a number of other new initiatives, and accounting for the eroding 
effects of inflation. We further recommend that Congress not allow any 
Federal funds already appropriated to State drinking water programs to 
be rescinded.
    For the DWSRF Program in fiscal year 2015, ASDWA respectfully 
requests $1.3 billion.--States were very encouraged by the $1.387 
billion appropriated for the DWSRF in fiscal year 2010 but are 
disappointed at the subsequent downward trend--$963 million in fiscal 
year 2011, $919 million in fiscal year 2012, $854 million for fiscal 
year 2013 (a figure not seen since 2006), and, a somewhat better $907 
million in fiscal year 2014. Of particular concern to the drinking 
water community is the administration's request of $757 million for 
fiscal year 2015; a figure we consider to be unacceptably low. The 
primary purpose of the DWSRF is to improve public health protection by 
facilitating water system compliance with national primary drinking 
water regulations through the provision of loans to improve drinking 
water infrastructure. Water infrastructure is needed for public health 
protection as well as a sustainable economy, as explained above. States 
have very effectively and efficiently leveraged Federal dollars with 
State contributions to provide assistance to more than 10,000 projects, 
improving health protection for millions of Americans. The U.S. 
Conference of Mayors reports that each public dollar invested in water 
infrastructure increases private long-term Gross Domestic Product 
output by $6.35. In light of these indicators of success and documented 
needs, we believe funding at the $1.3 billion level (commensurate with 
the fiscal year 2010 appropriation) will better enable the DWSRF to 
meet the SDWA compliance and public health protection goals for which 
it was designed.
    For State Drinking Water Security Programs in fiscal year 2015, 
ASDWA respectfully requests $10 million.--Given the realities and the 
lessons learned from recent catastrophic events such as Hurricane Sandy 
in New York and New Jersey; tornados in central Oklahoma; wildfires and 
floods in Colorado; and continuing drought in Texas--to name but a 
few--State drinking water programs are working more closely than ever 
with their water utilities to evaluate, assist, and support drinking 
water systems' preparedness, response, and resiliency capabilities. 
States continue to expand their efforts to reflect a resilient, ``all 
hazards'' approach to water security and to assist public water systems 
of all sizes--with a particular focus on smaller water systems that 
most need help.
                               conclusion
    ASDWA respectfully recommends that the Federal fiscal year 2015 
budget needs for States' role in the provision of safe drinking water 
be adequately funded by Congress. A strong State drinking water program 
supported by the Federal-State partnership will ensure that the quality 
of drinking water in this country will not deteriorate and, in fact, 
will continue to improve--so that the public can be assured that a 
glass of water is safe to drink no matter where they travel or live. 
States are willing and committed partners. However, additional Federal 
financial assistance is needed to meet ongoing and ever growing 
regulatory, infrastructure, and security needs. In 1996, Congress 
provided the authority to ensure that the burden would not go 
unsupported. For fiscal year 2015, ASDWA asks that the promise of that 
support be realized.
                                 ______
                                 
      Prepared Statement of the Association of Zoos and Aquariums
    Thank you Chairman Reed and Ranking Member Murkowski for allowing 
me to submit written testimony on behalf of the Nation's 213 U.S. 
accredited zoos and aquariums. Specifically, I want to express my 
support for the inclusion of $10,000,000 for the Multinational Species 
Conservation Funds (MSCF) operated by the U.S. Fish and Wildlife 
Service and $9.7 million for National Environmental Education Act 
programs at the Environmental Protection Agency (EPA) in the fiscal 
year 2015 Interior, Environment, and Related Agencies appropriations 
bill.
    Founded in 1924, the Association of Zoos and Aquariums (AZA) is a 
nonprofit 501c(3) organization dedicated to the advancement of zoos and 
aquariums in the areas of conservation, education, science, and 
recreation. Accredited zoos and aquariums annually see more than 182 
million visitors, collectively generate more than $21 billion in annual 
economic activity, and support more than 204,000 jobs across the 
country. Annually, AZA-accredited institutions spend $160,000,000 on 
more than 2,650 field conservation projects in 130 countries.
    MSCF programs support public-private partnerships that conserve 
wild tigers, elephants, rhinos, great apes, and marine turtles in their 
native habitats. Through the MSCF programs, the United States 
supplements the efforts of developing countries that are struggling to 
balance the needs of their human populations and endemic wildlife. MSCF 
programs help to sustain wildlife populations, address threats such as 
illegal poaching, reduce human-wildlife conflict, and protect essential 
habitat. By working with local communities, they also improve people's 
livelihoods, contribute to local and regional stability, and support 
U.S. security interests in impoverished regions. This Federal program 
benefits AZA-accredited zoos and aquariums in their field conservation 
efforts and partnerships with the U.S. Fish and Wildlife Service.
    I also encourage you to continue to support the valuable 
environmental education initiatives at the EPA. Education programs at 
AZA-accredited institutions provide essential learning opportunities, 
particularly about science, for schoolchildren in formal and informal 
settings. Studies have shown that American schoolchildren are lagging 
behind their international peers in certain subjects including science 
and math. In the last 10 years, accredited zoos and aquariums formally 
trained more than 400,000 teachers, supporting science curricula with 
effective teaching materials and hands-on opportunities. School field 
trips annually connect more than 12,000,000 students with the natural 
world. Increasing access to formal and informal science education 
opportunities has never been more important.
    Finally, much of the important conservation work at accredited zoos 
and aquariums depends on a robust and fully staffed U.S. Fish and 
Wildlife Service. While I am aware of the budget challenges facing 
Congress and the agencies, I encourage you to ensure that the U.S. Fish 
and Wildlife Service has sufficient resources to employ qualified 
professionals, particularly for the programs handling permits, which 
support the science-based conservation breeding and wildlife education 
programs that require animals to be moved in an efficient, timely 
manner: International Affairs (Management Authority), Endangered 
Species, Law Enforcement, and Migratory Birds.
    AZA-accredited zoos and aquariums are essential conservation and 
education partners at the Federal, State, and local levels domestically 
as well as internationally. To ensure that accredited zoos and 
aquariums can continue to serve in these important roles, I urge you to 
include $10,000,000 for the Multinational Species Conservation Funds 
operated by the U.S. Fish and Wildlife Service and $9.7 million for 
National Environmental Education Act programs at the Environmental 
Protection Agency in the fiscal year 2015 Interior, Environment, and 
Related Agencies appropriations bill.
    Thank you.
                                 ______
                                 
     Prepared Statement of the Bristol Bay Area Health Corporation
    The requests of the Bristol Bay Area Health Corporation (BBAHC) for 
the fiscal year 2015 Indian Health Service (IHS) budget are as follows:
  --Allocate at least an additional $8.5 million to the IHS to fully 
        fund Village Built Clinic (VBC) leases, and direct the IHS to 
        use its fiscal year 2015 appropriations to fully fund the VBC 
        leases in accordance with section 804 of the Indian Health Care 
        Improvement Act.
  --Ensure that Contract Support Costs continue to be fully funded by 
        moving the program to mandatory entitlement spending.
  --Support reauthorization of the Special Diabetes Program for Indians 
        at $200 million annually.
  --Allocate $50 million to the IHS from the Prevention and Public 
        Health Fund for tribal behavioral health grants.
  --Place IHS funding on an advance appropriations basis.
  --Improve the safety of Alaska Native communities by affirming tribal 
        jurisdiction.
    The BBAHC was created in 1973 to provide healthcare services to 
Alaska Natives of Southwest Alaska. BBAHC began operating and managing 
the Kanakanak Hospital and the Bristol Bay Service Unit for the IHS in 
1980 and was the first tribal organization to do so under the Indian 
Self-Determination and Education Assistance Act (ISDEAA). BBAHC is a 
co-signer to the Alaska Tribal Health Compact with the IHS under the 
ISDEAA and is now responsible for providing and promoting healthcare to 
the people of 34 Alaska Native villages.
    Funding for Village Built Clinics in Alaska.--For the last several 
years, BBAHC has submitted testimony to this subcommittee on the need 
to address chronic underfunding of VBCs in Alaska. VBCs are clinic 
facilities leased by the IHS from other entities and are a vital 
component of the provision of basic healthcare services in rural 
Alaska. VBCs serve as the clinic space for the Community Health Aide 
Program (CHAP) under the Indian Health Care Improvement Act (IHCIA). 
The CHAP, which IHS is directed by the IHCIA to carry out, utilizes a 
network of community health aides and practitioners to provide primary 
healthcare services in rural and isolated areas where access to those 
services might not otherwise exist.
    In 1989, Congress specifically authorized the operation of 170 VBCs 
in Alaska and provided approximately $3 million in funding for the 
program for that year. Since then, Congress has not provided amounts 
specifically for VBCs in the IHS appropriation, and IHS has had 
discretion to fund VBCs from its lump sum appropriation. But even 
though the 1989 appropriation was not a cap restricting IHS allocation 
of funds in later years, IHS has treated it as such and has refused to 
increase funding for VBC leases. Funding therefore has not kept pace 
with inflation or the rising costs of healthcare in rural and isolated 
areas. In fact, the chronic underfunding over decades has resulted in 
deterioration and in some cases closure of VBC facilities, threatening 
the CHAP itself and access to basic healthcare services for rural 
Alaskans that hinges on the continued availability of properly 
maintained VBC space.
    According to an estimate calculated several years ago by the Alaska 
Native Health Board and adjusted for inflation, at least $8.3 million 
is needed to fully fund the VBC leasing program. However, that estimate 
is outdated and likely falls significantly short of the actual need. 
BBAHC therefore urges that Congress appropriate at least an additional 
$8.5 million to fully fund VBC leases and that IHS be directed to use 
its existing appropriations to fully fund such leases in accordance 
with section 804 of the IHCIA.
    This subcommittee should also be aware that, having attempted 
without success for many years to convince IHS to accept its 
responsibilities for the VBCs as part of the mandated CHAP program, 
some tribal organizations in Alaska are taking a new approach. The 
Maniilaq Association recently requested that the IHS enter into a 
mandatory lease under 105(l) of the ISDEAA for one of the VBCs that 
Maniilaq owns. Implementing regulations require payment under the lease 
to fully compensate for the costs of adequately operating and 
maintaining the facilities. However, the IHS refused to enter into the 
lease, and the matter is now being litigated. If Maniilaq prevails, the 
case could establish legal precedent that will allow tribal contractors 
in Alaska to negotiate for full funding for VBCs as part of their 
funding agreements under the IHS's ISDEAA leasing authority. Though 
funding should be provided in full through the VBC program directly, 
the option to enter into a Sec. 105(l) lease must also be preserved as 
an alternative funding mechanism.
    Ensure Contract Support Costs Remain Fully Funded via Mandatory 
Spending.--We are pleased that the administration is following the 
subcommittee's lead, and seeks to fully fund contract support costs 
(CSC) under the ISDEAA in fiscal year 2015, and we urge Congress to 
continue supporting that goal. Contract support costs fund vital 
administrative functions that allow us to operate programs that provide 
critical services to our members--such as dental care, urgent care in 
village clinics, wide ranging community health services, and 24-hour 
medical care in Kanakanak Hospital. If CSC are not fully funded, 
however, our programs and services are directly impacted as we are 
forced to divert limited program funding to cover fixed overhead 
expenses instead. We therefore appreciate Congress' support in fiscal 
year 2014 and hope that it carries through to fiscal year 2015 and 
beyond.
    However, the CSC funding problem is not yet solved. Full funding 
for CSC must not come with a penalty--namely, a reduction in program 
funding or effective permanent sequestration of Indian program funds. 
That result would have the same devastating effect on our service 
delivery as the failure to fully fund CSC. Yet Congress, in the Joint 
Explanatory Statement accompanying the fiscal year 2014 Consolidated 
Appropriations Act, noted that ``since [contract support costs] fall 
under discretionary spending, they have the potential to impact all 
other programs funded under the Interior and Environment Appropriations 
bill, including other equally important tribal programs.'' Moreover, 
without any permanent measure to ensure full funding, payment of CSC 
remains subject to agency discretion from year to year, even though 
tribes are legally entitled to full payment under the ISDEAA. Noting 
these ongoing conflicts of law, Congress directed the agencies to 
consult with tribes on a permanent solution.
    In our view, there is a logical permanent solution which Congress 
is empowered to implement: CSC should be appropriated as a mandatory 
entitlement. Under the ISDEAA, the full payment of CSC is not 
discretionary; it is a legal obligation, affirmed by the U.S. Supreme 
Court. Yet the budget authority for CSC is currently provided and 
controlled through appropriation acts--as if it were a discretionary 
program. Congress recognized that the current fundamental mismatch 
between the mandatory nature of CSC and the current appropriation 
approach leaves both the House and Senate Committees on Appropriations 
in the ``untenable position of appropriating discretionary funds for 
the payment of any legally obligated contract support costs.'' As the 
Joint Explanatory Statement also noted, ``Typically obligations of this 
nature are addressed through mandatory spending.'' The obvious solution 
then is to bring the appropriations process in line with the statutory 
requirements and to recognize CSC for what it is: a mandatory 
entitlement, not a discretionary program. We therefore strongly urge 
the Congress to move to appropriate funding for CSC on a mandatory 
basis.
    Reauthorize the Special Diabetes Program.--While the entitlement 
funding for the Special Diabetes Program for Indians (SDPI) is not part 
of the IHS appropriations process, those funds are administered through 
the IHS. With the recent enactment into law of a 1-year extension of 
the SDPI as part of the Medicare ``doc fix'' bill (Public Law 113-93), 
it is funded through fiscal year 2015 at $150 million, minus a 2 
percent reduction ($3 million) due to the sequestration of non-exempt 
mandatory programs (Public Law 112-240). This funding level has not 
increased since 2004. The SDPI has proven highly effective in Indian 
country, and has produced excellent results. For example, in the 4 
years preceding the last report on the SDPI in 2011, the average blood 
sugar level dropped nearly a percentage point overall, corresponding to 
a 40 percent decline in the risk of eye, kidney, and nerve 
complications due to diabetes. We ask that you support ongoing efforts 
to reauthorize this program for a 5-year period at an annual funding 
level of $200 million.
    Increase Funding for Behavioral Health, Suicide Prevention, and 
Alcohol and Substance Abuse Treatment.--Alaska faces particular 
hardships in providing for our communities' behavioral and mental 
health. There is a dire need for more prevention funding for suicide 
intervention as well as alcohol and substance abuse prevention, 
particularly for our youth. These efforts go hand in hand, as the 
problems often overlap. Alaska has twice the national rate of suicide, 
and ranks second in the Nation in suicide attempts requiring 
hospitalization. Alaska Native teens commit suicide at a rate nearly 
six times that of non-Native teenagers. The suicide rate among all 
Alaskans increased by 33 percent between 2005-2008--a period when the 
national rate remained steady. Compounding and complicating the suicide 
epidemic is alcohol and substance abuse, or a mental health disorder. 
The overwhelming majority of the people we lose to suicide suffer from 
diagnosable, treatable mental health or substance abuse problems. 
However, the waiting list for treatment averages nearly 9 months, and 
due to lack of funding there is often no place to refer people, 
particularly young people.
    Alcohol and substance abuse contributes to myriad other problems as 
well, including crime, domestic violence, child abuse or neglect. 
Oftentimes, tribes in Alaska have a difficult time working through the 
State of Alaska to provide these services, which adds layers of 
guidelines, regulations, and reduced funding. We have found that tribes 
and tribal organizations should receive behavioral funds directly, 
because programs that implement traditional cultural values are more 
successful than those that don't. Included in the Affordable Care Act 
(ACA) is mandatory funding ($17.7 billion over 10 years) for a 
Prevention and Public Health (PPH) Fund from which Congress may 
allocate funding to various programs. In fiscal year 2012 the 
administration requested that $50 million of it be allocated to a new 
tribal behavioral health grant program; unfortunately Congress did not 
provide that allocation. We urge that Congress allocate $50 million to 
the IHS in fiscal year 2015 for this purpose and that it be recurring.
    IHS on an Advance Appropriations Basis.--We support legislation 
that would place the IHS budget on an advance appropriations basis. The 
goal is for the IHS and tribal healthcare providers to have adequate 
advance notice of the amount of Federal appropriations to expect and 
thus not be subjected to the uncertainties of late funding and short-
term continuing resolutions. Congress provides advance appropriations 
for the Veterans Administration medical accounts, and the request is 
for parity in the appropriations schedule for the IHS. Legislation to 
authorize IHS advance appropriations has been introduced--H.R. 3229 by 
Representative Young and S. 1570 by Senators Murkowski and Begich.
    Support Tribal Jurisdiction To Protect Alaska Communities.--We 
support the ongoing efforts to amend S. 1474, the Alaska Safe Families 
and Villages Act, in a manner that would recognize Alaska tribes' 
jurisdiction to protect their communities by dealing locally with 
domestic violence, sexual assault and drug and alcohol abuse. At the 
same time, we greatly appreciate the provision that is already in S. 
1474 which would repeal section 910 of the Violence Against Women Act 
Reauthorization that left Alaska tribes out of the expanded tribal 
jurisdiction over domestic violence affirmed in that law. These changes 
will require additional Bureau of Indian Affairs resources regarding 
law enforcement and courts. We look forward to continued work with our 
congressional delegation and others on this legislation of such crucial 
importance to Alaska Native communities.
    Thank you for your consideration of our requests. We will be glad 
to provide any additional information the subcommittee may request.
                                 ______
                                 
                   Prepared Statement of Jay Bushnell
                                                     April 4, 2014.
To:  Hon. Jack Reed, Chair of Senate Subcommittee on the Interior, 
Environment and Related Agencies

From:  Dr. Jay Bushnell, immediate past president and advocacy chair, 
Friends of the Lower Suwannee and Cedar Keys National Wildlife Refuges

Re:  Support the 2015 $476 million proposed budget for the National 
Wildlife Refuge System

    I would encourage your subcommittee to develop a plan to eventually 
fully fund the refuge system. The proposed budget of $476 million is a 
small step in that direction. This does not represent a major increase 
in funding from what has been budgeted since 2007. Yet over the last 7 
years the refuge system has increased from some 500 to over 561 
refuges. It has become increasing difficult, if not impossible, to 
fulfill the refuge mission as outlined in the National Wildlife Refuge 
System Improvement Act of 1997 with continued budget constraints. The 
predicted cut in positions continues to plague the refuge system and 
specifically hampers the Lower Suwannee and Cedar Key National Wildlife 
Refuges (NWRs).
    While the primary mission of the refuge system is focused on 
wildlife conservation, it is also important to recognize that the 
system is an economic engine. The report Banking on Nature points out 
that in 2011 for every dollar invested there was a return of $4.87 to 
the local communities. Over 70 percent of the revenue contributed came 
from non-local visitors who were attracted to non-consumptive 
activities like wildlife viewing, photography and hiking in the 
refuges. The fact that the Friends of the Lower Suwannee and Cedar Keys 
NWR are having 3,000-4,000 folks visiting our Web page each month 
verifies the fact that we are reaching a large non-local crowd (please 
check us out at friendsofrefuges.org). Funding of the refuge system 
should be considered an investment with a great rate of return.
    The Lower Suwannee and Cedar Keys NWRs have four positions that 
have not been refilled, including a designated biologist we have been 
without since 2006 when I first started volunteering, and now a full 
time law enforcement officer. We also face the possibility of not 
acquiring a critical piece of land that has been on the approved U.S. 
Fish and Wildlife Service (FWS) acquisition list. Some 2,000 acres that 
are a part of what is referred to Caber property are now on the market. 
This has been considered a vital acquisition for the Land and Water 
Conservation Fund portion of the proposed budget.
    The Lower Suwannee NWR comprises over 52,000 acres that are split 
by the historic Suwannee River for the last 20-25 miles where the river 
empties into the Gulf of Mexico. The Cedar Keys NWR is composed of some 
727 acres on 13 islands in the Gulf of Mexico. Because of their non-
contiguous nature, both refuges face challenging management issues.

    The Lower Suwannee NWR is special and unique in the following ways:

  --The pristine natural condition of the refuge helps protect the 
        environmental health of the Suwannee River and the surrounding 
        area.
  --The Suwannee River is home to a wide variety of plant and animal 
        life. The river is the most important spawning ground for the 
        protected gulf sturgeon. The river is also an important habitat 
        for the endangered manatee.
  --The refuge contains a unique combination of upland hardwood, 
        wetland/swamp, and saltwater marsh habitats. Uniquely, one can 
        find both temperate and tropical types of vegetation in the 
        refuge.
  --The refuge provides habitat for a wide variety of birds including 
        15 endangered or threatened species like the bald eagle. The 
        refuge is an important nesting site for the short-tailed hawks 
        of which there are only an estimated 200 mating pairs in the 
        wild. The swallowtail kite, once widespread, now is restricted 
        to just the southeastern portion of the United States with the 
        refuge being a very important nesting site.
  --Combined with surrounding State parks, the refuge will become an 
        even more important conservation area as Florida's population 
        increases.
  --With constructed bat houses, the refuge has successfully 
        established a viable bat population that serves as a model for 
        future bat projects.
  --Many important cultural heritage sites are also to be found in the 
        refuge.

    The Cedar Keys NWR is special and unique in the following ways:

  --The 727-acre refuge composed of 13 islands is a major rookery for 
        pelicans and a wide variety of shore birds.
  --As studied by the University of Florida's Florida Marine Center, of 
        particular interest is the symbiotic relationship of 
        cottonmouth moccasins and nesting birds on Seahorse Key. The 
        moccasins provide protection from predators like raccoons and 
        rats for the nesting birds. In return, the birds provide a 
        steady diet of fish for the moccasins. This is the only place 
        on earth that such a relationship between snakes and birds 
        exists.
  --The Lower Suwannee Archaeological Survey of the University of 
        Florida has uncovered prehistorical sites dating back over 
        4,000 years.
  --Historically, the refuge contains important historical structures 
        including the Seahorse Key Lighthouse designed in the 1850s by 
        Lieutenant George Meade, later to become General Meade of 
        Gettysburg fame. It is also of interest that the lighthouse 
        sits on a natural dune that is some 50+ feet above sea level. 
        This makes it one of the highest points in the Big Bend area of 
        Florida.
  --This refuge also provides a vital barrier island system.

    Presently, the most critical problem we face involves staffing. 
With adequate staffing, along with operational funding, the refuge 
staff, with the help of the Friends of the Lower Suwannee and Cedar 
Keys NWR, would be able to:

  --Provide better monitoring of the health of the refuges' habitat;
  --Consistently police the proper utilization of the resources of the 
        refuges and to protect the habitat and its wildlife;
  --Conduct more programs for school children to learn about 
        conservation;
  --Expand the conservation efforts across other public agencies as 
        well as private stakeholders to deal with common problems like 
        invasive species eradication and the protection of endangered 
        species;
  --Upgrade and maintain public facilities like roads, docks, 
        boardwalks, observation stations and signage;
  --Expand public access and use of the refuges; and
  --Monitor, manage, and protect the flora and fauna in the refuges.

    Thank you for considering these requests.
                                 ______
                                 
       Prepared Statement of the Center for Biological Diversity
    Chairman Reed, Senator Murkowski, and members of the subcommittee, 
thank you for the opportunity to submit written testimony. I am Brett 
Hartl, endangered species policy director at the Center for Biological 
Diversity. The Center is a non-profit environmental organization 
focused on the protection of native species and their habitats through 
science, policy and environmental law. The Center has more than 775,000 
members and online activists dedicated to the protection and 
restoration of imperiled plants and wildlife, open space, air and water 
quality.
    The Endangered Species Act (ESA) is America's strongest 
environmental law. It has prevented the extinction of 99 percent of the 
1,500 domestic species it protects. Were it not for the Act, scientists 
estimate that 227 of these plants and animals would have disappeared by 
2006, and even more by 2012. The Act also has had considerable success 
moving species towards recovery. A 2011 study by the Center identified 
110 listed species that have seen substantial recovery with Endangered 
Species Act protection, with over 90 percent of these species 
recovering at the rate projected in their recovery plan.
    However, not all species have approved recovery plans yet, and some 
species with recovery plans continue to decline. The Service's 2010 
report to Congress indicated that approximately 339 threatened and 
endangered species are still declining towards extinction. As the 
extinction crisis worsens due to threats including climate change, many 
other once-common species, such as monarch butterflies and greater 
sage-grouse, have experienced major population declines and may need to 
be listed in the future.
    Simply put, Federal funding has not kept up with the biological 
needs of listed species in the United States. The Fish and Wildlife 
Service received $170.5 million for endangered species in fiscal year 
2014 to conserve approximately 1,500 protected species. By comparison, 
the National Marine Fisheries Service received $176 million to conserve 
approximately 180 species protected by the ESA and Marine Mammal 
Protection Act. And the U.S. Agency for International Development 
received $184 million for biodiversity conservation internationally. 
The Center has identified three areas where funding beyond what is 
proposed for the Fish and Wildlife Service in the President's 2015 
budget proposal is required to address the continuing extinction crisis 
in the United States: (1) listing of endangered species; (2) species 
recovery funding; and (3) land acquisition for endangered species.
       additional funding for listing under section 4 of the esa
    Protecting a species as threatened or endangered is the keystone of 
the ESA because it is only after a species is listed that it receives 
meaningful protections under the Act. In fact, the length of time a 
species has been protected and has had designated critical habitat 
significantly increase the likelihood a species will improve. Species 
designated as ``candidates'' for protection due to lack of funding, are 
far more likely to become extinct. Most recently, the Tacoma pocket 
gopher (Thomomys mazama tacomensis) was declared extinct in 2014. The 
species was first identified as declining in 1985 and declared a 
candidate for ESA protection in 2001. But its last populations winked 
out while waiting for ESA protections.
    Although the Service has long-struggled to list species according 
to the deadlines established by the ESA, the backlog of candidate 
species that warrant protection under the Act greatly increased 
following the moratorium imposed on listing in 1995. Since then, 
Congress has imposed a funding cap on the amount of money the Service 
can spend in a year on listing. Currently, using the best-available 
science, the Service has identified 146 candidate species that warrant 
protection under the ESA, but for which funding is insufficient to 
complete the listing process. Some of these species, such as the band-
rumped storm-petrel and Great Basin Columbia spotted frog, have awaited 
protections since 1989. Many more have waited for ESA protections since 
the early 1990s.
    Funding for listing peaked in fiscal year 2010 at $22.1 million and 
has since fallen by 10 percent. Hamstringing the Service budget does 
not further the recovery of any of these candidate species. Instead, 
delaying listing invariably leads to greater population declines, 
making recovery harder, longer, and more costly to achieve. The facts 
have demonstrated that for nearly all endangered species, the only path 
to recovery has been through protection under the ESA. The more quickly 
species are listed, the more quickly recovery planning and recovery 
work can begin, and the faster species can be delisted as recovered.
    The current average cost of completing the listing process for a 
candidate species under the ESA is approximately $650,000. Raising the 
budget subcap from the fiscal year 2014 level of $20 million to $30 
million a year would allow the Service to completely address the 
listing backlog and address all candidate species in the next 3 years. 
Eliminating the backlog would not only provide an immediate 
conservation benefit to these species, but would also potentially allow 
the Service to more efficiently list species moving forward. Because 
funding has historically been insufficient to complete the listing 
process, the Service must add an additional step in the listing process 
and publish a separate 12-month finding that the species is 
``warranted-but-precluded''--and each of these 12-month findings costs 
$100,000. Eliminating the backlog would save the Service $100,000/
species and would allow the Service to use the more-streamlined process 
already employed by the Service when it delists recovered species.
                          funding for recovery
    The purpose of the ESA is not only to save species from extinction 
but also to recover them to the point that the protections provided by 
the Act are no longer necessary. Recovering species under the ESA 
requires the Fish and Wildlife Service to address and alleviate the 
threats that caused a species to decline in the first instance, 
including controlling invasive species, restoring degraded habitat, 
reducing illegal poaching, reintroducing new populations, and other 
forms of intensive management. All recovery actions are costly, 
especially with new and growing threats such as climate change. As 
shown in Figure 1, funding for recovery in inflation-adjusted dollars 
has remained flat to declining.

    Figure 1.--Recovery Funding Fiscal Year 1989 to Fiscal Year 2014
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    As the extinction crisis continues and more species need protection 
under the ESA, the average amount of money available per species 
continues to decline. In real dollars, the average amount in inflation-
adjusted dollars spent per species on recovery peaked in 1999 at 
$40,915 per species and has since dropped to $30,090/species. Nearly 
150 listed species receive less than $1,000 per year, or three dollars 
per day, to address their recovery and almost 100 species are getting 
no money at all. Many of the species that the Service has identified as 
declining are those that receive little to zero funding per year.
    If Congress wants to see more species recovered more quickly, then 
it should restore all of the cuts to ESA recovery funding that have 
occurred in the past 5 years and provide additional funding to the 
Service moving forward. First, Congress should restore full funding to 
the Cooperative Endangered Species Conservation Fund (CESCF). In 2001, 
Congress allocated $104.7 million to the CESCF and has since reduced 
funding to this program by 47 percent to a level of only $50.1 million. 
This program provides valuable conservation tools and funding to 
States, territories and private landowners to participate in a wide 
array of conservation projects for candidate and listed. Cutting this 
program dis-empowers States and makes it harder for them to 
meaningfully participate in the conservation and recovery of endangered 
species.

Figure 2.--Average Recovery Funding/Species Fiscal Year 1989 to Fiscal 
                           Year 2014 Species
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Second, Congress should significantly increase the amount of 
funding for recovery by ensuring that each listed species receives at 
least $7,500 each year in direct recovery funding. Doing so would 
require Congress to provide at minimum, an additional $26 million per 
year in recovery funding. This would better ensure that endangered 
species that are continuing to decline receive some attention each year 
from conservation professionals.
    The longer a species is in crisis, the more expensive it becomes 
for that species to fully recover. Failing to ensure that each species 
receives a nominal amount of money for recovery makes recovery of 
declining species much less likely. Increasing the overall funding for 
recovery will prevent species from declining to the point where listing 
is necessary and will reduce the amount of recovery work that Fish and 
Wildlife will have to do down the road.
                            land acquisition
    For listed species with finalized recovery plans, approximately 450 
plans have identified land acquisitions (either through outright 
purchase or the securing of easements) as priority actions that would 
improve the conservation status of those listed species. For example, 
the El Segundo blue butterfly population size has increased by 22,312 
percent since it was protected by the ESA in 1984. However, the 
butterfly's recovery plan states that until four parcels of expensive, 
coastal land near the Los Angeles International Airport can be secured 
through purchase or acquisition, this species probably cannot be either 
downlisted to threatened or considered recovered. Simply put, land 
conservation could significantly improve the recovery rate of listed 
species.
    Funding available through the Land and Water Conservation Fund 
(LWCF) to secure habitat for endangered species has simply not kept up 
with the biological need. The Center recommends that Congress amend the 
Land and Water Conservation Fund Act to (1) make all money that is 
authorized for land acquisition each year immediately available in full 
without further appropriation, and (2) that the conservation fund cap 
be indexed to the amount of royalties and revenues received from oil 
and gas development on the Outer Continental Shelf (OCS).
    In 1968, Congress first made revenues from OCS development part of 
the conservation fund and set the annual authorization level at $200 
million. At that time, OCS revenues were approximately $500 million per 
year.\1\ In other words, the conservation fund was authorized to use 
around 40 percent of the annual revenue stream from the OCS. In 1977, 
after OCS revenues increased to $4 billion/year,\2\ Congress increased 
the authorized level of the fund to $900 million. This authorization 
represented approximately 22.5 percent of total OCS annual revenues. 
Since 1977, the conservation fund authorization amount has remained at 
$900 million while the total revenues from the OCS have continued to 
rise and are now reaching levels of up to $9 billion/year. The 
percentage of OCS revenues potentially going into the conservation fund 
has dropped from 40 percent of annual OCS receipts in 1968, to only 6 
percent in 2014.
---------------------------------------------------------------------------
    \1\ S. Rep. No. 90-1071, at 2618 (1968), reprinted in 1968 
U.S.C.C.A.N. 2613, 2618.
    \2\ S. Rep. No. 95-162, at 8 (1977), reprinted in 1977 U.S.C.C.A.N. 
322, 328.
---------------------------------------------------------------------------
    Increasing the conservation fund to 22.5 percent of current OCS 
revenues would mean that approximately $2.025 billion would be 
available each year for land acquisition. Providing this full amount 
for land acquisition would allow the entire Department of Interior to 
address its priority land acquisitions. While this increase is 
substantial, it is important to remember that the purchasing power of 
the conservation fund has diminished because the average cost of land 
acquisition has risen nearly ten-fold from an average of $162 per acre 
in the 1960s to $1,515 per acre in the 2000s. At current funding 
levels, the Fish and Wildlife Service estimates that it would take 44 
to 75 years to acquire the land that has already been identified as 
priority acquisitions by the Service. Thank you for the opportunity to 
submit testimony.
                                 ______
                                 
           Prepared Statement of the Central Arizona Project
    On behalf of the Central Arizona Water Conservation District 
(CAWCD), I encourage you to include $5.2 million for general water 
quality improvement efforts within the Colorado River Basin and an 
additional $1.5 million for salinity specific projects in the Bureau of 
Land Management's (BLM) Soil, Water and Air Program in fiscal year 
2015. This funding will help protect the water quality of the Colorado 
River that is used by approximately 40 million people for municipal and 
industrial purposes and used to irrigate approximately 4 million acres 
in the United States.
    CAWCD manages the Central Arizona Project, a multi-purpose water 
resource development and management project that delivers Colorado 
River water into central and southern Arizona. The largest supplier of 
renewable water in Arizona, CAP diverts an average of over 1.6 million 
acre-foot of Arizona's 2.8 million acre-foot Colorado River entitlement 
each year to municipal and industrial users, agricultural irrigation 
districts, and Indian communities.
    Our goal at CAP is to provide an affordable, reliable and 
sustainable supply of Colorado River water to a service area that 
includes more than 80 percent of Arizona's population.
    These renewable water supplies are critical to Arizona's economy 
and to the economies of Native American communities throughout the 
State. Nearly 90 percent of economic activity in the State of Arizona 
occurs within CAP's service area. CAP also helps the State of Arizona 
meet its water management and regulatory objectives of reducing 
groundwater use and ensuring availability of groundwater as a 
supplemental water supply during future droughts. Achieving and 
maintaining these water management objectives is critical to the long-
term sustainability of a State as arid as Arizona.
                 negative impacts of concentrated salts
    Natural and man-induced salt loading to the Colorado River creates 
environmental and economic damages. EPA has identified that more than 
60 percent of the salt load of the Colorado River comes from natural 
sources. The majority of land within the Colorado River Basin is 
federally owned, much of which is administered by BLM. Human activity, 
principally irrigation, adds to salt load of the Colorado River. 
Further, natural and human activities concentrate the dissolved salts 
in the River.
    The U.S. Bureau of Reclamation (Reclamation) has estimated the 
current quantifiable damages at about $295 million per year to U.S. 
users with projections that damages would increase to more than $500 
million by 2030 if the program were not to continue. These damages 
include:
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector;
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector;
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector; and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    Adequate funding for salinity control will prevent the water 
quality of the Colorado River from further degradation and avoid 
significant increases in economic damages to municipal, industrial and 
irrigation users.
    history of the blm colorado river basin salinity control program
    In implementing the Colorado River Basin Salinity Control Act of 
1974, Congress recognized that most of the salts in the Colorado River 
originate from federally owned lands. Title I of the Salinity Control 
Act deals with the U.S. commitment to the quality of waters being 
delivered to Mexico. Title II of the Act deals with improving the 
quality of the water delivered to users in the United States. This 
testimony deals specific with title II efforts. In 1984, Congress 
amended the Salinity Control Act and directed that the Secretary of the 
Interior develop a comprehensive program for minimizing salt 
contributions to the Colorado River from lands administered by BLM.
    In 2000, Congress reiterated its directive to the Secretary and 
requested a report on the implementation of BLM's program (Public Law 
106-459). In 2003, BLM employed a Salinity Coordinator to increase BLM 
efforts in the Colorado River Basin and to pursue salinity control 
studies and to implement specific salinity control practices. With a 
significant portion of the salt load of the Colorado River coming from 
BLM administered lands, the BLM portion of the overall program is 
essential to the success of the effort. Inadequate BLM salinity control 
efforts will result in significant additional economic damages to water 
users downstream.
    The threat of salinity continues to be a concern in both the United 
States and Mexico. On November 20, 2012, a 5-year agreement, known as 
Minute 319, was signed between the U.S. and Mexico to guide future 
management of the Colorado River. Among the key issues addressed in 
Minute 319 included an agreement to maintain current salinity 
management and existing salinity standards. The CAWCD and other key 
water providers are committed to meeting these goals.
                               conclusion
    Implementation of salinity control practices through BLM Program 
has proven to be a very cost effective method of controlling the 
salinity of the Colorado River. In fact, the salt load of the Colorado 
River has now been reduced by roughly 1.2 million tons annually, 
reducing salinity in the Lower Basin by more than 100 ppm. However, 
shortfalls in funding levels have led to inefficiencies in the 
implementation of the overall Program. Therefore, additional funding is 
required in 2015 to meet this goal and prevent further degradation of 
the quality of the Colorado River with a commensurate increase in 
downstream economic damages.
    CAWCD urges the subcommittee to include $5.2 million for general 
water quality improvement efforts within the Colorado River Basin and 
an additional $1.5 million for salinity specific projects in the Bureau 
of Land Management's (BLM) Soil, Water and Air Program. If adequate 
funds are not appropriated, significant damages from the higher salt 
concentrations in the water will be more widespread in the United 
States and Mexico.
                                 ______
                                 
   Prepared Statement of the Central Utah Water Conservancy District
                                                     April 3, 2014.
Hon. Jack Reed, Chairman,
Hon. Lisa Murkowski, Ranking Member,
Subcommittee on Interior, Environment, and Related Agencies, Committee 
        on Appropriations, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.

    Dear Chairman Reed and Senator Murkowski: I am requesting your 
support for fiscal year 2015 appropriations to the Fish and Wildlife 
Service (FWS) for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program 
consistent with the President's recommended budget. I request that the 
subcommittee:

  --Appropriate $706,300 in ``Conservation and Restoration'' funds 
        (Resource Management Appropriation; Ecological Services 
        Activity; Conservation and Restoration Subactivity within the 
        $124,253,000 item entitled ``Conservation and Restoration'') to 
        the U.S. Fish and Wildlife Service (FWS) to allow FWS for 
        fiscal year 2015 to continue its essential participation in the 
        Upper Colorado River Endangered Fish Recovery Program.
  --Appropriate $200,000 in FWS ``Conservation and Restoration'' funds 
        for the San Juan River Basin Recovery Implementation Program to 
        meet expenses incurred by FWS's Region 2 in managing the San 
        Juan Program's diverse recovery activities.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $48,617,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.

    I request the subcommittee's assistance in assuring fiscal year 
2015 funding to allow the FWS to continue its financial and personnel 
participation in these two vitally important recovery programs. I 
recognize and appreciate that the past support and assistance of your 
subcommittee has greatly facilitated the success of these ongoing 
efforts.
            Sincerely,
                                      Gene Shawcroft, P.E.,
                                            Deputy General Manager.
                                 ______
                                 
   Prepared Statement of the Children's Environmental Health Network
    The Children's Environmental Health Network (CEHN or the Network) 
is pleased to have this opportunity to submit testimony on fiscal year 
2015 appropriations for the U.S. Environmental Protection Agency (EPA) 
and the Agency for Toxic Substances and Disease Registry (ATSDR). We 
seek funding levels of $9 billion for EPA and $76.2 million for ATSDR.
    CEHN urges the subcommittee to provide funding at or above the 
requested levels for the following EPA activities:
  --Office of Children's Health Protection
  --Children's Environmental Health & Disease Prevention Research 
        Centers
  --Office of Research & Development
  --School and Child Care Environmental Health
  --The Pediatric Environmental Health Specialty Units
    CEHN also urges the restoration of the State Indoor Radon Grants 
and full funding of all activities that advance healthy school and 
childcare environments for all children, including those supported by 
ATSDR.
    The Network's mission is to protect the developing child from 
environmental hazards and promote a healthier environment. The 
Network's Board and committee members include internationally-respected 
experts in children's environmental health science and policy. We 
recognize that children, in our society, have unique moral standing.
    Today's children are facing the distressing possibility that they 
may be the first generation to see a shorter life expectancy than their 
parents due to poor health. Key contributors to this trend are the 
modern pediatric epidemics of obesity, asthma, learning disabilities, 
and autism. For all of these conditions, the child's environment plays 
a role in causing, contributing to or mitigating these chronic 
conditions. The estimated costs of environmental disease in children 
(such as lead poisoning, childhood cancer, and asthma) were $76.6 
billion in 2008.\1\
---------------------------------------------------------------------------
    \1\ Trasande, Liu Y. ``Reducing The Staggering Costs Of 
Environmental Disease In Children, Estimated At $76.6 Billion In 2008, 
Health Affairs. No. (2011): doi: 10.1377/hlthaff.2010.1239.
---------------------------------------------------------------------------
    Investments in programs that protect and promote children's health 
will be repaid by healthier children with brighter futures. Thus it is 
vital that the Federal programs and activities that protect children 
from environmental hazards receive adequate resources.
    As epidemiologists see increasing rates of asthma, learning 
disabilities, and childhood cancers; as parents seek the causes of 
birth defects; as researchers understand more and more about the fetal 
origins of disease, policy makers must do a much better job of 
understanding and acting on the connections between children's health 
and the environments in which they spend their time.
    These environments include, but go beyond, home, school, and 
childcare settings. A growing number of studies are finding unexpected 
impacts of prenatal environmental exposures on health in later years. 
For example, prenatal exposures to either a common air pollutant or a 
common pesticide have each been linked to lower IQs and poorer working 
memory at age 7.
    Thus, all agencies should assure that their children's programs 
build on and respond to the growing evidence of the importance of 
prenatal and early life exposures to a child's health and future.
                    environmental protection agency
    A variety of factors, such as children's developing systems, their 
unique behaviors, and differing exposures, mean that children can be 
more susceptible than adults to harm from toxic chemicals. Standards 
and guidelines that are based on adults cannot be assumed to be 
protective of children. The EPA programs of highest importance in the 
protection of children are described below.
    EPA's Office of Children's Health Protection (OCHP).--OCHP has been 
leading EPA's efforts to protect children from environmental hazards 
since 1997. Despite an effective track record, funding for OCHP has 
been level, at approximately $6 million, since its creation. OCHP 
focuses on interagency work that promotes healthy housing and healthy 
children. These areas show that environmental interventions result in 
great cost savings, not to mention the health problems averted, such as 
asthma episodes and lead poisoning cases. There is great interest but 
few resources for these approaches. We urge increased funding for this 
vital office.
    Children's Environmental Health & Disease Prevention Research 
Centers.--These Centers, jointly funded by EPA and NIEHS, play a key 
role in providing the scientific basis for protecting children from 
environmental hazards. With their modest budgets, which have been 
unchanged for more than 10 years, these centers generate valuable 
research. It was these centers, for example, that generated the 
findings mentioned earlier about connections between prenatal exposures 
and lower IQ at age 7.
    Several Centers have established longitudinal cohorts, which in 
some cases are more than 10 years old. The ability to look for linkages 
between exposures and health outcomes in infants, toddlers, and, now, 
adolescents, is vital. If these cohorts are disbanded due to funding 
cuts, at best it will take years and untold resources before it is 
possible to replicate them. Few if any longitudinal cohort studies on 
adolescents, puberty and environmental exposures exist. The Network is 
concerned that inadequate funding may result in the loss of these 
valuable cohorts. We urge the subcommittee to support these centers at 
$33 million in fiscal year 2015.
    Office of Research & Development (ORD).--This office is critical in 
efforts to understand environmental impacts on children's health. EPA 
has pledged to increase its efforts to provide a safe and healthy 
environment for children by ensuring that all EPA regulations, 
standards, policies, and risk assessments take into account childhood 
vulnerabilities to environmental chemicals. We encourage additional 
funds for research on children's issues in fiscal year 2015. We ask 
that your subcommittee direct the office to improve transparency by 
tracking and reporting on the funding and research across the office 
dedicated to children's environmental health.
    Children's environmental health is an issue that cuts across all of 
ORD's programs. For example, EPA's National Health and Environmental 
Effects Research Laboratory scientists are protecting children's health 
through the development of cost-effective methods to test and rank 
chemicals for their potential to cause developmental neurotoxicity. To 
date, only a small number of the thousands of chemicals currently in 
commerce have been assessed for their potential toxicity and for their 
effects on the child's developing nervous system. These new testing 
methods can screen in hours to days instead of months to years and will 
provide faster, less expensive ways of assessing potential toxicity.
    These new testing methods, however, do not replace the need for 
continued research in childhood exposures and health effects. Much of 
the research in this field cannot be conducted in a short timeframe and 
requires sustained funding if scientists are to conduct research and 
measure effectiveness.
    State Radon Grants.--Radon is the leading cause of lung cancer in 
non-smokers, and the EPA reports that it is one of the most serious 
public health problems in the United States, responsible for up to 
21,000 lung cancer deaths annually. While we applaud the Agency's 
continued work on indoor air quality, asthma, and its plans to 
``continue to lead on radon activities,'' we are not convinced that the 
way to do so is to eliminate the State Indoor Radon Grants. We urge you 
to restore this program.
    School and Child Care Environmental Health.--In America today, 
millions of children, often as young as 6 weeks, spend 40-50 hours a 
week in childcare. Yet, little is known about the environmental health 
status of the Nation's childcare centers or how to assure that these 
facilities are protecting this highly vulnerable group of children. 
Environmental health is rarely if ever considered in licensing 
regulations or in training childcare professionals. Similarly, about 54 
million children and nearly 7 million adults --20 percent of the total 
U.S. population--spend up to 40 hours per week inside school facilities 
every week. Unfortunately, many of these facilities contain unsafe 
environmental conditions that harm children's health and undermine 
attendance, achievement, and productivity. Thus, it is vital that EPA 
maintain and expand its activities for healthy school and child care 
settings, such as the Indoor Air Quality Tools for Schools program.
    Pediatric Environmental Health Specialty Units.--Pediatric 
Environmental Health Specialty Units (PEHSUs) form a valuable resource 
network for parents and clinicians around the Nation. They are funded 
jointly by the Agency for Toxic Substances and Disease Registry (ATSDR) 
and the EPA with a very modest budget. PEHSU professionals provide 
medical consultation to healthcare professionals from individual cases 
of exposure to advice regarding large-scale community issues. PEHSUs 
also provide information and resources to school, child care, health 
and medical, and community groups and help inform policymakers by 
providing data and background on local or regional environmental health 
issues and implications for specific populations or areas. We urge the 
subcommittee to provide adequate funding for both EPA's and ATSDR's 
portions of this program.
                                 atsdr
    CEHN urges the subcommittee to provide funding at or above the 
requested levels for ATSDR activities. ATSDR uses the best science in 
taking public health actions, such as site assessments and 
toxicological profiles, to prevent harmful exposures and diseases of 
communities and individuals related to toxic substances.
    ATSDR understands that in communities faced with contamination of 
their water, soil, air, or food, infants and children can be more 
sensitive to environmental exposure than adults and that assessment, 
prevention, and efforts to find remedies for exposures must focus on 
children because of their vulnerability and importance to the Nation's 
future. We support the full funding of ATSDR and the continuation of 
their varied responsibilities.
children's health and healthy children must be on-going priorities for 
                     this and every administration
    We have seen much progress in recognizing the impact of 
environmental toxicants on children's health. Much more remains to be 
done, however. The Network urges the subcommittee to direct both 
agencies to assure that all of their activities and programs--including 
regulations, guidelines, assessments and research--specifically 
consider children.
    EPA and ATSDR must always assure that children and other vulnerable 
subpopulations are protected, especially poor children, minority 
children, farmworker children, and others at risk.
    Thank you for the opportunity to submit testimony on these critical 
issues, and thank you for your concern about the environmental health 
of children.
                                 ______
                                 
          Prepared Statement of the Choctaw Nation of Oklahoma
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide written testimony on the fiscal year 2015 
Interior, Environment and Related Agencies appropriations for the 
Indian Health Service (IHS) and Bureau of Indian Affairs (BIA). On 
behalf of Chief Gary Batton, I submit this testimony which identifies 
the funding priorities and budget issues important to the citizens of 
Choctaw. We request that the subcommittee work with tribes and not 
allow tribal programs in the Indian Health Service and Bureau of Indian 
Affairs, as well as throughout the entire Federal Government, to incur 
further sequestration budget decreases and across the board rescissions 
that are not imposed on other beneficiaries of the Federal budget.
    We recommend the following:

Indian Health Service
    1.  Joint Venture Program--Increase President's Request to $170 
million.
    2.  Special Diabetes Program for Indians--Reauthorize for 5 years 
at $200 million/year.
    3.  Restore Funding to the Office of Tribal Self-Governance--$6 
million.

Indian Health Service and Bureau of Indian Affairs
    1.  Contract Support Costs--Full Funding with an Annual Special 
Appropriation.
    2.  Restore Sequestered Funds and Exempt Tribes from Future 
Sequestration.

    The Choctaw Nation of Oklahoma is the third largest Native American 
tribal government in the United States, with over 208,000 members. The 
Choctaw Nation territory consists of all or part of 10 counties in 
southeast Oklahoma, and we are proudly one of the State's largest 
employers. The nation operates numerous programs and services under 
Self-Governance compacts with the United States, including but not 
limited to: a sophisticated health system serving over 33,000 patients 
with a hospital in Talihina, Oklahoma, eight outpatient clinics, 
referred specialty care and sanitation facilities construction; higher 
education; Johnson O'Malley program; housing improvement; child welfare 
and social services; law enforcement; and many others.
  joint venture program--increase president's request to $170 million
    The Joint Venture Construction Program (JVCP) allows IHS to enter 
into agreements with tribes that construct their own health facilities. 
The funding for the construction of the health facility comes from the 
tribe using their resources, financing or other funding sources with 
the exception of the IHS healthcare facility construction 
appropriations. Tribes apply for the JVCP during a competitive process 
and projects that are approved enter into agreements with IHS. Upon 
projected completion of construction by the respective tribe, the IHS 
agrees to request congressional appropriations for additional staffing 
and operations based on the tribes' projected dates of completion, 
fully executed beneficial occupancy and opening.
    The President's proposed level of $85 million will not support the 
intent of the JVCP and should be increased to $170 million at a 
minimum. Between fiscal year 2001 and fiscal year 2012, 17 joint 
venture project agreements signed by IHS and tribes were initiated and 
9 have been completed. The interest of tribes to assume the cost and 
build or repair the facilities represents the viability of the JVCP and 
the future of healthcare access and delivery of services in American 
Indian and Alaska Native rural and remote communities.
    Another key element to a successful JVCP partnership is full 
payment of contract support costs. Without reimbursement of contract 
support cost, offsetting program reductions must be made and services 
are reduced. Upon entering an agreement the IHS should include staffing 
and contract support costs in the IHS annual appropriations requests to 
ensure that the facility can open and begin operations as planned.
special diabetes program for indians--support 5 year reauthorization at 
                           $200 million/year
    The Choctaw Nation would like to thank the U.S. House of 
Representatives for passing H.R. 4302, Protecting Access to Medicare 
Act, which includes the extension of the Special Diabetes Program for 
Indians (SDPI) through 2015 at the current level of $150 million. 
Although we requested that Congress reauthorize the program for 5 years 
and increase the funding to $200 million a year, we are grateful that 
you sustained the program which allows us an opportunity to continue 
our advocacy for an extended reauthorization period.
    Since the program was initially authorized in 1997 there has been 
tremendous improvement in the status of diabetes, as well as building a 
desperately needed infrastructure for diabetes throughout American 
Indian and Alaska Native communities. SDPI funding is not part of the 
IHS appropriations process, but the funds are administered through IHS. 
The success can be attributed to nearly 400 Indian Health Service, 
Tribal and Urban (I/T/U) Indian health programs who have assisted in 
developing innovative and culturally appropriate strategies, vital 
resources and tools to prevent and treat diabetes.
    Congressional funding remains the critical factor in the battle 
against diabetes and we request that you urge your colleagues to extend 
the reauthorization to 5 years and increase funding to $200 million for 
the SDPI program.
  restore funding to the office of tribal self-governance (otsg)--$6 
                                million
    In 2003 Congress reduced funding for OTSG by $4.5 million in 
addition to congressional rescissions in 2005 and 2006 to total more 
than a 50 percent cut. In the recent Murray/Ryan spending plan OTSG was 
cut another $1 million. Self-Governance was permanently authorized in 
the IHS under Public Law 106-260; Tribal Self-Governance Amendments of 
2000 which increased the responsibilities of the OTSG, yet with the 
reduction in funding it is not able to fulfill the legal requirements 
under the law. In addition, there are now 341 tribes and 84 compacts 
and 109 funding agreements in Self-Governance and OTSG distributes 
approximately $980 million to Self-Governance tribes. We request that 
you restore the $6 million cut to OTSG to fulfill legal requirements 
under title V of Public Law 106-260.
      contract support costs--full funding with an annual special 
                             appropriation
    Full funding of contract support cost in the fiscal year 2014 and 
fiscal year 2015 budgets is timely and appreciated. However, funding 
for tribal programs is seriously impacted. Although our requests to 
honor the contracts and the compacts and pay full contract support 
costs have been fulfilled, it has come at a price that is 
insurmountable and detrimental to past, present and future tribal 
program funding. And, even though CSC claims are paid from the Judgment 
Fund, the day-to-day cost of tribes doing business with the Federal 
Government has forever compromised how tribal governments operate and 
provide essential services to our citizens.
    The Choctaw Nation is requesting that contract support costs be an 
annual special appropriation that is not tied to the ``Operations of 
Indian Programs'' account or the Indian Health Service funding. While 
it is true that contract support costs is based on the programs, 
services, functions and activities tribes include in the contracts or 
compacts with the agencies, most of these funding agreements are multi-
year and the levels can be computed beforehand for inclusion in an 
appropriations measure separate from the larger appropriations bill. 
This will allow the agencies to more accurately capture the contract 
support costs and provide Congress with approximate amount for a 
special appropriation. We welcome the opportunity to discuss this in 
further detail with members of this subcommittee.
    restore sequestered funds and exempt tribal funding from future 
                             sequestration
    Tribes have borne an unfair share of the budget deficit. The 
Choctaw Nation request that tribal programs be exempt from future 
sequestration considering that we have already contributed to the 
deficit at a rate that is not commensurate with other stakeholders. The 
percentage of the entire United States' budget that is going to Indian 
Country is only 0.07 percent. That is a third less than what the 
percentage was in 1995. Yet we incurred a cut of $220 million in the 
Indian Health Service and $119 million for the Bureau of Indian Affairs 
Operations of Indian Programs Account--both under the 2013 
sequestration. It is not realistic to expect tribes to continue to 
absorb the debt of this Nation and ignore the Trust obligation and 
Trust relationship between our governments. We are in fiscally tough 
times and our requests, as well as your responses, are tough choices 
and decisions that we will all have to live with.
    In 2013, the Choctaw Nation testified and shared our concern about 
the impending sequestration. When Congress approved legislation for the 
budget cuts, they specifically exempted many programs that benefit low-
income Americans, including Medicaid, tax credits for working families 
and food stamps. However, basically none of the tribal programs funding 
in the Departments of Interior, Education, Health and Human Services or 
Agriculture were exempt.
    This issue was further exacerbated when the agencies consulted with 
the tribes on the fiscal year 2014 Spending Plans as a means of 
``damage control'' and to soften the impact of the sequestration. It 
was our understanding that the Murray/Ryan budget deal was an attempt 
to lessen the blow of the sequestration cuts but such is not the case. 
Our requests to assist in the development of the Spending Plans, or at 
a minimum to review them prior to submission, was not an option and we 
were once again left outside of the process, the decisionmaking and 
impacted by the outcome.
    In general, all tribal programs, not just the Bureau of Indian 
Affairs (BIA) and Indian Health Services (IHS) budgets should be exempt 
from any budget recessions and discretionary funding budget reductions. 
We remain extremely concerned about the consequences of sequestration 
and strongly urge Congress to fully restore sequestration cuts from 
fiscal year 2013. This action threatens the trust responsibility and 
reduces portions of the budget that are not major contributors to the 
deficit.
    Thank you for considering the requests of the Choctaw Nation of 
Oklahoma.
                                 ______
                                 
         Prepared Statement of the Choose Clean Water Coalition
                                                    March 28, 2014.
Hon. Jack Reed, Chairman,
Subcommittee on Interior, Environment and Related Agencies,
U.S. Senate, Washington, DC.

Hon. Lisa Murkowski, Ranking Minority Member,
Subcommittee on Interior, Environment and Related Agencies,
U.S. Senate, Washington, DC.

    Dear Chairman Reed and Ranking Member Murkowski: As members of the 
Choose Clean Water Coalition, we are requesting continued support for 
programs that are essential to maintaining and restoring clean water to 
the rivers and streams throughout the Chesapeake Bay region, and to the 
Bay itself. At least 11 million people in this region get their 
drinking water directly from the rivers and streams that flow through 
the cities, towns and farms throughout our region. The quality of this 
water is critical to both human health and to the regional economy.
    The efforts to clean the Chesapeake began under President Reagan in 
1983. In his 1984 State of the Union speech President Reagan said, 
``Preservation of our environment is not a liberal or conservative 
challenge, it's common sense.''
    To follow a common sense path to maintain healthy local water and 
restore Chesapeake Bay, which is critical for our regional economy, we 
request funding for the following programs in fiscal year 2015:
                  u.s. environmental protection agency
Chesapeake Bay Program--$73.1 million
    We support the President's 2015 budget request of $73.1 million for 
the base budget of the Chesapeake Bay Program, which coordinates 
Chesapeake Bay watershed restoration and protection efforts. The 
majority of the program's funds are passed through to the States and 
local communities for on-the-ground restoration work through programs 
such as the Small Watershed Grants, Innovative Nutrient and Sediment 
Reduction Grants, State Implementation Grants, and the Chesapeake Bay 
Regulatory and Accountability Program grants. Last year $29.5 million 
of this went exclusively to the six Chesapeake Bay watershed states and 
the District of Columbia to achieve water quality restoration goals.
    In particular, we urge you to increase funding for both the 
Chesapeake Small Watershed Grants (SWG) Program and the Innovative 
Nutrient and Sediment Reduction grants to $6 million each--a modest 
increase over fiscal year 2014. These are two well-run, competitive 
grants programs that have contributed significantly to water quality 
improvements throughout the Chesapeake Bay watershed. These are the Bay 
Program's only grants that go to restoration efforts by local 
governments and communities, not just the States. In the fiscal year 
2014 Omnibus Appropriations Bill, Congress directed EPA to increase 
funding for the SWG, which goes specifically to local communities for 
restoration work.
Clean Water State Revolving Fund (SRF)--$1.44887 billion
    This program is critical to the 1,779 local governments throughout 
the Chesapeake region. The funding level has eroded over the years as 
the clean water needs of local communities have increased dramatically, 
but Congress has stabilized this important program for the past 3 years 
and we urge you to do so again in fiscal year 2015. These low interest 
loans are critical for clean water and for ratepayers in the Chesapeake 
region and nationwide. We urge you to support the same funding level as 
fiscal year 2014 that provided $327 million in low interest loans to 
local governments in Delaware, Maryland, New York, Pennsylvania, 
Virginia, West Virginia and the District of Columbia. This SRF 
allocates money to the States based on a set formula, which is then 
used for low interest loans to local governments for critical capital 
construction improvement projects to reduce nutrient and sediment 
pollution from wastewater treatment and stormwater facilities; nonpoint 
sources of pollution, such as farms and development; and other sources. 
The SRF enables local governments in the Chesapeake watershed to take 
actions to protect their local waters to meet Clean Water Act 
requirements. As the list of clean water infrastructure needs in the 
Chesapeake region continues to expand we request that the Clean Water 
SRF not be cut in 2015.
                       department of the interior
U.S. Geological Survey (USGS)--Chesapeake Bay Studies--$9.557 million
    We support the President's 2015 budget request of $9.557 million 
for the U.S. Geological Survey for the science that undergirds the 
restoration and protection efforts in the Chesapeake Bay region. This 
funding supports restoration of fish and wildlife and their habitats; 
and to assess and explain water-quality changes. There are four key 
focus areas for the USGS Chesapeake work in 2015: (1) restoring brook 
trout and their habitats in headwater areas of the Chesapeake 
watershed; (2) identifying the endocrine-disrupting compounds and other 
contaminants that threaten fisheries and wildlife in the Chesapeake 
watershed; (3) furthering understanding of the effects of development 
and sea-level rise on coastal wetlands important for waterfowl; and (4) 
monitoring and explaining changes to water quality. The efforts of USGS 
are critical to preserving and restoring healthy fish and wildlife 
resources to the Chesapeake region.
National Park Service--Chesapeake Regional Programs--$2.991 million
    The National Park Service Chesapeake Bay Office runs a number of 
small, but very important programs that focus on increasing public 
access and the use of ecological, cultural and historic resources of 
the Chesapeake region. Expanding access and public awareness fosters 
stewardship and protection efforts.
    The key programs in the President's fiscal year 2015 budget request 
that we support are: Chesapeake Bay Gateways and Trails ($1,999,000); 
Captain John Smith Chesapeake National Historic Trail ($368,000); Star 
Spangled Banner National Historic Trail ($148,000); and, support for 
coordinating these programs through the National Park Service 
Chesapeake Bay Office ($476,000).
National Park Service--Land Protection in Maryland, Pennsylvania & 
        Virginia through the Land and Water Conservation Fund--$9.832 
        million
    We support the President's 2015 budget that calls for the strategic 
use of funds from the Land and Water Conservation Fund to protect and 
preserve key assets in the National Park System at Gettysburg National 
Military Park ($376,000) and the Appalachian National Scenic Trail 
($500,000) in Pennsylvania; Fredericksburg and Spotsylvania County 
Battlefields National Military Park ($1.519 million) and the Captain 
John Smith Chesapeake National Historic Trail ($6.0 million) in 
Virginia; and Piscataway Park ($1.437 million) in Maryland. In addition 
to enhancing public access and education and preserving key historic 
and heritage sites, these acquisitions, including the battlefield and 
military parks and the national scenic trail, will protect key 
freshwater and tidal habitat areas critical to an array of fish and 
wildlife species.
U.S. Fish and Wildlife Service--Land Protection in Virginia through the 
        Land and Water Conservation Fund--$5.56 million
    The President's 2015 budget calls for two targeted additions to the 
Rappahannock River Valley National Wildlife Refuge. We support the 
expansion of the Refuge for both public access and wildlife habitat 
protection.
    Thank you for your consideration of these very important requests 
to maintain funding for these programs which are critical to clean 
water throughout the mid-Atlantic region.
            Sincerely,
                    1000 Friends of Maryland; American Rivers; 
                            Anacostia Watershed Society; Audubon 
                            Naturalist Society; Blue Water Baltimore; 
                            Chapman Forest Foundation; Citizens for 
                            Pennsylvania's Future; Clean Water Action; 
                            Conservation Pennsylvania; Delaware Nature 
                            Society; Elk Creeks Watershed Association; 
                            Friends of Dyke Marsh; Friends of Frederick 
                            County; Friends of Lower Beaverdam Creek; 
                            Friends of the North Fork of the Shenandoah 
                            River; Friends of the Rappahannock; Friends 
                            of the Rivers of Virginia; Interfaith 
                            Partners for the Chesapeake; James River 
                            Association; Loudoun Wildlife Conservancy; 
                            Maryland Academy of Sciences at the 
                            Maryland Science Center; Maryland 
                            Conservation Council; Maryland League of 
                            Conservation Voters; Mattawoman Watershed 
                            Society; and
                    National Parks Conservation Association; National 
                            Wildlife Federation; Natural Resources 
                            Defense Council; Nature Abounds; New York 
                            State Council Trout Unlimited; Pennsylvania 
                            Council of Churches; Pennsylvania Council 
                            of Trout Unlimited; Piedmont Environmental 
                            Council; Potomac Conservancy; Rivanna 
                            Conservation Society; Rock Creek 
                            Conservancy; Sassafras River Association; 
                            Savage River Watershed Association; 
                            Shenandoah Riverkeeper; Shenandoah Valley 
                            Network; Stewards of the Lower Susquehanna; 
                            St. Mary's River Watershed Association; 
                            Trout Unlimited; Trout Unlimited Mid-
                            Atlantic Council Upper Susquehanna 
                            Coalition; Virginia Conservation Network; 
                            Virginia League of Conservation Voters; 
                            Waterkeepers Chesapeake; West Virginia 
                            Rivers Coalition.
                                 ______
                                 
                Prepared Statement of the City of Aurora
                                                     April 5, 2014.
Hon. Jack Reed, Chairman,
Hon. Lisa Murkowski, Ranking Member,
Subcommittee on Interior, Environment, and Related Agencies, Committee 
        on Appropriations, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.

    Dear Chairman Reed and Senator Murkowski: I am requesting your 
support for fiscal year 2015 appropriations to the Fish and Wildlife 
Service (FWS) for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program 
consistent with the President's recommended budget. I request that the 
subcommittee:

  --Appropriate $706,300 in ``Conservation and Restoration'' funds 
        (Resource Management Appropriation; Ecological Services 
        Activity; Conservation and Restoration Subactivity within the 
        $124,253,000 item entitled ``Conservation and Restoration'') to 
        the U.S. Fish and Wildlife Service (FWS) to allow FWS for 
        fiscal year 2015 to continue its essential participation in the 
        Upper Colorado River Endangered Fish Recovery Program.
  --Appropriate $200,000 in FWS ``Conservation and Restoration'' funds 
        for the San Juan River Basin Recovery Implementation Program to 
        meet expenses incurred by FWS's Region 2 in managing the San 
        Juan Program's diverse recovery activities.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $48,617,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.

    I request the subcommittee's assistance in assuring fiscal year 
2015 funding to allow the FWS to continue its financial and personnel 
participation in these two vitally important recovery programs. I 
recognize and appreciate that the past support and assistance of your 
subcommittee has greatly facilitated the success of these ongoing 
efforts.
            Sincerely,
                                         Marshall P. Brown,
                                            Director, Aurora Water.
                                 ______
                                 
              Prepared Statement of the City of Farmington
                                                     April 7, 2014.
Hon. Jack Reed, Chairman,
Hon. Lisa Murkowski, Ranking Member,
Subcommittee on Interior, Environment, and Related Agencies, Committee 
        on Appropriations, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.

    Dear Chairman Reed and Senator Murkowski: I am requesting your 
support for fiscal year 2015 appropriations to the Fish and Wildlife 
Service (FWS) for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program 
consistent with the President's recommended budget. I request that the 
subcommittee:

  --Appropriate $706,300 in ``Conservation and Restoration'' funds 
        (Resource Management Appropriation; Ecological Services 
        Activity; Conservation and Restoration Subactivity within the 
        $124,253,000 item entitled ``Conservation and Restoration'') to 
        the U.S. Fish and Wildlife Service (FWS) to allow FWS for 
        fiscal year 2015 to continue its essential participation in the 
        Upper Colorado River Endangered Fish Recovery Program.
  --Appropriate $200,000 in FWS ``Conservation and Restoration'' funds 
        for the San Juan River Basin Recovery Implementation Program to 
        meet expenses incurred by FWS's Region 2 in managing the San 
        Juan Program's diverse recovery activities.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $48,617,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.

    I request the subcommittee's assistance in assuring fiscal year 
2015 funding to allow the FWS to continue its financial and personnel 
participation in these two vitally important recovery programs. I 
recognize and appreciate that the past support and assistance of your 
subcommittee has greatly facilitated the success of these ongoing 
efforts.
            Sincerely,
                                           Robert Campbell,
                                            Assistant City Manager.
                                 ______
                                 
               Prepared Statement of the Civil War Trust
                                                      May 21, 2014.
    To the Chair and members of the subcommittee: Thank you for the 
opportunity to provide testimony on behalf of the Civil War Trust. I 
write today to respectfully request that the Senate Appropriations 
Subcommittee on Interior, Environment, and Related Agencies fund the 
Civil War Battlefield Preservation Program at its authorized amount of 
$10 million.
    The Civil War Trust is a national nonprofit organization dedicated 
to preserving America's remaining Civil War battlefields. Thanks to the 
generosity of our 200,000 members and supporters, the Civil War Trust 
has protected more than 38,500 acres of hallowed ground in 20 States.
    The Civil War Battlefield Preservation Program is an authorized 
competitive matching grants program that requires a 1 to 1 Federal/non-
Federal match, although on most occasions the Federal dollars are 
leveraged much more than 1 to 1. The program promotes cooperative 
partnerships between State and local governments and the private sector 
to protect high priority Civil War battlegrounds outside National Park 
Service boundaries.
           battlefield lands are our shared american heritage
    Civil War battlefield lands are an irreplaceable part of our shared 
national heritage. When preserved, battlefields serve as outdoor 
classrooms to educate current and future generations about this 
defining moment in America's history. They are living monuments, not 
just to the men in blue and gray who fought there, but to all who have 
proudly worn our Nation's uniform. Preserved battlefields are also 
economic drivers for communities, bringing in tourism dollars that are 
extremely important to State and local economies. When these hallowed 
grounds are lost, they are lost forever.
    This hearing is especially timely because of the ongoing 
sesquicentennial commemoration of the Civil War, in which millions are 
learning about our Nation's unique history by visiting Civil War 
battlefields and historic sites throughout the country.
                         origins of the program
    In 1990, Congress created the Civil War Sites Advisory Commission 
(CWSAC), a blue-ribbon panel composed of lawmakers, historians and 
preservationists, to examine the status of America's Civil War 
battlefields. Three years later, the Commission released a report 
identifying the most important Civil War battlegrounds, prioritizing 
them according to preservation status and historic significance. In 
addition, the Commission also recommended that Congress establish a 
Federal matching grantd program to encourage the private sector to 
invest in battlefield preservation. The Commission's proposal for a 
Federal matching grants program was the genesis of the Civil War 
Battlefield Preservation Program.
    Since the program was first funded in fiscal year 1999, the grants 
have been used to protect 22,000 acres of hallowed ground in 16 States. 
Among the many battlefields that have benefited from this program are: 
Antietam, Maryland; Bentonville, North Carolina; Champion Hill, 
Mississippi; Chancellorsville, Virginia; Chattanooga, Tennessee; 
Gettysburg, Pennsylvania; Harpers Ferry, West Virginia; Mill Springs, 
Kentucky; Prairie Grove, Arkansas; and Wilson's Creek, Missouri. It is 
important to note that grants are awarded for acquisition of lands from 
willing sellers only; there is--and never has been--any eminent domain 
authority.
                        urgent need for funding
    The Civil War Trust wishes to thank the subcommittee for its 
previous support for this valuable program. We recognize that these are 
difficult economic times and appreciate the constraints on this 
subcommittee.
    We also want to emphasize that the clock is ticking on the 
remaining battlefields of the Civil War. The Civil War Trust estimates 
that, in the next decade, most unprotect battlefield land will be 
either developed or preserved. Full funding for the Civil War 
Battlefield Preservation Program at its authorized level of $10 million 
a year will enable nonprofit groups like the Trust to protect as many 
key battlefield lands as possible in the limited time remaining. The 
ongoing 150th anniversary commemoration of the Civil War is the most 
opportune time to provide robust funding for the Civil War Battlefield 
Preservation Program.
                               conclusion
    The Civil War was a defining moment in our country's history. For 4 
long years, North and South clashed in hundreds of battles that 
reunited our Nation and sounded the death knell for slavery. More than 
625,000 soldiers and 50,000 civilians perished as a result of the war. 
Preserved battlefields help insure that the sacrifices of that 
turbulent period of our Nation's history are never forgotten.
    I sincerely hope the subcommittee will consider our request to 
provide funding for the Civil War Battlefield Preservation Program at 
its authorized level of $10 million. We look forward to working closely 
with you as we continue our important work to preserve our sacred Civil 
War battlefields. Thank you for the opportunity to present this 
testimony to the subcommittee.
                                       O. James Lighthizer,
                                                         President.
                                 ______
                                 
        Prepared Statement of the Coalition Against Forest Pests
    The Coalition Against Forest Pests is asking the Subcommittee on 
Interior, Environment and Related Agencies to appropriate a total of 
$111 million for the Forest Health Management programs (combining the 
Federal and cooperative lands programs); and $303 million for Forest 
and Rangeland Research programs.
    Our Coalition of non-profit organizations, for-profit corporations, 
landowners, State agencies and academic scholars seeks to improve our 
Nation's efforts to address the critical threat posed to our forests by 
non-native and native pests.
    Our Nation's forests and trees provide numerous benefits in both 
rural and urban areas. They sustain the health of our environment and 
our economy by providing clean air and water, wildlife habitat, 
enhanced property values, renewable energy sources, and carbon 
sequestration. Healthy forests support numerous jobs; for example, the 
U.S. forest products industry employs nearly 900,000 people in all 50 
States. Visitors to National Forest System lands generate more than $13 
billion of recreation and other related economic activity. One million 
tourists view fall foliage displays, generating $1 billion in revenue 
in New England annually.
    Forests' ability to continue providing these benefits is threatened 
by damaging invasive species that are arriving and spreading at an 
increasing rate. At least 28 new tree-killing pests have been detected 
over the last decade. Some cause enormous damage. For instance, 
thousand cankers disease threatens black walnut trees; walnut growing 
stock is valued at $539 billion.
    Already, municipal governments across the country are spending more 
than $2 billion each year to remove trees on city property killed by 
non-native pests. Homeowners are spending an additional $1 billion to 
remove and replace trees on their properties and are absorbing an 
additional $1.5 billion in reduced property values.
    The Forest Health Management programs (FHM) manage forest health 
through direct action on the National forests and through assistance to 
other Federal agencies, State agencies, local agencies and private 
landowners. The total allocated by FHM to non-native forest pests has 
fallen 15 percent since fiscal year 2011, with concomitant cuts for 
management of several pests: 90 percent for emerald ash borer; 46 
percent each for Asian longhorned beetle and hemlock woolly adelgid. We 
appreciate the near doubling of the account addressing three pests: 
goldspotted oak borer, thousand cankers disease, and laurel wilt. 
Still, the additional funds fall short of the level appropriate given 
the economic and ecological importance of the walnut, oak, and redbay 
trees at risk and the expectation that laurel wilt will nearly 
eradicate redbay just 25 years after the disease's discovery.
    In fiscal year 2013, the FHM Program combated pests on over 285,000 
acres of Federal lands and over 444,000 acres of Cooperative lands. 
Funding cuts meant 321,000 fewer acres were treated on Cooperative 
lands in fiscal year 2013 than in fiscal year 2011. The President's 
budget projects an increase in acres treated in fiscal year 2015, 
although it is unclear how this will be accomplished.
    Our awareness of the need to restore these programs and address 
additional pests such as western bark beetles, southern pine beetle, 
gypsy moth, white pine blister rust, Port-Orford-cedar root disease, 
oak wilt, and polyphagous shot hole borer underlies our request for an 
appropriation of $111 million--the fiscal year 2012 level.
    The USFS Forest and Rangeland Research program provides the 
scientific foundation for developing effective tools to detect and 
manage forest pests and the pathways by which they are introduced and 
spread. Due to budget cuts in earlier years, this program has lost 71 
percent of entomologists and pathologists on staff in 1985. These 
scientists' expertise is needed now more than ever due to the ever-
growing number of non-native pests. Since 1985, more than 40 new forest 
pests have been detected in the U.S., including the Asian longhorned 
beetle, emerald ash borer, sudden oak death, laurel wilt, thousand 
cankers disease, goldspotted oak borer, and polyphagous shot hole 
borer. New pathways of introduction and spread have required analysis, 
e.g., wood packaging and firewood. Yet, the President's budget request 
for these programs would make a further cut of 6 percent, thereby 
jeopardizing vitally important research on these pests and pathways as 
well as hemlock woolly adelgid, white pine blister rust, and newly 
detected invaders. Already, recent cuts have forced significant 
reductions in several programs:
  --The Asian longhorned beetle kills many hardwood trees, especially 
        the maples and birches making up much of the forest reaching 
        from Maine to Minnesota and urban trees worth an estimated $600 
        billion. Due to the difficulty in detecting this beetle, large 
        but previously unsuspected outbreaks have been detected in 
        2008, 2010, and 2013. Yet funding for research on this species 
        has been cut by 66 percent since fiscal year 2011.
  --The emerald ash borer occupies more than 171,000 square miles in 22 
        States. More than 200 million ash trees in the Plains States 
        and additional trees in the South might be protected if better 
        detection and control methods were available. Despite the 
        desperate need for better tools, including breeding of trees 
        resistant to the beetle, funding for research on this species 
        has been cut by 9 percent since fiscal year 2011.
  --Sudden oak death affects 143 different plant species and continues 
        to spread in 15 California counties as well as Curry County, 
        Oregon. In 2012 and 2013, sudden oak death killed nearly 
        700,000 trees in California. Many types of trees and shrubs in 
        the East are vulnerable to the pathogen. Yet funding for 
        research on this species has been cut by 87 percent since 
        fiscal year 2011.
    We applaud the significant increase in funding for research on the 
goldspotted oak borer and thousand cankers disease. The goldspotted oak 
borer has killed up to 80,000 California live oak and black oak trees 
in San Diego and Riverside Counties in less than 15 years and threatens 
oaks throughout California.
    In a time when America's forests and trees face significant threats 
regarding their present and long-term health, USFS must be provided 
with adequate funds to support these key programs.
    Thank you for your time and consideration of this important 
request.
            Sincerely,
                    Alliance for Community Trees (ACTrees); American 
                            Forest Foundation; American Forests; 
                            California Forest Pest Council; Davey Tree 
                            Expert Company; National Association of 
                            State Departments of Agriculture; National 
                            Association of State Foresters; National 
                            Wild Turkey Federation; National Woodland 
                            Owners Association; Society of American 
                            Florists; Society of American Foresters; 
                            The Nature Conservancy; and Vermont 
                            Woodlands Association.
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum
                                                       May 6, 2014.
Hon. Jack Reed, Chairman,
Senate Committee on Appropriations, Subcommittee on Interior, 
        Environment, and Related Agencies

Hon. Lisa Murkowski, Ranking Member,
Senate Committee on Appropriations, Subcommittee on Interior, 
        Environment, and Related Agencies
    Waters from the Colorado River are used by nearly 40 million people 
for municipal and industrial purposes and used to irrigate 
approximately 4 million acres in the United States. Natural and man-
induced salt loading to the Colorado River creates environmental and 
economic damages. The U.S. Bureau of Reclamation (Reclamation) has 
estimated the current quantifiable damages at about $376 million per 
year. Congress authorized the Colorado River Basin Salinity Control 
Program (Program) in 1974 to offset increased damages caused by 
continued development and use of the waters of the Colorado River. 
Modeling by Reclamation indicates that the quantifiable damages would 
rise to approximately $577 million by the year 2030 without 
continuation of the Program. Congress has directed the Secretary of the 
Interior to implement a comprehensive program for minimizing salt 
contributions to the Colorado River from lands administered by the 
Bureau of Land Management (BLM). BLM funds these efforts through its 
Soil, Water and Air Program. BLM's efforts are an essential part of the 
overall effort. A funding level of $5.2 million for general water 
quality improvement efforts within the Colorado River Basin and an 
additional $1.5 million for salinity specific projects in 2015 is 
requested to prevent further degradation of the quality of the Colorado 
River and increased downstream economic damages.
    EPA has identified that more than 60 percent of the salt load of 
the Colorado River comes from natural sources. The majority of land 
within the Colorado River Basin is federally owned, much of which is 
administered by BLM. In implementing the Colorado River Basin Salinity 
Control Act in 1974, Congress recognized that most of the salts in the 
Colorado River originate from federally owned lands. Title I of the 
Salinity Control Act deals with the U.S. commitment to the quality of 
waters being delivered to Mexico. Title II of the Act deals with 
improving the quality of the water delivered to users in the United 
States. This testimony deals specifically with title II efforts. In 
1984, Congress amended the Salinity Control Act and directed that the 
Secretary of the Interior develop a comprehensive program for 
minimizing salt contributions to the Colorado River from lands 
administered by BLM. In 2000, Congress reiterated its directive to the 
Secretary and requested a report on the implementation of BLM's program 
(Public Law 106-459). In 2003, BLM employed a Salinity Coordinator to 
increase BLM efforts in the Colorado River Basin and to pursue salinity 
control studies and to implement specific salinity control practices. 
With a significant portion of the salt load of the Colorado River 
coming from BLM administered lands, the BLM portion of the overall 
program is essential to the success of the effort. Inadequate BLM 
salinity control efforts will result in significant additional economic 
damages to water users downstream.
    Concentration of salt in the Colorado River causes approximately 
$376 million in quantified damages and significantly more in 
unquantified damages in the United States and results in poor water 
quality for United States users. Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector;
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector;
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector; and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum is charged with reviewing the 
Colorado River's water quality standards for salinity every 3 years. In 
so doing, it adopts a Plan of Implementation consistent with these 
standards. The level of appropriation requested in this testimony is in 
keeping with the adopted Plan of Implementation. If adequate funds are 
not appropriated, significant damages from the higher salinity 
concentrations in the water will be more widespread in the United 
States and Mexico.
    In summary, implementation of salinity control practices through 
BLM has proven to be a cost effective method of controlling the 
salinity of the Colorado River and is an essential component to the 
overall Colorado River Basin Salinity Control Program. Continuation of 
adequate funding levels for salinity control within the Soil, Water and 
Air Program will assist in preventing the water quality of the Colorado 
River from further degradation and significant increases in economic 
damages to municipal, industrial and irrigation users. A modest 
investment in source control pays huge dividends in improved drinking 
water quality to nearly 40 million Americans.
                                            Don A. Barnett,
                                                Executive Director.
                                 ______
                                 
Prepared Statement of the Colorado River District--Colorado River Water 
                         Conservation District
                                                     April 2, 2014.
Hon. Jack Reed, Chairman,
Hon. Lisa Murkowski, Ranking Member,
Subcommittee on Interior, Environment, and Related Agencies, Committee 
        on Appropriations, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.

    Dear Chairman Reed and Senator Murkowski: I am requesting your 
support for fiscal year 2015 appropriations to the Fish and Wildlife 
Service (FWS) for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program 
consistent with the President's recommended budget. I request that the 
subcommittee:

  --Appropriate $706,300 in ``Conservation and Restoration'' funds 
        (Resource Management Appropriation; Ecological Services 
        Activity; Conservation and Restoration Subactivity within the 
        $124,253,000 item entitled ``Conservation and Restoration'') to 
        the U.S. Fish and Wildlife Service (FWS) to allow FWS for 
        fiscal year 2015 to continue its essential participation in the 
        Upper Colorado River Endangered Fish Recovery Program.
  --Appropriate $200,000 in FWS ``Conservation and Restoration'' funds 
        for the San Juan River Basin Recovery Implementation Program to 
        meet expenses incurred by FWS's Region 2 in managing the San 
        Juan Program's diverse recovery activities.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $48,617,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.

    I request the subcommittee's assistance in assuring fiscal year 
2015 funding to allow the FWS to continue its financial and personnel 
participation in these two vitally important recovery programs. I 
recognize and appreciate that the past support and assistance of your 
subcommittee has greatly facilitated the success of these ongoing 
efforts.
            Sincerely,
                                                 Eric Kuhn,
                                                   General Manager.
                                 ______
                                 
          Prepared Statement of the Colorado Springs Utilities
                                                    April 14, 2014.
Hon. Jack Reed, Chairman,
Hon. Lisa Murkowski, Ranking Member,
Subcommittee on Interior, Environment, and Related Agencies, Committee 
        on Appropriations, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.

    Dear Chairman Reed and Senator Murkowski: I am requesting your 
support for fiscal year 2015 appropriations to the Fish and Wildlife 
Service (FWS) for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program 
consistent with the President's recommended budget. I request that the 
subcommittee:

  --Appropriate $706,300 in ``Conservation and Restoration'' funds 
        (Resource Management Appropriation; Ecological Services 
        Activity; Conservation and Restoration Subactivity within the 
        $124,253,000 item entitled ``Conservation and Restoration'') to 
        the U.S. Fish and Wildlife Service (FWS) to allow FWS for 
        fiscal year 2015 to continue its essential participation in the 
        Upper Colorado River Endangered Fish Recovery Program.
  --Appropriate $200,000 in FWS ``Conservation and Restoration'' funds 
        for the San Juan River Basin Recovery Implementation Program to 
        meet expenses incurred by FWS's Region 2 in managing the San 
        Juan Program's diverse recovery activities.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $48,617,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.

    I request the subcommittee's assistance in assuring fiscal year 
2015 funding to allow the FWS to continue its financial and personnel 
participation in these two vitally important recovery programs. I 
recognize and appreciate that the past support and assistance of your 
subcommittee has greatly facilitated the success of these ongoing 
efforts.
            Sincerely,
                                          Brett W. Gracely.
                                 ______
                                 
 Prepared Statement of the Columbia River Inter-Tribal Fish Commission
    Mr. Chairman and members of the subcommittee, the Columbia River 
Inter-Tribal Fish Commission (CRITFC) is pleased to share its view on 
the Department of Interior, Bureau of Indian Affairs' (BIA) fiscal year 
2015 budget. We have specifically identified the following funding 
needs and one request for review:
  --$7.7 million for Columbia River Fisheries Management under Rights 
        Protection Implementation, ($3.1 million above the request), to 
        meet the base program funding needs of the Commission and the 
        fisheries programs of our member tribes;
  --$4.8 million for U.S./Canada Pacific Salmon Treaty, ($500k above 
        the request), to implement obligations under the recent 
        agreements adopted by the U.S. and Canada;
  --$500 thousand for Youth Program Initiatives (supports the request);
  --$352.5 million for Public Safety and Justice, of which $716,00 
        supports enforcement of Federal laws at In-Lieu and Treaty 
        Fishing Access Sites on the Columbia River;
  --$3.1 million in Rights Protection Implementation and $10 million 
        for Cooperative Landscape Conservation to assist tribes in 
        climate change adaptation and planning; and
  --$1.25 million to the Office of the Secretary of Interior's 
        Leadership and Administration Activity for Federal/Tribal 
        collaborative analytical work and consultations during domestic 
        reconsideration of the Columbia River Treaty.
                         history and background
    CRITFC was founded in 1977 by the four Columbia River Treaty 
tribes: Confederated Tribes of the Umatilla Indian Reservation, 
Confederated Tribes of the Warm Springs Reservation of Oregon, 
Confederated Tribes and Bands of the Yakama Nation, and the Nez Perce 
Tribe. CRITFC provides coordination and technical assistance to these 
tribes in regional, national and international efforts to protect and 
restore our shared salmon resource and the habitat upon which it 
depends. Our collective ancestral homeland covers nearly one-third of 
the entire Columbia River Basin in the United States, an area the size 
of the State of Georgia.
    In 1855, the U.S. entered into treaties with the four tribes \1\ 
whereupon we ceded millions of acres of our homelands to the United 
States. In return, the United States pledged to honor our ancestral 
rights, including the right to fish. Unfortunately, a perilous history 
brought the salmon resource to the edge of extinction with 12 salmon 
and steelhead populations in the Columbia Basin listed under the 
Endangered Species Act (ESA).
---------------------------------------------------------------------------
    \1\ Treaty with the Yakama Tribe, June 9, 1855, 12 Stat. 951; 
Treaty with the Tribes of Middle Oregon, June 25, 1855, 12 Stat. 963; 
Treaty with the Umatilla Tribe, June 9, 1855, 12 Stat. 945; Treaty with 
the Nez Perce Tribe, June 11, 1855, 12 Stat. 957.
---------------------------------------------------------------------------
    The CRITFC tribes are leaders in fisheries restoration and 
management working in collaboration with State, Federal and private 
entities. We are principals in the region's efforts to halt the decline 
of salmon, lamprey and sturgeon populations and rebuild them to levels 
that support ceremonial, subsistence and commercial harvests. To 
achieve these objectives, our actions emphasize ``gravel-to-gravel'' 
management including supplementation of natural stocks, healthy 
watersheds and collaborative efforts.
    The programs in this testimony are carried out pursuant to the 
Indian Self-Determination and Assistance Act. Our programs are 
integrated as much as possible with State and Federal salmon management 
and restoration efforts.
     columbia river fisheries management within rights protection 
                             implementation
    We are succeeding. The salmon, returning in greater numbers, tell 
us so. But along with success, management issues increase the 
complexity, requiring greater data collection and more enforcement 
burden. Funding shortfalls prohibit the achievement of tribal self-
determination goals for fisheries management, ESA recovery effort, 
protecting non-listed species, conservation enforcement and treaty 
fishing access site maintenance. We request an increase of $3.1million 
over fiscal year 2014 for a new program base of $7.7 million for 
Columbia River Fisheries Management.
    The BIA's Columbia River Fisheries Management line item is the base 
funding that supports the fishery program efforts of CRITFC and the 
four member tribes. Unlike State fish and game agencies, the tribes do 
not have access to Dingell-Johnson/Pittman-Robertson or Wallop-Breaux 
funding. The increase will be directed to support the core functions of 
the fisheries management programs of the Commission's member tribes, 
namely enforcement and harvest monitoring.
    In 2008, CRITFC and its member tribes struck three landmark 
agreements: (1) the Columbia Basin Fish Accords with Federal action 
agencies overseeing the Federal hydro system in the Columbia Basin,\2\ 
(2) a 10-Year Fisheries Management Plan with Federal, tribal and State 
parties under U.S. v. Oregon, and (3) a new Chinook Chapter of the 
Pacific Salmon Treaty.\3\ These agreements establish regional and 
international commitments on harvest and fish production efforts, 
commitments to critical investments in habitat restoration, and 
resolving contentious issues by seeking balance of the many demands 
within the Columbia River basin. While through these agreements the 
tribes have committed to substantial on-the-ground projects with some 
additional resources from the Bonneville Power Administration, the 
overall management responsibilities of the tribal programs have grown 
exponentially without commensurate increases in BIA base funding 
capacity. For example, the tribes' leadership in addressing Pacific 
Lamprey declines is this species' best hope for survival and recovery. 
The tribes' are also addressing unmet mitigation obligations, such as 
fish losses associated with the John Day and The Dalles dams.
---------------------------------------------------------------------------
    \2\ The Nez Perce Tribe is not a Columbia Basin Fish Accord 
signatory.
    \3\ See ``Salmon Win A Triple Crown'' at http://www.critfc.org/
text/wana_109.pdf.
---------------------------------------------------------------------------
    The funding provided through the BIA to support tribal fishery 
programs is crucial to the tribes' and CRITFC's ability to successfully 
carry out tribal rights protection, including these agreements, by 
providing sound technical, scientific and policy products to diverse 
legal, public and private forums.
       u.s./canada pacific salmon treaty under rights protection 
                             implementation
    The U.S. and Canada entered into the Pacific Salmon Treaty in 1985 
to conserve and rebuild salmon stocks, provide for optimum production, 
and control salmon interceptions. The treaty established the Pacific 
Salmon Commission (PSC) as a forum to collaborate on intermingled 
salmon stocks. The U.S. Section of the PSC annually develops a 
coordinated budget for tribal, State and Federal programs to ensure 
cost and program efficiencies. Congress increased funding in 2000 in 
order to implement the 1999 Agreement, but funding has significantly 
eroded since then. In 2008, the U.S. and Canada adopted a new long term 
treaty agreement after nearly 3 years of negotiations. Both parties 
agreed to significant new management research and monitoring activities 
to ensure the conservation and rebuilding of the shared salmon 
resource.
    For tribal participants in the Pacific Salmon Treaty, the U.S. 
Section has identified a program need of $4,800,000 for participating 
tribes. These funds provide for direct tribal participation with the 
Commission, panels and technical committees. The funding enables the 
tribes to assist in treaty implementation and facilitates management 
protecting trust resources. This funding maintains tribal resource 
assessment and research programs structured to fulfill required treaty 
implementation activities. The fiscal year 2015 recommended level for 
this program is an increase of $520,000 above the fiscal year 2014 
enacted level. Our request correlates to the U.S. Section's 
recommendation.
                       youth program initiatives
    The Columbia River Treaty tribes place an emphasis on preparing our 
youth for careers in Natural Resources Management. However, our tribes, 
like tribes nationwide, struggle to overcome barriers to Science, 
Technology, Engineering, and Mathematics achievement, high drop-out 
rates, and low percentages of students pursuing natural resources 
majors. Our Place-Based Workforce Development Initiative seeks to 
address these barriers through a blend of technical assistance, inter 
and externship opportunities and a summer Salmon Camp.
 public safety and justice, criminal investigations and police services
    Public safety continues to be a high priority for CRITFC and our 
tribes. Our conservation and criminal enforcement officers are the 
cornerstone of public safety in the popular and heavily used Columbia 
Gorge area patrolling 150 miles of the Columbia River, including its 
shorelines in Oregon and Washington. In this area we are the primary 
provider of enforcement services at 31 fishing access sites developed 
pursuant to Public Law 87-14 and Public Law 100-581 for use by treaty 
fishers. CRITFC's officers have obtained BIA Special Law Enforcement 
Commissions to aid our efforts protecting and serving tribal members 
and Federal trust properties along the Columbia River. We are also very 
pleased that the BIA has created Office of Justice Services (OJS) 
District 8 and housed it in Portland. CRITFC entered into a Public Law 
93-638 contract with BIA in February 2011 for enforcement services 
along the Columbia River. That contract currently provides funding for 
two enforcement positions.
    It's important that CRITFC build its enforcement capacity above the 
level of the two officers currently funded by the BIA Office of Justice 
Services. Our immediate priority is to add two officers. Funding for 
two additional officers would cost $313,560 plus indirect. Full funding 
for this project would be a total budget of $716,053 plus indirect 
which would support four officers, a sergeant and a dispatcher.
                   cooperative landscape conservation
    The Treaty Right is feeling the effects of Climate Change. Shifts 
are occurring in salmon run timing, and berry and root ripening cycles. 
We support the President's request of $10 million to implement the 
Department of the Interior (DOI) Climate Change Policy for Indian 
Tribes, Alaska Natives and Native Hawaiians. Specifically, these funds 
support the BIA Tribal Climate Change Program which will integrate 
climate change adaptation strategies into its policies and planning for 
support for the tribes, Alaska Natives and Native Hawaiians. The BIA 
needs these resources to support active engagement of tribes, Alaska 
Natives and Native Hawaiians in the Landscape Conservation Cooperatives 
and the Climate Science Centers and to ensure adequate Government-to-
Government consultation on all issues with climate effects.
                  columbia river treaty modernization
    The Columbia Basin tribes are a coalition of 15 tribes whose 
rights, as well as management authorities and responsibilities, are 
substantially affected by the implementation of the Columbia River 
Treaty. In order for treaty modernization to succeed, the Columbia 
Basin tribes need to continue to coordinate internally and with other 
regional and national entities, as well as continue their analytical 
evaluation of the treaty including the impacts of climate change, while 
the State Department evaluates the Regional Recommendation and 
completes their national interests review.
          a request for review of salmon mass-marking programs
    CRITFC endeavors to secure a unified hatchery strategy among 
tribal, Federal and State co-managers. To that end, we seek to build 
hatchery programs using the best available science and supported by 
adequate, efficient budgets. A congressional requirement, delivered 
through prior appropriations language, to visibly mark all salmon 
produced in federally funded hatcheries should be reconsidered. We have 
requested that Federal mass-marking requirements, and correlated 
funding, be reviewed for compatibility with our overall objective of 
ESA delisting and with prevailing laws and agreements: U.S. v. Oregon, 
Pacific Salmon Treaty and the Columbia Basin Fish Accords.\4\ Salmon 
managers should be provided the latitude to make case-by-case decisions 
whether to mark fish and, if so, in the appropriate percentages.
---------------------------------------------------------------------------
    \4\ Letter from Bruce Jim, Chairman, Columbia River Inter-Tribal 
Fish Commission to U.S. House of Representatives Chairmen Frank Wolf, 
Mike Simpson and Doc Hastings, July 11, 2011.
---------------------------------------------------------------------------
    In summary, through combined efforts of the four tribes supported 
by a staff of experts, we are proven natural resource managers. Our 
activities benefit the region while also essential to the U.S. 
obligation under treaties, Federal trust responsibility, Federal 
statutes, and court orders. We ask for your continued support of our 
efforts. We are prepared to provide additional information you may 
require on the Department of Interior's BIA budget.
                                 ______
                                 
 Prepared Statement of the Congressional Fire Services Institute, the 
 International Association of Fire Chiefs, and the National Volunteer 
                              Fire Council
Hon. Barbara Mikulski, Chairwoman,
Committee on Appropriations,
U.S. Senate, Capitol Building, Washington, DC.

Hon. Richard Shelby, Ranking Member,
Committee on Appropriations,
U.S. Senate, Capitol Building, Washington, DC.

Hon. Jack Reed, Chairman,
Committee on Appropriations, Subcommittee on Interior, Environment, and 
        Related Agencies, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.

Hon. Lisa Murkowski, Ranking Member,
Committee on Appropriations, Subcommittee on Interior, Environment, and 
        Related Agencies, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.

    Dear Chairwoman Mikulski, Ranking Member Shelby, Chairman Reed and 
Ranking Member Murkowski: Our organizations request that you include a 
minimum of $16 million in funding for the Volunteer Fire Assistance 
(VFA) grant program in fiscal year 2015 appropriations. VFA provides 
matching funds to volunteer fire departments protecting communities 
with 10,000 or fewer residents to purchase equipment and training for 
wildland fire suppression.
    According to the President's fiscal year 2015 budget justification 
for the U.S. Forest Service, volunteer fire departments provide nearly 
80 percent of initial attack on wildland fires in the United States. 
Unfortunately, these departments frequently lack the financial 
resources to adequately equip and train their firefighters to engage in 
wildland fire suppression. For example, the Third Needs Assessment of 
the U.S. Fire Service report published in 2011 by the National Fire 
Protection Association found that 68 percent of all fire departments 
that are responsible for wildland firefighting have not formally 
trained all their personnel to the recommended national standard.
    When local fire departments are unable to suppress wildland fires 
during the initial phase, the fires spread and State and Federal 
firefighters are deployed. This is an extremely expensive process that 
can cost the Federal Government anywhere from hundreds of millions of 
dollars to more than $1 billion in fire suppression costs alone in a 
single year depending on the severity of the fire season.
    The costs of wildland fire suppression have been increasing 
steadily as commercial and residential development pushes further into 
the wildland/urban interface (WUI). The National Interagency Fire 
Center reports that in 2012, increased building in the WUI led to an 
above average number of structures burning in wildland fires. 
Throughout the year, a total of 4,244 structures were lost--2,200 of 
which were residential structures. With suppression costs rising, all 
stakeholders must increase efforts to prevent wildland fires, respond 
to wildland fires quickly before they become uncontrollable, and 
educate communities in the wildland/urban interface so that they can 
take precautions to minimize losses due to wildland fire.
    In recent years, Federal funding for volunteer fire departments to 
prepare for wildland fire suppression has been dwindling. VFA has seen 
funding reduced from $16 million in fiscal year 2010 to $15.662 million 
in fiscal year 2011 and approximately $13 million in fiscal year 2012, 
fiscal year 2013 and fiscal year 2014. Additionally, the Rural Fire 
Assistance (RFA) program, which had historically been funded at $7 
million to $10 million per year and provided matching grants to fire 
departments that agreed to assist in responding to wildland fires on 
Federal lands, hasn't been funded since fiscal year 2010.
    Federal support is critical to ensure volunteer fire departments 
are able to safely and effectively respond to wildland fires. Our 
organizations recognize the challenges that Congress faces in trying to 
adequately fund a range of important programs in today's difficult 
budget environment. At the same time, we believe that reducing the 
funding for programs like RFA and VFA from a combined $23 million in 
fiscal year 2010 to $13.025 million in fiscal year 2014 leaves 
volunteer fire departments with fewer resources to prepare to respond 
to wildland fires and will lead to higher Federal spending on fire 
suppression in the long run. We urge you to provide a minimum of $16 
million for VFA in fiscal year 2015.
                                 ______
                                 
              Prepared Statement of The Conservation Fund
    Chairman Reed, Ranking Member Murkowski, and Members of the 
Appropriations Subcommittee on Interior, Environment, and Related 
Agencies, thank you for this opportunity to submit outside witness 
testimony on behalf of The Conservation Fund (TCF). The Conservation 
Fund supports full funding of the President's budget request of $900 
million in fiscal year 2015 for the Land and Water Conservation Fund 
(LWCF) discretionary and mandatory proposals, which includes the 
Federal land acquisition programs of the Bureau of Land Management 
($89.397 million), National Park Service ($171.041 million), U.S. Fish 
and Wildlife Service ($168.772 million), U.S. Forest Service ($127.673 
million), as well as three State grant programs: the U.S. Fish and 
Wildlife Service's Cooperative Endangered Species Conservation Fund 
($100 million); National Park Service's State Conservation Grants ($100 
million); and the U.S. Forest Service's Forest Legacy Program ($100 
million). TCF also supports full funding of the President's request for 
the U.S. Fish and Wildlife Service-North American Wetlands Conservation 
Fund ($34.145 million); the U.S. Forest Service--Community Forest and 
Open Space Conservation Program ($1.683 million); the Department of 
Interior--Natural Resource Damage Assessment and Restoration Program 
($7.676 million); and the Bureau of Indian Affairs--Operations of 
Indian Programs: Trust--Real Estate Services ($127.002 million). 
Additionally, TCF supports the proposals for the Federal Land 
Transaction Facilitation Act reauthorization, the National Park Service 
Centennial Initiative, and the U.S. Forest Service Wildland Disaster 
Fund Act.
    The Conservation Fund (TCF) is a national, non-profit conservation 
organization dedicated to conserving America's land and water legacy 
for future generations. Established in 1985, TCF works with landowners; 
Federal, State and local agencies; and other partners to conserve our 
Nation's important lands for people, wildlife and communities. To date, 
TCF has helped our partners to conserve over 7.4 million acres. These 
accomplishments are due, in large measure, to the leadership of this 
subcommittee over many years to appropriate funds to acquire lands for 
future generations, working forests, recreational opportunities, 
wildlife habitat, and many other benefits.
    Below are highlights of some benefits of the LWCF and land 
acquisition programs. While these projects show the tremendous 
diversity of benefits of land acquisition for the public, they have one 
thing in common--each of these projects is driven by landowners. Many 
farmers, ranchers and forestland owners have significant financial 
equity in their land. By enabling a landowner to sell a conservation 
easement or fee title, the LWCF program provides landowners with funds 
to stay in business, reinvest in businesses, or meet other financial 
goals.
    As the subcommittee crafts its Interior, Environment and Related 
Agencies Appropriations bill, there are several key points we 
respectfully request you to consider, listed below. Each of the funding 
amounts below reflects the fiscal year 2015 President's budget request.
    1. Land and Water Conservation Fund (LWCF) at $900 million.--
Funding at the recommended $900 million is critical for the Nation's 
premier conservation program, a bipartisan agreement from almost 50 
years ago. As the lists of ready LWCF projects below show, there are 
many opportunities that will be lost without this funding. LWCF 
represents a promise to the Nation that proceeds from offshore oil and 
gas development will help protect the public trust and these projects 
will fulfill that mission.
    The LWCF budget includes Collaborative Landscape Planning (CLP) 
areas that we ask you to support: National Trails System, Florida-
Georgia Longleaf Pine Initiative, South Carolina Longleaf Pine, High 
Divide, Greater Yellowstone, Grasslands/Prairie Potholes, California 
Southwest Desert, and Upper Rio Grande. In each CLP, several Federal 
land agencies are partnering with States, local groups, non-profits and 
private interests to support conservation and make a lasting impact.
    2. Bureau of Land Management (BLM) Land Acquisition at $89.397 
million.--The BLM and its National Conservation Lands provide some of 
our Nation's best recreation and historic areas. From fishing at the 
North Platte River in Wyoming to exploring Pueblo ruins at Canyons of 
the Ancients in Colorado, we request funding for the following 
projects:
  --Upper Snake South Fork, Idaho: $1 million (#2); and $1.9 million 
        (#14)
  --North Platte River Special Recreation Management Area (SRMA), 
        Wyoming: $1.2 million (#5)
  --Canyons of the Ancients National Monument, Colorado: $1.2 million 
        (#6)
  --CLP National Trails-Lewis and Clark National Historic Trail (NHT), 
        Montana: $1.032 mil. (#7); and $1.148 mil. (#17)
  --McInnis Canyon National Conservation Area (NCA), Colorado: $210,000 
        (#8), and $1.625 million (#18)
  --Cascade-Siskiyou National Monument, Oregon: $906,000 (#12); and $5 
        million (#21)
  --Upper Missouri River National Wild and Scenic River, Montana: 
        $3.408 million (#23)
  --Aqua Fria National Monument, Arizona: $3.3 million (#24)
  --Colorado River Special Recreation Management Area (SRMA), Colorado: 
        $2 million (#27)
  --CLP High Divide--Oregon National Historic Trail (NHT), Idaho: 
        $440,000 (#28)
  --CLP High Divide--Upper Madison, Montana: $868,000 (#28)
    3. National Park Service (NPS) Federal Land Acquisition at $171.041 
million.--Hosting more than 275 million visitors every year, the over 
400 National Park units provide an economic boost to their local 
communities and those employed directly and indirectly. Funding for NPS 
LWCF will help protect key access points for recreation, historic 
areas, trails and more, including along the Captain John Smith National 
Historic Trail and the Appalachian National Scenic Trail. We 
respectfully request funding for the following projects:
  --CLP National Trails--Captain John Smith National Historic Trail 
        (NHT), Virginia: $4 million (#4), and $2 million, (#13)
  --CLP National Trails--Appalachian National Scenic Trail (NST), New 
        Hampshire, $200,000 (#13)
  --Olympic National Park, Washington: $5.22 million (#14)
  --CLP High Divide--Big Hole National Battlefield, Montana: $150,000 
        (#21)
    4. U.S. Fish and Wildlife Service (FWS) Land Acquisition at 
$168.772 million.--National Wildlife Refuges (NWR) are our Nation's 
protectors of clean water, clean air, abundant wildlife and world-class 
recreation. Funding for fiscal year 2015 FWS LWCF will help preserve 
grizzly bear territory of the Rocky Mountain Front in Montana and 
protect key longleaf pine at Okefenokee National Wildlife Refuge in 
Georgia. We respectfully request funding for the following projects:
  --Dakota Tallgrass Prairie Wildlife Management Area (WMA), North 
        Dakota/South Dakota: $3.887 million (#2), and $3.887 million 
        (#11)
  --Dakota Grassland Conservation Area, North Dakota/South Dakota: $7 
        million (#3) and $7 million (#12)
  --Rocky Mountain Front Conservation Area, Montana: $2 million (#5)
  --Everglades Headwaters National Wildlife Refuge (NWR) and 
        Conservation Area, Florida: $3 million (#6) and $5 million 
        (#14)
  --CLP Florida-Georgia Longleaf Pine--Okefenokee National Wildlife 
        Refuge (NWR), Georgia: $4 million (#9)
  --Flint Hills Legacy Conservation Area, Kansas: $1 million (#22)
  --Lower Rio Grande Valley National Wildlife Refuge (NWR), Texas: $2 
        million (#23)
  --CLP Grasslands/Prairie Potholes--Dakota Tallgrass Prairie Wildlife 
        Management Area (WMA): $3 million (#27)
  --CLP Grasslands/Prairie Potholes--Dakota Grasslands Conservation 
        Area: $7.5 million (#27)
    5. U.S. Forest Service (USFS) Land Acquisition at $127.673 
million.--USFS LWCF funds help with forest management by protecting key 
inholdings and reducing fire threats. From the longleaf pine in the 
southeast to the North Carolina Threatened Treasures to the Missouri 
Ozarks, we are working with willing landowners at the following project 
areas and respectfully request funding:
  --CLP National Trails--Appalachian National Scenic Trail (NST), 
        Tennessee: $330,000 (#4); and $2.72 million (#32)
  --North Carolina Threatened Treasures, North Carolina: $2.1 million 
        (#5), and $3.5 million (#30)
  --CLP Florida-Georgia Longleaf Pine Initiative--Osceola, Florida: $5 
        million (#7); and $3.677 million (#34)
  --Missouri Ozarks Current River, Mark Twain National Forest, 
        Missouri: $1 million (#16)
  --Tennessee Mountains Trails and Waters, Tennessee: $3.7 million 
        (#21)
  --Greater Yellowstone Area, Bridger-Teton National Forest, Wyoming: 
        $3 million (#25)
  --Georgia-Disappearing Wildlands of Georgia Mountains and Rivers, 
        Georgia: $2.7 million (#27)
  --Great Lakes Northwoods, Superior National Forest, Minnesota: $3 
        million (#33)
  --Cube Cove, Tongass National Forest, Alaska: $3 million (#38)
    6. LWCF State Grant Programs: FWS-Section 6 Cooperative Endangered 
Species Fund, NPS-State Conservation Grants, and USFS-Forest Legacy.--
We encourage the subcommittee to fully fund fiscal year 2015 
President's Budget request for:
  --FWS-Section 6 Cooperative Endangered Species Conservation Fund: 
        $100 million
  --NPS-State Conservation Grants: $100 million
  --USFS-Forest Legacy Program: $100 million. Project highlights 
        include:
    --Bobcat Ridge, Texas, $2.37 million (#3 ranking)
    --East Fork of the French Broad Headwater II, North Carolina, $3.5 
            million (#9)
    --Liberty Hill, South Carolina, $2 million (#21)
    --Sherwood Forest, Tennessee, $3 million (#24)
    --Windham Region Working Forest, Vermont, $1.5 million (#34)
    7. Priority Land Acquisition Programs.--TCF encourages the 
Committee to fund:
  --FWS-North American Wetlands Conservation Fund: $34.145 million
  --USFS-Community Forest and Open Space Conservation Program: $1.683 
        million
    8. Department of Interior--Natural Resource Damage Assessment and 
Restoration Program at $7.676 million.--The Restoration Program leads 
the national response for recovery of natural resources that have been 
injured or destroyed as a result of oil spills or releases of other 
hazardous substances. Recoveries from responsible parties can only be 
spent to implement restoration plans developed by the Trustee Council 
for each incident. These funds are 100 percent private and represent 
the amount needed to restore environmental resources or compensate for 
lost public use since the damage in question. The fiscal year 2015 
funds would allow the Program to add carefully targeted staff allocated 
to Interior bureaus and offices through its Restoration Support Unit in 
order to accelerate restoration activities.
    9. Bureau of Indian Affairs (BIA)--Operations of Indian Programs: 
Trust-Real Estate Services at $127.002 million.--We support the BIA 
Trust-Real Estate Services program, including funding to support the 
Klamath Basin Restoration Agreement.
    10. Reauthorization of the Federal Land Transaction Facilitation 
Act (H.R. 2068) (S. 368).--We support the fiscal year 2015 President's 
budget request to reauthorize the Federal Land Transaction Facilitation 
Act (FLTFA) an important program that provides conservation funding for 
the West, at no cost to the taxpayer. Through FLTFA's ``land for land'' 
program, BLM sells land identified for disposal to ranchers, farmers, 
businesses and others to consolidate land ownership, create jobs, 
support economic development and increase revenues to counties by 
putting land on the tax rolls. These sales generate funding for BLM, 
USFS, NPS and USFWS to acquire critical inholdings from willing sellers 
in certain designated areas, which often complements LWCF, North 
American Wetlands Conservation Act (NAWCA) and other public and private 
funding. The sales provide revenue for Federal agencies to acquire 
high-priority lands with important recreational access for hunting, 
fishing, hiking, boating, other activities, as well as properties with 
historic, scenic and cultural resources. Over 150 groups are working 
together to support Congress' efforts to reauthorize FLTFA.
    11. Wildlife Disaster Funding Act (H.R. 3992)(S. 1875) and Avoiding 
Transfers to Wildland Fire Suppression.--We support the proposal in the 
President's budget that would avoid transferring funds Congress 
appropriates to other priority programs to fund wildland fire 
suppression. We support language mirroring the bipartisan Wildfire 
Disaster Funding Act (S. 1875 & H.R. 3992). This important change to 
fire funding at the Federal level is needed to prevent future transfers 
and ensure that the USFS and Department of the Interior can achieve 
their land management objectives by implementing activities needed to 
address the growing buildup of hazardous fuels on Federal lands.
    The Conservation Fund stands ready to work with you to secure full 
and consistent funding for the LWCF, Forest Legacy, and the other 
critically important programs that help protect the environment, 
economies, forests, and community values across our Nation. Thank you 
for the opportunity to provide this testimony and your consideration of 
our request.
                                 ______
                                 
 Prepared Statement of the Cooperative Alliance for Refuge Enhancement
    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee: Thank you for the opportunity to submit comments on the 
fiscal year 2015 (fiscal year 2015) Interior Appropriations bill. We 
sincerely thank you for the desperately needed funding increase for 
fiscal year 2014 and respectfully request a funding level of $476.4 
million for the Operations and Maintenance accounts of the National 
Wildlife Refuge System for fiscal year 2015. The National Wildlife 
Refuge System stands alone as the only land and water conservation 
system with a mission that prioritizes wildlife and habitat 
conservation alongside human, wildlife-dependent recreation. Since 
1995, the Cooperative Alliance for Refuge Enhancement (CARE) has worked 
to showcase the value of the Refuge System and to secure a strong 
congressional commitment for conserving these special landscapes. Found 
in every U.S. State and territory, national wildlife refuges conserve a 
diversity of America's environmentally sensitive and economically vital 
ecosystems, including oceans, coasts, wetlands, deserts, tundra, 
prairie, and forests.
    This testimony is submitted on behalf of CARE's 23 member 
organizations, which represent over 16 million American hunters, 
anglers, bird and wildlife watchers, scientists and concerned citizens 
passionate about wildlife conservation and related recreational 
opportunities.

American Birding Association
American Fisheries Society
American Sportfishing Association
Association of Fish and Wildlife Agencies
Congressional Sportsmen's Foundation
Defenders of Wildlife
Ducks Unlimited, Inc.
Izaak Walton League of America
Marine Conservation Institute
National Audubon Society
National Rifle Association
National Wildlife Federation
National Wildlife Refuge Association
Safari Club International
The Corps Network
The Nature Conservancy
The Wilderness Society
The Wildlife Society
Theodore Roosevelt Conservation Partnership
Trout Unlimited
U.S. Sportsmen's Alliance
Wildlife Forever
Wildlife Management Institute

    The National Wildlife Refuge System, established by President 
Theodore Roosevelt in 1903, protects approximately 150 million acres on 
562 national wildlife refuges and 38 wetland management districts 
across the U.S. From the Virgin Islands to Guam and the Pacific marine 
national monuments, the Refuge System spans 12 time zones and protects 
America's natural heritage in habitats ranging from arctic tundra to 
arid desert, boreal forest to sagebrush grassland, and prairie wetlands 
to coral reefs. With a refuge within an hour's drive from most 
metropolitan areas, the Refuge System attracts a growing number of 
visitors each year (46.5 million in fiscal year 2013) with 
opportunities for hunting, fishing, wildlife observation, photography, 
kayaking, and outdoor education. In fact, from 2006-2011, during our 
Nation's greatest economic recession since the Great Depression, 
visitation to our national wildlife refuges increased by 30 percent.
    According to a report issued by the U.S. Fish and Wildlife Service 
in late 2013, ``Banking On Nature'', these visitors generated $2.4 
billion annually to local and regional economies--on average returning 
$4.87 in economic activity for every $1 appropriated--and support 
35,000 U.S. jobs. In addition, refuges provide major environmental and 
health benefits, such as filtering storm water before it is carried 
downstream and fills municipal aquifers; reducing flooding by capturing 
excess rainwater; and minimizing the damage to coastal communities from 
storm surges. According to a 2011 report by Southwick Associates, 
refuges generate more than $32.3 billion in these ecosystem services 
each year, a return of over $65 for every $1 appropriated by Congress.
    At minimum, CARE estimates that the Refuge System needs at least 
$900 million in annual operations and maintenance funding to meet 
conservation targets, including wildlife management and habitat 
restoration and opportunities for the public to recreate. 
Unfortunately, inadequate funding threatens the System's ability to 
carry out its mission, mandated by the National Wildlife Refuge System 
Improvement Act of 1997. Between fiscal year 2010 and fiscal year 2013, 
Refuge System funding was reduced by $50 million--a 10 percent cut. As 
a result, System performance levels dropped substantially.
    The fiscal year 2013 Refuge Annual Performance Plan (RAPP) reports 
revealed falling performance rates in several important System 
categories, including habitat condition, habitat restoration, 
recreation opportunities, volunteerism, and scientific research. The 
following data shows the systemic impact of budget cuts from fiscal 
year 2010-fiscal year 2013.

Measures for which performance declined more than 50 percent from 
fiscal year 2010 to fiscal year 2013

  --Acres of forest/shrubland improvement (-51 percent)
  --Wetland acres restored (-77 percent)
  --Open water acres restored (84 percent)
  --Acres of non-native, invasive plants controlled (-60 percent)

Measures for which performance declined 25-50 percent from fiscal year 
2010 to fiscal year 2013

  --Number of invasive animal populations controlled during the year 
        (-46 percent)
  --Acres treated for non-native, invasive plants (-37 percent)

Measures for which performance declined 15-25 percent from fiscal year 
2010 to fiscal year 2013

  --Acres of moist soil managed (-21 percent)
  --Number of population management actions (-23 percent)
  --Acres of mowed/hayed grasslands (-20 percent)
  --Acres managed by ``other'' techniques (-15 percent)
  --Riparian miles restored (-19 percent)
  --Number of research studies (-15.5 percent)
  --Number of surface water acres impaired according to State 303d 
        listings

Measures for which performance declined 3-15 percent from fiscal year 
2010 to fiscal year 2013

  --Uplands receiving needed management (-9 percent)
  --Number of Inventory & Monitoring Surveys accomplished (-14 percent)
  --Open water receiving needed management (-5 percent)
  --Total refuge acres receiving needed management (-6 percent)
  --Restoration deferred on upland acres (-4.5 percent)
  --Restoration deferred on wetland acres (-12.5 percent)
  --Acres of water-level manipulation (-8 percent)
  --Upland game hunt visits (-6 percent)
  --Big game hunt visits (down 3.1 percent from fiscal year 2011 to 
        fiscal year 2013)
  --Total hunt visits (down 3 percent from fiscal year 2011 to fiscal 
        year 2013)
  --Fishing visits (-3 percent)
  --Number of volunteers (-8.7 percent)
  --Volunteer hours (down 3 percent from fiscal year 2011 to fiscal 
        year 2013)
  --Total ``other'' recreational participants (-7 percent)

    As habitat management declines, the System's fragile ecosystems are 
subject to opportunistic invasive species. And the foothold they gain 
in refuge lands can quickly transfer to adjacent private and State 
lands; an issue of great concern in places like southeastern Idaho 
where the CARE group visited in 2012. Between fiscal year 2010 and 
fiscal year 2013, the System treated 37 percent less acreage for 
invasive plants and, sadly, saw a 60 percent drop in acreage where 
invasive plants were successfully controlled. One step forward and 
several steps back is an inefficient way to manage the Refuge System 
and threatens years of cooperative efforts with partners and 
landowners.
    Of particular concern to CARE is the drop in hunting, fishing and 
other recreational visits, which include bird and wildlife watching, 
photography, hiking and kayaking. Due to staffing cuts, refuges are 
unable to sustain visitor hours and public use programs. This in turn 
leads to fewer visitors and could have serious impacts on the economic 
return these refuges have in local communities. Further, investments 
made at the urging of CARE regarding the System's Inventory and 
Monitoring program are threatened. The System must have current, 
accurate data to make informed management decisions, yet the System had 
a 15.5 percent decline in research studies, and a 14 percent decline in 
essential Inventory and Monitoring Surveys conducted.
    CARE thanks the subcommittee and Congress for the much needed, 4 
percent increase ($18.5 m) in funding for fiscal year 2014. It was 
hoped that the budget increase could reverse the systemic declines in 
performance but because the System needs at least $15 million annually 
to maintain management capabilities, there is in reality, only $3.5 
million was left to address these declines. And unfortunately, 
emergencies nationwide such as natural disasters and looming endangered 
species listing could force the System to deal with these crises 
instead, further exacerbating the issues. Because of the constraints of 
the budget agreement reached in December 2013, CARE is supporting the 
President's request of $476.4 million for fiscal year 2015, although it 
is substantially less than what the System needs. Albeit roughly half 
the optimal funding amount, $476.4 million may steady falling, System 
performance levels. If the requested funding level is satisfied, the 
Refuge System can better address the following tasks:
  --Conduct management and restoration activities to provide healthy 
        habitats that attract wildlife and, in turn, draw visitors and 
        increase economic return to communities;
  --Keep refuges open and staffed so that quality recreational 
        opportunities continue to be offered to the public;
  --Maintain facilities and equipment used to serve the public and 
        manage habitat;
  --Provide law enforcement officers needed to keep refuge resources 
        and the people who come to appreciate them safe.
    Refuge visitation is growing and is expected to continue. In fact, 
from fiscal year 2010 to fiscal year 2013, the Refuge System welcomed 
6.7 percent more visitors. Wildlife observation visits, too, increased 
by 12 percent, and photography visits increased by 33 percent. However, 
refuges are losing valuable staff committed to visitors and volunteers. 
The number of volunteers dropped by 8.6 percent, particularly troubling 
considering this work force is a 20 percent boost to existing Refuge 
System staff. Refuges rely on volunteers for welcoming and greeting 
visitors, staffing refuge nature stores, maintenance, interpretation, 
and much more. Volunteer service, however, is only possible if the 
System is reasonably staffed and thus able to extend requisite 
volunteer training and oversight. Arguably, the System's mission cannot 
be fully achieved without refuge volunteers and Friends groups.
    If the Refuge System is forced to sustain further reductions, 
future RAPP reports will likely show continued decline in the System's 
conservation work and public use opportunities. Funding cuts are 
already impacting America's refuges. If annual operations and 
maintenance funding does not rise, CARE anticipates further impacts 
both within and outside of refuge boundaries, including:
  --A reduction in the treatment of invasive plants, reducing habitat 
        quality needed to support wildlife (both game and non-game) and 
        put private lands at higher risk of infestations;
  --A decrease in the use of prescribed fire, which is used on refuges 
        both to improve habitat for wildlife and to reduce hazardous 
        fuels that pose a wildfire risk to nearby communities;
  --A decline in the number and quality of visitor programs, with 
        visitor centers operating at reduced hours, and plans to add or 
        expand hunting programs at refuges being postponed;
  --Lost revenue for local communities as visitor numbers drop; 
        according to the U.S. Fish and Wildlife Service (FWS) fiscal 
        year 2013 budget justification, ``Each 1 percent increase or 
        decrease in visitation impacts $16.9 million in total economic 
        activity, 268 jobs, $5.4 million in job-related income, and 
        $608,000 in tax revenue.''
  --Elimination of ancillary functions like FWS's operation of 
        Henderson Field at Midway Atoll National Wildlife Refuge, which 
        serves as a critical emergency landing site for trans-pacific 
        flights, as well as the public's main window to the vast marine 
        national monuments.
    We urge Congress to fund the Refuge System at $476.4 m in fiscal 
year 2015--to bridge the growing gap between what the System needs and 
what it receives, enabling refuges to continue moving America forward. 
On behalf of our more than 16 million members and supporters, CARE 
thanks the subcommittee for the opportunity to submit comments on the 
fiscal year 2015 Interior Appropriations bill, and we look forward to 
meeting with you to discuss our request.
                                 ______
                                 
                Prepared Statement of The Corps Network
    Chairman Reed, Ranking Member Chocran, and members of the 
subcommittee: My name is Mary Ellen Sprenkel and I am the president and 
CEO of The Corps Network. The Corps Network is the national association 
of service and conservation corps with over 100 member organizations 
operating in all 50 States, and enrolling nearly 26,000 young people 
between the ages of 16 and 25 each year. It is The Corps Network's 
mission to provide critical leadership to the Corps movement and to our 
Nation's Service and Conservation Corps as they harness the power of 
youth and young adults to tackle some of America's greatest challenges 
and transform their own lives.
    The Corps Network requests the subcommittee's support for fiscal 
year 2015 programs that will allow public land and water management 
agencies to engage young adults and veterans to meet our Nation's 
backlogged maintenance needs, address record youth unemployment, and 
prepare a diverse group of youth to be the next generation of natural 
resource employees and stewards.
    Corps are comprehensive youth development programs that provide 
their participants with job training, academic programming, leadership 
skills, and additional support through a strategy of service that 
improves communities and the environment. They are a direct descendant 
of the Depression-era Civilian Conservation Corps, which mobilized 
about three million young men who dramatically improved the Nation's 
public lands while receiving food, shelter, education, and a precious 
$30-a-month stipend.
                         the impact in numbers
    In 2013 alone, the 100-plus members of The Corps Network 
collectively:
  --Restored and improved 240,000 acres of ecological habitat;
  --Maintained and improved 2,900 parks, gardens, and urban 
        greenspaces;
  --Built and maintained 8,000 miles of trails; and
  --Removed over 300,000 acres of invasive and exotic plant species.
      corps enroll participants reflective of america's diversity
    At present, our member Corps enroll nearly 26,000 Corpsmembers a 
year, the majority of whom come from diverse and disadvantaged 
backgrounds, and are looking for a second chance to succeed in life. 
Many Corpsmembers are ``opportunity youth,'' meaning that they have 
either dropped out of school or are unemployed at the time that they 
enter a Corps program.
    In addition to the normal work week, Corpsmembers receive a wide 
range of personal and professional development opportunities and 
services including, but not limited to: guidance from adult leaders who 
serve as mentors and role models, academic programming designed to lead 
to a high school diploma or GED, opportunities to pursue certificates 
and credentials with demonstrated value, and a modest stipend--all to 
prepare them for postsecondary education and labor market success.
    In 2012, 65 percent of all Corpsmembers were unemployed at the time 
of entry, 31 percent were not in school and did not have a GED, 61 
percent came from families below the poverty line, and 20 percent were 
formerly incarcerated or court-involved. After completing their 
programs, 54 percent of alumni said that they were employed or enrolled 
in further service. Sixty-eight percent reported that they were in 
college or a high school diploma/GED program.
                              quality work
    Each year, Corps complete hundreds of high-quality and often 
technical projects on public lands and waters. Project sponsors 
consistently express a high degree of satisfaction with the quality of 
work and productivity of the Corps. Virtually all Federal project 
partners (99.6 percent) say they would work with Corps again.
    Types of work include, but are not limited to:
  --Protecting wildlife and improving access to public land and waters;
  --Preparing communities for disasters and responding when needed;
  --Enhancing recreation on public lands;
  --Protecting communities and public lands from the devastating 
        effects of wildfire;
  --Preserving historic structures; and
  --Enhancing neighborhoods and community public spaces.
                              cost savings
    By partnering with Conservation Corps, Federal land and water 
management agencies achieve more with their operating budgets. Research 
conducted by the National Park Service's Park Facility Management 
Division indicates that hiring Conservation Corps to complete 
maintenance and trail projects resulted in significant savings.
    The analysis considered 15 diverse trail and maintenance projects 
throughout the country in places including Mesa Verde National Park, 
Glacier National Park, Point Reyes National Seashore, and Voyageurs 
National Park. The research found that using Conservation Corps to 
complete maintenance and trail projects provided a cost savings of over 
50 percent.
                        fiscal year 2015 request
    The Corps Network requests the subcommittee's support for fiscal 
year 2015 programs that will allow public land and water management 
agencies to engage young adults and veterans to meet our Nation's 
backlogged maintenance needs, address record youth unemployment, and 
prepare a diverse group of youth to be the next generation of natural 
resource employees.
    We respectfully request that in fiscal year 2015 the subcommittee 
fund the following accounts:
  --$2,283,852,000 for ``Operation of the National Parks.''
  --$10,000,000 for the ``Centennial Challenge'' for the National Park 
        Service.
  --$50,600,000 for Department of Interior Youth Programs.
  --Increased funding for operational accounts of the Department of the 
        Interior (DOI) Bureaus and United States Forest Service (USFS).
    The first two accounts fall under National Park Service and the 
third is under the Department of Interior. National Park ``Operations'' 
is a preexisting account governing operation of our national parks and 
the ``Centennial Challenge'' is a new program and was also proposed 
under the most recent Bush administration. These funds will allow 
thousands of veterans, youth, and others to work upgrading the National 
Park System for its 100th anniversary in 2016. The Department's Youth 
Program funding would also provide work and training opportunities for 
young people and veterans during 2014 and 2015. A key component of the 
Department's efforts will be partnering with youth organizations 
through the 21st Century Conservation Corps. We also support increased 
funding for all operational accounts at the other Bureaus (Bureau of 
Land Management (BLM), Bureau of Reclamation (BOR), and Fish and 
Wildlife Service (FWS)) and at the U.S. Forest Service that could fund 
partnerships with Conservation Corps.
    As the National Park Service prepares for its 100th Anniversary, 
Congress has an opportunity to invest in the popular and economically 
important National Park Service. An investment this year will help 
parks recover from years of underfunding and restore parks for the 
Centennial. Every dollar invested in the National Park Service 
generates $10 in economic activity. The operations investment would 
provide for park rangers to maintain facilities and provide services to 
park visitors. The Centennial Challenge investment would allow for the 
park service to leverage private matching funds through a 1:1 match for 
specific projects.
    Beginning with the creation of the Civilian Conservation Corps 
during the Great Depression, and continuing to the recent launch of the 
21st Century Conservation Service Corps Initiative, organizations like 
Vermont Youth Conservation Corps, Southeast Youth Corps, and California 
Conservation Corps have helped millions of young Americans gain job 
training, further their education, and contribute to America's 
communities through service and the conservation of national and State 
parks, forests, and other treasured places.
    The future of our Nation's public lands depend upon the next 
generation becoming active resource stewards. I hope that you will 
provide the funding to put thousands of youth and returning veterans to 
work restoring some of America's greatest historical, cultural, and 
natural treasures. With the approaching National Park Service 
centennial, billions in backlogged maintenance across all of the land 
management agencies, record youth unemployment, and the cost savings 
nature of public private partnerships, this funding is an absolute win-
win for our country.
                                 ______
                                 
   Prepared Statement of the Council of Athabascan Tribal Governments
    I am pleased to submit this testimony to the subcommittee on behalf 
of the Council of Athabascan Tribal Governments (CATG). We are a 
consortium of 10 tribal governments located along the Yukon River and 
its tributaries in northeastern Alaska. We provide a variety of 
services to our tribal members, including full healthcare services at 
the Yukon Flats Health Center and village-based clinics in four of our 
villages. We request that you implement the following measures in the 
fiscal year 2015 appropriations cycle:
  --Make full Contract Support Costs funding mandatory spending.
  --Increase funding for Village Built Clinics at least $8.5 million.
  --Fund the Indian Health Service (IHS) budget with advanced 
        appropriations.
  --Reauthorize the Special Diabetes Program for Indians.
  --Allocate $50 million to the IHS from the Prevention and Public 
        Health Fund for tribal behavioral health grants.
  --Support Tribal jurisdiction to protect Alaska communities.
              mandatory funding for contract support costs
    We are pleased that the Administration has sought to fully fund 
contract support costs (CSC) under the Indian Self-Determination and 
Education Assistance Act (ISDEAA) in fiscal year 2015, and we urge 
Congress to support that goal. We also acknowledge that the 
administration's request is a direct response to Congress' actions with 
regard to fiscal year 2014 appropriations, which removed historical 
caps on CSC funding and rejected the administration's proposal--put 
forward without consultation and vehemently opposed by tribes--to 
individually cap contract support cost recovery at the contractor 
level. Contract support costs fund vital administrative functions that 
allow us to operate programs that provide critical services to our 
members. If contract support costs are not fully funded, however, our 
programs and services are directly impacted because we are forced to 
divert limited program funding to cover fixed overhead expenses 
instead. We therefore appreciate Congress' support in fiscal year 2014 
and hope that it carries through to fiscal year 2015 and beyond.
    However, the CSC funding problem is not yet solved. Full funding 
for CSC must not come with a penalty--namely, a reduction in program 
funding or effective permanent sequestration of Indian program funds. 
That result would have the same devastating effect on our service 
delivery as the failure to fully fund CSC. Yet Congress, in the Joint 
Explanatory Statement accompanying the fiscal year 2014 Consolidated 
Appropriations Act, noted that ``since [contract support costs] fall 
under discretionary spending, they have the potential to impact all 
other programs funded under the Interior and Environment Appropriations 
bill, including other equally important tribal programs.'' Moreover, 
without any permanent measure to ensure full funding, payment of CSC 
remains subject to agency ``discretion'' from year to year, even though 
tribes are legally entitled to payment under the ISDEAA. Noting these 
ongoing conflicts of law, Congress directed the agencies to consult 
with tribes on a permanent solution.
    In our view, there is a logical permanent solution which Congress 
is empowered to implement: CSC should be appropriated as a mandatory 
entitlement. Under the Indian Self-Determination and Education 
Assistance Act, the full payment of CSC is not discretionary; it is a 
legal obligation, affirmed by the U.S. Supreme Court. Yet the budget 
authority for CSC is currently provided and controlled through 
appropriation acts--as if it were a discretionary program. The fiscal 
year 2014 Joint Explanatory Statement recognized that the current 
fundamental mismatch between the mandatory nature of CSC and the 
current appropriation approach leaves both the House and Senate 
Committees on Appropriations in the ``untenable position of 
appropriating discretionary funds for the payment of any legally 
obligated contract support costs.'' As the Joint Explanatory Statement 
also noted, ``Typically obligations of this nature are addressed 
through mandatory spending.'' The obvious solution then is to bring the 
appropriations process in line with the statutory requirements and to 
recognize CSC for what it is: a mandatory entitlement, not a 
discretionary program. We therefore strongly urge the Congress to move 
to appropriate funding for CSC on a mandatory basis.
              funding for village built clinics in alaska
    For the last several years, Alaska organizations have submitted 
testimony to this subcommittee on the need to address chronic 
underfunding of Village Built Clinics (VBCs) in Alaska. VBCs, which are 
clinic facilities leased by the IHS from other entities, are a vital 
component of the provision of basic healthcare services in rural 
Alaska, as they serve as the clinic space for the Community Health Aide 
Program (CHAP) under the Indian Health Care Improvement Act (IHCIA). 
The CHAP, which IHS is directed by the IHCIA to carry out, utilizes a 
network of community health aides and practitioners to provide primary 
healthcare services in rural and isolated areas where access to those 
services might not otherwise exist.
    In 1989, Congress specifically authorized the operation of 170 VBCs 
in Alaska and provided approximately $3 million in funding for the 
program for that year. Since then, Congress has not provided amounts 
specifically for VBCs in the IHS appropriation, and IHS has had 
discretion to fund VBCs from its lump sum appropriation. But even 
though the 1989 appropriation was not a cap restricting IHS allocation 
of funds in later years, IHS has treated it as such and has refused to 
increase funding for VBC leases. Funding therefore has not kept pace 
with inflation or the rising costs of healthcare in rural and isolated 
areas. In fact, the chronic underfunding over decades has resulted in 
deterioration and in some cases closure of VBC facilities, threatening 
the CHAP itself and access to basic healthcare services for rural 
Alaskans that hinges on the continued availability of properly 
maintained VBC space.
    According to an estimate calculated several years ago by the Alaska 
Native Health Board and adjusted for inflation, at least $8.3 million 
is needed to fully fund the VBC leasing program. However, that estimate 
is outdated and likely falls significantly short of the actual need. 
CATG therefore urges that Congress appropriate at least an additional 
$8.5 million to fully fund VBC leases and that IHS be directed to use 
its existing appropriations to fully fund such leases.
    This subcommittee should also be aware that, having attempted 
without success for many years to convince IHS to accept its 
responsibilities for the VBCs as part of the mandated CHAP program, 
some tribal organizations in Alaska are taking a new approach. The 
Maniilaq Association recently requested that the IHS enter into a 
mandatory lease under Sec. 105(l) of the Indian Self-Determination and 
Education Assistance Act for one of the VBCs that Maniilaq owns. 
Implementing regulations require payment under the lease to fully 
compensate for the costs of adequately operating and maintaining the 
facilities. However, the IHS refused to enter into the lease, and the 
matter is now being litigated. If Maniilaq prevails, the case could 
establish legal precedent that will allow tribal contractors in Alaska 
to negotiate for full funding for VBCs as part of their funding 
agreements under the IHS's ISDEAA leasing authority. Though funding 
should be provided in full through the VBC program directly, the option 
to enter into a Sec. 105(l) lease must also be preserved as an 
alternative funding mechanism.
              fund the ihs through advanced appropriations
    An important goal for CATG--and for all of Indian Country--is the 
reliable, advance appropriation of the IHS budget 1 year in advance. 
The goal is for IHS and tribal healthcare providers to have adequate 
notice of the amount of Federal appropriations to expect and thus not 
be subjected to the uncertainties of late funding and short-term 
Continuing Resolutions. Congress provides advance appropriations for 
the Veterans Administration medical accounts, and the request is for 
parity in the appropriations schedule for the IHS. Legislation to 
authorize IHS advance appropriations has been introduced--H.R. 3229 by 
Representative Young and S. 1570 by Senators Murkowski and Begich. We 
request that you support such efforts to authorize and then appropriate 
the funds for IHS advance appropriations.
                reauthorize the special diabetes program
    While the entitlement funding for the Special Diabetes Program for 
Indians (SDPI) is not part of the IHS appropriations process, those 
funds are administered through the IHS. With the very recent passage by 
the House and Senate of a 1 year extension of the SDPI as part of the 
Medicare ``doc fix'' bill, it is funded through fiscal year 2015 at 
$150 million, minus a 2 percent reduction ($3 million) due to the 
sequestration of non-exempt mandatory programs (Public Law 112-240). 
This funding level has not increased since 2004. The SDPI has proven 
highly effective in Indian Country, and has produced excellent results. 
For example, in the 4 years preceding the last report on the SDPI in 
2011, the average blood sugar level dropped nearly a percentage point 
overall, corresponding to a 40 percent decline in the risk of eye, 
kidney, and nerve complications due to diabetes. We ask that you 
support ongoing efforts to reauthorize this program for a 5-year period 
at increased funding levels.
increase funding for behavioral health, suicide prevention, and alcohol 
                      & substance abuse treatment
    Alaska faces particular hardships in providing for our communities' 
behavioral and mental health services. There is a dire need for more 
prevention funding for suicide intervention as well as alcohol and 
substance abuse prevention, particularly for our youth. These efforts 
go hand in hand, as the problems often overlap. Alaska has twice the 
national rate of suicide, and ranks second in the Nation in suicide 
attempts requiring hospitalization. Alaska Native teens commit suicide 
at a rate nearly six times that of non-Native teenagers. The suicide 
rate among all Alaskans increased by 33 percent between 2005-2008--a 
period when the national rate remained steady. Compounding and 
complicating the suicide epidemic is alcohol and substance abuse or a 
mental health disorder. The overwhelming majority of the people we lose 
to suicide suffer from diagnosable, treatable mental health or 
substance abuse problems. However, the waiting list for treatment 
averages nearly 9 months, and due to lack of funding there is often no 
place to refer people, particularly young people.
    Alcohol and substance abuse contributes to myriad other problems as 
well, including crime, domestic violence, child abuse or neglect. 
Oftentimes, tribes in Alaska have a difficult time working through the 
State of Alaska to provide these services, which adds layers of 
guidelines, regulations, and reduced funding. We have found that tribes 
and tribal organizations should receive behavioral funds directly, 
because programs that implement traditional cultural values are more 
successful than those that don't. Included in the Affordable Care Act 
(ACA) is mandatory funding ($17.7 billion over 10 years) for a 
Prevention and Public Health (PPH) Fund from which Congress may 
allocate funding to various programs. In fiscal year 2012 the 
administration requested that $50 million of it be allocated to a new 
tribal behavioral health grant program; unfortunately Congress did not 
provide that allocation. We urge that Congress allocate $50 million 
from the PPH to the IHS in fiscal year 2015 for this purpose and that 
it be recurring.
       support tribal jurisdiction to protect alaska communities
    We support the ongoing efforts to amend S. 1474, the Alaska Safe 
Families and Villages Act, in a manner that would recognize Alaska 
tribes' jurisdiction to protect their communities by dealing locally 
with domestic violence, sexual assault and drug and alcohol abuse. At 
the same time, we greatly appreciate the provision that is already in 
S. 1474 which would repeal section 910 of the Violence Against Women 
Act Reauthorization that left Alaska tribes out of the expanded tribal 
jurisdiction over domestic violence affirmed in that law. These changes 
will require additional Bureau of Indian Affairs resources regarding 
law enforcement and courts. We look forward to continued work with our 
congressional delegation and others on this legislation of such crucial 
importance to Alaska Native communities.
    Thank you for your consideration of our concerns and requests. We 
are happy to respond to questions or provide any additional information 
you may request.
                                 ______
                                 
             Prepared Statement of the Cowlitz Indian Tribe
    Chairman Reed, Ranking Member Murkowski, distinguished members of 
the subcommittee; I want to thank you for the opportunity to testify in 
support of funding for certain programs for American Indians and Alaska 
Natives. They include programs under the Bureau of Indian Affairs, 
Indian Health Service, Environmental Protection Agency, U.S. Fish and 
Wildlife Service, Secretary of Interior's Office, and the National Park 
Service.
                               background
    Since the Cowlitz Indian Tribe was restored to Federal recognition 
in 2002, we have strived to develop services to protect and promote the 
well-being of our people. We have approximately 3,800 tribal members 
with the majority residing within or close to our traditional homelands 
in southwestern Washington State. Although we still have no 
reservation, our leadership continues to move forward the vision to 
provide for our people. We have established several Departments and 
Programs since 2002. The work of this subcommittee is critical in our 
ability to continue our obligation to serve our people.
    Federal grant programs are particularly critical to our well-being 
because without a reservation, we have no trust land on which to 
conduct economic development to fund governmental services. Making our 
situation even more difficult, we are ineligible for the wide variety 
of Federal grant programs that are tied to reservation lands. As a 
result, the Federal grant programs discussed in this testimony are of 
even more critical importance to the Cowlitz Indian Tribe.
    Despite the fact that we are landless, we do what we can to provide 
essential services to our people, and in so doing we believe we also 
directly and indirectly benefit surrounding communities. We also 
participate extensively at the local, State, and Federal level through 
established and emerging partnerships across a broad range of programs 
and initiatives. We believe that it is important to not only provide 
for our memberships' well-being, but work to be a positive and 
contributing influence with our neighbors. Planning, supporting, and 
implementing activities that restore and protect our economies, natural 
surroundings, and future stability is important to us. The Cowlitz 
Tribal leadership is very much appreciative and dependent on the 
programs under this subcommittee's jurisdiction. It would be impossible 
for us to be a contributing partner without your support.
                  the cowlitz tribe's seven priorities
    The Cowlitz Indian Tribe respectfully requests that the 
subcommittee:

    1.  Bureau of Indian Affair's (BIA) ``Aid to Tribal Government'' 
Program.--Increase program funding from the $24.614 million proposed in 
the President's fiscal year 2015 budget to $30 million.
    2.  Indian Health Service (IHS) fiscal year 2015 Appropriations 
Report Congress.--Ensure IHS makes revisions to the Health Facilities 
Construction Priority System as directed in the fiscal year 2000 
Interior Appropriations Bill.
    3.  Environmental Protection Agency's (EPA's) ``Indian General 
Assistance Program'' (GAP).--Support the President's fiscal year 2015 
budget request of $96.4 million.
    4.  U.S. Fish and Wildlife Agency's (USFWS) ``Tribal Wildlife Grant 
Program''.--Increase proposed fiscal year 2015 budget from $4 million 
to $10 million.
    5.  Support $1.25 million to be directed to the Office of the 
Secretary of Interior's Leadership and Administration Activity for 
fiscal year 2015 for Federal/Tribal collaborative analytical work and 
consultations during domestic reconsideration of the Columbia River 
Treaty.
    6.  BIA administered tribal transportation programs.--Support the 
Tribal Transportation Unity Caucus's (TTUC) proposed increase for 
fiscal year 2015.
    7.  National Park Service (NPS) proposed fiscal year 2015 for 
``National Native American Graves Protection and Repatriation Act 
Grants''.--Increase funding from the President's $1.657 million request 
to $2 million.

    1. BIA ``Aid to Tribal Government'' Funding Increase.--The primary 
backbone of support for our tribe's general operations is funded 
through BIA's Aid to Tribal Government program. It is an essential 
source of funds that supports the general operations of our 
administration, Natural & Cultural Resources Department, and provides 
many other services critical to our people and governance. With this 
core funding, we have been able to provide essential government 
services, employment opportunity, regional partnerships, grant 
programs, and to provide increased security for our tribe and 
employees. For a tribe that continues to struggle in obtaining our own 
economic base, this funding source remains critical to keep 
governmental operations functioning. Funding under this program does 
not meet all the needs of our tribe, but as we try and obtain our own 
economic base, it improves our tribe's ability to oversee program 
implementation and allows us to deliver essential services to our 
members. In sum, funding for tribal administration of programs is a key 
element towards our ability to support tribal self-governance.
    2. IHS Facilities Construction Priority System.--The IHS system is 
significantly underfunded and an imbalance of resources has developed 
within the system. An example of this is the frozen facilities 
construction list. We respectfully request the subcommittee to address 
this underfunding and also the delivery system imbalance and require 
the IHS to report to Congress its revisions to the Health Facilities 
Construction Priority System as directed in the fiscal year 2000 
Interior Appropriations Bill. The current system was developed over 23 
years ago and prioritizes construction projects on antiquated data in a 
completely changed healthcare delivery environment. Most projects would 
not score high enough to be funded today relative to the needs of other 
tribes nationally. The system is broken and unfairly prohibits tribes 
from accessing important facilities construction funding on an equal 
basis as the tribes on the current priority list. The subcommittee 
should direct IHS to develop a facility construction priority system to 
address the unmet facility construction needs of all tribes and not 
just those on the current priority list. A new priority system should 
also incorporate the staffing needs for those tribes that have built 
their own health facilities without IHS resources. The Cowlitz Tribe 
received its appropriation for funding its Health Systems in 2000. In 
November 2002 we received funding for Contract Health Services only and 
no funding for direct services.
    3. EPA Indian General Assistance Program (GAP).--GAP has been a 
vital program for our tribe since Federal acknowledgement. It has 
allowed for our ability to build capacity for the many natural resource 
programs and tends to the needs of our memberships health and well-
being. It gave us the ability to deal with very important resources 
issues of the tribe such as representation on key resource management 
concerns in the region. It has allowed our ability (and maintain) to 
forge positive relationships and work with local communities to protect 
and restore resources. EPA heard from the tribes in past years that 
funding under this program was well short to meet the needs to build 
capacity for addressing environmental issues within their homelands. We 
believe that this is a key program that needs to be maintained 
adequately well into the future in order to protect and restore the 
quality of life and culture for Indian Country.
    4. USFWS Tribal Wildlife Grant Program Increase.--Our tribe has 
been fortunate to receive two Tribal Wildlife Grants (TWG) administered 
by USFWS. With these grants we continue to contribute toward positive 
partnerships with State and Federal managers over recovery efforts of 
endangered Columbian White-tailed deer (CWTD) of the Lower Columbia 
River region. This species was one of the first to be listed under the 
Endangered Species Act (ESA) in the 1970s. Since we received our TWG, 
our involvement has heightened awareness to the issue of recovery of 
this long-standing recovery concern. We brought fresh new skills and 
thoughtfulness as to what was needed to create a path to recovery and 
eventual de-listing under ESA. We are proud to be one of the primary 
participants that are leading CWTD towards recovery and eventual de-
listing. We believe it is important that collaborative partnerships 
with Tribal, Federal, and State resource managers are the key to 
achieve success towards species recovery efforts. The TWG program 
provides tribes capacity and opportunity to contribute to efforts that 
is deeply tied to traditional and cultural life-ways. We request that 
funding be restored to this program so other tribes can experience the 
great work that can be accomplished under this program.
    5. Columbia River Treaty Coordination and Technical Capacity 
Funding.--There are 15 Columbia Basin tribes, supported by three tribal 
organizations of the Columbia Inter-Tribal Fish Commission, Upper 
Columbia United Tribes, and the Upper Snake River Tribes, who have 
participated in the development of a regional consensus based 
recommendation on the modernization of the Columbia River Treaty 
between the U.S. and Canada. The Columbia Basin tribes have been key 
participants in the development and adoption of the U.S. Entity's 
regional recommendation (coordinated by the Bonneville Power 
Administration and the U.S. Army Corps of Engineers). The Cowlitz Tribe 
along with other tribes participated extensively in this effort and 
continues to be committed towards future improvements on how the 
Columbia Basin water resources are managed. The recommendation is 
currently being considered by the U.S. Department of State to determine 
next steps in working with Canada to modernize the treaty. During this 
time there is a need for on-going evaluation and coordination by the 
Columbia Basin tribes. The tribes have very limited availability of 
time and funds to conduct this vital work. The Columbia Basin tribes 
need approximately $1.25 million to continue to collaborate on 
necessary technical evaluations and assessments, as well as to consult 
with the U.S. Department of State, the U.S. Entity, other sovereigns, 
and stakeholders for fiscal year 2015.
    6. BIA Administered Tribal Transportation Programs.--Transportation 
infrastructure serving tribal communities is the most unsafe, 
rudimentary and under-maintained transportation network in the Country. 
Approximately 1,069 of 4,400 Indian Reservation Roads (IRR) Program 
bridges are currently rated as deficient. Cost of rehabilitating or 
replacing the 1,069 IRR bridges is likely to exceed $595 million. 
Consistent with TTUC recommendations, we support and request for an 
increase in funding levels for fiscal year 2015 to $1,050,000,000 for 
Federal Lands Highway (FLH) Program: (A) Indian Reservation Roads under 
section 204 of title 23; increase funding levels for fiscal year 2015 
to $100 million for FLH program: (XX) Indian Reservation Road Bridge 
Program under Section 202(d)(4); and increase Highway Trust Fund 
funding for Tribal High Priority Projects Program for fiscal year 2015 
with $35 million including $5 million annual increases until fiscal 
year 2020.
    7. National Native American Graves Protection and Repatriation Act 
Grants.--The Cowlitz Tribe has in the past received a NAGPRA grant 
which helped fund a successful multi-tribe consortium to allow the re-
interment of multiple ancestors at Fort Vancouver, Washington. The 
success of this project has created great opportunity for future multi-
tribal projects to deal with long-standing concerns about repatriation 
issues. We would like to see continued funding of such projects, 
because there are still Native people and materials needing to be 
returned to their rightful places, as well as other projects the 
Cowlitz Tribe would like to undertake so we can continue to address 
these or similar situations as they arise.
                               conclusion
    The Cowlitz Tribe would like to re-iterate our thanks and 
appreciation for the opportunity to testify on the development of 
appropriations under this subcommittee's jurisdiction. We look forward 
to working with members of Congress to continue to build upon our 
successes and address future needs. We urge Congress to uphold its 
solemn promises to tribes, even as policymakers seek to reduce the 
deficit through spending reductions and revenue generation. The Federal 
Government's obligations to Indian tribes reflect the Federal 
Government's general trust responsibility for tribes and are based on 
numerous long-standing agreements made between tribes and the United 
States.
    The Cowlitz Indian Tribe is happy to answer any questions Congress 
may have about the testimony we have provided here or about the 
programs we implement. Thank you again for your time to consider our 
testimony.
                                 ______
                                 
                    Prepared Statement of Dance/USA
the importance of funding for the national endowment for the arts (nea)
    Mr. Chairman and distinguished members of the subcommittee, Dance/
USA is grateful for the opportunity to submit testimony on behalf of 
Dance/USA, its board of directors and its 500 members. We strongly urge 
the Subcommittee on Interior, Environment, and Related Agencies of the 
Committee on Appropriations to designate a total of $155 million to the 
National Endowment for the Arts (NEA) for fiscal year 2015. This 
testimony and the funding examples described below are intended to 
highlight the importance of Federal investment in the arts, so critical 
to sustaining a vibrant cultural community throughout the country.
    The NEA makes it possible for everyone to enjoy and benefit from 
the performing arts. Before the establishment of the NEA in 1965, the 
arts were limited mostly to a few big cities. The NEA has helped to 
strengthen regional dance, opera, theater and other artistic 
disciplines that Americans now enjoy. NEA funding provides access to 
the arts in regions with histories of inaccessibility due to economic 
or geographic limitations. The Endowment embodies the ideal that no one 
should be deprived of the opportunity to have art in their lives. The 
Arts Endowment has helped the arts become accessible to more Americans, 
which in turn has increased public participation in the arts.
the nea is a great investment in the economic growth of every community
    Despite diminished resources, including a budget that has decreased 
by over $20 million since 2010, the NEA awarded more than 2,100 grants 
in 2013, totaling more than $112 million in appropriated funds, and 
reaching more than 38 million people who attended live arts events 
through NEA-supported programs. These grants help nurture the growth 
and artistic excellence of thousands of arts organizations and artists 
in every corner of the country. NEA grants also preserve and enhance 
our Nation's diverse cultural heritage. The modest public investment in 
the Nation's cultural life results in both new and classic works of 
art, reaching the residents of all 50 States and in every congressional 
district.
    The return of the Federal Government's small investment in the arts 
is striking. In 2013, the American creative sector was measured by the 
Federal Bureau of Economic Analysis (BEA). The BEA and the NEA 
developed an ``Arts and Cultural Production Satellite Account'' which 
calculated the arts and culture sector's contributions to the gross 
domestic product (GDP) at 3.2 percent (or $504 billion) of current-
dollar GDP in 2011. Additionally, the nonprofit arts industry generates 
$135.2 billion annually in economic activity, supporting 4.13 million 
full-time equivalent jobs in the arts and related industries.
    On average each NEA grant leverages at least $9 from other State, 
local, and private sources, generating roughly $600 million in matching 
support. Few other Federal investments realize such economic benefits, 
not to mention the intangible benefits that only the arts make 
possible. Even in the face of cutbacks in the recent years, the NEA 
continues to be a beacon for arts organizations across the country.
    The return on investments is not only found in dollar matches. The 
average city and county reports that nonprofit arts and culture 
organizations had 5,215 volunteers who donated 201,719 hours. These 
volunteer hours have a value of approximately $4.5 million--a 
demonstration that citizens value the arts in their communities.
                           nea grants at work
    Past NEA funding has directly supported projects in which arts 
organizations, artists, schools and teachers collaborated to provide 
opportunities for adults and children to create, perform, and respond 
to artistic works. NEA funding has also made the art form more widely 
available in all States, including isolated rural areas and inner 
cities; indeed, NEA funded projects cross all racial, geographic, and 
socioeconomic lines.
    NEA grants are awarded to dance organizations through its core 
programs: Art Works; Challenge America Fast Track Grants; and Federal/
State Partnerships. In fiscal year 2013, the NEA awarded 164 grants to 
the dance field through Art Works, totaling $3,972,000.
            axis dance company--$20,000; oakland, california
    To support Dance Access and Dance Access/Kids! educational and 
outreach programs in the Bay Area and on a national tour. These 
activities will offer a variety of events for youth and adults with and 
without disabilities who are based locally and nationally.
        diavolo dance theatre--$20,000; los angeles, california
    To support educational and outreach programs during the company's 
national tour. The project will include a Young People's Concert, 
community workshops, master classes, and residencies. The Young 
People's Concert is an interactive student matinee show that includes 
choreography excerpts, discussion of teamwork, interactive exercises 
about movement and fitness, and active audience participation. Diavolo 
will work with presenters to tailor an educational and outreach program 
for each community on its tour.
                 eugene ballet--$30,000; eugene, oregon
    To support regional dance touring and outreach activities. The 
company will present a repertory program featuring Artistic Director 
Toni Pimble's ``Silk and Steel,'' ``Concerto Gross,'' a full-length 
``Cinderella,'' and Gerald Arpino's ``Light Rain.'' The repertory 
program will also include school presentations of ``Pulcinella,'' with 
accompanying study guides for students.
           kansas city ballet--$20,000; kansas city, missouri
    To support New Moves, a showcase for new dance works by emerging 
local and national choreographers. The program will afford Kansas City 
Ballet members the opportunity to create, produce, and perform works 
while learning from nationally recognized choreographers. Performances 
will take place at the Michael and Ginger Frost Studio and Theater at 
Kansas City Ballet's Todd Bolender Center for Dance Creativity.
            nashville ballet--$20,000; nashville, tennessee
    To support the staging and presentation of choreographer Jiri 
Kylian's ``Petite Mort'' with live accompaniment by The Nashville 
Symphony. The work will be presented on the same bill as George 
Balanchine's ``Serenade,'' along with a new dance production by 
Artistic Director Paul Vasterling, choreographed to an original 
composition by Ben Folds.
              the non-profit professional dance community
    America's dance companies perform a wide range of styles and 
genres. These include both classical and contemporary ballet, classical 
and contemporary modern, as well as jazz, tap, cross-disciplinary 
fusions and traditional to modern work rooted in other cultures. Over 
two-thirds of America's professional dance companies are less than 45 
years old; as an established art form with national identity and 
presence, dance has burst onto the scene almost entirely within living 
memory. And yet, America can boast some of the greatest dance companies 
of the world and can take credit for birthing two indigenous dance 
styles--tap and modern dance.
    One key to this spectacular achievement has been the creation of a 
national marketplace for dance. When the National Endowment for the 
Arts instituted its Dance Touring Program in the 1970s, great dance 
became accessible to every community in America. What used to be a 
handful of professional companies and a scattering of ``regional'' 
dance has become a national treasure spread across cities and through 
communities, schools and theaters in all 50 States. Based on data from 
almost 300 nonprofit dance companies from across the United States, 
Dance/USA estimates that dance companies:
  --Employed over 14,800 people in a mix of full-time and part-time 
        positions;
  --Paid approximately $345.7 million, or 53 percent of expenses, in 
        wages and benefits;
  --Earned $200 million, or 29 percent of their income, from 
        performances;
  --Received $326.6 million, or 48 percent of their income in 
        contributions (including public support, corporate 
        contributions, foundation support, and individual donations);
  --Generated more than $661.5 million in economic activity across the 
        United States.
    Dance/USA, the national service organization for the professional 
dance field, believes that dance is essential to a healthy society, 
demonstrating the infinite possibilities for human expression and 
potential, and facilitating communication within and across cultures. 
Dance/USA sustains and advances professional dance by addressing the 
needs, concerns, and interests of artists, administrators, and 
organizations. Dance/USA's membership currently consists of nearly 500 
aerial, ballet, modern, culturally specific, jazz, and tap companies, 
dance service and presenting organizations, individuals, and related 
organizations. Dance/USA's member companies range in size from 
operating budgets of under $100,000 to over $50 million.
                               conclusion
    Despite overwhelming support by the American public for spending 
Federal tax dollars in support of the arts, the NEA has never recovered 
from a 40 percent budget cut in the mid-nineties and found its budget 
further decreased by $22 million since 2010, leaving its programs 
seriously underfunded. We urge you to continue toward restoration and 
increase the NEA funding allocation to $155 million for fiscal year 
2015.
    On behalf of Dance/USA, thank you for considering this request.
                                 ______
                                 
              Prepared Statement of Defenders of Wildlife
    Mister Chairman, Ranking Member and members of the subcommittee, 
thank you for the opportunity to submit testimony for the record. 
Founded in 1947, Defenders has more than one million members and 
supporters and is dedicated to the conservation of wild animals and 
plants in their natural communities.
    North America is fortunate to have some of the most abundant and 
diverse wildlife on Earth, more than 200,000 known species in the U.S. 
alone. This unique and irreplaceable heritage is treasured by all 
Americans both for its aesthetic value as well as for the very tangible 
benefits it brings as a resource. For example, a third of our food is 
pollinated by birds, bats, and insects; wildlife associated recreation 
generated $145 billion in economic benefits in 2011; \1\ bats provide 
at least $3.7 billion to the agricultural industry in pest control 
services each year; \2\ and the value of ecosystem services from 
habitat in the contiguous 48 States is estimated at $1.6 trillion 
annually.\3\ Cuts since fiscal year 2010 to Federal programs that 
conserve wildlife and habitat have severely undermined sound 
management. Funding decreases in the U.S. Fish and Wildlife Endangered 
Species program delayed the recovery of endangered Florida manatees by 
preventing crucial habitat restoration work. Continued cuts will likely 
lead to irreversible harm to vulnerable species and habitat. Our 
Nation's wildlife is a treasure and well worth the investment to 
properly care for it.
---------------------------------------------------------------------------
    \1\ The 2011 National Survey of Fishing, Hunting, and Wildlife 
Associated Recreation, USFWS, 12/12.
    \2\ http://www.sciencemag.org/content/332/6025/
41.summary?sid=853248fd-6760-4341-93d0-2aeeab9ea450.
    \3\ The Economics Associated with Outdoor Recreation, Natural 
Resources Conservation and Historic Preservation in the United States, 
Southwick Associates, 9/29/11.
---------------------------------------------------------------------------
                       fish and wildlife service
    The U.S. Fish and Wildlife Service (FWS) is our Nation's premier 
wildlife conservation agency. We were deeply disappointed that the 
agency received a 27 percent cut in the fiscal year 2014 House 
Interior, Environment, and Related Agencies appropriations bill. FWS 
needs robust funding, not cuts, if it is to recover threatened and 
endangered species and protect migratory birds and fish, species of 
global conservation concern and other trust species, and stop or 
prevent wildlife crimes.
    Cooperative Recovery.--Defenders supports the President's requested 
increases of $1.5 million in Conservation and Restoration under 
Ecological Services and $300,000 under Migratory Bird Management. This 
initiative is supporting more efficient and strategic efforts across 
landscapes to recover threatened and endangered species on National 
Wildlife Refuges and surrounding lands.
    Renewable Energy.--Defenders supports the President's requested 
increases of $1.1 million in Planning and Consultation under Ecological 
Services to support approvals of renewable energy projects while 
ensuring they do not significantly harm wildlife, and $1.4 million 
under Service Science to assess potential impacts of energy 
transmission corridors on sensitive lands and wildlife in the West and 
to identify mitigation strategies.
    Endangered Species.--The President's request proposes a major 
restructuring of the Ecological Services Activity which includes the 
Endangered Species program. Defenders is concerned about whether the 
new structure will allow for adequate transparency and accountability, 
particularly in the large ``General Program Activities'' program 
elements. Before any such restructuring is permitted, the agency must 
show that it has adequate controls in place to ensure the strategic use 
of this funding and a transparent process for developing priorities and 
reporting how funds are allocated. Absent this information, Defenders 
supports maintaining the current budget structure and requests 
increases for the endangered species portion of Ecological Services, 
$21.7 million, which includes:
  --A $4 million increase to support the unprecedented effort to 
        conserve the greater sage-grouse and its sagebrush habitat.
  --A $2.3 million increase for listing species. This funding will 
        support progress in listing approximately 145 candidate 
        species, many of which have awaited Endangered Species Act 
        (ESA) protection for years.
  --An $11.1 million increase to support the recovery of the more than 
        1,500 listed U.S. species so that ESA protection is no longer 
        necessary.
  --Defenders opposes a $1 million reduction for the Wolf Livestock 
        Loss Demonstration Program that assists livestock owners co-
        existing with wolves, and we urge its restoration.
    National Wildlife Refuge System (NWRS).--Our National Wildlife 
Refuge System is the largest land and water system in the world 
dedicated to wildlife conservation. Refuges provide enormous benefits 
to the American people, generating $2.4 billion each year for local 
economies. A September 2013 memorandum from the System's Chief detailed 
significant damage from budget cuts since fiscal year 2010 with 
conservation effectiveness in numerous areas declining dangerously. The 
request includes a $4.2 million increase which includes funding for 
Challenge Cost share projects with partners and volunteer groups and 
for law enforcement but it is not sufficient. Instead, Defenders 
supports an $8 million increase over fiscal year 2014 which is the 
minimal amount needed each year to keep up with operating costs such as 
fuel, utilities and rent. We also support legislative language proposed 
by the administration that would provide authority to recover 
compensation from responsible parties who injure or destroy Refuge 
System or Hatchery System resources similar to that of the National 
Park Service and the National Oceanic and Atmospheric Administration 
and allows compensation to be applied directly to repair the injury 
without further appropriation by Congress.
    Cooperative Landscape Conservation.--Defenders supports the 
President's requested increase of $3.3 million that will support the 
continued development and work of the Landscape Conservation 
Cooperatives that are working to solve complex problems across large 
landscapes.
    Science Support.--The requested $14.4 million increase will help to 
answer pressing questions about climate adaptation and other landscape 
level ecological changes as well as about energy development, White-
Nose Syndrome that is devastating bat populations, and other agency 
management challenges.
    Migratory Bird Management.--U.S. bird populations have experienced 
precipitous declines in recent years. Full funding of the program's 
$46.922 million request will support the program's work to survey and 
monitor, reduce hazards, manage permits, and restore habitat for 
migratory birds.
    Environmental Contaminants.--Under Ecological Services, a $1.2 
million increase in Planning and Consultation will help to support the 
process for national consultations related to pesticide registrations 
and a $2 million increase in Conservation and Restoration will help 
increase capacity to respond to impacts of contaminant releases.
    Office of Law Enforcement.--A $2.5 million increase requested by 
the President will support wildlife science forensics and efforts to 
combat an unprecedented level of illegal trade in wildlife.
    International Affairs.--A $1.1 million increase in the request will 
support local communities in reducing poaching of flagship species such 
as tigers, rhinoceros, and elephants.
    Other key grant programs.--Defenders supports the requested funding 
amounts for the Multinational Species Conservation Fund, the 
Neotropical Migratory Bird Fund, and the Cooperative Endangered Species 
Fund (CESF). We are opposed to the $8.695 million cut for State and 
Tribal Wildlife grants and urge that the program be funded at no less 
than the fiscal year 2014 level. In addition, we are opposed to the 
request to fund non-land acquisition planning and conservation grants 
from the Land and Water Conservation Fund under the CESF.
              forest service and bureau of land management
    The Bureau of Land Management (BLM) and the U.S. Forest Service 
(FS) are essential to the conservation of wildlife and habitat in the 
United States, yet their resources are not adequate to meet significant 
challenges. A top priority for Defenders is ensuring that renewable 
energy development on these lands proceeds in a balanced way that 
maintains the ecological integrity of our public lands and waters, 
conserves wildlife habitat and populations, and contributes to agency 
efforts to successfully recover our most imperiled wildlife. We urge 
strong oversight to ensure that any energy development is done in an 
environmentally sensitive fashion. Given their large land ownerships it 
is imperative that both participate fully in landscape level 
conservation and management efforts.
    FS Integrated Resource Restoration (IRR)/Wildlife and Fisheries 
Habitat Management.--The administration has again proposed merging a 
number of accounts, including Wildlife and Fisheries Habitat 
Management, into an integrated budget. Instead, Defenders supports 
maintaining funding for Wildlife and Fisheries Habitat Management at no 
less than the fiscal year 2014 level and continuing IRR as a pilot so 
that the agency can demonstrate its ability to adequately protect 
habitat for fish and wildlife under the consolidated program. 
``Evaluating the Integrated Resource Restoration Line Item: Results 
from Phase 1,'' a recent independent study of the pilot program through 
the University of Oregon and Colorado State University, indicated that 
a combination of hard targets, including hard timber targets, coupled 
with declining budgets, may reduce investment in wildlife conservation.
    FS Land Management Planning/Inventory and Monitoring.--The request 
again proposes merging these two programs into a single line item. As 
with IRR, we are concerned about such a consolidation unless the agency 
can demonstrate its ability to carry out its responsibilities under 
these two programs and urge continued discrete funding for each at no 
less than the fiscal year 2014 level.
    FS Collaborative Forest Landscape Restoration Program.--We support 
the requested increase of $20 million for this proven cost-effective 
program established specifically to create job stability, achieve 
reliable wood supply, restore forest and watershed health, improve 
wildlife habitat, and reduce both the costs of fire suppression in 
overgrown forests and the risk of uncharacteristic wildfires.
    FS Forest and Rangeland Research (FS R&D).--We are opposed to the 
$17.490 million cut in the request for FS R&D and we urge funding at no 
less than the fiscal year 2014 level. Adequate funding for this program 
is crucial in providing relevant tools and information to support 
sustainable management of National Forest System lands as well as non-
Federal forest lands. Generally, we are concerned that the Forest 
Service may lack adequate applied scientific capacity to implement 
critical planning and management actions, including the 2012 planning 
rule.
    BLM National Greater Sage-Grouse Planning Strategy.--Defenders 
supports continued full funding of the $65.2 million request for the 
Wildlife and Fisheries Management program, a $347,000 increase, which 
includes support for the greater sage-grouse planning initiative, on-
the-ground habitat restoration, and monitoring. We recently released an 
analysis of all draft plans developed under the Planning Strategy, ``In 
the Red: How Proposed Conservation Plans Fail to Protect Greater Sage-
Grouse,'' which found that the plans in their current form recommend 
inconsistent and inadequate conservation measures. We urge the 
subcommittee to work with the agency to ensure that the plans are 
improved so that the final plans will be adequate to conserve and 
restore this iconic bird.
    BLM Threatened and Endangered Species Management.--According to 
agency reports, the BLM has funding to implement only about 10 percent 
of the work it is required to do in recovery plans for ESA listed 
species on BLM lands, but the request includes just a $178,000 
increase. Instead, Defenders supports an increase of $1 million over 
the request which simply restores the budget to the fiscal year 2010 
level and will better help move listed species to recovery.
    BLM Renewable Energy.--Full funding of the $29.2 million request, a 
$171,000 increase, will help BLM to move forward with renewable energy 
development on public lands while avoiding areas with natural resource 
conflicts, including conflicts with sensitive wildlife species.
    BLM Resource Management Planning.--The $5.2 million increase in the 
President's request is crucial to support priority planning efforts for 
vast areas of BLM lands, including maintaining the currency of resource 
management plans.
                         u.s. geological survey
    The U.S. Geological Survey provides the basic science necessary for 
conservation of fish, wildlife and habitat. We urge support for the 
following increases:
    National Climate Change and Wildlife Science Center/Climate Science 
Centers.--An $11.6 million increase in the request will support 
scientific needs in planning for climate change adaptation and building 
resiliency of ecosystems.
    Ecosystems.--A $9.2 million increase in the request will help to 
support development of crucial scientific information for sound 
management of our Nation's biological resources including research into 
declines of native pollinators and measures needed to avoid harming 
sensitive wildlife, especially bats and birds, from renewable energy 
development.
                land and water conservation fund (lwcf)
    Defenders supports the proposal in the request for full and 
permanent funding of LWCF that will help to save some of the 6,000 
acres of open space, including wildlife habitat, that are lost each day 
in the United States.\4\ Thank you for the opportunity to testify.
---------------------------------------------------------------------------
    \4\ http://www.fs.fed.us/openspace/coop_across_boudaries.html.
---------------------------------------------------------------------------
                                 ______
                                 
                   Prepared Statement of Denver Water
                                                     April 7, 2014.
Hon. Jack Reed, Chairman,
Hon. Lisa Murkowski, Ranking Member,
Subcommittee on Interior, Environment, and Related Agencies, Committee 
        on Appropriations, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.

    Dear Chairman Reed and Senator Murkowski: On behalf of Denver 
Water, I am requesting your support for fiscal year 2015 appropriations 
to the Fish and Wildlife Service (FWS) for the Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program consistent with the President's recommended 
budget. I request that the subcommittee:

  --Appropriate $706,300 in ``Conservation and Restoration'' funds 
        (Resource Management Appropriation; Ecological Services 
        Activity; Conservation and Restoration Subactivity within the 
        $124,253,000 item entitled ``Conservation and Restoration'') to 
        the U.S. Fish and Wildlife Service (FWS) to allow FWS for 
        fiscal year 2015 to continue its essential participation in the 
        Upper Colorado River Endangered Fish Recovery Program.
  --Appropriate $200,000 in FWS ``Conservation and Restoration'' funds 
        for the San Juan River Basin Recovery Implementation Program to 
        meet expenses incurred by FWS's Region 2 in managing the San 
        Juan Program's diverse recovery activities.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $48,617,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.

    I request the subcommittee's assistance in assuring fiscal year 
2015 funding to allow the FWS to continue its financial and personnel 
participation in these two vitally important recovery programs. I 
recognize and appreciate that the past support and assistance of your 
subcommittee has greatly facilitated the success of these ongoing 
efforts.
            Sincerely,
                                         James S. Lochhead,
                                                       CEO/Manager.
                                 ______
                                 
          Prepared Statement of the Edison Electric Institute
    The Edison Electric Institute (EEI) respectfully submits this 
written testimony for the record to the Senate Appropriations 
Subcommittee on Interior, Environment, and Related Agencies. We 
appreciate this opportunity to share our views on some of the fiscal 
year 2015 programs for the Environmental Protection Agency (EPA).
    The U.S. electric generation fleet is facing numerous challenges. 
Among these are EPA regulations, including pending rulemakings on Clean 
Water Act section 316(b) cooling water intake structures, coal ash 
disposal, ``waters of the U.S.,'' steam-electric effluent limitation 
guidelines, and greenhouse gas new source performance standards, as 
well as other significant pending Clean Air Act regulations. These 
requirements will dramatically affect individual utility decisions 
regarding construction of new generation and the retrofitting and 
retirement of existing plants. Therefore, I am sharing with you our 
views on a number of these proposals that could significantly impact 
the ability of electric utilities to ensure an adequate, reliable and 
affordable supply of electricity for consumers.
                      waters of the united states
    On March 25, 2014, EPA released a draft proposed rule to revise the 
regulatory definition of ``waters of the United States'' (WOTUS) for 
purposes of the Clean Water Act (CWA). The draft would have the effect 
of expanding the scope of Federal CWA jurisdiction at the expense of 
State jurisdiction to virtually all waters and every program under the 
CWA.
    The draft rule, if implemented, would vastly expand the triggering 
of CWA regulatory and permitting requirements for electric utility 
land-use activities, including generation construction and operations, 
as well as transmission construction and maintenance. Decommissioning 
operations would also be negatively impacted.
    EPA asserts it is not changing the existing exemption from WOTUS 
for waste treatment systems; however, that is not clear from the 
proposed rule text. Modifying the current exclusion by regulatory fiat 
could require electric facilities to comply with CWA limitations prior 
to discharge into impoundments. Often, this is not even technically or 
economically feasible.
    Under EPA's proposal, the energy industry would face significant 
challenges in its effort to expand and upgrade infrastructure, 
primarily in the form of major project permitting delays, costly 
resource outlays for new permit applications, and an unprecedented 
level of regulatory uncertainty and inconsistency in the administration 
of CWA permitting programs. Such an outcome disregards the 
administration's commitment to streamline permitting timelines and 
promote early Federal, State and local coordination for Federal 
permitting processes applicable to domestic energy infrastructure 
programs.
    In light of the significant and numerous legal, economic and 
scientific deficiencies with this proposal, EEI respectfully urges the 
subcommittee to adopt a legislative amendment to its fiscal year 2015 
legislation that would bar EPA from implementing a final rule. In the 
alternative, we request that the subcommittee require the agency to 
contract with the National Academy of Sciences for a study to establish 
a scientific basis for defining a ``significant nexus'' to guide 
development of a more scientifically grounded regulatory standard.
  clean waters act section 316(b) cooling water intake structures rule
    In 2011, EPA issued a proposed rule under Section 316(b) of the 
Clean Water Act. The proposal, which is now expected to be finalized by 
April 17, 2014, will require changes in ``cooling waters intake 
structures,'' physical constructions through which water is withdrawn 
for cooling purposes, for the vast majority of America's existing 
steam-electric generating plants and a wide range of manufacturing and 
industrial facilities. The proposed rule focuses on reducing fish and 
shellfish mortality attributed to ``impingement'' on intake structure 
screens and ``entrainment'' into cooling water systems.
    The proposed 316(b) rule would apply to facilities whose 
construction began before January 18, 2002, and where the total design 
intake flow of the cooling water intake structure(s) is greater than 2 
million gallons of water per day. It would apply to all existing steam-
electric facilities, including ones that have closed-cycle cooling and 
those that have once-through cooling. Importantly, the rule does not 
distinguish between nuclear, coal and gas units.
    EEI continues to believe that a science-based rule, one that is 
fair and flexible, should include reasonable compliance requirements 
and deadlines. In order to protect the environment and avoid 
unnecessary burdens on electricity consumers, such a rule should only 
impose technically justifiable mandates when costs--commensurate with 
benefits--are part of the appropriate course of action. We remain 
concerned that an overly prescriptive, rigid rule would encourage 
unnecessary retrofits and result in significant negative environmental, 
energy, cost, and local reliability impacts on hundreds of electric 
generation facilities across the country.
    With several unresolved implementation issues undergoing final 
interagency review, EEI urges the subcommittee to ensure that a final 
316(b) rule addresses electric system reliability and encourages the 
use of flexible compliance mechanisms in a cost-effective manner.
                   coal combustion product regulation
    EPA's Coal Combustion Residuals (CCR) rule is currently in proposed 
form. The proposal offers two options--regulating coal ash as either 
hazardous waste or as non-hazardous waste. EEI continues to advocate 
for the non-hazardous regulatory framework that provides a workable 
timeline for implementation and protects safety, human health and the 
environment.
    In addition, we continue to advocate for legislation that would 
establish a Federal non-hazardous, State-implemented waste regulatory 
program for coal ash disposal. In July 2013, the House of 
Representatives passed such legislation, H.R. 2218, the Coal Residuals 
Reuse and Management Act. Later this year the Senate is expected to 
introduce a companion bill.
    EEI urges subcommittee support for a non-hazardous regulatory 
program for CCRs similar to the provisions outlined in H.R. 2218. Such 
an approach would build on existing State regulatory programs and 
ensure proper disposal of CCRs in a manner that is cost-effective and 
without unintended consequences. This approach enjoys bipartisan 
support in Congress and has been endorsed by the States, ash recyclers 
and our industry.
               effluent limitation guidelines rulemaking
    In June 2013, EPA proposed the first significant revision of the 
Clean Water Act steam effluent limitation guidelines (ELGs) in more 
than 30 years. The proposal sets strict technology-based effluent 
limitations that will force technological and operational changes at 
existing coal-based facilities, many gas-based combined-cycle 
facilities, and some nuclear generation facilities. The impact to 
industry on the effluent guidelines rule could be in the hundreds of 
billions of dollars.
    In September 2013, EEI filed extensive agency comments, noting that 
most of the proposed compliance options would impose substantial costs 
on the electric generation fleet without providing corresponding 
benefits. We have requested the agency to provide adequate time for 
utilities to implement any new requirements in the final ELG rule, as 
well as coordinate compliance with other rulemakings that affect the 
power industry. EPA must also revise its technical approaches with more 
current and reliable data.
    We look forward to working with the subcommittee to ensure EPA 
fully considers the economic challenges and obligations of the power 
sector as a whole, and that criteria for the final rule is based on 
credible and sound data to achieve maximum, cost-effective reductions.
  greenhouse gas new source performance standards (nsps) for new and 
                            existing sources
    The electric power sector has made impressive reductions in its 
greenhouse gas (GHG) emissions, including a 15 percent reduction from 
2005 levels as of 2012. Nevertheless, major steps in the development of 
GHG emissions regulations will occur this year as EPA moves forward 
with Clean Air Act performance standards for both new and existing 
sources.
New Sources
    In September 2013, EPA issued re-proposed New Source Performance 
Standards (NSPS) for new units. These re-proposed standards, which 
replaced a proposal in April 2012, were published in the Federal 
Register on January 8, 2014.
    EEI is developing industry comments that will largely track those 
filed on the original 2012 proposal. We remain concerned about the 
ability of natural gas units to comply with the standards under normal 
operating conditions, especially as more variable renewable resources 
are deployed, causing natural gas units to cycle more to support the 
integration of such resources into the grid.
    We also are concerned about the lack of an explicit exemption for 
simple-cycle combustion turbines, and continue to object to EPA's 
determination that carbon capture and storage (CCS) is a commercially 
demonstrated technology for coal-based electric generating units at 
this time. While EPA has proposed a separate standard for coal, it has 
not created a workable pathway for coal going forward given the costs 
and other regulatory barriers to CCS.
    EPA is not compelled to finalize the new source standards by any 
particular date. At this time, the agency is not expected to finalize 
these standards until mid-2015, when existing source guidelines are 
expected to be promulgated.
Existing Sources
    EPA has begun its initial, pre-proposal efforts to develop State 
guidelines for existing plants under CAA section 111(d). EPA, 
separately, will be addressing modified and reconstructed plants. The 
timeline includes proposing State emissions guidelines for existing 
sources by June 2014 and the finalization of guidelines by June 2015. 
Theoretically, States would have 1 year to develop and submit to EPA a 
plan to implement the guidelines, though expectations are that this 
process will take longer.
    We believe EPA should provide States with maximum flexibility when 
creating compliance plans and should give credit for a wide range of 
actions taken to date that have resulted in GHG emission reductions. It 
is also important that any rulemaking minimize the impact on existing 
electric generating units that are already making significant 
investments to comply with the Mercury and Air Toxics (MATs) rule.
    In conclusion, Mr. Chairman, EEI truly values the partnership that 
we share with your subcommittee, and we look forward to continuing our 
dialogue with you throughout the year.
                                 ______
                                 
       Prepared Statement of the Entomological Society of America
    The Entomological Society of America (ESA) respectfully submits 
this statement for the official record in support of funding for 
entomology-related activities at the U.S. Department of Agriculture 
Forest Service and the U.S. Environmental Protection Agency (EPA). ESA 
requests a robust fiscal year 2015 appropriation for the Forest Service 
and requests that the Forest and Rangeland Research budget is 
maintained at a level at least equal to the fiscal year 2014 enacted 
amount of $292.8 million to preserve valuable invasive species research 
and development. The Society also supports continued investment in 
Forest Health Management programs across the Forest Service in fiscal 
year 2015. In addition, ESA recommends strong funding for EPA, 
including Pesticides Licensing Program Area activities within its 
Science & Technology and Environmental Program & Management budgets, as 
well as continued support for State & Tribal Assistance Grants for 
Pesticide Program Implementation. Finally, ESA supports a proposal in 
the President's fiscal year 2015 budget request to establish a $45 
million multi-agency initiative addressing pollinator health, including 
involvement by EPA to examine the potential impact of pesticides and 
ensure that pesticides represent acceptable risks to pollinator health.
    Advances in forestry and environmental sciences, including the 
field of entomology, help to protect our ecosystems and communities 
from threats impacting our Nation's economy, public health, and 
agricultural productivity and safety. Through improved understanding of 
invasive insect pests and the development of biological approaches to 
pest management, entomology plays a critical role in reducing and 
preventing the spread of infestation and diseases harmful to national 
forests and grasslands. The study of entomology also contributes to the 
development of Integrated Pest Management (IPM) techniques, which use 
science-based, environmentally friendly, comprehensive methods to take 
preventative action against pests, often resulting in lower costs and a 
more targeted use of pesticides. In addition, entomology improves our 
knowledge of pollinator biology and the factors affecting pollinator 
health and populations, helping to ensure safe, reliable crop 
production that meets the needs of a growing world population.
    The U.S. Forest Service sustains the health, diversity, and 
productivity of 193 million acres of public lands in national forests 
and grasslands across 44 States and territories. Serving as the largest 
supporter of forestry research in the world, the agency employs 
approximately 35,000 scientists, administrators, and land managers. In 
addition to activities at the Federal level, the Forest Service 
provides technical expertise and financial assistance to State and 
private forestry agency partners.
    The Forest Service's Forest and Rangeland Research budget supports 
the development and delivery of scientific data and innovative 
technological tools to improve the health, use, and management of the 
Nation's forests and rangelands. Within Forest and Rangeland Research, 
the Invasive Species Strategic Program Area provides scientifically 
based approaches to reduce and prevent the introduction, spread, and 
impact of non-native invasive species, including destructive insects, 
plants, and diseases that can have serious economic and environmental 
consequences for our Nation. For example, Forest Service scientists are 
working to prevent the devastation of ash trees across North America by 
the emerald ash borer, an invasive beetle that was accidentally 
introduced from Asia. Emerald ash borer was first detected in 2002 and, 
since then, has killed countless millions of ash trees. This biological 
invasion threatens to eliminate all ash trees from North America, and 
is the most costly invasion from a forest insect to date. To attempt to 
address the problem, researchers have developed a multi-tiered program 
that includes removal of infested trees, new insecticides, and 
introduction of several species of parasitic wasps into ash borer-
infested U.S. forests. The scientists found that the wasps, known to 
parasitize and kill emerald ash borer eggs and larvae, have helped to 
slow the spread of the ash borer invasion in recent years.\1\ Emerald 
ash borer is just one of the exponentially growing list of invasive 
insects and diseases that cause harm to our Nation's forests and to our 
Nation's economy. Forest health is also affected by invasive weeds, and 
those weeds are often best controlled by beneficial insects used as 
biological control agents, resulting in permanent and often spectacular 
control. ESA strongly opposes the proposed cuts to Forest and Rangeland 
Research included in the President's fiscal year 2015 budget request, 
especially the 8.0 percent reduction directed at invasive species 
research and development.
---------------------------------------------------------------------------
    \1\ Forest Service fiscal year 2015 Budget Justification: http://
www.fs.fed.us/aboutus/budget/2015/FS15-FS-Budget-Justification.pdf.
---------------------------------------------------------------------------
    Also under the purview of the Forest Service is the Forest Health 
Management program, which conducts mapping and surveys on public and 
private lands to monitor and assess risks from potentially harmful 
insects, diseases, and invasive plants. The program also provides 
assistance to State and local partners to help prevent and control 
outbreaks that endanger forest health. According to a 2011 study, 
invasive forest insects cost local governments alone an average of over 
$2 billion per year; direct costs to homeowners from property loss, 
tree removal, and treatment exceed an additional $2.5 billion per 
year.\2\ The program's ``Slow the Spread'' activities, for example, 
have led to a 60 percent reduction in the rate of the spread of an 
invasive species known as gypsy moth, resulting in an estimated 
benefit-to-cost ratio of 3:1. Without the program, it is estimated that 
50 million additional acres would have been infested by the moth.\3\ To 
support these important functions, ESA requests that the subcommittee 
maintain strong funding for the Forest Health Management Program in 
fiscal year 2015.
---------------------------------------------------------------------------
    \2\ Aukema, J.E.; Leung, B.; Kovacs, K.; [et al.]. 2011. Economic 
impacts of non-native forest insects in the continental United States. 
PLoS ONE 6(9): e24587.
    \3\ Forest Service fiscal year 2015 Budget Overview: http://
www.fs.fed.us/aboutus/budget/2015/FY15-FS-Budget-Overview.pdf.
---------------------------------------------------------------------------
    EPA carries out its mission of protecting human health and the 
environment by developing and enforcing regulations, awarding grants 
for research and other projects, conducting studies on environmental 
issues, facilitating partnerships, and providing information through 
public outreach. Through these efforts, EPA strives to ensure that our 
Nation enjoys clean water, clean air, a safe food supply, and 
communities free from pollution and harmful chemicals.
    EPA's Pesticides Licensing Program Area, supported by EPA's Science 
& Technology and Environmental Program & Management budgets, serves to 
evaluate and regulate new pesticides to ensure safe and proper usage by 
consumers. Through the mandate of the Federal Insecticide, Fungicide, 
and Rodenticide Act (FIFRA), EPA utilizes scientific expertise and 
data, including knowledge gained from entomological sciences, to set 
maximum tolerated residue levels and to register pesticide products as 
effective and safe. By controlling insects that act as vectors of 
diseases of humans and domesticated animals, and invasive insect 
species that endanger our environment, pesticides registered by EPA 
help protect public health and the Nation's food supply. EPA's 
activities in this area also include the development of educational 
information and outreach to encourage the use of IPM and other reduced-
risk methods of controlling pests. For example, EPA recently awarded 
three grants to universities to help facilitate the use of IPM 
practices in schools in multiple States, helping to promote cost-
effective strategies that reduce student exposure to pesticides and 
pests. Due to previous work in this area, 18 Indiana schools have 
reduced pest control costs by 90 percent by employing new IPM 
techniques.\4\ The President's fiscal year 2015 budget request includes 
plans to reduce funding for IPM efforts in schools in favor of other 
priority activities. However, IPM strategies used in schools reduce 
student exposure to pesticides as well as allergens from pests 
themselves. Therefore, ESA supports continuing the modest funding that 
EPA has invested in school IPM.
---------------------------------------------------------------------------
    \4\ March 12, 2014 EPA press release: http://yosemite.epa.gov/opa/
admpress.nsf/596e17d7cac720848525781f0043629e/
ebef2aed5d69e01585257c99006af60d!OpenDocument.
---------------------------------------------------------------------------
    Among EPA's State & Tribal Assistance Grants, categorical grants in 
the area of Pesticides Program Implementation help to facilitate the 
translation of national pesticide regulatory information into real-
world approaches that work for local communities. For example, these 
grants fund efforts to reduce health and environmental risks associated 
with pesticide use by promoting, facilitating, and evaluating IPM 
techniques and other potentially safer alternatives to conventional 
pest control methods. ESA requests that the subcommittee maintain 
support for Pesticides Program Implementation grants.
    ESA is in favor of increased funding for scientifically based 
studies of pollinator populations and health. Pollinators play a vital 
role in our Nation's agriculture industry; for example, bees pollinate 
more than 90 crops in the United States and are essential for the 
production of an estimated 70 percent of all the food we eat or export. 
To ensure a healthy bee population, more research is needed to fully 
understand the complexities of Colony Collapse Disorder (CCD) and to 
examine the diverse factors that endanger bee health. Pesticides 
represent just one potential risk to bees, but both the risks and 
benefits must be balanced, and those risks and benefits will vary among 
different crops and different crop-producing regions of the United 
States. EPA is well-positioned to help identify methods for protecting 
bee health; the agency recently awarded agricultural grants to three 
universities to aid in the development of IPM practices that lower 
pesticide risks to bees while protecting valuable crops from pests. For 
this reason, ESA supports EPA's participation in a proposed multi-
agency initiative to investigate pollinator health and develop 
implementation plans to prevent pollinator population decline.
    ESA, headquartered in Annapolis, Maryland, is the largest 
organization in the world serving the professional and scientific needs 
of entomologists and individuals in related disciplines. Founded in 
1889, ESA has nearly 7,000 members affiliated with educational 
institutions, health agencies, private industry, and government. 
Members are researchers, teachers, extension service personnel, 
administrators, marketing representatives, research technicians, 
consultants, students, pest management professionals, and hobbyists.
    Thank you for the opportunity to offer the Entomological Society of 
America's support for Forest Service and EPA programs. For more 
information about the Entomological Society of America, please see 
http://www.entsoc.org/.
                                 ______
                                 
      Prepared Statement of the Federal Forest Resource Coalition
    The following testimony is submitted on behalf of the Federal 
Forest Resource which represents purchasers of Federal timber in 32 
States, with over 650 member companies and affiliated associations, 
collectively representing over 390,000 employees.
    We make the following specific programmatic recommendations for 
fiscal year 2015:
    Enact the budget cap exception recommended in the President's 
request and in H.R. 3992, the Wildfire Disaster Funding Act; Focus 
increased investments (15 percent increases) on National Forest Timber 
Management, Wildland Hazardous Fuels Reduction, and Capital Improvement 
& Maintenance; Continue CFLR projects to demonstrate collaborative 
forest management. We strongly applaud the administration's budget for 
proposing to increase timber outputs by almost 16 percent, and we 
endorse the bi-partisan approach to wildfire funding in the Wildfire 
Disaster Funding Act.
    Our Mills Rely on Predictable, and Growing Supplies of Timber.--The 
forest products industry is extremely capital intensive. Our member 
companies have significant investments in logging and mill 
infrastructure, which can help offset the costs of managing the 
National Forests and return money to the Treasury. After weathering the 
worst recession our industry has seen in almost a century, forest 
products companies are seeing the benefits of a rebounding economy and 
international markets, providing us an opportunity to modernize and 
remain competitive. Several issues at the Forest Service inhibit our 
ability to grow and compete. Unpredictable timber supplies caused by 
erratic appropriations, fire borrowing, and obstructionist tactics by a 
minority of radical groups make it difficult to commit to the 
investments needed to keep our companies viable.
    Eliminating Fire Borrowing, Provide Stable Appropriations.--Last 
year was the second in a row in which the Forest Service redirected 
significant funds (over $600 million) from other programs to pay for 
wildfire suppression activities. Programs which directly support 
improved forest health are among those penalized the most by this 
process. The pattern of borrowing disrupts forest management and delays 
timber sale projects unnecessarily, while doing nothing to help ensure 
honest budgeting or reduced costs. Suppression borrowing concerns cause 
the Forest Service to freeze accounts early in the summer, stopping 
vital timber sale projects and Stewardship contract negotiations. The 
Wildfire Disaster Funding Act holds tremendous promise and we urge the 
Committee to move forward with it this year.
    We also stress that the Forest Service has had to manage through a 
long series of continuing resolutions, some lasting as little as a few 
days. This culminated with the disruptive Government shutdown, which 
halted 1,200 active timber sales. Contractors were given very little 
time to close up operations and remove machinery from the woods. The 
working men and women on our logging crews and in our mills should not 
be the unintended collateral damage in high stakes political fights. 
Disruptions in the timber sale program make it harder to manage the 
National Forests, harder to reduce fuel loads, and harder for our 
member companies to justify making the capital investments needed to 
remain competitive. We urge Congress to use the appropriations process 
to minimize these disruptions to the greatest extent possible.
    The Need for Management.--As you know, the National Forest System 
is experiencing significant forest health challenges. The Chief has 
testified that the National Forests have between 65 and 82 million 
acres in need of active management, with 45 million acres decimated by 
bark beetles in the Rocky Mountains alone. Further, the Forest Service 
has a $5.6 billion capital facilities maintenance backlog. This backlog 
does not just affect the roads my members depend on to access timber, 
but the trails, campgrounds, and visitor centers millions of Americans 
use. Faced with deteriorating forest health and crumbling facilities, 
we urge Congress to prioritize management and maintenance over 
expansion of an overtaxed National Forest System.
    The Need to Increase the Pace and Scale of Forest Management.--In 
early 2012, the administration publicly committed to increasing the 
pace and scale of managing the National Forest System, arguing that by 
expanding forest restoration programs, forest health would improve, 
fire danger would decrease, and timber outputs would climb to over 3 
billion board feet. We applaud their 2015 budget request for attempting 
to translate that commitment into action. However, we urge the 
subcommittee to take a more direct route than that proposed by the 
administration.
    The administration has once again proposed a consolidated line 
item, ``Integrated Resource Restoration'', funded at $820 million for 
fiscal year 2015. As you know, this program has been implemented as a 
pilot program in Regions 1, 3, and 4 since 2010. We have not seen any 
indication that the pilot regions are experiencing a reduction in unit 
costs, whether the metric is acres treated or units of wood produced. 
Region 1, in particular, remains extraordinarily dysfunctional, with 
timber output plummeting by more than 58 percent in Montana since the 
pilot program began. There is no indication that an integrated or 
collaborative approach has reduced the appetite for obstruction among 
extremist groups who oppose all management.
    Further, each of these Regions relies heavily on personal use fire 
wood to meet their timber harvest goals and to artificially reduce 
their unit costs. The three pilot Regions' timber programs included 31 
percent, 21 percent, and 43 percent firewood, respectively. When 
firewood is factored out, Region 1 and Region 4 had unit costs of over 
$224 and $137 per thousand board feet each, making them the least 
efficient Regions in the lower 48. IRR has made use of funds more 
difficult to track and budget comparisons item to item or year to year 
almost impossible.
    Fiscal Year 2015 would be the 5th full fiscal year of IRR at the 
pilot level. Ultimately, we aren't getting restoration or treatments 
achieved through this program. We urge you to end the pilot program and 
we oppose expansion to the rest of the country.
    The administration has also recommended expanding the Collaborative 
Forest Landscape Restoration Program (CFLR) by 50 percent, increasing 
the funding from the currently authorized level of $40 million per year 
to $60 million per year. We have similar concerns about CFLR as we do 
the IRR program. The Federal Forest Resource Coalition (FFRC) members 
are actively engaged in CFLR projects across the country. In many 
cases, our members are among the leaders in these collaborative 
efforts. However, as of today, we have yet to see significant results 
from these projects, and drastically increasing the allocation of funds 
to CFLR is not justified at this time.
    We recently surveyed our members on the successes and failures of 
the CFLR projects they are involved in. Just 60 percent said that the 
program had led to increased timber outputs and increased acres 
thinned. Only 53 percent said the program had reduced controversy 
around managing the National Forests. In many cases, our members 
reported that CFLR projects had completed no new National Environmental 
Policy Act (NEPA) documents, and in fact were reporting accomplishments 
from projects whose NEPA was completed prior to the designation of the 
CFLR projects.
    We are extremely concerned about the lack of concrete matching 
funds for already selected CFLR projects. We support continued funding 
for CFLR at the authorized level. Congress should take steps to ensure 
that CFLR funds are truly supplemental to, not displacing, regular 
funds for the National Forest System (NFS) units with projects. 
Stricter matching requirements to ensure concrete financial matches 
should also be implemented. We urge the Committee to direct the Forest 
Service to expand management across the country, and not simply focus 
on CFLR project areas. There are many opportunities, and many 
authorities, for expanded management.
    The Need to Increase Efficiency in NFS Management.--As an industry, 
we have learned how to economize, reduce costs, and do more with less. 
We recognize that the Nation's fiscal situation demands austerity, and 
we dialogue constantly with Federal land managers to find ways to 
reduce costs and increase efficiency. Congress has been at the 
forefront of these efforts. In recent years, the Congress has: Replaced 
cumbersome administrative appeals with a streamlined objection process; 
exempted projects that use a Categorical Exclusion from administrative 
appeal or objection; expanded the use of designation by description to 
all timber sales; and expanded forest health authorities beyond the 
Wildland-Urban Interface.
    We strongly urge you to continue these efforts by directing the 
Forest Service to; meet their forest products output targets using only 
commercial products such as sawlogs, pulpwood, and commercial biomass, 
not personal use firewood; focus higher yielding forest management 
projects on lands designated as suitable for timber production; and 
meet a goal of 3.5 billion board feet in fiscal year 2015.
    The current annual harvest from the National Forests represents 
less than 10 percent of annual forest growth, and less than half the 
allowable sale quantity in existing forest plans. In many Regions, the 
Forest Service is falling short of its own management goals; including 
response to the bark beetle outbreak in the Rockies and in managing 
aspen habitat in the Lake States. Stepping up management, through 
collaboratives where they exist and normal timber programs elsewhere, 
will address pressing forest health concerns while bolstering 
employment in economically distressed rural communities. Investing in 
the Forest Service timber program is a very effective job creator, 
generating 16.5 new direct and indirect jobs per million board feet 
harvested.
    We appreciate the efforts of the subcommittee to remove the 
arbitrary requirements for hazardous fuels reduction work in the 
Wildland Urban Interface (WUI). A greater percentage of lands in need 
of fuels reduction are outside of the WUI, and mechanical thinning 
allows the Forest Service to take advantage of the wood products 
infrastructure to reduce treatment costs. Extensive Forest Service 
research shows that mechanical thinning which includes removing useable 
wood fiber, followed by prescribed fire, significantly reduce threats 
from wildfire and forest pests.
    BLM Forest Management.--The President's fiscal year 2015 budget 
includes a 9.1 percent reduction in funding for the Bureau of Land 
Management Oregon and California (BLM O&C) Land Management Program. 
FFRC strongly supports reforming these critically important and 
productive timberlands. We urge the Committee to reject the proposed 
reduction and fund the O&C program at least at the 2014 enacted level. 
Aggressive action is needed to offer regeneration harvests from these 
lands that meet the needs of local mills and communities. We strongly 
support the Presidential Decree (PD) Forest Management Program at no 
less than the President's recommended level of $9.9 million.
    Alaska.--The timber industry in Alaska faces several challenges 
stemming from years of controversy over the management of the Tongass 
National Forest. FFRC members depend upon supplies of timber from this 
forest, and have been hard pressed as the Forest Service has placed 
complete restrictions on harvest in roadless areas. Current efforts to 
transition to second growth timber will not meet the local industries 
needs for decades. Steps must be taken to offer a timber sale program 
that complies with the National Forest Management Act and can sustain 
the local value added industry in order to save the capacity to manage 
the very small percent of the Tongass that is open to any harvest 
(almost 90 percent of the Tongass is roadless). Local mills and 
loggers, along with Governor Sean Parnell, have concluded that some 
portion of the Tongass should be converted into State ownership in 
order to meet the needs of the local economy. FFRC strongly supports 
this effort. FFRC also strongly urges the subcommittee to make 
permanent the Red Cedar language which it has included in previous 
Interior bills for more than a decade. This language is absolutely 
necessary to insure that USFS sales are not offered as deficit sales.
    Conclusion.--Wood product demand remains strong, providing an 
opportunity to expand management on the National Forests. More forest 
management work needs to be done on the National Forests. Only Congress 
can decide whether we will help meet that domestic and international 
demand using timber from our National Forests, which must be milled 
domestically before it can be exported. Only Congress can create 
American jobs by using this market upswing to pay for badly needed 
forest management work. To paraphrase our favorite bear, only you can 
decide to act now, or you can allow the negative trends in forest 
health and rural economic distress to continue.
                                 ______
                                 
   Prepared Statement of the Federation of State Humanities Councils
    The Federation of State Humanities Councils respectfully requests 
that the Senate Appropriations Subcommittee on the Interior allocate 
$154.5 million for the National Endowment for the Humanities (NEH) and 
$46 million for the Federal/State Partnership for fiscal year 2015.
    We would like to thank the members of this subcommittee for your 
past support. The funding included in the fiscal year 2014 omnibus bill 
for State Humanities Councils was extremely helpful to these 
organizations, particularly following the severe cuts of the previous 
year. Councils are careful stewards of these funds, which they 
administer strategically to achieve the maximum benefit for the 
communities in their States. As full partners of the NEH, councils 
receive their core funding through the Federal/State Partnership line 
of the NEH budget, which they use to leverage additional support from 
foundations, corporations, private individuals, and State governments. 
In 2013, every Federal dollar the councils awarded through grants to 
local institutions leveraged, on average, $5.00 in local contributions. 
Councils further extended their resources by forming partnerships with 
more than 9,000 organizations throughout their States.
    These numbers tell part of the story--but not the most important 
part. Council programs improve not just individual lives but also the 
civic and cultural lives of the communities in your States. The 
benefits of the Federal funds invested in the State Humanities Councils 
are realized through programs that (1) preserve local history and 
culture, (2) support veterans, (3) serve rural communities, (4) reach 
diverse audiences, (5) boost local economies, (6) enhance national 
security, and (7) promote lifelong learning.
    Council programs preserve local history and culture.--Programs that 
help communities understand and appreciate their history have been a 
staple of council work from the beginning, illuminating the events and 
conditions that have shaped these unique places. Consider, for example, 
the Idaho Humanities Council's ``Wilderness Considered'' reading and 
discussion series, developed to commemorate the 50th anniversary of the 
1964 Wilderness Act. This program is designed not only to look at the 
idea of wilderness in the American imagination but also to explore the 
particular relationship that Idahoans ranging from ranchers to 
snowmobilers to hunters and hikers have to wild places and the impact 
this relationship has had on the State's character. Humanities 
Washington, in partnership with the State Historical Society, is 
travelling an exhibit entitled ``Hope in Hard Times'' to eight 
communities. The exhibit and related activities will allow participants 
to reflect on the ways Washingtonians during the Great Depression coped 
with their struggles and sustained hope for a better future. It will 
also invite them to share family and community stories as a means of 
looking at the impact of that history on their own lives, reminding 
themselves to look for their own opportunities to create change.
    Though councils have been supporting such programs throughout their 
history, they have continually explored fresh approaches, involving 
scholars in new ways, engaging audiences more interactively, and 
employing the many electronic tools at hand. The online State 
encyclopedias developed by councils have given residents, visitors, and 
educators unprecedented and constantly evolving access to the history 
of the State. The Virginia encyclopedia, to cite an outstanding 
example, allows visitors to scroll through an alphabetical index of 
State figures and events, browse an interactive map, or bore more 
deeply into topics covered by the blog. The encyclopedia also provides 
resources for teachers and researchers.
    In addition, council programs bring to light stories long hidden 
but crucial to the State's or a community's understanding of its 
culture and identity. The Minnesota Humanities Center, in partnership 
with the Minnesota Indian Affairs Council and the National Museum of 
the American Indian, developed an exhibit, ``Why Treaties Matter: Self-
Government in the Dakota and Ojibwe Nations,'' that has given more than 
50,000 Minnesotans in 39 communities a deeper understanding of the 
circumstances surrounding Minnesota land, its use, and the treatment of 
the land's indigenous people, historically and today. The exhibit has 
also been used in schools, prompting Kevin Gover, Director of the 
National Museum of the American Indian to observe, ``Together, we can 
work to educate a new generation of Minnesotans who understand basic 
important facts about Minnesota's tribal nations.''
    Finally, the Rhode Island Council for the Humanities is 
collaborating with Brown University on Rhode Tour, a new statewide 
digital history project. Rhode Tour features a smartphone app with GPS 
that uses oral histories, pictures, and sound to tell Rhode Island's 
story. The Rhode Island Council is partnering with organizations 
throughout the State to provide the content for this digital history 
tour, including stories on environmental, economic, and social issues.
    Councils serve veterans.--A number of agencies and groups provide 
services and programs for veterans, but the humanities have a special 
role to play. Humanities scholars and facilitators have proven skill at 
drawing out stories and exploring their meaning. Council programs look 
at larger and deeper questions of what it means to individuals to be in 
violent circumstances and what it means to a society to place their men 
and women in such conditions. Over the past few years, councils have 
developed a rich array of programs for and about veterans. These 
include, among others, the Missouri Humanities Council's ``Proud to 
Be'' volumes of veterans writings, the council-sponsored Literature and 
Medicine reading and discussion programs for veterans' caregivers 
throughout the country, and the Veterans' Voices programs sponsored by 
the Minnesota Humanities Center and Humanities Texas that explore the 
veteran experience through plays and discussion groups.
    Cal Humanities recently announced a statewide multi-year program, 
``War Comes Home,'' that will launch hundreds of events involving 
dozens of partners throughout the State. Through speakers, reading and 
discussion groups, public forums, oral histories, and teacher 
resources, the program will help veterans and their families and 
communities explore how Californians are welcoming their returning 
veterans. All these council-sponsored programs have the potential not 
only to allow veterans to tell their stories and to begin to re-
integrate into their communities, but also to compel the public to 
listen, to wrestle with the consequences of sending people to war and 
bringing them home, and to claim their own role and responsibility in 
this process.
    Councils serve rural communities.--A recent Federation survey 
revealed that council programs reached more than 6,000 communities last 
year, many in rural, even remote areas, where they are often the only 
programs of this sort that small towns have access to. Whether they 
involve individual speakers who stimulate a discussion well into the 
evening, a reading and discussion program at the local library, or a 
facilitated community conversation about an issue of concern, these 
programs strengthen and revitalize communities. They unite and 
enlighten residents. They encourage habits of dialogue.
    The highly successful Museum on Main Street program, the product of 
a partnership between State councils and the Smithsonian and designed 
specifically for rural communities, shows the lasting benefits of a 
relatively modest investment. Last year Frederick, Oklahoma, with a 
population just under 4,000, hosted the exhibit ``New Harmonies: 
Celebrating American Roots Music,'' which explored music, history, and 
cultural movements such as desegregation and gender equality. The 
Center's exhibit and program attendance grew by 50 percent and 
donations increased by 150 percent. The Alaska Humanities Forum's 
``Take Wing Alaska'' program helps rural Native Alaska students adjust 
to urban college settings, with the ultimate aim of their gaining 
knowledge to strengthen their communities once they return. The Forum 
sponsors Urban and Campus Immersions in Anchorage that focus not only 
on academic skills, but also on cultural strengths the students can use 
to transition from a rural to an urban environment.
    Council programs reach citizens of all ages, incomes, and levels of 
education.--Increasingly, council programs engage young adults as well 
as seniors, a variety of ethnic communities, immigrants, low-income 
families, prison populations, and Native Americans. These groups are 
not just passive recipients of council programs but partners and active 
participants.
    As our future leaders, teens and young adults are especially 
important participants in humanities programs. Several councils support 
or coordinate their State's National History Day, which offers students 
intellectual, practical, and even emotional benefits. The Pennsylvania 
council offers vibrant interactive programming for students with the 
library-based Teen Reading Lounge. These programs supplement formal 
education for young people and help instill habits of communication and 
critical thinking that will serve them well into adulthood.
    Councils also conduct programs that help immigrants and refugees 
adjust to their new homes and enable long-time residents to learn about 
the cultures of these new citizens. The New York Council for the 
Humanities, in collaboration with the Citizens Committee for New York 
City and several other groups, provided grants to faith-based or 
neighborhood-based immigrant and cultural groups to encourage unity 
through active engagement between new immigrant groups and their 
longer-term neighbors as well as residents of different faiths. 
Projects funded in 2013 through this first-of-its-kind program included 
an interfaith celebration of Eid hosted by Afghans United, a cross-
cultural mural project with students from different ethnic and racial 
backgrounds, and a film series sponsored by the National Council of 
Negro Women that encouraged members of diverse communities to view and 
discuss films about a variety of immigrant experiences.
    Council programs boost local economies.--Council programs help 
improve and revitalize such institutions as libraries, museums, and 
schools, which gives communities a vibrancy that draws both new 
residents and potential investors. Many councils conduct books 
festivals that bring dollars to local economies. Many use the Museum on 
Main Street exhibits to draw tourists. Still others are steadily 
building cultural tourism programs that leverage local dollars. In 
Ohio, where tourism is the fourth largest economic drive in the State, 
Ohio Humanities offers grants and technical assistance to communities 
seeking to engage in heritage tourism, offering authentic place-based 
experiences for travelers. The council has also produced driving tours 
drawing from ``The Ohio Guide,'' the 1940 publication of the Federal 
Writers Project. Communities along the 11 selected routes report that 
the tours have increased visitation.
    The many book festivals that councils conduct in States including 
Tennessee, Montana, Colorado, Virginia, South Carolina, and South 
Dakota serve as another economic boost for host communities, drawing 
readers and tourists from all regions of the State and beyond. A recent 
economic impact study by the Charlottesville Albemarle Convention and 
Visitors Bureau estimated the Virginia Festival of the Book's total 
impact at $3.9M. Over 600 hotel rooms are booked each year for the 
South Carolina Book Festival, which generates more than $100,000 in 
book sales. The Utah Humanities Council's statewide Book Festival has 
for 16 years brought Utah readers and writers together with authors 
from around the world to talk about books and ideas. Throughout the 
month of October (National Book Month) historians, journalists, 
biographers, politicians, and members of the public mingle with poets, 
novelists, and children's writers in communities in every corner of the 
State, both enriching the intellectual and cultural lives and 
contributing to the economies of those communities.
    The humanities and the humanities councils increase national 
security.--Clearly councils do not directly affect national security 
policy-making, but council programs contribute to the citizen 
understanding of global issues that is the necessary prerequisite to 
citizen involvement with the decisionmaking process and the elected 
officials who do make these decisions. The Maine Humanities Council 
offers evidence of the validity of this assumption with ``The World in 
Your Library: A Foreign Policy Speakers Series,'' a speaker series 
through which local libraries host three one-hour presentations, with 
discussion, on foreign policy issues of their choice, providing a rare 
opportunity for residents to explore these issues with experts in 
foreign policy.
    Finally, council programs promote lifelong learning.--This learning 
extends to citizens who participate in the many community conversations 
conducted by councils, to teachers who benefit from the council-
sponsored institutes and seminars that enrich and re-energize them, to 
the parents and children who improve their reading skills and engage 
with ideas through councils' family literacy programs.
    The Virginia Foundation for the Humanities recently offered a 
program, ``Segregation, Desegregation and Civil Rights in Virginia,'' 
that provided learning opportunities for several audiences. First, it 
offered a day-long seminar that used events surrounding the 1959 school 
closings in Arlington and Prince Edward county to help teachers 
``consider new ways to understand and teach this multi-layered history; 
the ways our collective understanding of citizenship and community was 
challenged during the desegregation era; and why this history still 
matters--and the issues remain current--in the present day.'' The 
workshop was followed by a community conversation inviting residents to 
recall their own experience of those years and discuss why these issues 
still matter.
    We have offered only a small sampling of the programs that enrich 
and enliven communities throughout the Nation. We hope these examples 
have demonstrated the significant difference that this modest 
investment in Federal funds makes. And we hope you will look with favor 
on our request for $46 million for the councils and $154.5 million for 
NEH.
                                 ______
                                 
 Prepared Statement of the Fire Suppression Funding Solutions Partner 
                                 Caucus
    The undersigned organizations, members of the Fire Suppression 
Funding Solutions Partner Caucus, urge the subcommittee to address the 
vexing issue of wildfire suppression funding in fiscal year 2015 
appropriations. We respectfully request that the subcommittee correct 
this wildfire suppression funding issue by including language from the 
bipartisan Wildfire Disaster Funding Act (WDFA--H.R. 3992; S. 1875) in 
the fiscal year 2015 Interior, Environment, and Related Agencies 
appropriations bill. This language provides the structure to fund a 
portion of the USDA Forest Service (USFS) and Department of the 
Interior (DOI) wildfire suppression costs through a budget cap 
adjustment under the Balanced Budget and Emergency Deficit Control Act 
of 1985, as amended. This would provide the USFS and DOI with a funding 
structure similar to that used by other agencies who respond to natural 
disaster emergencies.
    The Partner Caucus is a diverse coalition of organizations brought 
together in January of 2009 to find a solution to the impacts of 
increasing suppression costs on land management agencies. Our coalition 
includes national and local organizations, State forestry, 
environmentalists, outdoor and recreation industry, sportsmen, timber 
industry, local governments and many other groups interested in Federal 
lands.
    Our organizations are concerned current spending levels for the 
suppression and FLAME accounts will not be sufficient for fiscal year 
2015 and certainly not sustainable over the long term. The current 
wildfire suppression funding model and cycle of transfers and 
repayments has negatively impacted the ability to implement forest 
management activities. The agencies and first responders need a 
predictable, stable, and efficient budget structure to deliver their 
congressionally directed land management missions.
    Numerous fire seasons over the past decade have required fire 
funding transfers from non-suppression accounts, clearly demonstrating 
the urgent need to change the suppression funding model at the USFS and 
DOI. The last few fiscal years have increasingly reflected the need for 
a new funding approach:

        Fiscal Year 2012 and Fiscal Year 2013

          Carry-over levels in the FLAME accounts were rescinded in 
        fiscal year 2012, suppression was funded below the forecast, 
        and the fire season was very costly, particularly at the end of 
        the fiscal year. Suppression was also funded below the ten-year 
        average in fiscal year 2013 and the fire season was once again 
        very costly. Over $1 billion were transferred from USFS and DOI 
        programs at the end of fiscal year 2012 and fiscal year 2013 
        combined.
          In the past, repayments of transfers occurred through 
        emergency supplemental appropriations, which would occur well 
        after the USFS and DOI Bureaus had been severely impacted by 
        the transfers. However, fiscal year 2012 and fiscal year 2013 
        suppression transfers were ``repaid'' from the entire Interior 
        bill for the following fiscal year. The result is that all 
        Interior Agencies and their programs are now impacted by 
        suppression funding. Additionally, the transfers have had long 
        lasting effects on the USFS' and DOI's implementation of 
        impacted programs that continue to this day.

        Fiscal Year 2014

          Suppression is funded at the full ten-year average. However, 
        with the increasing drought conditions across the Nation, the 
        fiscal year 2014 fire season is expected to be particularly 
        active and costly. There is every indication that the USFS and 
        DOI will run out of suppression funds and be forced to transfer 
        before the end of the season.

    This pattern of funding is neither efficient nor sustainable. The 
Wildfire Disaster Funding bill would provide the USFS and DOI with a 
funding structure similar to that used by other agencies that respond 
to natural disaster emergencies, which have budget cap exemptions for a 
portion of disaster funding. This important change would free the 
agencies to reinvest in core activities which have been reduced in 
recent years due to a continued shift of limited resources to fund 
wildfire suppression, including the very programs that would help to 
decrease wildfire costs over time. Further, this change would end the 
highly disruptive process of canceling and/or significantly delaying 
ongoing project work, most often at the time such work is being 
executed on the ground.
    We appreciate this subcommittee's attention to this increasing and 
unsustainable natural resource challenge. The fiscal year 2015 
appropriations bill can provide for both necessary wildfire suppression 
and also fire risk reduction activities that create jobs and reduce 
firefighting costs in the long run. We are prepared to help and look 
forward to assisting Congress in developing a sustainable and long-term 
solution to fund emergency wildfire suppression.

The following are 226 groups supporting the Wildfire Disaster Funding 
Act:

3 Legs Collaboration Services
4FRI: Four Forest Restoration Initiative Collaborative Stakeholder 
Group
ACA <rm-bond> Canoe--Kayak--SUP--Raft--Rescue
Alamo Navajo School Board, Inc.
Allegheny Hardwood Utilization Group
Alliance for Community Trees
American Bird Conservancy
American Farm Bureau Federation
American Forest & Paper Association
American Forest Foundation
American Forest Resource Council
American Forests
American Hiking Society
American Loggers Council
American YouthWorks
Appalachian Mountain Club
Applegate Partnership and Watershed Council
Arid Land Innovation
Arizona Conservation Corps
Arizona Fire Chiefs Association
Arizona Prescribed Fire Council
Arizona Wildlife Federation
Association of Fish and Wildlife Agencies
Association of National Grasslands
Backcountry Hunters & Anglers
Black Hills Forest Resource Association
Black Hills Regional Multiple Use Coalition
Black Hills Resource, Conservation, and Development
Blue Goose Alliance
Blue Mountains Forest Partners
Boulder County, CO
BRL Services Inc./BRL Logging
Bull Moose Sportsmen's Alliance
California Deer Association
California Fire Safe Council
California Forestry Association
California Ski Industry Association
California Waterfowl
Center for Heirs' Property Preservation
Center for Sustainable Communities
Central Oregon Intergovernmental Council
Choose Outdoors
City of Ashland, OR
Civil War Trust
Clearwater Resource Council
Colorado Timber Industry Association
Congressional Sportsmen's Foundation
Conservation Legacy
Conservation Northwest
ConservationCorps, MN & IA
Criley Consulting
Defenders of Wildlife
Ducks Unlimited
Eastern Arizona Counties Organization
Ecosystem Workforce Program
El Tesoro Retreat Center
Elliotsville Plantation, Inc
Endangered Species Coalition
Environment America
Environmental Stewards
Estrada Collaborative Resource Management, LLC
Federal Forest Resource Coalition
Flagstaff Fire Department
Flathead Economic Policy Center
Foothill Conservancy
Foothills Conservancy of North Carolina
Forest Business Network
Forest County Economic Development Partnership
Forest Energy Corporation
Forest Guild
Forest Health Task Force
Fourth Sector Strategies
Framing Our Community, Inc.
Friends of the Columbia Gorge
Friends of the Urban Forest
Front Range Roundtable
Firefighters United for Safety, Ethics, and Ecology (FUSEE)
Future Forest, LLC
Gila Tree Thinners
Gila WoodNet
Global Parks
Grassroots Outdoor Alliance
Great Lakes Timber Professionals Association
Great Old Broads for Wilderness
Greater Yellowstone Coalition
Hawks Aloft, Inc.
International Association of Fire Fighters
Idaho Conservation League
Idaho Forest Owners Association
Indiana Forestry & Woodland Owners Association
Intermountain Forest Association
Intermountain Roundwood Association
International Association of Fire Chiefs
International Association of Wildland Fire
International Mountain Bicycling Association
Intertribal Timber Council
Jara Landworks
KHII Radio
Lake County Resources Initiative
Lemhi County
Little Colorado River Plateau RC&D
Lomakatsi Restoration Project
Louisiana Forestry Association
Maine Audubon
Mainland Planning, Inc
Mass Audubon
Massachusetts Association of Conservation Commissions
Massachusetts Land Trust Coalition
Massachusetts Resident
Masters of Foxhounds Association
McCutchanville Volunteer Fire Department
Mid Klamath Watershed Council
Montana Conservation Corps
Montana Wilderness Association
Montana Wood Products Association
Mottek Consulting
Mountain States Lumber and Building Material Dealers Association
Mt. Adams Resource Stewards
Mt. Taylor Machine, LLC
Mule Deer Foundation
National Association of Conservation Districts
National Association of Forest Owners
National Association of Forest Service Retirees
National Association of State Foresters
National Association of University Forest Resources Programs
National Cattlemen's Beef Association
National Network of Forest Practitioners
National Parks Conservation Association
National Rifle Association
National Trust for Historic Preservation
National Volunteer Fire Council
National Wild Turkey Federation
National Wildfire Institute
National Wildlife Federation
National Wildlife Refuge Association
National Woodland Owners
Nevada Conservation Corps
New Mexico Forest Industry Association
New Mexico Prescribed Fire Council
New Mexico State Land Office
Northbrook Public Works
Northern Arizona Wood Products Association
Northern Forest Center
Northwest Connections
Northwest Forest Worker Center
Northwest Youth Corps
National Ski Areas Association
Outdoor Alliance
Outdoor Industry Association
Partnership for Rural America
Partnership for the National Trails System
Pheasants Forever/Quails Forever
Pinchot Institute for Conservation
Public Lands Council
Public Lands Foundation
Public Lands Service Coalition
Quality Deer Management Association
Quail and Upland Wildlife Federation
Restoration Technologies
Rocky Mountain Elk Foundation
Rocky Mountain Tree-Ring Research
Ruffed Grouse Society
Rural County Representatives of California
Safari Club International
Salmon Valley Stewardship
San Juan Forest Health Partnership
Sierra Club
Sierra Forest Legacy
Siuslaw Institute
San Juan Woody-Invasives Initiative
Society of American Foresters
South Carolina Wildlife Federation
South Dakota Campground Owners Association
South Dakota ATV/UTV Association
Southeast Youth Corps
Southern Environmental Law Center
Southern Oregon Climate Action Now
Southern Oregon Forest Restoration Collaborative
Southern Oregon Timber Industries Assn.
Southwest Conservation Corps
Southwest Forests Sustainable Partnership
Spatial Interest, LLC
Sustainable Northwest
Swan Ecosystem Center
Taos County Economic Development Corporation
Teller County Home Builders Association
Texas Forestry Association
The Conservation Fund
The Corps Network
The Forest Guild
The National Association of RV Parks and Campgrounds
The Nature Conservancy
The Trust for Public Land
The Watershed Center
The Wilderness Society
The Wildlife Society
Theodore Roosevelt Conservation Partnership
Tierra y Montes SWCD
Town of Laona, Forest County, Wisconsin
Tree Musketeers
Tribal Environmental Policy Center
Trout Unlimited
Twin Willows Ranch
Upstate Forever
Ute Mountaineer
Vail Resorts
Village of Taos Ski Valley
Village Reconstruction and Development Project
Wallowa Resources
Washington State Fire Fighters' Association
Washington Wildlife and Recreation Coalition
Watershed Research & Training Center
West Range Reclamation, LLC
Western Environmental Law Center
Wild South
WildEarth Guardians
Wildlife Forever
Winter Wildlands Alliance
Wisconsin Off-Road Vehicle Park, Inc.
Wisconsin Woodland Owners Association Inc.
Wyoming Mining Association
Wyoming Stock Growers Association
York Land Trust
Zuni Mountain Forest Collaborative
                      
                                 ______
                                 
   Prepared Statement of the Friends of Bon Secour National Wildlife 
                                 Refuge
    Mr. Chairman and members of the subcommittee: On behalf of the 
Friends of Bon Secour National Wildlife Refuge (FBSNWR), thank you for 
this opportunity to submit comments in support of the National Wildlife 
Refuge System, which is administered by the U.S. Fish and Wildlife 
Service. FBSNWR is a nonprofit volunteer organization formed in 1996 
and represents citizens from throughout the United States who cherish 
and support the Bon Secour National Wildlife Refuge. Moreover, our 
members are concerned about its future and the role it plays in 
preserving vital habitat types.
    The Bon Secour National Wildlife Refuge (NWR) provides vital 
habitat for neotropical migratory birds and nesting habitat for 
endangered sea turtles. In addition, the refuge is a component of a 
thriving nature-based tourism along coastal Alabama. The coastal 
economy is dependent upon sound stewardship of natural resources of the 
Gulf of Mexico, so we believe the development and sustainment of a 
strong Bon Secour NWR and National Wildlife Refuge System is critical 
to creating a resilient economy in southern Alabama and the Gulf Coast.
    Our organization is an active partner with the National Wildlife 
Refuge Association, who has focused on several key areas where support 
of the National Wildlife Refuge System is sorely needed. Within this 
context, we urge your action on the following:

1.  Move towards fully funding the National Wildlife Refuge System at 
$900 million annually for operations and maintenance, beginning with 
$476 million in fiscal year 2015.

    The present emphasis on budget austerity is especially troubling 
for refuges on the Gulf Coast, for we may lose opportunities to 
leverage funds generated by criminal and civil penalties associated 
with the 2010 oil spill into long-term investments for these refuges. 
The U.S. Fish and Wildlife Service may be reluctant to expand or 
improve facilities with these funds if the agency does not have 
operational funds to staff and maintain facilities.
    Bon Secour NWR needs a functional visitor and education center. The 
Act that established the refuge in 1980 directed that the refuge 
``serve as a living laboratory for scientists and students''. Bon 
Secour is a natural wonder that contains all aspects of the marine 
environment, so the refuge could demonstrate the importance of the 
marine environment to coastal culture and economy as well as the very 
survival of the planet.

2.  Appropriate $168.8 million in fiscal year 2015 from the Land and 
Water Conservation Fund (LWCF) to acquire conservation easements on 
working lands and to purchase in-holdings and vital habitat for the 
National Wildlife Refuge System and reauthorize LWCF at $900 million 
annually.

    Again, Gulf Coast wildlife refuges may lose opportunities to 
leverage oil spill funds into acquisition of in-holdings and sensitive 
habitats if LWCF funds area not available. Coastal properties are 
expensive, so it will be difficult to rely solely on spill funds to 
acquire land. However, combining LWCF funds with other sources would 
likely enhance our chances to acquire key properties.

3.  Appropriate $35 million in fiscal year 2015 for the North American 
Wetlands Conservation Act (NAWCA) and reauthorize the Act at $75 
million.

    The Bon Secour NWR is one of three refuges within the Gulf Coast 
National Wildlife Refuge Complex. The Grand Bay NWR (located in Jackson 
County, Mississippi and Mobile County, Alabama) is also within the 
complex and has relied heavily on NAWCA funds to acquire lands within 
the currently approved acquisition boundary. The U.S. Fish and Wildlife 
Service proposed in 2011 to expand the acquisition boundary by 
approximately 8,000 acres.

4.  Increase appropriations for essential conservation programs 
including State Wildlife Grants, the Neotropical Migratory Bird 
Conservation Fund, Coastal Grants, and the Department of the Interior's 
Fire Management Program.

    The Mississippi Sandhill Crane NWR is also one of the three refuges 
within the Gulf Coast NWR Complex and supports one of the elite fire 
management operations with the National Wildlife Refuge System. Their 
program represents over three decades of public investment in the 
restoration of fire-dependent habitats that include critical habitat 
for the endangered Mississippi sandhill crane and vital habitat for 
numerous species of neotropical migratory birds. Managing fire-
dependent habitats that are bisected by an interstate highway and 
surrounded by commercial and residential development has not been easy. 
Moreover, these areas will burn by managed fires or wildfires, so it is 
not a matter of choosing to exclude fire from these areas. Therefore, 
supporting the continued investment of using prescribed fire becomes a 
public safety and economic impact in southern Mississippi, for 
wildfires present far more potential to create hazardous smoke 
conditions along the busy I-10 corridor.
    I will conclude with a reminder that the citizens of the Gulf Coast 
were faced with a dire threat to their economy and culture when the 
spill began 4 years ago, for our lives are directly connected to the 
natural resources of the Gulf of Mexico. These National Wildlife 
Refuges represent are a vital component for the stewardship of these 
natural resources and represent decades of public investment. They 
directly support the environment and economy through the science-based 
management of the lands and waters for the benefit of wildlife, and 
they connect citizens to these resources through opportunities to enjoy 
the fish and wildlife.
    The spill no longer dominates the headlines, but the Gulf Coast is 
still hurting. While the nature-based tourism has rebounded well since 
the spill, sustaining the natural features and resources that attract 
customers cannot be certain. Assessing the long-term environmental 
impacts of the spill will take time. Commercial fishing continues to 
struggle, as water quality degradation and other impacts tied to 
various types of coastal development hamper fishery productivity. 
Development is resuming despite the recession. The hurricanes, oil 
spill, and failure to meet the challenges now may leave a gap that will 
be even more costly to fill in the future. Families who have been tied 
to the fishing industry for generations question whether not they are 
witnessing the end of their livelihood.
    We need to support these refuges so that they can be engaged 
partners in the coastal recovery. Our culture and economy depend on 
active and sustainable stewardship of these natural resources, and the 
Gulf Coast is a major component of the national economy.
    Thank you for your consideration. Please do not hesitate to call 
upon the Friends of Bon Secour National Wildlife Refuge if we can be of 
any assistance.
                                 ______
                                 
  Prepared Statement of the Friends of Maine's Seabird Islands (FOMSI)
    Mr. Chairman and members of the subcommittee: On behalf of the 250 
members of the Friends of Maine's Seabird Islands from across the 
country, thank you for the opportunity to submit written testimony on 
the fiscal year 2015 Interior Appropriations bill. Thank you for your 
past support of the National Wildlife Refuge System, the world's 
premier system of public lands and waters set aside to conserve 
America's fish, wildlife and plants.
    FOMSI is an all-volunteer group whose mission is to support the 
Maine Coastal Islands National Wildlife Refuge. The Refuge manages 59 
islands on our 250-mile long coast, and several thousand acres of 
mainland wildlife habitat. First, let me emphasize that we are grateful 
that we have a National Wildlife Refuge on the coast of Maine. Why? For 
many reasons, all of which lead back to the positive economic and 
social benefits that are produced by the conservation of wild lands and 
wise use of our natural resources. The 2006 National Survey of Hunting, 
Fishing and Wildlife-Associated Recreation, found that, in Maine alone, 
hunters, anglers, and wildlife watchers generated nearly $1.5 billion 
in revenue for Maine. Clearly, wild lands and healthy fish and wildlife 
populations are important to this State's economy, and the National 
Wildlife Refuges in Maine are a significant part of that!
    Although we understand and take very seriously the economic 
challenges that our Nation faces, it is important to point out the 
positive economic impact that this Refuge has on local economies. In 
Maine, according to studies conducted by Dr. Charles Colgan from the 
University of Southern Maine, 120 companies provide services involving 
seabird viewing as a recreational activity. These include small kayak 
guides and outfitters all the way to large ships that go on seabird 
watching cruises several times each day. An estimated 5,000 to 7,500 
trips are made by people annually primarily for seabird viewing and 
350,000 to 450,000 trips with seabird viewing as a secondary activity. 
The total estimate for seabird-related spending was $5 million to $10 
million in 2001. This does not count the number of birders and others 
who have their own boats and do not take the organized trips, yet come 
to this area specifically to see seabirds; accordingly, they have a 
significant, but uncalculated impact on the economy, too. Nor does it 
count the revenues from stores that sell merchandise from t-shirts to 
binoculars that go along with birding.
    Thousands of people come to the Maine coast each year to see the 
charismatic Atlantic puffin, a bird that nests in the United States 
only in Maine. Currently, over 90 percent of the Atlantic puffins 
nesting in Maine nest on Refuge islands, where they are actively 
protected by Refuge staff and partners, such as the National Audubon 
Society and Maine Division of Inland Fisheries and Wildlife. If funding 
for this management is not maintained, these nesting birds will abandon 
their colonies and Maine will return to the pre-Refuge situation in the 
1970's and early 1980's when only gulls nested on many of the islands. 
Seabird viewing and birder expenditures will fall, and our already 
fragile economy will suffer further.
    The economic impact described above is only a part of the positive 
impact that the Refuge has on the State's economy. Others visit the 
Refuge units to hunt, hike, fish, and learn about conservation. The 
Fish and Wildlife Service's ``Banking on Nature'' report showed that 
the local economic effects of recreational visits to this refuge 
totaled $7.9 million in 2011, with associated employment of 71 jobs, 
$2.2 million in employment income and $930,700 in total tax revenue.
    That is a brief summary of the economic impacts that one refuge has 
in our part of the country. There are five other refuges in Maine that 
are also important to Maine's economy. Multiply that by the 556 
National Wildlife Refuges in the System, and it is clear that Congress' 
investment in the System pays off many-fold to our Nation's economy. 
Our National Wildlife Refuges are often economic powerhouses, 
especially in rural areas. In fact, ``Banking on Nature,'' found that 
for every $1 that is appropriated for the National Wildlife Refuge 
System (NWRS), $5 is returned to our Nation's economy.
    Therefore, we respectfully ask you to:
    1. Maintain management capabilities for the National Wildlife 
Refuge System by approving a $4 million increase over fiscal year 2014 
levels. The System actually needs $900 million annually to adequately 
manage its 150 million acres; a funding allocation of $476 million in 
fiscal year 2012 will simply maintain the status quo.
    2. Appropriate $168.8 million in fiscal year 2015 from the Land and 
Water Conservation Fund (LWCF) to acquire conservation easements on 
working lands and to purchase in-holdings and vital habitat for the 
National Wildlife Refuge System, and reauthorize LWCF at $900 million 
annually. Created in 1965 and authorized at $900 million per year (more 
than $3 billion today), the LWCF is Refuges' most important land 
acquisition tool. More than 8 million acres are unprotected within 
existing refuge boundaries and there is an increasing need to establish 
key wildlife corridors and connections between protected areas making 
the LWCF more important than ever.
    There are four significant inholdings for sale at the Maine Coastal 
Islands National Wildlife Refuge, and more are expected to come on the 
market soon. Funding of the LWCF at the authorized level will allow the 
Refuge to acquire these important inholdings to further protect its 
integrity.
    3. Appropriate $35 million in fiscal year 2015 for the North 
American Wetlands Conservation Act (NAWCA) and reauthorize the Act at 
$75 million. This Act helps the U.S. Fish and Wildlife Service leverage 
Federal conservation efforts through partnerships that enable the 
acquisition and restoration of critical wetlands to deliver multiple 
benefits including habitat restoration and improved water quality.
    The Refuge received partial funding from NAWCA this year to help 
acquire Mahoney Island in Brooklin, Maine, a critical seabird nesting 
island. We are grateful for that, and hope to receive more funding from 
this important Act in the future.
    4. Increase appropriations for essential conservation programs 
including State Wildlife Grants ($58.7 million), the Neotropical 
Migratory Bird Conservation Fund ($4 million), Coastal Grants ($13 
million), and the Department of Interior's Fire Management Program ($60 
million).
    The State Wildlife Grant program is a very successful Federal-State 
program that helps keep our Nation's wildlife from becoming endangered.
    Neotropical Migratory Bird Conservation Act (NMBCA) grants conserve 
the habitats that neotropical birds use along their migration north and 
south and in their wintering range throughout the Caribbean, Central, 
and South America. This Act fortifies investments on national wildlife 
refuges by conserving ``our'' birds during critical periods of their 
lifecycles spent outside of refuges and often outside the United 
States.
    The Coastal Program provides technical and financial assistance for 
voluntary efforts to protect and restore coastal habitats for wildlife. 
This program is critical to implementing recovery projects such as 
restoring and enhancing estuarine habitats, removing invasive species 
and derelict fishing gear, and stabilizing shoreline. This program has 
been a very important partner with the coastal refuges in Maine.
    Fire is one of the Service's most important tools for managing 
wildlife habitat; however, due to the catastrophic western wildfires 
made worse by climate change and fuel loading, funds for refuge fire 
management have been consistently diverted to fighting wildfires and 
protecting the forest-urban interface. Resources are needed to allow 
refuges to manage dangerous fuel loads in fire-dependent systems and to 
use fire management to improve habitat for many threatened and 
endangered species. The refuges in Maine actively use fire to protect 
and enhance habitats for many species such as arctic terns and 
woodcock.
    We are proud of our National Wildlife Refuges, one of our country's 
greatest conservation achievements. We are but one of 230 ``friends'' 
groups who support National Wildlife Refuges throughout the country. 
Friends groups provide assistance to our National Wildlife Refuges 
through monetary and equipment donations and volunteer labor. Last year 
over 40,000 friends and volunteers provided services for the NWRS equal 
to over 600 positions, saving taxpayers millions of dollars. Volunteers 
throughout the country provide an astonishing 20 percent of the work 
done of Refuges each year! This is a further indication of how many 
Americans support the National Wildlife Refuge System.
    The interest in our National Wildlife Refuge System is significant 
and we are showing our support with our donated time and funds. 
However, we need proper funding of the System so we can leverage our 
taxpayer dollars to provide even more economic and social benefits to 
our country.
    Finally, let me also add that with all the negative stories in the 
press today about Government appropriations and politics, the National 
Wildlife Refuge System remains a positive success story since the first 
Refuge was created by President Theodore Roosevelt over 100 years ago. 
It has always enjoyed support from Congress and we thank you for that, 
and for your continued support!
                                 ______
                                 
         Prepared Statement of the Friends of Rachel Carson NWR
    Mr. Chairman and honorable members of the subcommittee: I am Bill 
Durkin, President of the Friends of RCNWR in Maine.
    I have been a member of the Friends of Rachel Carson NWR for the 
past 23 years. The group was founded in 1987; we are a small group of 
about 200 members. This time of the year all of the letters go out to 
Congress asking for support of the refuge. I have given numerous 
written statements over the years and we really appreciate your support 
in the past. This year, our refuge is not requesting any appropriations 
directly for Rachel Carson National Wildlife Refuge; this is a request 
for general funding of the System. I thank you all for your 
consideration.
    1. We are requesting an overall funding level of $476 million in 
fiscal year 2015 for the operations and maintenance budget of the 
National Wildlife Refuge System, managed by the U.S. Fish and Wildlife 
Service. All of the refuges are in dire need of staffing and upkeep. 
Refuges provide unparalleled opportunities to hunt, fish, watch 
wildlife and educate children about the environment; last year there 
were over 46 million visitors to all of the Refuges combined. An 
investment in the Nation's Refuge System is an excellent investment in 
the American economy. Without increased funding for refuges, wildlife 
conservation and public recreation opportunities will be jeopardized. 
We fully supported the U.S. Fish and Wildlife's request of $476 million 
for O&M for the NWRS.
    2. The Land and Water Conservation Fund is our Nation's premier 
Federal program to acquire and protect lands at national parks, 
forests, refuges, and public lands and at State parks, trails, and 
recreational facilities. These sites across the country provide the 
public with substantial social and economic benefits including 
promoting healthier lifestyles through recreation, protecting drinking 
water and watersheds, improving wildfire management, and assisting the 
adaptation of wildlife and fisheries to climate change. For all these 
reasons, LWCF needs to be funded at the $168.8 million level. Created 
by Congress in 1964 and authorized at $900 million per year (more than 
$3 billion in today's dollars), the LWCF is our most important land and 
easement acquisition tool. The President has included meaningful 
increases to the program in his fiscal year 2015 budget, and I support 
the administration's commitment to fully funding the program in the 
near future. I urge a minimal commitment of $168.8 million to the 
National Wildlife Refuge System. This wise investment in the Land and 
Water Conservation Fund is one that will permanently pay dividends to 
the American people and to our great natural and historical heritage. 
The Land and Water Conservation Fund should be fully funded at $900 
million annually--the congressionally authorized level. LWCF is good 
for the economy, it is good for America's communities and their 
recreational access; it is critical for our public lands and wildlife 
habitat.
    3. Appropriate $35 million in fiscal year 2015 for the North 
American Wetlands Conservation Act (NAWCA) and reauthorize the Act at 
$75 million. NAWCA supports habitat restoration, water quality 
improvements and carbon sequestration.
    The Rachel Carson National Wildlife Refuge is named in honor of one 
of the Nation's foremost and forward-thinking biologists. After 
arriving in Maine in 1946 as an aquatic biologist for the U.S. Fish and 
Wildlife Service, Rachel Carson became entranced with Maine's coastal 
habitat, leading her to write the international best seller ``The Sea 
Around Us''. This landmark study, led Rachel Carson to become an 
advocate on behalf of this Nation's vast coastal habitat and the 
wildlife that depends on it, the refuge that bears her name is 
dedicated to the permanent protection of the salt marshes and estuaries 
of the southern Maine coast. Last year, we celebrated the 50th 
anniversary of Rachel Carson's publication of her historic book, 
``Silent Spring'' and look forward in continuing her message through 
various programs at the refuge here in Maine.
    I again extend our appreciation to the subcommittee for its ongoing 
commitment to our National Wildlife Refuge System and respectfully 
request the Interior Appropriations Subcommittee allocate $476 million 
for the Refuge System's fiscal year 2015 Operations & Maintenance (O&M) 
budget, and fund the LWCF at the $168.8 million level for fiscal year 
2015. The LWCF request is constant every year, we need Congress to 
standby their commitment that was made in 1964: stabilize the fund at 
the $900 million level.
    Thank you again, Mr. Chairman, for the opportunity to present this 
testimony in support of protecting wildlife and it's habitat. Enjoy 
your next walk out on a National Wildlife Refuge.
                                 ______
                                 
    Prepared Statement of the Friends of the Florida Panther Refuge
    Mr. Chairman and members of the subcommittee: The Friends of the 
Florida Panther Refuge recommends the following funding for fiscal year 
2015:

 
 
 
National Wildlife Refuge System.........................  $476.4 million
Land and Water Conservation Fund........................  $168.8 million
Neotropical Migratory Bird Conservation Act.............    $3.7 million
State Wildlife Grants...................................   $58.7 million
Coastal Program.........................................   $13.0 million
 

    We also support funding changes within the fiscal year 2015 U.S. 
Department of the Interior Wildlands Fire Budget to include:
  --Preparedness.--A program increase of $34.1 million, including $15.0 
        million for tribal resource management;
  --Resilient Landscape.--Program established at $30.0 million;
  --Burned Area Rehabilitation (BAR).--A program increase of $2.0 
        million; and
  --Fixed Costs Increases.--Fixed cost increases of $4.2 million.
    Thank you for the opportunity to offer testimony concerning the 
funding of the National Wildlife Refuge System and the Department of 
the Interior's Wildlands Fire Management Budget. The 26,400 acre 
Florida Panther National Wildlife Refuge (FPNWR) was established in 
southwest Florida to protect the critically endangered Florida panther 
and its habitat. The FPNWR is also populated with many other species 
that are listed as threatened or endangered by Federal and State 
agencies. The Friends of the Florida Panther Refuge is a non-profit 
volunteer organization with a mission to support the FPNWR and protect 
the Florida panther in the wild. Our members are concerned for the 
future of the habitat and wildlife on our refuge and Florida panther 
habitat in general.
    We are also concerned about maintaining Florida's unique 
environment on public and private lands. Southwest Florida supports a 
large tourist industry that is dependent on maintaining a healthy 
environment. Funds spent on protecting species and water quality have a 
significant economic impact on the region.
              funding the national wildlife refuge system
    Our National Wildlife Refuge system needs to be fully funded to 
protect America's natural heritage. The Friends of the Florida Panther 
Refuge urges the Senate to appropriate $476 million in fiscal year 
2015. A budget of $900 million every year, with a minimum of $476 
million for fiscal year 2015, is required to fully fund the operations 
and maintenance of the National Wildlife Refuge System. Funding less 
than these amounts threatens permanent damage to the system.
    Refuge mangers at the FPNWR are challenged by a variety of funding 
shortfalls to fully carry out habitat restoration, invasive species 
control, prescribed burning, baseline and updated wildlife inventories, 
education/interpretation, law enforcement, visitor services as well as 
technical assistance and collaborative efforts across boundaries with 
private land holders. The staff at the FPNWR has been reduced by six 
full time employees over the last 3 years representing a 32 percent 
decrease in staff and is hard pressed to meet their goals.
              the land and water conservation fund (lwcf)
    The Land and Water Conservation Fund (LWCF) should be appropriated 
$168.8 million in fiscal year 2015 to acquire conservation easements on 
working lands and to purchase outright the vital habitats to support 
the National Wildlife Refuge System.
    The Land and Water Conservation Fund (LWCF) is an essential tool 
for protecting the integrity of Florida panther habitat. Funds of this 
program along with funds from the State of Florida are critical to the 
survival of the Florida panther and other Federal listed species. There 
is an opportunity with private land easements to not only protect 
Florida panther habitat but also the ranching heritage of central and 
south Florida for future generations. This is a critical time through 
easements and acquisition to provide wildlife corridors through central 
and south Florida that will protect our life style, traditions, and 
natural resources for future generations. Time will run out on this 
opportunity with lasting negative effects. The window of to secure a 
place for Florida panthers, conservation and compatible agriculture in 
Florida is rapidly closing.
    Increase appropriations for essential conservation programs 
including State Wildlife Grants, the Neotropical Migratory Bird 
Conservation Fund, Coastal Grants, and the Department of Interior's 
Fire Management Program.
    State Wildlife Grants.--The Fish and Wildlife Service works with 
Florida to keep common species common and restore declining species 
before they warrant listing under the Endangered Species Act. We ask 
the Senate to fund the State Wildlife Grants Program at $58.7 million 
for fiscal year 2015 to fulfill the shared Federal-State responsibility 
for keeping our Nation's wildlife from becoming endangered.
    Neotropical Migratory Bird Conservation Act (NMBCA).--Populations 
of Neotropical birds are high on the Florida Panther National Wildlife 
Refuge and our sister Refuge, the Ten Thousand Islands National 
Wildlife Refuge. NMBCA grants conserve the habitats that neotropical 
birds use along their migration north and south and in their wintering 
range throughout the Caribbean, Central, and South America. This Act 
fortifies investments on national wildlife refuges by conserving 
``our'' birds during critical periods of their lifecycles spent outside 
of refuges and often outside the United States. We request that the 
Senate reauthorize the NMBCA and provide $3.7 million for fiscal year 
2015.
    Coastal Program.--Water birds, sea turtles, game fish and other 
flora and fauna attract many visitors to our sister Refuge, Ten 
Thousand National Wildlife Refuge. The Coastal Program provides 
technical and financial assistance for voluntary efforts to protect and 
restore coastal habitats for wildlife. The coastal program is critical 
to implementing recovery projects such as restoring and enhancing 
estuarine habitats, removing invasive species and derelict fishing 
gear, and stabilizing shoreline. We ask Senate to fund the Coastal 
Program at $13 million for fiscal year 2015.
    U.S. Department of the Interior Wildlands Fire Management Budget.--
The Florida Panther National Wildlife Refuge is highly dependent on the 
use of prescribed burns to manage the habitat for the Florida panther 
and its prey. Reduced funding of the fire operation budget has forced 
the Refuge to reduce positions over the last several years. This 
situation has left critical habitat unburned and increased dangerous 
fuel loads in this highly fire-dependent system. The State and the 
Federal governments have invested billions of dollars to restore the 
Everglades, making a more resilient ecosystem. Fire management in this 
region is needed complement the restoration. We urge the Senate to 
include in fiscal year 2015 U.S. Department of the Interior Wildlands 
Fire Budget:
  --Preparedness.--A program increase of $34.1 million, including $15.0 
        million for tribal resource management;
  --Resilient Landscape.--Program established at $30.0 million;
  --Burned Area Rehabilitation (BAR).--A program increase of $2.0 
        million; and
  --Fixed Costs Increases.--Fixed cost increases of $4.2 million.
    Thank you for consideration of our comments.
                                 ______
                                 
   Prepared Statement of the Friends of the Silvio O. Conte Fish and 
                            Wildlife Refuge
    Thank you for the opportunity to submit written testimony on behalf 
of the Friends of the Silvio O. Conte Fish and Wildlife Refuge (Friends 
of Conte). The Friends of Conte respectfully request $5 million ($2 
million in discretionary funding; $3 million in mandatory funding) for 
land acquisition projects in the Connecticut River Watershed as well as 
full funding, $900 million, for the Land and Water Conservation Fund.
    The Friends of Conte represent organizations big and small, from 
all corners of our four-State watershed. Our diverse membership 
includes groups that focus on educating urban constituencies in 
Hartford, Connecticut and Springfield, Massachusetts, groups that focus 
on providing recreational access to the river, business interests and 
local and regional watershed groups that focus on protecting the water 
that we drink and swim and fish in, and national non-profits whose work 
includes the Connecticut River watershed. We have been dedicated to 
recreation, education and conservation in the Connecticut River 
Watershed for the past 7 years and represent more than 65 organizations 
with more than 100,000 members.
    The Connecticut River, New England's main artery for commerce and 
transportation throughout the region's early development, gained 
additional notoriety in 1991 when President George H. W. Bush signed 
legislation establishing the Silvio O. Conte Fish and Wildlife Refuge 
(Conte Refuge). Uniquely legislated among other refuges in the U.S. 
Fish and Wildlife Service system, the Conte Refuge was founded on three 
pillars: land protection, cooperative management and environmental 
education. The Conte Refuge is also unique as it attempts to conserve 
an entire watershed in which 2.3 million individuals co-exist with 
nature. Additionally, the Conte Refuge calls for only a small acreage 
in public ownership, with the vast majority of the watershed in 
privately-held lands. The refuge also works with those landowners to 
help them achieve their personal conservation goals for their 
properties.
    The 4,840 acres and 35 tracts (1,274 acres and 14 tracts with 
discretionary funding and an additional 3,566 acres and 21 tracts with 
mandatory funding) in our funding request spans the entire four-State 
Connecticut River watershed, protecting critical forests, wetland and 
rivers. These acquisitions from willing sellers represent a key 
opportunity to protect critical habitats and to provide recreational 
access to the more than 2 million citizens of the watershed, as well as 
to the 70 million individuals who are within a day's drive of the Conte 
Refuge.
    Providing these recreational opportunities not only makes 
conservation sense, it makes good economic sense. In 2013, the Outdoor 
Industry Association documented an economic impact of $23.6 billion in 
consumer spending on outdoor recreation and more than 200,000 in direct 
jobs in the four watershed States of Vermont, New Hampshire, 
Massachusetts and Connecticut.
    More specifically, New England's healthy fish and wildlife 
populations are also a backbone of the region's economy. New England's 
fish and wildlife support a $5.31 billion-dollar wildlife-related 
economy. This includes a $2.57 billion-dollar hunting and angling 
economy and a $2.74 billion-dollar wildlife watching economy. In 
addition to outdoor recreation, the nature services these lands provide 
include water quality and streamflow protection, as water filters 
through our forests prior to entering our rivers and streams, and flood 
protection as floodplain forests absorb and slow flood waters.
    As you know, the Land and Water Conservation Fund (LWCF) was 
established by Congress nearly 50 years ago and will expire next year. 
We are at an important juncture. If we miss this opportunity to 
celebrate and commemorate the 50th Anniversary of LWCF in all 50 States 
at the full funding level and continue the conservation legacy of LWCF 
for another 50 years; the quality of the natural environment will 
impact the human environment. These impacts will be exacerbated by 
changes in climate and land use. Actions made possible by the LWCF Act 
of 1965 allow agency and elected leaders the opportunity to invest in 
monumental ways to create another chapter in our Nation's conservation 
legacy for future generations.
    In closing, we thank you again for the opportunity to comment. The 
Friends of Conte is a diverse association of organizations and 
individuals from conservation, education, and recreation communities, 
who are avid supporters of the Conte Refuge and the Connecticut River 
watershed. We believe the investment of funds from the LWCF will 
enhance recreation and conservation, protect clean water, and support 
jobs and economic vitality across the entire four-State watershed.
                                 ______
                                 
 Prepared Statement of the Friends of the Tampa Bay National Wildlife 
                             Refuges, Inc.
    Mr. Chairman and members of the subcommittee: On behalf of the 192 
members of the Friends of the Tampa Bay National Wildlife Refuges 
(FTBNWR), including Egmont Key National Wildlife Refuge (NWR), Passage 
Key NWR, and Pinellas NWR, I would like to thank you for your 
commitment to the National Wildlife Refuge System (NWRS). The 4 percent 
funding increase that you passed for fiscal year 2014 made a huge 
difference throughout the refuge system. We realize that in this time 
of budget cuts, it may be difficult to justify increasing the NWRS 
funding again, but once the Refuges start to decline it will cost many 
times more than these small increases to return them to a condition 
that will fulfill their mandates. We respectfully request that you 
consider the following in your appropriations:
  --Fund the National Wildlife Refuge System $476 million in fiscal 
        year 2015.
  --Fund the Land and Water Conservation Fund (LWCF) at $900 million 
        for fiscal year 2015, including a minimal commitment of $168.8 
        million for the National Wildlife Refuge System.
  --Fund $35 million in fiscal year 2015 for the North American 
        Wetlands Conservation Act (NAWCA) and reauthorize the Act at 
        $75 million.
  --Increase funding for essential conservation programs including 
        $58.7 million for State Wildlife Grants, $4 million for the 
        Neotropical Migratory Bird Conservation Fund, $13 million for 
        Coastal Grants, and $60 million for the Department of 
        Interior's Fire Management Program.
    The Cooperative Alliance for Refuge Enhancement (CARE) estimates 
that the NWRS needs a budget of at least $900 million annually in 
operation and maintenance funding in order to properly administer its 
150 million acres as mandated in the Refuge Improvement Act. The Refuge 
System cannot fulfill its obligation to the American public, our 
wildlife, and 46.5 million annual visitors without increases in 
maintenance and operation funds. The current budget is far short of the 
amount actually required to effectively operate and maintain the 
Refuges. We respectfully request that you increase the NWRS budget to 
$476 million so that the Refuges do not backslide even further in 
protecting these valuable lands and ecosystems. The investment yields 
an impressive return, generating approximately 35,000 jobs and $2.4 
billion in economic output each year. Every dollar appropriated to the 
Refuge System returns and average of $4.87 to local economies as well 
as providing $33 billion dollars' worth of clean water and other 
environmental benefits such as clean air and water and a cool climate.
    The Land and Water Conservation Fund was created in 1965 and 
authorized at $900 million. We ask that you reauthorize the LWCF at 
$900 million for fiscal year 2015 with a minimal commitment of $168.8 
million to the National Wildlife Refuge System. These funds are used 
for land acquisition as well as less expensive easements or leases to 
protect wildlife and their habitats. With the effects of a changing 
climate, it is more important now than ever to establish key wildlife 
corridors between protected areas so wildlife can migrate to more 
suitable habitat as their historic ones change. These landscape level 
conservation efforts through conservation easements and land purchases 
are the best way to protect the diversity of flora and fauna. The price 
of real estate is still low at this time and the $900 million can go 
much further in protecting habitats than it can in a higher market. 
When we start to lose species due to lack of food, water, shelter, or 
space, we are changing the balance of nature. We urge you to fund the 
LWCF at $900 million for fiscal year 2015 with $168.8 million to 
acquire conservation easements on working lands and to purchase in-
holdings and vital habitat for the NWRS. The LWCF is not funded by 
taxpayer money.
    We ask that you appropriate $35 million in fiscal year 2015 for the 
North American Wetlands Conservation Act (NAWCA) and reauthorize the 
Act at $75 million. NAWCA supports habitat restoration, water quality 
improvements, and carbon sequestration. These projects developed by 
individuals and at the community level benefit our declining migratory 
bird species as well as ducks and waterfowl.
    Essential conservation programs to protect habitat and wildlife 
will cut expenses in the future by protecting and improving what we 
have today. We request that you fund the State Wildlife Grants Program 
at $58.7 million to fulfill the shared Federal-State responsibility for 
keeping our Nation's wildlife from becoming endangered. The NMBCA 
grants conserve habitats for Neotropical birds as they migrate. It 
covers areas outside of refuges and often outside the U.S. that many of 
our birds utilize during critical periods of their life. We request you 
fund the NMBCA at $4 million for fiscal year 2015. The Coastal Program 
provides technical and financial assistance for voluntary efforts to 
protect and restore coastal habitats for wildlife. We ask that you fund 
this program at $13 million for fiscal year 2015. Lastly, prescribed 
burns keep our refuges from becoming overgrown or having catastrophic 
fires due to high fuel loads due to fire suppression. It is an 
important tool for managing wildlife habitat. We urge you to provide 
$60 million in dedicated funding to the Refuge System's fire program 
through the Department of the Interior's Hazardous Fuel Reduction 
program.
    The Tampa Bay Refuges (TBR) are located at the mouth of Tampa Bay 
on the west central Gulf coast of Florida. The budget increases a few 
years ago meant increased management, protection, and restoration of 
the Refuges and the ability to better meet the Comprehensive 
Conservation Plan (CCP) goals. The wildlife on the refuges has done 
well with the extra help. Due to those past increases in budget and 
personnel the TBRs were able to plan for big picture issues such as 
erosion and increased public use. Unfortunately, due to the budget 
decreases, much of that planning will not be implemented.
    The recent budget decreases and the sequestration have hurt our 
refuges.
  --The Crystal River NWR Complex which included the Tampa Bay Refuges 
        was comprised of 5 refuges. It is now part of the 9 refuge 
        North Florida NWR complex. In 2013, the Project Leader and both 
        refuge managers from the Crystal River Complex moved to other 
        refuges, leaving no manager at the Tampa Bay Refuges.
  --We are coming into the summer nesting season on Egmont & Pinellas 
        NWR's. Without a manager and with the heavy visitation in the 
        warmer months, this is a big problem. The refuge law 
        enforcement (LE) officers are not able to patrol Egmont Key as 
        often during the key summer nesting season due to restrictions 
        in travel and overtime. This leaves the nesting birds open to 
        more intrusions by refuge visitors and nesting failures.
  --If a staff member leaves, he/she may not be replaced so the refuge 
        can stay afloat financially for the rest of this fiscal year 
        because of the budgets. We have already lost a maintenance 
        position to keep the equipment, including the boats used to 
        access the island refuges, in good working order and now we are 
        down managers as well.
  --The refuge was able to eradicate exotic plants and predators on the 
        refuges, but with the budget, there is little or no money to 
        monitor and keep up with the work that has already been done. 
        The result will be degraded habitat for refuges and their 
        wildlife, including nesting failures.
  --Fire management budgets have been cut and prescribed fires have not 
        been conducted Egmont Key as needed. This opens the island, its 
        historic buildings, & visitor center up to a much higher 
        catastrophic wildfire risk.
  --There simply isn't enough money in the budget to purchase safety 
        equipment, like a GPS, for the refuge boat. The Tampa Bay 
        Refuges 2014 budget didn't have enough money to pay for storage 
        at a marina for the boat used to get to the refuges. Our 
        Friends group made up the difference. Without a boat at a 
        convenient location, the staff must waste valuable time and 
        wages towing a boat from the maintenance yard 80 miles away and 
        then launching it near the islands. If the staff has to waste 
        3-4 hours of their day getting a boat ready they only have a 
        few hours to work, rather than a full 8 hour day working.
  --The Ft. Dade Guardhouse on Egmont Key NWR has been restored and 
        will become the visitor center. The Refuge had grant money and 
        installed the first phase of the displays, but with the budgets 
        the way they are staff may not have time to keep this important 
        environmental education center open to the public, much less 
        finish the next phase.
  --Egmont Key NWR has a huge erosion problem and can possibly be lost. 
        Because it is in an urban setting, the 32,000 pairs of birds 
        who nest there yearly don't have another location to go to. 
        Because of the lack of funding, this refuge and nesting habitat 
        could be lost in the not too distant future. Passage Key NWR 
        has eroded to the point that it is a sandbar at low tides and 
        no longer useful for nesting: those birds moved to Egmont. 
        There is nowhere else to go if Egmont is lost.
    These are just a few of the things impacting the Tampa Bay Refuges. 
Bottom line, funding cuts hurt the wildlife that the NWRS is mandated 
to protect. The refuge system has a very small budget compared to the 
whole Federal budget. It is not a big impact to the Federal budget to 
give the refuges a little more funding whereas the impact of reduced 
funding is devastating. Please consider funding $476 million for the 
fiscal year 2015 Operations and Management budget.
    The Friends of the Tampa Bay National Wildlife Refuges (FTBNWR) was 
incorporated and became a 501c3 in 2008 to better assist the Tampa Bay 
National Wildlife Refuges with volunteers and fundraising. In 2013 
FTBNWR was able to provide over 3000 volunteer hours to assist the 
refuge staff with exotic invasive control, refuge cleanups, and 
education. FTBNWR has been able to raise money to fund continued 
removal of invasive plants on the Pinellas Refuges that degrade the 
habitat for the wildlife. FTBNWR has also purchased equipment for the 
refuge boat and contributed to the local storage of the boat. The 
FTBNWR also continued their Education Program to provide outdoor 
environmental educational programs at our local schools for grades K-5 
and also environmental field trips to nearby preserves to teach our 4th 
& 5th graders about the NWRS and the environment. Volunteers act as 
bird stewards on Egmont Key NWR during the summer nesting season to 
enhance the visitors experience on the refuge through education. Our 
refuges do not have enough staff to provide these education programs so 
we have filled that gap as volunteers. Our volunteers are passionate 
about the Refuge System and donate their time, money, and expertise to 
protect them.
    The Friends of the Tampa Bay National Wildlife Refuges is one of 
over 230 Friends groups who support the National Wildlife Refuges. The 
interest in our National Wildlife Refuge System is significant and we 
are proving it with our donated time and funds.
    In conclusion, the Friends of the Tampa Bay National Wildlife 
Refuges believe the National Wildlife Refuge System can meet its 
conservation objectives only with strong and consistent funding 
leveraged by the work of refuge staff and volunteers. We again extend 
our appreciation to the subcommittee for its ongoing commitment to our 
National Wildlife Refuge System. We encourage you to approve $476 
million for the fiscal year 2015 National Wildlife Refuge System 
Operations and Maintenance budget managed by FWS and to approve $900 
million for fiscal year 2015 for the LWCF land acquisition budget as 
well as a dedicated $168.8 million for the NWRS. Additionally, we urge 
you to appropriate $35 million in fiscal year 2015 to the NAWCA, $58.7 
million to the State Wildlife Grants Program, $4 million to the NMBCA, 
$13 million to the Coastal Program, and $60 million dedicated to the 
Refuge System's fire program through the Department of the Interior's 
Hazardous Fuel Reduction Program.
                                 ______
                                 
        Prepared Statement of the Geological Society of America
                                summary
    The Geological Society of America (GSA) urges Congress to at least 
fully fund the fiscal year 2015 request for the U.S. Geological Survey 
(USGS). As one of our Nation's key science agencies, the USGS plays a 
vital role in understanding and documenting mineral and energy 
resources needed for economic growth; researching and monitoring 
potential natural hazards that threaten U.S. and international 
security; and determining and assessing water quality and 
availability--keys to a healthy and prosperous society. Approximately 
two-thirds of the USGS budget is allocated for research and 
development. In addition to underpinning the science activities and 
decisions of the Department of the Interior, this research is used by 
communities across the Nation to make informed decisions in land use 
planning, emergency response, natural resource management, engineering, 
and education. Despite the critical role played by the USGS, funding 
for the Survey has stagnated in real dollars for more than a decade and 
the request is still below the fiscal year 2010 budget. Given the 
importance of the many activities of the Survey that protect lives and 
property, stimulate innovations that fuel the economy, provide national 
security, and enhance the quality of life, GSA believes that balanced 
growth in Federal funding for the Survey is necessary for the future of 
our Nation.
    The Geological Society of America, founded in 1888, is a scientific 
society with over 26,000 members from academia, government, and 
industry in all 50 States and more than 100 countries. Through its 
meetings, publications, and programs, GSA enhances the professional 
growth of its members and promotes the geosciences in the service of 
humankind.
u.s. geological survey contributions to national security, health, and 
                                welfare
    The USGS is one of the Nation's premier science agencies. 
Approximately two-thirds of the USGS budget is allocated for research 
and development. In addition to underpinning the science activities and 
decisions of the Department of the Interior, this research is used by 
communities across the Nation to make informed decisions in land use 
planning, emergency response, natural resource management, engineering, 
and education. USGS research addresses many of society's greatest 
challenges for national security, health, and welfare. Several are 
highlighted below.
  --Natural hazards--including earthquakes, tsunamis, volcanic 
        eruptions, wildfires, and landslides--are a major cause of 
        fatalities and economic losses. Recent natural disasters, 
        including the landslide in Washington and California 
        earthquakes, provide unmistakable evidence that the United 
        States remains vulnerable to staggering losses. An improved 
        scientific understanding of geologic hazards will reduce future 
        losses through better forecasts of their occurrence and 
        magnitude and allow for better planning and mitigation in these 
        areas. GSA urges Congress to support efforts for USGS to 
        modernize and upgrade its natural hazards monitoring and 
        warning systems to protect communities from the devastating 
        personal and economic effects of natural disasters. GSA is 
        concerned about cuts to this important program in the request.
  --A 2013 report by the National Research Council, Emerging Workforce 
        Trends in the Energy and Mining Industries: A Call to Action, 
        found, ``Energy and mineral resources are essential for the 
        Nation's fundamental functions, its economy, and its 
        security.'' Improved scientific understanding of these 
        resources will allow for their more economic and environmental 
        management and utilization. Nevertheless, Federal programs in 
        minerals science, research, information, data collection and 
        analysis have been severely weakened. Funding for the USGS 
        Mineral Resources Program, the only primary source for minerals 
        science and information, has been cut by 30 percent in constant 
        dollar terms over the last decade, reducing its ability to 
        provide critical information on mineral potential, production, 
        and consumption that is used for decisionmaking across the 
        Federal Government and by a range of businesses and industries.
  --Many emerging energy technologies--such as wind turbines and solar 
        cells--depend on rare earth elements and critical minerals that 
        currently lack diversified sources of supply. China accounts 
        for 95 percent of world production of rare earth elements 
        (USGS, 2010). USGS research will play a lead role in helping 
        ease our dependence on these foreign sources.
  --The ongoing water crisis in California and elsewhere is a testament 
        to our dependence on water. The availability and quality of 
        surface water and groundwater are vital to the well being of 
        both society and ecosystems. Greater scientific understanding 
        of these resources through monitoring and research is necessary 
        to ensure adequate and safe water resources for the health and 
        welfare of society.
  --USGS research on climate impacts is used by the Department of the 
        Interior and local policymakers and resource managers to make 
        sound decisions based on the best possible science. The Climate 
        Science Centers, for example, provide scientific information 
        necessary to anticipate, monitor, and adapt to climate change's 
        effects at regional and local levels.
  --The Landsat satellites have amassed the largest archive of remotely 
        sensed land data in the world, a tremendously important 
        resource for natural resource exploration, land use planning, 
        and assessing water resources, the impacts of natural 
        disasters, and global agriculture production. Last year's 
        successful launch of Landsat 8 is an important step to continue 
        to provide these resources. GSA supports interagency efforts to 
        plan a path forward for future support of Landsat.
    Research in Earth science is fundamental to training and educating 
the next generation of Earth science professionals. The United States 
faces a looming shortage of qualified workers in these areas that are 
critical for national security. We are very concerned that cuts in 
earth science funding will cause students and young professionals to 
leave the field, potentially leading to a lost generation of 
professionals in areas that are already facing worker shortages. 
Investments in these areas could lead to job growth, as demand for 
these professionals now and in the future is assessed to be high.
    The report Emerging Workforce Trends in the Energy and Mining 
Industries: A Call to Action, found, ``In mining (nonfuel and coal) a 
personnel crisis for professionals and workers is pending and it 
already exists for faculty.'' Another recent study, Status of the 
Geoscience Workforce 2011, by the American Geosciences Institute found: 
``The supply of newly trained geoscientists falls short of geoscience 
workforce demand and replacement needs. . . . aggregate job projections 
are expected to increase by 35 percent between 2008 and 2018. . . . The 
majority of geoscientists in the workforce are within 15 years of 
retirement age. By 2030, the unmet demand for geoscientists in the 
petroleum industry will be approximately 13,000 workers for the 
conservative demand industry estimate.''
    Science and technology are engines of economic prosperity, 
environmental quality, and national security. Earth science is a 
critical component of the overall science and technology enterprise. 
Growing support for Earth science in general and the U.S. Geological 
Survey in particular are required to stimulate innovations that fuel 
the economy, provide security, and enhance the quality of life.
    As the National Science Board's recent 2014 Science & Engineering 
Indicators reports, America's share of the world's R&D fell from 37 
percent to 30 percent from 2001 and 2012. As other nations have been 
increasing their support for long-term, high-risk research, we have 
been allowing ours to stagnate or decline. We must reverse that trend 
and tackle our mounting innovation deficit if we want to retain our 
global economic leadership.
    Thank you for the opportunity to provide testimony about the U.S. 
Geological Survey. For additional information or to learn more about 
the Geological Society of America--including GSA Position Statements on 
water resources, mineral and energy resources, natural hazards, and 
public investment in Earth science research--please visit 
www.geosociety.org or contact Kasey White at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="95fee2fdfce1f0d5f2f0fae6faf6fcf0e1ecbbfae7f2bb">[email&#160;protected]</a>
                                 ______
                                 
Prepared Statement of the Great Salt Lake Council of the Boy Scouts of 
                                America
    Mr. Chairman and honorable members of the subcommittee: I am 
representing the Great Salt Lake Council of the Boy Scouts of America, 
and we wish to express our support for the Land and Water Conservation 
Fund, particularly the President's fiscal year 2015 budget request for 
Forest Service land acquisition.
    The President's proposed budget includes two line items, one in the 
discretionary portion of the budget and the other in the mandatory 
section, totaling $3 million, for Wasatch Watersheds-Bonneville 
Shoreline Trail. Property currently owned by the Boy Scouts in Mill 
Creek Canyon would be acquired by the Forest Service if Congress 
approves sufficient funding. The requested funds, though not enough to 
acquire all of the Boy Scout property available for sale, would allow 
for a substantial first phase purchase. The Council has been interested 
in selling approximately 700 acres to the Forest Service since 2011. 
This is the first year, however, that funding has been included in the 
Federal budget for the project.
    Mill Creek Canyon is one of the main canyons in the Wasatch Front, 
the iconic backdrop for the major population area of Utah. In the mid-
1800s, early settlers of Salt Lake City established 20 mills in the 
canyon that provided everything from lumber to flour for the growing 
population of settlers. Today, Mill Creek Canyon is well known to 
residents of the Salt Lake Valley and has long been a popular area for 
hiking, biking, and many other recreational activities. The Great Salt 
Lake Council of the Boy Scouts of America (BSA) would like to sell five 
parcels of land in this area that are considered surplus to its Camp 
Tracy. The BSA will continue to own and operate the camp, while 
planning to use the proceeds from the proposed sale to acquire land and 
facilities elsewhere to benefit the youth of our community and 
organization. These parcels were originally placer mining claims that 
were donated to the Scouts nearly a century ago. Adding these parcels 
to the national forest would also preserve the essential camp 
experience for the 17,500 scouts and volunteers who visit Camp Tracy 
each year.
    Nearly all of the parcels contain segments of trails, including the 
Bonneville Shoreline Trail, Pipeline Trail, Grandeur Peak Trail, and 
Thayne Canyon Trail. Mill Creek Canyon is a major recreational 
destination for hiking, biking, snowshoeing, cross country skiing, and 
picnicking due to its proximity to Salt Lake City and the greater 
Wasatch Front area; the canyon entrance borders the Salt Lake City 
limits. Currently the public lands in the area are being managed 
jointly by Salt Lake County and the Forest Service. Including these 
private parcels in the surrounding national forest will ensure public 
access into the future and provide for better management of the trails, 
trailheads, and other recreational sites.
    Mill Creek Canyon is one of seven major canyons listed in Salt Lake 
City's Watershed Management Plan and will play a role in the future 
city water supply. The Watershed Management Plan recommends watershed 
protection through acquisitions by Salt Lake City, Salt Lake County, 
and the Forest Service. The resource management plan for the Uinta-
Wasatch-Cache National Forest charges the Forest Service with managing 
and protecting watersheds used as a municipal water source in 
cooperation with Salt Lake City. The property contains a portion of 
Mill Creek--a tributary to the Jordan River--in addition to a number of 
gulches and smaller canyons that feed into Mill Creek. The Forest 
Service Watershed Condition Framework rating for Mill Creek is Class 
Two--functioning at risk--meaning one or more existing attributes make 
it susceptible to degradation. Forest Service ownership will protect 
this important water resource, which could be impaired if the 
surrounding land were to be sold for development rather than 
conservation. The Forest Service is currently working with State 
wildlife authorities on a project designed to support recovery of the 
Bonneville cutthroat trout, which is native in this drainage and is 
included on the Utah Sensitive Species List. Other wildlife found on 
and around this land include bald eagle, deer, elk, mountain lion, 
bighorn sheep, and Canada lynx--a species listed as threatened by the 
U.S. Fish and Wildlife Service.
    It is our desire that these lands be conserved, but we may have to 
offer the property on the open market--and possible development--if the 
Forest Service is unable to acquire the land in a timely fashion. As 
mentioned previously, we have been working on this proposal with the 
Forest Service for over 3 years and we need to utilize the proceeds 
from the sale of this property to improve services to the growing 
number of Scouts in the Salt Lake City metroplex. We want to work with 
the Forest Service to preserve this land for its abundant natural 
resources and recreational opportunities dear to the hearts of so many 
visitors.
    We urge the Interior Subcommittee to provide appropriations from 
the Land and Water Conservation Fund to protect Mill Creek Canyon 
through this proposed land acquisition. I want to thank the Chairman 
and the members of the subcommittee for this opportunity to testify on 
behalf of this nationally important protection effort in Utah, and I 
appreciate your consideration of this funding request.
                                 ______
                                 
     Prepared Statement of Healing Our Waters-Great Lakes Coalition
    Members of the subcommittee. It is an honor to provide this 
testimony about one of our world's most prized natural and economic 
treasures--our Great Lakes. The Healing Our Waters-Great Lakes 
Coalition joins a bi-partisan group of 46 Representatives and 11 
Senators in asking you to support $300 million for the Great Lakes 
Restoration Initiative in fiscal year 2015. We appreciate the trust you 
have shown the region over the last 4 years and ask you to maintain 
this support.
    Our Coalition is comprised of more than 120 environmental, 
conservation, hunting, and fishing organizations; museums, zoos, and 
aquariums; and businesses representing millions of people whose goal is 
to restore and protect the Great Lakes. We came together to fight for 
the Great Lakes, and we recognize the need for Federal assistance for 
all great waters, including Puget Sound, the Everglades, Coastal 
Louisiana, and Chesapeake Bay.
    Mr. Chairman and ranking member, 30 million people rely on the 
Great Lakes for their drinking water, and the entire country benefits 
from the commerce that depends on these waters. Protecting and 
restoring them is a huge non-partisan priority for the people in the 
region. We recognize that the Federal Government is our partner in an 
endeavor to help heal the lakes through the undertaking of one of the 
world's largest freshwater ecosystem restoration projects. Non-
governmental groups, industries, cities, and States are forging public-
private partnerships to clean up toxic hot spots, restore fish and 
wildlife habitat, and combat invasive species. Our Coalition has 
invested almost half a million dollars of our own resources to help our 
member groups restore and protect this resource. The philanthropic 
community has also invested approximately $100 million over the past 4 
years through initiatives to educate citizens and policy makers about 
the Great Lakes environment and to identify actions and policies that 
most effectively will restore its health.
                           economic benefits
    We do this work because cleaning up the Great Lakes is critical for 
the health and quality of life of the region. It also drives economic 
development--and jobs--in communities all around the Basin. Investments 
in Great Lakes restoration are creating jobs and leading to long-term 
economic benefits for the Great Lakes States and the country. A 
Brookings Institution report shows that every $1 invested in Great 
Lakes restoration generates at least $2 in return, making Great Lakes 
restoration one of the best investments on the dollar in the Federal 
budget. Research from Grand Valley State University shows that the 
return for certain projects is closer to 6-to-1. The University of 
Michigan has also demonstrated that over 1.5 million jobs are connected 
to the Great Lakes, accounting for more than $60 billion in wages 
annually. According to the Great Lakes Commission, more than 37 million 
people boat, fish, hunt, and view wildlife in the region, generating 
over $50 billion annually. Great Lakes businesses and individuals 
account for about 28 percent of the U.S. gross domestic product, 
according to Bureau of Economic Analysis data.
    We have also seen jobs being created by our Nation's efforts to 
clean up the Great Lakes and restore fish and wildlife habitat. These 
jobs include wetland scientists, electricians, engineers, landscape 
architects, plumbers, truck drivers, and many others. While we do not 
know how many jobs have been created to clean up the Great Lakes, it is 
likely in the thousands. Consider:
  --125 jobs were created for a $10 million project to restore fish and 
        wildlife habitat in Muskegon Lake, a Great Lakes Area of 
        Concern in Michigan.
  --177 people are employed to control the invasive sea lamprey in the 
        Great Lakes, which costs the U.S. Government around $20 million 
        annually.
  --174 jobs were created, some of which were filled by at-risk youth, 
        to remove dams and other barriers in a 150-mile stretch of the 
        Milwaukee River system.
    Specifically, stories like that of business owner Jim Nichols of 
Carry Manufacturing are increasingly common. Jim tells of how Great 
Lakes Restoration Initiative (GLRI) projects are adding new orders for 
his manufacturing business. Carry Manufacturing has manufactured water 
control equipment since 1987. Their employees are being kept busy 
building submersible pumps for GLRI projects that flood duck habitat or 
drain areas to re-establish native habitat for sport fishing. The jobs 
add up when you begin counting the men and women at other companies who 
manufacture the pipes for the pumps, the control structures in which 
the pumps are housed, and the hunters, anglers, and wildlife watchers 
that benefit from the improved environment the pumps help create.
                     investments producing results
    The people that have been put to work protecting and restoring the 
Great Lakes are working on projects that are producing results (from 
EPA's 2014 congressional budget justification and 2013 report to 
Congress):
  --The Presque Isle, PA, Area of Concern (AOC) was delisted, the first 
        since 2006, and the second U.S. AOC since they were established 
        in 1987. The management actions necessary for delisting the 
        Sheboygan, Wisconsin, AOC were also completed, Ashtabula, Ohio, 
        is very close, and two more de-listings are expected in fiscal 
        year 2015. (EPA 2014)
  --Between 2010 through 2013, 29 beneficial use impairments (BUIs) at 
        13 AOCs were removed in Illinois, Indiana, Michigan, New York, 
        Pennsylvania, and Wisconsin, more than tripling the total 
        number of BUIs removed in the preceding 22 years. More BUIs 
        have been removed since the GLRI began than between 1987 and 
        2009. (EPA 2014)
  --From 2004 to 2009, the Great Lakes region was the only area in the 
        country to show a gain in wetland acreage. Now the GLRI is 
        building on that foundation with a goal to restore one million 
        acres in the Basin. So far, the Fish and Wildlife Service 
        (FWS), National Park Service (NPS), Natural Resources 
        Conservation Service (NRCS), and National Oceanic and 
        Atmospheric Administration (NOAA) (among others) restored, 
        protected, or enhanced over 115,000 acres of wetlands and other 
        habitat. (EPA 2014)
  --1,900 river miles were cleared of over 250 barriers resulting in 
        fish swimming into stretches of river where they have been 
        absent for decades. (EPA 2014)
  --Based on U.S. Fish and Wildlife Service monitoring, GLRI-sponsored 
        actions are increasing self-sustaining populations of native 
        species important to the Great Lakes, like lake sturgeon. For 
        example, efforts in the Saginaw River watershed have 
        contributed to the now self-sustaining walleye population in 
        Saginaw Bay, Michigan. (EPA 2013)
  --Nearly 800,000 acres of Great Lakes agricultural land were put into 
        U.S. Department of Agriculture (USDA) conservation contracts to 
        reduce erosion and nutrient runoff into Great Lakes 
        tributaries. (EPA 2014)
    These numbers are impressive. The stories behind them, however, are 
more illuminating as to the types of results that we are seeing and 
what is being accomplished. The Coalition has documented more than 100 
restoration success stories across the region.\1\ Among them:
---------------------------------------------------------------------------
    \1\ Found at www.healthylakes.org/successes/.
---------------------------------------------------------------------------
  --At the Ashtabula River in Ohio, a sediment cleanup and habitat 
        restoration project has restored the lower two miles of the 
        river and advanced efforts to get it de-listed as a Great Lakes 
        Area of Concern. The project has improved water quality and 
        deepened the river channel, making the lower Ashtabula suitable 
        again for maritime commerce, fishing, and recreation boating.
  --The Grand Calumet River in Indiana, which flows through a heavily 
        industrialized area south of Chicago, was for years considered 
        America's most polluted river. Thanks to a major cleanup, a 
        large wetland was restored and more than 575,000 cubic yards of 
        toxic mud was removed from the Lake Michigan tributary. The 
        restoration project addressed pollution that had led to fish 
        consumption advisories, drinking water restrictions, beach 
        closings, habitat destruction, and an array of other 
        environmental problems.
  --At Clear Creek in Freedom, New York, excess stream erosion and 
        sediment, in-stream barriers, elevated water temperatures, and 
        competition from invasive fish restricted brook trout to a few 
        tributaries in the watershed. A Great Lakes Restoration 
        Initiative project restored 1,200 linear feet of in-stream 
        habitat and re-established fish passage over a sheet-pile grade 
        control structure, reconnecting six miles of prime trout 
        habitat.
                       how we are doing the work
    How the region is accomplishing all this work is as impressive as 
what we are doing. The GLRI, which President Obama first proposed in 
2010, is a model for large, land-scape scale restoration. It ensures 
that the focus remains on the highest regional priorities that were 
identified through a large stakeholder process in 2005, which was 
initiated by President George W. Bush. The initiative itself is 
implementing a restoration strategy called the Great Lakes Regional 
Collaboration Strategy to Restore and Protect the Great Lakes that over 
1,500 people helped build. It also provides an outlet for the United 
States to meet its obligations under the new Great Lakes Water Quality 
Agreement with Canada. The GLRI is a critical component towards 
ensuring that the goals we set for ourselves in both the agreement and 
comprehensive plan can be achieved.
    Additionally, the GLRI sought to fix problems the Government 
Accountability Office identified in 2003 when it complained that there 
was inadequate coordination among Federal agencies and between Federal 
and non-Federal stakeholders.\2\ Now, the EPA, working with other 
Federal agencies like the Fish and Wildlife Service, NOAA, NRCS, and 
the National Park Service, can quickly convert the funding they receive 
to supplement restoration activities through their existing, authorized 
programs. This structure allows for funds to move quickly from EPA 
through the interagency agreements EPA reaches with the other agencies 
and onto the ground to complete important restoration work. This model 
also ensures accountability through the establishment of an ``orchestra 
leader'' (EPA), helps accelerate progress, and avoids potential 
duplication, all of which help save taxpayers money while focusing 
efforts on the highest, consensus-based priorities.\3\
---------------------------------------------------------------------------
    \2\ We anticipate that the GLRI Action Plan for fiscal year 2015-
2019 will incorporate changes that address the concerns raised by GAO 
in 2013. Those concerns included, in part, recommending the initiative 
incorporate climate change into its goals and create metrics of success 
that better link the ecological change being sought to the actions 
being supported and undertaken.
    \3\ Even with quick Federal action, the Great Lakes region has a 
shortened work season because of winter conditions. This can result in 
a longer time period for grantees to outlay GLRI funds rather than just 
the obligation of funds.
---------------------------------------------------------------------------
               maintaining results until the job is done
    Unfortunately, the health of the Great Lakes continues to be 
seriously threatened by problems such as sewage overflows that close 
beaches, toxic pollution that poses a threat to the health of people 
and wildlife, algal blooms that harm local drinking water supplies, and 
invasive species that hurt fish and wildlife populations and our 
outdoor recreation economy. While we have cleaned up two AOCs, there 
are still 27 more to go. Algal blooms in Lake Erie and other lakes 
still result in cancelled charter boat tours and closed beaches. 
Communities are still dealing with legacy pollutants that have led to 
drinking water restrictions, beach closings, and fish consumption 
advisories. Our work is not done so maintaining Federal funding is 
needed.
    Additionally, this Congress should remove all doubt that the region 
is on the right path and pass legislation that specifically authorizes 
the GLRI. Currently, EPA is using existing authorities coupled with the 
legislative language you provide as the statutory basis for its 
coordinating role. Passing legislation, such as that introduced by 
Representative David Joyce and Senator Carl Levin, creates greater 
certainty for the program and allows everyone to focus on getting the 
job done.
    Lastly, EPA's Science Advisory Board (SAB) noted in a 2012 report 
that the GLRI Action Plan supported initial Federal investments to 
restore the Lakes because enough was known about the problems and 
potential solutions to impairments in the Great Lakes to initiate 
action; the Action Plan identified most of the key actions needed; and 
the Action Plan is largely consistent with previous plans and 
strategies. However, the SAB's report pointed out that the GLRI needs 
to do better research, monitoring, and assessment. It also pointed out 
that the GLRI lacks a formal science-based framework for assessing 
progress and evaluating future priorities. We believe this science-
based framework and independent science advice is critical to make 
Great Lakes restoration efforts as efficient and effective as possible; 
that the region's scientists must be engaged in producing and helping 
implement that plan and not just asked to react to a federally-
generated adaptive management blueprint; and that EPA must use an 
appropriate portion of GLRI funds to implement, coordinate, and better 
communicate the Federal and non-Federal research, monitoring, and 
assessment--ongoing and required--for future success.
                               conclusion
    Thank you again for the opportunity to share our views with you. 
The GLRI is delivering results. But more work remains. Cutting 
restoration funding now will only make projects harder and more 
expensive the longer we wait. While we are greatly encouraged by the 
progress we are seeing in local communities across the region, we all 
must keep in mind that it will take time for all of us to see lakewide 
environmental improvement in an ecosystem the size of the Great Lakes. 
We are seeing hundreds of trees but it still will take time to make 
them into a forest.
    We also recognize the tough choices you face, but we believe that 
restoring the Great Lakes is not only good for the environment but also 
is good for the national economy as well. We hope you will maintain 
$300 million for the GLRI next year.
                                 ______
                                 
                  Prepared Statement of the Hopi Tribe
    The Hopi Tribe: Issues of the Consolidated Tribal Government 
Programs:

  --Contract Support Cost.--The Hopi Tribe recommends that Congress 
        amend the Contract Support Cost (CSC) issue to include (1) full 
        funding (100 percent) for Indian tribes needed for CSC for 
        fiscal year 2015; (2) that fiscal year 2015 contain a separate 
        appropriation for CSC in the Bureau of Indian Affairs (BIA) 
        budget structure; and (3) that the BIA propose the repeal of 
        the term ``not to exceed'' in the appropriations statutory 
        language with reference to the annual CSC appropriations.
  --The Hopi Tribe request the following from the Bureau of Indian 
        Affairs.--Fiscal year 2015 operating plan funding level on 
        internal transfers for Consolidated Tribal Government Program 
        contracts, Federal pay costs, tribal pay costs, and other 
        administrative cost. Pursuant to fiscal year 2014 Consolidated 
        Appropriations Act, the Department of the Interior was directed 
        to submit an operating plan to the Senate Committee on Indian 
        Affairs. Our tribe is requesting this information so that we 
        can better understand how fiscal year 2015 Indian Affairs 
        funding levels will be determined.

    There are many other important issues that need to be addressed, 
including:

  --The impacts of the fiscal year 2013 sequester for the BIA and 
        Indian Health Service.
  --The proposed ``administrative cost savings'' cuts that will reduce 
        BIA staffing at BIA agencies and will reduce funding for future 
        638 contracts, in particular, the cuts to the real estate 
        services program.
                                 ______
                                 
  Prepared Statement of the Humane Society of the United States (HSUS)
    Thank you for the opportunity to offer testimony to the Interior, 
Environment, and Related Agencies Subcommittee on items of importance 
to our organizations. We urge the subcommittee to address these 
priority issues in the fiscal year 2015 Department of Interior 
appropriation.
                          rock creek park deer
    The HSUS requests that funds made available in this Act give 
preference to non-lethal deer management programs over lethal at Rock 
Creek Park. The National Park Service (NPS) has been using lethal 
methods for controlling the deer population in Rock Creek Park despite 
the availability of non-lethal methods that cost significantly less 
taxpayer money and result in a more effective long-term solution to 
human-wildlife conflicts in the park and its environs. In the future, 
we ask that priority be given to humane, non-lethal methods with 
respect to decisions regarding funding deer management programs.
                        large constrictor snakes
    In March 2010, U.S. Fish and Wildlife Service (FWS) issued a 
proposed rule to list nine large constrictor snakes as injurious under 
the Lacey Act. However, in January 2012 the Secretary announced that 
only four species would be listed. We encourage this subcommittee to 
direct the FWS to immediately move forward with the ``injurious'' 
listing of the five remaining species, which will prohibit importation 
and interstate movement of these animals as pets. A comprehensive 
report by the U.S. Geological Survey showed these non-native snakes all 
pose a medium or high risk to the health of our Nation's ecosystems. 
Large constrictor snakes have been released or escaped into the 
environment and have colonized Everglades National Park, continue to 
threaten areas in Hawaii, and have established populations in Puerto 
Rico. Scientists warn they may also become established in other areas 
of the country. The Service must have the resources to respond quickly 
to prevent the spread and establishment of these snakes into new areas.
                    environmental protection agency
Endocrine Disruptor Screening Program
    Research focused on molecular screening has the potential to 
revolutionize toxicity testing, improving both its efficiency as well 
as the quality of information available for human safety assessment in 
the Endocrine Disruptor Screening Program (EDSP). These ``next 
generation tools'' hold considerable promise to speed up the 
assessments of chemicals in the EDSP and reduce, and ultimately, may 
replace animal use. We urge the subcommittee to incorporate the 
following report language, which is also supported by the American 
Chemistry Council:
    The subcommittee recognizes that the U.S. Environmental Protection 
Agency (EPA) is implementing the use of Tox21 information in the 
prioritization of chemicals for screening in the Endocrine Disruptor 
Screening Program (EDSP). The subcommittee supports this activity as 
part of a pathway-based approach to endocrine assessment, and directs 
EPA to focus its efforts to develop adverse outcome pathways (AOPs) for 
estrogen, androgen and thyroid modes of action and, when sufficient 
scientific confidence has been demonstrated, to utilize mechanistic 
information not only in prioritization, but also in hazard and risk 
assessment to reduce, refine or replace tests involving living animals. 
EPA is directed to develop a scientific confidence framework for AOPs 
and associated prediction models, and after public comment and peer 
review, implement this framework to assure confidence in specific AOPs 
is explicitly demonstrated for intended uses.
    The subcommittee also recognizes that EPA is continuing to extend 
existing long-term reproduction studies in birds, fish, and other 
species to two- or multi-generation tests for the EDSP. The 
subcommittee understands that EPA contributed to an international 
review of rat reproduction studies that showed the lack of utility of a 
second generation and supporting replacement of the two-generation 
mammalian study with a more efficient ``extended one-generation'' 
design. The subcommittee directs EPA to maximize the efficiency of each 
EDSP protocol and minimize unnecessary costs and animal use by 
assessing the utility (including sensitivity, specificity and value of 
information added relative to the assessment of endocrine disruption) 
of each endpoint in these multigenerational studies, including 
specifically the need to produce more than one generation of offspring 
in the bird, fish and amphibian EDSP Tier 2 tests and issue a public 
report on its findings for comment and peer review. The subcommittee 
also directs EPA to minimize or to eliminate unnecessary endocrine 
screening and testing, and to use existing scientific data in lieu of 
requiring new data, when possible and scientifically supportable. The 
subcommittee understands that EPA is currently working with OECD to 
develop and modify EDSP methods. EPA should work within the framework 
and timing of the OECD Test Guideline work plan to minimize duplicative 
efforts.
    Science and Technology Account--21st Century Toxicology In 2007, 
the National Research Council published its report titled ``Toxicity 
Testing in the 21st Century: A Vision and a Strategy.'' This report 
catalyzed collaborative efforts across the research community to focus 
on developing new, advanced molecular screening methods for use in 
assessing potential adverse health effects of environmental agents. It 
is widely recognized that the rapid emergence of omics technologies, 
cell- and tissue-based methods and other advanced technologies offers 
great promise to transform toxicology from a discipline largely based 
on observational outcomes from animal tests as the basis for safety 
determinations to a discipline that uses knowledge of biological 
pathways and molecular modes of action to predict hazards and potential 
risks. We urge the Committee to incorporate the following language:
    The subcommittee supports EPA's leadership role in the creation of 
a new paradigm for chemical risk assessment based on the incorporation 
of advanced molecular biological and computational methods in lieu of 
animal toxicity tests. The subcommittee encourages EPA to continue to 
expand its extramural and intramural support for the use of pathway-
based approaches in environmental and human health research to further 
define toxicity and disease pathways and develop tools for their 
integration into evaluation strategies. Extramural and intramural 
funding should be made available for research and development of cell 
and tissue-based mechanistic methods, interpretation and prediction 
tools, including pilot studies of pathway-based hazard and risk 
assessment. The data sets and prediction models generated should be 
transparent, publicly disseminated, consistent with corresponding 
international efforts, and, to assure readiness and utility for 
regulatory purposes, undergo public review and comment and independent 
scientific peer review to establish relevance and reliability. The 
subcommittee requests EPA provide a report on associated funding in 
fiscal year 2014 for such activity and a progress report in the 
congressional justification request, featuring a 5-year plan for 
projected budgets for the development of mechanism-based methods, 
including Tox21 and other related activities and prediction models and 
activities specifically focused on establishing scientific confidence 
in them for regulatory purposes. The subcommittee also requests EPA 
prioritize an additional (1-3 percent) of its Science and Technology 
budget from within existing funds for such activity.
                multinational species conservation fund
    The administration's fiscal year 2015 budget requests $9.06 million 
for the Multinational Species Conservation Fund (MSCF) program which 
funds African and Asian elephants, rhinos, tigers, great apes like 
chimps and gorillas, and sea turtles. The HSUS joins a broad coalition 
of organizations in support of the administration's request while 
ensuring that the sales from the semi-postal stamps benefiting this 
program remain supplementary to annually appropriated levels. We also 
request $13 million for the Wildlife Without Borders and International 
Wildlife Trade programs within the U.S. Fish and Wildlife Service 
(USFWS) Office of International Affairs.
    While we wholeheartedly support continued funding for the MSCF, we 
are concerned about past incidents and oppose any future use of funds 
from these conservation programs to promote trophy hunting, trade in 
animal parts, and other consumptive uses--including live capture for 
trade, captive breeding, and entertainment for public display 
industry--under the guise of conservation for these animals. Grants 
made to projects under the MSCF must be consistent with the spirit of 
the law.
        bureau of land management--wild horse and burro program
    The Humane Society of the United States (The HSUS) is one of the 
leading advocates for the protection and welfare of wild horses and 
burros in the U.S. with a long history of working collaboratively with 
the Bureau of Land Management (BLM)--the agency mandated to protect 
America's wild horses and burros--on the development of effective and 
humane management techniques.
    The HSUS strongly supports a significant reduction in the number of 
wild horses and burros gathered and removed from our rangelands 
annually. We believe removing horses from the range without 
implementing any active program for suppressing the population growth 
rate has proven itself to be an unsustainable method of management of 
our Nation's wild horses, and simply leads to a continual cycle of 
roundups and removals when more long-term, cost-efficient and humane 
management strategies, such as fertility control, are readily 
available.
    For years, the BLM has removed far more wild horses and burros from 
the range than it could possibly expect to adopt annually, and as a 
consequence, the costs associated with caring for these animals off the 
range have continued to skyrocket. The annual costs associated with 
caring for one wild horse in a long term holding facility is 
approximately $500, and the average lifespan of a wild horse in 
captivity is 30 years. Today, there are more than 50,000 wild horses 
and burros in these pens, and the agency spends more than 50 percent of 
its annual Wild Horse and Burro budget on holding costs. The BLM must 
balance the number of animals removed from the range annually with the 
number of animals it can expect to adopt in a given year if it hopes to 
effectively reduce off-the-range management costs.
    Further, the BLM's current program of management of wild horses has 
negative effects that go beyond a simple cost-benefit analysis. For 
instance, the recommendations in the National Academy of Sciences 2013 
report ``Using Science to Improve the BLM Wild Horse and Burro Program: 
A Way Forward,'' commissioned by the BLM itself, stated that it is 
BLM's own practices of managing wild horses ``below food-limited 
carrying capacity'' by rounding up and removing a significant 
proportion of the herd's population every three to 4 years that is 
facilitating high horse population growth rates on the range.
    As such, it is incumbent that the BLM move away from current 
management practices to create a long-term, humane and financially 
sustainable path. It is our belief that the most cost-effective and 
humane approach is for the BLM to move aggressively forward with a 
contraceptive program which prioritizes on-the-range management of wild 
horses and burros. This path forward is supported by the National 
Academy of Sciences report, which called for an increased usage of on-
the-range management tools, including the usage of the fertility 
control vaccine PZP. Further, a 2008 paper determined that 
contraception on-the-range could reduce total wild horse and burro 
management costs by 14 percent, saving $6.1 million per year.\2\ 
Finally, the results of a paper describing an economic model 
commissioned by The HSUS indicates that by treating wild horses on one 
hypothetical Herd Management Area (HMA) with the fertility control 
vaccine Porcine Zona Pellucida (PZP), the BLM could save approximately 
$5 million dollars over 12 years while achieving and maintaining 
Appropriate Management Levels (AML) of 874 horses. Since the BLM 
estimates that more than 40,000 wild horses roam on 179 HMAs in the 
United States, the use of PZP could result in a cost-savings of tens of 
millions of dollars if applied broadly across all HMAs.
---------------------------------------------------------------------------
    \1\ GAO, Rangeland Management: Improvements Needed in Federal Wild 
Horse Program, GAO/RCED-90-110 (Washington D.C.: Aug. 20, 1990).
    \2\ Bartholow, J. 2007. Economic benefit of fertility control in 
wild horse populations. J. Wildl. Mgmt. 71(8):2811-2819.
---------------------------------------------------------------------------
    For these reasons, while we support the BLM's request for a 2.8 
million dollar budget increase to fund additional research on 
contraception and population growth suppression methods, we request 
that the agency be required to immediately begin usage of the NAS-
recommended fertility control methods that are currently available.
                                 ______
                                 
    Prepared Statement of the Independent Tribal Courts Review Team
    Thank you for the opportunity to address the serious funding needs 
that have limited and continue to hinder the operations of tribal 
judicial systems in Indian Country. I am the lead judge representing 
the Independent Tribal Court Review Team. We thank this subcommittee 
for the funding provided in prior years. These funds were a blessing to 
tribes. It is the strong recommendation of the Independent Tribal 
Courts Review Team that the Federal tribal courts budget be 
substantially increased in fiscal year 2015 to support the needs of 
tribal judicial systems.
            budget priorities, requests and recommendations
    1.  +$10 million Increase for tribal courts above the fiscal year 
2010 enacted level.
    2.  +$58.4 million authorized under the Indian Tribal Justice Act 
of 1993, Public Law 103-176, 25 U.S.C. 3601 and re-authorized in year 
2000 Public Law 106-559 (no funds have been appropriated to date).
    3.  Support the requests and recommendations of the National 
Congress of American Indians.

    The increase will support:

    1.  Hiring and Training of Court Personnel.
    2.  Compliance with the Tribal Law and Order Act of 2010.
    3.  Compliance with the VAWA Act of 2013.
    4.  Salary Increases for Existing Judges and Court Personnel.
    5.  State-of-the-Art Technology for Tribal Courts.
    6.  Security and Security Systems To Protect Court Records and 
Privacy of Case Information.
    7.  Tribal Court Code Development.
    8.  Financial Code Development.

    The Independent Court Review Team supports the proposed $1.35 
million increase in the fiscal year 2014 President's budget but do not 
support the $2.98 million internal transfer out by the Bureau of Indian 
Affairs (BIA). The fight against crime and drugs has led to more 
arrests which is increasing the caseload in the tribal court system. 
The continuing implementation of the Tribal Law and Order Act (TLOA) 
and the recent enactment of the Violence Against Women Act (VAWA), 
further strains the capacity of the tribal judicial system which is 
underfunded, understaffed and ill-equipped to function effectively and 
in a manner comparable to non-Indian government judicial systems. 
Tribal courts are at a critical stage in terms of need.
                              background:
    The Bureau of Indian Affairs (BIA) within the Department of the 
Interior provides funding to tribal governments to supplement their 
justice systems including courts. Tribal courts play a ``vital role'' 
in tribal self-determination and self-governance as cited in long-
standing Federal policy and acts of Congress. Funding levels from BIA 
to support tribal justice systems have not met the Federal obligations.
    There is a great deal of variation in the types of tribal courts 
and how they apply laws. Some tribal courts resemble Western-style 
courts in that written laws and court procedures are applied. Others 
use traditional Native means of resolving disputes, such as 
peacemaking, elders' councils, and sentencing circles. Some tribes have 
both types of courts. The Bureau of Indian Affairs (BIA) also manages a 
small number of C.F.R. (Code of Federal Regulations) courts.
    Since 1999, the Bureau of Justice Assistance in the Department of 
Justice has administered the Tribal Courts Assistance Program, designed 
to provide funds for tribes to plan, operate, and enhance tribal 
judicial systems. They have made attempts to evaluate tribal courts but 
discovered their means of doing so was insensitive to American Indian 
and Alaska Native (AI/AN) people and unrealistic in the absence of 
elements that were key to Indian Country, such as: (1) the importance 
of tribal culture and traditions; (2) the inability to apply State and 
local criminal justice initiatives to tribal settings; (3) the lack of 
cooperation from non-tribal entities; and, (4) the lack of available 
data on tribal justice.
    The Independent Court Review Team has had more hands on success in 
reviewing tribal court systems than any other entities. For 
approximately 7 years, the Review Team travelled throughout Indian 
Country assessing how tribal courts operate. During this time, the 
Review Team completed 84 court reviews, and 28 Corrective Actions. 
There is no other entity with more hands-on experience and knowledge 
regarding the current status of tribal courts.
                       justification for request
    1.  Hiring and Training of Court Personnel.--Tribal courts make do 
with underpaid staff, under-experienced staff and minimal resources for 
training. (We have determined that hiring tribal members limits the 
inclination of staff to move away; a poor excuse to underpay staff.);
    2.  Compliance with the Tribal Law & Order Act of 2010.--To provide 
judges, prosecutors, public defenders, who are attorneys and who are 
bared to do ``enhanced sentencing'' in tribal courts;
    3.  Compliance with the 2013 VAWA Act.--To provide tribal courts 
with the ability to provide non-Indians with all the rights under the 
U.S. Constitution in domestic violence actions in tribal courts (12 
person juries, provide attorneys for non-Indians, provide attorneys and 
court personnel in domestic violence cases as in TLOA, etc.);
    4.  Salary Increases for Existing Judges and Court Personnel.--
Salaries should be comparable to local and State court personnel to 
keep pace with the non-tribal judicial systems and be competitive to 
maintain existing personnel;
    5.  Tribal Courts Need State-of-the-Art Technology.--(Software, 
computers, phone systems, tape recording machines.) Many tribes cannot 
afford to purchase or upgrade existing court equipment unless they get 
a grant. This is accompanied by training expenses and licensing fees 
which do not last after the grant ends;
    6.  Security and Security Systems To Protect Court Records and 
Privacy of Case Information.--Most tribal courts do not even have a 
full-time bailiff, much less a state-of-the-art security system that 
uses locked doors and camera surveillance. This is a tragedy waiting to 
happen;
    7.  Tribal Court Code Development.--Tribes cannot afford legal 
consultation. A small number of tribes hire on-site staff attorneys. 
These staff attorneys generally become enmeshed in economic development 
and code development does not take priority. Tribes make do with under-
developed codes. The Adam Walsh Act created a hardship for tribes who 
were forced to develop codes, without funding, or have the State assume 
jurisdiction. (States have never properly overseen law enforcement in a 
Tribal jurisdiction.); and
    8.  Financial Code Development.--We have rarely seen tribes with 
developed financial policies. The process of paying a bond, for 
example, varies greatly from tribe to tribe. The usual process of who 
collects it, where it is collected and how much it is, is never 
consistent among tribes.
                             tribal courts
    There are many positive aspects about tribal courts. It is clear 
that tribal courts and justice systems are vital and important to the 
communities where they are located. Tribes value and want to be proud 
of their court systems. Tribes with even modest resources tend to 
allocate funding to courts before other costs. After decades of 
existence, many tribal courts, despite minimal funding, have achieved a 
level of experience and sophistication approaching, and in some cases 
surpassing, local non-Indian courts.
    Tribal courts, through the Indian Child Welfare Act, have mostly 
stopped the wholesale removal of Indian children from their families. 
Indian and non-Indian courts have developed formal and informal 
agreements regarding jurisdiction. Tribal governments have recognized 
the benefit of having law-trained judges, without doing away with 
judges who have cultural/traditional experience. Tribal court systems 
have Appellate Courts, jury trials, well-cared-for courthouses (even 
the poorer tribes), and tribal bar listings and fees. Perhaps most 
importantly, tribes recognize the benefit of an independent judiciary 
and have taken steps to insulate courts and judges from political 
pressure. No longer in Indian country are judges automatically fired 
for decisions against the legislature.

  --Example.--At one tribal court 14 jury trials scheduled in 2013 
        never occurred due to the lack of sufficient funds to perform 
        the following; the required number of potential jurors could 
        not be summoned, a jury of six people could not be seated, and 
        service to potential jurors could not be delivered.

    Nationwide, there are 184 tribes with courts that received $23.241 
million in Federal funding in 2014. The Review Team's Assessments have 
indicated that the Bureau of Indian Affairs only funds tribal courts at 
26 percent of the funding needed to operate. Tribes who have economic 
development generally subsidize their tribal courts. On the flip side, 
tribes who cannot afford to assist in the financial operations of the 
court are tasked with doing the best they can with what they have even 
at the expense of decreasing or eliminating services elsewhere. This 
while operating at a disadvantage with already overstrained resources 
and underserved needs of the tribal citizens. The assessment suggests 
that the smaller courts are both the busiest and most underfunded.
    The grant funding in the Department of Justice (DOJ) is intended to 
be temporary, but instead it is used for permanent needs; such as 
funding a drug court clerk who then is used as a court clerk with drug 
court duties. When the funding runs out, so does the permanent 
position. We have witnessed many failed drug courts, failed court 
management software projects (due to training costs) and incomplete 
Code development projects. When the Justice funding runs out, so does 
the project.
    As a directive from the Office of Management and Budget in fiscal 
year 2005, our Reviews specifically examined how tribes were using 
Federal funding. In the seven fiscal years through September 31, 2011 
there were only two isolated incidents of a questionable expenditure of 
Federal funds. It has been speculated that because of limited 
resources, tribal courts compromise a person's due process and invoke 
``speedy trials'' violations to save money. To the contrary everyone 
who is processed through the tribal judicial system is afforded their 
constitutional civil liberties and civil rights.
    Tribal courts need an immediate, sustained and increased level of 
funding. There are strong indications that the courts will put such 
funding to good use.
    Tribal courts have other serious needs. Tribal Appellate Court 
Judges are mostly attorneys who dedicate their services for modest fees 
that barely cover costs for copying and transcription fees. Tribal 
courts do offer jury trials. In many courts, one sustained jury trial 
will deplete the available budget. The only place to minimize expenses 
is to fire staff. Many tribal courts have Defense Advocates. These 
advocates are generally not law trained and do a good job protecting an 
individual's rights (including assuring speedy trial limitations are 
not violated.) However, this is a large item in court budgets and if 
the defense advocate, or prosecutor, should leave, the replacement 
process is slow.
    This Congress and this administration can do something great. Put 
your money where your promises have been and support the Acts you have 
passed by increasing funding for tribal courts. Thank You. Independent 
Review Team: Elbridge Coochise, Chief Justice Retired; Ralph G. 
Gonzales, Esq.; Charles D. Robertson, Esq. and Myrna R. Rivera, Court 
Reporter.
                                 ______
                                 
     Prepared Statement of the Interstate Mining Compact Commission
    My name is Gregory E. Conrad and I serve as Executive Director of 
the Interstate Mining Compact Commission (IMCC). I appreciate the 
opportunity to present this statement to the subcommittee regarding the 
views of the Compact's 26 member States on the fiscal year 2015 budget 
request for the Office of Surface Mining Reclamation and Enforcement 
(OSM) within the U.S. Department of the Interior. In its proposed 
budget, OSM is requesting $53.2 million to fund title V grants to 
States and Indian tribes for the implementation of their regulatory 
programs, a reduction of $15.4 million or 22 percent below the fiscal 
year 2014 enacted level. OSM also proposes to reduce mandatory spending 
for the abandoned mine lands (AML) program by $64 million pursuant to a 
legislative proposal to eliminate all AML funding for certified States 
and tribes.
    The Compact is comprised of 26 States that together produce some 95 
percent of the Nation's coal, as well as important noncoal minerals. 
The Compact's purposes are to advance the protection and restoration of 
land, water and other resources affected by mining through the 
encouragement of programs in each of the party States that will achieve 
comparable results in protecting, conserving and improving the 
usefulness of natural resources and to assist in achieving and 
maintaining an efficient, productive and economically viable mining 
industry.
    OSM has projected an amount of $53.2 million for title V grants to 
States and tribes in fiscal year 2015, an amount which is matched by 
the States each year. These grants support the implementation of State 
and tribal regulatory programs under the Surface Mining Control and 
Reclamation Act (SMCRA) and as such are essential to the full and 
effective operation of those programs. Pursuant to these primacy 
programs, the States have the most direct and critical responsibilities 
for conducting regulatory operations to minimize the impact of coal 
extraction operations on people and the environment. The States 
accomplish this through a combination of permitting, inspection and 
enforcement duties, designating lands as unsuitable for mining 
operations, and ensuring that timely reclamation occurs after mining.
    In fiscal year 2014, Congress approved $68.6 million for State 
title V grants pursuant to the Omnibus Appropriations bill.\1\ This 
continued a much-needed trend whereby the amount appropriated for these 
regulatory grants aligned with the demonstrated needs of the States and 
tribes. The States are greatly encouraged by amounts approved by 
Congress for title V grant funding over the past several fiscal years. 
These grants had been stagnant for over 12 years and the gap between 
the States' requests and what they received was widening. This 
debilitating trend was compounding the problems caused by inflation and 
uncontrollable costs, thus undermining our efforts to realize needed 
program improvements and enhancements and jeopardizing our efforts to 
minimize the potential adverse impacts of coal extraction operations on 
people and the environment.
---------------------------------------------------------------------------
    \1\ In approving this amount for State grant funding in fiscal year 
2014, Congress noted that: ``The bill provides $122,713,000 for 
regulation and technology. Within this amount, the bill funds 
regulatory grants at $68,590,000, equal to the fiscal year 2012 enacted 
level. The Committees find the budget proposal to reduce regulatory 
grants would undermine the State-based regulatory system. It is 
imperative that States continue to operate protective regulatory 
programs as delegation of authority to the States is the cornerstone of 
the surface mining regulatory program.''
---------------------------------------------------------------------------
    In its fiscal year 2015 budget, OSM has once again attempted to 
reverse course and essentially unravel and undermine the progress made 
by Congress in supporting State programs with adequate funding. As 
States prepare their future budgets, we trust that the recent increases 
approved by Congress will remain the new base on which we build our 
programs. Given fiscal constraints on State budgets from the downturn 
in the economy, some States have only recently been able to move beyond 
hiring and salary freezes and restrictions on equipment and vehicle 
purchases, all of which have inhibited States' ability to spend all of 
their Federal grant money. A clear message from Congress that reliable, 
consistent funding will continue into the future will do much to 
stimulate support for these programs by State legislatures and budget 
officers who each year, in the face of difficult fiscal climates and 
constraints, are also dealing with the challenge of matching Federal 
grant dollars with State funds. Please keep in mind that a 22 percent 
cut in Federal funding generally translates to an additional 22 percent 
cut for overall program funding for many States, especially those 
without Federal lands, since these States can generally only match what 
they receive in Federal money.
    It is important to note that OSM does not disagree with the States' 
demonstrated need for the requested amount of funding for title V 
regulatory grants. Instead, OSM's solution for the drastic cuts comes 
in the way of an unrealistic assumption that the States can simply 
increase user fees in an effort to ``eliminate a de facto subsidy of 
the coal industry.'' No specifics on how the States are to accomplish 
this far reaching proposal are set forth, other than an expectation 
that they will do so in the course of a single fiscal year. OSM's 
proposal is completely out of touch with the realities associated with 
establishing or enhancing user fees, especially given the need for 
approvals by State legislatures. IMCC's polling of its member States 
confirmed that, given the current fiscal and political implications of 
such an initiative, it will be difficult, if not impossible, for most 
States to accomplish this feat at all, let alone in less than 1 year. 
OSM is well aware of this, and yet has every intention of aggressively 
moving forward with a proposal that is doomed from its inception. We 
strongly urge the subcommittee to reject this approach and mandate that 
OSM continue to work through the complexities associated with any 
future user fees proposal in close cooperation with the States and 
tribes prior to cutting Federal funding for State title V grants.\2\ 
Some of these efforts have recently begun and may prove useful.
---------------------------------------------------------------------------
    \2\ It has taken OSM over 3 years to develop a proposal of its own 
for cost recovery that will apply to Federal and Indian lands programs 
where OSM is the regulatory authority. On March 26 of last year, OSM 
republished a proposed rule (78 Federal Register 20394) that would 
adjust existing permit fees and assess new fees to recover the actual 
costs for permit review and administration and permit enforcement 
activities provided to the coal industry. Comments on the proposal were 
due on May 28, 2013. OSM has asserted that the rule could serve as a 
template for similar efforts by the States (even though, to date, the 
agency has still not promulgated a final rule). Regardless of whether 
OSM's assertion is true, and contrary to OSM's implication that the 
States should have already moved forward with similar proposals of 
their own based on the fact that OSM has included this suggested 
approach in its last four proposed budgets, OSM is well aware of the 
complexities associated with a proposal of this magnitude for the 
States based on extensive information we have provided to the agency. 
We are happy to share that information with the subcommittee. It will 
clearly take more than a single fiscal year for the States to seriously 
consider and undertake such an effort. And most importantly, the 
subcommittee has directed OSM in each of the past 4 fiscal years ``to 
discontinue efforts to push States to raise fees on industry as the 
bill provides the funds necessary for States to run their regulatory 
programs.''
---------------------------------------------------------------------------
    At the same time that OSM is proposing significant cuts for State 
programs, the agency is proposing sizeable increases for its own 
program operations (almost $4 million) for Federal oversight of State 
programs, including an increase of 12 full-time equivalents (FTEs). In 
making the case for its funding increase, OSM's budget justification 
document contains vague references to the need ``to improve the 
implementation of existing laws'' and to ``strengthen OSM's skills 
base.'' More specifically, OSM states in its budget justification 
document that ``with greater technical skills, OSM anticipates improved 
evaluation of permit-related actions and resolution of issues to 
prevent unanticipated situations that otherwise may occur as operations 
progress, thereby improving implementation of existing laws''. In our 
view, this is code language for enhanced and expanded Federal oversight 
of State programs and reflects a move by OSM to exert a more direct 
role in State programs, especially regarding permitting decisions, 
thereby weakening State primacy. However, without more to justify the 
need for more oversight and the concomitant increase in funding for 
Federal operations related thereto, Congress should reject this 
request. The overall performance of the States as detailed in OSM's 
annual State program evaluation reports demonstrates that the States 
are implementing their programs effectively and in accordance with the 
purposes and objectives of SMCRA.\3\
---------------------------------------------------------------------------
    \3\ The Congress agreed with this assessment when it commented as 
follows on OSM's proposed increase in fiscal year 2014: ``The [Omnibus 
Appropriations] agreement does not provide funds to expand and enhance 
Federal oversight activities of State programs.'' Furthermore, the 
States are confounded by OSM's desire to increase its staff by 12 FTEs 
when it currently has more than twice that number of unfilled positions 
in the agency. Is OSM attempting to add 12 new FTEs, or fill a portion 
of the vacancies? In either event, the $4 million intended for this 
purpose is better spent by the States in their role as the primary 
enforcement and permitting SMCRA authority, rather than by OSM 
oversight to second-guess State decisions.
---------------------------------------------------------------------------
    In our view, this suggests that OSM is adequately accomplishing its 
statutory oversight obligations with current Federal program funding 
and that any increased workloads are likely to fall upon the States, 
which have primary responsibility for implementing appropriate 
adjustments to their programs identified during Federal oversight. In 
this regard, we note that the Federal courts have made it abundantly 
clear that SMCRA's allocation of exclusive jurisdiction to the States 
was ``careful and deliberate'' and that Congress provided for 
``mutually exclusive regulation by either the Secretary or State, but 
not both.'' Bragg v. West Virginia Coal Ass'n, 248 F. 3d 275, 293-4 
(4th Cir. 2001), cert. denied, 534 U.S. 1113 (2002). While the courts 
have ruled consistently on this matter, the question remains for 
Congress and the administration to determine, in light of deficit 
reduction and spending cuts, how the limited amount of Federal funding 
for the regulation of surface coal mining and reclamation operations 
under SMCRA will be directed--to OSM or the States. For all the above 
reasons, we urge Congress to approve not less than $69 million for 
State and tribal title V regulatory grants, as fully documented in the 
States' and tribes' estimates for actual program operating costs.\4\
---------------------------------------------------------------------------
    \4\ We continue to be concerned about recent OSM initiatives, 
primarily by policy directive, to duplicate and/or second-guess State 
permitting decisions through the reflexive use of ``Ten-Day Notices'' 
(TDNs) as part of increased Federal oversight or through Federal 
responses to citizen complaints. Aside from the fact that these actions 
undermine the principles of primacy that underscore SMCRA and are 
therefore likely to have debilitating impacts on the State-Federal 
partnership envisioned by the act, they also have very direct impacts 
on limited State and Federal resources that must be devoted to 
addressing all TDNs, regardless of their veracity.
---------------------------------------------------------------------------
    With regard to funding for State title IV Abandoned Mine Land (AML) 
program grants, congressional action in 2006 to reauthorize title IV of 
SMCRA has significantly changed the method by which State reclamation 
grants are funded. Beginning with fiscal year 2008, State title IV 
grants are funded primarily by mandatory appropriations. As a result, 
the States should have received a total of $250 million in fiscal year 
2015. Instead, OSM has budgeted an amount of $186 million based on an 
ill-conceived proposal to eliminate mandatory AML funding to States and 
tribes that have been certified as completing their abandoned coal 
reclamation programs. This $64 million reduction repudiates the 
comprehensive restructuring of the AML program that was passed by 
Congress in 2006, following over 10 years of congressional debate and 
hard fought compromise among the affected parties. We urge the Congress 
to reject this unjustified, ill-conceived proposal, delete it from the 
budget and restore the full mandatory funding amount of $250 million. 
We also endorse the statement of the National Association of Abandoned 
Mine Land Programs (NAAMLP), which goes into greater detail regarding 
the implications of OSM's legislative proposal for the States and 
tribes.
    We further ask the subcommittee to support funding for OSM's 
training program, including moneys for State travel. These programs are 
central to the effective implementation of State regulatory programs as 
they provide necessary training and continuing education for State 
agency personnel. We note that the States provide nearly half of the 
instructors for OSM's training course and, through IMCC, sponsor and 
staff benchmarking workshops on key regulatory program topics. IMCC 
also urges the subcommittee to support funding for Technical Innovation 
and Professional Services (TIPS), a program that directly benefits the 
States by providing critical technical assistance. Finally, we support 
funding for the Watershed Cooperative Agreements in the amount of $1.5 
million.
    With regard to the proposal contained in OSM's budget to establish 
a hardrock AML program, the States have consistently advocated for 
legislation that would allow them to address historic hardrock AML 
problem areas, beginning with the inclusion of section 409 of SMCRA in 
1977. There is clearly a need to establish both the funding mechanism 
and the administrative program to address these legacy sites, be it 
through a fee or through a meaningful Good Samaritan program that 
provides liability protection for those undertaking this type of work. 
We believe that OSM is in the best position to administer a hardrock 
AML program, given its 35 years of experience in operating the title IV 
program under SMCRA. Our only concern is that, while on the one hand 
OSM is advocating for the establishment of a hardrock AML program, it 
is also pushing for the elimination of funding for certified States and 
tribes to accomplish this very work.
    We appreciate the opportunity to submit this statement on the 
Office of Surface Mining's proposed budget for fiscal year 2015. We 
would be happy to answer any questions or provide additional 
information at your request.
                                 ______
                                 
          Prepared Statement of the Intertribal Timber Council
                                summary
    Mr. Chairman, members of the subcommittee, I am Phil Rigdon, 
president of the Intertribal Timber Council (ITC) and deputy director 
of natural resources for the Yakama Nation. The ITC offers the 
following recommendations for fiscal year 2015 Indian forestry-related 
activities in the Bureau of Indian Affairs (BIA), the Department of 
Interior (DOI) Office of Wildland Fire Management (OWF), and the USDA 
Forest Service (USFS):
                        bureau of indian affairs
1.  Increase BIA forestry by $25 million as a first step to providing 
the $100 million needed for funding parity with other Federal forestry 
programs, as recommended by the Indian Forest Management Assessment 
Team (IFMAT) III report.
2.  Increase BIA forestry projects by $12.7 million to initiate a BIA 
Forestry Workforce Development program, as recommended by IFMAT III.
3.  Increase BIA Cooperative Landscape Conservation funding to $20 
million to support tribal participation.
4.  Increase the BIA Endangered Species funding to $10 million.
5.  Support the BIA Invasive Species request of $6.7 million.
                   office of wildland fire management
6.  Support the Preparedness increase of $37 million.
7.  Increase Fuels Management funding to $206 million.
8.  Support the Disaster Fire Funding legislative proposal.
9.  Support the $30 million Resilient Landscapes initiative.
                      united state forest service
10.  Encourage expanded support for the ITC Anchor Forest initiative.
11.  Encourage the USFS to make implementation of the Tribal Forest 
Protection Act (TFPA) a ``priority.''
              indian forest management assessment team iii
    Many of our comments and recommendations reflect the third IFMAT 
report, the statutorily required (Public Law 101-630, Sec. 312) decadal 
review and report on tribal forests and forestry conducted by an 
independent Indian Forest Management Assessment Team (IFMAT). Previous 
IFMAT reviews and reports were done in 1993 and 2003. The 2013 report, 
IFMAT III, was mailed to this subcommittee about a month ago. We urge 
the subcommittee to review the report and consider its findings and 
recommendations in your fiscal year 2015 deliberations.
    The IFMAT III report examines tribal forests using a ``FIT'' 
framework: Fire, Investment and Transformation:

  --"Fire'' represents the increasingly large role wildland fire and 
        other threats present to the health and productivity of tribal 
        forests;
  --"Investment'' represents the need for Federal funding and trust 
        support to meet forest-related fiduciary obligations and ensure 
        a sustainable future for Indian forests; and
  --"Transformation'' represents the emergence of Indian forestry as a 
        model for sustainable landscape management.

    IFMAT III examines eight specific review areas required by the 
statute, including staffing and funding, and also looks at additional 
issues such as climate change, the Anchor Forests initiative, and 
implementation of the TFPA.
    IFMAT III found that chronically insufficient funding and worsening 
staff shortages pose threats to tribal forests and communities from 
both foregone economic opportunities and resource losses due to 
wildland fire, insects, disease, and climate change. Federal trust 
management funding of Indian forests is still only one-third of that 
for National Forests; an additional $100 million is needed to bring 
Indian forestry and wildfire management to parity. Staffing shortfalls 
are jeopardizing the capacity to care for forest resources; IFMAT III 
found that 800 additional positions in a wide variety of skill areas 
are needed to provide adequate staffing and $12.7 million is needed 
annually for recruitment, training and retention.
    Against this background, the ITC makes the following comments and 
requests for fiscal year 2015:
                        bureau of indian affairs
1.  Increase BIA forestry by $25 million as a first step to provide the 
$100 million needed for funding parity with other Federal forestry 
programs, as recommended by IFMAT III.

    We request that the fiscal year 2015 BIA forestry budget be 
increased by $25 million, to $70.9 million, to begin to reduce the 
glaring $100 million funding disparity with other Federal forestry 
programs as discussed in the IFMAT III report. Of the $25 million 
increase, allocate $20 million to Tribal Priority Allocations (TPA) 
Forestry to strengthen base BIA and tribal forest staffing and 
management activities and $5 million to forestry projects to reduce the 
Forest Development planting and thinning backlog that covers one-sixth 
of the trust forest area. As additional staffing capacity is developed 
(see item 2 below), further budget movement toward parity funding can 
be accommodated.

2.  Increase BIA forestry projects by $12.7 million to initiate a BIA 
Forestry Workforce Development program, as recommended by IFMAT III.

    BIA and tribal forestry are facing a staffing crisis. The IFMAT III 
report states 800 additional BIA forestry positions are needed, and an 
increasing number of existing positions are unfilled due to retirements 
and funding shortfalls. Trained personnel are needed to enable the 
sustainable trust management of our forests, including the harvest of 
timber needed to maintain forest health and support economies that 
provide jobs and income for tribal communities. For example, on the 
Yakama Reservation, 33 of the 55 BIA forestry positions have not been 
filled for a long time, despite repeated tribal pleas. Harvest targets 
sought by the tribe are not being met, forest health is suffering, and 
economic opportunities are being lost. To begin to address this large 
and growing personnel shortage and its negative consequences on the 
Federal trust and tribal economies, $12.7 million is needed to start a 
program to attract, train and retain forestry staff.

3.  Increase BIA Cooperative Landscape Conservation (CLC) funding to 
$20 million to develop tribal capacity.

    We request that CLC funding be increased by $10 million, with the 
additional amount dedicated to supporting sustained tribal technical 
and administrative engagement in DOI's climate initiatives. Because of 
dependence on place and natural resources, tribes are particularly 
vulnerable to climate change. The BIA's fiscal year 2015 CLC budget of 
less than $10 million is inadequate to support the needs of the 566 
federally-recognized tribes to monitor and address the impacts of 
climate change over the long term.

4.  Increase BIA Endangered Species funding to $10 million.

    ITC requests BIA ESA be funded at $10 million so the myriad listed 
species throughout Indian Country nationwide can be better addressed. 
BIA's $2.7 million request for ESA is an improvement over past years, 
but the proposal is just half of the ESA per-acre funding for BLM and 
still below the $3 million appropriated for BIA ESA in fiscal year 
2002. A further significant increase in BIA ESA to $10 million is fully 
warranted.

5.  Support the BIA Invasive Species request of $6.7 million.

    Invasive species are inflicting increasing damage on tribal trust 
resources, including tribal forests. The $6.7 million request is needed 
and welcome to help stem the invasive species encroachment that is 
threatening trust resources.
          department of the interior wildland fire management
6.  Support the $37 million Preparedness increase.

    The increase will alleviate the penalty BIA and the tribes now bear 
in absorbing contract support costs (CSCs) for carrying out 
Preparedness functions. This is in line with the policy goal of fully 
funding CSCs without harming services. The requested increase also 
strengthens tribal wildfire management capacity and provides for 
recruitment and training of future generations of Native American 
wildland fire fighters, whose jobs are a source of pride and economic 
opportunity in tribal communities and provide a national asset in 
wildland fire fighting.

7.  Increase Fuels Management funding to $206 million.

    ITC supports fiscal year 2015 Fuels Management funding restored to 
its fiscal year 2010 $206 million level. The Department's fuels 
reduction backlog remains huge, preventative projects are much more 
cost effective than suppression, and fuels funding has never come close 
to the projected amount needed to reduce risks of fuels. Within the 
fiscal year 2015 Fuels Management appropriation, ITC strongly supports 
the designation of $10 million for tribal resource management landscape 
restoration, to allow tribes to engage in proactive fuels and forest 
health projects on or off trust lands to protect tribal trust assets 
and treaty rights. The ITC wishes to extend our gratitude to OWF for 
moving beyond the difficult Hazardous Fuels Prioritization and 
Allocation System (HFPAS) fuels fund allocation process, and its 
efforts to seek the involvement of tribes in determining how available 
funding can best be allocated to protect tribal communities and values.

8.  Support the Disaster Fire Funding legislative proposal.

    ITC supports the legislative proposal to treat extreme fire costs 
(above 70 percent of the 10 year average) as the natural disasters that 
they are, reducing the consequences of fire costs both on DOI's 
operations and budgets.

9.  Support the $30 million Resilient Landscape initiative.

    With the initiative, fuels and health projects can be more broadly 
applied beyond the wildland-urban interface (WUI).
                      united states forest service
10.  Encourage expanded support for the ITC Anchor Forest initiative.

    We ask that you support, and encourage continued Forest Service 
support of, the ITC's Anchor Forest initiative. The initiative is 
fostering long-term collaborative active forest management across the 
landscape to maintain ecological functions and sustain economically 
viable infrastructure for harvesting, transportation, and processing 
forest products. Tribes, with long-term commitment to stewardship, can 
and must play a key role in fostering Anchor Forests. Currently, the 
ITC Anchor Forest initiative involves three study areas in the States 
of Washington and Idaho (involving Yakama, Colville, and the Spokane 
and Coeur d'Alene Tribes), with participatory and resource support from 
the USFS Regional Office. The project is bringing diverse interests to 
the table to begin to develop the collaborative process of working 
together in common purpose. Now, tribes in the Lakes States, the 
Midwest and the Southwest are expressing interest in the Anchor Forest 
concept for landscape-based forests. We ask the subcommittee to 
encourage the USFS and other agencies within the Department of 
Agriculture, such as the Natural Resources Conservation Service and the 
Rural Development Administration, to support and participate in Anchor 
Forests.

11.  Encourage the USFS to make implementation of Tribal Forest 
Protection Act (TFPA) a ``priority.''

    Finally, we ask that you urge the USFS to make reform and 
implementation of the TFPA (Public Law 108-278) a ``priority.'' The 
TFPA was enacted to enable tribes to undertake fuels management and 
forest restoration projects on Forest Service or BLM lands that pose a 
fire, disease or other threat to tribal trust forests, reserved rights 
and cultural resources. But only a handful of TFPA projects have been 
implemented in the decade since the authority was enacted. USFS has 
been painfully slow in adoption of the recommendations of an ITC review 
of TFPA implementation, done in collaboration with the USFS and BIA. An 
effective TFPA will help restore the landscape to a healthy and 
resilient condition. We ask that you urge the Forest Service to make 
the TFPA a ``priority'' to save landscapes at high risk to climate 
change.
                 intertribal timber council background
    The ITC is a 38-year-old association of some 60 forest owning 
tribes and Alaska Native organizations that collectively manage more 
than 90 percent of the 18 million acres of BIA trust timberland and 
woodland. These forests cover about one third of the Indian trust land 
base and provide thousands of jobs and significant economic activity in 
and around Indian Country. Beyond their economic importance, forests 
also store and filter the water and purify the air to sustain life 
itself. They sustain habitats for the fish and wildlife, produce foods, 
medicines, fuel, and materials for shelter, transportation, and 
artistic expression. In short, our forests are vital to our economies, 
cultures and spiritual well being.
    Mr. Chairman, subcommittee members, we invite you to come visit our 
reservations and our forests to see what we have done and what we hope 
to do in the future.
                                 ______
                                 
          Prepared Statement of the Jamestown S'Klallam Tribe
    On behalf of the Jamestown S'Klallam Tribe, I respectfully submit 
these requests and recommendations for the fiscal year 2015 Bureau of 
Indian Affairs (BIA) and Indian Health Service (IHS) budgets to honor 
the trust responsibility and support tribal prosperity and well-being. 
We renew our request that Congress work together to achieve a balanced 
approach to the budget which includes raising new revenue sources and 
do not rely solely on cuts to discretionary spending. We request the 
following:

    1.  Move BIA and IHS contract support costs to mandatory spending.
    2.  Provide advanced appropriations for the Indian Health Service.
    3.  Increase Tribal Priority Allocation funding, and provide $15 
million for the Housing Improvement Program within that fund.
    4.  Provide a $181.2 million increase for Purchased/Referred Care.

    The Federal approach to deficit reduction has been significantly 
unbalanced with non-defense Federal programs shouldering the fiscal 
burden of these budget cuts. Discretionary programs have already 
experienced $2.5 trillion in spending cuts as a result of reductions in 
the fiscal year 2011 Continuing Resolution, the Budget Control Act, the 
American Taxpayer Relief Act, the Bipartisan Budget Act of 2013, and 
the Farm Bill. At the same time, revenue has increased by only $778 
billion. Tribes are funded out of the non-defense discretionary budget 
and have experienced significant hardship with the imposed budget 
reductions for tribal programs. Additional budgetary restrictions would 
devastate our tribal economies impacting not only our tribal citizens 
but also the surrounding non-Native communities whom we employ and 
provide with much needed services, such as, public safety, education, 
health and dental care.
    In addition to the items detailed below, our tribe would like to 
reiterate that we are a direct beneficiary of the collective tribal 
efforts and continuing efforts of the National Congress of American 
Indians, the Affiliated Tribes of Northwest Indians, the Northwest 
Portland Area Indian Health Board, and the Northwest Indian Fisheries 
Commission. The tribe supports the requests and recommendations of 
those organizations specifically.
    1. Ensure that Contract Support Costs are Mandatory Spending.--We 
are pleased that the administration has sought to fully fund contract 
support costs (CSC) under the Indian Self-Determination and Education 
Assistance Act (ISDEAA) in fiscal year 2015, and we urge Congress to 
support that goal. We acknowledge that the administration's request is 
a direct response to Congress' actions with regard to fiscal year 2014 
appropriations, which removed historical caps on CSC funding and 
rejected the administration's proposal--put forward without tribal 
consultation and vehemently opposed by tribes--to individually cap 
contract support costs recovery at the contractor level. Contract 
support costs funds vital administrative functions that allow us to 
operate programs that provide critical services to our members--
programs like our full-service OB-GYN facilities in the Jamestown 
Health Clinic, our comprehensive dental services in our dental clinic, 
and the many services provided by our Community Health & Wellness 
Program. If contract support costs are not fully funded, our programs 
and services are directly impacted because we are forced to divert 
limited program funding to cover fixed overhead expenses instead. We 
therefore appreciate Congress' support in fiscal year 2014 and hope 
that it carries through to fiscal year 2015 and beyond.
    However, the CSC funding problem is not yet solved. Full funding 
for CSC must not come with a penalty--namely, a reduction in program 
funding or effective permanent sequestration of Indian program funds. 
That result would have the same devastating effect on our service 
delivery as the failure to fully fund CSC. Yet Congress, in the Joint 
Explanatory Statement accompanying the fiscal year 2014 Consolidated 
Appropriations Act, noted that ``since [contract support costs] fall 
under discretionary spending, they have the potential to impact all 
other programs funded under the Interior and Environment Appropriations 
bill, including other equally important tribal programs.'' Without any 
permanent measure to ensure full funding, payment of CSC remains 
subject to agency ``discretion'' from year to year, even though tribes 
are legally entitled to full payment of CSC under the ISDEAA. Noting 
these ongoing conflicts of law, Congress directed the agencies to 
consult with tribes on a permanent solution.
    In our view, there is a logical permanent solution which Congress 
is empowered to implement: CSC should be appropriated as a mandatory 
entitlement. The Congressional Budget Office defines ``Entitlement'' as 
``A legal obligation of the Federal Government to make payments to a 
person, group of people, business, unit of government, or similar 
entity that meets the eligibility criteria set in law and for which the 
budget authority is not provided in advance in an appropriation act.'' 
Further, ``Spending for entitlement programs is controlled through 
those programs' eligibility criteria and benefit or payment rules.'' 
\1\ CSC meets every part of this definition except that the budget 
authority is currently provided and controlled through appropriation 
acts--as if CSC were a discretionary program. Under the Indian Self-
Determination and Education Assistance Act, the full payment of CSC is 
not discretionary, but is a legal obligation of the United States. 
Indeed, the underlying purpose of the ISDEAA--to end Federal domination 
of Indian programs and allow for meaningful control by Indian tribes 
over their own destinies in the face of Federal bureaucratic 
resistance--will always be threatened so long as the mechanisms that 
allow the statute to function are considered ``discretionary.''
---------------------------------------------------------------------------
    \1\ Congressional Budget Office Glossary, available at http://
www.cbo.gov/publication/42904 (updated January 2012).
---------------------------------------------------------------------------
    From an appropriations standpoint, the fiscal year 2014 Joint 
Explanatory Statement recognized that the current fundamental mismatch 
between the mandatory nature of CSC and the current appropriation 
approach leaves both the House and Senate Committees on Appropriations 
in the ``untenable position of appropriating discretionary funds for 
the payment of any legally obligated contract support costs.'' As the 
Joint Explanatory Statement also noted, ``Typically obligations of this 
nature are addressed through mandatory spending.'' The obvious solution 
then is to bring the appropriations process in line with the statutory 
requirements and to recognize CSC for what it is: a mandatory 
entitlement, not a discretionary program. We therefore strongly urge 
the Congress to move to appropriate funding for CSC on a mandatory 
basis.
    2. The Need for Indian Health Service Advance Appropriations.--The 
Federal health services to maintain and improve the health of American 
Indians and Alaska Natives are consonant with and required by the 
Federal Government's historical and unique legal relationship with, and 
resulting responsibility to, the American Indian and Alaska Native 
people. Since fiscal year 1998 there has been only 1 year (fiscal year 
2006) when the Interior, Environment and Related Agencies 
appropriations bill has been enacted by the beginning of the fiscal 
year. Even after enactment of an appropriations bill (or a series of 
increasingly confusing continuing resolutions), there is an 
apportionment process involving the Office of Management and Budget and 
then a process within the IHS for allocation of funds to the IHS Area 
Offices.
    Seriously delayed funding causes the IHS and tribal healthcare 
providers great challenges in planning and managing care for American 
Indians and Alaska Natives. It significantly hampers tribal and IHS 
healthcare providers' budgeting, recruitment, retention, provision of 
services, facility maintenance and construction efforts. Receipt of 
funds late also severely impacts our tribe's ability to invest the 
funds and generate interest which can be used to offset the chronic 
underfunding of the region's health programs. Providing sufficient, 
timely, and predictable funding is needed to ensure the Government 
meets its obligation to provide healthcare for Native people. We--and 
all tribes and tribal organizations--are hampered by the uncertainty as 
to whether Congress will provide funding for built-in costs, including 
inflation and pay increases, what amount of funding we might receive 
with regard to signing outside vendor/and or medical services 
contracts, ordering supplies, and making crucial hiring decisions.
    Advance Appropriations Explanation.--As you know, an advance 
appropriation is funding that becomes available 1 year or more after 
the year of the appropriations act in which it is contained. For 
instance, if fiscal year 2016 advance appropriations for the IHS were 
included in the fiscal year 2015 Interior, Environment and Related 
Agencies Appropriations Act, those advance appropriations would not be 
counted against the fiscal year 2015 Interior Appropriations 
Subcommittee's funding allocation but rather would be counted against 
its fiscal year 2016 allocation. It would also be counted against the 
ceiling in the fiscal year 2016 Budget Resolution, not the fiscal year 
2015 Budget Resolution.
    To begin an advanced appropriations cycle there must be an initial 
transition appropriation which contains (1) an appropriation for the 
year in which the bill was enacted (for instance, fiscal year 2015) and 
(2) an advance appropriation for the following year (fiscal year 2016). 
Thereafter, Congress can revert to appropriations containing only 1 
year advance funding. If IHS funding was on an advance appropriations 
cycle, tribal healthcare providers, as well as the IHS, would know the 
funding a year earlier than is currently the case and would not be 
subject to Continuing Resolutions. However, we note that advance 
appropriations are subject to across-the-board reductions.
    The Veterans Administration Experience.--In fiscal year 2010 the 
Veterans Administration (VA) medical care programs achieved advance 
appropriations. This came after many years of veterans' organizations 
advocating for this change, including enactment of the Veterans Health 
Care Budget Reform and Transparency Act of 2009 (Public Law 111-81) 
which authorized advance appropriations and specified which 
appropriations accounts are to be eligible for advance appropriations. 
The Act required the Secretary to include in documents submitted to 
Congress, in support of the President's detailed budget estimates, the 
funds necessary for the medical care accounts of the VA for the fiscal 
year following the fiscal year for which the budget is submitted.
    The fact that Congress has implemented advance appropriations for 
the VA medical programs provides a compelling argument for tribes and 
tribal organizations to be given equivalent status with regard to IHS 
funding. Both systems provide direct medical care and both are the 
result of Federal policies. Just as the veterans groups were alarmed at 
the impact of delayed funding upon the provision of healthcare to 
veterans and the ability of the VA to properly plan and manage its 
resources, tribes and tribal organizations have those concerns about 
the IHS health system. Currently there are to bills (H.R. 813/S. 932) 
seeking to expand VA advance appropriation to all discretionary 
accounts not just medical. We also note that there is legislation (H.R. 
3229 and S. 1570) pending in this Congress that would expand advance 
appropriations to the IHS. We thus request this subcommittee's active 
support for any legislation that may be needed to authorize IHS advance 
appropriations, to protect such funding from a point of order in the 
Budget Resolution, and to appropriate the necessary funds.
    3. $15 Million Increase for HIP Program in Tribal Priority 
Allocation (TPA) Funding in the BIA Budget.--Tribal priority 
allocations fund essential core governmental services. We use these 
dollars to provide the most basic needs for our tribal citizens: food, 
clothing and shelter and to provide critical services, including, law 
enforcement, education, transportation, natural resources and economic 
development. Since 1996, tribal government core services are operating 
with over a 30 percent reduction in base funds. We urge you to 
adequately fund TPA to enhance the health and well-being of our 
communities.
    Restore Funding to the Housing Improvement Program.--The HIP 
program is an important component of TPA funding. It serves the 
neediest population--those at 125 percent of the Federal income poverty 
guidelines. The President requests only $8 million for this fund--even 
funding from last year, which was a drastic reduction from the nearly 
$12 million in fiscal year 2013. This reduction is based on the false 
presumption that the program is duplicative of HUD programs. The 
assumption is wrong, and we urge you to provide $15 million in funding 
for this program that provides an essential service to our tribal 
citizens: safe and sanitary housing.
    4. $ 181.2 Million Increase Funding for Purchased/Referred Care 
(formally called Contract Health Services).--Most IHS and tribally 
operated direct care facilities do not provide the required emergency 
and specialty care services, so tribes are forced to turn to the 
private sector to fulfill this critical need. Purchased/Referred Care 
funds are used to purchase essential healthcare services, including 
inpatient and outpatient care, routine emergency ambulatory care, 
transportation and medical support services (like diagnostic imaging, 
physical therapy, laboratory, nutrition, and pharmacy services).
    Thank you on behalf of the Jamestown S'Klallam Tribe.
                                 ______
                                 
           Prepared Statement of the Jicarilla Apache Nation
                                                    March 31, 2014.
Hon. Jack Reed, Chairman,
Hon. Lisa Murkowski, Ranking Member,
Subcommittee on Interior, Environment, and Related Agencies, Committee 
        on Appropriations, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.

    Dear Chairman Reed and Senator Murkowski: I am requesting your 
support for fiscal year 2015 appropriations to the Fish and Wildlife 
Service (FWS) for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program 
consistent with the President's recommended budget. I request that the 
subcommittee:

  --Appropriate $706,300 in ``Conservation and Restoration'' funds 
        (Resource Management Appropriation; Ecological Services 
        Activity; Conservation and Restoration Subactivity within the 
        $124,253,000 item entitled ``Conservation and Restoration'') to 
        the U.S. Fish and Wildlife Service (FWS) to allow FWS for 
        fiscal year 2015 to continue its essential participation in the 
        Upper Colorado River Endangered Fish Recovery Program.
  --Appropriate $200,000 in FWS ``Conservation and Restoration'' funds 
        for the San Juan River Basin Recovery Implementation Program to 
        meet expenses incurred by FWS's Region 2 in managing the San 
        Juan Program's diverse recovery activities.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $48,617,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.

    I request the subcommittee's assistance in assuring fiscal year 
2015 funding to allow the FWS to continue its financial and personnel 
participation in these two vitally important recovery programs. I 
recognize and appreciate that the past support and assistance of your 
subcommittee has greatly facilitated the success of these ongoing 
efforts.
            Sincerely,
                                                Ty Vicenti,
                                                         President.
                                 ______
                                 
                Prepared Statement of Mrs. Barbara King
    Mr. Chairman and distinguished members of the subcommittee: My name 
is Barbara King and I am a resident of Texas, an owner of rural 
property in Colorado, and an advocate for land exchange reform. I 
testified in 2011 before the U.S. House Appropriations Subcommittee on 
Environment, Interior and Related Agencies, and appreciate your 
willingness to consider this additional testimony on the same subject. 
I am convinced of the need for revising BLM land exchange regulations 
to protect the public, based on what my neighbors and I experienced as 
participants in the 2007, Emerald Mountain Land Exchange (EMLEX.) Your 
committee can prevent the recklessness by which the land exchange 
program is being managed by interviewing the officials responsible for 
overseeing it to assess their actual knowledge of land exchange 
regulations and the Land Exchange Handbook policies on public 
notification and working with land exchange facilitators (specifically 
for-profit real estate brokers.) I believe you will be astounded at 
what you find, and will see an immediate need to revise these 
regulations so they are clear and reasonable.
    At the State level, land managers such as Colorado's John Beck 
should be asked why they admittedly do not follow the BLM Land Exchange 
Handbook policies, cavalierly putting your constituents' historic land 
use patterns and land values at risk. Mr. Beck had told me that the 
Handbook is only a guide, and no case law enforces it. Obviously, the 
very wide discretion given to land managers to ignore these policies 
can easily lead to poor decisions with enormous consequences. 
Specifically, as shown in the EMLEX, BLM does not exercise the Full 
Disclosure policy whereby land exchange facilitators must reveal all 
purchase contracts they hold with prospective owners of the Federal 
land prior to land appraisals. If BLM does not provide this information 
to appraisers, as they failed to do in the EMLEX, Federal land 
appraisals cannot be guaranteed to meet regulation standards. Why does 
BLM not make this a regulation given the reports year after year of the 
inadequacy of the appraisal process? Nor, in the EMLEX, were the names 
of all prospective owners added to the mailing list, ignoring a 
Handbook requirement to include everyone expressing an ownership 
interest in the Federal land. This action is crucial to the public, but 
irrelevant to and ignored by BLM. Failure to obtain full disclosure, 
according to the very critical 2009, Government Accountability Office 
(GAO) report, ``BLM and the Forest Service Have Improved Oversight of 
the Land Exchange Process, but Additional Actions Are Needed,'' has 
predictable results. GAO writes ``Without consistent application, the 
agencies fail to obtain critical information and potentially risk 
losing the ability to control the exchange process.'' A big part of the 
problem is lack of trained staff. As GAO wrote ``The agencies cannot 
ensure that realty staff develop and maintain necessary skills.''
    The two problems, inadequate public notification and failure to 
provide appraisers with complete information, are serious, but the 
solutions are so straightforward and cost-neutral that I believe your 
subcommittee will support revising land exchange regulations as you 
consider funding for the FLPMA this year. Your answers to two questions 
should determine whether you are willing to do so. First, should BLM 
notify rural landowners adjacent to Federal land when BLM plans to 
dispose of it? The Department of the Interior (DOI), and most 
vehemently, the acting Inspector General, Mary Kendall, says ``NO!'' 
That is a clue there is a big problem with common sense at DOI.
    Second, do you believe a Federal land appraisal can be guaranteed 
to be accurate if the appraiser is unaware of its intended use by those 
holding purchase contracts for it? Of course not! However, DOI says, 
yes.
    I believe that your subcommittee, charged with oversight of the BLM 
land exchange program, will serve the public well by challenging the 
Administration's counterintuitive thinking.
    The public needs you to find out why BLM officials do not follow 
their Handbook and its checklist of procedures critical to running a 
program that, if mismanaged, can literally ruin your constituents' 
livelihoods. Who can't follow a checklist?
    Interviewing two current Department of the Interior (DOI) officials 
who are responsible for oversight within DOI will reveal why these 
problems persist. Challenging them directly by asking them detailed 
questions will show you the remarkable lack of competence and interest 
within the DOI to do any oversight of this program. Since my 
Congressional representative, John Culberson (R-TX) and I began our 
inquiries about the program in 2009, DOI employees have revealed a 
systemic, evidently coordinated, refusal to examine the problems with 
the BLM land exchange program identified in the 2009, GAO report. I was 
told by BLM Deputy Secretary Ned Farquhar in 2009 that he had neither 
the time nor staff to look into the fact that the Colorado BLM office 
had not followed its policies regarding public notification or working 
with facilitators in the EMLEX. Subsequently, he relied on a report 
from the Colorado office defending their management of the exchange. No 
one at DOI ever challenged its accuracy by examining case file records 
or documents obtained through the Freedom of Information Act (FOIA) 
requests which clearly showed that all BLM officials, including 
Director Bob Abbey simply repeated numerous demonstrably false 
statements about the exchange to Mr. Culberson and me. Finally, and 
shockingly, the acting Inspector General, Mary Kendall, somehow 
``confirmed'' Mr. Abby's false statements, and refused to offer a shred 
of support for her conclusion that BLM had, indeed followed its 
policies. If Democrats on your subcommittee take an interest in this, 
it will be an outstanding example of principle over partisanship. If 
not, the reverse is apparent.
    Why does the land exchange program need your oversight? When 
Federal officials make false statements to congressional appropriators 
who question them, they must believe you do not have the staff or time 
to hold them accountable for what is either gross incompetence or 
willful disregard for facts in order to protect the administration. 
Thorough public notification of BLM's actions and obtaining fair value 
for Federal land are of critical importance to the public, so the 
regulations and policies addressing those issues should be written 
clearly for everyone to understand. BLM's cavalier disregard for your 
own fundamental property rights will be apparent to members and staff 
who talk with administration officials about land exchange regulations 
and policies. Mr. Farquhar and Ms. Kendall should be asked to explain 
their interpretations of and opinions about the following:

    1. Public notification regulations and Handbook policies.

    2. Regulations and Policies regarding oversight of facilitators: 
GAO report 09-611 made excellent recommendations for improving 
oversight of facilitators that could be implemented fairly easily if 
BLM would simply acknowledge the problem. Unfortunately, DOI's response 
included in that report, written by Acting Assistant Secretary, Land 
and Minerals Management, Mr. Ned Farquhar does not even acknowledge the 
problems with oversight noted in the report, or comment on GAO's 
suggestions to correct them. In the report, GAO states the need for 
additional documentation by the National Land Exchange Team that the 
Full Disclosure provision of the agreement to initiate (ATI) is indeed 
exercised in a facilitated land exchange. BLM still refuses to do so. 
The influence of lobbyists for facilitators may be the reason for this 
because the risk of inaccurate appraisals is clear.

    3. Oversight of land exchange and appraisal processes within BLM 
and DOI: GAO report 08-106 ``Federal Land Transaction Facilitation Act 
Restrictions and Management Weaknesses Limit Future Sales and 
Acquisitions and 10-259T ``Challenges to Implementing the Federal Land 
Transaction Facilitation Act'' identify management weaknesses and the 
lack of staff. ``BLM officials reported that they lacked knowledgeable 
realty staff to conduct land acquisitions, as well as other BLM or 
department staff to conduct appraisals, surveys, and resource studies. 
The turnover of management in the State Office conducting the most 
exchanges, Colorado, is remarkably high. Colorado has had seven State 
Directors during the period 2002-2014 (Wenker, Koza, Wisely, Hunsaker, 
Barden, Hankins, Welch). The turnover at the Federal level just with 
the Obama administration shows the need for clear regulations and 
policies that these officials and the public can understand. Hopefully, 
DOI Secretary Jewell, BLM Director Kornze and Assistant Secretary for 
Land and Minerals Management Schneider will, unlike their predecessors, 
accept public and congressional scrutiny and make the changes that need 
to be made. Ironically, it was Secretary Salazar who stated, in his 
2011, ``Plan for Retrospective Regulatory Review'' that ``Through this 
process, we want to gather the best ideas from the public on how to fix 
regulations that need fixing, eliminate those that are no longer 
needed, and make government work better for the people we serve.'' Your 
subcommittee has the power to take these problems seriously and fix 
them. Here is a start. Ms. Kendall's refusal to provide Mr. Culberson 
with a full report on her ``appraisal review'' of one of the EMLEX 
parcels indicates her profound lack of transparency and contempt for 
Congressional scrutiny.

    4. Suggested Revisions to land exchange regulations and Handbook

    a. Regulations CFR 43 2201. 2 and 2201.7-1 should be amended such 
that the category of those ``appropriate'' includes

          1. adjacent landowners

                  2015 Appropriations Bill Language proposed by 
                Representative John Culberson (R-TX): ``Section 206 of 
                the Federal Land Policy and Management Act of 1976 (43 
                U.S.C. 1716) is amended by adding at the end the 
                following new subsection: `(j) In the case of any 
                exchange involving public land or National Forest 
                System land to be carried out (whether directly or 
                through a third-party) under this Act or other 
                applicable law, the Secretary concerned shall provide 
                written notice of the proposed land exchange to each 
                owner of non-Federal land adjoining the parcel of 
                public land or National Forest System land proposed for 
                exchange and each owner of non-Federal land adjoining 
                the non-Federal land proposed to be acquired in the 
                exchange. The Secretary shall determine adjoining 
                landowners using the most-recent available tax records. 
                For purposes of providing notification under this 
                subsection, adjoining land means land sharing any 
                length of border with the public land, National Forest 
                System land, or non-Federal land subject to the 
                proposed exchange, including contact solely at a 
                boundary corner.

          2. ``interested parties'' defined as (a) parties who 
        requested information about the exchange directly from BLM (as 
        required by the Handbook) (b) any party known to the 
        facilitator to have an ownership interest in the BLM land shown 
        by a contract with the facilitator or a related agreement to 
        purchase all or part of the newly exchanged BLM property. This 
        information is required to be provided to BLM through the Full 
        Disclosure provision of the ATI.

    b. Implement these Specific Directives regarding Land Exchanges 
based on the GAO report GAO-09-611 through revising regulations to 
require this:

  --ensure careful and fully documented reviews by National Land 
        Exchange Team (NLET) that identify key problems and record 
        their resolutions
  --Clearly define third-party facilitators
  --Consistently apply disclosure policies to them an, crucially, 
        include documentation of the disclosure in the case file and 
        verification of the disclosure by NLET

    c. Revisions to the BLM Land Exchange Handbook Chapter 11E.

          Role of Facilitators in Assembling Multiple Parcels or 
        Multiple Ownerships.

          BLM should plainly define the meaning of words used in their 
        regulations, policy and personal communications such as 
        ``interested party,'' ``participant'' and ``client.'' Exchange 
        facilitators must be required to be aware of all exchange 
        regulations and policy. BLM realty staff must review all 
        facilitator's Employment Agreements to verify that the Scope of 
        Work offered to clients is consistent with exchange policy. BLM 
        should add an additional step to the land exchange review 
        process, as GAO-09-611 recommends (p. 42) so that the National 
        Land Exchange Team documents that the Full Disclosure provision 
        was exercised, shown by BLM realty staff having reviewed all 
        contracts the facilitator holds. Both the State realty office 
        and the NLET reviews should be in the exchange case file.

    --BLM should distribute a Land Exchange Fact Sheet to ``interested 
            parties'' holding a contract or related agreement with the 
            facilitator, clarifying the roles of BLM and its 
            facilitator and the exchange parameters.
                                 ______
                                 
        Prepared Statement of the League of American Orchestras
    The League of American Orchestras urges the Senate Interior, 
Environment, and Related Agencies Appropriations Subcommittee to 
approve fiscal year 2015 funding for the National Endowment for the 
Arts (NEA) at a level of $155 million. We ask Congress to continue 
supporting the important work of this agency, which increases public 
access to the arts, nurtures cultural diversity, promotes the creation 
of new artistic works, and cultivates a sense of cultural and historic 
pride, all while supporting millions of jobs in communities nationwide.
    The League of American Orchestras leads, supports, and champions 
America's orchestras and the vitality of the music they perform. Its 
diverse membership of approximately 800 orchestras runs the gamut from 
world-renowned symphonies to community groups, from summer festivals to 
student and youth ensembles. Orchestras unite people through creativity 
and artistry, fuel local economies and civic vitality, and educate 
young people and adults. The League remains committed to helping 
orchestras engage with their communities, and the NEA plays an 
invaluable role through its direct grants, Federal/State partnerships, 
and research on trends in public participation and workforce 
development.
    The award of a competitive NEA grant is widely considered an 
affirmation of national artistic significance. The ability to present 
nationally recognized programs is highly valued by communities large 
and small, and being an NEA grant recipient is critical in securing 
additional funding for a variety of programming and operations. In 
fiscal year 2013, the NEA's Grants to Organizations included 100 direct 
grants to orchestras in the Art Works and Challenge America categories. 
In the current fiscal year 2014 period, the following eleven 
highlighted awards total $200,000 in NEA grants, supporting orchestras 
that together employ more than 800 musicians and 360 full- and part-
time staff.
        nea funding increases access for underserved communities
    Together with the organizations it supports, the NEA is dedicated 
to improving public access to the arts. With a Challenge America grant, 
the Gulf Coast Symphony Orchestra produced ``Something Old, Something 
New,'' a classical music concert featuring trombonist Joe Alessi. The 
project was created to serve a low-income, rural community. In addition 
to the public performance, there was also a public dress rehearsal, a 
master class for a local high school, and free community outreach 
performances held in Gulfport and Ocean Springs, Mississippi. The 
public dress rehearsal attracts a full range of local citizens--from 
high school and college students to residents of retirement homes and 
local veterans. The Gulf Coast Symphony and its musicians accomplish 
all of this with the help of just three staff members and an active 
board.
    Another Challenge America recipient serving many with a modest 
grant is the Bismarck-Mandan Symphony Orchestra (BMSO), the only full 
symphony orchestra in western and south central North Dakota. With two 
full-time and two part-time staff, roughly 75 musicians, and more than 
40 volunteers, the BMSO will present a series of concerts and 
activities with guest violinist Michael Ludwig in Bismarck, the 
orchestra's home base, and Mott, a rural community of 732 people. The 
orchestra and Mr. Ludwig will work with local partners in Mott to 
present a classroom program for student musicians at Mott-Regent 
Junior/Senior High School, a recital for residents of the Good 
Samaritan Society-Mott, which provides shelter and supportive services 
to older persons and others in need, and perform a free evening recital 
at Mott's Playhouse Theater. These activities will benefit a community 
that would otherwise need to travel more than 100 miles to Bismarck in 
order to enjoy professional music performances.
    Orchestras are finding ways to engage underserved communities that 
are nearby as well as those many miles away. The Seattle Symphony 
Orchestra (SSO), which employs 150 full-time staff including 84 
musicians, will utilize its NEA Art Works grant to help support the New 
Music Works performance project, which employs music composition as a 
tool to increase public participation in the arts and creates skill 
development opportunities for youth. The project will feature 
compositions that bridge traditional and contemporary cultures. Among 
these works is a new piece co-created by northwest Native American 
youth and artists through the SSO's Cultural Exchanges, which are 
hosted at tribal venues on a quarterly basis to foster closer 
relationships and collaborative work with the tribes.
 nea grants help orchestras engage, educate, and equip america's youth
    The experience of live music can bring disparate communities and 
partners together, united in the purpose of educating and encouraging 
young people. The Greensboro Symphony's OrKIDStra program, for example, 
partners with Guilford County Head Start to serve preschoolers 
throughout the Piedmont Triad. Tying together literacy skills with 
classical music, the symphony provides more than 600 Head Start 
children with free books related to a specific concert theme. Head 
Start educators work with the children, who later see the book brought 
to life in an interactive concert featuring the symphony's Percussion 
Ensemble and a professional storyteller. Building upon the great 
success of last year's program, the Greensboro Symphony, with its 13 
full and part-time staff and more than 80 musicians, is expanding its 
OrKIDStra program this year to include several public performances at 
the Greensboro Science Center's new Carolina SciQuarium facility in May 
2014.
    The Kansas City Symphony, with 80 full-time musicians, 31 full-time 
staff members, and as many as 200 part-time/seasonal employees, offers 
more than 170 performances and also education programs that connect 
with more than 40,000 children and teachers each year, many of whom are 
in rural and underserved areas. The Kansas City Symphony's ``Festival 
of Rhythm'' program featured performances by percussionist Martin 
Grubinger playing John Corigliano's percussion concerto Conjurer, and 
the Festival also included a free community concert of percussion 
works, a public lecture by Corigliano, and a master class and pre-
concert discussions with Grubinger, all reaching more than 6,000 
people. In addition, nearly 17,000 students and teachers from 20 
communities in northwest Missouri and 21 communities in northeast 
Kansas learned about rhythm and percussion at 12 KinderKonzerts and 
Link Up performances.
    Thanks to an NEA Challenge America grant, the Fort Smith Symphony 
Orchestra, which employs four full-time staff and 93 per-service 
professional musicians, was able to offer for free, an interactive 
educational program called EARQUAKE!<SUP>TM</SUP>. In partnership with 
both public and private schools, this award-winning, live concert 
series reached 3,500 sixth-graders in a five county region in western 
Arkansas and eastern Oklahoma, engaging them in a total symphony 
experience designed to encourage music appreciation and future 
participation in the arts. EARQUAKE!<SUP>TM</SUP> concerts featured 
exciting music by the full orchestra, complete with video projection, 
audience participation, and performances by violist Tazonio Anderson. 
Nearly one-fourth of the Fort Smith students live in poverty, and 
participating rural Arkansas and Oklahoma schools have acute economic 
disadvantages with limited arts education budgets.
    The San Francisco Symphony Youth Orchestra will use its Art Works 
grant from the NEA to support the Artistic Development Program. The 
program complements the youth orchestra's core activity of weekly 
rehearsals and concert performances by providing students with 
coaching, mentorship, and specialized training in chamber music. 
Students will receive free tickets to San Francisco Symphony 
performances and participate in master classes with guest artists such 
as composer John Adams, violinist Joshua Bell, and pianist Garrick 
Ohlsson. Participants will also rehearse at least twice a year with San 
Francisco Symphony Music Director Michael Tilson Thomas. The San 
Francisco Symphony currently employs 107 full-time orchestra members 
and 123 full-time staff.
          nea funding encourages new works and local artistry
    NEA grants to orchestras help support the creative work of American 
composers and musicians. Whether the music is newly composed, inspired 
by classics, or blends music from different genres, the artistry 
supported by the NEA is as diverse as the communities that surround 
their grantees. The Utah Symphony <rm-bond> Utah Opera, whose 56 full-
time and 20 part-time employees and 85 full time musicians help bring 
music to 450,000 residents in Utah and the Intermountain region, 
received an Art Works grant to support the premiere performance of a 
percussion concerto by Andrew Norman. Mr. Norman chose the percussion 
as the solo medium due to its physicality, which he feels compellingly 
demonstrates the theatrical aspect of live orchestral performance. The 
world premiere performance of his concerto will feature guest artist 
Colin Currie in Abravanel Hall, Salt Lake City.
    The Portland Symphony Orchestra, led by 82 musicians along with 12 
full-time and 5 part-time staff, received an Art Works grant to support 
audience engagement with both traditional and contemporary compositions 
in celebration of the orchestra's 90th anniversary season. The 
orchestra will perform all nine of Beethoven's symphonies over the next 
three concert seasons, with the upcoming season's February concert to 
feature Beethoven's Symphony No. 3 and a Beethoven-inspired 
commissioned piece by a young American composer. A national, 
competitive application process will held to help launch and promote 
the career of the selected young American composer, who will also 
participate in a ``mini-residency'' which will involve participating in 
community events such as education symposiums, master classes in local 
schools, and Q&A events for concert audiences.
    Also supporting the work of living composers is the Arkansas 
Symphony Orchestra, which will use its Art Works funding to support a 
residency, commission, and premiere of a new work by American composer 
Christopher Theofinidis. In addition to working with orchestra 
musicians prior to the premiere, Mr. Theofinidis will also work with 
underserved students in central Arkansas and take part in pre-concert 
lectures. The orchestra, which employs eleven full-time musicians, 
eighty part-time musicians, and twelve full-time staff members, serves 
over 120,000 Arkansans a year with live music and is proud to premiere 
the work of Mr. Theofinidis.
    The Chicago Sinfonietta, with its 62 musicians, a staff of 4 full-
time and 7 part-time employees, and 30-member board, will use its Art 
Works grant to present unique programming that blends musical and 
cultural genres. The Cross-Cultural Genre Fusion concert, with related 
educational activities, is a multicultural exploration of the 
intersection between symphonic and electronic music and will feature a 
Bhangra DJ together with two guest conductors--one Brazilian and one 
African American. Each conductor will conduct one half of the concert 
and will focus on their individual cultural heritage. Educational 
activities will include pre-concert discussions and school visits.
    Thank you for this opportunity to convey the tremendous value of 
NEA support for orchestras and communities across the Nation. These are 
but a sampling of the innovative compositions, thoughtful programming 
for underserved regions and populations, and lifelong learning 
opportunities orchestras provide in service to adults and children from 
all walks of life. The Endowment's unique ability to provide a national 
forum to promote excellence and engagement through high standards for 
artistic products and the highest expectation of accessibility remains 
one of the strongest arguments for a Federal role in support of the 
arts. We urge you to support creativity and access to the arts by 
approving $155 million in funding for the National Endowment for the 
Arts.
                                 ______
                                 
             Prepared Statement of the Maniilaq Association
    Summary.--The Maniilaq Association is an Alaska Native regional 
non-profit organization representing twelve tribes in Northwest Alaska. 
We provide health services through a self-governance agreement with the 
Indian Health Service (IHS) and social services through a self-
governance agreement with the Bureau of Indian Affairs (BIA). We make 
the following recommendations regarding fiscal year 2015 IHS funding.
  --Increase funding for the Village Built Clinic leases in Alaska by 
        at leaset $8.5 million
  --Make full Contract Support Costs funding mandatory spending.
  --Reauthorize the Special Diabetes Program for Indians
  --Fund the IHS budget with advanced appropriations.
  --Provide a $50 million allocation to the IHS from the ACA's 
        mandatory Prevention and Public Health Fund for tribal 
        behavioral health grants.
  --Improve the safety of Alaska Native communities by affirming tribal 
        jurisdiction.
              funding for village built clinics in alaska
    Maniilaq urges Congress to provide full funding for Village Built 
Clinics (VBCs) in Alaska. VBCs are vital to the provision of basic 
healthcare in rural Alaska, as they serve as the clinic space for the 
Community Health Aide Program (CHAP) under the Indian Health Care 
Improvement Act (IHCIA). The CHAP, which IHS is directed by the IHCIA 
to carry out, utilizes a network of community health aides and 
practitioners to provide primary healthcare services in rural and 
isolated areas where access to those services might not otherwise 
exist.
    Despite the statutory requirement in the IHCIA that the IHS carry 
out the CHAP in order to ensure access to healthcare in rural Alaska, 
over the years the IHS has failed to fund VBC leases anywhere near the 
level of current need. Instead, the IHS has insisted that its funding 
for VBC leases is capped at $3 million--the amount appropriated by 
Congress for VBC leases in 1989. The 1989 appropriation was not a cap 
restricting IHS allocation of funds in later years, however, and the 
IHS has discretion to fund VBCs from its lump sum appropriation. The 
failure of the IHS to allocate funding to VBC leases to meet its 
statutory obligations under the IHCIA has forced Maniilaq to divert 
funding from critical healthcare programs to make up the difference, 
meaning that Maniilaq must offer fewer healthcare services to our 
communities.
    Maniilaq, along with other tribes and tribal organizations in 
Alaska, has discussed this issue with the IHS on several occasions, and 
has proposed solutions that the IHS continues to ignore. Accordingly, 
Maniilaq has recently sought to restructure funding for its VBC 
facilities by requesting that the IHS enter into leases for those 
facilities under its Indian Self-Determination and Education Assistance 
Act (ISDEAA) Section 105(l) leasing authority, and that the leases be 
incorporated into Maniilaq's ISDEAA funding agreement. Section 105(l) 
and its implementing regulations at 25 C.F.R. Part 900 require that the 
Secretary enter into a lease with a tribe or tribal organization, on a 
mandatory basis upon the request of the tribe or tribal organization, 
for a facility used by the tribe or tribal organization for the 
administration and delivery of services under an ISDEAA compact. The 
statute and implementing regulations also require the Secretary to 
compensate the tribe or tribal organization for certain costs 
associated with the lease.
    The IHS, however, refused the lease proposal, stating that the 
agency will not enter into leases with ISDEAA tribal contractors for 
VBC facilities. IHS also took the position that even if it were to 
approve the lease, the Secretary may unilaterally elect to provide 
essentially meaningless ``non-monetary compensation'' in lieu of the 
costs listed in the statute and regulations for a Section 105(l) lease. 
In response, and with the support of several other major tribal 
organizations, Maniilaq filed suit in Federal District Court early last 
year asking the court to affirm that the IHS is required by statute to 
enter into a Section 105(l) lease and to negotiate monetary 
compensation as provided in the implementing regulations.
    If Maniilaq prevails, the case could establish legal precedent that 
will allow tribal contractors in Alaska to negotiate for full funding 
for VBCs as part of their funding agreements under the IHS's ISDEAA 
leasing authority. Such a victory could address the issue of IHS 
recalcitrance that has plagued the VBC program, since full compensation 
would finally be mandatory. However, support is still needed from 
Congress to ensure that adequate funding is available for VBC leases 
regardless of how the leases are structured. The CHAP in Alaska is 
critical to the provision of basic and essential healthcare services in 
isolated and rural areas, but the program hinges on the continued 
availability of properly maintained VBC space for program operation. 
Maniilaq therefore urges Congress to appropriate at least an additional 
$8.5 million in dedicated funds to fully fund the VBC leasing program.
              mandatory funding for contract support costs
    We are pleased that Congress chose to fully fund contract support 
costs (CSC) under the ISDEAA in fiscal year 2014, and that the 
administration has supported that effort in fiscal year 2015. CSC fund 
vital administrative functions that allow us to operate programs that 
provide critical services to our community members. If contract support 
costs are not fully funded, however, our programs and services are 
adversely affected because we are forced to divert limited program 
funding to cover fixed overhead expenses instead. We therefore 
appreciate Congress' support in fiscal year 2014 and hope that it 
carries through to fiscal year 2015 and beyond. However, full funding 
for CSC must not come with a penalty--tribes should not have to see a 
reduction in program funding or effective permanent sequestration of 
Indian program funds. Without any permanent measure to ensure full 
funding, payment of CSC remains subject to agency ``discretion'' even 
though tribes are legally entitled to payment under the ISDEAA. Noting 
these ongoing conflicts of law, Congress directed the agencies to 
consult with tribes on a permanent solution.
    There is a logical permanent solution Congress can implement: CSC 
should be appropriated as a mandatory entitlement. Under the ISDEAA, 
the full payment of CSC is not discretionary; it is a legal obligation, 
affirmed by the U.S. Supreme Court. Yet the budget for CSC is currently 
funded and controlled through appropriation acts--as if it were a 
discretionary program. Congress, in the Joint Explanatory Statement for 
the fiscal year 2014 Consolidated Appropriations, recognized that the 
current fundamental mismatch between the mandatory nature of CSC and 
the current approach leaves the House and Senate Committees on 
Appropriations in the ``untenable position of appropriating 
discretionary funds for the payment of any legally obligated contract 
support costs.'' Congress also noted that, ``Typically obligations of 
this nature are addressed through mandatory spending.'' The obvious 
solution then is to bring the appropriations process in line with the 
statutory requirements and to recognize CSC for what it is: a mandatory 
entitlement, not a discretionary program. Maniilaq therefore strongly 
urges the Congress to appropriate funding for CSC on a mandatory basis.
                reauthorize the special diabetes program
    While the entitlement funding for the Special Diabetes Program for 
Indians (SDPI) is not part of the IHS appropriations process, those 
funds are administered through the IHS. With the recent enactment 
(Public Law 113-93) of a 1 year extension of the SDPI as part of the 
Medicare ``doc fix'' bill, it is funded through fiscal year 2015 at 
$150 million, minus a 2 percent reduction ($3 million) due to the 
sequestration of non-exempt mandatory programs (Public Law 112-240). 
This funding level has not increased since 2004. The SDPI has proven 
highly effective in Indian Country, and has produced excellent results. 
For example, in the 4 years preceding the last report on the SDPI in 
2011, the average blood sugar level dropped nearly a percentage point 
overall, corresponding to a 40 percent decline in the risk of eye, 
kidney, and nerve complications due to diabetes. We ask that you 
support ongoing efforts to reauthorize this program for a 5-year period 
at increased funding levels.
              fund the ihs through advanced appropriations
    Last year we provided extensive testimony to this subcommittee 
requesting advanced appropriations for the IHS budget. We refer you to 
that testimony for a full description of the benefits of such an 
approach. In sum, the goal is for the IHS and tribal healthcare 
providers to have adequate advance notice of the amount of Federal 
appropriations to expect and thus not be subjected to the uncertainties 
of late funding and short-term Continuing Resolutions. Congress 
provides advance appropriations for the Veterans Administration medical 
accounts, and the request is for parity in the appropriations schedule 
for the IHS. Legislation to authorize IHS advance appropriations has 
been introduced--H.R. 3229 by Representative Young and S. 1570 by 
Senators Murkowski and Begich. We submitted testimony to the Senate 
Committee on Indian Affairs' April 2, 2014, hearing on S. 1570. We 
request that you support such efforts, and work with these sponsors and 
tribal representatives to move the IHS to an advanced appropriations 
framework.
increase funding for behavioral health, suicide prevention, and alcohol 
                      & substance abuse treatment
    Alaska faces particular hardships in providing for our communities' 
behavioral and mental health. There is a dire need for more prevention 
funding for suicide intervention as well as alcohol and substance abuse 
prevention, particularly for our youth. These efforts go hand in hand, 
as the problems often overlap. Alaska has twice the national rate of 
suicide, and ranks second in the Nation in suicide attempts requiring 
hospitalization. Alaska Native teens commit suicide at a rate nearly 6 
times that of non-Native teenagers. The suicide rate among all Alaskans 
increased by 33 percent between 2005-2008--a period when the national 
rate remained steady. Compounding and complicating the suicide epidemic 
is alcohol and substance abuse, or a mental health disorder. The 
overwhelming majority of the people we lose to suicide suffer from 
diagnosable, treatable mental health or substance abuse problems. 
However, the waiting list for treatment averages nearly 9 months, and 
due to lack of funding there is often no place to refer people, 
particularly young people.
    Alcohol and substance abuse contributes to myriad other problems as 
well, including crime, domestic violence, child abuse or neglect. 
Oftentimes, tribes in Alaska have a difficult time working through the 
State of Alaska to provide these services, which adds layers of 
guidelines, regulations, and reduced funding. We have found that tribes 
and tribal organizations should receive behavioral funds directly, 
because programs that implement traditional cultural values are more 
successful than those that don't. Included in the Affordable Care Act 
is mandatory funding ($17.7 billion over 10 years) for a Prevention and 
Public Health (PPH) Fund from which Congress may allocate funding to 
various programs. In fiscal year 2012 the administration requested that 
$50 million of it be allocated to a new tribal behavioral health grant 
program; unfortunately Congress did not provide that allocation. We 
urge that Congress allocate $50 million from the PPH to the IHS in 
fiscal year 2015 for this purpose and that it be recurring.
       support tribal jurisdiction to protect alaska communities
    We support the ongoing efforts to amend S. 1474, the Alaska Safe 
Families and Villages Act, in a manner that would recognize Alaska 
tribes' jurisdiction to protect their communities by dealing locally 
with domestic violence, sexual assault and drug and alcohol abuse. At 
the same time, we greatly appreciate the provision that is already in 
S. 1474 which would repeal section 910 of the Violence Against Women 
Act Reauthorization that left Alaska tribes out of the expanded tribal 
jurisdiction over domestic violence affirmed in that law. These changes 
will require additional Bureau of Indian Affairs resources regarding 
law enforcement and courts. We look forward to continued work with our 
congressional delegation and others on this legislation of such crucial 
importance to Alaska Native communities.
    Thank you for your consideration of our concerns and requests.
                                 ______
                                 
                Prepared Statement of Dr. Peter Meineck
    Mr. Chairman and members of the subcommittee: My name is Peter 
Meineck and I am a professor of classics at New York University, the 
founding director of the Aquila Theatre Company and a proud member of 
the Bedford Fire Department in New York where I serve as a volunteer 
Firefighter and EMT. I write to testify on behalf of the National 
Humanities Alliance and Aquila Theatre in enthusiastic support for the 
Alliance's fiscal year 2015 request of $154.5 million in funding for 
the National Endowment for the Humanities--which is nothing less than a 
great American treasure.
    I mentioned in my introduction that I am a volunteer Firefighter in 
Bedford, New York. My hamlet of Katonah, part of the town of Bedford, 
includes the home of John Jay, the author of several of the Federalist 
Papers, member of the Continental Congress, signatory to the 
Declaration of Independence and our first Chief Justice. Like almost 
all the members of the Continental Congress, Jay received a classical 
education and could read both Greek and Latin. In fact, Thomas 
Jefferson was so enthusiastic he exclaimed, ``I thank on my knees, him 
who directed my early education, for having put into my possession this 
rich source of delight; and I would not exchange it for anything which 
I could then have acquired, and have not since acquired.'' John Jay's 
works and those of his colleagues reflect the profound influence the 
classical world had on the conception and creation of the United States 
of America.
    This is strikingly apparent in the Federalist Papers. Hamilton and 
Madison, Jay's fellow New York delegates to the Continental Congress, 
devoted the entirety of Federalist no. 18 to a sophisticated objective 
appraisal of why the Ancient Greek city states failed to coalesce into 
one nation. This became a powerful historical argument in support of 
the confederation of the 13 colonies into a Federal United States. They 
wrote, ``Had Greece been united by a stricter confederation, and 
persevered in her union, she would never have worn the chains of 
Macedon; and might have proved a barrier to the vast projects of 
Rome.'' Right from the start, Americans drew inspiration from their 
knowledge of the classical past.
    John Jay well understood that knowledge was essential if the 
American experiment was to succeed. In a letter to Pennsylvania 
delegate Benjamin Rush in 1785 he wrote, ``Knowledge is the soul of the 
Republic and the only way to diminish the weak and wicked.'' Later in 
1789, he echoed this theme by writing to Timothy Matlack that 
``Knowledge is essential for the duration of liberty,'' and in the same 
year, he felt confident that the American Revolution would succeed 
because ``In my opinion more light and knowledge are diffused through 
the mass of the people of this country than any other.''
    Jay received his classical education at Kings College in New York, 
renamed as Columbia University, and I was able to read Jay's letters in 
his own hand because of a superb digital archive held there. These 
historic papers are available online for all and funded by the National 
Endowment for the Humanities, the agency which embodies the sentiments 
of John Jay that ``Knowledge is the soul of the Republic'' and 
essential for the survival of liberty.
    Long before there was the NEH to help scholars undergo important 
research and disseminate their knowledge, support documentary film 
makers and archives, and fund important public programs in libraries, 
museums, galleries, VA hospitals and community centers, the classics 
provided many early Americans with the historical exemplars and 
literary metaphors by which they examined their own lives. Abigail 
Adams wrote countless letters from Boston to her husband John, far away 
in Philadelphia, during the war. She signed them ``Diana,'' after the 
Roman goddess of the hunt and later ``Portia,'' the wife of the Roman 
republican, Brutus. Adams wrote back as ``Lysander,'' the famous 
Spartan General who ended the Peloponnesian War. Abigail's passion for 
the classics was evidently so great that John felt compelled to write, 
``Amidst your Ardor for Greek and Latin I hope you will not forget your 
mother Tongue. Read Somewhat in the English Poets every day. . . . You 
will never be alone, with a Poet in your Pocket. You will never have an 
idle Hour.'' Now, there are a fair few more Americans than in 1780, and 
it is the National Endowment for the Humanities that brings us ``Poetry 
in Motion'' on the subway and places living poets in communities 
throughout America, offering access, education, inspiration and 
knowledge.
    With that in mind, I would like to briefly describe the NEH funded 
program that I directed called Ancient Greeks/Modern Lives that used 
the works of Homer, Aeschylus Sophocles and Euripides to foster 
informed public discussions on the veteran in American society. Between 
2010-2013, the program toured to 106 communities in 31 States, staging 
244 live events, comprising staged readings and discussions, public 
lectures, reading groups, film screenings and theatre workshops. We 
hired 62 classics professors and sent them out into the field where 
they worked with professional actors, librarians, museum curators, 
performing arts center staff and members of veteran organizations. 
110,865 people attended the live events. This works out to a cost to 
the Federal Government of only $7.22 per person, and if we add the 
program web site's recorded hits of 678,000, it only comes to around 
one dollar per person.
    The stated aim of the program was to use ancient dramatic 
literature to bring members of the veteran community and the public 
together around the common themes found between the ancient literature 
and the experiences of war and homecoming. We staged these free events 
in public spaces dedicated to reading, art and culture--places that 
were right in the heart of the inner city, rural and underserved 
communities we visited. Here, Americans had the opportunity to freely 
exchange ideas framed by the deeper context of the classical texts.
    One program participant, a U.S. Army Ranger sergeant who has served 
in several tours of Afghanistan and Iraq, summed up the way in which 
classical texts can be a context for modern military experience: ``With 
the Ancient Greeks/Modern Lives project I liked that the experiences 
were filtered through classical myth. This distance allows both 
performers and audience members to use their imaginations in an 
empathetic way, rather than merely evoking sympathy. The use of myth 
(or perhaps any fictionalized narrative) also helps free us from 
anachronistic terms such as PTSD or psychological wound, or whatever 
else they want to use to describe someone who has undergone a 
significant change due to military service. Classical myth places the 
emphasis back on character and story, and helps reject the laziness of 
labels. Arguably, the abstract nature of myth also allows individuals 
to reflect on their own experiences with the subject at hand, and to 
flesh out the experience with some combination of memory and 
imagination.''
    Of course, there are as many responses and experiences as there are 
veterans but one veteran of the Vietnam war felt that the program was 
helping to make American's literate about war, something he believed 
was essential in any democracy. It was always remarkable to see how the 
classical stories elicited deeply personal and heartfelt responses. At 
one event in a military museum in Iowa, a long serving non commissioned 
officer of the Iowa National Guard latched on to the tension inherent 
in the moment in Book 23 of Homer's Odyssey, when the hero is finally 
reunited with his wife, Penelope. This Iowan and his wife recognized 
the intimacy of something simple between them that could suddenly 
transcend the long separations of multiple deployments. Like Odysseus 
himself, who is moved to tears when he hears tales of the Trojan War 
sung by a bard, there were many sniffles in the audience at this 
beautifully simple and completely human moment that was captured and 
written down in a foreign land some 2750 years ago: for the humanities 
constantly remind us what it means to be human.
    In Mississippi, a leather-clad member of Rolling Thunder--the 
veteran motorcycle group--responded quite differently to the same 
passage. After hearing the Homeric simile of how Odysseus felt like a 
drowning man, he stood up and said ``I have told nobody this, not even 
my wife here, but when I came home from Vietnam I threw my uniform in 
the trash at the airport and went home in disguise, just like Odysseus 
and I too felt like a drowning man--all that death --I didn't think I 
could love any one or be loved by anyone again--I felt like I was 
drowning, until my girlfriend, my wife here, gave me her hand and 
rescued this drowning man. How did Homer know this?''
    As the program progressed, we met more veterans from Iraq and 
Afghanistan, mostly keeping silent at first, perhaps even suspicious, 
but we noticed the veterans of the Vietnam War making contact and 
talking to them after the event. New mutually supportive relationships 
were formed--veterans helping veterans. We also started to encounter 
female combat veterans, nurses from Vietnam who had been deployed in 
the field, Army personnel working with front line troops in Iraq and 
Afghanistan, sometimes telling us about two enemies--the one they were 
there to fight and the enemy within--harassment, sexual assault and 
rape. The ancient plays resounded even amongst the most difficult and 
uncomfortable of topics and allowed us to talk about them. These 
classical works became ``our mirror held up to nature,'' advice Hamlet 
gives the players after he has been moved himself by watching one of 
them perform a classical piece about Queen Hecuba at the fall of Troy.
    We met veterans from World War II, the Korean War, the Cold War and 
those who served in between, and we learned so much about the meaning 
of these classic plays from them. Their insights were often so keen and 
insightful that many of our classics scholars came to see aspects of 
these works in a completely new light. VA Psychologist Dr. Jonathan 
Shay in his book, Odysseus in America, wrote that Greek drama was 
theatre by combat veterans, performed by combat veterans for an 
audience made up of combat veterans--perhaps this was one reason why 
these ancient works resounded.
    The NEH has provided us with funds for a new humanities/veterans 
project called YouStories: Classics, Conversation, Connection. Here, we 
take the devices that worked so well on Ancient Greeks/Modern Lives and 
are creating a combination of live events and a new story collecting 
app, where veterans and the public can upload their own video stories. 
These are spoken into a smart phone, tablet or computer after being 
inspired by the ancient materials included with the app. These stories 
will then be collected, curated and displayed online and also archived 
at the Library of Congress. This program has a special focus on female 
veterans and we hope that these ancient plays might inspire, provoke 
and provide a context for their stories--their experiences as Americans 
serving their country at a time of war.
    The aim of my testimony today has been to try to convince you of 
the continuing power of the classics in American life and how the 
National Endowment for the Humanities has allowed a truly national and 
human program to flourish. Their prestigious award helped create media 
and institutional interest in the program and attract additional 
funding from private foundations and individuals. Their selection 
process is highly rigorous and the expert advice and tireless help of 
their program staff is nothing short of priceless.
    I conclude with the words of a great man far more eloquent than I. 
In his last speech delivered in Memphis on April 3, 1968--the day 
before my first birthday--Martin Luther King took us on a monumental 
and historic flight of fancy telling us:

        ``I would move on by Greece, and take my mind to Mount Olympus. 
        And I would see Plato, Aristotle, Socrates, Euripides and 
        Aristophanes assembled around the Parthenon as they discussed 
        the great and eternal issues of reality.''

    The National Endowment for the Humanities does just this--it 
enables those discussions of great and eternal issues of reality and 
via its excellent public programming sends them out across the Nation 
helping to empower our democracy with that most valuable of human 
resources--knowledge.
    Thank you very much.
                    the national humanities alliance
    Founded in 1981, the National Humanities Alliance advances national 
humanities policy in the areas of research, preservation, public 
programming, and teaching. More than one hundred organizations are 
members of NHA, including scholarly associations, humanities research 
centers, colleges, universities, and organizations of museums, 
libraries, historical societies, humanities councils, and higher 
education institutions.
                           the aquila theatre
    Founded in 1991, Aquila Theatre's mission is to bring the greatest 
theatrical works to the greatest number. To this end Aquila presents a 
regular season of plays in New York, at international festivals, and 
tours to approximately seventy American towns and cities each year.
                                 ______
                                 
   Prepared Statement of the Metropolitan Water District of Southern 
                               California
    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee: The Metropolitan Water District of Southern California 
(Metropolitan) encourages the subcommittee's support for the U.S. 
Bureau of Land Management's (BLM) Subactivity: Soil, Water, and Air 
Management. The BLM Budget requests $45.352 million for this 
Subactivity. This Subactivity includes Colorado River Salinity Control 
as a primary focus area. For fiscal year 2015, Federal funding of $5.2 
million for general water quality improvement efforts within the 
Colorado River Basin and an additional $1.5 million for salinity 
specific projects is needed in this primary focus area to prevent 
further degradation of Colorado River water quality and increased 
downstream economic damages.
    The concentrations of salts in the Colorado River cause 
approximately $300 million in damages to water users each year. While 
this figure is significant, had it not been for the efforts of the 
Colorado River Basin Salinity Control Program (Salinity Control 
Program), salinity concentrations of Colorado River water today would 
have been about 90 milligrams per liter (mg/L) higher, which has 
avoided additional damages of approximately $200 million per year.
    Metropolitan is the regional water supplier for most of urban 
southern California, providing supplemental water to retail agencies 
that serve over 18 million people. Water imported via the Colorado 
River Aqueduct has the highest level of salinity of all of 
Metropolitan's sources of supply, averaging around 630 mg/L since 1976, 
which leads to economic damages. For example, damages occur from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the cost of cooling operations, and the cost of 
        water softening, and a decrease in equipment service life in 
        the commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration; and
  --Increased cost of desalination and brine disposal for recycled 
        water in the municipal sector.
    Concern over salinity levels in the Colorado River has existed for 
many years. To deal with the concern, the International Boundary and 
Water Commission signed Minute No. 242, Permanent and Definitive 
Solution to the International Problem of the Salinity of the Colorado 
River in 1973, and the President signed into law the Colorado River 
Basin Salinity Control Act in 1974 (Act). High total dissolved solids 
in the Colorado River as it enters Mexico and the concerns of the seven 
Colorado River Basin States regarding the quality of Colorado River 
water in the United States drove these initial actions. To foster 
interstate cooperation and coordinate the Colorado River Basin States' 
efforts on salinity control, the seven Basin States formed the Colorado 
River Basin Salinity Control Forum.
    The salts in the Colorado River system are indigenous and 
pervasive, mostly resulting from saline sediments in the Basin that 
were deposited in prehistoric marine environments. They are easily 
eroded, dissolved, and transported into the river system, and enter the 
River through both natural and anthropogenic sources.
    The Salinity Control Program reduces salinity by preventing salts 
from dissolving and mixing with the River's flow. Irrigation 
improvements (sprinklers, gated pipe, lined ditches) and vegetation 
management reduce the amount of salt transported to the Colorado River. 
Point sources such as saline springs are also controlled.
    The Salinity Control Program, as set forth in the Act, benefits the 
Upper Colorado River Basin water users through more efficient water 
management, increased crop production, benefits to local economies 
through construction contracts, and through environmental enhancements. 
The Salinity Control Program benefits Lower Basin water users, hundreds 
of miles downstream from salt sources in the Upper Basin, through 
reduced salinity concentration of Colorado River water. California's 
Colorado River water users are presently suffering economic damages in 
the hundreds of millions of dollars per year due to the River's 
salinity.
    The Act provides that the Secretary of the Interior shall ``develop 
a comprehensive program for minimizing salt contributions to the 
Colorado River from lands administered by the Bureau of Land 
Management.'' BLM is the largest landowner in the Colorado River Basin. 
Due to geological conditions, much of the lands that are controlled and 
managed by the BLM are heavily laden with salt. Past management 
practices have led to human-induced and accelerated erosion processes 
from which soil and rocks, heavily laden with salt have been deposited 
in various stream beds or flood plains. As a result, salts are 
dissolved into the Colorado River system causing water quality problems 
downstream.
    Congress has charged Federal agencies, including the BLM, to 
proceed with programs to control the salinity of the Colorado River. 
BLM's rangeland improvement programs can lead to some of the most cost-
effective salinity control measures available. These measures 
significantly complement programs and activities being considered for 
implementation by the U.S. Bureau of Reclamation through its Basin-wide 
Program and by the U.S. Department of Agriculture through its on-farm 
Environmental Quality Incentives Program.
    Over the past years, the Salinity Control Program has proven to be 
a very cost effective approach to help mitigate the impacts of 
increased salinity in the Colorado River. Continued Federal funding of 
this important Basin-wide program is essential.
    BLM proposes a 20 percent increase in Colorado River Salinity 
Control funding in the budget request over the 2014 level. Metropolitan 
encourages the subcommittee's support for sufficient funding in the 
Subactivity: Soil, Water, and Air Management to allow for expenditure 
of $5.2 million for general water quality improvement efforts in the 
Colorado River Basin and an additional $1.5 million for salinity 
specific projects in 2015. These amounts are needed to prevent further 
degradation of the quality of the Colorado River and increased 
downstream economic damages.
                                 ______
                                 
 Prepared Statement of the National Association of Abandoned Mine Land 
                                Programs
    My name is Bruce Stover and I serve as the Director of the Inactive 
Mine Reclamation Program within the Colorado Department of Natural 
Resources. I am submitting this statement on behalf of the National 
Association of Abandoned Mine Land Programs (NAAMLP) for which I 
currently serve as president. The NAAMLP represents 31 States and 
tribes with federally approved abandoned mine land reclamation (AML) 
programs authorized under title IV of the Surface Mining Control and 
Reclamation Act (SMCRA). Title IV of SMCRA was amended in 2006 and 
significantly changed how State and tribal AML grants are funded. These 
grants are still based on receipts from a fee on coal production, but 
beginning in fiscal year 2008, the grants are funded primarily by 
mandatory appropriations. As a result, the States and tribes should 
receive $250 million in fiscal year 2015. In its fiscal year 2015 
proposed budget, the Office of Surface Mining (OSM) is requesting $186 
million for State and tribal AML grants, a reduction of $64 million. 
OSM's budget also includes three legislative proposals, the first of 
which would eliminate funding to States and tribes that have 
``certified'' completion of their highest priority abandoned coal 
reclamation sites; the second of which would return the AML reclamation 
fee paid by coal operators to pre-2006 levels; and the third of which 
would establish a hardrock AML fee and accompanying program.
    Over the past 35 years, the accomplishments of the States and 
tribes under the AML program has resulted in tens of thousands of acres 
of abandoned mine lands having been reclaimed, thousands of mine 
openings having been closed, and safeguards for people, property and 
the environment having been put in place. Be assured that States and 
tribes continue to be committed to address the unabated hazards at both 
coal and noncoal abandoned mines. We are united in achieving the goals 
and objectives as set forth by Congress when SMCRA was first enacted--
including protecting public health and safety, enhancing the 
environment, providing employment, and adding to the economies of 
communities impacted by past coal and noncoal mining. In this regard, a 
newly updated ``Safeguarding, Reclaiming, Restoring'' accomplishments 
report prepared by State and tribal administrators of AML programs 
under SMCRA is available at http://naamlp.net/documents/, which 
provides several on-the-ground examples of the type of work that is 
being done around the country.
    When passed in 1977, SMCRA set national regulatory and reclamation 
standards for coal mining. The act also established a Reclamation Trust 
Fund to work towards eliminating the innumerable health, safety and 
environmental problems that existed throughout the Nation from mines 
that were abandoned prior to the act. The Fund generates revenue 
through a fee on current coal production. This fee is collected by OSM 
and distributed to States and tribes that have federally approved 
regulatory and AML programs. The promise Congress made in 1977, and 
with every subsequent amendment to the act, was that, at a minimum, 
half the money generated from fees collected by OSM on coal mined 
within the boundaries of a State or tribe, referred to as ``State 
Share'', would be returned for the uses described in title IV of the 
act if the State or tribe assumed responsibility for regulating active 
coal mining operations pursuant to title V of SMCRA. The 2006 
amendments clarified the scope of what the State Share funds could be 
used for and reaffirmed the promise made by Congress in 1977.
    If a State or tribe was successful in completing reclamation of 
abandoned coal mines and was able to ``certify'' under section 411 of 
SMCRA,\1\ then the State share funds could be used to address a myriad 
of other abandoned mine issues as authorized by SMCRA and as further 
defined under each State's or tribe's Abandoned Mine Reclamation Plan, 
each of which is approved by OSM. Like all abandoned mine reclamation, 
the work of certified States and tribes eliminates health and safety 
problems, cleans up the environment, and creates jobs in rural areas 
impacted by mining. In this regard, the certified States and tribes 
have been good stewards of the AML funds they receive, especially with 
regard to addressing dangerous noncoal mines.
---------------------------------------------------------------------------
    \1\ While a certified State or tribe confirms at the time of 
certification that it has completed all of the coal sites on its 
current inventory, the certification contemplates that new, formerly 
unidentified high priority coal AML sites may occur in the future and 
the State/tribe commits to addressing these sites immediately. All AML 
States and tribes, including those that are certified, have identified 
additional previously unknown high priority coal sites as a result of 
on-going field investigations, new information and features that have 
been expressed to the surface.
---------------------------------------------------------------------------
    The elimination of funding for certified State and tribal AML 
grants not only breaks the promise of State and tribal share funding, 
but upsets the balance and compromise that was achieved in the 
comprehensive restructuring of SMCRA accomplished by the 2006 
amendments following more than 10 years of discussion and negotiation 
by all affected parties. The funding reduction is inconsistent with the 
administration's stated goals regarding jobs and environmental 
protection. We therefore respectively ask the subcommittee to support 
continued funding for certified States and tribes at the statutorily 
authorized levels, and turn back any efforts by OSM to amend SMCRA in 
this regard.\2\
---------------------------------------------------------------------------
    \2\ In this regard, we should note that funding to certified States 
and tribes was already capped at $15 million annually pursuant to an 
amendment to SMCRA as part of the Moving Ahead for Progress in the 21st 
Century Act (Public Law 112-14) in 2012. Furthermore, on October 2, 
2013, SMCRA was amended once again to increase the annual distribution 
amount for each certified State and tribe to $28 million in fiscal year 
2014 and $75 million in fiscal year 2015 (Helium Stewardship Act of 
2013, Public Law 113-40, section 10(d)).
---------------------------------------------------------------------------
    Over the course of the past few years, State and tribal AML program 
have seen heightened concern by some in Washington that the States and 
tribes are not spending the increased AML grant moneys that they have 
received under the 2006 amendments in a more expeditious manner, thus 
resulting in what the administration has characterized as unacceptable 
levels of ``undelivered orders.'' There seems to be a fundamental 
disconnect between the way the States and tribes are required to 
administer, manage, and record the dispersal of their AML grant funds 
and the way Federal agencies like the Office of Surface Mining (OSM) 
report the usage of grant funds.
    From the perspective of OSM, there appears to be a substantial 
balance of ``undelivered orders'', money that has been allotted by the 
Federal program but has not yet been ``spent'' by the State or tribe 
(i.e. withdrawn from Treasury). In fact, this is a mischaracterization 
of the current status of these ``undelivered'' AML moneys. As the 
following table demonstrates (see the figure on the next page), the 
vast majority of the allotted AML grant fund money is already committed 
to reclamation projects at various stages. The States and tribes define 
their use of the term ``committed funds'' as those which have been 
exclusively applied to or reserved for a specific project or purpose, 
and thus are unavailable for any other purpose. This is consistent with 
the regulations which define ``expended'' as ``moneys have been 
obligated, encumbered, or committed by contract . . . ''. It is 
therefore more appropriate to view grants in terms of committed funds 
rather than undelivered orders, with regard to accurate tracking of 
grant distribution.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    A second dimension to the disconnect between how the States and 
tribes track grant expenditures and how OSM accounts for these funds is 
the amount of time and the number of regulatory obligations required to 
administer the AML contracting process in a responsible manner. A 
typical AML site requires a long and stringent process related to 
design, engagement of local citizens and leaders, interagency 
governmental review and coordination; bidding and contracting; and of 
course construction on the site--all of which must take place before 
the funds are drawn down, and are therefore finally considered 
``spent'' by OSM.
    Further complicating the matter from the State/tribal perspective 
is the fact that the 2006 increases in mandatory funding required an 
increase in the staff and other administrative resources required to 
continue administering the program at the same level of efficiency and 
effectiveness. State and tribal AML programs have made these 
adjustments in a prudent manner over the last 5 years of funding 
expansion, and though there may have been some apparent initial lag, 
the programs have in fact maintained their ability to efficiently and 
responsibly commit program funding. It should also be kept in mind that 
AML administrators utilize a complex system for prioritizing AML sites 
in order to meet the mandates of the law and ensure that the grant 
funds are spent in the most effective and productive manner possible. 
Any analysis of AML grant expenditures must therefore be balanced 
against appropriate program management and the responsible improvement 
of the safety and health of our citizens and the environment, as set 
forth in SMCRA. We welcome the opportunity to brief your subcommittee 
in more detail regarding this issue should you so desire.
    One of the more effective mechanisms for accomplishing AML 
restoration work is through leveraging or matching other grant 
programs, such as the Environmental Protection Agency's (EPA's) 319 
program. In fiscal year 2014, language was included in OSM's 
appropriation that encouraged the use of these types of matching funds, 
particularly for the purpose of environmental restoration related to 
treatment or abatement of acid mine drainage (AMD) from abandoned 
mines. This is an ongoing, and often expensive, problem, especially in 
Appalachia. NAAMLP therefore requests the subcommittee to once again 
include language in the fiscal year 2015 appropriations bill that would 
allow the use of AML funds for any non-Federal cost share required by 
the Federal Government for AMD abatement.
    We also urge the subcommittee to support funding for OSM's training 
program and Technical Innovation and Professional Services (TIPS), 
including moneys for State/tribal travel. These programs are central to 
the effective implementation of State and tribal AML programs as they 
provide necessary training and continuing education for State/tribal 
agency personnel, as well as critical technical assistance. These 
programs saw drastic cuts as a result of sequestration and we are 
hopeful that Congress will restore the necessary funding for these 
critical programs in the fiscal year 2015 appropriation. Finally, we 
support funding for the Watershed Cooperative Agreements in the amount 
of $1.5 million because it facilitates and enhances State and local 
partnerships by providing direct financial assistance to watershed 
organizations for acid mine drainage remediation.
    With regard to the proposal contained in OSM's budget to establish 
a hardrock AML program, the States and tribes have consistently 
advocated for legislation that would allow us to address historic 
hardrock AML problem areas, beginning with the inclusion of section 409 
of SMCRA in 1977. There is clearly a need to establish both the funding 
mechanism and the administrative program to address these legacy sites. 
We believe that OSM is in the best position to administer this program, 
given its 35 years of experience in operating the title IV program 
under SMCRA. Our only concern is that, while on the one hand OSM is 
advocating for the establishment of a hardrock AML program, it is also 
pushing for the elimination of funding for certified States and tribes 
to accomplish this very work. Granted, OSM's position is based on its 
belief that SMCRA funding should be restricted to high priority coal 
problems only. However, Congress clearly felt differently from the 
outset of SMCRA's formation and, while there have been many recent 
opportunities to adjust its views and amend SMCRA accordingly, Congress 
has chosen not to do so. To the contrary, Congress has adopted 
legislation that would clarify the use of SMCRA AML funds to address 
noncoal problems. Nonetheless, we would welcome an opportunity to work 
closely with OSM in examining the potential for a hardrock AML program, 
wherever it may reside and however it may be constituted.
    Thank you for the opportunity to submit this statement regarding 
OSM's proposed budget for fiscal year 2015. We would be happy to answer 
any questions you may have or provide additional information.
                                 ______
                                 
  Prepared Statement of the National Association of Clean Air Agencies
    On behalf of the National Association of Clean Air Agencies 
(NACAA), thank you for this opportunity to provide testimony on the 
fiscal year 2015 budget for the U.S. Environmental Protection Agency 
(EPA), particularly grants to State and local air pollution control 
agencies under Sections 103 and 105 of the Clean Air Act, which are 
part of the State and Tribal Assistance Grant (STAG) program. 
Specifically, NACAA recommends that: (1) grants to State and local air 
quality agencies be increased by $35 million above the President's 
fiscal year 2015 request, raising the total to $278.2 million; (2) 
State and local air pollution control agencies be provided with the 
flexibility to determine how best to use any additional resources; and 
(3) grant funds for fine particulate matter monitoring remain under 
Section 103 authority, rather than being shifted to Section 105 
authority, as EPA is proposing. NACAA's recommendations will be 
explained more fully in this testimony.
    NACAA is a national, non-partisan, non-profit association of air 
pollution control agencies in 42 States, the District of Columbia, four 
territories and 116 metropolitan areas. The members of NACAA have the 
primary responsibility under the Clean Air Act for implementing the 
Nation's clean air program. The air quality professionals in the member 
agencies have vast experience dedicated to improving air quality in the 
United States. These observations and recommendations are based upon 
that experience. The views expressed in this document do not 
necessarily represent the positions of every State and local air 
pollution control agency in the country.
   1. nacaa recommends a $35-million increase above the president's 
                                request
    The President's budget request for fiscal year 2015 proposes to 
increase Federal funding for State and local air quality grants by $15 
million over fiscal year 2014 levels (for a total of $243.2 million). 
Within the request, there is a proposed increase of $24.3 million for 
implementing greenhouse gas (GHG) activities. While NACAA supports 
additional funding for new GHG activities that will be required of 
State and local air agencies, the members are disappointed that part of 
this increase would be obtained by shifting--essentially cutting--$9 
million from the ``core'' programs of State and local air pollution 
control agencies, which are the foundation of their clean air 
implementation efforts. NACAA is gratified that the budget request 
recognizes the important work of State and local agencies to protect 
public health; however, a net increase of $15 million above fiscal year 
2014 levels is not nearly enough. Accordingly, NACAA requests an 
increase of $50 million above the amount appropriated in fiscal year 
2014--or $35 million above the President's fiscal year 2015 request--
for State and local air agencies to carry out their responsibilities.
State and Local Air Quality Agencies Face Many Challenges
    Section 101(a)(3) of the Clean Air Act finds that air pollution 
control is the ``primary responsibility of States and local 
governments.'' Accordingly, these agencies are continuously required to 
implement numerous, extremely important programmatic responsibilities 
to obtain and maintain healthful air quality for this country. These 
include not only new programs, but also ongoing activities that 
constitute the ``core'' of their clean air efforts, that is, the day-
to-day responsibilities that are the foundation of their programs.
    One new initiative facing State and local air agencies, for which 
EPA is proposing increased funds, is the implementation of regulations 
to address greenhouse gases under Section 111 of the Clean Air Act. 
State and local agencies will be required to lay the groundwork to 
develop approvable State plans to meet Section 111(d) emission 
guidelines for reducing carbon dioxide. Additionally, State and local 
agencies will need funds for the collection, review and use of GHG 
emission data, as well as to support State and local permitting 
activities for new and existing sources of GHG emissions that trigger 
permitting requirements as established in the GHG Tailoring Rule.
    In addition to these new efforts, State and local air agencies must 
also continue their ongoing activities and core programs. These are the 
foundation of their clean air implementation efforts. For example, 
among the many tasks facing air quality agencies are those associated 
with the implementation of (1) the health-based National Ambient Air 
Quality Standards, including particulate matter, ozone, sulfur dioxide, 
lead and carbon monoxide; (2) air toxics rules; (3) motor vehicle and 
fuels programs; and (4) permitting programs, including for ``minor'' 
sources.
    For both the new activities and the ongoing programs, State and 
local air agencies must carry out a variety of resource- and labor-
intensive activities. These include, among others, developing plans, 
including State Implementation Plans (SIPs); compiling comprehensive 
emission inventories; carrying out complex modeling; analyzing 
extensive data; expanding and operating monitoring networks; adopting 
and enforcing regulations; addressing complicated transport issues; and 
informing and involving the public in air quality decisions and issues.
State and Local Air Agencies Have Long Been Underfunded
    State and local air quality agencies have struggled with 
insufficient resources for many years. A study NACAA conducted several 
years ago revealed an annual shortfall of $550 million in Federal 
grants for State and local air programs.\1\ The adverse economic 
situation at the State and local levels strains already overburdened 
budgets and causes air agencies to make painful choices to cut air 
pollution programs that are important for public health and/or 
eliminate staff. Due to these economic hardships, States and localities 
increasingly rely on Federal contributions.
---------------------------------------------------------------------------
    \1\ Investing in Clean Air and Public Health: A Needs Survey of 
State and Local Air Pollution Control Agencies, (April 2009), NACAA, 
www.4cleanair.org/Documents/reportneedssurvey
042709.pdf.
---------------------------------------------------------------------------
    Section 105 of the Clean Air Act authorizes the Federal Government 
to provide grants for up to 60 percent of the cost of State and local 
air programs, while States and localities must provide a 40-percent 
match. In reality, State and local air agencies provide over three-
fourths of their budgets (not including permit fees under the Federal 
title V program), while Federal grants constitute only one quarter. 
State and local agencies are certainly providing more than their fair 
share of the resources necessary, as the following table demonstrates:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In addition to this inequity, the purchasing power of Federal 
grants has decreased due to inflation. In fact, between fiscal year 
2000 and 2014, purchasing power has decreased by nearly 16 percent. All 
this has taken place while State and local responsibilities have 
expanded each year.
    While the current economic climate does not allow for full Federal 
funding of all the necessary air programs, NACAA hopes that Congress 
will recognize the critical importance of public health and air quality 
and provide much-needed increases to these important programs.
Our Air Pollution Problem Has Not Been Solved
    Federal, State and local efforts to implement the Clean Air Act 
have been hugely successful in providing significant health and welfare 
benefits throughout most areas of the country. Yet, notwithstanding 
this progress, much remains to be done. According to EPA,

        [S]ince passage of the Clean Air Act Amendments in 1990, 
        nationwide air quality has improved significantly. Levels of 
        those pollutants linked to the greatest health impacts continue 
        to decline. From 2003 to 2012, population-weighted ambient 
        concentrations of fine particulate matter and ozone have 
        decreased 26 percent and 13 percent, respectively. Even with 
        this progress, in 2012 approximately 45 percent of the U.S. 
        population lived in counties with air that did not meet health-
        based standards for at least one pollutant.\2\

    With respect to hazardous air pollutants (HAPs), Federal rules, 
implemented by State and local air pollution control agencies, are 
estimated to reduce HAP emissions by approximately 1.5 million tons per 
year.\3\ However, in spite of this progress, EPA's latest HAP data 
showed that the entire population of the United States had an increased 
cancer risk of over 10 in one million (one in one million is generally 
considered ``acceptable'') in 2005, due to exposure to a variety of 
HAPs included in EPA's analysis.\4\
---------------------------------------------------------------------------
    \2\ Fiscal year 2015 EPA Budget in Brief (March 2014), page 13.
    \3\ www.epa.gov/ttn/atw/allabout.html.
    \4\ National Air Toxics Assessment for 2005--Fact Sheet, http://
www.epa.gov/ttn/atw/nata2005/05pdf/sum_results.pdf.
---------------------------------------------------------------------------
    The sad fact is more people die or get sick from air pollution than 
from almost any other problem under this subcommittee's jurisdiction. 
Tens of thousands of people die prematurely each year \5\ and many 
others suffer serious health problems as a result of exposure to air 
pollution. According to EPA, ``[l]ong-term exposure to elevated levels 
of certain air pollutants has been associated with increased risk of 
cancer, premature mortality, and damage to the immune, neurological, 
reproductive, cardiovascular, and respiratory systems.'' \6\ 
Additionally, air pollution exposure is associated with adverse effects 
on learning, memory, IQ and behavior.
---------------------------------------------------------------------------
    \5\ http://epa.gov/ncer/science/pm/.
    \6\ Draft fiscal year 2014-2018 EPA Strategic Plan (November 19, 
2013), page 8.
---------------------------------------------------------------------------
     2. nacaa recommends flexibility in the use of grant increases
    While NACAA is pleased that the budget request includes increased 
grant funding for climate-related responsibilities facing State and 
local air agencies, some of it would come at the expense of State and 
local core programs, which are essential to their efforts. NACAA 
strongly believes that significant increases are required for both. 
Rather than target specific amounts for climate or other air programs, 
NACAA recommends that State and local air agencies be given the 
flexibility to use any additional grants for whatever efforts are of 
the highest priority to them, whether they are climate-related or other 
clean air activities, including core programs.
 3. nacaa recommends that authority for monitoring grants remain under 
                              section 103
    EPA has once again proposed to begin shifting funds for fine 
particulate matter (PM2.5) monitoring from Section 103 authority, where 
no match is needed, to Section 105, which would require additional 
matching funds. In the past, Congress responded favorably to requests 
to keep these funds under Section 103 authority, which is very much 
appreciated. NACAA is making the same request for fiscal year 2015. For 
individual agencies that have concerns about the matching requirements, 
this will ensure that they do not have to refuse these critically 
needed monitoring funds simply because they do not have the resources 
to provide the required match. NACAA recommends that Congress call for 
these grants to be provided under Section 103 authority.
                               conclusion
    While NACAA appreciates the proposed increase to State and local 
air grants contained in the President's fiscal year 2015 budget, it is 
insufficient for the State and local air agencies that are being called 
upon to take on significant new responsibilities and continue their 
current activities and it does not provide sufficient flexibility on 
how the funds are spent. Accordingly, NACAA recommends that Congress 
provide an increase of $35 million above the President's request for 
fiscal year 2015 for grants to State and local air agencies under 
Sections 103 and 105 of the Clean Air Act, for a total of $278.2 
million, and that State and local agencies be given the flexibility to 
use any additional funds for the highest clean air priorities in their 
areas. Additionally, NACAA recommends that grant funds for fine 
particulate matter monitoring remain under Section 103 authority, 
rather than being shifted to Section 105 authority, as EPA is 
proposing.
    Thank you for this opportunity to submit testimony on this 
important issue and for considering the funding needs of State and 
local air quality programs.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials
    Chairman Reed, Ranking Member Murkowski and members of the 
subcommittee, I am David Terry, Executive Director of the National 
Association of State Energy Officials (NASEO). NASEO represents the 56 
energy offices in the States, territories and the District of Columbia. 
NASEO is submitting this testimony in support of funding for the ENERGY 
STAR program (within the Climate Protection Division of the Office of 
Air and Radiation) at the U.S. Environmental Protection Agency (EPA). 
NASEO supports funding of at least $55 million, including specific 
report language directing that the funds be utilized only for the 
ENERGY STAR program. The ENERGY STAR program is successful, voluntary 
and cost-effective. With increasing electricity prices and volatile 
natural gas markets, ENERGY STAR can help consumers and businesses 
control expenditures over the long term. The program is strongly 
supported by product manufacturers, and ENERGY STAR leverages the 
States' energy efficiency actions.
    The ENERGY STAR program is focused on voluntary efforts that reduce 
the use of energy, promotes energy efficiency and renewable energy, and 
works with States, local governments and business to achieve these 
goals in a cooperative, public-private manner. NASEO has worked very 
closely with EPA and over 40 States are ENERGY STAR Partners. With very 
limited funding, EPA's ENERGY STAR program works closely with the State 
energy offices to give consumers and businesses the opportunity to make 
better energy decisions, and catalyzes product efficiency improvements 
by manufacturers without regulation or mandates.
    ENERGY STAR focuses on energy efficient products as well as 
buildings. In 2013, nearly 300 million ENERGY STAR products were 
purchased across more than 70 product categories. The ENERGY STAR label 
is recognized across the United States. It makes the work of the State 
energy offices much easier, by working with the public on easily 
recognized products, services and targets. In order to obtain the 
ENERGY STAR label a product has to meet established guidelines. ENERGY 
STAR's voluntary partnership programs include ENERGY STAR Buildings, 
ENERGY STAR Homes, ENERGY STAR Small Business, and ENERGY STAR Labeled 
Products. The program operates by encouraging consumers and working 
closely with State and local governments to purchase these products and 
services. Marketplace barriers are also eradicated through education. 
State energy offices are working with EPA to promote ENERGY STAR 
products, ENERGY STAR for new construction, ENERGY STAR for public 
housing, etc. In Alaska, the State's Home Energy Rebate Program 
leverages ENERGY STAR products in delivering this successful program. 
Another example of leveraging this key national program is the Nebraska 
Energy Office, which since 2005 has utilized ENERGY STAR as the 
standard for certifying home and office electronics that are eligible 
under the State's successful and long-running Dollar and Energy Savings 
Loan program (approximately $300 million in loans with only $106,000 in 
defaults). The Montana Alternative Energy Revolving Loan Program 
utilizes a 3.5 percent interest rate, with a 15-year time limit.
    In addition to the State partners, the program has over 16,000 
voluntary partners including over 2,000 manufacturers using the label, 
more than 1,000 retail partners, more than 5,000 builder partners, 
4,500 businesses, 550 utilities and thousands of energy service 
providers. The ENERGY STAR New Homes program works with States and home 
builders to develop the next generation of technologies and approaches 
to make homes more comfortable, healthy, and energy efficient. To date, 
over 1.5 million homes across the country have been certified by the 
ENERGY STAR New Homes program. In California, over 150,000 homes have 
been ENERGY STAR certified. Additionally, States such as Alaska, Rhode 
Island, Vermont, New Mexico, Oregon, Mississippi, Tennessee, and 
Missouri all have had at least 3,300 homes participating in the 
program. We are also working closely with EPA in the implementation of 
the ENERGY STAR Challenge, which is encouraging commercial and 
industrial building owners to reduce energy use by 10 percent or more, 
usually through very simple actions. There are over 4,300 participants 
in the ENERGY STAR Challenge, representing every State in the country. 
We are working with the building owners to identify the level of energy 
use and compare that to a national metric, establish goals and work 
with them to make the specified improvements. Again, this is being done 
without mandates.
    The State energy offices are very encouraged with progress made at 
EPA and in our States to promote programs to make schools more energy 
efficient, in addition to an expanding ENERGY STAR business partners 
program. In Kentucky, the State has partnered with school districts and 
engineering firms to advance ENERGY STAR rated schools, resulting in 
more than 250 ENERGY STAR rated schools in the State, a 400 percent 
increase since 2010. Other States that have over 150 ENERGY STAR rated 
schools include California, New Mexico, Florida, North Carolina, and 
Michigan. Other types of buildings can receive ENERGY STAR 
certification; for example, a new data center in South Dakota recently 
obtained the ENERGY STAR certification, joining only 59 other data 
centers in the country with this distinction.
    EPA has been increasing the technical assistance work with the 
State energy offices in such areas as ENERGY STAR Portfolio Manager 
(how to rate the performance of buildings), setting an energy target, 
and financing options for building improvements and building upgrade 
strategies. ENERGY STAR Portfolio Manager is used extensively by State 
energy offices to benchmark performance of State and municipal 
buildings, saving taxpayer dollars. Nearly 40 percent of the country's 
commercial building space utilizes Portfolio Manager.
    The State energy offices are working cooperatively with our peers 
in the State environmental agencies and State public utilities 
commissions to ensure that programs, regulations, projects and policies 
are developed recognizing both energy and environmental concerns. We 
have worked closely with this program at EPA to address these issues. 
We encourage these continued efforts.
                               conclusion
    The ENERGY STAR program saves consumers billions of dollars every 
year. The payback is enormous. NASEO supports robust program funding in 
fiscal year 2015. Funding for the ENERGY STAR program is justified. 
NASEO endorses these activities and the State energy offices are 
working very closely with EPA to cooperatively implement a variety of 
critical national programs without mandates.
                                 ______
                                 
   Prepared Statement of the National Association of State Foresters
    The National Association of State Foresters (NASF) appreciates the 
opportunity to submit written public testimony to the Senate 
Subcommittee on Interior, Environment, and Related Agencies regarding 
our fiscal year 2015 appropriations recommendations. Our priorities 
focus primarily on appropriations for the USDA Forest Service (Forest 
Service) State and Private Forestry (S&PF) programs.
    State Foresters deliver technical and financial assistance, along 
with forest health, water and wildfire protection for more than two-
thirds of the Nation's 751 million acres of forests. The Forest Service 
S&PF mission area provides vital support for delivering these services 
alongside other socioeconomic and environmental health benefits in both 
rural and urban areas. The comprehensive process for delivering these 
services is articulated in each State Forest Action Plan, authorized in 
the 2008 Farm Bill and continued in the recently passed Agriculture Act 
of 2014. S&PF programs provide a significant return on the Federal 
investment by leveraging the boots-on-the-ground and financial 
resources of State agencies to deliver assistance to forest landowners, 
tribes, and communities. As we continue to face difficult financial 
challenges, State foresters, in partnership with the S&PF mission area 
of the Forest Service, are best positioned to maximize the 
effectiveness of the resources available to respond to priority forest 
issues and focus efforts in those areas where they are needed most.
    Your support of the following programs is critical to helping 
States address the many and varied challenges outlined in State Forest 
Action Plans.
                     wildland fire and forest fuels
    Wildland Fire Funding.--The Forest Service and Department of the 
Interior were forced to transfer a combined $636 million in fiscal year 
2013 to fund fire suppression activities. We greatly appreciate your 
support in reimbursing the Forest Service and Department of the 
Interior these transferred amounts through the continuing resolution 
last fall. Unfortunately early estimates for the cost of wildland fire 
suppression in fiscal year 2014 indicate that costs could once again 
exceed the 10-year average.
    In the span of only 2 years--from fiscal year 2012 to 2013--the 
agencies were forced to transfer more than $1 billion, funds that 
Congress had appropriated to other priority programs, to fund wildland 
fire suppression. In order to avoid these disruptive transfers in the 
future, we urge you to include language mirroring the bi-partisan 
Wildfire Disaster Funding Act, introduced in the House and Senate, in 
the fiscal year 2015 Interior Appropriations bill. This important 
change to fire funding at the Federal level is needed to enable the 
Forest Service to deliver on its own land management objectives and to 
deliver critical Research and State & Private Forestry Programs to the 
Nation's non-Federal forests without any further disruption from fire 
transfers.
    State Fire Assistance.--More people living in fire-prone 
landscapes, high fuel loads, drought and unhealthy landscapes are among 
the factors that led State foresters to identify wildland fire as a 
significant priority issue in their Forest Action Plans. These factors 
have created a wildland fire situation that has become increasingly 
expensive, complex, and, in many cases, threatens human life and 
property. In 2013, more than 47,500 wildland fires burned over 4.3 
million acres.\1\ In the wake of these larger fires, more than 2,135 
structures were destroyed, including at least 1090 residences.\2\ Of 
the 72,681 communities across the country currently at risk of wildland 
fire, only 12,434 (17.5 percent) are prepared for wildland fire.\3\
---------------------------------------------------------------------------
    \1\ National Interagency Fire Center, Historical Wildland Fire 
Summaries, pg. 9. Last accessed March 3, 2014 at http://
www.predictiveservices.nifc.gov/intelligence/2013_Statssumm/intro_
summary13.pdf.
    \2\ National Interagency Coordination Center.
    \3\ National Association of State Foresters, Communities at Risk 
Report Fiscal Year 2013.
---------------------------------------------------------------------------
    State Fire Assistance (SFA) is the fundamental Federal mechanism 
that assists States and local fire departments to respond to wildland 
fires and conduct management activities to mitigate fire risk on non-
Federal lands. Further, SFA helps train and equip local first 
responders who are often the first resources to arrive at a wildland 
fire incident and who play a crucial role in keeping fires and their 
costs small. By directing resources to actions that help reduce the 
number of large wildland fires--including prevention education, 
preparedness activities, and fuels mitigation--the SFA program directly 
addresses concerns over rising wildland fire suppression costs, while 
also reducing wildland fire risk to communities. In fiscal year 2013, 
SFA directly funded hazardous fuel treatments on nearly 130,000 acres 
(with another 119,120 acres treated with leveraged funding) and 
provided assistance to over 23,600 communities as they prepare for and 
mitigate the risk of wildland fire. NASF supports funding the State 
Fire Assistance program at $86 million in fiscal year 2015.
                    forest pests and invasive plants
    Among the greatest threats identified in the Forest Action Plans 
are exotic forest pests and invasive species. The growing number of 
damaging pests is often a result of the introduction and spread by way 
of wooden shipping materials, movement of firewood, and through various 
types of recreation. These pests have the potential to displace native 
trees, shrubs and other vegetation types in forests. The Forest Service 
estimates that hundreds of native and nonnative insects and diseases 
damage the Nation's forests each year. In 2010, approximately 6.\4\ 
million acres suffered mortality from insects and diseases4 and there 
is an estimated 81.3 million acres at risk from insects and disease 
over the next 15 years.\5\ These losses impact the availability of 
clean and abundant water, wildlife habitat, clean air, and other 
environmental services. Further, extensive areas of high insect or 
disease mortality can set the stage for large-scale, catastrophic 
wildfire.
---------------------------------------------------------------------------
    \4\ Man, Gary. 2011. Major Forest Insect and Disease Conditions in 
the United States: 2010 Update. Last accessed on March, 5, 2014 at: 
http://www.fs.fed.us/foresthealth/publications/
ConditionsReport_2011.pdf.
    \5\ Tkacz, Bory, et al. 2014. NIDRM 2012 Report Files: Executive 
Summary. Last accessed on March, 5, 2014 at: http://www.fs.fed.us/
foresthealth/technology/pdfs/2012_RiskMap_Exec_
summary.pdf.
---------------------------------------------------------------------------
    In response, the Cooperative Forest Health Management program 
provides technical and financial assistance to States and territories 
to maintain healthy, productive forest ecosystems on non-Federal forest 
lands. Funding for the Program supports activities related to 
prevention, suppression, and eradication of insects, diseases, and 
plants as well as conducting forest health monitoring through pest 
surveys. The Forest Health program helps protect communities already 
facing outbreaks and helps prevent exposure of more of the Nation's 
forests and trees to the devastating and costly effects of exotic and 
invasive pests and pathogens. NASF supports funding the Forest Health--
Cooperative Lands Program at $48 million in fiscal year 2015.
         working forest landscapes--forest stewardship program
    Working forest landscapes are a key part of the rural landscape and 
provide an estimated 900,000 jobs, in addition to clean water, wood 
products, and other essential services to millions of Americans. For 
instance, 80 percent of renewable biomass energy comes from wood, 53 
percent of all freshwater in the U.S. originates on forest land and 
more than $200 billion in sales of consumer products and services are 
provided through the Nation's forests each year.\6\
---------------------------------------------------------------------------
    \6\ Society of American Foresters. The State of America's Forests. 
2007.
---------------------------------------------------------------------------
    Private forests make up two-thirds of all the forestland in the 
United States and support an average of eight jobs per 1,000 acres.\7\ 
The ability of working forests to continue providing jobs, renewable 
energy, clean and abundant water and other important services is in 
jeopardy as private forests are lost to development. The Forest Service 
estimates that 57 million acres of private forests in the U.S. are at 
risk of conversion to urban development over the next two decades. The 
Forest Stewardship Program, Forest Legacy Program, and other programs 
within USDA are key tools identified in the Forest Action Plans to keep 
working forests intact.
---------------------------------------------------------------------------
    \7\ Forest2Market. The Economic Impact of Privately-Owned Forests. 
2009.
---------------------------------------------------------------------------
    The Forest Stewardship Program (FSP) is the most extensive family 
forest-owner assistance program in the country. Management assistance 
is delivered in cooperation with State forestry agencies through 
technical assistance services and the development and implementation of 
Forest Stewardship Plans. In fiscal year 2013, nationwide, more than 20 
million acres of private forest lands were managed according to Forest 
Stewardship Plans. The program provides information to private 
landowners to help them manage their land for wildlife, recreation, 
aesthetics, timber production, and many other purposes. The technical 
assistance provided through the FSP is a gateway to other effective 
USDA, State, and private sector programs designed to help keep working 
forests intact. For instance, the FSP enables landowners to participate 
in USDA programs including the Forest Legacy Program and Environmental 
Quality Incentives Program. NASF supports funding the Forest 
Stewardship Program at $29 million in fiscal year 2015.
            urban and community forest management challenges
    Urban forests provide environmental, social, and economic benefits 
to the more than 84 percent of Americans who live in metropolitan 
areas. Forest Action Plans identified a number of benefits associated 
with urban forests including energy savings, improved air quality, 
neighborhood stability, aesthetic values, reduced noise, and improved 
quality of life for communities across the country. At the same time, 
the plans reported a number of threats to urban and community forests 
including fire in the wildland urban interface (WUI), urbanization and 
development, invasive plants and insects, diseases and others.
    Since its expansion under the Cooperative Forestry Assistance Act 
of 1990 (CFAA), the Forest Service's Urban and Community Forestry 
(U&CF) program has provided technical and financial assistance to 
promote stewardship of urban forests in communities of all sizes across 
the country. The program is delivered in close partnership with State 
foresters and leverages existing local efforts that have helped 
thousands of communities and towns manage, maintain, and improve their 
tree cover and green spaces. This ``green infrastructure'' is a 
cornerstone for neighborhood stability and revitalization and the 
numerous contributions this program provides the urban environment 
should not be under estimated. In fiscal year 2013, the U&CF program 
delivered technical, financial, educational, and research assistance to 
7,292 communities in all 50 States, the District of Columbia, U.S. 
territories and affiliated Pacific Island nations. The program reached 
over 198 million Americans (i.e., over 60 percent of the U.S. 
population) in fiscal year 12. NASF supports funding the Urban and 
Community Forestry program at $31 million in fiscal year 2015.
    importance of forest inventory data in monitoring forest issues
    The Forest Inventory and Analysis (FIA) program, managed by Forest 
Service Research, is the Nation's only comprehensive forest inventory 
system for assessing the health and sustainability of the Nation's 
forests across all ownerships.\8\ FIA provides essential data related 
to forest species composition, forest growth rates, and forest health 
data and delivers baseline inventory estimates used in State Forest 
Action Plans and by many others to understand forest trends and support 
investment in forest products facilities that provide jobs and needed 
products to society. The program provides unbiased information that 
serves as the basis for monitoring trends in wildlife habitat, wildfire 
risk, insect and disease threats, predicting spread of invasive 
species, and for responding to priorities identified in the Forest 
Action Plans.
---------------------------------------------------------------------------
    \8\ The program has not yet been fully implemented in all States 
including Interior Alaska.
---------------------------------------------------------------------------
    The Farm Bill directed the Forest Service to revise the FIA 
strategic plan, and State Foresters are actively engaged with the 
Agency as they consider a new strategic plan for this crucial program. 
This program has wide bipartisan support and NASF supports funding the 
Forest Inventory and Analysis program at $72 million in fiscal year 
2015.
                      landscape scale restoration
    We appreciate the support of the subcommittee for State Forest 
Action Plans demonstrated through the establishment of the Landscape 
Scale Restoration (LSR) budget line item in the Consolidated 
Appropriations Act of 2014. State foresters look forward to working 
with members of the subcommittee and the Forest Service to make sure 
that, through LSR, we prioritize funds and resources to maximize return 
on investments to conserve, protect, and enhance our Nation's forests. 
The LSR line item codifies the competitive allocation of Cooperative 
Forestry Assistance Act (CFAA) funds which began under direction from 
the 2008 Farm Bill--but State foresters believe that LSR can and should 
do more.
    In the fiscal year 2012 Consolidated Appropriations Act Conference 
Report, the subcommittee directed the Forest Service to develop a 
process allowing State foresters flexibility, with appropriate 
accountability, to reallocate a percentage of authorizations for CFAA 
programs to address State priorities consistent with State Forest 
Action Plans. NASF has worked closely with the Forest Service to 
explore how States could utilize funding flexibility to meet their own 
unique and changing needs; however issues around the need to request 
reprogramming of funds has been a barrier to implementing funding 
flexibility. State foresters believe that LSR provides a perfect 
opportunity to demonstrate the value in providing States the 
flexibility to meet these unique needs through the allocation of their 
CFAA funds. Such a model would include continued funding for the 
competitive allocation of CFAA funds with the addition of an allocation 
to States to further implementation of each State Forest Action Plan.
    NASF supports funding the Landscape Scale Restoration program at 
$23.5 million in fiscal year 2015 and would like to work with the 
subcommittee to direct that a portion of LSR funds be made available to 
State forestry agencies, based on overall percentage of CFAA funds 
received, to further implement their State Forest Action Plan.
                                 ______
                                 
    Prepared Statement of the National Conference of State Historic 
                         Preservation Officers
    Fiscal Year 2015 Historic Preservation Fund (HPF) Total Request:
  --$50 million for State Historic Preservation Offices (SHPOs);
  --$15 million for Tribal Historic Preservation Offices (THPOs);
  --$6 million for survey, inventory and digitization of records;
  --$5 million for a competitive grant program for underrepresented 
        populations; and
  --$10 million for a bricks & mortar competitive grant program.
    Funded through withdrawals from the Historic Preservation Fund (16 
U.S.C. 470h) U.S. Department of the Interior's National Park Service 
Historic Preservation Fund (HPF).
            unique and successful federal-state partnership
    In 1966 Congress, recognizing the importance of our heritage 
enacted the National Historic Preservation Act (NHPA16 U.S.C. 470), 
which established historic preservation as a priority of the Federal 
Government. Recognizing that States are the experts of their own 
history, instead of using Federal employees to carry out the Act, the 
Department Of Interior and the Advisory Council on Historic 
Preservation partner with the States and use SHPOs to: (1) locate and 
record historic resources; (2) nominate significant historic resources 
to the National Register of Historic Places; (3) cultivate historic 
preservation programs at the local government level; (4) provide funds 
for preservation activities; (5) comment on Federal rehabilitation tax 
credit projects; (6) review all Federal projects for their impact on 
historic properties; and (7) provide technical assistance to Federal 
agencies, State and local governments and the private sector. And, 
States provide a forty percent minimum match to the Federal 
appropriation.
                     jobs and economic development
    From the West to the East coasts, historic preservation plays a key 
role in creating, maintaining, and growing communities while preserving 
their historical significance. The Federal Rehabilitation Tax Credit 
(HTC) program, administered by the State Historic Preservation Offices 
in cooperation with the National Park Service, is an important driver 
in economic development. The program benefits communities by:
  --Increasing the value of the rehabilitated property by returning 
        vacant or underutilized structures to the tax roles and 
        stimulating adjacent development projects.
  --Encouraging protection of landmarks through the promotion, 
        recognition, and designation of historic structures, and acting 
        as a catalyst for further community renewal.
  --Revitalizing downtowns and neighborhoods and often increasing the 
        amount of available housing within the community.
    Since inception, the HTC has rehabilitated nearly 39,000 buildings, 
created 2.4 million jobs and leveraged $109 billion in private 
investment nationwide. On average, the HTC leverages $5 dollars in 
private investment for every $1 dollar in Federal funding creating 
highly effective public-private partnerships. In 2013, the HTC spurred 
$3.39 billion in rehabilitation work, created nearly 63,000 skilled, 
local jobs and over 25,000 new or renovated housing units. All of which 
brings short and long-term economic opportunities for the community.
    A recent successful example is the $100 million rehabilitation of 
Building 91 of the former R.J. Reynolds Tobacco Co. manufacturing plant 
in Winston-Salem, North Carolina. This 242,000 square foot building now 
houses the research department arm of the Wake Forest University 
Baptist Medical Center along with space for other biotechnology start-
up companies. Winston-Salem Mayor Allen Joines said of the project, 
``It's been extremely gratifying to watch this solid old building 
bounce back to life. It lets us preserve some of the city's tobacco 
heritage while putting us on a path toward a knowledge based future.''
    Heritage tourism also creates jobs, new businesses, builds 
community pride and can improve quality of life. SHPOs are essential, 
ground level partners in identifying historic places and providing 
research for tourism interpretation. A minimal $3 million increase in 
SHPO funding would allow SHPOs to expand their public outreach and 
assistance, enabling communities to take greater advantage of heritage 
tourism opportunities. Cultural and heritage travelers spend an average 
of $994 per trip and contribute more than $192 billion annually to the 
U.S. economy.\1\
---------------------------------------------------------------------------
    \1\ U.S. Cultural and Heritage Tourism Study (October 2009) 
conducted by Mandala Research, LLC for U.S. Cultural & Heritage Tourism 
Marketing Council, U.S. Department of Commerce, and Gozaic/Heritage 
Travel Inc., a subsidiary of the National Trust for Historic 
Preservation.
---------------------------------------------------------------------------
                        community revitalization
    Nationwide, communities have experienced how historic preservation 
plays a prominent and effective role in community and neighborhood 
revitalization. In many cases, historic preservation combats the 
effects of vacancy by using the historic built environment as a 
catalyst for community change. These changes result in historic 
downtown districts and neighborhoods becoming ``destinations'' 
consisting of restaurants, office space, art galleries, specialty 
shops, living spaces, and civic centers.
    The City of Franklin, Tennessee has identified historic 
preservation as one of the main priorities in their Land Use Plan. 
Because of their preservation efforts and the ensuing economic 
development, the American Planning Association named the Downtown 
Franklin Neighborhood as one of the ``Great Places in America.'' 
Franklin believes that taking care of their built environment does more 
than just save old buildings. It provides economic development, 
community pride, and a sense of belonging that helps build the future.
    The rehabilitation of the American Brewery building in Baltimore, 
Maryland is another success. The $25 million rehabilitation project is 
located in the Broadway East neighborhood, a low-income area of row 
houses and small commercial storefronts that suffer from abandonment 
and blight. The tenants in the newly restored structure include 
Humanim, a social services organization, which is providing workforce 
development services and job creation opportunities directly to the 
surrounding neighborhood. In addition to relocating its 250 employees 
there, the organization made 40 local hires and the once abandoned 
structure is now spurring greater developer confidence in the 
community.
                 finding and saving america's heritage
    While historic preservation generates economic development and 
community revitalization, it of course also saves old buildings and 
significant places. These sites represent the many people, places, and 
events that have left marks on and shaped our national landscape. The 
authors of the 1966 National Historic Preservation Act wrote:

        ``the historical and cultural foundations of the Nation should 
        be preserved as a living part of our community life and 
        development in order to give a sense of orientation to the 
        American people;''

    The first step in preserving and protecting America's heritage is 
identifying it--which comes through survey, inventory and creating 
digital records. This information forms the fundamental building blocks 
of our Nation's historic preservation program and is a key program area 
that's lacking at the current level of appropriation. The NCSHPO 
requests a minimum of $6 million a year, for each of the next 10 years, 
specifically for survey, inventory, and records digitization.
    Having accurate, up-to-date, digitally accessible information on 
our Nation's historic resources would drastically increase the 
efficiency and effectiveness of all local, State, and Federal projects. 
From deciding on the design of local in-fill development, to State 
transportation planning projects, to Federal large-scale energy 
projects and disaster recovery efforts--every single project, and the 
American people would benefit.
    Once identified and documented, America's historic resources are 
primarily recognized at the local, State, and national levels through 
historic districts and listing on National and State Historic 
Registers. State Historic Preservation Officers, through the authority 
of the National Historic Preservation Act assist, support and encourage 
communities with their efforts. National Register recognition by the 
Secretary confirms citizens' belief in the significance of their 
community.
    The National Historic Preservation program is primarily one of 
assistance, not acquisition. The Federal Government does not own, 
manage, or maintain responsibility for most of the historic assets in 
the National Historic Preservation program. Instead, the program, 
through the SHPOs, provides individuals, communities, and local, State, 
and Federal Governments the tools they need to identify preserve and 
utilize the historic assets of importance to them.
    To that end, in addition to the $6 million for survey, inventory, 
and digitization, the NCSHPO requests a minimum of $50 million for 
SHPOs, to simply sustain their current operating levels. The NCSHPO 
also requests $3 million for a competitive grant program to survey and 
nominate to the National Register of Historic Places or National 
Landmark Program, sites associated with populations that are currently 
underrepresented. SHPOs have created many programs and activities to 
support this effort but the current funding level restricts their 
ability to be fully implemented. Three million will provide a positive 
step in their implementation. The NCSHPO also supports $10 million for 
a competitive grant program that provides seed money for bricks & 
mortar rehabilitation projects listed at the local, State, and national 
levels of significance. There is currently no Federal funding provided 
for this activity.
    The NCSHPO also requests that in 2015, the subcommittee supports a 
reauthorization of the Historic Preservation Fund that includes full 
and permanent funding at $150 million a year.
       2013 state historic preservation offices' accomplishments
    SHPOs used their HPF allocations well in 2013. While virtually 
every State continues to experience staffing and operational 
reductions, SHPOs are still charged with implementing the requirements 
of the NHPA to the fullest extent. Highlights of 2013 historic 
preservation accomplishments include:
  --Reviewing nearly 103,000 Federal undertakings within 30 days.
  --Leveraging over $3.39 billion of private investment in the 
        rehabilitation of commercial historic properties under HTC 
        program.
  --An estimated 70,000 jobs created by the HTC program in 2013.
  --Over 7,000 low and moderate income housing units created through 
        the HTC.
  --Approximately 16.3 million acres surveyed for the presence or 
        absence of cultural resources.
  --1,175 new listings in the National Register of Historic Places.
  --82,100 National Register eligibility opinions.
  --29 new communities became Certified Local Governments (CLGs).
  --Under local law, CLG's newly designated 54,500 properties, and 
        93,900 properties took part in local preservation review, 
        programs, and incentives.
                               conclusion
    On behalf of all 59 SHPOs, I'd like to thank you Chairman Reed, 
Ranking Member Murkowski, and Members of the Senate Appropriations 
Subcommittee on Interior, Environment and Related Agencies for the 
opportunity to submit testimony.
    Historic preservation recognizes that what was common and ordinary 
in the past is often rare and precious today, and what is common and 
ordinary today may be extraordinary--50, 100 or 500 years from now. I 
would like to thank the subcommittee for their commitment to historic 
preservation. The Federal Government plays an invaluable role in 
preserving our Nation's history and our collective sense of place. 
Through our partnership, SHPOs remain committed to working together to 
identify, protect, and maintain our Nation's historic heritage. Thank 
you.
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
    On behalf of the National Congress of American Indians (NCAI), we 
thank you for the opportunity to submit written testimony on Native 
American programs in the Interior appropriations bill. NCAI is the 
oldest and largest American Indian organization in the United States. 
Tribal leaders created NCAI in 1944 as a response to termination and 
assimilation policies that threatened the existence of American Indian 
and Alaska Native tribes. As the most representative organization of 
American Indian and Alaska Native tribes, NCAI serves the broad 
interests of tribal governments across the Nation. As Congress 
considers the fiscal year 2015 budget and beyond, leaders of tribal 
nations call on decision-makers to ensure that the promises made to 
Indian Country are honored in the Federal budget.
    NCAI includes recommendations for Interior bureaus, the Indian 
Health Service, and the Environmental Protection Agency, but the fiscal 
year 2015 Indian Country Budget Request \1\ includes many more specific 
recommendations and we urge this subcommittee to use it as a resource 
during this appropriations cycle. NCAI also supports the testimony of 
the National Indian Health Board, National Indian Child Welfare 
Association, National Indian Education Association, and American Indian 
Higher Education Consortium.
---------------------------------------------------------------------------
    \1\ National Congress of American Indians. (January 2014). Fiscal 
year 2015 Indian Country Budget Requests: An honorable budget for 
Indian country. Washington, DC: Author.
---------------------------------------------------------------------------
                              introduction
    Annual funding decisions by Congress are an expression of our 
Nation's moral priorities. Numerous treaties, statutes, and court 
decisions have created a fundamental contract between tribal nations 
and the United States: tribes ceded millions of acres of land that made 
the United States what it is today, and in return tribes have the right 
of continued self-government and the right to exist as distinct peoples 
on their own lands. And for its part, the United States has assumed a 
trust responsibility to protect these rights and to fulfill its solemn 
commitments to Indian tribes and their members. Part of this trust 
responsibility includes basic governmental services in Indian Country, 
funding for which is appropriated in the discretionary portion of the 
Federal budget. The Federal budget for tribal governmental services 
reflects the extent to which the United States honors its promises to 
Indian people.
       department of the interior, bureau of indian affairs (bia)
    The fiscal year 2015 budget request for the Operation of Indian 
Programs account is $2.4 billion, an increase of $33.8 million, or 1.4 
percent, above the fiscal year 2014 enacted level. The fiscal year 2015 
budget request for the Construction account is $109.9 million; a 
decrease of $216,000 below the fiscal year 2014 enacted level.
    The fiscal year 2015 budget proposes a total of $922.6 million in 
Tribal Priority Allocations, an increase of $19.3 million over the 
fiscal year 2014 level, a 2 percent increase.
    The budget request for contract support is $251 million; including 
funding for the Indian Self-Determination Fund, an increase of $4 
million above the fiscal year 2014 enacted level. The requested amount 
will fully fund estimated fiscal year 2015 contract support costs, 
according to BIA based on the most recent analysis. NCAI commends the 
administration for requesting full funding for Contract Support Costs 
in fiscal year 2015. NCAI recommends that the Tribal Grant Support 
Costs for tribally controlled schools and residential facilities should 
also be fully funded. Tribal Grant Support Costs (formerly referred to 
as Administrative Cost Grants) funding is provided to the schools to 
cover administrative and indirect costs incurred in operating contract 
and grant schools. In school year 2012-2013, tribally controlled grant 
schools received an estimated 64 percent of the grant support funding 
needed as defined by the administrative cost grants formula.
Major Initiatives
    The Tiwahe (Family) Initiative would provide an additional $11.6 
million to expand Indian Affairs' capacity to address Indian child and 
family welfare and job training issues and implement processes to 
better sustain Indian families. Increases include: $10 million to build 
on social services and Indian child welfare programs that provide 
culturally-appropriate services toward health promotion, family 
stability, and strengthening tribal communities; $550,000 to expand job 
placement and training programs; BIA law enforcement would begin a 
pilot program to implement a strategy for alternatives to incarceration 
and increased treatment; $1 million to develop and institutionalize a 
program for evaluating social service and community development needs 
and to inform programmatic design, evaluation, management, and 
budgeting.
    Tribal leaders through the Tribal Interior Budget Council have 
repeatedly called for increases to Social services and Indian Child 
Welfare Act (ICWA) funding. NCAI also supports increases to these two 
activities. ICWA was enacted in 1978 in response to the troubling 
practices of public and private child welfare agencies that were 
systematically removing American Indian and Alaska Native children from 
their homes, communities, and culture, and placing them in non-Indian 
foster and adoptive homes. The Act not only provides protections for 
Native children in State child welfare and judicial systems but 
recognizes the sovereign right of tribes to care for their children. 
The crippling of Native economies before the Self-Determination Era 
left tribal citizens overwhelmingly impoverished, facing high 
unemployment compared to non-Native people, and with few economic 
opportunities. The barriers to employment vary region-to-region in 
Indian Country, but include geographic remoteness, a weak private 
sector, poor basic infrastructure, and even a lack of basic law 
enforcement infrastructure. This, coupled with the recent economic down 
turn, makes the Social Service program an essential yet underfunded 
part of anti-poverty programming on reservations nationwide. For these 
reasons, NCAI supports the increase BIA Social Services.
    Education increases include: $500,000 for Johnson O'Malley 
education assistance grants to support a new student count in 2015 and 
provides funding for the projected increase in the number of students 
eligible for grants; $1 million to support the ongoing evaluation of 
the BIE school system. NCAI also recommends $263.4 million for School 
Construction and Repair, $73 million For Tribal Grant Support Costs; 
$431 million for Indian School Equalization Program Formula Funds; $73 
million for Indian student transportation; and $42 million for Johnson 
O'Malley funding (justification is included in the fiscal year 2015 
Indian Country Budget).
    Public Safety.--Indian Country has long struggled with high crime 
victimization rates. Violent crimes impose economic costs on the 
victims and their families, in the form of medical and other expenses 
and the loss of earnings. Areas with high crime also experience reduced 
investment. Safe communities are necessary for economic development. 
Moreover, the Indian Law and Order Commission found that tribal nations 
throughout our country would benefit enormously if locally based and 
accountable law enforcement officers were staffed at levels comparable 
to similarly situated communities off-reservation. In 2010, DOI 
established a High Priority Performance Goal (HPPG) initiative to 
reduce violent crime by at least 5 percent over 24 months on four 
reservations that were experiencing high rates of violent crime. In 
fiscal year 2010, all four locations received an increase in base 
funding to support additional sworn staff. The additional resources 
assisted in closing the staffing gap and bringing each location up to 
national sworn staffing levels as listed under the U.S. Department of 
Justice Uniform Crime Report staffing averages. The effort resulted in 
a 35 percent decrease in violent crime across the four sites. The 
Indian Law and Order Commission report states, ``[d]espite the current 
budget reality, the results of the HPPG Initiative should not be 
forgotten: parity in law enforcement services prevents crime and 
reduces violent crime rates.'' \2\ NCAI also recommends an increase for 
BIA tribal courts.
---------------------------------------------------------------------------
    \2\ Indian Law & Order Commission. (November 2013). A roadmap for 
making Native America safer: Report to the President & Congress of the 
United States, Executive Summary, p. xxx.
---------------------------------------------------------------------------
    BIA Overall.--NCAI appreciates recent support for some tribal 
programs over the last few years, especially for the Indian Health 
Service, contract support costs, and law enforcement. In the fiscal 
year 2015 President's budget, DOI's current appropriations would 
increase 2.6 percent, without BIA. For BIA to at least match the 2.6 
percent increase over fiscal year 2014 for DOI's current appropriation 
level would require an additional $69.2 million. About 91 percent of 
the funding proposed that that would benefit Indian tribes in DOI is 
through BIA and Office of the Special Trustee for American Indians 
(OST) and 9 percent of funds to tribes (excluding fire) are in other 
bureaus.

                         [Dollars in thousands]
------------------------------------------------------------------------
                                                              Percent of
              Agency                2015 Request    Tribes      Agency
------------------------------------------------------------------------
US Geological Survey (USGS).......    $1,073,268      $7,600         0.7
Fish & Wildlife Service (USFWS)...     1,476,202      10,700         0.7
National Park Service (NPS).......     2,614,599      13,500         0.5
Bureau of Land Management (BLM)...     1,113,542      16,900         1.5
Dept. Wide Programs...............       876,053      35,000         4.0
Bureau of Reclamation (BOR).......     1,042,995     186,500        17.9
------------------------------------------------------------------------

    The other Interior agencies certainly provide assistance to Indian 
tribes. The President's budget includes funds for tribes such other DOI 
budgets: 0.7 percent of the USGS budget, 0.7 percent of the USFWS 
budget, 0.5 percent of the NPS budget, and 18 percent of the BOR 
budget.\3\ NCAI appreciates that, for instance, USGS is increasingly 
engaging with tribes to develop climate adaptation programs and working 
to meet tribes' needs for scientific and planning information.
---------------------------------------------------------------------------
    \3\ Analysis of Appendix A of the Fiscal Year 2015 Interior Budget 
in Brief, retrieved at http://www.doi.gov/budget/appropriations/2015/
highlights/upload/A001.pdf and March 26 Testimony of Asst. Sec. 
Washburn before the Senate Committee on Indian Affairs, retrieved at 
http://www.indian.senate.gov/sites/default/files/upload/files/
032614%20Kevin%20Washburn%20FINAL.pdf.
---------------------------------------------------------------------------
    The USFWS also is improving its work with tribes, such as with the 
North Pacific Landscape Conservation Cooperative (NPLCC). Increased 
tribal engagement is good, to the extent that non-BIA bureaus are 
assisting tribes, providing resources and upholding the Federal trust 
responsibility.
    But BIA provides the primary resources for carrying out the core 
governmental services to about 2 million American Indians and Alaska 
Natives. Funding for tribal capacity building is critical. Individual 
projects, such as the NPLCC, do not provide the long-term capability 
that tribes need to be able to address climate issues. The $9.947 
million in the BIA's budget for Cooperative Landscape Conservation does 
not go far for 566 federally recognized tribes. Even as other agencies 
work to improve meeting their obligations to tribes, NCAI urges 
Congress to ensure that the BIA budget can provide the resources that 
modern and sophisticated tribal governments require.
                         indian health services
    NCAI requests that for fiscal year 2015, Congress truly restore the 
sequestration cuts remaining from fy 2013, and adjust for inflation and 
population growth. Though discretionary spending is not facing 
sequestration in fiscal year 2015, NCAI urges this subcommittee to 
continue to advocate for a permanent, full exemption from 
sequestration, as well as rescissions, for Tribal programs for fiscal 
year 2016 and beyond. NCAI supports the recommendations of the Tribal 
Budget Formulation Workgroup for fiscal year 2015 as well as the 
National Indian Health Board's testimony.
                 environmental protection agency (epa)
    Tribal General Assistance Program (GAP) Grants.--GAP would receive 
a $31 million increase in base funding in the President's budget, which 
would increase the average size of grants made to eligible tribes while 
providing tribes with a stronger foundation to build tribal capacity; 
and further the EPA's partnership and collaboration with tribes to 
address a wider set of program responsibilities and challenges. As the 
largest single source of the EPA's funding to tribes, the Tribal GAP 
grants assist tribes to establish the capacity to implement programs to 
address environmental and public health issues in Indian Country. NCAI 
supports this proposed increase.
                               conclusion
    Thank you for this opportunity to share our concerns on programs 
that fulfill treaty and trust obligations in the Interior, Environment, 
and Related Agencies Appropriations bill. We look forward to working 
with this subcommittee on a bipartisan basis once again this year.
                                 ______
                                 
  Prepared Statement of the National Indian Child Welfare Association
    The National Indian Child Welfare Association (NICWA) is a national 
American Indian/Alaska Native (AI/AN) nonprofit organization. NICWA has 
over 30 years of experience providing leadership in the development of 
public policy that supports tribal self-determination in child welfare 
and children's mental health systems. We urge Congress, as they make 
budgetary decisions for fiscal year 2015, to not forget the unique 
interest of AI/AN children and families. This testimony will provide 
recommendations for the following programs administered by the Bureau 
of Indian Affairs in the Department of the Interior: Indian Child 
Protection and Family Violence Prevention ($43 million), Social 
Services ($40.8 million), Welfare Assistance ($80 million), and Indian 
Child Welfare Act Program (Tribal Priority Allocation--$15.6 million; 
Self-Governance--$16.5 million; Off-Reservation Program--$5 million).
    Tribes have an important relationship with their children and 
families; they are experts in the needs of AI/AN children, best-suited 
to effectively serve those needs, and most able to improve these 
children's child welfare outcomes (NICWA & Pew Charitable Trust, 2007). 
In addition, statistics show that AI/AN children face elevated rates of 
child abuse and neglect (Department of Health and Human Services, 
2012). The key to successful tribal child welfare is a budget that 
avoids unnecessary restraint on tribal decisionmaking and accounts for 
the elevated need in tribal communities.
                    priority program recommendation
    Indian Child Protection and Family Violence Prevention Act 
recommendation.--Appropriate $43 million for the three discretionary 
grant programs under this law: (1) $10 million for the Indian Child 
Abuse Treatment Grant Program; (2) $30 million for the Indian Child 
Protection and Family Violence Prevention Grant Program; and (3) $3 
million for the Indian Child Resource and Family Service Centers so 
that tribes will finally get this vital funding.
    The Indian Child Protection and Family Violence Prevention Act 
(ICPFVP; Public Law 101-630), was enacted to fill gaps in tribal child 
welfare services--specifically child protection and child abuse 
treatment--and to encourage coordination between child abuse and 
domestic violence programs.
    AI/AN women are more likely than any other racial group to 
experience intimate partner violence (IPV); 39 percent of AI/AN women 
report having experienced IPV at some point in their lives (Black and 
Breiding, 2008). Studies show that in 49 percent-70 percent of cases, 
men who abuse their partners also abuse their children (White Eagle, 
Clairmont, and Hunter, 2011). The ICPFVP programs are the only funds 
specifically authorized for tribes to address these issues. The three 
programs authorized under this line item provide funding for child 
abuse treatment and prevention; investigation of child abuse reports; 
family violence treatment services; and the establishment of BIA Indian 
child resource and family service centers to assist tribes with the 
investigation, prevention, and treatment of victims of child abuse and 
domestic violence. In spite of the great need, and these programs' 
authorization in 1991, only the BIA Indian child resource and family 
centers have ever received funding and that was only in one fiscal 
year.
    This year the President introduced an important Indian Country 
budget initiative: the Tiwahe (Family) Initiative. This initiative aims 
to empower tribal communities in order to strengthen AI/AN families by 
``directing additional resources to support culturally appropriate 
social services and a more holistic approach toward family stability'' 
(U.S. DOI Budget Justifications and Performance Information Indian 
Affairs fiscal year 2015 (``Greenbook''), 2014, p. IA-ES-2). This 
initiative will provide additional funding to the BIA Social Service 
Program, the Indian Child Welfare Act (ICWA) program, and to BIA job 
training and job placement programs. Omitting the funding for ICPFVPA 
programs leaves a gap in the President's initiative. For this reason, 
and as a part of this Tiwahe Initiative, the programs under this grant 
should be fully appropriated.
                     other program recommendations
    Social Services recommendation.--Increase funding by $5 million as 
recommended by the President's proposed Tiwahe Initiative for a total 
appropriation of $40.8 million so that child protective services can be 
fortified.
    The BIA Social Services line item funds contracted/compacted tribal 
social workers who help families get assistance and protect children 
and elders, BIA social work staff at regional and agency offices, 
support programs for AI/AN individuals, and training and technical 
assistance to tribal social service programs.
    This line item is, therefore, an essential part of tribal child 
welfare systems. The Social Service line item helps AI/AN families meet 
their basic needs which prevents involvement with the child welfare 
system. It provides the only BIA funding available for child protective 
services in Indian Country (because the ICPFVPA remains unfunded).
    The President has proposed a $5 million increase in Social Service 
funding in his fiscal year 2015 budget as part of the Tiwahe (Family) 
Initiative. These funds are to be used ``to add much needed additional 
social workers for both tribal and [BIA] operated programs'' 
(Greenbook, 2014, p. IA-HS-2). These social workers are to be dedicated 
to child protection, and it is the hope of the President that this 
increase in capacity will allow tribal child welfare systems to ``focus 
on long-term strategies to address the impact of family violence on the 
break-up of the families'' and ``to provide more prevention, 
intervention, and outreach activities'' (Greenbook, 2014, p. IA-HS-2). 
We commend the President for the Tiwahe Initiative and this proposed 
increase in funding for tribal social services and ask that Congress 
fund Social Services at $40.8 million as recommended by the President.
    Welfare Assistance recommendation.--Increase current funding levels 
to $80 million to provide a safety net for Native families and assist 
grandfamilies and other kinship caregivers in tribal communities.
    The Welfare Assistance line item provides five important forms of 
funding to AI/AN families: General Assistance, Child Assistance, Non-
Medical Institutional or Custodial Care of Adults, Burial Assistance, 
and Emergency Assistance. General Assistance, Emergency Assistance, and 
Child Assistance are particularly important to tribal child welfare 
programs.
    General Assistance provides financial assistance for essential 
needs such as food, clothing, shelter, and utilities while individuals 
who are ineligible for all other financial assistance programs work 
towards independence as outlined in a self-sufficiency plan. AI/AN 
children are more likely to live in households that are below the 
poverty line. Thirty-four percent of AI/AN children live in households 
with incomes below the poverty line as compared to 20.7 percent of 
children nationwide (Maternal and Child Health Bureau, 2012). In 
addition, nearly 19 percent of the AI/AN labor force is unemployed on 
reservations (2006-2010 American Community Survey)--twice the rate for 
the total population. These funds are essential to the basic well-being 
of the families who receive them and also an important tool for child 
welfare agencies working to keep families together. These funds, like 
Emergency Assistance, also funded under this line item, often provide 
the financial assistance necessary to prevent neglect and the removal 
of a child.
    Child Assistance provides payments on behalf of children who are 
placed outside their homes in foster, adoptive, or guardianship care. 
Because tribal governments have a responsibility to support the 
placement of AI/AN children that live on tribal lands under their 
jurisdiction who cannot remain safely at home, these funds are 
critical. Currently only three tribes have access to title IV-E, the 
funding stream States use to support out-of-home placements. Other 
tribes rely on Child Assistance funds for this purpose. Without these 
funds, tribes would have to place children in unsubsidized substitute 
care homes. This would put an undue burden on tribal foster families 
and make foster care recruitment in AI/AN communities all the more 
difficult.
    The current funding level for these important services just begins 
to meet the need in tribal communities. For this reason, the funds 
should be increased by $5 million. This amount will provide necessary 
support to AI/AN families at risk of being torn apart, to children in 
relative placements, and to AI/AN individuals and families who need a 
hand up.
    ICWA Funding recommendation.--Increase the ICWA On or Near 
Reservation Program appropriations by $5 million and the Self-
Governance and Consolidated Tribal Government ICWA On or Near 
Reservation appropriations by $5 million, for a total increase of $10 
million to help tribes meet the needs of their communities. Appropriate 
an additional $5 million for the authorized, but unfunded, Off-
Reservation ICWA Program to ensure ICWA protects all children.
    At the time that ICWA was passed, Congress estimated that between 
$26 million and $62 million was required to fully fund tribal child 
welfare programs on or near reservations during the first years of the 
grant program (U.S. Senate Report 95-597). ICWA funding is used for 
family reunification and rehabilitation, case management, foster care 
recruitment and retention, and adoption services. As the President has 
recognized in his Tiwahe (Family) Initiative, increased ICWA funding is 
essential for strong AI/AN families and communities. This funding is 
designed to ``prevent the breakup of Indian families or reunite them if 
break-up occurs'' (Greenbook, 2014 p. IA-HS-3). This funding is also 
used to ``expand the capabilities of tribes to intervene in involuntary 
court proceedings and ensure the children are not separated from their 
cultural base'' (Greenbook, IA-HS-3). Despite its importance to so many 
facets of tribal child welfare, it remains underfunded, even as tribes 
remain ineligible for other important child welfare funding like CAPTA 
State Grants, and Title XX Social Service Block Grants to which States 
have access.
    Specifically, as part of the Tiwahe Initiative, the President 
recommends a $5 million increase to ICWA on-reservation funding to be 
shared between Tribal Priority Allocation and Self-Governance/638/
Consolidated Tribal Government Programs. This would amount to an 
approximate increase of $2.5 million to each of these ICWA on-
reservation programs. We commend the President for this initiative and 
for his recognition of the important of ICWA funding to tribal 
communities and families. Spreading the $5 million increase between 
both Tribal Priority Allocation tribes and Self-Governance/638/
Consolidated Tribal Government Programs, however, will prevent a 
significant increase in actual ICWA funding for all tribes. ICWA is 
such a foundation to the Tiwahe Initiative that we recommend a $5 
million increase to each of the ICWA on-reservation funding programs. 
This would mean a $5 million increase to the Tribal Priority Allocation 
as well as a $5 million increase to Self-Governance/638/Consolidated 
Tribal Government Programs for ICWA purposes.
    The protections of ICWA apply to AI/AN children on-reservation and 
children who live in urban areas. For this reason, ICWA authorizes 
child welfare funding for urban ICWA programs. From 1979-1996, funding 
was allocated for ICWA grants to urban organizations serving AI/AN 
peoples. This off-reservation ICWA program has not since been funded 
since, despite the fact that, according to the 2010 Census, 67 percent 
of AI/AN people lived off-reservation. Urban programs provide important 
ICWA services including recruitment of AI/AN foster homes, case 
management, identification of at-risk families for services, and in-
home services that help children stay in their homes or be reunified 
with their parents. As a result of the loss of funding, the majority of 
these programs have disintegrated. It is for this reason that to truly 
fulfill the Tiwahe Initiative, funding for off-reservation ICWA 
programs must be reinstated and appropriated at $5 million to ensure 
that all AI/AN children are protected by the ICWA.

                                            INDIAN CHILD WELFARE ACT
----------------------------------------------------------------------------------------------------------------
                                                                                  Fiscal year
                                      Fiscal year    Fiscal year   Fiscal year        2015         Fiscal year
                                          2012     2013 * enacted      2014       President's          2015
                                        enacted                      enacted         Budget        recommended
----------------------------------------------------------------------------------------------------------------
On-Reservation: Tribal Priority       $10,850,000     $10,628,000  $10,710,000     $13,128,000      $15,628,000
 Allocation.........................
On-Reservation: Self-Gov/638/Consol.   11,300,000      11,480,000   number not     $13,980,000       16,480,000
 Tribal Gov't Program...............                                 available
Off-Reservation.....................            0               0            0                0        5,000,000
----------------------------------------------------------------------------------------------------------------
* Reflects sequestration effects.

                                 ______
                                 
    Prepared Statement of the National Indian Education Association
    The National Indian Education Association (NIEA) was incorporated 
in 1970 and is the most representative Native education organization in 
the United States. NIEA's mission is to advance comprehensive and equal 
educational opportunities for American Indian, Alaska Native, and 
Native Hawaiian students. NIEA supports tribal sovereignty over 
education as well as strengthening traditional Native cultures and 
values that enable Native learners to become contributing members of 
their communities. As the most inclusive Native education organization, 
NIEA membership consists of tribal leaders, educators, students, 
researchers, and education stakeholders from all 50 States. From 
communities in Hawaii, to tribal reservations across the continental 
U.S., to villages in Alaska and urban communities in major cities, NIEA 
has the most reach of any Native education organization in the country.
    Tribes and Native communities have a tremendous stake in an 
improved education system, because an improved system equates to better 
services for Native people and students. As tribes work to increase 
their footprint in education, there must be support for that increased 
participation. Established through treaties, Federal law, and U.S. 
Supreme Court decisions, this relationship includes a fiduciary 
obligation to provide parity in access and equal resources to all 
American Indian and Alaska Native students, regardless of where they 
attend school. National fiscal and policy concerns should not be 
addressed by decreasing funds and investment to Native students or the 
programs that serve them. Rather, Native education, including those 
programs and services under the Department of the Interior (DOI), is 
one of the most effective and efficient investments the Federal 
Government can make.
    As tribes and Native communities work with Congress for parity in 
access to increase their role and responsibility in administering 
education, Federal support for tribal governments and Native education 
institutions has continued to shrink as a percentage of the Federal 
budget. Historical funding trends illustrate that the Federal 
Government is abandoning its trust responsibility by decreasing Federal 
funds to Native-serving programs by more than half in the last 30 
years. Sequestration only exacerbated those shortfalls.
                     the state of native education
    Partly as a result of insufficient access to resources, Native 
education is in a state of emergency. Native students lag far behind 
their peers on every educational indicator, from academic achievement 
to high school and college graduation rates. Just over 50 percent of 
Native students are graduating high school, compared to nearly 80 
percent for the majority population nationally. For students attending 
Bureau of Indian Education (BIE) schools, rates are even lower. 
According to the latest results from the National Assessment of 
Educational Progress (NAEP), the BIE's tribally controlled schools 
(approximately 120 facilities) are among the worst performing schools 
in the Nation due to an array of issues often caused by inadequate 
access for tribal involvement as well as insufficient resources. Due to 
the inability of elementary and secondary schools to adequately prepare 
our children, only 40 percent of Native college enrollees in 2004 
actually graduated college with a bachelor's degree by 2010. For Native 
students to succeed in post-secondary education and careers, they must 
have a strong education foundation, whether they attend public, 
tribally-controlled, or direct service BIE schools.
                   bureau of indian education reform
    For too many years, DOI made other programs priorities while Native 
education programs and the BIE were afterthoughts. In addition to the 
disparaging September 2013 Government Accountability Office (GAO) 
Report on the BIE school system, the work of this subcommittee and 
education partners has built momentum around much-needed BIE reform. 
NIEA is enthusiastic about the renewed collaboration among Secretaries 
Sally Jewell and Arne Duncan in the Departments of the Interior and 
Education (ED) and for their support to create the American Indian 
Education Study Group (Study Group). We are also excited to strengthen 
our work with BIE Director Dr. Charles ``Monty'' Roessel to ensure BIE 
moves in the right direction. We are already happy to see the hiring of 
a coordinator within the Bureau to start work on the 2014 Johnson 
O'Malley (JOM) student count, which was last officially updated in 
1995.
    However, much work lies ahead. The Study Group is currently behind 
schedule in producing their report, so it is important to maintain 
pressure for results. Further, as the Study Group works with tribal 
communities this spring and summer to release a report, NIEA hopes this 
subcommittee will analyze our recommendations and take concrete steps 
to support the reforms required for increasing the capacity of tribes 
to govern their education systems. These include (1) providing the BIE 
the ability to manage its budget; (2) strengthening tribal capacity to 
administer education services; and (3) providing budgetary support for 
programs, such as tribal grant support costs and school construction, 
so the BIE can provide safe environments for our students as well as 
sufficiently support tribes as they contract education services.
                    fiscal year 2015 recommendations
BIE Budget Authority
    For too long, bureaucratic issues among the Bureau of Indian 
Affairs (BIA) and the BIE have decreased the ability of the BIE to meet 
the educational needs of our youth. Congress and Federal agencies 
should make funding for BIE a priority to increase available resources 
for addressing the needed systemic changes and issues highlighted in 
the September 2013 GAO Report. DOI should transfer budget authority 
from the BIA to the BIE to increase efficiency and effectiveness, as 
BIE officials better understand needed funding within their programs.
    As a result of BIA authority over the BIE budget, the BIE is often 
low in priority as compared to other programs. As a result of internal 
BIA fiscal year 2014 Operating Plan reallocations, the BIA reduced JOM 
Assistance Grants by $170,000 as well as cut BIE higher education 
scholarships. NIEA is fully supportive of the hard work tribes and 
Native communities put forth to achieve full funding for contract 
support costs in fiscal year 2014. However, such achievements should 
not come by forfeiting funds from critical education programs and 
services.
    Furthermore, while the reduced lines were under tribal priority 
allocations, such reductions were not authorized by tribal leaders but 
were a result of internal redistributions. While the reductions are 
small as compared to the overall increase in the BIA budgets, 
rescissions without appropriate consultation are unacceptable. 
Providing the BIE the ability to develop its own budget would ensure 
the BIA cannot reallocate funds from the BIE as it would be a separate 
Bureau with its own budget authority.
Strengthen Tribal Capacity --$5 million
    Tribes should be provided more opportunity to collaborate and 
participate in their children's education systems. Since the late 20th 
Century, Congress has worked to strengthen tribal capacity to directly 
serve their citizens. The BIE should become a capacity builder to help 
tribes administer education services. While an authorization under the 
U.S. Department of Education for tribal capacity building in public 
schools on reservations has been funded since fiscal year 2012, the 
program only addresses one aspect of existing need.
    The State-Tribal Education Partnership Program (STEP) in ED is a 
solid start for increasing collaboration among States and tribes for 
increasing the tribal role in a Native student's education. However, 
additional funding of $5 million within both DOI and ED totaling $10 
million is needed to ensure more tribes can participate in providing 
education services via their tribal education agencies in local 
tribally-controlled grant schools. Because tribes and their education 
agencies understand their students' cultural and academic needs best, 
this local authority would allow tribes to efficiently and effectively 
reverse the negative academic outcomes currently pertaining to Native 
students.
Capacity and Collaboration--$5 million
    As the BIE is increasingly able to support tribes and their 
education agencies, BIE reform would be strengthened by providing funds 
for a competitive grant pilot that incentivizes capacity building in 
tribally-controlled grant schools. This grant program would be modeled 
on best practices from existing competitive grants in use within the 
Department of Education. For $5 million, the BIE could participate in a 
pilot to help spur urgent and abrupt systemic reform that will 
substantially improve student success, close achievement gaps, improve 
high school graduation rates, and prepare students for success in 
college and careers.
    The three-year competitive incentive-based grant, similar to 
existing Race to the Top initiatives for which BIE continues to be 
excluded, would provide resources for tribes to accelerate their local 
reforms and align education services to tribal education priorities 
that include language and culture as well as meet challenging academic 
standards. Further, performance metrics for the grant would include 
student attendance rates, graduation rates, college enrollment rates, 
measures on educator accountability, and performance on standardized 
assessments. In order to catalyze reform efforts and create a set of 
high-performing, tribally-controlled grant schools, the BIE would also 
provide on-going technical assistance to help build the capacity of 
those schools that applied for, but did not receive, a grant.
Construction Funding--$263.4 million
    Similar to previous years, NIEA is requesting increased funding for 
BIE school construction and repair with an allocation to be set at 
$263.4 million. That level ensures funds for new school construction, 
facilities improvement and repair, and replacement school construction. 
NIEA was excited to see new funding appropriated by Congress in fiscal 
year 2014 and 2015 to begin work on the first phase of the Beatrice 
Rafferty School located in Maine. However, it is time bring all vested 
stakeholders to the table to work on a plan for providing enough 
resources to actually replace dilapidated BIE schools.
    DOI Secretary Sally Jewell recently stated on March 25, 2014 before 
the House of Representatives' Appropriations Subcommittee on Interior, 
Environment, and Related Agencies that, ``[DOI] is focusing more on the 
classrooms, than the buildings.'' This limited concentration is 
unacceptable. As the first DOI budget under her leadership, the 
administration's budget request for replacement construction continues 
to be inadequate. The administration must support efforts to 
drastically increase replacement funds and address the long-outdated 
list of more than 60 BIE school buildings in disrepair and 
unsatisfactory conditions. The Federal Government understands the need 
to bring all DOD schools to a good or fair rating by 2018, yet the BIE 
school system is ignored. While focusing on the classroom is to be 
applauded, no child can be expected to successfully learn while the 
structure around them is potentially dangerous.
Tribal Grant Support Costs--$73 million
    NIEA was happy to see IHS and BIA contract support costs fully 
funded under self-determination and self-governance this year. However, 
Public Law 100-297 grant or Public Law 93-638 self-determination 
contracted BIE schools were exempt from full funding, which will result 
in budget shortfalls. Full funding for tribal grant support costs in 
fiscal year 2015 and subsequent years is critical as these dollars help 
tribes expand self-governance and tribal authority over education 
programs by providing funds for administrative costs, such as 
accounting, payroll, and other legal requirements. The BIA currently 
funds only 65 percent of support costs in the 125 tribally controlled 
schools and residential facilities under the BIE purview. This forces 
schools to divert critical education funding in order to cover 
shortfalls in operational costs, which make it unrealistic to improve 
educational outcomes and bridge the achievement gap among Native and 
non-Native students.
                               conclusion
    NIEA appreciates the opportunity to submit written testimony into 
the record and we look forward to increasing the success of the BIE and 
tribes as they work together to educate Native students. Thank you 
again and if you have any questions, please contact Ahniwake Rose, NIEA 
Executive Director, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="debfacb1adbb9eb0b7bbbff0b1acb9f0">[email&#160;protected]</a>
                                 ______
                                 
   Prepared Statement of the National Institutes for Water Resources
    Chairman Reed and Ranking Member Murkowski: I am Brian Haggard, 
Director of the Arkansas Water Resources Center at the University of 
Arkansas. Thank you for the opportunity to testify on behalf of the 
National Institutes for Water Resources (NIWR), in support of the Water 
Resources Research Act program. The program is funded as part of the 
U.S. Geological Survey's budget. I specifically want to thank you for 
the subcommittee's continuing strong support for the Water Resources 
Research Act.
    This year is the 50th anniversary of the Act. In 1959, a Senate 
select committee was formed to investigate the adequacy of the Nation's 
water resources. As a result of its findings, a bill was introduced to 
create a national water resources research program designed to expand 
and provide more effective coordination of the Nation's water research. 
The bill authorized the establishment of water resources research 
institutes at land grant colleges in each State. On July 12, 1964, when 
President Lyndon B. Johnson signed the bill into law he said,

        ``The Water Resources Research Act of 1964, which I have 
        approved today, fills a vital need...it will create local 
        centers of water research. It will enlist the intellectual 
        power of universities and research institutes in a nationwide 
        effort to conserve and utilize our water resources for the 
        common benefit.''

    The Act authorized the establishment of Water Resources Research 
Institutes in each of the 50 States and Puerto Rico. Later, Institutes 
were authorized in Washington DC, Guam, the Virgin Islands, the 
Federated States of Micronesia, the Commonwealth of the Northern 
Mariana Islands and American Samoa. The Institutes were created to 
fulfill 3 main objectives:
  --to develop through research new technology and more efficient 
        methods for resolving local, State and national water resources 
        problems;
  --to train water scientists and engineers through on-the-job 
        participation in research; and
  --to facilitate water research coordination and the application of 
        research results by means of information dissemination and 
        technology transfer.
    Today the Water Resources Research Institutes, in partnership with 
the U.S. Geological Survey, continue to fulfill the three roles 
assigned by Congress in 1964 They have funded cutting-edge water 
research, have conducted innovative information and technology transfer 
programs, and have provided training to over 25,000 students over their 
50-year history.
    The Water Resources Research Act program is a State-based network 
of institutes dedicated to solving problems of water quantity (supply) 
and quality in partnership with universities, local governments and the 
general public and is the only federally authorized research network 
that focuses on applied water resources research, education, training 
and outreach. The institutes are a direct, vital link between Federal 
water interests and needs and the academic expertise located within the 
States' research universities. It provides a mechanism for ensuring 
State, regional and national coordination of water resources research, 
the education of future water professionals, and the transfer of 
results and outcomes to State and Federal water professionals. The 
matching requirements of the program ensure that each State invests in 
water research and training.
    The Water Resources Research Act established two grant components 
of the USGS Water Resources Research Institutes program, where Federal 
funds cannot be used to pay indirect costs at the universities. The 
first component is the base grant program which is divided up equally 
among the institutes. The Act requires that each Federal dollar must be 
matched by two non-Federal dollars, and this is the strictest match 
requirement of any Federal research program. Each Institute uses these 
funds to leverage research and/or student training through a statewide 
competitive grants process. The National Institutes for Water Resources 
requests the subcommittee to provide continued funding for the base 
grant program, which provides grants focused on water supply and 
quality, technology transfer, professional education, and outreach to 
faculty at universities within each State. The base program provides 
seed grants, which are used to develop future research proposals and 
secure additional external funds.
    The second grant component is a national competitive grants 
program, supporting research on water resources problems that are 
regional or national in nature. In 2012 this program received 46 
applications, which underwent rigorous peer review from a national 
panel. The national review panel selected a total of six projects from 
Alabama, Iowa, Minnesota, New York, Oregon and West Virginia, 
addressing water supply and quality issues facing our Nation.
    The Water Resources Research Act is what holds all of this 
together. The Institutes specialize in identifying problems within 
their States, developing solutions to those problems, and engaging with 
the public to implement those solutions. One of the Institute program's 
greatest strengths is that the research funded by each Institute is 
tailored to that State's needs, based on priorities set by consultation 
with an advisory panel. These funded projects are State focused but 
also address water issues relevant to our Nation. The following are 
several examples of research conducted and projects managed by 
Institutes across the country.
    My Institute, the Arkansas Water Resources Center, has focused on 
how water quality is changing over time, particularly in two watersheds 
where the poultry industry has been sued over elevated nutrients and 
aesthetic conditions--the Illinois River Watershed and Eucha-Spavinaw 
Basin. We used data collected through our monitoring program, as well 
as by the U.S. Geological Survey, to show how nutrient concentrations 
and loads in these critical watersheds have changed since the 
implementation of nutrient management practices in municipal wastewater 
treatment facilities and on the land. Our analysis clearly showed 
nutrients have decreased over time, moving closer to our water quality 
goals. The institutional stability of my center and its base funding 
made it possible to manage long-term databases and produce results.
    The Rhode Island Water Resources Center has supported cutting-edge 
research on industrial pretreatment of wastewater before it discharge 
to municipal facilities. This research project produced a solution to 
the problem, developing a nano-technology based system capable of 
removing pollutants from industrial wastewater. The system uses 
grapheme oxide and carbon nanotubes which are capable of adsorbing high 
amounts of pollutants, and this polymer system is reusable. The 
research was applied in nature, solving a real-world problem in a 
sustainable way.
    The Alabama Water Resources Research Institute hosted the 2013 
annual water conference, focusing on the important role of Alabama's 
water resources in economic development. Over 300 participants attended 
this event, including Governor Bentley as the keynote speaker. This 
institute specializes in outreach activities, which has also included 
the Tallapoosa Basin Conference, the Apalachicola-Chattahoochee-Flint 
(ACF) Stakeholders Conference, municipal and legislative assistance in 
water resources planning, the Auburn University campus stormwater 
management plan, and co-sponsoring water policy forums throughout the 
State.
    The Alaska Water and Environmental Research Center at the 
University of Alaska-Fairbank has been collecting and analyzing 
critical hydrologic data needed for planning a transportation corridor 
to the Ambler Mining District and the Umiat region north of Brooks 
Range. The river flow and ice measurements are essential information in 
the design bridges and environmental impact statements. This center has 
established itself as an entity capable of collecting and evaluating 
hydrologic data for projects in Alaska's most remote and challenging 
settings.
    The California Institute for Water Resources has sponsored research 
on irrigation efficiency, which is critical component of water 
conservation strategies as our climate continues to change. The 
researchers supported by the institute are collecting data on 
transpiration, local weather conditions, and soil water retention and 
evaporation to identify trends that can be used to adjust irrigation 
methods for specific crop needs; these researchers are also analyzing 
nearly 40 years of irrigation survey data to understand changes in 
irrigation methods across the State and over time. This research 
quantifies the amount of water used, on which crops it was used, and 
where those crops were located--the ultimate goal is to improve water 
conversation and sustain crop yields.
    The Maryland Water Resources Research Center has supported research 
that will ultimately benefit the Maryland's two most important economic 
resources, Agriculture and the Chesapeake Bay. With increasing food 
markets and interest in biofuels, agriculture production is expanding 
and changing along with environmental impacts such as nitrogen, 
phosphorus and sediment input into the bay. This research projects 
developed low-cost anaerobic digesters that treat dairy manure while 
producing methane as a source of renewable energy--transforming animal 
waste into an environmental and economic benefit for the Chesapeake Bay 
region.
    The Montana Water Center at Montana State University has funded 
research projects on the health of wetland ecosystems, and how 
fluctuations in the amount of evapotranspiration and groundwater 
available influence this important aquatic resource. Groundwater and 
evapotranspiration are two unknowns in any water budget and are often 
ignored in regional groundwater flow models. This research has used the 
Gartside Reservoir prairie fen to model groundwater availability and 
evapotranspiration and developed methods for defining aquifer 
conditions affecting evapotranspiration.
    The New Mexico Water Resources Research Institute played a 
leadership role in developing the U.S.-Mexico Transboundary Aquifer 
Assessment Program, which allows the Interior Department and the U.S. 
Geological Survey to cooperate with the Arizona, New Mexico, and Texas 
Water Resources research Institutes, State water agencies, and other 
relevant entities to characterize, map and model hydrogeology of 
community groundwater supplies. This program provides essential 
information and a scientific foundation for State and local officials 
to address pressing water resources challenges in this border region, 
such as declining water levels, deteriorating water quality, and 
increasing demand.
    The Oregon Institute for Water and Watersheds has focused on the 
emerging problem of Harmful Algal Blooms (HABs). These blooms are 
caused by blue-green algae (cyanobacteria) that naturally occur in 
surface water, but given the right environmental conditions and 
nutrient supply can multiply quickly into problematic blooms. As these 
algal blooms die off, toxins are released into waters posing an 
environmental and human health concern. Researchers at Oregon State 
University were funded by this institute to fill information gaps, 
modeling the formation of these blooms and increasing our understanding 
of environmental factors influencing the occurrence of these blooms in 
drinking water supply reservoirs.
    Agricultural subsurface drainage has increased dramatically in 
South Dakota during the last several years. The South Dakota Water 
Resources Institute is using satellite-based remote sensing technology 
to compare, side-by-side, crop water use from fields with and without 
tile drainage. Understanding this difference in water use helps 
quantify crop yield responses to drainage, economic return on 
investment and impacts on the hydrology within each field. The 
information is being used by agricultural producers and natural 
resources managers from local, State and Federal agencies alike to help 
implement best management practices that maintain and improve 
agricultural production while minimizing negative environmental 
impacts.
    For five decades the Water Resources Research Institutes have 
provided significant research results and impacts to our Nation, and 
proved successful at bringing new water professionals into the work 
force. NIWR recommends the subcommittee provide $8,800,000 to the USGS 
for the Water Resources Research Institute Program for fiscal year 
2015. The water institute directors recognize the fiscal challenges 
facing the Nation and Congress, but we want to support the USGS 
Coalition request that Congress appropriate at least the $1.2 billion 
requested for the USGS in fiscal year 2015, a level that will support 
critical programs that improve the Nation's environment, health, 
safety, quality of life, and future economic growth.
    Thank you, on behalf of all the institute directors and the 
National Institutes for Water Resources, for the opportunity to testify 
and for the subcommittee's strong support of the Water Resources 
Research Act program. It is greatly appreciated.
                                 ______
                                 
   Prepared Statement of the National Parks Conservation Association
    Mr. Chairman, Ranking Member Murkowski, and members of the 
subcommittee, thank you for the opportunity to submit testimony on 
behalf of the National Parks Conservation Association (NPCA). Since 
1919, NPCA has been the leading independent voice in support of 
enhancing, protecting and promoting America's National Park System for 
people from all walks of life to learn from and enjoy--now and into the 
future. On behalf of our 800,000 members and supporters from every 
State in the Union, I appreciate the opportunity to provide our views 
regarding the Park Service budget for the upcoming fiscal year. NPCA 
requests for fiscal year 2015 appropriated funding for the National 
Park Service of $2,623,646,000, which is equal to the President's 
appropriated request but rejecting his request to reduce National 
Heritage Area Funding by $9,087,000. This includes NPCA's priorities 
this year of meeting--at a minimum--the President's request for a $47 
million increase in park operations, and $10 million in appropriated 
funds for the Centennial Challenge.
    We fully appreciate the tremendous challenge you face in setting 
reasonable, responsible spending priorities for the varied Federal 
agencies and programs under your subcommittee's jurisdiction when the 
goal of substantially reducing the level of Federal spending has driven 
so much of the political discourse and agenda. We share the hope that 
the budget and appropriations cycle now underway for fiscal year 2015 
might signal a return to a more orderly and reasonable process, 
particularly with the landmark centennial of the National Park System 
fast approaching.
    Providing adequate funding is more than simply another expenditure; 
it is an investment in our Nation's future with tangible returns that 
are particularly significant now as we continue to recover from a long 
economic downturn. The Government shutdown demonstrated the economic 
importance of national parks to gateway communities. According to the 
Interior Department, these communities lost $414 million in visitor 
spending alone during the 16-day shutdown. Investments in the Park 
Service budget support robust economic activity:
  --Every dollar invested in the National Park Service yields ten 
        dollars in economic activity;
  --National parks support nearly $27 billion in economic activity 
        annually and nearly a quarter million private sector jobs; and
  --Of the 25 most popular travel destinations in the United States, 
        eight are units of the National Park System.
    The budget situation for the National Park Service for the past 
several years has been like a roller coaster ride, headed mostly down. 
Over recent months and years, the Park Service and the national 
treasures entrusted to their care have been damaged by compounded 
budget cuts. So has the experience and enjoyment of the people who 
visit them. The October 2013 16-day Government shutdown came on top of 
an ongoing pattern of declining budgets followed by the damaging and 
indiscriminate across-the-board cuts mandated by the sequester. The 
budget to operate the national parks has been cut by nearly 8 percent 
in today's dollars compared to 4 years ago. That is on top of many 
years of chronic underfunding for park operations that have resulted in 
operations shortfalls ranging from estimates of from $500 million to as 
much as $800 million annually. Over the past decade, the National Park 
Service construction budget has been cut by over $272 million, or 66 
percent in today's dollars. This has compounded the years of 
underfunding, resulting in today's nearly $12 billion backlog. That 
underfunding is due to actions and inactions over many congresses, and 
by both political parties.
    The maintenance backlog is attributable to chronic funding 
deficiencies in several categories, including operations, 
transportation and construction. These deficiencies have forced park 
managers to make choices between what needs to be done and what 
absolutely must be done immediately to keep facilities up and running 
and visitors safe. The longer needed repairs and maintenance to 
facilities are put off, the more expensive and difficult they become.
    The result of this long-term budget roller coaster, particularly 
during the sequester but not limited to it, has been:
  --parks and park facilities opening later and closing earlier or more 
        frequently;
  --fewer park rangers and other staff protecting and maintaining 
        parks;
  --visitor centers operating with fewer rangers or closing altogether 
        for lack of staff;
  --compromised science and resource protection and decreased cyclical 
        maintenance;
  --fewer backcountry patrols to ensure visitor safety and prevent 
        poaching and looting; and
  --other impacts that compromise resources and public enjoyment and 
        safety.
    To be sure, park managers have done the best they can to weather 
the many rounds of budget reductions. There has been some level of 
savings through employee attrition, but superintendents will tell you 
that while operating a park with insufficient staff can be managed in 
the short term, it simply can't be sustained over the long run. At some 
point the consequences become evident, compromising the parks' ability 
to protect resources from damages, keep visitors safe and provide 
adequate visitor services. Director Jarvis recently testified before 
this subcommittee that the proposed fiscal year 2015 investment in park 
operations would return some seasonal rangers to our parks, but pointed 
out that under the proposal only half of those lost seasonal rangers 
would return. Clearly, more work is needed to bring our national parks 
and the men and women who steward them back to where they once were.
    The real question for fiscal year 2015 is whether progress will 
occur in getting the National Park System in the shape it should to 
begin its next century in a manner consistent with the pride Americans 
feel for our heritage and our national treasures. fiscal year 2015 is 
an opportunity for Congress to help answer that question, since it is a 
critical year to begin preparing for 2016. In light of that, the 
administration has proposed a multi-year centennial initiative that 
builds on the one proposed by the Bush administration. Recognizing the 
magnitude of the challenge posed by the backlog, the administration 
proposes that legislation be enacted to begin reducing the backlog on a 
mandatory basis. They also propose to renew the Centennial Challenge--a 
program familiar to this subcommittee from the Bush/Kempthorne era--in 
an amount identical to that proposed by the Bush administration. This 
subcommittee can play a significant role in promoting such an 
initiative and in educating others about why it is necessary, and we 
stand ready to help in that effort. A Centennial Initiative that 
attacks the backlog would produce needed construction jobs while 
restoring America's treasures. And the Centennial Challenge can help 
the national parks capitalize on the attention the centennial will 
bring to attract donations from private and other non-Federal sources. 
The fact that Presidents Bush and Obama both have supported renewing 
our parks in connection with the centennial provides further evidence 
of the nonpartisan appeal of the parks, and we hope that Congress will 
seize upon its role in formulating a legacy that will last for the next 
century.
    As a down-payment on enactment of Centennial Challenge legislation, 
we ask that the subcommittee appropriate at least as much as the 
administration request--$10 million--if not more. This subcommittee has 
noted the importance of matching funds and has drafted report language 
to that effect. The Centennial Challenge program would leverage 
important dollars to support signature projects at parks throughout the 
country. It's a wise investment.
    As for park operations, we have consistently noted to this 
subcommittee NPCA's view that this account should be prioritized. The 
proposed operations increase would provide funding to enhance the 
visitor experience, better connect young people with their natural and 
cultural heritage, and put more rangers to work addressing overdue 
maintenance needs. We recognize as Director Jarvis did that the 
proposed increase is insufficient to return ranger levels to where they 
should be, but it is a welcome step in the right direction. There is a 
direct connection between those popular rangers, the enjoyment of 
visitors, and correspondingly the economies of surrounding communities 
that depend on those visitors having a safe and inspiring experience.
    We also support the administration's request of $192.2 million for 
the Land and Water Conservation Fund (LWCF), a critical tool for 
protecting our national parks. Since it was first enacted, with a 
dedicated stream of revenue in place from offshore oil and gas leasing 
in Federal waters, the LWCF has realized its full $900 million 
envisioned level only once in 49 years. Park Service LWCF funding has 
declined from $126 million in fiscal year 2010 to less than $100 
million in fiscal year 2014, a decline of more than 20 percent. We 
believe in the healthy, rewarding recreational opportunities that LWCF 
was intended to provide. The completion of existing national park units 
by purchasing inholdings from willing sellers will often make park 
administration and resource management more efficient and cost 
effective, thereby freeing up money for to other needs.
    We also respect the constraints that both the PILT program and 
wildfire suppression needs have caused for this subcommittee's 
allocation, and hope they can be dealt with so that there are more 
dollars available to appropriate to our national parks and other 
pressing needs. We're pleased to be a supporter--among so many other 
diverse stakeholders--of the Wildfire Disaster Funding Act. We are 
urging Congress to move this important legislation forward.
    We respect the importance of enhancing this subcommittee's 302(b) 
allocation so as chair of the Green Group appropriations team, I have 
spearheaded community efforts to emphasize this need.
    Finally, we urge an extension of the Federal Lands Recreation 
Enhancement Act, which was extended last year through the end of fiscal 
year 2015 in the bill that reopened the Federal Government. 
Unfortunately, with the likelihood of authorizing legislation passing 
both houses this year in question, we ask that you another 1 year 
extension be included in this year's conference bill, to ensure that 
the National Park Service retains annual fee authority at the end of 
this calendar year.
    Mr. Chairman, it seems as if there is always a good deal of talk on 
Capitol Hill about what the American people want and what the American 
people expect and deserve, and so on. Recent events have made the views 
of the American people about their national parks as clear as ever. 
Their love affair with the national parks spans time, region, economic 
status and political persuasion. During the Government shutdown, we 
heard from the American people how much they love the parks and want 
them open and well-staffed. Polling we have previously shared with this 
committee conducted by Hart Research Associates and North Star Opinion 
Research indicated that 9 out of 10 likely voters agree that funding 
for our national parks should be held stable or increased. A bipartisan 
majority of Americans (73 percent) believe it is important that the 
parks are fully restored and ready for the national park centennial in 
2016.
    As that milestone 100th anniversary approaches, the national parks 
will be more and more at the forefront of people's minds, and more and 
more Americans will be drawn to visit a national park or park unit, as 
will many others from around the world. Will Americans be proud of what 
they find? Will pride in our heritage and shared experience be evident 
when they visit? If the parks they visit are not in a condition worthy 
of their legacy, who will they blame?
    Overall, the budget for the National Park Service constitutes less 
that 1/15th of one 1 percent of the entire Federal budget, and our 
research shows that the average American household pays roughly as much 
in taxes for their national parks as it would cost them to buy a large 
coffee at Starbucks. Surely we can find a way to meet this important 
Federal responsibility to restore our parks during the lead-up to the 
parks 100th anniversary. Now more than ever, taking care of the 
national parks should be a priority. We thank this subcommittee for its 
leadership and are eager to work with you to ensure our national parks 
are protected this year, and for generations to come.
                                 ______
                                 
   Prepared Statement of the National Recreation and Park Association
    Thank you Chairman Reed, Senator Murkowski, and other honorable 
members of the subcommittee for the opportunity to submit written 
testimony pertaining to funding for the Land and Water Conservation 
Fund's (LWCF) State Assistance Program and the Urban Parks and 
Recreation Recovery Program (UPARR) in the fiscal year (FY) 2015 
Interior Appropriations bill.
                      overview of funding request
    As outlined below, we encourage you to renew the Federal investment 
in the LWCF. However, given that the purpose of the Act is to help 
preserve, develop, and assure access to outdoor recreation facilities 
to strengthen the health of U.S. citizens, we urge you to make a 
greater investment in States and local communities by:
  --Allocating a minimum of 40 percent of fiscal year 2015 LWCF 
        appropriations to the State Assistance Program;
  --Continuing the innovative, pilot ``Competitive Grant Program'' 
        began in fiscal year 2014;
  --Allocating up to $25 million in funding for UPARR out of total 
        fiscal year 2015 LWCF appropriations; and
  --Ensuring that any amount allocated to either the pilot 
        ``Competitive'' grant or UPARR program is not done at the 
        expense of the existing core formula grants distributed to the 
        States for public recreation.
           about the national recreation and park association
    The National Recreation and Park Association (NRPA), is a nonprofit 
organization working to advance parks, recreation and environmental 
conservation efforts nationwide. Our members touch the lives of every 
American in every community every day. Through our network of 
approximately 40,000 citizen and professional members we represent park 
and recreation departments in cities, counties, townships, special park 
districts, and regional park authorities, along with citizens concerned 
with ensuring close-to-home access to parks and recreation 
opportunities exist in their communities. Everything we support and do 
is focused through our three pillars: Conservation; Health & Wellness 
and Social Equity.
    40 percent allocation of total lwcf appropriations to the state 
                           assistance program
    There is a common misconception that LWCF is merely a Federal land 
acquisition program. Nothing could be further from the truth, as the 
LWCF State Assistance Program provides dollar-for-dollar matching 
grants to States and local communities for the construction of outdoor 
recreation projects. The land purchased with LWCF State Assistance 
funding remains the property of the State or local government, and the 
resources developed through the LWCF remain publicly accessible in 
perpetuity.
    The LWCF provides numerous benefits to local communities across 
America, and it does so through a well-recognized and dedicated funding 
source--namely oil and gas leasing revenues. Over $6 billion a year is 
provided through these leases, with a small fraction provided to the 
LWCF. Unfortunately an even smaller fraction is provided to the State 
Assistance Program. This is in large part due to the fact that current 
law mandates that a minimum of 40 percent of the total LWCF annual 
appropriations must be provided to the Federal land acquisition program 
without specifying an amount for the State Assistance Program.
    As a result, States and local communities have historically 
received a very disproportionate share of the total LWCF 
appropriations, with little more than 10 percent of total LWCF funding 
going to the State Assistance Program since 1998. More recently, in 
fiscal year 2012, you provided approximately $322 million for the LWCF, 
with $45 million, or 13 percent, allocated to the State Assistance 
program. Further, in fiscal year 2013, when final discretionary 
spending was subject to ``sequestration,'' you provided $305 million 
overall to the LWCF and $39.9 million to the State Assistance Program--
also 13 percent.\1\ We appreciate that you've recently recognized the 
importance of the State Assistance Program and allocated a larger 
percentage of total LWCF appropriations to it in fiscal year 2014--pre-
sequestration levels of $45 million, as well as the innovative $3 
million ``competitive grant'' program.
---------------------------------------------------------------------------
    \1\ Amounts reflect amounts provided through appropriations and do 
not reflect sequestration reduction.
---------------------------------------------------------------------------
    For nearly 50 years, however, the bulk of the work to carry out 
purpose of the Act has fallen on local communities to handle alone. For 
the reasons outlined below, we are asking you to empower States and 
local communities to do more to preserve, develop, and assure access to 
outdoor recreation facilities to strengthen our Nation by allocating 40 
percent of total LWCF appropriations to the State Assistance Program in 
fiscal year 2015.
  lwcf state assistance's return on investment and return on objective
    One of the key aspects of the LWCF State Assistance Program is the 
ability to create jobs. The outdoor recreation industry, as such is 
supported by LWCF State Assistance, is an economic powerhouse in the 
United States. According to the Outdoor Industry Association, the 
industry generates $646 billion in consumer spending and supports over 
6 million jobs annually.\2\ Impressively, this section of the economy 
continues to grow even during the ongoing economic recession, and thus 
has enormous potential to immediately create new jobs. For example, the 
Outdoor Industry Association reported in October 2011 that the outdoor 
recreation industry grew at a rate of 5 percent annually between 2005 
and 2011. Considering there are 7,800 State and over 100,000 locally 
managed parks throughout the country, it is obvious that outdoor 
recreation is most prevalent at the State and local level. In fact, the 
National Association of State Park Directors reports that America's 
State park system contributes $20 billion to local and State economies 
each year.\3\ There is no doubt, that it is the LWCF State Assistance 
Program that provides the places, spaces, and opportunities for outdoor 
recreation which stimulates the outdoor industry.
---------------------------------------------------------------------------
    \2\ Outdoor Industry Association, ``The Outdoor Recreation Economy 
Report 2012''.
    \3\ NASPD Annual Report, March 2013.
---------------------------------------------------------------------------
    When viewed through the lens of the importance of the American 
outdoor recreation industry, the LWCF State Assistance Program has, for 
more than four decades, achieved a proven return on investment (ROI) 
demonstrated by the fact that nearly $4 billion in Federal support has 
leveraged over $4 billion additional dollars in matching funds. But the 
benefits of this program, don't stop there, as the State Assistance 
Program has not only provided a ROI, but has also done a tremendous job 
of providing an outstanding return on objective for the American 
taxpayer by ensuring access for all.
    It is well known that not everyone has the ability to visit one of 
our treasured national parks, and even those who do so are unable to on 
a regular basis as national parks are often vacation destinations or 
once-in-a-lifetime trips. To the average American, however, the 
neighborhood park--down the street, open and accessible to the public, 
and without an admission fee--is the most important public space in 
their lives. Many of our country's local places, spaces, and 
opportunities for outdoor recreation are provided through this program, 
with more than 40,000 grant projects located in every county across 
America.
    The State Assistance Program is the only Federal investment tool 
dedicated to ensuring that Americans have access to local public 
recreation opportunities. Because the LWCF State Assistance Program 
provides close-to-home recreation opportunities, millions of Americans, 
young and old, are annually connected with nature and provided the 
ability to be physically active and simply enjoy a life that they may 
otherwise be denied.
    The LWCF State Assistance Program ensures that local communities, 
such as the Thurmont, Maryland and Talladega, Alabama have places where 
adults and children can go to recreate and enjoy the outdoors. It is a 
means by which this committee can provide investment to critically 
important local parks, including: Elmore State Park in Vermont; the new 
soccer field at Sisterhood Park in Anchorage, Alaska; and Lions Park in 
Bismarck, North Dakota. Each of the aforementioned communities 
benefited from State Assistance grant funding since 2012.
    lwcf state assistance provides health and environmental benefits
    In addition to creating jobs and ensuring access for all, the LWCF 
State Assistance Program delivers tangible health benefits, 
contributing to the overall health and well-being of Americans.
    The National Park Service (NPS) recognizes this through its Healthy 
Parks Healthy People U.S. initiative, which aims to increase public 
recognition of parks and public lands (including State, local, and 
regional park and trail systems) as places for the promotion of 
physical, mental, and social health. The CDC reports that childhood 
obesity has tripled in the last 30 years, less than 25 percent of 
adults engage in recommended levels of physical activity, and that 
obesity is a leading cause of chronic disease. As noted by the CDC, 
increased access to parks, green space, and recreation opportunities is 
essential to becoming a healthier Nation and reducing unsustainable 
healthcare costs.
    The LWCF State Assistance Program also significantly contributes to 
protecting the environment and promoting environmental stewardship. 
LWCF State Assistance projects have a historical record of contributing 
to reduced and delayed stormwater runoff volumes, enhanced groundwater 
recharge, stormwater pollutant reductions, reduced sewer overflow 
events, increased carbon sequestration, urban heat island mitigation 
and reduced energy demands, resulting in improved air quality, 
increased wildlife habitat, and increased land values on the local 
level.
    revitalizing urban parks and recreation through funding of uparr
    While the LWCF has indeed benefited virtually every community in 
the country, many of our Nation's cities and urbanized counties face 
distinct challenges that require additional resources. Recognizing this 
fact as well as the importance of public parks and recreation to larger 
urban renewal and community development efforts, Congress established 
the Urban Parks and Recreation Recovery Program (UPARR) to provide 
matching grants directly to localities in metropolitan areas. Over the 
course of more than two decades UPARR provided $272 million for nearly 
1,500 projects in 380 communities. This enabled neighborhoods across 
the country to restore both outdoor and indoor recreation facilities; 
support innovative recreational programming and enhance delivery of 
services and programs that provided constructive alternatives to at-
risk youth.
    Despite its successes, UPARR has not been funded since fiscal year 
2002, yet many of the urban open space and recreation challenges still 
exist today. NRPA is very pleased to see UPARR in the President's 
fiscal year 2015 budget and calls on Congress to update and fund this 
needed program to enable metropolitan areas to address quality of life, 
health and wellness, and conservation issues as they improve their 
communities and make them more attractive for families and businesses 
alike. Both LWCF State Assistance and UPARR are critical to providing 
Americans close to home recreation opportunities. The programs 
complement each other and NRPA implores Congress to fund UPARR from 
total LWCF appropriations but not at the expense of the already 
underfunded State Assistance Program.
   maintaining the pilot ``competitive grant'' program to the state 
                           assistance program
    The final fiscal year 2014 Interior Appropriations package included 
an ``additional'' $3 million of funding for a pilot ``Competitive Grant 
Program'' managed under the State Assistance Program. NRPA is pleased 
that NPS has sought our input as part of their efforts to craft this 
pilot initiative and is very optimistic that the first year of the 
program will prove a successful means of highlighting the innovative 
projects and partnerships the State Assistance Program provides across 
America. We support the continuation of this pilot initiative, provided 
the funds allocated are not done at the expense of the existing core 
formula grants distributed to the States for public recreation.
    Mr. Chairman and members of the committee, few programs can address 
so many national priorities as effectively as the LWCF State Assistance 
Program and UPARR do, with so few dollars and without negatively 
impacting the Federal budget. This subcommittee and Congress have the 
rare opportunity to achieve national goals without increasing spending 
or adding to the deficit, and can do so by adopting three simple 
recommendations: Allocate a minimum of 40 percent of LWCF funding to 
the State Assistance Program; continue the innovative ``Competitive 
Grant'' pilot program established in 2014, and address the need for 
improved infrastructure in urban areas by allocating a portion of the 
total LWCF funding to UPARR.
    Thank you again for the opportunity to share NRPA's recommendations 
and your consideration of our request.
                                 ______
                                 
   Prepared Statement of the National Trust for Historic Preservation
    Mr. Chairman and members of the subcommittee, I appreciate this 
opportunity to present the National Trust for Historic Preservation's 
recommendations for fiscal year 2015 appropriations. My name is Thomas 
J. Cassidy, Jr. and I am the vice president for government relations 
and policy. The National Trust is a privately-funded nonprofit 
organization chartered by Congress in 1949. We work to save America's 
historic places to enrich our future. With headquarters in Washington, 
DC, 13 field offices, 27 historic sites, 746,000 members and supporters 
and partner organizations in 50 States, territories, and the District 
of Columbia, the National Trust works to save America's historic places 
and advocates for historic preservation as a fundamental value in 
programs and policies at all levels of government.
    The Nation faces a challenging fiscal environment. The National 
Trust recognizes there is a need for fiscal restraint and cost-
effective Federal investments. However, we do not believe that 
preservation, conservation and recreation programs should suffer from 
disproportionate funding reductions. We look forward to working with 
you, Mr. Chairman, as you address the ongoing needs for investments to 
sustain our Nation's rich heritage of cultural and historic resources 
that generate lasting economic vitality for communities throughout the 
Nation.
                       historic preservation fund
    The Historic Preservation Fund (HPF) is the principal source of 
funding to implement the Nation's historic preservation programs. Like 
the Land and Water Conservation Fund, its dedicated revenues are 
generated from oil and gas development on the Outer Continental Shelf.
    The National Park Service distributes HPF grants that are matched 
by State Historic Preservation Offices (SHPOs) and Tribal Historic 
Preservation Offices (THPOs). Inadequate HPF funding limits support for 
preservation activities such as survey, nomination of properties to the 
National Register of Historic Places, public education, and project 
review for undertakings under the National Historic Preservation Act 
and for the Federal Historic Rehabilitation Tax Credit (HTC). The HTC 
is the most significant Federal investment in historic preservation. It 
has catalyzed the rehabilitation of more than 39,600 buildings 
throughout the Nation. Since its creation more than 30 years ago, the 
HTC has created 2.4 million jobs and leveraged nearly $109 billion in 
private investment.
    The National Trust recommends at least $50 million for the SHPOs 
and at least $11 million for the THPOs. Such a modest increase in 
funding would recognize the continuing demand upon these agencies for 
preservation services, and addresses an increase in participation among 
THPOs from 131 tribes in fiscal year 2012 to potentially 156 tribes in 
fiscal year 2015.
    We thank the subcommittee for including $500,000 in the fiscal year 
2014 Omnibus bill to launch an important new program of competitive 
grants for the survey and nomination of properties associated with 
communities currently underrepresented in the National Register of 
Historic Places and National Historic Landmarks. Recent studies have 
documented that less than 8 percent of such listings identify 
culturally diverse properties. We urge the subcommittee to provide up 
to $5 million to expand this important new program that promises to 
identify and protect the places that tell the stories of all Americans.
    We also want to call attention to the importance of the 
administration's request for $6 million to provide grants to SHPOs and 
THPOs to digitize legacy survey data into an online National Inventory. 
This investment would improve access to historic property records and 
help expedite Federal permitting of important infrastructure projects. 
We encourage the subcommittee to support this program included in the 
President's Opportunity, Growth and Security Initiative.
national park service: operation of the national park system, cultural 
                         resources stewardship
    The National Park Service (NPS) is responsible for 401 units of the 
National Park System ranging from the battlefields where our ancestors 
fought and died to places that stir the soul like the Statue of Liberty 
and Ellis Island, the gateway for millions of new Americans. Three-
quarters of our parks were created to protect our most important 
historic and cultural resources. Over the past two decades, more than 
35 new parks have been added to our system of national parks. Many of 
these new parks preserve historic places and themes that are 
underrepresented within the National Park System.
    We support the President's budget proposal of $47 million above the 
fiscal year 2014 enacted level for National Park Service Operations. Of 
that increase, $30 million is for the Administration's Centennial 
Initiative which includes $16 million for repair and rehabilitation 
projects, $8 million for a new program to hire youth and veterans at 
parks, $4 million to engage youth in service and conservation projects 
and $2 million to support expanded volunteer opportunities at parks. 
The increase would fund the staff, rangers and interpretation vital to 
the public who visit and enjoy our ever-growing National Park System 
including new units like Fort Monroe National Monument (VA), Harriet 
Tubman Underground Railroad National Monument (MD) and Cesar E. Chavez 
National Monument (CA).
    Construction.--Of the nearly $12.311 billion in deferred 
maintenance needed for the NPS, $4.5 billion is for the maintenance 
backlog on 27,000 properties in National Park units listed on the 
National Register of Historic Places. According to a report issued in 
2008 by the National Academy of Public Administration, more than 40 
percent of historic buildings and structures in our national parks are 
in fair or poor condition. Without funding, the condition of these 
properties will continue to deteriorate and become more expensive to 
repair and preserve in the future. The National Park Service 
Construction account has been significantly reduced over the last few 
years. We support the President's fiscal year 2015 request of $138 
million, a slight increase over fiscal year 2014. We also support the 
President's request that this fund be used for the repair and 
stabilization of important historic structures as opposed to new 
construction.
    We are also supportive of the President's proposed mandatory 
appropriation of $200 million for the Second Century Infrastructure 
Investment and $100 million for the Centennial Challenge. These 
proposals would provide funds for the maintenance and rehabilitation of 
significant cultural and historic resources within our national parks.
    One promising new opportunity that will help the NPS and other 
Federal agencies with historic preservation responsibilities address 
the maintenance backlog of historic buildings is through a cooperative 
agreement between NPS, the other Federal land agencies, and several 
NGOs, including the Student Conservation Association and The Corps 
Network. Through this agreement, college interns, trade school 
students, and out of work youth and veterans would be trained in the 
preservation skills necessary to perform preservation work in the parks 
and other Federal lands. While learning these hands-on skills, 
participants will also perform cost-effective preservation work to 
support historic resources.
                      engaging the next generation
    The National Trust supports the administration's fiscal year 2015 
request of $50.6 million for the Department's youth programs, a 
significant increase of $13.6 million in programs over 2014 enacted 
funding levels. Of these funds, $8 million is proposed to expand 
opportunities for youth education and employment across NPS parks and 
programs. As part of our commitment to advancing the goals of the 21st 
Century Conservation Service Corps, and interest in helping the Federal 
Government reduce the maintenance backlog of historic properties, the 
National Trust recently launched the HOPE (Hands-On Preservation 
Experience) Crew initiative where we will train youth in preservation 
skills while helping protect historic sites within NPS units. The first 
HOPE Crew project, in the Shenandoah National Park in collaboration 
with concessionaire Delaware North Companies, is rehabilitating the 
historic Skyland Stable in the Skyline Drive National Historic Landmark 
District. The National Trust hopes to launch 100 HOPE Crew projects by 
the NPS Centennial in 2016. Volunteer projects like this can reduce the 
maintenance backlog while also providing job skills and education for 
young people.
  national park service: leasing historic structures in national parks
    We appreciate the Committee's inclusion of report language in the 
fiscal year 2014 Conference Report applaud the efforts of NPS and 
private partners to successfully implement such leases and encouraging 
the broader use of this authority to mitigate the maintenance backlog 
of historic structures. Continued encouragement and oversight of the 
Service's actions to implement policy changes that would facilitate 
more leasing could catalyze even broader use of this important 
authority and increase the amount of non-Federal funding to abate the 
maintenance backlog.
             national park service: national heritage areas
    We recommend funding for National Heritage Areas (NHAs) at the 
fiscal year 2014 enacted level or higher. The administration's repeated 
proposals to reduce NHA funding, justified as ``encouraging self-
sufficiency,'' would severely impair the sustainability of the program 
and the individual NHAs that Congress has established. National Park 
Service Director Jon Jarvis has described National Heritage Areas as 
``places where small investments pay huge dividends.'' We agree.
    During these challenging economic times, every program that 
receives Federal funding needs to justify its worth and deliver 
substantial benefits to the American public. NHAs more than meet this 
test. A recent report documents that since the program was created in 
1984, the economic activity generated through NHAs supports 
approximately 148,000 jobs and $1.2 billion annually in Federal taxes. 
The economic benefits of NHA's are realized through tourism and 
visitation, operational expenditures, and issuing grants and support. 
NHAs on average leverage every Federal dollar into $5.50 of additional 
public and private investment.
   bureau of land management: national landscape conservation system
    The Bureau of Land Management's (BLM) National Landscape 
Conservation System (National Conservation Lands) includes 27 million 
acres of congressionally and presidentially designated lands, including 
National Monuments, National Conservation Areas, Wilderness, Wilderness 
Study Areas, National Scenic and Historic Trails, and Wild and Scenic 
Rivers.
    As the Nation's newest system of protected lands, the National 
Conservation Lands encompass some of our country's most significant 
historic and cultural resources, yet the BLM's ability to steward these 
resources is undermined by insufficient funding. The National 
Conservation Lands are just one-tenth of BLM managed lands but they 
host one-third of all BLM's visitors. Without sufficient funding, the 
BLM struggles to complete essential resource protection, such as 
signing trails, inventorying and protecting cultural sites from looting 
and vandalism.
    We support the administration's fiscal year 2015 request of $66.534 
million, a $2 million increase over fiscal year 2014 enacted, in order 
to prevent critical damage to the resources found in these areas, 
ensure proper management and provide for a quality visitor experience. 
This funding level would enable BLM to hire essential management and 
law enforcement staff, monitor and protect natural and cultural 
resources, close unauthorized routes that damage fragile cultural sites 
and undertake needed ecosystem and species restoration projects.
        bureau of land management: cultural resources management
    The BLM oversees the largest, most diverse and scientifically 
important collection of historic and cultural resources on our Nation's 
public lands, including 10 million artifacts, 358,000 documented 
cultural sites, 421 maintained historic structures and 87 properties 
listed on the National Register of Historic Places. The program 
provides for the review of 13,000 land use proposals each year, 
compliance with the Native American Graves Protection and Repatriation 
Act and government-to-government consultation with Indian Tribes and 
Alaska Native governments. In the last decade, this program has lost 19 
percent of its FTEs due to the stagnant budget, yet it is challenged 
with even greater processing reviews for increased energy use, 
transmission lines and public recreation. If the funding for this 
program had kept pace with inflation since fiscal year 2003 it would 
receive funding of $19.1 million instead of the fiscal year 2014 
enacted $15.1 million. We support the administration's fiscal year 2015 
request of $16 million, a modest increase of $.87 million over fiscal 
year 2014 enacted levels of $15.1 million. The increase provides for 
$.13 million for fixed costs and $.74 million to support efforts to 
fulfill BLM's statutory requirements for the inventory and protection 
of cultural resources. The increase would support 40 on-the-ground 
surveys, site protection and stabilization projects, and regional 
cultural resource inventory overviews that are necessary for planning 
large scale infrastructure projects across broad landscapes
                land and water conservation fund (lwcf)
    The National Trust supports robust funding for the Land and Water 
Conservation Fund. Many of the Nation's most significant historic and 
cultural landscapes have been permanently protected through LWCF 
investments, including Gettysburg National Military Park, Martin Luther 
King Jr. National Historic Site, Canyons of the Ancients National 
Monument, and Harpers Ferry National Historic Park. Culturally 
significant projects in the fiscal year 2015 request include Ala 
Kahakai NHT (Hawaii), Rappahannock River NWR (Virginia), Agua Fria 
National Monument (Arizona) and several other national trails project. 
We strongly support the administration's request for Civil War land 
acquisition projects and American Battlefield Protection Program 
Grants.
               advisory council on historic preservation
    The National Trust supports the administration's funding request of 
$6.204 million for the Advisory Council on Historic Preservation 
(ACHP). We suggest the subcommittee include report language 
recommending the President appoint a full-time Chairman. Such a 
recommendation was made by the ACHP membership at its November, 2011 
meeting, as did a task force of historic preservation organizations, 
including the National Trust. We believe a full-time Chairman would 
enhance the effectiveness of the ACHP.
    Thank you for the opportunity to present the National Trust's 
recommendations for the fiscal year 2015 Interior, Environment and 
Related Agencies appropriations bill.
                                 ______
                                 
         Prepared Statement of the National Wildlife Federation
    On behalf of the National Wildlife Federation (NWF), the Nation's 
largest member-based conservation advocacy and education organization, 
and our more than four million members and supporters, we thank you for 
the opportunity to provide fiscal year 2015 funding recommendations for 
the Department of the Interior and other agencies under the 
jurisdiction of this subcommittee.
    We understand the difficult budget choices facing Congress and the 
Nation as we move forward under the constraints of the Budget Control 
Act of 2011 (Public Law 112-25), and applaud Congress for replacing 
part of sequestration in the Consolidated Appropriations Act of 2014. 
Disproportionate cuts to conservation programs are not consonant with 
the priorities of most Americans. These programs protect cherished 
lands and waters and conserve the natural resources that are vital to 
our Nation's continued economic vitality. Recent studies estimate that 
outdoor recreation and conservation account for $1.06 trillion in 
overall economic activity and support 9.4 million jobs each year. 
Outdoor recreation alone generates more than $49 billion in annual 
Federal tax revenue.
    NWF is concerned about proposed funding reductions to many of the 
Federal Government's programs that protect and conserve fish and 
wildlife, sustaining and restoring important ecosystems, and 
maintaining clean air and water. Perhaps of even greater concern are 
efforts to rewrite the Nation's landmark environmental laws through the 
use of policy riders on the appropriations bill. National Wildlife 
Federation urges the subcommittee to make the necessary investments in 
our essential conservation and environmental programs and commitments 
in the fiscal year 2015 appropriations bill, and to pass a bill free of 
such riders.
    National Wildlife Federation is overall supportive of the 
President's fiscal year 2015 budget request, which we view as balancing 
fiscal responsibility with continued investments in essential 
conservation and environmental programs. Following, we offer 
recommendations for specific budget items and programs.
                   i. u.s. fish and wildlife service
State and Tribal Wildlife Grants
    The State and Tribal Wildlife Grants program is the Nation's core 
program for preventing wildlife from becoming endangered in every 
State. We are extremely concerned about the impact on the Nation's 
wildlife of the nearly 30 percent cut this program has suffered in 
recent years. We urge Congress to honor its commitment to this effort 
by maintaining funding at the fiscal year 2014 enacted level of $58.695 
million.
Cooperative Landscape Conservation
    The Fish and Wildlife Service's Landscape Conservation Cooperatives 
represent an important tool for leveraging Federal, State, and private 
resources to achieve effective conservation outcomes and safeguard fish 
and wildlife resources from climate change. We urge Congress to address 
the real threats of climate change to fish and wildlife and support the 
President's request of $17.7 million for this program.
National Wildlife Refuge System
    The National Wildlife Refuge System is home to thousands of species 
of wildlife. With over 560 refuges, this system provides outdoor 
recreational and tourism opportunities for the 46.5 million Americans 
who visit refuges annually. And for every $1 invested by Congress, 
refuges generate over $4 in economic benefits to local communities. 
NWF, along with the Cooperative Alliance for Refuge Enhancement (CARE), 
endorses the President's fiscal year 2015 funding request of $476.4 
million for Operations and Maintenance for the National Wildlife Refuge 
System.
                       ii. u.s. geological survey
Climate and Land Use Change
    The USGS Climate and Land Use Change program provides research that 
allows other land management agencies to make science-based decisions 
important to resiliency and adaptation regarding climate change. We 
support the President's requested funding level of $149.1 million for 
Climate and Land Use, and of $35.5 million for the DOI Climate Science 
Centers.
Ecosystems
    The USGS Ecosystems program provides research that allows other 
land management agencies to make science-based decisions important to 
the conservation of our Nation's wildlife and the habitats they depend 
upon. We support the President's budget request of $162 million for 
this program.
                     iii. bureau of indian affairs
Trust Natural Resources Program
    The BIA Trust Natural Resources (TNR) Program represents the 
largest amount of Federal funding for tribal natural resource 
management. Over the last 12 fiscal years, funding for BIA has 
unacceptably lagged behind funding for other Interior agencies. Funding 
these programs should be a top priority of Congress for fiscal year 
2015. In addition, we fully support the fiscal year 2014 enacted level 
of $184.295 million for TNR. We are particularly supportive of the 
$9.948 million requested funding for tribal participation in the 
Cooperative Landscape Conservation program to support tribal engagement 
in climate adaptation.
                     iv. bureau of land management
National Landscape Conservation System
    The National Landscape Conservation System comprises some 27 
million acres of congressionally and presidentially designated lands 
and waters, including National Monuments, National Conservation Areas, 
Wilderness, National Scenic and Historic Trails, and Wild and Scenic 
Rivers. These lands are some of the best places to experience the rich 
history and scenic beauty of the American West. We ask Congress to 
support the President's fiscal year 2015 request of $66.5 million for 
the National Conservation Lands in order to prevent critical damage to 
the resources found in these areas, ensure proper management, and 
provide for a quality visitor experience.
Master Leasing Plan
    The Master Leasing Plan concept is a cornerstone of onshore oil and 
gas program reforms announced by the Department of the Interior in 2010 
and represent a positive step in restoring recognition of the fish and 
wildlife values on public lands. National Wildlife Federation, as part 
of the Sportsmen for Responsible Energy Development coalition, strongly 
supports the administration's requested increase of $4.6 million to 
strengthen the oil and gas leasing program within the Oil and Gas 
Management budget, $1 million of which enables the agency to perform 
regional planning for leasing and development through the Master 
Leasing Plan concept.
                   v. powering our future initiative
    The Powering our Future initiative provides resources for six 
bureaus across DOI for renewable energy planning, leasing, and 
permitting activities. The initiative presents an opportunity for the 
Nation to facilitate large-scale clean energy projects without 
compromising crucial wildlife interests and investments. It facilitates 
efficient permitting, identification and review of wind energy areas, 
and efforts to evaluate and protect the sage grouse, lesser prairie 
chickens, whooping cranes, golden eagles, and Indiana bats. NWF 
strongly supports the President's request of $94.8 million for fiscal 
year 2015, an increase of $3 million from fiscal year 2014 enacted. In 
addition, NWF supports legislative proposals, such as the Public Lands 
Renewable Energy Development Act, that would both incentivize and add 
certainty for renewable energy on public lands while paying back the 
land by providing resources for fish, wildlife, recreational 
opportunities, local communities, and States.
                        vi. u.s. forest service
Forest Fire Disaster Funding
    In recent years, the U.S. Forest Service has been forced to 
dedicate a significant amount of funds in order to pay for wildfire 
suppression. NWF supports the President's efforts to address this 
problem by including wildfire emergency funding processes in his fiscal 
year 2015 budget that are similar to those of other natural disasters. 
Currently, Federal land management agencies must shift money away from 
vital agency programs in order to fund wildfire suppression costs. This 
practice negatively impacts land management programs including those 
that decrease long-term wildfire risk and costs and the associated loss 
to wildlife, habitat and recreation. We support legislative efforts to 
rectify this practice.
Urban and Community Forestry Program
    The Urban and Community Forestry program improves the forests where 
people live, work, and play. With urban tree canopies in decline, the 
program is critical to support carbon sequestration, energy 
conservation, storm water management, and air quality, while also 
providing cooling benefits in urban areas. We support maintaining the 
fiscal year 2014 enacted level of $28.04 million.
Forest Service Research and Development
    The President's requested Research and Development budget for 
fiscal year 2015 is $18 million lower than the fiscal year 2014 enacted 
level. A reduction of this magnitude would thwart the Forest Service's 
ability to effectively work on wildlife conservation and habitat risk 
assessment. We support maintaining the fiscal year 2014 enacted level 
of $293 million.
                 vii. land and water conservation fund
    The Land and Water Conservation Fund (LWCF) is a tool for the 
Federal Government to acquire both State and Federal land that is 
important to maintaining wildlife habitat as well as open space. 
National Wildlife Federation strongly endorses the President's fiscal 
year 2015 budget request of full funding for LWCF at $900 million, with 
$550 million in mandatory funding and $350 million in discretionary 
funding. We support all efforts to ensure LWCF is funded at its maximum 
authorized level, including legislative efforts to provide robust and 
dedicated funding outside of the budget process. Likewise, NWF supports 
the President's request that $15 million goes to improving access to 
public lands for sportsmen and outdoor recreationists
                  ix. environmental protection agency
Geographic Programs--Ecosystem Restoration Initiatives
    America's Great Waters are the lifeblood of our Nation. Sustained, 
consistent restoration funding is crucial for the successful 
implementation of multi-year ecosystem restoration plans. As such, we 
strongly support the President's requested increase in funding for the 
Chesapeake Bay Program Office ($73.1 million requested, an increase of 
$3 million from fiscal year 2014 enacted) and urge the subcommittee to 
maintain funding for other regional efforts, including but not limited 
to the Long Island Sound Program and Puget Sound Programs. We are 
concerned about the significant proposed funding decrease for the Great 
Lakes Restoration Initiative, and support maintaining the fiscal year 
2014 enacted level of $300 million.
EPA National Estuary Program
    The National Estuary Program (NEP) works to restore and protect 
nationally significant estuaries. The program focuses not just on 
improving water quality, but on maintaining the integrity of the whole 
system--its chemical, physical, and biological properties, as well as 
its economic, recreational, and aesthetic values. NWF is glad to see 
funding maintained for this program, and supports the President's 
fiscal year 2015 request for $26.7 million.
Clean Water State Revolving Fund
    Since the 1970's, CWSRF projects have helped improve the quality of 
wastewater treatment in communities throughout the country. Yet the job 
is far from complete and the Nation faces trillions of dollars in 
funding needs to repair aging wastewater treatment systems and keep our 
rivers and streams pollution free. While we greatly appreciate the 
EPA's dedication to increasing green infrastructure options, we believe 
now, particularly when America's infrastructure is rated at D+ by the 
American Society of Civil Engineers, is not the time to cut resources 
from communities. NWF strongly opposes the $430.9 million proposed cut 
to this program, and urges funding at the fiscal year 2014 level of 
$1.44887 billion.
Clean Water Act 319 Nonpoint Pollution Reduction Program
    When Congress recognized the need for greater Federal leadership in 
assisting with nonpoint source pollution reduction efforts, The Clean 
Water Act was amended to establish Section 319. Continued funding for 
the Nonpoint Source Management Program will provide State and local 
nonpoint source remediation efforts with the funds that are crucial to 
the implementation of these projects. As such we recommend that the 
subcommittee increase program funding from the $164.9 million requested 
by the President to the fiscal year 2014 enacted level of $159.2 
million.
Climate & Air Pollution Reduction Programs
    NWF supports EPA's priority goal of improving the country's air 
quality and taking action on climate change. We support the requested 
$234.7 million for addressing climate change, an increase of $45.2 
million over fiscal year enacted, allowing the Agency to support a full 
range of approaches for reducing carbon pollution and the risks posed 
to human health and the environment from climate change.
National Environmental Education Act (NEEA) Programs
    EPA's Office of Environmental Education implements highly 
successful, nationwide environmental education programs. We are 
grateful for the subcommittee's support of environmental education in 
previous years and urge you to sustain funding for the National 
Environmental Education Act (NEEA) programs at the Environmental 
Protection Agency at the recent level of $9.7M.
                             x. everglades
    America's Everglades are one of the most unique ecosystems in the 
world. Protection of the remaining ecosystem and restoration of 
ecological function are critical for water supply, wildlife, water 
quality, recreation, tourism, and the economy of South Florida. A 
recent study indicates each dollar invested in restoring the Everglades 
will result in a four dollar return. Beginning in the 1980s, Congress 
made a commitment to restoring the Everglades by enacting the 
Comprehensive Everglades Restoration Plan. This subcommittee has made 
substantial progress in furthering that promise in recent years--
funding construction of a 1-mile bridge along the Tamiami Trail and 
authorizing the next phase of bridging. We urge Congress to continue 
this investment and strongly support the President's budget request for 
$62.4 million for the Everglades Comprehensive Environmental 
Restoration Plan.
                                 ______
                                 
     Prepared Statement of the National Wildlife Refuge Association
    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee: On behalf of the National Wildlife Refuge Association 
(NWRA) and its membership of current and former U.S. Fish and Wildlife 
Service (FWS) professionals, Refuge Friends organizations and concerned 
citizens, thank you for your support for the National Wildlife Refuge 
System (NWRS), particularly for the funding increase for fiscal year 
2014. NWRA appreciates the opportunity to offer comments on the fiscal 
year 2015 Interior Appropriations bill and respectfully requests the 
following:
  --$476.4 million for the Operations and Maintenance (O&M) accounts of 
        the NWRS, including $5 million for the Pacific Marine 
        Monuments;
  --$900 million for the Land and Water Conservation Fund (LWCF), with 
        $178.3 million allocated for the FWS, including $1 million for 
        Blackwater National Wildlife Refuge System (NWR) (Maryland); $1 
        million for John Chafee NWR (Rhode Island); $10 million for 
        Everglades Headwaters NWR and Conservation Area (Florida); $6.5 
        million for Silvio O. Conte National Fish and Wildlife Refuge 
        (NFWR) (Connecticut, New Hampshire, Vermont, Massachusetts); $5 
        million for Cache River NWR (Arizona); $3 million for Flint 
        Hills Legacy Conservation Area (Kansas); and $2 million for 
        Bear River Watershed Conservation Area (Wyoming, Idaho, Utah).
  --$75 million for the FWS Partners for Fish and Wildlife Program;
  --$13 million for the FWS Coastal Program;
  --$60 million for FWS for Preparedness and Hazardous Fuels Reduction 
        (under the Department of the Interior (DOI));
  --$20 million for the National Wildlife Refuge Fund;
  --$16 million for the FWS construction account;
  --$58.7 million for the State and Tribal Wildlife Grants Program;
  --$35 million for the North American Wetlands Conservation Fund;
  --$4 million for the Neotropical Migratory Bird Fund;
  --$9.1 million for the Multinational Species Conservation Fund and 
        $13.5 million for Wildlife Without Borders;
  --$7.022 million for the FWS account in the National Fish and 
        Wildlife Foundation (NFWF).
    We understand our Nation's challenging fiscal climate, but cutting 
funding to programs that are economic drivers and job creators in local 
communities would only exacerbate the already difficult situation. For 
example, the NWRS averages almost $5 in economic return for every $1 
appropriated and the Partners for Fish and Wildlife program returns 
nearly $16 for every $1 spent on projects. But budgets have not kept 
pace with rising costs, and the gap between the funding needed to 
maintain these programs and the funding appropriated has widened 
dramatically. To begin bridging that gap, NWRA urges Congress to fund 
these critical programs that leverage Federal dollars and serve as 
economic drivers.
       national wildlife refuge system--operations & maintenance
    NWRA chairs the Cooperative Alliance for Refuge Enhancement (CARE), 
a diverse coalition of 23 sporting, conservation, and scientific 
organizations representing more than 16 million Americans that supports 
increased funding for the Refuge System. CARE estimates the NWRS needs 
at least $900 million annually to manage its 150 million acres, yet it 
is currently funded at roughly half that amount--at only $3.15 per 
acre. The Refuge System cannot fulfill its obligation to the American 
public, our wildlife, and 46.5 million annual visitors without 
increases in maintenance and operation funds.
    Budget cuts over the past 4 years have had a dramatic impact on the 
Refuge System, resulting in significant declines in habitat 
preservation and management, hunting, fishing, volunteerism and 
scientific research. Between fiscal year 2010 and fiscal year 2013, the 
Refuge System faced widespread declines in measured performance: the 
acres of forest and shrubland improved declined by 51 percent; wetland 
acres restored declined by 77 percent; and riparian miles restored 
declined by 19 percent. Meanwhile, the control of invasive animal 
populations decreased by 46 percent and acres treated for invasive 
plants decreased by 37 percent resulting in a 60 percent drop in 
acreage where invasive plant control was achieved. At the Wichita 
Mountains NWR in Oklahoma, two biotech positions remain vacant, 
including a seasonal position to fight invasive species, compromising 
years of gains made against invasive species on refuge grasslands and 
leaving private lands vulnerable to the spread of invasives.
    NWRA believes it is very important for the FWS to partner with 
State agencies, through the State Wildlife Grant Program, and with 
private landowners to keep wildlife from becoming endangered. However, 
funding cuts threaten that very work. For instance, at the Imperial NWR 
in Arizona, grant funding opportunities are being bypassed due to lack 
of staff to develop proposals and oversee projects. The wildlife 
biologist vacancy at Imperial and vacancies at other refuges along the 
Colorado River prevented the refuge from applying for a Cooperative 
Recovery grant to restore 830 acres of marsh habitat, primarily for the 
endangered Yuma clapper rail. The refuges were unable to commit to the 
planning, execution, monitoring, and reporting requirements of this 
grant.
    Along the Texas coast, the Aransas NWR is home to the highly 
endangered whooping crane, yet every aspect of the refuge's work is 
impacted by budget cuts. Prescribed burning--a vital management tool to 
provide food for the cranes and treat invasive species--is down by 65 
percent this year. Unable to maintain facilities to ensure public 
safety and accessibility, the refuge has also curtailed visitor access, 
closing 12 of the 17 public facilities, including a fishing pier, 
boardwalks and photo blinds. And to top it off, the loss of visitor 
services staff has resulted in a decrease in volunteer support: last 
year volunteers donated 24,000 hours and occupied eight RV sites on the 
refuge but now only two RV sites are occupied.
    During these years of challenging budgets, the Refuge System's 
potential to drive local economies and create jobs is of paramount 
importance. Banking On Nature, a report issued by the FWS in October 
2013, shows that even during the worst recession since the Great 
Depression, the overall return on investment increased substantially 
for the Refuge System. From 2006-2011 the Refuge System saw sales and 
economic output increase 20 percent to $2.4 billion, visitation 
increase 30 percent to 46.5 million, average return on investment 
increase 22 percent to $4.87 for every $1 appropriated, and supported 
jobs increase 23 percent to 35,000. At the Ridgefield NWR in 
Washington, over $6 is returned to the local economy for every $1 
appropriated and at the Wichita Mountains NWR in Oklahoma, the refuge 
returns a whopping $44 for every $1 appropriated.
                            strategic growth
    The Land and Water Conservation Fund (LWCF) is an essential tool 
for protecting the integrity of the Refuge System and is the primary 
funding source for land and conservation easement acquisition by 
Federal land agencies.
    Increasingly, LWCF is being used to conserve working lands through 
the acquisition of easements that secure conservation protection while 
leaving the land in private ownership and on the tax rolls. 
Conservation easements are powerful tools that foster public-private 
partnerships with ranchers, farmers and foresters to conserve wildlife, 
habitat and a uniquely American way of life. Innovative landscape-scale 
initiatives using easements as a primary conservation tool have broad 
community and State support in New England's Connecticut River 
Watershed, the Flint Hills of Kansas, the Everglades Headwaters, 
Montana's Crown of the Continent, and the Dakota Grasslands. These 
iconic landscapes remain privately managed, generating tax income for 
local communities, securing our Nation's food, and balancing resource 
use and resource protection for wildlife.
    In many cases, however, land acquisition is required to conserve 
intact and functional natural habitat. The Refuge System is responsible 
for safeguarding population levels of a range of species, including 
many species that require very specific habitat conditions, such as 
nesting grounds for sea turtle and isolated springs for endemic desert 
fish. Others require multiple habitat types during their life cycle. By 
acquiring critical habitat areas and linking conserved lands, the 
Refuge System enhances the overall integrity of the system and 
strengthens our network of habitat to give wildlife space and time to 
respond to changes, whether from climate or changing land use patterns.
    The Refuge Association calls on Congress to fund LWCF at $900 
million per year, with $178.3 million provided in fiscal year 2015 to 
the FWS for conservation easements and refuge in-holdings, including 
the following projects and those advocated by refuge Friends:
  --Blackwater NWR (Maryland)--$1 million;
  --John H. Chafee NWR (Rhode Island)--$1 million;
  --Everglades Headwaters NWR & Conservation Area (Florida)--$10 
        million;
  --Cache River NWR (Arizona)--$5 million;
  --Silvio O. Conte NFWR (New Hampshire, Vermont, Massachusetts, 
        Connecticut)--$6.5 million;
  --Flint Hills Legacy Conservation Area (Kansas)--$3 million;
  --Bear River Watershed Conservation Area (Wyoming, Idaho, Utah)--$2 
        million.
                              partnerships
    With 75 percent of all fish and wildlife species dependent upon 
private lands for their survival, the Partners for Fish and Wildlife 
program (Partners Program) is one of the most powerful tools for 
protecting wildlife where it lives. By building effective partnerships 
between public agencies and private landowners to conserve America's 
expansive working landscapes, the Partners Program has implemented 
nearly 29,000 restoration projects in the past 25 years, restoring over 
one million acres of wetlands, three million acres of uplands, and 
11,000 miles of streams. The program has been instrumental in the 
success of such iconic landscape conservation projects as the Rocky 
Mountain Front and Blackfoot Challenge in Montana and the Flint Hills 
in Kansas, and is playing a key role in conserving greater sage-grouse 
habitat in the intermountain west.
    The Partners program consistently leverages Federal dollars for 
conservation, generating nearly $16 in economic return for every $1 
appropriated for projects. The Refuge Association and the landowner-led 
Partners for Conservation request $75 million for fiscal year 2015. 
Such a funding level would result in an additional $400 million worth 
of conservation across the Nation.
        commitment to refuge communities--refuge revenue sharing
    The Refuge System uses net income derived from permits and timber 
harvests to make payments to local communities to offset property tax 
revenue lost when the federally-acquired lands are removed from local 
tax rolls, and relies on congressional appropriations to the Refuge 
Revenue Sharing program to compensate for the shortfall between 
revenues and tax replacement obligations. Unfortunately, declining 
revenues and lack of appropriations have resulted in the Service paying 
less than 50 percent of its tax-offset obligations since 2001. The 
negative impact on local communities is felt even more starkly in 
difficult economic times and severely strains relations between the 
Federal units and their local community, threatening the goodwill and 
partnerships that are keystones of successful conservation. NWRA 
requests $20 million for the Refuge Revenue Sharing Program, which, in 
recognition of the President's proposal to zero out funding, is still 
less than half of what is needed. NWRA also calls for a review of the 
Refuge Revenue Sharing Act of 1935 as amended, and consideration of 
conversion to a Payment-in-Lieu of Taxes (PILT) program to be 
consistent with other Federal land management agencies and to provide 
Refuge communities with more equitable payments.
                    leveraging american volunteerism
    Refuges are vital places for the American people to actively 
connect with nature. Refuge volunteers contributed their time and 
expertise, totaling 1.4 million hours last year--the equivalent of 702 
full time staff--a 20 percent boost to the Refuge System workforce of 
3,400 employees. But this level of volunteer service is only possible 
when the System is adequately staffed to provide the necessary 
volunteer training and oversight, and smaller budgets mean cuts to 
volunteer opportunities. From fiscal year 2010 to fiscal year 2013, the 
System experienced an 8.7 percent reduction in the number of 
volunteers, at a time when the System needs their help the most to 
greet visitors, staff refuge nature stores, maintain Refuge grounds, 
provide interpretation and much more.
    NWRA believes the National Wildlife Refuge System can meet its 
responsibilities to the American people with collaboration and 
sufficient funding and we urge Congress to help the FWS meet these 
obligations.
                                 ______
                                 
      Prepared Statement of the Native Hawaiian Education Council
    Aloha Chairman Reed and members of the Senate Committee on 
Appropriations, Interior and Environment subcommittee, Mahalo, thank 
you, for allowing us an opportunity to submit this request for 
appropriations.
    We are seeking continued funding at pre-sequestration levels for 
the Native Hawaiian Education Program (NHEP) that targets the Native 
Hawaiian student population. The NHEP is an important part of 
fulfilling the trust relationship between the United States and Native 
Hawaiians, and it helps to improve the educational status of Native 
Hawaiians. It is an important element in the Native community's effort 
to control its education programs and policies and to achieve 
educational parity. NHEP aims to close the education achievement gap 
between Native Hawaiians and the general population, and also functions 
to fulfill the trust relationship between the United States and Native 
Hawaiians, the indigenous people of a once sovereign nation. During the 
time of their own sovereignty in the kingdom of Hawai`i, Native 
Hawaiians had a higher rate of literacy than citizens of the United 
States. The educational achievement gap has occurred during the 
intervening years since the loss of Native Hawaiian sovereignty, so 
that today Native Hawaiians are among the most disadvantaged groups in 
the State.
                             the nhep works
    NHEP has been effective over the years in meeting the goals of the 
program. For example, NHEA has been instrumental in preserving and 
protecting the Native Hawaiian language through funding projects that 
are designed to address the use of the Native Hawaiian language in 
instruction, one of the priorities named in the NHEA. The number of 
speakers nearly doubled in 18 years from 8,872 speakers in 1990 to 
16,864 in 2008. (Source: Office of Hawaiian Affairs Data Book 2011 
Tables 4.19 and 4.44)
    The NHEP has funded programs that incorporate culture and 
indigenous teaching practices in the classroom that lead to better 
outcomes for Native Hawaiian students. An example is the improvement in 
the graduation rates for Native Hawaiians and math and reading scores. 
Graduation rates for Native Hawaiians between 2002 and 2010 rose from 
70 percent to 72.2 percent. (Sources: Kamehameha Schools' Native 
Hawaiian Education Assessment Update 2009, Fig. 9 and Hawaii Department 
of Education (HI DOE) 2005-06 to 2009-10)
    Similarly, math and reading scores have risen for Native Hawaiians. 
The percent of Native Hawaiians scoring ``Proficient or Above'' from 
2007 to 2012 rose from 27 percent to 49 percent in math and from 41 
percent to 62 percent in reading. (Source: HI DOE Longitudinal Data 
System)
    School attendance rates in schools with student populations that 
are over 50 percent Native Hawaiian have increased from 90.1 percent in 
the 2000-01 school year to 91.3 percent in the 2011-12 school year. 
(Source: Kamehameha Schools' draft Ka Huaka`i update, p. 58)
                         the need still exists
    In spite of the gains that Native Hawaiians have made 
educationally, the need for innovative programs to assist Native 
Hawaiians to improve their academic performance still exists, since 
Native Hawaiians have not yet attained parity with the rest of the 
students in the State.
    Timely high school graduation rates for students in the State rose 
from 77 percent to 79.6 percent in the same time period that it rose 
from 70 percent to 72.2 percent for Native Hawaiians. (Sources: 
Kamehameha Schools' Native Hawaiian Education Assessment Update 2009, 
Fig. 9 and HI DOE 2005-06 to 2009-10)
    Native Hawaiians still lag behind the rest of the State in academic 
performance; however the gap between the Native Hawaiians and others is 
decreasing. From 2007 to 2012 the increase in the percentage of Native 
Hawaiians scoring ``Proficient or Above'' in math rose 22 percentage 
points, while the increase for the State during the same time period 
was 21 percentage points. The increase for Native Hawaiians in reading 
was even more dramatic during that time period, increasing 21 
percentage points compared to the State increase of only 11 percentage 
points. Unfortunately those gains were not enough to bring Native 
Hawaiians to parity. In 2012 Native Hawaiians were still 10 points 
behind the State in the percentage scoring ``Proficient or Above'' in 
math and 9 points behind in the percentage scoring ``Proficient or 
Above'' in reading.

                   PERCENT SCORING PROFICIENT OR ABOVE
------------------------------------------------------------------------
                                     2007          2012         Change
------------------------------------------------------------------------
Math:
    Native Hawaiians...........           27%           49%           22
    State totals...............           38%           59%           21
                                ----------------------------------------
      Difference...............          -11           -10
 
Reading:
    Native Hawaiians...........           41%           62%           21
    State totals...............           60%           71%           11
                                ----------------------------------------
      Difference...............          -19            -9
------------------------------------------------------------------------
Source: Hawaii DOE Longitudinal Data System.

    In the area of Native Hawaiian language immersion, although the 
gains have been tremendous, the nearly 17,000 speakers in 2008 only 
represent 6 percent of the approximately 290,000 Native Hawaiians in 
Hawai`i (2010 U.S. Census).
                         appropriations request
    The pre-sequestration appropriations level for the NHEP was $34 
million. Sequestration reduced the amount by $2 million to $32 million, 
which is the amount entered into the President's budget. For such a 
small program as the NHEP, the $2 million reduction makes a significant 
negative impact on the program. We would like to continue to make gains 
in the educational achievement of Native Hawaiians, and request the 
pre-sequestration level of $34 million so that we don't lose the 
momentum of improvement.
    NHEP funds programs to help improve the educational attainment of 
Native Hawaiians in ways that are linguistically and culturally aligned 
to the needs of our native students and communities in Hawai`i. 
Improving education, particularly for the most depressed groups, 
eventually leads to cost savings over time through decreased 
incarceration, poor health, and public assistance. (Barnett, W. S., and 
Ackerman, D. J. 2006. Costs, benefits, and the long-term effects of 
early care and education programs: Cautions and recommendations for 
community developers. Journal of the Community Development Society, 
37(2), 86-100.) Academic achievement is also correlated with positive 
economic outcomes. (Belfield, C. 2008, June. The economic investments 
of early education in Hawaii. Issue Brief. Flushing, NY: Queen's 
College, City University of New York.)
    Please help us sustain the NHEP to its pre-sequestration level in 
order to continue the educational gains that have taken this program 
years to accomplish.
                                 ______
                                 
           Prepared Statement of the Native Village of Barrow
    The Native Village of Barrow makes the following recommendations 
with regard to the fiscal year 2015 Bureau of Indian Affairs budget:
  --Fully fund Bureau of Indian Affairs contract support costs (CSC) at 
        $251 million as requested by the administration and place CSC 
        funding on a mandatory, rather than a discretionary, basis.
  --Support the administration's request for a $5 million increase for 
        social services (total of $40.8 million) and for a $5 million 
        increase for the Indian Child Welfare Act (for a total of $15.4 
        million)--called the Tiwahe Initiative.
  --Support increased funding for tribal courts.
  --Support increased flexibility for the Housing Improvement Program 
        and oppose the administration's proposed funding cut.
  --Increase the Bureau of Indian Affairs (BIA) resources for 
        Information Technology for tribes.
    About the Native Village of Barrow.--The Native Village of Barrow, 
the longest standing local government in Barrow, is a federally 
recognized tribe incorporated in 1940 under the Indian Reorganization 
Act of 1934 as amended for Alaska Natives in 1936 by the United States 
Congress. We work to meet a variety of tribal members needs including 
adult basic, secondary, and higher education; realty; wildlife; 
housing; Indian reservation roads; social services and child 
protection; environmental protection; and economic development. We 
provide these services through a Self-Governance funding agreement with 
the Bureau of Indian Affairs, various grants, and pull-tab gaming.
    The Village of Barrow is situated within the North Slope Borough at 
the northern most tip of Alaska, 340 miles north of the Arctic Circle 
and only a few miles southwest of Point Barrow where the Beaufort and 
Chuckchi Seas join. We have a polar climate, dry and cold, with 
temperatures below freezing from early October through late May. The 
sun stays below the horizon from November 18 or 19 through January 22 
or 23, and on the winter solstice there is twilight for only 3 hours.
    Contract Support Costs.--We thank Congress, and particularly the 
Interior, Environment and Related Agencies Subcommittee, for your 
leadership in making it clear to the BIA and the Indian Health Service 
(IHS) that fully funding contract support costs (CSC) is a legal duty 
and for providing what we estimate is full funding for fiscal year 
2014. Congress has asked tribes and tribal organizations, the BIA, IHS, 
the Office of Management and Budget and the relevant congressional 
committees to work together to come up with a long term solution to 
meet the legal requirements for contract support costs and to also 
streamline the CSC determination process. We join with others in Indian 
Country in feeling that the next logical step is for Congress to put 
CSC funding on a mandatory, rather than a discretionary, basis.
    Social Services and Tribal Courts Funding.--The Native Village of 
Barrow's court has jurisdiction over an array of child welfare and 
juvenile wellness matters. Our social services office services to a 
population of 3,400 with only a handful of staff. We support the 
administration's request of an increase of $5 million in the BIA budget 
for more social workers and for an additional $5 million for tribal 
Indian Child Welfare Act (ICWA) programs. Together the BIA has termed 
this the Tiwahe (the Lakota work for family) Initiative. While these 
funds do not represent direct funding for tribal courts, the work of 
social workers and improved implementation of the ICWA would have 
positive implications for the work of our and other tribal courts.
    Of the children in Alaska, 17.3 percent are American Indian/Alaska 
Native, but they constitute 51.1 percent of children in foster care in 
the State (Summer A., Woods S., and Donovan, J (2013). Technical 
assistance bulletin: disproportionality rates for children of color in 
foster care. Reno, Nevada: National Council of Juvenile and Family 
Court Judges.) The Native Village of Barrow Social Services Department 
has partnerships with a number of entities including Barrow Tribal 
Court, Arctic Women in Crisis, and the State of Alaska, among others 
and we need to continue building these collaborative efforts. We have 
Memorandum of Understanding with the State regarding the Indian Child 
Welfare Act.
    For tribal courts specifically, the administration proposes level 
funding in the BIA budget ($23.3 million). Given the impact of the 
Violence Against Women Act (VAWA), the Tribal Law and Order Act (TLOA) 
and the recommendations of the TLOA Commission, a significant increase 
over $23 million is certainly in order. In addition there may well be 
an amendment enacted to the VAWA that will authorize extended domestic 
violence jurisdiction to tribes in Alaska for which we will definitely 
need additional resources.
    Housing Improvement Program (HIP).--The administration proposes 
only $8 million for the Bureau of Indian Affairs' HIP program, about 
the same as the fiscal year 2014 enacted level but 36 percent below the 
fiscal year 2013 pre-sequestration level of $12.5 million. The Native 
Village of Barrow does not receive HIP funds, finding the requirements 
for things including surveys prohibitively expensive when one compares 
it to the small HIP grants. The BIA states in its fiscal year 2015 
Budget Justification that they want to ``recommend a redesign of the 
Program'' in 2014 and point especially to the inclusion in the program 
of young families, of tribes expanding eligibility criteria, and re-
establishing a down payment assistance category (pp IA-HS-8-9). This is 
quite ambitious for a program that the administration last year tried 
to zero out, but we encourage that in redesigning the program that the 
cost of compliance with eligibility criteria not outstrip the funding 
it might provide.
    Information Technology.--It is almost impossible to identify in the 
BIA budget what is available for tribes in the area of information 
technology, but it is something for which we need additional 
assistance. Under Tribal Government Oversight $8.2 million is requested 
which, among other things, provides technical assistance to nearly 
3,200 self-determination contracts (pp. IA-TG-6-7). There is also 
funding in the BIA budget request for $546,000 for Interior Department 
Information Technology Transformation through the Department's Working 
Capital Fund ((IA-ES-13), but we are not aware that these are funds 
that directly assist tribes. We ask that the Interior Appropriations 
Subcommittee inquire the sources and amounts of funds for information 
technology assistance to tribes.
    Thank you for your consideration of our requests.
                                 ______
                                 
              Prepared Statement of the Nature Conservancy
    Chairman Reed, Ranking Member Murkowski and members of the 
subcommittee, thank you for the opportunity to submit recommendations 
for fiscal year 2015 appropriations. The Nature Conservancy (TNC) is an 
international, non-profit conservation organization working around the 
world to protect ecologically important lands and waters for nature and 
people. Our mission is to conserve the lands and waters upon which all 
life depends.
    As we enter the fiscal year 2015 budget cycle and another year of a 
challenging fiscal environment, the Conservancy continues to recognize 
the need for fiscal austerity. The Conservancy also wishes to thank 
this subcommittee for the final fiscal year 2014 funding levels for 
Department of Interior and U.S. Forest Service conservation programs. 
Our budget recommendations this year reflect a balanced approach with 
funding levels consistent with the President's budget request or, in 
rare instances such as wildland fire or funding for the States, reflect 
specific program needs. Of particular note, we wish to work with this 
subcommittee and the authorizing committees on identifying permanent 
funding solutions for wildfire funding, the Land and Water Conservation 
Fund and the Payment in Lieu of Taxes Program. The Conservancy is 
concerned about the increasing impacts of wildfire suppression funding 
on Interior funding levels and urge the subcommittee to adopt the 
bipartisan and widely supported Wildfire Disaster Funding Act (S. 1875; 
H.R. 3992). This process of funding suppression for the Department of 
the Interior and the USDA Forest Service will create budgetary 
stability and accountability while liberating critically needed 
appropriations funds within the Interior allocation.
    Land and Water Conservation Fund (LWCF).--The fiscal year 2015 
President's budget proposes the establishment of a dedicated source of 
long-term funding for the Land and Water Conservation Fund. In the 
proposal, the President's budget includes $350 million for LWCF 
activities through ``current authority'' or discretionary 
appropriations and then an additional $550 million in ``permanent 
authority'' for LWCF funding. The budget then proposes to reach the 
$900 million funding level in fiscal year 2015 through this blend of 
current and permanent funding. The Conservancy supports this phased 
shift to mandatory funding for the LWCF Program. However, consistent 
with last year and as noted above, we believe the administration must 
work closely with the relevant appropriations and authorizing 
committees to move this proposal forward. Additionally, the Conservancy 
supports the ongoing emphasis in the budget on both ``core'' projects 
and ``collaborative'' LWCF projects. Projects in the Longleaf Pine 
region will benefit greatly from this collaborative emphasis, along 
with projects in the California Southwest Desert, Upper Rio Grande, the 
High Divide and National Trails. Our ``core'' and ``collaborative'' 
priorities this year include the Nez Pearce National Historic Trail/
Henrys Lake ACEC (Idaho), Francis Marion National Forest (South 
Carolina), Silvio O. Conte NFWR (New Hampshire/Vermont/Connecticut/
Massachusetts), and the working ranches of Florida's Everglades 
Headwaters NWR & Conservation Area, North Dakota and South Dakota's 
Dakota Grasslands Conservation Area, Montana's Rocky Mountain Front 
Conservation Area and Kansas's Flint Hills Legacy Conservation Area.
    Forest Legacy.--We support a minimum of $53 million for the Forest 
Legacy Program in current discretionary funding and the $47 million in 
permanent funding (with our aforementioned caveats) with a focus on 4 
projects--Hall Mountain (Idaho), Carter Mountain (Tennessee), Clear 
Creek Conservation Project (Montana) and Lake Alexander (Minnesota).
    Endangered Species.--The Conservancy supports a funding level of at 
least $50 million for the Cooperative Endangered Species Conservation 
Fund (CESCF), and also requests the subcommittee give consideration to 
the additional fiscal year 2015 President's budget request of $50 
million in permanent funding per our earlier request for negotiations 
to occur between the administration and relevant congressional 
committees on a path forward for this funding.
    Colorado River Basin Recovery Programs.--The Conservancy supports 
the President's fiscal year 2015 budget request of $5.05 million for 
USBR and $1.39 million for FWS for the Colorado River Basin recovery 
programs, including endangered species funding for the Upper Colorado 
River Endangered Fish Recovery Program, recovery funds for the San Juan 
River Basin Recovery Implementation Program, and fish hatchery needs 
associated with the recovery plans.
    Wildlife Planning.--The Conservancy supports the Western Governors' 
Association's (WGA) request for the subcommittee to consider issuing a 
recommendation to land management agencies within its jurisdiction to 
utilize State fish and wildlife data and analyses to inform the land 
use, land planning and related natural resource decisions of those 
agencies. As an example of strong State-led data systems, WGA has 
partnered in recent years with State wildlife agencies and the Federal 
Government to develop statewide GIS mapping tools to identify crucial 
wildlife habitat and migratory corridors. These geospatial mapping 
tools, which provide access to credible, broad-scale scientific data--
compiled and analyzed by the States--are designed to reduce conflicts 
and surprises while ensuring wildlife values are better incorporated 
into land use planning, particularly for large-scale linear projects. 
WGA launched its West-wide GIS mapping tool called CHAT (Crucial 
Habitat Assessment Tool) in December 2013. CHAT is a non-regulatory 
decision-support system that knits together State wildlife data and 
analysis on a regional landscape level using a common framework. Our 
Arizona TNC Chapter has been very integrated in the development and 
enhancement of the Arizona data system (HabiMap)--a decision support 
system--which is the basis for our work on mitigation, habitat 
assessments and land planning in the State.
    Invasive Species.--The Conservancy supports the President's fiscal 
year 2015 Budget request of $138.9 million for the FWS' Fisheries and 
Aquatic Resource Conservation program, including $4.4 million to 
address the invasion of Asian carp in the Great Lakes and priority 
watersheds, including the Missouri, Ohio and Upper Mississippi River.
    State Wildlife Grants.--The Conservancy requests the fiscal year 
2014 funding level--$58.695 million--for this program. Strong Federal 
investments are essential to ensure strategic actions are undertaken by 
State and Federal agencies and the conservation community to conserve 
wildlife populations and their habitats. We are concerned about the 
impact of the fiscal year 2015 proposed cut on State fish and wildlife 
agencies nationally and request these funds be restored to the fiscal 
year 2014 level.
    Wildlife Conservation Programs.--The variety of wildlife 
conservation programs conducted by FWS continue a long and successful 
tradition of supporting collaborative conservation in the United States 
and internationally. We urge the subcommittee to fund the President's 
request for such established and successful programs as the North 
American Wetlands Conservation Fund (NAWCA), Neotropical Migratory Bird 
Conservation Fund (NMBCA), and the FWS Coastal Program. We support the 
President's request for the Migratory Bird Joint Ventures and the FWS 
Migratory Bird Management Program. For the latter, we are particularly 
supportive of FWS' efforts at developing updated eagle permitting 
regulations which will both support the development of renewable energy 
in our country and contribute to sustainable and growing populations of 
these iconic North American species. We support the President's fiscal 
year 2015 request for the Partners for Fish and Wildlife Program and 
the requested increase in funding for Cooperative Landscape 
Conservation ($17.7 million) and Adaptive Science ($15.1 m). The latter 
will help support the Department of the Interior's (DOI) overall 
commitment to Landscape Conservation Cooperatives and will contribute 
to collaborative problem solving for some of our Nation's most 
challenging issues. We also request strong funding this year for the 
National Fish Habitat Initiative.
    International Programs.--The international conservation programs 
appropriated annually within the Department of Interior are relatively 
small but are effective and widely respected. They encompass the U.S. 
Fish & Wildlife Service's (FWS) Multinational Species Conservation 
Funds, the FWS Wildlife Without Borders regional and global programs, 
the U.S. National Park Service International Program, and the U.S. 
Forest Service International Program (USFS-IP). We urge that these 
programs receive in fiscal year 2015, at a minimum, level funding with 
fiscal year 2014.
    Climate Change.--The Conservancy appreciates the President's 
commitment to respond to the global climate challenge, and this 
subcommittee's sustained leadership in supporting cooperative, science-
based programs to respond to the global climate challenge and to help 
ensure resilient land and seascapes.
    National Wildlife Refuge System.--The Conservancy supports the 
Cooperative Alliance for Refuge Enhancement Coalition's request, 
consistent with the President's fiscal year 2015 Budget, of $476.4 
million for the Refuge System's Operations and Maintenance accounts. 
Found in every U.S. State and territory, national wildlife refuges 
conserve a diversity of America's environmentally sensitive and 
economically vital ecosystems, including oceans, coasts, wetlands, 
deserts, tundra, prairie, and forests. This represents the funding 
necessary to maintain management capabilities for the Refuge System.
    USFS & DOI Wildland Fire Management.--The President's fiscal year 
2015 budget proposes language similar to the Wildfire Disaster Funding 
Act (WDFA--S. 1875; H.R. 3992) which would fund a portion of the USDA 
Forest Service (USFS) and the Department of the Interior (DOI) wildfire 
suppression costs through a budget cap adjustment under the Balanced 
Budget and Emergency Deficit Control Act of 1985, as amended. The 
enactment of WDFA would not only significantly reduce the need for the 
USFS and DOI to transfer but also provide the subcommittee with added 
flexibility to allocate funding for activities that reduce fire risk 
and long-term suppression costs. The Conservancy supports adopting this 
language and funding suppression in fiscal year 2015 accordingly. The 
Conservancy appreciates Congress' emphasis on proactive hazardous fuels 
reduction and community preparedness along with a commitment to safe 
and cost-effective wildfire response strategies. In light of this 
approach and with the enactment of WDFA, the Conservancy recommends 
investing in Hazardous Fuels at levels of $479 million and $178 million 
for USFS and DOI, respectively, and repeating the subcommittee's fiscal 
year 2012 instructions for allocating funds to priority landscapes in 
both the wildland-urban interface (WUI) and wildland settings. We also 
recommend the USFS State Fire Assistance program be funded at $86 
million.
    USFS Collaborative Forest Landscape Restoration.--The Conservancy 
recommends increasing funding for the Collaborative Forest Landscape 
Restoration Program to $60 million for the existing 23 and new 
projects. This important program works to restore large forest 
landscapes, provide jobs that sustain rural economies, reduce the risk 
of damaging wildfire, improve wildlife habitat and decommission unused, 
damaging roads. The Conservancy also recommends supporting the 
Landscape Scale Restoration proposal funded at $24 million.
    Integrated Resource Restoration (IRR).--The Conservancy appreciates 
the subcommittee support of the Integrated Resource Restoration pilot 
and continue to follow its implementation with the outcome expectation 
of increased restoration. The Conservancy believes it is premature to 
nationalize the IRR pilot, but supports continuation of the pilot for a 
fourth year.
    USFS Forest Health & Research.--The Forest Health program is a 
critical resource supporting efforts to prevent, contain, and eradicate 
dangerous pests and pathogens affecting trees and forests. Further, 
this program leads Federal efforts to counter forest pests which have 
become widespread, including gypsy moth, hemlock woolly adelgid, white 
pine blister rust, thousand cankers disease, oak wilt, and many others. 
The Conservancy recommends funding the Federal and cooperative Forest 
Health programs at a combined level of $111 million. The Forest and 
Rangeland Research program provides the scientific basis for policies 
that improve the health and quality of urban and rural communities, by 
providing protection from fire, detecting and managing forest pests and 
the pathways, improving water and air quality, among many other 
benefits. For Forest & Rangeland Research, the Conservancy requests the 
fiscal year 2012 level of $304 million.
    Sage Grouse Conservation.--The Conservancy supports the President's 
fiscal year 2015 budget request of $15 million for the Bureau of Land 
Management's (BLM) focus on sage grouse conservation. Greater sage-
grouse populations have experienced a precipitous decline across the 
West in recent years due to a number of impacts and a well-aligned 
comprehensive effort is needed across public and private lands to 
reverse its decline.
    BLM Landscape Approaches to Land Management and Renewable Energy 
Development.--The Conservancy supports the administration's recommended 
fiscal year 2015 funding for BLM's initiatives to implement landscape 
approaches to land management which include Rapid Ecoregional 
Assessments, Resource Management Planning and the Planning 2.0 
initiative, Regional Mitigation Planning, coordination with LCCs, and 
the Assessment, Inventory, and Monitoring (AIM) Strategy. Many BLM 
programs contribute to these cross-cutting initiatives including: 
National Landscape Conservation System--($34 million request, $2.1 
million increase over fiscal year 2014); Resource Management Planning 
program ($42 million request, $5 million increase over fiscal year 
2014); Wildlife and Fisheries management (65.2 million request); and 
Threatened & Endangered species management ($21.6 million request). 
Additionally, the Conservancy supports continued funding for BLM's 
renewable energy development program at $29.1 million which includes 
implementation of the Western Solar Energy Program. Collectively, these 
efforts will help BLM manage its lands efficiently and effectively for 
energy development, species and habitat conservation, recreation, and 
other uses to maximize the public benefit from these lands.
    Environmental Protection Agency.--EPA's ``geographic'' programs 
including the Chesapeake Bay, Great Lakes, Gulf of Mexico, Puget Sound 
and Mississippi River programs make a significant contribution to 
protecting habitat and water quality in the large landscapes where they 
work. The Conservancy urges the subcommittee to continue funding for 
these programs at the fiscal year 2014 enacted level at a minimum.
    Thank you for the opportunity to present The Nature Conservancy's 
recommendations for the fiscal year 2015 Interior, Environment and 
Related Agencies Appropriations Bill.
                                 ______
                                 
                Prepared Statement of the Navajo Nation
                                                     April 1, 2014.
Hon. Jack Reed, Chairman,
Hon. Lisa Murkowski, Ranking Member,
Subcommittee on Interior, Environment, and Related Agencies, Committee 
        on Appropriations, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.

    Dear Chairman Reed and Senator Murkowski: I am requesting your 
support for fiscal year 2015 appropriations to the Fish and Wildlife 
Service (FWS) for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program 
consistent with the President's recommended budget. I request that the 
subcommittee:

  --Appropriate $706,300 in ``Conservation and Restoration'' funds 
        (Resource Management Appropriation; Ecological Services 
        Activity; Conservation and Restoration Subactivity within the 
        $124,253,000 item entitled ``Conservation and Restoration'') to 
        the U.S. Fish and Wildlife Service (FWS) to allow FWS for 
        fiscal year 2015 to continue its essential participation in the 
        Upper Colorado River Endangered Fish Recovery Program.
  --Appropriate $200,000 in FWS ``Conservation and Restoration'' funds 
        for the San Juan River Basin Recovery Implementation Program to 
        meet expenses incurred by FWS's Region 2 in managing the San 
        Juan Program's diverse recovery activities.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $48,617,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.

    I request the subcommittee's assistance in assuring fiscal year 
2015 funding to allow the FWS to continue its financial and personnel 
participation in these two vitally important recovery programs. I 
recognize and appreciate that the past support and assistance of your 
subcommittee has greatly facilitated the success of these ongoing 
efforts.
            Sincerely,
            Stanley M. Pollack, Assistant Attorney General,
            Water Rights Unit, Navajo Nation Department of Justice.
                                 ______
                                 
       Prepared Statement of the New England Forest Policy Group
    Mr. Chairman, and distinguished members of the subcommittee, we are 
grateful for the opportunity to submit testimony today on behalf of the 
New England Forest Policy Group and the 85 conservation, forestry, and 
recreation interests listed below.
    We respectfully request an increase in overall funding for the Land 
and Water Conservation Fund to the Authorized level of $900 million, 
including $100 million for the Forest Legacy Program, $574.883 million 
for the Federal LWCF, $100.117 million for the State Grants Program, 
and $25 million for the Urban Park and Recreation Fund in the fiscal 
year 2015 Interior and Environment Appropriations bill. We also 
respectfully request a minimum of $5 million for the Community Forest 
and Open Space Conservation Program, $34.145 million for the North 
American Wetlands Conservation Act, $58.7 million for the State and 
Tribal Wildlife Grants Program, $10 million for the Recreational Trails 
Conservation Assistance Program, $31 million for Urban & Community 
Forestry, $48 million for the Cooperative Forest Health Program, $29 
million for Forest Stewardship, and $15 million for Woody Biomass 
Utilization Grants.
    These levels are based upon the administration's proposed fiscal 
year 2015 budget or level funding from fiscal year 2014, whichever 
amount is larger. In a few select cases they reflect the priority needs 
of New England to grow an underfunded program--most notably the 
Community Forest Program--to a level that will begin supporting the 
demonstrated need. The suite of conservation and forestry programs in 
this testimony has proven to provide great benefits to the communities 
of New England that depend upon our region's forests and to the Nation 
as a whole. Anything less than the requested funding will impact the 
effectiveness of the programs, particularly given that many of these 
programs have already experienced notable funding declines over the 
past 5 years.
    The New England Forest Policy Group is an informal collaborative of 
diverse forestry, recreation, and conservation organizations and 
businesses united by our efforts to conserve and utilize the forested 
landscapes that characterize our region. New England's forests are the 
backbone of our forest products and recreation economies, and provide 
other services of incalculable value including water and biodiversity 
protection, climate mitigation, and flood resilience. As the most 
forested region in the country, New England's economy is strongly 
dependent on the health and integrity of its forests. Communities 
across the region depend on our wooded landscapes for their health and 
well being, as do the 60 million people within a days drive. New 
England's forests are 85 percent privately owned, mostly in relatively 
small parcels, and landowners are facing profound challenges from 
rising land prices, escalating development pressures, and other threats 
that have the potential to significantly diminish this irreplaceable 
landscape.
    We strongly believe that programs vital to our region's future must 
be sustained, including forest conservation and stewardship, 
recreational planning, and utilization of our forests in new and 
innovative ways. New England has compelling need for the programs in 
front of your subcommittee.
    As the subcommittee crafts its Interior & Related Agencies 
Appropriations bill, there are several key points we respectfully 
request you to consider:

    1. Overall Funding for the Land and Water Conservation Fund (LWCF) 
at $900 million.--Funding at the recommended $900 million is critical 
for the conservation of the natural legacy of New England and the 
country. All six New England States will receive funding for critically 
important LWCF projects if the requested level of $900 million is 
provided in fiscal year 2015. If this amount is not supported, many 
opportunities will be lost.

    2. New England Needs for Federal Land Acquisition under LWCF.--In 
fiscal year 2015, less than half of New England's proposed projects are 
found in the highest priority ``Discretionary'' sections, which means 
that more than half of New England's fiscal year 2015 LWCF projects are 
not likely to receive funding unless close to full funding is 
appropriated.

          a. National Park Service LWCF Acquisitions--Collaborative 
        Landscape Planning for National Trails at $25 million total 
        ($11.2 million Discretionary & $13.8 million Mandatory), 
        including $3.76 million for the Appalachian National Scenic 
        Trail in New Hampshire & Vermont and $0.25 million for the New 
        England National Scenic Trail in Massachusetts.--The proposed 
        fiscal year 2015 LWCF funds are necessary for conserving and 
        expanding two iconic trail corridors in New England--the 
        Appalachian National Scenic Trail and the New England National 
        Scenic Trail. New England's outdoor recreation economy is worth 
        approximately $43 billion/year and supports more than 330,000 
        jobs, according to the Outdoor Industry Association. In 
        addition, our region's trails provide healthy recreation for 
        the people who live here and necessary urban respite for more 
        than 60 million people overall.

          b. U.S. Fish and Wildlife Service LWCF Acquisitions--The 
        Silvio O. Conte National Fish and Wildlife Refuge at $5 Million 
        ($2 million Discretionary & $3 million Mandatory).--Securing 
        protection of these ecologically rich watersheds and habitat 
        corridors is a top regional priority. The Conte refuge 
        encompasses the Connecticut River watershed--a critical four-
        State habitat corridor and a treasure trove of ecological 
        diversity, recreation, and economic opportunity.

          c. National Park Service LWCF Acquisitions--Acadia National 
        Park at $0.76 million (Mandatory).--This project will secure an 
        inholding that provides high priority access and protection to 
        the paddling gem, Round Pond, on the west side of Mount Desert 
        Island.

    3. US Forest Service Programs of Special Importance to New 
England--USFS Forest Legacy and USFS Community Forest Program.--These 
two programs in the Interior Appropriations bill are particularly 
important to New England given our region's high percentage of private 
forestland ownership and the intense development pressures on these 
lands.

          a. USFS Forest Legacy needs full $100 million Appropriation 
        to meet New England's needs.--Forest Legacy has protected more 
        than 1 million acres of forestland in New England since its 
        establishment in the 1990 Farm Bill--a remarkable and vital 
        accomplishment. Originally created to help address needs in New 
        England and New York, this highly successful program has 
        expanded to 53 States and territories without expanding the 
        available funding. $100 million would provide a solid start 
        toward rebalancing available funds to the number of States now 
        in the program and the rising number of applications and 
        pressing conservation need.

          New England has an outstanding group of Forest Legacy 
        Projects in the Proposed fiscal year 2015 budget, including 2 
        of the top 10 projects nationally and 4 of the top 20 projects 
        in the national rankings. However, the Program must receive the 
        full $100 million requested to ensure that all of New England's 
        projects are retained. New England's full fiscal year 2015 
        interests include:

    --$4.56 million in ``Discretionary'' Forest Legacy funding for 
            Dowsville Headwaters in Vermont; Gulf Hagas Whitecap in 
            Maine; and partial funding for Whip-Poor-Will Woods in 
            Connecticut.
    --$11.955 million in less secure ``Mandatory'' Forest Legacy 
            funding for Whip-Poor-Will Woods in Connecticut (project 
            funding is divided between Mandatory and Discretionary 
            lists); Groton Forest Legacy Initiative in Vermont; Big Six 
            Forest in Maine; Connecticut to Quabbin Reservoir in 
            Massachusetts; Windham Region Working Forest in Vermont; 
            and Oliverian Valley in New Hampshire.

          b. USFS Community Forest Program needs a minimum of $5 
        million.--The Community Forest Program is a 50-50 matching 
        grant program to help local governments, tribes, and non-profit 
        organizations expand the region's proud tradition of locally 
        owned and managed lands, such as town forests. The program has 
        drawn strong interest nationally--in its first grant round in 
        fiscal year 2012, the program drew 49 applications from across 
        the country seeking $14.53 million. This was far beyond the 
        available funding of $3.5 million, which included funding 
        pooled from fiscal year 2010, 2011, and 2012 appropriations. 
        Funding the Community Forest Program at the $5 million level 
        will much better match demand. Although this program is 
        somewhat small on a national budgetary scale, it is critical to 
        New England's community character and economic vitality.

    4. North American Wetland Conservation Act (NAWCA) needs 
administration's full request of $34.145 million.--The U.S. Fish and 
Wildlife Service's premier wetland conservation program for habitat 
protection and restoration, NAWCA, is vitally important for our region. 
New England's remarkable marshes and coastal and estuarine habitats 
support the region's commercial and sport fisheries and myriad wildlife 
species. These lands are also important to protecting coastal 
communities--a priority with the memory of events like Hurricane Irene 
and Superstorm Sandy still fresh. This funding is vital to support New 
England projects that conserve critically important wetland areas and 
improve flood resiliency.

    5. State and Tribal Wildlife Grants Program (SWG) at $58.7 
million.--This important U.S. Fish and Wildlife Service program 
provides Federal grant funds for developing and implementing programs 
that benefit wildlife and their habitats, including species not hunted 
or fished, and provides core funding for research, habitat restoration, 
and monitoring under the State Wildlife Action Plans. $58.7 million 
will keep funding level and ensure that States are not forced to make 
deep cuts into this critical work. Keeping species off the Endangered 
Species list helps landowners and is critical to the work of State Fish 
& Wildlife Agencies and to the 36 species on the eastern list.

    6. Rivers and Trails Conservation Assistance Program (RTCA) at $10 
million.--RTCA partners to protect 700 miles of rivers, create 1,300 
miles of trails, and conserve over 60,500 acres of open space annually. 
RTCA allows the U.S. National Park Service (NPS) to support private 
conservation organizations as well as local and State governments, 
usually in coalition, to foster important recreation, river protection, 
and land conservation efforts without the permanently adding lands and 
trails to Federal ownership.

    7. Cooperative Forestry Program (including Urban & Community 
Forestry at $31 million, Cooperative Forest Health at $48 million, 
Forest Stewardship at $29 million).--These programs fund landowner 
services provided by State Foresters and Cooperative Extension 
Foresters. The proposed funding levels reflect the critical needs for 
the Nation's private forestlands as recommended by the National 
Association of State Foresters. Levels lower than these will result in 
curtailing of vital services that help family forest landowners 
sustainably manage and protest their land--of real concern in a New 
England landscape that is predominantly in private family ownership. 
The programs provide key educational services to landowners and 
communities, and help ensure that our forested landscape remains 
healthy, resilient, and economically viable.

    8. Woody Biomass Utilization Grants Program at $15 million.--This 
program (which now includes the Community Wood Energy Program) will 
help communities use their wood resources for renewable energy. It 
funds grants to develop community wood-to-energy plans and acquire or 
upgrade wood-based energy systems. This program is ripe to benefit our 
forest-based communities.

    9. Urban Park and Recreation Fund (UPARR) at $25 million (funded by 
LWCF's Mandatory Section).--UPARR provides matching grants and 
technical assistance to urban communities. It helps provide Federal 
assistance for rehabilitation of critically needed recreation 
facilities and recreation planning. This program is essential to 
support healthy living and vibrant urban communities.

    In closing, we thank the subcommittee for your continuing 
leadership on Federal land conservation matters and for the opportunity 
to provide this testimony. Signatory organizations represented by this 
testimony:

Ammonoosuc Conservation Trust (New Hampshire)
American Rivers
Androscoggin River Watershed Council
Appalachian Mountain Club
Aspetuck Land Trust (Connecticut)
Audubon Connecticut
Audubon Society of Rhode Island
Audubon Vermont
Back Forty Forestry, LLC
Bear-Paw Regional Greenways (New Hampshire)
Brookfield Open Space Legacy (Connecticut)
Cold Hollow to Canada (Vermont)
Columbia Land Conservancy (New York)
Connecticut Fund for the Environment/Save the Sound
Connecticut Land Conservation Council
Connecticut River Watershed Council
Connecticut Forest & Park Association
Connecticut Ornithological Association
Conservation Collaboratives, LLC
The Conservation Fund
Conservation Law Foundation
Damariscotta River Association (Maine)
East Quabbin Land Trust (Massachusetts)
Essex County Greenbelt Association (Massachusetts)
Fairfield County Regional Conservation Partnership (Connecticut)
Forest*Care (Vermont)
Forest Society of Maine
Forestland Group, LLC
Franklin Land Trust (Massachusetts)
Friends of the Rachel Carson NWR (Maine)
Friends of the Silvio O. Conte NFWR (New Hampshire, Vermont, 
Massachusetts, Connecticut)
Friends of Pondicherry (New Hampshire)
Greater Lovell Land Trust (Maine)
Green Mountain Club (Vermont)
Highstead
Housatonic Valley Association (Massachusetts, Connecticut, New York)
Kennebec Estuary Land Trust (Maine)
Litchfield Hills Greenprint Collaborative (Connecticut)
Lower Connecticut River Valley Council of Governments (Connecticut)
Lyme Timber Company
Mahoosuc Land Trust (ME)
Maine Appalachian Trail Land Trust
Maine Coast Heritage Trust
Mass Audubon
Massachusetts Land Trust Coalition
Massachusetts Woodlands Institute
Meadowsend Timberlands, Ltd (New Hampshire)
Mill River Greenway Initiative (Massachusetts)
Monson Conservation Commission (Massachusetts)
Mount Grace Land Conservation Trust (Massachusetts)
Mt. Agamenticus to the Sea Conservation Initiative (ME)
Natural Resources Council of Maine
The Nature Conservancy
New England FLOW
New England Forestry Foundation
New England Mountain Bike Association
New England Wild Flower Society
New Hampshire Audubon
New York Biomass Energy Alliance
North Woods Resource Group, Inc. (Vermont)
Northern Forest Center
Northern Forest Canoe Trail
Northern Rhode Island Conservation District
Northland Forest Products, Inc.
Rangely Lakes Heritage Trust (Maine)
Open Space Institute
Quabbin to Cardigan Partnership (Q2C)
Redding Conservation Commission (Connecticut)
Rensselaer Plateau Alliance (New York)
RI Woodland Partnership
Ridegefield Conservation Commission (Connecticut)
Sheepscot Wellspring Land Alliance (Maine)
Shelburne Trails Club (New Hampshire)
Society for the Protection of New Hampshire Forests
Sudbury Valley Trustees (Massachusetts)
Trust for Public Land
Trustees of Reservations (Massachusetts)
Vermont Land Trust
Vermont Renewable Fuels
Vermont River Conservancy
Vermont Woodlands Association
Whipstock Hill Preservation Society (Vermont)
Wildlands Trust (Massachusetts)
Wonalancet Preservation Association (New Hampshire)
                      
                                 ______
                                 
               Prepared Statement of the Nez Perce Tribe
    Honorable Chairman and members of the subcommittee, thank you for 
the opportunity to provide testimony from the Nez Perce Tribe to this 
subcommittee as it evaluates and prioritizes the spending of the United 
States regarding the Indian Health Service (IHS), the Bureau of Indian 
Affairs (BIA), the Environmental Protection Agency (EPA), the Forest 
Service and the Fish and Wildlife Service in relation to the needs of 
tribal nations for fiscal year 2015.
    As with any government, the Nez Perce Tribe does a wide array of 
work and provides a multitude of services to the tribal membership as 
well as the community at large. The Nez Perce Tribe has a health clinic 
with a satellite office, a tribal police force, a social services 
department, a comprehensive natural resource program that does work in 
forestry, wildlife management, land services and land management, 
habitat restoration, air quality and smoke management, water quality 
and sewer service, and one of the largest fisheries departments of any 
tribe in the Nation working on recovery of listed species under the 
Endangered Species Act. The Nez Perce Tribe conducts its extensive 
governmental functions and obligations through a comprehensive 
administrative framework, which is necessary for a sovereign nation 
that oversees and protects the treaty rights of the Nez Perce People in 
addition to providing the day to day governmental services to its 
members and the surrounding communities. The Nez Perce Tribe has long 
been a proponent of self determination for tribes and believes its 
primary obligation is to protect the treaty-reserved rights of the Nez 
Perce Tribe and its members. All of the work of the tribe is guided by 
this principle. As a result, the tribe works extensively with many 
Federal agencies and proper funding for those agencies and their work 
with, for and through tribes is of vital importance. This work cannot 
be accomplished unless the United States continues to affirm and follow 
through on its trust responsibility and properly fund programs.
                         indian health services
    The Nez Perce Tribe currently operates a healthcare clinic on the 
Nez Perce Reservation, Nimiipuu Health. The main clinic facility is 
located in Lapwai, Idaho and a satellite facility of the main clinic is 
located 65 miles away in Kamiah, Idaho. Nimiipuu Health provided 
service to 3,820 patients last year. These 3,820 patients represented 
47,673 visits which does not include pharmacy and laboratory visits but 
only medical provider visits. Our expenditure total for fiscal year 
2013 was $13,489,355. Our Purchased/Referred Care costs for outpatient 
services for fiscal year 2013 was $4,320,830.
    Although the Nez Perce Tribe supports the proposed $200 million 
increase in funding over the fiscal year 2014 levels proposed by the 
President, it is important to note that this increase still lags far 
behind where funding should be to offset the growth in the programs and 
medical inflation and in reality funding should be higher. Also, the 
$50 million dollar increase in funding proposed for purchased and 
referred care is vital, but it too falls well short of the true need in 
Indian Country as is illustrated by the spending needs of just the Nez 
Perce clinic. Finally, the tribe fully supports the $617 million that 
has been proposed by the President to be allocated for Contract Support 
Costs. Requesting full funding of these obligations is an important and 
is appreciated.
                        bureau of indian affairs
    The tribe supports the funding levels for contract support costs 
proposed in the President's budget of $251 million dollars as well as 
the increased funding overall for the Bureau of Indian Affairs. The 
tribe also supports the Presidential budget request to include a 
Carcieri fix to address legal issues that have arisen related to the 
transfer of land into trust. This Supreme Court decision has led to 
dozens of court challenges that now brings into question the status of 
trust land of all tribal governments, regardless of when they were 
federally recognized. This uncertainty will only stifle and impede 
economic development in Indian Country. A legislative amendment to 
restore the sovereign status of these lands to the state they were 
prior to this court decision is needed now.
    The tribe supports the $12 million dollar commitment in the 
President's budget to address child and family welfare in Indian 
Country and job training issues. This Tiwahe initiative is important as 
it recognizes the significant gap in culturally sensitive social 
service programs and the high unemployment due to lack of adequate job 
training that plagues reservation communities. Continued study and 
development of solutions to these issues is important to help address 
the systemic problems faced in this area.
    In relation to the Bureau of Indian Affairs Public Safety and 
Justice budget, the tribe advocates for at least the $351.9 million 
dollars in funding proposed in the President's budget. The Nez Perce 
Reservation covers 1200 square miles and covers five counties and has a 
mixture of tribal and non-tribal residents. The tribe provides a full 
service law and justice program, beginning with a fully trained and 
staffed police force, tribal court, prosecutor and related 
administrative functions. Currently, the Nez Perce Tribe contributes 
over $718,000 per year to cover the shortfall in BIA funding for the 
tribe's law enforcement, $195,000 for judicial services, $339,000 for 
prosecutorial services, $92,000 for public defender services and 
$300,000 for prisoner boarding. This funding comes from tribal taxes on 
things such as tobacco levied by the tribe and tribal gaming revenues. 
The funding for these programs needs to be increased to account for the 
shortfalls in funding the tribe has to absorb to continue the operation 
of these vital services on the reservation.
    In relation to education, the tribe requests $42 million for 
Johnson O'Malley Funding, $5 million for tribal education departments 
and $88.2 million for tribal colleges such as the Northwest Indian 
College that operates a satellite campus on the Nez Perce Reservation. 
It should also be noted that scholarship funding provided by the BIA 
has remained static for the past decade while the cost of attending 
college has risen faster than can be accounted for by simple inflation. 
The tribe is currently working to set up an educational endowment to 
supplement the BIA education funds but the BIA funds need to be 
increased.
    The tribe also relies on the BIA for funding for its work related 
to endangered species and protection of the tribe's treaty resources 
including Chinook and steelhead salmon. The funding has also been used 
to supplement the research efforts of the tribe relative to other 
sensitive species. The BIA Endangered Species Program should be 
restored at $3 million dollars as it provides tribes with the technical 
and financial assistance to protect endangered species on trust lands 
but funding of this program has declined significantly over the last 8 
years. Also, the BIA Natural Resource Tribal Priority Allocations 
should be increased to $10 million as this funding has remained flat 
for years at just under $5 million. This expenditure will help increase 
tribal land and management capabilities.
    In addition, the funding provided under the BIA Rights Protection 
fund is critical as it supports the exercise of off-reservation hunting 
and fishing for tribes like the Nez Perce and it should be funded at 
$49.5 million dollars. The BIA single-line dollars do provide the 
foundation for core program administration and treaty rights protection 
activities, such as harvest monitoring and conservation enforcement. 
And of course, these efforts are central to the tribe's fisheries 
management responsibilities as established in the treaties and further 
delineated in litigation regarding implementation of hunting and 
fishing treaty rights. It is important to understand that this funding 
is not for equipment but is used for job creation and this funding has 
stayed static.
    The Nez Perce Tribe utilizes the Pacific Coast Salmon Recovery Fund 
and it should be funded at $110 million dollars. The Nez Perce funding 
received under this budget is used to rear 300,000 local stock coho 
smolts at Dworshak and Kooskia hatcheries in the Clearwater River 
Basin. We also truck an additional 550,000 coho smolts from a lower 
Columbia River hatchery (Eagle Creek Hatchery) up to the Clearwater for 
release. Based on passive integrated transponder (PIT) tag information, 
15,000 coho adults from our Clearwater releases crossed Bonneville Dam 
in 2011 where they provided a fishery for tribal and non-tribal 
fisheries on the Columbia River. Over 5,000 swam on to cross Lower 
Granite Dam where they continued to provide a fishery, provide 
broodstock for the hatchery program and spawners in the wild. Continued 
appropriations for this fund will allow this successful work to 
continue.
    The tribe also supports funding for the BIA Wildlife and Parks 
Tribal Priority Allocations of $3 million dollars and $6 million 
dollars as these funds allow for important work to be done on fish 
recovery through hatchery operation and maintenance. As stated earlier, 
the tribe has invested a large amount of its personnel and resources in 
the restoration and recovery of this important resource through its 
fisheries programs. The State of Idaho directly benefits from this work 
as well through its sports fisheries. These programs have been 
successful but more work needs to be done. The Tribal Management and 
Development Program also needs increased funding. The tribe recommends 
$20 Million for base and programmatic funding. This program is critical 
for fish and wildlife management of the tribe.
     fish and wildlife service, forest service cultural protection
    The tribe relies heavily on funding sources within the Fish and 
Wildlife Service and the Forest Service. First, the Tribal Wildlife 
Grants program administered by the U.S. Fish and Wildlife Service is a 
cost effective expenditure for the Government. This small pot of money 
has resulted in huge returns from the tribe's perspective. Since 2005, 
we have received four such grants that have allowed us to work on such 
diverse issues as gray wolf monitoring, bighorn sheep research, and 
rare plant conservation. Continued funding for the Tribal Wildlife 
Grant program will allow recipient tribes to build capacity and 
maintain involvement in key conservation issues. It should be noted 
that this competitive grant does not simply dole out funds for projects 
but awards grants based on the quality of the proposal. As mentioned 
above, the tribe has received four grants under this program totaling 
$800,000 based on the quality of our research work. Funding for these 
grants was reduced in fiscal year 2012 and fiscal year 2013. The tribe 
strongly urges this committee to increase this funding to $8 million as 
it provides a large return in work for a small investment. It is also 
one of the few sources of funds tribes can tap into for wildlife 
research.
    The tribe also supports increased funding for the work of the 
Forest Service in the protection of treaty reserved resources of 
tribes. There should be $31.2 million dollars allocated for BIA Tribal 
Forestry Priority Allocations and $23.3 million for BIA forestry 
projects. The Nez Perce Reservation and its usual and accustomed areas 
are rich in natural resources and encompass eleven different national 
forests. The tribe works closely with each forest administration to 
properly manage its resources on behalf of the Tribe. These range from 
protecting and properly managing the products of the forest to managing 
the vast wildlife in each one such as elk, deer, bighorn sheep and 
wolves. Increased funding is necessary so that the Forest Service can 
meet these trust obligations and continue to work with tribes such as 
the Nez Perce on a government-to-government basis. Finally, there 
should be $15 million dollars allocated for the Tribal Historic 
Preservation Office Program and $4 million dollars for repatriation to 
help ensure tribal remains and cultural properties are protected to the 
greatest extent possible.
                    environmental protection agency
    The Nez Perce Tribe currently implements, on behalf of the 
Environmental Protection Agency, the Federal Air Rules for Reservations 
program (FARR) and receives funding from the State and Tribal 
Assistance Grants Program and Tribal General Assistance Grants. The $31 
million dollar increase in the President's budget for these grants is 
important and is supported by the tribe. The FARR program monitors air 
quality and regulates field burning throughout the Nez Perce 
Reservation. The tribe is located in Region 10 of the EPA and this 
increase in funding is needed for tribes to meet their air quality 
needs and operate programs under the delegation of the EPA.
    In addition to the air quality program, the Nez Perce Tribe is 
working with other Idaho tribes on studying of fish consumption rates 
which is important in protecting the health of tribal members. Funding 
for this work is important. The tribe is also currently in facilitated 
discussions with the State of Idaho that are being funded through 
grants from the EPA. The facilitated discussions involve the tribe 
adopting water quality standards to improve the water quality on the 
Nez Perce Reservation. The tribe also relies heavily on contract 
support dollars for our water resource programs such as storage tank 
remediation and watershed restoration.
    Thank you for the opportunity to provide testimony to the 
subcommittee. As you can see, the Nez Perce Tribe does a tremendous 
amount of work in a variety of areas. It is important that the United 
States continue to fund this work and uphold and honor its trust 
obligations to tribes.
                                 ______
                                 
   Prepared Statement of Northern Water--The Northern Colorado Water 
                          Conservancy District
                                                     April 8, 2014.
Hon. Jack Reed, Chairman,
Hon. Lisa Murkowski, Ranking Member,
Subcommittee on Interior, Environment, and Related Agencies, Committee 
        on Appropriations, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.

    Dear Chairman Reed and Senator Murkowski: I am requesting your 
support for fiscal year 2015 appropriations to the Fish and Wildlife 
Service (FWS) for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program 
consistent with the President's recommended budget. I request that the 
subcommittee:

  --Appropriate $706,300 in ``Conservation and Restoration'' funds 
        (Resource Management Appropriation; Ecological Services 
        Activity; Conservation and Restoration Subactivity within the 
        $124,253,000 item entitled ``Conservation and Restoration'') to 
        the U.S. Fish and Wildlife Service (FWS) to allow FWS for 
        fiscal year 2015 to continue its essential participation in the 
        Upper Colorado River Endangered Fish Recovery Program.
  --Appropriate $200,000 in FWS ``Conservation and Restoration'' funds 
        for the San Juan River Basin Recovery Implementation Program to 
        meet expenses incurred by FWS's Region 2 in managing the San 
        Juan Program's diverse recovery activities.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $48,617,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.

    I request the subcommittee's assistance in assuring fiscal year 
2015 funding to allow the FWS to continue its financial and personnel 
participation in these two vitally important recovery programs. I 
recognize and appreciate that the past support and assistance of your 
subcommittee has greatly facilitated the success of these ongoing 
efforts.
            Sincerely,
                                         Eric W. Wilkinson,
                                                   General Manager.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide testimony on the Bureau of Indian Affairs (BIA) 
and the Environmental Protection Agency fiscal year 2015 
appropriations. My name is Lorraine Loomis and I am the Vice-Chair of 
the Northwest Indian Fisheries Commission (NWIFC). The NWIFC is 
comprised of the 20 tribes that are party to the United States v. 
Washington \1\ (U.S. v. Washington). I am providing written testimony 
for the record in support of funding to meet the many natural resources 
management responsibilities required of the tribes.
---------------------------------------------------------------------------
    \1\ United States v. Washington, Boldt Decision (1974) reaffirmed 
Western Washington Tribes' treaty fishing rights.
---------------------------------------------------------------------------
          summary of fiscal year 2015 appropriations requests
Bureau of Indian Affairs:
  --Provide $17.146 million for Western Washington Fisheries 
        Management;
  --Provide $3.082 million for Washington State Timber-Fish-Wildlife;
  --Provide $4.844 million for U.S./Canada Pacific Salmon Treaty;
  --Provide $2.4 million for Salmon Marking;
  --Provide $6.582 million for Fish Hatchery Maintenance;
  --Provide $3.35 million for Fish Hatchery Operations;
  --Provide $246.0 million for Contract Support;
  --Provide $9.948 million for Cooperative Landscape Conservation; and
  --Provide $725,000 for Watershed Restoration.

Environmental Protection Agency:
  --Provide $96.4 million for General Assistance Program; and
  --Provide $50.0 million for Puget Sound.

    In February 2014 the treaty Indian tribes in western Washington 
celebrated the 40th anniversary of U.S. v. Washington (Boldt decision). 
The decision reaffirmed tribal treaty-reserved rights to half of the 
harvestable salmon returning to the State and was later expanded to 
include shellfish and some marine fish species. This landmark ruling is 
one of the greatest civil rights decisions in the history of the United 
States. Moreover, the ruling established the tribes as co-managers and 
brought responsible salmon management to Washington by requiring that 
salmon be managed river-by-river and that harvest limits be clearly 
defined.
    Today, however, we find that the resource has diminished to the 
point that the tribes are catching fewer fish with a 50 percent share 
then they were at the time of the Boldt decision when they were 
catching less than 5 percent of the harvest. The treaty-reserved rights 
are at grave risk today as the resources they are dependent on are 
disappearing. Wild salmon and their habitat continue to decline despite 
massive reductions in harvest and a significant investment in habitat 
restoration. For this reason the western Washington treaty tribes 
brought to the Federal Government our Treaty Rights at Risk (TRAR) 
initiative asking that the Federal Government meet their obligations to 
the tribes and their treaties by taking charge of salmon recovery. We 
requested that the Federal Government implement their fiduciary duties 
by better protecting the tribes' treaty-reserved resources. The Federal 
Government has a non-discretionary obligation to provide adequate 
funding to the tribes to allow them to protect and preserve these 
treaty rights. Salmon are critical to the tribal cultures, traditions 
and their economies and by fulfilling these Federal obligations by 
addressing our TRAR--we will recover the salmon populations.
    We are generally pleased with the President's fiscal year 2015 
budget request, which includes and builds on many of the subcommittee's 
actions from the past few years. It continues funding for science and 
technology, including research and analysis for sustainable management 
of our natural resources and climate adaptation. On behalf of our 20 
member tribes, I ask you to consider our requests for the BIA and the 
EPA that are further described below.
                       justification of requests
Bureau of Indian Affairs
            Rights Protection Implementation Subactivity
    Tribes in the Great Lakes and Pacific Northwest with similar 
treaty-reserved rights have collectively identified that no less than 
$49.5 million for Rights Protection Implementation (RPI) is necessary 
for essential tribal treaty rights management. We continue to support 
the President's emphasis to fund science and technology activities 
related to climate issues. This will provide our tribes the capability 
to identify, respond and adapt to the impacts of our changing climate. 
It will also support scientific research, monitoring and analysis that 
are essential to the management of natural resources. It is important 
that tribes be provided the maximum flexibility to develop specific 
science-based activities to meet their particular needs. We support a 
proportionate allocation of these funds that is consistent with and 
proposed in the fiscal year 2014 budget. A summary of the four accounts 
of interest to us within RPI are further identified below.
    Provide $17.146 million for BIA Western Washington Fisheries 
Management.--We respectfully request $17.146 million, an increase of 
$8.854 million over the President's request of $8.562 million. The 
increase in fiscal year 2014 restored funding back to the fiscal year 
2010 level and was very much appreciated. However, we once again ask 
Congress to address the remaining identified needs of the NWIFC and our 
member tribes. Funding for this program allows for continued treaty 
harvest management, population assessment, habitat protection and data 
gathering for finfish, shellfish, groundfish, wildlife and other 
natural resource management needs. Funds provide the necessary capacity 
for the treaty tribes to co-manage the resources with the State of 
Washington and to meet court required mandates.
    Provide $3.082 million for BIA Washington State Timber-Fish-
Wildlife.--We respectfully request $3.082 million, an increase of 
$337,000 over the President's request of $2.745 million. Funding for 
this program is provided to improve forest practices on State and 
private lands while providing protection for fish, wildlife and water 
quality. This will provide the necessary funding for tribal TFW 
programs to fully participate in the TFW process.
    Provide $4.844 million for BIA U.S./Canada Pacific Salmon Treaty.--
We respectfully request $4.844 million, an increase of $549,000 over 
the President's request of $4.295 million. The Pacific Salmon Treaty 
(PST) Act of 1985 charges the United States Section of the Pacific 
Salmon Commission with the responsibility for implementation of the 
PST, a bilateral treaty with Canada. Tribes assist in meeting the 
Federal Government's obligations in implementing the treaty by 
participating in cooperative research and data gathering activities. 
This will provide sufficient funding to ensure that the tribes can 
continue to participate effectively in the bi-lateral PST process.
    Provide $2.4 million for BIA Salmon Marking.--We respectfully 
request $2.4 million, an increase of $1.328 million over the 
President's request of $1.072 million. Funding for this program was 
mandated in 2003 by Congress that required all salmon released from 
federally funded hatcheries be marked so they could be identified for 
conservation purposes. This allows tribes to mark salmon at tribal 
hatcheries and to use these marked fish to scientifically monitor 
salmon populations and watersheds in western Washington. This amount is 
required to fully implement more extensive selective fisheries targeted 
at these marked fish.
            Fish, Wildlife and Parks Subactivity
    Provide $6.582 million for BIA Fish Hatchery Maintenance.--We 
support the President's request of $6.582 million. Tribal fish 
hatcheries in western Washington are part of the largest fish hatchery 
system in the world. These hatcheries provide fish that significantly 
contribute to both non-Indian recreational and commercial harvest, as 
well as for tribal fisheries. Funding for this program is provided to 
tribes nationwide based on the ranking of annual maintenance project 
proposals. Today, hatcheries also play a large role in recovering 
pacific salmon, many of which are listed under the Endangered Species 
Act. A comprehensive needs assessment study was conducted in fiscal 
year 2006 by the BIA at the request of Congress which identified a 
level of need of over $48.0 million in necessary hatchery maintenance 
and rehabilitation costs.
    Provide $3.35 million for BIA Fish Hatchery Operations.--We 
respectfully request $3.35 million, an increase of $1.575 million over 
the President's request of $1.775 million. This increase reflects the 
needs of the western Washington treaty tribes. Funding for this program 
is provided to tribal hatcheries to support the rearing and releasing 
of salmon and steelhead for harvest by Indian and non-Indian fisheries. 
Hatcheries are a necessary part of fisheries management because of the 
lack of wild salmon production due to habitat degradation. They 
continue to play a vital role in supporting tribal fisheries and are 
now essential for maintaining the treaty right to harvest fish. Without 
hatcheries tribes would have very few fisheries and their treaty rights 
would be rendered meaningless.
            Other Subactivities and Accounts
    Provide $246.0 million for BIA Contract Support.--We support the 
President's request of $246.0 million. Funding for this function is 
provided to tribal organizations to ensure they have the capacity to 
manage Federal programs under self-determination contracts and self-
governance compacts. These funds are critical as they directly support 
our governmental functions, which allow us to fully exercise our right 
to self-govern. The amount requested is expected to fully fund the 
estimated need in fiscal year 2015.
    Provide $9.948 million for BIA Cooperative Landscape 
Conservation.--We support the President's request of $9.948 million. 
Funding for this program will help provide the tribal capacity needed 
to participate and provide scientific input on climate change issues. 
This will also allow tribes to provide their perspective on climate 
change adaptation in the form of traditional ecological knowledge 
necessary to protect their treaty rights.
    Provide $725,000 for BIA Watershed Restoration.--We respectfully 
request $725,000, an increase of about $475,000 over the fiscal year 
2014 operating plan. Funding for this program is contained in the 
Forestry Subactivity--Forestry Projects--Watershed Restoration account 
and supports our Salmon and Steelhead Habitat Inventory and Assessment 
Program. This allows us to continue to provide environmental data 
management, analysis, and reporting support. It also supports the on-
going efforts to develop information sharing and exchange tools and 
would continue to support our tribes' ability to adequately participate 
in watershed resource assessments and salmon recovery work.
Environmental Protection Agency
    Provide $96.4 million for EPA General Assistance Program.--We 
support the President's request of $96.4 million. This funding has 
built essential tribal capacities and remains critical to the tribes' 
ability to sustain their important water quality programs. Funding for 
this program continues to provide the capacity for tribal environmental 
protection programs nationwide. This allows tribes to address their 
most fundamental needs such as inadequate drinking water and basic 
sanitation.
    Provide $50.0 million for EPA Puget Sound.--We respectfully request 
$50.0 million, an increase of $25.0 million over the President's 
request of $25.0 million. The Puget Sound Geographic Program provides 
essential funding that will help protect, restore and enhance Puget 
Sound, an estuary of national significance. Funding for this program 
will allow the tribes to participate in the necessary scientific work, 
implementation measures, and policy discussions on issues that affect 
our treaty rights. It allows the tribes to participate in implementing 
the Puget Sound Action Agenda and to also implement a wide range of 
projects aimed at improving the health of Puget Sound by 2020.
                               conclusion
    We are sensitive to the budget challenges that Congress faces. We 
respectfully urge you to continue to support our efforts to protect and 
restore our great natural heritage that in turn will provide for 
thriving communities and economies. Thank you.
                                 ______
                                 
       Prepared Statement of the Norton Sound Health Corporation
    The requests of the Norton Sound Health Corporation (NSHC) for the 
fiscal year 2015 Indian Health Service (IHS) budget are as follows:
  --Appropriate an additional $372,371 to staff and operate the newly 
        opened Norton Sound Regional Hospital; the IHS is not provided 
        the full agreed-upon amount.
  --Direct the IHS to fully fund the Village Built Clinic (VBC) leases 
        in accordance with section 804 of the Indian Health Care 
        Improvement Act and allocate an additional $8.5 million to VBC 
        leases.
  --Increase funding for injury prevention programs.
  --Shield the IHS from sequestration in fiscal year 2016 and beyond.
  --Place contract support costs on a mandatory funding basis.
  --Place IHS funding on an advance appropriations basis.
  --Support utilizing Medicare-like rates in the Purchased/Referred 
        Care Program.
    The Norton Sound Health Corporation is the only regional health 
system serving northwestern Alaska. It is on the edge of the Bering 
Sea, just miles from the Russian border. We are not connected by road 
with any part of the State and are 500 air miles from Anchorage--about 
the distance from Washington, DC, to Portland, Maine. Our service area 
encompasses 44,000 square miles, approximately the size of Indiana. We 
are proud that our system includes a tribally owned regional hospital 
which is operated pursuant to an Indian Self-Determination and 
Education Assistance Act (ISDEAA) agreement, and 15 village-based 
clinics.\1\ The logistics and costs associated with travel and 
transportation are a daily challenge, to say the least.
---------------------------------------------------------------------------
    \1\ We serve the communities of: Brevig Mission, Council, Diomede, 
Elim, Gambell, Golovin, King Island, Koyuk, Mary's Igloo, Nome, St. 
Michael, Savoonga, Shaktoolik, Shishmaref, Solomon, Stebbins, Teller, 
Unalakleet, Wales, and White Mountain.
---------------------------------------------------------------------------
    Additional Funding Needed To Staff New Hospital Facility.--NSHC 
gained beneficial occupancy of its new replacement hospital and 
ambulatory care center facility in Nome in June 2012, the construction 
of which was funded by the Recovery Act. The IHS and NSHC have 
successfully worked as government-to-government partners to construct 
and furnish the new facility. However, the IHS is providing us nearly 
$400,000 less for our staffing package in fiscal year 2014 than was 
agreed to.
    The replacement facility is almost three times the size of the 
former hospital and will allow for increased patient visits in the 
primary and acute care areas, including chronic disease prevention and 
management, and allow us to provide enhanced trauma and emergency 
services.
    Now that the new facility is open, IHS has only to finish funding 
the expanded staffing needs for operation of the replacement hospital. 
The IHS has notified us that our fiscal year 2014 staffing package 
funding will be $8,410,000. This is not the entire amount agreed to. 
The IHS is not providing the entire amount of funding for the 351 full 
time equivalents (FTEs) in the signed, validated Resource Requirements 
Methodology (RRM). Rather, the funding provided is for 348 FTEs, a 
difference of 3 FTEs or $372,371 annually. That is a significant amount 
of funding over time--$3.7 million in 10 years plus contract support 
costs.
    Our new hospital is located in a medically underserved area and has 
one of the highest Health Professions Shortage Area scores in the 
Nation. NSHC has been greatly limited in its ability to recruit and 
hire medical professionals, instead having to focus primarily on hiring 
core operational staff. To fully realize the potential of the new 
replacement hospital, and to ensure that we can safely provide adequate 
and expanded healthcare services to the people in our region, we need 
the full amount agreed to by the IHS.
    Assistance Needed To End Chronic Underfunding Of Village Built 
Clinics.--The NSHC healthcare system includes 15 Village Built Clinics 
(VBCs). The VBCs are essential for maintaining the IHS Community Health 
Aide Program (CHAP) in Alaska, which provides the only local source of 
healthcare for many Alaska Native people in rural areas. The CHAP 
program is mandated by Congress as the instrument for providing basic 
health services in remote Alaska Native villages. The CHAP program 
cannot operate without the use of clinic facilities.
    The IHS has for many years consistently under-funded the leases of 
VBCs even though the IHS has had available appropriations to fully fund 
the leases. Lease rental amounts for the VBCs have failed to keep pace 
with costs--the majority of the leases for VBCs have not increased 
since 1989. The IHS has instead shifted its statutory responsibilities 
onto the villages and NSHC, which does not have adequate financial 
resources to maintain and upgrade the VBCs for CHAP staff. As a result, 
many of the VBCs are unsafe or have had to be closed, leaving some 
villages in Alaska without a local healthcare facility.
    As indicated in our joint testimony with other Alaska healthcare 
providers to Congress in 2012, NSHC and many other tribal organizations 
in Alaska have discussed this issue with the IHS on several occasions, 
and have proposed solutions that the IHS continues to ignore. IHS 
continues to assert that it provides for VBC leases all of the funds 
that Congress has appropriated for the program. In our view, the 
amounts historically traceable to the VBC leases are not capped by 
statute and are not the only funds available for that program. The 
Indian Health Facilities appropriation is a lump sum appropriation that 
can be used for construction, repair, maintenance, improvements and 
equipment, and includes a sub-activity for maintenance and improvement 
of IHS facilities. The VBCs are IHS facilities acquired by lease in 
lieu of construction and should thus be eligible for maintenance and 
improvement funding. The IHS can also access other IHS discretionary 
funds to fully fund its VBC obligations.
    For the fiscal year 2015, we urge that an additional $8.5 million 
be appropriated to more fully fund VBC leases. We also ask that 
Congress direct the IHS to use existing fiscal year 2014 appropriations 
to fully fund the VBC leases in accordance with Sec. 804 of the Indian 
Health Care Improvement Act.
    Injury Prevention.--Injury prevention efforts are particularly 
important to the Norton Sound region; our extreme climate and the 
dangers of the Bering Sea result in an exceptionally high number of 
injuries, many of them severe. The National Center for Health 
Statistics reports that unintentional injury is the third leading cause 
of death among American Indians and Alaska Natives, preceded by heart 
disease and cancer. The goal of the NSHC injury prevention program is 
to reduce unintentional injuries throughout the region. The success of 
the program truly depends on the partnerships formed to share resources 
and extent our reach. We work to provide safety education and resources 
in the areas of transportation (bike helmet safety, pedestrian safety, 
all-terrain vehicle (ATV) safety, etc.) and home environmental safety 
(promote the use of smoke alarms, carbon monoxide detectors, gun locks, 
elder fall prevention, etc.).
    A positive development was the move in September 2013 of our Injury 
Prevention Program and Safety shop to our new hospital which has 
resulted in an increased sale and use of safety items--for instance, we 
sold at the Safety Shop three times as many ice cleats this year as the 
previous year. Within the last 6 months, the Safety Shop also sold 4 
float coats, 6 snowmobile float coats, 4 snowmobile float bibs, 11 ATV 
helmets, 6 S.O.S. Survival kits and 22 visibility products. The Coast 
Guard donated 300 float coats to the region (the ``Wear It Alaska'' 
initiative) which has saved lives.
    There is not an injury prevention line item in the IHS budget, 
although the IHS makes multi-year injury prevention grants to a limited 
number of tribes. We are in year 4 of a 5-year injury prevention grant; 
we took a 5 percent sequestration on our $80,000 grant and are not 
guaranteed fifth year funding. We request that Congress increase 
funding for IHS programs that incorporate injury prevention and direct 
the agency to increase its injury prevention resources for tribes and 
tribal organizations.
    Protect the IHS From Sequestration.--The Office of Management and 
Budget determined that the IHS's appropriation is fully sequestrable, 
which resulted in a $220 million cut in funding to the IHS for fiscal 
year 2013--roughly 5 percent of the IHS's overall budget. IHS lost 
funding for programs like hospitals and health clinics services, 
contract health services, dental services, mental health and alcohol 
and substance abuse. Programs and projects necessary for maintenance 
and improvement of health facilities felt these same impacts. These 
negative effects were then passed down to every ISDEAA contractor, 
including NSHC. NSHC is already significantly underfunded, resulting in 
further cuts to the availability of health services we were able to 
provide to our patients, resulting in real consequences for individuals 
who have to forego needed care. We are grateful that Congress enacted 
legislation that has averted a sequestration in fiscal year 2014 and 
likely will do the same for fiscal year 2015. But beginning fiscal year 
2016 the possibility of a sequestration will hang over IHS 
appropriations again.
    We fail to understand why the responsibility for healthcare for 
Alaska Native and American Indian people was taken less seriously than 
the Nation's promises to provide health to our veterans. The Veterans 
Health Administration (VA) was made fully exempt from the sequester for 
all programs administered by the VA. Also exempt are State Medicaid 
grants, and Medicare payments are held harmless except for a 2 percent 
reduction for administration of the program. We thus strongly urge the 
subcommittee to support amendment of the Balanced Budget and Emergency 
Deficit Control Act to fully exempt the IHS from any future 
sequestration, just as the VA and other health programs are exempt.
    Contract Support Costs.--We thank Congress, and particularly the 
Interior, Environment and Related Agencies Subcommittee, for making it 
clear to the IHS and the Bureau of Indian Affairs (BIA) that fully 
funding contract support costs (CSC) is a legal duty and for providing 
what we expect is full funding for fiscal year 2014. The fiscal year 
2015 IHS request of $617 million for CSC is also a reasonable estimate 
of what will be full funding. The next logical step is for Congress to 
fund the CSC funding for the IHS and the BIA funding on a mandatory, 
rather than a discretionary, basis.
    IHS on an Advance Appropriations Basis.--We support legislation 
that would place the IHS budget on an advance appropriations basis. The 
goal is for the IHS and tribal healthcare providers to have adequate 
advance notice of the amount of Federal appropriations to expect and 
thus not be subjected to the uncertainties of late funding and short-
term continuing resolutions. Congress provides advance appropriations 
for the Veterans Administration medical accounts, and the request is 
for parity in the appropriations schedule for the IHS. Legislation to 
authorize IHS advance appropriations has been introduced--H.R. 3229 by 
Representative Young and S. 1570 by Senators Murkowski and Begich.
    Medicare-like Rates.--The administration proposed in its budget 
justification that tribes the IHS, and urban Indian organizations 
utilizing the Purchased/Referred Care program be charged Medicare-like 
rates for non-hospital services, thus stretching the funding for that 
program. A Government Accountability Office report in 2013 concluded 
that IHS and tribal facilities would save millions of dollars and be 
able to increase care if the Medicare-like rate cap was imposed on non-
hospital providers and supplies through the Purchase/Referred Care 
program. This revenue-neutral proposal would require legislation and 
would make a very positive difference in the amount of healthcare 
services that could be provided. We appreciate the $18 million proposed 
increase in Purchased/Referred Care budget, but that is but a small 
slice of how much that program needs to be increased.
    Thank you for your consideration of our request that adequate 
fiscal year 2015 IHS staffing funding be made available for the NSHC 
replacement hospital. We are very excited about the possibilities this 
facility brings for improved healthcare for the people of northwestern 
Alaska. We also appreciate the subcommittee's consideration of our 
other requests.
                                 ______
                                 
Prepared Statement of OPERA America <rm-bond> The National Opera Center
    Mr. Chairman and distinguished members of the subcommittee, OPERA 
America is grateful for the opportunity to submit testimony on behalf 
of OPERA America, its board of directors and its 2,000 organizational 
and individual members. We strongly urge the Subcommittee on Interior, 
Environment, and Related Agencies of the Committee on Appropriations to 
designate a total of $155 million to the National Endowment for the 
Arts (NEA) for fiscal year 2015. This testimony and the funding 
examples described below are intended to highlight the importance of 
Federal investment in the arts, so critical to sustaining a vibrant 
cultural community throughout the country.
    Opera is a continuously growing art form that can address the 
diverse needs and backgrounds of our communities. New opera companies 
are being established in communities that have never before had access 
to live performances. OPERA America's membership includes 129 
professional company members representing 41 States. Over half of these 
companies were established after 1970 and over 40 percent were 
established since 1980, indicating the growth of opera throughout North 
America over the last 40 years.
    In the 2011-2012 season, OPERA America members were involved with 
45 world premieres. Since 1900, 880 new operatic works have been 
produced by professional opera companies in North America. Of that, 414 
new operatic works have been produced since 2000. The growth in number 
and quality of American opera corresponds directly to the investment of 
the NEA's earlier investment in the New American Works program of the 
former Opera-Music Theater Program.
    Beyond the opera house, opera companies are finding new and 
exciting ways to bring the essence of opera to other local theaters and 
community centers, frequently with new and innovative works that 
reflect the diverse cultures of the cities they serve. Strong 
partnerships with local schools, too, extend the civic reach of opera 
companies as they introduce children to another multi-media art form 
and discover promising young talent.
the nea is a great investment in the economic growth of every community
    Despite diminished resources, including a budget that has decreased 
by over $20 million since 2010, the NEA awarded more than 2,100 grants 
in 2013, totaling more than $112 million in appropriated funds, and 
reaching more than 38 million people who attended live arts events 
through NEA-supported programs. These grants help nurture the growth 
and artistic excellence of thousands of arts organizations and artists 
in every corner of the country. NEA grants also preserve and enhance 
our Nation's diverse cultural heritage. The modest public investment in 
the Nation's cultural life results in both new and classic works of 
art, reaching the residents of all 50 States and in every congressional 
district.
    The return of the Federal Government's small investment in the arts 
is striking. In 2013, the American creative sector was measured by the 
Federal Bureau of Economic Analysis (BEA). The BEA and the NEA 
developed an ``Arts and Cultural Production Satellite Account'' which 
calculated the arts and culture sector's contributions to the gross 
domestic product (GDP) at 3.2 percent (or $504 billion) of current-
dollar GDP in 2011. Additionally, the nonprofit arts industry generates 
$135.2 billion annually in economic activity, supporting 4.13 million 
full-time equivalent jobs in the arts and related industries.
    On average each NEA grant leverages at least $9 from other State, 
local, and private sources, generating roughly $600 million in matching 
support. Few other Federal investments realize such economic benefits, 
not to mention the intangible benefits that only the arts make 
possible. Even in the face of cutbacks in the recent years, the NEA 
continues to be a beacon for arts organizations across the country.
    The return on investments is not only found in dollar matches. The 
average city and county reports that nonprofit arts and culture 
organizations had 5,215 volunteers who donated 201,719 hours. These 
volunteer hours have a value of approximately $4.5 million--a 
demonstration that citizens value the arts in their communities.
                           nea grants at work
    Past NEA funding has directly supported projects in which arts 
organizations, artists, schools and teachers collaborated to provide 
opportunities for adults and children to create, perform, and respond 
to artistic works. NEA funding has also made the art form more widely 
available in all States, including isolated rural areas and inner 
cities; indeed, NEA funded projects cross all racial, geographic, and 
socioeconomic lines.
    NEA grants are awarded to opera organizations through its core 
programs: Art Works; Challenge America Fast Track Grants; and Federal/
State Partnerships. In fiscal year 2013, the NEA awarded 84 grants to 
the opera field through grants for arts projects categories, totaling 
$2,837,000.
    The following are some examples of the impact of NEA funding on 
opera programs from the NEA's 2013 Art Works Program:
          anchorage opera company--$12,500; anchorage, alaska
    To support ``Soldier Songs,'' a chamber opera by composer David T. 
Little. The work explores the plight of soldiers who face the challenge 
of reintegrating into ``normal'' life after having returned home from 
war. Told from the point of view of a single character during various 
stages of life, the work seeks to blur the tradition of linear 
narrative in opera. Accompanying the production will be several 
educational activities, including evening dress rehearsals, and teacher 
study guides that link the opera to the subjects of math, science, 
reading, and language arts. Pre-performance lecture-demonstrations will 
provide admission-free adult lectures by the creative team.
       lyric opera of kansas city--$20,000; kansas city, missouri
    To support STAGES summer opera camp for youth. The program will 
feature training in design and technical aspects of performing arts 
production and will provide students with a significant hands-on 
experience to help prepare them for potential careers in the performing 
arts.
       nashville opera association--$12,500; nashville, tennessee
    To support an audio recording of a revised edition of ``Romulus 
Hunt,'' a one-act opera by composer Carly Simon. Originally 
commissioned in 1993 by the Metropolitan Opera and the Kennedy Center, 
the semi-autobiographical dramatic work deals with operatic thems of 
love and betrayal as presented through the tribulations of a loving 
family fractured by divorce. Performances will occur at the Noah Liff 
Opera Center and recording will occur at Ocean Way Studios.
          opera parallele--$15,000; san francisco, california
    To support the American premier of ``Anya 17,'' a recently 
commissioned opera by composer Adam Gorb and librettist Ben Kaye. The 
opera portrays human trafficking as experienced by the central 
character, Anya. The plot unfolds through a series of short, fast-paced 
flashbacks that detail how Anya is deceived into traveling abroad and 
sold as a prostitute.
        opera theatre of st. louis--$90,000; st. louis, missouri
    To support the commission, development, and premier of ``Shalimar 
the Clown'' by composer Jack Perla and librettist/playwright Rajiv 
Joseph. Based on the novel by Salman Rushdie, the story takes place in 
the disputed region of Kashmir and focuses on the love story of a young 
Hindu woman, Boonyi, a dancer, and a Muslim man, Shalimar, an acrobat. 
The story is one of love, revenge, cultural clashes, and war.
    More than half of OPERA America's member companies were established 
after 1970 (corresponding to the establishment of the NEA) and over 40 
percent were established since 1980, indicating the growth of opera 
throughout in the last 40 years. In the 2010 and 2011 calendar years, 
OPERA America's members were involved with 35 world premieres an. 369 
new operatic works have been produced in North America since 2000.
    Over 6.5 million people attended a live performance at one OPERA 
America's member companies during the 2011-2012 season, including 
educational and outreach programs and festivals. During this same 
season, member opera companies presented 3,133 mainstage, festival, 
educational, and other productions--almost 3 times and many productions 
as the previous season. The collective expenses of member opera 
companies totaled $1.16 billion--almost double last year's expenses. 
Total government support, including city, county, State, and Federal, 
amounted to $37.5 million, representing approximately 3.8 percent of 
total operating income.
    Despite overwhelming support by the American public for spending 
Federal tax dollars in support of the arts, the NEA has never recovered 
from a 40 percent budget cut in the mid-nineties and found its budget 
further decreased by $22 million since 2010, leaving its programs 
seriously underfunded. We urge you to continue toward restoration and 
increase the NEA funding allocation to $155 million for fiscal year 
2015.
    On behalf of OPERA America, thank you for considering this request.
                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress
fiscal year 2015 budget for the u.s. environmental protection agency's 
             clean water state revolving fund loan program
    The Oregon Water Resources Congress (OWRC) is concerned about 
continued reductions to the U.S. Environmental Protection Agency's 
(EPA) Clean Water State Revolving Fund Loan Program (CWSRF) and is 
requesting that appropriations for this program be increased to at 
least $2 billion in fiscal year 2015. The CWSRF is an effective loan 
program that addresses critical water infrastructure needs while 
benefitting the environment, local communities, and the economy. OWRC 
is also concerned about various efforts by EPA to increase regulatory 
authority over water resources planning and urges the Senate to take 
action and prevent further jurisdictional overreach. EPA's actions to 
increase its jurisdiction are counterproductive to collaborative 
planning and detract from the positive solutions achieved through the 
CWSRF program.
    OWRC was established in 1912 as a trade association to support the 
protection of water rights and promote the wise stewardship of water 
resources statewide. OWRC members are local governmental entities, 
which include irrigation districts, water control districts, drainage 
districts, water improvement districts, and other agricultural water 
suppliers that deliver water to roughly one-third of all irrigated land 
in Oregon. These water stewards operate complex water management 
systems, including water supply reservoirs, canals, pipelines, and 
hydropower production.
                    fiscal year 2015 appropriations
    We recognize that our country is facing difficult economic times 
and that we must make strategic investments with scarce resources. The 
CWSRF is a perfect example of the type of program that should have 
funding increased because it creates jobs while benefitting the 
environment, and is an efficient return on taxpayer investment. Oregon 
is facing record levels of unemployment and the CWSRF funded projects 
provide much needed construction and professional services jobs. 
Moreover, as a loan program, it is a wise investment that allows local 
communities to leverage their limited resources and address critical 
infrastructure needs that would otherwise be unmet.
    Nationally, there are large and growing critical water 
infrastructure needs. In EPA's most recent needs surveys, The Clean 
Watersheds Needs Survey 2008: Report to Congress and Drinking Water 
Infrastructure Needs Survey and Assessment: Fourth Report to Congress, 
the estimated funding need for drinking water infrastructure totaled 
$335 billion (in 2007 dollars) and wastewater infrastructure needs 
totaled $298 billion (in 2008 dollars). Appropriations for water 
infrastructure, specifically CWSRF, should not be declining but 
remaining strong in order to meet these critical needs.
    In 2012 appropriations for the CWSRF program was approximately 
$2.384 billion and declined to $1.448 billion in fiscal year 2014. The 
President's fiscal year 2015 budget proposes only $1.018 billion for 
the CWRSF program; a $430 million reduction from fiscal year 2014 
enacted levels. We are concerned as we see this negative downward trend 
continuing.
    OWRC is supportive of the President's Climate Action Plan and 
related efforts to support actions that help address, mitigate, and 
adapt to severe weather events, like drought, that are related to 
climate change. We are, however; concerned about where the $2 million 
would come from and do not want any ``realigning'' to result in reduced 
funding for other important water infrastructure programs like CWSRF. 
There has not been an increase in funding for CWSRF since 2009; 
meanwhile, both infrastructure needs and the costs to address those 
needs continue to grow each year. Continued funding reductions has led 
to delaying repairs or upgrades which in turn increase the potential 
for catastrophic failure and is counterproductive to the 
administration's desire to encourage asset management and sustainable 
water infrastructure. To the extent practicable, funding for climate 
change should be incorporated into existing programs with proven 
successes like the CWSRF.
    We also continue to be highly supportive of the administration's 
desire to expand ``green infrastructure'' and are appreciative of the 
20 percent green infrastructure target for fiscal year 2015. In fact, 
irrigation districts and other water suppliers in Oregon are on the 
forefront of ``green infrastructure'' through innovative piping 
projects that provide multiple environmental benefits, which is 
discussed in greater detail below. However, continually reducing the 
amount of funds available for these worthwhile projects is 
counterproductive to the administration's desire and has created 
increased uncertainty for potential borrowers about whether adequate 
funding will be available in future years. CWSRF is often an integral 
part of an overall package of State, Federal and local funding that 
necessitates a stronger level of assurance that loan funds will be 
available for planned water infrastructure projects. Reductions in the 
CWSRF could lead to loss of grant funding and delay or derail 
beneficial projects that irrigation districts have been developing for 
years.
    Additionally, OWRC is pleased to see that EPA will continue 
``strategic partnerships'' with the USDA's Natural Resources 
Conservation Services (NRCS) and other Federal agencies to improve 
water quality and address nonpoint source pollution. Oregon had four 
priority watersheds eligible for funding through the National Water 
Quality Initiative in 2013 and anticipates that additional watersheds 
will be included in the future. As Oregon is a delegated State, OWRC 
also feels strongly that the Oregon Department of Environmental Quality 
(DEQ) is best situated to develop and implement activities to improve 
these and other impaired waterways in the State. DEQ and its 
administration of the CWSRF has been an extremely valuable tool in 
Oregon for improving water quality and efficiently addressing 
infrastructure challenges that are otherwise cost-prohibitive.
                     cwsrf local success and needs
    Six OWRC member districts have successfully received loans from the 
CWSRF over the last several years and many more will apply if funds are 
available. Numerous irrigation districts and other water suppliers need 
to pipe currently open canals, thereby improving water quality by 
eliminating run-off into the canals and increasing water availability 
for fish and irrigators by reducing water loss from the delivery 
system. Four irrigation districts received over $11 million funding in 
Oregon from the 2009 American Recovery and Reinvestment Act (ARRA) 
funding through the CWSRF for projects which created valuable jobs 
while improving water quality. These four projects were essential to 
DEQ not only meeting but exceeding the minimum requirement that 20 
percent of the total ARRA funding for the CWSRF be used for ``green'' 
projects. Those districts' applications had been on DEQ's list of 
eligible projects for many years and would probably still be on that 
list had the ARRA funding not been made available. We provide that 
comment not to complain, but to emphasize the need for additional 
funding for this program.
    What is being proposed for fiscal year 2015 is far short of what is 
needed to address critical water infrastructure needs in Oregon and 
across the Nation. This will lead to fewer water infrastructure 
projects, and therefore a reduction in improvements to water quality. 
The DEQ's most recent ``Proposed Intended Use Plan Update #1--State 
fiscal year 2014,'' lists 18 projects in need of a total of $45,265,547 
in Oregon alone. The Federal capitalization grant funding that has been 
historically available to DEQ has not yet been awarded for fiscal year 
2014; however, based on previous years it is doubtful that the fiscal 
year 2014 funding will be adequate to address and complete these much 
needed projects. Unfortunately, due to recent cutbacks and lack of 
availability of funds, no irrigation districts submitted applications 
for funding in 2014, but we are hopeful that with an increase in money 
available, more of our member districts will apply for funding to 
complete projects that will not only benefit the environment and the 
patrons served by the water delivery system, but also benefit the 
economy.
         the importance and success of local watershed planning
    Oregon's success in watershed planning illustrates that planning 
efforts work best when diverse interests develop and implement plans at 
the local watershed level with support from State government. Oregon 
has recently revised their CWSRF rules; thus making conservation easier 
and its benefits to be better achieved in the State. That is why OWRC 
is very concerned about EPA's recent efforts to revise Clean Water Act 
Guidance without appropriate public process or legislative oversight. 
The proposed changes would greatly broaden EPA authority and 
illustrates an apparent desire to dictate watershed planning methods 
for the Nation using a top-down regulatory approach from a desk in 
Washington DC. This regulatory overreach will lead to uncertainty for 
landowners and water users, increased litigation and destroy 
collaborative efforts (including CWSRF projects) already underway in 
Oregon and across the Nation.
    As the national model for watershed planning, Oregon does not need 
a new Federal agency or Executive Branch office to oversee conservation 
and restoration efforts. Planning activities are conducted through 
local watershed councils, volunteer-driven organizations that work with 
local, State and Federal agencies, economic and environmental 
interests, agricultural, industrial and municipal water users, local 
landowners, tribes, and other members of the community. There are over 
60 individual watershed councils in Oregon that are already deeply 
engaged in watershed planning and restoration activities. Watershed 
planning in Oregon formally began in 1995 with the development of the 
Oregon Plan for Salmon Recovery and Watershed Enhancement, a statewide 
strategy developed in response to the Federal listing of several fish 
species. This strategy led to the creation of the Oregon Watershed 
Enhancement Board (OWEB), a State agency and policy oversight board 
that funds and promotes voluntary and collaborative efforts that ``help 
create and maintain healthy watersheds and natural habitats that 
support thriving communities and strong economies'' in 1999.
                               conclusion
    In conclusion, we applaud the CWSRF program for allowing Oregon's 
DEQ to make targeted loans that address Clean Water Act issues and 
improve water quality but also help incentivize innovative water 
management solutions that benefit local communities, agricultural 
economies, and the environment. This voluntary approach creates and 
promotes cooperation and collaborative solutions to complex water 
resources challenges. Conversely, regulatory overreach destroys 
cooperation, creates mistrust and has a very negative effect on jobs 
and local economies. We respectfully request the appropriation of at 
least $2 billion for the U.S. Environmental Protection Agency's Clean 
Water State Revolving Loan Fund for fiscal year 2015.
                                 ______
                                 
         Prepared Statement of the Outdoor Industry Association
                                                      May 22, 2014.
Hon. Jack Reed, Chairman,
Committee on Appropriations, Subcommittee on the Interior, Environment, 
        and Related Agencies, U.S. Senate, Washington, DC.

Hon. Lisa Murkowski, Ranking Member,
Committee on Appropriations, Subcommittee on the Interior, Environment, 
        and Related Agencies, U.S. Senate, Washington, DC.

    Dear Chairman and Ranking Member: On behalf of the Outdoor Industry 
Association, and our more than 1,300 member companies, I write to urge 
you to support adequate and sustainable funding for the recreation and 
preservation programs of the Department of the Interior, the U.S. 
Forest Service and the Environmental Protection Agency. This year we 
celebrate the 50th anniversary of the Land and Water Conservation Fund 
and the Wilderness Act and are approaching the National Park Service 
Centennial in 2016. Now, more than ever, is the time to prepare our 
public lands and waters for the next century by investing in these very 
places that provide clean air and water, American jobs, attract 
international tourists, unite communities and make America a healthier, 
more prosperous place to raise a family and start a business.
    The strength of our national economy is directly linked to the 
treasures that are our parks, forests, waterways, wildlife refuges, 
recreational trails and similar recreation assets. These public lands 
and waters are deeply popular with American families nationwide. 
Moreover, they represent a foundational infrastructure for recreation, 
just as important as highways are to the transportation industry or 
fiber optic lines are to the telecommunications industry. Diverse, 
accessible, and affordable places for every American to get outdoors 
and enjoy healthy lifestyles are crucial to the health and well being 
of the American people and our economy.
    Rather than compounding our deficit problems, our national outdoor 
recreation system produces exceptional economic value and jobs in 
communities across the country. Our public lands and waters drive a 
recreational economy that spawns $646 billion in direct consumer 
spending, supports more than 6 million sustainable American jobs, and 
generates more than $80 billion in Federal, State and local tax 
revenue. At the local level, resources invested in recreational trail 
infrastructure, river access and other open spaces have an impressive 
and sustainable return for local economies, especially those in rural 
areas. For every $1 spent on the national parks, local communities see 
a $10 return. We saw the reverse of this investment during last year's 
Government shutdown, when gateway communities lost upwards of $76 
million each day as nearby public lands were closed.
    More than ever Americans are prioritizing the outdoors, with half 
of our population, 140 million people, recreating outside each year. 
Americans spend more on outdoor recreation than on pharmaceuticals, 
gasoline and motor vehicles and in 2013 outdoor product sales were up 
10.3 percent. In fact, outdoor product sales grew more than 7 percent 
in both 2011 and 2012 while other industries were suffering from the 
recession. We need Congress to support the growing outdoor economy and 
the people and communities who rely on it.
    In real terms, Federal spending on natural resources and recreation 
programs has declined over the last 20 years. This program area 
comprised less than 1 percent of the total Federal budget for fiscal 
year 2013. Natural resources, recreation, bicycling, and community 
development programs are, at best, paltry contributors to the Federal 
deficit yet they have been disproportionately targeted for cuts in the 
past. We believe this should be avoided as Congress begins 
consideration of the fiscal year 2015 Federal appropriations. These 
programs need to be recognized as shining examples of economic growth 
engines and the type of sound investment that the Federal Government 
should pursue.
    To do this we ask Congress to fulfill the promise and obligation of 
the LWCF fund and to recognize the importance and value of the 
investments in the natural resources, recreation, conservation, and 
preservation programs found in the budgets for the Department of the 
Interior, the Forest Service, and the EPA. We urge Congress to prepare 
the National Parks System for its second century by funding backlogged 
maintenance and considering opportunities for public/private 
partnerships, and to fund any amount above 70 percent of the 
anticipated cost of wildfire suppression from an emergency fund outside 
of the land management agencies' budgets.
    Please provide adequate funding for the our Nation's public lands 
and waters as outlined below:

  --Department of the Interior--$11.9 billion
  --National Park Service Centennial
    --$40 million increase--fiscal year 2015 appropriations
    --$400 million in permanent funding each year for the next 3 years,
      -- $100 million--Centennial Challenge
      -- $200 million--National Park Service facilities improvements
      -- $100 million--Centennial Land Management Investment Fund
  --Land and Water Conservation Fund (Total)--$900 million
  --Agriculture--National Forest System (USFS)--$5.4 billion
  --EPA--Protecting America's Waters--$3.4 billion

    Investments in green spaces and outdoor recreation infrastructure 
create healthy and productive communities that offer lasting, good jobs 
and draw businesses and entrepreneurs. There is no doubt that people 
use green spaces when they're available, well maintained and close at 
hand. A growing body of evidence demonstrates that access to parks, 
trails, and other places to play has significant economic and health 
benefits.
    Outdoor recreation and the outdoor industry are a core economic 
sector in America, driven by innovation and technology. Sustainable, 
American jobs exist across the value chain--suppliers, manufacturers, 
retailers, sales representatives. Moreover, outdoor recreation is an 
industry that America dominates worldwide. The world looks to America 
as the leader in the protection of our public lands and waters and 
looks to American brands for innovative outdoor products, gear, apparel 
and footwear.
    A healthy and diverse outdoor recreation economy promotes economic 
activity and jobs in every community--large & small, urban & rural--
across America. Outdoor recreation and the places that Americans get 
outside-- parks, trails, rivers and open space--are critical economic 
drivers and essential to a high quality of life. Cutting funding that 
supports those quality places directly and adversely impacts not just 
the outdoor industry, but a diversity of other industries and myriad 
associated businesses that chose their location, in large part, on 
accessible, healthy public lands and watersheds and outdoor spaces to 
be enjoyed by their workforce. Conversely, investing in these quality 
lands and waters promises significant economic growth for both the 
outdoor industry and the many associated businesses that choose to 
locate near public lands and outdoor spaces in order to improve the 
quality of life experience for their employees.
    Please promote a strong economy and happy, healthy families and 
communities by investing in our Nation's parks, trails, rivers and open 
spaces.
            Respectfully,
                                               Kirk Bailey,
                                Vice President--Government Affairs.
                                 ______
                                 
          Prepared Statement of the Outdoors Alliance for Kids
    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee: We, the undersigned members of the Outdoors Alliance for 
Kids (OAK), thank you for your past support of programs to connect 
children and youth with the outdoors, and we urge you to sustain 
funding for fiscal year 2015 programs at the U.S. Department of the 
Interior, Environmental Protection Agency, and U.S. Forest Service that 
increase engagement in the outdoors through outdoor education, 
community health and wellness, and environmental stewardship programs 
that engage children, youth and young veterans in the outdoors. We also 
urge you to maintain sufficient funding for agencies to adequately 
manage our public lands and waters.
    OAK is a national strategic partnership of businesses and 
organizations representing more than 30 million individuals from 
diverse sectors of the economy with the common interest in expanding 
the number and quality of opportunities for children, youth, and 
families to connect with the outdoors. OAK supports public policies and 
investments that expand outdoor education opportunities, promote 
community health and wellness, and engage more youth in environmental 
stewardship. A list of OAK's organizational members can be found here.
    We understand that we are in difficult fiscal times, but balancing 
the budget at the expense of programs and initiatives that ensure 
children and youth have opportunities to learn, get physically active, 
and increase their volunteerism in the outdoors will be a detriment to 
our great Nation. Environmental education provides critical tools for a 
21st century workforce by giving students the skills to understand 
complex environmental systems and issues, and prepares students to 
compete globally and address environmental challenges and opportunities 
that impact our economy, health, and national security. Community 
health and wellness are critical investments for the local economy as 
well. The prevention of chronic diseases can save lives, as well as 
promote the physical and mental wellbeing of all Americans. 
Environmental stewardship can provide opportunities for young people to 
not only spend more time outdoors, but also to obtain basic job skills 
as the youth unemployment rates skyrocket. In addition to contributing 
to our Nation's robust outdoor recreation economy, youth volunteer and 
work programs help address a backlog of maintenance needs piling up on 
our public lands, address record youth unemployment, and prepare a 
diverse group of youth to be the next generation of natural resource 
employees.
    These areas are vital to the success of the U.S. in the global 
economy, and to our ability to create a 21st century workforce that is 
healthy, skilled, and prepared to be the next generation of leaders. 
The outdoor industry alone provides 6.1 million jobs and $646 billion 
in direct consumer spending each year. Outdoor recreation, such as that 
enjoyed in national, State, and local parks, provides millions of 
America's children, youth, and families with an opportunity to hike, 
bike, swim, paddle or simply commune with nature. The outdoor 
recreation economy generates $39.9 billion in Federal revenue and 
another $39.7 billion in State and local revenue annually.
    OAK supports funding and initiatives to increase outdoor education, 
promote community health and wellness and provide young people with 
jobs, training, and service and volunteer opportunities that connect 
them to the outdoors and recreation. We urge the subcommittee to 
restore funding to allow land management agencies to adequately manage 
our public lands and waters and to provide robust funding for the 
following programs that get youth outdoors:

  --Department of the Interior.--OAK supports the Department of the 
        Interior's goal of providing 40,000 work and training 
        opportunities over fiscal years 2014 and 2015. To this end, we 
        urge you to support the administration's budget request of 
        $50.6 million for youth programs in the Bureau of Land 
        Management, U.S. Geological Survey, Fish and Wildlife Service, 
        National Park Service, Bureau of Indian Affairs, and the Bureau 
        of Reclamation. A key component of the Department's efforts 
        will be partnering with youth organizations through the 21st 
        Century Conservation Service Corps (21CSC). The opportunities 
        provided by 21CSC will encourage youth to assume responsibility 
        for the stewardship and preservation of America's great 
        outdoors, teach them basic job skills at a time when youth 
        unemployment is near record levels and young people are missing 
        out on critical early job experiences, and improve public 
        health by helping young people develop and maintain active 
        lifestyles. In addition, we urge you to fund the National Park 
        Service Centennial Challenge, to support thousands of veterans, 
        youth, and others to work to upgrade the National Park System 
        for its 100th anniversary in 2016.
      We also urge you to sustain funding for the operational accounts 
        of the National Park Service, Bureau of Land Management, Bureau 
        of Reclamation, Fish and Wildlife Service, and the U.S. Forest 
        Service, all of which could fund partnerships with Conservation 
        Corps.

  --Environmental Protection Agency.--OAK urges the subcommittee to 
        sustain funding for the National Environmental Education Act 
        (NEEA) programs at the Environmental Protection Agency at the 
        recent level of $9.7 million. This program implements highly 
        successful, nationwide environmental education programs. These 
        programs support life-long environmental education and 
        stewardship through several highly-leveraged, but under-
        resourced programs, including the National Environmental 
        Education Training Program to provide professional development 
        for teachers, the National Environmental Education Foundation 
        to leverage public/private partnerships, and an environmental 
        education grant program to support local environmental 
        education providers.

    We thank you in advance for your support for these critical 
programs and look forward to working with you and your staff in the 
coming year.
    Thank you for your consideration of this request.
    This testimony is submitted on behalf of the following 39 members 
of the Outdoors Alliance for Kids:

Alliance for Childhood
American Canoe Association
American Hiking Society
American Society of Landscape Architects
American Youthworks
Appalachian Mountain Club
Association of Outdoor Recreation and Education
Children & Nature Network
Choose Outdoors
Conservation Legacy
GirlTrek
Hudson River Sloop Clearwater
International Mountain Bicycling Association
IslandWood
Izaak Walton League of America
Kids4Trees
National Interscholastic Cycling Association
National Military Family Association
National Outdoor Leadership School
National Park Trust
National Parks Conservation Association
National Recreation and Park Association
National Wildlife Federation
NatureBridge
North American Association for Environmental Education
O'Neill Sea Odyssey
Outdoor Afro
Outdoor Outreach
Outdoors Empowered Network
Public Lands Service Coalition
Sierra Club
The Corps Network
The Outdoor Foundation
The Wilderness Society
Trout Unlimited
Trust for Public Land
Wilderness Inquiry
Winter Wildlands Alliance
YMCA of the USA
                      
                                 ______
                                 
          Prepared Statement of the Pacific Salmon Commission
    Mr. Chairman, and honorable members of the subcommittee, I am McCoy 
Oatman the Alternate Tribal Commissioner for U.S. Section of the 
Pacific Salmon Commission (PSC). The U.S. Section prepares an annual 
budget for implementation of the treaty. The integrated budget details 
program needs and costs for tribal, Federal, and State agencies 
involved in the treaty. The tribal participation in the Pacific Salmon 
Treaty process is funded in the Bureau of Indian Affairs (BIA) budget.

          In order meet the increased obligations under the 2009-2018 
        Pacific Salmon Treaty Agreement the 25 affected tribes 
        identified costs at $4,800,000 for tribal research projects and 
        participation in the U.S.-Canada Pacific Salmon Treaty process, 
        an increase of $520,000 over fiscal year 2014 enacted level. 
        The funding for tribal participation in the U.S./Canada Salmon 
        Treaty is a line item in the BIA's budget under the Rights 
        Protection Implementation, Wildlife and Parks, Other Recurring 
        Programs Area.

    Under U.S. Fish and Wildlife Service programs, the U.S. Section 
identified needs as follows:

          USFWS participation in the treaty process is identified at a 
        base level of $417,000. The Pacific States Marine Fisheries 
        Commission's Regional Mark Center receives support from the 
        USFWS to provide data services to the PSC process. Those costs 
        are identified at $315,000. This funding level represents an 
        increase of $75,000 over fiscal year 2012 enacted levels for 
        the Mark Center to make up for losses from other programs and 
        allow the Mark Center to maintain the same level of service to 
        the U.S. Section.

    This base funding for the U.S. Fish and Wildlife Service supports 
critically important on-going work. The funding for Pacific States 
Marine Fisheries Commission's Regional Mark Center is utilized to meet 
Treaty requirements concerning data exchange with Canada. These program 
recommendations are integrated with those of the State and Federal 
agencies to avoid duplication of effort and provide for the most 
efficient expenditure of scarce funds.
    A copy of the integrated U.S. Section Budget Justification will be 
made available to the subcommittee. The budget summary justifies the 
support needed to carry out necessary functions in implementing the 
treaty. Funding to support activities under the Pacific Salmon 
Commission comes from the Departments of Interior, State, and Commerce. 
Adequate funding from all three Departments is necessary for the U.S. 
to meet its treaty obligations. All of the funds are needed for 
critical data collection and research activities directly related to 
the implementation and are used in cooperative programs involving 
Federal, State, and tribal fishery agencies and the Department of 
Fisheries in Canada. The commitment of the United States is matched by 
the commitment of the Government of Canada.
    The U.S. Section of the Pacific Salmon Commission is recommending 
an adjustment to support the work carried out by the 24 treaty tribes' 
that participate in the implementation of the treaty. Programs carried 
out by the tribes are closely coordinated with those of the States and 
Federal agencies. Tribal programs are essential for the United States 
to meet its international obligations. Tribal programs have taken on 
additional management responsibilities due to funding issues with State 
agencies. All participating agencies need to be adequately supported to 
achieve a comprehensive U.S. effort to implement the Treaty.
    The U.S. Fish and Wildlife Service activities are necessary so the 
U.S. can maintain the critical database to implement the treaty. The 
work of the Regional Mark Processing Center includes maintaining and 
updating a coastwide computerized information management system for 
salmon harvest and catch effort data as required by the treaty. This 
work has become even more important to monitor the success of 
management actions at reducing impacts on ESA-listed salmon 
populations. Canada has a counterpart database. The database will 
continue to be housed at the Pacific States Marine Fisheries 
Commission.
    Mr. Chairman, the United States and Canada established the Pacific 
Salmon Commission, under the Pacific Salmon Treaty of 1985, to conserve 
salmon stocks, provide for optimum production of salmon, and to control 
salmon interceptions. After more than 20 years, the work of the Pacific 
Salmon Commission continues to be essential for the wise management of 
salmon in the Northwest, British Columbia, and Alaska. For example, 
upriver Bright fall Chinook salmon from the Hanford Reach of the 
Columbia River are caught in large numbers in Alaskan and Canadian 
waters. Tribal and non-tribal fishermen harvest sockeye salmon from 
Canada's Fraser River in the Strait of Juan de Fuca and in Puget Sound. 
Canadian trollers off of the west coast of Vancouver Island catch 
Washington coastal Coho salmon and Puget Sound Chinook salmon. In the 
Northern Boundary area between Canada and Alaska, fish from both 
countries are intercepted by the other country in large numbers. The 
Commission provides a forum to ensure cooperative management of salmon 
populations. In 2008, the U.S. and Canada successfully concluded 
lengthy negotiations to improve this management, including the 
adjustments to the coastwide abundance-based management regime for 
Chinook salmon and a framework for abundance based management for 
southern Coho populations. The agreement is intended to last through 
2018. The U.S. and Canada completed a revised Fraser River sockeye and 
pink chapter in 2013.
    Before the treaty, fish wars often erupted with one or both 
countries overharvesting fish that were returning to the other country, 
to the detriment of the resource. At the time the treaty was signed, 
Chinook salmon were in a severely depressed state as a result of 
overharvest in the ocean as well as environmental degradation in the 
spawning rivers. Under the treaty, both countries committed to rebuild 
the depressed runs of Chinook stocks, and they recommitted to that goal 
in 1999 when adopting a coastwide abundance based approach to harvest 
management. Under this approach, harvest management will complement 
habitat conservation and restoration activities being undertaken by the 
States, tribes, and other stakeholders in the Pacific Northwest to 
address the needs of salmon listed for protection under the Endangered 
Species Act. The 2008 Chinook agreement continues these commitments. 
The combination of these efforts is integral to achieving success in 
rebuilding and restoring healthy, sustainable salmon populations.
    Finally, you should take into account the fact that the value of 
the commercial harvest of salmon subject to the treaty, managed at 
productive levels under the treaty, supports the infrastructure of many 
coastal and inland communities. The value of the recreational 
fisheries, and the economic diversity they provide for local economies 
throughout the Pacific Northwest and Alaska, is also immense. The value 
of these fish to the 24 treaty tribes in Washington, Oregon, and Idaho 
goes far beyond their monetary value, to the cultural and religious 
lives of Indian people. A significant monetary investment is focused on 
salmon as a result of listings of Pacific Northwest salmon populations 
under the Endangered Species Act. Given the resources, we can continue 
to use the Pacific Salmon Commission to develop recommendations that 
help to ensure solutions that minimize impacts on listed stocks, 
especially if we are allowed to work towards the true intent of the 
treaty: mutually beneficial enhancement of the shared resource.
    Mr. Chairman, that concludes my written testimony submitted for 
consideration by your subcommittee. I want to thank the Committee for 
the support that it has given the U.S. Section in the past. Please feel 
free to contact me, or other members of the U.S. Section to answer any 
questions you or subcommittee members may have regarding the U.S. 
Section of the Pacific Salmon Commission budget.
                                 ______
                                 
  Prepared Statement of the Partnership for the National Trails System
    Mr. Chairman and members of the subcommittee: The Partnership for 
the National Trails System appreciates your support over the past 20 
years, through operations funding and dedicated Challenge Cost Share 
funds, for the national scenic and historic trails administered by the 
National Park Service. We also appreciate your increased allocation of 
funds to support the trails administered and managed by the Forest 
Service and for the trails in the Bureau of Land Management's National 
Landscape Conservation System. To continue the progress that you have 
fostered, the Partnership requests that you provide annual operations 
funding for each of the 30 national scenic and historic trails for 
fiscal year 2015 through these appropriations:
  --National Park Service.--$16.21 million for administration of 23 
        trails and for coordination of the long-distance trails program 
        by the Washington office. Construction.--$380,000 for the Ice 
        Age Trail, $240,000 for the Appalachian Trail, and $200,000 for 
        the Pacific Crest Trail.
  --USDA Forest Service.--$7.896 million to administer 6 trails and 
        $1.2 million to manage parts of 16 trails administered by the 
        National Park Service (NPS) or the Bureau of Land Management 
        (BLM). $1 million for Iditarod Trail construction.
  --Bureau of Land Management.--$1.53 million to administer three 
        trails and for coordination of the National Trails program and 
        $7.14 million to portions of 13 trails administered by the Park 
        Service or the Forest Service and for operating five National 
        Historic Trail interpretive centers. Construction.--$300,000 
        for the Pacific Crest Trail.
  --We ask that you appropriate $4.5 million for the National Park 
        Service Challenge Cost Share Program and continue to direct 
        one-third ($1,500,000) for national scenic and historic trails 
        or create a separate $1.5 million National Trails System 
        Challenge Cost Share Program.
  --We ask that you add $500,000 to the Bureau of Land Management's 
        Challenge Cost Share Program and allocate it for the national 
        scenic and historic trails it administers or manages.
    We ask that you appropriate $57,695,000 from the Land and Water 
Conservation Fund for the acquisition of 53 tracts along seven national 
scenic and eight national historic trails described in the National 
Trails System Collaborative Landscape Planning proposal and allocate 
this funding to the:
  --Bureau of Land Management: $15,246,000 million;
  --U.S. Fish and Wildlife Service: $7,829,000 million;
  --U.S. Forest Service: $15,271,000 million; and
  --National Park Service: $25,002,600 million.
                         national park service
    The $16.21 million we request for Park Service operations includes 
increases for some of the trails to continue the progress and new 
initiatives made possible by the additional funding Congress provided 
several years ago. Funding for the new Star Spangled Banner and 
Washington-Rochambeau Trails and $400,000 for the Park Service to 
implement planning for the New England Trail is included.
    We request an increase of $626,000 to expand Park Service efforts 
to protect cultural landscapes at more than 200 sites along the Santa 
Fe Trail, to develop geographic information system (GIS) mapping, and 
to fund public educational outreach programs of the Santa Fe Trail 
Association. An increase of $780,000 for the Trail of Tears will enable 
the Park Service to work with the Trail of Tears Association to develop 
a GIS to map the trail's historical and cultural heritage sites to 
protect them and to develop interpretation of them for visitors. We 
request an increase of $346,000 to $866,000 for the Ala Kahakai Trail 
to enable the Park Service to work with E Mau Na Ala Hele, the Ala 
Kahakai Trail Association, and other community organizations to care 
for resources on the land and with the University of Hawaii to conduct 
archaeological and cultural landscape studies along this trail.
    We request an increase of $193,000 to $1,708,000 for the 
Appalachian Trail to expand the highly successful ``Trail to Every 
Classroom'' program of the Appalachian Trail Conservancy. The 
$1,483,000 we request for the 4,200 mile North Country Trail will 
enable the Park Service to provide greater support for the regional GIS 
mapping, trail building, trail management, and training of volunteers 
led by the North Country Trail Association. The $1,389,000 we request 
for the Ice Age Trail includes a $535,000 increase to build partner and 
citizen capacity for protecting the natural and cultural resources on 
the Trail and Ice Age Trail lands and to provide NPS with a property 
manager for NPS-owned lands.
    Construction.--We request that you appropriate $380,000 for the Ice 
Age Trail, $240,000 for the Appalachian Trail, and $200,000 for the 
Pacific Crest Trail for trail construction projects.
    Challenge Cost Share programs are one of the most effective and 
efficient ways for Federal agencies to accomplish a wide array of 
projects for public benefit while also sustaining partnerships 
involving countless private citizens in doing public service work. We 
request that you robustly fund the Park Service, Bureau of Land 
Management, and Fish and Wildlife Service Challenge Cost Share programs 
and appropriate $4.5 million in Challenge Cost Share funding to the 
Park Service for fiscal year 2015 as a wise investment of public money 
that will generate public benefits many times greater than its sum. We 
ask you to continue to direct one-third of the $4.5 million for the 
national scenic and historic trails to continue the steady progress 
toward making these trails fully available for public enjoyment. We 
suggest, as an alternative to this approach, that you create a separate 
National Trails System Challenge Cost Share program with $1.5 million 
funding.
                          usda--forest service
    We ask you to appropriate $7.896 million as a separate budgetary 
item specifically for the Arizona, Continental Divide, Florida, Pacific 
Crest, and Pacific Northwest National Scenic Trails and the Nez Perce 
National Historic Trail within the over-all appropriation for Capital 
Improvements and Maintenance for Trails. Recognizing the on-the-ground 
management responsibility the Forest Service has for 1024 miles of the 
Appalachian Trail, more than 650 miles of the North Country Trail, and 
sections of the Ice Age, Anza, Caminos Real de Tierra Adentro and de 
Tejas, Lewis & Clark, California, Iditarod, Mormon Pioneer, Old 
Spanish, Oregon, Overmountain Victory, Pony Express, Trail of Tears and 
Santa Fe Trails, we ask you to appropriate $1.2 million specifically 
for these trails.
    The Partnership's request of $7.896 million includes $1.5 million 
to enable the Forest Service and Florida Trail Association to continue 
trail maintenance, to control invasive species, do ecosystem 
restoration, and otherwise manage 4,625 acres of new Florida Trail 
land. The $7.896 million request also includes $2 million for the 
Pacific Crest Trail, $2 million for the Continental Divide Trail, $1 
million for the Pacific Northwest Trail, $826,000 for the Nez Perce 
Trail, and $570,000 for the Arizona Trail. Some of the additional funds 
requested will enable the Forest Service to develop Comprehensive 
Management Plans for the latter three trails. We also request $1 
million of additional funding for construction of sections of the 
Iditarod Trail.
                       bureau of land management
    Although considerably more money is needed to fully administer the 
National Landscape Conservation System and protect its resources, we 
request that you appropriate $68.809 million in base funding for the 
System. We ask that you appropriate as new permanent base funding 
$250,000 for National Trails System Program Coordination, $700,000 for 
the Iditarod Trail, $230,000 for El Camino Real de Tierra Adentro 
Trail, $350,000 for the Old Spanish Trail, and $4,000,000 for the 
Bureau of Land Management to manage 4,645 miles of 13 other national 
scenic and historic trails. For trail maintenance we request $300,000 
for the Pacific Crest Trail and $50,000 for the Nez Perce Trail; and 
request $3,140,000 to operate five historic trails interpretive 
centers.
    We ask you to provide $5 million for the Bureau's Challenge Cost 
Share (CCS) program and to direct $500,000 for National Trails System 
projects as you have done with the Park Service's CCS program.
    To promote greater management transparency and accountability for 
the National Trails and the whole National Landscape Conservation 
System, we urge you to request expenditure and accomplishment reports 
for each of the NLCS Units for fiscal year 2014 and to direct the 
Bureau to include unit-level allocations within major sub-activities 
for each of the scenic and historic trails, and wild and scenic 
rivers--as the Bureau has done for the national monuments, wilderness, 
and conservation areas--within a new activity account for the National 
Landscape Conservation System in fiscal year 2015. The Bureau's lack of 
a unified budget account for National Trails prevents the agency from 
efficiently planning, implementing, reporting, and taking advantage of 
cost-saving and leveraging partnerships and volunteer contributions for 
every activity related to these national resources.
                    land and water conservation fund
    The Partnership strongly supports the President's Budget proposal 
to fully fund the Land and Water Conservation Fund at the authorized 
$900 million, with $350 million from discretionary sources and $550 
million in mandatory funds for the component programs funded under 
LWCF. Within this amount we request that you appropriate $57,695,000 
for the National Trails System Collaborative Landscape Planning 
proposal to acquire 53 tracts along 15 national scenic and historic 
trails detailed here:

 Bureau of Land Management: $15,246,000 million--7 tracts--15,859 acres

    Lewis and Clark National Historic Trail (Montana).--$11,704,000 for 
trail, landscape, habitat and recreation protection along the Upper 
Missouri River frontage, including key campsites from Lewis and Clark's 
historic expedition and breathtaking views along Missouri River.
    Nez Perce National Historic Trail (Idaho).--$3,000,000 for trail 
and resource conservation at one of the last remaining working ranches 
at Henry's Lake.
    Pacific Crest National Scenic Trail (Oregon, California).--$542,000 
for trail and resource protection within the Cascade Siskiyou National 
Monument.

 U.S. Fish and Wildlife Service: $7,829,000 million--14 tracts--4,634 
                                 acres

    Captain John Smith Chesapeake National Historic Trail (Virginia).--
$2,000,000 to protect the trail's historical resources in an area that 
would encourage public recreation and interpretation.
    Iditarod National Historic Trail (Alaska).--$90,000 for protection 
of 120 acres within the Innoko Wilderness Area in the Innoko National 
Wildlife Refuge and 1.6 miles of the Iditarod Trail.
    Lewis and Clark National Historic Trail (Washington).--$270,000 to 
allow 13 listed salmon and steelhead stocks to reverse their downward 
population trend in the Columbia watershed.
    Trail of Tears National Historic Trail (Tennessee).--$2,969,000 for 
seven tracts along the Mississippi river that will protect migration 
corridors within the Chickasaw and Lower Hatchie National Wildlife 
Refuges.
    California National Historic Trail (Idaho).--$2,500,000 to protect 
the largest breeding concentration of Sandhill Cranes as well as 
providing a haven for other waterfowl from a current farming threat.

    U.S. Forest Service: $15,271,000 million--10 tracts--7,701 acres

    Appalachian National Scenic Trail (North Carolina).--$3,906,500 to 
protect high priority, high elevation viewshed along the Appalachian 
Trail that connects with North Carolina land purchased to the south to 
provide an extensive natural heritage area.
    Continental Divide National Scenic Trail (Montana).--$255,000 to 
achieve uninterrupted trail corridor enabling animal migration and 
human recreation.
    Trail of Tears National Historic Trail (Tennessee).--$585,000 to 
preserve one of the few remaining segments of Trail of Tears in its 
original condition along the Unicoi Turnpike.
    Old Spanish National Historic Trail (New Mexico).--$2,570,000 to 
finalize the protection of a 5-mile-long segment of the Old Spanish 
Trail as it enters Carson National Forest.
    Pacific Northwest National Scenic Trail (Washington).--$2,800,000 
to conserve grizzly bear and Canadian lynx habitat while filling in a 
2.5 mile gap of the Pacific Northwest Trail along Big Sheep Creek.
    Nez Perce National Historic Trail (Montana).--$1,050,000 to 
complete the consolidation of lands on Bloody Dick and Selway Creeks in 
the Beaverhead-Deerlodge National Forest.
    Pacific Crest National Scenic Trail (California, Washington).--
$4,104,000 for trail, resource, and watershed protection near the 
headwaters of the Trinity River and through populous King County to 
increase public recreation.

 National Park Service Budget Request $25,002,600 million--22 tracts--
                              5,349 acres

    Ala Kahakai National Historic Trail (Hawaii).--$3,900,000 for trail 
and resource conservation in the Great Crack.
    Appalachian National Scenic Trail (New Hampshire).--$4,260,000 to 
extinguish the threat of imminent development and to create a block of 
2,000 acres of conservation land that protects an Appalachian Trail 
viewshed.
    Continental Divide National Scenic Trail (Colorado).--$308,000 to 
remove motorized use of 0.5 miles of the Continental Divide Trail and 
to restore 1 acre of habitat currently occupied by an access road and 
buildings in the scenic Rocky Mountain National Park.
    Ice Age National Scenic Trail (Wisconsin).--$3,700,000 to provide 
an urban access point to the Ice Age Trail in the city of St. Croix, 
and to enhance the geologic diversity of the trail by completing a 
continuous 4-mile segment through Wisconsin's Driftless Area.
    New England National Scenic Trail (Massachusetts).--$120,000 to 
significantly improve hiker safety and scenic viewshed by keeping 
hikers off 2.5 miles of busy road, and to contribute to the protection 
of a contiguous open space corridor extending from Erving State Forest 
to the east and Rattlesnake Mountain and Northfield Mountain and Mount 
Grace to the west.
    Captain John Smith Chesapeake National Historic Trail (Virginia).--
$6,000,000 to permanently protect and open for public education and 
archaeological research a nationally significant American Indian site.
    North Country National Scenic Trail (Michigan).--$1,061,300 to 
protect a corridor along Tyler Creek that connects existing protected 
land and gets four miles of the North Country Trail off dangerous 
roads.
         private sector support for the national trails system
    Public-spirited partnerships between private citizens and public 
agencies have been a hallmark of the National Trails System since its 
inception. These partnerships create the enduring strength of the 
Trails System and the trail communities that sustain it by combining 
the local, grass-roots energy and responsiveness of volunteers with the 
responsible continuity of public agencies. They also provide private 
financial support for public projects, often resulting in a greater 
than equal match of funds.
    The private trail organizations' commitment to the success of these 
trail-sustaining partnerships grows even as Congress' support for the 
trails has grown. In 2013 the trail organizations fostered 1,144,407 
hours of documented volunteer labor valued at $25,337,171 to help 
sustain the national scenic and historic trails. The organizations also 
raised private sector contributions of $11,151,247 for the trails.
                                 ______
                                 
           Prepared Statement of the Performing Arts Alliance
    Mr. Chairman and distinguished members of the subcommittee, we 
thank you for the opportunity to submit this testimony on behalf of the 
Performing Arts Alliance (PAA). We urge the subcommittee to designate a 
budget of $155 million to the NEA for fiscal year 2015. PAA member 
organizations include:

Alternate ROOTS
American Composers Forum
Association of Performing Arts Presenters
Chamber Music America
Chorus America
Dance/USA
Fractured Atlas
League of American Orchestras
National Alliance for Musical Theatre
National Association of Latino Arts and Cultures
National Performance Network
Network of Ensemble Theaters
New Music USA
OPERA America
Theatre Communications Group

    PAA is a national network of more than 33,000 organizational and 
individual members comprising the professional, nonprofit performing 
arts and presenting fields.
    We submit this testimony to highlight the importance of the Federal 
investment in the arts in order to sustain a vibrant cultural 
community. The National Endowment for the Arts holds a significant 
Federal leadership role for the arts and culture in America. Its grants 
are investments in education, artistic development, the continuation 
and preservation of our country's artistic heritage, and the overall 
quality of life for American citizens. There are many reasons why we 
are asking you to support the agency:
  --NEA grants support a range of educational and community engagement 
        projects;
  --NEA funds spread across the country and expand arts access;
  --Federal funding for the arts leverages private funding; and
  --Rural and underserved communities--as well as underserved 
        populations--benefit from arts programs supported by NEA funds.
    We share with you the following examples of constituents of PAA 
members who have received NEA grants in fiscal year 2014. Their work is 
a sample of the numerous ways in which the Endowment's support widens 
citizen access to the cultural, educational, social, and economic 
benefits of the arts in American communities.
NEA grants support a range of educational projects
    American Jazz Museum in Kansas City, Missouri--a member of 
Association of Performing Arts Presenters and Chamber Music America--
received Art Works support for its 2014 18th and Vine Jazz Festival. 
The Museum partners with the Metropolitan Community College-Penn Valley 
for this annual festival which brings jazz music training, workshops, 
and performance opportunities to local middle and high school and 
college student. During the festival, budding musicians hone their 
musical skills under the tutelage of world renowned jazz artists and 
learn about the history of this rich American art form from some of the 
history makers themselves.
    Arts education also includes training in behind-the-scenes, 
technical aspects of the performing arts. OPERA America member Lyric 
Opera of Kansas City (Missouri) will operate its STAGES summer youth 
opera camp this year with support from an Art Works grant. STAGES 
provides youth with significant hands-on experience in design, 
lighting, and stagecraft, introducing them to the possibilities of a 
career in the field. Our Nation's performing arts organizations put 
people to work, and education programs like this offer youth--
tomorrow's workforce--opportunities to learn the many trades within our 
sector.
    Chorus America member Boston's Children's Chorus received an Art 
Works grant for its Premier Choir and Young Men's Ensemble, which 
provides rigorous, professional training for high school youth in music 
theory and choral performance, as well as performance opportunities. 
Another Chorus America member supported by the NEA is Young People's 
Chorus of New York City, an award-winning organization which offers 
music education and choral performance to children of all cultural and 
economic backgrounds, helping them reach their potential through 
artistic excellence.
NEA grants preserve and continue our country's artistic heritage
    Performing arts organizations play a great role in preserving our 
Nation's artistic heritage. Other Minds in San Francisco--a member of 
Chamber Music America--is doing this with support from an Art Works 
grant for its New Music Preservation Project. The organization is 
converting archival live recordings of performances, interviews, and 
conversations with innovative composers and artists of 20th-century 
American music into digital media. The recordings will be available 
worldwide via www.radiOM.org. Fractured Atlas and Dance/USA member 
Lucky Plush Productions in Riverside, Illinois received Art Works 
support for the creation and presentation of The Queue, a new dance 
theater work exploring the physical comedy forms of the early 20th-
century slapstick and Vaudeville. These are just a few examples of how 
the NEA's support helps today's audiences connect to art forms and 
artists of previous times.
    NEA grants also invest in the artistic heritages of the many 
cultures within American communities. Grants support projects that 
create opportunities for learning and dialogue while sustaining rich 
traditions. Relampago del Cielo, Inc. in Santa Ana, California--a 
member of National Association of Latino Arts and Cultures--received 
Art Works support for its preservation of traditional Mexican 
performing arts through youth classes in music, folklore, and dance. It 
shares these traditions with the greater community via outreach 
presentations and educational activities. League of American Orchestras 
member South Dakota Symphony in Sioux Falls received Art Works support 
for its Lakota Music Project, an initiative developed with the United 
Sioux Tribes of South Dakota. The project's goal is to build bridges 
between Native Americans and non-Native Americans. It honors Native 
American musical traditions and aims to advance cultural understanding 
and create an environment of openness and collaboration through the 
music.
NEA funds benefit every congressional district, expanding arts access 
        to all people in all communities--both urban and rural
    Chamber Music America member Community MusicWorks in Providence, 
Rhode Island exists to create a cohesive urban community through music 
education and performance that transforms the lives of children, 
families, and musicians. Art Works funding supports their programs that 
reach students and families in Providence's underserved South Side 
neighborhoods. MusicWorks creates access to classical music training 
and encourages appreciation for the art form among program 
participants. Its weekly music lessons are accompanied by work around 
social justice issues, mentorship programs, and opportunities for 
students to create and present music programs that are relevant to 
their own community.
    People of all physical abilities will be able to experience 
inventive contemporary dance due to NEA support given to San Francisco-
based AXIS Dance Company--a member of Dance/USA. AXIS received Art 
Works funding to support its Dance Access and Dance Access/Kids! 
educational and outreach dance programs as the company tours. These 
programs offer ``physically-integrated'' dance classes for youth and 
adults with and without disabilities, and with NEA support, AXIS will 
be able to offer these classes to many around the country.
    Perseverance Theatre--a member of Theatre Communications Group--
creates professional theatre by and for Alaskans, such as the world 
premiere of Rush at Everlasting by Alaskan playwright Arlitia Jones. 
Production of this play was supported by an Art Works grant. It was 
also supported by the Alaska State Arts Council--a member of 
Association of Performing Arts Presenters (APAP)--a recipient of an 
fiscal year 2014 NEA State Partnerships grant. Approximately 40 percent 
of the NEA's budget is directed towards States via State partnerships 
such as this one which extend the NEA's Federal reach and impact, 
translating national leadership into local benefit. Rush at Everlasting 
will be presented in both Juneau and Anchorage.
    With a similar mission, APAP member Lied Performing Arts Center in 
Lincoln, Nebraska is presenting a tour of singer/songwriter Susan 
Werner celebrating the lives and challenges of rural Nebraskan farmers. 
In partnership with the University of Nebraska-Lincoln's Institute of 
Agriculture and Natural Resources, the tour will also include an oral 
history project documenting Nebraska's agricultural heritage.
The NEA supports arts organizations bringing awareness to important 
        social issues
    The arts can create community dialogue around important social 
issues such as care for older Americans and gang violence. The Sojourn 
Theatre in Portland, Oregon--a member of the Network of Ensemble 
Theaters (NET)--will present its The Islands of Milwaukee free 
performance series this year with Art Works support. The performances 
will occur in public spaces and explore social connectedness among 
older adults throughout Milwaukee neighborhoods. The theatre company 
will collaborate with older adults in urban and suburban Milwaukee that 
are living alone, engaging them in the creation of the performances. 
Project partners include the University of Wisconsin-Milwaukee, the 
Milwaukee Department on Aging, and Interfaith Older Adult Programs.
    With the support of a Challenge America Fast-Track grant, NET 
member Su Teatro in Denver, CO will present this season PLACAS by Paul 
S. Flores. Featuring actor and playwright Ric Salinas, PLACAS is a new 
multimedia play about the impact of gangs on an El Salvadoran family, 
portraying tattoo removal as a metaphor for healing and transformation. 
In addition to public performances, Salinas and Flores will lead 
workshops intended to serve former and current gang members, 
collaborating with Denver's Gang Rescue and Support Project (GRASP).
NEA grants support artistic excellence and works that engage new 
        audiences
    Arts organizations around the country are energizing audiences by 
refreshing classic works and presenting fresh, new productions and 
artists in their communities. This is bringing new and diverse 
participants out to experience the arts. Trinity Repertory Company in 
Providence, Rhode Island--a member of the National Association for 
Musical Theatre and Theatre Communications Group--is doing this with 
its new production of Oliver!, Lionel Bart's musical based on Charles 
Dickens' Oliver Twist. The company is re-visioning the show with a new 
adaptation of the book and score and with a set design that extends the 
scenery into the audience's space, heightening their engagement.
    National Performance Network member Sandglass Theatre in Putney, 
Vermont is bringing ``world-class, cutting-edge, socially engaged 
puppetry and theatre'' to southern Vermont audiences with Art Works 
support for its Arts and Issues 2014 presenting series. This series 
includes Voices of Community and New Visions events and productions: 
Community activities present a diverse roster of artists for 
residencies and community discussions on all aspects of diversity. 
Visions activities cross-pollinate puppetry with other performing arts 
genres and invite the audience into the artists' discovery processes 
while purposefully creating intercultural and intergenerational 
dialogue.
    Opera Theatre of Saint Louis--a member of OPERA America--will 
present this season 27 by American composer Ricky Ian Gordon and 
librettist Royce Vavrek. Supported by an Art Works grant, 27 will 
feature acclaimed mezzo-soprano Stephanie Blythe as the visionary 
American writer and art collector Gertrude Stein. This will be the 
company's 24th premiere in 39 seasons; last season's premiere, 
Champion, was also supported by the NEA. This production was attended 
at 98 percent capacity across its run and also attracted an audience 
that was markedly younger and more diverse than the traditional opera-
goers.
    NEA funding helps organizations present exceptional work to their 
audiences. Nashville Ballet--a member of Dance/USA--received Art Works 
funding to present Jiri Kylian's Petite Mort. The Ballet had the 
pleasure of introducing Nashville to Kylian's work which had never 
before been presented in the city. The entire program, which included 
Balanchine's Serenade and a world premiere choreographed by Artistic 
Director Paul Vasterling to Ben Folds' recent piano concerto, was 
enthusiastically received by audiences and critics alike, due also to 
the level of excellence at which the dancers performed. Ticket sales 
reflected this enthusiasm, and also reflected that there were 600 new 
households attending the performances.
    Federal dollars invested in the National Endowment for the Arts 
realize significant returns both measurable and intangible. The 
artistic programming of the arts organizations supported by the NEA 
give vitality to their communities. They allow communities to: 
appreciate our Nation's culture and heritage, unite to dialogue about 
and collaborate on social issues, and experience meaningful educational 
opportunities.
    We, the members of the Performing Arts Alliance, urge you to 
designate no less than $155 million to the NEA in fiscal year 2015. 
Thank you for your consideration of our request.
                                 ______
                                 
               Prepared Statement of Preservation Action
    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee, on behalf of the members of Preservation Action, I 
appreciate the opportunity to present written testimony in support of 
the Department of Interior's fiscal year 2015 $2.6 billion budget for 
the National Park Service (NPS) and its historic preservation programs. 
As the Nation continues to rebuild our economy, historic preservation 
is a partner and part of the solution in creating economic vitality. We 
ask Congress to continue its investment as envisioned in the National 
Historic Preservation Act of 1966 and protect our historic and cultural 
resources by providing the appropriations for critical historic 
preservation programs.
    Preservation Action is a national membership organization that 
represents preservationists from many sectors across the U.S. and its 
territories. Creating a national landscape of policies that protect our 
cultural heritage is fundamental to all we do. Historic preservation 
has provided lasting economic benefits in communities throughout the 
Nation. Studies show that historic districts maintain higher property 
valuesand a greater sense of community. Our mission is to make historic 
preservation a more widely recognized national policy. We do this 
through energized and engaged grassroots advocacy that connects to all 
levels of government.
    As urban renewal swept across our country, unnecessarily destroying 
historic structures, Preservation Action was at the forefront of 
America's preservation movement working to protect historic places. For 
40 years, Preservation Action has advocated for historic preservation 
policy including two of the most important tools--the Federal 
Rehabilitation Tax Credit and the Historic Preservation Fund.
    Our Nation's cultural resources and natural resources are 
important. And, as we look to the 50th anniversary of the Historic 
Preservation Act and the National Park Centennial, it is a critical 
time to support investments in our Nation's rich heritage so that it 
remains for generations to come.
    The National Historic Preservation Act of 1966 provided the 
direction and tools to protect our historic resources. ``The spirit and 
direction of the Nation are founded upon and reflected in its historic 
heritage; the historical and cultural foundation of the Nation should 
be preserve as a living part of our community life and development in 
order to give a sense of orientation to the American people . . . the 
preservation of the irreplaceable heritage is in the public interest so 
that its vital legacy of cultural, economic, aesthetic, inspirations, 
economic, and energy benefits will be maintained and enriched for 
future generations of Americans.''
    The members of Preservation Action believe in that vision provided 
by Congress nearly 50 years ago. And, we encourage Congress to provide 
funding for historic preservation to fully realize the importance of 
our natural and cultural assets and provide the funding and leadership 
to realize the full vision of the Historic Preservation Act.
                     historic preservation programs
    The Historic Preservation Fund (HPF) is the principal source of 
funding to implement the Nation's historic preservation programs. 
Preservation Action supports funding for State and Tribal Historic 
Preservation Offices in the Interior Department fiscal year 2015 budget 
at the following levels:
  --$50 million for State Historic Preservation Offices;
  --$15 million for Tribal Historic Preservation Offices;
  --$6 million for survey, inventory and digitization of records;
  --$5 million for a competitive grant program for underrepresented 
        populations; and
  --$10 million for rehabilitation of historic properties competitive 
        grant program.
    The NPS distributes HPF funding to State Historic Preservation 
Offices (SHPOs) and Tribal Historic Preservation Offices (THPOs). 
States also match HPF dollars at a 40 percent minimum.
    SHPOs and THPOs administer much of the HPF program on behalf of the 
Department of Interior and the Advisory Council on Historic 
Preservation. SHPOs locate and record historic resources; nominate to 
the National Register of Historic Places; provide funds for 
preservation activities; comment on Federal rehabilitation tax credit 
projects; review all Federal projects for historic preservation impact; 
and provide technical assistance to Federal agencies, State and local 
governments and the private sector. THPOs carry out many of those 
functions on their tribal lands. THPOs are key in implementing tribal 
and Federal preservation laws on tribal lands, including federally-
mandated archaeological clearances and evaluation and management of 
tribal historic properties.
    The Certified Local Government (CLG) Program is another way the NPS 
and SHPOs support preservation in communities. Local, State, and 
Federal governments work together in the Federal Preservation Program 
to help communities save their irreplaceable historic character. SHPOs 
award at least 10 percent of their HPF allocation to CLG's. The grants 
fund a variety of projects including: surveys, National Register 
nominations, rehabilitation work, design guidelines, educational 
programs, training, structural assessments, and feasibility studies. 
CLGs receive technical assistance and training through the partnership.
                  preservation in economic development
    The Historic Rehabilitation Tax Credit (HTC), administered by SHPOs 
and the NPS, is the most significant Federal investment in historic 
preservation. Since its creation more than 30 years ago, the HTC has 
been a catalyst for development with the rehabilitation of nearly 
39,000 buildings throughout the Nation. And, the HTC has created 2.4 
million jobs and leveraged nearly $109 billion in private investment. 
From the Mill No. 1 project in Baltimore, Maryland, Elm Terrace in 
Portland, Maine, to the Boyle Hotel redevelopment in east Los Angeles, 
historic preservation is helping communities rebound and recapture 
their economic vitality as well as provide creative uses for old 
buildings and stimulate job growth.
    Because of the success of the program, Preservation Action and its 
national members urge Congress to realize the benefits of this program 
to economic development and to ensure its continuance.
        preserving america's rich and diverse cultural heritage
    In addition to our support for SHPO and THPO operating funding, 
Preservation Action fully endorses the Interior Department's program 
for competitive grants for the survey, outreach and pre-nomination 
activities of properties in underrepresented communities to the 
National Register of Historic Places and the National Historic 
Landmarks Program. It is important for our historic record to reflect 
the full spectrum of America's heritage--and this program would correct 
the underrepresentation. Studies report that fewer than 5 percent of 
listings in the National Register of Historic Places and National 
Historic Landmarks identify culturally diverse properties. While the 
current funding level of $500,000 is a step in addressing this 
underrepresentation, it does not go far enough to tell the rich story 
of America's diverse heritage. Therefore, we ask the subcommittee to 
consider increasing the amount to $5 million.
    We also support an additional $10 million to the HPF for a 
competitive grant program to support State and local level 
rehabilitation projects. Rehabilitation of historic structures has 
proven a success in driving neighborhood pride and redevelopment.
                   digitization of america's heritage
    Preservation Action believes that providing the public with access 
to accurate information on our historic resources is important to 
maintaining the record of America's heritage. Having easy access to 
digital records will help expedite Federal permitting, project review, 
and improve accessibility. Therefore, Preservation Action also supports 
the administration's request for $6 million for legacy data 
digitization.
                        national heritage areas
    The National Heritage Areas (NHAs) are community driven heritage 
conservation placeswhere natural, cultural and historic resources 
combine to form a cohesive, nationally important stories of America's 
diverse heritage. Currently, there are 49 National Heritage Areas 
designated by Congress. The Federal support for NHAs has been 
instrumental in spurring the grassroots efforts that reflect the unique 
resources, significance and values of each community. On average, for 
every dollar of Federal investment, NHAs bring $5.50 in public and 
private investment.
    NHA programs have demonstrated their ability to both support 
economic benefits in their communities through tourism dollars and tell 
underrepresented stories across the Nation. Preservation Action is 
concerned that the reduction of Federal funding proposed in the fiscal 
year 2015 budget for the heritage areas program impairs the 
sustainability of the program. Funding of $18 million--the amount 
appropriated in fiscal year 2014--is the minimum needed to continue the 
cost effective impacts of the NHA program.
                               conclusion
    Preservation Action has been a proud partner with a cross-section 
of Federal agencies and the NPS in protecting America's cultural and 
natural resources and in engaging the public in maintaining these 
valuable assets. We value the work of the employees across the NPS who 
protect our cultural and natural resources, engage communities, 
businesses and governments in heritage sites, education, and tourism, 
and the many offices that work in collaboration of historic 
preservation efforts and communications. Importantly, as we review 
Federal historic preservation policies and their impacts in 
communities, we value the partnership of the Advisory Council on 
Historic Preservation as well as the instrumental work SHPOs and THPOs 
conduct in preserving America's cultural heritage.
    Thank you for including the voices of the preservation community as 
you consider the Department of Interior's fiscal year 2015 budget.
    Thank you.
                                 ______
                                 
  Prepared Statement of the Public Service Company of New Mexico (PNM)
                                                     April 4, 2014.
Hon. Jack Reed, Chairman,
Hon. Lisa Murkowski, Ranking Member,
Subcommittee on Interior, Environment, and Related Agencies, Committee 
        on Appropriations, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.

    Dear Chairman Reed and Senator Murkowski: I am requesting your 
support for fiscal year 2015 appropriations to the Fish and Wildlife 
Service (FWS) for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program 
consistent with the President's recommended budget. I request that the 
subcommittee:

  --Appropriate $706,300 in ``Conservation and Restoration'' funds 
        (Resource Management Appropriation; Ecological Services 
        Activity; Conservation and Restoration Subactivity within the 
        $124,253,000 item entitled ``Conservation and Restoration'') to 
        the U.S. Fish and Wildlife Service (FWS) to allow FWS for 
        fiscal year 2015 to continue its essential participation in the 
        Upper Colorado River Endangered Fish Recovery Program.
  --Appropriate $200,000 in FWS ``Conservation and Restoration'' funds 
        for the San Juan River Basin Recovery Implementation Program to 
        meet expenses incurred by FWS's Region 2 in managing the San 
        Juan Program's diverse recovery activities.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $48,617,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.

    I request the subcommittee's assistance in assuring fiscal year 
2015 funding to allow the FWS to continue its financial and personnel 
participation in these two vitally important recovery programs. I 
recognize and appreciate that the past support and assistance of your 
subcommittee has greatly facilitated the success of these ongoing 
efforts.
            Sincerely,
                                               Chris Olson,
                                    Vice President, PNM Generation.
                                 ______
                                 
           Prepared Statement of Restore America's Estuaries
    Restore America's Estuaries (RAE) is a nonpartisan, nonprofit 
organization that has been working since 1995 to restore our Nation's 
greatest estuaries. Our mission is to restore and protect estuaries as 
essential resources for the Nation. Restore America's Estuaries is a 
national alliance of community-based coastal conservation organizations 
across the Nation that protect and restore coastal and estuarine 
habitat. Our member organizations include: American Littoral Society, 
Chesapeake Bay Foundation, Coalition to Restore Coastal Louisiana, Save 
the Sound--a program of the Connecticut Fund for the Environment, 
Conservation Law Foundation, Galveston Bay Foundation, North Carolina 
Coastal Federation, EarthCorps, Save The Bay--San Francisco, Save the 
Bay--Narragansett Bay, and Tampa Bay Watch. Collectively, we have over 
250,000 members nationwide.
    As you craft your fiscal year 2015 Interior, Environment and 
Related Agencies appropriations bill, Restore America's Estuaries 
encourages you to provide the funding levels below within the 
Department of the Interior, U.S. Fish and Wildlife Service (USFWS) and 
the U.S. Environmental Protection Agency (USEPA) for core programs 
which greatly support coastal community economies:
  --$15 million for USFWS Coastal Program.--Interior: USFWS: Resource 
        Management: Habitat Conservation: Coastal Program
  --$27.2 million for USEPA National Estuary Program.--USEPA: Water: 
        Ecosystems: National Estuary Program/Coastal Waterways
    These non-regulatory investments strengthen and revitalize 
America's coastal communities by improving habitat and local water 
quality. Healthy coastlines protect communities from flood damage and 
extreme weather, improve commercial fisheries, protect vital 
infrastructure, and support tourism and recreational opportunities.
                         usfws coastal program
    The Coastal Program (CP) is a voluntary, incentive-based program 
that provides technical and financial assistance to coastal communities 
and landowners to protect and restore fish and wildlife habitat on 
public and private lands in 24 priority coastal ecosystems, including 
the Great Lakes. The Coastal Program works with other Federal, State, 
local, and non-governmental partners and private landowners to deliver 
strategic habitat protection and restoration for the benefit of Federal 
trust species, including threatened and endangered species, migratory 
birds, inter-jurisdictional fish, certain marine mammals, and species 
of international concern.
    Since 1985, the Coastal Program has:
  --Partnered with more than 5,000 Federal, tribal, State and local 
        agencies, non-governmental organizations, corporations, and 
        private landowners.
  --Restored 300,616 acres of wetland; 135,033 acres of upland; and 
        2,160 miles of stream habitat.
  --Protected more than 2 million acres of coastal habitat.
  --Provided technical assistance to a diverse range of conservation 
        partners.
    Support for the management and stewardship of our coastal 
ecosystems that bridge land and sea has never been more important due 
to the accelerating pace of environmental change now occurring. While 
environmental degradation of estuaries has continued in recent years, 
the Coastal Program has been a key program aimed at on-the-ground 
habitat restoration. Despite the program's relatively small cost, it is 
having a huge impact on-the-ground. A recent estimate by USFWS Coastal 
Program staff shows that the program leverages $8 non-Federal dollars 
for every Federal dollar spent. This makes the Coastal Program one of 
the most cost-effective habitat restoration programs within the U.S. 
Fish and Wildlife Service.
    Restore America's Estuaries has enjoyed a collaborative 
relationship with the Coastal Program for many years. The nature and 
scope of our partnership spans the national and local levels as we work 
with CP headquarters on long-term issues, and locally the program works 
with our member groups through regional CP staff to conduct on-the-
ground habitat restoration.
    As an example of a true partnership, the Coastal Program worked 
with RAE member Save The Bay--San Francisco as well as the San 
Francisco Bay National Wildlife Refuge to restore salt marsh on Bair 
Island. This project is helping to provide critical habitat for a 
variety of species, including the endangered California clapper rail 
and the salt marsh harvest mouse, and a number of birds that traverse 
the area on their journey across the Pacific.
    On the East Coast, the Coastal Program assisted RAE member 
Chesapeake Bay Foundation to choose and prepare a site to plant redhead 
grass near the Magothy River in Maryland. This is a good example of the 
invaluable technical assistance that the Coastal Program is able to 
provide to a non-governmental organization, which can then better 
restore habitat for numerous migratory bird and inter-jurisdictional 
fish species.
    In the Gulf, the Coastal Program worked side-by-side with RAE 
member Galveston Bay Foundation to construct geotextile tube offshore 
breakwaters on Snake Island Cove. This effort has led to the protection 
of 200 acres of estuarine marsh from erosion and the creation of a 65-
acre calm shallow water area conducive to seagrass restoration.
    The Coastal Program is also essential in efforts to restore fish 
passage of anadromous fish populations and restore riverine habitat. 
RAE member Conservation Law Foundation worked with the Coastal Program 
and other regional partners to support the removal of dams along the 
Penobscot River, as well as install fishways to restore native Atlantic 
salmon.
    Restore America's Estuaries urges your continued support and 
funding for the USFWS Coastal Program. This program delivers habitat 
protection and restoration in priority coastal areas on both public and 
private lands through partnerships with other Service programs, Federal 
agencies, State and local agencies, tribal governments and native 
corporations, non-governmental organizations, universities, 
corporations, and private landowners.
    The Coastal Program stimulates local economies by supporting jobs 
necessary to deliver habitat conservation projects including 
environmental consultants, engineers, construction workers, surveyors, 
assessors, and nursery and landscape workers. These jobs also generate 
indirect economic activities that benefit local hotels, restaurants, 
stores, and gas stations. The Program estimates that the average 
project supports 60 jobs and stimulates 40 businesses--this represents 
major local economic returns on the Federal investment.
    Restore America's Estuaries urges your continued support of the 
Coastal Program and asks that you provide $15 million for fiscal year 
2015.
                     usepa national estuary program
    The National Estuary Program (NEP) is a non-regulatory network of 
voluntary community-based programs that safeguards the health of 
important coastal ecosystems across the country. The program utilizes a 
consensus building process to identify goals, objectives, and actions 
that reflect local environmental and economic priorities.
    Currently there are 28 estuaries located along the Atlantic, Gulf, 
and Pacific coasts and in Puerto Rico that have been designated as 
estuaries of national significance. Each NEP focuses its work within a 
particular place or boundary, called a study area, which includes the 
estuary and surrounding watershed.
    Each National Estuary Program demonstrates real environmental 
results through on-the-ground habitat restoration and protection. Their 
efforts reflect local environmental and economic priorities and involve 
the community as equal partners throughout the decisionmaking process. 
Collectively, NEPs have restored and protected more than 1.5 million 
acres of land since 2000.
    Restore America's Estuaries urges your continued support of the 
National Estuary Program and ask that you provide $27.2 million for 
USEPA National Estuary Program/Coastal Waterways. Within this amount 
for fiscal year 2015, no less than $600,000 should be directed to each 
of the 28 NEPs in the field.
                               conclusion
    Restore America's Estuaries greatly appreciates the support this 
subcommittee has provided in the past for these important programs. 
These programs help to accomplish on-the-ground restoration work which 
results in major benefits:
  --Economic Growth and Jobs.--Coastal habitat restoration creates 
        between 17 and 33 direct jobs for each million dollars invested 
        depending on the type of restoration. That is more than twice 
        as many jobs as the oil and gas sector and road construction 
        industries combined. The restored area supports increased 
        tourism and valuable ecosystem services.
  --Huge Leverage.--From 2005 to 2012, Federal investment in the USFWS 
        Coastal Program leveraged non-Federal dollars at a ratio of 8 
        to 1. The NEPs leveraged non-Federal dollars at a ratio of 15 
        to 1. In a time of shrinking resources, these are rates of 
        return we cannot afford to ignore.
  --Resiliency.--Restoring coastal wetlands can help knock down storm 
        waves and reduce devastating storm surges before they reach the 
        people and property along the shore.
    Thank you and we greatly appreciate you taking our requests into 
consideration as you move forward in the fiscal year 2015 
appropriations process. We stand ready to work with you and your staff 
to ensure the health of our Nation's estuaries and coasts.
                                 ______
                                 
              Prepared Statement of the Sac and Fox Nation
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide written testimony on the fiscal year 2015 
Interior, Environment and Related agencies appropriations. 
Congratulations to Chairman Calvert as the new Chairman and to 
Congressman David Valadao, the newest member on this subcommittee. I am 
George L. Thurman, Principal Chief of the Great Sac and Fox Nation, 
home of Jim Thorpe, one of the most versatile athletes of modern sports 
who earned Olympic gold medals for the 1912 pentathlon and decathlon. 
On behalf of the Sac and Fox Nation thank you for the opportunity to 
present our requests for the fiscal year 2015 budgets for the Bureau of 
Indian Affairs (BIA) and the Indian Health Service (IHS).
    A fundamental goal for Indian Country governmental services is 
parity with similarly situated governments or services. Although tribes 
have made some progress in addressing terribly inadequate public 
services that many Americans routinely take for granted, they are still 
experiencing what the U.S. Commission on Civil Rights called ``A Quiet 
Crisis'' of unmet Federal funding needs. Full funding of Contract 
Supports Costs (CSC) is a step in the right direction for tribes to be 
paid the costs of performing services under contract with the Federal 
Government enjoyed by non-tribal Federal contractors. It is not fair 
that the Federal Government's legal obligation to pay CSC requires 
reducing tribal funds to meet the Federal trust obligation to tribal 
nations.
    In fiscal year 2013 tribal programs incurred cuts totaling over 
$500 million under the sequestration. We were not able to recover the 
sequestered funding under the Murray/Ryan budget deal and the BIA and 
IHS Spending Plans further disappointed our expectations for budget 
equity during these fiscally strained times. We strongly urge Congress 
to fully restore sequestration cuts from fiscal year 2013 and exempt 
tribal funds from future sequestration. It threatens the trust 
responsibility and reduces portions of the budget that are not major 
contributors to the deficit.
                       i. tribal specific request
    $4.95 Million to Fully Fund Operations of the Sac and Fox Nation 
Juvenile Detention Center (SFNJDC)--Bureau of Indian Affairs--Public 
Safety and Justice--Office of Justice Services--Detention/Corrections 
Account.
            ii. national requests--bureau of indian affairs
    1.  Public Safety and Justice--Law and Order--Detention/
Corrections:
           a.  Increase the 2015 Request ($192.9 million) by $4.95 
        million for Detention/Corrections to fund the SFNJDC.
           b.  Fully fund all provisions of the Tribal Law and Order 
        Act of 2010.
    2.  Restore 2013 Sequestered Cuts ($119 million) to Tribal Program 
Funding.
    3.  +$19.3 million over fiscal year 2014 for Tribal Priority 
Allocations Account.
    4.  $4 million over fiscal year 2015 request to fully fund Contract 
Support Costs (CSC).
    5.  $500,000 for Johnson O'Malley education assistance grants to 
support a new student count in 2015 and provides funding for the 
projected increase in the number of students eligible for grants.
    6.  Office of Self-Governance (OSG)--Provide increased funding to 
the OSG to fully staff the office for the increase in the number of 
tribes entering Self-Governance.
             iii. national requests--indian health service
    1.  Restore 2013 Sequestered Cuts ($220 Million) to Tribal Health 
Services.
    2.  Support IHS Mandatory Funding (maintain current services).
    3.  +$30 million over fiscal year 2015 request to fully fund 
Contract Support Costs (CSC).
    4.  +$50 million over 2015 request for Purchased and Referred Care.
    5.  Restore $6 million to the Office of Tribal Self-Governance 
(OTSG) to fulfill legal requirements under title V of Public Law 106-
260 which increased the responsibilities of OTSG.
 the sac and fox nation juvenile detention center (sfnjdc)--bureau of 
indian affairs--public safety and justice--office of justice services--
                     detention/corrections account
    In 1996, the Sac and Fox Nation Juvenile Detention Center (SFNJDC) 
opened its doors as the first regional juvenile facility specifically 
designed for American Indians/Alaska Natives, as well as the first 
juvenile facility developed under Public Law 100-472, the Self-
Governance Demonstration Project Act.
    At that time, the Bureau of Indian Affairs made a commitment to 
fully fund the SFNJDC operations; however this commitment was never 
fulfilled. Even though the Nation continues to receive and use Federal 
dollars to address the issue of juvenile delinquency and detention for 
tribes in the Southern Plains Region and Eastern Oklahoma Region, it 
has never received sufficient funds to operate the facility at its 
fullest potential. Full funding to the facility by the Bureau would 
relieve financial burdens on area tribes to pay for detention services 
elsewhere and keep tribal youths close to home.
    Full funding would allow the Nation to provide full operations 
including (but not limited to):
  --Juvenile detention services to the 46 tribes in Oklahoma, Kansas 
        and Texas;
  --Rescue more of our at-risk youth and unserved youth in need of a 
        facility like the SFNJDC;
  --Re-establish programs we have lost due to inadequate funding such 
        as: On-site Mental Health Counseling; Transitional Living, 
        Vocational Training, Horticulture, Life Skills, Arts and 
        Crafts, Cultural Education and Activities, Spiritual Growth and 
        Learning;
  --Offer job opportunities in an area that is economically depressed; 
        and
  --Fully staff and expand staff training to address high volume of 
        staff turnover which will allow for continuity in operations 
        and service delivery.
    Most recently at the fiscal year 2016 Regional Budget Formulation 
Session, these tribes continue to support and endorse full funding for 
operation of the SFNJDC and included it as a priority in their ``Top 10 
Budget Increases'' for the fiscal year 2016 BIA budget.
    The current funding level represents only approximately 10 percent 
of what is needed to fully fund the Juvenile Detention Center. 
Additional funding in the amount of $4,950,000, over what Sac and Fox 
already receives in base funding ($508,000), would fully fund the 
facility at a level to address the need of juvenile delinquency in the 
tri-State area and create opportunities for employment for more tribal 
members.
    The SFNJDC is a 50,000+ square foot, full service, 24 hour, 60 bed 
(expandable to 120 beds) juvenile detention facility that provides 
basic detention services to all residents utilizing a classification 
system based on behavioral needs to include special management, medium 
and minimal security. Our facility was designed to provide programs 
including behavioral management, alcohol and substance abuse, spiritual 
and cultural growth and learning, self-esteem, arts and crafts, health 
and fitness, horticulture, nutrition, life skills, vocational technical 
training, counseling, educational programs and a Transitional Living 
Center.
    Through a partnership with the local high school, students are 
afforded an education at the public school level, including a 
graduation ceremony and issuance of a certificate upon successfully 
achieving the State requirements. Additionally, the Sac and Fox Nation 
has an on-site justice center providing law enforcement and tribal 
court services and the Nation also operates an on-site health clinic 
which provides outstanding medical services that include contract 
service capabilities for optometry, dental and other health-related 
services.
    The lack of adequate funding from the BIA and decreases in base 
funding have mushroomed into underutilization and erosion of the 
programs our facility was built to offer. Our current funding levels 
only allow us to provide an alcohol and substance abuse program, some 
health and fitness activities and a basic education program. We have 
lost our programs for vocational training, horticulture, life skills, 
arts and crafts, on-site counseling and transitional living. The 
passage of the 2010 Tribal Law and Order Act was applauded by the Sac 
and Fox Nation because we saw this as an opportunity for the Federal 
Government to finally step up to its pledge to fully-fund the SFNJDC 
and honor its treaty and trust obligations to our people. However, the 
lack of funding is also impeding the implementation of TLOA!
    In 1996, the SFNJDC was built as a model facility in Indian 
Country. And nearly 20 years later there is still a need for such a 
facility to help our youth return to their traditional healing and 
spiritual ways. As a Self-Governance Tribe we operate our tribal 
government on the premise that we are the best provider of the services 
and know which services are most needed in our communities. We saw the 
increasing need in the 1990's for a facility like the SFNJDC and we 
acted on our instincts to help our youth by giving them a place to turn 
their lives around and the access to programs, services and holistic 
care they needed to recover and heal. Sadly, the number of Native 
American youth, and juveniles overall requiring detention has not 
decreased. The Sac and Fox Nation Juvenile Detention Center was built 
with the same ideals that the Tribal Law and Order Act Long Term Plan 
to Build and Enhance Tribal Justice Systems espouses today. The SFNJDC 
has the facility, staffing, ability, commitment and capacity to provide 
superior detention and rehabilitation services to Native American 
youth, as well as any youth in the tri-State area in need of our 
services. We do not understand the Federal Government's desire to fund 
the construction of more detention facilities while our beds remain 
empty.
    With access to full funding for operations, the SFNJDC will have 
the stability to fulfill the mission the tribal leaders envisioned to 
help our youth once again find their way and recover from the ills that 
resulted in them coming to the Facility. With adequate funding we 
believe it is possible to thrive and benefit the lives of juveniles who 
enter our Center and are desperately in need of our help to develop and 
assist them to have a more healthy and productive future.
    Thank you for allowing me to submit these requests on the fiscal 
year 2015 budgets.
                                 ______
                                 
          Prepared Statement of the San Juan Water Commission
                                                     April 1, 2014.
Hon. Jack Reed, Chairman,
Hon. Lisa Murkowski, Ranking Member,
Subcommittee on Interior, Environment, and Related Agencies, Committee 
        on Appropriations, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.

    Dear Chairman Reed and Senator Murkowski: I am requesting your 
support for fiscal year 2015 appropriations to the Fish and Wildlife 
Service (FWS) for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program 
consistent with the President's recommended budget. I request that the 
subcommittee:

  --Appropriate $706,300 in ``Conservation and Restoration'' funds 
        (Resource Management Appropriation; Ecological Services 
        Activity; Conservation and Restoration Subactivity within the 
        $124,253,000 item entitled ``Conservation and Restoration'') to 
        the U.S. Fish and Wildlife Service (FWS) to allow FWS for 
        fiscal year 2015 to continue its essential participation in the 
        Upper Colorado River Endangered Fish Recovery Program.
  --Appropriate $200,000 in FWS ``Conservation and Restoration'' funds 
        for the San Juan River Basin Recovery Implementation Program to 
        meet expenses incurred by FWS's Region 2 in managing the San 
        Juan Program's diverse recovery activities.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $48,617,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.

    I request the subcommittee's assistance in assuring fiscal year 
2015 funding to allow the FWS to continue its financial and personnel 
participation in these two vitally important recovery programs. I 
recognize and appreciate that the past support and assistance of your 
subcommittee has greatly facilitated the success of these ongoing 
efforts.
            Sincerely,
                                      L. Randy Kirkpatrick,
                                                Executive Director.
                                 ______
                                 
         Prepared Statement of the Seattle Indian Health Board
    Mr. Chairman and members of the Senate Interior, Environment, and 
Related Agencies Appropriation Subcommittee, my name is Ralph Forquera. 
I am the Executive Director for the Seattle Indian Health Board in 
Seattle, Washington. I also direct our Urban Indian Health Institute. I 
am an enrolled member of the Juaneno Band of California Mission 
Indians, a State-recognized Indian tribe. My tribe was one of 43 tribes 
and bands of California Indians terminated in 1958 through the 
California Rancheria Termination Act (Public Law 85-671).
    The Indian Health Service has requested an inflationary increase 
for urban Indian health of $646,000. This figure represents a 1.58 
percent increase over the fiscal year 2014 enacted appropriation, far 
below medical inflation in the Nation. I ask the subcommittee to 
consider an increase of at least $5 million to address the growing 
urban Indian population needs.
    Urban American Indians now represent more than 7 out of 10 
Americans self-identifying as having heritage in an American Indian or 
Alaska Native tribe, according to the 2010 United States Census. The 
permanent reauthorization of the 1976 Indian Health Care Improvement 
Act in the Affordable Care Act, claims, in its declaration of policy, 
an obligation to aid urban Indians. Subtitle IV of the Act (Previously 
title V) spells out a discrete authority to assist local, non-profit, 
Indian-governed organizations in enhancing access and assuring health 
improvements to meet the national goal of health parity for Indian 
people.
    The movement of Indian people to American cities has been steady 
since first documented with the 1970 census. Analysis using the 
American Community Survey for the period 2006-2009 finds that more than 
1 in 4 urban Indians have incomes at or below 200 percent of the 
Federal poverty level. This description likely undercounts the number 
of urban Indians in poverty, since the collection method for this 
national survey does not reach a sizeable portion of the urban Indian 
population, particularly those living in unstable households that are a 
common problem among poorer urban Indians. There is currently no 
specific assessment of urban American Indians and Alaska Natives. Our 
understanding is derived from Federal and State regularly scheduled 
data collection strategies and agency reporting standards that often do 
not specify Indian identity in their collection processes to document 
conditions and outcomes among the general population.
    The Indian Health Service itself has not focused attention on a 
reporting mechanism explicit for addressing urban specific health 
concerns. Instead, the IHS has tried to include our work in their 
tribally-based reporting standards that, in my view, misrepresent the 
health disparities among urban Indians. This lack of information that 
could paint a more accurate portrayal of the health and social 
conditions that influence the health status of urban Indians leads to 
inappropriate and misguided policies that disrupt our ability to 
effectively serve our communities.
    But regardless of the limitations of the data sources, evidence 
grows that health disparities are extensive for urban Indians and that 
factors that contribute to poor health generally affect urban Indians 
across the Nation. For example, evidence of low academic achievement, 
high unemployment, high rates of mobility among the population, and a 
general over-representation in social metrics known to contribute to 
poor health are consistently found upon analysis. The fact that this 
evidence can be identified in work not explicit to urban Indians 
reinforces the fact that these social factors are crucial in 
perpetuating health disparities among urban Indians.
    In the past several years, a growing awareness of how social 
factors influence health has drawn attention from policy makers, 
elected officials, and the general public. Key factors like low 
educational attainment and substandard or inadequate housing, 
particularly in cities indicate that urban Indians are often listed as 
living with conditions that adversely influence health. This reality 
places urban Indians at greater risk for health problems and early and 
unnecessary death and disability.
    The Affordable Care Act calls for data to identify and track 
changes in the health status of groups like urban Indians. But to 
collect and analyze this information, funding is needed to build the 
infrastructure and support the personnel needed to gather data and 
perform the necessary analysis. Our Institute has discussed building 
this capacity with Centers for Medicaid & Medicare Services (CMS) and 
other Federal agencies but funding has not been forthcoming. Therefore, 
as noted, we do our best to find ways to use national and State data 
collection strategies and apply scientifically-sound methodologies to 
understand health conditions for urban Indians. While these methods are 
limiting, the preponderance of findings reinforce the disparities we 
see daily at my organization.
    The question is frequently asked whether Indians living in cities 
retain eligibility for Indian health benefits. Legal analysis shows 
that Indians leaving reservations do not lose the right to the benefits 
and protections granted Indians by the Congress, but that the extent of 
these Indian-specific programs and services is subject to the level of 
funding devoted to them by the Congress. Over the decades, in spite of 
the dramatic shift in the Indian and Native population's living 
arrangements, resources to help urban Indians have fallen farther and 
farther behind.
    There are some who have argued that only enrolled members of 
federally-recognized Indian tribes and those living on Indian 
reservations are eligible for Federal assistance. Currently, this 
policy is being applied to the Affordable Care Act as it affects the 
marketplace aspect of reform. This claim misinterprets the nature of 
the Indian trust relationship.
    Back in 2005, I prepared a paper I would be happy to share with the 
subcommittee illustrating the historical and legislative history of aid 
for urban Indians in response to a question from the Senate Committee 
on Indian Affairs. This response became the foundation for the Congress 
to increase urban Indian health funding by $7 million in 2008. However, 
other problems subsequent have since disrupted this appreciation for 
the need for greater financial aid for urban Indians and the current 
funding allocated for urban Indian health now represents only 0.92 
percent of the overall Indian Health Service budget.
    When the line item for urban Indian health was first established in 
1979, about 1.48 percent of that year's IHS appropriation was directed 
for urban Indians. Over the decades, the percentage devoted for urban 
Indians has fluctuated around the 1 percent threshold until 2009, when 
the allocation dropped below 1 percent.
    A further review of the IHS budget process finds that the agency 
has seldom requested additional funds for urban Indians. At best, the 
agency has sought inflationary increases that are generally far less 
than healthcare inflation has run over the decades including for fiscal 
year 2015. As each year passes, the inability to meet just the 
inflationary challenges has forced reductions in services. Since the 
agency responsible for advocating for the health of Indian people fails 
to request funding to aid urban Indians, it should not be a surprise 
that the agency is not actively seeking solutions and support for our 
work.
    As an example, the recent reauthorization of the Indian Health Care 
Improvement Act requires that the IHS create a conferring policy 
similar to the tribal consultation policy to assure that the guidance 
of the urban contractors is given when considering policy or 
programmatic change. It is now more than 4 years after the law was 
enacted and a conferring policy has not been approved, leaving those of 
us who operate Urban Indian Health Organizations without a formal means 
of communicating our ideas or sharing our concerns with the Indian 
Health Service. In larger tribal consultation sessions, we are mostly 
overshadowed by the tribal leadership present. Essentially, the voices 
of the majority of Indian people are not reflected in Indian policy 
today.
    It should also be noted that the urban Indian health program 
defined in subtitle IV of the Indian Health Care Improvement Act is a 
discrete authority intended to improve access to healthcare for Indians 
living in cities. This role was expanded in 1987 as increased evidence 
arose that the acceptability of healthcare service was critically 
important to many urban Indians that carry the ill effects of past 
failed Federal actions toward Indians as a core belief. Given the 
continuing lack of attention toward urban Indians, this reality is 
still an important characteristic of the work we do on their behalf.
    Few today remember the forced sterilization of Indian women during 
the 1970s or the sense of abandonment that accompanied the termination 
of tribes in the 1950s. Many today experience denial of help from IHS 
and tribal facilities that only treat members of federally recognized 
tribes. Others feel thwarted by the Bureau of Indian Affairs that does 
not recognize displaced Indians. My tribe, for example, has had its 
petition for re-acknowledgment rejected on several occasions by the 
Bureau of Indian Affairs, leaving members without benefits and 
protections granted those that have been restored to Federal 
recognition in the past several decades. These continuing actions 
reflect the reality that urban Indians are not seen as equals to those 
who were fortunate not to experience termination or who continue to 
reside on reservation lands. This treatment helps to foster the sense 
of second-class citizenry for urban Indians within Indian Country. Some 
tribes under self-governance compacts have recognized the 
discriminatory nature of these actions and, when financially feasible, 
offer some help.
    It should also be noted that the lack of attention to the health 
and welfare of urban Indians is best illustrated by both the lack of 
funding, but also a lack of recognition and understanding of this 
portion of Indian Country. Little effort has been made by the Indian 
Health Service or others to describe the health status of urban Indians 
or to find ways to aid those urban communities with sizable Indian 
populations but lacking an urban Indian health organization. In fact, 
there are fewer urban Indian health organizations today than there were 
in the mid-1980s.
    When the Indian Health Care Improvement Act was passed in 1976, the 
House Report accompanying the passage of the bill made the bold claim 
that ``The most basic human rights must be the right to enjoy decent 
health. Certainly, any effort to fulfill Federal responsibilities to 
the Indian people must begin with the provision of health services. In 
fact, health services must be the cornerstone upon which rest all other 
Federal programs for the benefit of Indians. Without a proper health 
status, the Indian people will be unable to fully avail themselves of 
the many economic, educational, and social programs already directed to 
them or which this Congress and future Congresses will provide them.'' 
H.R. Report No. 94-1026, pt. I at 13 (1976) as reprinted in 1976 
U.S.C.C.A.N. 2652, 2653. It is clear that this proclamation has not 
been fulfilled for urban Indians.
    The inequity in funding for urban Indian health is an artifact of 
history. The reality of funding inadequacy reinforces the 
administrative policy of limiting both the work and the scarce 
resources to the more limited aspect of Indian Country--members of 
federally recognized tribes and those living on or near Indian 
reservations. However, Congress has the authority to allocate 
additional funds to assist urban Indians if they so choose.
    As mentioned earlier, another hat I wear is as the Director for the 
Urban Indian Health Institute. I founded the Institute in July of 2000 
to find ways to document and study health disparities among urban 
Indians to help build a case for needed resources. In 2004, the 
Institute published the first large scale national report, illustrating 
the severity of health problems faced by urban Indians. These findings 
were reinforced when an independent Urban Indian Health Commission 
funded by the Robert Wood Johnson Foundation, made similar claims in 
its 2007 report. (find reports at www.uihi.org). Additional reports and 
studies including several published in peer-reviewed professional 
journals verify the disparity in health experienced by urban Indians, 
but these findings have not successfully translated to the provision of 
the essential resources needed.
    We recognize and respect the fact that Indians living on 
reservations who are enrolled in a federally-recognized Indian tribe 
have needs deserving of congressional support. But just caring for 
reservation Indians is insufficient in addressing the broad trust 
obligation that the Nation bears towards its indigenous citizens, 
especially since more than 7 out of 10 Indian and Native people now 
live in cities.
    After spending more than three decades working to improve the 
health of urban Indians, I recognize that we face daunting challenges. 
Expectations that the Affordable Care Act will improve conditions for 
urban Indians fail to take into account the historic maltreatment and 
broken promises experienced by Indian people that large scale programs 
like the ACA will not correct. In this regard, it is my hope that this 
subcommittee will recognize and renew its commitment to assure that all 
Indian people, regardless of their place of residence or their standing 
as being federally-recognized, achieve the House's proclamation of the 
importance of good health in Indian affairs.
    Thank you.
                                 ______
                                 
             Prepared Statement of the Shoalwater Bay Tribe
                                summary
    The Shoalwater Bay Tribe is located on Willapa Bay in southwestern 
Washington. Our tribe was formed in 1866 incorporating members of Lower 
Chehalis, Shoalwater Bay and Chinookan people. As a small but strong 
tribe, we strive to keep our language, culture and economic health 
active and viable. While very connected to our past, Shoalwater Bay 
tribal members work to expand our influence and increase awareness of 
our tribal culture while improving our health and way of life. We 
request that the subcommittee provide the following items in the fiscal 
year 2015 appropriations cycle.
  --Make full Contract Support Costs funding mandatory spending.
  --Reauthorize the Special Diabetes Program for Indians.
  --Fund the IHS budget with advanced appropriations.
              mandatory funding for contract support costs
    We are pleased that the administration has sought to fully fund 
contract support costs (CSC) under the Indian Self-Determination and 
Education Assistance Act (ISDEAA) in fiscal year 2015, and we urge 
Congress to support that goal. We also acknowledge that the 
administration's request is a direct response to Congress' actions with 
regard to fiscal year 2014 appropriations, which removed historical 
caps on CSC funding and rejected the administration's proposal--put 
forward without consultation and vehemently opposed by tribes--to 
individually cap contract support cost recovery at the contractor 
level. Contract support costs fund vital administrative functions that 
allow us to operate programs that provide critical services to our 
members. If contract support costs are not fully funded, however, our 
programs and services are directly impacted because we are forced to 
divert limited program funding to cover fixed overhead expenses 
instead. We therefore appreciate Congress' support in fiscal year 2014 
and hope that it carries through to fiscal year 2015 and beyond.
    However, the CSC funding problem is not yet solved. Full funding 
for CSC must not come with a penalty--namely, a reduction in program 
funding or effective permanent sequestration of Indian program funds. 
That result would have the same devastating effect on our service 
delivery as the failure to fully fund CSC. Yet Congress, in the Joint 
Explanatory Statement accompanying the fiscal year 2014 Consolidated 
Appropriations Act, noted that ``since [contract support costs] fall 
under discretionary spending, they have the potential to impact all 
other programs funded under the Interior and Environment Appropriations 
bill, including other equally important tribal programs.'' Moreover, 
without any permanent measure to ensure full funding, payment of CSC 
remains subject to agency ``discretion'' from year to year, even though 
tribes are legally entitled to payment under the ISDEAA. Noting these 
ongoing conflicts of law, Congress directed the agencies to consult 
with tribes on a permanent solution.
    In our view, there is a logical permanent solution which Congress 
is empowered to implement: CSC should be appropriated as a mandatory 
entitlement. The Congressional Budget Office defines ``Entitlement'' as 
``A legal obligation of the Federal Government to make payments to a 
person, group of people, business, unit of government, or similar 
entity that meets the eligibility criteria set in law and for which the 
budget authority is not provided in advance in an appropriation act.'' 
Further, ``Spending for entitlement programs is controlled through 
those programs' eligibility criteria and benefit or payment rules.'' 
\1\ CSC meets every part of this definition except that the budget 
authority is currently provided and controlled through appropriation 
acts--as if CSC were a discretionary program. Under the Indian Self-
Determination and Education Assistance Act, the full payment of CSC is 
not discretionary, but is a legal obligation of the United States. 
Indeed, the underlying purpose of the ISDEAA--to end Federal domination 
of Indian programs and allow for meaningful control by Indian tribes 
over their own destinies in the face of Federal bureaucratic 
resistance--will always be threatened so long as the mechanisms that 
allow the statute to function are considered ``discretionary.''
---------------------------------------------------------------------------
    \1\ Congressional Budget Office Glossary, available at http://
www.cbo.gov/publication/42904 (updated January 2012).
---------------------------------------------------------------------------
    From an appropriations standpoint, the fiscal year 2014 Joint 
Explanatory Statement recognized that the current fundamental mismatch 
between the mandatory nature of CSC and the current appropriation 
approach leaves both the House and Senate Committees on Appropriations 
in the ``untenable position of appropriating discretionary funds for 
the payment of any legally obligated contract support costs.'' As the 
Joint Explanatory Statement also noted, ``Typically obligations of this 
nature are addressed through mandatory spending.'' The obvious solution 
then is to bring the appropriations process in line with the statutory 
requirements and to recognize CSC for what it is: a mandatory 
entitlement, not a discretionary program. We therefore strongly urge 
the Congress to move to appropriate funding for CSC on a mandatory 
basis.
                reauthorize the special diabetes program
    While the entitlement funding for the Special Diabetes Program for 
Indians (SDPI) is not part of the IHS appropriations process, those 
funds are administered through the IHS. With the recent enactment 
(Public Law 113-93) of a 1 year extension of the SDPI as part of the 
Medicare ``doc fix'' bill, it is funded through fiscal year 2015 at 
$150 million, minus a 2 percent reduction ($3 million) due to the 
sequestration of non-exempt mandatory programs (Public Law 112-240). 
This funding level has not increased since 2004. The SDPI has proven 
highly effective in Indian Country, and has produced excellent results. 
For example, in the 4 years preceding the last report on the SDPI in 
2011, the average blood sugar level dropped nearly a percentage point 
overall, corresponding to a 40 percent decline in the risk of eye, 
kidney, and nerve complications due to diabetes. We ask that you 
support ongoing efforts to reauthorize this program for a 5-year period 
at increased funding levels.
              fund the ihs through advanced appropriations
    An important goal for Shoalwater Bay--and for all of Indian 
Country--is the reliable, advance appropriation of the IHS budget 1 
year in advance. The goal is for the IHS and tribal healthcare 
providers to have adequate advance notice of the amount of Federal 
appropriations to expect and thus not be subjected to the uncertainties 
of late funding and short-term Continuing Resolutions. Under advance 
appropriations funding is provided in the initial year for 2 years and 
thereafter for 1 year, but it is a year in advance. Because the funding 
does not count against the subcommittee's funding cap or the Budget 
Resolution score until the year in which it is to be obligated, that 
initial second year of funding does not have a negative effect on the 
subcommittee or Budget Resolution. Congress provides advance 
appropriations for the Veterans Administration medical accounts, and 
the request is for parity in the appropriations schedule for the IHS. 
Bilsl that would authorize IHS advance appropriations have been 
introduced--H.R. 3229 by Representative Don Young and S. 1570 by 
Senators Murkowski and Begich. We request that you support the effort 
to authorize and to appropriate funding for Indian Health Service 
advance appropriations.
    Thank you for your consideration of our concerns and requests. We 
are happy to respond to questions or provide any additional information 
you may request.
                                 ______
                                 
   Prepared Statement of the Society for Historical Archaeology (SHA)
Request:
  --$46.925 million for State Historic Preservation Offices (SHPOs).
  --$8.985 million for the Tribal Historic Preservation Offices 
        (THPOs).
  --$500,000 for grants for survey and National Register/National 
        Landmark nominations for underrepresented populations.
    These programs are funded through withdrawals from the U.S. 
Department of the Interior's National Park Service Historic 
Preservation Fund (HPF) (16 U.S.C. Sec. 470h).
                       about sha and its members
    SHA is the largest organization in the world dedicated to the 
archaeological study of the modern world and the third largest 
anthropological organization in the United States. It promotes 
scholarly research and knowledge concerning historical archaeology, and 
is specifically concerned with the identification, excavation, 
interpretation, and conservation of sites and materials on land and 
underwater. SHA and its more than 2,300 members strongly support the 
protection of cultural and historical resources and sites around the 
Nation.
  funding shpos and thpos is critically important to protecting u.s. 
                              archaeology
    In 1966, Congress, recognizing the importance of our heritage, 
enacted the National Historic Preservation Act (16 U.S.C. Sec. 470, et 
seq.) (NHPA), which established historic preservation as a Federal 
Government priority. Historic preservation recognizes that what was 
common and ordinary in the past is often rare and precious today, and 
what is common and ordinary today may be extraordinary in the future.
    Instead of using Federal employees to carry out the Act, the 
Department of Interior and the Advisory Council on Historic 
Preservation opted to partner with the States and use SHPOs and THPOs 
to, among other tasks, review all Federal projects for their impact on 
historic properties. In order for the review process to work smoothly 
and for historical archaeological sites to be protected, SHPOs and 
THPOs must have adequate funding. Proper financial support for their 
work allows SHPOs and THPOs to review and approve projects in a timely 
basis, moving projects forward in an efficient manner and protecting 
irreplaceable cultural and historical resources and sites.
                               conclusion
    SHA would like to thank you, Chairman Reed, and all the Members of 
the Senate Appropriations Subcommittee on Interior, Environment and 
Related Agencies for the opportunity to submit testimony.
    SHA would also like to thank the subcommittee for its commitment to 
historic preservation.
                                 ______
                                 
        Prepared Statement of the Society of American Foresters
    The Society of American Foresters (SAF), with more than 12,000 
professionals working across all segments of the forestry profession, 
promotes science-based, sustainable management and stewardship of the 
Nation's public and private forests. SAF appreciates this opportunity 
to submit written public testimony on fiscal year 2015 appropriations 
because proper funding for the U.S. Forest Service (USFS) and the 
Department of Interior (DOI) is vital to conserving and improving the 
health and productivity of our Nation's forests.
    Society as a whole relies on the 751 million acres of forests in 
the United States to provide clean and abundant air and water, 
recreational opportunities, forest products, wildlife habitat, and 
scenic beauty. As our reliance continues to grow, pressures on forests 
from wildfires, drought, insects, disease, and invasive species have 
risen to unprecedented levels. Land management agencies must manage 
these mounting threats while still providing for multiple uses and 
important ecosystem services. Maintaining this balance demands that 
Federal land managers identify innovative ways to maximize the rate of 
return when considering investments to improve the health of America's 
forests.
    The following highlights SAF's top priorities in the fiscal year 
2015 budget process. These priorities impact a range of programs within 
USFS and DOI. Recognizing fiscal constraints, these requests will 
assist forest managers in sustaining our Nation's forests and providing 
a multitude of benefits for generations to come.
                           saf top priorities
    1.  Adoption of a new approach to wildfire suppression funding that 
features flexible spending caps for emergency wildfire suppression 
costs in addition to funding USFS and DOI Hazardous Fuels Programs at a 
level that is sufficient to conduct fuels reduction projects to reduce 
wildfire risks on Federal, State, and private lands.
    2.  Increased funding levels for USFS Research and Development 
(R&D) to no less than $231 million and no less than $72 million for the 
Forest Inventory and Analysis Program (FIA).
    3.  Funding the Forest Health Management Program (FHP) as a 
consolidated USFS State and Private Forestry budget line item at no 
less than $111 million.
    4.  Continued support for the Collaborative Forest Landscape 
Restoration Program (CFLRP) at no less than $40 million.
    5.  Removal of the Bureau of Land Management Forest Ecosystem 
Health and Recovery Fund sunset provision set to go into effect at the 
end of fiscal year 2015.

    SAF represents forestry and natural resources professionals working 
on public and private forests across America. SAF members are eager to 
work with Federal agencies and Congress to identify reasonable 
solutions to facilitate increasing the pace of management on Federal 
lands.
    Since 1910, forest area in the U.S. has been relatively stable, 
with a slight increase in the last two decades.\1\ The current volume 
of annual timber growth is 32 percent higher than the volume of annual 
removals, but SAF is concerned that 90 percent of the timber harvested 
in the Nation came from private forestlands.\2\
---------------------------------------------------------------------------
    \1\ U.S. Forest Service (USFS). 2007. U.S. Forest Resource Facts 
and Historical Trends. Available online at http://fia.fs.fed.us/
library/brochures/docs/Forest%20Facts%201952-2007%20English
%20rev072411.pdf; last accessed April 2015.
    \2\ U.S. Forest Service (USFS). 2010. National Report on 
Sustainable Forests--2010. Available online at http://www.fs.fed.us/
research/sustain/2010SustainabilityReport/documents/2010_
SustainabilityReport.pdf; last accessed April 2015.
---------------------------------------------------------------------------
    SAF is pleased that the administration recognizes the need for 
management of Federal lands, and set a harvest target of three billion 
board feet for fiscal year 2015. With 65 to 82 million acres in the 
National Forest System (NFS) in need of restoration and total U.S. 
timber harvests at the lowest levels since the 1960s, SAF encourages 
USFS to seize this opportunity to implement more projects on Federal 
lands.\3\ USFS can work with rural communities to get these projects 
started now without adding the potential for complications and 
confusion that could arise with the expansion of the Integrated 
Resource Restoration (IRR) line item beyond the pilot phase. SAF 
members are convinced that this volume target can be reached using 
existing mechanisms and infrastructure. The increased volume output 
will help to satisfy increased demand for construction and wood 
products while also improving the health and resilience of our Nation's 
forests.
---------------------------------------------------------------------------
    \3\ U.S. Forest Service (USFS). 2010. National Report on 
Sustainable Forests--2010. Available online at http://www.fs.fed.us/
research/sustain/2010SustainabilityReport/documents/2010_
SustainabilityReport.pdf; last accessed April 2015.
---------------------------------------------------------------------------
                       saf budget recommendations
    Simply appropriating dollars for Federal land management agencies 
is not enough. Successful implementation of USFS and DOI programs is 
predicated on finding an alternative to how fire suppression activities 
are managed and funded. In the span of only 2 years--fiscal year 2012 
and 2013--USFS and DOI were forced to transfer more than $1 billion 
that Congress had appropriated to other priority programs to fund fire 
suppression. Changing the fire funding structure and committing to fund 
the Hazardous Fuels Programs at USFS and DOI will prevent future 
transfers and assist the agencies in achieving important land 
management objectives.
    SAF encourages the subcommittee to avoid transfers in fiscal year 
2015 by including language similar to the bipartisan Wildfire Disaster 
Funding Act, introduced in the House and Senate (H.R. 3992 & S. 1875) 
in the fiscal year 2015 House Appropriations Bill.
    A balanced approach to averting threats posed by fire is 
imperative. The Hazardous Fuels line items in the USFS and DOI budgets 
are integral to restoring forest health and resilience and reducing the 
costs of wildfire suppression. SAF members appreciate this 
subcommittee's consistent support for wildfire management and encourage 
the subcommittee to allocate funds to address fire risks inside and 
outside the wildland urban interface. Directing funds to treat areas 
outside of the wildland urban interface will reduce the costs 
associated with suppression and, in certain instances, the intensity of 
wildfires after outbreak. SAF supports consolidating hazardous fuels 
funding in the USFS and DOI Hazardous Fuels Programs with $479 million 
allocated for USFS and $178 million allocated for DOI.
    Investments in forestry research are investments in the future 
health and sustainability of the Nation's forests. USFS R&D conducts 
essential research on disturbances, forest ecosystems, species and 
forest resilience, treatment methods for controlling forest insects, 
diseases, and invasive species, renewable energy development and woody 
biomass conversion technology, and forest products and technology. SAF 
is concerned that the forestry research capacity in the U.S. continues 
to decline, threatening U.S. competitiveness and the ability of forest 
managers to meet tomorrow's challenges with current science and 
technical information. SAF supports a funding level of $231 million for 
USFS R&D with particular emphasis on prioritizing research efforts and 
transferring knowledge to forestry professionals working in the field.
    USFS R&D Forest Inventory and Analysis (FIA) program is the 
backbone of U.S. forestry, providing the only national census of 
forests across all ownerships. Through FIA, USFS (partnering with State 
forestry agencies and the private sector) collects and analyzes forest 
data to assess trends on issues such as forest health and management, 
fragmentation and parcelization, and forest carbon sequestration. The 
data and information collected by FIA serves as the basis for: 
identifying trends in forest ownership; assessing fish and wildlife 
habitat; evaluating wildfire, insect, and disease risk; predicting the 
spread of invasive species; determining capital investment in existing 
forest products facilities and selecting locations for new forest 
product facilities; and identifying and responding to priorities 
identified in State Forest Action Plans. FIA data also evaluates forest 
disturbance risks, such as wildfire, insects and disease, and spread of 
invasive species. SAF members urge this subcommittee to reverse the 
spending cuts to FIA and requests funding in fiscal year 2015 at a 
level of at least $72 million.
    USFS State and Private Forestry (S&PF) allocations support 
sustainable forestry on public and private lands. SAF strongly supports 
funding S&PF programs to work in cooperation with the States to provide 
assistance to private landowners who own more than 50 percent of the 
forestland in the United States. The consolidated S&PF Forest Health 
Management programs (FHP) manage forest health through direct action on 
the NFS lands and provide assistance to other Federal agencies, State 
and local agencies, and private landowners to prevent and mitigate 
insect and disease outbreaks as well as the spread of invasive species. 
SAF recommends funding FHP at the fiscal year 2012 enacted funding 
levels of $111 million to continue monitoring and responding to forest 
health concerns.
    SAF remains committed to the Collaborative Forest Landscape 
Restoration Program (CFLRP). CFLRP encourages collaborative, science-
based ecosystem restoration on priority forest landscapes.\4\ In 4 
years, the 23 selected projects have reduced hazardous fuels, generated 
timber receipts, and provided a boost to rural economies.\5\ To ensure 
CFLRP's continued success, SAF supports a $40 million dollar funding 
level and consideration of additional funds for the program if 
available.
---------------------------------------------------------------------------
    \4\ U.S. Forest Service. 2012. Collaborative Forest Landscape 
Restoration Program. U.S. Forest Service Web site. Accessible online at 
http://www.fs.fed.us/restoration/CFLR/index.shtml; last accessed April 
2015.
    \5\ U.S. Forest Service 2014. Fiscal year 2015 President's Budget 
Justification. Available online at http://www.fs.fed.us/aboutus/budget/
2015/FS15-FS-Budget-Justification.pdf; last accessed April 2015.
---------------------------------------------------------------------------
    In closing, SAF would like to highlight an issue of concern. SAF 
members were delighted with the return of the Bureau of Land Management 
Public Domain Forestry Program (PD) to fiscal year 2012 funding levels 
as a part of the 2014 Omnibus Appropriations Bill. However, SAF members 
are troubled by the pending loss of the Forest Ecosystem Health and 
Recovery Fund, commonly referred to as the 5900 account. This fund 
allows PD and BLM Oregon and California Railroad Grant Lands (O&C) to 
use a portion of the receipts from sales of timber and wood products on 
BLM lands not returned to the neighboring counties to fund management 
activities. This permanent operating fund created in the Appropriations 
Act of 1993 expires at the end of fiscal year 2015.
    After fiscal year 2015, all receipts generated from these sales 
currently used to continue management and restoration activities on PD 
and O&C lands will be returned to the Federal treasury. This loss of 
revenue will leave few dollars in the tight PD budget for planning, 
preparing, implementing, and monitoring forest ecosystem restoration 
activities. SAF recognizes that permanent operating fund accounts 
should be periodically evaluated for continued relevance or possible 
elimination, but BLM's use of the 5900 account reduces the budgeted 
dollars required to operate PD. SAF recommends this account be 
reauthorized and not allowed to expire at the end of fiscal year 2015.
    Thank you for your time and consideration of these important 
requests. SAF and its extensive network of forestry and natural 
resources professionals stand ready to assist with further development 
and implementation of these efforts.
                                 ______
                                 
          Prepared Statement of the Southern Ute Indian Tribe
                                                  January 16, 2015.
Hon. Jack Reed, Chairman,
Hon. Lisa Murkowski, Ranking Member,
Subcommittee on Interior, Environment, and Related Agencies, Committee 
        on Appropriations, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.

    Dear Chairman Reed and Senator Murkowski: On behalf of the Southern 
Ute Indian Tribe, I am requesting your support for fiscal year 2015 
appropriations to the Fish and Wildlife Service (FWS) for the Upper 
Colorado River Endangered Fish Recovery Program and the San Juan River 
Basin Recovery Implementation Program consistent with the President's 
recommended budget. I request that the subcommittee:

  --Appropriate $706,300 in ``Conservation and Restoration'' funds 
        (Resource Management Appropriation; Ecological Services 
        Activity; Conservation and Restoration Subactivity within the 
        $124,253,000 item entitled ``Conservation and Restoration'') to 
        the U.S. Fish and Wildlife Service (FWS) to allow FWS for 
        fiscal year 2015 to continue its essential participation in the 
        Upper Colorado River Endangered Fish Recovery Program.
  --Appropriate $200,000 in FWS ``Conservation and Restoration'' funds 
        for the San Juan River Basin Recovery Implementation Program to 
        meet expenses incurred by FWS's Region 2 in managing the San 
        Juan Program's diverse recovery activities.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $48,617,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.

    The tribe requests the subcommittee's assistance in assuring fiscal 
year 2015 funding to allow the FWS to continue its financial and 
personnel participation in these two vitally important recovery 
programs. The tribe recognizes and appreciates that the past support 
and assistance of your subcommittee has greatly facilitated the success 
of these ongoing efforts.
            Sincerely,
                                           James L. Olguin,
                                                          Chairman.
                                 ______
                                 
   Prepared Statement of the Southwestern Water Conservation District
                                                     April 8, 2014.
Hon. Jack Reed, Chairman,
Hon. Lisa Murkowski, Ranking Member,
Subcommittee on Interior, Environment, and Related Agencies, Committee 
        on Appropriations, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.

    Dear Chairman Reed and Senator Murkowski: The Southwestern Water 
Conservation District was established by the Colorado legislature to 
conserve and protect the waters of the San Juan and Dolores Rivers and 
their tributaries.
    Following this mandate, I am requesting your support for fiscal 
year 2015 appropriations to the Fish and Wildlife Service (FWS) for the 
Upper Colorado River Endangered Fish Recovery Program and the San Juan 
River Basin Recovery Implementation Program in the amount of 
$1,392,100.00 consistent with the President's recommended budget. I 
request that the subcommittee:

  --Appropriate $706,300 in ``Conservation and Restoration'' funds 
        (Resource Management Appropriation; Ecological Services 
        Activity; Conservation and Restoration Subactivity within the 
        $124,253,000 item entitled ``Conservation and Restoration'') to 
        the U.S. Fish and Wildlife Service (FWS) to allow FWS for 
        fiscal year 2015 to continue its essential participation in the 
        Upper Colorado River Endangered Fish Recovery Program.
  --Appropriate $200,000 in FWS ``Conservation and Restoration'' funds 
        for the San Juan River Basin Recovery Implementation Program to 
        meet expenses incurred by FWS's Region 2 in managing the San 
        Juan Program's diverse recovery activities.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $48,617,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.

    On behalf of our District board, I request the subcommittee's 
assistance in assuring fiscal year 2015 funding to allow the FWS to 
continue its financial and personnel participation in these two vitally 
important recovery programs. I recognize and appreciate that the past 
support and assistance of your subcommittee has greatly facilitated the 
success of these ongoing efforts.
            Sincerely,
                                           Bruce Whitehead,
                                                Executive Director.
                                 ______
                                 
             Prepared Statement of the Squaxin Island Tribe
    On behalf of the tribal leadership and members of the Squaxin 
Island Tribe, thank you for the invitation to submit our funding 
priorities and recommendations for the fiscal year 2015 budgets for the 
Bureau of Indian Affairs (BIA) and Indian Health Service (IHS). Squaxin 
Island Tribe requests that tribal program funding throughout the 
Federal Government be exempt from future sequestration cuts. Further we 
ask that the legal obligations to pay full Contract Support Costs (CSC) 
not be at the expense of reducing tribal program funding and that 
tribal programs not be subjected to across the board rescissions not 
imposed on other beneficiaries of the Federal Government. For the 
fiscal year 2015 budget, we submit the following requests:
                        tribal specific requests
    1.  $500,000 Shellfish Management Program--BIA.
    2.  $2 Million to Build and Operate an Oyster and Clam Nursery for 
Southern Puget Sound--BIA.
    3.  $1.5 Million Increase for Northwest Indian Treatment Center 
(NWITC) Residential Program in IHS.
    national requests and recommendations--bureau of indian affairs
    1.  Restore 2013 Sequestered Cuts ($119 million) to Tribal Program 
Funding.
    2.  +$4 million over fiscal year 2015 request to fully fund 
Contract Support Costs (CSC).
    3.  +$19.3 million over fiscal year 2014 for Tribal Priority 
Allocations Account.
    4.  Fully fund all of the provisions of the Tribal Law and Order 
Act of 2010 that authorizes additional funding for law and order 
programs that affect Indian Tribes;
    5.  $500,000 for Johnson O'Malley education assistance grants to 
support a new student count in 2015 and provides funding for the 
projected increase in the number of students eligible for grants.
    6.  Office of Self-Governance (OSG)--Provide increased funding to 
the OSG to fully staff the office for the increase in the number of 
Tribes entering Self-Governance.
      national requests and recommendations--indian health service
    1.  Restore 2013 Sequestered Cuts ($220 Million) to Tribal Health 
Services.
    2.  Support IHS Mandatory Funding (maintain current services).
    3.  +$30 million over fiscal year 2015 request to fully fund 
Contract Support Costs (CSC).
    4.  +$50 million over 2015 request for Purchased and Referred Care.
    5.  Restore $6 million to the Office of Tribal Self-Governance 
(OTSG) to fulfill legal requirements under title V of Public Law 106-
260 which increased the responsibilities of OTSG.
    The Squaxin Island Tribes supports the fiscal year 2015 budgets 
requests of the Affiliated Tribes of Northwest Indians, Northwest 
Portland Area Indian Health Board and the Northwest Indian Fisheries 
Commission.
                    squaxin island tribe background
    We are native people of South Puget Sound and descendants of the 
maritime people who lived and prospered along these shores for untold 
centuries. We are known as the People of the Water because of our 
strong cultural connection to the natural beauty and bounty of Puget 
Sound going back hundreds of years. The Squaxin Island Indian 
Reservation is located in southeastern Mason County, Washington and the 
tribe is a signatory to the 1854 Medicine Creek Treaty. We were one of 
the first 30 federally-recognized Tribes to enter into a Compact of 
Self-Governance with the United States.
    Our treaty-designated reservation, Squaxin Island, is approximately 
2.2 square miles of uninhabited forested land, surrounded by the bays 
and inlets of southern Puget Sound. Because the Island lacks fresh 
water, the tribe has built its community on roughly 26 acres at 
Kamilche, Washington purchased and placed into trust. The tribe also 
owns 6 acres across Pickering Passage from Squaxin Island and a plot of 
36 acres on Harstine Island, across Peale Passage. The total land area 
including off-reservation trust lands is 1,715.46 acres. In addition, 
the tribe manages roughly 500 acres of Puget Sound tidelands.
    The tribal government and our economic enterprises constitute the 
largest employer in Mason County with over 1,250 employees. The tribe 
has a current enrollment of 1,040 and an on-reservation population of 
426 living in 141 homes. Squaxin has an estimated service area 
population of 2,747; a growth rate of about 10 percent, and an 
unemployment rate of about 30 percent (according to the BIA Labor Force 
Report).
                tribal specific requests justifications
    1. $500,000--SHELLFISH MANAGEMENT.--The Squaxin Island Tribes faces 
a budget deficit to maintain and operate the shellfish program at the 
current level. To effectively grow and develop the program, an annual 
minimum increase of $500,000 to address the shortfall and ensure the 
continuance of this program is requested.
    Shellfish have been a mainstay for the Squaxin Island people for 
thousands of years and are important today for subsistence, economic 
and ceremonial purposes. The tribe's right to harvest shellfish is 
guaranteed by the 1854 Medicine Creek Treaty. It is important to 
remember that these rights were not granted by the Federal Government. 
They were retained by the tribe in exchange for thousands of acres of 
tribal lands. On December 20, 1994 U.S. District Court Judge Edward 
Rafeedie reaffirmed the tribe's treaty right to naturally occurring 
shellfish. Rafeedie ruled that the tribe(s) has the right to take up to 
50 percent of the harvestable shellfish on Washington beaches.
    The Squaxin Island Natural Resources Department (SINRD) is charged 
with protecting, managing and enhancing the land and water resources of 
the tribe, including fish and shellfish habitat and species. In so 
doing, the Department works cooperatively with State and Federal 
environmental, natural resources and health agencies. The shellfish 
management work of the SINRD includes working with private tideland 
owners and commercial growers; surveying beaches; monitoring harvests; 
enhancing supply (prepping, seeding, monitoring beds) and licensing and 
certifying harvesters and geoduck divers. We estimate that 20 percent 
of treaty-designated State lands and 80-90 percent of private tidelands 
are inaccessible to us due to insufficient funding.
    In fiscal year 2011, the shellfish program represented only 
$250,000 of the $3.3 million budget. The result is we are unable to 
fully exercise our treaty rights due to lack of Federal support for 
shellfish.
    2. $2 Million--Build and Operate an Oyster and Clam Nursery for 
Southern Puget Sound.--In the past few years, problems with seed 
production have developed in the shellfish industry. These problems 
have been primarily caused by weather and or other environmental 
factors, and their effects on the industry have resulted in the lack of 
viable and large enough seed for growers. The Squaxin Island Tribe 
recognizes that it is uniquely positioned to develop a new nursery to 
serve the shellfish growers of the South Puget Sound region. A 
shellfish nursery is a capital project that is both proven and a cost 
effective technology that takes small oyster and clam seeds and 
provides a safe and controlled environment for the seeds to grow to a 
size that can survive integration onto a regular beach placement. We 
have an ideal location for a nursery because it will not be disturbed 
by residents or recreational boaters.
    Our efforts will be an extension of another project that was 
created through a U.S. Department of Agriculture appropriation nearly 
two decades ago for the Lummi Tribe, which created an oyster and clam 
hatchery in Northern Puget Sound. The Lummi project over years has been 
very successful and they have supplied not only their own beaches but 
other tribes' in their region as well. The project would benefit not 
just Squaxin Island Tribe. It would further improve the quality and 
quantity of seed and make the seed process more effective for tribal 
and non-tribal growers. The users of the facility would be the Squaxin 
Island Tribe, other Tribes, and non-tribal clam and oyster businesses 
that have been largely unable to find sites for this type of operation.
    The tribe's project will be a joint venture with the Lummi Nation, 
in that Lummi would be a primary larvae supplier. The project, with the 
expected grow-out and expansion of the industry attributable to the 
improved supply of seed, would offer jobs in a depressed employment 
area. Once established, the venture would be fully self-sustaining 
through sales of the product grown and at the nursery.
    This project would be a capital cost of approximately $2 million. 
The tribal in-kind contribution to the efforts would include land and 
shoreline and operating costs. Comparable land and shoreline, if 
privately owned, would be easily valued in the millions.
    3. $1.5 Million Increase for Northwest Indian Treatment Center 
(NWITC) Residential Program in IHS ``D3WXbi Palil'' meaning ``Returning 
from the Dark, Deep Waters to the Light''--NWITC has not received an 
adequate increase in its base Indian Health Service budget since the 
original Congressional set-aside in 1993.--The Squaxin Island Tribe has 
been operating the Northwest Indian Treatment Center (NWITC) since 
1994. Ingenious in creativity, the center offers a wide variety of 
cultural activities and traditional/religious ceremonies, making it a 
natural place to heal--body, mind and soul. Fittingly, the center was 
given the spiritual name ``D3WXbi Palil'' meaning ``Returning from the 
Dark, Deep Waters to the Light.'' Since the original Congressional set-
aside in 1993, NWITC has not received an adequate increase in the base 
Indian Health Service budget. It is critical to increase the NWITC's 
annual base in order to sustain the current services to the Tribes of 
the Northwest. An increase of $1.5 million would restore lost 
purchasing power and meet the need to add mental health and psychiatric 
components to the treatment program through other funding agents. This 
increase would allow NWITC to continue its effective treatment of 
Native Americans.
    NWITC is a residential chemical dependency treatment facility 
designed to serve American Indians from tribes located in Oregon, 
Washington and Idaho who have chronic relapse patterns related to 
unresolved grief and trauma. NWITC is unique in its integration of 
tribal cultural values into a therapeutic environment for co-occurring 
substance abuse and mental health disorders. It is a 28 bed, 30-60 day 
residential facility.
    Welcomed and hailed by tribal Leaders who felt the urgent need for 
such a facility, NWITC is centrally located in Grays Harbor County 
between Olympia and Aberdeen, on 2.5 acres in the small rural town of 
Elma, Washington. NWITC accepts patients that are referred through 
outpatient treatment programs, parole and probation services, 
hospitals, assessment centers and child and family service centers. 
Medical care is provided through local Indian Health Service clinics 
and other medical service providers. NWITC has responded with an 
overwhelming success rate of nearly 65 percent.
    In 2011, the NWITC served 225 patients from 28 tribes and added 
intensive case management and crisis support to alumni in order to 
continue to promote positive outcomes for clients. Despite funding 
challenges, NWITC has continued to develop and deliver innovative, 
culturally appropriate services to meet increasingly complex demands.
    The Treatment Center's traditional foods and medicines program is 
supported through a partnership with the Northwest Indian College and 
is funded through grants from the Washington Health Foundation, the 
National Institute of Food and Agriculture, The Potlatch Fund and 
several tribes. Weekly hands-on classes focus on traditional foods and 
medicines, including methods for growing, harvesting, processing, and 
preparation. Twice a month, tribal elders, storytellers, and cultural 
specialists speak as part of the program. A monthly family class allows 
patients to share what they are learning with their loved ones. 
Patients gain hands-on experience by working in three on-site teaching 
gardens. This program serves as a model for other tribal communities.
    Although we are submitting testimony on the fiscal year 2015 BIA 
and IHS budgets, we must comment on the fiscal year 2013 sequestration 
which disproportionately impacted tribal programs. The BIA and IHS 
tribal funding incurred a disproportionate share of cuts; IHS $220 
million and BIA $119 million. This act continues to undermine Indian 
treaty rights and the Federal obligations and trust responsibility to 
American Indian and Alaskan Native people. The ongoing contribution of 
tribal nations to the U.S. economy is the land on which this Nation is 
built.
    It is ironic that we were forced into a lifestyle and to give up 
our land, and that which we retained or have since regained is 
threatened by the promises you made and have since reclaimed!
                                 ______
                                 
            Prepared Statement of the St. Regis Mohawk Tribe
    The requests of the St. Regis Mohawk Tribe for the fiscal year 2015 
Indian Health Service (IHS) budget are as follows:
  --Ensure that Contract Support Costs continue to be fully funded by 
        moving the program to mandatory entitlement spending.
  --Support reauthorization of the Special Diabetes Program for 
        Indians.
  --Place IHS funding on an advance appropriations basis.
    The St. Regis Mohawk Tribe is located astride the U.S. Canadian 
border in northern New York. Traditionally the keepers of the Eastern 
Door of the Iroquois Confederacy, we have continued as a government for 
our people since before the arrival of Europeans on U.S. shores. We 
cooperate with the United States on a nation-to-nation basis, and today 
operate our own environmental, social, policing, economic, health and 
educational programs, policies, laws and regulations. We operate our 
own medical clinic, and provide a variety of services from mental 
healthcare, nutrition care, pharmacy and laboratory services, 
outpatient services, dental care, pregnancy care, and other services.
  ensure contract support costs receive funding via mandatory spending
    We are pleased that the administration has sought to fully fund 
contract support costs (CSC) under the Indian Self-Determination and 
Education Assistance Act (ISDEAA) in fiscal year 2015, and we urge 
Congress to support that goal. We also acknowledge that the 
administration's request is a direct response to Congress' actions with 
regard to fiscal year 2014 appropriations, which removed historical 
caps on CSC funding and rejected the administration's proposal--put 
forward without consultation and vehemently opposed by tribes--to 
individually cap contract support cost recovery at the contractor 
level. Contract support costs fund vital administrative functions that 
allow us to operate programs that provide critical services to our 
members--programs like those described above. If contract support costs 
are not fully funded, however, our programs and services are directly 
impacted because we are forced to divert limited program funding to 
cover fixed overhead expenses instead. We therefore appreciate 
Congress' support in fiscal year 2014 and hope that it carries through 
to fiscal year 2015 and beyond.
    However, the CSC funding problem is not yet solved. Full funding 
for CSC must not come with a penalty--namely, a reduction in program 
funding or effective permanent sequestration of Indian program funds. 
That result would have the same devastating effect on our service 
delivery as the failure to fully fund CSC. Yet Congress, in the Joint 
Explanatory Statement accompanying the fiscal year 2014 Consolidated 
Appropriations Act, noted that ``since [contract support costs] fall 
under discretionary spending, they have the potential to impact all 
other programs funded under the Interior and Environment Appropriations 
bill, including other equally important tribal programs.'' Moreover, 
without any permanent measure to ensure full funding, payment of CSC 
remains subject to agency ``discretion'' from year to year, even though 
tribes are legally entitled to payment under the ISDEAA. Noting these 
ongoing conflicts of law, Congress directed the agencies to consult 
with tribes on a permanent solution.
    In our view, there is a logical permanent solution which Congress 
is empowered to implement: CSC should be appropriated as a mandatory 
entitlement. The Congressional Budget Office defines ``Entitlement'' as 
``A legal obligation of the Federal Government to make payments to a 
person, group of people, business, unit of government, or similar 
entity that meets the eligibility criteria set in law and for which the 
budget authority is not provided in advance in an appropriation act.'' 
Further, ``Spending for entitlement programs is controlled through 
those programs' eligibility criteria and benefit or payment rules.'' 
\1\ CSC meets every part of this definition except that the budget 
authority is currently provided and controlled through appropriation 
acts--as if CSC were a discretionary program. Under the Indian Self-
Determination and Education Assistance Act, the full payment of CSC is 
not discretionary, but is a legal obligation of the United States. 
Indeed, the underlying purpose of the ISDEAA--to end Federal domination 
of Indian programs and allow for meaningful control by Indian tribes 
over their own destinies in the face of Federal bureaucratic 
resistance--will always be threatened so long as the mechanisms that 
allow the statute to function are considered ``discretionary.''
---------------------------------------------------------------------------
    \1\ Congressional Budget Office Glossary, available at http://
www.cbo.gov/publication/42904 (updated January 2012).
---------------------------------------------------------------------------
    From an appropriations standpoint, the fiscal year 2014 Joint 
Explanatory Statement recognized that the current fundamental mismatch 
between the mandatory nature of CSC and the current appropriation 
approach leaves both the House and Senate Committees on Appropriations 
in the ``untenable position of appropriating discretionary funds for 
the payment of any legally obligated contract support costs.'' As the 
Joint Explanatory Statement also noted, ``Typically obligations of this 
nature are addressed through mandatory spending.'' The obvious solution 
then is to bring the appropriations process in line with the statutory 
requirements and to recognize CSC for what it is: a mandatory 
entitlement, not a discretionary program. We therefore strongly urge 
the Congress to move to appropriate funding for CSC on a mandatory 
basis.
                reauthorize the special diabetes program
    While the entitlement funding for the Special Diabetes Program for 
Indians (SDPI) is not part of the IHS appropriations process, those 
funds are administered through the IHS. With the recent enactment 
(Public Law 113-93) of a 1 year extension of the SDPI as part of the 
Medicare ``doc fix'' bill, it is funded through fiscal year 2015 at 
$150 million, minus a 2 percent reduction ($3 million) due to the 
sequestration of non-exempt mandatory programs (Public Law 112-240). 
This funding level has not increased since 2004. The SDPI has proven 
highly effective in Indian Country, and has produced excellent results. 
For example, in the 4 years preceding the last report on the SDPI in 
2011, the average blood sugar level dropped nearly a percentage point 
overall, corresponding to a 40 percent decline in the risk of eye, 
kidney, and nerve complications due to diabetes. We ask that you 
support ongoing efforts to reauthorize this program for a 5-year period 
at increased funding levels.
            fund the ihs on an advance appropriations basis
    We support legislation that would place the IHS budget on an 
advance appropriations basis. The goal is for the IHS and tribal 
healthcare providers to have adequate advance notice of the amount of 
Federal appropriations to expect and thus not be subjected to the 
uncertainties of late funding and short-term Continuing Resolutions. 
Under advance appropriations 2 years of funds is approved in the first 
year, but the second year's worth of appropriations is not counted 
against the subcommittee's allocation nor the Budget Resolution until 
the year in which it is obligated. Thereafter funding is appropriated 1 
year at a time, but it is 1 year in advance. This contrasts with 
forward funding which does require a one-time extra (3/4 of a year) 
funding that does count against the subcommittee's allocation and the 
Budget Resolution. Congress provides advance appropriations for the 
Veterans Administration medical accounts, and the request is for parity 
in the appropriations schedule for the IHS. Legislation to authorize 
IHS advance appropriations has been introduced--H.R. 3229 by 
Representative Young and S. 1570 by Senators Murkowski and Begich. We 
ask that you support the effort to fund IHS on an advanced basis.
    Thank you for your consideration of our requests. We will be glad 
to provide any additional information the Committee may request.
                                 ______
                                 
             Prepared Statement of the State of New Mexico
                                                    April 29, 2014.
Hon. Jack Reed, Chairman,
Hon. Lisa Murkowski, Ranking Member,
Subcommittee on Interior, Environment, and Related Agencies, Committee 
        on Appropriations, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.

    Dear Chairman Reed and Senator Murkowski: I am requesting your 
support for fiscal year 2015 appropriations to the Fish and Wildlife 
Service (FWS) for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program 
consistent with the President's recommended budget. I request that the 
subcommittee:

  --Appropriate $706,300 in ``Conservation and Restoration'' funds 
        (Resource Management Appropriation; Ecological Services 
        Activity; Conservation and Restoration Subactivity within the 
        $124,253,000 item entitled ``Conservation and Restoration'') to 
        the U.S. Fish and Wildlife Service (FWS) to allow FWS for 
        fiscal year 2015 to continue its essential participation in the 
        Upper Colorado River Endangered Fish Recovery Program.
  --Appropriate $200,000 in FWS ``Conservation and Restoration'' funds 
        for the San Juan River Basin Recovery Implementation Program to 
        meet expenses incurred by FWS's Region 2 in managing the San 
        Juan Program's diverse recovery activities.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $48,617,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.

    I request the subcommittee's assistance in assuring fiscal year 
2015 funding to allow the FWS to continue its financial and personnel 
participation in these two vitally important recovery programs. I 
recognize and appreciate that the past support and assistance of your 
subcommittee has greatly facilitated the success of these ongoing 
efforts.
            Sincerely,
                                   Scott A. Verhines, P.E.,
                                         New Mexico State Engineer.
                                 ______
                                 
               Prepared Statement of the Suquamish Tribe
    Dear Chairman Reed and Ranking Member Murkowski: The Suquamish 
Tribe asks that you support economic development, job creation, and our 
national heritage by appropriating increased funding for the Historic 
Preservation Fund (HPF) for fiscal year 2015. We agree with the 
National Association of Tribal Historic Preservation Officers that the 
appropriation needs to be $15 million for Tribal Historic Preservation 
Officers (THPOs) and $50 million for State Historic Preservation 
Officers (SHPOs).
    Historic Preservation Officers funded through the HPF form the 
backbone of our Nation's historic preservation programs. Together these 
programs provide the tools needed to revitalize, rehabilitate, and 
protect the places that give meaning to our great Nation. Funding also 
leverages investments through local jobs, non-Federal contributions, 
and long-term economic development in communities around the country.
    Tribal Historic Preservation Officers are recognized as the 
authentic representatives of cultures and societies that have been in 
existence for countless generations. They are an active expression of 
tribal sovereignty and perform many functions and responsibilities in 
Indian County. THPOs are involved with projects to improve Indian 
schools, roads, health clinics, and housing, conducting important 
Federal and State compliance work. They are the first responders when a 
sacred site is threatened; when an ancestral home is uncovered; and 
when Native ancestors are disturbed by development. They are also 
responsible for their tribe's oral history programs and operating 
tribal museums and cultural centers.
    The amount appropriated in fiscal years 2012-2014 and the 
President's fiscal year 2015 request was $56.4 million. Of that amount, 
$46.9 million was for the State line item and $9.0 million was for the 
tribal line item. In addition, $500,000 was appropriated for a 
competitive grant program to help survey and identify historic 
resources important to underrepresented populations.
    Unfortunately, the amount of HPF funds appropriated is not keeping 
pace with the increase in THPOs. There are now 151 THPOs, compared to 
only 12 in fiscal year 1996 when the program was first funded. There 
are expected to be at least 156 THPOs in fiscal year 2015. The addition 
of new THPOs each year keeps the average level of support per THPO 
suppressed below $60,000, barely enough to operate a program to protect 
cultural resources on and off tribal lands.
    Without adequate funding, America's national treasures will be 
forever lost. The HPF is the primary, and in many communities the only, 
means to ensure appropriate implementation of our Nation's historic 
preservation laws and the only way to adequately safeguard our historic 
resources. For nearly the past half century, the HPF has enabled 
successful Federal-State, Federal-tribal, and public-private 
partnerships that have helped preserve historic sites and communities 
throughout the Nation. Thank you for your continued support.
                                 ______
                                 
     Prepared Statement of the Sustainable Urban Forests Coalition
    Dear Chairman Jack Reed, Ranking Member Murkowski, and honorable 
members of the subcommittee: The Sustainable Urban Forests Coalition 
(SUFC) represents nonprofits, national associations, nursery and 
landscape professionals, public works professionals, arborists, and 
others nationwide. Working together since 2004, these diverse 
professionals monitor, care and advocate for urban trees and green 
infrastructure. Collectively, we are asking for your support for 
several programs under the Interior Subcommittee's jurisdiction that 
support urban forests and green infrastructure.
    Urban forests are vital to creating and maintaining healthy, 
livable communities of all sizes. Trees growing in populated areas are 
a key component of community infrastructure and provide proven benefits 
to more than the 80 percent of Americans who live there. Urban forests 
enhance air and water quality, reduce energy use, increase property 
values, and provide quantifiable health and wellness benefits to 
people. Creating and maintaining a healthy tree canopy also creates a 
substantial demand for green collar jobs in a sector poised for rapid 
growth.
                          usda forest service
    Since the passage of the Cooperative Forestry Assistance Act of 
1990, the Urban and Community Forestry (U&CF) program has been a 
catalyst and provided important technical assistance for promoting 
healthy forests in our communities. In addition, the U&CF program 
provides critical assistance to help communities manage risk, respond 
to storms and disturbance, and contain threats from invasive pests. In 
2013, the U&CF program delivered technical, financial, educational, and 
research assistance to 7,292 communities and nearly 198 million people, 
over 60 percent of the U.S. population. Urban forests are integral to 
any community striving to reinvest in itself, encourage active, healthy 
citizens, and create a healthier and more sustainable environment with 
smart green infrastructure. The SUFC understands the current economic 
conditions of the country and recommends fiscal year 2015 funding be 
allocated at fiscal year 2012 enacted levels for the Urban and 
Community Forestry program at $31.3 million.
    The Forest Service's Forest and Rangeland Research program is 
essential in providing support for urban forestry research activities 
focused on understanding conditions and trends in our Nation's urban 
and community forests and in providing tools and best management 
practices to community groups and urban forestry practitioners. Forest 
Service researchers and partners have made huge strides in recent years 
in developing new technologies and tools, such as the i-Tree program, 
for mapping the urban forest and to understand the current situation 
and future trends. Similarly, agency researchers have been helping 
policymakers and practitioners to understand the environmental, 
economic, and social services that trees and forests provide. The SUFC 
urges Congress to provide funding for the Forest and Rangeland Research 
line item at $303 million. This reflects $231 million for basic forest 
research, consistent with the fiscal year 2012 enacted level, and $72 
million for Forest Inventory and Analysis (FIA). We also call the 
subcommittee's attention to our collaborative efforts with the Forest 
Service to make progress toward incorporating urban forest assessments 
into the agency's FIA program. We urge the subcommittee to encourage 
the Forest Service to make strong efforts to integrate urban forests 
into FIA so that its critical data-collection efforts on our Nation's 
forests include the estimated 100 million acres of urban forest lands.
    Finally, the SUFC wishes to thank Congress for the report language 
it included with the Consolidated Appropriations Act of 2014, which 
encourages the Forest Service to maintain a strong urban forest 
research program. While there is no budget line item for urban forestry 
research, the Forest Service has recognized Urban Natural Resources 
Stewardship as one of seven Priority Research Areas within its overall 
Forest and Rangeland Research program. We urge the subcommittee to 
continue including such language in its Interior Appropriations reports 
as a reflection of Congress' interest in strong urban forestry research 
in the absence of a budget line item.
    Exotic pests and invasive species are among the greatest threats to 
urban forests. Trees in our towns and cities are at risk from non-
native insects and diseases such as the emerald ash borer and Asian 
longhorned beetle. Non-native pests already cost city governments $2 
billion each year to remove and replace trees they have killed. 
Homeowners in these communities pay another $1 billion per year to 
remove dead trees from their own properties. The substantial loss of 
trees in our communities also impacts the quality of life and property 
values. Funding for the Forest Health Program supports activities 
related to prevention, suppression, and eradication of insects, 
diseases, and plants as well as conducting forest health monitoring 
through pest surveys. SUFC supports no less than fiscal year 2012 
funding levels of $111 million (of which $48 million was directed to 
cooperative lands) in fiscal year 2015 for the USDA Forest Service 
Forest Health Management Program.
                    environmental protection agency
    All forests play vital roles in delivering clean water to 
communities of every size. Urban and rural forests offer fiscally-sound 
green solutions to the management of stormwater, water storage, 
groundwater recharge, and pollutant reduction. Green infrastructure is 
a cost-effective and resilient approach to stormwater infrastructure 
needs that provides many community benefits: improving water and air 
quality; reducing energy use and mitigating climate change; improving 
habitat for wildlife; reducing a community's infrastructure cost and 
promoting economic growth.
    SUFC supports the EPA's goal of strengthening green infrastructure 
activities to further sustainability goals by incorporating green 
infrastructure and enhancing stormwater management. SUFC also supports 
efforts to expand the use of green infrastructure to meet Clean Water 
Act goals through the Clean Water State Revolving Funds (CWSRF). SUFC 
supports the President's fiscal year 2015 request of $5 million to 
strengthen green infrastructure activities, and the fiscal year 2014 
enacted level of $1.449 billion for CWSRF.
    The Urban Waters Federal Partnership is a 13 interagency 
coordinated effort helps stimulate local economies, create jobs, 
improve quality of life, and protect health by revitalizing urban 
waterways and the communities around them, focusing on underserved 
urban communities of all sizes. SUFC supports appropriating fiscal year 
2015 funding to the Urban Waters Federal Partnership, coordinated by 
the Environmental Protection Agency Office of Water.
                    land and water conservation fund
    SUFC supports full and dedicated funding for the Land and Water 
Conservation Fund (LWCF), including funding for the State and Local 
Assistance Program. We support the fiscal year 2015 budget request 
which calls for permanent authorization of $900 million in mandatory 
funding for LWCF programs in the Departments of Interior and 
Agriculture beginning in 2016. During the transition to permanent 
funding in 2015, the budget proposes $350 million in discretionary and 
$550 million in permanent funding, shared by the Departments of 
Interior and Agriculture. This includes discretionary funding for State 
Assistance grants at $48.1 million, which includes $3 million for 
``Competitive Grants.''
                       the national park service
    The reestablishment of the Urban Parks Recreation and Recovery 
(UPARR) program within the National Parks Service, proposed to be 
funded through the Land and Water Conservation Fund, is essential to 
bring nature to the urban communities. These competitive grants focus 
on engaging and connecting communities, especially young people, to 
their neighborhood parks through projects that would revitalize and 
rehabilitate park and recreation opportunities. SUFC supports the 
President's fiscal year 2015 request of $25 million from LWCF for the 
Urban Park and Recreation Recovery Program (UPARR).
            Sincerely,

Alliance For Community Trees
American Forests
AmericanHort
American Planning Association
American Public Works
American Rivers
American Society of Landscape Architects
Arbor Day Foundation
Davey Tree Foundation
Keep America Beautiful
International Society of Arboriculture
National Association of Clean Water Agencies
National Association of Conservation Districts
National Association of State Foresters
National Recreation and Parks Association
Minnesota Shade Tree Advisory Committee
Outdoor Power Equipment Institute
Professional Landcare Network
Sacramento Tree Foundation
SavATree Consulting Group
Society of American Foresters
Society of Municipal Arborists
The Nature Conservancy
Tree Care Industries Association
                      
                                 ______
                                 
   Prepared Statement of the Teaming With Wildlife Steering Committee
    This testimony is submitted on behalf of the following members of 
the national Teaming With Wildlife Steering Committee:

Association of Fish & Wildlife Agencies
Association of Zoos & Aquariums
Izaak Walton League of America
National Wildlife Federation
The Nature Conservancy
The Wildlife Society
Wildlife Conservation Society
Wildlife Management Institute

    Chairman Reed and Ranking Member Murkowski and members of the 
subcommittee: Thank you for this opportunity to provide recommendations 
on the fiscal year 2015 Interior, Environment and Related Agencies 
Appropriations bill. The 6,414 organizations and businesses that are 
part of the Teaming With Wildlife coalition represent millions of 
birders, fish and wildlife professionals, hunters, anglers, boaters, 
hikers and other nature enthusiasts. The State and Tribal Wildlife 
Grants program was created in response to this diverse coalition. We 
encourage the subcommittee to provide a minimum of $58.695 million for 
the State & Tribal Wildlife Grants program in fiscal year 2015, which 
would avoid further cuts to this program. Funding for the State & 
Tribal Wildlife Grants program has been reduced by 35 percent since 
fiscal year 2010.
    The State and Tribal Wildlife Grants program is the only Federal 
program with the singular purpose of preventing Federal endangered 
species listings. It is achieving success as highlighted in the State 
Wildlife Grants Success Stories Report which showed how partnerships in 
every State are conserving vulnerable fish and wildlife, including many 
that are candidates for Federal endangered species listing. The program 
is providing needed capacity to assess and implement actions to 
conserve many of the hundreds of species that have been petitioned for 
Federal endangered species listing.
    Preventing new endangered species listings is a goal shared by 
conservationists, business, farmers and ranchers and has broad 
bipartisan support. Through early and strategic action, we can be 
successful in preventing new endangered species. Adequate and 
consistent funding for the program is essential to fulfillment of the 
shared Federal-State responsibility for keeping our Nation's wildlife 
from becoming endangered. Now more than ever, we should be focusing 
limited resources on this kind of smart, effective investment in 
conservation.
    The State and Tribal Wildlife Grants program has been cut by \1/3\ 
since 2010. The reduction in funding is impacting States' and their 
partner's ability to restore habitat, protect land, incentivize private 
lands conservation, monitor species, conduct research and mitigate 
threats like invasive species and disease. Past cuts are slowing 
conservation work which is leading to a higher probability for future 
endangered species listings. There is no other program that can take 
the place of the State and Tribal Wildlife Grants program.
    Although the need is much greater, continued funding will help 
maintain essential capacity to conserve the more than 12,000 species 
that States have identified as at-risk in their State Wildlife Action 
Plans. These plans were developed collaboratively by leading 
scientists, conservationists, sportsmen and private landowners and 
identified the most effective and practical means to prevent wildlife 
from becoming endangered in every State, territory and the District of 
Columbia. The plans are up for a critical 10-year review and revision 
in 2015. Funding is needed to ensure States and their partners have the 
resources needed to update the plans to ensure the best science is 
available to inform the plans so that successful implementation can be 
achieved.
    We understand and appreciate the fiscal constraints that face our 
Nation. However, the investment in the State & Tribal Wildlife Grants 
program is relatively modest compared to the scope of work it funds 
(proactive conservation in all 56 States, territories and the District 
of Columbia) and the importance of that work (recovery of some of our 
Nation's most imperiled fish and wildlife). We appreciate the 
subcommittee's past support for the State and Tribal Wildlife Grants 
program and hope the highest level of funding possible will be realized 
for the program in fiscal year 2015.
                                 ______
                                 
         Prepared Statement of the Theatre Communications Group
    Mr. Chairman and distinguished members of the subcommittee, Theatre 
Communications Group--the national service organization for the 
American theatre--is grateful for this opportunity to submit testimony 
on behalf of our 494 not-for-profit member theatres across the country 
and the 36 million audience members that the theatre community serves. 
We urge you to support funding at $155 million for the National 
Endowment for the Arts for fiscal year 2015.
    Indeed, the entire not-for-profit arts industry stimulates the 
economy, creates jobs and attracts tourism dollars. The not-for-profit 
arts generate $135.2 billion annually in economic activity, support 
4.13 million jobs and return $9.59 billion in Federal income taxes. Art 
museums, exhibits and festivals combine with performances of theatre, 
dance, opera and music to draw tourists and their consumer dollars to 
communities nationwide. Federal funding for the arts creates a 
significant return, generating many more dollars in matching funds for 
each Federal dollar awarded, and is clearly an investment in the 
economic health of America. In an uncertain economy where corporate 
donations and foundation grants to the arts are diminished, and 
increased ticket prices would undermine efforts to broaden and 
diversify audiences, these Federal funds simply cannot be replaced. 
Maintaining the strength of the not-for-profit sector, along with the 
commercial sector, will be vital to supporting the economic health of 
our Nation.
    Our country's not-for-profit theatres develop innovative 
educational activities and outreach programs, providing millions of 
young people, including ``at-risk'' youth, with important skills for 
the future by expanding their creativity and developing problem-
solving, reasoning and communication abilities--preparing today's 
students to become tomorrow's citizens. Our theatres present new works 
and serve as catalysts for economic growth in their local communities. 
These theatres also nurture--and provide artistic homes for the 
development of--the current generation of acclaimed writers, actors, 
directors and designers working in regional theatre, on Broadway and in 
the film and television industries. At the same time, theatres have 
become increasingly responsive to their communities, serving as healing 
forces in difficult times, and producing work that reflects and 
celebrates the strength of our Nation's diversity.
                      nea grants and their impact
    Here are some recent examples of NEA grants and their impact:

    With a $10,000 Art Works grant from the NEA, Trinity Repertory 
Company in Providence, Rhode Island, will produce a new production of 
Oliver, directed by Sharon and Richard Jenkins. Audience members will 
experience a production which offers fresh insights to a classic work, 
giving prominence to character and narrative, and introducing updated 
orchestrations that reveal the beauty of the music. Post-show 
discussions will encourage audiences to immediately reflect on their 
ideas. Outreach activities will include a free performance for 
constituents served by social service agencies, and a pay-what-you-can 
performance. Six matinees will welcome 3,000 school children, and 
workshops will bring actors and other teaching artists into the 
region's classrooms for 50 customized pre- and post-show sessions. 
Fifteen actors and musicians will be employed, as well as designers, 
artisans and a 100-member staff. Nine local children will also receive 
the enriching experience of working in a professional theatre while 
living at home and staying in school.
    In order to create a lasting impact on the field and promote 
burgeoning playwrights, South Coast Repertory (SCR) based in Costa 
Mesa, California received a $50,000 Art Works grant to support the 17th 
annual Pacific Playwrights Festival which brings together artists, 
local audiences and theatre professionals from across the country. 
Audiences will enjoy seven previously unproduced works and the world 
premieres of Samuel D. Hunter's Rest, Rachel Bonds' Five Mile Lake and 
Adam Rapp's The Purple Lights of Joppa Illinois. Additionally, the 
festival will include staged readings of Theresa Rebeck's Zealot, Eliza 
Clark's Future Thinking, Rajiv Joseph's Mr. Wolf and Melissa Ross' Of 
Good Stock. All five readings from last year's festival went on to full 
productions at SCR and other theatres. This NEA grant will help support 
all seven projects and advance new American playwrights across the 
American stage. In addition to programming like this festival SCR 
annually serves more than 15,000 Orange County students and teachers 
through ticketing programs and bus subsidies that make professional 
theatre accessible to underserved youth and free after-school dramatics 
workshops available for at-risk children in Title One elementary 
schools.
    Weston Playhouse Theatre based in Weston, Vermont, received a 
$20,000 grant to support a production of Pulitzer-Prize winning author, 
Annie Baker's adaptation of Anton Chekhov's ``Uncle Vanya.'' The 
production is being complemented by a series of engagement and learning 
opportunities. In the spring, a teachers' workshop was held that 
provided more than a dozen educators with a wealth of knowledge about 
the playwright, the play, the art of translation, and the creative 
process of production development. In the early fall, these educators 
will bring their students to a matinee performance of this masterpiece 
for just $9 a ticket. Teachers will have the opportunity to engage with 
their students after the show, with carefully-prepared study guides. 
Last year's Mockingbird matinee series brought in 1,365 students and 75 
educators. Similar numbers are expected this year. For adults this 
summer, there will be a gallery showing of the 1994 film ``Vanya on 
42nd Street,'' and plans are in place for a pre-show reception for a 
group from the Vermont Land Trust, igniting the environmental themes 
explored in all of Chekhov's work and giving members of the community 
the opportunity to have a voice in addition to a deep artistic 
experience.
    Not only did the NEA's funding contribute to realizing this 
production, but it also helped to further Weston Playhouse Theatre 
Company's mission to enrich the lives of a broad rural population with 
theatre of national quality and significance supported through 
education and outreach. To do this, a year-round staff of seven swells 
to more than a hundred during the summer months. Every summer, more 
than 20,000 ticket-holders take a seat in one of Weston's three 
performance spaces. Each production is enhanced with show notes, 
director notes, pre-show director talks, and post-show talkbacks. In 
building audiences and performers for the future, Weston runs a Student 
Ambassador program, as well as residency programs in local schools and 
classes.
    The NEA has awarded Shakespeare Festival St. Louis in Missouri a 
$15,000 grant to support Shakespeare in the Streets (SITS), a 
grassroots theatrical experience that invites St. Louis' diverse 
neighborhoods to tell their unique community stories. Under the 
guidance of a creative team, community residents contribute to 
developing an original play based on Shakespeare's works--a play whose 
themes reflect the community's social and economic ``character.'' Their 
partnership results in three free street performances that showcase the 
combined talents of professional actors performing alongside local 
residents. The project uses techniques in community co-creation to 
inspire regional collaboration and conversation.
    The audience for the three free performances was over 2000 people 
in 2013. Over 130 local area residents participated in the production 
aimed to reclaim St. Louis city streets as places of community, 
conversation, and collaboration. The program employs dozens of artists, 
teaching artists, and provides stipends for neighborhood young people 
to work professionally with the Festival and gain transferable skills 
to other disciplines. SITS involves dozens of corporate, foundation, 
and community partners and provides educational workshops at all three 
area schools, followed by free Summer Shakespeare Camps for 
neighborhood students, allowing them the chance to create their own 
version of the Shakespeare production while fostering an understanding 
of Shakespeare's universal themes. The Festival annually employs over 
80 artists and craftsmen, serves over 25,000 young people at 125 
schools, and performs for more than 60,000 patrons each year through 
its main stage and community programs. In 2013 the Festival entertained 
its 600,000th patron in Forest Park.
    These are only a few examples of the kinds of extraordinary 
programs supported by the National Endowment for the Arts. Indeed, the 
Endowment's Theatre Program is able to fund only 50 percent of the 
applications it receives, so 50 percent of the theatres are turned away 
because there aren't sufficient funds. Theatre Communications Group 
urges you to support a funding level of $155 million for fiscal year 
2015 for the NEA, to maintain citizen access to the cultural, 
educational and economic benefits of the arts, and to advance 
creativity and innovation in communities across the United States.
    The arts infrastructure of the United States is critical to the 
Nation's well-being and its economic vitality. It is supported by a 
remarkable combination of government, business, foundation and 
individual donors. It is a striking example of Federal/State/private 
partnership. Federal support for the arts provides a measure of 
stability for arts programs nationwide and is critical at a time when 
other sources of funding are diminished. Further, the American public 
favors spending Federal tax dollars in support of the arts. The NEA was 
funded at $146 million in the fiscal year 2014 budget; however, it has 
never recovered from a 40 percent budget cut in fiscal year 1996 and 
its programs are still under-funded. We urge the subcommittee to fund 
the NEA at a level of $155 million to preserve the important cultural 
programs reaching Americans across the country.
    Thank you for considering this request.
                                 ______
                                 
           Prepared Statement of the Town of Baldwin, Florida
    This outside witness testimony is being submitted by the Town of 
Baldwin, Florida to the U.S. Senate Subcommittee on Interior, 
Environment and Related Agencies for consideration of fiscal year 2015 
appropriations within the U.S. Department of the Interior and/or the 
U.S. Environmental Protection Agency in the amount of $1,000,000.
                          i. project synopsis
    The Town of Baldwin is presently under a Florida Department of 
Environmental Protection (FDEP) Administrative Order (AO 160 NE) that 
calls for an investigation and monitoring of the effluent wastewater 
discharge at the Baldwin Waste Water Treatment Facility (WWTF), as FDEP 
does not have reasonable assurance the discharge will meet the State of 
Florida's numeric nutrient criteria (NNC). Because the WWTF will not 
likely meet these NNC requirements, the town will look to completely 
eliminate all effluent surface water discharge.
    This project aims to eliminate the WWTF surface water discharge by 
piping reclaimed/reuse water from the WWTF to the Brandy Branch 
Generating Station owned and operated by the Jacksonville Electric 
Authority (JEA) for use as cooling water. Approximately 0.25 millions 
of gallons per day (MGD) annual average daily flow (AADF) of wastewater 
effluent will be reused, resulting in the complete elimination of 
surface water discharge into the unnamed ditch that flows to Deep 
Creek. The Brandy Branch Generating Station currently uses up to 1.0 
MGD of groundwater for cooling water, and this project would reduce 
JEA's groundwater withdrawals by 0.25 MGD.
                         ii. project evaluation
    JEA owns and operates the Brandy Branch Generating Station which is 
located east of Baldwin. This facility is a gas-fired power plant which 
utilizes 1.0 to 1.5 MGD of groundwater for cooling purposes, which far 
exceeds the Baldwin WWTF average day design flow of 0.4 MGD and maximum 
day design flow of 0.8 MGD. Discussions with JEA representatives have 
indicated that they would be willing to accept the WWTF effluent for 
use as cooling water. The facility typically only utilizes cooling 
water during daylight hours. Effluent would be discharged at the base 
of existing cooling towers which are located approximately 7 ft. above 
grade. The facility has no onsite storage. Currently, the facility 
utilizes Floridan Aquifer wells to supply 100 percent of their cooling 
water needs. This alternative would have the added benefit of reducing 
groundwater withdrawals, in addition to eliminating a surface water 
discharge.
    The following facilities would be required to convey reclaimed 
water to the Brandy Branch Generating Station: (1) effluent transfer 
pump station to pump reclaimed water into an onsite ground storage 
tank; (2) 1.25 MG domed-top ground storage tank at the WWTF site; (3) 
two high service pumps with variable frequency drives (VFD); (4) 19,000 
linear feet (LF) of 10-inch force main to convey reclaimed water to 
Brandy Branch Generating Station; (5) two jack & bores of the CSX 
railroad and two directional drills; (6) yard piping; (7) sitework and; 
(8) electrical/instrumentation.
    Operation of the transfer pumps would be liquid level controlled. 
Operation of the high service pumps would be flow and/or pressure 
controlled. The high service pumps would shut off upon encountering 
high pressure resulting from a closed valve at the Brandy Branch 
Generating Station. The ground storage tank would be equipped with an 
overflow discharging to the existing surface water outfall in the event 
that the tank filled to capacity. It is anticipated that an emergency 
discharge to the surface water outfall would have to be maintained for 
those infrequent events when the generating station was not taking 
cooling water for maintenance reasons. No new treatment facilities 
would be required at the Baldwin WWTF, only storage and pumping 
facilities.
A. Technical Feasibility
    This project is technically feasible. Further evaluation of 
effluent quality by JEA will be necessary to see what effects the 
blending with groundwater may have on their facilities. Also, control 
logic for the high service pumps will need to be developed to coincide 
with JEA's operational requirements.
B. Design Criteria
    Design criteria for the proposed facilities are summarized in Table 
B-1, as follows:

                       TABLE B-1--DESIGN CRITERIA
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Effluent Transfer Pump Station
    Type..................................  Submersible
    Number................................  2
    Design Point..........................  700 gpm @ 40 ft. TDH
    Horsepower............................  20 HP
Effluent Ground Storage Tank
    Type..................................  Domed-Top Circular Pre-
                                             Stressed
    Number................................  1
    Effective Capacity....................  1.25 MG
    Diameter..............................  93 ft.
    Height................................  25 ft.
High Service Pumps
    Type..................................  Self-Priming
    Number................................  2
    Design Point..........................  833 gpm @ 80 ft. TDH
    Horsepower............................  40 HP
Effluent Force Main
    Size..................................  10 in.
    Length................................  19,000 LF
    Material..............................  PVC
------------------------------------------------------------------------

C. Environmental Impact
    This project would have significant positive effects on the 
environment. It would result in the elimination of a surface water 
discharge, thereby improving the water quality of the receiving stream. 
It would also result in the reduction of groundwater withdrawals at the 
generating station, thereby conserving precious groundwater. The only 
potential deleterious effect would be that an emergency discharge to 
the existing outfall would need to be maintained for those infrequent 
times that the generating station was not taking reclaimed water. It is 
anticipated that the emergency discharge would be needed for less than 
two weeks per year.
D. Economic Evaluation
    An economic evaluation of this project has been conducted, to 
include estimated capital costs, operation and maintenance costs, and 
present worth analysis.
            1. Capital Cost
    The capital cost for this project has been developed utilizing bid 
pricing from similar work, manufacturers price quotes, and engineering 
judgment. All costs presented are in 2014 U.S. dollars. A construction 
contingency of 10 percent and non-construction costs of 15 percent will 
be included. The capital cost for the proposed project is summarized in 
Table D-1, as follows:

         TABLE D-1--ENGINEER'S OPINION OF PROBABLE PROJECT COST
------------------------------------------------------------------------
                                                              Estimated
                        Description                             Cost
------------------------------------------------------------------------
  a. Mobilization and General Conditions..................      $100,000
  b. Effluent Transfer Pump Station.......................       150,000
  c. Effluent Storage Tank (1.25 MG)......................       750,000
  d. Reuse High Service Pumps.............................       100,000
  e. Yard Piping..........................................       100,000
  f. Sitework.............................................        50,000
  g. Electrical/Instrumentation...........................       150,000
  h. 19,000 LF of 10 in. Reuse Main.......................       950,000
  i. Two (2) Jack & Bore of CSX Railroad..................       100,000
  j. Two (2) Directional Drills of 12 in. HDPE............        50,000
                                                           -------------
      Subtotal--Estimated Construction Cost...............     2,500,000
          Construction Contingency (10 percent)...........       250,000
                                                           -------------
      Total--Estimated Construction Cost..................     2,750,000
          Estimated Non-Construction Cost.................       412,000
                                                           -------------
              Total--Estimated Capital Cost...............     3,162,000
------------------------------------------------------------------------

            2. O&M Cost
    An annual O&M cost for this project will be developed, assuming the 
following: current average daily WWTF flow of 0.25 MGD; power costs of 
$0.10/kWh; equipment maintenance costs equivalent to 3 percent of 
equipment capital cost, and; pipe and tank maintenance costs equivalent 
to 0.2 percent of capital cost. Labor costs are assumed to remain the 
same as existing as this alternative will not require increased 
staffing. The O&M cost for the proposed project is summarized in Table 
D-2, as follows:

                  TABLE D-2--PROJECTED ANNUAL O&M COSTS
------------------------------------------------------------------------
                                                            Projected
                      Description                          Annual Cost
------------------------------------------------------------------------
Power..................................................           $7,100
Equipment Maintenance..................................            7,500
Tank & Pipeline Maintenance............................            3,400
                                                        ----------------
      Total--Projected Annual O&M Cost.................           18,000
------------------------------------------------------------------------

            3. Present Worth Analysis
    A present worth analysis of the alternative will be performed, 
taking into account the estimated capital cost, projected O&M cost, and 
salvage value. The 2013 EPA discount rate of 4.125 percent will be used 
in determining the present worth of the corresponding O&M costs and 
salvage value of the alternative. A period of analysis of 20 years will 
be utilized.

        (P/A, 4.125 percent, 20 yrs) = 13.44
        (P/F, 4.125 percent, 20 yrs) = 0.446

        i. Estimated Capital Cost
                $3,162,000
                Present Value = ($3,162,000)

        ii. Projected O&M Cost
                $18,000
                Present Value = ($18,000) x 13.44 = ($241,900)

        iii. Salvage Value
                Piping (50 yrs.) = $1,200,000 x 0.446 x (50 yrs. - 20 
                yrs.)/50 yrs. = $321,100
                Structures (30 yrs.) = $825,000 x 0.446 x (30 yrs. - 20 
                yrs.)/30 yrs. =
                  $122,700
                Equipment (20 yrs.) = $425,000 x 0.446 x (20 yrs. - 20 
                yrs.)/20 yrs. = $0
                Present Value = $443,800

        iv. Total Present Worth
                ($3,162,000) + ($241,900) + $443,800 = ($2,960,100)
                                 ______
                                 
    Prepared Statement of the Tri-County Water Conservancy District
                                                    April 11, 2014.
Hon. Jack Reed, Chairman,
Hon. Lisa Murkowski, Ranking Member,
Subcommittee on Interior, Environment, and Related Agencies, Committee 
        on Appropriations, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.

    Dear Chairman Reed and Senator Murkowski: I am requesting your 
support for fiscal year 2015 appropriations to the Fish and Wildlife 
Service (FWS) for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program 
consistent with the President's recommended budget. I request that the 
subcommittee:

  --Appropriate $706,300 in ``Conservation and Restoration'' funds 
        (Resource Management Appropriation; Ecological Services 
        Activity; Conservation and Restoration Subactivity within the 
        $124,253,000 item entitled ``Conservation and Restoration'') to 
        the U.S. Fish and Wildlife Service (FWS) to allow FWS for 
        fiscal year 2015 to continue its essential participation in the 
        Upper Colorado River Endangered Fish Recovery Program.
  --Appropriate $200,000 in FWS ``Conservation and Restoration'' funds 
        for the San Juan River Basin Recovery Implementation Program to 
        meet expenses incurred by FWS's Region 2 in managing the San 
        Juan Program's diverse recovery activities.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $48,617,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.

    I request the subcommittee's assistance in assuring fiscal year 
2015 funding to allow the FWS to continue its financial and personnel 
participation in these two vitally important recovery programs. I 
recognize and appreciate that the past support and assistance of your 
subcommittee has greatly facilitated the success of these ongoing 
efforts.
            Sincerely,
                                                Mike Berry,
                                                   General Manager.
                                 ______
                                 
    Prepared Statement of the Tribal Education Departments National 
                                Assembly
    Chairman Leahy, Ranking Member Cochran and members of the 
subcommittee, my name is Quinton Roman Nose and I am the Executive 
Director of the Tribal Education Departments National Assembly 
(``TEDNA''). TEDNA is a national non-profit membership organization for 
tribal education agencies/departments (``TEAs''), which are executive 
branch agencies of American Indian and Alaska Native tribal governments 
responsible for Tribal education matters. There are an estimated 200 
TEAs, located in 32 States, serving over 700,000 American Indian and 
Alaska Native (``Native American'') students. TEDNA respectfully 
requests $2 million to support TEAs in the Department of the Interior, 
Environment, and Related Agencies appropriations bill for fiscal year 
2015 to conduct much needed Indian education activities. Further, TEDNA 
supports the President's request through his Opportunity, Growth and 
Security Initiative for $3 million to be directed toward incentives for 
Bureau of Indian Education grant-funded schools, capacity-building and 
Tribal control of those schools.
                       authorization for funding
    Federal funding for TEAs is authorized in the No Child Left Behind 
Act of 2002, title X, section 1140 (25 U.S.C.Sec. 2020).
                       justification for funding
    Federal education policy is failing Native American students. 
Native American students drop out of high school at a higher rate and 
score lower on achievement tests than any other student group. The 
national dropout rate of Native American students is double that of 
their non-Indian peers. Likewise, the U.S. Department of Education's 
Office of Civil Rights (``OCR'') March 2014 Data Snapshot recognized 
that Native American elementary and secondary students in public 
schools are disproportionately suspended and expelled. OCR also found 
that Native American kindergarten students are among those held back a 
year at nearly twice the rate of white kindergarten students, and that 
9 percent of Native American ninth grade students repeat ninth grade.
    In achievement, Native American 8th grade students are 18 percent 
more likely to read or perform in mathematics at a ``below basic'' 
level. Only a quarter of Native American high school graduates taking 
the ACT score at the ``college-ready'' level in math and only about 
one-third score at the ``college-ready'' level in reading. A 2013 
report issued by the Education Trust pointed out:

        Unlike achievement results for every other major ethnic group 
        in the United States, those for Native [American] students have 
        remained nearly flat in recent years, and the gaps separating 
        these students from their white peers have actually widened.\1\

    At the same time, tribal government involvement in the education of 
Native American students is severely restricted. Since 1988, Congress 
has authorized funding specifically to build tribal capacity to 
directly serve Native students in Bureau of Indian Education (``BIE'') 
schools. However, funds have never been appropriated to fulfill this 
crucial need. A similar authorization for tribal capacity building 
aimed at public schools on Indian reservations has been funded since 
fiscal year 2012, resulting in the Department of Education's pioneering 
State-Tribal Education Partnership Program (``STEP''). Though very 
important, STEP only addresses one aspect of the existing need. While 
the corresponding funding opportunity for BIE schools has gone 
unutilized, our Native American students in BIE schools have continued 
to be underserved.
---------------------------------------------------------------------------
    \1\ The Education Trust, The State of Education for Native American 
Students at 3 (August 2013), available at: http://www.edtrust.org/
sites/edtrust.org/files/NativeStudentBrief_0.pdf.
---------------------------------------------------------------------------
    TEAs are in a unique position to halt and reverse the negative 
outcomes for Native students. TEAs have already proven that they are 
capable of improving Native American student outcomes. For example, the 
Chickasaw Nation of Oklahoma, one of the STEP grantees, has a science, 
technology, and math program, among many other education programs, that 
serves approximately 250 Chickasaw students. Ninety percent of senior 
students participating in the program enroll in college. Through the 
STEP grant, Chickasaw has already put in place the framework to improve 
student outcomes and attendance. For example, before the co-governance 
model was in place, several Native American students were falling 
through the cracks and being expelled. Now, the Chickasaw Nation has 
stepped in to move expelled students into other alternative high school 
programs. Through this process, Local Education Agencies (``LEAs'') now 
understand that this is exactly the type of situation that the 
Chickasaw Nation TEA can address before the expulsion stage so 
intervention services can be provided, such as counseling, to students 
that are at risk. Thus, the STEP Program put in place a process 
allowing the TEAs and LEAs to proactively flag at risk students and 
provide the necessary intervention services.
    The work of the Nez Perce Tribe's TEA is another good example. The 
most current research indicates that Native American academic 
achievement must include effective teaching strategies. Also, 
researchers studying the achievement of Native American students have 
found a connection between low achievement and low cultural relevance. 
The Nez Perce Tribe, another STEP grantee, has made a large in-road to 
providing teacher training on the integration of cultural pedagogy, 
tribal education standards, and common core standards. In addition, 
technical assistance is provided by the Nez Perce TEA to their partner 
LEA's on use of the Native Star Culture and Language Indicators which 
address culturally-responsive school leadership, community engagement, 
and infusion of culture and language into the school's curriculum and 
instruction.
    The State of Idaho's State Education Agency (``SEA'') acknowledged 
that it does not have the expertise to provide training or technical 
assistance in meeting the unique educational and cultural needs of 
Native American students. Nez Perce's STEP grant has provided a 
platform for the Tribe's TEA and the local LEAs and SEA to work 
together to improve Native American student performance in this manner 
vis-a-vis the three Federal Elementary and Secondary Education Act 
programs (title I, part A; title II, part A; and School Improvement 
Grants). Nez Perce also has a family engagement piece to their STEP 
grant that recognizes the role of the family as the first educator and 
organizes the parents and school staff to work together to assess 
parent involvement programs, policies, and practices. The end goal is 
to improve the educational experience and college/career readiness of 
the students.
    A final example is The Hoopa Valley Tribe of California, which 
operates a learning center that works with at risk students. The Hoopa 
Valley TED identifies K-12 students at risk, pairs the students with 
mentors, and develops student-learning plans. Students are tutored in 
target academic areas and coached in life skills. This program alone 
has improved student academic performance by two letter grades in core 
academic areas.
    These examples of success demonstrate the positive impact tribal 
involvement has on Native American students. This type of successful 
tribal involvement in the education of Native American students should 
be expanded and replicated in BIE schools. Congress has identified in 
the Elementary and Secondary Education Act several areas of focus in 
meeting this worthy objective. If appropriated by this subcommittee, 
these funds would be used to facilitate tribal control in all matters 
relating to Native American education on reservations. More 
specifically, there are three areas of particular focus. First, TEAs 
can use this funding to support early education initiatives and develop 
culturally relevant curriculum and assessments. Second, increased 
tribal participation will include TEAs providing coordination, 
administrative support services and technical assistance to schools and 
education programs on Indian reservations. This would include 
maintaining and sharing electronic data regarding Native American 
students, and implementing programs to increase graduation rates and 
post-secondary school readiness. This would foster much-needed 
cooperation and coordination with entities carrying out education on 
Indian reservations. Third, this appropriation would fund the 
development and enforcement of tribal educational codes, including 
tribal educational policies and tribal standards applicable to 
curriculum, personnel, students, facilities, and support programs. As 
Congress has already recognized, these three areas are core educational 
functions that are most appropriately left to tribes.
    We applaud President Obama's request in his Opportunity, Growth and 
Security Initiative that Congress invest in ``incentivizing schools 
funded through the Bureau of Indian Education to introduce reforms that 
improve student outcomes.'' TEDNA supports the President's approach to 
provide incentives to tribally controlled schools so that they 
voluntarily adopt certain research-based reforms rather impose mandates 
and sanctions. Further, TEDNA suggests that this funding be modeled on 
the discretionary grants used by the U.S. Department Education to 
foster competition among applicants and build tribal capacity, 
particularly the capacity of tribal educational agencies, to operate 
schools. At a low cost to taxpayers, such a competition would bring 
much-needed reform to many of the tribally controlled schools in the 
BIE-funded system, one of the lowest-achieving school systems in the 
Nation.
    Moreover, tribal governments, acting through their TEAs, should 
have a central role in a reformed BIE school system. Therefore, the 
President's initiative should restructure the administration of BIE 
schools and have TEAs act as school boards for BIE grant schools. This 
is the type of administrative and governance reform TEDNA has 
encouraged for many years. We believe that TEDNA's request today for 
the appropriation of capacity-building dollars complement the 
President's initiative well.
    Investment in TEAs is sound Federal policy. Direct tribal 
involvement in education eliminates undue bureaucratic barriers and 
streamlines administration. Moreover, encouraging and supporting tribal 
control in education begins to implement the policy of Tribal self-
determination in education and further the United States' trust 
responsibility to Native American students. Thus, this subcommittee is 
presented with a unique opportunity to increase tribal involvement and 
leverage the expertise of TEAs in educating Native students.
                                request
    TEDNA respectfully requests $2 million TEAs in the Department of 
the Interior, Environment, and Related Agencies appropriations bill for 
fiscal year 2015. TEDNA also supports the President's request in the 
Opportunity, Growth and Security Initiative to foster competition in 
tribally controlled grant schools funded by the BIE and we urge 
Congress to appropriate $3 million for fiscal year 2015 for that 
purpose.
                                 ______
                                 
            Prepared Statement of The Trust for Public Land
    Chairman Reed, Ranking Member Murkowski, and distinguished members 
of the subcommittee: Thank you very much for the opportunity to submit 
testimony on behalf of The Trust for Public Land in support of programs 
under your jurisdiction for the fiscal year 2015 appropriations 
process. The Trust for Public Land (TPL) is a national nonprofit land 
conservation organization working to protect land for people in 
communities across the Nation. We are extremely grateful for the 
support that you have shown for Federal conservation programs during 
these challenging fiscal times. We recognize that the subcommittee will 
again face enormous challenges in meeting the broad range of priority 
needs in the Interior and Environment bill this year. Our work in many 
States around the country shows that there is tremendous support for 
conservation and access to recreation at the local, State and Federal 
level, and the programs under your jurisdiction play a critical role in 
bringing those community visions to reality. Thank you for your 
support.
    Federal funding is an absolutely critical part of the land 
conservation toolbox and provides manifold benefits to the American 
people. Given the limited public conservation funding at all levels of 
government, TPL works to leverage Federal conservation dollars, 
bringing to bear private philanthropic support as well as State and 
local funding to forge solutions to sometimes complex conservation 
funding challenges. The major programs under your jurisdiction that we 
count on year in and year out are the entire suite of Land and Water 
Conservation Fund (LWCF) programs--including the Bureau of Land 
Management (BLM), the U.S. Fish and Wildlife Service (FWS), the 
National Park Service (NPS) and the United States Forest Service (USFS) 
acquisitions, NPS State and local grants, the Forest Legacy Program and 
the Cooperative Endangered Species Act Fund--as well as the United 
States Fish and Wildlife Service (USFWS) North American Wetlands 
Conservation Act and the USFS Community Forest Program.
                    land and water conservation fund
    For almost 50 years the Land and Water Conservation Fund has been 
the cornerstone that sustains our Federal public lands heritage and 
remains today a compelling and urgently needed program. When Congress 
created LWCF in 1964, it dedicated specific revenues to ensure that 
funds would be available for annual land conservation and outdoor 
recreation needs. The major source of these revenues has been offshore 
oil and gas development in Federal waters. LWCF does not rely at all on 
taxpayer dollars. Instead, revenues generated from energy development 
and natural resource depletion are used for the protection of other 
natural resources such as parks, open space, and wildlife habitat for 
the benefit of current and future generations. We (and, polls show, 
most of America) believes it is both logical and necessary that this 
principle--using a small percentage of annual Outer Continental Shelf 
(OCS) receipts (which average over $6 billion) as a conservation 
offset--be fully honored.
    Investments in conservation and outdoor recreation make sound 
economic sense, too. The Outdoor Industry Association estimates that 
active outdoor recreation contributes $646 billion annually to the U.S. 
economy, supports nearly 6.1 million jobs across the U.S., and 
generates $39.9 billion in annual national tax revenue.
    For these and many other reasons we strongly support the fiscal 
year 2015 President's budget proposal to fully fund the Land and Water 
Conservation Fund at $900 million, with $350 million from discretionary 
sources and $550 million in mandatory funds, for the various component 
programs funded under LWCF. In the fiscal year 2015 bill, we 
respectfully request that you allocate at least $350 million in 
discretionary funding as the budget proposes to support essential 
community-based conservation. We recognize that the mandatory funding 
request requires additional legislative action, and that you face 
significant challenges in addressing the many competing demands covered 
in your bill. We believe that continued investment in the entire suite 
of LWCF programs as proposed in the budget is essential and are ready 
to work with the subcommittee to ensure that dollars invested are well 
spent on our Nation's most urgent needs. We greatly appreciate the key 
role your subcommittee plays in ensuring that program dollars are used 
for high-priority strategic investments.
    LWCF's programs bring specific and complementary conservation 
benefits to the American public. These key programs are:
                       federal land acquisitions
    Every year tens of millions of Americans, as well as visitors to 
our country, visit our Federal public lands--national parks, forests, 
wildlife refuges and BLM conservation lands. Strategic inholding and 
other acquisitions in these Federal areas through LWCF ensure 
recreation access and nature education; foster vital economic growth; 
protect clean water and other community resources; enhance the 
incomparable natural and scenic treasures that belong to all Americans; 
and frequently resolve complex land-use conflicts and produce 
management savings. Without adequate funding, the unfortunate 
alternative often is an irretrievable loss of public use and enjoyment 
of these areas and irreversible damage to the resources we all care 
about.
    This is precisely the choice for numerous outdoor recreation and 
natural resource protection projects budgeted in fiscal year 2015, 
including lands in the San Bernardino and Tahoe national forests in 
California, the newly-designated Rio Grande del Norte National Monument 
in New Mexico, the Black Hills National Forest in South Dakota, the 
Appalachian Trail in New Hampshire, , and within the Yakima River 
Watershed in Washington State. The Trust for Public Land is working in 
these and other areas identified in the President's budget and looks 
forward to working with the subcommittee as you consider these critical 
needs.
    At the same time that incompatible development within Federal units 
is a mounting concern for the public, we have found that many private 
inholding owners are open to and quite often eager to find a 
conservation solution. Faced with uncertainty about the availability of 
LWCF dollars, however, many landowners find that they cannot afford to 
wait for that win-win outcome. Adequate and timely acquisition of 
inholdings through the LWCF is critical to efforts to protect the 
Nation's public lands heritage when these time-sensitive acquisition 
opportunities arise. As the subcommittee evaluates the myriad 
programmatic needs and measures for making programs more efficient for 
the fiscal year 2015 Interior and Environment Appropriations Bill, we 
look forward to working with you and your staff to ensure that funds 
are spent wisely on strategic and urgent conservation priorities.
        national park service/state and local assistance grants
    Since 1965, the State and local assistance grant program has 
provided formula funds to States and local communities for 43,000 
projects that create and expand State and local parks or improve 
recreation facilities. This program reaches deep into communities 
across our Nation, supporting citizen-led efforts to conserve places of 
local importance and opportunities for close-to-home recreation. As TPL 
continues our work with many of these communities to meet these needs, 
we hope the subcommittee will fully fund the administration's request 
for stateside grants. We also support the allocation of LWCF funds to a 
new nationwide competitive State and local grants program, which was 
first funded in the fiscal year 2014 omnibus appropriations bill and is 
proposed for additional funds in the President's fiscal year 2015 
budget. This proposal is generating substantial interest in cities and 
towns across the Nation and we look forward to working with you and 
others to make it a success.
          national park service/urban park and recreation fund
    The President's Budget for fiscal year 2015 proposes $25 million 
(included in the mandatory LWCF proposal) to fund the Urban Park and 
Recreation Recovery Program (UPARR). Funding UPARR in fiscal year 2015 
would enable the National Park Service to issue competitive grants for 
improved recreational opportunities in parks and along trails in 
metropolitan areas throughout the country. From 1978 to 2002, UPARR 
grants helped bring improvements to parks and playgrounds in 380 
communities in 43 States as well as the District of Columbia and Puerto 
Rico. Grants have gone to places as diverse as Providence, Rhode 
Island; San Francisco, California, Knoxville, Tennessee; Springfield, 
Missouri; Omaha, Nebraska; and Meridian, Mississippi. Through our Parks 
for People Program, The Trust for Public Land works closely with cities 
to meet a goal of providing safe access to recreation within a 10 
minute walk from home or school. We work with schools and communities 
to design, fund and care for improved parks and playgrounds. The 
restoration of UPARR funding in the fiscal year 2015 Interior and 
Environment Appropriations bill would be a sound investment in the 
health and well-being of our Nation's children.
               u.s. forest service/forest legacy program
    The Forest Legacy Program provides extraordinary assistance to 
States and localities seeking to preserve important working forests. 
Since its inception in 1990, the Forest Legacy Program has protected 
over 2.3 million acres of forestland and has leveraged more than the 
required 25 percent match. For fiscal year 2015, the President's budget 
recommends projects that provide multiple public benefits through 
forest protection--clean water, wildlife protection, climate change 
adaptation and mitigation, public access to recreation, economic 
development and sustainable forestry. We urge your continued support 
for sustained investment in this strategic and successful program. 
Included in the fiscal year 2015 budget proposal are numerous projects 
where TPL is working in partnership with the States to protect 
recreation access for snowmobilers and hikers, ensure jobs in the 
woods, buffer important Federal and State conservation areas and 
provide strategic land conservation that fits a larger goal. Among 
these are the program's top priority project in Montana, which will 
protect the primary water supply for the community of Whitefish; a 
2,085-acre addition to Camel's Hump State Park in the Green Mountains 
of Vermont; the second-phase of a project protecting an important 
watershed adjacent to Eureka, California; an 1800-acre property 2 miles 
from Zion National Park; a 6,700 acre working forest project on the 
Olympic Peninsula along Puget Sound; and a working forest project in 
Maine that represents 22 percent of the State's entire maple syrup 
production and 4 percent of the entire national output.
     u.s. fish and wildlife service/cooperative endangered species 
                           conservation fund
    We are grateful for the subcommittee's historic support for U.S. 
Fish and Wildlife Service grant programs, including the Cooperative 
Endangered Species Conservation Fund (CESCF), which leverages State and 
private funds and has protected threatened and endangered species 
habitat across the Nation. The Habitat Conservation Plan (HCP) land 
acquisition program within CESCF is critical to communities like 
Whitefish, Montana where landowners and public wildlife managers are 
working together through integrated HCP's to foster species recover and 
appropriate economic development. In TPL's work with these and other 
communities, we have seen how essential CESCF Federal cost-share 
dollars are to species conservation and local economies. In addition, 
the Recovery Land Acquisition (RLA) program under CESCF aids species 
recovery where there is no HCP--as, for instance, with the proposed 
protection of a ranch along the Lower Deschutes River in Wasco County, 
Oregon.
    Beyond LWCF, we urge the subcommittee to provide adequate funding 
to other conservation programs including:
u.s. fish and wildlife service/north american wetlands conservation act 
                                (nawca)
    We respectfully request your support for program funding at the 
President's budget level of $34.1 million in fiscal year 2015. The 
North American Wetlands Conservation Act (NAWCA) provides much-needed 
matching grants to carry out wetlands conservation, restoration and 
enhancement projects. Our recent work through the NAWCA program will 
ensure protection of fast-disappearing coastal habitat in Connecticut 
and support restoration along the Middle Rio Grande in New Mexico. This 
is a highly-leveraged program with a substantial record of success and 
is another important Federal conservation tool to support critical 
wetland habitat.
              u.s. forest service/community forest program
    Last but not least, we urge your continued support for the 
Community Forest Program (CFP), which the subcommittee has funded since 
fiscal year 2010. This program complements existing conservation 
programs by helping local communities and tribes identify, purchase, 
and manage important forestlands that are threatened with development. 
These locally led efforts can be tailored to the needs of each 
community, from timber revenue for local budgets to recreation access 
and outdoor education. Every Federal dollar from CFP is evenly matched 
by funding from State, local, and private sources. The Forest Service 
has now approved 13 grants to innovative local and tribal projects in 9 
States, and the program has generated significant interest from local 
entities concerned about the future of their close-to-home forests. Our 
successful projects using CFP grants include the Barre Town Forest in 
Vermont and the Thurston Hills Community Forest in Oregon. Given the 
strong interest in community forests from coast to coast, we urge you 
to include $5 million in the fiscal year 2015 bill for this innovative 
conservation tool.
    The programs highlighted here are critical to the future of 
conservation at the local, State and Federal levels; reflect the 
continued demand on the part of the American people for access to 
outdoor recreation; and help sustain our economy and reflect the true 
partnership that exists in Federal conservation efforts. As ever, we 
are deeply thankful for the subcommittee's recognition of the 
importance of these programs and urge you to maintain robust funding 
for them in the fiscal year 2015 Interior, Environment and Related 
Agencies bill. Thank you for your help and support, and for your 
consideration of our requests.
                                 ______
                                 
  Prepared Statement of the Tuba City Boarding School--Governing Board

Hon. Sally Jewell, Secretary,
U.S. Department of Interior,
Washington, DC.
Hon. Kevin Washburn, Assistant Secretary,
U.S. Department of Interior,
Washington, DC.

american indian education study group tribal consultation: proposal to 
 redesign the u.s. department of interior's bureau of indian education
    Dear Secretary Jewell and Assistant Secretary Washburn: As the 
Navajo Nation Local Control Education Governing Board we are very 
thankful to be given the opportunity to provide additional comments on 
the ``Draft Proposal to Redesign the U.S. Department of Interior's 
Bureau of Indian Education (Dated: April 17, 2014).'' In many respects, 
we are very supportive of the goals, objectives, and statements 
contained in the draft proposal, especially with its emphasis on 
promoting tribal control, achieving high performing schools, as well as 
and increasing and improving services and support that builds tribal 
capacity. In line with these goals, the Navajo Nation reiterates its 
prior position regarding the American Indian Education Study Group and 
expresses strong support for a Navajo Nation State Education Agency, 
the Navajo Nation's alternative definition of Adequate Yearly Progress 
(``AYP''), and Navajo Nation's Alternative Accountability Workbook. A 
copy of the Navajo Nation's position (Dated: January 10, 2014) is 
attached to this letter.

In particular, we strongly support the goals contained in the working 
draft because it:

1.  Promotes Tribal Control
   -- Align BIE's path forward with President Obama's policy of self-
        determination for tribes because tribes understand the unique 
        needs of their communities best.
   -- With a careful transition plan in place, gradually transform 
        BIE's mission from running schools to serving tribes to conform 
        with the reality that most BIE schools are now operated by 
        tribes.
2.  Achieve High-Performing Schools
   -- Ensure BIE meets its responsibility that all students attending 
        BIE-funded schools receive a world-class and culturally 
        appropriate education, are prepared for college and careers, 
        and can contribute to their tribe and country.
   -- Provide necessary resources and support (e.g., facilities and 
        human capital) to schools so that they can meet the demands of 
        21st century teaching and learning.
3.  Increase and Improve Services and Support that Tribal Build 
Capacity
   -- Scale up best practices in successful tribally controlled schools 
        to other schools.
   -- Support chronically failing schools with adequate support and 
        research-based interventions, if necessary.
   -- Provide pathways for tribes that wish to take over control of 
        remaining BIE-operated schools by providing technical 
        assistance and guidance on operating high-achieving schools.
   -- In the December 2011 White House Tribal Nations Conference 
        Progress Report, the Obama administration expressed strong 
        support for a proposal to enhance the role of tribal 
        educational agencies through a new pilot authority, called the 
        State Tribal Education Partnership (STEP) grant, which would 
        support tribal educational agencies in working closely with 
        public school districts and schools located on reservations. 
        This pilot authority and grant presently allows the Navajo 
        Nation to enter into collaborative agreements with State of New 
        Mexico and two of the largest public school districts serving 
        Native American students in the United States and to assume 
        responsibility for some State-level functions in administering 
        ESEA programs.

    We also agree with key priorities highlighted in the draft proposal 
because it also provides for:

  --World Class Instruction for all BIE Students.--Challenge each 
        student to maximize his or her potential and be well-prepared 
        for college, careers and tribal/global citizenship.
  --Highly Effective Teachers and Principals.--Help tribes to identify, 
        recruit, retain and empower diverse, highly effective teachers 
        and principals to maximize the highest achievement for every 
        student in all BIE-funded schools.
  --Agile Organizational Environment.--Build a responsive organization 
        that provides the resources, direction and services to tribes 
        so that they can help their students attain high-levels of 
        student achievement.
  --Budget that Supports Capacity Building Mission.--Develop a budget 
        that is aligned with and supports BIE's new mission of tribal 
        capacity building and scaling up best practices.
  --Comprehensive Supports through Partnerships.--Foster parental, 
        community and organizational partnerships to provide the 
        emotional and social supports BIE students need in order to be 
        ready to learn.

In line with those goals, we also recommend:

1.  In line with identifying, recruiting, retaining highly effective 
teachers/principals, and building teacher/principal capacity (human 
capital) we strongly recommend that the BIE and other appropriate 
government agencies to enact a teacher/principal scholarship program 
that is very similar to the Indian Health Service (``IHS'') scholarship 
program. Ever since the IHS Scholarship Program's creation in 1977, the 
program has successfully supported thousands of American Indian and 
Alaska Native students in their quest for a health/medical professions 
degree leading to a career in Indian health. A scholarship program that 
is specifically targeted to identify, recruit, and support teachers, 
including principals, especially in hard-to-fill Science, Technology, 
Engineering, Mathematics (``STEM'') areas, would significantly help our 
schools to meet the demand and need for highly effective teachers/
principals. Not only would such a scholarship program enable tribes to 
build capacity, because scholarship recipients would be committed to 
serving several years on the Navajo Nation or in other Native American 
schools.
2.  Changing, amending, or waiving rules, regulations that negatively 
impact rural schools such as the regulation [25 C.F.R. 
Sec. 36.11(a)(5)] that limits the number of days that schools can 
employ long-term substitute teachers. Because of extreme remoteness and 
difficultly hiring highly effective and fully qualified and licensed 
teachers, many of our schools have little to no choice but hire long-
term substitute teachers who may need to teach students much longer 
than the existing regulation allows. Changing, amending, or waiving 
this regulation may allow our schools to provide the continuity in 
instruction that students need until a fully qualified and licensed 
teacher can be hired to fill that position.
3.  Any education plan to reform and restructure the BIE must also 
provide strong support, including funding, to identify, recruit, and 
enhance the role and capacity of highly effective bilingual teachers. 
There is statistically significant research that shows that students 
who are educated in their language and culture perform better 
academically, while also reinforcing their self-identity, and 
preserving their language and culture. At the moment, many of the 
existing bilingual teachers who possess strong content knowledge, 
including the ability to effectively teach Navajo language and culture, 
are on the verge of retirement or leaving our schools, which further 
complicates attempts by tribes to preserve and maintain our language 
and culture. The Navajo Nation has lead the way in many respects, by 
working with 3 different States to enact alternative teacher licensing 
regulations, which presently allows persons who are knowledgeable and 
competent in Navajo language and culture to teach in our schools. We 
have also enacted the Navajo Nation's Five (5) Content Standards 
(Navajo Language, Culture,

    History, Government, ( Character), which can readily be 
incorporated into many school's curriculums because it also complements 
the Common Core State Standards (``CCSS'').

4.  In light of the recommendations provided in the draft proposal to 
build tribal control of education and capacity, we also recommend that 
the BIE (or other appropriate government entities), to consult and meet 
with tribes such as the Navajo Nation to conduct an evaluation/
assessment of a tribe's existing capacity or provision of funding to 
accomplish that objective.

    As we move forward with redesigning/transforming the Bureau of 
Indian Education (``BIE'') and improving the quality of education that 
our Navajo/Native American students receive, it is extremely important 
to remember that we are fighting for the lives of our children and that 
we can no longer afford to lose another generation of young people to a 
failing education system or to continue to make excuses for failure and 
low expectations. We must always put the needs of our children and 
students first; not adults, special interests, or politics. When we put 
the needs of our students first, it will make many of the tough 
decisions that must inevitably be made, easier, clearer, and worth the 
fight. Thank you.
            Sincerely,
                                   Marie B. Acothley, Tuba City WNA 
                                       Board President.
                                   Juanita Burns-Begay, Vice-President.
                                   Sarana Riggs, Secretary.
                                   Frank Bilagody, Member.
                                   Irvin Begaye, Member.
                                 ______
                                 
  Prepared Statement of the United States Geological Survey Coalition
                                summary
    The USGS Coalition appreciates the opportunity to provide testimony 
about the fiscal year 2015 budget for the United States Geological 
Survey (USGS). The administration's budget requests $1.073 billion for 
the USGS. This level represents an increase of $41 million over the 
fiscal year 2014 level. The request, however, also includes $41 million 
in cuts to on-going programs and does not include $75 million in 
important research and development initiatives that have been 
identified by the agency as priorities should funding be available. 
Thus, the USGS Coalition respectfully requests that Congress work to 
provide the USGS with $1.189 billion for fiscal year 2015, which would 
allow the agency to sustain current efforts and make strategic new 
investments that will produce the knowledge and decision-support tools 
needed by decision-makers across the country.
    The USGS is uniquely positioned to provide information and inform 
responses to many of the Nation's greatest challenges. Few modern 
problems can be addressed by a single scientific discipline. The USGS 
is an agency that has a unique capacity to deploy truly 
interdisciplinary teams of experts to gather data, conduct research, 
and develop integrated decision support tools that improve ecosystem 
management, ensure accurate assessments of our water quality and 
quantity, reduce risks from natural and human-induced hazards, deliver 
timely assessments of mineral and energy resources, and provide 
emergency responders with accurate geospatial data and maps.
          about the united states geological survey coalition
    The USGS Coalition is an alliance of over 70 organizations united 
by a commitment to the continued vitality of the United States 
Geological Survey to provide critical data and services. The Coalition 
supports increased Federal investment in USGS programs that underpin 
responsible natural resource stewardship, improve resilience to natural 
and human-induced hazards, and contribute to the long-term health, 
security, and prosperity of the Nation.
                   essential services for the nation
    Established by Congress as a branch of the Department of the 
Interior in 1879, the United States Geological Survey has a national 
mission that extends beyond the boundaries of the Nation's public lands 
to positively impact the lives of all Americans. The agency plays a 
crucial role in protecting the public from natural hazards, assessing 
water quality and quantity, providing geospatial data, and conducting 
the science necessary to manage our Nation's biological, mineral, and 
energy resources. Through its offices across the country, the USGS 
works with partners to provide high-quality research and data to 
policymakers, emergency responders, natural resource managers, civil 
and environmental engineers, educators, and the public. A few examples 
of the USGS' valuable work are provided below.
    The Survey collects scientific information on water availability 
and quality to inform the public and decision makers about the status 
of freshwater resources and how they are changing over time. During the 
past 130 years, the USGS has collected streamflow data at over 21,000 
sites, water-level data at over 1,000,000 wells, and chemical data at 
over 338,000 surface-water and groundwater sites. This information is 
needed to effectively manage freshwaters--both above and below the land 
surface--for domestic, public, agricultural, commercial, industrial, 
recreational, and ecological purposes.
    The USGS plays an important role in reducing risks from floods, 
wildfires, earthquakes, tsunamis, volcanic eruptions, landslides, and 
other natural hazards that jeopardize human lives and cost billions of 
dollars in damages every year. Seismic networks and hazard analysis are 
used to formulate earthquake probabilities and to establish building 
codes. USGS monitors volcanoes and provides warnings about impending 
eruptions that are used by aviation officials to prevent planes from 
flying into volcanic ash clouds. Data from the USGS network of stream 
gages enable the National Weather Service to issue flood and drought 
warnings. The bureau and its Federal partners monitor seasonal 
wildfires and provide maps of current fire locations and the potential 
spread of fires. USGS research on ecosystem structure informs fire risk 
forecasts.
    USGS assessments of mineral and energy resources--including rare 
earth elements, coal, oil, unconventional natural gas, and geothermal--
are essential for making decisions about the Nation's future. The 
Survey identifies the location and quantity of domestic mineral and 
energy resources, and assesses the economic and environmental effects 
of resource extraction and use. The agency is mapping domestic supplies 
of rare earth elements necessary for widespread deployment of new 
energy technologies, which can reduce dependence on foreign oil. The 
USGS is the sole Federal source of information on mineral potential, 
production, and consumption.
    USGS science plays a critical role in informing sound management of 
natural resources on Federal and State lands. The USGS conducts 
research and monitoring of fish, wildlife, and vegetation--data that 
informs management decisions by other Interior bureaus regarding 
protected species and land use. Ecosystems science is also used to 
control invasive species and wildlife diseases that can cause billions 
of dollars in economic losses. The Survey provides information for 
resource managers as they develop adaptive management strategies for 
restoration and long-term use of the Nation's natural resources in the 
face of environmental change.
    Research conducted by the USGS is vital to predicting the impacts 
of land use and climate change on water resources, wildfires, and 
ecosystems. The Landsat satellites have collected the largest archive 
of remotely sensed land data in the world, allowing for access to 
current and historical images that are used to assess the impact of 
natural disasters and monitor global agriculture production. The USGS 
also assesses the Nation's potential for carbon sequestration. Other 
Interior bureaus use USGS research on how climate variability affects 
fish, wildlife, and ecological processes to inform natural resource 
management decisions.
                                funding
    Over the years, Congress has worked in a bipartisan fashion to 
provide essential funding to the USGS. These efforts have paid 
dividends and helped the USGS provide answers to the challenging 
questions facing decision-makers across the country.
    Through careful management and deferring staff travel and training, 
the USGS has survived the recent budget cuts resulting from 
sequestration. Staff training and participation in scientific meetings, 
however, are necessary investments that help USGS maintain its 
technical capacity. It is through exchanges at scientific meetings and 
workshops that new ideas emerge and scientific analyses are shared, 
challenged by colleagues, and honed prior to submitting research for 
publication in peer-reviewed journals. We encourage Congress to work 
with the USGS to ensure that scientists are able to fully participate 
in scientific meetings.
    As a science agency, much of the USGS budget is dedicated to 
salaries and equipment that must be maintained and updated to ensure 
the continuity of data acquisition and that the data gathered are 
reliable and available for future scientific investigations. We believe 
that the leadership of the USGS is doing all it can, and has been for a 
number of years, to contain costs while continuing to deliver high 
quality science. The budget request for fiscal year 2015 includes cuts 
to scientific support, which includes information technology and 
administration and management functions. Although efficiencies can 
often be found through innovation in these areas, we encourage Congress 
to ensure that these cuts do not hinder the provision of services and 
support that agency personnel require to complete research, gather 
data, and provide the information needed by the public for informed 
decisionmaking.
    The USGS has offset some new investments by eliminating a 
significant number of full time equivalent positions. Research progress 
and the communication of research findings to end-users will be slowed 
or disrupted as a result of the reduction in staffing. Rebuilding 
scientific and technical expertise can be challenging. Thus, the loss 
of any positions can have long-term implications for USGS programs.
    Among the programmatic reductions the scientific community is 
concerned about are:
  --$13.0 million in cuts to Core Science Systems, such as the Bio-
        Science Data synthesis, Urban Area assessments, National Atlas, 
        and other programs.
  --$11.3 million in cuts to various water research and monitoring 
        programs.
  --$4.5 million in cuts to Administrative Services.
  --$2.5 million in cuts to the National Civil Applications Program.
  --$1.0 million in cuts to the Coastal Vulnerability program.
  --$5.4 million in cuts to Fisheries, Wildlife and Environments 
        Research.
  --$1.9 million in cuts to Energy Research, Oil and Gas Assessments, 
        and Wastewater contaminants research.
    We recognize and appreciate that budget conditions remain 
challenging and the work before the subcommittee is not easy. Yet, we 
believe that sustained and strategic new investments in the USGS 
promise significant long-term benefits. Should funds be available, we 
hope that Congress will restore proposed cuts and provide new funds for 
research and development priorities that USGS has identified but lacks 
resources to pursue. The agency has identified at least $75 million in 
research and development opportunities in the areas of (1) energy and 
mineral development; (2) climate resilience; (3) landscape scale 
ecosystem management, restoration and protection; (4) water resources 
management; and (5) species protection and health.
                               conclusion
    We recognize the financial challenges facing the Nation, but losing 
irreplaceable data can increase costs to society today and in the 
future. Data not collected and analyzed today is data lost forever. 
This is particularly significant for environmental monitoring systems, 
where the loss of a year's data can limit the scope and reliability of 
long-term dataset analysis. The USGS Coalition requests that Congress 
work to provide $1.189 billion for fiscal year 2015.
    The USGS Coalition appreciates the subcommittee's past leadership 
in strengthening the United States Geological Survey. Thank you for 
your thoughtful consideration of this request.
                                 ______
                                 
         Prepared Statement of United Tribes Technical College
    For 45 years, with the most basic of funding, United Tribes 
Technical College (UTTC) has provided postsecondary career and 
technical education, job training and family services to some of the 
most impoverished, high risk Indian students from throughout the 
Nation. Despite such challenges we have consistently had excellent 
retention and placement rates and are a fully accredited institution. 
We are proud to be equipping our students to take part in the new 
energy economy in North Dakota and to be part of building a strong 
middle class in Indian country by training the next generation of law 
enforcement officers, educators, medical technicians and 
``Indianpreneurs.'' We are governed by the five tribes located wholly 
or in part in North Dakota. We are not part of the North Dakota State 
college system and do not have a tax base or State-appropriated funds 
on which to rely. The requests of the UTTC Board for the fiscal year 
2015 Bureau of Indian Education (BIE)/Bureau of Indian Affairs (BIA) 
are:
  --$6.8 million in BIE funding for our Indian Self-Determination Act 
        contract which is in the Tribal Technical Colleges BIE line 
        item and is $2.5 million over the administration's request for 
        UTTC.
  --One-time BIE funding to forward fund United Tribes Technical 
        College and the few other tribal colleges who are not forward 
        funded.
  --Congressional support for a tribally administered law enforcement 
        training center at UTTC and/or more involvement in law 
        enforcement training initiatives.
    Base Funding.--UTTC administers its BIE funding under an Indian 
Self-Determination Act agreement, and has done so for 37 years. BIE 
funds requested above the fiscal year 2014 level are needed to: (1) 
maintain 100-year-old education buildings and 50-year-old housing stock 
for students; (2) upgrade technology capabilities; (3) provide adequate 
salaries for faculty and staff who are in the bottom quartile of pay 
for comparable positions elsewhere; and (4) fund program and curriculum 
improvements.
    We appreciate that the administration is requesting a $200,700 
increase for UTTC for a total of $4,564,000 but our need is so much 
more than that. We request that the UTTC portion of the Tribal 
Technical Colleges line item be $6.8 million and that the total line 
item of Tribal Technical Colleges be at least $11 million.
    Acquisition of additional base funding is critical as UTTC has 
significantly increased its number of students within the past 10 years 
while actual base funding for educational services, including Carl 
Perkins Act funding, have not increased commensurately. Our BIE funding 
provides a base level of support while allowing us to compete for 
desperately needed discretionary contracts and grants. Very little of 
the other funds we receive may be used for core career and technical 
educational programs; they are competitive, often one-time supplemental 
funds which help us provide support services but cannot replace core 
operational funding.
    We highlight several relatively recent updates of our curricula to 
meet job market needs: The ramifications of the North Dakota Bakken oil 
boom are seen throughout the State. We saw the need for more certified 
welders in relation to the oil boom and so expanded our certified 
welding program. We are now able to train students for good paying, in-
demand welding jobs. Similarly, our online medical transcription 
program was designed to meet the growing need for certified medical 
support staff. Other courses reflect new emphasis on energy auditing 
and Geographic Information System Technology. And we recently opened a 
distance learning center in Rapid City where there are some 16,000 
American Indians in the area. We are also working toward the 
establishment of an American Indian Specialized Health Care Training 
Clinic.
    Forward Funding.--We have wanted BIE forward funding for some time 
and the experience these past several years with the continuing 
resolutions, sequestration and inexcusably slow and insufficient 
allocation of funds really brings home this issue.
    There was a glitch in the fiscal year 2010 appropriations process 
which resulted in UTTC (and Navajo Technical University (NTU)) not 
receiving BIE forward funding. There is authority for forward funding 
for tribal colleges under the Tribally Controlled Colleges and 
Universities Act, 25 U.S.C. 1810(b)(1) and (2). This authority applies 
to all colleges funded under that act, including UTTC and NTU.
    When the administration requested $50 million for forward funding 
its fiscal year 2010 budget, they asked for it under the line item of 
``tribally controlled colleges and universities''--that line item 
includes 27 tribally controlled colleges. However, we are funded under 
the line item of ``tribal technical colleges'' and Haskell, 
Southwestern Indian Polytechnic Institute (SIPI), and the Institute of 
American Indian Arts (IAIA) are funded under other authorities, and 
thus when Congress provided the requested $50 million for forward 
funding, UTTC and NTU, Haskell, SIPI, and the IAIA were left out. The 
American Indian Higher Education Consortium has estimated $22 million 
is needed to forward fund these schools. This does not increase the 
Federal budget over the long run. It simply provides funds for vital 
education programs before the start of each school year, which is 
critically important when appropriations are delayed and the Government 
is funded under continuing resolutions.
    The manner of distribution of fiscal years 2013 and 2014 BIE funds 
has been a disaster. Between having funding provided via continuing 
resolutions and held back due to the prospects of a sequestration, 
planning has been very difficult. Six months into fiscal year 2013 we 
had been allocated only 37 percent of our BIE funding and in the 
current (fiscal year 2014) year only about 25 percent of funds were 
allocated in the first 6 months. The unprecedented uncertainty in terms 
of timing and amount of funding has taken a toll. New faculty feel 
vulnerable because of the appropriations situation, and prospective 
candidates are reluctant to accept positions due to the same 
uncertainty. We have significantly reduced off-campus professional 
development activities for faculty, and held back on upgrading 
technology resources for our faculty and students.
      additional information about united tribes technical college
    We have:
  --Renewed unrestricted accreditation from the North Central 
        Association of Colleges and Schools, for July 2011 through 
        2021, with authority to offer all of our full programs online. 
        We have 23 associate degree programs, 19 certificate and 3 
        bachelor degree programs (Criminal Justice; Elementary 
        Education; Business Administration). Six courses are offered 
        online.
  --Services including a Child Development Center, family literacy 
        program, wellness center, area transportation, K-8 elementary 
        school, tutoring, counseling, family and single student 
        housing, and campus security.
  --A projected return on Federal investment of 20-1 (2005 study).
  --A semester retention rate of 85 percent and a graduate placement 
        rate of 77 percent. Over 45 percent of our graduates move on to 
        4-year or advanced degree institutions.
  --Students from 75 tribes; 85 percent of our undergraduate students 
        receive Pell grants.
  --An unduplicated count of undergraduate degree-seeking students and 
        continuing education students of 1,391.
  --A dual-enrollment program targeting junior and senior high school 
        students, providing them an introduction to college life and 
        offering high school and college credits.
  --A critical role in the regional economy. Our presence brings at 
        least $34 million annually to the economy of the Bismarck 
        region. A North Dakota State University study reports that the 
        five tribal colleges in North Dakota made a direct and 
        secondary economic contribution to the State of $181,933,000 in 
        2012.
    A Northern Plains Indian Law Enforcement Academy.--We ask Congress 
to seriously look at the problem of addressing crime in Indian country 
with an eye toward the establishment of a campus-based academy for 
training of law enforcement officers in the Northern Plains area of 
Indian country. There are cultural and legal reasons why such training 
should be tribally directed in order to be appropriate for the 
realities of tribal communities. With the advent of expanded tribal 
authorities under the Tribal Law and Order Act and the Violence Against 
Women Act, 2013, the need has grown. State and national training 
resources would have an important role in this new endeavor.
    Our Criminal Justice program offers 2- and 4-year degrees, and 
prepares graduates for employment as Federal, State or tribal law 
enforcement, correction, parole and probation, and transportation 
safety officers; victim advocates; U.S. Customs, Homeland Security, and 
Military Investigative services; and private security agents. We point 
out that the Indian Child Protection and Family Violence Prevention Act 
contains requirements regarding background checks and character 
investigations. We want to expand our endeavors to help meet law 
enforcement needs in Indian country. Given our Criminal Justice 
program, our location and our campus resources, we propose the 
establishment of a Northern Plains Indian Law Enforcement Academy.
    Basic law enforcement training is currently provided through the 
BIA's Indian Police Academy in Artesia, New Mexico. The BIA Academy can 
train only three classes of 50 persons annually. The BIA is depending 
on the basic training provided by State academies to supplement what is 
provided at Artesia. We firmly believe UTTC is well positioned with 
regard to providing both basic and supplemental law enforcement 
training. An academy at UTTC would allow tribal people in the Great 
Plains and other nearby regions a more affordable choice of training 
locations, minimizing the distance and long separation of trainees from 
their families.
    The fiscal year 2015 Indian Affairs budget justification (p. IA-
PSJ-12) notes that training initiatives for the Indian police academy 
includes developing a pre-academy training program for candidates prior 
to their attending the academy; developing a mid-level manager training 
program; and establishing an online distance learning program for 
recertification, among other things. These are things that UTTC could 
do as part of an academy at UTTC or in partnership with the Indian 
Police Academy.
    In short, the BIA should be utilizing and enhancing the resources 
of UTTC to make a real difference in the law enforcement capability in 
Indian country. We can offer college credit to trainees, and our 
facilities include the use of a state-of-the-art crime scene simulator. 
Maintaining safe communities is a critical component of economic 
development for our tribal nations, and local control of law 
enforcement training resources is a key part of that effort.
    The Duplication or Overlapping Issue.--As you know, in March 2011 
the Government Accountability Office (GAO) issued two reports regarding 
Federal programs which may have similar or overlapping services or 
objectives (GAO-11-474R and GAO-11-318SP). Funding from the BIE and the 
Department of Education's Carl Perkins Act for Tribally Controlled 
Postsecondary Career and Technical Education were among the programs 
listed in the reports. The full GAO report did not recommend defunding 
these programs; rather, it posed the possibility of consolidation of 
these programs to save administrative costs. We are not in disagreement 
about possible consolidation of our funding sources, as long as program 
funds are not cut.
    BIE funds represent over half of UTTC's core operating budget. The 
Perkins funds supplement, but do not duplicate, the BIE funds. It takes 
both sources of funding to frugally maintain the institution. In fact, 
even these combined sources do not provide the resources necessary to 
operate and maintain the college. We actively seek alternative funding 
to assist with academic programming, deferred maintenance, and 
scholarship assistance, among other things. The need for postsecondary 
career and technical education in Indian country is so great and the 
funding so small, that there is little chance for duplicative funding.
    There are only two institutions targeting American Indian/Alaska 
Native career and technical education and training at the postsecondary 
level--UTTC and NTU. Combined, these institutions received less than 
$15 million in fiscal year 2014 Federal operational funds ($7.7 million 
from Perkins; $7 million from the BIE). That is not an excessive amount 
for two campus-based institutions who offer a broad (and expanding) 
array of programs geared toward the educational and cultural needs of 
their students and who teach job-producing skills.
    Closing.--UTTC offers services that are catered to the needs of our 
students, many of whom are first generation college attendees and many 
of whom come to us needing remedial education and services. Although 
BIE and Perkins funds do not pay for remedial education, we make this 
investment through other sources to ensure our students succeed at the 
postsecondary level. Thank you for your consideration of our requests.
                                 ______
                                 
         Prepared Statement of the Utah Water Users Association
                                                     April 3, 2014.
Hon. Jack Reed, Chairman,
Hon. Lisa Murkowski, Ranking Member,
Subcommittee on Interior, Environment, and Related Agencies, Committee 
        on Appropriations, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.

    Dear Chairman Reed and Senator Murkowski: I am requesting your 
support for fiscal year 2015 appropriations to the Fish and Wildlife 
Service (FWS) for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program 
consistent with the President's recommended budget. I request that the 
subcommittee:

  --Appropriate $706,300 in ``Conservation and Restoration'' funds 
        (Resource Management Appropriation; Ecological Services 
        Activity; Conservation and Restoration Subactivity within the 
        $124,253,000 item entitled ``Conservation and Restoration'') to 
        the U.S. Fish and Wildlife Service (FWS) to allow FWS for 
        fiscal year 2015 to continue its essential participation in the 
        Upper Colorado River Endangered Fish Recovery Program.
  --Appropriate $200,000 in FWS ``Conservation and Restoration'' funds 
        for the San Juan River Basin Recovery Implementation Program to 
        meet expenses incurred by FWS's Region 2 in managing the San 
        Juan Program's diverse recovery activities.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $48,617,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.

    I request the subcommittee's assistance in assuring fiscal year 
2015 funding to allow the FWS to continue its financial and personnel 
participation in these two vitally important recovery programs. I 
recognize and appreciate that the past support and assistance of your 
subcommittee has greatly facilitated the success of these ongoing 
efforts.
            Sincerely,
                                           Carly B. Burton,
                                                Executive Director.
                                 ______
                                 
            Prepared Statement of the Ute Mountain Ute Tribe
                                                     April 3, 2014.
Hon. Jack Reed, Chairman,
Hon. Lisa Murkowski, Ranking Member,
Subcommittee on Interior, Environment, and Related Agencies, Committee 
        on Appropriations, U.S. Senate, Dirksen Senate Office Building, 
        Washington, DC.

    Dear Chairman Reed and Senator Murkowski: I am requesting your 
support for fiscal year 2015 appropriations to the Fish and Wildlife 
Service (FWS) for the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Basin Recovery Implementation Program 
consistent with the President's recommended budget. I request that the 
subcommittee:

  --Appropriate $706,300 in ``Conservation and Restoration'' funds 
        (Resource Management Appropriation; Ecological Services 
        Activity; Conservation and Restoration Subactivity within the 
        $124,253,000 item entitled ``Conservation and Restoration'') to 
        the U.S. Fish and Wildlife Service (FWS) to allow FWS for 
        fiscal year 2015 to continue its essential participation in the 
        Upper Colorado River Endangered Fish Recovery Program.
  --Appropriate $200,000 in FWS ``Conservation and Restoration'' funds 
        for the San Juan River Basin Recovery Implementation Program to 
        meet expenses incurred by FWS's Region 2 in managing the San 
        Juan Program's diverse recovery activities.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the $48,617,000 item entitled ``National 
        Fish Hatchery System Operations'') for endangered fish 
        propagation and hatchery activities at the FWS' Ouray National 
        Fish Hatchery. Operation of this facility is integral to the 
        Upper Colorado Recovery Program's stocking program.

    I request the subcommittee's assistance in assuring fiscal year 
2015 funding to allow the FWS to continue its financial and personnel 
participation in these two vitally important recovery programs. I 
recognize and appreciate that the past support and assistance of your 
subcommittee has greatly facilitated the success of these ongoing 
efforts.
            Sincerely,
                                              Manuel Heart,
                                                   Tribal Chairman.
                                 ______
                                 
             Prepared Statement of Scott A. Verhines, P.E.
                                summary
    This statement is submitted in support of fiscal year 2015 
appropriations for Colorado River Basin salinity control activities of 
the Bureau of Land Management. I urge that at least $5,200,000 be 
appropriated for the Bureau of Land Management within the Soil, Water, 
and Air Program for general water quality improvement efforts in the 
Colorado River Basin, and an additional $1,500,000 be appropriated 
specifically for salinity control related projects and studies.
                               statement
    The Colorado River Basin Salinity Control Forum (Forum) is 
comprised of representatives of the seven Colorado River Basin States 
appointed by the respective Governors of the States. The Forum has 
examined the features needed to control the salinity of the Colorado 
River. These include activities by the States, the Bureau of 
Reclamation, the Department of Agriculture, and the Bureau of Land 
Management (BLM). The Salinity Control Program has been adopted by the 
seven Colorado River Basin States and approved by the Environmental 
Protection Agency as a part of each State's water quality standards.
    About 75 percent of the land in the Colorado River Basin is owned, 
administered or held in trust by the Federal Government. The BLM is the 
largest land manager in the Colorado River Basin, and manages public 
lands that are heavily laden with naturally occurring salt. When salt-
laden soils erode, the salts dissolve and enter the river system, 
affecting the quality of water used from the Colorado River by the 
Lower Basin States and Mexico.
    I support past Federal legislation that declared that the Federal 
Government has a major and important responsibility with respect to 
controlling salt discharge from public lands. Congress has charged the 
Federal agencies to proceed with programs to control the salinity of 
the Colorado River Basin with a strong mandate to seek out the most 
cost-effective solutions. The BLM's rangeland improvement programs are 
some of the most cost-effective salinity control measures available. In 
addition, these programs are environmentally acceptable and control 
erosion, increase grazing opportunities, produce dependable stream run-
off and enhance wildlife habitat.
    The water quality standards adopted by the Colorado River Basin 
States contain a plan of implementation that includes BLM participation 
to implement cost effective measures of salinity control. BLM 
participation in the salinity control program is critical and essential 
to actively pursue the identification, implementation and 
quantification of cost effective salinity control measures on public 
lands.
    Bureau of Reclamation studies show that quantified damages from 
Colorado River salinity to United States water users are about $376 
million per year. Modeling by Reclamation indicates that these 
quantified damages would increase to $577 million per year by 2030 if 
the Salinity Control Program was not continued. Unquantified damages 
already increase the total damages significantly.
    Control of salinity is necessary for the Basin States, including 
New Mexico, to continue to develop their compact-apportioned waters of 
the Colorado River. The Basin States are proceeding with an independent 
program to control salt discharges to the Colorado River, in addition 
to cost sharing with Bureau of Reclamation and Department of 
Agriculture salinity control programs. It is important that the BLM 
pursue salinity control projects within its jurisdiction to maintain 
the cost effectiveness of the program and the timely implementation of 
salinity control projects that will help avoid unnecessary damages in 
the United States and Mexico.
    At the urging of the Basin States, the BLM created a position to 
coordinate its activities among the BLM State offices and other Federal 
agencies involved in implementation of the salinity control program. 
The BLM's Budget Justification documents have stated that BLM continues 
to implement on-the-ground projects, evaluate progress in cooperation 
with the Bureau of Reclamation and the Department of Agriculture, and 
report salt retention measures to implement and maintain salinity 
control measures of the Federal salinity control program in the 
Colorado River Basin. The BLM is to be commended for its commitment to 
cooperate and coordinate with the Basin States and other Federal 
agencies. The Basin States and I are pleased with the BLM 
administration's responsiveness in addressing the need for renewed 
emphasis on its efforts to control salinity sources and to comply with 
BLM responsibilities pursuant to the Colorado River Basin Salinity 
Control Act, as amended.
    To continue these efforts, I request the appropriation of at least 
$5.2 million in fiscal year 2015 for general water quality improvement 
efforts in the Colorado River Basin by the BLM within the Soil, Water, 
and Air Program, and that an additional $1.5 million be appropriated 
specifically for salinity control related projects and studies. I 
appreciate consideration of these requests. I fully support the 
statement of the Colorado River Basin Salinity Control Forum submitted 
by Don Barnett, the Forum's Executive Director, in request of 
appropriations for BLM for Colorado River salinity control activities.
                                   Scott A. Verhines, P.E.
                                           New Mexico State Engineer
                                           Secretary, New Mexico 
                                               Interstate Stream 
                                               Commission
                                 ______
                                 
        Prepared Statement of the Western Governors' Association
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to submit testimony on behalf of the Western Governors' 
Association (WGA). My name is James D. Ogsbury and I am the Executive 
Director of the WGA. WGA is an independent, non-partisan organization 
representing the Governors of 19 Western States and 3 U.S.-flag 
islands. We are pleased to have this opportunity to comment on the 
appropriations and activities of the Bureau of Land Management, U.S. 
Fish and Wildlife Service, National Park Service, U.S. Forest Service 
and Environmental Protection Agency.
    Western Governors recognize that certain agencies within this 
subcommittee's jurisdiction are especially impactful to the West. These 
Federal agencies have rich potential to supplement State efforts or 
impinge on State authority. They can exercise vital leadership or they 
can interfere with well-managed State activities. Accordingly, it is 
critical that State and Federal agencies develop and maintain positive 
and cooperative working relationships. Western Governors believe that 
such cooperation is only possible when States are regarded as full and 
equal partners of the Federal Government in the development and 
execution of programs for which both have responsibility.
    As you consider appropriations and policy directives for Federal 
agencies, Western Governors urge you to take cognizance of States' 
authority in resource management and their potential to enhance the 
delivery of government services and protections to our citizens. 
Western Governors are strong and pragmatic chief executives, committed 
to judicious exercise of their power within constitutional and 
practical constraints. The following requests and recommendations are 
thematically related in that they commonly call for greater recognition 
of State authority and better utilization of State capabilities by the 
Federal Government.
    With respect to funding levels of appropriated programs, WGA 
recommends the enactment and full funding of a permanent and stable 
funding mechanism for the Payment in Lieu of Taxes program administered 
by the Department of Interior. As you know, these appropriations do not 
represent a gift to local jurisdictions; rather they represent 
important (if inadequate) compensation for the disproportionate acreage 
of non-taxable Federal lands in the West. Similarly, continued funding 
of the Secure Rural Schools program will help compensate communities 
whose timber industries have been negatively impacted by actions and 
acquisitions of the Federal Government.
    Western States are investing enormous amounts of time, money and 
manpower in species conservation. It is only appropriate that Federal 
agencies likewise commit sufficient resources for species protection, 
particularly on Federal lands. If Federal lands are inadequately 
managed, no amount of effort on State and private property will be 
sufficient to assure species' success. Federal agencies should 
demonstrate their commitment to species preservation and recovery by 
committing adequate funding for conservation efforts on Federal lands.
    Part of the Federal commitment to species conservation involves 
financial support for species management by State agencies through the 
State and Tribal Wildlife Grant program. Because State responsibilities 
for species conservation are increasing in number and complexity, the 
subcommittee is urged to reject the $8.7 million reduction to this 
program proposed by the administration.
    The subcommittee is well informed regarding the pressing problem of 
``fire borrowing,'' pursuant to which resources necessary for the 
reduction of wildfire threats are transferred to emergency firefighting 
activities, perpetuating a cycle of high fire risk and elevated 
emergency expenditures. Be advised that WGA is on record as supporting 
legislation that would solve the budgetary issue of fire borrowing by 
creating a funding structure similar to that used by the Federal 
Emergency Management Agency in its response to natural disasters.
    During last year's Government shutdown, certain national parks were 
kept open through the initiative of States which undertook 
responsibilities of park management. The subcommittee is encouraged to 
provide the resources necessary to compensate those States for the 
costs they incurred in shouldering a Federal obligation.
    WGA understands that this subcommittee is as interested in how 
funds are spent as it is in how much money agencies spend. The 
following recommendations are intended to help ensure that the taxpayer 
realizes a better return on the investment of limited discretionary 
resources. This goal will be more readily achieved to the extent that 
Federal agencies better leverage State authority, resources and 
expertise.
    Last year this subcommittee included language in its report 
directing Federal land managers to use State fish and wildlife data and 
analyses as sources to inform land use, land planning and related 
natural resource decisions. Federal and State agencies need data-driven 
science, mapping and analyses to effectively manage wildlife species 
and their habitat. States possess constitutional responsibilities for 
wildlife management, as well as intimate knowledge of wildlife habitat 
and resources. In addition, they often generate the best available 
wildlife science. The use of State science should be more effectively 
utilized to both reduce total costs and increase the efficacy of 
Federal wildlife management efforts. Accordingly, the subcommittee is 
encouraged to reiterate and strengthen its report language regarding 
this issue for fiscal year 2015.
    Western Governors believe that States should be full and equal 
partners in the implementation of the Endangered Species Act and should 
have the opportunity to participate in pre-listing and post-listing ESA 
decisions. The ESA is premised on a strong State-Federal partnership. 
Section 6(a) of the ESA states that, ``In carrying out the program 
authorized by the Act, the Secretary shall cooperate to the maximum 
extent practicable with the States.'' WGA submits that such cooperation 
should include partnership with States in the establishment of 
quantifiable species recovery goals, as well as in the design and 
implementation of recovery plans.
    It is axiomatic that ESA listing decisions have dramatic impacts on 
vital State interests. Consequently, States should have the right to 
intervene in proceedings regarding the ESA. The subcommittee is urged 
to support the legal standing of States to participate in 
administrative and judicial actions involving ESA that, by their 
nature, implicate State authority and resources.
    Several Federal statutes--including the Clean Water Act, Clean Air 
Act and Resource Conservation and Recovery Act--vest the States with 
the role of co-regulator with the Environmental Protection Agency. That 
role would be significantly enhanced by greater State representation on 
the Science Advisory Board (SAB), on which the agency relies to provide 
the scientific underpinnings of regulatory decisions.
    The SAB was established by the Environmental Research, Development, 
and Demonstration Authorization Act of 1978 in accordance with the 
Federal Advisory Committee Act of 1972 (FACA) and has a broad mandate 
to advise EPA on scientific, technological, and social and economic 
issues. The SAB Charter defines the SAB as a scientific and technical 
advisory committee. Sections 5(b)(2) and 5(c) of FACA require the 
membership of an advisory committee to be ``fairly balanced in terms of 
points of view represented and the functions to be performed.''
    Despite the foregoing mandates and the tremendous value that would 
be added to SAB processes by State participation, States are woefully 
and demonstrably under-represented on the SAB, as well as on its 
standing and ad hoc committees. States are equipped and prepared to 
contribute their regulatory expertise, as well as their scientific 
resources and data, to SAB deliberations. Consequently, the 
subcommittee is urged to ensure that EPA achieves more balanced SAB 
representation, to include State participation that constitutes no less 
than 10 percent of the membership of SAB committees, subcommittees and 
subject matter panels.
    On March 25, the administration unveiled a proposed rule of the 
Environmental Protection Agency and the U.S. Army Corps of Engineers 
intended to clarify the jurisdictional reach of the Clean Water Act. 
Many States have indicated concern that the proposed rule significantly 
expands the definition of ``waters of the United States'' and could 
impinge on State authority over the regulation of waters within their 
borders. WGA is concerned that States were insufficiently consulted in 
the development of this proposal and played no role in the creation of 
the rule, which has such major implications for States.
    Congress intended that the States and EPA would implement the CWA 
in partnership, delegating authority to the States to administer the 
law as co-regulators with EPA. Accordingly, WGA encourages 
congressional direction to EPA to engage the States in the creation of 
rulemaking, guidance, or studies that threaten to redefine the roles 
and jurisdiction of the States. State water managers should have a 
robust and meaningful voice in the development of any rule regarding 
the jurisdiction of the Clean Water Act or similar statutes.
    Solving many of the West's challenges will require a broad view of 
the interrelated nature of natural resource problems. For example, 
Federal underinvestment in the eradication of invasive species (like 
cheatgrass) and in the active management of national forests can result 
in increased severity of wildfires. This greater wildfire threat in 
turn poses greater peril to the crucial of habitat of species (like the 
greater sage grouse) that States are working diligently to conserve.
    Western Governors appreciate the enormity of your job, as well as 
your commitment to the provision of cost-effective government services. 
The foregoing recommendations are offered in a spirit of cooperation 
and respect, and WGA is prepared to assist you as appropriate as you 
discharge your critical and challenging responsibilities.
    Thank you for your consideration.
                                 ______
                                 
   Prepared Statement of the Western States Water Council and Native 
                          American Rights Fund
                            i. introduction
    The Western States Water Council (WSWC) and the Native American 
Rights Fund (NARF) submit the following joint testimony in support of 
adequate funding for the Secretary of the Interior's Indian Water 
Rights Office (SIWRO) and the Bureau of Indian Affairs (BIA) to carry 
out their responsibilities in support of Indian water rights 
settlements.\1\ This testimony is based on WSWC Policy Resolution 
#336.\2\
---------------------------------------------------------------------------
    \1\ The WSWC is a government entity created by the Western 
Governors, which advises the Governors of 18 Western States on water 
policy matters and is affiliated with the Western Governors' 
Association. NARF is a non-profit 501c(3) organization that provides 
legal representation and technical assistance to Indian tribes, 
organizations and individuals nationwide--a constituency that often 
lacks access to the justice system.
    \2\ Available at: http://www.westgov.org/wswc/
336%20indian%20water%20rights%20settlements
%207oct2011.pdf.
---------------------------------------------------------------------------
    For over 30 years, the WSWC and NARF have worked together to 
support the negotiated resolution of Indian water rights claims. Our 
organizations believe there is a need to quantify Indian water rights, 
that negotiated settlements are preferable to litigation as a means of 
quantifying those rights, and that the Federal Government should 
encourage and facilitate settlements. As discussed below, the SIWRO and 
the BIA play a key role in the settlement process, and Congress should 
ensure they receive sufficient funding to carry out their settlement 
efforts.
         ii. prior appropriation and indian water right claims
    The doctrine of prior appropriation governs the allocation of water 
in most Western States. Under this system, the first parties to 
physically divert and put water to a ``beneficial use'' have priority 
over subsequent water users. Thus, senior water right holders with 
earlier priority dates (the date the water was first put to beneficial 
use) can seek curtailment of uses with junior priority dates in times 
of shortage.
    Most non-Indian water development in the West occurred after the 
Federal Government finalized treaties and executive orders to establish 
reservations for tribes, and after Congress severed land and water 
rights in the West and directed that water rights be obtained under 
State law. In addition, most tribal treaties and executive orders 
creating Indian reservations did not specify the tribes' water rights.
    The U.S. Supreme Court addressed the resulting conflict in Winters 
v. United States, 207 U.S. 564 (1908), finding that tribal treaties and 
executive orders impliedly reserved water rights necessary to meet the 
purpose(s) of a tribe's reservation. These reserved rights differ from 
State-issued water rights because they: (1) arise independently of 
beneficial use; (2) are not limited by beneficial use; (3) are measured 
by present and future supplies needed to fulfill the reservation's 
purpose(s) instead of past uses; and (4) have priority dates that 
correspond to the date the tribe's reservation was established.
          iii. the need to resolve tribal water rights claims
    Resolving Winters rights claims is critical for Western States 
because tribal rights typically have priority dates that are senior to 
non-Indian uses, and therefore have the potential to displace 
established State-issued rights. This is especially problematic where 
tribal rights pertain to river systems that are fully appropriated by 
non-Indian users. The un-quantified nature of many tribal rights 
creates great uncertainty with regard to existing State-based uses and 
can impede local, State, and regional economic development. As a 
result, quantifying tribal water right claims is essential for Western 
States to address increasing water demands related to the West's 
growing population, and to allocate water supplies that continually 
change and are often scarce due to drought, reduced snowpacks, and 
other factors.
    At the same time, tribes often lack the resources to develop their 
water rights. This lack of a reliable water supply and related 
infrastructure throughout Indian Country sometimes prevents tribes from 
protecting the health, welfare, and safety of their communities. For 
example, over 40 percent of tribal members in the Navajo Nation haul 
water for domestic use. This lack of potable water has caused various 
illnesses.\3\ Members of the Kickapoo Tribe of Kansas, the Chippewa 
Cree Tribe of Montana, and others also haul water for basic domestic 
needs.\4\
---------------------------------------------------------------------------
    \3\ Concerning S. 1771--Northwest New Mexico Rural Water Projects 
Act: Hearing on S. 1771 Before the S. Comm. on Energy and Natural 
Resources, 110th Cong. 8 (2007) (statement of Joe Shirley, Jr., 
President, Navajo Nation).
    \4\ Testimony of John Echohawk on behalf of the Native American 
Rights Fund: Oversight Hearing on Indian Water Rights Settlements 
Before the Subcomm. on Water and Power of the H. Comm. on Natural 
Resources, 110th Cong. 7-8 (2008) (statement of John Echohawk, 
Executive Director, NARF) [hereinafter Echohawk Testimony].
---------------------------------------------------------------------------
    The absence of adequate and reliable potable water supplies also 
contributes to unemployment, poverty, and mortality rates on 
reservations that are much higher than those of neighboring non-Indian 
communities. In California, the lack of an adequate water supply has 
prevented the Tule River Tribe from providing fire protection, housing, 
and economic opportunities to tribal members. The tribe also has 
unemployment and mortality rates that are 50 percent higher than Tulare 
County as a whole and has been unable to act on hundreds of housing 
applications.\5\
---------------------------------------------------------------------------
    \5\ In Support of S. 789, the Tule River Tribe Water Development 
Act: Hearing to Receive Testimony on S. 637, S. 789, S. 1080, and S. 
1453 Before the Subcomm. on Water and Power of the S. Comm. on Energy 
and Natural Resources, 111th Cong. 7 (2009) (statement of Ryan 
Garfield, Chairman, Tule River Tribe); Echohawk Testimony, supra note 
6, at 7.
---------------------------------------------------------------------------
    Settlements are the preferred manner of resolving tribal water 
rights claims because they allow States and tribes to address these 
issues in ways that are not available through litigation. Specifically, 
settlements: (1) enable tribes to turn quantified rights into ``wet 
water,'' while litigation typically provides tribes with ``paper 
rights'' only; (2) allow tribes and non-Indian parties to craft 
mutually-beneficial solutions tailored to their specific needs; (3) are 
often less costly and time-consuming than litigation, which can last 
for decades and be extremely expensive for all parties, including the 
Federal Government; (4) give States and tribes control over the 
resolution of water rights claims; and (5) build positive relationships 
between States, tribes, and the Federal Government, which are essential 
because water is a shared resource that all parties must cooperatively 
manage after adjudication.
    For example, the Federal Government holds Indian water rights in 
trust for the tribes and has a fiduciary duty to protect tribal water 
rights. Because the Federal Government has not always protected tribal 
water rights, tribes often have significant breach of trust claims 
against the United States. At the same time, many tribal water rights 
claims in the arid West involve fully-appropriated stream systems. To 
address these issues, tribes will often waive their breach of trust 
claims against the Federal Government as well as a portion of their 
claimed water rights in consideration for Federal funding to build 
needed drinking water infrastructure, water supply projects, and tribal 
fishery restoration projects. These projects generally enable tribal 
and non-tribal water users to use existing water supplies more 
efficiently and advantageously and do not take water from existing non-
Indian water users. Moreover, these types of mutually-acceptable 
outcomes are simply not available through litigation.
         iv. the role of the federal government in settlements
    The Federal Government is joined in all water rights adjudications 
involving tribes because it holds the tribes' rights in trust. This 
means that it has a fiduciary duty to help tribes resolve their rights 
and ensure that settlements are funded and implemented, in addition to 
its obligation to protect tribal water rights. It also means that 
Congress and the President must approve each settlement.
    The Federal Government has long supported a policy of resolving 
Indian water rights claims through negotiation rather than litigation. 
To this end, the Department of the Interior's Indian Water Rights 
Settlement Program facilitates Federal involvement in the settlement 
process. The SIWRO leads this program in consultation with Interior's 
Officer of the Solicitor, facilitating inter-agency participation and 
cooperation needed to achieve and implement comprehensive settlements.
    In particular, the SIWRO coordinates and supports Federal 
settlement activities through 38 Federal assessment, negotiation, and 
implementation teams that are working throughout the West. These teams 
consist of representatives from agencies and bureaus within Interior, 
including the BIA, the Bureau of Reclamation, the Solicitor's Office, 
the Fish and Wildlife Service, as well as the Department of Justice and 
other Federal departments. These teams also provide a unified Federal 
voice that helps further the settlement process, a matter of crucial 
importance for the States as well. However, the legitimate need for 
these teams far outstrips the number of teams available.
    Furthermore, Interior and its agencies and bureaus provide critical 
monetary, personnel, and technical support that tribes need to 
effectively participate in the settlement process. As part of these 
efforts, the BIA provides technical assistance to tribes and 
coordinates the process of soliciting water-related funding proposals 
from tribes. It also identifies funding needs for studies required in 
ongoing Indian water rights litigation and negotiations. For instance, 
the BIA's Water Rights Negotiation/Litigation Program provides 
necessary documentation, technical studies, and other materials needed 
for the United States to further the negotiation of tribal water right 
claims.
    Appropriating insufficient funds for these purposes hinders the 
resolution of tribal water right claims. Therefore, Congress should 
ensure that the SIWRO and the BIA receive adequate appropriations to 
carry out their responsibilities in support of Interior's water rights 
settlement program.
        v. the consequences of not supporting settlement efforts
    Tribes require the resources that the SIWRO and the BIA provide to 
participate effectively in the settlement process. Failure to provide 
adequate appropriations for these programs could postpone the 
negotiation and implementation of Indian water rights settlements. 
Ultimately, this makes the resolution of many tribal water rights 
claims more expensive for the Federal Government in the long-run 
because increasing water demands, decreasing water supplies, and other 
factors will only increase the costs of resolving these claims.
                             vi. conclusion
    The United States has a trust obligation to the tribes that 
includes ensuring that they can participate in the settlement process. 
Failure to provide sufficient funding to fulfill this obligation will 
only increase Federal costs, perpetuate hardships to tribes, and 
prolong resolution of conflicts between reserved water rights and 
State-created water rights. This, in turn, could potentially disrupt 
established economies and hinder effective State and regional water 
planning and development.
                                 ______
                                 
            Prepared Statement of the Wilderness Land Trust
    Chairman Reed, Ranking Member Murkowski and members of the 
subcommittee, my name is Reid Haughey and I am the president of the 
Wilderness Land Trust. We are a small not-for-profit organization 
focused on protecting designated wilderness. To do this, we work in 
partnership with landowners who own private property within designated 
and proposed wilderness areas and the agencies that manage these areas. 
We acquire properties from willing sellers with the intent to transfer 
ownership to the United States. My testimony focuses on a very small 
portion of the Land and Water Conservation Fund--funding for the 
Inholding Acquisition Accounts for the four land management agencies. 
Continued modest funding of the Inholding Accounts is vital to the 
success of securing and preserving wilderness already designated by 
Congress, while treating private landowners within these areas fairly.
    The management of human development activities in wilderness is 
expensive for the agencies. The potential resource damage to the 
protected lands and waters is enormous. By contrast, the cost of 
acquiring these properties when they are offered for sale is relatively 
small. That is why it is so important to continue the modest 
appropriations needed for the inholding acquisition program.
    As we approach the 2014 50th Anniversary of the Wilderness Act, I 
am before you today to thank you for funding the Inholdings Accounts in 
fiscal year 2014 and to ask for that support once again. An 
appropriation of between $3 and 5 million to each of the land 
management agencies, the Forest Service, the Bureau of Land Management, 
the Fish and Wildlife Service and the National Park Service, is 
sufficient to enable the agencies to acquire high priority inholdings 
from willing sellers. Support for these accounts:
  --Saves money by eliminating management inefficiencies that 
        frequently exceed the cost of acquisition;
  --Helps private landowners within federally designated wilderness and 
        other conservation areas;
  --Allows the agencies to act when opportunities occur to acquire 
        inholdings, often only once a generation; and
  --Completes designated wilderness areas, removing threats from 
        incompatible and harmful development within their boundaries.
    We are not asking Congress to undertake a new acquisition program 
or to significantly increase current appropriation levels. As 2014 is 
the 50th Anniversary of The Wilderness Act, we ask Congress to continue 
its 50-year commitment to complete the wilderness areas it has 
designated, and to provide private landowners who wish to sell the 
opportunity to transfer their land within those wilderness areas to 
public ownership by prioritizing the use of the inholding accounts for 
the acquisition of inholdings within and adjacent to designated 
wilderness areas. Focusing the inholding accounts on designated 
wilderness and funding the Forest Service Wilderness Inholdings core 
project will be money well spent, completing established congressional 
designations and taking care of landowners who still own lands within 
these now-designated wildernesses.
    So, why worry? Aren't wilderness areas secured when Congress 
designates them? All designations include language that authorize the 
Federal acquisition of private lands within these areas and, once 
acquired, automatically protect them as part of the designated 
wilderness that surrounds them. As part of our celebration of the 50th 
anniversary of the 1964 Wilderness Act, the Trust has commissioned an 
inventory of private lands within wilderness. The results are 
startling. The report determined that within the lower 48 States, 
180,000 acres of private lands still remain. There are also 440,000 
acres of State owned lands.
    This represents tremendous progress reducing private inholdings in 
wilderness over the last 20 years. When the Trust last estimated the 
amount of private land within designated wilderness in the lower 48 
States, we estimated there were 400,000 acres of private lands. It has 
taken decades of steady work to reduce that by more than half. During 
the same timeframe, 507 new or additional areas were congressionally 
designated, adding close to 29 million acres to the National Wilderness 
Preservation System. So, true progress indeed. Large appropriations for 
the inholding accounts did not accomplish this success--just steady, 
modest funding so that lands can be purchased when landowners want to 
sell. This is the level of funding we are hoping to continue.
    These designated lands are worthy of completion. Landowners who are 
ready to sell deserve to have their properties purchased. Their 
isolated properties are primarily the result of 19th century 
congressional policy when homesteads, mining operations and timber 
production were encouraged without the balance of conservation. As a 
result, wilderness areas now dedicated by Congress are pockmarked with 
islands of private ownership that compromise the wilderness resource, 
where ''even man is a visitor who shall not remain'', become expensive 
management issues for the agencies and often befuddle landowners who 
wish to sell these properties for the benefit of their companies or 
families.
    Why is consistent funding for the inholding accounts vital? We have 
learned that these lands become available about once a generation. Our 
20 years of steady work has shown that about 5 percent of the 
properties within wilderness come up for sale in any 1 year. If the 
opportunity to acquire these when offered is lost, the management 
issues and inefficiencies that result from private lands remaining 
within designated wilderness continue. Without consistent funding, 
numerous opportunities to acquire these private parcels will be lost. 
Not for a year, but often for at least another generation.
    Many inholding acquisitions secure access. However, the Forest 
Service fiscal year 2015 budget request to alter the purpose of the 
inholdings acquisition program to focus solely on recreational access 
would undermine the success of the program. Acquiring inholdings 
secures access where it is now blocked by private land within the 
Forest Service boundary--in our case within designated wilderness. The 
Recreational Access idea is a new program that aims to expand Federal 
ownership to include access easements outside current Forest Service 
boundaries. We do not have a position on the merits or need for such an 
expansion of Forest Service management responsibilities. We are here to 
simply to say that the aim of the new program is not the same as the 
inholdings acquisition program and should be evaluated on its own 
merits, not substituted for a 50-year proven effort specifically 
authorized by Congress. We urge you to assure the continued success of 
the inholdings acquisition program by maintaining the traditional use 
of the accounts for all four land management agencies and prioritizing 
wilderness acquisitions in any fiscal year 2015 appropriations 
legislation.
    This year, critical acquisitions will not be completed without a 
commitment to fund the inholding accounts. In 2013, critical project 
examples we worked to acquire included:
  --The only inholding within the Hells Canyon Wilderness in Idaho was 
        offered for sale by the family that long owned it. We bought it 
        and are in the process of transferring it to Federal ownership. 
        Buying this key 10 acre mining claim parcel completed the 
        wilderness, helped the family with its generational change and 
        kept the promise that when wilderness inholders want to sell, 
        the United States will acquire their properties.
  --East Fork High Rock Canyon Wilderness in Nevada includes historic 
        reminders of the settlement of the west in the mid-19th 
        Century. It also included one remaining 320 acre inholding. Now 
        transferred to Federal ownership, this wilderness is complete 
        and the family ranching operation that used to own it 
        successfully reorganized so the next generation will continue 
        their ranching business and tradition.
  --The Elkhorn Ridge Wilderness is less than one quarter of a mile 
        from Highway 101 in Northern California. But ``you can't get 
        there from here''. The access to the wilderness is blocked by 
        40 acres of private land. When acquired by BLM, this beloved 
        wilderness that stretches toward the sea from Highway 101 will 
        be accessible to the many youth groups that covet this summit 
        to sea hiking and educational wilderness experience. We bought 
        it and are now working through the transfer to BLM to create 
        much needed public access and preserve the 50-year tradition of 
        wilderness education at the summer camp on the property.
    We've also been able to help other private landowners and secure 
other wilderness areas. Among them--
  --A timber company in northern California that is re-aligning its 
        landownership and has worked with the Trust to sell its 
        property, opening access to the Castle Crags Wilderness from 
        the east and the nearby freeway. The newly created access to 
        the nearby wilderness has the potential to provide significant 
        new economic opportunities for the nearby hard-hit community of 
        Dunsmere to develop recreation-based businesses.
  --And, a landowner who built a cabin at a former gold mine on the 
        banks of the Salmon River within the Frank Church River of No 
        Return Wilderness. We will work over the next year to clean up 
        the mine site to protect the river. The transfer of this 
        property to Federal ownership will further consolidate 
        protection of the wilderness and enhance the recreational 
        opportunities so economically important to Idaho and as a 
        resource for the Nation.
    The expenses of managing these isolated private lands do not fall 
solely on the Federal Government. Tax revenues received by local 
governments do not offset the cost of providing fire protection, 
emergency and general government services to these isolated and far 
flung properties. It costs more to serve these isolated single 
properties than the tax revenue they generate. If you fund the 
inholding accounts, we will be back next year with more stories of 
success:
  --Success completing already designated wilderness;
  --Success helping those private landowners, who often feel trapped 
        within designated wilderness, but were promised that their land 
        would be purchased at a fair market price if they chose to 
        sell;
  --Success helping local governments control costs; and
  --Success helping land management agencies reduce costs of management 
        and fire suppression.
    In summary, continued consistent funding of the inholding accounts 
is vital. Without such funding, significant opportunities to acquire 
private parcels within our designated wilderness areas will be lost for 
at least another generation. We urge your support of continued funding 
for these accounts and for the Forest Service's Wilderness Inholdings 
core project.
    Thank you for the opportunity to testify. We greatly appreciate 
your time and consideration and the support of the subcommittee in 
securing these appropriations.
                                 ______
                                 
              Prepared Statement of the Wilderness Society
    The Wilderness Society (TWS) represents more than 500,000 members 
and supporters who share our mission to protect wilderness and inspire 
Americans to care for our wild places. We thank the subcommittee for 
the opportunity to submit comments on the fiscal year 2015 Interior, 
Environment and Related Agencies Appropriations Bill.
    When deciding on funding that affects hundreds of millions of 
Americans, we urge you to take into account the full economic, social, 
environmental and cultural value of the many programs managed by this 
subcommittee. Our public lands and waters contribute significantly to 
the U.S. outdoor recreation economy. The Outdoor Industry Association's 
latest report shows that outdoor recreation alone generates $646 
billion in direct consumer spending, supports 6.1 million direct jobs 
and generates $79.6 billion in Federal, State and local tax revenue.
    Investments in these critical programs will provide jobs and 
protect the health and economic wellbeing of local communities. We urge 
bold, immediate action in support of conservation funding for fiscal 
year 2015. Specifically, TWS recommends:
                         wilderness management
    The 50th anniversary of the Wilderness Act is September 3rd, 2014. 
This provides a unique and valuable opportunity to highlight the role 
wilderness plays in protecting ecosystems, wildlife, and primitive 
outdoor recreation opportunities across the country. America's National 
Wilderness Preservation System is a world renowned model for land 
conservation, yet our wilderness areas are suffering from a lack of 
funding. Trail maintenance, law enforcement, monitoring, and user 
education are all significantly underfunded, leading to an erosion of 
wilderness values and a diminution of the experience for wilderness 
visitors. We recommend that each of the agency wilderness management 
accounts be increased to provide trails maintenance, update signage, 
remove fencing, fight invasive species, restore degraded hydrology, and 
monitor effects of climate change, among other critical wilderness 
preservation system needs. Specifically:

  --Crosscutting.--Adequately fund the Carhartt Training Center, the 
        Leopold Research Institute, and the Interagency Wilderness 
        Character Monitoring Team to complete wilderness character 
        baseline assessments using Wilderness Fellows.
  --Bureau of Land Management (BLM) Wilderness.--The budget proposal of 
        $18.435 million for BLM wilderness management is strong, but 
        still 7 percent lower than the fiscal year 2011 enacted level, 
        the funding level necessary to ensure resource and visitor 
        safety in the 221 BLM wilderness areas. TWS supports restoring 
        BLM Wilderness funding to the fiscal year 2011 level of $19.663 
        million.
  --Forest Service Recreation, Wilderness and Heritage.--Recreation is 
        the most ubiquitous use of our forest lands, connecting with 
        more people and occurring on more acres than any other use, as 
        well as accounting for more than half of all job and income 
        affects attributable to Forest Service programs (over 190,000 
        jobs and $11 billion in spending effects by visitors). We urge 
        Congress to support wilderness and recreation by restoring 
        funding to the fiscal year 2010 level of $285.1 million for the 
        Recreation, Heritage and Wilderness Program.
  --National Park Service Wilderness.--Provide a funding increase for 
        the base wilderness program from its current level of $450,000 
        as well as 2 years of total funding at $520,000 to highlight 
        and celebrate the 50th anniversary of the Wilderness Act. 
        Additional funding would eliminate the backlog of Wilderness 
        Stewardship Plans, support training for all wilderness park 
        superintendents, improve coordination with interagency 
        Landscape Conservation Cooperatives, and reduce the likelihood 
        of litigation due to management inconsistencies.
                    land and water conservation fund
    Now in its 50th Anniversary year, LWCF remains the premier Federal 
program to conserve our Nation's land, water, historic, and recreation 
heritage. It is a critical tool to acquire inholdings and protect 
national parks, national wildlife refuges, national forests, BLM lands, 
and other Federal areas. The companion LWCF State grants program 
provides crucial support for State and local park acquisitions, 
recreational facilities, and trail corridors. LWCF also funds two other 
important State grant programs--the Forest Legacy Program and 
Cooperative Endangered Species programs--that ensure permanent 
conservation of important forest lands and threatened and endangered 
species' habitat, as well as important wildlife and recreational 
habitat and ensures that public lands stay public for hunters, anglers, 
and other outdoor recreationists for generations to come.

  --TWS strongly supports fully funding LWCF at the proposed $900 
        million. Full funding for LWCF will allow land management 
        agencies to manage our public lands more efficiently and cost-
        effectively. This is achieved through strategic inholdings 
        acquisition which reduces internal boundary line surveying, 
        right-of-way conflicts and special use permits.
                       emergency wildfire funding
    For years U.S. Forest Service (USFS) and the Department of the 
Interior (DOI) have had to divert funds away from vital conservation 
and wildfire mitigation programs to cover wildfire suppression costs. 
This is having long term negative effects on conservation and land 
management, especially where these funds are diverted from programs 
aimed at reducing fire risks and costs, which creates a vicious cycle. 
With longer and more severe fire seasons the Forest Service has seen 
its wildfire management activities rise from 13 percent of the agency's 
budget in fiscal year 1991 to almost 50 percent for the past several 
fiscal years.

  --TWS strongly supports the President's proposal of $954 million in 
        new budget authority for wildfire suppression under the FLAME 
        Suppression Cap Adjustment. This will eliminate the need to rob 
        other accounts to pay for the worst 1 percent of wildfires.
                       climate change resiliency
    Wilderness, public lands, connected wildlife habitats and other 
types of ``green infrastructure'' are some of the most cost-effective 
investments that can be made to increase climate change resiliency. 
Connected wild landscapes allow species and habitats to adapt more 
easily to changes in climate, buffer local communities from storms and 
natural disasters and our national forests can be effective carbon 
sinks.

  --TWS supports the President's $1 billion climate change fund to 
        safeguard not only our public lands but our communities and our 
        economy.
                     blm onshore oil and gas policy
    The BLM is implementing important management reforms of its oil and 
gas program that is leading toward a better balance between oil and gas 
development on public lands and the protection of the numerous natural 
resource values that were put at risk by previous policies. The 
administration has proposed these reforms of the BLM's oil and gas 
program, which TWS supports:

  --A fee on onshore Federal operators sufficient to provide for a $48 
        million per year inspection and enforcement program to 
        implement recommendations made by the Government Accountability 
        Office; Continuation of the $6,500 APD fee; A $4.00 per acre 
        fee on non-producing onshore leases.
                         sage grouse initiative
    The Wilderness Society supports the administration's $15 million 
request for the BLM's National Greater Sage Grouse Planning Strategy. 
If successful, implementation of this strategy will lead to recovery of 
this important western game species without the necessity of a listing 
under the Endangered Species Act.
              blm's national landscape conservation system
    The National Landscape Conservation System (Conservation Lands) 
comprises some 27 million acres of congressionally and presidentially 
designated lands and waters, including National Monuments, National 
Conservation Areas, Wilderness Areas and other designations. 
Stewardship of the Conservation Lands provides jobs for thousands of 
Americans while supporting vibrant and sustainable economies in 
surrounding communities. The Conservation Lands provide immeasurable 
public values from modest investments: outstanding recreational 
opportunities, wildlife habitat, clean water, wilderness, and open 
space near cities. We ask Congress to:

  --Support the administration's fiscal year 2015 recommendation of 
        $66.5 million to ensure the natural, cultural, and historical 
        resource protection provided by the Conservation Lands for the 
        American public.
  --Restore the Challenge Cost Share Program at full funding of $19 
        million. This is a cross-cutting program within DOI, which 
        provides a 1:1 match for volunteer activities.
                            renewable energy
    TWS is a strong proponent of transitioning our country to a clean 
energy economy by developing our renewable energy resources 
responsibly. We believe renewable energy is an appropriate and 
necessary use of the public lands when sited in areas screened for 
habitat, resource, and cultural conflicts. TWS hopes the Department 
will continue to support a program that ensures our public lands can 
play an important role in supporting renewable energy infrastructure 
through environmental review, suitability screening, and energy zone 
identification to find suitable places for needed renewable energy 
projects. TWS is also a supporter of Secretarial Order 3330 on 
Mitigation that would ensure that any impacts are avoided or offset. 
TWS urges Congress to:

  --Support increased funding for renewable energy programs across 
        Interior from fiscal year 2014 enacted.
  --Support the Department's request to fund BLM's renewable energy 
        activity at no less than $29 million to make up for the impact 
        of sequestration.
  --Increase funding for the FWS to review and permit renewable energy 
        projects on public lands.
                national wildlife refuge system funding
    The National Wildlife Refuge System is the world's finest network 
of protected lands and waters. Designed to conserve our fish and 
wildlife resources, refuges are located in every State and territory 
and provide enormous economic benefit for their local communities. 
Every year, the System attracts 45 million tourists, hunters, 
fishermen, and other recreationists, generating $1.7 billion in sales, 
sustaining nearly 27,000 jobs annually, and contributing over $185 
million in tax revenue. The Refuge System has been under increasing 
fiscal strain, however, with a maintenance backlog of over $3 billion.

  --We urge Congress to support funding for the National Wildlife 
        Refuge System at the President's recommendation of $476.4 
        million.
                      national forest restoration
    The Legacy Roads and Trails (LRT) and Collaborative Forest 
Restoration Programs (CFLR) provide essential funding to restore 
watersheds, improve recreational access by focusing on roads and trails 
where water quality and aquatic species are at risk and advance 
collaborative restoration projects. Despite its success, the LRT 
program was slashed 50 percent in fiscal year 2011 and again in fiscal 
year 2014 by 22 percent. We look forward to the results of the 3-region 
test pilot for Integrated Resource Restoration (IRR). However, we do 
not recommend that the IRR pilot program be expanded until the test 
regions have proven that IRR can improve restoration outcomes without a 
loss of program transparency and accountability. To achieve restoration 
goals in fiscal year 2015, TWS recommends that Congress:

  --Restore Legacy Roads and Trails funding to $45 million within 
        Capital Improvement and Maintenance;
  --Fully fund the CFLRP at the President's recommendation of $60 
        million; and
  --Extend the IRR pilot program, and works closely with the Forest 
        Service and stakeholders to ensure transparency and 
        accountability for the activities and outcomes of the pilot 
        program.
           forest service inventory & monitoring and planning
    The Inventory and Monitoring is integral to forest planning serving 
both as the baseline data and trigger for course correction. The 
Planning Program funds amendments and revisions to Land Management 
Plans, the overarching documents that guide the management of 
individual forests and grasslands. By providing adequate and consistent 
funding to both these programs, we advance plans and projects, and 
avoid bad decisionmaking, unnecessary costs, and more risks to water 
quality and quantity, wildlife, and recreation. TWS recommends that 
Congress:

  --Support Inventory & Monitoring and Planning by restoring funding to 
        the running 10-year average of $163,689,000 and $48,254,000, 
        respectively.
                         national forest roads
    Over the past 4 years, Forest Service roads funding has been cut by 
30 percent adding even more strain to a road system where the 
collective cost continues to far outstrip the Forest Service's 
financial capacity. Roads are one of the most significant stressors on 
watersheds and ecosystems, contributing to water pollution and declines 
in salmon, trout and other fish. Adequate funding for the road system 
is needed to address public safety issues, the negative effects of 
roads on wildlife and water, and provide high quality recreational 
access to the American public. Adequate funding will also ensure that 
previous taxpayer investments in our forest infrastructure are not 
squandered through lack of maintenance.

  --We urge Congress to fund Capital Improvement and Maintenance Roads 
        at the running 10-year average of $207,383,000 in fiscal year 
        2015.
  --We recommend that Capital Improvement and Maintenance Roads funds 
        are available for maintenance and operations, reconstruction, 
        limited construction, and decommissioning.
                         national forest trails
    There are 155,600 miles of trails in the National Forest System. 
These trails provide 50 million visitor days of cross-country skiing, 
hiking, horseback riding, mountain biking, and off-road vehicle use 
each year. The number of annual visitor days has grown 376 percent 
since 1977, and the total mileage of trails has grown 56.9 percent to 
accommodate this use. In fiscal year 2014 the trails budget was cut 
nearly 9 percent to $75 million, despite the fact that the Government 
Accountability Office reported in June 2013 that the agency has more 
than a $500 million trail maintenance backlog. Currently, the Forest 
Service is able to maintain only a third of its trail miles to a 
minimum standard condition.

  --In light of the history and conditions we describe above, we urge 
        Congress to fund Capital Improvement and Maintenance Trails at 
        its fiscal year 2010 level of $85,381,000 in fiscal year 2015.
                                 ______
                                 
        Prepared Statement of the Wildlife Conservation Society
    Chairman Reed, Ranking Member Murkowski and members of the 
subcommittee: The Wildlife Conservation (WCS) was founded with the help 
of Theodore Roosevelt in 1895 with the mission of saving wildlife and 
wild places worldwide. Today, WCS manages the largest network of urban 
wildlife parks in the United States led by our flagship, the Bronx Zoo. 
Globally, WCS works to protect 25 percent of the world's biodiversity 
and address four of the biggest issues facing wildlife and wild places: 
climate change; natural resource exploitation; the connection between 
wildlife health and human health; and the sustainable development of 
human livelihoods. While taking on these issues, we manage more than 
200 million acres of protected lands around the world, employing more 
than 4,000 staff including 200 Ph.D. scientists and 100 veterinarians.
    The American conservation tradition is based on promoting 
sustainable use of our natural resources in order to preserve the 
world's species and environment for future generations. In recognition 
of the current fiscal constraints, it is important to note that 
effective natural resources management and conservation has indirect 
economic benefits, including contributing to local economies through 
tourism and other means.
    Domestically, the story of the American bison is an excellent 
example of how long-term conservation and management of a natural 
resource can have a very positive economic impact. Brought to the edge 
of extinction at the end of the 19th century, a few bison were saved, 
mostly through the actions of private ranchers. Conservationists, led 
by Roosevelt and William Hornaday, brought some of the few remaining 
bison to the Bronx Zoo to breed the animals for eventual 
reintroduction. Within 2 years, 15 bison bred in captivity at the Zoo 
were returned to their natural habitat under Federal control in the 
Wichita Mountains Wildlife Refuge in Congressman Cole's district in 
Oklahoma, the very first wildlife refuge in the United States. This is 
the first known instance of a nearly-extinct mammal being successfully 
reestablished.
    Today, more than 20,000 bison are in federally-managed herds and 
serve as major tourist attractions at Yellowstone, Grand Teton, and 
other jewels of the National Park system. States are also successfully 
managing herds, with the Henry Mountains herd in Congressman Stewart's 
district being particularly notable because, in addition to being a 
tourist attraction, it generates revenues through hunting concessions. 
And in every State in the country, private producers manage 200,000 
bison, sustaining thousands of jobs and generating more than $280 
million in revenue. Clearly, the rescue, reestablishment and 
conservation of bison is a great success, both environmentally and 
economically.
    Internationally, by supporting conservation, the U.S. is increasing 
capacity and governance in developing nations and improving our own 
national security as a result. And these efforts are absolutely 
critical, as we have reached a crisis with regard to the trafficking of 
wildlife. U.S Government estimates compiled by the Congressional 
Research Service (CRS) last summer show that illegal trade in 
endangered wildlife products, including elephant ivory, rhino horns, 
and turtle shells, is worth at least an estimated $7 to $10 billion 
annually. When the trade in illegal logging, plants and fisheries are 
also included, CRS states that some estimates exceed $100 billion, 
which would place the illegal wildlife trade among the 10 largest 
criminal activities worldwide. Because of the lucrative nature of this 
industry, evidence is showing increasingly that transnational criminal 
organizations and terrorist groups that are involved in other major 
trafficking operations--drugs, humans and weapons--are engaged in 
wildlife trafficking as well.
    On the ground in Africa and elsewhere, WCS scientists are seeing, 
first-hand, the devastating impact poaching is having on elephants, 
rhinos, tigers, and other iconic species. In 2012 alone, we estimate 
that 35,000 African elephants were killed for their ivory--that is an 
average of 96 elephants per day or one killed every 15 minutes. The 
subspecies of African forest elephants has seen a decline of 65 percent 
since 2002, dwindling to less than 80,000 today. Continued poaching at 
these rates may mean the extinction of forest elephants within a 
decade. Action must be taken now, so that we do not end up where we 
were with bison 100 years ago. Although that story continues to be a 
happy one, there is no guarantee that story of the elephant will not, 
ultimately, be a tragedy.
    The Federal Government recently announced the National Strategy for 
Combating Wildlife Trafficking (National Strategy), which is designed 
to provide a framework for a whole-of-government approach to addressing 
wildlife trafficking. Several programs within this bill form the basis 
upon which that strategy is built. This testimony will touch on several 
of those programs, beginning with the U.S. Fish and Wildlife Service, 
which plays a key role in the National Strategy and U.S. 
antitrafficking efforts.
                united states fish and wildlife service
    Multinational Species Conservation Fund (MSCF).--Global priority 
species--such as tigers, rhinos, African and Asian elephants, great 
apes, and marine turtles--face constant danger from poaching, habitat 
loss and other serious concerns. MSCF programs have helped to sustain 
wildlife populations by controlling poaching, reducing human-wildlife 
conflict, and protecting essential habitat--all while promoting U.S. 
economic and security interests in far reaching parts of the world. 
These programs are highly efficient, granting them an outsized impact 
because they consistently leverage three to four times as much in 
matching funds from corporations, conservation groups, and national 
governments. WCS requests that $10 million be appropriated for the MSCF 
for fiscal year 2015, equal to the fiscal year 2009 funding level.
    WCS has had great success on projects using funds from the MSCF. In 
2009, with support from the African Elephant Conservation Fund, WCS 
launched a new project in collaboration with Bauchi State Government to 
improve levels of protection and reduce rates of elephant poaching in 
Yankari Game Reserve. Yankari contains the largest surviving elephant 
population in Nigeria and one of the largest remaining in West Africa. 
WCS has been able to make substantial progress in building the capacity 
of the ecoguard staff and empowering local authorities to manage this 
population. Despite years of extreme poaching pressure, the number of 
elephants killed this year has been kept to a minimum through constant 
effort and surveillance. A strong team of ecoguards is now using 
durable, GPS-enabled technology to detect illegal activities and report 
back to authorities in an efficient way, utilizing real-time data and 
illustrative maps.
    Wildlife Without Borders Global and Regional Programs.--These 
programs are a great investment in addressing cross-cutting threats to 
ecosystems and wildlife such as disease outbreaks, human-wildlife 
conflict, and the bushmeat trade. Wildlife Without Borders (WWB) is 
making lasting impacts through capacity building, technical support and 
training, local community education and citizen science. In fiscal year 
2015, WCS recommends funding the WWB Global and Regional Programs 
commensurate with the President's request of $7.2 million.
    Created in 2010, the WWB Critically Endangered Animals Fund 
provided over $300,000 in grants in fiscal year 2013 to protect the 
most imperiled species on the planet. This funding was matched more 
than 2 for 1 by non-Federal contributions. A portion of this funding is 
supporting a successful WCS project in Myanmar to ensure a genetically 
diverse, self-sustaining, wild population of the Burmese roofed turtle. 
I urge you to include language in the report to accompany the bill that 
would ensure this small but important program for critically endangered 
species remains open.
    Office of Law Enforcement.--The U.S. remains one of the world's 
largest markets for wildlife and wildlife products, both legal and 
illegal. A small group of dedicated officers at the Fish and Wildlife 
Service (FWS) Office of Law Enforcement (OLE) are tasked with 
protecting fish, wildlife, and plant resources by investigating 
wildlife crimes--including commercial exploitation, habitat 
destruction, and industrial hazards--and monitoring the Nation's 
wildlife trade to intercept smuggling and facilitate legal commerce.
    Many of the new responsibilities placed on the FWS by the National 
Strategy will be enforced by the OLE, and WCS supports the President's 
request for $65.8 million. Most of the proposed increase will go to 
strengthening forensic capabilities needed to address wildlife 
trafficking and expanding the capacity of the Special Investigations 
Unit so that it can maximize the scope and effectiveness of FWS efforts 
to respond to the elephant poaching crisis and shutdown trafficking in 
elephant ivory. This funding, in concert with full implementation of 
the effort to deploy OLE personnel at key embassies overseas, will 
increase investigations involving species that are victimized by 
illegal trade.
    The National Strategy calls for the Federal Government to 
``increase coordination among law enforcement and intelligence agencies 
to enhance the effectiveness of Federal efforts to combat wildlife 
trafficking.'' For no agency is this increased coordination with the 
intelligence community more important than for the OLE. We strongly 
encourage the Committee to include language in the report that would 
facilitate increased coordination between the OLE and the intelligence 
community.
    State and Tribal Wildlife Grants Program.--The State and Tribal 
Wildlife Grants program gives States and tribes funding to develop and 
implement comprehensive conservation plans to protect declining 
wildlife and habitats before protection under the Endangered Species 
Act is necessary. This important program is supported by more than 
6,200 organizations that have formed a national bipartisan coalition 
called Teaming with Wildlife of which WCS is a steering committee 
member. WCS recommends Congress provide $58.7 million, equal to the 
fiscal year 2014 level, for the program to implement State Wildlife 
Action Plans.
                      united states forest service
    International Programs.--The Forest Service International Programs 
(FSIP) level the playing field in international trade for U.S. timber 
producers and reduce illegal logging by providing specialized 
experience. This improves the sustainability and legality of timber 
management overseas which translates to less underpriced timber 
undercutting U.S. producers. FSIP, through partnerships with USAID and 
the Department of State, helps to improve the resource management in 
countries of strategic importance to U.S. security. Resource scarcity 
and unregulated extraction of natural resources--whether water, food, 
timber, or minerals--is often a root cause of unrest and corruption, 
both of which undermine democracy, the rule of law and political 
stability. FSIP has increasingly leveraged modest funding from Congress 
to make a big impact for the U.S. taxpayer. For every Federal dollar 
invested in FSIP, four additional dollars is leveraged in matching 
funds and other contributions from partners. WCS requests that the 
fiscal year 2014 enacted level of $8 million for the FSIP is maintained 
in fiscal year 2015.
    With technical and financial support from FSIP, WCS has been 
working to conserve a biologically rich temperate forest zone called 
the Primorye in the Russian Far East. The region hosts over a hundred 
endangered species as well as numerous threatened species, including 
the Far Eastern leopard and Amur tiger. Habitat conservation for these 
animals, which are dependent on large tracts of intact forest 
ecosystem, benefits associated species and biodiversity in the region. 
FSIP works with us to exchange information and methodologies with 
Russian scientists, managers, and students on a variety of wildlife-
related topics to support conservation and capacity building efforts 
and ensure the sustainable management of forests and wildlife habitat.
                  united states national park service
    Office of International Affairs.--In 1961, the U.S. Government 
initiated its first international conservation program with the 
creation of the Office of International Affairs (OIA). Since then, this 
office has facilitated technical assistance and exchange projects with 
counterpart agencies globally building on the legacy of American 
leadership in national parks management. OIA is also the managing 
agency for World Heritage Sites located in the United States. Thanks to 
this program, NPS is working on collaborative areas of trans-frontier 
concern, including at the Beringia Shared Heritage Initiative (U.S.-
Russia), which WCS has been involved with as part of our ongoing 
conservation efforts in Arctic Alaska. WCS is currently studying the 
behavior and survivorship of migratory birds that travel to Teshekpuk 
Lake in Alaska's National Petroleum Reserve to nest each year, as well 
as the impacts climate change is having on Alaska's walrus populations. 
The international work conducted by NPS is not only about helping other 
countries protect their parks and heritage. It is about bringing home 
best practices and learning from international engagement that could 
benefit the American parks. WCS recommends including the President's 
request of $897,000 for the OIA in fiscal year 2015.
    In conclusion, I appreciate the opportunity to share WCS's 
perspectives and make a case for increased investment in conservation 
in the fiscal year 2015 Interior, EPA and Related Agencies 
Appropriations Act. Conservation of public lands is an American 
tradition and, as far back as 1909, Theodore Roosevelt recognized that 
the management of our natural resources requires coordination between 
all nations. Continued investment in conservation will reaffirm our 
global position as a conservation leader, while improving our national 
security and building capacity and good governance in developing 
countries. Thank you.
                                 ______
                                 
               Prepared Statement of the Wildlife Society
    The Wildlife Society appreciates the opportunity to provide 
testimony on the fiscal year 2015 budget for the Department of 
Interior, Environment, and Related Agencies. The Wildlife Society was 
founded in 1937 and is a non-profit scientific and educational 
association representing nearly 10,000 professional wildlife biologists 
and managers, dedicated to excellence in wildlife stewardship through 
science and education. Our mission is to represent and serve the 
professional community of scientists, managers, educators, technicians, 
planners, and others who work actively to study, manage, and conserve 
wildlife and habitats worldwide.
                united states fish and wildlife service
    The State and Tribal Wildlife Grants Program is the only Federal 
program that supports States in preventing wildlife from becoming 
endangered. It is also the primary program supporting implementation of 
State Wildlife Action Plans, which detail on the ground conservation 
actions in each State to keep common species common. Funding assistance 
for State wildlife agencies is one of the highest priority needs to 
prevent further declines in at-risk species in every State. Previous 
budget reductions and sequestration have had a serious and 
disproportionate impact on State and Tribal Wildlife Grants. 
Compounding these impacts is a decrease in funding recommended in the 
President's budget, to $50 million in fiscal year 2015. We recommend 
Congress appropriate at least $58.7 million for State and Tribal 
Wildlife Grants to maintain level funding in fiscal year 2015. We also 
ask that Congress not shift additional funds directed to States through 
formula grants to a competitive allocation. This funding is critical 
for maintaining wildlife diversity programs at the State level and a 
further reduction in the formula grants may have dramatic negative 
consequences.
    As a member of the Cooperative Alliance for Refuge Enhancement, or 
CARE, The Wildlife Society supports the President's request for the 
National Wildlife Refuge System's operations and maintenance accounts 
at $476.4 million for fiscal year 2015. CARE estimates that the Refuge 
System needs at least $900 million in annual operations and maintenance 
funding to properly administer its 562 refuges and 38 wetland 
management districts spanning over 150 million acres. Given current 
fiscal realities, we understand that funding at $900 million is not 
currently possible. However, at its highest funding level in fiscal 
year 2010, the Refuge System received only $503 million--little more 
than half the needed amount. Since that time, congressional 
appropriations have not only failed to account for rising costs, but 
have been steadily backsliding resulting in the loss of 324 employees 
since 2011, or 9 percent of all staff. Yet the Refuge System actually 
pays for itself several times over by generating $4.87 in economic 
activity for every $1 appropriated by Congress to run the Refuge 
System.
    The North American Wetlands Conservation Act is a cooperative, non-
regulatory, incentive-based program that has shown unprecedented 
success in restoring wetlands, waterfowl, and other migratory bird 
populations. This program has remained drastically underfunded despite 
its demonstrated effectiveness. We support the President's request of 
$34.1 million and encourage Congress to match this request for fiscal 
year 2015.
    The Neotropical Migratory Bird Conservation Act Grants Program 
supports partnership programs to conserve birds in the U.S., Latin 
America and the Caribbean, where approximately 5 billion birds 
representing 341 species spend their winters, including some of the 
most endangered birds in North America. This program should be funded 
at or above $6.5 million to achieve maximum success. However, 
recognizing the current fiscal climate, The Wildlife Society recommends 
Congress maintain level funding for the Neotropical Migratory Bird 
Conservation Act at $3.7 million in fiscal year 2015.
    The Wildlife Society supports adequate funding levels for all three 
subactivities within the Ecological Services Program. Endangered 
species recovery efforts can ultimately lead to delisting, resulting in 
significant benefits to species through State management efforts. FWS, 
with the help of Federal and State agency partners, has been working to 
implement new strategies to increase the efficiency and effectiveness 
of this program and to reduce the regulatory burden on private 
landowners and industry partners. To support these actions and the 
increased emphasis on consultation and recovery, we recommend Congress 
match the President's request and provide $28 million for Listing, $105 
million for Planning and Consultation, and $124 million for 
Conservation and Restoration in fiscal year 2015.
    The voluntary Partners for Fish and Wildlife Program (PFW) provides 
financial and technical assistance to private landowners across the 
country to restore degraded habitat and to safeguard against potential 
regulatory burdens associated with endangered species listings. With 
over two-thirds of our Nation's lands held as private property, and up 
to 90 percent of some habitats lost, private lands play a key role in 
preserving our ecosystem. For example, working under a new MOU with the 
Natural Resource Conservation Service, PFW has been critical in 
engaging private landowners to restore and maintain habitat for the 
Greater-sage Grouse in States like Idaho and Nevada; potentially 
removing the need for a future listing. We urge Congress to provide $60 
million in support of the PFW Program in fiscal year 2015 in order to 
allow landowners to help contribute to land and wildlife preservation.
    Through its International Affairs office, FWS works with many 
partners and countries in the implementation of international treaties, 
conventions, and projects for the conservation of wildlife species and 
their habitats. International trade, import, and transportation of 
wildlife species can have a huge impact on America's security, economy, 
and environment. Careful regulation of imports and implementation of 
international policies is an important task. We ask Congress to match 
the President's request of $14.6 million in support of FWS 
International Affairs in fiscal year 2015.
                       bureau of land management
    The Bureau of Land Management (BLM) lands support over 3,000 
species of wildlife, more than 300 federally proposed or listed 
species, and more than 1,300 sensitive plant species. Historically, the 
Wildlife and Fisheries Management (WFM) and the Threatened and 
Endangered Species Management (TESM) programs have been forced to pay 
for the compliance activities of BLM's energy, grazing, and other non-
wildlife related programs, eroding both their ability to conduct 
proactive conservation activities and their efforts to recover listed 
species. Given the significant underfunding of the BLM's wildlife 
programs, combined with the tremendous expansion of energy development 
across the BLM landscape, we recommend Congress appropriate $52.6 
million for BLM Wildlife Management in fiscal year 2015. This will 
allow BLM to maintain and restore wildlife and habitat by monitoring 
habitat conditions, conducting inventories of wildlife resources, and 
developing cooperative management plans. We support the proposed 
increase of $15 million for sage grouse conservation efforts; this kind 
of broad-scale, landscape based conservation is exactly what is needed 
to manage and conserve sage grouse across their range.
    Increased funding is also needed for the Threatened and Endangered 
Species Management Program, to allow BLM to meet its responsibilities 
in endangered species recovery plans. BLM's March 2001 Report to 
Congress called for a doubling of the Threatened and Endangered Species 
budget to $48 million and an additional 70 staff positions over 5 
years. This goal has yet to be met. In light of this, we strongly 
encourage Congress to increase overall funding for BLM's endangered 
species program to $48 million in fiscal year 2015.
    The Wildlife Society, part of the National Horse and Burro 
Rangeland Management Coalition, appreciates the commitment of BLM to 
addressing the problems associated with Wild Horse and Burro 
Management. We support the requested increase of $2.8 million for 
implementation of the National Academy of Sciences recommendations and 
findings and continued research and development on contraception and 
population control. However, with more than 12,000 horses above BLM's 
stated Appropriate Management Levels on the range and nearly 50,000 
horses in off-site long- and short-term holding facilities The Wildlife 
Society is concerned about BLM's emphasis on fertility control alone. 
The current language limiting the use of humane euthanasia for unwanted 
or unadoptable horses should be removed to allow BLM to use all 
necessary management tools to bring populations of on- and off-range 
wild horses and burros within manageable range and additional funding 
should be requested to correct the habitat damage that has occurred due 
to overpopulation of these animals. The requested $80.2 million should 
be provided to BLM if they continue removing excess horses from the 
range at a reasonable rate and focus additional resources on habitat 
restoration.
                    united states geological survey
    The basic, objective, and interdisciplinary scientific research 
that is supported by the United States Geological Survey (USGS) is 
necessary for understanding the complex environmental issues facing our 
Nation today. This science will play an essential role in the 
decisionmaking processes of natural resource managers, and it will help 
protect our water supply and conserve endangered species. More 
investment is needed to strengthen USGS partnerships, improve 
monitoring, produce high-quality geospatial data, and deliver the best 
science to address critical environmental and societal challenges. The 
Wildlife Society supports funding of at least $1.1 billion for USGS in 
fiscal year 2015.
    The Ecosystems Program of USGS contains programmatic resources for 
fisheries, wildlife, environments, invasive species and the Cooperative 
Fish and Wildlife Research Unit. The Ecosystems program strives to 
maximize research and support for comprehensive biological and 
ecosystem based needs. The Wildlife Society supports the President's 
request of $162 million for USGS's Ecosystems Department in fiscal year 
2015. Within Ecosystems, we support the request of $45.1 million for 
the Wildlife Program. Additionally, we appreciate the requested 
addition of $300,000 for pollinator research and of $1 million for 
research on the impacts of future energy development on wildlife 
sustainability.
    The Cooperative Fish and Wildlife Research Units (CFWRUs) are 
managed under the Ecosystems Department and conduct research on 
renewable natural resource questions, participate in the education of 
graduate students, provide technical assistance and consultation on 
natural resource issues, and provide continuing education for natural 
resource professionals. In fiscal year 2001, Congress fully funded the 
CFWRUs, allowing unit productivity to rise to record levels. Since 
then, budgetary shortfalls have continued to cause an erosion of 
available funds, resulting in a current staffing vacancy of nearly one 
quarter of the professional workforce. In order to fill current 
vacancies, restore seriously eroded operational funds for each CFWRU, 
and enhance national program coordination, the fiscal year 2015 budget 
for the CFWRUs should be increased to $18.5 million, the level 
requested by the President. This would restore necessary capacity in 
the CFWRU program and allow it to meet the Nation's research and 
training needs.
    The Wildlife Society appreciates the fiscal year 2014 funding of 
$25.5 million for the National Climate Change and Wildlife Science 
Center. This center plays a pivotal role in addressing the impacts of 
climate change on fish and wildlife by providing essential scientific 
support. In order for this role to be fully realized, The Wildlife 
Society recommends that Congress fund the National Climate Change and 
Wildlife Science Center at the requested $35.3 million in fiscal year 
2015.
                      united states forest service
    Our national forests and grasslands are essential to the 
conservation of our Nation's wildlife and habitat, and are home to 
about 425 threatened and endangered species, and another 3,250 at-risk 
species. In fiscal year 2011, the Forest Service combined several 
programs and budgets, including Vegetation and Watershed Management, 
Wildlife and Fisheries Habitat Management, and Forest Products into a 
single Integrated Resource Restoration activity budget. We continue to 
be concerned with this merger because it makes accountability to 
stakeholders and Congress more difficult. However, with these 
reservations noted, we urge Congress to support the request of $820 
million for the Integrated Resource Restoration program in fiscal year 
2015.
    Integral to management of our natural resources is a deep 
understanding of the biological and geological forces that shape the 
land and its wildlife and plant communities. The research being done by 
the USFS is at the forefront of science, and essential to improving the 
health of our Nation's forests and grasslands. Furthermore, it will 
play a key role in developing strategies for mitigating the effects of 
climate change. We urge Congress to match the President's request of 
$275 million in fiscal year 2015 for Forest and Rangelands to support 
this high-quality research.
            department of interior wildland fire management
    The Wildlife Society supports the request for $30.0 million to 
establish a new ``Resilient Landscapes'' activity to improve the 
integrity and resilience of forests and rangelands by restoring natural 
vegetation landscapes to specific conditions and maintaining fire 
resiliency.
    Thank you for considering the recommendations of wildlife 
professionals.
                                 ______
                                 
             Prepared Statement of the World Wildlife Fund
    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee, World Wildlife Fund (WWF) requests your support for a 
number of important conservation programs within the Department of the 
Interior and U.S. Fish and Wildlife Service (USFWS). WWF is the largest 
private conservation organization working internationally to conserve 
wildlife and nature. WWF currently sponsors conservation programs in 
more than 100 countries with the support of 1.2 million members in the 
United States and more than 5 million members worldwide. We 
respectfully request that the subcommittee fund the following programs 
at the following levels in fiscal year 2015:
  --U.S. Fish and Wildlife Service Office of Law Enforcement at no less 
        than the administration's request of $66.7 million, including 
        additional funding to support implementation of the National 
        Strategy on Wildlife Trafficking and at least $4.8 million for 
        Lacey Act enforcement.
  --U.S. Fish and Wildlife Service Office of International Affairs at 
        the administration's request of $14.6 million, including 
        additional funding to support implementation of the National 
        Strategy on Wildlife Trafficking.
  --U.S. Fish and Wildlife Service Multinational Species Conservation 
        Funds at $10 million, $900,000 above the administration's 
        request.
    One of WWF's top priorities is supporting efforts to combat 
wildlife trafficking and the current global poaching crisis. The 
illegal trade in wildlife, including timber and fish, is worth $10-20 
billion annually and is ranked among the top five most lucrative 
criminal activities worldwide. Wildlife trafficking is strongly linked 
to transnational organized crime organizations and other criminal 
activities, such as arms and drug trafficking. Large-scale illegal 
trade in wildlife, driven largely by soaring demand in Asia for 
wildlife products, has sparked a poaching crisis that is pushing some 
of our most iconic species towards extinction, including elephants, 
tigers and rhinos. This crisis is also having a devastating impact on 
local communities and undermining regional security and economic growth 
in the developing world, including in countries of strategic importance 
to the United States. According to an assessment released by Federal 
intelligence agencies in September 2013, there is also significant 
evidence that wildlife trafficking is helping to finance armed 
insurgencies and groups with ties to terrorism, including the Lord's 
Resistance Army, the Janjaweed, and al-Shabaab. Last year alone, an 
estimated 30,000-35,000 elephants were killed illegally throughout 
Africa. In the past 10 years, the number of forest elephants in Central 
Africa has dropped by two-thirds, putting them on the path to 
extinction within the next 10 years. East Africa is also being hit 
hard: in January, the Tanzanian Government released numbers showing 
that the population of elephants in that country's Selous Game Reserve 
had fallen 66 percent in just 4 years--a shocking decline for a reserve 
that until recently was home to Africa's second largest concentration 
of elephants. In South Africa, the number of rhinos lost to poaching 
has jumped 7000 percent between 2007 and 2013. A record 1004 South 
African rhinos were illegally killed for their horns in 2013--up 50 
percent from the year before and a stunning increase from only 13 
poaching incidents in 2007. As few as 3200 tigers remain in the wild in 
all of Asia, due in large part to poachers killing the animals for 
their skins, bones and other body parts. Several of the agencies and 
programs that this subcommittee helps to fund play essential roles in 
combating this crisis, which is robbing developing countries of natural 
resources and economic opportunities, harming American businesses by 
flooding global markets with cheap illegal forest and fish products, 
and threatening U.S. security interests. Recognizing the seriousness of 
the situation, the President issued an Executive Order on July 2013 and 
mandated a National Strategy for Combatting Wildlife Trafficking, 
released in February 2014, which calls on all relevant agencies to work 
together as part of a whole-of-government response to the crisis. The 
Department of Interior and the Fish and Wildlife Service will carry a 
large part of the responsibility for implementing the Strategy, and we 
believe they should be provided with the necessary resources to be 
successful.
   united states fish and wildlife service office of law enforcement
    The USFWS Office of Law Enforcement (OLE) investigates wildlife 
crimes, enforces regulation of wildlife trade, helps citizens comply 
with the law, and works with other international and U.S. Government 
entities to carry out its mission. Its agents and investigators also 
have a central role in implementing the new National Strategy on 
Wildlife Trafficking and enforcing new domestic regulations on elephant 
ivory. OLE wildlife inspectors are on the front lines in the fight 
against wildlife trafficking, working in nearly 40 designated and non-
designated ports of entry around the country. In fiscal year 2011, they 
processed 179,000 declared shipments of wildlife and wildlife products 
worth more than $2.8 billion. OLE's special agents are expert 
investigators that break up smuggling rings, stop commercial 
exploitation of protected U.S. species, and work with States to protect 
U.S. game species from poaching. ``Operation Crash'' is an ongoing 
nationwide criminal investigation led by the U.S. Fish and Wildlife 
Service that is addressing all aspects of U.S. involvement in the black 
market rhino horn trade. The first phase of this probe, focused on 
unlawful purchase and outbound smuggling of rhino horn from the U.S., 
has resulted in 15 arrests and nine convictions to date, involving 
charges include conspiracy, smuggling, money laundering, tax evasion, 
bribery, and making false documents, as well as violations of the 
Endangered Species Act and Lacey Act (the primary domestic law against 
wildlife trafficking). Eight arrests were made in February 2012 as part 
of a nationwide ``takedown'' that involved more than 140 law 
enforcement officers executing search warrants in 13 States; 2013 has 
seen the arrests and indictments of several other individuals 
(including Chinese and U.S. antiques dealers) who were operating a 
second large-scale rhino horn and elephant ivory smuggling network. In 
spite of successes such as this one, OLE is severely underfunded to 
meet the rapidly growing challenges it faces, including the need to 
place agents at key posts around the world to assist in shutting down 
global wildlife smuggling rings. OLE's budget has suffered a 17.8 
percent reduction in real dollars since fiscal year 2010, limiting its 
ability to investigate and prosecute wildlife crimes and help citizens 
to comply with the law. Budget cuts through fiscal year 2013 have 
caused cancellation of plans to hire 24 more special agents and 
prevented vacancies from being filled for 14 front line inspectors as 
well as 3 forensics experts for the Clark R. Bavin National Fish and 
Wildlife Forensics Laboratory in Ashland, Oregon--the only laboratory 
in the world dedicated to solving wildlife crimes and a unique asset in 
efforts to crack down on ivory and rhino horn smuggling. USFWS OLE is 
also responsible for enforcing of the Lacey Act and its expansion to 
cover plants and plant products, and additional funding is needed to 
carry out enforcement activities against those actors that choose to 
trade in illegal timber and timber products. The illegal timber trade 
is estimated to cost U.S. industry $1 billion annually. With public 
enforcement cases, FWS sends a message that illegal activities will not 
be tolerated. Due to pressing needs and enhanced responsibilities under 
the National Strategy on Wildlife Trafficking, WWF recommends at least 
$66.7 million for the USFWS Office of Law Enforcement, consistent with 
the administration's fiscal year 2015 budget request, including at 
least $4.8 million for Lacey Act enforcement.
united states fish and wildlife service office of international affairs
    The USFWS International Affairs (IA) program supports efforts to 
conserve our planet's wildlife and biodiversity by protecting habitat, 
combating illegal wildlife trade and building capacity for landscape-
level wildlife conservation around the world. The program's three 
divisions--the Division of International Conservation, the Division of 
Management Authority and the Division of Scientific Authority--manage 
various components of international wildlife conservation. The Division 
of Management Authority and the Division of Scientific Authority run 
the International Wildlife Trade (IWT) program, which provides 
oversight of domestic laws and international treaties that promote the 
long-term conservation of plant and animal species by ensuring that 
international trade and other activities do not threaten their survival 
in the wild. IWT works to prevent illegal trade in wildlife and 
wildlife products, which threatens vulnerable wildlife populations, 
undermines U.S. foreign policy and security objectives by financing 
criminality and corruption, and transmits diseases and invasive 
species, which negatively impact public health and economic 
productivity in the U.S.--one of the largest importers and exporters of 
wildlife products. IWT ensures trade is legal and does not harm species 
in the wild while implementing scientific and management requirements 
of laws and treaties for traded species and issuing 15,000-20,000 
permits per year. Working with governments, industry and experts around 
the world, IWT also strives to establish conservation programs that 
include sustainable use, supporting economic opportunity while also 
conserving species. IWT also leads the U.S. Government's active 
engagement on the Convention on International Trade in Endangered 
Species of Fauna and Flora (CITES), which is one of the most important 
tools for combating the global illegal wildlife trade. The Division of 
International Conservation provides critical support to on-the-ground 
species conservation through its Wildlife Without Borders (WWB) 
programs and signature initiatives. The WWB Regional program supports 
species and habitat conservation in priority regions, including Africa, 
Latin America and the Caribbean and Mexico, through capacity building, 
outreach, education and training. This includes training African 
wildlife professionals to combat the bushmeat trade and working to 
bolster wildlife laws and increase enforcement capacity in African 
countries. The WWB Global program targets crosscutting, global threats 
to wildlife, supports signature initiatives to maximize long-term 
impact, and address declines of critically endangered species, such as 
amphibians. From 2007 to 2013, the WWB Regional and Global Programs 
supported more than 940 conservation projects, awarded over $31 million 
in grants and leveraged an additional $46 million in matching funds for 
on-the-ground wildlife conservation programs, education, training and 
outreach. We recommend $14.6 million for the Office of International 
Affairs, consistent with the administration's fiscal year 2015 budget 
request.
     united states fish and wildlife service multinational species 
                           conservation funds
    Through the Multinational Species Conservation Funds (MSCF), the 
United States supplements the efforts of developing countries 
struggling to balance the needs of their human populations and endemic 
wildlife. These modest Federal programs, administered by USFWS, make 
targeted investments in conservation of several global priority 
species. In 1989, Congress passed the African Elephant Conservation Act 
authorizing a dedicated fund in response to the threat posed to that 
species by rampant ivory poaching. Four more Funds have since been 
authorized to support the conservation of Asian elephants, great apes, 
marine turtles, and tigers and rhinos. Each of the funds is authorized 
at $5 million, with the exception of the Rhino-Tiger Conservation Fund, 
which was intended as a double fund to address both sets of species, 
and is therefore authorized at $10 million. Appropriated funds for the 
programs have consistently remained roughly 30 percent or less of the 
authorized level. MSCF programs have played a critical role in saving 
wild populations of these species by controlling poaching, reducing 
human-wildlife conflict and protecting essential habitat. In light of 
the resurgence of a severe poaching crisis in Africa, these funds are 
just as important and relevant now as they were when Congress passed 
them.
    Support from the Rhino-Tiger Conservation Fund (RTCF) and the Asian 
Elephant Conservation Fund (AsECF) to World Wildlife Fund (WWF) and its 
local partners has contributed to incredible successes in protecting 
endangered wildlife in Nepal. The funds have supported anti-poaching, 
habitat restoration and species monitoring that, combined with 
community-level engagement and strong government support, helped to 
ensure that no rhinos, tigers or elephants were poached in Nepal 
between February 2012 and February 2013. This is the second time Nepal 
has celebrated a year of zero-poaching (the first was in 2011) in spite 
of rising demand for rhino horn and ivory on Asian black markets and a 
sharp increases in the number of rhinos and elephants killed in Africa 
over the same period. In addition, RTCF funding has supported efforts 
that have led to a 63 percent increase in Nepal's tiger population from 
2009 to 2013 and is supporting the creation and expansion of tiger 
reserves and protected areas in Malaysia, India and Thailand as well as 
anti-poaching and enforcement efforts on the Indonesian island of 
Sumatra. Also on Sumatra, AsECF support to World Wildlife Fund has 
helped to established ``Flying Squads''--teams of rangers equipped with 
noise and light-making devices and trained elephants that drive wild 
elephants back into the forest whenever they threaten to enter 
villages. The Squads have reduced losses suffered by local communities 
and prevented retaliatory killings. In 2009, they helped reduce 
elephant mortality in the Riau region by 27 percent in 2009 compared to 
the previous 4 years. The African Elephant Conservation Fund (AfECF) is 
supporting improved protected area enforcement in several African 
countries, including hiring and training of local ``ecoguards'' to 
protect populations of elephants and other threatened wildlife. In 
Cameroon's Campo Ma'an National Park, the AfECF supported a large-scale 
anti-poaching operation involving village and forest patrols, soldiers 
and game guards that flushed out four suspected poachers, including two 
notorious elephant poachers, and resulted in the seizure of 450 lbs. of 
bushmeat. Since 2008, the Great Ape Conservation Fund (GACF) has been 
supporting conservation efforts in Virunga National Park--Africa's 
oldest national park (established in 1925), which contains some of the 
richest biodiversity of any protected area on the continent and one of 
the largest populations of endangered mountain gorillas. GACF funding 
has helped to improve law enforcement and training for park rangers, 
develop alternative fuel sources to reduce the destructive practice of 
charcoal creation from the park's forests, increase aerial surveillance 
capacity, and grow the park's tourist revenue through a chimpanzee 
habituation and tourism project that generated nearly $1 million in 
2011 alone. In the Solomon Islands of the Pacific, the Marine Turtle 
Conservation Fund (MTCF) has supported WWF conservation activities on 
important nesting beaches for endangered sea turtles, including turtle 
tagging, DNA sampling, nesting beach cleanups, hatchery construction, 
workshops on community-based monitoring, and active monitoring of nests 
during the turtles' nesting seasons. Hatchling success has grown each 
year since the program began.
    These programs have proven remarkably successful, generating 
enormous constituent interest and strong bipartisan support in 
Congress. Since 1989, they have awarded over 2,300 grants and actively 
engaged with nearly 600 domestic and foreign partners, working in over 
54 foreign countries. From 2007 to 2013, MSCF programs provided $77 
million in grant funding for on-the-ground conservation, leveraging 
nearly $117 million in additional matching funds. WWF recommends $10 
million for the Multinational Species Conservation Funds, an increase 
of $900,000 over the Administration's fiscal year 2015 budget request.
    Thank you for considering these requests.

       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Aleutian Pribilof Islands Association, Prepared Statement of the.   189
Alexander, Senator Lamar, U.S. Senator From Tennessee, Questions 
  Submitted by...................................................    75
Alliance for Community Trees, Prepared Statement of the..........   192
American:
    Alliance of Museums, Prepared Statement of the...............   194
    Cultural Resources Association (ACRA), Prepared Statement of 
      the........................................................   197
    Forest:
        And Paper Association, Prepared Statement of the.........   198
        Foundation, Prepared Statement of the....................   200
    Forests, Prepared Statement of...............................   202
    Geosciences Institute, Prepared Statement of the.............   205
    Hiking Society, Prepared Statement of the....................   208
    Indian Higher Education Consortium, Prepared Statement of the   208
    Institute of Biological Sciences, Prepared Statement of the..   211
Animal Welfare Institute, Prepared Statement of the..............   213
Appalachian Trail Conservancy, Prepared Statement of the.........   217
APS Four Corners Power Plant, Prepared Statement of the..........   219
ASME Environmental Protection Agency Task Force, Prepared 
  Statement of the...............................................   220
Association of:
    Art Museum Directors, Prepared Statement of the..............   222
    State Drinking Water Administrators, Prepared Statement of 
      the........................................................   225
    Zoos and Aquariums, Prepared Statement of the................   228

Blunt, Senator Roy, U.S. Senator From Missouri, Questions 
  Submitted by...................................................    78
Bristol Bay Area Health Corporation, Prepared Statement of the...   229
Bushnell, Jay, Prepared Statement of.............................   231

Center for Biological Diversity, Prepared Statement of the.......   233
Central:
    Arizona Project, Prepared Statement of the...................   236
    Utah Water Conservancy District, Prepared Statement of the...   238
Children's Environmental Health Network, Prepared Statement of 
  the............................................................   238
Choctaw Nation of Oklahoma, Prepared Statement of the............   241
Choose Clean Water Coalition, Prepared Statement of the..........   243
City of:
    Aurora, Prepared Statement of the............................   245
    Farmington, Prepared Statement of the........................   245
Civil War Trust, Prepared Statement of the.......................   246
Coalition Against Forest Pests, Prepared Statement of the........   247
Cochran, Senator Thad, U.S. Senator From Mississippi, Questions 
  Submitted by 


Colorado:
    River:
        Basin Salinity Control Forum, Prepared Statement of the..   249
        District--Colorado River Water Conservation District, 
          Prepared Statement of the..............................   250
    Springs Utilities, Prepared Statement of the.................   251
Columbia River Inter-Tribal Fish Commission, Prepared Statement 
  of the.........................................................   251
Congressional Fire Services Institute, the International 
  Association of Fire Chiefs, and the National Volunteer Fire 
  Council, Prepared Statement of the.............................   254
Connor, Hon. Mike, Deputy Secretary, Office of the Secretary, 
  Department of the Interior.....................................     1
Conservation Fund, Prepared Statement of the.....................   255
Cooperative Alliance for Refuge Enhancement, Prepared Statement 
  of the.........................................................   258
Corps Network, Prepared Statement of the.........................   261
Council of Athabascan Tribal Governments, Prepared Statement of 
  the............................................................   263
Cowlitz Indian Tribe, Prepared Statement of the..................   265

Dance/USA, Prepared Statement of.................................   268
Defenders of Wildlife, Prepared Statement of.....................   270
Denver Water, Prepared Statement of..............................   273
Dixon, Tony, Director, Strategic Planning, Budget, and 
  Accountability, United States Forest Service, Department of 
  Agriculture....................................................   127

Edison Electric Institute, Prepared Statement of the.............   274
Entomological Society of America, Prepared Statement of the......   276

Federal Forest Resource Coalition, Prepared Statement of the.....   278
Federation of State Humanities Councils, Prepared Statement of 
  the............................................................   281
Feinstein, Senator Dianne, U.S. Senator From California, 
  Questions Submitted by 



Fire Suppression Funding Solutions Partner Caucus, Prepared 
  Statement of the...............................................   284
Friends of:
    Bon Secour National Wildlife Refuge, Prepared Statement of 
      the........................................................   287
    Maine's Seabird Islands (FOMSI), Prepared Statement of the...   288
    Rachel Carson NWR, Prepared Statement of the.................   290
    The:
        Florida Panther Refuge, Prepared Statement of the........   291
        Silvio O. Conte Fish and Wildlife Refuge, Prepared 
          Statement of the.......................................   293
        Tampa Bay National Wildlife Refuges, Inc., Prepared 
          Statement of the.......................................   294
Froehlich, Maryann, Acting Chief Financial Officer, Environmental 
  Protection Agency..............................................    83

Geological Society of America, Prepared Statement of the.........   296
Great Salt Lake Council of the Boy Scouts of America, Prepared 
  Statement of the...............................................   298

Haze, Pamela K., Deputy Assistant Secretary, Budget, Finance, 
  Performance and Acquisition, Office of the Secretary, 
  Department of the Interior.....................................     1
Healing Our Waters-Great Lakes Coalition, Prepared Statement of..   299
Hoeven, Senator John, U.S. Senator From North Dakota, Questions 
  Submitted by 



Hopi Tribe, Prepared Statement of the............................   302
Humane Society of the United States (HSUS), Prepared Statement of 
  the............................................................   302

Independent Tribal Courts Review Team, Prepared Statement of the.   305
Interstate Mining Compact Commission, Prepared Statement of the..   307
Intertribal Timber Council, Prepared Statement of the............   310

Jamestown S'Klallam Tribe, Prepared Statement of the.............   313
Jewell, Hon. Sally, Secretary, Office of the Secretary, 
  Department of the Interior.....................................     1
    Prepared Statement of........................................    10
    Summary Statement of.........................................     6
Jicarilla Apache Nation, Prepared Statement of the...............   316
Johanns, Senator Mike, U.S. Senator From Nebraska, Questions 
  Submitted by...................................................    81
Johnson, Senator Tim, U.S. Senator From South Dakota, Questions 
  Submitted by 



King, Mrs. Barbara, Prepared Statement of........................   316

League of American Orchestras, Prepared Statement of the.........   319
Leahy, Senator Patrick J., U.S. Senator From Vermont:
    Prepared Statement of........................................    86
    Questions Submitted by.......................................   115

Maniilaq Association, Prepared Statement of the..................   322
McCarthy, Hon. Gina, Administrator, Environmental Protection 
  Agency.........................................................    83
    Prepared Statement of........................................    88
    Summary Statement of.........................................    87
Meineck, Dr. Peter, Prepared Statement of........................   324
Metropolitan Water District of Southern California, Prepared 
  Statement of the...............................................   327
Murkowski, Senator Lisa, U.S. Senator From Alaska:
    Questions Submitted by 



    Statements of 



National:
    Association of:
        Abandoned Mine Land Programs, Prepared Statement of the..   328
        Clean Air Agencies, Prepared Statement of the............   333
        State:
            Energy Officials, Prepared Statement of the..........   335
            Foresters, Prepared Statement of the.................   337
    Conference of State Historic Preservation Officers, Prepared 
      Statement of the...........................................   340
    Congress of American Indians, Prepared Statement of the......   343
    Indian:
        Child Welfare Association, Prepared Statement of the.....   346
        Education Association, Prepared Statement of the.........   348
    Institutes for Water Resources, Prepared Statement of the....   351
    Parks Conservation Association, Prepared Statement of the....   353
    Recreation and Park Association, Prepared Statement of the...   356
    Trust for Historic Preservation, Prepared Statement of the...   359
    Wildlife:
        Federation, Prepared Statement of the....................   362
        Refuge Association, Prepared Statement of the............   365
Native:
    Hawaiian Education Council, Prepared Statement of the........   368
    Village of Barrow, Prepared Statement of the.................   370
Nature Conservancy, Prepared Statement of the....................   371
Navajo Nation, Prepared Statement of the.........................   374
New England Forest Policy Group, Prepared Statement of the.......   375
Nez Perce Tribe, Prepared Statement of the.......................   378
Northern Water--The Northern Colorado Water Conservancy District, 
  Prepared Statement of..........................................   381
Northwest Indian Fisheries Commission, Prepared Statement of the.   382
Norton Sound Health Corporation, Prepared Statement of the.......   384

OPERA America <rm-bond> The National Opera Center, Prepared 
  Statement of...................................................   387
Oregon Water Resources Congress, Prepared Statement of the.......   389
Outdoor Industry Association, Prepared Statement of the..........   391
Outdoors Alliance for Kids, Prepared Statement of the............   393

Pacific Salmon Commission, Prepared Statement of the.............   394
Partnership for the National Trails System, Prepared Statement of 
  the............................................................   396
Performing Arts Alliance, Prepared Statement of the..............   399
Preservation Action, Prepared Statement of.......................   402
Public Service Company of New Mexico (PNM), Prepared Statement of 
  the............................................................   404

Reed, Senator Jack, U.S. Senator From Rhode Island:
    Opening Statements of 



    Questions Submitted by 



Restore America's Estuaries, Prepared Statement of...............   405

Sac and Fox Nation, Prepared Statement of the....................   407
San Juan Water Commission, Prepared Statement of the.............   409
Seattle Indian Health Board, Prepared Statement of the...........   410
Shoalwater Bay Tribe, Prepared Statement of the..................   413
Society:
    For Historical Archaeology (SHA), Prepared Statement of the..   414
    Of American Foresters, Prepared Statement of the.............   415
Southern Ute Indian Tribe, Prepared Statement of the.............   417
Southwestern Water Conservation District, Prepared Statement of 
  the............................................................   418
Squaxin Island Tribe, Prepared Statement of the..................   419
St. Regis Mohawk Tribe, Prepared Statement of the................   421
State of New Mexico, Prepared Statement of the...................   423
Suh, Hon. Rhea, Assistant Secretary, Policy, Management and 
  Budget, Office of the Secretary, Department of the Interior....     1
Suquamish Tribe, Prepared Statement of the.......................   424
Sustainable Urban Forests Coalition, Prepared Statement of the...   424

Teaming With Wildlife Steering Committee, Prepared Statement of 
  the............................................................   426
Theatre Communications Group, Prepared Statement of the..........   427
Tidwell, Tom, Chief, United States Forest Service, Department of
  Agriculture....................................................   127
    Prepared Statement of........................................   133
    Summary Statement of.........................................   131
Town of Baldwin, Florida, Prepared Statement of the..............   429
Tri-County Water Conservancy District, Prepared Statement of the.   432
Tribal Education Departments National Assembly, Prepared 
  Statement of the...............................................   433
Trust for Public Land, Prepared Statement of the.................   435
Tuba City Boarding School--Governing Board, Prepared Statement of 
  the............................................................   438

Udall, Senator Tom, U.S. Senator From New Mexico, Question 
  Submitted by...................................................   116
United:
    States Geological Survey Coalition, Prepared Statement of the   440
    Tribes Technical College, Prepared Statement of..............   443
Utah Water Users Association, Prepared Statement of the..........   445
Ute Mountain Ute Tribe, Prepared Statement of the................   446

Verhines, Scott A., P.E., Prepared Statement of..................   446

Western:
    Governors' Association, Prepared Statement of the............   448
    States Water Council and Native American Rights Fund, 
      Prepared Statement of the..................................   450
Wilderness:
    Land Trust, Prepared Statement of the........................   452
    Society, Prepared Statement of the...........................   454
Wildlife:
    Conservation Society, Prepared Statement of the..............   458
    Society, Prepared Statement of the...........................   461
World Wildlife Fund, Prepared Statement of the...................   464

                           SUBJECT INDEX

                              ----------                              

                       DEPARTMENT OF AGRICULTURE

                      United States Forest Service

                                                                   Page

Aircraft Received From the Coast Guard For Firefighting--Table of 
  What Work Remains to be Accomplished and the Earliest and 
  Latest Date the Aircraft Will be Available for Firefighting....   182
Airtankers 



Aviation Questions...............................................   181
Big Thorne:
    Current Schedule for the Remaining Administrative Processes 
      for the Timber Sale Project................................   152
    Information About the:
        Final Environmental Statement............................   151
        Forest Supervisor 



        Record of Decision.......................................   151
        Supplemental Information Report..........................   152
    Sale 



Budget:
    Challenges 



    Request and Focus Areas......................................   135
Building Thriving Communities....................................   136
C-130H Model Aircraft Received From the Coast Guard for 
  Firefighting...................................................   182
Challenges to Conservation.......................................   135
Collaborative Forest Landscape:
    Program......................................................   183
    Restoration..................................................   150
        Program..................................................   146
Cost Savings.....................................................   140
Current Projects--How Much Each Project Has Received to Date, and 
  Would be Expected to Receive in Fiscal Year 2015 if Funded at 
  the $40 Million Level and $60 Million Level....................   184
Farm Bill........................................................   158
Fire Suppression Cap Adjustment 



Fiscal Year:
    2009-2013 Stewardship Contracting Collections and Spending...   176
    2014 Next Generation Airtankers..............................   181
    2015 Budget 



Forest Jobs and Recreation Act...................................   158
Future Outlook...................................................   140
Key Authorities..................................................   131
Land and Water Conservation Fund.................................   160
Managing Wildland Fires..........................................   138
Next Generation Airtankers Fiscal Year 2014......................   181
Percent of all Sawtimber Sold Under Stewardship Authority in 
  Fiscal Year 2013...............................................   173
Plan Revision--Tongass...........................................   157
Projects.........................................................   184
Recreation and Tourism 



Renewable Energy Resources.......................................   156
Restoring Resilient Landscapes...................................   135
Roadless Rule 


Safety and Inclusion.............................................   139
Sawtimber Sold Under Stewardship Authority in Fiscal Year 2013...   173
Secure Rural Schools.............................................   181
Stewardship Contracting..........................................   173
    Collections and Spending.....................................   176
Timber:
    Harvest......................................................   155
    Sales........................................................   149
Tongass..........................................................   166
    Plan Revision................................................   157
    Roadless Rule 



Value of the Forest Service......................................   134
Wildfire Cap Adjustment..........................................   184
Wildfire Disaster Funding Act 



Wildland Fire....................................................   140
Wildland-Urban Interface.........................................   149

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

2015 Budget......................................................    11
Alaska:
    Funding Schedules for the Eastern Interior Resource 
      Management Plan (RMP), the Bering Sea/Western Interior RMP, 
      the Central Yukon RMP, and the National Petroleum Reserve 
      in Alaska (NPR-A)..........................................    70
    Land Conveyance..............................................    74
    Volcano Observatory Funding..................................    72
Arctic:
    Outer Continental Shelf......................................    46
    Programs.....................................................    26
    Strategy.....................................................    25
Beaufort and Chukchi Leases......................................    47
Building a Landscape Level Understanding of Our Resources........    14
California Drought...............................................    31
Celebrating and Enhancing America's Great Outdoors...............    12
Climate Change...................................................    10
Contract Support Costs 



Drought..........................................................    36
Energy...........................................................     9
Engaging the Next Generation.....................................    13
Ensuring Healthy Watersheds and Sustainable, Secure Water 
  Supplies.......................................................    13
Fire Suppression and the Discretionary Budget Cap................    21
Fish Hatcheries..................................................    29
Foregone Pumping 



Funding Schedule for the Eastern Interior Resource Management 
  Plan (RMP), the Bering Sea/Western Interior RMP, the Central 
  Yukon RMP, and the National Petroleum Reserve in Alaska (NPR-A)    70
Greater Moose's Tooth--National Petroleum Reserve-Alaska.........    67
Heritage Areas...................................................    24
Hurricane Sandy Funding..........................................    41
Indian:
    Affairs......................................................     8
        Funding..................................................    45
Joint Curatorial Facility at Great Smoky Mountains National Park.    29
Katmai/Brooks Camp Bridge........................................    71
King Cove Road 



Lake Cumberland..................................................    29
Land and Water Conservation Fund 



    Projects in South Dakota.....................................    39
Landsat..........................................................    38
Landscape Level Approach.........................................     9
Legacy Well Cleanup..............................................    70
Letter From the San Joaquin River Water Authority 



Maintenance Backlog..............................................    40
Major Changes in the 2015 Request................................    14
Mandatory Proposals..............................................    20
    Bureau of Land Management Foundation.........................    21
    Centennial Initiative........................................    20
    Discontinue AML Payments to Certified States.................    21
    Federal Land Transaction Facilitation Act....................    21
    Federal Migratory Bird Hunting and Conservation Stamps.......    21
    Federal Oil and Gas Reforms..................................    20
    Geothermal Energy Receipts...................................    21
    Land and Water Conservation Fund.............................    20
    Palau Compact................................................    20
    Payments in Lieu of Taxes....................................    20
    Reclamation of Abandoned Hardrock Mines......................    21
    Recreation Fee Program.......................................    21
    Reform Hardrock Mining on Federal Lands......................    21
    Return Coal Abandoned Mine Land Reclamation Fees to Historic 
      Levels.....................................................    21
National Park:
    Centennial 



    Service Centennial...........................................    49
        Initiative...............................................    70
National Petroleum Reserve in Alaska Land Planning/Other Land 
  Plan
  Costs..........................................................    69
Offsetting Collections and Fees..................................    22
Oil and Gas Development on Public Lands..........................    67
Opportunity, Growth, and Security Initiative.....................     9
Oregon:
    And California Grant Lands...................................    26
    Mountains-Desert Peaks National Monument.....................    36
Payments in Lieu of Taxes........................................    36
Pilot Offices....................................................    37
Powering Our Future..............................................    13
Projected Operations Beginning March 26 Through April 9, 2014 



Red Devil Mine/Native Land Contamination.........................    72
Reimbursing States During Shutdown...............................    30
San Joaquin River Water Authority Letter Regarding Request for 
  Emergency Relief Due to Impending Storm Events 



Science..........................................................     9
Sequestration....................................................    36
Site Contamination at Transferred Lands 



Strengthening Tribal Nations.....................................    12
Upcoming Storms Commencing March 23, 2014 



Water............................................................    10
    Pumping......................................................    31
White-nose Syndrome..............................................    75
Wildfire Cap Adjustment Emergency Proposal.......................    64
Wildland Fire....................................................     7
    Cap Adjustment 



Youth 



    And Veteran Programs.........................................    48

                    ENVIRONMENTAL PROTECTION AGENCY

Abandoned Uranium Mines Settlement...............................    94
Aerial Over Flights..............................................    99
Agricultural Community...........................................   103
Beach Act Grant Program..........................................   106
Carbon Pollution Standards for New Power Plants..................   103
Clean Water Act..................................................   107
    Rulemaking on Power Plant Water Intake Structures............   120
Climate Change...................................................    99
Cutting the Workforce............................................   111
Discharges from Offshore Fish Processors.........................   118
E-Enterprise Initiative..........................................   112
EPA Furloughs--Payroll Discrepancies.............................   112
Forest Roads.....................................................    93
Greenhouse Gas New Source Performance Standards (NSPS)--New Units   117
Hydraulic Fracturing and Drinking Water..........................   109
Inspector General (IG) Report Concerning EPA Credit Card Abuse...   121
Lake Champlain Geographic Program................................    91
Maps of Streams and Wetlands.....................................   108
National:
    Pollutant Discharge Elimination System General Permit for 
      Geotechnical Discharges/Arctic Oil and Gas Development.....   119
    Resilience Task Force........................................    92
Pebble Mine......................................................    96
Pesticide Registration Improvement Act 1, 2, and 3--Total Number 
  of Actions Completed and the Number of Those Actions Completed 
  Late...........................................................   123
Radon............................................................   116
    Program......................................................   106
Renewable Fuel Standards.........................................   105
Small Remote Incinerators........................................   117
Southern New England Estuaries...................................   105
State Revolving Fund.............................................    98
    Funds........................................................    93
Waste Isolation Pilot Project....................................    95
Waters of the United States......................................   100

                                   [all]
                                   
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
